<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 112TH CONGRESS</title>
<body><pre>[Senate Hearing 112-745]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-745
 
NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 
                             112TH CONGRESS

=======================================================================


                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

ADM SAMUEL J. LOCKLEAR III, USN; LTG THOMAS P. BOSTICK, USA; HON. FRANK 
  KENDALL III; HON. JAMES N. MILLER, JR.; HON. ERIN C. CONATON; MRS. 
  JESSICA L. WRIGHT; MRS. KATHARINA G. McFARLAND; MS. HEIDI SHYU; DR. 
KATHLEEN H. HICKS; MR. DEREK H. CHOLLET; GEN. MARK A. WELSH III, USAF; 
LT.GEN. JOHN F. KELLY, USMC; LTG FRANK J. GRASS, ARNG; AND GEN. JOSEPH 
                         F. DUNFORD, JR., USMC

                               ----------                              

       FEBRUARY 9; MARCH 29; APRIL 26; JULY 19; NOVEMBER 15, 2012

                               ----------                              

         Printed for the use of the Committee on Armed Services



NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 
                             112TH CONGRESS


                                                        S. Hrg. 112-745

NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 
                             112TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

ADM SAMUEL J. LOCKLEAR III, USN; LTG THOMAS P. BOSTICK, USA; HON. FRANK 
  KENDALL III; HON. JAMES N. MILLER, JR.; HON. ERIN C. CONATON; MRS. 
  JESSICA L. WRIGHT; MRS. KATHARINA G. McFARLAND; MS. HEIDI SHYU; DR. 
KATHLEEN H. HICKS; MR. DEREK H. CHOLLET; GEN. MARK A. WELSH III, USAF; 
LT.GEN. JOHN F. KELLY, USMC; LTG FRANK J. GRASS, ARNG; AND GEN. JOSEPH 
                         F. DUNFORD, JR., USMC

                               __________

       FEBRUARY 9; MARCH 29; APRIL 26; JULY 19; NOVEMBER 15, 2012

                               __________

         Printed for the use of the Committee on Armed Services






        Available via the World Wide Web: http://www.fdsys.gov/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
80-073                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

                 Ann E. Sauer, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                            february 9, 2012

Nominations of ADM Samuel J. Locklear III, USN, for Reappointment 
  to the Grade of Admiral and to be Commander, U.S. Pacific 
  Command; and LTG Thomas P. Bostick, USA, for Reappointment to 
  the Grade of Lieutenant General and to be Chief of Engineers/
  Commanding General, U.S. Army Corps of Engineers...............     1

Statements of:

Locklear, ADM Samuel J., III, USN, for Reappointment to the Grade 
  of Admiral and to be Commander, U.S. Pacific Command...........     4
Bostick, LTG Thomas P., USA, for Reappointment to the Grade of 
  Lieutenant General and to be Chief of Engineers/Commanding 
  General, U.S. Army Corps of Engineers..........................     4

                             march 29, 2012

Nominations of Hon. Frank Kendall III to be Under Secretary of 
  Defense for Acquisition, Technology, and Logistics; Hon. James 
  N. Miller, Jr., to be Under Secretary of Defense for Policy; 
  Hon. Erin C. Conaton to be Under Secretary of Defense for 
  Personnel and Readiness; Mrs. Jessica L. Wright to be Assistant 
  Secretary of Defense for Reserve Affairs; Mrs. Katharina G. 
  Mcfarland to be Assistant Secretary of Defense for Acquisition; 
  and Ms. Heidi Shyu to be Assistant Secretary of the Army for 
  Acquisition, Logistics, and Technology.........................   111

Statements of:

Hoyer, Hon. Steny H., U.S. Representative from the State of 
  Maryland.......................................................   116
Reed, Hon. Jack, U.S. Senator from the State of Rhode Island.....   117
Kendall, Hon. Frank, III, to be Under Secretary of Defense for 
  Acquisition, Technology, and Logistics.........................   120
Miller, Hon. James N., Jr. to be Under Secretary of Defense for 
  Policy.........................................................   121
Conaton, Hon. Erin C., to be Under Secretary of Defense for 
  Personnel and Readiness........................................   123
Wright, Mrs. Jessica L., to be Assistant Secretary of Defense for 
  Reserve Affairs................................................   124
McFarland, Mrs. Katharina G., to be Assistant Secretary of 
  Defense for Acquisition........................................   125
Shyu, Ms. Heidi, to be Assistant Secretary of the Army for 
  Acquisition, Logistics, and Technology.........................   126

                             april 26, 2012

Nominations of Dr. Kathleen H. Hicks to be Principal Deputy Under 
  Secretary of Defense for Policy; and Mr. Derek H. Chollet to be 
  Assistant Secretary of Defense for International Security 
  Affairs........................................................   319

                                  iii

Statements of:

Hicks, Dr. Kathleen H., to be Principal Deputy Under Secretary of 
  Defense for Policy.............................................   332
Chollet, Mr. Derek H., to be Assistant Secretary of Defense for 
  International Security Affairs.................................   333

                             july 19, 2012

Nominations of Gen. Mark A. Welsh III, USAF, for Reappointment to 
  the Grade of General and to be Chief of Staff, U.S. Air Force; 
  Lt.Gen. John F. Kelly, USMC, to be General and Commander, U.S. 
  Southern Command; and LTG Frank J. Grass, ARNG, to be General 
  and Chief, National Guard Bureau...............................   421

Statement of:

Welsh, Gen. Mark A., III, USAF, for Reappointment to the Grade of 
  General and to be Chief of Staff, U.S. Air Force...............   426
Kelly, Lt. Gen. John F., USMC, to be General and Commander, U.S. 
  Southern Command...............................................   427
Grass, LTG Frank J., ARNG, to be General and Chief, National 
  Guard Bureau...................................................   428

                           november 15, 2012

Nomination of Gen. Joseph F. Dunford, Jr., USMC, for 
  Reappointment to the Grade of General and to be Commander, 
  International Security Assistance Force/Commander, U.S. Forces-
  Afghanistan....................................................   573

Statement of:

Dunford, Gen. Joseph F., Jr., USMC, for Reappointment to the 
  Grade of General and to be Commander, International Security 
  Assistance Force/Commander, U.S. Forces-Afghanistan............   577

APPENDIX.........................................................   651


 NOMINATIONS OF ADM SAMUEL J. LOCKLEAR III, USN, FOR REAPPOINTMENT TO 
THE GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. PACIFIC COMMAND; AND LTG 
 THOMAS P. BOSTICK, USA, FOR REAPPOINTMENT TO THE GRADE OF LIEUTENANT 
  GENERAL AND TO BE CHIEF OF ENGINEERS/COMMANDING GENERAL, U.S. ARMY 
                           CORPS OF ENGINEERS

                              ----------                              


                       THURSDAY, FEBRUARY 9, 2012

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Webb, McCaskill, Begich, Shaheen, Blumenthal, McCain, 
Inhofe, Chambliss, Ayotte, Graham, and Vitter.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Gerald J. Leeling, counsel; 
Peter K. Levine, general counsel; Thomas K. McConnell, 
professional staff member; Jason W. Maroney, counsel; and 
Russell L. Shaffer, counsel.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Christian D. Brose, professional staff member; Lucian L. 
Niemeyer, professional staff member; Michael J. Sistak, 
research assistant; and Richard F. Walsh, minority counsel.
    Staff assistants present: Hannah I. Lloyd, Mariah K. 
McNamara, and Bradley S. Watson.
    Committee members' assistants present: Jeff Greene, 
assistant to Senator Lieberman; Nick Ikeda, assistant to 
Senator Akaka; Ann Premer, assistant to Senator Nelson; Gordon 
Peterson, assistant to Senator Webb; Maria Mahler-Haug, 
assistant to Senator McCaskill; Lindsay Kavanaugh, assistant to 
Senator Begich; Chad Kreikemeier, assistant to Senator Shaheen; 
Kathryn Parker, assistant to Senator Gillibrand; Ethan Saxon, 
assistant to Senator Blumenthal; Anthony Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum, assistant to Senator Sessions; 
Clyde Taylor IV, assistant to Senator Chambliss; Joseph Lai, 
assistant to Senator Wicker; Brad Bowman, assistant to Senator 
Ayotte; Sergio Sarkany, assistant to Senator Graham; and Joshua 
Hodges, assistant to Senator Vitter.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    This morning the committee meets to consider military 
nominations for two critical and challenging command 
assignments.
    We welcome Admiral Samuel Locklear, U.S. Navy, who is 
nominated to be Commander of the U.S. Pacific Command (PACOM), 
and Lieutenant General Tom Bostick, U.S. Army, nominated to be 
the Army's Chief of Engineers and Commanding General of the 
U.S. Army Corps of Engineers. Thank you both for your many 
years of service to our Nation, for your willingness to 
continue to serve in these positions of great responsibility.
    I would also like to welcome and thank your family members, 
some of whom are here this morning. The committee is keenly 
aware of the importance of our military families to the overall 
success and well-being of our Armed Forces, and we appreciate 
greatly their unwavering support and their many sacrifices, 
particularly during the course of long military careers. In 
this regard and as a tradition of this committee, I invite both 
of our witnesses during your opening remarks to introduce the 
family members or others who are here with you this morning.
    One of the main components of the President's recently 
announced defense strategic guidance is to rebalance force 
structure and investments toward the Asia-Pacific. The 
nomination of Admiral Locklear to be the senior-most U.S. 
military commander in the Asia-Pacific region is most timely. 
Stability and security in the Asia-Pacific is indeed in the 
United States' national interest, and we must maintain and 
support a strategy that recognizes and protects that interest 
and works with allies and partners to address regional 
challenges. These regional challenges include some of the 
following:
    The abrupt leadership change in North Korea, occasioned by 
the recent death of long-time dictator Kim Jong Il, opens new 
questions about possible future threats from a regime that has 
shown little interest in cooperating with the international 
community and little concern for the well-being of its people;
    China's continued rise as a regional and global power, 
coupled with its pursuit of military technology and capability, 
and its increasing propensity for challenging the territorial 
and maritime claims of other countries, particularly in the 
South China Sea and the East China Sea, has had an unsettling 
effect in the region and increased the prospects for 
miscalculation; and
    Other parts of the region continue to struggle with 
transnational violent extremism, insurgent groups, illegal 
narcotics, and humanitarian crises.
    These challenges, and others, underscore the need for the 
United States to remain engaged and active in this vital 
region. But as we renew our commitment to the Asia-Pacific, we 
must also look for creative and new ways of thinking about U.S. 
military presence overseas, particularly in a constrained 
budget environment. For example, realignment plans for U.S. 
forces in Korea, Okinawa, and Guam rely on the old paradigm of 
large, elaborate overseas bases to accommodate permanent force 
structure for long periods of time.
    While these plans might have fulfilled some specific needs 
and purposes when originally designed, it now appears that 
regional strategic requirements may be better served by looking 
at these realignments in the context of the needs of the 
broader Asia-Pacific and by rebalancing the U.S. military 
presence throughout the region. Senators McCain, Webb, and I 
have advocated for changes to these plans in ways that support 
the strategic goals of U.S. military posture and presence 
throughout the region while avoiding excessive and 
unsustainable costs associated with large and elaborate new 
bases.
    The current Okinawa-Guam realignment plan is unworkable, 
unrealistic, and unaffordable. Our alliance with Japan is 
important for many reasons, we need to get this right. The 
United States and Japan have recently announced that they are 
considering adjustments to the plan. It is important that there 
be adjustments and that there be changes that are jointly 
agreed upon and jointly announced and that a more viable and 
sustainable U.S. presence in Japan and on Guam results.
    Admiral, we look forward to learning more about how you 
would approach these various challenges and how the U.S. 
military can best remain present and active in this important 
region during the upcoming period of budget constraints.
    Before the committee today also is Lieutenant General 
Bostick, a career Army engineer, who has been nominated to be 
the Army's next Chief of Engineers and Commanding General of 
the Army Corps of Engineers.
    Flooding in Louisiana caused by Hurricane Katrina and the 
relentless flood waters that poured over the banks of the 
Mississippi River last year vividly dramatize the importance of 
the U.S. Army Corps of Engineers, but these high-profile events 
are by no means the only challenges that confront the Army 
Corps. The Army's Chief of Engineers and Commanding General is 
responsible for both military and civilian programs and the 
associated planning, engineering, construction, and maintenance 
of a wide range of infrastructure requirements.
    The responsibilities also include projects dealing with 
navigable waterways, flood control, environmental restoration, 
and disaster response. Under its broad national charter, the 
Army Corps deals with difficult and important issues in 
virtually every State in the union, including my home State of 
Michigan, which is inextricably tied to the vast navigable 
water systems of the Great Lakes. The Great Lakes shoreline is 
the Nation's largest. The system connects manufacturing 
facilities, agricultural markets of the Midwest with trading 
partners throughout the world and provides the most efficient 
means of transportation, which is vital to our economic 
competitiveness. Yet, our harbors need dredging. Some are 
threatened with closure to commercial shipping or require ships 
to lighten their loads in order to enter some of our Great 
Lakes ports.
    The Army Corps of Engineers for far too long has paid 
inadequate attention to the Great Lakes. General, we are 
interested in hearing your views on the various challenges 
facing the Army Corps and how you would, if confirmed, 
prioritize efforts to deal with those challenges. As co-chair 
with Senator Kirk of the Great Lakes Task Force, I would be 
particularly interested in your thoughts on the Great Lakes 
navigation system.
    By the way, Senator Kirk is doing well. He had surgery 
yesterday, and we are all gratified to hear yesterday afternoon 
and this morning that he is in fact recovering very well.
    It is against the backdrop of these various challenges, 
both foreign and domestic, that we again welcome both of you 
here today. We look forward to your testimony.
    Senator McCain I know is coming but he is going to be late, 
and I think we will wait for his opening remarks when he gets 
here.
    We are going to call on you, Admiral Locklear, for your 
opening statement.

STATEMENT OF ADM SAMUEL J. LOCKLEAR III, USN, FOR REAPPOINTMENT 
   TO THE GRADE OF ADMIRAL AND TO BE COMMANDER, U.S. PACIFIC 
                            COMMAND

    Admiral Locklear. Thank you, Mr. Chairman, honorable 
committee members. Good morning. Thank you for scheduling this 
hearing.
    I would like to take this opportunity to thank President 
Obama and Secretary Panetta for this nomination. I am deeply 
honored and humbled, and I do appreciate their confidence that 
they have in my ability to lead the outstanding men and women 
of PACOM.
    I would also like to thank this committee for your enduring 
support of our servicemembers and their families. They see it. 
They appreciate it as well.
    Now, I would not be here today without the love and support 
of my family. My wife of 33 years Pam, my two daughters, Jenny 
and Jillian, are here with me this morning. It gives me great 
pride and pleasure to introduce them to you. Now, these special 
women--they embody the strength and the courage of our military 
community, and they have been my inspiration to serve with 
honor and integrity for almost 4 decades. Jenny and Jill, my 
daughters, have blessed Pam and me with three grandsons who are 
well on their way to becoming fine citizens of our great Nation 
and we hope one day they will carry on our family's tradition 
of service and leadership.
    If confirmed, I look very much forward to working with the 
committee to solve our Nation's security challenges in the 
Asia-Pacific region.
    Again, thank you for this opportunity and for your support 
of our uniformed servicemembers and their families.
    Mr. Chairman, I am prepared to take your questions.
    Chairman Levin. Thank you, Admiral, very much.
    General Bostick.

 STATEMENT OF LTG THOMAS P. BOSTICK, USA, FOR REAPPOINTMENT TO 
 THE GRADE OF LIEUTENANT GENERAL AND TO BE CHIEF OF ENGINEERS/
        COMMANDING GENERAL, U.S. ARMY CORPS OF ENGINEERS

    General Bostick. Chairman Levin, Senator McCain, 
distinguished members of the Senate Armed Services Committee, I 
am honored to appear before you today in support of my 
nomination as the Chief of Engineers and Commanding General, 
U.S. Army Corps of Engineers. I thank President Obama, 
Secretary Panetta, Secretary McHugh, and General Odierno for 
the opportunity to continue serving this great Nation.
    It has been my privilege to serve our country in uniform 
for over 33 years. My wife Renee, who is here today, is a 
principal of Randolph Elementary School in Arlington Public 
Schools. Renee and I have been married for over 30 years, and 
she has managed to support our Army, our communities, her many 
different schools, 26 in total, and our family. Our son Joshua, 
who has moved with us 14 of our 19 moves, is a student at 
Stanford University and could not be here today.
    We often say that we enlist the soldier, commission an 
officer, but we retain a family. I am here today still serving 
because of Renee and Joshua, my extended family, friends, and 
our great soldiers and civilians. I deeply appreciate their 
love and support. My father was an Army master sergeant, and 
Renee's father was a Marine Corps sergeant major. We have been 
in the military our entire lives, and we are very proud and 
honored to continue serving.
    If confirmed, I look forward to working with Congress, the 
administration, the Department of Defense (DOD), as well as 
other national, State, local government, and nongovernmental 
organizations to continue executing the Corps' important 
mission of providing vital engineering services in peace and 
war to strengthen our Nation's security, energize our economy, 
and reduce the risk of disasters. The significant role of the 
Corps of Engineers was highlighted again during last year's 
flooding throughout the Nation, the enormous work related to 
base realignment and closure (BRAC) and the global 
repositioning of our Armed Forces, and during the operational 
support in Iraq, Afghanistan, and locations around the world.
    If confirmed, I will ensure the Corps works closely with 
national, State, and local leaders to address the many 
challenges ahead. I will focus on maintaining trust in the 
Corps of Engineers through consistent and clear communications 
with all stakeholders to achieve a common vision, and will 
continue developing the professional teams that must 
collaborate within and outside the Corps.
    The U.S. Army Corps of Engineers is a key member of the 
Nation's team that must collectively address complex 
engineering and changing defense requirements with the precious 
resources provided by Congress and the American people.
    I embrace the challenges ahead and, if confirmed, look 
forward to leading the Corps of Engineers.
    I look forward to your questions.
    Chairman Levin. We thank you very much, General. Again, we 
are delighted that your and the Admiral's family are with us 
here today, except those who could not be with us. We are very 
much honored to have them here just as you are honored to have 
their presence and how much their support has meant to you 
throughout your careers.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. Thank you for your 
courtesy. I was testifying at another committee meeting.
    Let me join you in welcoming Admiral Locklear and General 
Bostick and congratulating them on their nominations and in 
thanking them for their many years of distinguished service to 
our Nation.
    Before this week, the last time I saw Admiral Locklear was 
in Naples, Italy where he helped to lead the North Atlantic 
Treaty Organization (NATO) mission in Libya. Despite the 
restrictions placed on him and despite lacking the ability to 
employ the full weight of U.S. air power to defend the Libyan 
people, I must say that Admiral Locklear excelled in managing 
that complex coalition operation which ultimately succeeded in 
helping the Libyan people to liberate their country. We owe him 
our thanks for that achievement.
    If confirmed to be Commander of PACOM, Admiral Locklear, 
you will oversee the rebalancing of our defense strategy toward 
the Asia-Pacific region. This is the right mission, though talk 
of it as a pivot is misguided. For 7 decades, the United States 
has maintained a balance of power in the Asia-Pacific region 
that fosters political and economic liberty. We will continue 
to do so and that requires the sustainment of U.S. military 
power to secure our vital interests, from the defense of our 
treaty allies, to freedom of navigation through international 
waters, to the preservation of a regional order that enables 
sovereign countries to resolve their differences peacefully 
free from intimidation and coercion.
    To maintain this commitment, we need a more effective and 
sustainable military posture in the region. Our current plans 
to realign bases in Japan, Guam, and Korea are all grossly over 
budget, and Congress will not pay that bill. This committee led 
Congress in putting a pause on the entire enterprise and 
included a provision in the recently enacted National Defense 
Authorization Act (NDAA) that requires an independent 
assessment and alternative recommendations on how to proceed.
    I want to point out that the administration is free to move 
forward with a revised force posture, but this committee and 
the Pentagon must wait for the findings of our congressionally 
mandated independent assessment before authorizing funding for 
any regional posture arrangements. It is essential that the 
U.S. military maintain its active and stabilizing presence in 
the Asia-Pacific region, but we need to get these important 
decisions right. Frankly, the Pentagon does not have a good 
record on this issue as the costs have escalated from around $6 
billion to at least $16 billion.
    At the same time, for our prioritization of the Asia-
Pacific region to be meaningful, we must avoid catastrophic 
cuts to our defense budget, especially sequestration. It 
should, therefore, be of concern to us all that the Navy 
remains short of its goal of 313 ships. That goal will be 
impeded further by the administration's recently announced plan 
to retire seven cruisers earlier than planned, to retire two 
major amphibious lift ships needed by the Marine Corps, and to 
delay buying one large-deck amphibious ship, one Virginia-class 
attack submarine, two littoral combat ships, and eight high-
speed transport vessels. It is well and good to maintain 11 
aircraft carriers, but cuts to our naval capabilities such as 
these, without a plan to compensate for them, only put our 
goals in the Asia-Pacific region at greater risk.
    General Bostick comes before this committee with a long 
record of distinguished service, 33 years, and carries forward 
his family's proud legacy of military service to our country. 
General Bostick, if confirmed, you will be responsible for the 
performance of 38,000 civilians and soldiers who provide 
engineering services to more than 90 countries worldwide. We 
look to the Corps of Engineers to provide vital engineering 
services in peace and war, to strengthen our security, energize 
our economy, and reduce the risks from disasters. In other 
words, this is a critical post.
    At a time when our Government faces daunting fiscal 
challenges, we will have to make tough decisions about 
investments in our critical infrastructure. In a prior 
Congress, then-Senator Russ Feingold and I repeatedly attempted 
to put in place a procedure for the Army Corps to provide to 
Congress clear, objective analysis of national priorities for 
our water infrastructure projects. Unfortunately, many Members 
of Congress would rather maintain the current system of 
selecting projects based on seniority and the individual 
Member's influence over the committee process. I believe this 
earmarking of Army Corps projects puts lives at risk. We must 
be informed by the capable expertise and objective analysis of 
the Corps of Engineers, and we will continue to work to ensure 
these priorities are provided to Congress in order to ensure 
that taxpayer funds are spent wisely, efficiently, and 
effectively.
    I thank and congratulate both of our witnesses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Let us try a 7-minute round for questions. We have a lot of 
Senators here, and we can have a second round.
    Admiral, yesterday's announcement describing negotiations 
between the United States and Japan is welcome news because it 
demonstrates a willingness to address issues about the level of 
our troop presence on Okinawa without conditioning the movement 
of marines off of Okinawa to progress on the Futenma 
replacement facility. However, the new thinking is not yet 
going far enough. For instance, there appears to be no 
intention of reconsidering yet the plan to build the Futenma 
replacement facility at Camp Schwab on Okinawa, nor does there 
appear that the Air Force bases in the region are being 
considered as part of the solution.
    We want to make it clear that the requirements in the 
statute that are contained in the fiscal year 2012 defense 
authorization bill must still be met before any funds, 
including funds provided by the Government of Japan, may be 
obligated or expended to implement realignment.
    Some of the requirements are the following: submission by 
the Commandant of the Marine Corps, in consultation with the 
PACOM Commander of his preferred force laydown; a master plan 
for the construction of the facilities and infrastructure 
necessary to implement the Commandant's preferred force 
laydown; a plan coordinated by all pertinent Federal agencies 
detailing how the Federal Government will satisfy the off-post 
requirements associated with the buildup on Guam; and the 
Secretary of Defense submits an independent assessment of the 
U.S. force posture in East Asia and the Pacific region as 
detailed in our NDAA.
    Admiral, first, are you familiar with these requirements, 
and if so, will you make sure that those requirements are met 
before there is any obligation of funds for those purposes?
    Admiral Locklear. Mr. Chairman, I have reviewed the 
concerns of the committee, the various communications that have 
been presented to the leadership of DOD. I am aware of the 
release of the communique that discusses the ongoing 
discussions between the Government of Japan and the potential 
that may come out of those.
    I am prepared to support the leadership of DOD, if I am 
confirmed, to give them my best military advice as they go 
forward with this process.
    Chairman Levin. All right. To the extent that you are not 
yet familiar with our statute's requirements, including for 
that independent assessment before funds are obligated or 
expended to implement the realignment which we discussed, will 
you do so and will you abide by them?
    Admiral Locklear. I will abide by them.
    Chairman Levin. Thank you.
    As I alluded to in my opening remarks, much of the interest 
in China's continued rise as a global power involves its 
pursuit of military technology and capability and what that 
means in terms of regional stability.
    Admiral, give us your assessment, if you would, of the 
situation in the South China Sea, particularly with respect to 
the competing maritime and territorial claims of the countries 
bordering that area?
    Admiral Locklear. Mr. Chairman, as I understand it, there 
are competing claims in the South China Sea between many 
competing interests in that area, in particular between the 
Chinese and a number of our allies and our partners in that 
region. My impression is that we need to ensure that we move 
forward with a security environment that allows those 
determinations to be realized through proper rule of law, 
proper international law, and that they do that in a 
multilateral fashion following the norms of international law 
based on the territorial land masses that then relate into 
maritime claims.
    Chairman Levin. Thank you, Admiral.
    Can you tell us whether you support the United States 
joining the United Nations (U.N.) Treaty on the Law of the Sea?
    Admiral Locklear. Mr. Chairman, I do support the United 
States joining the U.N. Convention on the Law of the Sea.
    Chairman Levin. Why is that?
    Admiral Locklear. It has been my observation as a naval 
officer for many years that as this subject has been debated 
that having this tool, us being a member of this important 
United Nations initiative, will provide a better framework 
globally for us as there are competing interests globally 
particularly as economic zones are discussed, as we start 
looking at resources that are on the sea bed. It allows us a 
better mechanism to be able to have a legal discussion that 
prevents us from having miscalculated events. It overall 
provides us a framework for better future security.
    Chairman Levin. Thank you.
    General, let me ask you now about some of the Corps of 
Engineers' expenditures and how they are determined.
    One of the issues which strikes me as a Great Lakes Senator 
is that the maintenance of our Great Lakes navigational system 
is funded entirely through the Harbor Maintenance Trust Fund, 
which is financed through fees which are charged on the value 
of shipments that arrive at these federally maintained ports. 
In contrast, only a portion of other waterway systems are 
maintained through user fees and other systems get general fund 
contributions.
    Will you, first of all, explain to us why it is that we 
have fees supporting our harbors in the Great Lakes but other 
activities are supplemented by general funds for other harbors 
and other waterway systems? Why is that the case, if you know?
    General Bostick. Mr. Chairman, I do not have the history on 
why the funds were set up in that fashion. I do know that the 
Harbor Maintenance Trust Fund contains about $6 billion and 
collects about $1.5 billion each year, and the Corps of 
Engineers plans about $750 million of construction and 
maintenance using those funds annually.
    We have a lot of work to do, and if confirmed, I am 
committed to working with the Corps, Congress, and the 
administration to ensure we do the best with the monies that we 
are provided.
    Chairman Levin. Just to follow up on that question, we feel 
that we have been short-changed in the Great Lakes for a long 
time even though we have the longest shoreline of any of the 
areas of our country. Will you review, when you are confirmed, 
the benefits of various navigational systems, including the 
Great Lakes, compared to the budget which is allocated to those 
systems and tell us whether or not in your judgment, after you 
are confirmed, there is a fair relationship between the 
benefits that are received by those various systems or 
allocated to those various systems and how those benefits 
compare to the financial expenditures which the Corps makes? 
Will you make that assessment after you are confirmed?
    General Bostick. Mr. Chairman, you have my commitment that 
I will make that assessment. I will visit the Great Lakes and I 
will make sure that I understand how the performance-based 
budgeting priorities are set by the Corps and how that takes 
into consideration both the large systems such as the 
Mississippi and the smaller systems. In the Great Lakes, it is 
not a complete system in terms of how it is considered. I will 
take a look at that, if confirmed.
    Chairman Levin. We thank you very much, General.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Again, I thank the witnesses.
    Admiral, the plans the administration has announced to 
retire seven cruisers earlier than planned, retire two major 
amphibious lift ships, delay buying one large-deck amphibious 
ship, one Virginia-class attack submarine, two littoral combat 
ships, and eight high-speed transport vessels--does this 
increase our risks in the Asia-Pacific region?
    Admiral Locklear. Senator, I would say that any number of 
ships less than what we state is the requirement does require 
combatant commanders and, if confirmed, will require me to 
manage those risks. It is always difficult, particularly from a 
Navy perspective, for us to see those type of decisions that 
have been made and will ultimately be made in budget decisions. 
But we will have to manage with the resources that the American 
people give us, that you authorize us. If I am confirmed, I 
will have to be frank with you about the decisions that are 
made because of the resources available and the risk that 
requires me to assume.
    Senator McCain. We will look forward to that because I 
understand flexibility and I understand a lot of the arguments 
the administration is making, but as you well know, presence is 
something that can only be achieved by numbers. The goal of 313 
ships is obviously not going to be met.
    I just want to repeat what the chairman said. We have 
looked at this issue of Okinawa and Guam and the basing issue. 
Senator Webb has been heavily involved in it. We did come to 
the conclusion that we needed an outside look at it, and we did 
not come to that conclusion just because it was an idea we had. 
We came to that conclusion because we have seen the costs go up 
from $6 billion to $16 billion or more, and there was not a 
coherent plan. We continue to get visits from Japanese members 
of the Diet saying, ``what are we going to do?'' We really 
believed that an outside look was important. It will not take a 
long period of time. But I would like for you to participate in 
helping conduct that study and provide the assessment team that 
they need. Can I have that commitment from you, Admiral?
    Admiral Locklear. You have my commitment, sir.
    Senator McCain. Thank you.
    General, the omnibus appropriations bill for fiscal year 
2012 included a slush fund totaling $507 million for the Corps 
to spend on various construction, maintenance, and other 
projects that were not included in the President's budget. The 
funds were financed by reducing money for projects included in 
the President's budget request and adding $375 million to the 
Army Corps of Engineers' budget. The funds added by the 
appropriators were not a part of the text of the omnibus bill 
but were listed in a joint report that accompanies the spending 
bill, which is the new way for Congress to circumvent the 
earmark moratorium. As such, they should not have the force of 
law.
    Despite a crushing budget deficit and significant 
reductions to Government spending, including over $20 billion 
less for DOD, the appropriators actually added more to the 
Corps budget than the administration had requested.
    I note in your written answers to questions posed by the 
committee that you recognize in a constrained Federal budget 
that, ``with an aging population, therefore more entitlement 
spending, we can expect less to be available for discretionary 
programs. The Corps will have to prioritize projects and 
programs with rigorous analysis to ensure the greatest value 
for taxpayer funds.''
    If confirmed, will you spend these excess funds that were 
not requested by the President, General?
    General Bostick. Senator, the Corps executes projects that 
are authorized and appropriated by Congress. We do not make a 
decision in terms of whether we expend those funds or not, but 
if authorized and appropriated by Congress, then we will 
execute the mission to the greatest degree possible.
    Senator McCain. So you believe that the joint report that 
accompanies a spending bill has the force of law?
    General Bostick. Sir, I have not been privy to the joint 
report. If confirmed, I am willing to go back and take a look 
at that in detail. What I can say is we would execute what is 
authorized and appropriated by Congress.
    Senator McCain. General, I am going to need your assessment 
on that before I move that the committee move forward with your 
nomination. I think it is outrageous that the appropriators 
should put into a ``joint report'' earmarked projects that are 
not authorized or requested. I am going to have to know your 
view as to whether you are required to spend those funds or 
not. I hope that you will provide us an answer to that question 
as soon as possible. Okay?
    General Bostick. Senator, I will.
    [The information referred to follows:]

    Please see the attached documents.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCain. Admiral, how concerned are you about the 
fact that we may have a serious North Korean provocation or 
miscalculation this year?
    Admiral Locklear. Senator, I am very much concerned about 
the stability of the situation on the Korean Peninsula. It is 
in our best interests to ensure that we maintain a strong 
deterrent there. I have not had discussions with General 
Thurman yet, but if confirmed, I will, to get his immediate 
assessment.
    But we have had a transition of leadership there. Day by 
day, so far, so good. It is yet to be determined how this will 
play out in the mid- to long-term.
    There has been a shift over the last couple of decades in 
my observation of the North Koreans' ability in the military 
area. We have seen them through some provocation activity over 
the last several years using more asymmetric tactics such as 
small submarines, and certainly their proliferation of delivery 
vehicles for short-, medium-, and eventually longer-range 
ballistic missiles is a great concern.
    I am very much concerned and we should certainly stay 
vigilant, and if confirmed, I will assure you it will be one of 
my highest priorities.
    Senator McCain. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. General, relative to the question which 
Senator McCain has very properly asked you about whether you 
are required to spend certain funds, you may submit a legal 
opinion on that question, if you so desire. I just talked to 
Senator McCain as to whether that would be satisfactory and he 
indicated it would be. If that is a legal question, you may 
submit a legal opinion rather than your own personal opinion. 
We do need an answer to that question. Thank you.
    General Bostick. Mr. Chairman, I will do that.
    Chairman Levin. Thank you.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Admiral Locklear, General Bostick, thanks very much for 
your extraordinary service to our country. I think the 
President has acted wisely in nominating both of you and I look 
forward to supporting your nominations.
    Admiral Locklear, we are naturally focused, as we have been 
for quite a while, on the alignment of forces in Okinawa. But I 
want to state my own opinion and ask you for your reaction. 
Regardless of what developments occur regarding the alignment 
of our forces, it is essential that all parties in the region 
and particularly the people of Japan know that America's 
commitment to their security is strong and unbreakable. Do you 
agree with that?
    Admiral Locklear. Absolutely, sir. Our alliance with Japan 
is the cornerstone of our strategy in the Pacific, of our 
friendships, of our future in the Pacific, and if I am 
confirmed, it will remain a priority and remain the 
cornerstone.
    Senator Lieberman. Thank you for that answer. I agree with 
you. This is another classic case of how you sometimes run the 
risk of taking your best friends for granted when things are 
happening elsewhere or you are making new friends. But in fact, 
over the last decade, the United States and Japan have reached 
a number of very significant agreements to develop our 
bilateral security relationship and to share missions and 
capabilities within the alliance, including areas such as air 
and missile defense.
    I wonder if you would take just a moment to give your 
opinion on the importance of those agreements as you assume 
command of PACOM?
    Admiral Locklear. Yes, sir. Those agreements are very 
important. I am quite proud of the relationship we have with 
Japan particularly in relation to the exposure I have had to 
the area of ballistic missile defense developments and their 
participation, their partnership that will allow us to more 
rapidly move into the future with capabilities that are 
critical not only to this region but globally.
    Senator Lieberman. Let me move briefly to the South China 
Sea, which you have already been asked about and also the U.N. 
Convention on the Law of the Sea. I wanted specifically to ask 
you, because you have said you support ratification of the 
convention, to relate the convention to the competing claims 
that are now being made for various rights on and under the 
South China Sea.
    Admiral Locklear. Yes, sir. In general, my understanding is 
that we as a Nation, we as a military, we conform to the basic 
premises that are inside the Law of the Sea today. However, 
because we have not ratified it, when we approach a region such 
as the South China Sea, which has the potential for 
miscalculation, if the responsible parties here do not go 
through the normal rule of law to solve these kind of 
frictions, that if we are not a signatory, to some degree it 
lessens our credibility as we try to help them work through 
this. This is not only in the South China Sea but I think it 
will become increasingly important globally as people look for 
resources and competing claims in oceans around the world.
    Senator Lieberman. Okay. I appreciate that answer.
    I want to talk for a moment about the so-called ``pivot'' 
to the Asia-Pacific, which is a term I do not like because it 
suggests we have not been in the Asia-Pacific and we are going 
to turn our back presumably on the Middle East where we have 
been. We cannot turn our back on either. Of course, we have 
been in the Asia-Pacific since the end of the World War II, and 
the security that we have provided has, in my opinion, been the 
foundation or the underpinning of the extraordinary economic 
growth that has occurred there and, in some sense, the 
development of nations that we now focus on as we think about 
the security relationship or arrangements there.
    This gets specifically to China. I wanted to invite you to 
talk about your opinion about what is the current status of our 
relationship with China and where do you hope to bring it in 
your time at PACOM? In other words, is China a hostile power to 
us? Is it a competitor? Is it a partner? What is it and what do 
you hope it will be?
    Admiral Locklear. Yes, Senator. First, I fully agree that 
since World War II, our security posture in that part of the 
world has underpinned much of the progress that has been made 
not only in the military area but in all areas of progress with 
our allies, our partners, and in some ways, China.
    Today I would say that our partnership with China, which we 
should have a partnership--and we do in many, many areas, not 
just militarily--I would categorize as cooperative but 
competitive. We are an Asian power. We are a Pacific power. We 
are a global power. We have interest in that part of the world. 
I believe that the Chinese and other people in that part of the 
world need to recognize that we do have U.S. national interests 
there and we have the interests of strong allies there. I would 
call it cooperative but competitive.
    In the area of military-to-military, which I think is 
important that we continue to pursue productive military-to-
military relationships between our military and the Chinese 
military. That is so we can gain greater clarity and greater 
transparency as the world evolves, as the region evolves. If I 
am confirmed, it will be my plan to, in every way possible, 
improve our military-to-military relationships with a 
recognition that there are things we will not agree on. That 
greater transparency is for the good of all of us to avoid 
miscalculation. But in the end, the objective is a secure, 
stable environment that allows our allies, our partners, and 
China, which should be a partner, to have the best security 
environment to allow us to grow economically, socially together 
into a better world.
    Senator Lieberman. Thanks again for that answer.
    Incidentally, when I talk about the American security 
presence in the Asia-Pacific region underpinning the economic 
growth that has occurred there in the last several decades, it 
is important to state also that we have benefitted tremendously 
from that economic growth. Do not hold me to it, but I believe 
I saw a number just recently that said that $1.2 trillion of 
American commerce travels through the South China Sea every 
year. So you get some sense of the benefit here and the 
extraordinary impact it has on our economy and on jobs here as 
well.
    My time is up. I thank you very much, and I look forward to 
working with both of you in the time ahead.
    Chairman Levin. Thank you very much, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, let me thank both of you for the personal 
time you gave me, and we had a chance to go over almost 
everything that I would ask you today except for one thing, 
which I will get to in just a moment.
    General Bostick, the Army Corps has done a pretty good job 
on the 404 permits under the Clean Water Act. I would ask you 
if you would continue to try to expedite those permits as well 
as you can.
    General Bostick. Senator, if confirmed, I will certainly 
look at the permits that are associated with the Clean Water 
Act and ensure that the Corps works as effectively and 
efficiently as possible.
    Senator Inhofe. That is good.
    Also, Senator Levin talked about the Great Lakes and we 
have talked about all these waterways. Will you not forget the 
Nation's most inland waterway that goes into Oklahoma, the 
Kerr-McClellan waterway?
    General Bostick. Senator, as we have discussed, once 
confirmed, I will make a trip out there and make sure that I 
understand the issues surrounding that particular project.
    Senator Inhofe. I would appreciate that. I am not asking 
for that commitment, but I would like to have you become 
familiar with that.
    Right now we are considering the reauthorization of the 
highway bill. It comes from part of that. At least the highway 
title comes in my committee where I am the ranking member 
[Senate Committee on Environment and Public Works]. But we also 
have jurisdiction over the Water Resources Development Act 
(WRDA). Do you have any idea when we might get something from 
the administration on a WRDA bill?
    General Bostick. Senator, I do not have any knowledge of 
when a WRDA bill might come out.
    Senator Inhofe. We can talk about that later.
    Now, Admiral Locklear, I enjoyed very much meeting your 
beautiful wife and 2 beautiful daughters, and if you guys are 
going to reach my number of 20 grandchildren, you are going to 
have to get very busy, as we discussed.
    First of all, I understand the way this goes. You were 
nominated by the President. You are going to have to assume the 
President, who is the Commander in Chief--his line. This always 
happens. It has happened ever since I have been on here. I do 
not know where you really are personally and I do not want to 
know. I do not want you to answer.
    But as far as the Law of the Sea Treaty is concerned, there 
are a lot of us against it. I have been fighting that since the 
Reagan administration. It has not really changed any. To have 
the United Nations pay an international body, which sometimes 
they deny it, but it is the United Nations, gets royalties from 
offshore drilling, a body that we would have 1 vote out of 160 
and distribute funds as it sees fit to the Nations it chooses. 
I often wonder whatever happened to sovereignty. I can tell you 
right now the idea of handing over our offshore technology to 
other countries, any country who wants it, I think is 
unreasonable. There is going to be opposition to that.
    Now, having said that, let me get to a friendlier issue 
here.
    I remember so well back in 1998--that was during the 
Clinton administration--when they were talking about the 
capability, at that time, of North Korea in terms of when they 
would have something that would be a threat to the United 
States. I remember at that time General Shelton was in charge, 
and I wrote a letter to President Clinton and to General 
Shelton. How long would it be until the North Koreans have the 
capability of a multiple stage rocket that they would be able 
to use against the United States? The answer at that time was--
we had two letters. One said 3 years; the other said 5 years. 
Seven days later on August 31, 1998, they fired one. It was a 
three-stage rocket. Only two of them worked, but nonetheless, 
that happened.
    I could take a long time and talk about how we have guessed 
it wrong with them over a long period of time.
    How confident are you in the intelligence that we are 
getting right now, considering that all of a sudden there is a 
wake-up call and the American people realize there is a threat 
out there? How confident are you with our intel into North 
Korea in terms of their capabilities?
    Admiral Locklear. Senator, again, I will consult, if I am 
confirmed, with General Thurman about this important issue. I 
believe I understand that he has and his predecessors have said 
for some time that there is a need for more intelligence and 
surveillance assets to be able to understand and to shape what 
may be the future on that critical part of the Asia-Pacific.
    As far as the Intelligence Community, my sense is that we 
have a better understanding than we probably did in 1998 of 
their emerging capabilities. But it is a very closed society 
and it is one that we need to work very carefully with, and I 
will do that, if I am confirmed, with all of the intelligence 
agencies that can bring capabilities to bear to help me 
understand so that I can help you understand where the 
shortfalls are.
    Senator Inhofe. Okay. Let us stay on top of that one.
    In the last minute and a half of my time here, I would like 
to renew, as I always do at these confirmation hearings, my 
four favorite programs, and we would like to get your opinion. 
Actually five. That would be the 1206, 1207, 1208 programs, 
train and equip, the State Partnership Program (SPP). More 
important than the rest of them or as important is the 
International Military Education and Training (IMET) program. 
Would you comment on each of those five programs relative to 
your support for those programs?
    Admiral Locklear. Yes, sir. The ones that were related, 
1206, 1207, 1208, and IMET, I fully support. I know that from 
my introduction thus far into what is happening in PACOM today, 
1206 is a critical aspect of our ability to help train and 
prepare our allies and partners for the counterterrorism 
operations which are critical to not only their security, but 
our security.
    I can tell you that from the job I am in now in Europe and 
Africa where I spend a lot of time visiting our U.S. 
ambassadors, the IMET program is essential from their 
perspective. It has been over my experience one of the most 
powerful tools where it allows us to bring officers and other 
leaders from these other countries into our training systems 
and to socialize with them and to bring them into our value 
system and have them understand how we operate. Critical to the 
future and I believe, for the amount of money, a great return 
on investment.
    Senator Inhofe. Yes, I do too. In your current position 
where you have the naval operations over U.S. Africa Command, 
certainly those countries down there--I am glad we are beyond 
the point where we thought we were doing a favor to these 
countries out there who are participating in this program. In 
fact, they are doing us a favor because I think we need to get 
into the record and understand--and I am sure you agree--that 
if we do not develop those relationships that are enduring 
through the IMET program, China will do it. Other countries 
will do it. I think it has been very successful not just in 
Africa. I am the ranking member on the East Asian and Pacific 
Affairs Subcommittee of the Committee on Foreign Relations. I 
am concerned about continuing that program in your new 
assignment.
    I look forward to supporting both of your nominations.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Aloha to the two outstanding leaders we have before us 
today and also to your families.
    First, I would like to thank you each for your many years 
of dedicated service to our country and what you have done 
already with our country.
    Admiral Locklear, it was nice meeting with you earlier this 
week, and I appreciated hearing your thoughts on the tremendous 
responsibilities you will assume, should you be confirmed as 
the next PACOM commander. You have shown outstanding leadership 
throughout your career, including significant time in the 
Pacific theater. I would like to congratulate you, your wife, 
and your family because your family does support you, and 
welcome also Pam and Jenny and Jillian to our hearing today.
    I also want to welcome General Bostick. As a former member 
of the Corps, I appreciate the efforts of the men and women who 
serve in this very important organization. Of course, I want to 
welcome your wife Renee and aloha to your son Joshua as well.
    Admiral Locklear, piracy is one of the problems out there. 
With the President's new strategy, the Navy will be deploying 
four ships to Singapore, I understand. The Strait of Malacca is 
one of the world's most important shipping lanes, accounting 
for a third of the world's trade and half of the petroleum 
imports of Japan, Taiwan, Korea, and China. The strait is also 
one of the world's most dangerous maritime chokepoints and a 
hot spot for transnational crime.
    My question to you, Admiral, is how do you see our forces 
working to secure this critical region?
    Admiral Locklear. Thank you, Senator. I have transited the 
Straits of Malacca on Navy ships many times in my career, and 
your assessment is exactly right. It can be an exciting 
transit. It is a critical chokepoint and it can be highly 
vulnerable to such things as piracy.
    We have seen, obviously, over the past number of years the 
impact that piracy can have in many areas of the world and that 
it is not just located off the Horn of Africa. It is actually 
spreading north and have seen it spread north into the Indian 
Ocean. We have seen some instances of it in the South China 
Sea.
    If you take a look at the rebalancing strategy, I believe 
that it starts to help us address this in a better way. First 
of all, it starts to recognize that we do have security 
interests that are not just in the north of Asia and that we 
have to be aware of. It allows us to partner with our allies 
and our partners in that region to be able to better coordinate 
together to give us better maritime domain awareness.
    You alluded to the possibility of putting some U.S. ships 
in and out of Changi in Singapore. Singapore is a tremendous 
partner with the United States and has worked very closely with 
us--as has other of our countries and allies in that region to 
be able to provide us collectively the ability to have a better 
maritime lane awareness and a better response capability for 
anti-piracy activities. I hope to see that continue and to grow 
as we move forward with a rebalancing strategy.
    Senator Akaka. Thank you very much, Admiral.
    General Bostick, there is a critical need in Hawaii and the 
U.S. Pacific territories for public infrastructure to support 
the waterborne commerce these islands rely upon to protect 
vulnerable coastal communities and to preserve unique 
environmental resources. Therefore, I am concerned by the 
Honolulu district's challenges in competing for Army Corps 
construction funds. Under current Army Corps policy, projects 
are favored that support large population bases and are not 
subject to the high construction costs.
    If confirmed, would you be willing to look into this issue 
and possibly identify a more equitable policy which addresses 
the needs of these insular areas?
    General Bostick. Senator, if confirmed, you have my 
commitment to look at that. As I understand the Corps' process 
in setting priorities, it is performance-based, and performance 
is based on a number of things. They have nine different 
business lines, including navigation, coastal restoration, risk 
management, and other areas. I will look into that with the 
Corps. I will discuss it with the Honolulu district and ensure 
that all that we do is fair and equitable and done in a cost 
efficient and effective manner.
    Senator Akaka. Thank you.
    Admiral Locklear, the U.S. relationships with Japan and 
South Korea help to form the basis for regional stability in 
the Asia-Pacific region. I know that you have touched on it in 
response to Senator Lieberman, but should you be confirmed, 
what would you like to accomplish with respect to these key 
allies?
    Admiral Locklear. First of all, if I am confirmed, I would 
like for them to understand that I realize the importance of 
our alliance and the criticality of our partnerships in that 
alliance and the importance of it to the security of the Asia-
Pacific region.
    Second of all, I would like to make sure that as we look at 
this rebalancing strategy that I can properly articulate what 
we are doing, how we are doing it, and the benefits of it as it 
relates to our alliances with those two critical allies.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you, Admiral, thank you, General, for your service 
and all that you do for us.
    Admiral Locklear, I wanted to ask what is your assessment 
of the Virginia-class submarine program, how has this Virginia-
class submarine performed, and also what sort of capability 
will the littoral combat ship provide you as PACOM Commander, 
and how important are both capabilities to our national 
security interests in the Asia-Pacific and around the world?
    Admiral Locklear. Thank you, Senator.
    The Virginia-class submarine is the backbone of our attack 
submarine force today. It provides us worldwide coverage in 
covert ways. It is a critical element of any combatant 
commander's higher-end campaigns or campaign planning, whatever 
that might be. I think it has performed well and we should all 
be very proud of the crews and the men and, at some point in 
time, the women who will serve in those submarines.
    The littoral combat ship is just now coming on-line, and 
that ship will bring to the combatant commander and, if 
confirmed, hopefully to the PACOM Commander a high-speed, very 
versatile ship that has minimum draft, which means we can get 
into more shallow areas, more littoral areas, with 
reconfigurable mission bays that allow us to more quickly 
address a variety of mission sets than perhaps other ships that 
we have built over the decades. It is an important aspect, and 
I think that they are particularly well suited to the littoral 
areas particularly around the straits and in the South China 
Sea area.
    Senator Ayotte. Thank you so much for your assessment of 
the Virginia-class submarine and littoral combat ships.
    I share your assessment of those ships and appreciate your 
sharing that with us.
    DOD has repeatedly said that strategy is driving the budget 
guidance and not just a pure numbers exercise because we have 
seen in the past where we just do a pure numbers exercise and 
we are not driven by strategy. We really put our national 
security at stake when we do that. I hope that is the case this 
time, but I am concerned about what I see as a mismatch between 
our stated national security objectives and a portion of the 
Pentagon budget proposal.
    You talked about the importance of, for example, the 
Virginia-class submarine as a backbone and a critical element 
to our national security, and also the importance of the 
littoral combat ship. You also described the importance of this 
in the Future Year Defense Plan.
    I would ask you why would the Navy postpone the acquisition 
of one Virginia-class submarine given the importance of it, 
particularly with our focus on the Asia-Pacific? Also why would 
the Navy reduce the purchase of two littoral combat ships? What 
is the strategic rationale for these reductions?
    Admiral Locklear. Senator, in my current position, I have 
not been part of the budget deliberations, and I cannot tell 
you that I know exactly what is in the President's budget as it 
will be delivered.
    But in my previous roles, I have done programming for the 
Navy and strategy development for the Navy, and we always start 
with a strategy-based approach, which is the right thing to do 
to see what it is that we would all like to have. Then we 
recognize pragmatically that the American people will only be 
able to afford so much. Then there are decisions made that 
force us to have to manage risk. If I am confirmed, I will 
assure you that I will identify to you where I think, when 
those decisions are made, that I have identified where the 
risks are unacceptable for me.
    Senator Ayotte. Thank you, Admiral. I obviously hope that 
we are not taking on additional risk as a result of these 
decisions in terms of our national security, and I hope when 
you get in the position--and I do expect you to be confirmed 
and appreciate your wonderful credentials and service--that you 
will consult back with us and provide me with a more detailed 
answer on how you think the reduction in the production of the 
Virginia-class submarine or postponement of it and the littoral 
combat ships affects our national security and what your 
assessment is of the risk of this portion of the Pentagon 
budget. I hope you could circle back with me on that.
    Admiral Locklear. If I am confirmed, I will, ma'am.
    Senator Ayotte. Thank you very much, Admiral. I appreciate 
that.
    Admiral, I certainly was pleased to see in your responses 
in the advance policy questions your testimony about the Joint 
Prisoner of War/Missing in Action (POW/MIA) Accounting Command 
(JPAC). This is, obviously, a very important issue. I recently 
had the opportunity to meet with Major General Stephen Tom, the 
Commander of JPAC, in January. The recovery operations in North 
Korea are set to resume later this year, and I applaud that 
development. Most Korean War veterans and their spouses are now 
in their 80s, and the Veterans Administration has said that 
close to 1,000 Korean War veterans who served during the 
conflict, unfortunately, leave us every day. We cannot wait any 
longer to resume this critical work.
    JPAC is identifying and recovering the remains of 80 to 90 
Americans per year. In the 2010 NDAA, it requires the Secretary 
of Defense to ensure sufficient resources are allotted to 
increase the recovery rate to 200 a year. I appreciate that 
there are many factors that will go into determining how to 
reach the goal of 200 recoveries a year. Will you commit to 
fully supporting the work of the Joint POW/MIA Accountability 
Command and doing all you can to ensure that we can meet that 
goal and, obviously, supporting General Tom in his efforts?
    Admiral Locklear. Senator, if I am confirmed, I fully 
commit to supporting that critical program.
    Senator Ayotte. Thank you. Thank you very much. I see that 
my time is up.
    I also wanted to just say to General Bostick--in Hanover, 
New Hampshire, we have the Cold Regions Research and 
Engineering Lab. The New England district and the Cold Regions 
Research Engineering Lab have done great work. Please let me 
know, as you go forward, what I can do to support their 
excellent efforts and your efforts in that regard. Thank you, 
General.
    General Bostick. If confirmed, I will. That is a positive 
movement for the Corps.
    Senator Ayotte. Thank you very much.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I certainly do not want to diminish PACOM in any way, but 
we have a lot of floods in Missouri. So I hope you will forgive 
me, Admiral, if I direct my questions during this time to 
General Bostick because his job is very important to thousands 
of Missouri families that live along our greatest rivers in 
this country.
    Let me start, General Bostick, about the Missouri River 
Recovery Program currently in the budget. Let me just start 
with this question, do you agree that the number one priority 
for the Army Corps of Engineers is flood management?
    General Bostick. Senator, I would say the number one 
priority is the protection of life and some of that will be in 
flood management. Some of it will be in other areas. But 
protection of life, safety, and risk management are the number 
one priority.
    Senator McCaskill. I am not aware of where there is a 
significant risk to life in terms of the Army Corps' 
responsibilities aside from flooding, which is obviously very 
important to my State and all of the people who live along the 
Missouri and Mississippi Rivers. Obviously, protection of 
property comes in behind protection of life.
    Maybe this is something you can explain, and if you cannot 
today, I will look forward to a follow-up. Right now in the 
Missouri River Recovery Program budget, there is $5 million for 
flood management and north of $70 million for habitat. That 
disparity in terms of the priorities of the Army Corps is like 
fingernails on a blackboard to most Missouri families, 
particularly those who live and have land along our great 
rivers. I would like you to comment on that and if you believe 
that is an appropriate disparity between flood management and 
habitat or whether you think that is out of whack because I 
guarantee you that is what most of the folks I work for think.
    General Bostick. Senator, if confirmed, I would have to 
follow up with you on the details of the flood management and 
how that varies with the habitat.
    What I will say is that the Corps has done extensive 
studies into what happened this last year with the floods, 
particularly along the Missouri River. There was a lot of 
damage that was done, and Congress appropriated $1.7 billion in 
the supplemental. I do not know how much of that will break 
down in terms of repairing the systems on the Missouri, but I 
know that the Corps is committed to repairing those as quickly 
as possible. If confirmed, I will look into the specifics of 
the issue that you brought up here today.
    Senator McCaskill. I am confident that you will be 
confirmed, and I will look forward to some time with you to 
talk about that discrepancy. I can assure you that the members 
of the Missouri delegation that represent our State here, along 
with the other Senators along the Missouri River--and by the 
way, the interesting thing along the Missouri River--I do not 
know what it is about the water of the Missouri, but almost 
every State in the Missouri River basin has one Republican and 
one Democrat representing them in the U.S. Senate. It is a very 
bipartisan group, this Missouri River Working Group, that 
Senator Blunt and I, along with Senator Conrad and Hoeven, have 
gotten started. Now, rather than working north versus south, 
which as you may know, the historic fight has been recreation 
and irrigation up north versus navigation down south. We are 
now singing Kumbaya. We have joined hands and are united for 
flood control. I think you will hit a real brick wall if there 
continues to be that kind of discrepancy in terms of the 
priority of funding going forward.
    The Birds Point levee was blown. Now we have switched over 
to the Mississippi River. It was very controversial. All of us 
opposed the blowing of Birds Point. It was at 62.5 feet before 
it was blown. So far, the Army Corps has only rebuilt it to 55 
feet. I need a commitment from you today, General, or as soon 
as you can give it to me, if you are not comfortable giving it 
today, that it will get rebuilt to 62 feet.
    General Bostick. Senator, if confirmed, you have my 
commitment that I will work with the Corps of Engineers and 
ensure that they work as quickly as possible using the funds 
appropriated by Congress to do the repairs that are necessary.
    Senator McCaskill. That is a great answer except it was not 
the answer I was looking for. I need to know from you--and I 
need to know before my vote on you--whether or not you will 
make the commitment that what the Army Corps blew up they will 
put back to the way it was before they blew it up. That will be 
one I will not be able to wait until your confirmation on. I 
need to know before your confirmation your feelings about that 
levee being built back up to the place it was before the Army 
Corps decided to blow it. That will be important to me, just so 
you know.
    [The information referred to follows:]

    Please see the attached documents.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCaskill. Finally, I want to briefly talk with 
you, General. There seems to be a sense that if we are not 
earmarking in the U.S. Senate, the Army Corps will be ill-
equipped to address the priorities of flood control and 
management along all of our great waterways in this country. 
Let us assume for purposes of this discussion--let me give you 
a hypothetical.
    If individual Members of Congress were not injecting their 
priorities within the priorities that the engineers had 
determined were the best cost-benefit analysis for all of the 
uses of the rivers and the most important in terms of 
protection of property and protection of life, would the Army 
Corps be able to prioritize the funds given to them in a way 
that would address the most urgent needs of our waterways as 
opposed to who sits on the Appropriations Committee deciding 
that their State deserved more just because they were senior 
ranking member or the chairman of the Subcommittee on Energy 
and Water Department?
    General Bostick. Senator, in my view, the Corps works for 
the American people who express their views through Congress. 
The Corps works for the National Command Authority, the 
Secretary of Defense, and the President. The Corps has to do 
that work for those two bodies under the laws that are written. 
While doing so, the Corps can prioritize projects through 
performance-based analysis, but I think each one of those 
bodies and our law have responsibilities to ensure that when 
those priorities are set by the Corps of Engineers, they fit 
within the expressed desires of the people through Congress and 
the National Command Authority.
    Senator McCaskill. Since you all make priorities based on 
performance-based measurement, on engineering studies, on 
safety and flood control and you have those priorities, would 
you not agree, General, that just because a Member happens to 
be the senior on a subcommittee of appropriations does not mean 
that their priority should substitute for a performance 
evaluation throughout the whole country?
    General Bostick. Senator, as I had stated earlier, the 
Corps can only execute what is authorized and appropriated by 
Congress. Determining which Member and whether they are senior 
or not--that is really not what the Corps is responsible to 
make decisions on. At this point, I cannot make a personal 
decision one way or the other on your question. But I can say 
that the Corps will execute what Congress authorizes and 
appropriates.
    Senator McCaskill. I think this is a delicate problem you 
face and I put you on the spot here and I apologize. I have 
done it more than once in these questions. I know that I have. 
I will continue to follow up with you.
    Just when I examine the water budgets that have been done 
around this place--my State has a lot of water. We have the two 
mightiest rivers and the confluence of those rivers. The 
management of those rivers is very important. It is as 
important as rural airports are to my friend from Alaska. But 
if our State is not fortunate enough to have a member on the 
right appropriations committee, then frankly we get to the back 
of the bus, not based on merit, not based on need, but just 
based on who is on what committee and how long they have been 
here and what party they belong to. It seems to me a very 
backwards way to prioritize the resources of managing our 
rivers in this country, and I wanted to make that point while I 
had the chance.
    Thank you both very much for your service, and thank you 
for your patience, General Bostick, and my very pointed 
questions.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Graham.
    Senator Graham. General Bostick, are you sure you want this 
job? [Laughter.]
    General Bostick. Senator, I am sure.
    Senator Graham. What Senator McCaskill is saying has a lot 
of truth to it, that we need to spend taxpayer dollars wisely 
with some kind of plan. But I have been here for about an hour 
and you have been asked about 35 specific things that people 
would like you to do before you get confirmed, which makes me 
believe that we seem to know our States better than maybe other 
people do because I do not know about this thing you blew up. 
She wants you to build it back. I assume she knows what she is 
talking about, and I would support it. Is that an earmark to 
rebuild something you blew up?
    Senator McCaskill. No. To fix what was blown up by them is 
not an earmark especially when they made a commitment to do so 
when they blew it up.
    Senator Graham. All right. The point is that we are trying 
to fix an old problem with a new way of doing business, and I 
just feel for you.
    The Panama Canal is going to be widened in 2014. Is that 
correct, General Bostick?
    General Bostick. Sir, I understand that it will be widened 
in 2014.
    Senator Graham. The ships on the sea today are going to be 
replaced by ships almost three times their size. Is that 
correct?
    General Bostick. I understand that to be true, Senator.
    Senator Graham. So if you widen the Panama Canal and these 
super cargo ships can come directly to the east coast, that 
means we have to look at our infrastructure on the east coast 
anew. Is that correct?
    General Bostick. Senator, I would say we have to look at 
our infrastructure across the country.
    Senator Graham. Do we have a plan to deal with the widening 
of the Panama Canal and how it would affect infrastructure in 
the Nation to make sure we can export our products to the 
market? Is there a national vision to deal with the changes in 
shipping? Is there an administration plan or congressional plan 
that you know of?
    General Bostick. Sir, I cannot answer whether there is or 
is not a plan.
    Senator Graham. I can tell you there is not, and that 
reflects badly on us all.
    To my colleagues, shipping as we know it is about to 
change. Earmarking is a very parochial endeavor that does not 
allow you to look beyond your local interest. But if you just 
withdraw from the game and your port like Charleston gets no 
money in the budget and you think it should be considered based 
on a merit-based system, what do you do?
    I would just say you have been beat up a lot, but I am 
going to beat up myself and my colleagues. We have absolutely 
no vision as a Nation as to how to deal with the change in 
shipping, and that is just one infrastructure change.
    I would suggest that we all sit down with this 
administration and come up with a game plan and say what does 
it mean if the ships are going to be three times the size they 
are today coming through the Panama Canal. What does it mean to 
the Mississippi River? Do you have to widen the Mississippi 
River because you are going to have more barge traffic? Can 
every port on the east coast go to 50 feet, which is the 
minimum requirement to service these ships 24/7? If every port 
cannot, who says no? If you are not lucky enough to get in the 
President's budget, what are you supposed to do? Go home to 
your people and say sorry, we just lost, cannot help you. I 
just do not think these are good responses to real problems.
    The Great Lakes. If it is the largest shoreline in the 
Nation, how do you deal with the largest shoreline in the 
Nation? How does it fit into the change in export opportunity? 
The President says he wants to double exports in the next 5 
years. Count me in. How the hell do you get your products to 
the market? What do you do when shipping changes? Does it 
affect transportation? Does it mean you have to have more roads 
for trucks?
    There is no vision in this country, and I pledge to you, 
General Bostick, not just to complain but to sit down and work 
with you to come up with a merit-based system that would allow 
Congress and the administration in a collaborative fashion to 
get ahead of what is going to be a major change in our economy. 
Rather than just talking about how bad earmarks are and how 
dirty Congress is, I want to do a little more than that. I want 
to actually bring a solution.
    If you do not like earmarking and you think it is 
corrupting--and there is a case to be made--what have you done 
to fix it? What have you done to solve the problem of a world 
changing and America being left behind?
    Have you ever been to the Shanghai port, General Bostick?
    General Bostick. Senator, I have not.
    Senator Graham. You need to go and visit our ports and see 
the difference.
    So I enjoyed talking to you. [Laughter.]
    To be continued.
    Now, the Charleston port--you are familiar with that. 
Right?
    General Bostick. Senator, I am.
    Senator Graham. They tell me it is going to take until 2024 
to get the harbor deepened to accept these new cargo ships if 
funding stays the same. Is that okay with you?
    General Bostick. Senator, I have not seen the plan, but it 
seems like an awfully long time.
    Senator Graham. You know why I think it is an awfully long 
time to go from 45 to 50 feet? It is three times longer than it 
took to build the Panama Canal itself. We built the Panama 
Canal shorter than it would take us to go from 45 to 50 feet in 
the Port of Charleston.
    We have a lot to talk about in the Port of Charleston. You 
have been great to help us get into the work plan. It is just 
not the Port of Charleston. It is the Port of Savannah. We are 
going to sit down and talk about a merit-based system, and I 
need your input and I need my colleagues to do more than 
complain about the old system. If you want merit-based 
decisions, we need to come up with a system that gets us there. 
I am willing to help anybody to get there, Republican, 
Democratic, Libertarian, vegetarian.
    Now, Admiral, are you familiar with sequestration plans of 
Congress?
    Admiral Locklear. I am generally familiar with the law and 
what it would entail.
    Senator Graham. How do you feel about it?
    Admiral Locklear. I believe the Secretary of Defense has 
properly articulated it would be devastating.
    Senator Graham. Devastating, dumb. We would be shooting 
ourselves in the head. It would be a Navy without ships, 
without sailors, brigades without bullets, air wings without 
trained pilots. Do you agree with that assessment?
    Admiral Locklear. I agree with that assessment.
    Senator Graham. Do you have any idea why we continue to 
want to go down that road? I mean, I do not. I am just asking 
you.
    Admiral Locklear. I do not have an opinion on that.
    Senator Graham. You are going to be the head of PACOM, and 
you are telling the members of this committee that if we 
execute sequestration on top of the $487 billion that we are 
already trying to cut, we will be devastating the U.S. Navy's 
capability to defend this Nation?
    Admiral Locklear. I would say it is not just the Navy but 
across all the Services.
    Senator Graham. So we would be devastating our military. 
Thank you for your candid testimony because I could not agree 
with you more.
    Now, China. That is your theater of operations, right? Is 
China engaged in a sustained effort of cyber attacks against 
this country's defense infrastructure? Is the People's 
Liberation Army engaged in cyber attacks against this country?
    Admiral Locklear. Senator, I do not have direct knowledge 
that I would share in this forum about that.
    Senator Graham. It is widely believed they are.
    Would you agree with this? This will be my last question. 
If the People's Liberation Army of China is engaged in cyber 
attacks against this country to steal our defense 
infrastructure, our trade secrets, our national security 
information, would you consider such activity, if it did occur, 
a hostile act against the United States? Would it be legitimate 
for us under the law of war to respond in kind?
    Admiral Locklear. I would only be speculating to give you a 
legal opinion at this point in time.
    Senator Graham. Forget about that. From a military 
commander's point of view, if our Nation is being attacked in a 
cyber fashion against our defense infrastructure, do you 
consider that a hostile act as a military commander?
    Admiral Locklear. Yes, sir, certainly an act against the 
best interests of our----
    Senator Graham. Can you get with me about whether or not 
you consider it a hostile act and whether or not we have the 
right to respond in kind and whether or not we should?
    Admiral Locklear. Senator, I would say certainly the 
activity is hostile. Whether it fits in the category of an 
exact hostile act, I need to give you a legal opinion on that 
because there are legalities in warfare that we would have to 
categorize that. But certainly it tends in that direction.
    Senator Graham. You can get back with me.
    [The information referred to follows:]

    Currently, the precise definition of a cyber attack is evolving. 
Over the past decade, the term computer network attack was defined in 
Joint Publication 1-02 as ``actions taken in or through the use of 
computer networks to disrupt, degrade, deny, or destroy information 
resident in computers or computer networks, or the computers and 
networks themselves.'' This definition includes a broad range of 
activities from those that cause no noticeable effect and fall far 
below a use of force, to those that cause destruction equivalent to a 
kinetic attack. Efforts are ongoing to ensure the Joint Publication's 
definition is not overly broad and properly aligns with international 
law.
    For the purposes of defining rights and responsibilities under 
international law, U.S. Cyber Command defines cyber attack ``as actions 
in cyberspace whose foreseeable results include damage or destruction 
of property or death or injury to persons. A cyber attack, defined as 
such, is a use of forces, equivalent to an `armed attack,' and may be 
responded to in self-defense.''

    Chairman Levin. Thank you, Senator Graham.
    Senator Begich.
    Senator Begich. Thank you, Mr. Chairman.
    It has actually been somewhat enlightening, this process 
and testimony so far. I want to say to both the General and 
Admiral thank you very much for your willingness to participate 
in what I am learning here. I am making a list of every demand 
that members have of you or they will not give you your 
confirmation. The problem is if you are not confirmed, those 
demands cannot happen. Maybe there is a disconnect, but also 
that is the old way, in my view, of doing business around this 
place.
    I have questions. I want you to get in the service of the 
positions that you are being nominated for because we want to 
work with you to make things happen.
    But I made this shopping list that everyone has requested 
of you or demanded of you, which I think is somewhat amazing.
    I want to just make a comment, and I hope maybe the 
chairman and we could consider something in the future, on the 
Law of the Sea because there was a comment from my good friend 
from Oklahoma earlier. We do a lot of work on issues together. 
He comes from an oil and gas State like I do. But there is a 
lot of misinformation out there on the Law of the Sea. The fact 
is there are only four countries that have not signed on: North 
Korea, Libya, Iran, and us. Now, maybe I am confused, but I do 
not think so. Those are people I do not want to hang out with. 
I think the Law of the Sea from where it affects the country 
the most, Alaska, is an important part of our long-term 
national security, national economic opportunities, and a huge 
undiscovered resource up there in a variety of ways.
    I appreciate our conversation, Admiral, regarding your 
understanding of the importance of it from a national security 
perspective, and I hope maybe we could have a further 
discussion because it is a national security issue if we are 
not part of the equation. To be frank with you, I am not real 
interested in hanging out with North Korea, Iran, and Libya in 
regards to our not signing on.
    It is more of a comment, but I think there is a lot of 
misinformation up there in regards to how the revenue streams 
would work, what our sovereignty is, and the rule of law that 
we would be able to operate under. So it is more of a comment. 
I again want to thank you for your comment in support of that.
    Admiral, let me touch on the pivot to the Asia-Pacific 
priority or at least an enhanced priority, I should say, for 
the area and for PACOM and the importance at least from my 
perspective, Alaska and Hawaii. These are strategic if we are 
upping our ante in the Asia-Pacific area. Can you give me your 
comments on the importance of these somewhat forward-basing but 
also some of the critical pieces of missile defense from 
Alaska's perspective?
    Admiral Locklear. Yes, sir, I can. I had the privilege in a 
previous command of serving as the 3rd Fleet Commander, which 
is in command of all the naval forces that are in the eastern 
Pacific. So I am quite familiar with the implications of 
Hawaii, of the west coast of the United States, the Pacific 
Northwest, as well as Alaska.
    First of all, as a mariner, you look at the globe and you 
look at it as a globe and you see the world in great circles 
not in straight lines. If you take a look at the geography of 
where you are when you are in Alaska, you really are very close 
and very significantly positioned geographically on the 
northern periphery of the PACOM area of responsibility (AOR). 
It is critical not only from a ballistic missile defense 
perspective but also for the strategic positioning of forces to 
be able to have forces that are well supported inside the 
United States but at the same time are close enough to be able 
to be relevant in a short-term, quick-reaction requirement that 
we could have if our security interests are threatened in the 
Asia-Pacific.
    I had some time on the east coast, and if you look at the 
Atlantic, it takes you about the same time to go from 
Charleston, SC, on a ship to Portsmouth, England as it does to 
go from San Diego to Hawaii. You start to see this strategic 
position of that island chain and our other island chains that 
we deal with as we move forward.
    All of these are critical to the overall rebalancing 
strategy, and I look forward, if I am confirmed, to making sure 
that is well articulated.
    Senator Begich. Thank you very much.
    The other one I would like to ask you--I know we talked a 
little bit about it. It is the Joint Pacific-Alaska Range 
Complex, which is an important training facility. It has the 
largest air space and ground domain that anyone in the country 
can train in. Can you give me your thoughts of how that may 
play into PACOM and the work you are doing?
    Admiral Locklear. Yes, sir. That range, as do all of our 
ranges, are critical to our military's ability to be ready when 
we go forward. Protection of those ranges from encroachment, 
ensuring that we are allowed to access them for the type of 
training we need and training that we do in a responsible, 
environmentally respectful way--we can do that as a military, 
but that is very important for us as we send young men and 
women forward with these very well built, very sophisticated 
systems that we need to counter the type of threats we might 
have. We have to have places where they can rehearse. Some can 
be done synthetically but the range systems are very important 
to our overall national security strategy.
    Senator Begich. Thank you very much.
    General, thank you. My late father-in-law, who passed away 
recently, was a colonel in the Corps. I hear all the stories 
and heard all the stories. I thank you for your service.
    In Alaska, we love the Corps. You have your own Alaska 
district up there because of the size. When my friend from 
Missouri talked about water, we understand water. We are not 
the State of 10,000 Lakes. We are the State of a million lakes. 
Three-quarters of the coastline of this country is Alaska, and 
we have the Arctic which the Corps is now working on which is 
an amazing part of the equation.
    Let me ask you a couple questions. One, this whole 
prioritization, which I understand how you have to dice the 
answer because if you do not have the money, you cannot do it, 
if you are not authorized. The big debate here is earmarks. 
That is why the water bill is where it is because some people 
think because we nominate projects in the water bill, it is an 
earmark. We are in this quandary of how to move that bill 
forward. But that is your authorizing bill to do your projects. 
Other than that, it is then just the presidential list. So we 
are kind of in this stalemate.
    I am very interested in what Senator Graham said in setting 
the metrics and trying to figure it out, because you have 
multiple layers. You have flood control. You have habitat. In 
my State, flood control is important to a certain extent. 
Habitat, I can tell you, is very important when 60 percent of 
the fishing industry of this country in the sense of live catch 
is from Alaska, a huge business, also a huge employer. The 
Corps plays a role in that to ensure that we have a viable 
fishing industry in this country. It is a very careful balance.
    I would be interested, because my time is limited here, to 
get your thoughts at a later time, of how you see us building 
some metrics that we can restrain ourselves but also do what is 
right for this country but also giving the input that we are 
hearing from our own constituents on needs in port development. 
For example, in my State, with the Arctic, we are going to need 
a deep water port up there. There is no question about it. If 
we are not careful, we will be in dire straights not having 
that up there for a variety of reasons. But can you just give 
me a quick comment? I know my time has expired.
    General Bostick. I agree, Senator, with many of the points 
both you and Senator Graham raised on the national priorities 
and how do we get at a national set of priorities. I think it 
is going to take governmental, nongovernmental, the 
administration, and State and local leaders working together to 
come to a consensus and a common vision on a way to move 
forward. I look forward, if confirmed, to being part of that 
team and helping to serve as a catalyst to bring our team 
together with the other teams in order to address this issue.
    Senator Begich. Thank you very much. I look forward to 
seeing you both, if possible, in Alaska. General, I will follow 
up in a written question--we have about 300 used defense sites. 
I am curious where they fit and the priorities. We can talk 
offline on that.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Begich. We may 
have a slightly different definition of coastline since we 
think we have either the longest or second longest coastline in 
the Great Lakes. But nonetheless----
    Senator Begich. We will measure it.
    Chairman Levin. You are either number one or number two.
    Senator Begich. We like to consider ourselves number one. 
Thank you, Mr. Chairman.
    Chairman Levin. In any event, thank you, Senator Begich, 
for your contribution.
    I agree with you, by the way, about the confirmation. These 
two gentlemen hopefully will be not only confirmed but promptly 
confirmed and the answers that they will be offering to 
questions for the record are, I hope, in terms of their coming 
in, will be the only thing that will be between them and 
confirmation. Not so much the substance of it, I hope, but just 
the speed with which you can get us the answers because I think 
your answers will be satisfactory and believe they will be.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    I want to pick up where both Senator Graham and Senator 
Begich left off with respect to this issue, General Bostick, of 
trying to make sure that the President's Executive Order number 
13534 issued back in 2010 does come to reality. In that 
executive order, he said we need to have a national strategy 
for doubling U.S. exports by 2015. If we do not get our act 
together at our ports, then not only are we not going to double 
our exports, we are going to have a hard time receiving imports 
with the ships that are going to be coming through the expanded 
Panama Canal at the end of 2014.
    We have been working on the deepening project at Savannah 
Harbor for 10 years. For 10 years we have been jumping through 
all of the hoops that we have to jump through, some dictated by 
the Corps, some by environmental requirements and whatnot. I am 
not saying whether all of that is necessary or not. But I know 
what is necessary, and what is necessary is getting to the end 
of the day and getting the port at Savannah--and I am very 
supportive of the port at Charleston and Jacksonville and all 
of our ports around the country--to have the capability of 
receiving those Panamax ships.
    It is going to be extremely difficult under the process 
they have now, and the reason it is going to be difficult is 
because history dictates to us that every major Corps project 
is an earmark. That is the way it has always been. We are 
having to change the process now in this post-earmark world. I 
am not sure what the answer is either.
    But Senator Graham and I have had this debate and 
conversation time and time again about how we do go forward and 
represent our respective parts of the country. In fairness to 
the ports at Mobile, and Jacksonville, and wherever, we have to 
come up with a better solution than earmarks and, at the same 
time, we have to recognize that priorities are going to have to 
be set.
    At Savannah, we are now ready. You and I have talked a 
little bit earlier today. We have a small tranche of Federal 
money that is going to be joined up with a commitment that has 
been made by our State, and a major commitment that has been 
made by our State, to hopefully begin the process at Savannah. 
We are the fastest growing container port in the Nation. Last 
year, 12.5 percent of all containers that came in the United 
States came through Savannah. If we are not ready by 2014 for 
these Panamax ships, not only is the port at Savannah going to 
suffer, but retailers throughout the whole east coast and 
manufacturers throughout the whole eastern part of the United 
States are going to suffer. It is of critical importance that 
we address this issue, General Bostick, in the short term.
    You said in response to your advance policy questions the 
Nation must be prepared to take advantage of the opportunities 
with completion of the Panama Canal in 2014. Now, as Chief of 
Engineers, what will you do to ensure that projects of national 
significance such as the Savannah Harbor project are not 
subject to unnecessary delays and are completed in the 
timeliest manner as is possible?
    General Bostick. Senator, I would agree with you and the 
other Senators that have talked about the urgency of the work 
that we have ahead of us. We do need a national strategy in a 
number of different areas, whether it is navigation, 
hydropower, economic, ecosystem revitalization, some of the 
aging infrastructure that we are dealing with. All of that 
requires priorities, and some of those priorities are going to 
be important at the national level and some will be very 
important at the local level. I believe it is important for us 
to work as a team to sort out those priorities.
    I think we have demonstrated throughout our history many 
times in the past that when we have a common vision, when we 
have all parties pulling together, when we have the funding, 
and when we change our business processes accordingly, and then 
work within the laws and regulations that bind us, that we can 
move things faster than we currently are. I am committed to 
being part of the team that moves this forward.
    Senator Chambliss. We look forward to working with you on 
this. Obviously, I think all of us are concerned about it, but 
we do not have the answers. We need the Corps to be forward-
thinking with respect to how we deal with this post-earmark 
world.
    Admiral Locklear, the F-35 program was designed to replace 
the F-16, the A-10, the F/A-18 fighter planes as a new fifth 
generation, multi-role fighter. The U.S. military's current 
top-of-the-line fighter is the F-22, the world's only fully 
operational fifth generation fighter. There have been less than 
200 F-22s produced for the Air Force, and as you and I talked 
yesterday, 40 of those are in the PACOM AOR. According to 
recent defense strategic guidance, DOD is further slowing the 
acquisition and delivery of F-35s, and this issue of budget 
reduction and the potential for sequestration makes that very 
difficult.
    Now, both China and Russia are developing fifth generation 
fighters: the J-20 and the Sukhoi PAK FA. Both these aircraft 
will be challengers and in some facets may be superior to U.S. 
fighters. There is also a strong possibility that these new 
fighters will not only be used by China and Russia but may be 
sold to other countries elsewhere in the Pacific theater. The 
J-20 and the Sukhoi PAK FA are likely to start entering service 
in significant numbers by the end of the decade, and both 
countries are capable of accelerating this acquisition 
timeframe by settling for alternative engines or a little 
lesser capability. The presence of these aircraft and our delay 
in modernizing our tactical aviation forces in the Pacific 
could possibly alter the balance of power in the PACOM region.
    Admiral, assuming you are confirmed, this will be your AOR 
and your airspace. I know that the J-20 is a new airplane and 
we have little data on it at this point in time, but it does 
concern me personally that it flew its first flight test 
earlier than expected and that the U.S. Intelligence Community 
is predicting its initial operational capability date may be at 
least 2 years earlier than originally predicted.
    What I see happening at some point in the future is that 
options the United States currently has in terms of defending 
U.S. interests and providing deterrence to U.S. allies in the 
Pacific region may not be available. When those options are no 
longer available, it will fundamentally change the balance of 
power in your AOR.
    I would appreciate your thoughts on this issue and your 
thoughts on what the United States needs to do to preserve its 
options and ability to defend U.S. interests in the region 
specifically in relation to maintaining air dominance.
    Admiral Locklear. Senator, a critical aspect of our ability 
to ensure our national interests and the interests of our 
allies and partners are well protected in this critical region 
is our ability to stay forward, just to be there. As any other 
nation or nations pursue anti-access, area denial capabilities, 
which are some of the ones you are alluding to, it is critical 
that we do a couple things. One is that we understand what they 
are doing. Two is that we keep the systems that we have already 
invested in as well prepared to address those, and I think that 
we are doing that at this point in time. Then we have to look 
longer term are we pacing the threat not only in the air domain 
but in all other domains.
    The F-22 you mentioned are critical to our ability at this 
point in time to stay forward. The F-35 will be a great 
addition to that. Certainly any slow-down of that forces the 
combatant commanders to have to take additional risk in their 
planning as we look forward. So it is important that if I am 
confirmed, that I help this committee and the leadership in DOD 
to stay focused on what we may be giving up if we do not 
proceed properly.
    Senator Chambliss. Thanks to both of you for your 
leadership and your service to our country. Thanks to your 
families for their commitment. We look forward to your 
confirmation and look forward to working with both of you.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Admiral Locklear, Lieutenant General Bostick, thank you 
both very much for being here and congratulations on your 
nominations. I share Senator Chambliss' hope that we will see 
very swift confirmations.
    Admiral Locklear, I know that you are looking forward to 
your future command in the Pacific, and we had a chance to talk 
earlier this week a little bit about that.
    But as subcommittee chair of the European Affairs 
Subcommittee on the Foreign Relations Committee, we have been 
looking with great interest towards what is going to happen at 
the NATO summit in Chicago. As you and I discussed, one of the 
potential topics for discussion will be what happened in Libya 
and the lessons learned. Given your recent post at NATO, I 
wonder if you could talk a little bit about what you think some 
of those lessons learned from the Libyan effort are.
    Admiral Locklear. First, even as we rebalance our strategy 
and we start to articulate the Asia-Pacific--our national 
interests there and our military priorities there, I think from 
my perspective it is important for us to recognize that our 
alliance in the NATO alliance is, first of all, a very strong 
alliance, a mature alliance. It is a large alliance and it has 
a lot of capability when you put it together and you put it 
together in a way where it comes together in a meaningful way.
    In the case of the Libya operation, it was the first 
opportunity for NATO to be able to accomplish an alliance 
operation of that size in a very short period of time. It was a 
matter of days when they could take the operation from a U.S.-
led coalition to a NATO-led coalition, and it is something that 
really has not been done in the history of NATO. I think it 
started to show the flexibility of that alliance.
    I think it has pointed out some areas where defense 
spending within the alliance needs to be expanded, and some of 
the areas that they found that there were shortfalls where we 
had to rely maybe too heavily on one partner or one member of 
the alliance. But I think it was also an opportunity for those 
countries--because Libya was in the back yard of the NATO 
alliance, it was important for the leadership of key countries 
to step forward and to take responsibility, and they did that. 
Overall, I think we gave the Libyan people a chance.
    Senator Shaheen. As we are recognizing that every situation 
is different, every country is different, but do you think this 
provides one of the models that we ought to be looking at in 
the future as we face other threats to NATO?
    Admiral Locklear. I am always hesitant to plan on the last 
event because it never proves right to do that. But I think it 
had elements of it that could help us forecast in the future. I 
think it does demonstrate the benefits of partners and building 
partner capacity which I think is critical to the long-term 
security of an increasingly globalized world. The more friends, 
allies, and partners that we can have that we can understand, 
that we can interoperate with, that we have systems that have 
somewhat compatibility--but there were some amazing instances 
where we had countries in the NATO alliance that, when I was 
born, would have never spoken to each other, that came together 
and were able to interoperate and to do some really, I think, 
quite significant things in the area of warfare in a very 
responsible and effective way. From that regard, it can be a 
model.
    Senator Shaheen. Thank you.
    I know that the issue of the slowing of the building of 
Virginia-class subs has been raised already, but I wonder if 
you could talk about the unique capabilities that submarines 
provide in the Pacific region both in terms of traditional 
warfare and asymmetric warfare. As I think I probably 
mentioned, I represent the Portsmouth Naval Shipyard where they 
do a lot of work on Virginia-class subs. We are following very 
closely what is going on with this issue.
    Admiral Locklear. Globally our attack submarine force 
provide basically a critical element of our defense strategy 
both from their ability to operate forward for sustained 
periods, their ability to operate somewhat covertly for 
sustained periods, and their ability to bring significant 
combat power to bear, as well as their ability to bring 
significant intelligence and reconnaissance. I think they are a 
key element of our joint force.
    Certainly in the Asia-Pacific area because of the vastness 
of the area, the tyranny of distance, the size of the oceans, 
the size of the littorals--half the people in the world live in 
the Asia-Pacific. Most of the emerging economies are there, as 
we have already heard, most of the trade, the globalization of 
trade. In the Navy, we are commonly heard to say 90 percent of 
everything that moves in the world moves in the oceans and 
through the littorals. What we do not say very often is in the 
last couple of decades that 90 percent has increased fourfold. 
It is 90 percent of four times what it was a couple decades. So 
that is an indication and we are talking about the Panama Canal 
being expanded. Being able to have an effective understanding 
of what happens in that globalized environment I think is 
critical, and our submarines are a big part of that.
    Senator Shaheen. Can you talk at all about the trajectory 
of our submarine capabilities versus Russia and China over the 
next 10 years? Do we have a sense of how we will compare?
    Admiral Locklear. We build the best submarines in the 
world.
    Senator Shaheen. I had no doubt about that.
    Are they developing any technology that may rival ours?
    Admiral Locklear. I think that what has concerned me most 
over time is the proliferation of very quiet diesel or diesel-
electric submarines and the proliferation of those around the 
world. I think today there are well over 300 of those types of 
submarines that are in the various parts of the world, some 
with friends, allies, and partners, but some places where they 
are not. The proliferation of those assets, even though they 
are locally distributed--I mean, they are not far-reaching and 
they don't leave generally the coastal areas of those 
countries--they become area denial weapons, asymmetric area 
denial weapons, which as we have seen in North Korea where they 
used a mini-sub that was able to accomplish an attack there.
    So that does concern us and it concerns us not only as it 
relates to our own submarines' ability to counter that, but 
also the rest of our technology that has to be developed, 
whether it is our airborne sensors, whether it is our surface-
borne sensors, whether it is our intelligence community to be 
able to keep track of what is happening inside these nations 
that are proliferating. Those are the things that concern me.
    Senator Shaheen. Thank you.
    I am out of time, but I wonder if I could ask Lieutenant 
General Bostick just one question. I know my colleague from New 
Hampshire, Senator Ayotte, raised the importance of the Cold 
Regions Lab up in Hanover which does such great work, so I just 
want to echo that.
    But one of the things that I have been very concerned about 
and I know that our military is also very concerned about is 
the number of engineers, science and technology professionals, 
that we are losing. By 2020, about 50 percent of them will be 
eligible for retirement. Can you talk a little bit about how 
you see being able to rebuild that science, technology, 
engineering, and mathematics (STEM) capacity within the Army? 
As you think about the challenges facing the work that you will 
be taking on in our labs and other technical areas, how are we 
going to attract the engineers and the STEM professionals that 
we need for the future?
    General Bostick. Senator, I think this is a very important 
point for the country. I sit on the advisory board up at West 
Point for the civil engineering department and for the systems 
engineering department. Even at the institution that was the 
first engineering school in the country, we have concerns about 
growing engineers.
    But it really starts at a very young level. I mentioned 
that my wife is an elementary school teacher, and each time 
during the year I try to go to speak to the youngsters about 
the importance of engineering. I think that is where it starts. 
Our education in America must focus on science, technology, 
engineering, and math in a greater degree than we may be now, 
and to galvanize that interest in the young men and women so 
that we have a population to choose from to encourage them to 
study in this important area. We are going to need STEM 
specialists in every part of the country, and the Corps of 
Engineers will be part of the team that helps develop them.
    Senator Shaheen. Thank you. I could not agree more with 
your comments, especially when it applies to early childhood 
education.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman, and thanks to both 
of you for your dedication, for your lifetime of military and 
public service. We all appreciate that.
    General Bostick, because of the enormous importance of the 
Corps to Louisiana, I will focus the conversation with you. I 
also want to thank publicly the many, many fine men and women 
in the Corps, very talented, very dedicated, and very bright.
    But I also want to focus on a problem which is that the 
Corps, as a bureaucracy, as an organization, is really broken 
in fundamental ways, is really dysfunctional in fundamental 
ways. The average Corps project that gets done takes 20 years 
to get done. It is studied for 8-plus years, and that has grown 
over time. The Corps seems to be best at studying things, and 
over time, of course, costs go up, so limited resources never 
quite keep up. It is like a dog running after its tail. Those 
issues have only gotten worse in the last decade within the 
Corps in terms of that dysfunction and those problems.
    What would be the top three specific reforms you would make 
if confirmed to fix that?
    General Bostick. Senator, first, thanks for the compliments 
about the Corps employees. I think they are hard-working, 
dedicated professionals, and I have served with them in peace 
and combat. I deployed with the 1st Calvary Division and then 
helped lead the Gulf Region Division, and I saw Corps military 
and civilian employees do things side by side with our 
soldiers, sailors, airmen, and marines. I am very proud of 
them.
    As I look at the Corps--first, I talked about trust and 
building trust and understanding each of our issues and each of 
our concerns, whether it is national, local, State, government 
or nongovernmental, is bringing the team together. I think the 
Corps' team has to come together, and I think they have a solid 
team, but making sure that the issues of all the teammates are 
understood.
    I think we have to transform the Corps in terms of our 
programs, both military and civil. The Corps is working on 
that. I think they have to be aligned to the national 
priorities of this country. I believe we have a huge issue with 
aging infrastructure. Many of our hydropower plants are over 34 
years old. The infrastructure along our levees and our dams is 
also very old and aging. Our navigation channels. We have over 
900 that we are responsible for: 250 are maintained at any 
level, and of that 59 are top priorities that 90 percent of 
commercial traffic flow against. Of those 59, they are going to 
dredge to the depths and widths that they are authorized only 
35 percent of the time. The other issue is to focus on funding 
and how do we take the precious resources that we have and 
align them to the national priorities and achieve energy goals. 
Achieving the energy goals is very important.
    Finally, I think about our business processes. Sir, I think 
you saw in Louisiana that the Corps adjusted its business 
processes in addressing the issues after Katrina. I think what 
happened there also is that the Nation had a common vision. It 
went after the post-Katrina problems with immediate funding, a 
common vision on what had to be done, and the Corps adjusted 
its business processes to make things happen. So it can be 
done, and I am convinced that it can be done, and I look 
forward to working with you on that.
    Senator Vitter. General, right after Katrina, the Corps did 
adjust in part because of extraordinary authority and funding. 
I am here to tell you that the Corps has completely adjusted 
back. That phase, unfortunately, is done and the Corps has 
completely adjusted back to pre-Katrina organizational 
responses.
    My question was about specific organizational reforms. What 
are your thoughts about your top three specific organizational 
reforms that you would implement to help fix this?
    General Bostick. First, I would look directly at the 
business processes in military programs and civil works. I 
think with BRAC and what we have seen with BRAC and what has 
happened on the military side to move BRAC 2005 along from 
design, bid, build processes to design, build has taken the 
contractor and brought them forward and moved things quickly. I 
think those lessons learned and the lessons learned in Katrina 
that allowed for the rapid funding, allowed for some of the 
accommodations of the National Environmental Policy Act, and 
allowed for the team to work together in a common vision--I 
think a business process from those two examples is what we 
need to do throughout the Corps with the agreement of Congress, 
the administration, and the American people.
    I think energy goals remain important in this day and age. 
I am going to look at the energy security and energy 
sustainment and ensure that we are meeting the requirements of 
the American people and the Nation. Finally, looking at the 
aging infrastructure, as I talked about before, and 
prioritizing that to national priorities.
    Senator Vitter. General, in the written questions that were 
submitted and answered before the hearing, one of the questions 
goes directly to this. In your view, does the Army Corps of 
Engineers need to make any changes in the way it operates, and 
if so, what changes would you recommend? Your answer was 
basically, if confirmed, you would consult with a lot of people 
and we could determine what, if any, changes are needed.
    Are you really unsure that significant changes are needed 
as you answered in your written response?
    General Bostick. I believe changes are needed, and I 
believe some of them are significant.
    Senator Vitter. Okay. So you would amend this written 
response in that regard.
    General Bostick. I have had time to think about this since 
I provided that response some time ago, and I believe that 
based on the things that we have seen and the time that I have 
been able to review this, that there are significant changes. 
Some changes require changes well outside the Corps. There are 
issues with funding. There are issues with the amount of risks 
we are willing to take, the amount of lawsuits that occur, the 
environmental requirements that are required by law. I think 
all of that has to be taken into consideration and changes in 
those areas, just as we were allowed to do post-Katrina, are 
the kind of changes I think that are necessary to move all of 
us along with a common vision.
    Senator Vitter. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Vitter.
    Just one additional question for you, Admiral, relating to 
our strong alliance with South Korea. There has been in the 
past a number of times when we said we were going to transfer 
the wartime situation that we were in, to transfer the wartime 
operational control (OPCON), from the United States to South 
Korea. That has been delayed again. It is scheduled now for 
December 2015.
    Would you agree that it is appropriate that the Republic of 
Korea assume OPCON of its own forces during time of war?
    Admiral Locklear. Mr. Chairman, I would agree and I would 
agree that the 2015 timeline appears to be moving in that 
direction from everything I have been told and that we seem to 
be on track for that. I would support staying on track for that 
transition date.
    Chairman Levin. I think it is important that we stick to 
that when we should have stuck to the earlier one, but that is 
now water over the dam. The 2015 date is now one that ought to 
be kept. I am glad to hear your answer that it is your 
intention that we keep on that track.
    Okay. We have come to the end of Senators' questions, and 
now let me ask you the standard questions which we ask of our 
nominees, which usually come before all of your other answers, 
but this time come afterward. These are the standard questions 
and you can answer together.
    First, have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Admiral Locklear. I have.
    General Bostick. I have.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    Admiral Locklear. I do.
    General Bostick. I will.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Locklear. No, sir.
    General Bostick. No, sir.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Admiral Locklear. I will.
    General Bostick. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Locklear. I will.
    General Bostick. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Admiral Locklear. They will.
    General Bostick. They will.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Admiral Locklear. I do.
    General Bostick. I do.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Admiral Locklear. I will.
    General Bostick. I do.
    Chairman Levin. We thank you. We thank again your families. 
We are delighted to see them here and know how important they 
are in your lives and in the security of this country. We look 
forward to a prompt confirmation and hope that you can get your 
answers for the record in promptly so we can proceed to vote on 
your confirmation here as soon as possible. Thank you both. 
Congratulations on your nominations.
    We will stand adjourned.
    [Whereupon, at 11:45 a.m., the committee adjourned.]

    [Prepared questions submitted to ADM Samuel J. Locklear 
III, USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions? If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. No, I do not see any need to modify the Goldwater-Nichols 
Act. If confirmed, I will continue to be alert to the need for any 
modifications.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Pacific Command (PACOM)?
    Answer. The Commander, PACOM, is responsible for deterring attacks 
against the United States and its territories, possessions, and bases, 
to protect Americans and American interests and, in the event that 
deterrence fails, to win its Nation's wars. The commander is also 
responsible for expanding security cooperation with our allies, 
partners, and friends across the Asia-Pacific region.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe my 35 years of military experience, culminating 
in command of U.S. Naval Forces Europe, U.S. Naval Forces Africa, and 
the North Atlantic Treaty Organization (NATO) Joint Force Command 
Naples, Italy have prepared me for assuming command of PACOM.
    Operationally, I have gained valuable experience and insights 
planning and leading extensive joint and coalition operations at both 
the tactical and operational levels. In my current position, I 
commanded both the U.S. and NATO-led Libya operations, Odyssey Dawn and 
Unified Protector. As Commander, U.S. Third Fleet in San Diego, CA, I 
was responsible for the training and certification of all Pacific 
rotational naval forces, for the planning and execution of the bi-
annual Rim of the Pacific (RIMPAC) multinational exercise, and served 
as the alternate Joint Maritime Component Commander for key Pacific 
Operational Plans. As the Commander of the Nimitz Carrier Strike Group, 
also in San Diego, CA, I operated throughout the PACOM and CENTCOM 
areas of responsibility (AOR) and commanded naval forces in the 
planning and execution of the initial combat phase of Operation Iraqi 
Freedom. Additionally, I was privileged to command the destroyer, USS 
Leftwich (DD984), homeported in Pearl Harbor, HI.
    Ashore, as a member of the Joint Staff, J-5, Plans and Policy 
Directorate, and three times as a flag officer assigned to the Navy 
staff, including serving as the Director of the Navy Staff, I gained 
valuable insights into the resourcing and administrative processes that 
underpin an effective Department of Defense (DOD), including a deep 
appreciation for the interagency and the importance of the whole-of-
government approach.
    Finally, Pam, my wife of 33 years, embodies today's military spouse 
and family, and is a superb representative of our U.S. Armed Forces. We 
are a great team and she adds significantly to my qualifications.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
PACOM?
    Answer. If confirmed, I intend to take every opportunity to enhance 
my knowledge of and relationships with our allies and partners across 
the Pacific. I look forward to engaging with senior leaders within DOD, 
the Department of State, regional security experts, leading think tanks 
and universities, and military and civilian leaders throughout the 
Asia-Pacific in order to improve my understanding of U.S. interests in 
the region.
                             relationships
    Question. If confirmed, what will be your relationship with:
    The Secretary of Defense.
    Answer. The Commander, PACOM, performs his duties under the 
authority, direction and control of the Secretary of Defense. He is 
directly responsible to the Secretary of Defense for the ability of the 
command to carry out its missions.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs duties as directed 
by the Secretary and performs the duties of the Secretary in his 
absence. The Commander, PACOM, ensures the Deputy has the information 
necessary to perform these duties and coordinates with him on major 
issues.
    Question. The Under Secretary of Defense for Policy.
    Answer. Under Secretaries are key advocates for combatant commands' 
requirements. The Commander, PACOM, coordinates and exchanges 
information with the Under Secretary of Defense for Policy on strategic 
and regional security issues involving the Asia-Pacific theater.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. The Commander, PACOM, coordinates and exchanges information 
with the Under Secretary of Defense for Intelligence as needed to set 
and meet the command's intelligence requirements.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman functions under the authority, direction and 
control of the National Command Authority. The Chairman transmits 
communications between the National Command Authority and the PACOM 
Commander and oversees the activities of the PACOM Commander as 
directed by the Secretary of Defense. As the principal military advisor 
to the President and the Secretary of Defense, the Chairman is a key 
conduit between the combatant commander, interagency, and Service 
Chiefs.
    The PACOM Commander keeps the Chairman informed on significant 
issues regarding the PACOM Area of Responsibility. The Commander 
communicates directly with the Chairman of the Joint Chiefs of Staff on 
a regular basis.
    Question. Commander, U.S. Central Command.
    Answer. The PACOM and U.S. Central Command (CENTCOM) share a border 
between their respective AORs. The Commander, PACOM, maintains a close 
relationship and communicates directly with the Commander, CENTCOM, on 
issues of mutual interest that affect both of their AORs so that 
respective strategies, policies and operations are coordinated and 
mutually supportive. India-Pakistan issues have heightened the 
importance of close cross-combatant command coordination.
    Question. Commander, U.S. Special Operations Command.
    Answer. As a subordinate unified command of PACOM, Special 
Operations Command Pacific and its component units deploy throughout 
the Pacific, supporting Commander, PACOM's Theater Security Cooperation 
Program, deliberate plans, and real world contingencies. The Commander, 
PACOM, maintains a close relationship and communicates directly with 
the Commander, U.S. Special Operations Command on issues of mutual 
interest. PACOM coordinates requirements and operations of Special 
Operations Forces within the PACOM AOR through Commander, Special 
Operations Command, Pacific.
    Question. The other combatant commanders.
    Answer. Commander, PACOM, shares borders with and maintains close 
relationships with the other combatant commanders. These relationships 
are critical to the execution of our National Military Strategy and are 
characterized by mutual support, frequent contact, and productive 
exchanges of information on key issues.
    Question. The Service Secretaries.
    Answer. The Service Secretaries are responsible for the 
administration and support of forces assigned to combatant commands. 
The Commander, PACOM, coordinates with the Secretaries to ensure that 
requirements to organize, train, and equip PACOM forces are met.
    Question. The Service Chiefs.
    Answer. The Commander, PACOM, communicates and exchanges 
information with the Service Chiefs to support their responsibility for 
organizing, training, and equipping forces. Successful execution of 
PACOM's mission responsibilities requires coordination with the Service 
Chiefs. Like the Chairman, the Service Chiefs are valuable sources of 
judgment and advice for the combatant commanders.
    Question. Commander United Nations/Combined Forces Command/U.S. 
Forces Korea.
    Answer. As a subordinate unified commander, the Commander, U.S. 
Forces Korea receives missions and functions from Commander, PACOM. I 
recognize his role as Commander, Combined Forces Command and will fully 
support his actions in that sensitive and demanding role.
    Question. The Deputy Assistant Secretary of Defense for Prisoner of 
War (POW)/Missing in Action (MIA) Personnel.
    Answer. The Commander, PACOM, coordinates and exchanges information 
with the Deputy Assistant Secretary of Defense for POW/Missing 
Personnel Affairs on strategic policy issues involving the POW/MIA 
accounting mission worldwide and Personnel Recovery requirements in the 
Asia-Pacific Region.
    Question. The Chief of Naval Research.
    Answer. The Office of Naval Research is a valuable source for 
technologies that help the Commander, PACOM, counter developing threats 
in the Asia-Pacific region. If confirmed, I will maintain a close 
relationship with the Chief of Naval Research as well as the other 
service research organizations and national laboratories to ensure the 
requirements for developing technologies for PACOM are understood.
                       challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next Commander of PACOM?
    Answer. As our Nation globally rebalances toward the Asia-Pacific 
region, I will focus on three main challenges in the PACOM AOR. First, 
North Korea's conventional military, weapons of mass destruction (WMD) 
and proliferation activities coupled with the ongoing Kim regime 
transition create threats to regional security and stability. Second, 
the stability, security and prosperity of the Asia-Pacific will depend 
on strong relationships with our Asia-Pacific treaty allies and 
partners to ensure that we are able to maintain regional access to and 
use of the global commons. Finally, China's rise as a regional and 
global power, including its substantial military modernization and 
buildup, is a source of strategic uncertainty and potential friction. 
The China/U.S. relationship has been an area of in-depth study and 
analysis by the current Commander and Staff of PACOM. I look forward to 
closely reading and broadening my understanding of this very dynamic 
relationship that cuts across all facets of our Government.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. PACOM will support the administration's whole-of-government 
approaches to achieve a peaceful, secure and prosperous future security 
environment on the Korean Peninsula. Our forward military presence 
reassures our treaty allies and deters aggression by North Korea. While 
the ongoing leadership transition creates a period of uncertainty, it 
may also present opportunities for the Peninsula to advance to a 
greater level of stability and security.
    We will continue our commitments to modernizing and strengthening 
our treaty alliances and partnerships in the region. These critical 
relationships will be enhanced by maintaining interoperable military 
capabilities that deter regional aggression and build partner security 
capacity.
    We will remain steadfast in our efforts to mature the military-to-
military relationship with China. Both China and the United States have 
a strong stake in the peace and stability of the Asia-Pacific region. 
Building a cooperative bilateral relationship will reduce the 
likelihood of a miscalculation, increase the clarity of Chinese 
strategic intentions and encourage mutual engagement in areas of common 
concern.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed?
    Answer. My first priority will be to continue to maintain a 
credible deterrent posture and reassuring military presence in the 
Asia-Pacific.
    Next, we must both deter North Korean aggression and counter their 
proliferation activities. To do so we will work through DOD to 
collaborate with other elements of U.S. Government and our allies to 
maintain peace on the Peninsula and dissuade North Korea from actively 
pursuing a nuclear weapons program. With regard to China, actively 
pursuing steady and measured military-to-military engagement will be 
one of my top priorities.
    Lastly, while supporting our Nation's strategic focus on the Asia-
Pacific and sustaining the realignment and transformation processes 
already underway, we must also carefully shepherd and repeatedly assess 
progress toward desired force posture, ensuring we remain cognizant of 
evolving budgetary realities. These efforts will receive my prioritized 
attention as we work to build on and strengthen bilateral relationships 
with our regional allies and partners.
           defense strategic guidance and pacom force posture
    Question. The Defense Strategic Guidance, ``Sustaining U.S. Global 
Leadership: Priorities for the 21st Century Defense'', announced by 
President Obama on January 5, 2012, includes, among other things, the 
intention of the administration and the Pentagon to ``rebalance toward 
the Asia-Pacific region''. In his associated remarks, Secretary Panetta 
explained that the ``U.S. military will increase its institutional 
weight and focus on enhanced presence, power projection, and deterrence 
in Asia-Pacific.'' Significant changes to the U.S. force posture in the 
region are already planned over the next several years, including 
movement of marines from Okinawa to Guam and the relocation of U.S. 
forces within South Korea. There are also discussions about increasing 
presence in southern parts of the Asia-Pacific, including countries 
like Australia and Singapore, and developing more comprehensive 
engagement strategies with a number of other countries in the region. 
These initiatives will likely compete with other global commitments for 
increasingly constrained funding.
    What is your understanding of the plan for the Asia-Pacific region 
as contemplated in the January 2012 Defense Strategic Guidance?
    Answer. My understanding is that we will emphasize our existing 
alliances, which provide a vital foundation for Asia-Pacific security. 
We will also expand our networks of cooperation with emerging partners 
throughout the Asia-Pacific to ensure collective capability and 
capacity for securing common interests. Additionally, we look to invest 
in a long-term strategic partnership with India to support its ability 
to serve as a regional economic anchor and provider of security in the 
broader Indian Ocean region. Furthermore, we will maintain peace on the 
Korean Peninsula by effectively working with allies and other regional 
states to deter and defend against provocation from North Korea, which 
is actively pursuing a nuclear weapons program.
    The maintenance of peace, stability, the free flow of commerce, and 
of U.S. influence in this dynamic region will depend in part on an 
underlying balance of military capability and presence. Over the long 
term, China's emergence as a regional power will have the potential to 
affect U.S. economic and security interests in a variety of ways. Our 
two countries have a strong stake in peace and stability in East Asia 
and an interest in building a cooperative bilateral relationship. 
However, the growth of China's military power must be accompanied by 
greater clarity of its strategic intentions in order to reduce the 
prospects for regional instability. The United States will continue to 
make the necessary investments to ensure that we maintain regional 
access and the ability to operate freely in keeping with our treaty 
obligations and with international law. Working closely with our 
network of allies and partners, we will continue to promote a rules-
based international order that ensures underlying stability and 
encourages the peaceful rise of new powers, economic dynamism, and 
constructive defense cooperation.
    Question. In your view, what should the United States do to 
``increase its institutional weight and focus'' in the Asia-Pacific?
    Answer. In keeping with our national-level strategic guidance, I 
believe it is essential that the United States maintain an enduring 
military presence that reassures countries in the region that the 
United States is committed to Asia-Pacific security, economic 
development, and rules and norms necessary to the region's success. My 
understanding is that the strategic guidance seeks to maintain a robust 
force presence in Northeast Asia and to distribute U.S. forces 
geographically better throughout the region to address the significant 
security challenges we face across the entirety of the region. This 
affords the United States the capability to strengthen regional 
security and better perform the types of missions our forces are likely 
to face in the future such as combating terrorism, responding to 
natural disasters, and counter proliferation.
    Question. As you understand it, what does this strategy guidance 
mean in terms of changes to the numbers and types of operational units 
assigned within the PACOM AOR?
    Answer. If confirmed, I will work with the Secretary and his staff 
and my counterparts across the Department to assess the potential 
global tradeoffs, risks, and budgetary implications associated with any 
changes in U.S. forward presence in the Asia-Pacific. Consulting 
closely with our allies and partners, and tailoring defense posture 
appropriately will allow the United States to respond more effectively 
to the wide range of challenges confronting the Asia-Pacific region.
    Question. What are your views on the current number and types of 
ships forward-stationed in the Asia-Pacific region? Are they sufficient 
to support the January 2012 Defense Strategic Guidance, as you 
understand it, or would you foresee the need to increase or change that 
naval force structure in the AOR?
    Answer. The January 2012 Defense Strategic Guidance places an 
emphasis on the importance of the Asia-Pacific. If confirmed, I will 
review levels of assigned forces in the Asia-Pacific region and if 
there are shortfalls, I will advocate for additional resources required 
to support the President's and Secretary's priorities.
    Question. What do you believe should be the United States' force 
posture priorities in the Asia-Pacific and what strategic criteria, if 
any, should guide the posture of U.S. forces in the region to best 
support those priorities at acceptable risk levels?
    Answer. I believe the United States should prioritize an enduring 
military presence in the Asia-Pacific region that demonstrates our 
commitment to Asia's security and the protection of American interests.
    I agree with the assessment that U.S. force posture in the region 
must be geographically distributed, operationally resilient, and 
politically sustainable.
    Question. How important is a forward-basing strategy to the ability 
of PACOM to execute its day-to-day mission? Its operational contingency 
plans?
    Answer. I believe the United States' forward-based forces are our 
most visible sign of our commitment to regional peace and stability. 
Forward based forces are not only the first responders in any 
contingency, they also serve to assure allies and partners and deter 
potential adversaries and are vital for day-to-day engagement where we 
train and exercise together to enhance capabilities and capacities 
across the region.
    Based on the above thoughts and because of the wide expanse of the 
theater, I believe forward-based forces are critical to PACOM's day-to-
day operations as well as operational contingency plans.
    Question. How, if at all, do the methods of forward-basing, 
rotational forces, and agreements with allies for training and 
logistics activities throughout the region contribute to forward 
presence?
    Answer. DOD views posture as a combination of three elements: 
forces, footprint, and agreements. ``Forces'' are U.S. military 
capabilities, equipment, and commands, assigned or deployed. 
``Footprint'' describes our infrastructure, facilities, land, and 
prepositioned equipment. ``Agreements'' are treaties, as well as 
access, transit, support, and status of forces (SOFA) agreements with 
allies and partners.
    Together, these enable the United States to maintain a forward 
presence to achieve our national security objectives and demonstrate 
our commitment to the region.
    Question. What do you see as the implications, if any, of the 
planned force posture changes in Korea, Japan, and Guam for the U.S. 
commitment to the Asia-Pacific region in general?
    Answer. As the President has made very clear, we are steadfast in 
our commitment to the defense of Japan and the Republic of Korea. I 
understand that as the Department considers posture changes in the 
Asia-Pacific region, the goal is to fulfill our treaty obligations in 
Northeast Asia, while enhancing our presence in Southeast Asia, and 
ensuring our posture is geographically distributed, operationally 
resilient, and politically sustainable.
    Question. How does the planned relocation of U.S. forces from 
Okinawa to Guam improve U.S. security in the region?
    Answer. Our commitment to the security of Japan is unshakeable. I 
understand the planned changes in the Asia-Pacific region will result 
in force posture that is geographically distributed, operationally 
resilient, and politically sustainable. Guam's strategic location 
supports our ability to operate forces from a forward location.
    Planned posture shifts result in greater geographic distribution of 
our forces in the region, enhancing our ability to respond to 
contingencies and meet treaty obligations in Asia. It demonstrates our 
commitment to allies and to fulfilling our agreements with allies and 
partners.
    Question. How does the planned relocation of U.S. forces on the 
Korean Peninsula improve security?
    Answer. Our commitment to the security of the Republic of Korea is 
unshakeable. I understand that as with planning for Japan, Guam, and 
Australia, the planned posture changes in Korea will result in force 
posture that is geographically distributed, operationally resilient, 
and politically sustainable. The changes appear to address host nation 
concerns and simultaneously improve our mutual defense infrastructure. 
I support the posture changes on the Peninsula consistent with the 
joint vision for the alliance laid out by our Presidents and further 
developed by the Secretary of Defense and his Republic of Korea 
counterpart.
    Question. What is your understanding of the plans for rotational 
deployments of U.S. marines to Australia and how, in your view, will 
such a presence advance U.S. security interests?
    Answer. In November 2010, the Department established a Force 
Posture Working Group with our ally, Australia to develop options to 
align our countries' force postures in complementary ways to benefit 
the national security of both nations. During the September 2011 
Australia-United States Ministerial Consultations, Secretaries Clinton 
and Panetta discussed with their counterparts several of the Working 
Group's recommendations. When the President visited Australia this past 
November, he and Australian Prime Minister Gillard announced two new 
force posture initiatives--one to phase in a rotational deployment of 
up to 2,500 marines near Darwin, and another to expand U.S. access to 
Northern Australian airfields.
    As I understand it, the initiatives will enhance our engagement 
with Australia and with regional partners. They will also enable the 
military forces of both our Nations to better--and possibly 
cooperatively--respond to contingencies, including humanitarian 
assistance and disaster relief.
    These initiatives--developed in cooperation with a key ally--
demonstrate the strength of the U.S.-Australia Alliance and its ability 
to enhance regional stability and security. If confirmed, I will 
continue the close defense cooperation with Australia.
    Question. In your view, are the levels of funding, manning and 
military-to-military engagement in the Asia-Pacific region appropriate 
to the management of current and future risk to U.S. strategic 
interests in the region?
    Answer. The January 2012 Defense Strategic Guidance places an 
emphasis on the importance of the Asia-Pacific. If confirmed, I will 
review levels of funding, manning, and military-to-military engagement 
in the Asia-Pacific region and--if there are shortfalls in existing 
resources--I will advocate for additional resources required to support 
the President's priorities.
                           engagement policy
    Question. One of the central pillars of our national security 
strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, joint 
combined exchange training exercises, combatant commander exercises, 
humanitarian assistance operations, and similar activities are used to 
achieve this goal.
    If confirmed, would you support continued engagement activities of 
the U.S. military? If yes, would you advocate for expanding U.S. 
military-to-military engagement? If not, why not?
    Answer. A regular program of military engagement is essential to 
sustaining existing relationships and nurturing emerging ones. I would 
support a sustainable pace of operations that whenever possible 
includes innovative, low-cost, and small-footprint approaches to 
achieve national security objectives. Military-to-military contacts at 
both senior and junior levels, bilateral and multilateral exercises, 
humanitarian assistance operations and similar activities are important 
elements of this engagement. With the current budget environment, 
careful choices will need to be made that focus resources where they 
provide the most value and return. Whenever possible, we will develop 
innovative, low-cost, and small-footprint approaches to achieve Pacific 
theater security objectives.
    Question. In your opinion, how do these activities contribute to 
U.S. national security?
    Answer. Military engagement activities strengthen the network of 
alliances and partnerships in the Asia-Pacific reinforcing deterrence, 
helping to build the capacity and competence of U.S., allied, and 
partner forces which in turn advances common interests, addresses 
shared threats, and facilitates freedom of movement and access to the 
region. Military engagement builds partnership capacity which remains 
important for sharing the costs and responsibilities of global 
leadership and postures the United States as the security partner of 
choice.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations, including the global train and equip authority (``section 
1206'') and Global Security Contingency Fund (GSCF).
    What is your understanding of the purpose of the section 1206 
global train and equip authority and GSCF?
    Answer.
1206
    Congress approved section 1206 global train and equip authority in 
2006 in part to give the State Department and DOD a more flexible 
capacity building authority to address urgent and emergent threats 
before the threats destabilize theater partners or threaten the 
Homeland. Later in 2009, the scope expanded to assist coalition 
partners as they prepare for deployment. I understand this rapid 
funding tool currently is PACOM's most agile mechanism to address 
counterterrorism capability gaps in partner nations.
Global Security Contingency Fund
    The GSCF is a new initiative to pool the resources of State and 
DOD, as well as the expertise of other departments, to provide security 
sector assistance for emergent challenges and opportunities.
    The GSCF has no appropriated funding, rather State and DOD can 
transfer funds from other fiscal year 2012 appropriations into the 
GSCF. DOD can transfer up to $200 million from defense-wide Operations 
and Maintenance and State can transfer up to a combined $50 million 
from Foreign Military Financing (FMF), International Narcotics Control 
and Law Enforcement, and the Pakistan Counterinsurgency Capability 
Fund. Once transferred, funds remain available until September 20, 
2015.
    The GSCF can provide assistance: (1) to national military and 
security forces, as well as the Government agencies responsible for 
overseeing these forces; and (2) for the justice sector when civilian 
agencies are challenged (including law enforcement and prisons), rule 
of law programs, and stabilization efforts in a country.
    As I understand it, the GSCF will be run by a small staff composed 
of both State and DOD employees, as well as employees from other 
departments and agencies in some cases. Exact reporting structures and 
procedures for implementation are being developed to address the 
specifics of the legislation granted by Congress.
    Question. In your view, what are our strategic objectives in 
building the capacities of partner nations in the Asia and Pacific 
region?
    Answer. The United States' primary objective in building the 
capacity of foreign partners should continue to be to help them develop 
effective and legitimate security institutions that can provide for 
their countries' internal security, and contribute to regional and 
multilateral responses to shared threats and instability. Maintaining 
and strengthening our alliances and partnerships are critical to the 
stability in the region. Capacity building provides opportunities to 
build defense relationships and promotes both interoperability between 
our forces and access to the region during peacetime and contingency 
operations. Lastly, building this capacity in our allies and partners 
lessens the burden on U.S. forces responding to security threats 
outside the United States.
                                 china
    Question. China's defense spending has had double-digit increases 
annually for about the past 20 years. While a certain amount of 
military expansion is to be expected for a country experiencing the 
kind of economic growth that China has over about that same period, the 
types of platforms and capabilities China is developing have been 
interpreted by some as designed to project power, limit freedom of 
movement by potential adversaries, and conduct military operations at 
increasing distances. Such developments, coupled with strident rhetoric 
and a lack of transparency, stoke growing concerns about China's 
intentions in the region. The Defense Strategic Guidance, announced on 
January 5, refers to China as one of the countries that ``will continue 
to pursue asymmetric means to counter our power projection 
capabilities''.
    How would you characterize the current U.S. relationship with 
China?
    Answer. In January 2010, President Obama and Chinese President Hu 
Jintao affirmed the need for a positive, cooperative, and comprehensive 
U.S.-China relationship. I would describe the relationship as 
simultaneously possessing elements of cooperation and competition. The 
United States, including DOD, continues to pursue opportunities to 
cooperate where there is a mutual benefit, while having frank 
discussions of areas where we may have differences.
    Question. What do you believe are the objectives of China's steady 
increase in defense spending and its overall military modernization 
program?
    Answer. China appears to be building the capability to fight and 
win short duration, high-intensity conflicts along its periphery. Its 
near-term focus appears to be on preparing for potential contingencies 
involving Taiwan, and to deter or deny effective intervention in a 
cross-strait conflict. Its modernization efforts emphasize anti-access 
and area denial capabilities. China is also devoting increasing 
attention and resources to conducting operations beyond Taiwan and 
China's immediate periphery. Beijing's growing focus on military 
missions other than war includes humanitarian assistance, non-combat 
evacuation operations, and counter-piracy support. Lastly, China is 
strengthening its nuclear deterrent and enhancing its strategic strike 
capabilities through the modernization of its nuclear forces, and is 
improving other strategic capabilities, such as in space, counterspace, 
and computer network operations.
    Question. How should the United States respond to this Chinese 
military growth and modernization?
    Answer. I believe the United States should continue to monitor 
developments in China's military concepts and capabilities while 
encouraging Beijing to be more transparent about its military and 
security affairs. The United States has been and should remain the 
pivotal military power in the Asia-Pacific region in order to preserve 
the conditions that have fostered peace and prosperity. The United 
States' response to China's military modernization should be flexible 
and supported by the continued transformation of our force posture in 
the Asia-Pacific region, the maintenance of our global presence and 
access, the modernization of our own capabilities in such areas as 
countering anti-access and area denial, and the strengthening of our 
alliances and partnerships.
    Question. What do you believe are the Chinese political-military 
goals in the Asia-Pacific region? Globally?
    Answer. The overriding objectives of China's leaders appear to be 
to ensure the continued rule of the Chinese Communist Party, continue 
China's economic development, maintain the country's domestic political 
stability, defend China's national sovereignty and territorial 
integrity, and secure China's influence and status. Within this 
context, preventing any moves by Taipei toward de jure independence is 
a key part of Beijing's strategy. Within each dimension there lies a 
mix of important challenges and opportunities for the United States 
that will continue to deserve priority attention.
    Question. What effect is China's military growth having on other 
countries in the region?
    Answer. In terms of regional security, China's economic growth has 
increased China's international profile and influence, and has enabled 
China's leaders to embark upon and sustain a comprehensive 
transformation of its military forces. The pace and scale of China's 
military modernization, coupled with the lack of transparency, raise 
many questions, both within the United States and in the region as a 
whole, about China's future.
    Other countries in the region are closely watching the growth of 
China's military, and how its military acts. China's military is 
working through the Association of South Asian Nations (ASEAN) Defense 
Ministers Plus structure to enhance regional cooperation on 
humanitarian assistance and disaster relief. At the same time, there 
have been worrisome incidents in disputed waters in China's neighboring 
seas that have caused concern in nations such as the Philippines and 
Vietnam. Security concerns regarding Chinese military intentions have 
contributed to a greater focus on regional forums, such as ASEAN, where 
issues may be addressed multilaterally; such security concerns have 
also led to stronger and more welcoming relations with the United 
States as a security partner of choice.
    Question. How do you assess the current cross-strait relationship 
between China and Taiwan, and how can we help prevent miscalculation on 
either side?
    Answer. Both China and Taiwan have made significant strides to 
reduce tensions in the Taiwan Strait. These initiatives should be 
encouraged and we welcome progress made by both sides. I believe the 
United States can help contribute to cross-strait stability by 
continuing to abide by our longstanding policies, based on the one-
China policy, three joint U.S.-China Communiques, and the Taiwan 
Relations Act (TRA), including making available to Taiwan ``defense 
articles and services in such quantities as may be necessary to enable 
Taiwan to maintain a sufficient self-defense capability''. We are 
committed to our one-China policy and would oppose unilateral changes, 
by either side, to the status quo.
    Question. How do China's efforts to establish a strategic presence 
in the Indian Ocean by securing and maintaining access to seaports in 
various South and Southeast Asian countries affect its political-
military posture and influence in the region?
    Answer. China looks to South and Southeast Asia as an area of 
strategic importance, which includes political objectives, access to 
resources, trade, and investment. With regard to South and Southeast 
Asian seaports, the important question is how China intends to use its 
presence. As China increases deployments to the region, including 
ongoing participation in counterpiracy activities in the Gulf of Aden, 
China will require greater forward logistical capabilities to sustain 
operations in that region. Yet in order to establish access to various 
seaports, China will encounter the same political issues the United 
States faces in maintaining our overseas access. This will require 
improving ties with states along the Indian Ocean littoral, closer 
cooperation with other regional navies, and will expose them to more 
nontraditional security challenges such as terrorism and piracy. The 
United States retains strong relationships in South and Southeast Asia 
and should continue to monitor China's growing presence in the region.
    Question. What is the role of DOD in helping to ensure that China's 
nuclear power industry does not contribute to the proliferation of 
nuclear weapons in the region?
    Answer. The Obama administration has reiterated that preventing the 
proliferation of WMD and delivery systems, along with related 
technologies and materials, is a key goal for the United States. I 
believe that DOD should work in the interagency process to ensure that 
any proliferation concerns relating to China are expressed to the 
Chinese Government in appropriate forums.
    Question. Our military-to-military relations with the Chinese 
military have been modest, at best, and can be accurately described as 
``on again, off again.'' One thing that has hobbled U.S.-China military 
relations in recent years has been China's propensity for canceling or 
postponing military-to-military engagements in response to U.S. arm 
sales to Taiwan.
    What is your assessment of the current state of U.S.-China 
military-to-military relations?
    Answer. As President Obama stated in January 2011, the United 
States seeks a positive, cooperative, and comprehensive relationship 
with China. We continue to pursue opportunities to cooperate where 
there is mutual benefit while discussing areas where we may have 
differences in a frank and candid manner. Such dialogue can be 
especially important during periods of friction and turbulence.
    I believe we should continue to use military engagement with China 
as one of several means to demonstrate U.S. commitment to the security 
of the Asia-Pacific region, to encourage China to play a constructive 
role in the region, and to press China to partner with the United 
States and our Asian allies and partners in addressing common security 
challenges.
    Question. Do you believe that the United States should make any 
changes in the quality or quantity of our military relations with 
China? If so, what changes and why?
    Answer. I believe that military exchanges with China can be 
valuable, but can only truly work if China is equally committed to open 
and regular exchanges. If confirmed, I would look for ways to deepen 
and enhance our military-to-military relationship with China, and to 
encourage China to act responsibly both regionally and globally.
    Question. What is your view regarding the longstanding U.S. policy 
of selling defense articles and services to Taiwan despite objections 
and criticism from China?
    Answer. U.S. policy on arms sales to Taiwan is based on the 1979 
TRA, which provides that the United States will make available to 
Taiwan defense articles and services in such quantities as may be 
necessary to enable Taiwan to maintain a sufficient self-defense 
capability. The Act also states that the President and Congress shall 
determine the nature and quantity of such defense articles and services 
based solely upon their judgment of the needs of Taiwan. That policy 
has contributed to peace and stability in the region for more than 30 
years and is consistent with the longstanding U.S. calls for peaceful 
resolution of the Taiwan issue in a manner acceptable to the people on 
both sides of the Taiwan Strait.
    Question. In your view, to what extent, if at all, should China's 
possible reaction to such sales be considered by the United States when 
making decisions about the provision of defense articles and services 
to Taiwan?
    Answer. Our decisions about arms sales to Taiwan are based solely 
on our assessment of Taiwan's defense needs. The TRA states the United 
States will make available to Taiwan such defense articles and defense 
services in such quantity as may be necessary to enable Taiwan to 
maintain a sufficient self-defense capability.
    Question. By most accounts, China has become more assertive in its 
claims of sovereignty in various domains, including maritime, air and 
space. There are numerous examples of this assertiveness, but one in 
particular is China's increased aggressiveness in asserting its 
excessive maritime claims in the South China Sea. In one such incident, 
Chinese-flagged ships harassed the USNS Impeccable, a U.S. military 
ship conducting ocean surveillance in the international waters of the 
South China Sea. That incident underscored the nature of Chinese 
maritime claims and the Chinese sensitivity associated with U.S. Navy 
operations in these areas.
    What role should the United States play in the ongoing maritime 
disputes in the South China Sea?
    Answer. As the President stated clearly during his trip to Asia 
last November and as Secretary Panetta affirmed when he met with 
representatives from the ASEAN Defense Ministers meeting in October of 
last year, the United States is a Pacific nation with a national 
interest in freedom of navigation, open access to Asia's maritime 
domain, the maintenance of peace and stability, free and open commerce, 
and respect for international law, including in the South China Sea.
    The United States does not take a position on the competing 
territorial claims over land features in the South China Sea, and I 
believe all parties should resolve their disputes through peaceful 
means and in accordance with customary international law, without 
resorting to the threat or use of force.
    At the same time, the United States should continue to call upon 
all parties to clarify their claims in the South China Sea in terms 
consistent with international law. Consistent with international law, 
claims to maritime space in the South China Sea should be derived 
solely from legitimate claims to land features.
    Question. How does the presence of the U.S. Navy in the South China 
Sea influence this maritime dispute and, in your view, would an 
increase in U.S. activity in that region serve to stabilize or 
destabilize the situation?
    Answer. The U.S. Navy is a key provider of the military presence 
that underlies peace and stability across the globe, including in the 
South China Sea. I believe it is essential for the U.S. Navy to 
maintain its presence and assert its freedom of navigation and over 
flight rights in the South China Sea in accordance with customary 
international law.
    Preservation of the rights, freedoms, and uses of the sea depend 
largely upon their continual exercise. Around the world, U.S. military 
forces conduct operations to prevent excessive maritime claims asserted 
by coastal states from limiting our national interest in freedom of 
navigation. In the South China Sea, we have expressed our freedom of 
navigation interest for many decades, through diplomatic protests and 
operational assertions against excessive maritime claims asserted by 
several nations. Of note, we challenge excessive maritime claims 
asserted by any nation, including claims by allies and partners. Our 
military presence in the South China Sea includes Freedom of Navigation 
Operations, Sensitive Reconnaissance Operations, Special Mission Ship 
operations, and other routine military transits, operations, and 
exercises. The United States should sustain our military presence in 
international waters and uphold its commitments to its allies and 
partners in order to maintain peace and stability in the region.
    Question. What should the United States do to help prevent 
dangerous encounters in the South China Sea?
    Answer. To reduce the risk of conflict in the South China Sea, I 
believe the United States should continue to support initiatives and 
confidence building measures that will help claimant States reach 
agreement on a binding Code of Conduct in the South China Sea. 
Additionally, the United States should continue serving as a positive 
example of a nation that adheres to the international norms of safe 
conduct, through policy implementation, effective training, and proper 
accountability. The United States also continues to robustly exercise 
the Military Maritime Consultative Agreement with China as a positive 
bilateral mechanism to address operational safety issues in the 
maritime domain.
    These include the international ``rules of the road'', such as the 
International Regulations for Preventing Collisions at Sea and other 
established international safety and communication procedures, such as 
the Code for Unalerted Encounters at Sea. The United States should also 
encourage all South China Sea claimants to abide by these norms of safe 
conduct to ensure greater operational safety and reduce the risk of 
dangerous incidents at sea.
    Question. Cyber space has become a critical realm for civilian and 
military applications and also represents a potentially substantial 
vulnerability. There are reports that China is aggressively pursuing 
cyber warfare capabilities, and would likely seek to take advantage of 
U.S. dependence on cyber space in the event of a potential conflict 
situation.
    What is your understanding of China's efforts to develop and deploy 
cyber warfare capabilities?
    Answer. As with the United States and many other countries around 
the world, China fully understands the critical importance of cyber as 
an element of modern warfare. Chinese military writing clearly shows 
that China views itself at a disadvantage in any potential conflict 
with a modern high-tech military, such as that of the United States. To 
overcome this disadvantage, China is developing organizations and 
capabilities that are designed to reduce the perceived technological 
gap. This is done by increasing China's own military technological 
capability, and by building capability to target U.S. military space-
based assets and computer networks using network and electronic 
warfare. The development of these wartime capabilities are the 
motivation for China's efforts at peacetime penetration of U.S. 
Government and industry computer systems. The theft of U.S. information 
and intellectual property is attractive as a low-cost research and 
development tool for China's defense industry, and provides insight 
into potential U.S. vulnerabilities. Overall, China's development in 
the cyber realm, combined with its other anti-access/area denial 
capabilities, imposes significant potential risk on U.S. military 
activities.
    Question. If confirmed, what would you do to help ensure our 
military is protected in cyber space and prepared to defend against a 
cyber attack?
    Answer. If confirmed, I would be sure to work with other parts of 
DOD and interagency partners to include the Departments of State, 
Homeland Security, and Commerce, to facilitate a coordinated approach 
to cyber threats, not only from China, but from any potential 
adversary. While an increased cyber defensive posture is important, it 
is not enough for us to build thicker walls and continue to absorb 
daily cyber attacks. Defense in itself will not deter our Nation's 
adversaries. We must work together as a government to not only defend, 
but also to impose costs on our adversaries to deter future 
exploitation and attack. These costs we impose cannot simply be 
symmetrical cyber activities; a cyber versus cyber fight is not 
sustainable in the long-term. As the President stated in his 
International Strategy for Cyberspace, we Reserve the right to use all 
necessary means--diplomatic, informational, military, and economic--as 
appropriate and consistent with applicable international law, in order 
to defend our Nation, our allies, our partners, and our interests 
against hostile acts on cyberspace. In so doing, we will exhaust all 
options before military force whenever we can.
    Question. In January 2007, China used a ground-based missile to hit 
and destroy one of its weather satellites in an anti-satellite test 
creating considerable space debris and raising serious concerns in the 
international community. Since then, China has continued its active 
pursuit of missile and satellite technology.
    What is your view of China's purposes for its pursuit of these 
capabilities?
    Answer. In my view, this test was just one element of China's 
military modernization effort to develop and field disruptive military 
technologies, including those for anti-access/area-denial, as well as 
for nuclear, space, and cyber warfare. The United States' goal is to 
promote the responsible use of space.
    Question. What do you see as the long-term implications of such 
developments for the U.S. military, for U.S. national security, and for 
U.S. interests in space?
    Answer. Space systems are vital to our national security and our 
economy. In this regard, the United States should seek ways to protect 
our interests in space. U.S. space policies and programs should be 
informed by China's space and counter space capabilities, which have 
contributed to today's challenging space environment. I believe we need 
to enhance our deterrence and ability to operate in a degraded 
environment. At the same time, the United States should seek to engage 
China, a major space-faring nation, to promote the responsible use of 
space. However, our concern should not be focused on only one country, 
but on the range of actors that add to the increasingly congested, 
contested, and competitive environment in space.
    Question. What are your views regarding the potential weaponization 
of space and the international agreements to prevent space 
weaponization?
    Answer. I support the principles outlined in the 2010 National 
Space Policy, including that all nations have a right to explore and 
use space for peaceful purposes, and that all nations should act 
responsibly in space to help prevent mishaps, misperceptions, and 
mistrust.
    Space is vital to U.S. national security and that of our allies and 
partners. I support our longstanding national policies of affirming the 
right of all nations to use outer space for peaceful purposes, the 
right of free passage through space, and the right to protect our 
forces and our Nation from those that would use space for hostile 
purposes.
                                 taiwan
    Question. Much of the recent discourse regarding Taiwan has 
involved the readiness and capacity of Taiwan's defensive military 
capabilities and the U.S. commitment to do what is ``necessary to 
enable Taiwan to maintain a sufficient self-defense capability'' as 
required by the TRA. In particular, much of the debate about how best 
to enhance Taiwan's current defensive capabilities has revolved around 
fighter aircraft and what air defense capabilities are most prudent and 
appropriate under the circumstances.
    What is your view of U.S.-Taiwan security relations?
    Answer. Our relations are guided by the TRA stipulation that we 
will make available to Taiwan defensive articles and services as 
necessary for Taiwan to maintain a sufficient self-defense capability. 
To that end we maintain military-to-military engagement with Taiwan.
    Question. What do you believe should be the priorities for U.S. 
military assistance to Taiwan?
    Answer. We closely monitor the shifting balance in the Taiwan 
Strait and Taiwan's defense needs. Given the rapid pace of PRC military 
modernization, I believe our priorities should include assisting Taiwan 
with its joint operations capabilities and training, streamlining, and 
integrating its existing defense programs to be more effective, and 
seeking innovative solutions to complement its traditional military 
capabilities.
    Question. What is your opinion of the TRA? Enacted 33 years ago 
this year, do you see any need to modify the TRA to reflect the current 
state of affairs in the region? If so, how?
    Answer. The TRA, which guides our unofficial relations with Taiwan, 
has been in force now for over 30 years and plays a valuable and 
important role in our approach to the Asia-Pacific region. As called 
for in the TRA, our longstanding policy to assist Taiwan with 
maintaining a sufficient self-defense capability helps ensure security 
and stability in the region. I would not recommend any changes to the 
law.
    Question. Given the increasing military imbalance across the Taiwan 
Strait, do you think Taiwan is making appropriate investments in its 
defensive capabilities? If not, what is the best way to encourage 
Taiwan to invest more in its military?
    Answer. Taiwan must ensure that it adequately resources its defense 
programs and defense transformation, to include looking at increasing 
its defense budget. I believe the best way to encourage Taiwan to 
invest more in its military is to send strong and consistent messages 
from the U.S. Government to Taiwan.
    Question. What military capabilities do you believe would be most 
effective in improving Taiwan's self-defense capability over the next 5 
to 10 years?
    Answer. Capabilities that deter the PRC or increase the Taiwan 
military's survivability are critical. No less important, non-materiel 
solutions such as improved jointness, training, integration and 
innovative solutions will improve Taiwan's defense capability. Finally, 
one of the most cost effective solutions Taiwan can adapt from the U.S. 
military is to continue developing their NCOs and junior officers--an 
invaluable element of our past and future success.
    Question. Do you think the United States should sell new F-16 C/D 
aircraft to Taiwan?
    Answer. The recently announced F-16 A/B upgrades are similar in 
capability to new F-16 C/Ds and are an important and much needed 
contribution to the capabilities of Taiwan's Air Force. As Taiwan 
recapitalizes its air force, it must ensure its future air force is 
made more effective by being integrated into a joint construct, by 
ensuring that its air defense capability is survivable, and by seeking 
other innovative solutions to complement its traditional military 
capability.
    If confirmed, this is an issue I will continue to evaluate in 
coordination with the rest of DOD.
                              north korea
    Question. Despite the death of long-time leader Kim Jong-Il, North 
Korea remains one of the greatest near term challenges to security and 
stability in Asia and deterring conflict on the Korean Peninsula 
remains a top priority. In fact, with the uncertainties associated with 
the ongoing leadership transition, upcoming challenges on the Peninsula 
may be even greater.
    With the unexpected change in leadership in North Korea, what is 
your assessment of the current security situation on the Korean 
peninsula?
    Answer. Following the death of Kim Jong Il, North Korea so far 
appears to be managing the leadership transition from father to son. On 
the surface, North Korea appears stable, and Kim Jong Un and his 
leadership is primarily focused on domestic matters. However, enduring 
U.S. and allied concerns--North Korea's past provocative behavior, 
large conventional military, proliferation activities, and pursuit of 
asymmetric advantages through its ballistic missile and WMD programs 
(including uranium enrichment)--present a serious threat to the United 
States, our allies and partners in the region, and the international 
community. The change in leadership in North Korea adds to our concerns 
as new variables have been added to North Korea's decision-making 
process.
    Question. What is your understanding of the threats posed to the 
United States and our allies by North Korea's ballistic missile and WMD 
capabilities?
    Answer. North Korea's potential use of WMD presents a serious 
threat. We must ensure our forces are prepared to respond and that 
North Korea is deterred from using WMD. North Korea has an ambitious 
ballistic missile program that poses a significant threat to the 
Pacific region. As witnessed in 2006 and 2009, North Korea continues to 
flight-test theater ballistic missiles--demonstrating the capability to 
target South Korea and Japan. North Korea also continues to develop the 
Taepo Dong-2 (TD-2), which Pyongyang claims to have tested in a space 
launch configuration but could also reach the United States if 
developed as an intercontinental ballistic missile (ICBM). Furthermore, 
North Korea continues to develop newer systems--including a solid 
propellant short-range ballistic missile and intermediate-range 
ballistic missile.
    Question. What is your estimate of North Korea's threat of nuclear 
proliferation?
    Answer. North Korea's continued proliferation efforts pose a 
significant threat to the Pacific region and beyond. It is a proven 
proliferator of ballistic missiles and associated technologies to 
countries like Iran--creating a serious and growing capability to 
target U.S. forces and our allies in the Middle East and assisted Syria 
in building a covert reactor in the early 2000s, which would have been 
capable of producing plutonium for nuclear weapons. As such, we 
continue to work with our allies and partners to build a regional 
capability to combat WMD.
    Question. What concerns you most about North Korea and, if 
confirmed, what would you do to address those concerns?
    Answer. North Korea maintains a large, offensively postured 
conventional military, continues to develop long-range ballistic 
missiles, seeks to develop nuclear weapons, and engages in the 
proliferation of ballistic missiles against international norms and 
law. North Korea has also conducted provocative attacks against the 
Republic of Korea. Most concerning about this range of threats is that 
they come from a single state standing on the outside of the 
international community. If confirmed as Commander, PACOM, I will drive 
intelligence to refine forecasts and warnings, sustain and advance our 
military readiness and coordination with allies and partners, and 
whether in lead or support, will both seek and welcome opportunities to 
apply all means of national power to affect North Korean behavior.
    Question. The February 2010 Ballistic Missile Defense Review Report 
established a policy and program priority for defending against near-
term regional ballistic missile threats, and elaborated on the Phased 
Adaptive Approach (PAA) to regional missile defense, including to 
defend against North Korean ballistic missile threats.
    Do you support the missile defense policies and priorities 
established in the Ballistic Missile Defense Review, including the 
Phased Adaptive Approach to missile defense in the Asia-Pacific region 
to defend against North Korean regional ballistic missile threats?
    Answer. Yes, the 2010 Ballistic Missile Defense Review provides the 
PACOM region with an integrated effort to strengthen regional 
deterrence architectures against North Korea. It aligns our defensive 
strategy, policies and capabilities to the strategic environment. The 
implementation of a PAA will strengthen defenses against North Korean 
missile threats to U.S. forces, while protecting allies and partners. 
PAA will enable regional allies to do more to defend themselves against 
a growing North Korean ballistic missile threat. It must be built on 
the foundation of strong cooperative relationships with allies and 
appropriate burden sharing. Finally, it reinforces the defense of the 
Homeland.
                           republic of korea
    Question. What is your understanding of the current status of the 
U.S.-South Korean security relationship?
    Answer. In my view, the U.S.-Republic of Korea Alliance remains one 
of the cornerstones of U.S. strategy in the Asia-Pacific region and is 
as strong and viable today as it has ever been. This was most recently 
reaffirmed by the Secretary during participation in the Security 
Consultative Meeting in Seoul on October 28, 2011. Our security 
relationship is based on mutual commitment to common interests, shared 
values, continuous dialogue, and combined planning, ensuring a 
comprehensive strategic alliance.
    Question. If confirmed, what measures, if any, would you take to 
improve this security relationship?
    Answer. As I understand it, DOD and the Republic of Korea continue 
to work closely to realign U.S. forces on the Peninsula and to prepare 
for the transition of wartime operational control to the Republic of 
Korea by December 2015. If confirmed, I would support this continued 
realignment and the return of facilities that our forces no longer 
require. The United States is also working toward developing new 
command and control relationships with Korea, which will ensure that 
contingency plans remain appropriate to changing circumstances. 
Additionally, I believe it is important to ensure the U.S. and Korean 
publics continue to understand the enduring mutual benefits derived 
from this alliance, and that the United States effectively works with 
the Republic of Korea as it plays an increasing role in regional and 
global security issues commensurate with the Republic of Korea's 
economic status and influence. If confirmed, I would work hard to 
maintain close contact with Republic of Korea military leadership and 
to build upon the solid foundation developed to date to improve and 
transform this important security relationship.
    Question. What is your view regarding the timing of the transfer of 
wartime operational control from the United States to South Korea, now 
planned for December 2015, and what will you do to ensure this 
transition takes place as planned?
    Answer. I understand that the United States and the Republic of 
Korea have a comprehensive way forward to transition wartime 
operational control by December 2015. If confirmed, I will work with 
Republic of Korea military leadership to complete this process under 
the Strategic Alliance 2015 framework, ensuring the transition is 
implemented methodically that the combined defense posture remains 
strong and seamless.
    Question. Do you support increasing the tour lengths of U.S. 
personnel assigned to the Republic of Korea to 2- or 3-year tours of 
duty and increasing the number of military and civilian personnel 
authorized to be accompanied by their dependents for these longer 
assignments? If so, how would you purport to implement such an increase 
in accompanied tours?
    Answer. I understand tour normalization in Korea was designed to 
further our commitment to support our forward-stationed forces and 
family members. It was to be implemented on an ``as affordable'' basis 
and not according to any specific timeline. However, as Secretary 
Panetta has said, DOD is closely evaluating all spending. If confirmed, 
I will continue to thoroughly assess the cost of implementation and our 
proposed force posture to determine the best way forward.
    Question. Are the costs associated with this policy change 
affordable in the current fiscal environment?
    Answer. In the January 2012 Priorities for 21st Century Defense, 
the President announced a necessary rebalance toward the Asia-Pacific 
region. He also emphasized the importance of our existing alliances as 
providing a vital foundation for Asia-Pacific security. If confirmed, I 
will continue to assess the costs associated with this policy change 
and how they fit into our current fiscal environment.
    Question. Do you believe that the security relationship with South 
Korea should remain focused on defense of the Korean Peninsula, or 
should U.S. forces stationed in Korea be available for regional or 
global deployments?
    Answer. In accordance with the Mutual Defense Treaty between the 
United States and the Republic of Korea, U.S. presence on the Korean 
Peninsula serves to deter potential aggressors from taking hostile 
actions that would threaten the peace and security of the Republic of 
Korea. In my view, this presence has both deterred further war on the 
Korean Peninsula and contributed to the stability of the Northeast Asia 
region. The U.S.-Republic of Korea Alliance is transforming to ensure a 
capable and relevant forward presence for the future security 
environment. For U.S. forces in Korea, it is my understanding that the 
Strategic Alliance 2015 annex on Force Management agreed at the 42nd 
Security Consultative Meeting in 2010 provides us flexibility for 
regional and global deployments, while assuring we will continue to 
meet our commitments to the safety and security of Korea. As Republic 
of Korea military forces have served and will continue to serve with 
the U.S. military in places off the Peninsula (e.g., Iraq, Afghanistan, 
and in the Gulf of Aden), I believe the U.S.-Republic of Korea Alliance 
will continue to serve an important role regionally and globally.
    Question. What is your assessment of the security benefits of the 
force repositioning agreed to under the Land Partnership Plan and the 
Yongsan Relocation Plan and how does repositioning U.S. forces change 
the way they will operate on the Korean Peninsula?
    Answer. The two plans work to consolidate and relocate U.S. forces 
from north of Seoul and from the Seoul Metropolitan area to locations 
south of Seoul, primarily U.S. Army Garrison Humphreys and Daegu. The 
movement of units and facilities to areas south of the Han River 
improves force protection and survivability, placing the majority of 
personnel and equipment outside of the tactical effective range of 
North Korean artillery. In addition, the move to a central location 
outside of Seoul provides efficiencies, reduces costs, contributes to 
the political sustainability of our forward presence, and improves 
military readiness on the Korean Peninsula.
    Question. Is the relocation plan affordable?
    Answer. The majority of costs associated with the Yongsan 
Relocation Plan will be paid by the Republic of Korea. Costs associated 
with the Land Partnership Plan will be shared between the Republic of 
Korea and U.S. and is affordable.
    Question. Since the North Korean attacks last year--the sinking of 
the South Korea Navy ship Cheonan and the artillery attack on the South 
Korean island--South Korea has been adamant that it will responded 
``firmly'' to the next such provocation. A main topic during recent 
U.S.-Republic of Korea Security Consultative Meetings was reportedly 
the Joint Operational Plan for responding to future North Korean 
provocations.
    What is your understanding of the U.S. obligations in the event of 
an attack on South Korea by North Korea, and under what circumstances 
do you believe the U.S. Armed Forces should be committed to engage 
North Korean forces in response to an attack on South Korea?
    Answer. My understanding is that, under the Mutual Defense Treaty, 
when the political independence or security of South Korea or the 
United States are threatened by external armed attack, the United 
States and South Korea will consult together and develop appropriate 
means to deter the attack. Given the pattern and future likelihood of 
North Korean provocations, the two sides should continue to consult 
closely so that responses are effective.
                                 japan
    Question. How would you characterize the current U.S.-Japan 
security relationship?
    Answer. The U.S.-Japan relationship is the cornerstone of security 
in East Asia. Japan is a valued ally and anchor of democracy and 
prosperity in the region. Our alliance has held fast through the 
turbulence of the post-Cold War, political turnover in Japan, and at 
times contentious trade disputes, and now stands poised as a truly 
global alliance. The United States and Japan are in the middle of a 
complicated realignment process that is part of a larger Alliance 
Transformation agenda that also includes a review of roles, missions, 
and capabilities to strengthen and ensure the relevance, capability, 
and cohesiveness of the alliance for the next several decades. In terms 
of our military-to-military relationship, the shared experience of U.S. 
and Japanese forces, working should-to-shoulder in response to the 
earthquake, tsunami, and nuclear crisis of last spring validated our 
continuing close cooperation and mutual respect.
    Question. How does Japan's relationship with its regional 
neighbors, mainly China, North Korea, and South Korea influence the 
U.S.-Japan relationship?
    Answer. I believe it is important for Japan to continue to maintain 
and further develop constructive relations with all of its neighbors. 
Japan and other East Asian nations can and should increase their 
security cooperation. Working with other U.S. allies and partners in 
the region, Japan can increase its contribution to peace, security, and 
prosperity throughout Asia and globally. Japan is a valued and 
essential partner in the Six-Party Talks process and in other important 
regional security architectures. Progress made to bolster trilateral 
security dialogues in Northeast Asia effectively links Japan, U.S., and 
South Korean approaches.
    Question. What steps, if any, do you believe Japan ought to take to 
become a more active partner in security activities with the United 
States and in the international security arena?
    Answer. Japan is already a strong security partner with the United 
States, and is increasingly contributing to international security 
activities; however, the changing security environment in Asia will 
present new challenges. The United States needs to continue to work 
with Japan to deal with these challenges, including greater 
interoperability between our Armed Forces at the strategic, 
operational, and tactical levels. If confirmed, I would encourage 
Japan's development of joint doctrine and organizations that will 
enhance Japan's ability to undertake complex missions to build security 
in East Asia. I would also encourage trilateral security cooperation 
with the Republic of Korea and with Australia, as these kinds of 
activities effectively strengthen the functional capacity of the 
emerging regional security architecture. Regarding international 
security activity, Japan has actively participated in combined 
counterpiracy operations in the Gulf of Aden, is participating in the 
United Nations Mission in South Sudan, and has been a significant donor 
to ongoing Afghanistan reconstruction. I believe participation in such 
international security operations are very positive developments, and 
would encourage future Japanese participation in such missions.
    Question. What is your view of the United States-Japanese joint 
development of the Standard Missile-3, Block IIA missile defense 
interceptor, and of the overall program of cooperation between the 
United States and Japan on ballistic missile defense?
    Answer. Ballistic missile defense cooperation with Japan is a 
success story for the alliance and has resulted in Japan's fielding of 
both sea and land-based missile defense systems. Japan is one of our 
most important ballistic missile defense partners and U.S.-Japan 
bilateral cooperation on ballistic missile defense plays an important 
role in supporting our common strategic objectives on defense. The SM3 
Block IIA is an important cooperative program that will result in a 
significant increase in ballistic missile defense capability.
    Question. Currently, the 2006 Roadmap Agreement between the United 
States and Japan links the closure of the Futenma Marine Corps Air 
Station on Okinawa and the movement of U.S. marines from Okinawa to 
Guam to the plan to build a Futenma Replacement Facility (FRF) at Camp 
Schwab on Okinawa. The plan to build the FRF has run into difficulties 
and, as a result, the closure of Futenma and the movement of marines 
remain uncertain.
    What is your opinion of the prospects for the successful 
construction of the FRF at Camp Schwab on Okinawa?
    Answer. I believe that the Government of Japan (GOJ), like the U.S. 
Government, remains committed to the principles of the 2006 Realignment 
Roadmap, and although both governments have acknowledged that the FRF 
will not be constructed by 2014, as originally planned, there appears 
to be incremental but positive movement towards the construction of a 
replacement facility at Camp Schwab. The GOJ submission of the 
environmental impact statement to the prefectural Government of Okinawa 
in December 2011 was a necessary and politically significant step 
forward. The U.S. Government is committed to working with the GOJ in 
taking the next step prior to the start of construction, securing the 
Governor's approval for the landfill permit.
    Question. Is the cost-sharing arrangement between the United States 
and Japan to pay for the relocation of U.S. forces from Okinawa to Guam 
and to cover the costs associated with the continued presence of U.S. 
forces in Japan equitable and appropriate? Why or why not?
    Answer. I believe the cost-sharing arrangements with the GOJ to be 
among the best we have. Under the terms of the 2006 Realignment Roadmap 
and the 2009 Guam International Agreement, Japan committed to providing 
up to $6.09 billion (in fiscal year 2008 dollars) for the relocation of 
marines to Guam. For the GOJ this was an unprecedented step, funding 
the construction of facilities for the use of U.S. Forces on U.S. 
sovereign territory. To date, the GOJ has provided $834 million towards 
fulfillment of that commitment. For relocations within Japan, the GOJ 
is paying the lion's share of the costs to develop new facilities. In 
April 2011, we entered into a new, 5-year host nation support agreement 
with Japan that maintained the overall level of support we receive from 
Japan for labor and utilities, while for the first time putting a floor 
on the amount the GOJ provides for facilities construction.
    Question. How, in your view, does building a new airfield on 
Okinawa, one that is opposed by a large segment of the population on 
Okinawa and could take 7 to 10 years to finish at a cost of at least 
$3.6 billion, serve to improve the U.S.-Japan relations in general and 
the U.S. military-Okinawa relations in particular?
    Answer. The Government of Japan and the United States agreed to 
construct a FRF at Camp Schwab, in conjunction with reducing the number 
of U.S. Forces on Okinawa and consolidating U.S. basing on the island. 
FRF will enable the closing of Marine Corps Air Station Futenma, which 
is located in a very densely populated portion of Okinawa. At the same 
time, the plan preserves U.S. Forces' ability to meet our security 
commitments to Japan, in accordance with the Mutual Security Treaty. 
Thus, when fully executed, this new force posture will improve U.S.-
Japan relations in general and the U.S. military-Okinawa relations in 
particular.
                                 india
    Question. What is your view of the current state of the U.S.-India 
security relations?
    Answer. A close, continuing, and expanding security relationship 
with India will be important for security and stability in Asia and for 
effectively managing Indian Ocean security in the 21st century. The 
United States and India have a range of common security interests that 
include maritime security, counterterrorism, and humanitarian 
assistance and disaster relief. Over the past decade, there has been a 
rapid transformation in the U.S.-India defense relationship. What was 
once a nascent relationship between unfamiliar nations has evolved into 
a strategic partnership between two of the preeminent security powers 
in Asia. Today, U.S.-India defense ties are strong and growing, 
including a robust slate of dialogues, military exercises, defense 
trade, personnel exchanges, and armaments cooperation. Efforts over the 
past 10 years have focused on relationship-building and establishing 
the foundation for a long-term partnership. The strong ties between our 
two militaries reflect this. The United States remains committed to a 
broad defense trade relationship that enables transfers of some of our 
most advanced technologies to assist India's military with its 
modernization efforts. Having said this, India has a long history of 
non alignment and is firmly committed to its policy of strategic 
autonomy. The continued growth of our partnership should be focused on 
working closely on common interests in a true partnership, rather than 
attempting to build a U.S.-India bilateral alliance in the traditional 
sense.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. India is essential to achieving long-term U.S. goals for 
regional economic development, security and stability, and wide-ranging 
cooperation to counter extremism and radicalization. If confirmed, I 
believe our priorities for this relationship should focus on increasing 
maritime security cooperation, expanding the military-to-military 
relationship, and deepening cooperation on defense trade and 
production. I believe there is potential for cooperating on 
counterproliferation, collaborating on humanitarian assistance and 
disaster response, countering piracy, cooperating on counterterrorism, 
greater intelligence sharing on common threats, and working towards 
stability in Afghanistan and the broader Indian Ocean region.
    Question. What, in your view, is the effect on DOD interests, if 
any, of the civil nuclear cooperation agreement with India?
    Answer. The civil-nuclear cooperation agreement was a landmark 
agreement that significantly transformed the U.S.-India bilateral 
relationship. The agreement deepened the level of trust between the 
United States and India and will have positive effects on DOD interests 
leading to greater military-to-military cooperation and increased 
defense trade. Successful implementation of this agreement will serve 
to deepen U.S.-India ties.
    Question. What is your assessment of the relationship between India 
and China and how does that relationship impact the security and 
stability of the region?
    Answer. The current relationship between the region's two fastest 
growing powers, India and China, is complicated by a trust deficit 
stemming from China's longstanding relationship with Pakistan, India's 
defeat in the 1962 Sino-Indian war, and increasing competition for 
resources. The ongoing border dispute, trade imbalances and competition 
for influence across South and Southeast Asia complicate efforts to 
reduce the mistrust. Regional states exploit the competitive Sino-
Indian relationship, seeking favorable aid packages from New Delhi and 
Beijing to enable their own development. New Delhi and Beijing do find 
common ground and cooperate in international forums such as BRICS, the 
G20, and in Climate Change Conferences where both countries leverage 
their convergent interests to shape international trade rules to ensure 
their continued domestic development and economic growth.
    Question. What do you believe the United States should do to assist 
the Indian Government in the prevention of and response to terrorist 
events in India?
    Answer. As the world's largest democracy, I believe India is a 
critical strategic partner of the United States. Both India and the 
United States share a strong interest in preventing terrorism. The 
United States can continue to work with the Government of Pakistan to 
take effective action against groups based in Pakistan that advocate 
and actively participate in attacks against India. As to capacity 
building, counterterrorism efforts in India are primarily a Ministry of 
Home Affairs responsibility that employs domestic intelligence assets 
in conjunction with police and paramilitary forces. Therefore, 
counterterrorism cooperation with India is through a whole-of-
government approach led by the Departments of State (via the 
Counterterrorism Cooperation Initiative) and Homeland Security (via the 
Homeland Security Dialogue), with support from the Department of 
Justice and DOD. If confirmed, I will work with the Office of the 
Secretary of Defense in support of this whole-of-government approach to 
address counterterrorism efforts with India in the areas they request 
support or seek to expand the relationship.
    Question. What is your assessment of the current relationship 
between India and Pakistan?
    Answer. India and Pakistan have a long and complex history 
characterized by animosity, mistrust, and conflict. Support by elements 
of Pakistan's military and intelligence services for violent extremist 
organizations targeting India strains the relationship; this support 
has the potential to result in military confrontation which could 
rapidly escalate to a nuclear exchange. Current efforts at dialogue 
have yielded few concrete results on the core security issues, 
especially regarding the resolution of territorial disputes; however, 
the efforts have provided each side greater insight into the other's 
positions. While progress is slow, the trajectory is positive and 
offers the promise of increased confidence-building measures.
    Question. In your view, what impact has the ongoing tension between 
Pakistan and India had on the stability of Central and South Asia 
generally, and on the prospects for lasting security in Afghanistan?
    Answer. India's actions in South and Central Asia generally align 
with U.S. goals--increasing economic growth and political stability 
through strengthened democratic institutions, and developmental 
assistance to help prevent radicalization. Regional stability depends 
on cooperation among India, Pakistan, and Afghanistan. Transparency in 
the India-Afghanistan and Pakistan-Afghanistan bilateral relationships 
is critical to reduce misunderstanding and mistrust between India and 
Pakistan. The ongoing transition of lead responsibility for security in 
Afghanistan to Afghan forces and the strategic partnerships Afghanistan 
has been negotiating with the United States and other international 
partners are important steps toward demonstrating long-term commitment 
of the international community, addressing conditions that create 
uncertainty, and stabilizing the region.
                      republic of the philippines
    Question. What is your view of the current state of U.S.-Philippine 
military relations?
    Answer. The Philippines is one of the United States' five treaty 
allies in the Pacific and remains a committed security partner facing 
regional challenges characteristic of current geostrategic realities. 
Our alliance is strong and is the foundation of our security 
partnership. The U.S. military-to-military engagement with the 
Philippines is mature and focused, allowing the Philippines security 
forces (military, coast guard, and police) to better address security 
needs as evident by enhanced counterterrorism performance, expanded 
maritime security activities, increased multilateral engagement, and 
effective participation in UN Peacekeeping operations.
    Question. What do you believe the U.S. goals should be in the 
Republic of the Philippines and how best can we achieve those goals?
    Answer. The primary goal of the United States should be to 
strengthen the alliance with the Philippines and assist them in 
building and maintaining the capabilities of their security forces. Our 
alliances in the Pacific, such as what we have with the Philippines, 
are the bedrock of U.S. security strategy within the region as we face 
common threats. A Philippines that is capable of mitigating terrorist 
threats, providing a secure maritime environment that ensures freedom 
of navigation within its sub-region, and leading multilateral 
approaches towards regional peace and stability will enable it to 
fulfill its treaty obligations to the United States, directly benefit 
U.S. interests in the Asia-Pacific region, and contribute to regional 
security and stability.
    Question. What is your assessment of U.S. military efforts in the 
Philippines and the effectiveness of the U.S. assistance being provided 
to the Philippine military in its fight against insurgent groups?
    Answer. U.S. military efforts and assistance in the Philippines are 
in support of the U.S.-Philippines Mutual Defense Treaty to which both 
sides are committed. The United States, however, does not assist the 
Philippines in its fight against insurgent groups, e.g. the New 
People's Army and the Moro Islamic Liberation Front. The Philippines 
was the first country in Asia to support the United States after 
September 11 in fighting terrorism. In this regard, U.S. military 
assistance is focused on helping the Philippines fight terrorism by 
assisting with the development of skill sets that are no different than 
those needed to adequately help and protect its civilian populations. 
It is the Philippine Government's prerogative to assert its 
capabilities and resources where needed in conducting its internal 
security operations.
    Question. Do you anticipate a reduced U.S. military footprint or 
change in mission for U.S. military forces in the Philippines in the 
near- to mid-term?
    Answer. The United States and the Philippines are discussing 
arrangements that will allow greater flexibility for U.S. and 
Philippine security forces to train and work together. This may, on a 
rotational basis, increase U.S. military engagement with the 
Philippines in the near to mid-term.
    Question. What policy guidelines, if any, would you establish, if 
confirmed, to ensure that U.S. personnel do not become involved in 
combat or law enforcement in the Republic of the Philippines?
    Answer. Current U.S. guidelines in place for the conduct of U.S. 
forces in the Philippines adequately address the roles and 
responsibilities of our military forces. All U.S. military personnel 
are in the Philippines under the Philippines-U.S. Visiting Forces 
Agreement and operate under the auspices of the U.S.-Philippines Mutual 
Defense Board and Security Engagement Board.
    Their activities, which will always be in consultation with, and 
agreement by, the Philippine Government, are limited to conducting 
Humanitarian Assistance and Disaster Response; assisting Philippine 
security forces improve their capacity and capability including 
training and upgrading equipment; and supporting Philippine 
counterterrorism operations through activities such as intelligence 
fusion, and sustainment support. Additionally, U.S. forces are 
prohibited from engaging in combat without prejudice to their right of 
self defense.
                               indonesia
    Question. Indonesia is a key Asian power and is the largest Muslim 
country in the world. Consequently, it is important to build on 
opportunities to improve and expand U.S. relations with Indonesia where 
possible. In July 2010, Secretary Gates announced that DOD intended to 
resume working with elements of the Indonesian Special Forces, known as 
Kopassus. DOD engagement with Kopassus had been suspended for more than 
a decade because of past human rights violations by some of its 
members.
    What is your view of the current state of military-to-military 
relations with Indonesia and, specifically, Kopassus?
    Answer. In 2010, Presidents Obama and Yudhoyono inaugurated the 
U.S.-Indonesian Comprehensive Partnership. A key element of this broad 
partnership is the security component. Our defense relationship with 
Indonesia--a pivotal country to U.S. national interests--is managed 
through the Defense Framework Arrangement and facilitated through 
several forums and mechanisms. Our military-to-military relations with 
Indonesia are robust and continue to progress and mature, with over 140 
theater security cooperation activities scheduled for this fiscal year. 
These security cooperation engagements include a wide range of 
activities focused on four main areas of emphasis: Humanitarian 
Assistance/Disaster Relief, Peace Keeping Operations, Maritime Security 
and continued professionalization/reform of the Indonesian Defense 
Forces (TNI). Beginning with the normalization of military-to-military 
relationship in 2005, engagements have increased in number and evolved 
from initial small-scale bilateral exchanges into more complex 
bilateral and multilateral activities.
    In addressing the current state of military-to-military relations 
with the Indonesian Army Special Forces (known as Kopassus), it is 
worth noting that this unit has undergone a near-complete 
transformation over the past decade and is at the forefront of TNI 
professionalization and adherence to human rights standards. Following 
a 12-year hiatus in bilateral activities, at the direction of then 
Secretary Gates, PACOM established a measured and gradual program of 
security cooperation activities with Kopassus. These security 
cooperation activities have consisted of key leader engagements and 
small-scale subject matter expert exchanges in areas such as military 
decision making, medical planning, law of war, and safeguarding human 
rights. I expect future activities of this type to continue and 
gradually expand at a pace commensurate with the demonstrated progress 
in TNI transparency and reform efforts. Chief among these reform 
efforts are the fulfillment of commitments made by Indonesian leaders 
to then Secretary Gates in 2010 to continue to safeguard human rights 
and accountability throughout the Indonesian military through the 
unequivocal investigation and prosecution of those military personnel 
accused of human rights abuses and, if convicted, their removal from 
Military Service.
    Question. What is your understanding of the extent to which the 
Indonesian Government is cooperating with the United States in the war 
on terrorism?
    Answer. Based on my current understanding, the Government of 
Indonesia has cooperated closely and effectively with the United States 
and our partners in combating global terrorist networks in the region. 
The Government of Indonesia has shown tremendous success in arresting 
and convicting terrorists. Additionally, Indonesia has leveraged its 
leadership role within the Association of Southeast Asian Nations 
(ASEAN) by electing to co-chair the Executive Working Group on 
Counterterrorism with the United States in the ASEAN Defense Ministers 
Meeting Plus forum. This initiative seeks to encourage greater regional 
counterterrorism cooperation, reinforce military support to civil 
authorities, build capacity and collectively address regional security 
issues in an open consultative forum.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. If confirmed, I would support increased military-to-
military contact within the context of the Comprehensive Partnership, 
guided by close consultation with the Departments of State and Defense, 
and within the boundaries of existing legal mechanisms. I believe close 
military-to-military relations with Indonesia are integral to achieving 
numerous stated U.S. national interests in the region. I also believe 
that one of the most effective methods for encouraging reform is 
through interaction between Indonesian and U.S. servicemembers. 
Regardless of their mission, any interactions with U.S. servicemembers 
reinforce professional military practices, to include respect for human 
rights and the rule of law. Increased interactions facilitate greater 
understanding and reinforce professional values.
    Question. What is your understanding of the factors that informed 
the decision to re-engage with Kopassus members?
    Answer. It is my understanding that the decision to begin a 
measured and gradual re-engagement with Kopassus within the limits of 
U.S. law was intended to acknowledge the significant progress made by 
the TNI over the past decade and encourage continued reform within the 
TNI. Essential to this decision to move ahead with Kopassus were the 
commitments made by the Government of Indonesia to protect human rights 
and advance TNI accountability.
    Question. What is your view of the commitment of the Indonesian 
military leadership to professionalization of its armed forces, 
adhering to human rights standards, improving military justice, and 
cooperating with law enforcement efforts to investigate and prosecute 
those military personnel accused of human rights abuses?
    Answer. Indonesian defense reform progressed at a rapid pace after 
the resignation of President Suharto in 1998, with the separation of 
the police from the military, the elimination of formal political roles 
for the TNI, increased accountability, and the establishment of 
widespread human rights training initiatives. While reform efforts 
appear to have slowed, they have notably not reversed. According to 
several public opinion polls, the TNI enjoys the respect of the 
majority of the Indonesian populace. In fact, TNI often is the most 
respected of government institutions. This is a concrete indicator of 
progress. Continued reforms that the United States should continue to 
encourage include accountability for past human rights abuses, 
strengthening civilian control and oversight of the military, and 
continued professionalism of the TNI officer corps.
    Question. If confirmed, what would you do to encourage respect for 
human rights and accountability in the Indonesian military?
    Answer. If confirmed, I would support TNI's continued progress by 
encouraging senior Indonesian leaders to fulfill their stated 
commitments with particular emphasis on accountability, transparency 
and respect for human rights. We can accomplish this through bilateral 
security discussions, joint training, military assistance, including 
military training programs. I view U.S. interaction with TNI 
counterparts as an effective, indeed essential, method to encourage 
professionalism and continued reform within the Indonesian military.
                                 burma
    Question. Recent developments in Burma suggest that the government 
may be willing to take steps toward meaningful reform.
    What is your understanding of the current security situation in 
Burma and, if confirmed, what would be your approach toward Burma?
    Answer. While there have been very encouraging signs of reform and 
positive government intentions, Burma still faces many challenges in 
its road to reform, and there are still many obstacles in the U.S.-
Burma relationship that must be overcome. The Department of State 
remains the lead agency in all U.S. engagement with Burma.
                operational access and freedom of action
    Question. Much has been made in recent years of the development of 
anti-access/area denial capabilities of certain countries, and the 
impact such capabilities might have on the United States' freedom of 
action and ability to project power.
    What is your understanding of the emerging challenges associated 
with anti-access and area denial strategies in the Asia-Pacific?
    Answer. As discussed in the Defense Strategic Guidance released in 
January, ``China will continue to pursue asymmetric means to counter 
our power projection capabilities.'' This would include PRC pursuit of 
anti-access/area denial strategies. The United States maintains robust 
regional and global power projection capabilities that provide a full 
range of options to succeed in defense of national interests and of our 
allies. To this end, if confirmed, I will work closely with OSD and the 
Services in support of policy and programmatic inputs based on assessed 
operational risk, to ensure we have the ability to project power 
throughout the theater and preserve the capabilities necessary to 
maneuver within it.
    Question. The Joint Operational Access Concept (JOAC) released on 
January 17 this year broadly describes the Chairman of the Joint Chiefs 
of Staff's intent for how joint forces will respond to the operational 
challenges associated with potential adversaries' anti-access and area 
denial capabilities.
    What, in your view, is the JOAC's contribution to better 
understanding and dealing with the challenges of military operations in 
the PACOM AOR?
    Answer. The JOAC's primary contributions are illuminating the 
variety of challenges for which U.S. forces must be prepared across an 
increasingly diverse and rapidly evolving set of domains--air, sea, 
land, space, and cyber--and identifying Cross-Domain Synergy as the 
central tenet for addressing these challenges in order to assure 
operational access.
    Question. The JOAC identifies 33 capabilities required for its 
implementation, but this list of capabilities is not exhaustive nor is 
it prioritized.
    In view of the PACOM mission, how would you prioritize the required 
capabilities listed in the JOAC and what capabilities, if any, would 
you add?
    Answer. Because achieving unity of effort at all echelons within 
the U.S. Armed Forces is central to Cross-Domain Synergy, I would 
prioritize capabilities required for situational awareness and command 
and control, especially across domains. I would add the capability to 
develop, exercise, and validate potential lines of operation across the 
Government as a whole during pre-, post- and ongoing hostility phases 
in a manner that complements military activities.
    Question. What new technologies would you suggest DOD pursue in 
order to develop or improve these capabilities?
    Answer. In general, I would suggest pursuit of technologies that 
improve situational awareness, command and control, and interagency 
coordination.
    Question. With respect to air, sea and land capabilities, some 
proponents of the ``air-sea battle'' concept appear to de-emphasize 
ground combat forces.
    Answer. This concept looks at ways to improve our inter-Service 
coordination and ability to counter developing challenges but it does 
not discount the contribution of ground forces.
    There are numerous potential operations in the PACOM AOR that could 
require ground forces. Decisiveness in an operation or campaign still 
requires the credible threat of land combat forces that can physically 
threaten an adversary, seize and/or hold ground.
    Question. What are your views on the requirement for land forces 
before, during, and after operations to gain and maintain assured 
access?
    Answer. Land forces are necessary for all phases of an operation, 
including peacetime, steady-state. Most notably, in Phase 0 Shaping, 
land forces are critical to tangibly demonstrating U.S. commitment to 
allies and partners as well as resolve to potential adversaries. Land 
forces, as an integrated part of the joint force, engage with allies 
and partners in the region to influence, train with, and improve the 
capabilities and integration of those capabilities enabling allies and 
partners to better defend themselves against aggression. Ground forces 
allow rapid and effective response, not only to conflict, but also to 
natural disasters and humanitarian crises. A recurring theme in U.S. 
military engagement is that, while our peer competitors may provide 
money in an attempt to buy influence, most militaries identify with and 
attempt to emulate the United States in doctrine, professionalism, and 
values. This is principally due to the one-on-one contact and influence 
that our soldiers, sailors, airmen, marines, and coast guardsmen have 
with their counterparts of all ranks in exercises and training events 
throughout the year.
    During conflict, we must be able to credibly project ground forces 
in a maritime environment consisting of numerous islands, 
archipelagoes, and littoral population centers. Expeditionary land 
forces provide indispensible capabilities which complement our navy and 
air forces in the region. Land force headquarters and staffs also 
provide a Joint Task Force command and control capability that is 
necessary to pursue multiple operations simultaneously, a necessity for 
a region that spans 51 percent of the globe. If conflict arises, these 
same ground forces would be called on to not only make gains but 
consolidate those gains in the aftermath.
    Question. What, in your view, are the required size and 
capabilities for ground combat forces in the Pacific region, and what 
capabilities, if any, may be needed to improve their effectiveness?
    Answer. The President's new Strategic Guidelines now clearly 
establish the Asia-Pacific as the strategic focus. As we assess our 
increased commitment to the region, the Department will more precisely 
determine the required size and capabilities necessary for ground 
combat, and other forces.
    Broadly speaking, however, we can categorize potential needed 
improvements in basing, mobility, and technologies.

        <bullet> Traditionally, basing focused on threats in Northeast 
        Asia. Adequate basing throughout Asia is necessary to address 
        the whole of the region.
        <bullet> The vastness of the Asia-Pacific means that forces 
        throughout the region must have adequate mobility in the form 
        of sealift and air transportation to allow them to engage, 
        train, and respond to disasters in Phase 0, as well as to fight 
        during contingencies.
        <bullet> Given the vastness of the region, deployment of 
        technologies in the form of Intelligence, Surveillance, and 
        Reconnaissance (ISR) assets that allow timely and continuous 
        situational awareness are required. This enables the rapid and 
        focused application of limited resources to the point of 
        necessity. Movement of men, weapons, and equipment is measured 
        in days and weeks in the Pacific theater. Area denial systems 
        and tactics make that even more difficult without the 
        technologies to observe and accurately assess the actions of 
        potential adversaries.
                     high altitude transition plan
    Question. DOD, under the High Altitude Transition (HAT) Plan, 
intends to retire the U-2 ISR fleet in the middle of this decade and 
replace these aircraft with the Global Hawk RQ-4. Under the HAT Plan, 
the RQ-4s will apparently be a PACOM-wide asset, flying missions 
throughout the region, whereas the U-2s have been dedicated to 
supporting U.S. and Korean forces on the Korean peninsula. The United 
States and Republic of Korea have been considering a Republic of Korea 
purchase of the Global Hawk aircraft through the Foreign Military Sales 
(FMS) process. If this FMS case were to proceed, much but not all of 
the impact of U-2 retirement would be mitigated, but either way the 
level of airborne ISR available on a day-to-day basis in Korea may well 
be diminished.
    In your assessment, is the possibility that the level of airborne 
ISR available on a day-to-day basis will be diminished a concern, or 
are there other means to compensate for the retirement of the U-2?
    Answer. The possibility of diminished ISR capacity in PACOM is a 
concern. As the Defense Strategic Guidance shifts focus toward the 
Asia-Pacific region, I expect that PACOM ISR requirements will grow. 
While we depend on our allies and partners to contribute to our ISR in 
the region, the U-2 is a unique platform with capabilities that cannot 
currently be duplicated by other collection platforms.
    Question. If the sale does not go through, how would you propose 
that the United States sustain required levels of airborne ISR support 
on the Korean peninsula?
    Answer. If the FMS process were curtailed, if confirmed, I would 
closely consider recommendations keeping the U-2 on the Korean 
peninsula until a similar capability is fully operational. The U-2 
provides USFK a deep look multi-intelligence collection capability that 
supports both U.S. and Republic of Korea daily intelligence 
requirements. However, without FMS to the Republic of Korea, PACOM's 
strategic flexibility to respond to requirements outside the Korean 
peninsula may be limited.
    Question. What will happen if Global Hawk is cancelled or curtailed 
as part of the budget process?
    Answer. If Global Hawk is divested, I am concerned about how the 
impact of losing these platforms translates into an overall reduction 
of available ISR worldwide. The removal of these assets would likely 
result in a rebalancing of global assets that could translate into a 
decrease of ISR capacity in the Pacific Theater. Furthermore, the 
second order effect from such a decision has the potential to impact 
critical strategic relationships with our allies and partners. Given 
the Defense Strategic Guidance's increased focus toward the Asia-
Pacific, any potential reduction of ISR capacity warrants detailed 
assessment.
                 united nations peacekeeping operations
    Question. A number of the Nations in the PACOM AOR contribute large 
numbers of police and troops to multilateral peacekeeping operations.
    What role, if any, do you believe PACOM should play with regard to 
engaging the troops from Asia-Pacific nations which contribute to 
peacekeeping missions?
    Answer. If confirmed, I will continue engagement with Asia-Pacific 
nations in regards to peacekeeping contributions. This is another venue 
for military-to-military cooperation that allows us to increase partner 
capacity in military capability, professionalism, and increased 
awareness of human rights issues such as the protection of civilians in 
a U.N. mission area. It is in our best interest that countries 
contributing peacekeepers provide quality troops that are capable, 
respected, and have the requisite tactical and technical ability, and 
will enforce the U.N. mandate of that particular mission.
                        counterpiracy operations
    Question. Since January 2009, the U.S. Navy has been patrolling the 
waters of the Gulf of Aden and off the coast of Somalia as part of the 
international coalition engaged in counterpiracy operations. Even 
before our engagement off the coast of Somalia, DOD worked with our 
Asian partners to address piracy in Southeast Asia, including the 
Strait of Malacca.
    What is your understanding of the current threat of piracy in the 
Asia-Pacific region?
    Answer. Piracy in the PACOM AOR exists in the Strait of Malacca and 
South China Sea. Somali-based piracy also migrates eastward to the 
PACOM AOR across the Indian Ocean to the vicinity of India and the 
Maldives.
    Question. What role, if any, should PACOM play in countering piracy 
in the Asia-Pacific?
    Answer. Continued PACOM focus on enabling Asian partners to be 
successful in counterpiracy efforts through education, training, and 
exercises is vitally important. Current efforts are focused on 
employing resources via partner nation engagement to increase the 
effectiveness ally and partner nation forces as well as continuing 
development of information sharing to locate, isolate, and defeat 
piracy as it surfaces within the AOR. This process of developing the 
capabilities of our Asian partners proved very effective in reversing 
the piracy threat within the Strait of Malacca.
                          combating terrorism
    Question. Last year, the administration released its National 
Strategy for Counterterrorism. This strategy highlights the need to 
maintain pressure on al Qaeda's core while building the capacity of 
partners to confront mutual threats. The strategy also underscores the 
need to augment efforts to counter threats from al Qaeda-linked groups 
``that continue to emerge from beyond its core safe haven in South 
Asia.''
    If confirmed, what would be your role within DOD with respect to 
counter terrorism?
    Answer. If confirmed, PACOM will continue highly successful ``by, 
with, and through'' approaches to counterterrorism that have produced 
measurable success in the Asia-Pacific region. These efforts rely on a 
capacity, capability, and network building approach that emphasizes 
working together with regional host nation partners, other U.S. 
Government agencies, and key allies, such as the Australians, to deny 
al Qaeda, adherents, affiliates, and associated forces the ability to 
operate in the region.
    Question. What do you believe is the terrorism threat from al Qaeda 
and affiliated groups in the Asia-Pacific region?
    Answer. The threat of attack by al Qaeda, its affiliates, and like-
minded groups and individuals against U.S. and partner nation interests 
in the PACOM AOR is still a serious concern. The possible re-emergence 
of other terrorist organizations, like Jamaah Islamia and the Abu 
Sayaaf Group, that have been weakened but not defeated by the 
counterterror efforts of our allies and partners could quickly affect 
the security and stability of the Asia-Pacific region. Other 
decentralized groups and individuals ideologically linked to al Qaeda, 
as well as organizations based primarily outside the PACOM AOR like 
Lashkar-e-Tayyiba, desire to support their agendas by conducting 
destabilizing attacks inside the region. Additionally, al Qaeda 
affiliated groups operate in the PACOM AOR using facilitation networks 
that support threats to U.S. interests throughout the world.
    Question. Is there a nexus between terrorist groups and criminal 
networks in the Asia-Pacific?
    Answer. Yes, there is a nexus and it is a serious impediment to 
regional stability. Transnational crime and terrorism thrive on common 
enablers such as illicit transportation networks, weapons trafficking, 
corruption, trafficking in persons, counterfeiting, and movement of 
money to support nefarious activities. These threats impact political, 
social, and economic systems by eroding the rule of law and undermining 
the legitimacy of governments and institutions.
    Question. In Southeast Asia, most notably in the Philippines and 
Indonesia, U.S. engagement with partner nations has helped combat 
violent extremist ideology and activities. The integration of 
operations by host nation security forces with U.S. capacity building, 
development, and information support operations has dramatically 
reduced the ability of violent extremist organizations to operate.
    What more can the United States do in Southeast Asia to help combat 
the threat of terrorism perpetrated by violent extremists?
    Answer. The United States should sustain current engagements with 
individual nations in the region and continually look for opportunities 
to assist with ally and partner efforts. Additionally, we should foster 
multilateral efforts, specifically through organizations like the 
Association of Southeast Asia Nations (ASEAN), to build regional 
networks that deny transnational violent extremist and global terrorist 
facilitation networks the ability to operate within or through 
Southeast Asia.
    Question. Which Southeast Asian countries are most important in the 
fight against terrorism in that region and what should the United 
States do to enhance relations with those countries?
    Answer. Even though Indonesia and the Republic of the Philippines 
have seen tremendous counterterrorism successes, they remain vulnerable 
to violent extremism through radicalization and recruitment and are 
potential terrorist safe havens. Additionally, Malaysia and Thailand 
have been used as facilitation hubs by violent extremist organizations 
that operate across the region. On behalf of the U.S. effort, PACOM 
should maintain its robust presence and continue its ``by, with, and 
through'' engagement strategy in Southeast Asia.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent legislation, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of the overall effectiveness of this 
authority?
    Answer. It is my understanding that section 1208 funding is most 
effective in the CENTCOM AOR, and currently limited in its application 
in PACOM. I understand it is an extremely effective authority and if 
confirmed, I will work with DOD to identify any potential requirements 
appropriate for using 1208 authority.
           department of defense counternarcotics activities
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support CN operations, build the 
capacity of certain foreign governments in Asia and around the globe, 
and analyze intelligence on CN-related matters.
    What is your understanding and assessment of the DOD CN program?
    Answer. DOD Counternarcotics and Global Threats program is a 
capabilities-based, mission-focused, fully integrated effort that 
provides a comprehensive structure to support U.S. Government agencies 
principally responsible for securing the health and safety of U.S. 
citizens. These agencies strive to effectively disrupt and degrade 
national security threats posed by drug trafficking, transnational 
organized crime, threat finance networks, piracy, and any potential 
nexus among these activities.
    Drug trafficking and associated organized crime are 
multidimensional threats. In addition to the impact on our Nation's 
public health and economy, drug trafficking, and other forms of 
transnational organized crime provide a funding source for terrorists 
and insurgents, undermine legitimate government institutions, and 
contribute to international instability.
    Joint Interagency Task Force West (JIATF West) executes PACOM's CN 
program. Funded with approximately $30.4 million out of the CN budget, 
JIATF West focuses their efforts on Asian, Iranian, Eurasian and other 
transnational criminal organizations that operate within the PACOM AOR 
while also conducting detection and monitoring of illicitly trafficked 
Asian-sourced precursor chemicals used for the production of 
methamphetamine, particularly precursor chemical shipments to the 
Western Hemisphere.
    Question. What is your understanding of the illegal narcotics 
industry in Asia?
    Answer. Methamphetamine produced using diverted precursor 
chemicals, heroin trans-shipment through Asia, poppy cultivation, and 
potential narco-terrorist funding remain the principle drug threats to 
the United States from the Asia-Pacific region.
    Methamphetamine precursors produced in Asia are the primary source 
of required chemicals used to produce methamphetamine trafficked to the 
U.S. Southwest Border violence is fueled by the Mexican Cartel's battle 
to control this market.
    South and Southeast Asia have become increasingly attractive as 
bases for drug trafficking organizations' production and smuggling 
operations. Several Asian and Pacific nations have experienced an 
increase in the production, trans-shipment, trafficking, and 
consumption of narcotics in recent years.
    JIATF West's detection and monitoring efforts support U.S. and 
partner nations' law enforcement agencies in combating this threat. In 
fiscal year 2011, their interagency collaborative efforts resulted in 
the seizure of over 1,000 metric tons of meth precursor chemicals bound 
for the Western Hemisphere and were critical in interrupting 
distribution to U.S. markets while contributing to the disruption of 
Asian and Mexican drug trafficking organizations. Conservatively, 1,000 
metric tons of precursors equate to approximately 220 metric tons of 
methamphetamine with a street value of $23.2 billion.
    Question. What role, if any, should DOD play in countering--either 
directly or and with our Asian partners--the illegal narcotics industry 
in Asia?
    Answer. I believe the current DOD role is appropriate. The 
Department serves as the single lead agency for the detection and 
monitoring of aerial and maritime trafficking of illicit drugs flowing 
toward the United States. In addition, DOD plays a critical role in 
supporting U.S. and foreign law enforcement agencies responsible for 
counterdrug and drug-related activities, primarily through information 
sharing and building partner nation security capacity. In cooperation 
with the U.S. interagency and foreign partners, DOD conducts activities 
to detect, disrupt, and dismantle drug-related transnational threats in 
Asia and the Pacific.
                             law of the sea
    Question. Do you support U.S. accession to the United Nations 
Convention on the Law of the Sea? If so, why?
    Answer. I support U.S. accession to the Law of the Sea Convention. 
It is in the enduring interests of the United States to be at the 
forefront of promoting the rule of law, including in the world's 
oceans. U.S. accession to the Convention would send an additional, 
clear signal to the world that we remain committed to advancing the 
rule of law at sea. Additionally, under the Convention, the United 
States would have the firmest possible legal foundation for the rights, 
freedoms, and uses of the sea needed to project power, reassure allies 
and partners, deter adversaries, respond to crises, sustain deployed 
combat forces, and secure sea and air lines of communication that 
underpin international trade and our own economic prosperity.
    Question. Would U.S. accession to the United Nations Law of the Sea 
Convention benefit the U.S. military's mission in the Asia-Pacific 
region? If so, how?
    Answer. U.S. accession to the Law of the Sea Convention would 
benefit the U.S. military's mission in the Asia-Pacific region by 
enabling the United States to reinforce and assert the Convention's 
rights, freedoms, and uses of the sea, including the right of innocent 
passage of U.S. warships through the territorial seas of other nations, 
the right of transit passage of U.S. warships and aircraft in strategic 
straits, and the freedom of U.S. forces to conduct a wide range of 
military activities beyond the territorial seas of any coastal state. 
In addition, becoming a party to the Convention would support combined 
operations with regional partners and demonstrate our commitment to 
conduct Proliferation Security Initiative activities consistent with 
international law; establish undisputed title to our extended 
continental shelf areas; strengthen our position in bilateral 
discussions with the People's Republic of China; and bolster our 
leadership in future developments in the law of the sea. Accession 
would also improve the United States' position and add to our 
credibility in a large number of Asia-focused multilateral venues where 
Law of the Sea matters are discussed.
    It is important to note that the United States was one of the 
leaders of the Conventions' negotiations and our national interests--as 
both a coastal nation and maritime nation--are reflected in its 
provisions. Consequently, accession by the United States would send a 
powerful and affirmative message to the international community that 
the United States believes the legal regime reflected in the Convention 
is worth supporting and upholding against any nation that might seek to 
manipulate the ordinary and intended meaning of certain provisions in 
its self-interest. In short, ratification would enhance stability for 
international maritime rules and the freedom of access for U.S. forces 
in the PACOM AOR to execute assigned missions.
                       pow/mia accounting efforts
    Question. The Joint POW/MIA Accounting Command is critical to the 
recovery and identification of remains of missing military members. 
Recovery of remains of U.S. servicemembers from World War II, the 
Korean War, and the Vietnam war continues to be a high priority. 
Section 541 of the National Defense Authorization Act for Fiscal Year 
2010 requires that the Secretary of Defense ensure that sufficient 
resources, personnel, and funds are provided to attain at least 200 
identifications per year by fiscal year 2015.
    What is your view of the Department's and the POW/MIA community's 
ability to achieve this goal?
    Answer. While Department leaders have made a significant increase 
in resources available to meet the requirement, the goal of reaching 
200 identifications a year remains a challenge. JPAC has been funded to 
hire an additional 253 personnel (civilians and military). I understand 
the JPAC Commander and his team are working to increase efficiencies 
and find new scientific ways of making identifications. DOD, in its 
review of its budget requirements for fiscal years 2012-2016, fully 
resourced JPAC's requirements in its efforts to reach 200 
identifications by 2015. However, real world events and current budget 
deliberations could alter actual funding received affect attainment of 
JPAC's mandated goal.
    Question. On October 20, 2011, DOD announced an agreement with 
North Korea that will allow U.S. personnel to return to North Korea to 
resume recovery of remains of U.S. servicemembers missing from the 
Korean War. Recovery operations in North Korea were suspended in 2005.
    What is your understanding of this recent agreement to resume 
recovery operations in North Korea?
    Answer. During the first quarter of fiscal year 2012, the Deputy 
Assistant Secretary for Defense for Prisoner of War/Missing Personnel 
Office negotiated an arrangement with North Korea to conduct joint 
operations in 2012 to recover the remains of American personnel. JPAC 
had previously conducted operations in North Korea; however operations 
were suspended in 2005 due to rising tensions on the Korean Peninsula.
    JPAC has committed to conduct its mission in North Korea and is 
currently preparing to conduct four Joint Field Activities in the 
Democratic People's Republic of Korea during this calendar year.
    Question. How might the resumption of recovery efforts in North 
Korea impact the future of the Six Party talks or the stability on the 
Korean Peninsula?
    Answer. The resumption of recovery operations in North Korea is not 
linked to the future of the Six Party talks or to stability on the 
Korean Peninsula.
    Question. If confirmed, what steps, if any, would you take to 
enhance POW/MIA recovery efforts in the PACOM AOR?
    Answer. If confirmed, the JPAC Commander and his team will have my 
full support. The noble mission of JPAC and the U.S. Government's 
commitment to accounting for missing servicemembers from past conflicts 
are a powerful signal to our Nation's military and their families that 
we believe strongly in the return of our fallen heroes. Proper 
resourcing for JPAC missions and force protection for personnel 
participating in recovery efforts will be a personal priority.
    In the context of maintaining and improving PACOM's engagement 
strategy, and fully recognizing the POW/MIA effort as humanitarian, I 
will establish an environment to encourage full cooperation in host 
nations where we conduct POW/MIA activities and continue to reinforce 
U.S. Government priorities as I meet and talk with national leaders. 
Because JPAC's mission is worldwide, I will work to ensure JPAC's 
resources and accounting efforts are available and focused not only in 
PACOM's AOR but as globally as appropriate.
                        foreign language policy
    Question. In 2005, DOD approved the Defense Language Transformation 
Roadmap to improve the Department's foreign language capability and 
regional area expertise. Since then, the Department has been working 
toward implementing that roadmap.
    Does PACOM have access to enough foreign language experts to ensure 
good intelligence assessments?
    Answer. While there are shortages in some languages, overall there 
are sufficient linguists for non-crisis intelligence assessments. 
During a significant crisis, existing foreign language resources will 
be hard pressed to maintain the current level of quality intelligence 
collection and assessments.
    Question. In your view, how should the United States expand the 
foreign language skills of civilian and military personnel in order to 
improve the quality of intelligence input to, and policy output by, the 
Office of Asian and Pacific Security Affairs?
    Answer. Greater emphasis and incentives should be placed on 
recruiting both civilian and military personnel with existing language 
capability and regional expertise. Improvements to machine translation 
tools should be resourced so that they can be used routinely to provide 
first draft translations/interpretations to increase productivity of 
the linguist workforce.
                         counterthreat finance
    Question. A number of officials in DOD and the Intelligence 
Community have called for investing significantly more resources in 
identifying and tracking the flow of money associated with terrorist 
networks and illicit trafficking.
    What are your views on the role of DOD in counterthreat finance 
activities?
    Answer. DOD has tremendous ISR assets that are invaluable in 
identifying and defining threat finance networks and characterizing 
those networks critical vulnerabilities. This information can then 
support and enable our interagency partners' counterthreat finance 
actions, be shared with partner nations to allow them to defeat threat 
finance activities within their own borders, and help drive bilateral 
and multi-lateral engagement strategies. We have unique access and 
placement through our military-to-military engagements that allow us to 
work closely in collaboration with the interagency to provide training 
and advice to partner nations on counterthreat finance and to bolster 
their capabilities. These and other DOD capabilities will ensure, in 
close coordination with other U.S. Government departments and agencies, 
that threat finance networks do not threaten our national security.
    Question. In your view, should DOD seek to expand its support to 
other U.S. Government departments and agencies conducting counter 
threat finance activities?
    Answer. With the understanding that an enemy's financial capability 
is the linchpin to their operational capability, I believe we should 
expand our support to other U.S. Government departments and agencies. 
As we continue to further detect and define the various and numerous 
threat finance networks that support adversaries around the globe, a 
whole-of-government approach is the only way to contain and defeat 
these threats to national security. Different U.S. Government 
departments and agencies each have authorities to attack these networks 
from different directions. DOD, can be a major enabler and supporter of 
these agencies in the execution of their authorities.
    Question. Transnational criminal organizations are having a 
debilitating impact on the ability of our foreign partners to govern 
their nations and provide opportunities for their people.
    Do you think expanding counterthreat finance activities in the 
Asia-Pacific region would be beneficial? If so, what role--if any--
should DOD play in those activities?
    Answer. Within the Asia-Pacific region, the threat finance 
environment is extremely complex, diverse and growing, encompassing 
terrorism, proliferation, narcotics trafficking, transnational 
organized criminal groups, and other threat finance networks which 
threaten the security and stability of the region. Countering these 
threat finance activities is critical and we should examine the 
potential expansion of counterthreat finance capabilities in the 
region.
                            quality of life
    Question. Combatant commanders have an interest in the quality of 
life of military personnel and their families assigned within their 
AOR.
    In your view, what is the role and responsibility of combatant 
commanders for the quality of life of personnel assigned to their AOR?
    Answer. The combatant commander is a strong advocate for programs 
which will ensure the needs of our servicemembers and their families 
continue to be met, even during an era of fiscal constraint. The 
commander advocates for sustainment of critical quality of life 
programs and for improvement where needed in the quality of life (QoL) 
of assigned personnel. The commander ensures that QoL issues are 
articulated to community leaders, military installation commanders, DOD 
policymakers, and Members of Congress.
    Question. If confirmed, what would you do to enhance quality of 
life programs for military members and their families within the PACOM 
AOR?
    Answer. If confirmed, I would make QoL for the servicemembers and 
families of PACOM a top priority; our servicemembers and their families 
deserve nothing less. People are our most important resource and 
constant focus on QoL initiatives is vital to effectively implementing 
a ``partnership, readiness, and presence'' strategy in the region. 
Tailored and effective QoL programs and services demonstrate our 
commitment to our personnel, both at home and deployed, by 
appropriately supporting their service and providing for their 
families. Our fighting forces deserve exceptional access to such QoL 
programs and services; I stand committed to ensuring they get them.
    Question. What is your view of the challenges associated with 
global rebasing on the quality of life of members and their families in 
the PACOM AOR (including adequate health care services and DOD 
schools)?
    Answer. The biggest challenge will be preserving the QoL for our 
servicemembers and their families while we realign our forces in 
theater. Throughout the transition process, we should focus efforts on 
maintaining quality housing, DOD schools, commissary and exchange 
services, medical/dental facilities, higher education, work life, 
family and community support programs for our people. We should sustain 
current levels of service during the transformation and ensure to the 
greatest extent possible that these systems are in place before 
families arrive in an area.
                 joint professional military education
    Question. What is your assessment of the value of and current 
requirements for Joint Professional Military Education (JPME) for 
military officers? What changes, if any, would you recommend in this 
regard?
    Answer. I believe that the last 10 years of conflict have proven 
the value of JPME for our military officer corps. Our joint forces have 
made huge strides in synchronizing their efforts and capabilities to 
bring about desired effects on the battlefield. I believe that the 
incorporation of JPMEII into the Senior Service College curriculum was 
a good decision, and recommend we continue to look for opportunities to 
identify efficient ways to prepare our officers for the joint and 
interagency challenges ahead.
              preventing and responding to sexual assaults
    Question. What steps do you plan to take, if confirmed, to ensure 
that military forces assigned to PACOM comply with DOD policies aimed 
at preventing and responding adequately to sexual assaults and the 
recent changes announced by Secretary of Defense Panetta?
    Answer. Sexual assault is criminal conduct punishable under the 
Uniform Code of Military Justice (UCMJ), and must be taken very 
seriously. If confirmed, my commitment is to zero tolerance of sexual 
assault or related behaviors within the PACOM AOR. To ensure this, I 
will establish clear policies and procedures for my leaders, at all 
levels, to take action to prevent sexual assault, protect and support 
victims, hold offenders accountable, and to ensure a safe and healthy 
environment for those in their charge. As is the case in most major 
commands, subordinate commanders in PACOM are required to immediately 
notify the combatant commander of any sexual assault incidents. In line 
with Secretary Panetta's recent changes, I will ensure all personnel 
(military and civilians) at every level are fully aware, trained, and 
committed to eradicating sexual assault.
    Question. What methods for monitoring overall trends and gauging 
the sufficiency of component commanders' efforts in preventing and 
responding to incidents of sexual assault do you consider appropriate 
and intend to implement as Commander, PACOM?
    Answer. I will ensure commanders comply with all requirements in 
accordance with DOD Directive 6495.0 and other established Department 
policies. Additionally, I will require commanders provide me 
assessments of their prevention efforts as well as their responsiveness 
to incidents. From these assessments, I will monitor trends and provide 
further guidance and direction as necessary. I will emphasize the 
importance of commanders monitoring their command climate with respect 
to sexual assault and ensuring sexual assault response capabilities be 
available at all locations in my AOR. I will demand victims be treated 
with fairness and respect and that sexual assault incidents be given 
the highest priority and treated as emergency cases. I will not allow 
sexual assault to injure our personnel, our friends, our families, 
destroy our professional values, or compromise readiness.
              humanitarian assistance and disaster relief
    Question. What should be the role for the U.S. military in 
humanitarian assistance and disaster relief in the Asia-Pacific region?
    Answer. PACOM continues to provide Foreign Disaster Relief in the 
PACOM AOR on an ``as needed'' basis. When countries request assistance, 
PACOM either provides immediate assistance within the initial 72-hours 
of a disaster based on life and limb or after U.S. Agency for 
International Development (USAID) validates the country request against 
an urgent and unique capability that PACOM can provide. PACOM continues 
to assist Asia-Pacific nations with their disaster preparations by 
engaging in multinational forums to share best practices, participating 
in various bi/multilateral HA/DR exercises, as well as partnering with 
the Center for Excellence in Disaster Management and Humanitarian 
Assistance and USAID in country resiliency training. Overall, PACOM 
should be viewed as a quick response force for countries in dire need 
with an ability to respond rapidly, for short duration, and to provide 
assistance when requested.
    Additionally, steady-state Humanitarian Assistance activities are 
an important part of PACOM's Theater Campaign Plan. PACOM provides 
humanitarian assistance annually to countries within its AOR. These HA 
activities are low cost, non-obtrusive, but highly effective efforts 
that improve DOD access, visibility and influence in a partner nation 
or region, generate positive public relations and goodwill for DOD, and 
build collaborative relationships with the partner nations' civil 
society.
    Question. Are the resources necessary to fulfill this role 
currently available to the PACOM commander? If not, what additional 
resources are necessary?
    Answer. Yes, PACOM receives adequate funding from the Overseas 
Humanitarian, Disaster and Civic Aid appropriation, under title 10 
U.S.C. 2561 for humanitarian assistance activities, and title 10 U.S.C. 
404 to respond to disasters within the PACOM AOR.
                         science and technology
    Question. As with other combatant commands, a Science and 
Technology (S&T) advisor is assigned to support PACOM.
    If confirmed, what would be your priorities for the PACOM S&T 
advisor?
    Answer. If confirmed, I will rely on my S&T Advisor to support our 
strategic mission with three priorities:

    (1)  Discover, develop, and demonstrate solutions to warfighter 
challenges;
    (2)  Avoid surprise by adversary technology; and
    (3)  Build defense partnerships with regional allies and partners.

    To accomplish these priorities, I will direct my S&T Advisor to 
continue to expand PACOM's S&T collaboration with the national research 
enterprise composed of service, DOD, and Department of Energy 
laboratories, and international partners, and to provide expert advice 
to my staff on new and emerging capabilities that can aid us in meeting 
theater objectives.
    Question. DOD has, in recent years, put greater emphasis on 
research and development of persistent ISR capabilities.
    In your view, how can persistent ISR improve operations in the 
Pacific theater, and how would you utilize new platform and sensor 
technologies?
    Answer. Persistent ISR has proven an enduring challenge globally, 
and is especially difficult considering the ``tyranny of distance'' 
faced in the vast Asia/Pacific region. Technology continues to play a 
critical enabling role in addressing this challenge. I am following 
with keen interest developments in several technologies that promise to 
mitigate ISR challenges. In all the warfighting domains, advances in 
unattended sensors and autonomous systems promise to revolutionize how 
we conduct ISR, especially in environments where risk mitigation and 
cost-benefit analysis favors their implementation. Finally, I will 
continue to promote the principle of working by, with and through our 
allies and partners in areas such as shared regional maritime domain 
awareness.
    Question. Do you believe that airship platforms can be effectively 
employed in the Pacific theater?
    Answer. I see a need for a broad spectrum of platforms to 
effectively conduct ISR in the Asia/Pacific. Airship-based platforms 
have shown promising capabilities to fill part of this need, especially 
in permissive environments, in support of missions such as air and 
surface domain awareness. Furthermore, airships of sufficient scale 
also offer a promising capability to conduct mobility operations 
independent of traditional aerial or seaport facilities; a useful 
capability for missions such as disaster response.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, PACOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Roger F. Wicker
                       30-year shipbuilding plan
    1. Senator Wicker. Admiral Locklear, the Navy's current 30-Year 
Shipbuilding Plan indicates that we will be building ships at minimum 
sustaining rates. Many observe that this could pose challenges to 
fulfilling the amphibious force requirement and possibly give rise to a 
sea-lift capability gap and an aviation-lift gap in 2015. Let's set 
aside the operational implications of those issues for a moment. Many 
worry that the relatively low orders for new ships proposed in the 2013 
Plan may jeopardize the administration's plans to support the 
shipbuilding industrial base over the intermediate- to long-term. The 
reductions in vendors to provide equipment for the shipbuilding 
industry may also make it difficult to realize desired efficiencies. 
With a ``pivot'' to the Asia-Pacific region and given the vast maritime 
size of the Asia-Pacific area of responsibility (AOR), and the Navy's 
inability to meet its own requirement of 313 ships, currently at 284 
ships, how will this affect your ability to protect America's security 
interests?
    Admiral Locklear. The Navy's shipbuilding plan reflects the new 
strategic guidance and evolving operational plan requirements. From a 
Pacific Command perspective, it is more important how we manage those 
ships globally and whether or not the Asia Pacific area of 
responsibility is adequately serviced. That is, having the right number 
and types of ships present. To date, the Navy has met that 
responsibility.

                           korea f-16 radars
    2. Senator Wicker. Admiral Locklear, the Republic of Korea (ROK) 
Air Force has been asking for advanced F-16 Radars for several years. A 
major element of the upgrade would be the addition of active 
electronically scanned array (AESA) radar to ROK Air Force F-16s--known 
as the KF-16 in Korean service. Replacing the F-16's mechanically 
scanned array radar with an AESA will provide not only performance but 
reliability and maintenance improvements. Do you support the 
expeditious Korean procurement of existing defense technology if such 
technology meets their operational requirements?
    Admiral Locklear. Yes, I strongly support the expeditious Korean 
procurement of the AESA radar for the ROK Air Force KF-16 aircraft. Our 
combined operational readiness on the Korean Peninsula is key to 
maintaining an effective deterrence against the North Korean threat.

    3. Senator Wicker. Admiral Locklear, do you agree that the U.S. 
Government should fully support the ROK Air Force's requirements and 
acquisition process timeline for a U.S. export-compliant AESA radar 
acquired via the foreign military sales (FMS) process?
    Admiral Locklear. Yes, I do feel the U.S. Government should support 
the ROK Air Force's requirements and acquisition process timelines, 
within our own established and legal foreign military sales standards. 
The ROK Government and Air Force have asked for our assurances that 
they will be able to select the same radar our own Air Force will 
select, and be able to acquire it in their requested acquisition 
timeline with assurances of cost savings. I believe this is a 
reasonable request and that the U.S. Government should be able to offer 
these assurances to a strong ally who must be interoperable with our 
own Air Force on the Korean Peninsula.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown
                          sensor-fuzed weapon
    4. Senator Brown. Admiral Locklear, there are a number of 
constituents in my State who are involved in the manufacture and 
assembly of the Air Force's Sensor-Fuzed Weapon (SFW).
    As you may know, the 2010 Oslo Convention to eliminate legacy 
cluster munitions has led some global activists to target the SFW and 
its supply chain, despite the fact that this system is not a legacy 
cluster munition but instead the Department of Defense's (DOD) solution 
to the humanitarian problem caused by those munitions. While the 
weapons that the Oslo Convention seeks to ban are responsible for 
unexploded ordnance injuring civilians long after a conflict has ended, 
the SFW leaves virtually none of these remnants due to its advance 
design and safety features. Regardless, my constituents and I expect 
the Air Force is concerned about campaigns to undermine the industrial 
base for this system.
    Given this situation, I would appreciate your informing me about 
the role the SFW has in operational planning for the U.S. Pacific 
Command (PACOM), and in particular, our mission to help defend the ROK. 
Specifically, does a massive tank incursion by North Korean forces 
remain a threat that our warfighters plan for?
    Admiral Locklear. A preponderance of North Korea's large and 
capable military is in its ground conventional forces, which include 
significant armor and mechanized capability. Given this capability, 
current plans must consider the threat to security that conventional 
forces, including tanks and armored personnel carriers, pose to the 
Alliance. North Korean tanks could play a significant role in their 
offensive strategy as part of Infantry Divisions, Mechanized Brigades, 
and Armor Corps. Consequently, sensor-fuzed weapons are one of the key 
munitions considered in countering North Korean aggression.

    5. Senator Brown. Admiral Locklear, what is the role of area versus 
unitary munitions in addressing this threat?
    Admiral Locklear. The Sensor-Fuzed Weapon (SFW) in PACOM's 
inventory is the CBU-105, which is a type of cluster munitions. The 
advantages of ``cluster munitions'' versus unitary munitions are 
clearly delineated in U.S. policy and included in PACOM internal 
doctrine (PACOM Instruction 0601.10), specifically: ``Use of cluster 
munitions provide the ability to engage area targets that include 
massed formations of enemy forces, individual targets dispersed over a 
defined area, targets whose precise locations are not known, and time-
sensitive or moving targets.''

    6. Senator Brown. Admiral Locklear, what capability does the SFW 
provide that other munitions in the U.S. inventory cannot in this 
environment?
    Admiral Locklear. Each individual SFW includes 10 submunitions, 
with the capability to sense and engage 4 separate targets. The 
effective coverage area can be several acres in size. When used in a 
target-rich environment, as would be represented by either staged or 
advancing troops and armor, there are no other single alternatives that 
favorably compare. To reach the same levels of effectiveness with 
unitary weapons, far greater numbers of weapons and weapons systems, 
combined with higher explosive yields would be necessary.

    7. Senator Brown. Admiral Locklear, how does it address the 
humanitarian concerns that have been raised about the use of other 
munitions?
    Admiral Locklear. The United States complies with the law of armed 
conflict during all armed conflicts, however such conflicts are 
characterized, and in all other military operations. Under that body of 
international law, the right of belligerents to adopt means of injuring 
the enemy is not unlimited.
    Per DOD and Service guidance, all weapons, weapon systems, and 
munitions must be reviewed by the Judge Advocate Generals of the 
respective Services or the DOD General Counsel for legality under the 
law of armed conflict. This review occurs before the award of the 
engineering and manufacturing development contract and again before the 
award of the initial production contract. The weapons review process of 
the United States allows commanders, including myself as Commander, 
U.S. Pacific Command, and all other personnel to reasonably assume that 
any weapon or munition contained in the U.S. military inventory and 
issued to military personnel is lawful. For specific details on how 
humanitarian concerns are addressed in the development of any weapon, 
weapon system, or munition in the U.S. inventory, I respectfully 
encourage you to raise this question to the Judge Advocate Generals and 
the DOD General Counsel.
    At the same time, I have a responsibility to ensure that all 
weapons and munitions under my cognizance are employed in a lawful 
manner. This includes employing weapons against only lawful targets, 
and minimizing collateral damage and incidental injury. I can assure 
you that I take this responsibility seriously.

    8. Senator Brown. Admiral Locklear, what type of consequences would 
you foresee if U.S. forces could rely only on unitary systems to defend 
against a North Korean ground attack?
    Admiral Locklear. Based upon a formidable North Korean threat that 
includes conventional and asymmetric capabilities, during the initial 
stages of aggression, limiting Alliance defense to unitary systems will 
increase operational risk. It is important to maximize U.S. and 
Alliance capabilities to quickly defeat North Korean aggression, 
minimize military and civilian casualties, and maintain security and 
stability on the peninsula and the NE Asia region.

    9. Senator Brown. Admiral Locklear, what costs would be incurred in 
terms of protecting friendly forces, materiel, and dollars?
    Admiral Locklear. [Deleted.]

    10. Senator Brown. Admiral Locklear, in terms of deterrence, what 
value do you put on area weapons in deterring enemy forces from 
considering massing forces to attack our allied forces?
    Admiral Locklear. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                         chinese cyber attacks
    11. Senator Graham. Admiral Locklear, it is now widely believed 
that China, and particularly the People's Liberation Army (PLA), is 
engaged in sustained cyber attacks upon the United States to steal 
information on our defense and trade infrastructures. Evidence exists, 
for example, of China's involvement in cyber attacks at the U.S. 
Department of State, Lockheed Martin, Google, and the NASDAQ, all 
within the last year. If China engages in a cyber attack upon the 
United States, do you consider such an attack to be a hostile act 
against the United States?
    Admiral Locklear. [Deleted.]

    12. Senator Graham. Admiral Locklear, if China engages in a cyber 
attack upon the United States, do you believe it is legitimate under 
the Law of War for the United States to respond in kind?
    Admiral Locklear. [Deleted.]

    13. Senator Graham. Admiral Locklear, if China engages in a cyber 
attack upon the United States, do you believe it is legitimate under 
the Law of War for the United States to act offensively to counter any 
perceived cyber attack upon the United States?
    Admiral Locklear. [Deleted.]

    14. Senator Graham. Admiral Locklear, if China engages in a cyber 
attack upon the United States, do you believe that the United States 
should respond to such an attack?
    Admiral Locklear. That would depend greatly on the target of that 
attack. Cyber threats to our national security go well beyond only 
military targets and affect all aspects of society. Given the 
integrated nature of cyberspace, computer-induced failures of power 
grids, transportation networks, or financial systems could cause 
massive physical damage and economic disruption. Our military and our 
society as a whole are dependent on this critical infrastructure, and I 
believe an attack on that infrastructure would warrant a response if we 
could accurately and confidently determine the origin of that attack.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
                                 taiwan
    15. Senator Cornyn. Admiral Locklear, in your advance policy 
question (APQ) responses, you acknowledge that two of the three main 
challenges in the PACOM AOR are preserving strong relationships with 
our Asia-Pacific allies and partners, while dealing with China's 
substantial military modernization and buildup. You note that one of 
the key means to addressing these challenges is by continuing our 
``commitments to modernizing and strengthening our treaty alliances and 
partnerships in the region,'' relationships that ``will be enhanced by 
maintaining interoperable military capabilities that deter regional 
aggression and build partner security capacity.'' You also maintain 
that the ``United States' primary objective in building the capacity of 
foreign partners should continue to be to help them develop effective 
and legitimate security institutions that can provide for their 
countries' internal security.'' I welcome these statements, and can 
think of no greater example of the importance of these facts than the 
United States' relationship with Taiwan. What is your assessment of the 
value of the U.S.-Taiwan relationship and of the strategic value of 
building Taiwan's capacity to defend itself?
    Admiral Locklear. The U.S.-Taiwan relationship provides valuable 
contributions to Taiwan's self-defense capability. In turn, Taiwan's 
self-defense capability enhances stability across the Strait and 
enables its dialogue with the Mainland. This contributes to stability 
in the region.

    16. Senator Cornyn. Admiral Locklear, your APQ responses also 
highlight China's military modernization program and its near-term 
focus, which ``appears to be on preparing for potential contingencies 
involving Taiwan.'' According to DOD's 2011 report, ``Military and 
Security Developments Involving the People's Republic of China (PRC)'', 
the ``balance of cross-Strait military forces and capabilities 
continues to shift in the mainland's favor.'' As you rightly said, 
under the Taiwan Relations Act (TRA), the United States is statutorily 
obligated to make available to Taiwan such defense articles and defense 
services ``as may be necessary to enable Taiwan to maintain a 
sufficient self-defense capability.'' In your opinion, how could this 
cross-strait balance have shifted in favor of the PRC, if the United 
States has been upholding our obligations under the TRA?
    Admiral Locklear. [Deleted.]

    17. Senator Cornyn. Admiral Locklear, I also appreciate your 
acknowledgment that the TRA states that the President and Congress 
shall determine the nature and quantity of defense articles ``based 
solely upon their judgment of the needs of Taiwan.'' You further state 
that you ``would not recommend any changes to the law.'' It is my 
opinion--and that of a bipartisan group of colleagues who joined me in 
cosponsoring the Taiwan Airpower Modernization Act--that Taiwan would 
benefit from the sale of new F-16 C/Ds. However, the current 
administration continues to refuse to sell these aircraft to Taiwan. In 
your opinion, should China be allowed to dictate or substantially 
influence what military equipment the United States does or does not 
sell to Taiwan?
    Admiral Locklear. No. Whether to go forward with arms sales to 
Taiwan is determined by the President and Congress based solely upon 
their judgment.

    18. Senator Cornyn. Admiral Locklear, when asked if you believe the 
United States should sell new F-16 C/D aircraft to Taiwan, you 
responded that ``the recently announced F-16 A/B upgrades are similar 
in capability to new F-16 C/Ds.'' Yet, this misses the larger problem, 
which is Taiwan's looming fighter shortfall, as much of its fleet 
reaches the end of its lifespan. Wu Jin-lin, Secretary General to 
President Ma of Taiwan, notified me in a letter dated October 14, 2011, 
that ``the main purpose for purchasing new F-16 C/D fighters is to 
replace our aging fleet of some 65 F-5 fighters, which is obviously a 
different matter from the acquisition of the F-16 A/B retrofit 
packages.'' As a result, Taiwan continues to ask to be allowed to 
purchase new F-16 C/D fighters, even after the announced sale of the A/
B upgrades. Furthermore, according to DOD's 2011 report, the PRC has a 
total of approximately 2,300 operational combat aircraft. In contrast, 
Taiwan has a total of 388 aircraft. The sale of F-16 A/B upgrades does 
nothing to attempt to restore any quantitative balance. In light of 
these facts, please elaborate on your response, and do you believe the 
United States should sell new F-16 C/D aircraft to Taiwan?
    Admiral Locklear. [Deleted.]

    19. Senator Cornyn. Admiral Locklear, you state that ``capabilities 
that deter the PRC or increase the Taiwan military's survivability are 
critical.'' What is your assessment of Taiwan's current need to build 
its air defense capacity?
    Admiral Locklear. [Deleted.]

    20. Senator Cornyn. Admiral Locklear, in your opinion, would the 
sale of new F-16 C/Ds serve as a deterrent to the PRC? Would they 
increase Taiwan's military survivability?
    Admiral Locklear. [Deleted.]

    21. Senator Cornyn. Admiral Locklear, in your APQ responses, you 
said that Taiwan must ensure that it adequately resources its defense 
program, to include looking at increasing its defense budget, 
maintaining that you believe ``the best way to encourage Taiwan to 
invest more in its military is to send strong and consistent messages 
from the U.S. Government to Taiwan.'' What message do you believe the 
current administration's failure to approve the sale of 66 new F-16 C/D 
fighters sends to the Government of Taiwan? Does this message encourage 
Taiwan to continue investing in its military?
    Admiral Locklear. The Taiwan authorities understand the foreign 
military sales process and what it entails. The President and Congress 
make the determination based upon their judgment of the needs of Taiwan 
and the U.S. military supports this assessment.
    Regardless, Taiwan must continue to invest in its military, 
particularly in the area of joint operations. Taiwan's commitment to 
its own defense contributes to its ability to deter PRC aggression.

    22. Senator Cornyn. Admiral Locklear, in your opinion, would 66 new 
F-16s C/Ds bolster Taiwan's ability to conduct maritime interdiction in 
a blockade scenario?
    Admiral Locklear. [Deleted.]

    23. Senator Cornyn. Admiral Locklear, if the administration 
continues to stall on Taiwan's pending request, and Taiwan becomes 
unable to purchase new F-16s, what are the potential impacts on 
Taiwan's ability to defend its own skies?
    Admiral Locklear. [Deleted.]

    24. Senator Cornyn. Admiral Locklear, what would be the impact on 
U.S. interests in the region?
    Admiral Locklear. [Deleted.]

    25. Senator Cornyn. Admiral Locklear, according to DOD, in 2011 the 
PLA Navy had the largest force of principal combatants, submarines, and 
amphibious warships in Asia. This fleet includes 49 diesel attack 
submarines and 5 nuclear attack submarines. In contrast, Taiwan 
currently has four diesel attack submarines and zero nuclear attack 
submarines. What is your assessment of the current status of Taiwan's 
submarine fleet and the ability of Taiwan's navy to defend against an 
amphibious attack?
    Admiral Locklear. [Deleted.]

    26. Senator Cornyn. Admiral Locklear, what is your assessment of 
how long it will be before Taiwan's current submarines must be 
replaced?
    Admiral Locklear. [Deleted.]

    27. Senator Cornyn. Admiral Locklear, should the United States be 
looking for ways to help Taiwan replace its current submarines, and 
even grow its submarine fleet, in the near future?
    Admiral Locklear. [Deleted.]

    28. Senator Cornyn. Admiral Locklear, do you believe the United 
States has met its obligations under the TRA to ensure that Taiwan has 
the opportunity to upgrade its submarine fleet?
    Admiral Locklear. [Deleted.]

    29. Senator Cornyn. Admiral Locklear, what risks would the United 
States face if Taiwan cannot protect itself?
    Admiral Locklear. [Deleted.]

    30. Senator Cornyn. Admiral Locklear, if hostilities were to break 
out between China and Taiwan, is the United States currently able to 
provide an air deterrent over Taiwan, if Taiwan proves unable to 
protect itself?
    Admiral Locklear. [Deleted.]

    31. Senator Cornyn. Admiral Locklear, you note that, ``with the 
current budget environment, careful choices will need to be made that 
focus resources where they provide the most value and return.'' As you 
correctly state, building partner capacity ``in our allies and partners 
lessens the burden on U.S. forces responding to security threats 
outside the United States.'' In light of the current fiscal crisis and 
the drastic budget constraints DOD is currently facing, do you agree 
that a Taiwanese air force that possesses the capacity to deter Chinese 
aggression is in the best interest of the United States?
    Admiral Locklear. I agree, and I would expand that statement to 
cover the entire Taiwan military. Taiwan must continue to focus its 
efforts on improving joint operations capabilities, streamlining 
defense programs to be less costly and more effective, and seeking 
innovative solutions to complement its traditional military 
capabilities.

    32. Senator Cornyn. Admiral Locklear, do you agree that a capable 
Taiwan air force would lessen the burden on U.S. forces in the region, 
reducing the risk that U.S. forces would potentially have to respond to 
Chinese military aggression against Taiwan?
    Admiral Locklear. Taiwan's overall military capability, to include 
its air force, contributes to Taiwan's overall ability to deter 
conflict.
                                 ______
                                 
    [The nomination reference of ADM Samuel J. Locklear III, 
USN, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 23, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Navy to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be Admiral

    ADM Samuel J. Locklear III, USN, 0000.
                                 ______
                                 
    [The biographical sketch of ADM Samuel J. Locklear III, 
USN, which was transmitted to the committee at the time the 
nomination was referred, follows:]
   Transcript of Naval Service for ADM Samuel Jones Locklear III, USN


      28 Oct. 1954........................  Born in Macon, GA
      08 June 1977........................  Ensign
      08 June 1979........................  Lieutenant (junior grade)
      01 July 1981........................  Lieutenant
      01 Dec. 1986........................  Lieutenant Commander
      01 Sep. 1990........................  Commander
      01 Sep. 1995........................  Captain
      01 Sep. 2001........................  Rear Admiral (lower half)
      01 Apr. 2005........................  Rear Admiral
      03 May 2007.........................  Vice Admiral
      06 Oct. 2010........................  Admiral, Service continuous
                                             to date



Major duty assignments:

------------------------------------------------------------------------
            Assignments and duties                  From          To
------------------------------------------------------------------------
U.S. Naval Academy (Executive Assistant to       June 1977    Sep. 1977
 OIC, Fourth Class Regiment)..................
Surface Warfare Officers School Command,         Sep. 1977    Apr. 1978
 Newport, RI (DUINS)..........................
USS William V. Pratt (DDG 44) (Fire Control      Apr. 1978    Mar. 1981
 Officer).....................................
U.S. Naval Academy (Company Officer)..........   Mar. 1981    July 1983
Naval Nuclear Power School, Naval Training       July 1983    Feb. 1984
 Center, Orlando, FL (DUINS)..................
Nuclear Power Training Unit, Ballston Spa, NY    Feb. 1984    Aug. 1984
 (DUINS)......................................
USS Carl Vinson (CVN 70) (Electrical Officer).   Aug. 1984    Jan. 1987
Surface Warfare Officers School Command          Jan. 1987    July 1987
 Newport, RI (DUINS)..........................
USS Callaghan (DDG 994) (Operations Officer)..   July 1987    June 1989
Surface Warfare Officers School Command          June 1989    Aug. 1989
 Newport, RI (DUINS)..........................
Commander, Naval Surface Force, U.S. Pacific     Aug. 1989    Oct. 1989
 Fleet (Nuclear Propulsion MIT Division)......
XO, USS Truxtun (CGN 35)......................   Oct. 1989    July 1991
Industrial College of the Armed Forces           July 1991    Aug. 1992
 (Student)....................................
CO, USS Leftwich (DO 984).....................   Aug. 1992    Dec. 1994
Joint Staff (Branch Chief, Regional Engagement   Dec. 1994    Feb. 1997
 and Presence Joint Warfighting Capabilities
 Assessment Branch) (J-5).....................
Commander, Destroyer Squadron Two.............   Feb. 1997    Dec. 1998
Office of the CNO (Executive Assistant to the    Dec. 1998    Dec. 1999
 Vice Chief of Naval Operations) (N09A).......
Commandant of Midshipmen, U.S. Naval Academy..   Dec. 1999    Jan. 2002
Office of the CNO (Deputy Director for           Jan. 2002    Oct. 2002
 Requirements Assessment, N81D/Director, CINC
 Liaison Division, N83).......................
Commander. Cruiser Destroyer Group Five.......   Oct. 2002    Jan. 2004
Office of the CNO (Deputy Director, Surface      Jan. 2004    Oct. 2004
 Warfare Division) (N76B).....................
Office of the CNO (Director, Assessment          Oct. 2004    Oct. 2005
 Division) (N81)..............................
Office of the CNO (Director, Programming         Oct. 2005     May 2007
 Division) (N80)..............................
Commander. Third Fleet........................    May 2007    July 2009
Office of the CNO (Director, Navy Staff)         July 2009    Sep. 2010
 (N09B).......................................
Commander, U.S. Naval Forces, Europe/            Oct. 2010      To date
 Commander, U.S. Naval Forces Africa/
 Commander, Allied Joint Forces Command,
 Naples.......................................
------------------------------------------------------------------------


Medals and awards:
    Defense Superior Service Medal
    Legion of Merit with four Gold Stars
    Bronze Star
    Meritorious Service Medal with three Gold Stars
    Navy and Marine Corps Commendation Medal with one Gold Star
    Navy and Marine Corps Achievement Medal with one Gold Star
    Navy Unit Commendation
    Navy ``E'' Ribbon
    National Defense Service Medal with one Bronze Star
    Armed Forces Expeditionary Medal
    Southwest Asia Service Medal
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Sea Service Deployment Ribbon with one Silver Star
    Kuwait Liberation (Kuwait)

Special qualifications:
    BS (Operations Research) U.S. Naval Academy, 1977
    MA (Public Administration) George Washington University, 1992
    Designated Surface Warfare Officer, 1978
    Graduate of Industrial College of the Armed Forces, 1992
    Designated Joint Specialty Officer, 1998
    Capstone, 2005-1

Personal data:
    Wife: Pamela Ann Nichols of Peabody, MA
    Children: Jennifer N. Locklear (Daughter) Born: 14 December 1980.
             Jillian L. Locklear (Daughter) Born: 16 February 1984.

Summary of joint duty assignments:

------------------------------------------------------------------------
             Assignment                       Dates              Rank
------------------------------------------------------------------------
Joint Staff (Branch Chief, Regional  Dec. 94-Feb. 97.......            CDR/CAPT
 Engagement and Presence Joint
 Warfighting Capabilities
 Assessment Branch) (J-5).
Commander, Allied Joint Forces       Oct. 10-To Date.......         ADM
 Command, Naples.
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by ADM Samuel J. 
Locklear III, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Samuel J. Locklear III.

    2. Position to which nominated:
    Commander, U.S. Pacific Command.

    3. Date of nomination:
    23 January 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    28 October 1954; Macon, GA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Pamela Ann Locklear (Nichols).

    7. Names and ages of children:
    Jennifer Nichols Loustanunau (Locklear), age 30.
    Jillian Leigh Bauersfeld (Locklear), age 27.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Naval Academy Alumni Association-Member.
    Surface Navy Association-Member.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                   ADM Samuel J. Locklear III, USN.
    This 5th day of December, 2011.

    [The nomination of ADM Samuel J. Locklear III, USN was 
reported to the Senate by Chairman Levin on February 17, 2012, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on February 17, 2012.]
                              ----------                              

    [Prepared questions submitted to LTG Thomas P. Bostick, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. The goals of the Goldwater-Nichols legislation are as 
important today as when the act passed 30 years ago. I continue to 
support these reforms and will be guided by the objectives of this 
important legislation, which promote the effectiveness of military 
operations, strengthen civilian control, provide for more efficient and 
effective use of defense resources, and improve the management and 
administration of the Department of the Army and Department of Defense 
(DOD).
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Not applicable, in view of my previous answer.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Chief of Engineers to the following offices (for the purpose of 
these questions, the term ``Chief of Engineers'' should be read to 
include Commanding General, U.S. Army Corps of Engineers):
    The Secretary of Defense.
    Answer. As head of DOD, the Secretary of Defense has full 
authority, direction, and control over all its elements. The Secretary 
exercises this power over the Corps of Engineers through the Secretary 
of the Army, whose responsibility for, and authority to conduct all 
affairs of the Army is subject to the authority, direction, and control 
of the Secretary of Defense. If confirmed, I will cooperate fully with 
the Secretary of Defense in fulfilling the Nation's national defense 
priorities and efficiently administering the Corps of Engineers in 
accordance with the policies established by the Office of the Secretary 
of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff serves as 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. Subject to the authority, direction, and 
control of the President and the Secretary of Defense, the Chairman, 
with assistance from the Joint Chiefs of Staff has responsibility of 
providing for the strategic direction, strategic planning, and 
contingency planning; advising the Secretary of Defense on 
requirements, programs, and budgets identified by the commanders of the 
unified and specified combatant commands; developing doctrine for the 
joint employment of the Armed Forces; providing for representation of 
the United States on the Military Staff Committee of the United 
Nations; furnishing certain reports to the Secretary of Defense; and 
performing such other duties as may be prescribed by law or by the 
President or the Secretary of Defense. If confirmed, I will cooperate 
fully with the Chairman of the Joint Chiefs of Staff in the performance 
of his responsibilities.
    Question. The Secretary of the Army.
    Answer. As head of the Department of the Army, the Secretary of the 
Army is responsible for, and has the authority to conduct, all affairs 
of the Department of the Army, subject to the authority, direction, and 
control of the Secretary of Defense. The Secretary of the Army may 
assign such of his functions, powers, and duties as he considers 
appropriate to the Under Secretary of the Army, as well as the 
Assistant Secretaries of the Army, and require officers of the Army to 
report to these officials on any matter. If confirmed, I will support 
the Secretary in the performance of the Secretary's important duties. I 
will strive, to establish and maintain a close, professional 
relationship with the Secretary of the Army, based on full and candid 
communication with the Secretary on all matters assigned to me.
    Question. The Assistant Secretary of the Army for Civil Works.
    Answer. The Assistant Secretary of the Army for Civil Works is 
principally responsible for the overall supervision of the Army's 
functions relating to programs for conservation and development of the 
national water resources, including flood control, navigation, shore 
protection, and related purposes. Carrying out the Army's civil works 
program is a principal mission of the Corps of Engineers and the 
complex issues that arise in this area demand a close, professional 
relationship between the Assistant Secretary of the Army for Civil 
Works and the Chief of Engineers, based on mutual respect, trust, 
cooperation, and full communication. If confirmed, I am committed to 
establishing and maintaining such a relationship.
    Question. The General Counsel of the Army.
    Answer. The General Counsel of the Army is the chief legal officer 
of the Army. The General Counsel serves as counsel to the Secretary of 
the Army and other Secretariat officials and is responsible for 
determining the position of the Department of the Army on any legal 
question or procedure. If confirmed, I will ensure that my Chief 
Counsel maintains a close and professional relationship with the 
General Counsel and actively seeks the General Counsel's guidance in 
order to ensure that Army Corps of Engineers policies and practices are 
in strict accordance with the law and the highest principles of ethical 
conduct.
    Question. The Chief of Staff of the Army and the Army Staff.
    Answer. The Chief of Staff of the Army performs the Chief of 
Staff's duties under the authority, direction, and control of the 
Secretary of the Army and is directly responsible to the Secretary. The 
Chief of Staff also performs the duties prescribed by law as a member 
of the Joint Chiefs of Staff.
    The Army Staff assists the Secretary of the Army in carrying out 
the Secretary's responsibilities, by furnishing professional advice and 
operations expertise to the Secretary, the Under Secretary, and the 
Assistant Secretaries of the Army and to the Chief of Staff of the 
Army. Under the authority, direction, and control of the Secretary of 
the Army, the Army Staff prepares for and assists in executing any 
power, duty, or function of the Secretary or the Chief of Staff; 
investigates and reports on the Army's efficiency and preparedness to 
support military operations; supervises the execution of approved 
plans; and coordinates the action of Army organizations, as directed by 
the Secretary or Chief of Staff. As a statutory member of the Army 
Staff, the Chief of Engineers assists the Secretary in carrying out the 
Secretary's responsibilities and furnishes necessary professional 
assistance to the Secretary, the Under Secretary, the Assistant 
Secretaries of the Army and the Chief of Staff of the Army. 
Specifically, the Chief of Engineers is the principal adviser to the 
Army Staff on engineering and construction matters. In discharging 
these responsibilities, the Chief of Engineers must develop positive, 
professional relationships with the Chief of Staff, the Vice Chief of 
Staff, the Deputy and Assistant Chief of Staff, The Surgeon General, 
the Judge Advocate General, the Chief of Chaplains and the Chief of the 
Army Reserve, in order to ensure that the Army Staff works harmoniously 
and effectively in assisting the Army Secretariat. If confirmed, I am 
committed to establishing and maintaining such relationship with the 
members of the Army Staff.
    Question. The combatant commanders.
    Answer. The combatant commanders are responsible to the President 
and to the Secretary of Defense for the performance of missions 
assigned to the commands by the President or by the Secretary with the 
approval of the President. Subject to the direction of the President, 
the combatant commanders perform their duties under the authority, 
direction, and control of the Secretary of Defense, and a redirectly 
responsible to the Secretary for the preparedness of the commands to 
carry out their assigned missions. These missions include providing 
humanitarian and civil assistance, training the force, conducting joint 
exercises, contingency activities, and other selected operations. If 
confirmed, I will support the combatant commanders in the performance 
of these important duties by providing any necessary engineering and 
construction services required from the Corps of Engineers to the 
combatant commanders' component commands.
    Question. The U.S. Ambassador to Iraq.
    Answer. The Corps of Engineers has provided a broad array of 
engineering and construction related services in Iraq generally to 
either the Commander, U.S. Forces Iraq (USF-I), the State Department, 
or the Government of Iraq. As the size and the scope of the military's 
mission has reduced, so has the size and the scope of the Corps of 
Engineers' mission. Despite the reduced mission and reduced number of 
deployed personnel, the Corps of Engineers remains prepared to support 
the Commander USF-I, the State Department, or the Government of Iraq as 
needed either by leveraging reachback to U.S.-based engineering 
services, or through a temporary surge of personnel. In all cases, the 
primary representative in providing all required support is the 
Transatlantic Division Commander.
    Question. The U.S. Ambassador to Afghanistan.
    Answer. The Corps of Engineers continues to provide an array of 
engineering and construction related services in Afghanistan generally 
to either the Commander, U.S. Forces Afghanistan (USFOR-A)/
International Security Assistance Force (ISAF) or the State Department. 
The Corps of Engineers remains prepared to support the Commander and 
the State Department either by leveraging reachback to U.S.-based 
engineering services, or through a temporary surge of personnel, as 
required. In all cases, the primary representative in providing all 
required support is the Transatlantic Division Commander.
    Question. Commander, U.S. Forces Iraq.
    Answer. The Corps of Engineers has provided a broad array of 
engineering and construction related services in Iraq generally to 
either the Commander, U.S. Forces Iraq (USF-I), the State Department, 
or the Government of Iraq. As the size and the scope of the military's 
mission has reduced, so has the size and the scope of the Corps of 
Engineers' mission. Despite the reduced mission and reduced number of 
deployed personnel, the Corps of Engineers remains prepared to support 
the Commander USF-I, the State Department, or the Government of Iraq as 
needed either by leveraging reachback to U.S.-based engineering 
services, or through a temporary surge of personnel. In all cases, the 
primary representative in providing all required support is the 
Transatlantic Division Commander.
    Question. Commander, U.S. Forces Afghanistan/International Security 
Assistance Force.
    Answer. The Corps of Engineers continues to provide an array of 
engineering and construction related services in Afghanistan generally 
to either the Commander, U.S. Forces Afghanistan (USFOR-A)/
International Security Assistance Force (ISAF) or the State Department. 
The Corps of Engineers remains prepared to support the Commander and 
the State Department either by leveraging reachback to U.S.-based 
engineering services, or through a temporary surge of personnel; as 
required. In all cases, the primary representative in providing all 
required support is the Transatlantic Division Commander.
    Question. The State Governors.
    Answer. The execution of the Corps of Engineers civil and military 
missions often demands a balancing of diverse interests. The proper 
reconciliation of these interests requires an understanding of the 
Corps' authorities and legal responsibilities and open communication 
among all parties. If confirmed, I am committed to working 
cooperatively with the Governors of the States for the public interest 
and pledge to establish and maintain a full dialogue with the Governors 
of the States on all issues we must cooperatively address.
                            chain of command
    Question. Please describe your understanding of the chain of 
command for the Chief of Engineers on: (a) military matters; (b) civil 
works matters; (c) operational matters; and (d) any other matters for 
which the Chief of Engineers may be responsible.
    Answer.
(a) Military matters
    The Chief of Staff presides over the Army Staff and assists the 
Secretary of the Army in carrying out the Secretary's responsibilities. 
The Vice Chief of Staff has such authority and duties with respect to 
the Army Staff as the Chief of Staff, with the approval of the 
Secretary of the Army, may prescribe for him. As a statutory member of 
the Army Staff, the Chief of Engineers reports to the Chief of Staff, 
through the Vice Chief of Staff, with respect to military matters.
(b) Civil Works matters
    The supervisory duties of the Assistant Secretary of the Army for 
Civil Works extends to all functions of the Army relating to programs 
for conservation and development of the national water resources--in 
other words, for all of what is known as the civil works program. The 
Chief of Engineers reports to the Assistant Secretary of the Army for 
Civil Works on civil works functions.
(c) Operational matters
    The Chief of Engineers serves as a member of the Army Staff and as 
Commander of the U.S. Army Corps of Engineers. In this latter capacity, 
the Chief of Engineers commands nine engineer divisions and one 
engineer battalion. When employed in support of military contingency 
operations, these engineer assets fall under the command and control of 
the combatant commander designated for the particular operation.
(d) Any other matters for which the Chief of Engineers may be 
        responsible:
    The Chief of Engineers reports to each of the Assistant Secretaries 
within their areas of functional responsibility. For example, in the 
areas of installation and real estate management, the Chief of 
Engineers reports to the Assistant Secretary of the Army for 
Installations, Environment, and Energy. Similarly, the Chief of 
Engineers reports on procurement matters to the Assistant Secretary of 
the Army for Acquisition, Logistics, and Technology.
    Question. Who is responsible for providing direction and 
supervision to the Chief of Engineers in each of the four areas listed 
above?
    Answer. In each of these areas, the Chief of Engineers acts under 
the overall authority, direction, and control of the Secretary of the 
Army. With respect to military matters, the Secretary has assigned to 
the Chief of Staff, the authority to preside over and supervise the 
Army Staff, including the Chief of Engineers. With respect to civil 
works functions, the Chief of Engineers reports to the Assistant 
Secretary of the Army for Civil Works. In operational contexts, command 
and control of engineer assets is exercised by the combatant commanders 
designated for the particular operation.
    Question. In your view, are there any areas of responsibility where 
it would be inappropriate for the Chief of Engineers to provide 
information to the Secretary of the Army or the Assistant Secretary of 
the Army for Civil Works? If so, what areas and why?
    Answer. No. Certain information may require protection from 
disclosure, as in the case of certain procurement sensitive 
information, however, even this information may be shared if 
appropriate steps are taken to protect sensitive and proprietary 
aspects of the information. The relationships between the Secretary of 
the Army and the Assistant Secretary of the Army for Civil Works and 
the Chief of Engineers must be founded upon information sharing, and 
full and open communication about all matters. If confirmed, I will 
ensure that all Secretariat officials are informed about issues and 
provided with all information pertinent to their functional areas of 
responsibility.
    Question. What is your view of the relative authority of the Chief 
of Engineers, the Assistant Secretary of the Army for Civil Works, the 
Secretary of the Army, the Army Chief of Staff, and the Secretary of 
Defense with regard to the civil works functions of the Army Corps of 
Engineers?
    Answer. As head of DOD, the Secretary of Defense has full 
authority, direction, and control over all elements within DOD. 
Similarly, as head of the Department of the Army, the Secretary of the 
Army has the authority necessary to conduct all affairs of the 
Department of the Army. Therefore, either Secretary could personally 
intervene in an issue involving the civil functions of the Corps of 
Engineers. However, the principal responsibility for overall 
supervision of the Corps civil works functions has been assigned to the 
Assistant Secretary of the Army for Civil Works by statute and various 
directives. Generally speaking, this supervisory responsibility 
includes the responsibility for setting program policies and for 
coordinating with the Department of the Army, DOD, Office of Management 
and Budget, and other executive branch officials on the Corps budget, 
legislative program, and other matters of program interest involving 
the Corps civil functions. In general, the Chief of Engineers is the 
engineering and construction expert responsible for carrying out the 
civil functions of the Corps and for conducting the various program, 
project, or study activities that comprise the civil works program. 
Typically, the Chief of Engineers does not interact with the Chief of 
Staff of the Army on a regular basis with respect to matters involving 
the Corps civil functions.
    Question. The work of the Chief of Engineers often involves issues 
of great significance to the States and localities and their elected 
officials in Congress.
    If confirmed, what would be your role in addressing such matters 
with Congress?
    Answer. I agree this work often does involve issues of great 
significance to the States and localities and their elected officials 
in Congress. In fulfilling its statutory requirements, the Corps must 
interact positively to define an appropriate Federal role in addressing 
these issues that recognizes fiscal realities, environmental, and other 
societal considerations. The challenges the Corps faces are complex, 
and there are many difficult decisions to be made. It is important that 
all interests be brought to the table and that they be given a voice in 
the development of solutions to our Nation's problems. The Corps must 
be responsive to these interests and must engage in an open, 
constructive, and cooperative dialogue with the States, localities, and 
elected officials to ensure issues are resolved in a manner that 
maximizes the public interest.
    Question. What is your understanding of the role of the civilian 
and military leadership of the Army Corps of Engineers in developing 
goals for Army Corps of Engineers programs and presenting these goals 
to the legislative branch?
    Answer. The civilian and military leadership of the Corps of 
Engineers plays an important role in developing goals for Corps 
programs and in presenting these goals to the legislative branch. These 
goals are guided by the leaders' technical knowledge and understanding 
of Corps capabilities and by information gleaned from a variety of 
sources inside and outside the Corps of Engineers. The leaders' goals 
must promote the public interest, be affordable, and comport with 
existing law. Ultimately, the leadership's goals will set the direction 
and tone for the execution of the Corps missions, if embraced by the 
administration and Congress. Military and civilian leaders within the 
Corps play a pivotal role in shaping these goals, and in ensuring that 
the goals are supported by the executive branch and Congress. These 
leaders may be asked by Congress to give testimony on the goals or to 
answer questions about the goals. They must be prepared to enter into a 
full and constructive dialogue with Congress to ensure that the goals 
are understood by and endorsed by Congress as promoting the public 
interest.
                             qualifications
    Sections 3031, 3032, and 3036 of title 10, U.S.C. prescribe some of 
the duties and responsibilities of the Chief of Engineers. Other civil 
works related responsibilities are described in title 33, U.S.C.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer.
Background:
        <bullet> Undergraduate - Bachelor of Science Degree with 
        concentration in Engineering from West Point (majors not 
        offered at that time)
        <bullet> Graduate - Masters Degree in Mechanical Engineering; 
        Masters Degree in Civil Engineering (Structures); both from 
        Stanford University
        <bullet> Registered Professional Engineer in State of Virginia 
        (License #18133)
        <bullet> Associate Professor of Mechanical Engineering at West 
        Point
Experience:
        <bullet> Commander, B Company, 54th Engineer Battalion, 
        Wildflecken Germany (Completed numerous construction projects; 
        Recognized by Secretary of the Army and Army Chief of Staff as 
        DA level Maintenance Company of the Year;)
        <bullet> Executive Officer to Chief of Engineers 1993-1994 
        (supported the Chief of Engineers through many challenging 
        issues including The Great Mississippi and Missouri Rivers 
        Flood of 1993)
        <bullet> White House Fellow, 1989-1990, Department of Veterans 
        Affairs, Special Assistant to Secretary of Veteran Affairs 
        (conducted review and concept development for Joint DOD-VA 
        hospitals)
        <bullet> U.S. Army Europe, Office of the Deputy Chief of Staff, 
        Engineer. Significant contribution to the Concept Plan to 
        drawdown Europe. Prepared leadership and participated in 
        engagements with key staffers on Congress.
        <bullet> Commander, 1st Engineer Battalion (led Task Force 
        working with Government and State officials in fighting the 
        1994 Idaho Fires)
        <bullet> Commander, Engineer Brigade, 1st Armored Division. 
        Deployed to Bosnia and served as the Senior Engineer 
        responsible for de-mining operation and the construction 
        mission (interagency, joint, and combined work with over a 
        dozen international partners; projects included building a 
        hospital, barracks and cafeterias, a strategic airfield, water 
        projects; port, bridge, road, rail preparations to bring 1st 
        Cavalry Division into an unused Port of Rijeka, Croatia); 
        deployed elements of the brigade in support of operations in 
        Kosovo and provide engineering expertise to the leadership on 
        the ground.
        <bullet> Executive Officer to Chief of Staff of the Army, 1999-
        2001 (supported the chief in joint, interagency, congressional, 
        media, and numerous other engagements)
        <bullet> Deputy Director for Operations, J-3, The Pentagon, 
        2001-2002 (served on watch team working through the events of 
        11 September 2001, and the initiation of hostilities in 
        Afghanistan)
        <bullet> Assistant Division Commander for Support, and 
        Assistant Division Commander for Maneuver, 1st Cavalry 
        Division. Planned and executed the deployment of over 25,000 
        soldiers and equipment into theater)
        <bullet> Gulf Region Division, Iraq, 2004-2005 (responsible for 
        $18 billion of construction projects including water, sewage, 
        transportation, electricity, oil, security, hospitals, schools, 
        and several other areas)
        <bullet> Commander, U.S. Army Recruiting Command, 2005-2009 
        (recruited the Grow the Army Force, during some of the most 
        challenging times for the All-Volunteer Force; worked with 
        local and national government officials, Congress, media, 
        businesses, and education. Participated in the development of 
        the ``Army Strong'' Campaign)
        <bullet> Deputy Chief of Staff, G1 (managed the personnel 
        policies and program to support 1.1 million soldiers, over 
        300,000 civilians and their families)
                     major challenges and problems
    Question. The Army Corps of Engineers is facing a major, current 
challenge in the rising Mississippi River and the devastating toll it 
is taking on the people and property in the path of the flood waters. 
There are various other challenges that require the attention of the 
Army Corps of Engineers.
    In your view, what are the major challenges confronting the next 
Chief of Engineers?
    Answer. If confirmed, my first priority would be to meet with the 
Assistant Secretary of the Army for Civil Works, Corps Leaders, Army, 
DOD and administration leadership, as well as Members of Congress to 
seek their input into the major challenges confronting the next Chief.
    In my view, the next Chief--and probably the next several Chiefs--
must be concerned with the following issues.
    Maintaining the technical competence and professionalism of the 
Corps. The Corps must build and maintain a skilled, agile, and 
disciplined workforce, equipped with the necessary resources, tools, 
and processes to serve the Army, DOD, and the Nation across the 
spectrum of engineering and infrastructure requirements. Additionally, 
the Corps must constantly evaluate and improve its business processes 
in order to become more efficient and effective in the execution of its 
missions.
    Meeting the Army's infrastructure requirements in the post-BRAC 
era, as we operate in a more budget constrained environment. As the 
historic BRAC and MILCON workload declines, the Corps will adapt 
knowledge, skills, and capability from that high-volume new 
construction program to an integrated suite of infrastructure solutions 
to installations. That will include adapting new or existing facilities 
to current operational standards, applying technologies for achieving 
energy and sustainability goals, and leveraging the Corps' strong 
capabilities to provide environmental services.
    Sustaining the Corps' expeditionary capability to support overseas 
contingency missions. Since the beginning of the wars in Iraq and 
Afghanistan, the Corps has provided critical support for military and 
stability operations through both deployed and reach-back capabilities 
for delivery of facilities and infrastructure, command and control of 
engineer assets, training and deployment of technical teams, 
engineering reach-back services, and Army geospatial services for the 
warfighter.
    Aging infrastructure. The Nation's water resource infrastructure 
constitutes an immense accumulation of assets requiring continual 
maintenance and periodic upgrades. Much of this infrastructure has 
reached or exceeded its design life and will require more extensive 
maintenance and/or rehabilitation in the near future. Unscheduled 
outages due to mechanical breakdowns have been increasing. Recently, 
the American Society of Civil Engineers gave the U.S. infrastructure an 
overall grade of ``D'' in 2011.
    Constrained Federal budget. With an aging population and therefore 
more entitlement spending, we can expect less to be available for 
discretionary programs. The Corps will have to prioritize projects and 
programs with rigorous analysis to ensure the greatest value for 
taxpayer funds.
    Energy and Sustainability. Developing the Nation's water resources 
in a sustainable way is one of the greatest challenges the Corps faces. 
This will require a cultural shift and lifestyle changes as well as 
technical innovation. An outgrowth of sustainable energy which is 
impacting U.S. Army Corps of Engineers (USACE) is a renewed interest in 
hydropower.
    Vulnerability to natural and manmade disasters. The current 
flooding in the Missouri, Ohio and Mississippi River systems is a 
reminder of the power of these huge natural systems, and the difficult 
trade-offs which are required in their management.
    Flood risk management. Since floods cannot be fully controlled, nor 
can all damages be prevented, the Corps' ``flood control'' mission is 
shifting into one of ``flood risk management''. Flood risks increase 
with the strong attraction of people to water. Many regions near water 
continue to grow in population and economic development in low lying 
areas is expanding. Flood risk management is also challenging because 
it is a shared responsibility with State and local governments, and 
individuals.
    Increasing competition for water. A major driver of increasing 
demand for water is population, and the U.S. population of 308 million 
in 2010 is expected to reach 440 million by 2050. Energy production and 
manufacturing are also large users of water, and global climate change 
may impact water supply and demand in ways that are not yet well 
understood.
    Governance. Since the responsibility for water resources is shared 
among multiple Federal agencies, States, local governments, tribes, 
interstate organizations, and the private sector, it is a challenge to 
coordinate roles and eliminate gaps in jurisdiction.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I would establish priorities based on my 
assessment of the challenges and consultations with key Army and DOD 
leadership, Members of Congress, Corps leaders, and other stakeholders. 
I would seek broad input and be open to new strategies to successfully 
accomplish the Corps mission and achieve its goals. Competing water 
uses must be balanced to provide multiple benefits such as economic 
security, environmental health, social well-being, and public safety. 
Strategies for addressing the challenges outlined above will clearly be 
among the highest priorities.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Engineers?
    Answer. Many of the Corps' missions require balancing disparate 
interests. The Corps must further the public interest while executing 
the assigned missions.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. As previously discussed, if confirmed, my first priority 
will be to meet with the Assistant Secretary of the Army for Civil 
Works, Corps leaders, Army and DOD leadership, others in the 
administration, as well as with Members of Congress to seek their input 
in preparation for developing a plan to meet the various challenges. As 
an enterprise, the Corps must continue to evolve and improve its 
business processes in order to become more efficient and effective in 
the execution of its missions. I would go to the most critical areas 
with the greatest challenges to make a personal and thorough assessment 
of the needs and to meet with stakeholders and officials.
    Question. In your view, does the USACE need to make any changes in 
the way it operates and, if so, what changes would you recommend?
    Answer. If confirmed, assessing the need for changes would be a top 
priority. Typically there are opportunities for improvements in any 
organization. I am confident that, in consultation with Congress, Corps 
partners and others within the administration, we could determine what, 
if any, changes are needed. Historically, the Nation's rich and 
abundant water, and related land resources provided the foundation for 
our successful development and rapid achievement of preeminence within 
the international community. Since the beginning of our Nation, the 
USACE has been a great asset, providing engineering support to the 
military, developing our Nation's water resources, and restoring and 
protecting our environment. The Corps must continue to be flexible and 
continue to evolve if it is to continue to make important contributions 
to the Nation and respond to today's and future challenges.
    Question. If confirmed, what priorities will you set for the USACE?
    Answer. If confirmed, I would establish priorities based on my 
assessment of the challenges and consultations with key Army and DOD 
leadership, Members of Congress, Corps leaders, and other stakeholders. 
Strategies for addressing the challenges outlined above will clearly be 
among the highest priorities.
                          iraq reconstruction
    Question. What do you see as the major lessons learned for the 
USACE from reconstruction contracting in Iraq?
    Answer. I believe an overall lesson learned by the Corps from the 
Iraq reconstruction mission is the need for a permanent organization to 
oversee the contingency missions, assess and implement the lessons 
learned, and to develop and sustain business practices for current and 
future contingencies. To address this need, the Corps established the 
Transatlantic Division (TAD) to provide direct engineering support in 
the U.S. Central Command area of operations.
    Some of the more specific lessons learned in terms of program 
management include: the importance to develop well-defined 
requirements; the significance of the involvement and support from 
local officials; the importance to plan projects suited to local 
culture, requirements and capacity; the importance of capacity 
development to sustainments of projects; the necessity for a range of 
acquisition strategies for the diverse and evolving needs of the 
mission; the importance of use of established USACE business processes; 
and finally, the importance of planning to address security and 
logistics.
    Question. What changes, if any, do you believe that the USACE 
should make to improve its processes for reconstruction contracting in 
future contingencies?
    Answer. Contractor oversight and requirements definition are 
inherent challenges in contingency operations. The Corps must ensure 
that the many valuable lessons learned in Iraq and Afghanistan are 
institutionalized to improve ongoing activity and are ready for future 
overseas missions.
                       afghanistan reconstruction
    Question. In 2010, the Special Inspector General for Afghanistan 
Reconstruction (SIGAR) conducted an audit of Afghan National Police 
facilities in Helmand Province and Kandahar that found deficiencies in 
USACE implementation of quality assurance and quality control plans. 
SIGAR is also examining whether the USACE received security services 
from Global Strategies Group, Inc., at a reasonable cost and whether 
oversight of the contract was in accordance with Federal Acquisition 
Regulations and other applicable requirements.
    What is your assessment of the adequacy and effectiveness of 
contract oversight by the USACE in Afghanistan?
    Answer. Overall, I understand that the Corps recognized the need to 
increase the level of oversight of projects in Afghanistan. The Corps 
established a second District in Afghanistan in September 2009 and has 
increased its total staff. The Corps is also expanding the use of 
Afghan Quality Assurance Representatives to help to provide an 
experienced eye on construction projects at remote sites while also 
reducing costs and its security footprint.
    It is my understanding that the SIGAR report on the Afghan National 
Police Headquarters recognized that oversight of the contracts was 
severely hampered by the security situation in Kandahar and Helmand 
provinces. I understand that the Corps has been working very closely 
with the contractor to correct deficiencies and complete the facilities 
at no additional cost to the government.
    Question. What steps, if any, would you take if confirmed to 
improve contract oversight in Afghanistan?
    Answer. If confirmed, I would ensure that the Corps is using all 
available procurement oversight and management assets and tools to the 
greatest extent possible. This would include ensuring the Corps is 
filling the necessary positions in theater with the right people, 
ensuring deploying qualified personnel are receiving the necessary 
training and support, maximizing the use of Afghan Quality Assurance 
Representatives, and employing technology such as remote sensing where 
possible.
                   afghanistan infrastructure program
    Question. The National Defense Authorization Act for Fiscal Year 
2011 established the Afghanistan Infrastructure Program, under which 
the Secretary of Defense and Secretary of State are authorized to 
develop jointly high-priority, large-scale infrastructure projects in 
support of the civil-military campaign plan in Afghanistan, including 
water, power and transportation projects. Up to $400 million in DOD 
funding is authorized in support of these projects. Projects will be 
implemented by the U.S. Agency for International Development (USAID) 
and the USACE.
    What do you see as the major challenges in implementing large-scale 
infrastructure projects under the Afghanistan Infrastructure Program?
    Answer. USAID is the lead agency for the Afghanistan Infrastructure 
Program and the Corps provides engineering and construction support as 
requested. I would expect key challenges to include making sure that 
Afghan officials are involved closely in the process from the local to 
the ministerial level. Attention will need to be given to selecting 
projects suited to local, cultural needs and capacity. Another 
challenge will be the security environment and associated risks. 
Project planning and execution will also need to be coordinated with 
other projects and initiatives being undertaken in the theater. It is 
also important that projects support a master plan that has a high 
probability of support through changing Afghan leadership.
    Question. If confirmed, what steps, if any, will you take to ensure 
coordination in the implementation of these projects between USAID and 
the USACE?
    Answer. If confirmed, I will ensure that the Corps maintains a 
close working relationship with USAID and provides transparency at all 
stages of the process. The Corps has a colonel serving as the Chief of 
Staff to the USAID mission in Afghanistan and a liaison officer at the 
USAID headquarters in Washington. There are also Corps of Engineers 
personnel currently working for USAID in Afghanistan to provide subject 
matter expertise. I will make sure that these arrangements between the 
two organizations continue so that we continue our close coordination. 
I will also reinforce the need for a well coordinated team that 
provides any engineering and construction support that USAID requires.
                           navigation mission
    Question. The USACE has built and maintains an intracoastal and 
inland network of commercial navigation channels, locks and dams for 
navigation. The Corps also maintains 300 commercial harbors and more 
than 600 smaller harbors.
    What do you view as the greatest challenges facing the USACE with 
respect to the execution of its navigation mission?
    Answer. I expect one of the greatest challenges with the execution 
of the navigation mission to be the maintenance and modernization of 
the Nation's aging infrastructure. Maintaining our ports and waterways 
is critical to our economic well-being. An equally significant 
challenge to the navigation mission is the management of hundreds of 
millions of cubic yards of dredged material removed from our Nation's 
marine transportation harbors and waterways. My understanding is that 
the Corps is continually working to make dredging and placement of 
dredged material environmentally safe and acceptable. I believe that 
the Corps should continue these efforts and look for innovative ways to 
increase harmony between need for navigation improvements and our 
precious aquatic environment.
    Question. What do you see as the most significant navigation 
projects planned for the next 10 years by the USACE?
    Answer. I understand that many ports, gateways to domestic and 
international trade and overseas military operations, are operating at 
the margin in terms of channel depths. For coastal navigation, I see 
one of the greatest challenges to be working with the administration, 
Congress, other Federal transportation agencies, and navigation 
stakeholders to prioritize and pursue capital investments to prepare 
the Nation to maximize the opportunities for freight movement 
efficiencies associated with opening the new deeper Panama Canal locks 
in 2014. Clearly we must sustain the efficiency of our major ports to 
assure our competitiveness in world trade. In addition, segments of the 
inland waterways system are congested and are in need of 
recapitalization or rehabilitation. The Corps must work with the 
administration, Congress, and inland waterways stakeholders to find 
solutions to the shortage in the Inland Waterways Trust Fund to allow 
the needed capital investments to move forward.
    Question. What role, if any, do you believe the approval or 
disapproval of navigation industry groups should play in decisions made 
by the USACE about specific projects?
    Answer. Decisions regarding Corps of Engineers projects are the 
responsibility of officials in the executive and legislative branches. 
For its part, the Corps should listen to its non-Federal sponsors, 
stakeholders, and other interested parties, and fully integrate 
economic, environmental, and social values. The Water Resources 
Development Act of 1986 established the Inland Waterways User Board and 
charged this board to report to the President and Congress on 
priorities for investment in the inland waterways system.
    Question. In November 2000, the Army Inspector General found that 
three USACE officials had manipulated data in a cost-benefit analysis 
in order to justify a $1 billion project.
    What is your understanding of the steps that the USACE has taken 
since 2000 to ensure that projects are appropriately analyzed and 
justified?
    Answer. My understanding is that the Corps has made substantial 
changes to assure that projects are appropriately analyzed and 
justified. The Corps has strengthened its procedures for internal peer 
review and has adopted procedures for independent external peer review 
under guidance issued by the Office of Management and Budget and 
consistent with direction provided in the Water Resources Development 
Act of 2007. The Directorate of Civil Works now houses an Office of 
Water Project Review that is separate from project development 
functions. It is my understanding that a significant program of 
planning improvement continues to be undertaken, including 
strengthening planner capability, certifying planning models, utilizing 
national centers of planning expertise, and engaging decisionmakers 
throughout the planning process.
    Question. If confirmed, what steps would you take to ensure that 
technical analyses conducted by and for the USACE are independent and 
sound?
    Answer. If confirmed, I would evaluate the current process and be 
guided by the principle that Corps technical analyses be absolutely 
sound and the project evaluation process be transparent. The Chief of 
Engineers provides technical expertise on water resources issues 
throughout the Nation. Additionally, independent external reviews have 
contributed to reducing risk, and to improving, informing and 
reinforcing the recommendations of the Chief of Engineers. I would work 
to assure that these external reviews continue to be effectively 
integrated into the project development process, not added on at the 
end of the process. Integration of independent external review improves 
projects and will continue to assist the Corps in meeting the Nation's 
urgent water resources needs.
                     national levee safety program
    Question. The USACE has been criticized for its failure to do more 
to protect New Orleans from catastrophic hurricane damage. The alleged 
failures of the Army Corps include: (1) the construction of a shipping 
channel that acted as a ``superhighway'' funneling the storm surge from 
Katrina directly into New Orleans; (2) the failure to properly evaluate 
the soil structure under the New Orleans levees; (3) the failure to 
adequately maintain the levees; and (4) the failure to construct levees 
sufficient to protect the city in the event of a direct hit by a strong 
hurricane.
    What is your view of these criticisms?
    Answer. The lessons of Hurricane Katrina and the resulting 
widespread failure and breaching of the levees has been a wake-up call 
for not only the Corps but everyone involved with the management of 
risks associated with levee systems. I understand that the Corps of 
Engineers initiated several analyses and studies of the potential 
causes and effects of the hurricane and the status of the hurricane 
storm damage reduction projects in the New Orleans area. As a result of 
these studies, the Corps also has developed and is in the final stages 
of constructing billions of dollars of improvements to the system that 
will provide the New Orleans area with risk reduction from the 1 
percent event. I understand and appreciate the importance of continuing 
to study this issue and, if confirmed, will immediately learn more 
about the past, present and future work and the issues associated with 
the Corps' ongoing efforts in the New Orleans area and the Nation. In 
addition, the Corps has implemented a new policy of independent 
external peer review that follows the guidelines of the National 
Academies of Science for all studies, design, and construction of 
projects that have the potential for public safety concerns and 
significant economic damage. A full and complete understanding of what 
happened in both the technical and decisionmaking arenas is an 
essential component of assuring it does not happen again.
    Question. Do you see the need for any changes to the structure, 
processes, or priorities of the USACE as a result of the events in New 
Orleans?
    Answer. I believe the tragedy of the events in New Orleans has 
caused some positive changes to the Corps over the last several years. 
Since Katrina, I understand that the Corps has implemented a strategic 
campaign to examine and improve all the major facets of how it delivers 
value to the Nation in the Civil Works and Military Programs missions. 
The Corps efforts have included the integration of concepts of risk, 
systems, and resiliency into policies, programs, and procedures and the 
assessment of its workforce competencies and plans for building a 
technically competent workforce to implement these practices. If 
confirmed, I plan to continue these efforts to assess whether any other 
changes may be needed.
    Question. What is your understanding of the steps that the USACE is 
taking in the reconstruction of the New Orleans levees to protect the 
city from a recurrence of the tragic events of August 2005?
    Answer. I know that the Corps of Engineers is involved in many 
ongoing reconstruction efforts in the New Orleans area, including 
improvements to the hurricane storm damage reduction projects. I know 
that the Corps is working towards designing and building an integrated 
system that will provide protection from a 100-year storm event. If 
confirmed, I will make it a priority to learn more about all ongoing 
efforts in this area.
    Question. The USACE recently completed a nationwide river levee 
inspection process and identified numerous unacceptably maintained 
levees. Media reports quoted Corps of Engineers officials as 
acknowledging that past inspections were not documented adequately and 
that a shortage of inspectors has made it difficult for periodic 
inspections to be performed. The operation and maintenance of levee 
systems is a shared responsibility of State and local sponsors, 
however, there is enormous dependence on the USACE for inspection, 
identification of problems, risk assessment, and where required, 
rehabilitation.
    What is your opinion of what the USACE and Federal, State, and 
local authorities need to accomplish in order to ensure that existing 
deficiencies in the national system of levees are addressed?
    Answer. The Corps Levee Safety Program works continuously and 
periodically to systematically evaluate and communicate the risks 
associated with levees in its program authorities. I recognize that it 
is important that the Corps conduct its activities in concert with 
sponsors and stakeholders and share information obtained from the 
evaluation of levees. If confirmed, I will ensure that the Corps' 
evaluation activities are transparent to the public and coordinated 
with sponsors.
    The management of risks associated with the Nation's levees is a 
shared responsibility among local, State, and Federal Government and 
the individuals that live and work behind them. My understanding is 
that the national scope of levees greatly exceeds the (approximately 
15,000 miles) levees for which the Corps has authorities. The National 
Committee on Levee Safety (which the Corps of Engineers chairs but is a 
primarily non-Federal committee) has estimated that there may be as 
many as 100,000 miles of levees in the United States that are outside 
the current authorities of the Corps. If confirmed, I am committed to 
learning more of the details of these programs and how the Corps can 
continue to assist in this very important area.
    Question. What steps would you take, if confirmed, to ensure that 
those levees representing the highest risk of failure and loss of life 
and property are rehabilitated?
    Answer. Holding public safety paramount is the key principle for 
the Corps Civil Works mission. The Corps has developed a levee safety 
program that uses state-of-the-art practices in inspection, risk 
assessment and portfolio management to consistently identify, 
communicate, prioritize, and, where appropriate, reduce the risks for 
(approximately 2,000) levee systems within its authorities. Because 
these processes involve shared responsibilities, the Corps works 
closely with the Federal Emergency Management Agency, States, local 
governments and other stakeholders to coordinate our policies and 
programs, and ensure a common understanding of risks and comprehensive 
solutions that best address the need to improve system performance and 
reduce future flood risks. If confirmed, I will learn more about the 
results of the Corps' levee inspections and risk assessments and will 
work with all parties to determine best courses of actions as the 
Nation moves forward to addressing these issues.
        hurricane katrina relief and reconstruction contracting
    Question. The USACE played a major role in contracting for 
reconstruction and relief in the wake of the major hurricanes of 2005.
    What is your understanding of the major successes of the USACE in 
relief and reconstruction contracting?
    Answer. The Corps of Engineers has a long tradition of providing 
disaster response assistance. The Corps was a major player in the 
Federal response to Hurricanes Katrina and Rita in 2005. In addition to 
deploying over 8,000 Corps employees to provide disaster support, it 
leveraged the expertise, capacity, and capabilities of the private 
sector to provide relief assistance. It is my understanding that a 
major contracting success is that of the Corps' program which utilizes 
``Pre-Awarded'' contracts. This initiative provides the Corps with the 
ability to rapidly and effectively respond in order to execute major 
relief missions. After Hurricane Katrina, the Corps employed this 
initiative to rapidly provide emergency services. These contracts 
allowed the Corps to provide the initial assistance, while follow on 
contracts could be competitively awarded to provide additional 
capabilities and capacity.
    Question. What is your understanding of the major failures?
    Answer. I am not aware of any specific major failures; however, if 
confirmed, I will look into the lessons learned from this event, and 
other emergencies, and look for ways to improve the Corps' processes.
    Question. What changes, if any, do you believe that the USACE 
should make to improve its processes for reconstruction and relief 
contracting?
    Answer. From my experience with the Corps of Engineers, it is an 
organization that is constantly looking for ways to improve. I believe 
it is important that the Corps work closely with the Department of 
Homeland Security (Federal Emergency Management Agency (FEMA)), and 
other Federal and non-Federal partners, to improve the collective 
abilities to deliver required commodities and services in a timely, 
efficient, and cost-effective manner. The work that the Corps performed 
during Hurricane Katrina has been and will continue to be extensively 
audited and, if confirmed, I would look forward to continue to work 
with these agencies to implement collective actions and improvements to 
the Corps' processes.
    Question. Press articles have described a process in which work was 
passed down from the USACE to a prime contractor, then to a 
subcontractor, then to another subcontractor--with each company 
charging the government for profit and overhead--before finally 
reaching the company that would actually do the work. In one such case, 
the USACE reportedly paid a prime contractor $1.75 per square foot to 
nail plastic tarps onto damaged roofs in Louisiana. The prime 
contractor paid another company 75 cents per square foot to do the 
work; that subcontractor paid a third company 35 cents per square foot 
to do the work; and that subcontractor paid yet another company 10 
cents per square foot to do the work. In a second such case, the USACE 
reportedly paid prime contractors $28 to $30 per cubic yard to remove 
debris. The companies that actually performed the work were paid only 
$6 to $10 per cubic yard.
    What steps do you plan to take, if confirmed, to ensure that the 
USACE does not pay excessive ``pass-through'' charges of this kind on 
future contracts?
    Answer. While I am not personally familiar with these particular 
contracts, it is my understanding that the Corps of Engineers entered 
into competitive firm fixed price contracts in order to complete its 
mission. Existing procurement regulations address excessive ``pass-
through'' charges. These regulations were not in effect at the time of 
the Katrina response. If I am confirmed, I will ensure that these 
regulations are complied with.
    Question. Federal agencies, including the USACE, have been 
criticized for awarding sole-source contracts on the basis of ``urgent 
and compelling circumstances'' in the wake of Hurricane Katrina, even 
though some of these contracts were awarded long after the Hurricane 
took place or extended long beyond what could be justified on the basis 
of that disaster.
    Would you agree that the ``urgent and compelling'' exception to 
competition requirements should be used to award a contract only on the 
basis of an event, or series of events, that is reasonably proximate in 
time to the contract award? Would you agree that the term of a contract 
awarded on the basis of the urgent and compelling exception to 
competition requirements should not ordinarily exceed the period of 
time the agency reasonably believes to be necessary to award a follow-
on contract?
    Answer. Yes, in general I believe that the ``urgent and 
compelling'' exception should be used only in the immediate wake of the 
disaster. I understand that the law requires competition except in very 
limited circumstances and believe that competition is vitally 
important. I also agree that the term of a contract awarded on the 
basis of the urgent and compelling exception should not ordinarily 
exceed a reasonable period to award a follow on contract. However, any 
determination regarding the specific use of an ``urgent and 
compelling'' exception to competition should be looked at on a case-by-
case basis. If I am confirmed, I will ensure that the Corps judiciously 
uses the ``urgent and compelling'' exception in compliance with the 
applicable statutes and regulations.
      competition in the contract management of military programs
    Question. The USACE has historically been designated as the primary 
contracting agent for military construction (MILCON) projects carried 
out by the Department of the Air Force. However, in recent years, due 
to the perception of excessive overhead costs associated with the 
USACE, the Air Force sought to establish an organic contracting agency 
through the Air Force Center for Environmental Excellence in San 
Antonio, TX.
    What is your view of whether the Air Force should be allowed to 
carry out a larger percentage of MILCON contracts?
    Answer. The Corps of Engineers executes its military construction 
responsibilities in compliance with title 10 U.S.C. 2851, subsection 
(a), which provides that ``Each contract entered into by the United 
States in connection with a military construction project or a military 
family housing project shall be carried out under the direction and 
supervision of the Secretary of the Army (acting through the Chief of 
Engineers), the Secretary of the Navy (acting through the Commander of 
the Naval Facilities Engineering Command), or such other department or 
Government agency as the Secretary of Defense approves to assure the 
most efficient, expeditious, and cost-effective completion of the 
project.'' DOD Directive 4270.5 establishes policies and 
responsibilities for the military construction program and the use of 
DOD construction agents in the design or construction of military 
construction program facilities.
    The Corps of Engineers has successfully provided the Air Force 
military design and construction mission since the Air Force was 
established. I do not have an opinion on this specific issue at this 
time. If I am confirmed, I will review the matter and will work with 
DOD, the administration, and Congress to develop a position on this 
matter.
    Question. In your opinion, what would the impact be to the USACE by 
allowing the Air Force to serve as their own contracting agent without 
limitations?
    Answer. Congress passed a law in the early 1950s that designated 
the Army and the Navy as the DOD construction agents and specific 
certain assessments that needed to be completed prior to allowing 
another agent to execute the DOD-construction mission. If I am 
confirmed, I will review the matter and will work with DOD, the 
administration, and Congress to develop a position on this matter.
     efficient management practices in the army corps of engineers
    Question. In a report to Congress dated February 1, 2007 and 
entitled ``U.S. Army Corps of Engineers Response to Senate Report 109-
254, Management of Military Programs in the United States Corps of 
Engineers, January 2007'', the Commander of the U.S. Corps of Engineers 
stated that ``through MILCON Transformation, USACE will gain economic 
efficiencies through design standardization of Army facility types, 
centralization of design activities in USACE Centers of 
Standardization, and focused business line contracting with regional 
acquisition strategies.'' The report also forecasted that savings from 
these efficiencies would be experienced by customers in later years 
after full implementation of transformation initiatives, possibly 
affecting rates charged by the Corps for supervision, inspection, and 
overhead.
    Do you support the goals of the USACEs' plan for MILCON 
Transformation?
    Answer. Yes. The goals of implementing a MILCON business process 
that seeks to reduce design and construction costs and delivery time 
and to build efficiencies through standardization of facilities and 
processes remain extremely important and relevant. The cycle of 
building, learning, adapting best practices and feeding this 
information back into the programming phase has resulted in more 
efficient and effective program execution.
    Question. How do you assess the success of this program?
    Answer. Based on what I know so far, the initiative to implement a 
transformed Army MILCON Business Process was extremely successful. Like 
any new process, there were lessons learned. Although a 2010 Government 
Accountability Office (GAO) report faulted the Army for not 
establishing clear baseline for measuring achievement of goals for cost 
and time savings, the report concluded that the Army did reduce the 
estimated cost of some facility construction projects and shortened 
building timelines during fiscal years 2007 through 2009. Perhaps the 
greatest benefits resulted from more consistent solicitations and 
delivery of a high volume of standard facilities during this period. 
The MILCON Transformation initiative was a key factor enabling the 
successful execution and delivery of an unprecedented MILCON program 
during a period of very volatile market conditions. If confirmed, I 
will learn more about the program and strive to continue to build on 
its success. The transformed MILCON process provides a strong 
foundation for continued adaptation and refinement of facilities 
delivery processes to satisfy current and future program requirements.
    Question. Are you aware of any customer concerns that you would 
want to address, if confirmed?
    Answer. It is my understanding that Army installation customers 
have expressed a desire for more flexibility to accommodate local 
installation preferences that may conflict with Army facilities 
standards or standard designs. In an era of constrained staffing and 
resources, installations are also interested in an integrated system 
that results in delivery of a complete (ready to occupy) facility 
including furniture and information technology systems. I understand 
that the Corps is working with the Assistant Chief of Staff for 
Installation Management and the Installation Management Command to 
streamline processes for consideration of waivers to standards and 
standard designs. If confirmed, I will learn more about customer 
concerns and try to address them as appropriate.
    Question. If confirmed, would you recommend any changes or 
improvements?
    Answer. I believe that the Corps must continuously assess its 
facilities delivery processes and seek improvements to better satisfy 
program requirements and customer expectations. I believe that the 
Corps should produce more energy efficient designs to support Army 
objectives for compliance with energy mandates and reduced operating 
costs. I would give priority to ensuring that Corps design and 
construction techniques support energy mandates. Energy efficiency best 
practices are specific to the site (climate zone) and facility type. 
For instance, some areas of the country can take advantage of solar 
energy while wind energy might be more efficient in another area.
    Question. Have the Corps' customers seen any benefits of MILCON 
transformation in terms of decreased costs for supervision, inspection, 
and overhead and improved delivery times for construction products?
    Answer. I believe that customers have benefited from reduced 
supervision and administration costs to the. extent that contract cost 
savings have been achieved. This is because the Corps operates within a 
flat rate for supervision and administration (S&A) of MILCON projects 
based on a fixed percentage of the contract amount. This system 
provides for predictability and consistency for programming of 
projects. I also understand there has been a savings in design costs 
based on the use of standard designs and expanded use of design-build 
acquisitions. I understand that resources are tight and demands for 
them are high and, if confirmed, I commit to continue these 
transformation efforts to improving services while trying to maximize 
efficiencies.
    Question. If not, when do you expect they will begin to see such 
benefits?
    Answer. I believe the Army has realized savings as discussed above.
            bundling of contracts by the corps of engineers
    Question. The USACE is faced with the significant challenge of 
carrying out construction requirements imposed by force structure 
changes due to Army modularity, wrapping up the 2005 round of Base 
Realignments and Closures, the implementation of the Integrated Global 
Presence and Basing Strategy, and most recently, the Army's initiative 
to grow the force. In response, the Corps plans to allow construction 
contractors to propose alternate types of construction, including pre-
manufactured and modular buildings, to bundle projects for multiple 
buildings into one delivery order, and to rely on design-build 
acquisitions, which requires one contractor to provide both design and 
construction services. The net effect of these proposals will be to 
reduce the pool of qualified contractors able to bid on such large and 
complicated projects.
    In your view, what benefits, if any would be gained by these 
initiatives?
    Answer. The shift from the legacy practice of defining prescriptive 
requirements to performance based requirements and criteria allows the 
market to drive the solution that provides the most efficient and cost-
effective means to comply with the facility requirements and criteria. 
Allowing a broad range of construction types allows contractors to 
adapt to changing market conditions and materials costs by proposing 
the systems that they can deliver most efficiently. During fiscal year 
2008-2009 when the Corps construction program peaked, the construction 
market (both labor and material) was very volatile as a result of 
rising diesel fuel prices. Steel prices were up in one region, down in 
another, with similar conditions for concrete and wood. Flexibility in 
design allowed more contractors to participate and offer their unique 
solutions based on the sector of the market where they had a 
competitive advantage.
    Question. What are the risks to increasing the size and range of 
services required by these contracts?
    Answer. The risks of combining multiple facilities into single 
large contracts include reducing the number of contractors that have 
the capability to perform the work, and reducing opportunities for 
small- and medium-sized businesses to compete as prime contractors. If 
confirmed, I will help the Corps continue to choose acquisition 
strategies designed to efficiently execute projects, provide 
competitive opportunities for industry, and achieve the small business 
goals. Packaging one or more facilities together in one delivery order 
is not a standard business practice, but may be appropriate for a very 
tight construction site or to satisfy unique phasing requirements.
    Question. In your opinion, how can the Corps of Engineers ensure a 
healthy bid climate that allows for a full range of small- and mid-
range businesses to compete for construction contracts?
    Answer. I believe that proper acquisition planning that includes a 
level of market research commensurate with the requirements will 
identify qualified businesses interested in the specific procurements 
and the available competition in the market. Careful analysis of this 
information ensures the maximum level of competition by all qualified 
businesses and the ability to provide maximum opportunities for small 
business.
    Question. In your opinion, what are the benefits and costs 
resulting from the Corps of Engineers' decision to accept a less 
permanent type of construction?
    Answer. There has been no change to required facility service life 
for MILCON projects. The Corps' solicitations require a 50-year 
structure life, with a 25-year cycle for renovation or repurposing of 
facilities. When properly designed and maintained, all types of 
construction (wood, steel, concrete, or masonry) can achieve or exceed 
the 50-year target facility service life. The use of alternative 
construction types does not compromise the durability of the facility, 
but does permit facilities designs to be as cost effective and 
efficient as possible while complying with all applicable codes, life-
safety standards and other requirements. The Corps has reviewed the 
issue of durability of alternative building systems and determined that 
design of a structure to building codes for service loads, wind, 
seismic forces, force protection and progressive collapse results in a 
very robust structure. A 2010 GAO report recommended DOD conduct 
additional study and analysis to assess the merits and long-term costs 
resulting from the use of alternative building materials and methods. 
If confirmed, I will work with DOD and the Corps to further assess this 
issue.
  construction services acquisition methods for the corps of engineers
    Question. In response to urgent requirements to complete military 
construction projects related to the 2005 round of Base Realignments 
and Closures (BRAC), the Corps adopted an integrated design bid build 
process with early contractor involvement. Various Corps districts used 
different versions of this process with disparate levels of success 
depending on the steps written in the contract to negotiate firm, fixed 
prices after contract award and during actual construction. In the case 
of the construction of a new hospital at Fort Belvoir, VA, costing more 
than $1 billion, the committee was notified in December 2010 that DOD 
was required to pay the contractor an additional $160 million as a 
payment for ``firm-fixed price contract definitization'' even though 
the facility was 80 percent construction complete and the cost was in 
excess to the amount that had been authorized by Congress. 
Representatives from the Corps briefed this committee in January 2011 
that this process is being used in at least 19 other construction 
contracts.
    Are you familiar with this process?
    Answer. Yes, I am generally familiar with the use of Fixed Price 
Incentive Successive Targets (FPIS) contracts in general, and with the 
Early Contractor Involvement (ECI) methodologies developed by the 
Corps.
    Question. Do you believe that it was beneficial to the Government 
to award military construction projects without a clear firm-fixed 
price at contract award? If so, why?
    Answer. Yes. Considering the size, technical complexity, and time 
constraints for delivery of the Fort Belvoir Community Hospital and 
other large and complex facilities required to support implementation 
of BRAC 2005, the delivery timelines could not have been achieved while 
satisfying the functional and operational requirements using any 
traditional acquisition method. As the committee notes, the Corps has 
used the Early Contractor Involvement (ECI) method for only about 20 
MILCON projects. ECI is a specialized tool appropriate in unique 
circumstances. FPIS uses target and ceiling pricing, and a series of 
incentives, to determine a final price. This delivery method known as 
ECI has been used successfully to complete a number of quality projects 
with an expedited delivery schedule and includes a guaranteed maximum 
price that could increase if contractually appropriate scope changes 
arise. The hospital at Fort Belvoir was one of the pilot ECI projects 
awarded by the Corps and, I understand, a number of lessons learned 
have been identified as process improvements since that time and 
internal policies and procedures have been updated and continue to be 
updated.
    Question. In your opinion, given the risk to the Government, should 
the Corps establish guidelines and standards for the use of this 
acquisition process?
    Answer. It is my understanding that the Corps has been gathering 
lessons learned from its initial ECI experiences and is refining its 
processes and guidance. I also understand that management controls are 
in place that require each project proposing to utilize the ECI 
delivery method to be approved by the Headquarters, with subsequent 
approval of an acquisition plan by the Principal Assistant Responsible 
for Contracting. The Corps is also working with Defense Contract Audit 
Agency and Defense Contract Management Agency as part of its continuous 
learning and sharing.
    Question. If confirmed, how would you ensure this process, if used, 
is managed in a way that does not expose the Government to a contract 
liability for amounts that have not been authorized by Congress?
    Answer. If confirmed, I intend to continue the work which the Corps 
has begun to capture lessons learned from the ECI contracts which have 
been awarded; and to refine criteria and improve the guidance for the 
application of ECI. In addition, I will seek to increase outreach to 
other DOD elements and industry, to explore ways to refine our 
management and contract administration practices to limit cost growth 
when using this acquisition method.
                 energy savings and sustainable design
    Question. DOD has goals for the reduction of energy consumption in 
facilities as well as the adoption of sustainable design standards. As 
the largest design and construction agent for the Department for the 
execution of military construction contracts, the Corps will be 
responsible for a qualitative response to the needs of military 
customers to meet those goals.
    How do you assess the expertise and professional education of the 
engineers in the Corps to be able to incorporate the latest technology 
and practices for energy consumption reductions and sustainable design 
in each military construction project?
    Answer. The Corps has demonstrated great capability in achieving 
energy savings in design and construction with infusion of new 
technologies. In that regard, I believe that the Corps is on par with 
industry as our society learns how to build energy efficient and 
sustainable facilities. The Corps is actively engaged with the Army, 
the Department of Energy, and other partners to learn how to 
incorporate new technologies and design methods into our standard 
business processes. It is also training its staff in energy efficient 
design, sustainable and high performing building at all levels and in 
all disciplines.
    Question. In your opinion, should this aspect of project design be 
subject to the request of the customer or established as a design 
standard for all Corps projects?
    Answer. In my view, customers have the flexibility to define the 
requirements for their facilities within the constraints of applicable 
codes, Federal mandates, and DOD policy requirements. The Corps is 
seeking to standardize the best business practices and to define the 
types of technologies and design features that will optimize energy 
efficiency for the climate zone and facility type being provided. For 
example, the Corps is working to implement new processes to conduct 
energy savings modeling for every project at the planning or early 
design phase. They are also working toward performing a full building 
life cycle cost analysis of the energy efficiency options that make 
sense and are available to the customer. This will allow the customer 
to make an informed decision regarding initial investment cost and the 
total cost of ownership over the facility life cycle.
    Question. In your opinion, how aggressive is the Corps in testing 
new technologies and products and then adjusting military 
specifications to be able to incorporate those technologies and 
products into facility designs?
    Answer. There are many great examples of new technologies going 
into projects daily, however I believe the Corps can be more aggressive 
to institutionalize or make these technologies wide spread. The Corps 
has identified development of a knowledge management capability as one 
of its Campaign Plan objectives, which will help improve the sharing of 
best practices.
    preference for design-build contracts for military construction 
                                projects
    Question. Over the past 10 years, the Corps of Engineers has 
adopted the design-build (DB) process as the preferred contracting 
vehicle for the acquisition of facility construction, as opposed to 
traditional methods of design-bid-build (DBB) and in-house design. 
While DB contracts offer the opportunity for a designer and a 
construction contractor to work together earlier in the contract, thus 
reducing claims and change orders, the risk of user-requested changes 
increases and the role of Corps engineers in the design phase as well 
as contract oversight are diminished. In addition, the proliferation of 
contracted designs has greatly reduced the amount of in-house design 
performed by Corps engineers.
    What is your view on the appropriate balance of DB, DBB, and in-
house design work accomplished by the Corps?
    Answer. In my view, it is important to carefully assess and make 
decisions regarding the acquisition strategy for each project in 
coordination with the customer early in the project development 
process. It is important to maintain an appropriate balance between DB 
and DBB methods in order to offer contractors a wide and varied 
opportunity to compete. Similarly, the Corps must balance the need to 
retain in-house design work to sustain technical competency with the 
need to provide design opportunities for the private architect-engineer 
community. These decisions are not driven by numbers of projects, but 
by the nature of the projects, the objectives of our customers, and the 
need to maintain a technically competent staff. Only through in-house 
design experiences can the Corps be prepared to provide the required 
technical and engineering skills required by its diverse missions.
    Question. In your opinion, on what factors should the design and 
acquisition process recommended by the Corps to its customers be based 
on for each military construction project?
    Answer. In my opinion, selection of the design and acquisition 
method should be based on the best tool available, considering the 
specific requirements of the projects and the objectives of the 
customer. For example, the need to define unique or specialized 
facility requirements during the design phase may make DBB the most 
appropriate tool. Renovation projects are often executed using the DBB 
method in order to reduce risk related to unknown as-built conditions. 
DB may be more attractive when the customer has well-defined functional 
requirements and criteria, or requires construction to fast track or 
start early--due to seasonal weather.
    Question. Are you concerned about the impact of the amount of in-
house design work on the capabilities of the engineering corps?
    Answer. I am concerned that the Corps maintains the right balance 
of work to remain technically competent. I know the Corps has placed a 
great deal of focus on this issue as reflected in its Campaign Plan, 
and I will continue to maintain a focus on technical competency if I am 
confirmed.
    Question. If confirmed, would you recommend any changes in the 
process and guidelines used by the Corps to determine the acquisition 
method for each military construction project?
    Answer. If confirmed, I would seek consistency in acquisition 
processes and solicitations among Corps districts, in order to assist 
industry to better understand project requirements and improve the 
quality and pricing of their proposals. I would also place a priority 
on ensuring selection of appropriate design and contracting strategies 
to facilitate compliance with energy and sustainability requirements.
                          environmental issues
    Question. If confirmed, you will take charge of the largest 
construction program in the country. Virtually every major civil works 
project of the USACE raises environmental concerns.
    What is your view of the appropriate balance between the missions 
and projects of the USACE and the National Environmental Policy Act and 
other environmental statutes?
    Answer. I believe that the Corps can and must carry out its 
missions in an environmentally responsible manner. The Corps has a long 
record of coordinating its missions and planning its projects in 
compliance with the provisions of the National Environmental Policy Act 
and numerous other environmental statutes, consistent with the Corps' 
Environmental Operating Principals. Strong collaboration with other 
agencies and subject matter experts has led to better and more 
environmentally sensitive projects. If confirmed, I am committed to 
ensuring that Corps projects are planned, constructed, operated, and 
maintained in such a manner as to avoid or minimize adverse 
environmental effects.
    Question. The USACE is responsible for environmental restoration 
projects at Department of Defense Formerly Used Defense Sites (FUDS) 
and at Department of Energy Formerly Utilized Sites Remedial Action 
Program (FUSRAP) sites.
    What do you view as the greatest challenges facing the USACE with 
respect to the execution of its environmental restoration mission?
    Answer. It is my understanding that continuing to execute the vital 
cleanup mission, adapting new technologies to gain efficiencies, while 
always protecting the health and safety of the public and workers is 
perhaps the biggest challenge for the FUDS and FUSRAP programs. The 
Corps must continue to apply good science, adopt innovative effective 
technology, and apply good management practices that will increase 
remediation safety and efficiency and meet commitments to stakeholders. 
Effective interim risk management and public education programs are 
important to the process.
    Question. Do you believe that goals established for environmental 
cleanup (including cleanup of unexploded ordnance) under these programs 
are realistic and achievable?
    Answer. The Corps has aggressive goals for these programs and 
meeting those goals will be a challenge. Much of this work is conducted 
on private property and involves numerous stakeholders, many with 
conflicting agendas. If confirmed, I will continue to press for ways to 
perform the mission in the most efficient and effective manner 
possible.
    Question. In the past, the USACE has not always been required to 
meet States' water quality standards in constructing and operating its 
water resources projects.
    Do you believe that the USACE should be required to meet State 
water quality standards in constructing and operating USACE projects?
    Answer. Yes. I believe that the Corps should be a leader in the 
environmental arena and, in most circumstances, should meet State water 
quality requirements.
    Question. Section 404 of the Clean Water Act requires landowners or 
developers to obtain USACE permits to carry out activities involving 
disposal of dredged or fill material into navigable waters of the 
United States, including wetlands. For almost 2 decades, the stated 
goal of the Federal Government has been ``no net loss of wetlands''.
    Do you support the goal of ``no net loss of wetlands''?
    Answer. Yes, I support the national no net loss goal. Wetlands are 
important to human health, the environment and the economy.
    Question. Do you believe that we are currently meeting that goal?
    Answer. I understand that the Corps is contributing to the national 
goal by requiring compensatory mitigation for unavoidable wetland 
impacts.
    Question. What specific steps do you believe that the USACE should 
take to move us closer to the goal of ``no net loss of wetlands''?
    Answer. I understand that the Corps' Regulatory Program continues 
to use the best available science and information to ensure the 
ecological success of compensatory mitigation required to offset 
unavoidable impacts to waters and wetlands. Two of the Corps' 
regulatory performance metrics emphasize the need to ensure that 
compensatory mitigation for authorized impacts to aquatic resources is 
accomplished. Additionally, I understand that the Corps does have a 
database in order to trace wetland impacts and mitigation. If 
confirmed, I will ensure that the Corps continues to successfully 
operate its Regulatory Program towards the goal of ``no net loss of 
wetlands''.
               recruiting and retention of army engineers
    Question. In recent years, competition among employers for the 
services of highly qualified engineers has greatly increased.
    What is your understanding of the Army's success in recruiting and 
retaining for careers sufficient numbers of highly-qualified officers 
and civilian employees for service in the USACE?
    Answer. From what I understand, the Corps is very successful at 
filling civilian positions and usually has multiple highly qualified 
candidates for each position announced. Recruiting the right talent to 
meet the challenges and projected workload is critical to the success 
of the Corps. Although the current economy has contributed to recent 
recruitment successes, the Corps must be ready to recruit from a 
projected shrinking talent pool. One of the objectives in the Corps 
Campaign Plan is to establish tools and systems to get the right people 
in the right jobs, and then develop and retain this highly-skilled 
workforce. In order to accomplish these objectives, the Corps has 
trained a civilian recruitment cadre to interact with job seekers and 
market the Corps of Engineers as an employer of choice. It is also my 
understanding that the Corps of Engineers generally does very well in 
helping to recruit and retain military officers. More officers are 
interested in branching Engineer and serving with the Corps of 
Engineers than the Army has authorizations to fill. Over the past 
several years, the Army has made significant progress to increase the 
percentage of incoming Engineer officers with engineering and other 
technical degrees. Many Engineer officers later earn Masters' degrees 
in engineering or related fields as well as professional certifications 
such as Professional Engineer (PE) and Project Management Professional.
    Question. What do you view as the Corps of Engineers greatest 
challenge in meeting its manpower and training and education 
requirements?
    Answer. The Corps has been successful in recruiting and retaining 
needed manpower. I believe that the greatest challenge will come as the 
economy improves and private industry begins to actively hire 
engineers, scientists, and other professionals. Many Corps employees 
are project funded; paying salaries during training periods has been a 
challenge and limits the amount of time employees can spend in a 
training status. However, I recognize the vital importance of 
continuing to identify competency strengths and gaps and then 
determining the training, education, experience, and resources to close 
those gaps.
    Question. What steps would you take if confirmed to ensure that the 
Army improves its attractiveness to highly qualified individuals for 
service in both the Active and Reserve components and in the civilian 
workforce?
    Answer. In addition to the programs previously mentioned, I would 
definitely support the Office of Personnel Management, DOD, and 
Department of Army in their efforts to streamline and shorten the 
Federal hiring process. Speed of hiring talent at all levels is 
important in order not to lose the best candidates to other employers. 
Also important is having an efficient and painless ``on-boarding'' 
process for new employees. The way new personnel are welcomed into the 
organization plays a significant role in whether they stay with the 
organization. Since Public Law 109-163, the National Defense 
Authorization Act for Fiscal Year 2006, the Department has had the 
mandate to assess existing and future competencies needed to accomplish 
its missions. The Army is doing that through use of the Competency 
Management System.
    The Corps of Engineer uses the Cadet District Engineer Program to 
bring Reserve Officers' Training Corps and U.S. Military Academy cadets 
into the Corps between their junior and senior years. This program 
introduces the cadets to engineering projects and gives them 3 weeks of 
hands-on experience. Approximately 40-50 cadets participate each 
summer. As stated previously, the Engineer branch vigorously recruits 
cadets with technical degrees and other appropriate qualifications for 
commissioning as Engineer officers. After commissioning, most Engineer 
officers serve with troop units through company command. The Human 
Resources Command places highly-qualified and competitive officers to 
serve with the Corps in various capacities. With over 75 percent of 
Engineer units in the U.S. Army Reserve and Army National Guard, there 
is a tremendous reservoir of talented Engineer officers in the Reserve 
components. The Army could not meet all Engineer manning requirements 
without them. These Reserve component officers serve in a variety of 
critical positions alongside Active component military and civilian 
personnel. If confirmed, I would continue to support these great 
recruitment efforts and look for additional ways to improve the Corps 
military and civilian workforce.
           human capital planning for the civilian workforce
    Question. DOD is developing a comprehensive human capital strategic 
plan for its Federal civilian workforce which is intended to identify 
critical skills and competencies needed in the future civilian employee 
workforce, as well as a plan of action for developing and reshaping the 
Federal civilian workforce.
    If confirmed, how would you approach the task of identifying gaps 
in needed skills in the USACE workforce and ensuring that adequate 
resources, training, and professional developments efforts are 
undertaken to achieve the Corps' workforce goals?
    Answer. If confirmed I would serve as the Army Functional Chief for 
over 106 Army Civilian Engineering and Science occupations covering 
professional, blue collar, non-appropriated fund, and foreign national 
employees and would be responsible for instituting holistic life-cycle 
career management. I would continue the work the Corps has done to 
identify competencies for mission critical occupations, assess 
competencies and institute strategies to close competency gaps. I would 
continue refinement of professional development maps for all assigned 
occupations and will utilize the Corps Leader Development Program that 
incorporates the Army's Civilian Education System to promote an 
environment of continuous learning and leader development.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Engineers?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator Joseph I. Lieberman
                         corps' spending budget
    1. Senator Lieberman. Lieutenant General Bostick, we all know there 
is a large backlog of projects that are not being carried out by the 
U.S. Army Corps of Engineers (Army Corps) due to lack of funding, and 
that was true even before our current budget crisis. Now that we will 
likely see cuts across many programs, how will the Army Corps determine 
which projects to fund?
    General Bostick. I am aware of the significant construction backlog 
that exists within the Civil Works program. I am also aware of the 
current budgetary constraints that face this great nation. If 
confirmed, I will work within the administration and with Congress to 
ensure that the process used by the Corps of Engineers will continue to 
be performance based, making the best overall use of available funds by 
prioritizing projects that provide the greatest return on investment to 
the Nation.

    2. Senator Lieberman. Lieutenant General Bostick, many ports and 
harbors in my State are small by comparison, but act as the lifeline to 
the community, allowing our shellfishermen to head out every day, and 
our recreational boating industry to attract summer tourists. Without 
Congress' ability to provide suggestions through the traditional 
appropriations process, I fear that the Army Corps will continue to 
focus on dredging our large ports, and our small ports and harbors will 
be neglected. How will you balance the needs of the large industrial 
ports with the needs of the small industrial, recreational, and fishing 
harbors?
    General Bostick. I am aware of the ongoing discussions that are 
taking place throughout the country on the need for safe and reliable 
waterborne transportation systems for the movement of commercial goods 
and for national security needs. If confirmed, I will work within the 
administration and with Congress to ensure the maintenance of those 
inland and intracoastal waterways, coastal channels and the ports and 
harbors for which the Corps of Engineers has responsibility to 
maintain, will be accomplished in a manner that best supports the 
Nation's economy.

              supplemental environmental impact statement
    3. Senator Lieberman. Lieutenant General Bostick, the Environmental 
Protection Agency (EPA) has so far failed to proceed with a 
Supplemental Environmental Impact Statement (SEIS) for eastern Long 
Island Sound's dredged material disposal options. This is of grave 
concern to the maritime industry in Connecticut, as well as Submarine 
Base New London, since failure to complete an SEIS would have 
effectively shuttered our two existing dredged material disposal sites. 
Thankfully, after working with Army Corps officials from the New 
England District, I was able to have legislative language passed that 
would keep those two sites open an additional 5 years. What will you do 
to try to ensure that the SEIS proceeds as was promised a decade ago, 
so that the eastern half of Connecticut will not lose the ability to 
dredge its ports and harbors in a cost effective manner?
    General Bostick. It is my understanding that the U.S. Environmental 
Protection Agency (EPA) has the only authority to designate a long-term 
ocean dredged material placement site under section 103(b) of the 
Marine Protection Research and Sanctuaries Act. It is also my 
understanding that the Corps of Engineers continues to coordinate with 
EPA in this matter and has provided information to EPA to assist. I 
understand the importance of adequate dredged material disposal sites 
in Long Island Sound and, if confirmed, will ensure that the Corps 
continues to do all it can to appropriately assist EPA in its 
requirements.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                    environmental mission challenges
    4. Senator Begich. Lieutenant General Bostick, there are over 300 
formerly used defense sites (FUDS) and service sites in Alaska. Much of 
the environmental contamination impacts Alaska Natives and their 
villages, like those on Saint Lawrence Island. Environmental 
restoration at many of these sites will not be completed for years. In 
your view, what is the greatest challenge facing the Army Corps with 
respect to the execution of its environmental mission?
    General Bostick. The Corps of Engineers' environmental mission 
involves multiple programs supporting the Department of Defense (DOD), 
the Department of the Army and non-DOD customers. For example, these 
programs include not only FUDS, but the Army Environmental Restoration 
Program, the U.S. Environmental Protection Agency's Superfund Program, 
the Army Civil Works Formerly Utilized Sites Remedial Action Program, 
the Native American Lands Environmental Mitigation Program (NALEMP) 
which has the vast majority of its projects in Alaska. Each 
environmental program presents its own unique challenges with support 
tailored to each customer's requirements. Overall, I see the greatest 
challenge is to efficiently and effectively mitigate the risks to human 
health and the environment, to communicate well with the public and to 
engage strategically with environmental regulators and stakeholders, 
while working within the resources made available to each program.
    The NALEMP program is a DOD program administered by the Corps which 
provides funding to local Native American communities to address 
environmental issues which are a result of DOD activities impacting 
Native American lands. The majority of the program has been focused on 
FUDS properties in Alaska and has assisted in the characterization and 
removal of environmental concerns while promoting Native American 
entities winning and executing projects using DOD funds provided 
through Cooperative Agreements.
    Concerning the FUDS program, the Army Corps currently executes the 
program on behalf of DOD and Army. DOD budgets for the program. The 
FUDS program has approximately 7,000 properties with an estimated 1,800 
sites remaining to be completed with a current cost to complete of 
approximately $14 billion. There are many challenges working with 
property no longer under DOD control but, if confirmed, I will ensure 
that the Corps continues to work with stakeholders to meet those 
challenges.

    5. Senator Begich. Lieutenant General Bostick, if confirmed, what 
recommendations would you have for addressing those challenges?
    General Bostick. In addressing these challenges, I would recommend 
that the Corps of Engineers strives to continually improve execution, 
first by applying experiences gained via lessons learned throughout all 
environmental programs, second by utilizing innovative and greener 
solutions and concurrently engaging industry, and lastly by 
incorporating regular feedback that is continually being sought from 
the public, customers and stakeholders. For instance, in the cleanup of 
unexploded ordnance, a particular need is better site characterization 
technology, more effective interim risk management and public education 
programs until such time that all lands impacted by unexploded ordnance 
can be remediated, all of which are being addressed by FUDS program 
personnel.

    6. Senator Begich. Lieutenant General Bostick, are the goals set 
for environmental cleanup realistic?
    General Bostick. I believe the Corps of Engineers has aggressive 
goals for conducting environmental cleanup set in conjunction with the 
Army, DOD and non-DOD customers. While meeting those goals will be a 
challenge, I believe they are achievable if adequate resources are made 
available on a timely basis. Much of the Corps environmental work is 
conducted on private property that may not have been used by the 
Federal Government for decades and involves numerous stakeholders, many 
with conflicting priorities, some of whom may be potentially 
responsible parties. If confirmed, I will continue to press for ways to 
perform the mission in the most efficient and effective manner 
possible.

                       small business contracting
    7. Senator Begich. Lieutenant General Bostick, in recent years 
Congress has encouraged the agencies, particularly DOD, to increase 
competition for contracts. However, there is still an obligation of the 
agencies to utilize small businesses. In your opinion, how can the Army 
Corps ensure a bid climate that allows small- to mid-range businesses 
the opportunity for contracts?
    General Bostick. The Corps of Engineers must continue to ensure a 
bid climate that allows small businesses the opportunity to compete to 
the maximum extent possible. Market research and industry responses to 
sources sought synopses are the key to discovering small businesses' 
capabilities and the best way to structure procurements for 
construction, supplies and services. Information gained from industry 
during the sources sought process allows the Corps to develop 
acquisition strategies that consider small business participation as 
both prime contractors and subcontractors. While there is not a 
specific category for set aside of procurement actions for mid-range 
businesses, the Corps works to be as inclusive of all business sizes as 
possible, whether as a prime contractor or a subcontractor. If 
confirmed, I am committed to creating opportunities for small business 
participation in Corps projects. I will ensure that this continues to 
be a focus for the organization as a whole.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
   delivery of projects of regional importance and national security
    8. Senator Chambliss. Lieutenant General Bostick, how do you plan 
to handle projects of undisputed regional significance which have 
opposition from an individual State for political purposes?
    General Bostick. If confirmed, I would ensure that the Corps of 
Engineers would work with the leadership of the affected states to 
attempt to resolve any differences or issues. If a mutual resolution 
could not be reached, the Corps would continue to evaluate the project 
on its own merits to determine if it is in the Federal interest to 
pursue the project.

 tri-state litigation on apalachicola-chattahoochee-flint river system
    9. Senator Chambliss. Lieutenant General Bostick, the 11th Circuit 
opinion overruling the 2009 Magnuson decision remanded to the Army 
Corps the decision on whether [after having the breadth of its 
statutory authority under the 1946 Rivers and Harbors Act (P.L. 79-525) 
and the Water Supply Act of 1958 (P.L. 85-500)] the Army Corps will be 
able to grant Georgia's 2000 water supply request. We have been told 
that work is on track for completion by late June 2012. Do you expect 
that the Army Corps will be able to meet this deadline?
    General Bostick. Yes, my understanding is that the Corps of 
Engineers intends to complete the analysis that the Court of Appeals 
has directed by the end of June 2012.

    10. Senator Chambliss. Lieutenant General Bostick, what do you 
believe is the extent of Army Corps authority to allocate storage for 
water supply in light of the 11th Circuit's ruling?
    General Bostick. I am not familiar with the details of the 11th 
Circuit's ruling or the legal authorities at issue. I understand that 
the Corps of Engineers is currently evaluating the extent of its 
authority to operate Lake Lanier for water supply, and intends to 
complete its analysis and provide its answer in accordance with the 
Court of Appeals ruling by June 2012.

    11. Senator Chambliss. Lieutenant General Bostick, as part of this 
analysis, do you believe that the Army Corps will make the decision to 
credit return flows?
    General Bostick. I am unaware of the Corps of Engineers' existing 
policies on return flows. My understanding is that the Corps' analysis 
is focused on the specific instructions provided in the 11th Circuit's 
ruling. I do not know whether that analysis, once it is completed, will 
include any legal or policy determinations regarding return flows.

    12. Senator Chambliss. Lieutenant General Bostick, in your opinion, 
how much direction do you feel that the 11th Circuit decision has given 
the Army Corps?
    General Bostick. I am not familiar with the details of the 11th 
Circuit's decision. I understand that the Court of Appeals has remanded 
the matter to the Corps to make certain determinations that are within 
the Corps of Engineers' discretion, and has given the Corps specific 
instructions as to the issues it should address.

    13. Senator Chambliss. Lieutenant General Bostick, what is the 
degree to which you feel that individual States will have influence 
over the Army Corps as it prepares its decision on this matter?
    General Bostick. My understanding is that the Court of Appeals has 
remanded the matter to the Corps of Engineers to make certain 
determinations that are within the Corps' discretion, according to the 
Corps' interpretation of applicable law. I also understand that after 
the Corps determines the extent of its authority, prior to making any 
final decisions on how to operate the Apalachicola-Chattahoochee-Flint 
system, the Corps will involve the States and the public as 
appropriate. I expect that the Corps will take into account the views 
of all affected States in that decisionmaking process

                 permitting new water supply reservoirs
    14. Senator Chambliss. Lieutenant General Bostick, we have received 
word that the EPA may be urging the Army Corps to do an Environmental 
Impact Statement (EIS) on all new reservoirs due to the cumulative 
effects of reservoirs as they are put into use. An EIS on all new 
reservoirs is, of course, costly in terms of both time and money. Do 
you feel that an EIS for all new non-Federal reservoirs is necessary?
    General Bostick. I am not familiar with the details of any current 
permit applications for new water supply reservoirs, or the 
environmental reviews that may be associated with those permits. 
Moreover, I do not know what advice U.S. Environmental Agency may have 
given on this matter. I do expect that the Corps of Engineers will 
comply with all applicable legal requirements in any permitting 
process.

    15. Senator Chambliss. Lieutenant General Bostick, how do you 
foresee the Army Corps handling this issue?
    General Bostick. I am not familiar with the details of any current 
permit applications for new water supply reservoirs. I expect the Corps 
of Engineers to comply with all applicable legal requirements in any 
permitting process.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                   corps of engineers prioritization
    16. Senator Wicker. Lieutenant General Bostick, historically, most 
Army Corps civil projects have been carried out through congressional 
direction, primarily through authorizations made in the Water Resources 
Development Act. In 2010, Congress refrained from authorizing directed 
spending for specific projects. This moratorium on directed spending 
will likely remain for the foreseeable future. Under these 
circumstances, how will the Army Corps prioritize funding for projects 
across the country?
    General Bostick. If confirmed, I will work within the 
administration and with Congress to ensure that the process used by the 
Corps of Engineers will continue to be performance based, making the 
best overall use of available funds by prioritizing projects that 
provide the greatest return on investment to the Nation.

    17. Senator Wicker. Lieutenant General Bostick, do certain regions 
have a higher priority compared to others?
    General Bostick. The Corps of Engineers does not place higher 
priority on different regions of the country. If confirmed, I will work 
within the administration and with Congress to ensure the emphasis in 
development of the Civil Works program will be on investments in the 
Nation's infrastructure that funds constructing, maintaining and 
operating critically important water infrastructure in every state of 
the Nation that contributes to the Nation's economy and quality of 
life. I will support management, restoration, and protection of the 
Nation's water, wetlands, and related resources.

    18. Senator Wicker. Lieutenant General Bostick, how will the Army 
Corps prioritize support for projects that serve a national purpose, 
such as repairing and maintaining the Mississippi River and Tributaries 
(MR&T) Project?
    General Bostick. I am aware of the great flood of 2011 and the 
extensive damages that occurred throughout the middle and northeast 
areas of our country. I am also aware that the infrastructure operated 
and maintained by the Corps of Engineers prevented damages in excess of 
$110 billion in the Mississippi River watershed alone. If confirmed, I 
will work within the administration and with Congress to ensure that 
the funding made available to the Corps, including the MR&T, for the 
repairs and recovery from this historic event, will be executed as 
quickly as possible, especially those critical repairs to protect life 
and public safety.

                     harbor maintenance trust fund
    19. Senator Wicker. Lieutenant General Bostick, ensuring the safety 
and uninterrupted operation in our Nation's ports is essential to 
commerce, trade, and America's economic prosperity. However, many of 
our country's ports face critical maintenance needs for which the Army 
Corps claims it has insufficient funding. This includes the requirement 
for congressionally-mandated routine dredging to maintain our ports at 
their authorized depths. Could funds made available from the Harbor 
Maintenance Trust Fund be a viable option to address the shortfall of 
Federal funding to carry out critical dredging needed by our Nation's 
ports?
    General Bostick. I am aware that our Nation's ports, harbors, and 
waterways are vital components of the Nation's transportation system. I 
am also aware of the current budgetary constraints that face this great 
nation. Since spending from the Harbor Maintenance Trust is dependent 
on congressional appropriations, Congress would have to appropriate the 
additional funds and provide a corresponding increase in the Corps' 
Civil Works budget, or offsetting reductions would have to be taken 
from other Civil Works mission areas. If confirmed, I will work within 
the administration and with Congress to ensure the Corps of Engineers 
civil works projects are prioritized based on maximum benefits to the 
Nation for all its missions within the limitations of the overall 
budgetary constraints.

    20. Senator Wicker. Lieutenant General Bostick, do you believe 
utilizing funds deposited into the Harbor Maintenance Trust Fund each 
year to dredge and maintain ports would impact the financial solvency 
of the Fund?
    General Bostick. I understand that the Harbor Maintenance Trust 
Fund is made up of receipts collected in the form of an ad valorum tax 
on imports and interest earned on the balance in the Trust Fund. These 
revenues then reimburse the Corps of Engineers for expenditures on 
eligible navigation projects. I am not familiar with the specific 
details or the inner workings of this fund. I am told that utilization 
of the HMTF balance is being discussed within the administration. If 
confirmed, I will work within the administration and with Congress on 
this issue of critical importance to the Nation.

             leadership in energy and environmental design
    21. Senator Wicker. Lieutenant General Bostick, the recent practice 
of DOD to require construction of green buildings to meet certain 
standards of Leadership in Energy and Environmental Design (LEED) has 
discriminated against various U.S. products and may have harmed 
competitiveness. How will the Army Corps ensure its Federal 
construction of any green building will allow all green rating systems 
to be considered when adopting green building standards?
    General Bostick. The Corps of Engineers is committed to achieving 
full and open competition in design and construction services and it is 
never the Corps' intent to implement any policy that would discriminate 
against various U.S. products or harm competitiveness. In making a 
decision on what certification standard to apply, I believe it is 
important that it achieves a high performance and sustainable building, 
identified by a minimum standard of performance, a certification that 
is widely accepted and recognized by industry. If confirmed, I will 
ensure that the Corps continues working with its Federal partners, as 
well as its customers, to influence and implement sustainable building 
requirements that support full and open competition.
                                 ______
                                 
               Questions Submitted by Senator Rob Portman
                      confined disposal facilities
    22. Senator Portman. Lieutenant General Bostick, in the Great 
Lakes, certainly in Lake Erie, dredged material has traditionally been 
placed in Confined Disposal Facilities (CDFs). Projected costs for new 
CDFs make it substantially unlikely that new CDFs would be the 
preferred option. In Ohio, substantial work has been done to develop 
new upland uses for sediment, yet current Army Corps procedures seem to 
favor short-term disposal costs versus life-cycle asset growth and 
utilization. Can you please share your views on how the Army Corps can 
best support local efforts to develop alternatives to costly CDFs?
    General Bostick. It is my understanding that the Corps of Engineers 
seeks to accomplish its navigation mission through the Federal 
Standard, which is defined as the least costly, environmentally 
acceptable dredged material placement method. I would expect periodic 
testing and discussions with environmental resource agencies to assure 
the Federal Standard is maintained and placement costs are minimized. 
If confirmed, I would support the Corps continuing to work with non-
Federal sponsors and interested parties to explore all methods to best 
accomplish the mission within the law.

    23. Senator Portman. Lieutenant General Bostick, would you support 
the Army Corps' reliance on locally developed engineering solutions for 
sediment management?
    General Bostick. I would expect the Corps of Engineers to cooperate 
and collaborate with non-Federal sponsors and third party engineering 
firms experienced in sediment management to ensure that dredged 
material placement is accomplished in accordance with all applicable 
laws and environmental regulations and in the least costly manner to 
the U.S. taxpayer.

                         army corps procedures
    24. Senator Portman. Lieutenant General Bostick, concerns have been 
raised in a variety of venues regarding the pace and complexity of Army 
Corps procedures. The widely held perception is that the Army Corps is 
more focused on its process and procedures and narrow application of 
its rules than it is to actually achieving useful, effective outcomes 
in a timely manner. Can you please share your views about what plans, 
if any, you may bring to reform and streamline Army Corps procedures?
    General Bostick. I understand that the Corps of Engineers has been 
criticized for taking too long and costing too much to deliver 
essential services to the Nation. I believe that Corps leadership 
clearly understands that past strategies for planning, designing, 
constructing, operating, maintaining, repairing, replacing, and 
rehabilitating our infrastructure must be adapted to become leaner and 
more responsive to meet present needs. It is my understanding that the 
Corps currently has initiatives underway to improve project and program 
delivery. If confirmed, I will actively support the ongoing efforts and 
initiatives as well as others to make the Corps more efficient and 
effective.

    25. Senator Portman. Lieutenant General Bostick, there is also a 
sense that, when challenged, the Army Corps tends to adopt a highly 
self-protecting, defensive posture--preferring to protect its own 
policies and institution rather than accommodate and positively respond 
or adapt to concerns. Do you think the Army Corps needs to reform 
itself to become more accommodating, adaptable, and responsive to local 
concerns?
    General Bostick. The Corps of Engineers understands the need to 
consider local concerns and to be responsive to those concerns. In the 
recently published Civil Works Strategic Plan, one of the six 
strategies highlighted is Collaboration and Partnering-Building and 
sustaining collaboration and partnerships at all levels to leverage 
funding, talent, data, and research from multiple agencies and 
organizations to be more responsive to the public. Partnerships among 
Federal agencies, tribes, local entities, and private not-for-profit 
create efficiencies when scarce resources are combined toward common 
aims. If confirmed, I will support all efforts to ensure that the Corps 
is appropriately responsive to local concerns.

    26. Senator Portman. Lieutenant General Bostick, do you think the 
Army Corps is as efficient and cost-effective as it can be with 
shrinking fiscal resources?
    General Bostick. Any large organization can become more efficient 
and effective. If confirmed, I will make every effort to continuously 
improve and make the Corps of Engineers as efficient and effective as 
possible.

    27. Senator Portman. Lieutenant General Bostick, if confirmed as 
Commanding General, what plans, if any, would you have to make the Army 
Corps more efficient, with a modern business model?
    General Bostick. The current Corps of Engineers' business model is 
quite flexible. By leveraging private sector architect-engineer 
resources and private sector construction firms, while keeping a 
relatively small cadre of Federal employees, I understand that the 
Corps was able to accomplish a tripling of workload over the past 5 
years with virtually no increase in the number of Federal employees. 
But this business model can be improved. If confirmed, I will reexamine 
the Corps' business model and make every effort to employ modern 
business practices to make it as efficient and effective as possible.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                       national export initiative
    28. Senator Graham. Lieutenant General Bostick, what benefits to 
this Nation does the Army Corps provide as we grow our economy through 
a resurgence of manufacturing, a modernization of the country's 
infrastructure, and the doubling of exports as described in President 
Obama's National Export Initiative?
    General Bostick. I believe that the Corps of Engineers continues to 
provide safe, reliable, cost-effective and environmentally sustainable 
transportation on its inland waterways and coastal channels and harbors 
in order to move commerce between the Nation's agricultural and 
manufacturing centers and its coastal ports to facilitate exports and 
imports of goods.

                         modernization of ports
    29. Senator Graham. Lieutenant General Bostick, how specifically 
can the Army Corps modernize our port infrastructure by reengineering 
our feasibility study process to be more responsive to global trends in 
shipping and trade that allow bigger ships to call upon our terminals 
either through the Panama Canal or the Suez Canal?
    General Bostick. I believe that the Corps of Engineers must be as 
efficient as possible in order to address the needs of the Nation. It 
is my understanding that the Corps has undertaken a number of recent 
initiatives to modernize its feasibility study process and strengthen 
its analyses of modernizing ports. This will result in shorter study 
timeframes and more responsive feasibility reports.
    To strengthen its analyses of ports, the Corps is improving its 
analytic procedures, methods of production, and understanding of the 
evolving global environment. Because navigation economic analysis is 
such a specialized field, the Corps established the National Deep Draft 
Navigation Planning Center of Expertise as a mandatory center for the 
production of all deep draft navigation related economic analyses. If 
confirmed, I am committed to ensuring that the Corps is utilizing all 
possible tools to ensure consistent treatment across all studies 
nationally, which ultimately helps the Corps maintain the critical mass 
of expertise needed for conducting deep draft navigation economic 
studies in the most streamlined manner.

    30. Senator Graham. Lieutenant General Bostick, if confirmed as 
Chief of Engineers, you will oversee Federal aspects of domestic port 
operations. Do you view the Army Corps as the agency with the requisite 
expertise and obligation to recommend a port modernization strategy to 
the administration and to Congress?
    General Bostick. The Corps of Engineers is a premier public 
engineering organization, and I believe the Corps has the expertise, 
working in collaboration with other Federal agencies, to develop a port 
modernization strategy and to follow through with improvements and 
maintenance of its coastal ports and channels and inland waterways. The 
Corps is also taking a leadership role in the committee on the Marine 
Transportation System, which is enhancing Federal collaboration.

    31. Senator Graham. Lieutenant General Bostick, as DOD's budget 
shrinks in response to austerity measures, how would you prioritize 
which ports to invest in absent a comprehensive modernization strategy 
or a merit-based system of allocated funds?
    General Bostick. The Corps of Engineers develops its Civil Works 
budget by placing priority for funding to those projects with the 
highest economic and environmental return to the Nation. In the absence 
of a comprehensive modernization strategy, the Corps would continue to 
fund those projects which provide the greatest potential economic and 
environmental return to the Nation.
                                 ______
                                 
    [The nomination reference of LTG Thomas P. Bostick, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     April 6, 2011.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chief of 
Engineers/Commanding General, U.S. Army Corps of Engineers, and 
appointment to the grade indicated in the U.S. Army while assigned to a 
position of importance and responsibility under title 10, U.S.C., 
sections 601 and 3036:

                        To be Lieutenant General

    LTG Thomas P. Bostick, 3680.
                                 ______
                                 
    [The biographical sketch of LTG Thomas P. Bostick, USA,, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Biographical Sketch of LTG Thomas P. Bostick, USA
Source of commissioned service: USMA

Educational degrees:
    U.S. Military Academy - BS - No Major
    Stanford University - MS - Civil Engineering
    Stanford University - MS - Mechanical Engineering

Military schools attended:
    Engineer Officer Basic and Advanced Courses
    U.S. Army Command and General Staff College
    U.S. Army War College

Foreign language(s): Portuguese.

Promotions:

------------------------------------------------------------------------
                Promotions                       Date of Appointment
------------------------------------------------------------------------
2LT.......................................  7 Jun 78
1LT.......................................  7 Jun 80
CPT.......................................  1 Jan 82
MAJ.......................................  1 Jul 89
LTC.......................................  1 Jul 93
COL.......................................  1 Aug 97
BG........................................  1 May 02
MG........................................  15 Jul 05
LTG.......................................  2 Feb 10
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Jan 75..........................  May 76............  Platoon Leader, A
                                                       Company, 54th
                                                       Engineer
                                                       Battalion, V
                                                       Corps, U.S. Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
May 80..........................  Mar 81............  Battalion
                                                       Maintenance
                                                       Officer, 54th
                                                       Engineer
                                                       Battalion, V
                                                       Corps, U.S. Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Mar 81..........................  Jul 81............  Executive Officer,
                                                       C Company, 54th
                                                       Engineer
                                                       Battalion, V
                                                       Corps, U.S. Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Jul 81..........................  Dec 82............  Commander, B
                                                       Company, 54th
                                                       Engineer
                                                       Battalion, V
                                                       Corps, U.S. Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Jan 83..........................  Jul 83............  Student, Engineer
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Engineer School,
                                                       Fort Belvoir, VA
Sep 83..........................  Jun 85............  Student, Stanford
                                                       University,
                                                       Stanford, CA
Jun 85..........................  Jun 88............  Instructor, later
                                                       Assistant
                                                       Professor,
                                                       Department of
                                                       Mechanics, U.S.
                                                       Military Academy,
                                                       West Point, NY
Jul 88..........................  Jun 89............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Aug 89..........................  Aug 90............  White House
                                                       Fellow,
                                                       Department of
                                                       Veterans Affairs,
                                                       Washington, DC
Jun 90..........................  Jun 91............  Engineer
                                                       Operations Staff
                                                       Officer, Office
                                                       of the Deputy
                                                       Chief of Staff
                                                       for Engineers,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Jun 91..........................  Jun 92............  S-3 (Operations),
                                                       40th Engineer
                                                       Battalion. 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Jun 92..........................  Jun 93............  S-3 (Operations),
                                                       Engineer Brigade,
                                                       1st Armored
                                                       Division, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Jun 93..........................  Jun 94............  Executive Officer
                                                       to the Chief of
                                                       Engineers, U.S.
                                                       Army Corps of
                                                       Engineers,
                                                       Washington, DC
Jun 94..........................  Jul 96............  Commander, 1st
                                                       Engineer
                                                       Battalion, 1st
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Riley, KS
Aug 96..........................  Jun 97............  Student, U.S. Army
                                                       War College,
                                                       Carlisle
                                                       Barracks, PA
Jul 97..........................  Jun 99............  Commander,
                                                       Engineer Brigade,
                                                       1st Armored
                                                       Division, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany and
                                                       Operation Joint
                                                       Forge, Bosnia-
                                                       Herzegovina
Jun 99..........................  May 01............  Executive Officer
                                                       to the Chief of
                                                       Staff, U.S. Army,
                                                       Washington, DC
May 01..........................  Aug 02............  Deputy Director
                                                       for Operations,
                                                       National Military
                                                       Command Center, J-
                                                       3, The Joint
                                                       Staff,
                                                       Washington, DC
Aug 02..........................  Jun 04............  Assistant Division
                                                       Commander
                                                       (Maneuver), later
                                                       Assistant
                                                       Division
                                                       Commander
                                                       (Support), 1st
                                                       Cavalry Division,
                                                       Fort Hood, TX,
                                                       and Operation
                                                       Iraqi Freedom,
                                                       Kuwait
Jun 04..........................  Jul 05............  Director of
                                                       Military
                                                       Programs, U.S.
                                                       Army Corps of
                                                       Engineers with
                                                       duty as
                                                       Commander, Gulf
                                                       Region Division,
                                                       Operation Iraqi
                                                       Freedom, Iraq
Oct 05..........................  May 09............  Commanding
                                                       General, U.S.
                                                       Army Recruiting
                                                       Command, Fort
                                                       Knox, KY
May 09..........................  Feb 10............  Special Assistant
                                                       to the Chief of
                                                       Staff, U.S. Army,
                                                       Washington, DC
Feb 10..........................  Present...........  Deputy Chief of
                                                       Staff, G-1, U.S.
                                                       Army, Washington,
                                                       DC
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
            Assignments                    Date              Grade
------------------------------------------------------------------------
Deputy Director for Operations,        May O1-Aug 02  Brigadier General
 National Military Command Center,
 J-3, The Joint Staff, Washington,
 DC................................
Director of Military Programs, U.S.    Jun 04-Jul 05  Brigadier General
 Army Corps of Engineers with duty
 as Commander, Gulf Region
 Division, Operation Iraqi Freedom,
 Iraq..............................
------------------------------------------------------------------------


Summary of operations assignments:

------------------------------------------------------------------------
            Assignments                    Date              Grade
------------------------------------------------------------------------
Commander. Engineer Brigade, 1st       Jul 97-Jun 99        Lieutenant Colonel/
 Armored Division, U.S. Army Europe                                    Colonel
 and Seventh Army, Germany and
 Operation Joint Forge, Bosnia-
 Herzegovina.......................
Assistant Division Commander           Mar 04-May 04  Brigadier General
 (Support), 1st Cavalry Division,
 Operation Iraqi Freedom, Kuwait...
Director of Military Programs, U.S.    Jun 04-Jul 05  Brigadier General
 Army Corps of Engineers with duty
 as Commander, Gulf Region
 Division, Operation Iraqi Freedom,
 Iraq..............................
------------------------------------------------------------------------


U.S. decorations and badges:
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit (with two Oak Leaf Clusters)
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritotious Service Medal (with four Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal
    Army Achievement Medal (with Oak Leaf Cluster)
    Combat Action Badge
    Parachutist Badge
    Recruiter Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Thomas P. 
Bostick, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Thomas P. Bostick.

    2. Position to which nominated:
    Chief of Engineers/Commanding General, U.S. Army Corps of 
Engineers.

    3. Date of nomination:
    6 April 2011.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    23 September 1956; Fukuoka, Japan.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Renee Yvonne Bostick (Maiden Name: Coyle).

    7. Names and ages of children:
    Joshua Jameson Bostick, age 27.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Society of American Military Engineers, Life Member
    Association of U.S. Army, Life Member
    Military Officers Association of America, Life Member
    ROCKs, Washington, DC, Local Member
    Pan Pacific American Leaders and Mentors Organization (PPALM)
    Association of Graduates, Advisor, Jan.-Dec. 2008.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Dean's List and Superintendent's at West Point, 1978
    Graduated 1st in Class in Language (Portuguese), 1978
    Captain of Sprint Football Team at West Point, 1978
    George C. Bass Award for Outstanding Leadership, 1978
    Best Maintenance Company in the Army, 1982
    Member of All-Army Power-lifter Team, 1983
    Community Mayor at Stewart Field, West Point, 1985
    Selected to present paper at American Society of Engineering 
Educators, 1986
    Honor Graduate, Engineer Officer Advance Course, 1983
    Selected for School of Advanced Military Studies, 1988
    White House Fellow, Department of Veterans Affairs, 1988-1989
    Who's Who in Science and Engineers in America, 1992
    Recognized by Vice Chairman of Joint Chiefs of Staff for actions in 
National Military Command Center on September 11, 2001
    Rock of the Year, 2008
    NAACP 2010 Roy Wilkins Renown Service Award for recent work as the 
commanding general, U.S. Army Recruiting Command.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                        LTG Thomas P. Bostick, USA.
    This 15th day of July, 2011.

    [The nomination of LTG Thomas P. Bostick, USA, was reported 
to the Senate by Chairman Levin on March 22, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 26, 2012.]
                                     



NOMINATIONS OF HON. FRANK KENDALL III TO BE UNDER SECRETARY OF DEFENSE 
 FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS; HON. JAMES N. MILLER, JR. 
TO BE UNDER SECRETARY OF DEFENSE FOR POLICY; HON. ERIN C. CONATON TO BE 
UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS; MRS. JESSICA L. 
 WRIGHT TO BE ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS; MRS. 
    KATHARINA G. McFARLAND TO BE ASSISTANT SECRETARY OF DEFENSE FOR 
 ACQUISITION; AND MS. HEIDI SHYU TO BE ASSISTANT SECRETARY OF THE ARMY 
               FOR ACQUISITION, LOGISTICS, AND TECHNOLOGY

                              ----------                              


                        THURSDAY, MARCH 29, 2012

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Begich, Blumenthal, McCain, Brown, Ayotte, and Cornyn.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Jessica L. Kingston, research 
assistant; Michael J. Kuiken, professional staff member; Gerald 
J. Leeling, counsel; Peter K. Levine, general counsel; Jason W. 
Maroney, counsel; William G.P. Monahan, counsel; Robie I. 
Samanta Roy, professional staff member; and William K. Sutey, 
professional staff member.
    Minority staff members present: Ann E. Sauer, minority 
staff director; Adam J. Barker, professional staff member; 
Pablo E. Carrillo, minority general counsel; Paul C. Hutton IV, 
professional staff member; Daniel A. Lerner, professional staff 
member; Lucian L. Niemeyer, professional staff member; Michael 
J. Sistak, research assistant; Diana G. Tabler, professional 
staff member; and Richard F. Walsh, minority counsel.
    Staff assistants present: Kathleen A. Kulenkampff and 
Mariah K. McNamara.
    Committee members' assistants present: Jeffrey Ratner, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Gordon 
Peterson, assistant to Senator Webb; Lindsay Kavanaugh, 
assistant to Senator Begich; Lenwood Landrum, assistant to 
Senator Sessions; Clyde Taylor IV, assistant to Senator 
Chambliss; Charles Prosch, assistant to Senator Brown; Brent 
Bombach, assistant to Senator Portman; Brad Bowman, assistant 
to Senator Ayotte; and Dave Hanke and Grace Smitham, assistants 
to Senator Cornyn.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets today to consider the nominations of 
Frank Kendall III to be Under Secretary of Defense for 
Acquisition, Technology, and Logistics; James Miller to be 
Under Secretary of Defense for Policy; Erin Conaton to be Under 
Secretary of Defense for Personnel and Readiness; Jessica 
Wright to be Assistant Secretary of Defense for Reserve 
Affairs; Katharina McFarland to be Assistant Secretary of 
Defense for Acquisition; and Heidi Shyu to be Assistant 
Secretary of the Army for Acquisition, Logistics, and 
Technology.
    We welcome all of our nominees, their families, and friends 
to today's hearing. We appreciate the long hours and the other 
sacrifices that our nominees are willing to make to serve our 
country. Their families also deserve our thanks for the support 
that they provide which is so essential to the success of these 
officials.
    The positions to which today's witnesses have been 
nominated are among the most critical positions in the 
Department of Defense (DOD).
    The Under Secretary of Defense for Acquisition, Technology, 
and Logistics is the senior DOD official responsible for the 
oversight and management of an acquisition system that spends 
roughly $400 billion a year to buy everything from planes and 
ships, to scientific research and food services. The Assistant 
Secretary of Defense for Acquisition is a new position 
established 2 years ago to assist the Under Secretary in these 
important responsibilities.
    If confirmed for these positions, Mr. Kendall and Mrs. 
McFarland will play the critical role in the Department's 
efforts to rein in costs and cost overruns in its acquisition 
programs. There are too many acquisition programs which are 
hundreds of millions, if not billions of dollars over budget. 
We passed the Weapons Systems Acquisition Reform Act a few 
years ago to bring to an end poorly planned programs, excessive 
concurrency in development and production, inadequate 
acquisition planning, and failure to perform important contract 
oversight and management functions necessary to protect our 
Nation's taxpayers. We will expect strong leadership from Mr. 
Kendall and Mrs. McFarland to hold both DOD officials and 
contractors accountable for failures of performance on defense 
acquisition programs.
    The Under Secretary of Defense for Policy is the senior 
civilian DOD official responsible for advising the Secretary of 
Defense on matters of policy, including oversight of war plans 
and the planning and execution of the Department's activities 
in combating terrorism. If confirmed for this position, Dr. 
Miller will play a critical role in issues ranging from 
managing the transition of security lead to Afghan forces and 
the drawdown of U.S. forces in Afghanistan, to countering the 
Iranian threat, to helping formulate the U.S. response to the 
Syrian regime's brutality against its own people.
    The next Under Secretary of Defense for Policy will also 
put into effect the Department's recent Strategic Guidance 
which establishes the goal of a joint force that is smaller and 
leaner but that still meets the Department's global challenges. 
This includes rebalancing toward the Asia-Pacific region and 
the Middle East, including preventing Iranian efforts to 
destabilize the region, countering violent extremism, 
maintaining an effective nuclear deterrent, addressing the 
proliferation of ballistic missiles and weapons of mass 
destruction, protecting our operations in cyberspace and space, 
and building partnerships with allies and friendly nations.
    The Under Secretary of Defense for Personnel and Readiness 
is the senior DOD official responsible for total force 
management and military personnel policy, including military 
family programs, health care, compensation, DOD civilian 
personnel policy, and many other related activities. If 
confirmed for this position, Ms. Conaton will play a critical 
role in the Department's efforts to address difficult issues 
ranging from reductions in end strength, transition assistance 
for separating servicemembers, retirement reform, the rising 
costs of military health care, sexual assault, and changes in 
assignment policies relating to women in the Armed Forces, to 
name but a few. We will also expect Ms. Conaton to take steps 
to achieve an appropriate balance among the military, civilian, 
and contractor workforces of DOD while ensuring that this 
workforce is appropriate to meet the Department's needs.
    I would note that we have had an opportunity to work 
closely with Ms. Conaton when she served as staff director of 
the House Armed Services Committee. We know her to be honest, 
thoughtful, and extremely capable in everything that she does. 
I am delighted that her former boss and a dear friend of ours--
all of ours as a matter of fact--Congressman Ike Skelton and 
his wife Patty are here--I see you right there. They are here. 
I did not have a chance to greet you before, but by God, they 
are here and they are able to be with us for today's hearing. I 
know how proud they are of you, Ms. Conaton.
    The Assistant Secretary of Defense for Reserve Affairs is 
responsible for overall supervision of matters which involve 
the Reserve components. If confirmed for this position, Mrs. 
Wright will play a key role in ensuring access to and 
appropriate use of the operational reserve and the appropriate 
balance between the Active and Reserve components.
    The Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology is the senior Army official 
responsible for oversight and management of the Army 
acquisition system. Just last year, the Decker-Wagner report on 
Army acquisition found that since 2004 the Army has spent more 
than $3 billion a year, or more than a third of its budget for 
the development of major weapons systems on programs that 
failed and were ultimately canceled. If confirmed, Ms. Shyu 
will be responsible for the Army's efforts to address these 
failures and develop a stable, achievable, and affordable 
modernization strategy ensuring that the Army remains well 
equipped and maintained even as end strength and force 
structure are reduced. She will also be the official primarily 
responsible for mitigating risks to the industrial base 
resulting from program cancelations, delays, and restructuring 
arising out of upcoming budget reductions.
    Each of our nominees is well qualified for the position to 
which he or she has been nominated. I look forward to the 
testimony of our nominees.
    I call on Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I join the chairman in welcoming our nominees and their 
families today, and I congratulate them on their nominations.
    I also would like to join you in welcoming our dear and 
beloved friend, Ike Skelton, back before the committee who you 
and I had the great honor and privilege of working with for 
many years on behalf of the defense of this Nation.
    I have found several instances which have been very 
troubling to me of DOD not complying with the National Defense 
Authorization Act (NDAA) that we passed last December. I spoke 
to the Secretary of Defense about it, and until I get further 
clarification--hopefully we can get it done during the 2-week 
recess--I will not vote to approve these or any other 
nominations until I am satisfied that there is the proper 
compliance with laws that are passed by the Congress of the 
United States by the Secretary of Defense. For example, the 
study about Guam which for 3 months there was not even an 
effort made to begin the outside study. Clearly the 
administration and DOD feels it necessary just to move forward 
without the input of the outside study that we had mandated 
after long debate and discussion. That is just one example of 
the concerns that I have.
    I think we have a role to play, a constitutional 
obligation, and I think some of those obligations and roles 
that we are playing are being ignored by the Secretary of 
Defense. I will not vote to approve these or any another DOD 
civilian nominations until the Secretary of Defense convinces 
me that they are in compliance with and observance of laws that 
we pass here in Congress and signed by the President of the 
United States.
    Mr. Kendall, you have been the Principal Deputy Under 
Secretary of Defense for Acquisition and Technology for the 
last 2 years. I applaud you for your contributions to bringing 
the right tools and processes to bear on some of DOD's poorest 
performing programs. The Department has a long, long way to go. 
According to the Government Accountability Office (GAO), the 
cost of the Department's major defense acquisition programs has 
increased by $135 billion since 2008. In the last 15 years, 
about one-third of the Department's major weapons procurement 
programs have had cost overruns of as much as 50 percent over 
original projections. I would like to hear from you what you 
will do to improve the Department's future acquisition 
performance. I would also ask you to comment on the potential 
effects of sequestration if imposed on the Department's largest 
programs.
    Ms. Shyu, you have served since November 2010 as the 
Principal Deputy of the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology. Over the past decade, 
the Army has been particularly unsuccessful in managing major 
acquisition programs, and the Future Combat System and the 
recently restructured Joint Tactical Radio System are egregious 
and costly examples of how not to meet a weapons system 
requirement. Taxpayers have a right to be frustrated and 
skeptical about the Army's ability to effectively develop and 
field major weapons systems. You have impressive credentials 
and I look forward to hearing how you will work to correct 
deficiencies and improve Army acquisition. As Senator Levin 
pointed out, the cost estimates for the Future Combat System, 
according to GAO, grew to $300 billion of the taxpayers' money, 
a scandal of proportions that if most taxpayers knew about it, 
they would share the outrage that a lot of us feel.
    Mrs. McFarland, you currently are serving as the President 
of the Defense Acquisition University and have been Acting 
Assistant Secretary of Defense for Acquisition since October 
2011. How will you, if confirmed, help minimize excessive cost 
growth and schedule delays in DOD programs and how will you 
identify lessons learned and apply them to future acquisitions? 
Future instances of what Mr. Kendall has labeled ``acquisition 
malpractice'' are unaffordable and unacceptable especially with 
the budget cuts that we are facing.
    Just a year ago, Dr. Miller, the Senate of the United 
States ratified the New Strategic Arms Reduction Treaty 
(START). At that time, the President also committed to 
modernization of the nuclear weapons complex. That commitment 
has been undercut in the fiscal year 2013 budget request which 
seriously underfunds the weapons complex modernization plan. I 
would like to hear an explanation of the administration's 
position on a failure to fund, as had been committed in the 
past, the national nuclear security issue.
    Ms. Conaton, the position you have been nominated to fill 
has been vacant for over 5 months, and the Inspector General of 
DOD continues to investigate whistleblower allegations against 
your predecessor. Much valuable experience and expertise in the 
personnel and readiness office has departed. While I give Dr. 
Rooney as Acting Under Secretary credit for her interim 
efforts, you will be taking over an office that is sorely in 
need of forceful, effective leadership. Such leadership has 
been lacking in articulating the policies that will enable the 
Services fairly and without sacrificing readiness to achieve a 
drawdown of over 100,000 Active and Reserve troops. Leadership 
is needed that will result in critically needed changes in the 
defense health program and the inefficient disability 
evaluation system and in the unaffordable trajectory of 
military and civilian personnel costs.
    Ms. Conaton and Mrs. Wright, in your roles as civilian 
overseers of policies affecting the Reserve and Guard, it is 
essential that you help the Services and help Congress to 
achieve consensus about the future role in resourcing of the 
Reserve and National Guard.
    I thank the witnesses for their willingness to serve.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Congressman Hoyer has joined us. He is going to be 
introducing Ms. Conaton. I know that you have a very tough 
schedule, so we are going to go out of order here in order to 
accommodate you, Representative Hoyer.
    Senator McCain. I do not want to accommodate him. 
[Laughter.]
    Chairman Levin. We will have a roll call vote on this. 
[Laughter.]
    We are being inundated by House Members and former House 
Members. You are sitting in front of a dear friend of ours, Ike 
Skelton, who we previously have introduced. Now we will 
introduce you, Steny, so that you can introduce Ms. Conaton, 
and then we will excuse you if you wish to go, and then go back 
to the regular order.

STATEMENT OF HON. STENY H. HOYER, U.S. REPRESENTATIVE FROM THE 
                       STATE OF MARYLAND

    Mr. Hoyer. Thank you very much, Senator Levin and Senator 
McCain. Thank you very much, Senator Lieberman, Senator Reed, 
Senator Akaka, Senator Ayotte. Good to be with you all. Thank 
you for giving me this opportunity.
    First of all, let me start with the transparent admission. 
I am not objective with respect to this nominee. What you are 
going to hear from me is totally subjective. I am a huge, 
unrestrained fan of Ms. Conaton. She is absolutely excellent.
    I want to thank you for this opportunity to introduce the 
President's nominee for Under Secretary of Defense for 
Personnel and Readiness to all of you, realizing full well that 
you need no introduction.
    I have had the privilege of serving in the House, as all of 
you know, for a long time and, very frankly, with many of you 
in the House. I have met many intelligent, capable, and 
talented men and women who came to work on Capitol Hill to 
serve their country. Erin Conaton stands out from this group as 
a proven leader who has been especially adept at helping bring 
the Pentagon and Congress together on important issues.
    To that extent, particularly in her last role on Capitol 
Hill, she complemented the extraordinary leader, Ike Skelton, 
as chairman and ranking member of the House Armed Services 
Committee. She reflected his personality, his bipartisanship, 
his commitment to America, and his patriotism. As Minority 
Staff Director of the House Armed Services Committee, Erin was 
the right hand of then Ranking Member Ike Skelton, as I have 
said. In that capacity, she worked closely with her Republican 
counterpart to ensure that measures benefitting the readiness 
of our military branches could advance through the committee 
without delay.
    When Democrats regained the majority in 2007, Erin became 
the staff director for the full committee overseeing every 
piece of legislation affecting military readiness, acquisition, 
and personnel. During that time, I had the privilege of serving 
as Majority Leader, and my staff and I worked closely with her, 
and I was constantly impressed by her effective, professional, 
insightful, responsive, and thoughtful approach to the job she 
undertook. Moreover, she has earned the respect of her 
colleagues on the committee and at the Pentagon where women 
have traditionally, as we know, been under-represented in the 
ranks of leadership.
    Her leadership of the committee staff during a period of 
two overseas military conflicts and increasing global demands 
on our Service branches made her eminently qualified when 
President Obama nominated her to serve as Under Secretary for 
the Air Force in 2009. Erin has served in that capacity with 
distinction, ensuring that the Air Force and Congress have been 
working closely together to make certain it has the tools 
required to carry out our missions.
    Prior to her career in the House, of course, Erin served as 
the Research Staff Director at the Hart-Rudman Commission for a 
National Security Strategy and as a financial analyst at 
Salomon Brothers.
    She holds a bachelor's degree in foreign service from 
Georgetown University and earned a master's degree and 
doctorate in law and diplomacy from the Fletcher School at 
Tufts. During her post-graduate years, Erin completed 
fellowships at the Central Intelligence Agency and the National 
Security Agency.
    I cannot imagine a more qualified nominee, Mr. Chairman and 
Senator McCain, for this position. I am confident that, if 
confirmed, Erin will do an outstanding job as Under Secretary 
of Defense for Personnel and Readiness. I strongly recommend 
her to you for confirmation.
    I thank you for this opportunity to speak on her behalf 
and, indeed, on behalf of our Nation.
    Chairman Levin. Thank you very much, Congressman Hoyer. I 
know how much she appreciates your being here and we all 
appreciate your being here as well. Again, you are free to go 
if you need to, as I am sure you do, because of your schedule.
    Mr. Hoyer. Thank you. I am going to return to the House and 
see if we can pass the Senate's transportation bill.
    Chairman Levin. Good luck to you.
    Next we are going to call on Senator Jack Reed who is going 
to introduce two of our nominees.
    Senator Reed.

  STATEMENT OF HON. JACK REED, U.S. SENATOR FROM THE STATE OF 
                          RHODE ISLAND

    Senator Reed. Thank you very much, Mr. Chairman.
    Let me also recognize Steny Hoyer and Chairman Ike Skelton. 
I had the privilege of serving with both. Gentlemen, thank you 
for being here. It means a lot, I am sure, to the nominees.
    But my duty today, which is more than a duty--it is a 
privilege and pleasure--is to introduce Frank Kendall and Jim 
Miller.
    I have had the great privilege of knowing Frank Kendall for 
over 40 years. We were classmates at West Point. In that time, 
I have come to know him as a man of great character, of great 
intellect, great talent, and great dedication to his country.
    Today Frank is joined by his wife Beth, by his brother Ron, 
and his sister-in-law Francoise, and they share with me great 
pride in his accomplishments.
    Frank, after being commissioned, served 10 years in the 
U.S. Army and led troops in Germany. Then he went on to a 
distinguished career in business in the defense industry as 
Vice President of Raytheon Corporation.
    He also has an extraordinary educational preparation for 
this job. He has a master's degree in aeronautical engineering 
from Cal Tech. He has a master's of business administration 
from Pace, and he has a law degree from Georgetown University. 
I do not know anyone who is better prepared to deal with the 
complex issues of acquisition and military policy than Frank 
Kendall.
    In the last few years, he has been the principal deputy to 
Secretary Ash Carter. He has been there working with Ash to 
develop the Better Buying Power initiative. He was 
instrumental, as Senator McCain alluded to, in deploying the 
improvements made by Senator McCain and Senator Levin in their 
Weapons Systems Acquisition Reform Act of 2009. We all 
recognize there is a long way to go, but Frank, I believe, is 
the individual to get us there.
    Again, it is a distinct pleasure to recognize someone who I 
admire, respect, and I hope will be speedily confirmed.
    Dr. Jim Miller has, as we know, been serving as the 
principal deputy to Secretary Michele Flournoy. He has done an 
extraordinary job. Dr. Miller is here today with his wife Adele 
and with his children Zoe, Collin, Lucas, and Adrienne. Allison 
is away at college. Having to pay college tuition, I think we 
should give this guy a job and keep him working.
    Jim just last week was here with General Allen. I think we 
were all thoughtfully impressed with his testimony, with his 
understanding of the issues. As Chairman Levin alluded to, he 
has a huge range of critical issues as the Under Secretary 
charged with policy from the Iranian nuclear ambitions to 
developing our response to evolving conditions in North Korea 
to the crisis in Syria. Again, I cannot think of anyone better 
prepared than Jim Miller to do this.
    He worked actively in the Quadrennial Defense Review, 
Nuclear Posture Review, and he has been literally, as I said, 
next to, standing beside and behind Secretary Flournoy when she 
has done all of her good work.
    He comes with extraordinary preparation, a graduate of 
Stanford and with a master's and doctorate from the Kennedy 
School at Harvard University.
    Again, I urge speedy consideration of this extraordinarily 
talented gentleman who has already demonstrated he can do the 
job.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Reed.
    We are now going to ask the standard questions of our 
nominees, and you can all answer at one time.
    Congressman Skelton, did you want to say a word? I did not 
have you on the list here to speak, but we clearly wanted to 
give you that opportunity.
    We are all set. Okay. Thank you. Senator McCain very 
properly asked whether or not you might want to speak, and it 
is always great to see you and to have you and your wife here.
    Standard questions for our nominees, and you can all answer 
at one time.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Mr. Kendall. Yes.
    Dr. Miller. Yes.
    Ms. Conaton. Yes.
    Mrs. Wright. Yes.
    Mrs. McFarland. Yes.
    Ms. Shyu. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Kendall. No
    Dr. Miller. No.
    Ms. Conaton. No.
    Mrs. Wright. No.
    Mrs. McFarland. No.
    Ms. Shyu. No.
    Chairman Levin. Will you assure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Mr. Kendall. Yes.
    Dr. Miller. Yes.
    Ms. Conaton. Yes.
    Mrs. Wright. Yes.
    Mrs. McFarland. Yes.
    Ms. Shyu. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Kendall. Yes.
    Dr. Miller. Yes.
    Ms. Conaton. Yes.
    Mrs. Wright. Yes.
    Mrs. McFarland. Yes.
    Ms. Shyu. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Kendall. Yes.
    Dr. Miller. Yes.
    Ms. Conaton. Yes.
    Mrs. Wright. Yes.
    Mrs. McFarland. Yes.
    Ms. Shyu. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Kendall. Yes.
    Dr. Miller. Yes.
    Ms. Conaton. Yes.
    Mrs. Wright. Yes.
    Mrs. McFarland. Yes.
    Ms. Shyu. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. Kendall. Yes.
    Dr. Miller. Yes.
    Ms. Conaton. Yes.
    Mrs. Wright. Yes.
    Mrs. McFarland. Yes.
    Ms. Shyu. Yes.
    Chairman Levin. It is a long question, but the answer is 
yes, which I heard from each of you.
    Okay. Now we are going to start with Frank Kendall, then go 
to Jim Miller, then to Erin Conaton, then to Jessica Wright, 
then to Katharina McFarland, and then to Heidi Shyu. That will 
be the order that I will call on you. As I do call on you, you 
should feel free to introduce any family or friends that are 
with you. Let me start with you, Mr. Kendall.

 STATEMENT OF HON. FRANK KENDALL III TO BE UNDER SECRETARY OF 
       DEFENSE FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Kendall. Thank you, Mr. Chairman. Chairman Levin, 
Ranking Member McCain, members of the Senate Armed Services 
Committee, thank you for the opportunity to appear before your 
committee today.
    I am grateful for the confidence that President Obama has 
shown in me by nominating me to be the Under Secretary of 
Defense for Acquisition, Technology, and Logistics.
    I want to thank Secretary Panetta and Deputy Secretary 
Carter for their support of my nomination.
    If confirmed, I will be deeply honored to serve.
    I would also like to thank my classmate from West Point, 
Senator Reed, for his support and his very kind introduction 
today. Senator Reed and I just attended our 40th reunion at 
West Point. Neither one of us can understand how all those 
other guys got so old so fast.
    I also want to acknowledge Senator Reed is from Rhode 
Island, and I noticed an article this morning about a 
specialist, Dennis Weichel, who was killed in Afghanistan. He 
is a native of Rhode Island and he was killed saving the life 
of a small girl in Afghanistan. That kind of dedication, 
courage, and commitment is what all of us that are here before 
you today believe in and are trying to support. I wanted to 
acknowledge that loss and how much we all share that loss with 
Rhode Island.
    Chairman Levin. Thank you for doing that.
    Mr. Kendall. Finally, I would like to thank my family for 
their support. My wife Elizabeth, Beth, is here with me today, 
as are my brother Ron and his wife Francoise, as Senator Reed 
mentioned.
    I want to offer Beth my special thanks and appreciation. In 
October of 2009 at my first confirmation hearing, I thanked 
Beth for her support. After my 2 years in the Pentagon, first 
as Principal Deputy to Dr. Carter for a year and a half and for 
the last 6 months as Acting Under Secretary, Beth knows now 
exactly what she has gotten herself into, and I am deeply 
appreciative of her continuing love and support.
    When I sat before this committee in October 2009, I said 
that I too knew what I was getting myself into. That is even 
more true today. I said then that I believe that DOD could do 
much better at equipping and sustaining our forces. I said that 
my background in operational units, defense research and 
development organizations, the Secretary of Defense's Office, 
and the defense industry had all prepared me to make a 
contribution to achieving the goal of obtaining more value for 
the investments our country makes in equipping and supporting 
its soldiers, sailors, airmen, and marines. I believe today 
that I have much more to do and can do to contribute to this 
goal, and I would deeply appreciate the opportunity to do so.
    If the Senate confirms me in this position, I will make 
every effort to live up to the confidence that will have been 
placed in me.
    Thank you very much.
    Chairman Levin. Thank you very much, Mr. Kendall.
    Dr. Miller.

STATEMENT OF HON. JAMES N. MILLER, JR. TO BE UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Dr. Miller. Chairman Levin, Senator McCain, members of the 
committee--and Senator Reed, thank you for that kind 
introduction.
    Three years ago this month, I testified to this committee 
in a confirmation hearing for my current position as Principal 
Deputy Under Secretary for Policy. I thank the committee for 
the trust you placed in me by confirming me for that position. 
It has been a great privilege to serve in that position for the 
past 3 years.
    I am deeply honored to appear here today as the nominee for 
Under Secretary of Defense for Policy. I thank President Obama 
for the confidence he has placed in me as Principal Deputy and 
now as the nominee for Under Secretary for Policy. I also thank 
Secretary Panetta and former Secretary Gates for their 
confidence in me and for their outstanding leadership of DOD. I 
also want to thank the dedicated team of civilian and military 
personnel in the Office of the Secretary of Defense (OSD), 
Policy office and throughout DOD, particularly those in harm's 
way today for all that they do for national security.
    I want to especially thank our previous Under Secretary for 
Policy, Michele Flournoy, for her extraordinary service to our 
country. If I have the honor of being confirmed as Michele 
Flournoy's successor, I will hold her example of integrity and 
professionalism as my ultimate benchmark.
    My deepest debt of gratitude is to my family, to my wife 
Adele, and to my children Allison, Zoe, Collin, Lucas, and 
Adrienne. Adele's and our kids' love and strong support has 
made my service in Government possible. For the past 3 years, 
they have put up with an often absentee husband and dad. I 
cannot thank them enough for their support. With the consent of 
the Senate, Adele and I and the kids are ready to sign up for 
another tour.
    As I have watched my kids grow up, one of the thoughts that 
motivates me to stay in Government is that the choices that we 
make as a Nation will shape their future. We all want to hand 
our kids and their generation a better world. I believe that 
this includes ensuring that the United States succeeds in 
ongoing operations and ensuring that the United States retains 
the strongest military the world has ever seen.
    Much has happened in the 3 years since I first appeared 
before this committee. President Obama said that we would bring 
the Iraq war to a responsible end and we did.
    As I had the opportunity to testify to this committee last 
week with General Allen, we are making progress in Afghanistan. 
We have had a difficult few weeks and no doubt more challenges 
are ahead, but our strategy is working. It is not time for plan 
B. It is time to continue the hard work of plan A and complete 
the transition to the full Afghan responsibility for their 
security by the end of 2014.
    If I am confirmed by the Senate as Under Secretary, I will 
do all in my power to help the United States, our coalition, 
and the Afghans succeed to ensure that Afghanistan never again 
becomes a source of attacks on the United States.
    If confirmed, I will also focus on other immediate 
priorities, denying, degrading, and defeating al Qaeda, 
stopping Iran from acquiring a nuclear weapon--as President 
Obama has said, containment is not an option--preparing for the 
fall of the Assad regime in Syria, and more broadly posturing 
the United States to cope and take advantage of the 
transformations brought about by the Arab Spring.
    If I am confirmed, another top priority will be carrying 
out the Strategic Guidance that President Obama announced at 
the Pentagon earlier this year. Even as we deal with current 
operations in Afghanistan and across the globe, we are building 
the joint force of the future. The fiscal year 2013 DOD budget 
submission reflects a strategy-driven approach intended to 
provide a force that, as Secretary Panetta said and as Chairman 
Levin referred to, is smaller and leaner, but agile, flexible, 
ready, and technologically advanced.
    Consistent with our new Strategic Guidance, if confirmed as 
Under Secretary, I will work to continue to strengthen our 
posture in the Asia-Pacific. This includes addressing the 
challenges posed by the new regime in North Korea and 
continuing to work closely with our allies and partners in the 
Pacific.
    If confirmed, I will also continue to ensure that our 
Nation and our military are on a firm footing to meet the 
challenges of tomorrow, including improving our Nation's 
posture in space and cyberspace, responsibly growing our 
Special Operations Forces, reforming our systems of export 
controls which is a burden on industry and slows down our 
efforts to build partner capacity, advancing our missile 
defense posture to deal with the real threats from Iran and 
North Korea, and ensuring that we retain a safe, secure, and 
effective nuclear deterrent for as long as nuclear weapons 
exist.
    Mr. Chairman, Senator McCain, and members of the committee, 
thank you for considering my nomination for Under Secretary of 
Defense for Policy. If confirmed, I am committed to continuing 
to work with Congress to ensure that we succeed in Afghanistan, 
to advance our national interests by maintaining a strong 
global posture, and continuing to strengthen our alliances and 
partnerships across the globe, and to preserve and strengthen 
our military so that the United States is on a firm footing to 
meet the challenges of the future.
    Thank you and I look forward to your questions.
    Chairman Levin. Thank you very much, Dr. Miller.
    Ms. Conaton is next.

  STATEMENT OF HON. ERIN C. CONATON TO BE UNDER SECRETARY OF 
              DEFENSE FOR PERSONNEL AND READINESS

    Ms. Conaton. Chairman Levin, Ranking Member McCain, members 
of the committee, and your staffs, thanks for the opportunity 
to again be before you and thanks for the confidence that you 
have placed in me in my current position as Under Secretary of 
the Air Force.
    Like my colleagues, I would like to start by thanking 
President Obama, Secretary Panetta, and Deputy Secretary Carter 
for the opportunity to continue serving, if you all see fit to 
confirm me.
    I am deeply honored that Mr. Hoyer would take the time to 
come over and spend a few minutes with us, and I never want to 
correct the distinguished Minority Whip, but I did not actually 
finish my doctoral dissertation. Maybe that will be a post-
Government project to be finished.
    To Ike Skelton, sir, truly you are my mentor, and all that 
I know about the personnel and readiness challenges facing our 
military I learned from you. But it seems perfectly fitting to 
me that you and Patty are sitting as part of my family.
    I am also honored to have my parents, Pat and Dan, my 
siblings, Sean and Meghan, and my sister-in-law, the other Erin 
Conaton. But I would particularly like to single out my 7-year-
old nephew William, my 4\1/2\-year-old niece Nora, and my 2-
year-old niece Cathleen. The oldest two of them are going to be 
giving a report at school tomorrow on what they learned today, 
so I know that they are paying close attention.
    I would also like to welcome three tremendous young women I 
have had the opportunity to get to know from McKinley High 
School, Vinecia, Taahiva, and Brooke. They are fast approaching 
graduation, and I know each of them has an incredibly bright 
future ahead of them.
    I have been blessed to serve under a great Air Force 
leadership team in Secretary Mike Donley and Chief Norty 
Schwartz. I have learned so much serving with them, as well as 
with two outstanding partners in my current Vice Chief General 
Phil Breedlove, as well as his predecessor, General Howie 
Chandler. These great leaders are a model of service and 
leadership. It has been an honor to serve with them.
    My eternal thanks, too, to the team who has supported me in 
the Air Force for over 2 years and to the OSD team led so ably 
by Dr. Jo Ann Rooney. They have been great in helping me to 
start to get smart on these issues.
    There would be no greater honor than to represent our 
outstanding servicemembers, Active, Guard, Reserve, and 
civilians, and their families. It would be a privilege to be 
their advocate and to continue to advocate for the strength of 
the All-Volunteer Force and its readiness. As Chairman Levin 
and Senator McCain pointed out in their opening statements, 
there are many challenging issues before the Department in this 
area. If confirmed, I would look forward to the opportunity to 
work with my DOD partners and with this committee to address 
these challenges.
    Thank you again for the opportunity to be before you.
    Chairman Levin. Thank you so much, Ms. Conaton.
    Now Mrs. Wright.

 STATEMENT OF MRS. JESSICA L. WRIGHT TO BE ASSISTANT SECRETARY 
                 OF DEFENSE FOR RESERVE AFFAIRS

    Mrs. Wright. Chairman Levin, Senator McCain, honorable 
committee members, good morning. I am humbled and honored to be 
sitting before you this morning.
    I thoroughly appreciate the confidence that President Obama 
has expressed in nominating me to be the Assistant Secretary of 
Defense for Reserve Affairs. I am grateful to Secretary Panetta 
for supporting that nomination.
    It has been my great honor and privilege to serve our 
Nation in uniform for 35 years and as a civilian these past 16 
months.
    My career in public service would not have happened without 
the love and support of my family. My husband Chuck, who is 
here with me today, is my most avid supporter and champion. He 
is a combat-tested Army veteran who retired as a lieutenant 
colonel with 24 years of service. Our son Mike is in college 
and not able to attend this hearing, though I know he is here 
in spirit. He will graduate in May from Kings College with a 
degree in accounting and a commission in infantry, 2nd 
lieutenant, following in his dad's footsteps.
    I would also like to thank my parents, John and Cass 
Garfola, who live in South Carolina and are not able to attend 
this hearing. They instilled in my brothers and me the 
importance of public service. My dad served in the China-Burma-
India theater in World War II and spent a lifetime in steel 
mills. My mom started in the Army nursing program and served a 
49-year career as a civilian nurse.
    Throughout my career, I have seen enormous changes in our 
military. I enlisted as a member of the women's Army Corps and 
it culminated as the Adjutant General of the Commonwealth of 
Pennsylvania. I have worked my entire career promoting the 
Reserve components. These men and women number in the hundreds 
of thousands and carry the proud title of citizen warrior. As 
you certainly know, they have put their lives on the line and 
their careers on hold through this past decade of war, and they 
have performed with honor and dignity.
    Over the last decade, our Reserve components and the 
National Guard have transformed from a strategic reserve to an 
operational component. They fight and they serve alongside the 
Active component each and every day. If confirmed, it would be 
my privilege as the Assistant Secretary of Defense for Reserve 
Affairs to build on their success, to work hard to support the 
men and women who proudly serve our Nation as members of our 
Reserve components.
    I am grateful to all Members of Congress and this 
distinguished committee for the energy and support that they 
have given our servicemen and women and their families. If the 
Senate confirms me in this position, I pledge to you that I 
will work diligently for the men and women of the seven Reserve 
components, their families, and their employers. I am deeply 
honored to have been nominated and to serve.
    Thank you.
    Chairman Levin. Thank you very much, Mrs. Wright.
    Next Mrs. McFarland.

   STATEMENT OF MRS. KATHARINA G. McFARLAND TO BE ASSISTANT 
              SECRETARY OF DEFENSE FOR ACQUISITION

    Mrs. McFarland. Thank you, Mr. Chairman.
    Chairman Levin, Ranking Member McCain, and distinguished 
members of the Senate Armed Services Committee, thank you for 
the opportunity to appear before your committee today.
    I am also grateful for the confidence that President Obama 
has shown in me by nominating me to be the Assistant Secretary 
of Defense for Acquisition.
    I personally want to thank Secretary Panetta, Deputy 
Secretary Carter, and Acting Under Secretary of Defense 
Kendall's support for my nomination. If confirmed, I will be 
truly honored to serve and will work to serve in the highest 
accord with the highest traditions of office and integrity.
    I am blessed with having some of my family and friends here 
and would like to thank them for their guidance and support 
that they have given me. My mother and father, Sonya and 
Wilbert Wahl, who are still working full-time and contributing 
to society and economy. My husband, former Marine Corps 
colonel, with 34 years of service, inclusive of two tours in 
Operation Iraqi Freedom (OIF) and one in Operation Enduring 
Freedom (OEF), Ron McFarland, and my son Jacob Brown.
    As my mother was witness and victim to the horrors of World 
War II on the eastern side of Germany, her stories, rarely 
told, stay with me and led me to work for DOD. My family was 
always tight for money. My dad took me everywhere, and every 
moment he was trying to find another way to stretch his poor 
dollar as far as it could go. If I am confirmed, you can be 
assured that his lessons will continue to guide me.
    I passionately believe in the high priority that this 
committee, Congress, the President, and the Secretary of 
Defense have placed on improving the results achieved by the 
defense acquisition system. We need to maintain the best 
equipped military to support the policies of national security 
for this country and the new Strategic Guidance that the 
Secretary and the President recently announced. In order to do 
that, we must have a better trained workforce, a more efficient 
process that focuses on content and product, and the ability to 
measure how we, the Government, and industry are performing. We 
must improve our ability to extract every bit of value from the 
public funds we are entrusted with.
    I consider this a monumental task, especially in this 
economic climate and with the continuing and emerging threats 
to our security. If the Senate confirms me, I will do 
everything in my power to live up to the confidence that has 
been placed in me.
    Thank you.
    Chairman Levin. Thank you very much, Mrs. McFarland.
    Ms. Shyu.

 STATEMENT OF MS. HEIDI SHYU TO BE ASSISTANT SECRETARY OF THE 
        ARMY FOR ACQUISITION, LOGISTICS, AND TECHNOLOGY

    Ms. Shyu. Mr. Chairman, Senator McCain, and members of this 
esteemed committee, it is a great honor for me to appear before 
you as President Obama's nominee to serve as the Assistant 
Secretary of the Army for Acquisition, Logistics, and 
Technology. I am very grateful for this nomination, for 
Secretary McHugh's support, and the opportunity to be here 
today.
    I would like to take a moment to thank my family for their 
constant love, encouragement, and support. My 102-year-old 
grandmother in Taiwan is unable to be here today, but she is 
absolutely here in spirit with me.
    Chairman Levin. Why did she not fly in for this? 
[Laughter.]
    Ms. Shyu. If she could fly, I can guarantee you she will be 
here.
    Chairman Levin. Give her our greetings.
    Ms. Shyu. Thank you, sir.
    Chairman Levin. Tell her we miss her too.
    Ms. Shyu. Thank you.
    Mr. Chairman, I seek the committee's consent to serve as 
the Assistant Secretary of the Army for Acquisition, Logistics, 
and Technology. It has been my distinct privilege to serve in 
this position in the acting capacity in the last 9 months. It 
is an appointment that has resulted from my job as the 
principal deputy since November 2010. This service, along with 
my prior experience, has given me firsthand knowledge and 
valuable insight into areas of opportunities to fundamentally 
change the way that the Army acquires weapons systems for our 
soldiers.
    Efforts to reform the acquisition systems have been ongoing 
for decades. The current fiscal environment has given these 
efforts a new sense of urgency. While I believe that the Army 
is heading in the right direction since the cancelation of the 
Future Combat System, I pledge my dedicated efforts to this 
present task. If confirmed, I will prioritize affordability, 
competition, challenging unrealistic requirements, and 
emphasize sound management. More must be done to ensure that 
the current and future modernization efforts are built on the 
best possible foundation for success.
    For more than 30 years, I have held a number of leadership 
positions within the defense industry that took me from entry 
level engineer to corporate vice president. I have direct 
experience in turning a vision into a system that is fielded to 
the hands of our warfighters. This experience will assist me in 
meeting challenges in performing this role.
    Again, Mr. Chairman, I am honored by this nomination. I 
believe that I possess the background, the experience, 
commitment, the ethical discipline taught to me by my 102-year-
old grandmother, and the judgment that is necessary to perform 
this important job.
    I look forward to your questions and comments. Thank you.
    Chairman Levin. Thank you very much, Ms. Shyu.
    I think we have a vote at 11:30, and we are going to work 
right through that vote, as I mentioned. We will have a 7-
minute first round of questions.
    I want to start by reading from an e-mail that a friend of 
mine received from his son in Afghanistan from a forward 
operating base in Afghanistan. Mr. Kendall, you made reference 
to the loss of another American hero, and that kind of 
triggered my decision just to read a few paragraphs of this e-
mail to his folks.
    ``While the news certainly and rightly has paid a lot of 
attention to a few horrible incidents of Afghan army and police 
turning on their American counterparts, including a fairly 
horrific incident in our sister battalion resulting in the 
first two casualties of our deployment, I can say I have been 
nothing but amazed by the strength of the bonds that have been 
formed between American troops and the Afghan National Army 
(ANA). The reaction of our ANA counterparts to the insider 
attack on my sister battalion's company outpost was truly 
telling. Their first reaction was fear. They were deeply 
concerned that we would abandon them over this, that we would 
blame them for the actions of a few who turned their weapons 
not only on Americans but also on their ANA brothers who, I 
should mention, played an important role in counterattacking 
their traitorous comrades and bringing those involved to 
justice.
    ``When we had a similar potential threat revealed in our 
area of operations, it turned out that the ANA was already 
working internally to stop it. A couple of their soldiers who 
were at first erroneously suspected of being complicit were 
actually the proactive individuals who stopped anything well 
before it could happen. The ANA were in tears over the fact 
that they believed that we would never trust them again and 
suspect them always of being Taliban, people they literally 
risk their lives constantly to fight and honestly hate. I can 
say that I have truly never felt unsafe around any of my Afghan 
counterparts.''
    Dr. Miller, let me ask you a question about the Afghan 
security forces. They are on track to reach a goal of 352,000 
personnel by later this year. Building on the capabilities of 
the Afghan security forces is key to transitioning the security 
lead to Afghanistan. As General Allen testified last week, 
``transition is the linchpin of our strategy, not merely the 
way out''.
    Now, given the importance of developing capable Afghan 
security forces for our transition strategy, I frankly was 
surprised and concerned about news accounts of a U.S. proposal 
to reduce the size of the Afghan forces by a third after 2013 
apparently based on concerns about the affordability of a 
larger force. General Allen assured us that the option of 
reducing the size of the Afghan security forces after 2014 to 
the level of 230,000 was based on a current projection of 
possible options and certain possible scenarios, but that no 
decision had yet been taken. I hope not. In my view, it would 
be unwise and unfortunate if we were to risk the hard-fought 
gains that we, our coalition partners, and the Afghans have 
achieved by deciding in advance that we are not going to 
support an Afghan security force that is right-sized to provide 
security to the Afghan people and to prevent a Taliban return 
to power.
    Do you agree, Dr. Miller, that first of all, we have not 
made a decision and that whether or not that we should have a 
350,000-sized Afghan security force or whether or not that 
ought to be reduced to some number lower than that should be, 
number one, conditions-based and the affordability concerns 
predicted now for years from now should not be, at this point 
at least, the factor which controls that decision?
    Dr. Miller. Mr. Chairman, yes, I agree. As we indicated in 
testimony with General Allen, the surge force of 352,000 should 
be sustained beyond 2013 and quite likely beyond 2014.
    Chairman Levin. You also stated in answer to a prehearing 
question, Dr. Miller, that you support a, ``responsible 
drawdown as called for by the President''. Last June, the 
President announced his plan for drawing down the surge force 
in Afghanistan and said that after the initial reduction, which 
would be completed by this year, that the withdrawal of our 
forces would continue, ``at a steady pace''. That would be 
between the summer of this year and 2014 when most all of our 
combat forces would be removed under current plans from 
Afghanistan.
    My question, Dr. Miller, do you support the President's 
plan for U.S. troop reductions to continue at a steady pace 
after September of this year?
    Dr. Miller. Mr. Chairman, yes, I do, and we have not yet 
defined what the steady pace will mean in terms of numbers. 
Sir, General Allen intends to conduct an assessment at the end 
of September as we have drawn the force down to about 68,000 
Americans, have a hard look at any al Qaeda presence, at the 
strength of insurgency, and critically importantly, at the 
strength of the Afghan National Security Forces and then make a 
recommendation up the chain of command to the President. That 
would be a timeline for a recommendation and a decision this 
fall.
    Chairman Levin. Thank you.
    Let me now ask Mr. Kendall about our industrial base, and I 
will ask Ms. Shyu as well. I have a real concern about the 
industrial base including our second- and our third-tier 
suppliers, particularly for the ground combat and tactical 
vehicles that we know are going to be coming into our inventory 
and are going to be developed and produced. I want to know what 
steps you plan to take to address the potential loss of 
industrial capability or capacity associated with reductions at 
the same time that we need to prepare for the next generation.
    Mr. Kendall. Mr. Chairman, we are watching the industrial 
base probably more closely now than any other time since 
perhaps the end of the Cold War. We are taking account of it as 
we make budget decisions in particular because we are no longer 
in a period of growth in the budget. This year, as we went 
through the budget preparation process, we had meetings at the 
very senior level specifically to look at industrial base 
issues, and we did take some steps because of them.
    We are concerned about the tiers below the prime level. We 
have undertaken an in-depth analysis of that. We are building a 
database to help us completely understand each sector and each 
tier so that we are aware of and can respond perhaps 
proactively, as much proactively as possible, when problems 
arise. The database that we are building is well underway and 
it is allowing us to identify some things and perhaps intervene 
earlier than we might be able to otherwise.
    We are going to be limited in our resources. Any 
intervention in the industrial base is going to have to be on a 
case-by-case basis and probably fairly rare. But if there are 
niche capabilities that are critical to us, we may well 
intervene, and there may be cases where just to keep 
competition for critical components we do the same.
    We are watching the industrial base very carefully. We are 
going through a difficult period. There is going to be, 
obviously, less money available to the industrial base. As we 
stretch out production and delay programs in some cases, there 
are going to be smaller companies in particular that are 
impacted.
    Chairman Levin. Thank you.
    Ms. Shyu, do you have anything to add to that?
    Ms. Shyu. Senator, I absolutely am equally concerned about 
our industrial base, in particular the impacts to our second-, 
third-, and fourth-tier companies. My sister is a small 
business owner, so I absolutely understand the challenges in 
terms of running a small business. We are working aggressively 
with our prime contractors to identify Foreign Military Sales 
opportunities to fill in the bathtub. We are working very 
closely with OSD on the sector-by-sector and tier-by-tier 
database. As a matter of fact, just yesterday I spent a solid 
hour discussing issues in regards to our small companies. We 
are in the process of also working and assessing across our 
entire portfolio to look for opportunities for our small 
businesses. I think that is a huge area we can explore. If 
confirmed, I dedicate my efforts to take a look at the 
industrial base.
    Chairman Levin. Thank you very much.
    If you would, Mr. Kendall particularly, give us a status 
report by, say, May 10, if you would, on your assessment of the 
issue which you have addressed, particularly the second-, 
third-, and fourth-tiers Ms. Shyu made reference to, suppliers 
in those areas. If you could give us the status report so we 
can consider that situation in our own markup, we would 
appreciate that.
    Mr. Kendall. We can do that, Mr. Chairman.
    Chairman Levin. Thank you very much.
    Senator Ayotte? Senator McCain is not yet back.
    Senator Ayotte. Thank you, Mr. Chairman. I appreciate it.
    I want to thank all of you for being here and for your 
dedicated service to our country and all of your families and 
friends for the support you have given all of our distinguished 
witnesses today.
    I wanted to follow up on the chairman's question. Mr. 
Kendall, Ms. Shyu, what happens to the defense industrial base, 
particularly our second-, third-, and fourth-tier suppliers if 
sequestration happens?
    Mr. Kendall. Senator McCain mentioned sequestration also. 
In a word, it will be devastating. We have already taken $500 
billion a year, roughly, out of the defense budget. If we have 
to take roughly another $500 billion, that is $100 billion a 
year out of the budget, a lot of that would fall onto industry.
    There is a provision under the Budget Control Act which 
would allow the President to exempt military personnel. There 
is a good chance that he would do that because that would be a 
devastating impact on our people. That would increase the 
burden that would fall on the investment accounts, research and 
development, and production. It would be fairly deep cuts. They 
would also have to be applied very indiscriminately. We would 
not be allowed to prioritize and they would fall on unobligated 
balances. We would have a devastating impact.
    A lot of the work that we have done over the last couple of 
years to try to make more efficient acquisition decisions and 
get better contract structures would be broken. The tanker, for 
example, which the Air Force went through a very laborious and 
difficult process to get under contract on a sound acquisition 
strategy. We would break that fixed-price contract.
    Senator Ayotte. You are talking about the KC-46A?
    Mr. Kendall. Yes.
    Senator Ayotte. Yes, it would jeopardize that contract?
    Mr. Kendall. We would jeopardize that.
    Senator Ayotte. If sequestration goes forward?
    Mr. Kendall. We would jeopardize a number of contracts 
where we would have to take cuts that would break the contract 
from our side. Then we would have to go renegotiate. You are 
essentially opening it up and you have to go get another price. 
Once we are in a situation--and we did a competition, for 
example, for the tanker. That was very effective in getting the 
price down. Once you do not have a competitive environment, 
then it is much more difficult for us to negotiate a lower 
price.
    The littoral combat ship is another one where we have good 
prices out over the next few years. We would break that deal as 
well.
    Across the Department, there are places where a devastating 
impact would occur. Of course, that ripples down to all tiers 
in the industrial base.
    Industry is already very concerned about this. Some of the 
major firms have approached me about their concerns about 
having to provide notice of potential layoffs because there is 
a provision in the law that requires them to do that just in 
pending sequestration.
    It has been described by various people in various ways. 
Secretary Lynn talked about sequestration as being something 
that was so crazy--it was intended to be so crazy that nobody 
would ever do it. The people have done a very good job of 
making it that crazy.
    Senator Ayotte. So crazy that nobody would ever do it.
    Mr. Kendall. So crazy nobody would do it and they did a 
really good job of that.
    My boss, Secretary Panetta, who is sometimes very frank in 
his language, has called it, I think, goofy and a meat axe 
approach. In private conversations, he has used much stronger 
language than that.
    Senator Ayotte. Probably not good for this room. 
[Laughter.]
    Mr. Kendall. I will refrain from that.
    But sequestration, in a word, would be devastating to the 
Department.
    Senator Ayotte. Thank you.
    Ms. Shyu?
    Ms. Shyu. Senator, I absolutely concur. If sequestration 
occurs, it would absolutely have a devastating impact on 
modernization. The bulk of the Army's budget is in the manning 
area, and that is not going to go down quickly. The 
modernization account, namely the procurement accounts, 
research and development accounts, which impacts our primes, 
our second-, third-, fourth-tier companies are going to be 
significantly impacted. Everything we have judiciously worked 
last year to identify affordability, cost savings, cost 
avoidances will be gone.
    Senator Ayotte. Just to be clear so everyone understands 
and those that are watching this hearing, when we are talking 
about particularly second-, third-, and fourth-tier suppliers, 
sometimes when those businesses go away, they do not come back. 
We are talking about small businesses that if they are put out 
of business by sequestration, then it is difficult often to 
bring that capability back. That is why we are concerned about 
our defense industrial base. Those are real jobs in this 
country, are they not, at stake?
    Mr. Kendall. That is correct. There would be hundreds of 
thousands of jobs impacted.
    Senator Ayotte. I appreciate that.
    One thing I wanted to follow up when we look at where we 
are with the $487 billion in reductions over the next 10 years 
as a result of the Budget Control Act, Secretary Conaton and 
Dr. Miller in particular, we are asking for a 72,000 reduction 
in the end strength of our Army. How did we get to that number, 
meaning is this a number that the Army recommended in terms of 
end strength reductions?
    The other important question that I would like to get at is 
how many involuntary terminations will we have to give to our 
soldiers in order to accommodate the 72,000 in reductions 
because it is really hard to think about those who have gone 
and done multiple tours in Iraq and Afghanistan and handing 
them an involuntary termination.
    First, how did we get to the number and, second, what does 
this mean in terms of involuntary terminations?
    Ms. Conaton. Thank you, Senator. Given that I have been 
working in the Air Force for the last couple of years, I will 
defer to Dr. Miller, if he has insight as to how the exact 
number was chosen. It is my understanding, though, that the 
Army leadership had a great voice, as did the Marine Corps 
leadership, in looking at not only the numbers, but the ramp 
and how quickly folks are coming out of the force.
    I share your deep concern that we ensure that we do this in 
a way that minimizes the number of folks who are involuntarily 
removed from the rolls. I know Secretary Panetta's commitment, 
and if confirmed, it would be my commitment to work with the 
Services to make sure we do everything possible before we 
involuntarily remove folks and also strengthen the transition 
assistance program so that folks who are leaving our military 
have the best opportunity to gain follow-on employment, or 
education, or start a small business.
    Senator Ayotte. I appreciate that.
    Dr. Miller, can you help us, how did we get to the number? 
Here is where I look at it is that we were withdrawing from 
Iraq. We were certainly drawing down in Afghanistan. There was 
going to be some reduction. Would you be recommending to us 
72,000 but for the Budget Control Act, and how did we get to 
that number?
    Dr. Miller. Senator, let me first confirm what Ms. Conaton 
said and that is that the Army was very much involved in the 
discussions about both the size of the force that would result 
by the end of fiscal year 2017 and the ramp in terms of the 
reductions. That ramp was designed specifically to minimize the 
impact and to minimize the likelihood that anyone would have to 
be involuntarily separated.
    In terms of the overall size of the force, that reduction 
will take it to about the level that it was at September 11.
    Senator Ayotte. Pre-September 11, right? Before September 
11.
    Dr. Miller. Just before September 11.
    Senator Ayotte. The world has changed since then, has it 
not, Doctor?
    Dr. Miller. The world has changed.
    The reductions that will be phased in will leave an Army 
that is, between the Active and Reserve Force, still capable of 
conducting the full range of missions, capable of conducting 
stability operations, but not stability operations on the scale 
that we saw in Iraq and Afghanistan combined. If we find that 
we are in a situation again where that scale of operations is 
required, either the force will have to be grown back, and we 
know that we can do that and we need to build in that capacity 
or we will have to tap into the Reserves more or for a period 
of time more strain would be put on the force. The number was 
selected at a level that still retains the full spectrum 
mission and the ability to conduct substantial stability 
operations and understanding that the force would have to grow 
in the future if we return to a scale of operations that we saw 
in OIF and OEF combined.
    Senator Ayotte. My time is expiring. But one of the issues 
that I would like to know about is was this a number that was 
recommended by our Army commanders, the 72,000? Is that the 
number that they gave the Secretary?
    Dr. Miller. Senator, this was a number that came out of 
discussions that deeply involved the Army leadership and 
obviously involved the Secretary of Defense and the leadership 
of the Joint Staff and which the combatant commanders were 
consulted on as well.
    Senator Ayotte. One thing that I would appreciate your 
taking to let us understand is if sequestration goes forward, 
what happens to the end strength of our Army as well. I think 
that is important for people to understand.
    [The information referred to follows:]

    As Secretary Panetta has said on several occasions, sequestration 
would have a devastating effect on the Defense Department overall, 
coming on top of the more than $450 billion that is already being cut 
from DOD accounts. The specific effect on Army end strength is 
unknowable until the Department understands the process and formula to 
be prescribed by Congress in applying sequestration. These additional 
cuts would clearly force a reassessment of our defense strategy and 
security commitments globally, likely leading to a scale back of 
current levels of defense activity, prompting hard choices about the 
challenges we can afford to confront, and incurring additional risks to 
our force and our ability to execute assigned missions.

    Senator Ayotte. I appreciate all of the witnesses being 
here today, and I may submit some additional questions for the 
record. Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to the six of you for your willingness to serve. You 
are really an extraordinarily impressive group in my opinion. I 
am struck by the gender imbalance in the six of you, which 
shows that this was obviously a merit selection process by 
which you come before us.
    Dr. Miller, let me focus on you. The position you are 
coming into as Under Secretary of Defense for Policy is a 
really important position, and I have every confidence that you 
are ready, more than ready, to fill it. I have been really 
impressed by the opportunities we have had to work together 
most recently. Just by your testimony last week alongside 
General Allen about Afghanistan, I thought you were very 
straightforward and very helpful to the committee.
    In some sense now you join the Secretary and Deputy as 
responsible for the security of just about the entire world. Do 
not let that give you sleepless nights.
    But let me focus first on two areas of obvious concern. The 
first is Iran. Obviously, one of the contingencies to which the 
Pentagon has been devoting a lot of time and consideration is 
Iran. I wanted to ask you about your thinking about the threat 
posed by Iran, how do you see it evolving, and what do you hope 
we do to get ready to meet the threat that Iran poses?
    Dr. Miller. Senator Lieberman, thank you for your kind 
words.
    The threat posed by Iran includes, as they have talked 
about, the possibility that they would attempt to close the 
Strait of Hormuz and interrupt international shipping, 
including the transportation of oil. With respect to that, 
Secretary Panetta and others have made clear that is a red line 
for the United States. We have had a number of ships, including 
carriers, transit through the Strait of Hormuz since a rather 
inflammatory statement was made by the Iranians, and they will 
continue to conduct that transit.
    Iran poses a significant threat in the region because of 
its activity in support of insurgency and terrorist tactics. 
This is something that has been the case for some time and 
something that we are working with our allies and partners in 
the region to contain.
    The most significant threat that Iran poses is its pursuit 
of a nuclear weapons capability. As I said earlier, the 
President has made clear that prevention is our policy and that 
containment is not an option.
    Senator Lieberman. Let me ask you to what extent concern 
about the threat posed by Iran informed the defense Strategic 
Guidance first and then the fiscal year 2013 budget request? In 
other words, have specific policies been arrived at and 
authorization/appropriations been asked for to meet that 
threat?
    Dr. Miller. Senator, Iran was certainly taken into account 
in both the Strategic Guidance and the fiscal year 2013 budget 
request. The guidance talked about the importance of both the 
Asia-Pacific and the Mideast and sustaining and in fact 
strengthening our posture there, and we have continued to do 
so. Iran also poses a potential threat to U.S. forces and 
coalition forces because of its anti-access and area denial 
capabilities, things like their small boats, cruise missiles, 
and so forth. As we look at the capabilities that DOD is 
developing to counter those threats, Iran is certainly a 
consideration.
    Senator Lieberman. Let me move now to Syria. Obviously, the 
killings by the Assad Government of its own people continues, I 
do not know whether a document was signed by Syria to agree to 
the Annan plan. If it was, history will show that it is not 
really worth even the paper the signature is on. The reports 
since the announcement of Syria's agreement to the Annan plan 
indicate that the government continues to brutally slaughter 
its own people.
    In this context, there will clearly be growing 
international pressure and domestic pressure, including from 
some of us up here, for some kind of external assistance to the 
Free Syrian Army and to the Syrian opposition. As Under 
Secretary for Policy, you will be in a key position to develop 
options to support that kind of intervention if the President 
decides to order it and to determine what is feasible and what 
is not. I wanted to ask you what you are thinking about that 
challenge now, including particularly a topic we took up 
earlier with Secretary Panetta and General Dempsey, what we 
might be able to do that would allow us to disrupt Assad's 
command and control over his own forces.
    Dr. Miller. Senator Lieberman, the Assad regime, as you 
have said, has continued to conduct activities within Syria 
that are reprehensible and that reinforce in my mind and in our 
mind the fact that this regime needs to go and that it is in 
the interests of the Syrian people and of the international 
community that the Assad regime leave power.
    We have provided nonlethal assistance at this point.
    Senator Lieberman. Just define that a bit about what we 
have provided thus far. I noticed the President made a 
statement with Prime Minister Erdogan in Seoul earlier in the 
week that they were both interested in continuing that. Tell us 
what we have done so far and what we are thinking of doing in 
terms of nonlethal assistance.
    Dr. Miller. Sir, the nonlethal assistance to date has been 
materials such as food and tents and so forth, as you would 
expect for humanitarian assistance, and we will continue to 
look at additional opportunities to provide that assistance as 
part of an international effort.
    At this point, a key challenge associated with considering 
lethal assistance is the reality that the Free Syrian Army and 
other groups do not have, at this point, a high degree of 
coherence, and so one needs to consider to whom that would be 
provided and what would be the ultimate disposition of any 
equipment. The answer to that question could evolve depending 
on what happens on the ground, and frankly, the viability of 
any additional aid depends to a degree on the ability of the 
opposition groups within the country to come together. Sir, 
this administration has undertaken an effort to try to 
facilitate that.
    Senator Lieberman. Let me just ask one quick follow-up 
question because my time is up.
    My impression from the reports from Seoul from the 
President and Prime Minister Erdogan was that the nonlethal 
assistance now would go beyond food and tents for, I presume, 
refugees and would include, for instance, communications 
equipment. Is that right?
    Dr. Miller. Senator Lieberman, I am not certain that a 
final decision has been taken on that. What I would like to do 
is get back to you with an answer.
    [The information referred to follows:]

    Secretary of State Clinton will be making an announcement regarding 
the topic of nonlethal assistance during the Friends of Syria meeting 
in Istanbul on April 1. I would refer you to her speech and subsequent 
press briefings.

    Senator Lieberman. Okay. Obviously, I hope it does. Thank 
you.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator McCain.
    Senator McCain. Dr. Miller, I will not comment on your 
response to Senator Lieberman except to say thank you for the 
food and tents. I am sure the people who are being slaughtered 
in the streets of Homs, Hamas, Idlib, and other places are very 
grateful for the food and tents.
    The administration, I understand, has proposed that North 
Korea be provided with 240,000 metric tons of food aid. My 
understanding is that is about $200 million worth of 
foodstuffs. Is that correct?
    Dr. Miller. Senator McCain, the amount of food is correct 
and the dollar figure sounds right to me as well.
    Senator McCain. Now, meanwhile the North Koreans apparently 
are planning on testing another missile. Is it your personal 
view that if they test that missile, that we should continue to 
provide them with the $200 million worth of food?
    Dr. Miller. My view is that we should not.
    Senator McCain. Do you know what the administration's view 
is?
    Dr. Miller. Senator, the view is that if North Korea goes 
forward with this test, we will stop this aid and stop the 
other steps that we have intended to take and have to have a 
complete reconsideration of where we go in the future.
    Senator McCain. Thank you.
    Mr. Kendall, you and I have had numerous conversations 
about cost overruns. I had an interesting exchange with the 
Secretary of the Navy when I pointed out that now with the 
carrier USS Gerald R. Ford there is a billion dollar overrun, 
he said, ``well, the next carrier we will do a lot better on.''
    Is it not true that the Joint Strike Fighter has been about 
$150 billion in cost overruns? Is that about correct, Mr. 
Kendall?
    Mr. Kendall. I think that number is approximately correct, 
yes.
    Senator McCain. Do you anticipate further cost overruns in 
the Joint Strike Fighter besides the $150 billion that has 
already been accumulated?
    Mr. Kendall. We are doing everything we can to drive down 
the cost of the Joint Strike Fighter. I do not anticipate any 
cost growth anything near the scale that you just described. We 
are still about----
    Senator McCain. Maybe only $10 billion?
    Mr. Kendall. I hope much less than that.
    We are still about 20 percent of the way through the test 
program. We are finding design issues as we go through the test 
program that we have to correct. There are some cost 
adjustments associated with that.
    Senator McCain. Would you provide for the record what you 
think will be the additional cost overruns associated with the 
development of this aircraft?
    Mr. Kendall. I will, Senator McCain.
    [The information referred to follows:]

Historical and Current Cost Estimates:
    The $150 billion cost overrun referenced is the increase in the 
total acquisition cost estimate from the original estimate in 2001 
($226 billion) to the estimate in the December 2010 Selected 
Acquisition Report (SAR) ($379 billion)--an increase of $153 billion. 
The current total acquisition cost estimate in the December 2011 SAR is 
$396 billion, which is an increase of $170 billion over the original 
estimate in 2001.
    The increase in the total acquisition cost estimate from the start 
of the development program in 2001 to the current estimate is primarily 
the result of unrealistic baseline estimates at the beginning of the 
program. Total acquisition costs are comprised of the development and 
procurement costs. The development cost estimate has increased from $34 
billion in 2001 to $55 billion in 2012, which is significant and 
primarily the result of unrealistic baseline development and test 
schedule estimates. The development estimate remained essentially 
unchanged from last year's 2010 SAR to the 2011 SAR.
    Accordingly, the bulk of the cost increase from the original total 
acquisition cost estimate to the current cost estimate is contained in 
the procurement costs. The procurement cost estimate in 2001 was $192 
billion while the current procurement estimate in the December 2011 SAR 
is $336 billion. The $336 billion procurement cost estimate is a $12 
billion increase over the procurement estimate contained in the 
December 2010 SAR. This was primarily driven by increased unit costs 
due to the reduced near term procurement profile, incorporation of 
development in parallel to limited rate production concurrency 
modifications, and the inflationary effects of stretching the 
completion of planned procurement from 2035 to 2037.
    Additionally, the estimate for Military Construction (MILCON) costs 
increased from $0.5 billion in the December 2010 SAR to $4.8 billion in 
the December 2011 SAR. This increase was due to my decision to use the 
MILCON estimate from the Office of the Director, Cost Assessment and 
Program Evaluation (CAPE) Independent Cost Estimate (ICE) as the basis 
for the new Acquisition Program Baseline (APB) and SAR.
Risk of Additional Cost Increases:
    A specific projection of any future cost increases would be highly 
speculative and the Department's current estimate is its best estimate. 
If confirmed I will continue to make every effort to control and reduce 
costs. While the recently submitted SAR contains the Department's 
current best estimate of program costs, there are risks that could 
drive cost increases during the remainder of the program. The risks 
include that: the F-35 program has not completed development, 
particularly software development, that design changes may be greater 
than anticipated as a result of discovery of problems during the 
roughly 80 percent of the flight test program that remains, partner 
production plans may change lowering expected economies of scale, 
future DOD budget levels that could force the Department to follow a 
less efficient production profile, and finally that sustainment costs 
may be higher than predicted. The keys to controlling and avoiding 
additional cost increases will be to successfully complete the test 
program, stabilize the design, ramp up production to higher and more 
efficient rates as soon as possible, and to aggressively manage the 
sustainment costs.
Potential Development Cost Increases:
    There are two principal sources of potential increases in the 
development costs, which is being conducted on a cost plus contract; 
software and design changes that may result from discovery during the 
balance of the test program. The Department has programmed funds to 
account for the costs associated with these risks, but there is no 
guarantee that current estimates will not be exceeded.
    The software development program has not been executing to schedule 
and this area is always a source of risk, particularly in a large 
software centric program like the Joint Strike Fighter. The mission 
systems software and the Autonomic Logistics Information System are 
both sources of concern.
    Based on historical experience in similar programs the Department 
expects a certain level of design changes over the balance of the test 
program and has budgeted to cover those changes. Nevertheless there is 
the potential for higher than expected discovery or a major design flaw 
that could lead to costs associated with design changes. The remaining 
flight testing (particularly high performance flight near the edges of 
the envelope and weapons testing) and structural life testing are 
sources of risk. The Quick Look Review which I commissioned last fall 
also noted several specific areas in which development risk still 
exists.
Potential Production Cost Increases:
    The production costs have been roughly following the CAPE estimated 
learning curves. I do not anticipate a significant increase in 
production costs. In 2010, the Department began the transition to 
fixed-price contracting which will transfer responsibility for 
production cost to the supplier. In 2011, the Department also 
negotiated an agreement with Lockheed Martin whereby Lockheed would 
assume shared responsibility for costs associated with design changes 
resulting from problems found during testing. This concurrency risk 
will continue to exist for the next few years but decline as the test 
program is completed. The Department has budgeted funds to cover the 
anticipated costs of changes associated with concurrency, but there is 
some risk that these contingency funds will not be adequate.
Sustainment Cost Increases:
    Projected sustainment costs are too high and the Department must do 
everything it can to bring them down. The SAR submission is based on 
the Department's best estimate at this time. However, I have set an 
affordability target for sustainment that challenges the Air Force, 
Navy, and Marine Corps and the Joint Program Office to achieve lower 
costs than the current estimates by a significant margin.
    I would like to be able to say that there will be no further cost 
increases, however, that would be unrealistic and naive. There are many 
factors that could result in changes that could affect the current 
estimates. If I am confirmed, I will continue to do everything I can to 
control the costs of the program, and if any of those changes occur, I 
will be clear and transparent in communicating to Congress the 
magnitude, reasons, and effects on the program.

    Mr. Kendall. We have estimates of the changes that we could 
expect through the test program. We can give you that. But 
there is some risk, of course, even associated with that.
    I do think that the Strike Fighter is getting under 
control. I would like to say just a couple of words about that, 
if I may.
    We are attacking the production costs by putting strong 
incentives on the contractor to control costs and to get the 
changes that have to be made cut in quickly. We are focusing 
increasingly on the sustainment costs which are larger actually 
than the production costs. We have made some progress there 
this year in some areas but we slipped a little bit in some 
areas as well. That is where we think the greatest potential 
is. Dr. Carter testified a year ago about getting large 
fractions of that cost down, and I think we could approach 
that. I have set a goal for us to accomplish that.
    Senator McCain. As far as the Gerald R. Ford is concerned, 
also would you tell us how much more in cost overruns we expect 
on that particular product. Okay?
    [The information referred to follows:]
Historical and Current Cost Estimates:
    The current total acquisition cost estimate in the December 2011 
Selected Acquisition Report (SAR) for the three ship CVN-78 program, in 
base year 2000 dollars, is $27.8 billion, which is a decrease of $0.9 
billion from the original baseline estimate of $28.7 billion in 2000. 
Relative to the updated baseline established in 2004 at $27.2 billion, 
the current estimate represents an increase of $0.6 billion. In then-
year dollars, the current estimate of $42.5 billion is $6.5 billion 
over the 2004 baseline estimate of $36.0 billion for the three ships. 
Much of this increase in then-year costs is due to budget moves, which 
delayed award of the construction contract for the CVN 79 from fiscal 
year 2012 to fiscal year 2013 and for CVN 80 from fiscal year 2016 to 
fiscal year 2018, and stretched the construction period for each by 
about 2 years.
    Costs for the CVN-78, Gerald R. Ford, have risen from an original 
estimate of $10.5 billion to a current estimate of $12.3 billion as 
submitted with the President's budget for fiscal year 2013 (PB-13), an 
increase of $1.8 billion.
    The increase in the total acquisition cost estimate from the start 
of the development program in 2004 to the current estimate is 
attributed to $680 million in design cost for the lead ship, $955 
million in Government Furnished Equipment (GFE), $273 million in the 
government share of the basic construction of the ship by the 
shipbuilder, and $67 million increase in shore based spares for the 
ship. There are also reductions in the program that lowered the 
estimates by $141 million.
    Increases in the GFE costs were attributed to growth in development 
of the Electromagnetic Aircraft Launching System (EMALS) by $538 
million, modifications to and additional testing requirements for the 
Dual Band Radar (DBR) amounting to $293 million, growth in the Advanced 
Arresting Gear (AAG) development by $43 million, and other combat 
system equipment growth totaling $81 million. Risk of further growth in 
EMALS and AAG production is mitigated by the fact that both systems are 
being procured under a firm fixed-price contract.
    Growth in the design and engineering products was attributed to the 
extent of concurrent design and major system development, the existence 
of a new ship specification, and a significant change from the prior 
Nimitz-class ship specification under which the shipbuilder had built 
the past 11 carriers. The Navy recently converted the design contract 
from a level of effort cost type contract with fixed fee to a 
completion type cost contract with incentive fee. Risk of continued 
growth in design is limited, as the design is now over 90 percent 
complete.
    Shipbuilder cost growth on actual construction has been affected by 
material cost increases, late material orders and deliveries, and 
resolution of some first-of-class construction issues. The primary 
construction issue was the use of a different alloy steel than in 
previous carriers for many of the decks and bulkheads. This allowed for 
thinner plating to save weight, however, the shipbuilder did not 
adequately plan to maintain flatness standards, requiring more 
extensive use of temporary bracing and rigging, and additional labor 
hours to eventually resolve.
Risk of Additional Cost Increases:
    Specific projections of any future cost increases would be 
speculative and the Department's current estimate is its best estimate. 
If confirmed, I will continue to make every effort to control and 
reduce costs. While the above discussion represents the Department's 
current best estimate of program costs, there are risks that could 
drive cost increases during the remainder of the program. If the 
Program Manager's current most likely estimate at completion for the 
shipbuilding contract is realized, the CVN-78 will require an 
additional $417 million beyond that provided in PB-13. The primary risk 
area is that the shipboard testing program, which will integrate and 
test many new systems not found on any existing aircraft carriers could 
lead to discovery of unknown technical issues, either in hardware or 
software. Other known risk areas include: integration of the DBR into 
the topside design and completion of DBR testing; late component 
deliveries for the AAG, which could require the shipyard to implement 
workarounds against the build plan; completion of AAG software to 
support shipboard testing; integration of the power system for EMALS, 
which by necessity will first occur once all four catapults are 
installed in the ship, and which could not be fully tested at the land 
based test site; and completion of the machinery control and monitoring 
system software to support shipboard testing, which also affects 
powering the EMALS for testing.
    I would like to be able to say that there will be no further cost 
increases, however, that would be unrealistic and naive. Until the ship 
delivers, there remain risks that could affect the current estimates. 
If I am confirmed I will continue to do everything I can to control the 
costs of the program, and if any of those changes occur, I will be 
clear and transparent in communicating to Congress the magnitude, 
reasons, and effects on the program.

    Senator McCain. Right now I understand it has been $1 
billion cost overrun. Is that correct?
    Mr. Kendall. When you take all the cost overrun, I think it 
is actually more than that, Senator McCain.
    Senator McCain. Ms. Shyu, you served as senior director for 
Raytheon's participation in the Joint Strike Fighter program?
    Ms. Shyu. Senator, I was on the losing side, unfortunately.
    Senator McCain. What does that mean?
    Ms. Shyu. That means our team, the radar system, everything 
we let, was on the Boeing team.
    Senator McCain. I see. But you did observe the progress or 
lack of progress of this aircraft?
    Ms. Shyu. Yes, sir.
    Senator McCain. Your conclusion was?
    Ms. Shyu. My conclusion is too much concurrency in the 
design development of the program.
    Senator McCain. Yet, Mr. Kendall, we are seeing concurrency 
practiced on the Joint Light Tactical Vehicle (JLTV) and the 
Ground Combat Vehicle. Are they practicing concurrency?
    Mr. Kendall. The problem with concurrency, Senator McCain, 
is the degree of concurrency. Most programs start production 
before they have completely finished their developmental tests. 
The question is how much. In the case of the Joint Strike 
Fighter, which is an extreme example of concurrency, production 
was started more than a year before the first flight test.
    In the programs that you mentioned, we will go somewhere 
into developmental test where we have prototypes that are 
fairly production representative and we will have confidence in 
the stability of the design. What we are doing now is we are 
setting up exit criteria so that we do not make that production 
commitment until we are confident that the design is reasonably 
stable.
    Senator McCain. Are you confident that both of those 
programs, the JLTV and the Ground Combat Vehicle, will not 
experience overruns?
    Mr. Kendall. I am not confident that any defense program 
will not experience an overrun. That would be quite a statement 
after the last 50 years of history.
    Senator McCain. Can you tell us what you estimate the cost 
overruns will be on these programs?
    Mr. Kendall. We are going to do everything we can to not 
have a cost overrun. I do not have an estimate that would 
suggest that there would be one. It is a self-fulfilling 
prophecy. We are funding our programs to the independent cost 
estimates, and we are going to try to cap our programs there.
    One of the things that we are doing now is setting 
affordability targets early for programs and forcing them to do 
the tradeoffs that have to be made so that they get under the 
cost that they initially put as a cap on the program. There has 
been a reluctance to do that in the past, and I think that will 
have a dramatic impact on the new starts that you talked about, 
both the JLTV and the Ground Combat Vehicle.
    Senator McCain. Dr. Miller, one of the concerns that I had 
that I relayed to Secretary Panetta concerns the study that we 
asked for concerning the base realignment from Okinawa and 
Guam. One of the reasons why Senator Levin and I and the 
committee unanimously asked for this study is because the costs 
have gone from previous estimates of some $6 billion to now $16 
billion with frankly no really hard numbers in sight.
    We asked for an outside assessment as to what plans should 
be for this much needed base realignment, and that bill was 
passed by the Congress of the United States in December and 
signed into law in December. Now, 3 months later, they still 
had not let the contract.
    I understand the contract for an outside study was awarded 
just a few days ago. But we asked for that study so that it 
would be part of the deliberations in developing the plans for 
the base realignment. Instead, you waited 3 months. I do not 
know why it would take 3 months to ask for an outside study. 
Now Senator Levin and I are being briefed this afternoon on the 
plans for base realignment. An outside observer, casual 
observer, would view that as a complete disregard of the 
instructions of the NDAA of 2011.
    Maybe you can explain to me why it would take 3 months to 
ask--there are many outside groups--to conduct a study. By the 
way, we asked for that study to be completed by the 1st of 
March so that as we deliberate on the defense authorization act 
for this year, that that would be part of our deliberations. Do 
you understand my frustrations, Dr. Miller?
    Dr. Miller. Senator McCain, I do. I am going to come back 
over and meet with you, Senator Levin, and Senator Webb and 
walk through what happened with this contract. There is no 
excuse for taking this long to get something on contract, and I 
will not make an excuse for it, sir. But we will have a 
proposal to show you and Senators Levin and Webb on how we can 
still make good use of the work that you have proposed from 
this outside group. They have already begun working and we 
believe we have a good plan, sir.
    Senator McCain. I thank you for that, Doctor, but I hope 
also that you understand to some degree the frustration that we 
feel. Senator Webb traveled throughout the region. Senator 
Levin traveled with him. We have had briefings. We have had 
conversations with not only American leaders and officials but 
foreign leaders and officials on this issue, Japanese 
delegations. Then we make an input and it is if not willfully 
ignored, certainly not pursued to fulfill the will of Congress 
and the legislation passed by Congress and signed by the 
President of the United States.
    We look forward to meeting with you and others on this 
issue and the other issues such as the Medium Extended Air 
Defense System (MEADS) and other concerns that I have raised.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain. I join 
Senator McCain in the expression of frustration with not 
complying with the congressional intent--it is not just intent. 
It is the language of the law. I share very much in that 
frustration and look forward to that meeting this afternoon.
    Senator Begich is next.
    Senator Begich. Thank you very much, Mr. Chairman.
    I want to follow up on those comments, but also the 
discussion that went back and forth with Senator Ayotte in 
regards to what sequestration would do. I think the word I 
heard--and I do not know if it was the word of the day--was 
devastating.
    But I also think what you just heard is also devastating. 
That is billions that for years--let me give you an example. 
Last year, this committee unanimously agreed to get rid of the 
funding for MEADS, but you have now presented again in your 
budget to fund it, almost a half a billion dollars. It makes no 
sense.
    Now, I know you will tell me the contract says this. Every 
contract ever let by any department of any Federal Government, 
State government, local government is subject to appropriation. 
Subject to appropriation. Now, I know people say, well, we 
never really exercise that. Well, too bad. Contractors sign 
that. I was a mayor. That is how it works. You sign it. You 
understand if we do not give you the money because we do not 
appropriate it, then you are out of business. We do not do the 
contract.
    I understand and I know what is going on because people 
want to make the case later down the road a couple months from 
now we will try to delete the Defense Department out of the 
sequestration and then take it out of the hide of everyone 
else. Everyone is on the table until we resolve this because is 
it not more devastating than if we do not solve the deficit 
problem, sequestration is pocket change compared to what will 
happen if the economy crashes because we cannot deal with the 
deficit.
    Who would like to dare to throw something on the table and 
answer that? Am I mistaken? I think some of the folks in the 
military, DOD, have said the debt is the biggest security risk 
to this country. Did I miss that?
    Mr. Kendall. Senator, I cannot comment on the broader 
issue, but I would like to say a word about MEADS, if I could.
    MEADS is not just a contract. It is an agreement with two 
of our most closest international partners.
    Senator Begich. I understand that.
    Yes, and we pay 75 percent of it for a system we are not 
really going to use fully. I understand that. I have had this 
debate in my office with folks from not your shop specifically, 
but from everyone from the Pentagon to the contractor because 
they get a little freaked out when we start talking about 
canceling a program. We passed in the defense authorization 
bill do not do this program, and you present the budget for 
$400 million more.
    I understand all this international relationship activity, 
but we are paying the tab. Two of the countries, Germany--and I 
think it is Italy, the other one. Italy has no money. They are 
in their own problem. Germany questions this but I know the 
machinery has been busy to make sure we have letters from folks 
to say they are there.
    I understand the word of the day is devastating. I will use 
that word. It is devastating to hear all these cost overruns 
and lack of recognition and I cannot remember how you exactly 
said it, but you said you will always have cost overruns.
    Mr. Kendall. Senator, what I said was that I cannot 
guarantee we will not. I am going to do everything in my power, 
if confirmed, to eliminate them and actually save us money on 
our programs to come in below the budget. That is what we are 
challenging all of our people to do.
    Senator Begich. That is good.
    Mr. Kendall. But the history suggests that is going to be a 
very difficult task.
    Senator Begich. It would be pretty much like almost 100 
percent of the history. A high number.
    Mr. Kendall. We rarely have a program that does not have 
overruns, at least somewhat.
    Senator Begich. That tells you the system is broken.
    Mr. Kendall. It tells me, after 40 years of experience in 
the system, that we have a lot of forces for optimism and that 
we make mistakes about what we can do and how long it will take 
and what it will cost routinely for a variety of reasons.
    Senator Begich. I would say this. As a former mayor, if I 
had my purchasing department have a record like that, a high 
percentage of them would not be working there. There would be a 
different deck because obviously they are incapable of the 
long-term determination of what these values are. I will tell 
you, you can do projects if you design and change it, and let 
me give you one example.
    When we built the convention center in Anchorage, $100 
million plus everyone feared it would go over budget. We did 
something that government never does. First off, we made a 
guaranteed maximum price based on a 35 percent design, and then 
we made sure the contractors, the people that actually owned 
the companies, personally guaranteed any cost overruns. None of 
this garbage about their corporations because that is phony 
baloney stuff. But suddenly when you get the chief executive 
officer (CEO) to have to sign a $2 million personal guarantee, 
just like every bank does for them--we are the best bank, the 
Federal Government.
    I would encourage you for every contractor that does 
business with us that has a record of cost overruns, you tell 
the CEO and the chief financial officer (CFO) we have a new 
arrangement because they make a lot of money. When I look at 
these contractors, these CEOs make a lot of money. Put their 
name on the dotted line, and I guarantee you--just like we have 
here, if our budgets and our operations, our personal offices 
go over budget, guess what. I have to write a check for all the 
employees that work for me here in the Senate. If I go over 
budget, I have to write a personal check. So change the deck 
and get a little more responsible.
    This was not my line of questioning. I just got a little 
agitated here when I heard the word of the day is devastating. 
Somehow we are to blame for it. We are all in this mess. The 
lack of oversight over the years of the Defense Department and 
the cost overruns that you just heard cited, the lack of 
following through on things we pass here and tell you to do, 
you do not do. Let me stop my rant and get to my questions. I 
apologize. But you understand my point.
    Mr. Kendall. I do, Senator, and I agree with you completely 
we have to get better business deals. That is the essence of 
what we need to do. We need very strong incentives for our 
contractors to give them a very good reason, a very good 
financial reason, to do better. That is what they will respond 
to.
    Senator Begich. Yes. Have the CEOs and CFOs sign on the 
dotted line personally.
    I will tell you what happened on that project. Guess what, 
we got it done right on schedule; and guess what, below the 
budget. It was amazing, an amazing thing. We got more for the 
money we spent because they got innovative. I am just giving 
you a thought here. Now, of course, the contractors did not 
like it, but guess what. They are still doing business in our 
city because they became a very good qualified, and they use 
that now as an example to get business around the country of 
what they can do. They can use it.
    Let me put you on hold for a second, if I can.
    Secretary Conaton, let me ask you. I am sure you were aware 
that I was going to do this to you on Eielson Air Force Base. 
It goes to the same thing. Here we are in the process of the 
Air Force determining that Eielson should have a reduction 
within the F-16s and shift them. They have estimated around 600 
military personnel, undetermined civilian personnel. For some 
reason, they cannot figure that out. But they have already 
identified the exact potential savings they are going to have 
because they presented it through the budget process. The end 
result is they have calculated that in and everyone signed off 
on it. So it is all good.
    But now they are sending a team up--will not even be there 
until mid-April--to determine what the savings are. Help me 
here. It seems a little backwards. I think usually you send a 
team in, do an analysis, and not just on the Air Force but the 
secondary impacts. For example, they have no clue if Elmendorf, 
where they want to shift these, will have the capacity to house 
these new facilities, as well as the personnel to go along with 
it, and the air space that is a lot more crowded than ever 
before. We are the fourth largest cargo hub in the world. That 
is not the case it was 20 years ago when they used that as an 
example. Now they think they can save money. So help me here.
    Ms. Conaton. Sure, Senator. I know this has been a topic of 
conversation between you and Secretary Donley and General 
Schwartz. I understand that you still have some outstanding 
questions that you have not gotten complete answers to. Let me, 
on their behalf, promise to go back and follow up.
    In terms of the timing, the simple reality was because of 
the need to achieve the savings that you referred to earlier in 
terms of meeting the Budget Control Act targets, we had to make 
a series of decisions in the time frame of the budget cycle 
inside DOD. Part of the reason that we do not have that change 
at Eielson kicking in until fiscal year 2015 is in order to do 
some additional work. I definitely understand your frustration 
about the order in which this has been undertaken.
    Senator Begich. I will just end as my time is up. They said 
in the hearing we had--or not hearing but public meeting that 
families will be started to be moved or troops in 2013. That is 
not far away. I am very nervous about the uncertainty they are 
sitting with in that community because they have been told in 
the next 7 months or so, 2013, this starts moving. We are very 
nervous about the lack of understanding of the costs. If you 
could respond back to us.
    Everyone who comes here gets this question. If you have Air 
Force tagged on you, you are going to get the question.
    Ms. Conaton. I appreciate that, Senator, and I do promise 
to get back to you with some additional information on behalf 
of Secretary Donley and General Schwartz.
    [The information reffered to follows:]

    The fiscal year 2013 Force Structure Announcement included a net 
impact of ^668 positions which includes the fiscal year 2013 move of 
the Aggressor Squadron (19 F-16s) to Joint Base Elmendorf-Richardson 
(JBER). Breakout for the fiscal year 2013 manpower reductions are: ^623 
Active Duty military associated with Aggressor move from Eielson to 
Joint Base Elmendorf-Richardson, ^41 civilians that were previously 
announced in fiscal year 2012, +8 Active Duty military for medical, and 
^12 Active Duty military for other actions. There are no changes to the 
Air National Guard refueling unit (8 KC-135s) in this or other years. 
The fiscal year 2013 President's budget also adds 43 Base Operating 
Support Military positions required to support the Aggressors at JBER. 
In fiscal year 2015, right-sizing the operations and support for the 
remaining missions at Eielson has an additional projected impact of 
^928 billets in fiscal year 2015 (^583 military and ^345 civilians). 
The fiscal year 2015 numbers will be further refined as we conduct Site 
Activation Task Force visits to guide implementation. The estimated net 
savings associated with these actions is $3.5 million in fiscal year 
2013 and $169.5 million over the Future Years Defense Plan.

    Senator Begich. Thank you very much.
    Mr. Chairman, I have some other questions I will just 
submit for the record on rare earth issues and some other 
issues, and I will just submit them for the record. Thank you 
very much.
    Chairman Levin. Thank you very much, Senator Begich.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Mrs. Wright, I just had a question regarding the cuts in 
the Air Force--proposed cuts. When the Air Force decided to 
propose what I viewed as lopsided cuts to the Air Guard, it 
gave me pause, and the reason is that I think there may be a 
better way, a way that preserves the readiness at a fraction of 
the cost, and I believe we could do this by leveraging the 
expertise, skill, and combat experience in the Guard and 
Reserve.
    My question is the NDAA for Fiscal Year 2012 directed that 
the Department provide Congress with a report on the difference 
in costs between the Active and Reserve components. Would you 
agree that we should wait until we have the most up-to-date and 
accurate information before imposing those cuts to the Guard 
and Reserve?
    Mrs. Wright. Sir, I will tell you all that the Services, 
along with the Air Force, had a very difficult decision to make 
with this last budget. I believe they put their best effort 
forward managing capacity and capability, and they made 
responsible choices.
    Senator Brown. Yes, but do you think we should wait for the 
report for the most up-to-date information before we go 
cutting? I can think of Westover Air Reserve Base where we have 
C-5s that are basically 80 percent battle-ready versus Active 
components at 40 percent, give or take, and yet we are going to 
be shifting and cutting and moving. I have to be honest with 
you. It does not make a heck of a lot sense when you have 80 
versus 40, you have battle-ready versus not, and you have teams 
that have worked together forever and they are potentially 
going to be dismantled or moved. How does that make sense? 
Would that report not help determine where the cost/benefit 
analysis is before we do something that we may not be able to 
recover from?
    Mrs. Wright. Sir, I do understand the issue, and I do know 
that there are four different cost/benefit analyses going on 
within the Department. One was directed by Congress. I believe 
that the Air Force has really looked at a lot of different cost 
methodologies when making the decisions that they have recently 
made.
    Senator Brown. So you are saying we should or we should not 
wait? It is just simply should we wait or should we not?
    Mrs. Wright. I believe the Air Force has already paid 
attention to the cost/benefit analysis that they have used for 
this particular budget.
    Senator Brown. The fact that we directed that they do a 
report and the difference really is irrelevant then. Is that 
what you are saying?
    Mrs. Wright. No, sir. I believe that they clearly will be 
paying attention to these upcoming reports also when making 
further decisions.
    Senator Brown. Ms. Conaton, what do you think?
    Ms. Conaton. Senator, I know you had an opportunity to have 
this discussion with Secretary Donley and General Schwartz.
    My answer, I guess, is similar to what I said to Senator 
Begich, which was the nature of the timeline we were on in 
terms of having to achieve the reductions in the budget under 
the Budget Control Act forced a very intensive period of 
analysis leading up to the budget. I know Secretary Donley and 
General Schwartz have explained to you that their thinking and 
Secretary Panetta's thinking is that with the new strategy and 
with the operational demand they see going forward, that is 
what led them to be more comfortable with the cuts that you 
have seen as part of the budget. I definitely appreciate your 
perspective. This was----
    Senator Brown. It is not just mine. It is quite a few 
members of the committee.
    Ms. Conaton. Yes, sir. No. I understand. This was, I think, 
one of the most difficult decisions that was made certainly 
within the United States Air Force and I definitely respect 
your opinion on that.
    Senator Brown. I have to tell you. The Army, I think, has 
struck a very solid balance between Active, Reserve, and Guard. 
I have to tell you the Air Force, on the other hand--I think I 
can speak for a lot of folks here. It is like they are taking 
all their toys and say, oh, we got them now, and then the 
Reserve and Air Guard are getting the short end of the stick.
    I would like to maybe just shift gears for a minute on what 
you think the role of women in combat is. Do you think it is 
appropriate? Do you think that by removing the barriers for 
those women servicemembers, rising on the ranks based on their 
talents and capabilities regardless of gender is appropriate?
    Ms. Conaton. Yes, sir. I agree with the recent report that 
the Department put forward which would open up some additional 
14,000 positions that had been previously closed to female 
servicemembers. I also agree with Secretary Panetta that this 
opportunity to expand those positions will give us lessons 
learned for where we take next steps. I know the Department is 
committed to trying to look at making positions available based 
on women's qualifications and physical abilities rather than on 
gender per se.
    Senator Brown. I think, quite frankly, they need to go a 
little bit further than that. I know personally our military 
fellow was a Kiowa pilot commander of men and was in Iraq and 
Afghanistan. If that is not the front lines, flying Kiowa 
missions and shooting people and weaponry and the like and 
targets, I do not know what is. I would actually encourage you 
in your position to advocate to, if qualified--if qualified--
they should have the ability to serve like men. I have been in 
32 years. I see them serving and I have served with them 
regularly. As I said, if they are qualified, they should have 
the same opportunities because there is that inability to rise 
up. There is a reason we do not have many four-star female 
generals and that is because of the barriers that have been 
placed.
    On TRICARE, I might as well stick with you. TRICARE is 
something I feel that was a contract between the men and women 
who have served as part of their effort to serve and serve 
well. I understand that there are budgetary pressures, and I 
agree with former Secretary Gates when he said health care 
costs are eating the Department alive. I understand that. But I 
will tell you I believe it is wrong and I think there are 
others--this very specific benefit that we promised to a very 
small group of people in this country, and I think it is wrong 
to tell those who signed on the dotted line--those who had a 
very clear understanding of the contract that they signed and 
listening to your contract is now changing. In the last year, 
we had to increase your premiums, and guess what? We are going 
to increase them again.
    To what extent have TRICARE managers executed best 
practices from the private sector to better manage health care 
costs so those costs are not going to be as high as maybe 
proposed?
    Ms. Conaton. Senator, I am not yet in the position, so I do 
not have great detailed knowledge on what has occurred up to 
date.
    Senator Brown. I thought you were running the whole thing. 
[Laughter.]
    Ms. Conaton. But, sir, what I do know is that the effort to 
deal with health care costs--and as you point out, I think 
Secretary Panetta is on the record before this committee saying 
that in this year alone it will be close to $50 billion in 
health care costs.
    But those costs have to be gone after in a couple of 
different ways. Obviously, you have highlighted the TRICARE fee 
increase, but there has also been a number of efforts to get at 
the cost of provider care and also making DOD's own TRICARE 
management more efficient. This is an area that I would intend 
to spend a great deal on, if confirmed. I appreciate the 
concern.
    Senator Brown. Thank you and good luck to everybody, all of 
the witnesses. Thank you.
    Chairman Levin. Thank you, Senator Brown.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I would 
like to add my aloha to this esteemed group of nominees that we 
have before us today. I would like to begin by thanking you for 
your public service over the years that you have given our 
country and your desire to continue to serve our Nation in 
these very important roles.
    I also want to thank your families and also your friends 
who are here who have supported and will continue to support 
you.
    I want to say a special aloha to my good friend and 
brother, Ike Skelton, who is here. There are so many memories 
that we have had on the House side. They are great memories.
    If confirmed, each of you will face significant 
challenges--and you know this--in your new positions. But 
looking at your background and experiences, I feel confident 
that you will be very able to handle the tasks that are before 
you.
    Secretary Conaton, foreign language skills and cultural 
understanding are critical in carrying out the Department's 
mission. However, our Nation has a shortage of employees with 
these skills. Often we compete with the private sector for 
individuals with these abilities. What steps will you take to 
ensure the Department has the language and cultural skills that 
it needs?
    Ms. Conaton. Senator, thank you very much. I completely 
agree with you that language and foreign culture knowledge has 
not only been critical over the last 10 years, but I think it 
is a set of skills that our military needs to maintain. If 
confirmed, sir, I would first go and look at the whole range of 
programs that we have currently underway to see where they are 
successful and where they perhaps have room for improvement and 
where we might find additional sources of recruiting folks with 
resident language capability, as well as those who have an 
affinity for language and could pick it up more quickly. But, 
sir, if confirmed, I would love to come, sit, and talk and get 
your perspective before I get underway in that work.
    Senator Akaka. Thank you very much.
    Dr. Stanley and I have been in contact and we have talked 
and in this particular case about a replacement commissary at 
Barbers Point on the island of Oahu. I understand that the 
commissary also recommended building this replacement 
commissary in light of the ever-growing demand for this benefit 
in West Oahu. If confirmed, I hope you will keep me informed on 
the progress of this project.
    Ms. Conaton. Senator, yes, if confirmed, I would be happy 
to get up to speed on where that stands and come back and visit 
with you.
    Senator Akaka. Thank you so much.
    Ms. Conaton. Thank you.
    Senator Akaka. Secretary Kendall, last year the Department 
named a new director of Pentagon pricing. In this budgetary 
environment, we must continue to do everything we can to 
improve the procurement process and efficiently use our 
taxpayers' money. In my opinion, this includes realistic 
requirements making sure that we get good cost and pricing data 
from potential vendors, and that the Department has a skilled 
and capable acquisition workforce to analyze proposals to 
manage the acquisition projects. My question to you is how does 
the Department ensure it has reliable cost and pricing data and 
is developing the skilled workforce needed to manage our major 
acquisitions?
    Mr. Kendall. Thank you, Senator Akaka. The two questions 
are closely related. The skilled workforce is the basis by 
which we are able to assess the pricing data that we receive 
from industry, and we do that as we examine our contracts. We 
have increased our use of that for some of our contracts in 
order to ensure that we are getting fair, reasonable prices 
from our vendors.
    The workforce has been under a great deal of attention both 
for Dr. Carter and myself and with tremendous support from 
first Secretary Gates and now Secretary Panetta. There was a 
recognition a few years ago--and I want to compliment the 
committee in particular for their Defense Acquisition Workforce 
Development Fund (DAWDF) initiative, which came from this 
committee, which has given us the resources to increase the 
size of the acquisition workforce and to bring on key skills 
like pricing you mentioned, but program management, system 
engineering, and particularly contracting so that we have a 
better sized workforce relative to the workload. There was a 
tremendous drawdown in the 1990s.
    I am focusing my attention much more now--and I would, if 
confirmed--on the quality of that workforce and its capacity to 
do its job, the training it receives, the mentoring it receives 
from people who are retiring out of the system, capture those 
skills before they leave. We have a ways to go in terms of 
building up the capacity within the workforce. Given the 
drawdowns that we are having in the overall budget, it is going 
to be hard to sustain the growth that we have had, but we want 
to hang onto what we have under DAWDF, perhaps get a little bit 
more, and then turn increasingly to the skill set of the 
workforce.
    Senator Akaka. Thank you.
    Dr. Miller, with respect to Afghanistan, many believe that 
the U.S. and its partners need to work with Pakistan and other 
neighboring states to reach a political settlement even if such 
a settlement might be favorable to the Taliban. Dr. Miller, can 
you discuss your view of a potential political settlement?
    Dr. Miller. Thank you, Senator Akaka.
    First of all, our work with Pakistan is extremely important 
both in our own bilateral relationship and in ensuring that we 
are able to succeed in Afghanistan. We currently have in 
Pakistan sanctuaries in which Taliban fighters have been able 
to operate and come across the border, and although Pakistan 
has done much more in recent years to deal with them, we 
continue to work with them to try to do yet more.
    With respect to a political settlement in Afghanistan, this 
is the so-called conversations on reconciliation and at a lower 
level fighters on reintegration. We have seen about 3,800 
former Taliban fighters come off the field--3,800 or so in the 
last couple of years through reintegration and expect that that 
effort will continue. That is led by the Afghan Government.
    With respect to reconciliation and the potential 
conversations with the leadership of the Taliban, first of all, 
those are essentially on hold at the present. But the objective 
is to structure a process in which Afghans talk to Afghans 
about the future of Afghanistan. If the Taliban are to come 
into that political process, they have to meet the criteria 
that have been established, including renouncing ties with al 
Qaeda, including entering into a political process, and 
honoring the Afghan constitution. The requirements for the 
Taliban to be able to participate as an outcome have been laid 
out very clearly by Secretary Clinton and by others in the 
administration. That door is open to them to come in, come off 
the battlefield, and legitimately participate should they be 
prepared to do so.
    Senator Akaka. Thank you.
    I wish you all well and thank you for your responses.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Akaka.
    I am now going to turn the gavel over to Senator Reed who 
will recognize Senator Cornyn right away. The vote is on but 
they are holding it until 11:45 a.m., so you will be able to 
get your questions in.
    I will leave with this request of you, Mrs. Wright. You 
made reference, I believe, to a number of studies that are 
looking at cost/benefit methodologies relative to those 
proposed cuts in the Air Guard. I have real problems with those 
cuts. They are totally disproportionate to the reductions in 
the Active-Duty Force, and my staff is going to be in touch 
with you to get those studies to us so that we can see what it 
is that went into that decision because I agree with what 
Senator Brown said. They just appear totally disproportionate 
to me.
    Ms. Conaton, I hope your nieces and nephew got enough 
material here today to write their reports.
    I will recognize Senator Cornyn and give the gavel to 
Senator Reed.
    Senator Cornyn. Thank you, Mr. Chairman. I hope they will 
share that report with us. Maybe we will learn something in the 
process. [Laughter.]
    Dr. Miller, this will not come as a surprise to us, but 
thank you for meeting with Senator Kyl, myself, and Senator 
Alexander about this topic. What I would like to do is get some 
of the substance of our discussion off the record, on the 
record. Of course, that has to do with the shortfall for the 
National Nuclear Security Administration (NNSA) weapons 
activities.
    Using the 1251 modernization plan which was the basis upon 
which, I think it is fair to say, a number of Senators voted 
for the New START treaty as the baseline, the fiscal year 2013 
request falls $372 million short and funding between fiscal 
year 2012 and 2017 could fall $4 billion short of the 1251 
commitment.
    What I would like to get from you and Mr. Kendall is your 
commitment to work with this committee and to work with 
Congress to identify efficiencies within the national 
laboratories or NNSA that could free up funding for the 
important weapons life extension programs and perhaps even fund 
the construction of the Chemistry and Metallurgy Research 
Replacement Nuclear Facility, the plutonium producing 
capability, on its original schedule. $300 million is needed in 
fiscal year 2013 and $1.8 billion over the next 5 years.
    Will you give me your commitment, give the committee your 
commitment to work with us to try to find that money to keep 
that original program on track?
    Dr. Miller. Senator, you have my commitment to do so and to 
work with this committee, with Congress, and with the NNSA. 
Since we have met, I have had an opportunity to talk with the 
Administrator, Tom D'Agostino, and I can reassure you, as we 
discussed privately, that he is committed to doing everything 
possible to find efficiencies in his program. We will continue 
to provide support from DOD including through our cost analysis 
and program evaluation study that is underway today.
    Senator Cornyn. Thank you very much.
    Mr. Kendall. I am going to make the same commitment, 
Senator Cornyn. We are actively working this issue with the 
NNSA.
    Senator Cornyn. Thank you very much for that.
    Mr. Kendall, you testified in front of the House Armed 
Services Committee about the Joint Strike Fighter and indicated 
that it made strong progress in 2011. I share Senator McCain's 
frustrations--I am sure you have some--for the cost overruns. 
But I wonder whether all of us fully appreciate when you have a 
high degree of concurrency built into a cutting-edge program 
like this, just how accurate the original cost estimates can be 
because you are essentially developing this technology as you 
are building it and it makes things very challenging.
    My question is a little more specific about the time it is 
taking the Department to get F-35 production lots on contract. 
The fiscal year 2011 airplanes, lot 5, for which money was 
appropriated a year ago, are still not on contract. The delay 
in finalizing that contract could potentially put the fiscal 
year 2013 funding for this program at risk. The reason I say 
that is because the appropriators in 2011 cut planes last year 
and cited the principal reason as the Department's delay in 
getting the fiscal year 2010 aircraft on contract. I would urge 
you to expeditiously finalize the contract and would be glad to 
hear any comment you would care to make on that topic.
    Mr. Kendall. We are in negotiations for lot 5 now, as I 
think you are aware, Senator Cornyn. We have an undefinitized 
contract. The production is proceeding, but we have to 
negotiate a final price. I cannot really talk about the details 
of that negotiation, obviously.
    We appreciate the concern. We would like to have moved from 
where we seem to be doing undefinitized contracts each year, 
then taking a long time to finally definitize to a situation in 
which we can get a definitized contract earlier. We are hopeful 
as we transition to lot 6, then to lot 7, that we will be able 
to do that. As we get experience, obviously, and we get a 
better understanding of the cost, it should be much easier to 
negotiate these contracts as we go forward.
    Senator Cornyn. This always seems like a very mysterious 
and arcane subject, which I think the lack of clarity that we 
all have makes it more likely that there will be cost overruns 
in the future. I would welcome the opportunity to work with you 
and the Department, as I know we all would, to try to bring 
greater clarity to the process so we can, hopefully, keep this 
essential program on track. Since we put all of our eggs in the 
F-35 basket, as the saying goes, we better take care of the 
basket.
    Mr. Kendall. I agree with that, Senator Cornyn.
    Senator Cornyn. I would like to ask one last line of 
questioning for Dr. Miller and Mr. Kendall. This has to do with 
the subject I have discussed with Secretary Panetta and also 
the Chairman of the Joint Chiefs of Staff. This regards a 
contract that DOD has with a Russian arms exporter, 
Rosonboronexport, to provide 21 dual-use Mi-17 helicopters to 
the Afghan military. The reason why this has become so 
important is because, of course, this is the same arms merchant 
that has sold weapons to the Syrian Government used to kill 
innocent Syrians who are protesting the tyranny of the Assad 
Government.
    Specifically what I wanted to ask you about is the original 
contract calls for $375 million for the purchase of 21 Mi-17 
helicopters and spare parts. But reportedly there is an option 
to purchase for an additional $555 million which would raise 
the total value of the contract to $1 billion. I know I am not 
alone in being concerned that DOD would enter into a no-bid 
contract to purchase Russian helicopters when there are 
American-made helicopters that surely must be available to meet 
that requirement. Unfortunately, I think the contract 
undermines our goal for national security and is at odds with 
the U.S. policy toward the Assad regime.
    I would just like to ask, Mr. Kendall, Dr. Miller, do you 
share my concerns about DOD's ongoing business dealings with 
Rosonboronexport? I wonder whether you can add any comments 
that would give us some assurance that we are not doing 
business with the very same people who are aiding in the 
killing of innocent civilians in Syria.
    Dr. Miller. Senator, first of all, I want to say explicitly 
that we have had and have ongoing discussions with the Russians 
about any support to the Assad regime in Syria, and we will 
continue to do so.
    The issue with the Mi-17 in Afghanistan comes down to one 
that it is an aircraft that is first well-suited, extremely 
well-suited in fact, to the altitude and rugged terrain of 
Afghanistan, and it is one that the relatively small number of 
Afghan pilots that are currently in place and that we are 
continuing to try to train have an understanding of how to 
operate. The challenge that we have is that there is not 
another aircraft in the world that has the same combination of 
capabilities to be able to operate in Afghanistan, nor that the 
Afghan air forces will be able to train and fly on.
    Understanding the concerns that you raise about working 
with Rosonboronexport, we are continuing the effort that 
started a couple of years ago to have an explicit transition 
plan over time so that we do not find ourselves in this 
position in the future. That is for the rotary-wing support. We 
are looking to be able to transition over time. Sir, because 
the transition is so important in Afghanistan and because, as I 
said, this aircraft is well-suited and the people that we have 
and are training the Afghan air force to fly it are capable of 
operating this, I just think it makes tremendous sense for us 
to continue with the Mi-17 and to have that be the critical 
part of how we transition in Afghanistan. As we talked about 
previously, we stand shoulder to shoulder with the Afghans, but 
we are shifting the weight increasingly onto their shoulders. 
We need an aircraft that can allow them to be able to conduct 
these operations.
    Senator Cornyn. Dr. Miller, you strike me as a very decent 
human being and a good man, no doubt a great patriot, and I 
know you must be troubled. I know you are doing your job and 
trying to deal with a tough situation. But it just strikes me 
as completely unacceptable for us not to continue to look for 
an alternative to purchasing these helicopters for the Afghan 
army, and if we need to help them with training for a different 
helicopter, they can be purchased from another source. That 
would strike me as a good thing, and I bet you would agree.
    Dr. Miller. Senator, I fully agree. At the same time, I do 
not see a viable alternative today or within at least the next 
year. I have, for the last couple of years, looked into--and to 
say encouraged would be an understatement--our work to find 
alternative platforms, and I will continue to do so. I think it 
is possible Mr. Kendall wants to comment as well. This is an 
important effort from a policy perspective, but it is one where 
we have to get an acquisition of rotary wing capabilities that 
provides this set of capabilities that we can then have not 
just Afghans but others that we can sell to around the world 
for our own operations and for foreign military sales that 
could be used.
    Senator Cornyn. It strikes me, Mr. Kendall, as strange that 
the Russians can build a helicopter that meets Afghan 
requirements but U.S. manufacturers cannot. Is that your 
understanding?
    Mr. Kendall. The situation is they have a helicopter in 
existence that meets those requirements. We could certainly 
build a similar one if we had the time. It is relatively simple 
to operate and to maintain, and it operates well in the 
environment of Afghanistan.
    Part of the history of this is that we attempted to acquire 
Mi-17s through other sources originally, and Russia controls 
the export of them fairly carefully through Rosonboronexport 
that you mentioned. We were forced to go through that vehicle.
    Unfortunately, we would be depriving the Afghan military 
something they desperately need if we were to follow the line 
that you suggested, and I agree with Dr. Miller on that.
    Senator Reed [presiding]. Thank you very much, Senator 
Cornyn.
    Before I recognize Senator Blumenthal, let me take my 
questions.
    First, let me thank Secretary Kendall for remembering 
Sergeant Dennis Weichel, and his service and sacrifice, as you 
said, Mr. Secretary, personifies the American soldier, sailor, 
marine, and airman and all they do every day. Thank you for 
that.
    I think you also very eloquently stated that the decisions 
we make here, not just in DOD, but on this side of the dais 
ultimately are carried out by young men and women like Sergeant 
Weichel, and we have to be very conscious of that in everything 
we do. I think this group of nominees feels that intensely. 
General Wright, you have served and so many have served in 
different ways. Thank you very much for that.
    Secretary Kendall, one of the issues that we have talked 
about is the nuclear infrastructure to create and maintain 
nuclear devices. There is another big part of that. That is the 
delivery platforms. Where you are facing a significant set of 
challenges, the lead procurement item is the Ohio-class 
replacement submarine, but the Air Force is talking about the 
need ultimately to replace their fleet. You have to make, I 
presume, improvements in ground-based systems.
    When the Services look individually at the cost--and I have 
more fidelity with respect to the Navy--these are very 
expensive platforms. They crowd out spending for other 
necessary ships in the Navy's case. I think there is a very 
compelling case because this is a strategic issue that the 
Services alone should not fundamentally share the burden, that 
in fact there has to be some DOD defense money because of the 
strategic nature committed to help the Services. I think the 
most immediate situation is in the Navy.
    Can you reflect on that and share your views?
    Mr. Kendall. Yes, Senator Reed. The Department basically 
builds its budget as a budget for the entire Department, and we 
do make tradeoffs that sometimes cut across the Services' lines 
in order to do that. Last fall, what we went through was a 
period where we formulated the strategy, the Strategic Guidance 
that we published, and that was used to guide the budget 
process. That was all done with regard to priorities to support 
the strategy. It was not about the Service portfolio 
specifically. At the end, we came to a decision about the best 
mix of systems to do that, and we tried to take into account 
the long-term issues that you alluded to which include the 30-
year shipbuilding plan which we just sent over which does show 
that the Ohio replacement does add substantially to that 
account. We are going to have to find some other way besides 
the shipbuilding account to pay that bill.
    We have put cost caps on both the SSBN-X, the Ohio 
replacement, and on the new bomber in order to try to control 
the costs and keep them within an affordable range. But there 
is going to be a challenge to us to do this, and it has to be 
done on a defense-wide DOD basis.
    Senator Reed. Part of your approach to this--and I know you 
have thought carefully about it--is not just in terms of 
capping systems but sort of the sequencing of when you build 
these systems. I thought General Kehler's testimony in response 
to Senator Blumenthal--the U.S. Strategic Command Commander--
about the most survivable element in the triad is the 
submarine. General Kehler is an Air Force officer. I think that 
is a double endorsement.
    Is that factor being considered too in terms of sequencing 
and funding in terms of what is the most survivable part that, 
if you extend, will give us more protections?
    Mr. Kendall. Yes. That factor is being taken into account.
    Senator Reed. Thank you very much, Mr. Secretary.
    Secretary Miller, you made it very clear that the policy of 
the President to prevent the Iranian Government from obtaining 
nuclear weapons--and that is a policy that I agree with and 
concur with. The President, as we are all aware, is pursuing 
some of the most aggressive diplomacy that we have ever seen 
with respect to the Iranian situation. I do not think a year or 
2 ago I would have said that the Europeans are prepared at the 
end of June to eliminate their importation of Iranian oil. 
There is some perhaps traction here. But this is a very 
difficult issue.
    There are those that are talking about an immediate or very 
close-on preemptive strike on the facilities. It seems to me 
that, as I look at their analysis, they are assuming a worst 
case on behalf of the Iranians, which is probably prudent to do 
in terms of their nuclear aspirations and what they would do 
with a nuclear device, but then a best case in terms of 
retaliation if such an attack was taking place. It just strikes 
me that that type of analysis is not the best. You have to 
assume, I think, a worst case for their aspirations and a worst 
case for their retaliation.
    Do you want to comment on that approach and your thoughts?
    Dr. Miller. Senator Reed, this administration believes 
there is time for diplomacy to work, and as we have increased 
the pressure through sanctions and through other steps, we 
think that the incentives for the Iranians to come to the table 
and to take the steps needed to come into compliance--those 
incentives are increasing and the impact of sanctions is 
increasing. At the same time, as you indicated, all options are 
on the table at present and all options will remain on the 
table.
    I guess I would add, Senator, that with respect to planning 
for scenarios, this is something--a potential conflict--I 
mentioned the Strait of Hormuz previously. DOD and the military 
is conducting planning across the full range of potential 
scenarios and will be as prepared as possible.
    Senator Reed. Thank you, Dr. Miller.
    Thank you all for not only your willingness to serve but, 
in each and every case, your demonstrated service to the Nation 
already. We appreciate it very much.
    Again, I will echo my classmate. I have been doing this for 
40-plus years. Ultimately it is all about those young sergeants 
and boatswain's mates and crew chiefs that are out there 
protecting us.
    With that, let me recognize Senator Blumenthal.
    Senator Blumenthal. Thank you, Senator Reed.
    Thank you all for your service already and your service-to-
be and to your families as well.
    Ms. Conaton, I am concerned about the adequacy of the 
criminal justice system in the military in dealing with sexual 
assault. I accept and commend your commitment to ending sexual 
assault and holding accountable anybody who commits it. I know 
that Secretary Panetta is as well. Yet, fewer than 21 percent 
of assault cases now go to trial and about 6 percent of the 
accused are discharged or allowed to resign in lieu of court 
martial. Only half of the cases prosecuted result in 
convictions. I wonder what is being done to improve that 
record.
    Ms. Conaton. Senator, thank you and thanks for the 
leadership not only that you have demonstrated on this issue 
but the committee as well.
    I completely agree with Secretary Panetta that not only is 
one sexual assault too many, but it is completely antithetical 
to who we are as a military and completely contrary to the 
values that the military espouses.
    I think leadership remains critical on this issue. The fact 
that both Secretary Panetta and General Dempsey, as well as 
many in Congress, have taken up this issue I think is 
appropriately shining a spotlight on this, and we need to keep 
up that pressure.
    There are definitely issues that go to how our commanders 
impose standards of behavior within their units and the 
training for those who would both investigate and prosecute. 
Secretary Panetta has a very near-term evaluation underway as 
to the adequacy of the training both at the commander level, at 
the investigator level, and for servicemembers at large. If 
confirmed, I would look very much forward to working with him 
and with the committee to see where we go next in terms of next 
steps.
    Senator Blumenthal. I know that he is about to propose or 
in the process of proposing some reforms and changes, and I 
would be very eager to work with you on improving the military 
justice system in dealing with these issues because I think a 
lot more and a lot better can be done.
    Ms. Conaton. Thank you, Senator. It is my understanding 
that the Department is preparing a package of legislative 
proposals to come forward. As I am not yet in that position, I 
have not had an opportunity to review them but would look 
forward to working with you on that.
    Senator Blumenthal. I was very interested and thankful to 
see the part of your testimony dealing with medical research 
programs, particularly psychological health, traumatic brain 
injury, and post-traumatic stress. We have facilities in 
Connecticut, the Eastern Blind Rehabilitation Center, that deal 
with visual injuries. I wonder if you could comment further on 
what will be done assuming that you are confirmed.
    Ms. Conaton. Yes, Senator. You highlighted the research 
aspect of this. As we know that these injuries of the conflict 
of the last 10 years are going to be with us for some time to 
come, I think maintaining the focus on medical research in the 
areas of traumatic brain injury and post-traumatic stress will 
be absolutely essential.
    But I think everything that the Department does for our 
wounded warriors, we have to keep in mind the fact that it is 
from their service that they are dealing with these injuries. 
Again, these are things that will be with them and their 
families over an extended period of time. If confirmed, I 
imagine these issues and wounded warrior issues more generally 
would be something that I would spend a great deal of time on 
and something I am personally very committed to.
    Senator Blumenthal. Thank you.
    Secretary Miller, the issue of human trafficking in 
contracting and contracts on our bases overseas, a security 
threat--maybe I should address this question as well to 
Secretary Kendall. I have introduced a bill. It has bipartisan 
support here and in the House to try to impose stronger 
criminal penalties on contractors who engage in this practice, 
stronger preventive measures, and providing better remedies. I 
hope that you will support such efforts to combat human 
trafficking not only because of the threat to the integrity of 
our contracts and the cost to taxpayers, but also because it is 
a security issue since many of those brought to these bases can 
pose a threat to our troops. I wonder if you could comment, 
either you or Secretary Kendall, on that issue.
    Dr. Miller. Senator, I will comment briefly.
    I agree absolutely that it is unacceptable and it is 
something that we have to deal with. I have not had the 
opportunity to review your legislation. I will do so and work 
with my colleagues as they operate in acting capacity.
    Senator Blumenthal. Thank you.
    Mr. Kendall. Senator Blumenthal, it was not mentioned but 
my background includes work as a human rights activist, and I 
am very interested in this subject.
    We are doing some things already. I would be very 
interested in things that would strengthen what we are doing as 
far as contracting is concerned. I would be happy to work with 
you on that.
    Senator Blumenthal. Thank you.
    Let me conclude by saying that I share the concerns that 
have been raised about helicopters sold by the Russians to the 
Afghanistan forces. Perhaps you can tell me as simply and 
concisely as possible why we cannot substitute our own 
helicopters. In other testimony before this committee, the 
Russian helicopter was described in its sophistication as a 
flying refrigerator. I am just wondering why the great American 
industrial base cannot provide a substitute for that product.
    Mr. Kendall. The problem is the immediacy of the need and 
the fact that we do not have a product that we can substitute 
immediately.
    Senator Blumenthal. A product that can be flown by the 
Afghans?
    Mr. Kendall. That has the same characteristics as the Mi-
17.
    Basically there are a lot of people in Afghanistan who have 
already had experience with the helicopter, which helps. That 
gives us a head start in terms of training and so on. It is 
suitable for the environment. It is relatively simple to 
operate. It is relatively simple to maintain. So with an Afghan 
force that we are trying to build, it seems to be the right 
platform. We do not have a ready substitute that we could use 
that is a U.S. product.
    Senator Blumenthal. I hesitate to repeat what you have 
already said, but is there an effort underway to develop such a 
substitute?
    Dr. Miller. Senator, yes, there is. A couple of years ago, 
a rotary wing support office was created. The challenge is that 
we do not have available a platform that could meet the needs 
in the very near term. I agree that this is a place that we 
should not find ourselves in the future, but this is where we 
are at least for the next year and perhaps for the next couple 
of years.
    Senator Blumenthal. Thank you.
    One more question relating to the Joint Strike Fighter. Are 
you concerned that some of the supposed overrun is due to 
projections of inflation that seem to be at best somewhat 
speculative and therefore may not reflect accurately the real 
cost of the program?
    Mr. Kendall. Part of the increase that we are reporting 
today actually includes some inflation indices adjustments. 
There is a substantial piece of it that is that.
    I think we tend to get a little too fixated on some of 
these numbers. I am trying to attack the costs. I am trying to 
look at the things that I can do something about and drive them 
down. The aircraft is at an affordable level now I think as far 
as production is concerned, but we can do better and we need to 
make it better so we can afford more of them.
    The sustainment costs are too high. Dr. Carter testified 
about that a year ago, and we need to drive those down. I have 
set a target that I think is a cap on what we can do, and we 
have tried to drive to at least that, which is lower than the 
current estimate. Then we are going to try to drive it even 
lower. That will be the subject of an awful lot of activity 
over the next coming year.
    Senator Blumenthal. Thank you very much. Again, thank you 
all for your service and good luck. Thank you.
    Senator Reed. Thank you, Senator Blumenthal.
    Thank you, ladies and gentlemen, for your testimony and 
your service.
    With that, the hearing is adjourned.
    [Whereupon, at 11:53 a.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Frank Kendall III by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I do not see the need for modifications to Goldwater-
Nichols Act provisions at this time. I believe the current allocation 
of responsibility for acquisition-related matters in title 10, U.S.C., 
appropriately assigns responsibility to the Under Secretary of Defense 
for Acquisition, Technology, and Logistics (USD(AT&L)), and that the 
law also appropriately identifies the acquisition-related functions of 
the Military Department Secretaries. I will continue to consider this 
issue and will make proposals for modifications if and when required.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
                                 duties
    Question. Section 133 of title 10, U.S.C., describes the duties and 
responsibilities of the USD(AT&L).
    Assuming you are confirmed, what additional duties do you expect 
that the Secretary of Defense will prescribe for you?
    Answer. If confirmed, I expect the Secretary to assign duties and 
functions commensurate with the USD(AT&L)'s function and expertise as 
he deems appropriate.
    Question. Do you recommend any changes to the provisions of section 
133 of title 10, U.S.C., with respect to the duties of the USD(AT&L)?
    Answer. No.
    Question. Do you believe that the Department of Defense (DOD) has 
effectively implemented a streamlined chain of command for acquisition 
programs, as envisioned by the Packard Commission?
    Answer. I believe that the Department has implemented a strong 
acquisition chain of command, built upon an effective management 
structure that meets the current acquisition requirements and outcomes. 
I am concerned, however, that some program managers have been given 
responsibility for too many programs. If confirmed, I will continue to 
examine this structure and oversight to ensure continued success in 
leadership.
    Question. Do you see the need for modifications in that chain of 
command, or in the duties and authorities of any of the officials in 
that chain of command?
    Answer. No, not at this time. I believe the statutory reporting 
chain providing USD(AT&L) directive authority concerning Military 
Department acquisition programs via the Military Department Secretaries 
is a crucial authority that must be maintained. If confirmed, I will 
evaluate the current chain of command and will recommend adjustments 
should any be needed to ensure continued success.
                             qualifications
    Question. If confirmed, you will be responsible for managing an 
acquisition system pursuant to which DOD spends roughly $400 billion 
each year. Section 133 of title 10, U.S.C., provides for the Under 
Secretary to be appointed from among persons who have an extensive 
management background in the public or private sector.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I have over 40 years experience in the areas of national 
security, defense, and acquisition. My education includes degrees in 
engineering, business and law. I served on active duty in the Army for 
over 10 years including in operational units and research and 
development (R&D) commands. As a civil servant, I worked as a systems 
engineer and systems analyst. I spent over 8 years in the Pentagon on 
the Under Secretary for Acquisition's staff first as Assistant Deputy 
Under Secretary for Strategic Systems (Defense Systems) and then as 
Director, Tactical Warfare Programs. Outside of government I have been 
the Vice President of Engineering for Raytheon Company and a consultant 
on national security and acquisition related matters, principally 
program management, technology assessment, and strategic planning, for 
a variety of defense companies, think tanks, and government 
laboratories or R&D organizations. I re-entered the government in March 
2010 after confirmation by the Senate to be the Principal Deputy Under 
Secretary of Defense for Acquisition, Technology and Logistics. Since 
October 2011, I have served as the acting Under Secretary of Defense 
for Acquisition, Technology, and Logistics.
    Question. What background or experience, if any, do you have in the 
acquisition of major weapon systems?
    Answer. During the past 2 years, I have served the Defense 
Department in the Office of the USD(AT&L). For a year and a half as the 
Principal Deputy Under Secretary of Defense for Acquisition, 
Technology, and Logistics), and from October 2011 to the present as the 
acting Under Secretary of Defense for Acquisition, Technology, and 
Logistics. In both positions, I played a central role overseeing and 
directing major weapons systems on behalf of the Department. In my 
previous Pentagon positions, I served in the Under Secretary of Defense 
for Acquisition's office from 1986 to 1994. During this period I had 
oversight responsibility, first for all strategic defense programs, and 
then for all tactical warfare programs. During my period as Director of 
Tactical Warfare Programs from 1989 to 1994, I chaired the Conventional 
Systems Committee, now called the Overarching Integrated Product Team, 
which was responsible for preparing for Defense Acquisition Board (DAB) 
decisions for the Under Secretary for Acquisition. In this capacity, I 
was responsible to the Under Secretary for approximately 100 DAB 
reviews covering systems from all three Military Departments that 
spanned the spectrum of major weapon systems. After I left government 
service in 1994, I was involved with a number of major weapons systems 
programs in my capacity as Vice President of Engineering at Raytheon. 
As an independent consultant, I spent several years providing technical 
management and program management consulting to the Lead System 
Integrator for the Future Combat Systems program. During the period 
1997 to 2008, I was also involved in reviews of a number of major 
acquisition programs, either as an independent consultant or as a 
member of a government advisory board.
                             relationships
    Question. In carrying out your duties, what would be your 
relationship with:
    The Secretary of Defense.
    Answer. If confirmed, I will be the principal staff advisor to the 
Secretary of Defense on matters concerning acquisition, including on 
the procurement of goods and services, R&D, developmental testing, and 
contract administration. I will also be the principal staff advisor to 
the Secretary on matters concerning logistics, maintenance and 
sustainment support, installations and environment, operational energy, 
chemical, biological, and nuclear weapons, and the defense industrial 
base.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I will be the principal staff advisor to the 
Deputy Secretary in the same manner as to the Secretary.
    Question. The other Under Secretaries of Defense.
    Answer. There are many actions that require coordination among the 
Under Secretaries of Defense. If confirmed, I will work with the other 
Under Secretaries to serve the priorities of the Secretary of Defense.
    Question. The DOD General Counsel.
    Answer. If confirmed, I will work with the General Counsel's office 
to ensure all actions are legal, ethical, and within regulatory 
guidelines.
    Question. The Director of Operational Test and Evaluation.
    Answer. If confirmed, I will work with the Director of Operational 
Test and Evaluation to ensure the Department has appropriate 
operational test and evaluation of defense acquisition programs.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. If confirmed, I will work with the Director of Cost 
Assessment and Program Evaluation to ensure that the Department has 
independent cost analysis for defense acquisition programs and 
appropriate resource assessments for other programs within my 
responsibilities.
    Question. The Assistant Secretary of Defense for Research and 
Engineering.
    Answer. If confirmed, I will direct the work of the Assistant 
Secretary of Defense for Research and Engineering to maintain the 
technological edge of the Armed Forces, ensure the Department has 
continued ability to acquire innovative capabilities, and to reduce the 
cost and risk of our major defense acquisition programs.
    Question. The Deputy Assistant Secretary of Defense for 
Developmental Testing.
    Answer. If confirmed, I will direct the work of the Deputy 
Assistant Secretary of Defense for Developmental Testing to ensure 
there is strong involvement early in program formulation, that 
comprehensive, independent developmental testing assessments of program 
maturity and performance are available to inform acquisition decisions, 
and that the developmental test community within the acquisition 
workforce is appropriately staffed and qualified.
    Question. The Deputy Assistant Secretary of Defense for System 
Engineering.
    Answer. If confirmed, I will direct the work of the Deputy 
Assistant Secretary of Defense for System Engineering to ensure the 
application of sound systems engineering principles to major defense 
acquisition programs and to ensure that the systems engineering 
community within the acquisition workforce is appropriately staffed and 
qualified.
    Question. The Director of Program Assessment and Root Cause 
Analysis.
    Answer. If confirmed, I will direct the work of the Director of 
Program Assessment and Root Cause Analysis to ensure that the 
performance of the defense acquisition system is carefully evaluated 
and to ensure that all relevant lessons learned are captured from 
programs which experience unacceptable cost growth and that performance 
measurement for DOD programs and institutions is effectively 
implemented.
    Question. The Acquisition Executives in the Military Departments.
    Answer. If confirmed, I will make communication and coordination 
with the Service Acquisition Executives a top priority. I will work 
with the Acquisition Executives to ensure effective oversight, through 
the Secretaries of the Military Departments, of acquisition programs in 
their areas, support transparency in sharing information about program 
status, take appropriate remedial actions to rectify problems, actively 
engage in departmental processes to improve acquisition outcomes, and 
support the policies and practices of the Department. I will also 
expect them to champion best practices and share ideas and concerns 
with me, with each other and with appropriate stakeholders.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed, I will support the Vice Chairman in his role 
with respect to the Joint Requirements Oversight Council (JROC), and 
would support and encourage his active role as a member of the DAB. I 
will also seek to ensure the requirements and acquisition processes 
work effectively together in terms of stabilizing requirements, and 
ensuring requirements established for acquisition programs are 
achievable within appropriate cost, schedule, and technical risk.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the USD(AT&L)?
    Answer. My principle challenge will be to support the Department's 
recently announced Military Strategy Guidance within the available 
resources. My priorities as the acting USD(AT&L), and the priorities I 
would emphasize if confirmed, are tightly aligned with that challenge 
and with the principles the Secretary of Defense has expressed--
maintain the best military in the world, avoid a hollow force, take a 
balanced approach to achieving efficiencies, and keep faith with our 
men and women in uniform.
    My priorities and the major challenges I expect to face if 
confirmed as USD(AT&L) are: (1) providing effective support to current 
operations; (2) achieving affordable acquisition programs; (3) 
improving the efficiency and effectiveness of the Department's 
acquisition of both products and services; (4) strengthening the 
industrial base during a period of lower than expected budgets; (5) 
strengthening the acquisition workforce in order to achieve better 
acquisition outcomes; and (6) ensuring that despite limited resources 
the Department protecting the capabilities the Department will need in 
the future to equip and sustain the force and conduct operations.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. The following is a very brief summary of some of the plans 
that I have to address the challenges I see:
    To support the warfighter, if confirmed, I will continue to 
prioritize and institutionalize rapid acquisition to meet urgent needs, 
timely and reliable logistics support, effective contingency 
contracting, and more efficient operational energy solutions.
    To achieve affordable programs, if confirmed, I will continue to 
work with the requirements and resource communities and the acquisition 
community to ensure the programs the Department starts have firm cost 
goals in place for both production and sustainment, that appropriate 
priorities are set, and that the necessary tradeoffs are made to keep 
defense programs within affordable limits.
    To improve efficiency, if confirmed, I will continue to refine and 
evolve the Better Buying Power initiative. I will continue the 
continuous improvement management approach that Dr. Carter and I 
initiated to control and reduce costs while acquiring products and 
services that provide the highest possible value to the warfighters.
    To strengthen the industrial base, if confirmed, I will continue to 
focus on executing contracts with industry that include appropriate 
incentives to higher productivity and drive fair business deals to 
protect the taxpayers' interest, while providing industry with 
reasonable profit opportunities and without putting industry at 
unacceptable risk. I will also continue to ensure critical skills and 
capabilities in the industrial base are identified, and intervene where 
necessary to see that needed capabilities are preserved. If confirmed, 
I will keep strong two way lines of communication to industry open at 
all levels so that industry and government truly understand each 
other's perspectives and concerns.
    To strengthen the acquisition workforce, if confirmed, I will 
continue to work to increase the capability of the workforce. As budget 
reality reduces the capacity to increase the size of the workforce, I 
will turn greater attention to the capability within the workforce, 
particularly the development of key acquisition leaders in program 
management, engineering, contracting, and product support. This 
includes increased skills and leadership training. It also means 
setting high standards, recognizing good performance, and holding 
people accountable for poor performance.
    To protect the future, if confirmed, I will continue to advocate 
for sound investments in the next generation of technologies to 
maintain U.S. military superiority. This means protecting essential 
capabilities in the industrial base, such as design teams that would 
take a generation or more to replace. It means retaining a contingency 
contracting capability that can be expanded when needed for future 
operations. It means developing and nurturing small businesses, 
maintaining our installations, and ensuring the safety and security of 
our nuclear deterrent. Most of all, it means maintaining the very best 
military in the world, not just today, but for the long term.
                        acquisition organization
    Question. Do you believe that the office of the USD(AT&L) is 
appropriately structured to execute its management and oversight 
responsibilities?
    Answer. Yes. I have made a number of minor adjustments in the AT&L 
structure since I joined the organization in March 2010. As I evaluate 
the impact of these changes other adjustments are possible, but overall 
I believe the structure is appropriate.
    Question. Do you see the need for any changes in the relationship 
between the USD(AT&L) and senior acquisition officials in the Military 
Departments?
    Answer. No.
    Question. Do you see the need for any additional processes or 
mechanisms to ensure coordination between the budget, acquisition, and 
requirements systems of the DOD and ensure that appropriate trade-offs 
are made between cost, schedule, and performance requirements early in 
the acquisition process?
    Answer. I believe the correct mechanisms are in place at the DAB 
and the JROC, and in the process for performing analyses of 
alternatives, to ensure that appropriate trade-offs are made between 
cost, schedule, and performance requirements on major defense 
acquisition programs. Dr. Carter and I initiated the use of 
affordability production and sustainment cost requirements or caps 
early in program life cycles and, if confirmed, I will continue the use 
of this management tool to force trade-offs early in the system design 
process. If confirmed, I will also continue to examine whether there is 
a need for additional processes or mechanisms for ensuring appropriate 
trade-offs before program requirements are finalized.
    Question. What do you believe should be the appropriate role of the 
Service Chiefs in the requirements, acquisition, and resource-
allocation process?
    Answer. The acquisition process does not exist in isolation and the 
Service Chiefs play a major role as a result of their deep involvement 
in the budget and requirements processes, and because they are 
responsible for the health of the acquisition workforce of their 
respective Military Departments, particularly the officer corps. The 
acquisition process functions properly only when the Service's 
uniformed leadership is actively involved and takes responsibility for 
the success of the acquisition system. I believe the chain of 
professional acquisition authority--normally the program manager, 
program executive officer, component acquisition executive and/or 
milestone decision authority--is appropriate for acquisition decisions, 
but that these people cannot be successful without the involvement and 
active support of Service senior uniformed leadership.
    Question. What do you see as the potential advantages and 
disadvantages to giving the Service Chiefs authority and responsibility 
for the management and execution of acquisition programs?
    Answer. The Service Chiefs are usually not acquisition 
professionals, and in general, I believe that the management and 
execution of acquisition programs should be done by people who have the 
professional experience and qualifications to direct large scale 
complex programs. I also believe that the Service Chiefs already have 
significant responsibility for the success of acquisition programs, and 
that there is much they can and should do within their current 
authority to improve acquisition outcomes. The steps the Service Chiefs 
can take include: (1) making sure their personnel systems are doing 
everything they can to create a more capable and professional 
acquisition workforce (particularly key leaders including program 
managers, chief engineers, contracting officers, and product support 
managers); (2) recognizing the importance and unique skills of those 
key leaders and making it career enhancing to go into the acquisition 
field; (3) ensuring that realistic requirements are set and that there 
is a cooperative relationship between the acquisition community and the 
requirements community in which requirements trade-offs and informed 
decisions can be made efficiently; (4) creating a command environment 
where acquisition professionals are listened to and encouraged to bring 
realistic assessments forward to senior requirements and budget 
decision makers and where sound business practices that will save money 
and provide more value are supported; and (5) including the acquisition 
professionals in the cultural mainstream of their Service.
    Question. What do you believe should be the appropriate role of the 
combatant commanders in the requirements, acquisition, and resource-
allocation processes?
    Answer. Combatant commanders advise on capability needs, priorities 
and allocation of resources consistent with those needs. I am 
particularly sensitive to the need for the acquisition system to 
address urgent needs of the combatant commanders in support of wartime 
operations and changing threats. In those exceptional cases where a 
combatant commander holds special acquisition authorities such as the 
Commander, U.S. Special Operations Command, AT&L has responsibilities 
to foster their success through mentorship and positive process 
oversight. If confirmed, I will continue to respect and encourage their 
advice and solicit their input on meeting their needs effectively.
    Question. Do you see the need for any changes in the structure or 
operations of the JROC?
    Answer. I support the Vice Chairman of the Joint Chiefs' 
initiatives to emphasize cost-informed decisions in the military needs 
validation process and to streamline the JROC process. The current 
construct encourages direct and open discussion between senior military 
needs officials and acquisition leaders. Our staffs work continuously 
to evolve these processes to provide capability more effectively. The 
VCJCS and I have been working closely to streamline and coordinate 
requirements and acquisition, and if I am confirmed, I will continue 
this practice. I have been regularly attending JROC meetings to provide 
the acquisition perspective and if confirmed I will continue this 
practice.
    Question. What improvements, if any, do you believe are needed in 
the lines of authority and accountability for the procurement of major 
weapon systems?
    Answer. I believe in clear lines of authority and accountability 
for the procurement of major weapon systems. They go from the Defense 
Acquisition Executive through the Secretaries of the Military 
Departments to the Service Acquisition Executives and the Program 
Executive Officers and Program Managers. I see no need for changes to 
that structure. If confirmed, I will continuously review this to see if 
changes might be needed.
    Question. What steps if any will you take, if confirmed, to empower 
program managers to execute major defense acquisition programs and hold 
them accountable for how well their programs perform?
    Answer. Section 853 of the John Warner National Defense 
Authorization Act (NDAA) for Fiscal Year 2007 required the Department 
to develop a strategy to enhance the role of DOD program managers in 
developing and carrying out defense acquisition programs. The 
Department developed the strategy and has implemented many of the 
initiatives identified in its report to Congress to include more 
focused education and training, program manager forums, and 
institutionalized assist teams. Tenure agreements, program manager 
agreements, and configuration steering boards increase leadership 
stability while enhancing management accountability. The foundation of 
accountability is competency and experience. I am currently reviewing 
the Department's approach to developing and empowering program managers 
as well as the approach to holding them accountable for their 
performance. I regard leaving stronger, more effective acquisition 
leaders as the single most important legacy I could leave the 
Department and if confirmed that will continue to be one of my highest 
priorities.
                    major weapon system acquisition
    Question. Do you believe that the current investment budget for 
major systems is affordable given decreasing defense budgets, the 
historic cost growth trends for major systems, and the continuing costs 
of ongoing contingency operations?
    Answer. I believe the current investment budget for major systems 
is affordable if properly managed, but that it will be a challenge to 
achieve this. The President's fiscal year 2013 Defense Budget provides 
a balanced approach to reducing force structure and procurement over 
the Future Years Defense Program. Cost growth in acquisition programs 
will have to be controlled if the Department is to execute this budget 
successfully. Secretary Gates and Dr. Carter foresaw the need for 
greater efficiency and effective execution and started the Better 
Buying Power initiative in 2010 to ensure that the performance of the 
defense acquisition system was everything that the warfighter and 
taxpayers have a right to expect. If the Department continues to 
experience over the next 10 years the same levels of cost growth and 
failed programs that occurred in the decade preceding this initiative, 
it will be extremely challenging to meet our minimum needs for 
recapitalization and modernization.
    Question. If confirmed, how do you plan to address this issue?
    Answer. If confirmed, I will continue to make cost control an over-
riding priority. As the USD(AT&L), I would continue to advise the 
Secretary on a sustainable and affordable investment strategy for the 
Department. As the acting Under Secretary, I have included formal 
affordability requirements as a critical element of the defense 
acquisition system. If confirmed, I will continue to work to control 
potential cost growth for existing programs and to work to improve the 
Department's requirements, acquisition, and budgeting processes to 
ensure investment decisions are informed by sound affordability 
constraints.
    Question. What would be the impact of a decision by the Department 
to reduce purchases of major systems because of affordability issues?
    Answer. Over the long term, the Department must balance force 
structure with operating costs, capital investments, and modernization. 
I believe that ultimately reductions in our recapitalization and 
modernization rates could jeopardize our ability to keep up with pacing 
threats, reduce production efficiency, increase sustainment costs for 
the existing force structure, and affect the health of the industrial 
base. In the short term, some reductions are manageable and 
affordability constraints cannot be ignored.
    Question. Nearly half of DOD's major defense acquisition programs 
have exceeded the so-called ``Nunn-McCurdy'' cost growth standards 
established in section 2433 of title 10, U.S.C., to identify seriously 
troubled programs. Section 206 of the Weapon Systems Acquisition Reform 
Act of 2009 (WSARA) tightened the standards for addressing such 
programs.
    What steps if any would you take, if confirmed, to address the out-
of-control cost growth on DOD's major defense acquisition programs?
    Answer. I believe the Department must continue to take steps such 
as those included in the Better Buying Power initiatives that Dr. 
Carter and I started. These initiatives are part of a process of 
continuous improvement in the acquisition system aimed at controlling 
costs in all acquisition activities, including major programs. First of 
all the Department's planning must be realistic and fully resourced. 
This means setting requirements that are affordable and achievable 
within the time and resources available. Affordability caps for both 
production and sustainment are now being applied early in program life 
cycles and their use must continue so that sound requirements trades 
are made as early as possible. In order to ensure more effective 
program execution, primarily by industry, acquisition strategies that 
emphasize sustaining a competitive environment and providing strong 
incentives to cost control must be implemented consistently. Continuous 
efforts to identify sources of cost reduction through ``should cost'' 
management should be used during all program phases. If confirmed, I 
will continue to implement these measures and work to identify 
additional steps that can be taken to control cost growth.
    Question. What steps if any do you believe that the Department 
should consider taking in the case of major defense acquisition 
programs that exceed the critical cost growth thresholds established in 
the ``Nunn-McCurdy'' provision?
    Answer. I believe DOD has full authority to take appropriate 
measures, including major restructuring or termination of poor 
performing programs. While terminations have rarely occurred in the 
past, one of my first acts as acting Under Secretary was to terminate 
the Joint Tactical Radio System Ground Mobile Radio program after a 
Nunn-McCurdy breach. I believe that the current budget environment will 
make it more likely that program terminations will occur after critical 
Nunn-McCurdy level cost breaches due to our overall affordability 
constraints. Also the Department will be more aggressive in taking 
action before Nunn-McCurdy thresholds are reached. As Principal Deputy 
USD(AT&L), I also instituted a practice of conducting Nunn-McCurdy-like 
reviews as soon as cost growth became apparent even if breaches had not 
occurred yet so that this mechanism is applied proactively instead of 
reactively. If confirmed, I will continue this practice.
    Question. Do you believe that the office of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, as currently 
structured, has the organization and resources necessary to effectively 
oversee the management of these major defense acquisition programs? If 
not, how would you address this problem?
    Answer. Yes.
    Question. Do you see the need for any changes to the Nunn-McCurdy 
provision, as revised by section 206?
    Answer. No.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced critical cost 
growth under Nunn-McCurdy?
    Answer. If confirmed, the five certification elements listed in the 
law will continue to guide me.
                      operating and support costs
    Question. The Department estimates that operating and support (O&S) 
costs account for up to 70 percent of the acquisition costs of major 
weapon systems. Section 832 of the NDAA for Fiscal Year 2012 requires 
the Department to take a series of steps to improve its processes for 
estimating, managing, and reducing such costs.
    What is the current status of the Department's efforts to implement 
the requirements of section 832?
    Answer. Several organizations within the Department, to include 
AT&L and the Cost Assessment and Program Evaluation Office (CAPE), are 
currently addressing implementation of the requirements outlined in 
Section 832. The section 832 requirements will be implemented in a 
major revision of the Department of Defense Instruction (DODI) 5000.02, 
which includes an extensive restructure of the document, as well as 
``Fact of Life Changes'' and the incorporation of other NDAA directed 
requirements, including those of sections 805, 815, and 837.
    Question. What steps remain to be taken to implement section 832, 
and what is the Department's schedule for taking these steps?
    Answer. The planned completion date for these efforts is December 
2012. If confirmed, I will supplement the update to DODI 5000.02 with 
guidance, training, mentorship and oversight. If confirmed, I would 
expect to gain insight into the effectiveness of these efforts through 
Defense Acquisition Executive Reviews and incorporate the lessons 
learned into future policy refinements.
    Question. What steps, if any, are needed to ensure that the 
requirements and acquisition communities fully and effectively 
collaborate to understand and control the O&S costs prior to and early 
in product development, when it is possible to have the most 
significant impact on those costs?
    Answer. The Department recognizes that alignment and partnership 
among the operational requirements, development, and sustainment 
communities are essential to optimizing warfighter operating and 
support strategies at a minimal cost. Identifying, maintaining and 
understanding program impacts to O&S costs are critical during a 
program's early requirements definition, and technology development 
phases, and remains a priority during the Weapon System's entire life 
cycle.
    I recently elevated the importance of Life Cycle Product Support by 
making the Life Cycle Sustainment Plan (LCSP) a stand-alone program 
management tool required for all programs prior to entering the 
Engineering & Manufacturing Development (EMD) Phase. The LCSP will 
capture the requirements for product support that include both 
Readiness and O&S cost objectives.
    Additionally, I am addressing the role/influence of reliability, 
availability, and maintainability (RAM) engineering during acquisition 
reviews. During the quarterly Defense Acquisition Executive Summary 
(DAES) assessments, I focus on reliability and availability as well as 
actual O&S cost performance against pre-determined objectives. These 
assessments act as a trigger for further in-depth reviews of programs 
between major milestones and during Post-IOC reviews.
    Operational energy costs are also an important target for O&S cost 
reduction. The Department recently published an operational energy 
strategy and implementation plan. If confirmed, I will work to ensure 
that this plan is successfully executed.
    If confirmed, I will continue to explore and implement these and 
other management tools to reduce support costs.
    Question. What additional steps, if any, do you believe the 
Department needs to take to bring O&S costs under control?
    Answer. I believe the Department should continue execution of the 
steps Dr. Carter and I put in place under the Better Buying Power 
initiatives and should seek other ways of controlling O&S costs. 
Specifically, if confirmed, I will continue and enforce the 
implementation of sustainment affordability constraints as programs 
conduct technology demonstration and enter engineering and 
manufacturing development. Sustainment cost constraints are intended to 
force programs to analyze sustainment costs and take steps to control 
them during product development, but these constraints must be 
enforced. If confirmed, I will ensure that this occurs.
    Under Better Buying Power, the Department also initiated a ``Should 
Cost'' management process that requires our managers to drive costs, 
including sustainment costs, down. Program Managers must develop clear 
cost objectives that are lower than the Independent Cost Estimate 
(ICE), or ``Will Cost,'' derived from historical data. These ``Should 
Cost'' targets are not arbitrary numbers. Rather, each target must be 
grounded in some form of a tangible, best practice and/or innovative 
business approach designed to improve upon historical performance.
    The Department also needs to continue the effort to align the 
incentives of the Government and its sustainment contractors to produce 
better results. If confirmed, I will continue to encourage use of 
Performance-Based Sustainment strategies to drive O&S costs down by 
providing competitive and financial incentives to both industry and 
Government. The data from the Department's use of performance-based 
sustainment demonstrates that properly structured and executed 
performance-based sustainment strategies produce better performance 
results at less cost than traditional, transactional sustainment 
approaches. Performance-based strategies can be applied to activities 
performed by both public and private sustainment providers.
    If confirmed, I will continue to explore and implement other 
management tools to reduce O&S costs.
                          systems engineering
    Question. One of the premises for WSARA was that the best way to 
improve acquisition outcomes is to place acquisition programs on a 
sounder footing from the outset by addressing program shortcomings in 
the early phases of the acquisition process. The Defense Science Board 
Task Force on Developmental Test and Evaluation reported in May 2008 
that ``the single most important step necessary'' to address high rates 
of failure on defense acquisition programs is ``to ensure programs are 
formulated to execute a viable systems engineering strategy from the 
beginning.''
    Do you believe that DOD has the systems engineering and 
developmental testing organizations, resources, and capabilities needed 
to ensure that there is a sound basis for key requirements, 
acquisition, and budget decisions on major defense acquisition 
programs?
    Answer. Since the passage of WSARA, the Department has worked to 
build the systems engineering expertise required for effective 
acquisition. While much progress has been made, the Department still 
has work to do in building its capacity for professional systems 
engineering. The Department has increased the numbers of system 
engineers, but the work force has a demographics issue with a senior 
workforce nearing retirement and a number of relatively inexperienced 
junior people who will need more experience to become proficient. If 
confirmed, I will continue to identify and implement creative measures 
to address this problem.
    Question. What is your assessment of the implementation to date of 
section 102 of WSARA, regarding systems engineering?
    Answer. I believe the Department has faithfully implemented section 
102 by establishing the Deputy Assistant Secretary of Defense for 
Developmental Test and the Deputy Assistant Secretary of Defense for 
Systems Engineering offices, by staffing these offices with highly 
qualified teams, and by providing guidance and oversight to the systems 
engineering capabilities in the Military Services.
    Question. What additional steps will you take, if confirmed, to 
implement this provision?
    Answer. If confirmed, I will work with the Service Acquisition 
Executives to ensure the effective implementation of recently approved 
systems engineering policy and guidance and the adequacy of the 
competency, capacity, and authority of the systems engineering 
workforce as critical components in support of successful acquisition 
system performance.
    Question. Do you believe that the Nation as a whole is producing 
enough systems engineers and designers and giving them sufficient 
experience working on engineering and design projects to ensure that 
DOD can access an experienced and technically trained systems 
engineering and design workforce? If not, what do you recommend should 
be done to address the shortfall?
    Answer. I am not satisfied that the Nation is currently producing 
enough systems engineers and engineers in other disciplines to meet the 
Department's complex engineering challenges. The Department has ongoing 
efforts to promote engineering education in kindergarten through 12th 
grade and college curricula, and, if confirmed, I will continue to 
support those efforts to promote engineering as an important field of 
study with our national educational system. I will also promote 
engineering excellence within the acquisition work force as a core 
value.
    Question. Last year, the chairman and ranking member of the Armed 
Services Committee expressed concern that the annual report to Congress 
by the Assistant Secretary of Defense for Systems Engineering (SE) and 
the Assistant Secretary of Defense for Developmental Testing failed to 
meet applicable statutory requirements.
    What steps will you take, if confirmed, to ensure that future 
reports on developmental testing and systems engineering fully comply 
with applicable statutory requirements?
    Answer. In response to the expressed concerns of the chairman and 
ranking member of the Armed Services Committee, the Department has 
increased the detail and extent of our reporting in the fiscal year 
2011 DT&E and SE Annual Report to Congress. If confirmed, this will 
continue to be a matter of priority for me.
                         technological maturity
    Question. Section 2366b of title 10, U.S.C., requires the Milestone 
Decision Authority for a major defense acquisition program to certify 
that critical technologies have reached an appropriate level of 
maturity before Milestone B approval.
    What steps if any will you take, if confirmed, to make sure that 
DOD complies with the requirements of section 2366b?
    Answer. If confirmed, as chair of the DAB and Milestone Decision 
Authority (MDA) for major defense acquisition programs, I will continue 
to use technology readiness assessments (TRAs) to ensure compliance 
with section 2366b. I am concerned however, that reliance on formal 
technology readiness levels (TRLs) has become a substitute for a deeper 
understanding of the state of risk prior to entering development. I 
commissioned a study of recent decisions to enter engineering and 
manufacturing development (EMD), which concluded that TRLs in many 
cases were not being used effectively to assess the risk of entering 
EMD. The TRL labels used in TRAs are a useful benchmark, but they alone 
are not enough.
    Question. What steps if any will you take to ensure that the 
Assistant Secretary of Defense for Research and Engineering (ASD(R&E)) 
is adequately staffed and resourced to support decisionmakers in 
complying with the requirements of section 2366b?
    Answer. If confirmed, I would continue to work with ASD(R&E) and 
other members of the OSD and Military Department staffs to ensure the 
adequacy of resources available to meet the challenges of complying 
with the requirements of section 2366b.
    Question. Are you satisfied that TRAs adequately address systems 
integration and engineering issues, which are the cause of many cost 
overruns and schedule delays in acquisition programs?
    Answer. I am not satisfied that TRAs are, by themselves, adequate 
for addressing systems integration and engineering risks. They are 
necessary but not fully sufficient to determine technical risk. A 
recent Department case study on technology development and prototyping 
found very little correlation between TRAs and program success in 
development. TRAs are, however, necessary for identifying and maturing 
the Critical Technology Elements enabling the key performance 
characteristics of advanced systems. They form an essential part of 
program managers' risk management strategies, planning, and execution. 
In May 2011, I directed the Department to revise its approach for 
conducting and independently verifying TRAs for Program Inception 
(Milestone B) in order to make program managers more responsible and 
accountable for understanding and managing program risks. It is too 
early to tell how effective these changes have been. If confirmed, I 
will continue to make improving risk management of technology, 
engineering, and integration risks a high priority.
    Question. Beyond addressing technological maturity issues in 
acquisition programs, what other steps should the Department take to 
increase accountability and discipline in the acquisition process?
    Answer. There are a great number of factors that contribute to the 
failure of programs to meet their cost, schedule, and performance 
objectives and many are associated with discipline and accountability. 
By instituting and enforcing affordability constraints on programs, I 
have begun to discipline the acquisition system to constrain 
requirements to affordable levels. Industry should also be held 
accountable for its performance, and I believe this is best 
accomplished through the incentives integrated into our contracts and 
through the actions taken when programs are not performing acceptably. 
Government institutional performance matters also, and I am beginning 
to implement new institutional performance measurement required by 
section 2548 of title 10, U.S.C. When this system is in place, it will 
allow the Department to compare institutional performance and identify 
best practices. If confirmed, I will aggressively continue this 
initiative. There are also perverse incentives in our budget execution 
system that encourages the workforce to obligate money, whether it 
makes sense to do so or not. The Department should not provide 
incentives that prioritize putting funds on contract over negotiating a 
contract that is in the Department and the American taxpayer's best 
interest. If confirmed, I will continue the effort to instill a culture 
of cost consciousness and stewardship of the taxpayer's dollars 
throughout the defense acquisition system. My emphasis is on taking 
steps to improve the quality and professionalism of the acquisition 
workforce that plans and manages the execution of the Department's 
programs. Program managers and other leaders who do not perform to 
standards have been removed from their positions, but I expect this to 
be infrequent. The Department (particularly the Military Departments) 
has the duty to ensure that the people entrusted with the 
responsibility for managing major programs have the qualifications and 
the professional development they need to assume this responsibility. 
If confirmed, I will continue to work to ensure that this is the case.
                          requirements process
    Question. What is your assessment of recent revisions made by the 
Vice Chairman of the Joint Chiefs of Staff to the Joint Capabilities 
and Integration Development System (JCIDS)?
    Answer. I believe these revisions will allow JCIDS execution to 
align more closely with the Department's new strategic guidance and to 
take account of cost and technological maturity factors. Additionally, 
I understand that the process makes permanent several important 
initiatives that enable more rapidly delivered and affordable 
capabilities to the warfighter. The updated policy addresses combatant 
commanders' Joint Urgent Operational Needs (JUONs) and Joint Emergent 
Operational Needs (JEONs), improving the Department's agility and 
efficiency in meeting the most urgent warfighter needs in current and 
future contingency operations. JROC review of analysis of alternatives 
results prior to Milestone A, and of Capabilities Development Documents 
(CDDs) prior to Milestone B, facilitate contracting activities before 
Technology Development and Engineering and Manufacturing Development 
acquisition phases. Lastly, new JCIDS limitations on length of Initial, 
Development, and Production Capability Documents reduce the often 
redundant administrative burden on program managers that has lengthened 
process timelines of systems acquisition and focuses the JROC on the 
most important requirements for a program.
    Question. In your view, has the JROC been effectively drawing and 
using input from the systems engineering, cost analysis and program 
planning, and budgeting communities as warranted, in its deliberations 
regarding requirements associated with major systems acquisitions?
    Answer. The updates to the JCIDS and JROC Charter place increased 
emphasis on how the JROC executes its responsibilities to consider 
cost, schedule, and performance of programs and identified 
alternatives. The AT&L staff has been working to help lay the 
groundwork for active collaboration among Joint Staff, Military 
Departments, combatant commanders (COCOMs), Cost Analysis and Program 
Evaluation (CAPE), and AT&L in analysis of how requirements 
alternatives drive cost, schedule, and performance. Some of these 
process changes are newly implemented, but I believe they provide a 
framework for success if effectively executed. I have also increased my 
personal participation in the JROC process in order to ensure that 
these considerations are taken into account during the deliberations 
over requirements. I believe this is having a significant impact. If 
confirmed, I will continue this practice.
                              concurrency
    Question. Some of the Department's largest and most troubled 
acquisition programs appear to have suffered significantly from 
excessive concurrency--the effort to produce a weapon system, even as 
it is still being designed.
    What impact do you believe that such excessive concurrency has on 
our efforts to produce major weapon systems on schedule and on budget?
    Answer. Excessive concurrency can drive cost growth and result in 
major schedule disruptions that produce further inefficiency. The 
acceptable degree of concurrency between development and production 
depends on a range of factors including the risk associated with the 
development phase, the urgency of the need, and the likely impact on 
cost and schedule of realizing that risk. A careful balance must be 
struck on every program, taking all these factors and others into 
account. If confirmed I will continue to work to ensure that balance is 
carefully assessed and properly managed.
    Question. What steps will you take, if confirmed, to address this 
issue?
    Answer. If confirmed, I intend to ensure that the risk/benefit of 
any given degree of concurrent production and development is carefully 
assessed before program plans are approved and before production 
decisions are made. I will ensure that major weapons systems program 
plans have clearly articulated and justified framing assumptions 
underlying concurrency risks and track progress against these 
assumptions. I will continue to require programs to reassess levels of 
planned concurrent production as necessary if these underlying 
assumptions change.
    Question. Under what circumstances, if any, do you believe that it 
is useful and appropriate to require prime contractors on major defense 
acquisition programs share in concurrency costs?
    Answer. In most circumstances, the Government will bear the bulk of 
concurrency risk. When the Government initiates production before 
development is complete, the Government can use cost plus contracts 
that cover concurrency risk or a fixed-price vehicle that excludes 
concurrency costs from the contracted deliverable. The first four lots 
of JSF, an example of an unusually highly concurrent program, used 
these approaches so that the government bore almost all concurrency 
costs. In general, I believe that industry should not be asked to bear 
excessive risk. At some point, however, the concurrency risk in a 
program should be reduced to the extent that industry can reasonably 
bear a portion or all of that risk, as is the case with JSF Lot 5. If 
industry is then unwilling to accept this risk as a reasonable part of 
doing business, then the risk may be too excessive to contract for 
continued production. In a well-structured program this situation 
should not occur.
    Question. In your view, would a requirement for such cost sharing 
reduce the likelihood of excessive concurrency in the development and 
production of major weapon systems?
    Answer. The Government usually controls the structure of the 
program and determines when to start production. If the concurrency 
risk is excessive, then the Government should usually wait until it is 
reduced before starting production. If the urgency of acquiring the 
product dictates accepting high concurrency risk, then in general the 
Government should bear it. Cost sharing arrangements do not change the 
existence of the risk, however if industry is unwilling to accept some 
concurrency risk as a condition of a production contract, this would be 
an indication that the risk may still be high.
                          joint strike fighter
    Question. You were recently quoted as saying that it was 
``acquisition malpractice'' to place the Joint Strike Fighter into 
production years before the first flight test.
    Does this quote accurately reflect your views?
    Answer. Yes. The context of this remark was specifically in 
reference to the decision made to enter into production of the Joint 
Strike Fighter prior to the initiation of flight test. This decision 
was a clear departure from well-established principles of sound program 
management. It is important to note that this judgment does not extend 
to the JSF program as a whole. The Department remains committed to the 
JSF program and I believe the program, if appropriately managed, will 
allow the Department to acquire a critical capability at an acceptable 
cost. My comment was also not an indictment of any individual, but of 
the systemic problem of allowing optimism and the presence of funding 
in the budget to over-rule sound program management practices.
    Question. What steps if any do you believe that we can take now to 
address any problems or deficiencies that may have developed as a 
result of excessive concurrency on the Joint Strike Fighter program?
    Answer. I believe that the Department has taken appropriate steps 
to address concurrency risk on the F-35 program by maintaining 
production at a fixed rate for the next 2 years as the design 
stabilizes and is validated by flight testing. The most recently 
awarded production contract is structured to ensure Lockheed Martin 
shares the cost of concurrency risk and incentivizes Lockheed Martin to 
quickly identify and implement solutions to deficiencies identified 
during testing. If confirmed, I will continue to evaluate concurrency 
risk to ensure that there is a prudent balance between concurrency risk 
and efficient production.
    Question. What steps if any do you believe we should take to avoid 
similar problems in future acquisition programs?
    Answer. It is my understanding that the level of concurrency in the 
JSF program was established based on an expectation that our modeling 
and simulation capabilities would allow us to reduce the amount of 
discovery in flight test compared to our historical experience with 
similar programs. This assumption proved unrealistic, and I believe our 
experience on the JSF program should lead us to pursue acquisition 
strategies based on sounder program management practices. There is a 
bias toward optimism in our program planning that needs to be 
counteracted by experienced professional leadership. This can be a 
difficult balance, however as too much risk aversion can also lead to 
problems including extended schedules and increased cost in programs.
    Question. The Department recently completed a special ``quick 
look'' study on the progress of the Joint Strike Fighter program.
    What is your understanding of the key findings of the ``quick 
look'' study?
    Answer. I chartered the F-35 Quick-Look Review to determine if 
there was sufficient confidence in the stability of the basic F-35 
design to justify additional concurrent procurement. The review team, 
comprised of technical and program management experts from the AT&L 
staff, did not find any fundamental design risks sufficient to preclude 
further production. The team did identify several sources of design 
risk that warranted reexamining production plans and carefully 
monitoring of program progress going forward.
    Question. What steps if any do you believe the Department should 
take on the Joint Strike Fighter program to address the findings of the 
study?
    Answer. The Department has already taken the appropriate steps to 
address the findings of this study. Maintaining production at lower 
than planned rates as the design stabilizes and is validated by 
developmental flight testing avoids excessive concurrency costs. There 
are now financial incentives to Lockheed Martin to rapidly identify 
effective solutions to design discrepancies discovered during flight 
test and to shorten the timelines for implementation of needed changes 
during production. The Department is moving to an event-based 
relationship between production and progress on the development 
program. If confirmed, I will continue to monitor the program closely 
and will intervene if the program does not execute to plan.
    Question. What lessons from this study, if any, do you believe that 
the Department should learn and apply to other programs?
    Answer. The Department learned that while engineering design tools 
have advanced remarkably in the information age, they have not replaced 
the need for careful developmental testing of complex military systems. 
Authorizing production before sufficient progress had been made in 
flight-testing to provide confidence in the design incurred excessive 
concurrency risk for the program as design deficiencies were identified 
after production aircraft had been ordered and delivered. A more 
general lesson, and a systemic problem, is the bias toward spending 
appropriated funds whether it is a sound management and business 
decision to do so or not.
    Question. Do you believe that the ``quick look'' approach is a 
model that should be repeated for other programs, or should the 
Department's established processes be sufficient to identify problems 
and opportunities in ongoing programs without the need for such special 
reviews?
    Answer. Yes, I believe the Quick-Look approach can and should be 
repeated on other programs. The F-35 Quick-Look Review relied on the 
technical expertise and engineering judgment of the Deputy Assistant 
Secretary of Defense (DASD) for Systems Engineering, the DASD for 
Developmental Test and Evaluation, and the Director for Strategic and 
Tactical Systems, supplemented by other subject-matter experts from the 
Service Technical Centers and the OSD staff. Their programmatic 
expertise and authority on the F-35 program derived directly from their 
oversight roles within the Department's established processes. Although 
the Department frequently requests technical advice and assistance from 
external subject matter experts, conducting timely, focused internal 
reviews of critical acquisition issues does provide the Department a 
valuable tool for responsively analyzing and resolving rapidly emerging 
programmatic issues. I do not regard this mechanism as a deviation from 
established processes, but as an adjunct to those processes. It was 
triggered in part by a report from the Director of Operational Test and 
Evaluation, which was a part of the Department's normal processes.
                       fixed price-type contracts
    Question. Recent congressional and DOD initiatives attempt to 
reduce technical and performance risks associated with developing and 
producing major defense acquisition programs so as to minimize the use 
of cost-reimbursable contracts.
    Do you think that the Department should move towards more fixed 
price-type contracting in developing or procuring major defense 
acquisition programs? Why or why not?
    Answer. While I think greater use of fixed-price vehicles, 
particularly in early production, is warranted, I do not believe that 
the Department should be restricted in the available contract types 
because of the wide variety of situations faced by the Department. In 
general, I believe that the move to increased use of fixed-price 
contracting that Dr. Carter and I initiated in the Better Buying Power 
initiatives was a sound decision. Increased use of fixed price 
incentive fee contracting in early production has particularly high 
potential to improve outcomes. I am less enthusiastic about fixed price 
development because of my experiences with this approach in the late 
1980s and early 1990s. Nevertheless, there are instances when fixed 
price development is the best approach. The AF tanker program is a good 
example. In this case the guidelines I would use for fixed price 
development were all present: (1) the requirements were firm; (2) the 
technical risk was low; (3) the expected bidders had the expertise and 
experience to bid rationally and to execute successfully; (4) the 
expected bidders had the financial capacity to absorb any reasonable 
overruns; and (5) they had a business case that would motivate them to 
do so. If any of these elements were not present, I would seriously 
consider whether a cost plus development approach was the best option. 
Many of our development programs do entail cost risk that may exceed 
industry's capacity and willingness to absorb losses. In many cases, 
the Department is reaching for unprecedented levels of performance in 
advanced designs. No amount of risk reduction can completely remove all 
the risk from next generation designs and the government may need 
flexibility to work closely with the contractor to adjust requirements 
as knowledge increases during development. In some cases, operational 
urgency makes long risk reduction programs prior to development for 
production unacceptable. The bottom-line is that there is a range of 
contract types for good reasons.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the Department to use a cost-type contract for the 
production of a major weapon system?
    Answer. I believe those circumstances should be limited, but they 
will sometimes occur. For the production of a major weapon system, I 
would consider a cost type contract in those circumstances where the 
system design and/or the state of production has not yet matured to the 
point where reliable cost outcomes can be projected. This situation can 
occur, for example, in production of new design first articles in 
commodities like satellites and ships. It can also occur when there is 
great schedule urgency, due to an operational situation or an 
intelligence surprise, which precludes taking time for risk reduction 
and design maturation. In these cases, higher degrees of risk and 
concurrency are warranted with concomitant risk in production costs and 
even feasibility that it may not be reasonable to ask industry to 
assume. Most production, certainly the production beyond low rate 
initial production, should be contracted for on a fixed price basis. I 
have continued to support the emphasis that Dr. Carter and I placed on 
the use of fixed price incentive fee contracts during low rate 
production. These vehicles cap the government's liability, while 
allowing some flexibility for cost uncertainty and providing a strong 
incentive for industry to control costs. They also provide the 
government with good visibility into contractor actual costs.
    Question. In a recent presentation at the Center for Strategic and 
International Studies, you were quoted as stating that ``The data says 
it doesn't make much difference'' whether the Department uses fixed-
price or cost-plus contracts for low-rate initial production contracts.
    Does this quote accurately reflect your views?
    Answer. I was not expressing a view. The quote reflects what the 
data suggests. The data is incomplete and needs greater study. I was 
making the point that our acquisition policies need to be data driven 
whenever possible, not just intuitive. I have seen several swings of 
the pendulum with regard to perceived best practices in acquisition. 
Usually the current conventional wisdom is based more on intuition and 
what seems to have not worked recently, than on an analysis of the 
historic data on program outcomes.
    Question. What data were you relying on in making this statement?
    Answer. This statement was based on an examination of earned-value 
data on the actual performance of 440 historical, large, early-stage 
production contracts for Major Defense Acquisition Programs (MDAPs). 
These data were reported between January 1970 and December 2011. They 
are available in the Defense Acquisition Management Information 
Retrieval system (DAMIR) and its predecessor, the Consolidated 
Acquisition Reporting System (CARS).
    Question. What conclusions if any have you reached about the way 
the Department should contract for low-rate initial production of major 
weapon systems?
    Answer. No single contract type works best in all cases for low-
rate initial production of major weapon systems and each situation has 
to be carefully evaluated to determine the best approach for that 
situation. In cases where risk has not been or cannot be adequately 
reduced (due to urgency or the technical feasibility of reducing risk 
without building a production asset) a cost plus vehicle may be 
appropriate. A fixed-price incentive firm (FPIF) or cost-reimbursable 
contract may also be appropriate when the incentive structure is 
properly designed and tied to desired performance over the anticipated 
risk range. Alternatively, firm-fixed price (FFP) contracts may be 
appropriate for low-rate initial production in cases where there is 
little risk and the production processes and costs are well understood.
                         technology transition
    Question. The Department continues to struggle with the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms. Further, the Department also has struggled with 
moving technologies from DOD programs or other sources rapidly into the 
hands of operational users.
    What impediments to technology transition do you see within the 
Department?
    Answer. The impediments I see include the formality and rigidity 
associated with Programs of Record, inflexibility in the requirements 
process, the length of time it takes to obtain programmed funds, the 
difficulties associated with reprogramming funds, and the difficulties 
small businesses and non-defense companies have in doing business under 
Federal Acquisition Regulation they may not be familiar with.
    Question. What steps if any will you take, if confirmed, to enhance 
the effectiveness of technology transition efforts?
    Answer. There are a number of activities under way in the 
Department to enhance the effectiveness of technology transition. If 
confirmed I will continue to support these initiatives and look for 
other opportunities to enhance technology transition. The rapid 
acquisition programs that the Department has initiated to support 
ongoing operations have been very successful at acquiring new 
technologies and fielding them quickly. The Department needs to 
institutionalize this process so that future urgent needs can also be 
met effectively. DOD is in the process of expanding the rapid 
acquisition of Joint Urgent Operational Needs from primarily off the 
shelf technology to those that require some limited development time 
and may not be directly associated with ongoing operations. The 
Department is expanding it's out-reach to small businesses, including, 
with Congress' support, reinvigorating the mentor protege program which 
aligns traditional defense firms with small businesses trying to break 
into the defense markets. Under the Better Buying Power initiatives, 
the Department has taken steps to improve communication between 
government and industry about both government funded R&D priorities and 
company funded internal research and development (IR&D). The Army has 
initiated a program that allows firms to demonstrate their networking 
technologies and qualify for competitive awards. The Air Force is 
taking steps to allow advanced technology space launch firms to compete 
with traditional firms. All the Services are emphasizing open systems 
and open architectures as a means of permitting new technologies to be 
inserted into existing programs. These are just examples of the types 
of steps the Department needs to take to improve technology transition.
    Question. What can be done from a budget, policy, and 
organizational standpoint to facilitate the transition of technologies 
from science and technology programs and other sources, including small 
businesses, venture capital funded companies, and other non-traditional 
defense contractors, into acquisition programs?
    Answer. I believe that it is important that the Department tap into 
as great a range of sources of technology as possible. This includes 
commercial technology, small business, and traditional defense 
companies. By adopting open standards that keep pace with technology, 
the Department can tap into commercial technology, particularly in 
information systems. Small businesses, including non-traditional 
defense contractors are a critical source of innovation. Initiatives to 
increase small business participation in defense programs include 
reinvigorating the mentor protege program; lowering barriers to 
participation in the Small Business Innovation Research program such as 
restrictions on venture capital ownership; and expansion of some small 
business size restrictions. The Department has increased its efforts to 
stimulate and leverage independent research and development (IR&D) with 
new practices to improve communication with industry on Department 
priorities and ensuring Department science and technology and 
acquisition program managers are aware of the technology developments 
in IR&D projects. If confirmed, I will continue and expand the 
Departments efforts to reach out to and support all of these sources of 
technology and find ways to reduce barriers to entry for the sources of 
new technology.
    Where Congress has seen fit to provide funds for innovation beyond 
the level that the Department requested, the Department has acted 
promptly to execute those funds and if confirmed I will continue that 
practice. For example, the Ike Skelton NDAA for Fiscal Year 2012 and 
the Fiscal Year 2011 Defense Appropriations Act included provisions for 
the establishment of the Defense Research and Development Rapid 
Innovation Fund (RIF). This program emphasizes rapid, responsive 
acquisition and engagement of small, innovative businesses in solving 
defense problems using a fully merit-based, competitive proposal 
process. The Department is in the process of awarding the initial 
contracts under the Rapid Innovation Fund.
    Our Office of Small Business Programs is also working with the 
Small Business Administration to implement the fiscal year 2012 
reauthorization of the Small Business Innovation Research (SBIR) and 
Small Business Technology Transfer programs. Two provisions within this 
reauthorization will facilitate transition of technology. The first is 
the Commercialization Readiness Program for DOD that directs DOD to 
establish goals for increasing transition of SBIR developed technology 
into fielded programs or programs of record, and provides for the use 
of incentives for program managers and prime contractors to meet these 
goals. The second is the provision to allow limited participation by 
small business firms that are owned in majority part by multiple 
venture operating companies, hedge funds or private equity firms. This 
action is intended to induce additional venture capital, hedge fund, or 
private equity firm funding of small business innovation.
    Question. Do you believe that the Department's science and 
technology organizations have the ability and the resources to carry 
technologies to higher levels of maturity before handing them off to 
acquisition programs?
    Answer. In general, I believe that the Department's S&T (Budget 
Activities 1-3) organizations collectively have the ability and 
adequate resources to carry technologies forward to the pre-production 
prototyping stage at Budget Activity 4, which may or may not be a 
formal acquisition program. Technological superiority underpins the 
Department's strategy and if confirmed, I will continue to monitor the 
balance of S&T and R&D investments to ensure a proper balance and that 
the S&T activities have adequate capacity and resources.
    Question. What steps if any do you believe the Department should 
take to ensure that research programs are sufficiently funded to reduce 
technical risk in programs so that technological maturity can be 
demonstrated at the appropriate time?
    Answer. As I have stated in previous testimony, I believe 
technologies (that are necessary or desirable to meet proposed 
acquisition program needs) should be identified early and that specific 
maturation programs should be defined and agreed to by the S&T and 
development communities. Technology maturation programs should also be 
collaboratively managed. Within specific programs, this is based in 
part on the Technology Readiness Assessment (TRA) process, which 
assesses the technological maturity of critical technology elements 
enabling systems performance, and the program manager's technology 
maturation strategies. The Milestone decision process ensures these 
strategies are adequately funded and determines exit criteria for 
demonstrating technical progress before the commitment to investments 
in development or production.
    Question. What role do you believe Technology Readiness Levels and 
Manufacturing Readiness Levels should play in the Department's efforts 
to enhance effective technology transition and reduce cost and risk in 
acquisition programs?
    Answer. Technology and Manufacturing Readiness Levels (TRLs and 
MRLs) are tools for gauging the maturity of technologies that might be 
adopted by an acquisition program to meet cost or performance goals or 
to achieve desired production capabilities. They provide an indicator 
of the degree of risk remaining in a program. I believe they are 
valuable benchmarks against which to assess program risk, but I also 
believe that TRLs and MRLs alone are not conclusive about whether a 
program should proceed to development and production or not. One has to 
look behind these labels to understand the actual risk associated with 
a technology and the steps that could be taken to mitigate that risk. 
If confirmed, I will continue to use TRLs and MRLs, but I will also 
continue to insist on thorough professional assessments of risk that go 
beyond the use of these benchmarks.
    Question. Section 253 of the NDAA for Fiscal Year 2009 required the 
Department to report to Congress by no later than October 1, 2009, on 
the feasibility and advisability of various approaches to technology 
transition. The Department has not yet complied with this requirement.
    When can the committee expect to receive the report required by 
section 209?
    Answer. It will be delivered by April 6, 2012.
    Question. Section 1073 of the NDAA for Fiscal Year 2011 established 
a competitive, merit-based rapid innovation fund to accelerate the 
fielding of technologies developed pursuant to SBIR projects, 
technologies developed by the defense laboratories, and other 
innovative technologies.
    What is your view of the rapid innovation fund established by 
section 1073?
    Answer. In September 2011, the Department issued solicitations for 
Rapid Innovation Fund (RIF) proposals and received over 3,500 
responses. I anticipate that approximately 160-180 of the responses 
will receive contract awards. My view is it is too early to determine 
the RIF's overall impact. Our implementation processes were successful 
in obtaining proposals, primarily from small businesses. However, 
contract awards should not be the sole criteria for success. I believe 
it will take at least 2 or 3 years before one can objectively assess 
the effectiveness of RIF in achieving the goal of accelerating the 
transition of innovative capabilities into Department programs.
    Question. What is your understanding of the Department's plans for 
the funds previously authorized and appropriated to the fund, but not 
yet expended?
    Answer. The fiscal year 2011 program value for the RIF is $496.1 
million of which $436.4 million are RDT&E funds, and $59.7 million are 
procurement funds. My understanding is that the Department is on track 
to obligate all of the $436.4 million RDT&E funds prior to September 
30, 2012 for contract awards to proposals.
        unrealistic cost, schedule, and performance expectations
    Question. Many acquisition experts attribute the failure of DOD 
acquisition programs to a cultural bias that routinely produces overly 
optimistic cost and schedule estimates and unrealistic performance 
expectations. Section 201 of WSARA seeks to address this problem by 
promoting early consideration of trade-offs among cost, schedule, and 
performance objectives in major defense acquisition programs.
    Do you believe that early communication between the acquisition, 
budget and requirements communities in DOD can help ensure more 
realistic cost, schedule, and performance expectations?
    Answer. Yes.
    Question. If so, what steps if any would you take, if confirmed, to 
ensure such communication?
    Answer. I have, and if confirmed will continue to stress the need 
for earlier communication among the requirements, budget and 
acquisition communities to enable more informed decisions on cost, 
schedule, and performance trades from the beginning of requirements 
development throughout the acquisition lifecycle. If confirmed, I will 
continue to take steps to forge closer ties between military needs and 
acquisition solution development in the services and in the Department 
overall. I regularly participate in the JROC where cost-informed and 
technologically sound decisions can yield savings in time and resources 
for acquisition programs. I have directed AT&L staff elements to engage 
with the Joint Staff early in the process of validating joint 
requirements to assist with assessment of candidate needs against 
existing capability portfolios. I strongly support Configuration 
Steering Boards and other forums in which requirements, budgeting, and 
acquisition communities work together to reach better solutions to our 
warfighters needs.
    Question. DOD has increasingly turned to incremental acquisition 
and spiral development approaches in an effort to make cost, schedule, 
and performance expectations more realistic and achievable.
    Do you believe that incremental acquisition and spiral development 
can help improve the performance of the Department's major acquisition 
programs?
    Answer. Yes. While not a silver bullet, incremental development can 
play a significant role in the development of major acquisition 
programs. The Department applies the term ``incremental'' to both the 
incremental and spiral acquisition approaches. In particular, an 
incremental approach could be the right strategy when the program 
manager is faced with an evolving requirement, an evolving threat, or 
where an investment in an immature technology is needed to achieve a 
longer-term advantage. In this last case, fielding a capable, call it 
an ``80 percent solution'' now, with an eye to incorporating the new 
technology when it is ready later, is a good strategy. In all these 
instances, getting a capability into the warfighters' hands sooner, 
then upgrading to a more capable system can be a smart business 
approach, and better serve our troops.
    Question. What risks do you see in the Department's use of 
incremental acquisition and spiral development?
    Answer. If implemented correctly, there is little additional 
technical risk to using an incremental strategy. There are upfront 
costs associated with an open design that can accommodate incremental 
upgrades. Part of the trade off for lowering the initial technical risk 
is the necessity in such a strategy to incorporate an intentional plan 
that allows for upgrading early deliveries to the final configuration 
or cutting changes into the production line. The additional cost and 
complexity for these upgrades is an important consideration that must 
be factored into the overall plan for an incremental approach. Smart 
use of open architecture and commercial standards, careful management 
of intellectual property rights, and well defined form, fit, and 
function interfaces are important to being able to upgrade systems more 
easily at a reasonable cost.
    Question. In your view, has the Department's approach to 
incremental acquisition and spiral development been successful? Why or 
why not?
    Answer. The department applies the term ``incremental'' to both the 
incremental and spiral acquisition approaches. The Department's success 
has been mixed. I believe the Department has been more successful in 
producing open designs that can accommodate uncertain new technology 
than in preplanned future spirals. Success depends upon the degree of 
technical risk or requirements instability and whether the program 
management and oversight structures are responsive to the needs of 
these strategies. No approach to acquisition is right for all 
circumstances but incremental acquisition strategies that enable 
multiple block upgrades can provide the Department with a useful 
flexibility and efficient improvements in capability.
    Question. What steps if any do you believe are needed to ensure 
that the requirements process, budget process, and testing regime can 
accommodate incremental acquisition and spiral development approaches?
    Answer. I do not believe that additional steps are required. Under 
our current acquisition policy, each increment of capability requires 
approved/achievable requirements, full funding for the increment and a 
test plan designed to assess the capability the increment is expected 
to provide. Affordability constraints are being implemented, and I 
believe that these constraints will discipline the requirements process 
to realistic initial capabilities that may be improved in future 
increments. In short, the Department's policies are designed to support 
an incremental acquisition approach in those cases where it is the most 
appropriate strategy.
    Question. How should the Department ensure that the incremental 
acquisition and spiral development programs have appropriate baselines 
against which to measure performance?
    Answer. Current department acquisition policy requires each program 
increment to have an Acquisition Program Baseline (APB) that specifies 
the cost, schedule, and performance against which the program increment 
will be measured. The APB is approved by the Milestone Decision 
Authority (MDA) and cannot be altered without MDA approval. In a multi-
increment program, each increment must have its own MDA-approved 
baseline.
                      major shipbuilding programs
    Question. Recent estimates indicate that the new nuclear-powered 
aircraft carrier Gerald R. Ford (CVN-78) will cost over $12 billion, 
exceeding the legislatively-imposed cost-cap by as much as a $500 
million. It appears that cost growth in this ship is attributable to, 
among other things, inaccurate assumptions in the cost of materials 
made when much of the ship's design was immature and unforeseen labor 
issues encountered with new design features.
    How confident are you that the Navy can effectively control the 
cost to build the CVN-78 in particular and other major shipbuilding 
programs in general?
    Answer. The Navy has worked aggressively with the contractor to get 
CVN-78 costs under control. I believe the Navy currently has a solid 
understanding of CVN-78 costs; however, the Navy will not be able to 
complete the ship within the cost cap. Although there has been 
substantial cost growth, there are reasons to be hopeful that costs are 
now under control:

        <bullet> The ship design is now more than 90 percent complete 
        and the design is fully on contract;
        <bullet> Shipbuilder cost performance on current work is 
        improving;
        <bullet> Material cost estimates are mature; and
        <bullet> The Navy is implementing should cost targets 
        throughout the supply chain including for government furnished 
        material.

    In general, I see activities in the Navy that focus on cost-
consciousness at all levels, government and industry, including major 
shipbuilding programs.
    Question. What do you see as the major factors contributing to the 
Navy's continuing difficulty in effectively managing the cost of 
building its largest ships?
    Answer. At this point, I see the following three major factors 
contributing to cost growth:

        <bullet> CVN-78 is a lead ship, and as a consequence, there was 
        greater uncertainty about cost than with established programs;
        <bullet> CVN-78 had an incomplete design at contract award; and
        <bullet> The program involved concurrent development of major 
        ship systems such as the Electromagnetic Aircraft Launching 
        System, the Advanced Arresting Gear, and the Dual Band Radar.

    In summary, the scope and complexity of the program were 
underestimated.
    Question. What steps will you take, if confirmed, to address these 
causal factors?
    Answer. For CVN-78 and follow-on Ford-class ships, achieving full 
design maturity for the ship and its major systems is the key to 
addressing the causal factors of cost growth. In addition, aggressive 
should cost management of the ship and subsystem contracts is required 
to identify and eliminate unnecessary cost in the transition to follow-
on ships.
                   funding and requirements stability
    Question. The poor performance of major defense acquisition 
programs has also been attributed to instability in funding and 
requirements. In the past, DOD has attempted to provide greater funding 
stability through the use of multiyear contracts. More recently, the 
Department has sought greater requirements stability by instituting 
Configuration Steering Boards to exercise control over any changes to 
requirements that would increase program costs.
    Do you support the use of Configuration Steering Boards to increase 
requirements stability on major defense acquisition programs?
    Answer. I support activities such as Configuration Steering Boards 
that provide Service leadership a forum to review proposed changes to 
program requirements or system configuration and preclude adverse 
impact on program cost and/or schedule. Configuration Steering Boards 
are entirely consistent with the Better Buying Power initiatives that 
seek to target affordability and control cost growth. If confirmed, I 
will continue to emphasize the importance of Configuration Steering 
Boards and ensure they are contributing to requirements stability and 
cost control as intended.
    Question. What other steps if any would you recommend taking to 
increase the funding and requirements stability of major defense 
acquisition programs?
    Answer. I believe that it is incumbent on the acquisition community 
to work with the requirements and resource communities to ensure 
programs have clear, achievable requirements and realistic funding 
profiles. The acquisition community must bring its technical expertise 
to the discussion of requirements and funding throughout the 
acquisition progress to enable requirements and funding profiles that 
are inherently stable because they are realistic and affordable.
                        time-certain development
    Question. The Defense Acquisition Performance Assessment (DAPA) 
panel recommended in 2006 that the Department set fixed durations for 
program phases, including a requirement for the delivery of the first 
unit of a major weapon system to operational forces within 6 years of 
the Milestone A decision. The DAPA panel believed that durations for 
program phases could be limited by ensuring appropriate levels of 
technological maturity, defined risk-reduction horizons, and program 
execution criteria, while allowing for the use of spiral development or 
block upgrades for enhancements in capability or increased requirements 
over time. Proponents of this approach, called time-certain 
development, have highlighted its potential for helping ensure that 
evolutionary (or knowledge-based) acquisition strategies are used to 
develop major systems by forcing more manageable commitments to 
discrete increments of capability and stabilize funding by making costs 
and schedules more predictable.
    What is your view of the DAPA panel's recommendation?
    Answer. The DAPA panel identified several key ways to improve the 
DOD acquisition process. Many of these findings--knowledge based 
acquisition, reducing non-value added oversight, improving coordination 
with the requirements process - have been incorporated into the Better 
Buying Power initiatives put in place in 2010. The Department is seeing 
positive results from these efforts.
    Question. What is your view of time-certain development as an 
acquisition strategy for major weapons systems development programs?
    Answer. Time really is money, and prolonged extended development 
schedules that span multiple technology refresh cycles are inherently 
inefficient. This is not a silver bullet, however, and I believe 
placing arbitrary time limits on programs as a general approach would 
not be a smart strategy. I have worked, and if confirmed would continue 
to work to establish realistic program timelines and make sure thorough 
planning has been done upfront. Where it makes sense, I have also 
continued to emphasize the need to deliver the ``80 percent solution'' 
to the warfighter more quickly in less-risky and more cost effective 
ways, using an approach based on open systems and open architectures to 
meet the evolving requirements over time. In the more general case, 
program managers who do good up-front planning have a thorough 
understanding of the requirements, the technology, and industry 
capability can create an acquisition strategy that is both achievable 
in a reasonable time and affordable. The idea behind time-certain 
development programs is to force programs to adopt proven, lower-risk 
technologies, shorter engineering development, and less replanning and 
rework after a program starts. Sometimes this is the right approach. 
The purpose of a program, however, is to deliver a fielded capability 
that meets the user's needs. The best way to control program duration 
is to control the requirements, both initially and over the development 
cycle. If confirmed, I will continue to work closely with the 
requirements community, particularly the JROC, to ensure that 
requirements can be met in a reasonable time, are technically feasible, 
and are affordable.
    Question. What steps if any would you take, if confirmed, to 
implement time-certain development strategies in the future acquisition 
programs?
    Answer. I agree that program duration should be controlled, but the 
best approach to doing so is to limit requirements to those that can be 
achieved in a reasonable timeframe, where this makes sense. Once 
requirements are set, a development program should be structured to be 
as efficient as possible in preparing the product that meets those 
requirements to enter production. The emphasis during development 
should also be on controlling the costs of production and sustainment, 
which are the real drivers of most program's life cycle costs. Software 
intensive programs including business systems, command and control 
systems, and large scale embedded software programs for weapons systems 
should be structured in relatively short (nominally 1 year) increments 
as a way of forcing detailed planning, manageable work packages, and 
disciplined development.
                   military space procurement policy
    Question. DOD, the Intelligence Community, NASA, and other 
Government agencies rely on commercial domestic launch service 
providers to place spacecraft and satellites into and beyond orbit. The 
Government plans to spend at least $15 billion on launch services from 
fiscal year 2013 through 2017, and launch costs are expected to rise. 
The Department is in the midst of implementing a revised launch vehicle 
acquisition strategy.
    What steps do you believe the Department should take to:
    Answer.

    a.  Keep launch costs from continuing to spiral upwards?

    I believe that introducing more competition for launch as soon as 
feasible is the key to controlling launch costs. The Air Force is 
taking steps to determine and understand the root causes behind the 
upward spiral of costs and to attack the high overhead costs the 
Department is currently paying. The current efforts take the form of a 
dual prong approach that: (1) implements a block-buy acquisition 
strategy to purchase economic order quantities; and (2) provides a path 
to qualification of new entrants into the National Security Space (NSS) 
launch market. As required in the 2012 NDAA, I have acted to reinstate 
the evolved expendable launch vehicle (EELV) as a major defense 
acquisition program (MDAP) not in sustainment so that there will be 
greater visibility into the programs status. If confirmed I will work 
with the Air Force to ensure that reduction of launch costs is a high 
priority and that these initiatives are carried out.

    b.  Introduce new entrants, where they are available, to the launch 
industry while maintaining the Nation's unprecedented high level of 
launch successes?

    Competition will be a key component to reducing and promoting 
reduced launch costs and the key to creating competition is allowing 
new entrants into the market without sacrificing safety and 
reliability. Implementing the recently developed AF-NRO-NASA 
coordinated strategy for certifying new entrants and the subsequent AF 
New Entrant Certification Guide, which provides a risk-managed approach 
for introducing new-entrant launch companies to the NSS market for 
EELV-class missions, are important next steps. However, throughout the 
process of introducing new entrants, the Department can not sacrifice 
safety and must continue to maintain mission success rates.

    c.  Enable the U.S. launch industry to be more competitive on the 
world market?

    I believe several steps could be taken to promote U.S. competition 
in the world market. First, there is a need to consider possible 
reclassification of selected launch capabilities under the 
International Trafficking in Arms Regulation (ITAR). The Department 
should also explore developing and implementing policy to make it 
easier for commercial space enterprises to use DOD launch bases/ranges 
for commercial missions. This would make domestic launch providers more 
competitive commercially, because they would be able to employ existing 
capital infrastructure at our DOD launch facilities and ranges. Of 
course, this would require the Department to determine ways for these 
commercial companies to pay their fair share of the cost of 
modernizing, operating, and maintaining these facilities. Such a 
partnership could be a win-win situation, but would have to be designed 
and executed on a non-interference basis with national security 
missions.
    Question. GAO has found that there is a continuing, severe 
disconnect between satellite development programs and the development 
of ground control systems and receivers. For example, new Global 
Positioning System (GPS) satellites are expected to be in orbit nearly 
a decade without the ships, aircraft, and other weapon systems being 
able to take full advantage of them. Given that some satellites now 
cost well over $1 billion each to develop and launch, the implications 
of insufficiently aligning the Department's space and ground 
requirements are very significant.
    Do you agree with GAO's assessment of this issue?
    Answer. I agree with the GAO that there are timing disconnects in 
some of our space acquisitions between the satellites, ground control, 
and user equipment.
    Question. What steps if any would you take, if confirmed, to 
address this disconnect?
    Answer. Most of the situations the Department faces today with 
satellite, ground control, and user system disconnects leave the 
Department with little flexibility. These situations came about largely 
because one element of the system was delayed due to technical 
difficulties or funding shortfalls and got out of synchronization with 
the others. Disconnects can occur with any of the system elements, but 
the most frequent situation is for satellites to be ready before user 
equipment is ready. This problem exists with the mobile user objective 
system (MUOS) and the family of advanced beyond line-of-sight terminals 
(FAB-T), and with GPS III, depending on how the user equipment 
progresses. The only solution to the problem is to set up realistic 
coordinated schedules at the outset, design in as much flexibility as 
possible, and then monitor progress closely and make adjustments early 
before the disconnects grow out of control. For the programs that are 
well under way and in which these disconnects already exist, I have 
taken action on a case-by-case basis to address the situation. On MUOS, 
I have worked with industry and the two program offices involved (JTRS 
and MUOS) to achieve improved execution performance. I have insisted on 
a single end-to-end lead, the Navy, for the entire MUOS effort and the 
integrated Navy/JTRS team is being assessed on a regular basis to 
insure the product set and delivery time are optimized. For FAB-T, I 
have directed the initiation of an alternative source for the most 
critical terminals. I am reviewing the three GPS program segments as an 
enterprise with all three segments, GPS III, OCX, and MGUE being 
addressed simultaneously. If confirmed, I will continue these practices 
and work to anticipate any emerging disconnects and address them as 
early as possible.
                          multiyear contracts
    Question. The statement of managers accompanying section 811 of the 
NDAA for Fiscal Year 2008 addresses the requirements for buying major 
defense systems under multiyear contracts as follows: ``The conferees 
agree that `substantial savings' under section 2306b(a)(1) of title 10, 
U.S.C., means savings that exceed 10 percent of the total costs of 
carrying out the program through annual contracts, except that 
multiyear contracts for major systems providing savings estimated at 
less than 10 percent should only be considered if the Department 
presents an exceptionally strong case that the proposal meets the other 
requirements of section 2306b(a), as amended. The conferees agree with 
a Government Accountability Office finding that any major system that 
is at the end of its production line is unlikely to meet these 
standards and therefore would be a poor candidate for a multiyear 
procurement contract.''
    If confirmed, under what circumstances, if any, do you anticipate 
that you would support a multiyear contract with expected savings of 
less than 10 percent?
    Answer. The complexity of each situation makes a general answer 
difficult. I believe that multiyear contracting can provide substantial 
cost savings, and therefore it should be considered as an option to 
serve best the warfighter and taxpayer. The total magnitude of the 
savings that could be achieved and the firmness of the procurement plan 
would be key considerations. I recently certified two multiyears for 
shipbuilding programs that might not reach the 10 percent savings 
threshold depending on how the baseline is calculated and how 
successful the contract negotiations are. The circumstances that 
motivated me to do so were my confidence in the Navy management team's 
ability to negotiate the best possible price for the Department, the 
certainty that the ships would be acquired, and the knowledge that if 
an acceptable price could not be negotiated that the Department would 
not execute a multiyear.
    Question. If confirmed, under what circumstances, if any, would you 
support a multiyear contract for a major system at the end of its 
production line?
    Answer. It may be appropriate in some circumstances to consider a 
program for multiyear procurement when it is nearing the end of 
production. It depends upon the circumstances of the particular 
procurement. The total magnitude of the savings that could be achieved 
and the firmness of the procurement plan would be key considerations. 
Analysis and careful review of all information should be completed 
whenever a multiyear contract is being considered.
    Question. What are your views on multiyear procurements? Under what 
circumstances do you believe they should be used?
    Answer. In general, I favor multiyear procurement strategies if 
they provide substantial savings and if there is a firm commitment to 
the planned procurement. I believe that multiyear procurements can 
offer substantial savings through improved economies in production 
processes, better use of industrial facilities, and a reduction in the 
administrative burden in the placement and administration of contracts. 
The potential for multiyear procurement can be a powerful incentive to 
suppliers to reduce cost and negotiated price but it also has the 
disadvantage of reducing the Government's flexibility during the years 
the strategy is being executed. There are a number of criteria to 
consider in deciding whether a program should be considered for 
multiyear procurement. Among them are: savings when compared to the 
annual contracting methods; validity and stability of the mission need; 
stability of the funding; stability of the configuration; associated 
technical risks; degree of confidence in estimates of both contract 
costs and anticipated savings; and promotion of national security.
    Question. What is your opinion on the level of cost savings that 
constitute ``substantial savings'' for purposes of the defense 
multiyear procurement statute, title 10 U.S.C. Sec. 2306b?
    Answer. There has been much debate over the threshold on the level 
of cost savings that constitutes ``substantial savings.'' In my view, 
the 10 percent figure cited in the conference manager's statement is a 
reasonable benchmark, but it should not be an absolute criteria. The 
Department needs to ensure that the savings achieved from multiyear 
contracts are substantial, not only in terms of the relative difference 
in price that the Department would otherwise pay for an annual 
procurement, but also in terms of the total dollars saved. But I also 
understand that placing an absolute minimum threshold on substantial 
savings could unnecessarily limit the contracting options available. 
The merits of any single multiyear procurement should be evaluated 
based upon the circumstances of each particular proposed program being 
considered for multiyear procurement.
    Question. Under what circumstances, if any, do you believe that a 
multiyear contract should be used for procuring weapons systems that 
have unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes but which might otherwise comply 
with the requirements of the defense multiyear procurement statute, 
title 10 U.S.C. Sec. 2306b?
    Answer. Multiyears should be pursued when they are in the best 
interest of the government. However, in the circumstances set out in 
the question, the degree of scrutiny should be greater than in other 
cases. Additional analysis and careful review of all information should 
be completed whenever a multiyear contract is being considered for use 
in procuring weapon systems that have shown unsatisfactory program 
histories, but which otherwise comply with the statutory requirements. 
It is particularly important in a situation like this that the reasons 
for unsatisfactory history are understood and that those reasons have 
been addressed. If a supplier were deemed to have a high likelihood of 
failure to perform and default due to overruns, then a multiyear would 
not be in the Government's interest.
    Question. How would you analyze and evaluate proposals for 
multiyear procurement for such programs?
    Answer. The Department would need to examine all risk factors in 
conjunction with the potential for cost savings to determine if 
multiyear procurement would be appropriate for a program with an 
unsatisfactory history. If confirmed, I will ensure analysis and 
evaluation of proposals for multiyear procurements are in accordance 
with all statutory and regulatory requirements, and I will ensure that 
the Department fully understands the benefit to the warfighter and 
taxpayer to proceed with a multiyear procurement for a program that has 
an unsatisfactory history.
    Question. If confirmed, what criteria would you apply in 
determining whether procuring such a system under a multiyear contract, 
is appropriate and should be proposed to Congress?
    Answer. If confirmed, I will ensure that all of the regulatory and 
statutory requirements are met before proceeding with any multiyear 
procurement. I would also ensure that all risk factors had been 
carefully analyzed and considered.
    Question. What is the impact of the Department's current budget 
situation, in your view, on the feasibility and advisability of 
additional multiyear procurement contracts for major weapon systems?
    Answer. I believe that the current budget environment increases the 
inherent value that the stability of multiyear procurement contracts 
provides to industry, giving the Department the opportunity to enter 
into such agreements on favorable terms. However, this opportunity must 
be balanced against the fact that multiyear contracts encumber 
budgetary resources over multiple years and with our current budget 
constraints, the Department must be judicious in the extent to which it 
enters into such contracts. Above all, there must be a firm commitment 
to the entirety of the multiyear so that even if additional budget 
reductions are necessary the products being procured under multiyear 
arrangements will have a higher funding priority than other programs 
that would have to be reduced.
    Question. Under what circumstances, if any, should DOD ever break a 
multiyear procurement?
    Answer. If the Department has done its job properly and industry 
has proposed responsibly, the cancellation of a multiyear contract 
should be all but unheard of. There are very rare circumstances when it 
could occur. One such event would be in the case of extremely deep and 
unanticipated budget reductions that forced a fundamental reshaping of 
Department priorities. Another possibility would be the surprise 
emergence of a threat that rendered the program under contract 
instantly obsolete. In these circumstances, cancellation or 
renegotiation of a multiyear procurement could be appropriate or even 
required. Finally, if a contractor were to default and be totally 
unable to perform than the contract might have to be terminated so that 
another supplier could be arranged for.
    continuing competition and organizational conflicts of interest
    Question. Section 202 of WSARA requires DOD to take steps to 
promote continuing competition (or the option of such competition) 
throughout the life of major defense acquisition programs.
    What is your view on the utility of continuing competition as a 
tool to achieve long-term innovation and cost savings on major defense 
acquisition programs?
    Answer. In my view, there is no more effective tool to reduce 
prices than competition. The Department should use direct competitive 
acquisition strategies whenever possible. Utilizing competition in the 
marketplace allows the Department to leverage innovation, S&T, design, 
and drive efficiency through a program's lifecycle providing a stronger 
return on investment. For this reason, the Department should strive to 
use this model as much as possible in its programs. Under the Better 
Buying Power initiatives, I have stressed the need for creating a 
``competitive environment'' to the greatest extent possible in all our 
programs. This can be done any number of ways, including component 
breakout, initiation of a next generation concept or a program to 
upgrade an existing alternative. In recent speeches, I have emphasized 
that with ongoing budget reductions there is a competition within the 
budget for funding in which poorly performing programs will not do 
well. If confirmed, I will continue to stress creating a competitive 
environment as one of the most effective ways the Department has of 
controlling cost.
    Question. Do you believe that such continuing competition is a 
viable option on major defense acquisition programs?
    Answer. I believe that competition at both the prime and 
subcontract level are the most powerful tools available to the 
department to drive productivity and control cost. To ensure that 
competition is emphasized during every phase of the acquisition 
process, the Department has issued policy requiring our Program 
Managers to present a competition strategy for their programs at each 
program milestone. I personally review these strategies and would 
continue to do so, if confirmed, for Major Defense Acquisition Programs 
and would require Component Acquisition Executives to do the same for 
programs under their cognizance.
    Question. In your view, has the consolidation of the defense 
industrial base gone too far and undermined competition for defense 
contracts?
    Answer. I believe that the consolidation witnessed throughout the 
1990s has left us with a limited number of prime contractors for major 
programs and that further consolidation at that level is probably not 
in the Department's or the taxpayer's interest. I have said so publicly 
on multiple occasions, as I believe it is important for industry to 
understand the Department's views so that they can be taken into 
account. That said, if confirmed, I would certainly review any proposed 
business deal objectively on its merits. At the lower tiers, however, I 
would expect to see an increased amount of activity in mergers and 
acquisitions, and even consolidations to further streamline 
capabilities and respond in a market-driven manner to the reduced 
budgets anticipated over the coming decade. The Department will examine 
these transactions carefully on a case-by-case basis to preserve 
competition and facilitate the most efficient and effective industrial 
base possible.
    Question. If so, what steps if any can and should DOD take to 
address this issue?
    Answer. It is the Department's policy to allow market forces to 
shape the market, but to oppose transactions that eliminate competition 
and are not ultimately in the best interest of the Department and 
taxpayer. The Department continues to discourage mergers and 
acquisitions among defense materiel suppliers that are anti-competitive 
or injurious to national security. Ultimately, however, the Department 
is not an antitrust regulator and the ability for the DOJ and FTC to 
intervene must meet statutory criteria. The Department has long-
established procedures to provide information and the support needed by 
the antitrust regulators for their merger reviews. In areas where 
consolidation has resulted in a loss of competition, the Department has 
in the past encouraged new entrants or explored the use of alternative 
capabilities.
    Question. Section 203 of WSARA requires the use of competitive 
prototypes for major defense acquisition programs unless the cost of 
producing such prototypes would exceed the lifecycle benefits of 
improved performance and increased technological and design maturity 
that prototypes would achieve.
    Do you support the use of competitive prototypes for major defense 
acquisition programs?
    Answer. Yes, I support the use of competitive prototyping for major 
defense acquisition programs. This can be an effective mechanism for 
maturing technology, refining performance requirements, and improving 
our understanding of how those requirements can drive systems 
acquisition costs.
    Question. Under what circumstances do you believe the use of 
competitive prototypes is likely to be beneficial?
    Answer. This depends on the maturity of candidate technologies for 
meeting the Department's requirements and in particular on the degree 
of risk associated with integrating those technologies into a viable 
product. When planned or proposed technology has implementation risk, 
particularly in an integrated product, and has not been demonstrated 
adequately, competitive prototyping during the technology development 
phase works well as an element of a comprehensive technical risk 
management process. Like all other risk reduction techniques, 
competitive prototyping has to be considered on a case-by-case basis 
and it has to reduce the risk of entering Engineering and Manufacturing 
Development (EMD). Competitive pre-EMD prototyping requires resources 
and increases schedules. In short, there are costs and benefits to be 
considered. Overall, however, it can reduce risk, sustain competition 
further into the design process, reduce total program cost, and lead to 
better products for our warfighters. This is particularly true in the 
technology demonstration phase. The cost of competitive engineering and 
manufacturing development phases is usually prohibitive.
    Question. Under what circumstances do you believe the cost of such 
prototypes is likely to outweigh the potential benefits?
    Answer. In cases where the material solution is based on mature, 
well understood technologies and demonstrated designs with little 
integration risk, the additional costs of competitive prototyping are 
unlikely to offset the potential reduction of system lifecycle costs. 
Prototypes requiring very high investments with limited production runs 
are also unlikely to meet this test; competitive prototyping of ships 
and satellites is frequently cost-prohibitive, both in a technology 
demonstration phase and in engineering and manufacturing development 
phase. However, competitive prototyping of major subsystems can still 
provide opportunities for reducing risk and driving down production and 
sustainment costs.
    Question. Section 207 of WSARA required the Department to 
promulgate new regulations to address organizational conflicts of 
interest on major defense acquisition programs.
    What is your understanding of the steps the Department has taken to 
implement section 207?
    Answer. Section 207 of the Weapons System Acquisition Reform Act 
(WSARA) of 2009 (Pub. L. 111-23) required the Secretary of Defense to 
revise the Defense Supplement to the Federal Acquisition Regulation 
(DFARS) to provide uniform guidance and tighten existing requirements 
for organizational conflicts of interest by contractors in major 
defense acquisition programs. The DFARS rule implementing WSARA was 
published on December 29, 2010. This rule provided uniform guidance and 
tightened existing requirements for organizational conflicts of 
interest for DOD contracts. On April 26, 2011, a proposed change to FAR 
subpart 9.5 relating to organizational conflicts of interest was 
published, but this rule has not yet been finalized.
    Question. What additional steps if any do you believe DOD should 
take to address organizational conflicts of interest in major defense 
acquisition programs?
    Answer. The Department has already taken a number of steps, but at 
this point in time the Department is working with other Federal 
organizations on a final FAR rule that would guide the Department. The 
Department and the other Federal agencies determined that, in general, 
the coverage on organizational conflicts of interest included in the 
Federal Acquisition Regulations needed broadening and a proposed rule 
was published on April 26, 2011. The public comment period is now 
closed and the FAR Acquisition Ethics and International Law Team, 
including DOD membership, is evaluating public comments and developing 
the final rule.
    Furthermore, the Department's Panel on Contracting Integrity has 
also reviewed the area of post-employment restrictions pursuant to 
section 833 of the NDAA for Fiscal Year 2010, Public Law 111-84. The 
purpose of the review was ``to determine if such policies adequately 
protect the public interest without unreasonably limiting future 
employment options of former DOD personnel'' in developing the revised 
regulation. A matter the Panel considered was the extent that post-
employment restrictions ``protect the public interest by preventing 
personal conflicts of interest and preventing former DOD officials from 
exercising undue or inappropriate influence.'' The Panel completed its 
report in December 2010 and as directed by section 833, the National 
Academy of Public Administration (NAPA) performed an independent 
assessment of the Panel's report. NAPA completed its review in February 
2012 and provided additional recommendations for post award 
restrictions. The Panel will review the NAPA recommendations in 2012 
and recommend the way forward.
    I strongly support the Department's activities to remedy 
organizational conflict of interest (OCI) issues in major weapons 
systems to ensure that OCI issues are adequately reviewed and addressed 
in developing acquisition strategies and source selections and defense-
related mergers.
    Question. What are your views on the use of system engineering and 
technical assistance contractors that are affiliated with major defense 
contractors to provide ``independent'' advice to the Department on the 
acquisition of major weapon systems?
    Answer. I believe that Systems Engineering and Technical Assistance 
(SETA) support contractors are currently providing critical support to 
the Department's acquisition workforce. However, I believe these 
contractors must not be used to perform inherently governmental 
functions and they must not be used in a situation where a conflict of 
interest or the appearance of a conflict of interest would exist. At 
this point, I do not believe that it would be wise, as some have 
suggested, to create two totally separate classes of contractors 
separated by a bright line; those that provide support to government 
functions and those that provide products. Some of the Department's 
support contractors need the experience, knowledge and perspective that 
come from working on actual products. If mitigation does not prove 
effective, I would consider implementing more stringent constraints, 
but at this point, I believe that mitigation is still the preferred 
approach.
    Question. What lines do you believe the Department should draw 
between those acquisition responsibilities that are inherently 
governmental and those that may be performed by contractors?
    Answer. When it comes to the performance of functions that support 
our acquisition responsibilities, I believe that a clear line does 
exist between activities that may or may not be performed by 
contractors. An important feature for inherently governmental functions 
lies in the answer to the question whether the activity involves the 
exercise of discretion in applying Federal Government authority, or the 
making of value judgments in decisions that obligate government funds 
and commit the government contractually. Acquisition functions might be 
categorized in three phases, all of which are or involve inherently 
governmental functions: acquisition planning, source selection, and 
contract administration. In planning, certainly the task of determining 
or approving requirements falls on the inherently governmental side of 
the line. In source selection, inherently governmental functions 
include awarding of contracts, serving on a source selection board and 
making a determination about whether or not a price to be paid to an 
officer is reasonable. During contract performance, the Department must 
not have contractors participate on performance evaluation boards or 
determine whether contract costs are reasonable. I recognize that many 
of the tasks for which the Department acquires contracted support in 
the acquisition arena involve functions that are or may be closely 
associated with inherently governmental functions. As such, the 
Department has a responsibility to employ an enhanced degree of 
management oversight to ensure independent contract support and advice 
does not evolve into the performance of inherently governmental 
functions or the provision of impermissible government or proprietary 
information to contractors.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not misuse their access to sensitive and 
proprietary information of DOD and other defense contractors?
    Answer. In my view, the rules that govern unauthorized disclosure 
of sensitive and proprietary information are adequate and must be 
followed. If I am confirmed, I will continue to support strong 
adherence to the applicable rules.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not unnecessarily limit competition for 
subcontracts in a manner that would disadvantage the government or 
potential competitors in the private sector?
    Answer. I believe that competition at both the prime and 
subcontract level is essential to the Department's ability to control 
cost and provide opportunities for the insertion of new technology. If 
confirmed, I will continue the policy of requiring program managers to 
include a strategy to maximize the use of competition, at all levels, 
in program planning and execution. I will continue to enforce this 
policy rigorously.
  implementation of the weapon systems acquisition reform act of 2009 
                                (wsara)
    Question. Several new major weapons programs have been started 
since the WSARA was enacted. Examples include the Ohio-Class Submarine 
Replacement Program, the KC-46 Aerial Refueling Tanker Replacement 
Program, the VXX Presidential Helicopter Replacement Program, and the 
Ground Combat Vehicle Program.
    In your view, how effectively have such ``new start'' major defense 
acquisition programs abided by the tenets, and implemented the 
requirements, of the WSARA, particularly those that address ``starting 
programs off right'' by requiring that early investment decisions be 
informed by realistic cost estimates, sound systems engineering 
knowledge and reliable technological risk assessments?
    Answer. Based on my experience since I returned to the Department 
in March 2010, I can state that the Department has abided by the tenets 
and implemented the requirements of WSARA in each of its ``new start'' 
programs begun since the enactment of WSARA. This includes the examples 
cited in the question. The certifications required by WSARA provide a 
means to enforce each program's implementation. Each of these programs 
is notable for the careful attention paid to developing realistic 
requirements and a focus on affordability. I completely agree with the 
premise that the key to successful program execution is sound and 
realistic planning at program inception.
    Question. Where do you think there might be room for improvement?
    Answer. If confirmed, I will continue to review the performance of 
``new start'' programs that have implemented WSARA to determine what 
the Department's implementation could do to improve a program's 
probability of successfully delivering affordable capability on time. I 
do not believe at this point that major policy changes are required. If 
confirmed, my focus will primarily be on effective implementation of 
the policies that have been put in place by WSARA and other 
initiatives. However, I strongly believe in a doctrine of continuous 
improvement throughout the acquisition system and if confirmed I will 
continue to seek opportunities for constructive change on the margins. 
The Better Buying Power initiative that Dr. Carter and I started is 
based on the premise that the Department can learn from experience and 
continuously improve. If confirmed, I will work to identify and 
implement continuous improvements to the acquisition system. There is 
plenty of room for improvement.
                   the better buying power initiative
    Question. DOD's Better Buying Power initiative provides acquisition 
professionals with important guidance on how to achieve greater 
efficiency, enhanced productivity and affordability in how the 
Department procures goods and services.
    If confirmed, what steps if any will you take to follow-through on 
this guidance and ensure that it is implemented as intended?
    Answer. I worked closely with then Under Secretary of Defense for 
Acquisition, Technology, and Logistics Dr. Ashton B. Carter on the 
development and initial implementation of the Better Buying Power 
initiative. If confirmed, I will follow-through on implementation of 
the initiative and carefully consider additional steps consistent with 
the principles and objectives of the initiative.
    Question. In particular, what steps will you take to ensure the 
implementation of the following elements of the better buying power 
initiative?

    a.  Sharing the benefits of cash flow
    b.  Targeting non-value-added costs
    c.  Mandating affordability as a requirement
    d.  Eliminating redundancy within warfighting portfolios

    Answer.

    a.  The cash flow initiative is being initiated by some buying 
commands with success, but the Department has not collected data on its 
effectiveness in general. Industry, through the Aerospace Industries 
Association, has raised some concerns with this initiative and I have 
agreed to meet to discuss its implications. Industry is concerned about 
accounting and cash flow implications and at this point, I do not fully 
understand the basis for these concerns, but I'm happy to listen to 
their perspective. Where I have received feedback from government 
contracting officials, they have indicated some success with the 
initiative. The premise of sharing the benefits of cash flow was that 
the government could receive a reduced price in return for accelerated 
cash flow to industry. This should be a mutually beneficial win-win 
prospect for both parties and where it has been implemented that seems 
to be the result, but I would like to Reserve judgment on this 
initiative until I understand industry's concerns more fully and until 
more data on its implementation can be accumulated.
    b.  Targeting non-value added costs is a continuous challenge. It 
involves identifying candidate costs, determining if they really are 
non-value added, and then working to eliminate them if that is the 
case. In the most obvious cases this involves duplicative efforts and 
requirements or regulations that have no beneficial impact. Some 
oversight and quality control measures may be non-value added and 
should be eliminated, but the perspective on the value of these 
measures is often not consistent. Management at all levels needs to be 
actively engaged in identifying and eliminating non-value added 
activities and requirements, and again this is a continuous process. 
The implementation of ``should cost'' analysis as a management tool is 
one way in which if confirmed, I will continue to attack non-value 
added requirements. One minor reform I have initiated within the 
Milestone review process is to streamline many of the planning 
documents required for these reviews, while increasing the substantive 
information present in them. If confirmed, this effort will have my 
attention in every aspect of the acquisition system.
    c.  Affordabilty as a requirement has been implemented for major 
programs, particularly new starts. The basic premise is that the 
Department should be smart enough to avoid starting programs that will 
ultimately be canceled because they are not affordable. Determining 
what affordability cap to put on production and sustainment costs is 
simply a matter of analyzing the expected long term funding that will 
be available for the portfolio of products that contains the product 
under consideration. The next challenge will be twofold: first to flow 
this type of analysis down to non-Major Defense Acquisition Programs, 
and second to enforce it for the major programs for which affordability 
constraints are in place. If confirmed, I intend to meet that 
management challenge.
    d.  The effort to eliminate redundancy across portfolios is a work 
in progress. It demands vigilance and constant attention to the 
possibilities for efficiencies by all parties. Three examples from my 
experience of the last 2 years are the Air Force Space Fence and Navy 
AMDR programs, the USMD Gator radar and the Air Force 3DLR program, and 
the Marine Corps and Army light tactical vehicle programs. In each 
case, I have initiated or supported efforts to eliminate redundancy at 
system or component levels. This is largely a matter of consistent and 
continuous management attention, particularly as new programs and 
projects are proposed for initiation. If confirmed, I will continue the 
effort to identify opportunities for commonality within and across 
portfolios and I will insist that the Services do the same.

    Question. Are there any elements of the Better Buying Power 
initiative with which you disagree and which you intend to modify 
materially or discontinue?
    Answer. The short answer is no, however the Better Buying Power 
initiatives are not static. They are under continuous review and will 
be modified and added to as the Department learns more from its 
experience with the initiatives. I recently conducted a review of the 
progress on the original initiatives at the Business Senior Integration 
Group, the body I chair that oversees and reviews the Department's 
progress improving the acquisition systems performance overall. While 
at this time I do not intend to materially modify or discontinue parts 
of Better Buying Power, I am committed to reviewing all aspects of the 
initiative to determine if they are working as intended or not. This is 
a results oriented initiative and if confirmed, I will discontinue 
efforts if I determine they are not adding value or if the management 
resources needed for implementation can be used more effectively 
elsewhere.
                        contracting for services
    Question. By most estimates, the Department now spends more for the 
purchase of services than it does for products (including major weapon 
systems). After a decade of rapid growth, section 808 of the NDAA for 
Fiscal Year 2012 placed a cap on DOD spending for contract services.
    Do you believe that DOD can do more to reduce spending on contract 
services?
    Answer. Yes. I am working aggressively to improve our tradecraft in 
services acquisition and will continue to examine our requirements for 
services and the ways services are acquired to ensure that the 
Department acquires only what is truly needed and does so as 
efficiently as possible.
    Question. Do you believe that the current balance between 
government employees (military and civilian) and contractor employees 
is in the best interests of DOD?
    Answer. I believe the balance is roughly in alignment, but that 
there is likely room for improvement, particularly on a local level. 
The Department greatly values the contributions made by private sector 
firms and recognizes that the private sector is, and will continue to 
be, a vital source of expertise, innovation, and support to the 
Department's Total Force. However, I believe the Department must 
constantly assess the mix and ensure that our utilization of contracted 
support is appropriate given the nature of the mission and work, the 
risks associated with contractor performance and reliance, and the need 
to ensure continuity of operations.
    Question. What steps if any would you take, if confirmed, to 
control the Department's spending on contract services and ensure that 
the Department complies with the requirements of section 808?
    Answer. If confirmed, I will continue to work with the Department's 
senior leadership to manage the Department's spending on contract 
services. It is my understanding that the Department is refining the 
control mechanisms and procedural guidance to ensure compliance with 
the requirements of section 808 of the NDAA for Fiscal Year 2012, which 
limits the amount of funds the Department may obligate for contract 
services in fiscal years 2012 and 2013. The directed reductions in 
staff augmentation contracts in section 808 are consistent with the 
actions initiated by then Secretary Gates in 2010 and are underway. The 
requirement in section 808 to reduce by 10 percent funding for 
contracts for functions that are closely associated with inherently 
governmental functions presents challenges because most of the 
Department's components have not historically created a record of the 
amount of funding allocated to contracts for functions that are closely 
associated with inherently governmental functions. Therefore, these 
components do not have an accurate baseline amount from which to 
project the targeted reduction. If confirmed, I will work with all 
components to manage this work appropriately.
    Question. Section 812 of the NDAA for 2007 required DOD to develop 
a management structure for the procurement of contract services. 
Sections 807 and 808 of the NDAA for Fiscal Year 2008 (subsequently 
codified in section 2330a of title 10, U.S.C.) require DOD to develop 
inventories and conduct management reviews of contracts for services.
    Do you believe the Department is providing appropriate stewardship 
over service contracts?
    Answer. I believe that the Department is improving the quality of 
the stewardship it maintains over service contracts but there remains 
room for further improvement. One of the principal focuses of the 
Better Buying Power initiatives Dr. Carter and I initiated is to 
improve the Department's tradecraft in managing service contracts. I 
have been working to increase the effort in this area, and recently 
reviewed the efforts underway in each Military Department. Progress is 
being made, but much more can be done. I believe that effective 
stewardship requires proactive engagement from senior leaders at 
operational and strategic levels of the Department to manage these 
contracts and if confirmed I will continue to work to provide that 
leadership at my level.
    Question. Do you believe that the Department has appropriate 
management structures in place to oversee the expenditure of more than 
$150 billion a year for contract services?
    Answer. In general yes, but I also believe they can be strengthened 
and expanded upon. Under Dr. Carter and my direction, each Military 
Department was required to appoint a senior manager responsible for 
oversight of all contracted services. This structure is now being 
expanded to cover each of the major types of services the Department 
acquires. If confirmed, I will continue to work toward an enterprise-
wide, structured program to enable sound business practices and 
decisions about how to fulfill service contract requirements. 
Foundational to the success of these structures will be the 
effectiveness of the front-end process to review and validate 
requirements for services (as required by section 863 of the NDAA for 
Fiscal Year 2011).
    Question. Do you support the use of management reviews, or peer 
reviews, of major service contracts to identify ``best practices'' and 
develop lessons learned?
    Answer. Yes. I fully support the use of peer reviews on major 
service contracts to identify best practices and lessons learned. The 
practice of conducting peer reviews on the Department's major service 
contracts is well engrained in our process and the Department has 
derived significant benefit from this initiative. The requirement to 
conduct peer reviews has been institutionalized in Department of 
Defense Instruction 5000.02. Recently, I have directed my staff to 
develop a stand-alone DOD instruction to govern the acquisition of 
services. If confirmed, I will continue to emphasize best practices in 
the management of contracted services.
    Question. If confirmed, will you fully comply with the requirement 
of section 2330a, to develop an inventory of services performed by 
contractors comparable to the inventories of services performed by 
Federal employees that are already prepared pursuant to the Federal 
Acquisition Inventory Reform (FAIR) Act?
    Answer. Yes. The Under Secretary for Personnel and Readiness and 
the staff in AT&L will compile inventories prepared by the Military 
Departments and defense agencies and publish the Department's fourth 
inventory of contracts for services later this year. Following the 
inventory submission, each department and agency will complete a review 
of its inventory within 90 days in accordance with the considerations 
at paragraph (e), section 2330a of title 10.
    Question. Section 863 of the NDAA for Fiscal Year 2011 requires DOD 
to establish a process for identifying, assessing, reviewing, and 
validating requirements for the acquisition of contract services.
    What is the status of the Department's efforts to implement the 
requirements of section 863?
    Answer. Over the past several months, the Director of Defense 
Procurement and Acquisition Policy has been engaged with the Senior 
Service Managers from the Military Departments and the defense agencies 
to understand optimal approaches to implementing this requirement. The 
Department has issued guidance to the Military Departments and the 
defense agencies that reiterates the requirements of section 863 and 
requires them to submit their processes and initial implementation 
plans to the Director of Defense Procurement and Acquisition Policy, 
not later than 30 days after receipt of the memorandum.
    Question. What steps remain to be taken, and what schedule has the 
Department established for taking these steps?
    Answer. Once the required plans are provided to the Director of 
Defense Procurement and Acquisition Policy on the AT&L staff by the 
Military Departments and components, the AT&L staff will work with them 
to ensure that these plans are effective and are implemented. The 
Department at this point is taking a somewhat decentralized approach to 
implementing section 863 because of the substantial differences in 
Military Department and component structures and information management 
tools. If confirmed, I will review the effectiveness of the initial 
implementation of this requirement to determine whether or not stronger 
mechanisms should be put in place.
    Question. What additional steps if any would you take, if 
confirmed, to improve the Department's management of its contracts for 
services?
    Answer. If confirmed, I will continue to make the improved 
management of contract services a high priority. Recently, I convened a 
2-day meeting of a select group of senior leaders, including the 
acquisition executives from the Military Departments. The purpose of 
the meeting was to flesh out required actions to support our objectives 
for the current calendar year. One of the eight areas discussed in 
depth was the need to improve our proactive management of services. 
Specific actions coming out of this session included: deployment of 
tools to generate quality contract performance work statements that 
clearly articulate requirements for services, deployment of tools to 
facilitate meaningful market research tailored for service 
requirements, establishment of a functional integrated product team 
unique for services to address the training needs of personnel (within 
or outside the defense acquisition workforce) who are tasked to manage 
and oversee individual service contracts, and a decision to formalize 
the program management function in the services arena. If confirmed, I 
will work to implement these steps and continue to look for additional 
ways to improve the Department's performance in managing contracts for 
services.
       contractor performance of critical governmental functions
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by Government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has DOD become too reliant on contractors to support 
the basic functions of the Department?
    Answer. Not in general, but I believe this is an area that requires 
continuous attention, particularly in a time of declining budgets. The 
appropriate balance between organic government performance and reliance 
on contractors is something that must be assessed function by function. 
Many functions are appropriate for contractor support; however, some 
functions, such as conducting military operations, establishing 
government requirements, determining acquisition strategies, conducting 
source selection, and program management, are more appropriately 
performed by government personnel because they are inherently 
governmental or close to inherently governmental and should not be 
performed by contractors. One area where the government's organic 
capacity had been allowed to decline so that needed work was either not 
performed or shifted to contractor support is the area of acquisition 
management. Over the last few years, the Department has been able to 
make significant gains in in-sourcing more of this work, particularly 
in engineering and program management. As a result, and with the 
committee's assistance, the Department has significantly strengthened 
the acquisition workforce. If confirmed, I will continue to assess the 
issue of appropriate use of contractors across the Department to 
determine whether and where DOD's reliance on contractors may have 
become excessive.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of DOD?
    Answer. I believe the personal services contracts the Department 
has established in accordance with the applicable statutes to acquire, 
for example, medical providers are in the best interest of the 
Department. I am however concerned about the risk and potential that 
some of our non-personal contracts may inappropriately evolve into 
personal service arrangements, particularly those that utilize 
contractors to perform work that is closely associated with inherently 
governmental functions. Last year, the DFARS was amended to provide 
guidance that enables Department officials to more effectively 
distinguish between personal services and non-personal services and to 
ensure that procedures are adopted to prevent contracts from being 
awarded or administered as unauthorized personal services contracts. If 
confirmed, I will continue to enforce the limits on use of personal 
service contracts.
    Question. What is your view of the appropriate applicability of 
personal conflict of interest standards and other ethics requirements 
to contractor employees who perform functions similar to those 
performed by Government employees?
    Answer. In my opinion, contractor employees who directly support 
Government employees, and may have access to similar business sensitive 
or source selection sensitive information, should be subject to similar 
ethical standards as the Government employees they support. It is 
important that such contractor employees not be allowed to profit 
personally from the information that may be available to them because 
of their performance under a DOD contract.
    Question. U.S. military operations in Iraq and Afghanistan have 
relied on contractor support to a greater degree than any previous U.S. 
military operations. According to widely published reports, the number 
of U.S. contractor employees in Afghanistan is roughly equal to the 
number of U.S. military deployed in that country.
    Do you believe that DOD has become too dependent on contractor 
support for military operations?
    Answer. Not at this point. In the long-term counter-insurgency 
environments in which the Department has used them so extensively, 
contractors have been necessary to performance of the mission. The 
Department has gone through a painful multiyear process of learning how 
to manage contractors effectively in the area of operations. This 
process isn't over yet, but a great deal of progress has been made. 
Contractors provide a broad range of supplies, services, and critical 
logistics support. They serve as force multipliers, performing non-
inherently governmental functions and allowing limited military 
resources to focus on what they are trained to do. The Department 
continually assesses implications with respect to force size and mix, 
contract support integration, planning, and resourcing.
    Based on our experience in Iraq and Afghanistan, I believe the 
Department should continue to improve and evolve our strategy regarding 
the use and management of contractors. At this time, I do not believe 
the Department is too dependent on contractors, but I believe there is 
still room for improvement in our management of contractors supporting 
ongoing operations.
    Question. What risks do you see in the Department's reliance on 
such contractor support? What steps do you believe the Department 
should take to mitigate such risk?
    Answer. I believe the risks associated with a large reliance on 
contractor support include: possible loss of those services for future 
contingencies and in changed operational environments, the performance 
of inherently governmental functions by contractors, the Department 
losing critical core knowledge and capability, and the risk of losing 
the expertise and structure for contingency contract management that 
was created over the last several years. The Department continues to 
conduct assessments of the risks associated with reliance on contracted 
support in contingency operations and is working to ensure they are 
mitigated. The Department mitigates that risk by ensuring contractor 
support estimates are integrated into existing planning processes and 
procedures, and through consideration of operational contract support 
requirements in force planning scenario development and joint force 
assessments.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. In general yes, but as in other areas there is room for 
improvement. At the start of our conflicts in Iraq and Afghanistan, the 
Department was not properly organized and staffed to manage contractors 
in the ongoing contingency operations effectively. This isn't 
surprising, as neither the long conflicts nor the need to rely on 
contractors were anticipated. A number of corrective actions have been 
taken over the last several years. The Department has matured these 
capabilities and now has in place a functioning governance body that 
synchronizes efforts with the Joint Staff, the Services, and other 
Department staff and agencies to ensure processes and policy are in 
place to oversee contracted support in contingency operations 
effectively. The Department continues to revise policies to incorporate 
lessons learned and emerging legislative requirements, assess planning 
capability requirements, and update business systems to improve 
capabilities. If confirmed, I will continue to oversee ongoing efforts 
to improve the Department's performance and to ensure DOD 
institutionalizes its contingency contracting and operational contract 
support capabilities and applies lessons learned from our experiences 
in Iraq and Afghanistan to future conflicts.
    Question. What steps if any do you believe the Department should 
take to improve its management of contractors on the battlefield?
    Answer. For ongoing operations, I believe work must continue to 
implement and enforce the policies that have been put in place over the 
last few years and to strengthen them where needed. One area that needs 
strengthening is the enforcement of anti-corruption measures and of the 
ability to prevent contract funds from ending up in the hands of our 
enemies. I support the efforts of Congress and members of the SASC to 
add to the tools available to the Department in this area. Looking 
ahead to a time when the current contingency has ended, the Department 
needs to ensure: (1) training and contingency plans account 
realistically for the role of contractors on the battlefield; (2) 
adequate numbers of contracting officers, contracting officer 
representatives, and other skilled personnel will be available to 
manage contractors; (3) transparency of contractor and subcontractor 
performance is provided for; (4) measures remain in place for the 
prevention of waste, fraud, abuse, and corruption; and (5) continued 
effective coordination with other Departments and agencies.
                          wartime contracting
    Question. Section 804 of the NDAA for Fiscal Year 2011 requires the 
Department to establish procedures to ensure that rapid acquisition 
processes are not misused for the acquisition of systems and 
capabilities that are not urgent and would be more appropriately 
acquired in accordance with normal acquisition procedures.
    What is the status of the Department's efforts to implement the 
requirements of section 804?
    Answer. Pursuant to section 804 of the 2011 NDAA, the Department 
conducted a review of the Department's rapid processes and is 
developing policy in response to its findings and recommendations. 
Primary among these was the need for improved management oversight of 
the Department's urgent needs processes. The Secretary therefore issued 
Directive-Type Memorandum (DTM) 11-006, ``Establishment of the Senior 
Integration Group (SIG) for the Resolution of Joint Urgent Operational 
Needs (JUONs),'' June 14, 2011, which defined the responsibilities of 
the many DOD components to include the Office of the Secretary of 
Defense, the Joint Chiefs of Staff, the Military Departments, and other 
components. In January, the Chairman of the Joint Chiefs of Staff 
issued CJCSI 3170.01H, ``Joint Capabilities Integration and Development 
System'' which established processes for identifying, assessing, 
validating, and prioritizing joint military capability requirements, 
including Urgent Operational Needs (UONs), Joint Urgent Operational 
Needs (JUONs), and Joint Emergent Operational Needs (JEONs). Additional 
policy is under development to address the remaining findings to 
include the requirement to discriminate clearly those urgent 
requirements appropriate to be resolved through our rapid acquisition 
processes rather than the traditional acquisition process. This policy 
will be included in a revision to the DOD Instruction 5000.02 
``Operation of the Defense Acquisition System'' which is currently in 
staffing.
    Question. Do you agree that rapid acquisition procedures are not 
generally suited to the acquisition of complex systems that require 
substantial development effort, are based on technologies that are 
unproven, and are too risky to be acquired under fixed-price contracts?
    Answer. In general, yes. There may be rare cases however, such as 
when technological surprise is achieved by a potential adversary, that 
the risks associated with rapid acquisition procedures are justified 
for complex systems that require substantial development. In my earlier 
experience during the Cold War, this did occur on at least two 
occasions. Also, there are cases when the fulfillment of an urgent need 
associated with an ongoing conflict can only be met by pursuing a 
complex new technology that entails significant risk. Even if the time 
needed to develop and field the needed solution exceeds the expected 
duration of the conflict, it may still be the right decision to proceed 
with a rapid acquisition process. Wars often do not end on one side's 
schedule. In both Operation Iraqi Freedom and Operation Enduring 
Freedom, the department fielded solutions ranging from airborne ISR and 
communications relays to ground based mine rollers to satisfy urgent 
needs across the spectrum of complexity and technical maturity. 
Contracting strategies for our rapid acquisition efforts are guided by 
the existing Federal Acquisition Regulation, which encourages our 
acquisition officials to use the contract type that represents the best 
value, in terms of both risk and schedule, to the benefit of the 
government. In all cases, the decision to embark upon a rapid 
acquisition effort should be based on the determination by the decision 
authority that the strategy represents an appropriate balance of risk 
between operational and acquisition considerations.
    Question. Section 848 of the NDAA for Fiscal Year 2011 and section 
820 of the NDAA for Fiscal Year 2012 establish planning requirements 
for contractor logistics support.
    What is the status of the Department's efforts to implement the 
requirements of section 848 and section 820?
    Answer. Section 848 provisions in the NDAA for Fiscal Year 2011 
provided the necessary charter for a Defense Science Board Study on DOD 
organization, doctrine, training, and planning for contractor logistics 
support of contingency operations. I am establishing a task force to 
meet all of the requisite elements identified in the NDAA language 
pertaining to this matter. My intent is for the task force to cover all 
aspects of the contractor logistics support to contingency operations 
throughout the Department, to include reviewing previous findings and 
recommendations related to legislative or policy guidance. 
Implementation of this task force was delayed because some of the 
questions the task force was required to address had serious conflict 
of interest implications that had to be mitigated and this took longer 
than expected. With respect to our implementation of Section 820 of the 
NDAA for Fiscal Year 2012, I have worked closely with The Under 
Secretary of Defense for Policy and the Joint Staff to incorporate 
requirements determination and Operational Contract Support (OCS) into 
the Department's strategic planning documents. If confirmed, I will 
continue to support inclusion of OCS as strategic guidance is revised.
    Question. What additional steps do you believe the Department needs 
to take to improve its planning processes for the use of contractors in 
contingency operations?
    Answer. I believe that it is critical to ensure adequate and 
appropriate planning for contractor support in all planning for 
contingency operations. The Department is integrating contractor 
support estimates into existing planning processes and procedures, and 
ensuring that Operational Contract Support requirements are considered 
in force planning scenario development and joint force assessments. If 
confirmed, I will continue to monitor these initiatives closely to 
ensure they are carried out.
    Question. What is the status of the Department's efforts to 
implement the requirements of sections 841 and 842?
    Answer. The Defense Procurement and Acquisition Policy Director 
implemented Sections 841 and 842 on January 26, 2012 via the Class 
Deviation (No. 2012-O0005). Effective immediately, this Class Deviation 
mandates contracting officers to incorporate this provision in all 
contracts that will be awarded on or before December 31, 2014 and to 
modify existing contracts to the maximum extent practicable.
    Question. What additional steps do you believe the Department needs 
to take to avoid contracting with the enemy in Afghanistan?
    Answer. The Department primarily needs to continue the forceful 
implementation and enforcement of the measures it has already put in 
place or is considering. The Department has instituted many initiatives 
to improve accountability and oversight of contracts awarded to local 
firms in Afghanistan and to prevent flow of U.S. funds to the enemy. 
One such initiative is the U.S. Central Command's ``Vendor Vetting'' 
process of all non-U.S. vendors prior to contract award to ensure U.S. 
funds do not support or finance insurgent, foreign intelligence 
capabilities and to reduce the risk of insider threats to the U.S. 
Forces. Another such initiative is at General Petraeus' request to 
establish the U.S. Government Acquisition Accountability Office for 
Afghanistan (AAOA). The impetus of this initiative is the threat posed 
by corruption to the ISAF/Embassy/NATO mission that can alter the 
social and political dynamics and fuel local powerbrokers. If 
confirmed, I will continue to emphasize the importance of avoiding 
contracting with the enemy in Afghanistan.
    Question. Does the Department need additional tools for this 
purpose?
    Answer. I believe sections 841 and 842 have provided the Department 
the statutory authority needed to prevent flow of U.S. funds to the 
enemy. If I am confirmed, I will continue the effort to identify and to 
pursue other tools that will assist in preventing flow of U.S. funds to 
the enemy in Afghanistan.
    Question. In August 2011, the Commission on Wartime Contracting in 
Iraq and Afghanistan issued its final report. The report included 
numerous recommendations, including recommendations for reducing the 
Government's over-reliance on contractors in contingency operations; 
making organizational changes to provide greater focus on contingency 
contracting; providing additional staffing and resources for 
contingency contracting; and tightening contracting policies to address 
deficiencies in past performance databases, suspension and debarment 
procedures, government access to contractor records.
    What is your view of the Commission's recommendations?
    Answer. In general, I agree with the Commission's recommendations, 
particularly those that apply to DOD. The Department worked closely 
with the Commission throughout its existence and benefited from its 
interim and final recommendations. I appreciate and welcome the 
Commission's efforts to assist the Department in eliminating waste, 
fraud and abuse in wartime contracting. In March 2010, the Under 
Secretary of Defense for Acquisition, Technology and Logistics created 
a permanent board to provide strategic leadership to the multiple 
stakeholders working to institutionalize operational contract support 
and to track accepted Commission recommendations to completion. As a 
result of these steps, a great majority of the Commission's final 
recommendations have already been acted upon. If confirmed, I will 
continue this office's focus on implementing these improvements.
    Question. Are there any of the Commission's recommendations which 
you believe DOD should not implement? If so, why not?
    Answer. I agree in principle with all 11 of the DOD-specific 
recommendations. But I am concerned about the Commission's tactical 
approach in one area: Recommendation 6 suggested changes within the 
Under Secretary of Defense for Acquisition, Technology and Logistics 
regarding civilian officials responsible for contingency contracting. I 
believe two separate organizations for two key functional communities 
(contracting and logistics), rather than a single organization as the 
Commission envisioned, best supports the AT&L mission. Those two 
organizations are Program Support under our Assistant Secretary of 
Defense for Logistics and Material Readiness, and the Contingency 
Contracting Office under our Director for Defense Procurement and 
Acquisition Policy. If confirmed, I will continue to work closely with 
both organizations to ensure accountability and leadership focus on 
operational contract support and contingency contracting.
    Question. Section 844 of the NDAA for Fiscal Year 2012 requires DOD 
to implement a commission recommendation by establishing annual 
competition goals for contingency contracts.
    Do you agree that sole-source contracting, while it may be 
necessary in the early stages of a contingency operation, should be 
phased out as quickly as possible thereafter?
    Answer. Yes. I believe promoting competition is an important 
Departmental focus area. Competition in a mature military operation 
such as Operation Enduring Freedom is a key means of obtaining the best 
business deal for the warfighter. But the long-held flexibility 
provided by statutory exceptions to competition is instrumental in 
assisting the forces, particularly in obtaining urgent requirements as 
they begin military operation. I believe it is in the best interest of 
the government to compete requirements as soon as practicable. If 
confirmed, I will continue to emphasize the importance of competition 
in getting the best business deals for our taxpayers.
    Question. What is the status of the Department's efforts to 
implement the requirements of section 844?
    Answer. The Defense Procurement and Acquisition Policy Director 
established the contingency competition goals required by section 844 
on February 17, 2012. In addition, this event was used as an 
opportunity to improve transparency into contingency competition data. 
If confirmed, I will continue to emphasize transparency and competition 
in contracting.
    Question. Are there additional steps that the Department should 
take to reduce its reliance on sole-source contracts in contingency 
operations?
    Answer. Although the competition rate in Iraq and Afghanistan has 
generally been well over 80 percent, I believe the Department should 
look for opportunities to do even better. With the recent initiative to 
improve transparency into contingency competition data through a unique 
code in the Federal Procurement Data System for Operation Enduring 
Freedom, the Department expects to gain additional insights into 
opportunities for increased competition. If confirmed, I intend to 
monitor this area closely to ensure competitive procedures are 
effectively implemented and used whenever possible.
    Question. Section 806 of the NDAA for Fiscal Year 2012 requires DOD 
to implement a commission recommendation to improve the operation of 
its past performance databases.
    What is the status of the Department's efforts to implement the 
requirements of section 806?
    Answer. I believe that more effective use of past performance data 
bases is needed in general, not just in contingency contracting. There 
are actually two ongoing efforts to implement section 806, ``Inclusion 
of Data on Contractor Performance in Past Performance Databases for 
source selection decisions.'' The first is a DOD, GSA, and NASA 
proposed change to the Federal Acquisition Regulation to provide 
Government-wide standardized past performance evaluation factors and 
performance rating categories and require that all past performance 
information be entered into the Contractor Performance Assessment 
Reporting System (CPARS). The proposed rule responds to the 
requirements of section 806 to: (1) establish standards for the 
timeliness and completeness of past performance submissions; and (2) 
assign responsibility and management accountability for the 
completeness of past performance submissions for such purposes. At the 
present time, the proposed rule is in final drafting. The second is a 
Defense Acquisition Regulation Council proposed rule currently in 
drafting that will address the requirements of section 806 with regard 
to the statutory notification and transfer requirements to send the 
contractor assessment to the Past Performance Information and Retrieval 
System (PPIRS) after the 14 day period established.
    Question. What additional steps will you take, if confirmed, to 
improve the Department's use of past performance data in the award of 
new contracts?
    Answer. I believe that it is critical that the Department have up-
to-date and accurate information about defense contractors in source 
selections for new awards. The Federal Acquisition Regulation (FAR) 
already requires that a contractor's past performance be evaluated in 
all source selections for negotiated competitive acquisitions expected 
to exceed the simplified acquisition threshold. It has been a challenge 
to ensure that past performance data is entered into the Contractor 
Performance Assessment Reporting System (CPARS). I recently wrote to 
all the defense components stressing the importance of not only 
completing assessments in a timely manner but also including quality 
supporting narratives with the ratings. These assessments are a shared 
responsibility between the program manager team and the contracting 
officer and the acquisition chain of command must continue the effort 
to ensure compliance. If confirmed I will continue to emphasize the 
importance of past performance and to hold the chain of command 
responsible.
                      private security contractors
    Question. In 2010, the Armed Services Committee reviewed DOD's use 
of private security contractors in Afghanistan and identified numerous 
problems, including a lack of oversight, failure to comply with 
existing statutory and regulatory requirements, and improper 
qualification and vetting of security contractor personnel. Section 831 
of the NDAA for Fiscal Year 2011 established new oversight and 
accountability requirements for contractors performing private security 
functions in an area of combat operations. Section 833 of that Act 
required the establishment of standards and certification requirements 
for private security contractors. In 2011, the Commission on Wartime 
Contracting recommended that DOD and other Federal agencies 
significantly reduce their reliance on private security contractors.
    What is your view of the recommendations of the Commission on 
Wartime Contracting regarding the use of private security contractors?
    Answer. I generally agree with the observations and recommendations 
of the Commission on Wartime Contracting, including those on private 
security contracting. The Department recognized many of these problem 
areas independently of the Commission's work and began Department-level 
regulatory initiatives to address them as soon as the Department was 
aware of them. These initiatives include revisions to the Federal 
Acquisition Regulation and the Defense supplement to that regulation, 
the publication of a new rule governing private security contractors 
under title 32 of the U.S.C., and implementation instructions for 
operational contractor support and for Private Security Contractors 
(PSC) in particular. These efforts establish clear policy for the use 
of PSCs in contingencies and similar operations and address issues such 
as background screening and vetting, registration, reporting, and 
determining those situations when PSCs may and may not be used. 
Following the legislative guidance provided by Congress in the 2008 and 
2011 NDAAs, these rules apply to all U.S. Government agencies 
contracting for security services in areas of combat or other 
significant military operations, not just to Defense Department 
contracts, and are codified in the Code of Federal Regulations (CFR). 
The standards and certification requirements for PSCs, developed 
pursuant to section 833 of the 2011 NDAA, will provide additional 
controls and accountability over private security contractors. Since 
this will be a commercial standard, it can be used by the U.S. Agency 
for International Development (USAID) implementing partners, other 
governments, and private sector users of PSC services, and therefore 
offers the potential to raise the level of performance of all security 
contractors, not just those of DOD.
    Question. Do you believe DOD and other Federal agencies should 
reduce their reliance on contractors to perform security functions that 
may reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations?
    Answer. I believe that any use of PSCs must be carefully considered 
against the risk of becoming involved in combat operations, of causing 
inadvertent harm to the civilian population, and of damaging the 
performance of the mission. In counterinsurgency and counterterrorism 
operations, without clear lines of battle or safe areas, the military 
troops or police that might be needed to protect all of the logistics, 
installation and personnel needing protection (including relief, 
recovery, and development activities that are conducted simultaneously 
with combat operations) can easily be prohibitive. PSCs may be the only 
practical solution. When it is appropriate and necessary to use PSCs, 
these security contractors must be properly regulated and supervised to 
ensure that the services are being performed competently and within 
well-defined limitations. Under these circumstances, I believe that the 
use of security contractors in contingency operations is acceptable and 
I believe that current levels are consistent with this approach.
    Question. What steps if any would you take, if confirmed, to ensure 
that any private security contractors who may continue to operate in an 
area of combat operations act in a responsible manner, consistent with 
U.S. defense and foreign policy objectives?
    Answer. If confirmed, I will continue to support the efforts 
already begun within the Office of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, in the Military Services, and 
in the combatant commands and with other agencies and internationally. 
These efforts include development of Department-level policy, 
coordinating this policy with the Departments of State and Justice and 
other Government agencies, and engaging the international community to 
provide a common framework for the proper roles and oversight of 
private security contractors and the enforcement of those policies 
during overseas operations by the appropriate authorities. I will 
continue the work to implement fully the recently published provision 
in title 32 of the U.S.C. that applies to private security contractors 
working for all Federal agencies operating in overseas operations, 
consistent with DODI 3020.50. I believe that additional work remains to 
be done to ensure that DOD instructions and combatant commander 
guidance and orders remain current, clear, and aligned with U.S. 
defense and foreign policy objectives. The imminent publication of the 
business and operational standards required by section 833 of the 2011 
NDAA will improve the standards of performance for all PSCs. These 
standards will be available for use by other U.S. Government agencies 
and anyone who contracts for PSC services. Collaboration among DOD, the 
Department of State, and other governmental agencies must continue. 
This will ensure consistent policy is developed across the Federal 
Government with potential coalition partners and host nations, 
promoting a common interagency and international understanding of 
responsible use and oversight of private security services. Collective 
collaboration will also result in the use of binding and enforceable 
standards for private security contractors.
                     socom acquisition authorities
    Question. U.S. Special Operations Command (SOCOM) is unique within 
DOD as the only unified command with acquisition authorities and 
funding. Further, the Commander of SOCOM is the only uniformed 
commander with a subordinate senior acquisition executive.
    Would you recommend any changes to SOCOM's current acquisition 
authorities?
    Answer. No. I believe that SOCOM currently has appropriate 
acquisition authorities. If confirmed, I will continue to meet 
periodically with the Commander, SOCOM and the SOCOM Acquisition 
Executive to discuss opportunities to improve acquisition efficiency 
and effectiveness.
    Question. What role do you believe SOCOM's development and 
acquisition activities should play in broader Service and DOD efforts?
    Answer. I believe that SOCOM's activities should continue to be 
coordinated with those of the broader Department acquisition system to 
achieve synergies, avoid duplication, control cost, and identify best 
practices that can be used more widely. The Department should always 
seek the broadest benefit and application of its development and 
acquisition activities, including those activities sponsored or led by 
SOCOM.
    Question. If confirmed, how would you ensure that special 
operations capabilities and requirements are integrated into overall 
DOD research, development, and acquisition programs?
    Answer. Approximately 18 months ago, Dr. Carter and I instituted a 
``SOCOM Acquisition Summit'' that meets every 6 months to coordinate 
and integrate SOCOM's activities with the rest of the Department. These 
meetings have been very beneficial to both SOCOM and the Department, 
and if confirmed I will continue to hold them and use them as a 
catalyst to improve the Department's efficiency and effectiveness and 
to ensure SOCOM's acquisition needs are understood and are being met. 
If confirmed, I will continue to work with SOCOM, the Services, and 
defense agencies to improve their collaboration efforts in order to 
achieve the most efficient allocation of the Department's research, 
development, and acquisition resources.
                          contracting methods
    Question. In recent years, DOD has relied heavily on time-and-
materials contracts for the acquisition of services. Under such a 
contract, the Department pays a set rate per hour for contractor 
services, rather than paying for specific tasks to be performed. In 
some cases, contractors have substituted less expensive labor under 
time-and-materials contracts, while continuing to charge Federal 
agencies the same hourly rates, resulting in effective contractor 
profits of 25 percent or more.
    What is your view of the appropriate use of time-and-materials 
contracts by DOD?
    Answer. I believe that time-and-materials (T&M) contracts are the 
least desirable contract type because they provide no positive 
incentive for cost control or labor efficiency. There are circumstances 
when the use of T&M contracts is appropriate such as situations 
requiring emergency repairs or immediate disaster response, but when 
used, the conditions that supported the decision to use them must be 
documented. A T&M contract might be appropriate when commercial 
services that are commonly provided in this way are not reasonably 
available by other contracting approaches. Legal services could fall 
into this category, for example. The Better Buying Power memorandum of 
September 14, 2010 includes direction to move away from T&M contracts 
for services and move toward Cost Plus Fixed Fee or Cost Plus Incentive 
arrangements when robust competition or recent competitive pricing 
history does not exist to provide the ability to firm fix price the 
effort.
    Question. What steps if any do you believe the Department should 
take to minimize the abuse of time-and-materials contracts?
    Answer. The Department has already taken steps to minimize the use 
of T&M contracts. Their use is questioned in all peer reviews and 
during the review of service acquisition strategies. T&M awards within 
the Department have decreased by 49 percent since 2009, down from 5,505 
in 2009 to 2,836 in 2011, a reflection of the direction in the Better 
Buying Power memorandum of 2010. As recently as early February, the 
Federal Acquisition Regulation was revised to ensure that T&M contracts 
are used to acquire commercial services only when no other contract 
type is suitable and to instill discipline in the determination of 
contract type with the view toward managing risk to the Government.
    Question. Section 852 of the John Warner NDAA for Fiscal Year 2007 
requires DOD to promulgate regulations prohibiting excessive ``pass-
through'' charges on DOD contracts. Pass-through charges are charges 
added by a contractor for overhead and profit on work performed by one 
of its subcontractors, to which the contractor provided no added value. 
In some cases, pass-through charges have more than doubled the cost of 
services provided to DOD.
    What is your view of the regulations promulgated by DOD to 
implement the requirements of section 852?
    Answer. The Department has made several changes to the FAR and 
DFARS to implement the requirements of section 852 in the last few 
years. FAR 52.215-22--Limitations on Pass-Through Charges--
Identification of Subcontract Effort (Oct. 2009) requires contracting 
officers to review contractor proposals, before agreeing to a price, to 
verify that the contractor's efforts add value where there is 
significant subcontracting and to ensure there are no excessive pass-
through charges. After contract award, contracting officers can recover 
excessive pass-through charges and reduce the contract price. FAR 
52.215-23--Limitations on Pass-Through Charges (Oct. 2009) requires 
contractors to notify the Contracting officer if 70 percent of the 
total cost of work to be performed is intended to be subcontracted or 
reaches this level during the performance of the contract. The 
contractor must then provide documentation to describe their value 
added, indirect costs and profit/fee applicable to the work performed 
by the subcontractor(s). This requirement flows-down to the lower-tier 
subcontractors as well. Additional changes include FAR 31.2 which 
entitles the government to a price reduction for excessive pass through 
charges and FAR 52.215-2 provides the right for the government to 
examine the contractor's records. I believe these regulations are an 
important step in addressing pass-through charges, but they will only 
be effective if they are implemented by experienced program and 
contract management professionals.
    Question. What additional steps if any do you believe the 
Department should take to address the problem of excessive pass-through 
charges?
    Answer. In addition to implementing the requirements of section 
852, the Department is taking steps through two Better Buying Power 
initiatives to address this issue. If confirmed, I will continue to 
implement those steps. The first is to address the issue of excessive 
pass-through charges as an element of to be considered in determining 
pricing arrangements in contracting, particularly sole-source 
contracting. Effective supply chain management is one of the services 
the Department expects from its prime contractors and the Department 
should structure its business arrangements to reward superior 
performance, particularly price reduction, in this area. Conversely, 
where a prime contractor is not providing value added, as in the 
acquisition of a commodity, the premium the Department pays for supply 
chain management should be very limited. This is an element of the 
Department's peer reviews of pending acquisitions. Pre-award peer 
reviews of non-competitive actions have placed special emphasis on the 
need to align contractor profitability to performance and avoid blanket 
profit levels. The second Better Buying Power initiative that applies 
here is the use of ``should cost'' review. These reviews are conducted 
by Program Managers to identify opportunities for cost reduction and 
can result in changes to acquisition strategies including break out of 
components from primes for direct acquisition by the government and 
more effective negotiations of total price. Another step that the 
Department is in the process of taking is to implement a final DFARS 
rule on the use of a Proposal Adequacy Checklist, which will also 
provide guidance in the review of proposals to prevent excessive-pass 
through charges.
                        interagency contracting
    Question. What is your assessment of the risks and benefits 
associated with DOD's continued extensive use of interagency contracts?
    Answer. The decision to utilize interagency contracts to meet 
Department requirements is essentially a business decision that should 
take many factors into account. When done properly, interagency 
contracts can be an efficient and effective method of meeting important 
requirements. While often convenient, however, interagency contracts 
can be used to avoid oversight and the control mechanisms associated 
with sound management. I believe the practice does have utility, but 
must be carefully monitored to ensure it is not abused.
    Question. Do you believe additional authority or measures are 
needed to hold DOD or other agency personnel accountable for their use 
of interagency contracts?
    Answer. I do not have any information that would suggest that 
existing statute, regulation, and policy are insufficient with regard 
to accountability and the proper use of interagency contracts if 
properly implemented. If confirmed, I would be open to considering such 
measures if the need became apparent.
    Question. Do you believe contractors have any responsibility for 
assuring that the work requested by DOD personnel is within the scope 
of their contract?
    Answer. Yes, however the primary responsibility for ensuring work 
is within the scope of a particular contract rests with the contracting 
officer. If the contractor believes the DOD work is outside the scope 
of the other agency's contract, he has a responsibility to discuss it 
with the other agency contracting officer.
    Question. Do you believe that DOD's continued heavy reliance on 
outside agencies to award and manage contracts on its behalf is a sign 
that the Department has failed to adequately staff its own acquisition 
system?
    Answer. I do not believe that the use of non-DOD agencies to award 
and manage contracts on behalf of the Department is generally a 
reflection that the Department has failed to adequately staff its own 
acquisition needs. Interagency acquisition can support the whole of 
Government approach to strategic sourcing and leveraging the buying 
power of the Federal Government. The Department should continue to 
utilize the expertise of non-DOD agencies as authorized by Congress, 
when it is done properly, efficiently and effectively, and is a cost 
effective alternative to direct DOD management.
                       alaska native corporations
    Question. Over the last few years, there have been a number of 
reported abuses involving defense contracts awarded to Alaska Native 
Corporations (ANCs) under Section 8(a) of the Small Business Act. 
Section 811 of the NDAA for Fiscal Year 2010 required that sole-source 
awards to ANCs in excess of $20 million be subject to the same 
``justification and approval'' applicable to other large sole-source 
contracts.
    What is your understanding of the status of the Department's 
implementation of section 811?
    Answer. DOD implemented the interim rule regarding section 811, 
immediately upon its publication on March 16, 2011 and provided 
guidance to the DOD acquisition community.
    Question. If you are confirmed, what additional steps if any would 
you take to address abuses of the 8(a) program?
    Answer. If confirmed, I will continue to ensure that the 
acquisition community monitors 8(a) acquisitions for potential abuses 
and that DOD addresses reported abuses as they arise.
    Question. In one reported case, Army Corps of Engineers officials 
allegedly conspired with a subcontractor allegedly to rig a bid by 
stacking the source selection board to favor a particular bidder.
    Are you comfortable that the Department has effective controls in 
place to prevent the ``stacking'' or manipulation of source selection 
boards?
    Answer. On the whole, I believe this type of activity is 
exceedingly rare, but it can occur and must be vigorously guarded 
against. I believe that even the perception that activities like this 
may have occurred is extremely damaging to the credibility of the 
acquisition system. When conducting competitively negotiated source 
selections within the Department, compliance with statutory and 
regulatory requirements is absolutely required. Those requirements 
include fairness and objectivity in source selection as a fundamental 
value that is central to an effective system. I believe there are 
adequate controls in place, but that constant reinforcement of the 
importance of following the rules with regard to fair and objective 
source selection is a continuing responsibility of every individual 
working in the acquisition system.
    Question. Are you comfortable that effective controls are currently 
in place to prevent the ``stacking'' or manipulation of source 
selection boards on acquisitions with a total estimated value of less 
than $100,000,000, where the Procurement Contracting Officer may also 
serve as the Source Selection Authority, responsible for appointing the 
chairperson of the Source Selection Evaluation Board?
    Answer. Yes, the Services and agencies have strong warranting 
programs and require annual ethics training. I am aware, however, of a 
recent allegation that a contracting officer may have ``stacked'' a 
source selection panel.
    Question. If not, what additional controls would you, if you are 
confirmed, put in place to help ensure that source selection boards 
cannot be ``stacked'' or otherwise manipulated to favor a particular 
bidder, especially on low-profile contracts of relatively small value?
    Answer. If confirmed, I will direct the section 813 panel review 
the procedures for establishing source selection panels, especially 
those where the contracting officer will be the source selection 
authority, to ensure the existing procedures are sound.
                 acquisition of information technology
    Question. Most of the Department's Major Automated Information 
System acquisitions are substantially over budget and behind schedule. 
In particular, the Department has run into unanticipated difficulties 
with virtually every new business system it has tried to field in the 
last 10 years. Section 804 of the NDAA for Fiscal Year 2010 required 
DOD to establish a new acquisition process for information technology.
    Do you believe that unique problems in the acquisition of business 
systems require different acquisition strategies or approaches?
    Answer. Yes, I believe there are unique characteristics associated 
with the acquisition of information systems that call for the use of 
acquisition approaches different from those normally used by the 
Department for acquiring weapon systems. All acquisitions should be 
tailored to the nature of the product being acquired. As a class, 
business systems are products having characteristics that tend to 
dictate a specific type of program structure. They can be generally 
characterized as products that are based on commercial information 
technology infrastructure and commercial software that has to be 
adapted, often extensively, to meet Defense Department requirements. 
The Department has already begun to adapt to the unique challenges of 
business information system acquisition through the implementation of 
the Business Capability Lifecycle (BCL), an acquisition approach for 
defense business systems that emphasizes well defined increments of 
capability that are developed, tested, and often fielded in increments 
structured around 1 to 2 year software builds. This structure will also 
be incorporated as one of the acquisition approaches covered by the new 
DODI 5000.02 which is currently in staffing.
    Question. What steps if any do you believe DOD should take to 
address these problems?
    Answer. The issuance of the June 23, 2011, directive requiring the 
use of the BCL for the acquisition process for business systems and the 
updates being made to the DODI 5000.02 for BCL policies and procedures 
are important steps forward in improving the acquisition processes. The 
Department has been implementing the BCL model on a case-by-case basis 
for approximately 2 years. It is the Department's intent that each new 
defense business system will begin its lifecycle under the BCL model. 
If confirmed I will continue to engage and direct the incremental 
acquisition approach to delivering capabilities, as well as engage the 
Department to look for opportunities whenever possible to tailor the 
acquisition process to further improve outcomes. If confirmed, I will 
also monitor the effectiveness of this approach to acquiring business 
systems to determine if further changes are needed.
    Question. What steps has the Department taken to implement the 
requirements of section 804? What steps remain to be taken?
    Answer. The Department has made steady progress in implementing 
several of the key approaches outlined in section 804, specifically in 
the areas of Acquisition, Requirements, Testing and Certification and 
Human Capital. On June 23, 2011, a Directive-Type Memorandum (DTM) on 
BCL was signed and issued by USD(AT&L). The BCL provides a framework 
for implementing a more flexible and streamlined process for the 
acquisition of these business information systems. I recently launched 
efforts to update DODI 5000.02 in part in order to implement some key 
IT acquisition reform efforts indentified in the 804 report. The 
departments testing community has been working in collaboration with 
USD(AT&L) to incorporate an integrated testing, evaluation, and 
certification approach into the DODI 5000.02, to reduce redundancies in 
system testing activities and improve the efficiency and effectiveness 
of testing the Department's information systems. The Joint Staff has 
also initiated efforts to include more streamlined requirements 
management and approval process for acquisition of information systems. 
A comprehensive review of IT acquisition competencies is also currently 
being conducted by the Department's Chief Information Officer (CIO). 
This review will update the IT acquisition competencies to better 
define DOD critical skill sets and assist in the update of curricula at 
the Defense Acquisition University and the Information Resources 
Management College. We are working directly with ongoing and new start 
acquisition programs to drive many of the IT reform principles 
identified in section 804. Implementation of Business Capabilities 
Lifecycle (BCL) is a current focus area. The Department will use the 
experience and lessons learned from the ``pilots/early adopters'' to 
inform and shape the ongoing improvements and updates to policy and 
guidance.
    Question. If confirmed, how would you work with the CIO of DOD to 
take these steps?
    Answer. If confirmed, I will continue to work closely with the DOD 
CIO, and I will ensure the OUSD(AT&L) staff and the DOD CIO staff work 
collaboratively to identify and take any steps needed to improve the 
acquisition of information technology based capabilities. This is an 
important area for the Department to achieve more consistent and better 
outcomes given the continuing evolution of technology.
    Question. Section 806 of the NDAA for Fiscal Year 2011 gives DOD 
new tools to address supply chain risk in the acquisition of 
information technology.
    What is the status of the Department's efforts to implement the 
requirements of section 806?
    Answer. Section 806 provides pilot authority for the Department to 
deny award to a vendor if USD(AT&L) determines, based on intelligence 
provided by the DOD CIO, that the vendor is a threat. The authorities 
provided by section 806 have the potential to significantly reduce 
risks associated with those who may have intentions to damage our 
systems and capabilities through the supply chain. The challenge is to 
exercise these authorities effectively; particularly the potential 
changes to source selection, debriefing and protest procedures. The DOD 
components and AT&L General Counsel are discussing the potential for 
rulemaking. Three procurement pilots have been identified.
    Question. What additional steps do you believe the Department needs 
to take to address supply chain risk?
    Answer. The Department's approach to addressing supply chain risk 
encompasses a number of efforts including use of the specific 
authorities of Section 806 and more recently enacted legislation. I 
believe the Department needs a comprehensive approach to supply chain 
risk. If confirmed, this will remain a high priority for me and I will 
work to identify additional steps to address this risk.
    Question. Section 818 of the NDAA for Fiscal Year 2012 establishes 
new requirements for DOD and its contractors to detect and avoid the 
use of counterfeit electronic parts.
    What steps has the Department taken to implement the requirements 
of section 818?
    Answer. I have recently signed out a memorandum providing 
overarching guidance to the Services and Agencies. The memorandum 
directs specific actions, including using risk assessment for the 
impact of a counterfeit part, directing the purchase of mission 
critical items from the manufacturer's distribution chain, reporting 
all counterfeit incidents within the Department's supply chain to the 
Government Industry Data Exchange Program (GIDEP), and directing the 
use of existing DFAR clauses to address counterfeiting while the 
Department coordinates a broader anti-counterfeit DFAR case. This 
memorandum covers items that could potentially affect mission 
performance and warfighter safety, in addition to electronics parts.
    Question. What steps remain to be taken, and what schedule has the 
Department established for taking these steps?
    Answer. In addition to efforts to strengthen contracting clauses, 
establish central reporting of counterfeit incidents, and collaborate 
with industry on the development of counterfeit standards, the 
Department is taking steps to define requirements and processes for the 
purchase of critical items from ``Trusted Suppliers''. The Department 
is also working closely with the Department of Homeland Security on 
anti-counterfeit inspections, and defining rules for the reimbursement 
of counterfeit costs. This will lead to revisions in policies, such as 
the DOD Instruction 4140, the Supply Chain Materiel Management 
Regulations, and the development of changes to procurement regulations, 
including the Defense Federal Acquisition Regulation Supplement. While 
the definitive schedule will be based on the assessment mandated by the 
legislation, the Department continues its ongoing efforts to address 
counterfeit material in its supply chain. If confirmed, I will ensure 
that section 818 is implemented as expeditiously as possible.
    Question. What additional steps do you believe the Department needs 
to take to address the problem of counterfeit electronic parts?
    Answer. I believe the Department should explore expanded use of 
technology to assist in combating this threat. This includes developing 
tools to provide greater traceability and validation of authenticity 
over the components lifecycle, such as, DNA marking, unique identifiers 
inserted at time of manufacturing, and software methods. These steps 
could have a significant impact on the problem of counterfeit 
electronic parts, and if successful, greatly decrease the probability 
of counterfeit items in the DOD supply chain in the future.
    Question. Some have argued that the current test and evaluation 
process does not appropriately address the unique circumstances 
applicable to the acquisition of information technology systems.
    What steps if any do you believe the Department should take to 
improve the test and evaluation process for information technology 
systems, including their vulnerabilities in the face of a growing 
cybersecurity threat environment?
    Answer. Information technology systems are ubiquitous but occur in 
several very distinct types of products: they are embedded in weapon 
systems, found in specialized command and control systems, and are the 
basis for the Department's business systems. The Department should 
continue to explore more efficient and effective test regimes for each 
of these situations. To support iterative, incremental software 
development, I believe the Department should move toward a more 
continuous integration and test approach that integrates developmental 
test, operational test, and certification and accreditation activities 
to the greatest extent practical. This approach will rely more heavily 
on early user involvement, use of automated testing, and continuous 
monitoring of deployed capabilities. An essential element of this 
approach is a robust pre-production cyber test environment that permits 
us to better understand and characterize the cyber threat, and take 
corrective actions prior to fielding systems. I believe that the 
Department still has a considerable amount of work to do in maturing 
this capability, building on the test-beds and laboratories that have 
already been established. The Report on the Acquisition and Oversight 
of Department of Defense Cyberspace Operations Capabilities that I 
recently submitted to Congress provides more detail on the steps that 
need to be and are being taken.
                 cyberspace-related procurement policy
    Question. DOD's new strategic guidance highlights the increasing 
importance of cyber operations with respect to both defensive and 
offensive capabilities. As a result, this is one of the few areas in 
which the Department is proposing to increase its investments.
    What acquisition challenges do you foresee that are unique to the 
procurement of cyber-related capabilities?
    Answer. There are a number of challenges in this area, but the 
greatest one is time and the need for agility. I recently submitted a 
report to Congress that describes the Department's new cyber 
acquisition management approach, which I am just beginning to 
implement. Cyber offense and defense products are usually far smaller 
in dollars than the major programs that undergo Department level 
oversight, but they are critical to the Department's capabilities. 
Cyber related products must often be developed, tested and fielded on 
very short timelines that keep pace with both the threat and the 
agility with which new technologies are created and enter the market 
place. The implementation challenges to acquiring cyber capabilities at 
the pace needed will be: (1) streamlining the acquisition framework to 
manage risk and accommodate the rapid timelines of information 
technology modernization and cyberspace operations; (2) evaluating 
operational performance and risk while maintaining speed of execution; 
(3) establishing a robust infrastructure for developing and testing 
cyber capabilities quickly and effectively prior to implementation; and 
(4) enabling timely collaboration across the Department, across the 
Government, and with industry to address a ubiquitous problem that will 
require strong collective action. If confirmed, I will continue to 
implement and refine this approach.
    Question. What steps if any will you take, if confirmed, to address 
these unique challenges?
    Answer. Section 933 of the Ike Skelton NDAA for Fiscal Year 2011 
directed the Department to provide a strategy for the rapid acquisition 
of tools, applications, and other capabilities for cyber warfare. The 
Department's response to Congress, which I recently submitted, 
addressed many of the challenges I have described. If confirmed, I will 
actively oversee the Department's cyber acquisition investments in 
cooperation with the Under Secretary of Defense for Policy, the Vice 
Chairman of the Joint Chiefs of Staff, the Chief Information Officer, 
the Commanders of STRATCOM and CYBERCOM, and the Services. I will also 
work with other agencies and with industry to address the challenge of 
cyber offense and defense acquisition.
                         acquisition workforce
    Question. Section 852 of the NDAA for Fiscal Year 2008 established 
an Acquisition Workforce Development Fund to help DOD address 
shortcomings in its acquisition workforce. The fund provides a 
continuing source of funds for this purpose.
    Do you believe that the Acquisition Workforce Development Fund is 
still needed to ensure that DOD has the right number of employees with 
the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. Yes. The fund supports continued strengthening of the 
acquisition workforce. The quality and capability of this workforce is 
critical to improved acquisition outcomes and achieving efficiencies.
    Question. If confirmed, what steps will you take to ensure that the 
money made available through the Acquisition Workforce Fund is spent in 
a manner that best meets the needs of DOD and its acquisition 
workforce?
    Answer. If confirmed, I will continue to work closely with senior 
acquisition leaders and the leadership of the Military Departments to 
ensure that only sufficient levels of funding are used and that the 
funding is employed to meet the Department's highest priority needs. I 
have directed the Military Departments to reevaluate the balance of the 
various acquisition professional career fields in their workforces 
funded through DAWDF, and if confirmed I will work to ensure the 
Department has an appropriate balance.
                      the defense industrial base
    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. In concise terms; capable and healthy, but understandably 
nervous and cautious. The industrial base greatly is concerned about 
the unthinkable possibility of sequestration and the near certainty of 
defense budgets that will be essentially flat at best. This is a major 
change from the first decade of this century, and something everyone is 
adjusting to. The changes currently taking place, including the 
reduction of nearly half a trillion dollars from the planned defense 
budget over 10 years, with more possible even if sequestration is 
avoided, is of great concern to the defense industry and skilled 
workers that support our national defense. I believe that defense 
industry is a vital component of our total force structure and as such, 
its health is essential to our national security. The industrial base 
today is increasingly global, commercial, and financially complex, with 
significant differences in the business environment faced in different 
sectors and at different tiers of the supply chain. Demand for many 
products has been very strong in recent years, other parts of the 
industrial base faced low demand even during the up-cycle of defense 
spending. Overall, our industry produces systems that offer an 
unsurpassed technological advantage to our warfighters, but I believe 
the industrial base could significantly improve the efficiency with 
which it produces these products and the Department must be prepared to 
assist them in doing so. If confirmed, I will carefully monitor the 
industrial base and adapt policies and make necessary investments when 
warranted to minimize risk to our technological advantage for future 
warfighters.
    Question. Do you support further consolidation of the U.S. defense 
industry?
    Answer. As far as merger and acquisition activity at the major 
prime level, I do not believe that further consolidated at that level 
is likely to be in the interest of either the warfighter or the 
taxpayer. I believe the Department should preserve as much competition 
as possible at every tier. Below the top tier, I believe it is a 
reasonable expectation that there will be some further transaction 
activity as industry repositions in response to the current budget 
environment and the new strategy. That is normal and healthy, and I 
believe it should be driven by market forces and industry, not by the 
government. The Department will certainly fulfill our commitments to 
seriously and judiciously review all proposed mergers and acquisitions 
on a case-by-case basis to ensure they are consistent with the 
preservation of competition and the continued health of the industrial 
base.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. Foreign investment can provide benefits to the Department 
and the economy, but each investment must be considered on its own 
merits. I am generally supportive of investment in the defense sector 
including foreign investment if appropriate national security concerns 
have been resolved and such investments do not compromise the 
department's critical technology supply chain. As Acting Under 
Secretary, I have the lead role in DOD's participation in the Committee 
on Foreign Investment in the United States (CFIUS) which conducts 
national security reviews of foreign acquisitions of U.S. firms. I 
support a leading role for DOD and a strong presence on CFIUS. I also 
support robust DOD participation in implementation of the export 
control laws to help ensure that defense-relevant U.S. technologies 
resident in foreign-owned or controlled firms with DOD contracts are 
not inappropriately transferred overseas or to foreign nationals.
    Question. What steps if any do you believe DOD should take to 
ensure the continued health of the U.S. defense industry?
    Answer. I believe one of the most important steps the Department 
can take to ensure the continued health of the industry is to engage 
our industrial partners directly and be open with industry about 
Department plans and intentions. The Department must also continue and 
enhance our efforts to be receptive to industry concerns and address 
legitimate issues as quickly and efficiently as possible. The 
Department must also take all responsible steps to ensure that the 
defense industry can support our warfighters' needs, now and in the 
future. For some product and technologies, the Department is the only 
customer, so the Government's budget and program choices have 
significant influence on the financial health of the providing 
companies. The Department's primary mechanism for supporting the 
industrial base is through the programs that buy the defense industry's 
products. In exceptional cases, when an acquisition program will not 
support the minimum volume that a niche supplier needs to remain 
viable, I believe the Department should consider the use of various 
strategies to ensure the continued health of segments of the defense 
industry that are deemed vital to our future capabilities. The Defense 
Production Act title III authority, the Industrial Base Innovation 
Fund, and the Manufacturing Technology Program are three such resources 
to support critical capabilities that are at risk. These interventions 
should only in exceptional cases, which I believe will be rare.
    Question. What is your understanding of the status of the 
Department's ongoing Sector-by-Sector, Tier-by-Tier (S2T2) analysis of 
the defense industrial base?
    Answer. The S2T2 project is making solid progress, but it is a 
process, not a singular effort, so its status is, and will remain, 
ongoing. The Department has used several techniques to collect a broad 
baseline of data across the sectors and down the tiers of the 
industrial base, and that data has already proven useful in considering 
the industrial base implications of some proposed program adjustments. 
The Department integrated initial S2T2 analysis into the process of 
developing the Department's fiscal year 2013 budget proposal, and if 
confirmed, one of my priorities will be to institutionalize the process 
to evaluate the impact of acquisition decisions on the industrial base. 
S2T2 is also making strong progress in fulfilling its mission to serve 
as the Department's central repository for industrial base data, 
working with the Services and components to eliminate duplication and 
fill in gaps in data collection.
    Question. Has the Department taken any concrete steps to enhance 
the health and status of a particular sector or tier based upon this 
analysis?
    Answer. In response to initial analysis of S2T2 data, the 
Department adjusted some of the program schedules in the fiscal year 
2013 budget proposal to smooth workflow, maintaining the health of some 
critical and fragile niches in the industrial base. The Department has 
also adjusted the emphasis in planning for some industrial base 
investments through the Manufacturing Technology Program and the 
Defense Production Act title III authority, responding to data 
collected as part of the S2T2 program. Moreover, as the Department 
enters deliberations on the fiscal year 2014 budget, data collected as 
part of the S2T2 effort will be essential as the Department 
institutionalizes the process to consider the industrial base impacts 
of program decisions.
    Question. Under what circumstances if any do you believe the 
Department should use Defense Production Act title III authorities to 
address defense industrial base needs?
    Answer. I believe that the Department should use title III 
authorities, consistent with section 303 of that law, which requires 
two determinations submitted to Congress prior to contract execution--
(1) Such action ``is essential to the national defense; and (2) without 
[such action], United States industry cannot reasonably be expected to 
provide the capability for the needed industrial resource, material, or 
critical technology item in a timely manner.'' Title III decisions 
should be informed by thorough industrial base analysis, based largely 
on activities of the Defense Production Act Committee (DPAC), as well 
as the Sector-by-Sector Tier-by-Tier (S2T2) project, and Space 
Industrial Base Council Critical Technology Working Group (CTWG). 
Established by section 722 of the act, DPAC is composed of Department 
and Agency heads from across the Federal Government. Its mandate is to 
advise the President on the effective use of DPA authorities, including 
title III provisions. The CTWG was chartered to assess key domestic 
space industries and, when necessary, coordinate strategies (primarily 
through DPA title III) for ensuring reliable access to critical space-
related products. The CTWG is composed of military, intelligence, and 
civilian agency representatives. The Department should rely on these 
sources of information and advice as well as other sources in 
determining industrial base priorities for DPA title III investments.
    Question. What is your view of current or anticipated consolidation 
efforts by major defense contractors?
    Answer. As far as merger and acquisition activity at the major 
prime level, I do not believe that further consolidated at that level 
is likely to be in the interest of either the warfighter or the 
taxpayer. I believe the Department should preserve as much competition 
as possible at every tier. Below the top tier, I believe it is a 
reasonable expectation that there will be some further transaction 
activity as industry repositions in response to the current budget 
environment and the new strategy. That is normal and healthy, and I 
believe it should be driven by market forces and industry, not by the 
government. The Department will certainly fulfill our commitments to 
seriously and judiciously review all proposed mergers and acquisitions 
on a case-by-case basis to ensure they are consistent with the 
preservation of competition and the continued health of the industrial 
base.
    Question. How does the Department evaluate the effect that such 
consolidations may have on the ability of DOD to leverage competition 
to obtain fair value and the best quality in the goods and services it 
procures and cultivate technological and engineering innovation?
    Answer. When examining a merger, the Department weighs potential 
harm to competition and innovation caused by horizontal consolidation 
and vertical integration against potential benefits such as reduced 
overhead costs and other synergies for both existing and planned 
programs and future requirements.
    Question. What role, if any, should DOD have in vetting and 
approving or disapproving such consolidation efforts?
    Answer. The Department examines mergers and acquisitions 
concurrently and in cooperation with the DOJ or FTC and provides a 
unified Department position on major transactions to the appropriate 
antitrust regulatory agency for consideration in determining the U.S. 
Government's position. As the primary customer impacted by defense 
business combinations, the Department's views are particularly 
significant because of its special insight into a proposed merger's 
impact on innovation, competition, national security, and the defense 
industrial base. However, the regulatory agencies have the authorities 
provided by the antitrust statutes and may or may not take actions 
supported by the Department. In certain limited cases, the Department 
has in the past unilaterally asked the parties for certain behavioral 
or structural remedies to address potential issues. Where warranted, 
the Department supports transactions that eliminate excess capacity; 
achieve cost savings to the Department; and improve national security.
                          manufacturing issues
    Question. Section 812 of the NDAA for Fiscal Year 2011 requires DOD 
to issue comprehensive guidance to improve its management of 
manufacturing risk in major defense acquisition programs.
    What steps has the Department taken to implement the requirements 
of section 812? What steps remain to be taken?
    Answer. Section 812 of the NDAA for Fiscal Year 2011 required the 
Department to issue guidance on the management of manufacturing risk 
for the major defense acquisition programs. In July 2011, the Deputy 
Assistant Secretary of Defense for Systems Engineering (DASD(SE)) 
updated the Defense Acquisition Guidebook (DAG) with new guidance on 
how manufacturing readiness should be assessed throughout all phases of 
the acquisition process and at specific systems engineering technical 
reviews. This new guidance, added to DAG Chapter 4 (Systems 
Engineering), was developed based on industry best practices and prior 
DOD knowledge base maintained by DAU. If confirmed, I will continue to 
evaluate the impact of these steps and refine these best practices to 
stay abreast of rapidly changing technologies and industrial-base 
capabilities.
    Question. What additional steps would you take, if confirmed, to 
address continuing shortcomings in manufacturing research and 
capabilities in the development and acquisition of defense systems?
    Answer. If confirmed, I would continue to promote the Department's 
investments in advanced manufacturing technology and the transition of 
those concepts to the industrial base, through competitive incentives 
and direct investment.
    I also see great value in having program managers consider 
manufacturing and production issues early in program planning and 
source selection. Manufacturing technology should routinely be included 
in the risk reduction efforts during the technology demonstration phase 
of the acquisition process and through continuing engineering support. 
The Department should continue to embed advanced manufacturing into 
specific weapons system platforms through technology transition 
agreements between the Manufacturing Technology Program and the Program 
of Record.
    In late 2010, DARPA launched a major initiative to create 
revolutionary approaches to the design, verification and manufacturing 
of complex defense systems. Though the Adaptive Vehicle Make (AVM) 
portfolio, DARPA is developing design tools and manufacturing 
approaches that include a richer design space with the potential to 
compress development timelines dramatically. This work is maturing and, 
if confirmed, I will encourage the transition of these concepts to the 
industrial base.
    If confirmed, I will continue to emphasize the importance of 
manufacturing technology and seek creative mechanisms to advance it.
    Question. Do you believe that additional incentives are needed to 
enhance industry's incorporation and utilization of advanced 
manufacturing processes developed under the manufacturing technology 
program?
    Answer. In general, I believe that existing incentives are 
acceptable, but will be strengthened further by steps the Department 
and administration are taking. The Department's competitive acquisition 
and procurement processes incentivize offerors to pursue internal R&D 
investments in manufacturing technology and to employ advanced 
manufacturing processes in response to the DOD's solicitations. The 
recent efforts I have sponsored to create a Department Innovation 
Marketplace include manufacturing technologies. The Manufacturing 
Technology (ManTech) program is a partner in the National Strategic 
Plan for Advanced Manufacturing announced in February 2012 by the 
administration, which states, ``advanced manufacturing is a matter of 
fundamental importance to the economic strength and security of the 
United States.'' This strategy lays out a robust innovation policy, 
which incorporates intensive engagement among stakeholders at the 
national, State, and regional levels, including the DOD ManTech 
program, to promote U.S. competitiveness. If confirmed, I will seek out 
additional ways to provide incentives to industry to incorporate and 
utilize advanced manufacturing technologies.
    Question. What is your view of the utility of the Industrial Base 
Innovation Fund for advancing manufacturing technology and processes?
    Answer. The Industrial Base Innovation Fund (IBIF) has been and I 
believe will continue to be a valuable resource for addressing short 
term, operational needs and issues such as surge and diminishing 
manufacturing sources. The Department currently possesses the 
flexibility to respond to defense industrial base or manufacturing 
needs, such as those identified by the ongoing sector-by-sector tier-
by-tier (S2T2) project, through programs identified in the President's 
Budget. However, in fiscal year 2012, the IBIF program is being 
reoriented to address niche concerns raised through the S2T2 effort, 
when current programs will not support the minimum sustaining rate that 
a niche supplier needs to provide a critical product or service. The 
Department is focused on ensuring the continued health of selected 
essential parts of the defense industry through mechanisms like the 
IBIF. Such interventions are being pursued only when the Department is 
highly likely to need a product in the future, where the product would 
be prohibitively difficult and expensive to obtain after a hiatus, and 
where affordable and innovative mechanisms are available to work with 
the producers in the interim.
                         foreign military sales
    Question. You were recently quoted as saying that the Department 
should facilitate more foreign sales of U.S. weapons to advance 
numerous policy aims including achieving higher procurement rates that 
would aid the U.S. military as it braces for a prolonged period of 
fiscal belt-tightening. Specifically, you were quoted saying, ``we've 
always been supportive of [foreign military sales] but I think we can 
up our game a little bit. . . . Maybe in some cases take a look at 
taking a little bit more risk than we've been willing to take in the 
past.''
    Does this quote accurately reflect your views?
    Answer. Yes.
    Question. With regard to your reference to ``taking a little bit 
more risk,'' what types of increased risk would you be prepared to 
accept and why?
    Answer. We are using the new defense exportability features (DEF) 
legislative authority provided by Congress in the NDAAs for Fiscal 
Years 2011 and 2012 to invest a small amount of U.S. RDT&E funding 
early in development to implement pilot program activities that we hope 
will lead to earlier, more successful sales in support of our foreign 
policy objectives. Our recent DEF report to Congress describes ongoing 
efforts. There is risk that these investments may not result in actual 
exports in the future, but we have done our best to choose pilot 
programs that are stable from a U.S. acquisition perspective also have 
a high probability of future export to allied and friendly nations.
    Question. What additional steps, if any, do you believe DOD 
generally and the Acquisitions, Technology and Logistics directorate in 
particular should take to facilitate more foreign sales of U.S. weapons 
and equipment?
    Answer. The Department is taking several steps in this area that 
should be continued and strengthened where possible. The administration 
has been working for some time to implement reforms of export controls 
through the so called ``four singles.'' This work is ongoing. In 
particular, the ``four singles'' effort to review and simplify the 
Commerce and State Department export control lists would be 
particularly helpful in facilitating foreign sales. As Principal Deputy 
Under Secretary, I have also worked with USD(Policy) to streamline the 
U.S. Government processes for reviewing proposed sales for technology 
security and foreign disclosure issues. This work is off to a good 
start but should also be completed. The Department should also continue 
to encourage use of the new DEF legislative authority provided by 
Congress in the NDAAs for Fiscal Year 2011 and 2012 in programs that 
have a high probability of future foreign sales. The DEF legislation 
provides the Department authority to invest a small amount of U.S. 
RDT&E funding early in development to implement pilot program 
activities that can lead to earlier, more successful sales in support 
of our foreign policy objectives. Finally, I believe that the senior 
Department officials, including USD(AT&L), should be directly involved 
in providing information about possible sales to foreign governments 
and in removing administrative barriers to foreign sales where that is 
in the interest of the United States. If confirmed I will continue to 
be actively engaged in these and other measures to further foreign 
sales of U.S. military equipment to our friends and allies.
                         science and technology
    Question. What, in your view, is the role and value of science and 
technology programs in meeting the Department's transformation goals 
and in confronting irregular, catastrophic, traditional and disruptive 
threats?
    Answer. I believe that science and technology programs play a 
crucial, indeed essential, role in meeting the Department's 
transformation goals and in confronting all threats to include 
irregular, catastrophic, traditional, and disruptive. To maintain the 
technological superiority the United States has enjoyed for several 
decades, it is essential that the Department pursues a focused, high 
quality, aggressive science and technology program that is responsive 
to the full range of capabilities required by our Armed Forces.
    Question. If confirmed, what direction will you provide regarding 
funding targets and priorities for the Department's long term research 
efforts?
    Answer. If confirmed, I will work with the Department's leadership 
to ensure that funding for science and technology investments are set 
at levels that will ensure the Department has adequate resources in 
this area. The Department and the administration have placed a strong 
emphasis on sustaining S&T spending. Secretary Panetta has repeatedly 
indicated that technological superiority underpins the Department's 
recently released Military Strategy Guidance. If confirmed I will 
continue that emphasis and, subject to the Secretary's approval, set 
appropriate targets and priorities, primarily through the Defense 
Planning Guidance.
    Question. What specific metrics would you use, if confirmed, to 
assess whether the Department is making adequate investments in its 
basic research programs?
    Answer. If confirmed, I will work with ASD(R&E) to ensure that 
adequate investments are made by the military services and agencies in 
basic research. Effective management of this portfolio requires good 
judgment, tight coupling to the research community, and a long-term 
perspective. The key metrics that I would use to assess the adequacy 
and impact of these investments include technology transitions into our 
acquisition programs and the industrial base and longitudinal 
assessment of publications in scientific journals, number of students 
supported, patents granted, and publications in peer reviewed 
conference proceedings.
    Question. Do you feel that there is sufficient coordination between 
and among the science and technology programs of the military services 
and defense agencies?
    Answer. I believe that the Department is performing reasonably well 
in this area, but that there is always room for additional improvement. 
The formal coordination structure is as follows: at the top, there is 
an S&T EXCOM, chaired by the ASD(R&E), and attended by the S&T 
Executives of the military services and defense agencies. This group 
meets quarterly to discuss major science and technology policy issues. 
It also meets once a year for a Strategic Overview where each Component 
presents an overview of the focus of its S&T investment. There are also 
the Deputies to the S&T EXCOM that meet weekly and serve as an action 
group to implement decisions made by the S&T EXCOM. The Department has 
established seven Priority Steering Councils consisting of scientists 
and engineers from the services and agencies, whose job it is to 
develop cross-cutting roadmaps for the Department's recently designated 
S&T Priorities. The councils are complemented by Communities of 
Interest (COIs) populated by scientist and engineers from the services 
and agencies for the purpose of integrating the Departments S&T program 
in specific technology areas. COIs are permanent in nature. There are 
also short-term Technology Focus Teams (TFTs) that perform in-depth 
analysis of specific technology issues and report their findings to the 
S&T EXCOM.
    Question. What is the Department's role and responsibility in 
addressing national issues related to science, technology, engineering, 
and mathematics (STEM) education and workforce development?
    Answer. I believe that the Department should take a strong role in 
supporting the development of world-class STEM capabilities within the 
domains of importance to national security. With the support of 
Congress, the Department engages America's students, educators and 
educational communities to enrich DOD's current and future workforce 
through strategic investments. These investments are designed to create 
access and opportunities to work alongside DOD scientists and engineers 
as well as funding cutting-edge research in areas critical to national 
security. The Department is actively working with the Office of Science 
and Technology Policy, the National Science Foundation and other 
Federal agencies to draft the first 5-Year Federal STEM Education 
Strategic Plan to coordinate its STEM investments to achieve 
Government-wide efficiencies in accordance with Federal policies. If 
confirmed, I will support and participate in the effort to support STEM 
workforce development.
    Question. What steps if any would you take to support efforts to 
ensure that the Nation has the scientific and technical workforce 
needed for its national security technological and industrial base?
    Answer. DOD STEM education, training and outreach programs, such as 
the National Defense Education Program (NDEP), including K-12, the 
Science, Mathematics and Research for Transformation (SMART) program, 
and National Security Science and Engineering Faculty Fellows (NSSEFF) 
program expand the pool and diversity of scientists and engineers 
available to the DOD and the technological and industrial base. If 
confirmed, I will continue to work with the Assistant Secretary of 
Defense (Research and Engineering) to assess the extent to which NDEP, 
and other similar STEM programs, meet the Department's current and 
future technical workforce needs, are effective and efficient, and are 
synchronized with other Federal Government STEM initiatives. I will 
also continue to support the efforts in this area that non-defense 
organizations within government and industry are conducting.
    Question. How would you use science and technology programs to 
better reduce technical risk and therefore potentially reduce costs and 
schedule problems that accrue in large acquisition programs?
    Answer. Technical risk should be identified during the early 
program planning and analysis phases of the acquisition process as 
alternative solutions to military problems are evaluated. Once the 
candidate preferred solutions and associated risks are identified, the 
program and S&T communities should work together to develop technology 
maturation programs and risk reduction programs that will reduce the 
risk associated with a technology to a level where it can be 
incorporated in an acquisition program, either for technology 
demonstration or for engineering development. The S&T community and the 
program community should work together to identify the most promising 
and high payoff areas for investment for both initial fielding and 
subsequent upgrades or increments.
    Question. Do you feel that the science and technology programs of 
DOD are too near-term focus and have over-emphasized technology 
transition efforts over investing in revolutionary and innovative 
programs?
    Answer. No. The Department has sustained its investments in longer 
term technologies and DARPA is appropriately funded to pursue high risk 
high payoff opportunities. I am concerned about some of the trends in 
the balance of investments in the various R&D accounts, however. As the 
Department has increased the amount of time some programs are being 
kept in the inventory the percentage of the R&D budget being used for 
upgrades has grown. The accounts for basic and applied research have 
been protected and for good reason; however, this has led to reductions 
in the accounts funding prototypes and full scale development. If 
confirmed, I will continue to monitor these trends and recommend 
actions to address it if needed.
    Question. Are you satisfied that the Department has a well 
articulated and actionable science and technology strategic plan?
    Answer. Yes. The current science and technology strategic 
investment strategy is a result of coordinated strategic planning 
activities that have occurred over the past 2 years. In April 2011, the 
Secretary of Defense issued a memo that identified seven S&T priorities 
for investment planning. The Components published S&T strategic plans 
that support the priorities of both the Department and their respective 
organizations' assigned missions. These plans contain actionable goals 
and are available to industry, academia, and other government 
organizations on the Department's web site.
    Question. Do you see a need for changes in areas such as hiring 
authority, personnel systems, financial disclosure and ethics 
requirements, to ensure that the Department can recruit and retain the 
highest quality scientific and technical workforce possible?
    Answer. I have not seen any data that would indicate conclusively 
that the Department has a major problem in the areas of hiring 
authority, personnel systems, disclosure, and ethics requirements; 
however, I am concerned that the Department needs to strengthen its 
workforce in the engineering fields. This includes the military officer 
corps. If confirmed, I will work with the service leadership to assess 
this situation and determine whether any corrective action is needed. 
The Department does have tools such as Interdepartmental Personnel Act 
(IPA) and Highly Qualified Expert (HQE) programs to bring in additional 
talent. I believe the use of these programs could be expanded and I do 
believe more can and should be done to increase the capacity of the 
technical workforce without changes in the administrative areas 
mentioned.
    Question. The Assistant Secretary of Defense for Research and 
Engineering (ASD(R&E)) has been designated as the Chief Technology 
Officer of DOD.
    In your view, what is the appropriate role of the Chief Technology 
Officer of DOD?
    Answer. The Chief Technology Officer (CTO) is the advisor to the 
Under Secretary of Defense for Acquisition, Technology and Logistics, 
the Deputy Secretary of Defense, and the Secretary of Defense for 
research and engineering matters. The CTO should provide technical 
leadership, guidance, and oversight for the Department's R&E program to 
include the identification of critical technology areas and the 
adequacy of the Department's overall R&E investment and program 
content.
    Question. What authority should the ASD(R&E) have over the Defense 
Advanced Research Projects Agency (DARPA)?
    Answer. By DOD Charter the Defense Advanced Research Projects 
Agency (DARPA) is established as an Agency of DOD under the direction, 
authority, and control of the Under Secretary of Defense for 
Acquisition, Technology and Logistics (USD(AT&L)) and the Assistant 
Secretary of Defense for Research and Engineering (ASD(R&E)). DARPA 
also recommends to the Secretary of Defense, through the ASD(R&E), the 
assignment of research projects to DARPA. I would not recommend any 
changes in these authorities and roles.
    Question. What authority should the ASD(R&E) have over other 
Service and agency science and technology efforts?
    Answer. I believe the existing authorities are appropriate. By DOD 
Charter, the ASD(R&E) is to recommend approval, modification, or 
disapproval of programs and projects of the Military Departments and 
Defense Agencies to eliminate unpromising or unnecessarily duplicative 
programs. The ASD(R&E) is also designated to recommend the initiation 
or support of promising projects or programs for the science and 
technology program. These recommendations are usually provided as 
resource and programmatic input to the Department's process for 
developing the President's Budget Request.
    Question. Do you see the need for any changes in organizational 
structure, workforce, or availability of resources to improve the 
effectiveness of the Office of the Assistant Secretary of Defense for 
Research and Engineering?
    Answer. Not at this time. The Department is still in the final 
stages of implementing the provisions of the fiscal year 2009 Weapons 
Systems Acquisition Reform Act. To date, progress has been good, and I 
will continue to review whether additional adjustments are needed.
                          defense laboratories
    Question. What is your view on the quality and relevance of the DOD 
laboratories as compared to the DOE national laboratories, Federal 
laboratories, academic laboratories and other peer institutions?
    Answer. During my career, I worked with many of these institutions 
and in general, I have found them to be staffed with competent 
scientists and engineers who are dedicated to their work and performing 
important missions for the DOD or the Nation. A key issue going forward 
is how to operate these Laboratories as an enterprise to meet the needs 
of the Department effectively. The ASD(R&E) is working with the 
Services on this assessment.
    Question. What metrics will you use, if confirmed, to evaluate the 
effectiveness, competitiveness, and scientific vitality of the DOD 
laboratories?
    Answer. If confirmed, I will evaluate the DOD labs primarily based 
on their success in developing and transitioning new technologies to 
warfighters, the quality of their technical workforce, and the results 
of external reviews of their effectiveness and innovation. As Acting 
USD(AT&L), I have begun the process of putting in place mechanisms to 
assess the productivity of DOD's acquisition institutions and if 
confirmed I will continue that process.
    Question. What steps if any will you take, if confirmed, to 
increase the mission effectiveness and productivity of the DOD 
laboratories?
    Answer. If confirmed, I will continue to work closely with the 
ASD(R&E) to ensure that DOD labs operate at maximum efficiency and 
productivity. As Acting USD(AT&L), I have begun the process of putting 
in place mechanisms to assess the productivity of DOD's acquisition 
institutions, including laboratories, and if confirmed I will continue 
that process.
    Question. Do you see value in enhancing the level of technical 
collaboration between the DOD laboratories and academic, other Federal 
and industrial scientific organizations?
    Answer. Yes. Technical collaborations across the laboratory system 
are essential to success. Much cooperation already exists. Together 
with the ASD(R&E), I am examining additional incentives to increase 
teaming and partnering such as exchange programs, joint technology 
programs, and participation in cross-agency reviews. In particular, I 
am working with Department of Homeland Security and the Department of 
Energy on areas in which cooperation can be expanded. If confirmed, I 
will continue these efforts.
    Question. Do you believe that past investments in research 
equipment; sustainment, repair and modernization; and facility 
construction at the DOD laboratories have been sufficient to maintain 
their mission effectiveness and their standing as world-class science 
and engineering institutions?
    Answer. I am not certain of the answer to this question. The 
Services are currently not reporting any deficiencies in the DOD 
laboratory infrastructure necessary to carry out leading-edge research 
efforts of which I am aware. However, I do have some questions about 
the overall state of DOD's laboratories. Consequently, I have asked the 
Assistant Secretary of Defense for Research and Engineering to conduct 
a comprehensive review of DOD labs in the context of the entire 
national laboratory system. This review should provide insight into the 
state of the labs. If confirmed, I will use the results of this review 
to determine whether additional investments are needed.
    Question. In your view, have the DOD laboratories struck an 
appropriate balance between investments in near-term technology 
programs that are tied to current battlefield needs and investments in 
longer term, higher risk, and revolutionary capability development?
    Answer. Yes. DOD's laboratory system is a balance of corporate 
research labs (e.g., Naval Research Lab, Army Research Lab) that 
maintain basic science as their primary focus, and engineering centers 
such as the Navy Warfare Centers and the Army's Research and 
Engineering Development Centers that maintain the Department's in-house 
development and engineering expertise. The Services align approximately 
one-third of their basic science budgets to in-house programs. A recent 
review of the labs' basic science program was conducted by the Defense 
Science Board (DSB) and the DSB concluded that the in-house basic 
research program was technically strong and healthy. While not a 
laboratory per se, DARPA does focus much of its work in higher risk 
high payoff technology. In general I think the Department has a 
reasonable balance, however if confirmed I will continue to assess this 
balance to determine if adjustments are needed.
    Question. Do you believe that this balance is likely to change with 
the completion of our withdrawal from Iraq and our ongoing drawdown in 
Afghanistan?
    Answer. I expect the balance between near-term and longer-term 
research will not change dramatically as a result of these events, but 
the portfolio of research topics will shift to support the Department's 
recently released strategic guidance, particularly toward any emerging 
threats.
    Question. Section 219 of the NDAA for Fiscal Year 2009 authorizes 
the directors of a defense laboratory to use up to 3 percent of the 
total funds available to the laboratory to fund innovative research, 
technology transition activities, and workforce development.
    What is your understanding of the extent to which the Department 
has implemented section 219?
    Answer. Each of the Services has implemented section 219 programs. 
Though the statute gives authority to lab directors to utilize up to 3 
percent of all available funds for this program, the actual amount to 
date has been in the 1 to 2 percent range. The Department submits a 
Section 219 status report annually to Congress to detail the related 
investment.
    Question. Do you believe that the funding flexibility provided by 
section 219 has been appropriately utilized by the Department?
    Answer. Yes. So far, I believe the flexibilities provided by 
section 219 have been used appropriately by the Department. Lab 
directors have appropriately balanced section 219 investments with 
other programs and procurements. If confirmed, I will continue to 
monitor the use of this flexibility by lab directors.
    Question. Do you believe that it would be feasible or appropriate 
for the Department to use the authority of section 219 to adjust the 
balance between investments in near-term technology programs and 
longer-term, higher-payoff investments?
    Answer. Yes, however, I believe that the current program 
authorities and structure are adequate and are being used 
appropriately, and recommend no changes at this time.
               defense advanced research projects agency
    Question. What is your understanding of the relationship between 
the DARPA and the ASDR&E?
    Answer. By DOD Charter the Defense Advanced Research Projects 
Agency (DARPA) is established as an Agency of DOD under the direction, 
authority, and control of the Under Secretary of Defense for 
Acquisition, Technology and Logistics (USD(AT&L)) and the Assistant 
Secretary of Defense for Research and Engineering (ASD(R&E)) who 
reports to the Under Secretary. DARPA also recommends to the Secretary 
of Defense, through the ASD(R&E), the assignment of research projects 
to DARPA.
    Question. In your view, has DARPA struck an appropriate balance 
between investments in near-term technology programs that are tied to 
current battlefield needs and investments in longer term, higher risk, 
and revolutionary capability development?
    Answer. Yes. The ASD(R&E) completed a comprehensive review of the 
DARPA science and technology program last August and reported that the 
DARPA investment appeared to be properly balanced between near-term and 
long term, higher risk technology and capability development. If 
confirmed, I will continue to review DARPAs balance of investments, 
however one of the most important characteristics of DARPA is that it 
has more independence to invest in high risk high payoff technologies 
than other DOD institutions and I believe this should continue.
    Question. Do you feel that DARPA has adequately invested in the 
academic research community?
    Answer. Yes, however this is a very subjective assessment. DARPA 
basic research investment, which largely goes to academic institutions, 
has more than doubled since 2007, from $150 million per year to the 
current fiscal year 2013 request of $349 million. This investment has 
expanded DARPA and academic interaction. If confirmed, I will continue 
to monitor DARPAs investment in academic research.
    Question. What are the major issues related to DARPA investments, 
management and workforce, and research outcomes that you will seek to 
address?
    Answer. DARPA has been, and will continue to be at the center of 
DOD-funded innovation, particularly for addressing difficult problems 
in creative and often non-traditional ways. Areas I will focus on if 
confirmed include DARPA's cyber investments and potential game-changing 
technologies applicable to emerging threats. If confirmed, I will 
continue to support DARPAs efforts to attract an exceptional technical 
workforce.
    Question. Do you feel that DARPA is adequately transitioning its 
programs to the Services and Defense Agencies? If not, how will you 
address that challenge?
    Answer. DARPA's success in this regard has been mixed, and the 
transition of technologies in some cases could be more effective. I 
recently discussed this issue with the departing DARPA Director who 
indicated that some relationships with the Military Departments could 
be stronger. If confirmed, I will work with the Service Acquisition 
Executives and the Assistant Secretary of Defense for Research and 
Engineering to strengthen transition for the entire R&E enterprise, 
including DARPA.
    Question. Do you believe that there has been an appropriate level 
of interaction between DARPA and its intelligence community analog, 
IARPA, given the overlap in many research areas?
    Answer. I do not have any information that would suggest otherwise, 
and my belief is that there has been appropriate interaction between 
DARPA and IARPA.
                          test and evaluation
    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
Director of Operational Test and Evaluation in ensuring the success of 
the Department's acquisition programs?
    Answer. I believe that the independence of the Director of 
Operational Test and Evaluation (DOT&E) is an important aspect of 
ensuring the Department's acquisition programs are realistically and 
adequately tested in their intended operational environment. I am aware 
of concerns that testing can be perceived as creating additional cost 
and delays in delivering capability, especially in the context of 
pressing real world operations. If confirmed, I will continue to meet 
regularly with and seek the advice of the DOT&E on testing and 
evaluation issues as a partner in the acquisition process, while 
allowing for the necessary independent viewpoints. I have great respect 
for the professionalism, dedication, and integrity of the current 
DOT&E, whom I have known for many years. If confirmed, I will continue 
to welcome his insights on program performance and other issues. 
DOT&E's independence is of great value in the acquisition process and 
is appropriate.
    Question. What are your views about the role of the Director of 
Developmental Test and Evaluation in ensuring the success of the 
Department's acquisition programs?
    Answer. The role of the DASD(DT&E) is to advise the Secretary of 
Defense and the Under Secretary of Defense for Acquisition, Technology 
and Logistics on all matters relating to developmental test and 
evaluation within the Department. In this role, the DASD(DT&E) mission 
includes helping to improve acquisition outcomes through early and 
continuous engagement with Program Offices in order to verify system 
performance meets requirements and to identify the need for corrective 
actions as early as possible. DT&E also provides confirmation that a 
system is mature enough to proceed to IOT&E. The DASD(DT&E) provides 
support to Program Offices and the DOD T&E community, assists with test 
planning and data analysis, and identifies and shares best practices. 
Additionally, the DASD(DT&E) provides an independent assessment to 
advise milestone decision authorities and the component acquisition 
executives of any risks prior to entering production or initial 
operational test and evaluation. As the Milestone Decision Authority 
for Major Defense Acquisition Programs, I particularly rely on the 
DASD(T&E) for advice on the demonstrated maturity of designs to enter 
initial production and on the adequacy of planned test programs at the 
beginning of Engineering and Manufacturing Development. If confirmed, I 
will continue to rely heavily on the DASD(T&E) for support to these 
decisions.
    Question. Are you concerned with the level of test and evaluation 
conducted by the contractors who are developing the systems to be 
tested?
    Answer. I only have anecdotal evidence at this point that this is a 
concern. I believe that there needs to be Government led DT&E supported 
by contractor testing and that the best mix of government and 
contractor testing varies from program to program based on a variety of 
factors. If confirmed, I will continue to assess this balance to 
determine if adjustments should be made. The ASD(DT&E) is currently 
reviewing all developmental test infrastructure, both government and 
contractor. If confirmed I will use the results of that assessment to 
determine if changes are warranted.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process? If confirmed, how will you work to ensure 
that all equipment and technology that is deployed to warfighters is 
subject to appropriate operational testing?
    Answer. The assessment process for capabilities provided in 
response to the warfighter's urgent operational requirements must be 
appropriately tailored to ensure that the warfighter receives critical 
capabilities that are reasonably safe, perform their basic functions 
successfully, and are provided on a timeline that meets the 
warfighter's expectation. This generally implies initial test regimes 
prior to first fielding of rapid acquisition programs that accept more 
risk than the normal acquisition process. The Department is currently 
revising DODI 5000.02 which governs the operation of the Defense 
Acquisition System to include a provision for rapid fielding 
procedures. Those procedures will provide additional guidance on the 
testing required for rapid acquisition programs. If confirmed, I will 
complete this effort and make adjustments as the Department learns from 
its experience with testing for rapid acquisition programs.
    Question. Do you believe that the operational and developmental 
testing organizations in DOD and the Military Services are adequate to 
ensure an appropriate level of testing, and testing oversight, on major 
defense acquisition programs?
    Answer. Yes, I believe there are adequate resources to ensure an 
appropriate level of testing and testing oversight on major defense 
acquisition programs. That said, however, I am a firm believer in 
continuous improvement, and I have no doubt that the Department can 
improve its performance. Problems that I have identified include the 
need for earlier definition of test requirements so that program 
planning and budgeting are stable, and the need to shift more emphasis 
to early developmental testing to reduce the likelihood of late 
discovery of design or production issues. If confirmed, I will continue 
to work with the DOT&E and DASD(DT&E) to ensure the Department conducts 
effective and efficient developmental and operational testing to 
improve acquisition outcomes.
    Question. Section 102 of the WSARA established a new Director of 
Developmental Testing to help address this problem. Section 835 of the 
NDAA for Fiscal Year 2012 built on this provision by establishing new 
organizational and management requirements for developmental testing on 
major defense acquisition programs.
    What steps has the Department taken to date to implement these two 
provisions?
    Answer. As Acting Under Secretary of Defense for Acquisition, 
Technology and Logistics, I have approved a DOD Instruction (DODI 
5134.17) which assigns responsibilities and functions and prescribes 
relationships and authorities for the DASD(DT&E). We are issuing 
guidelines for implementing the requirements of Section 835 of the NDAA 
for Fiscal Year 2012, and I am in the process of including those 
requirements established in an update to the Defense Acquisition System 
Instruction (DODI 5000.02).
    Question. What steps remain to be taken?
    Answer. If confirmed, I plan to complete the update of the DODI 
5000.02 that incorporates the requirement in the NDAA for Fiscal Year 
2012. I will work with the Services to resolve any unique issues they 
have with the implementation. I will monitor the progress of the 
Services in implementing this new requirement and have DASD(DT&E) 
report the status in the fiscal year 2012 Annual Report to Congress.
    Question. What additional steps will you take, if confirmed, to 
ensure adequate developmental testing on major weapon systems?
    Answer. If confirmed, I will continue to emphasize the importance 
of having early and continuous engagement with the Program Offices. I 
will work collaboratively with the Component Acquisition Executives and 
Program Offices to develop adequate test programs, assist with test 
planning and data analysis, and identify and share best practices to 
help improve acquisition outcomes.
    Question. Some have argued that testing takes too long and costs 
too much. Others contest this view pointing out that testing and 
evaluation is an essential tool to assist in the development of weapon 
systems and ensure that they perform as intended. The Armed Services 
Committee has expressed concern that problems with weapons systems have 
been discovered during operational testing and evaluation that should 
have been discovered during developmental testing and corrected during 
subsequent development.
    Do you believe that major defense acquisition programs are helped 
or hurt by cutting tests budgets and reducing the time available for 
developmental testing?
    Answer. In general, they are more likely to be hurt. There is a 
natural tendency, exacerbated by tight budgets, funding cuts, and poor 
execution, to cut corners in test planning (both time and resources) to 
save time and money. In my experience, this is usually a mistake that 
is corrected by reality in the form of more schedule and cost overruns. 
I am strongly committed to ensuring that the Department has development 
programs with appropriate timelines and well resourced, realistic 
testing. I believe the Department should be continuously looking for 
ways to improve the efficiency and effectiveness of our test programs 
to save time and money, but the Department should not be cutting test 
budgets and reducing test activities without a sound specific plan to 
achieve those savings.
    Question. What steps if any will you take, if confirmed, to ensure 
that the program management community and the testing and evaluation 
community work collaboratively and effectively in a way that maximizes 
the likelihood that developmental testing and evaluation will detect 
and identify problems timely in software and hardware to provide 
opportunities to correct them before production and before operational 
testing and evaluation begins?
    Answer. My goal is to ensure that the Department discovers 
deficiencies early in programs in order to take corrective action as 
early in development as possible in order to minimize program 
disruption and save time and money. Early identification of problems 
will also increase the probability of programs being found effective 
and suitable in Initial Operational Test and Evaluation (IOT&E). If 
confirmed, I will continue my efforts to ensure that the program 
management community, the systems engineering community, and the 
testing and evaluation community work collaboratively and effectively 
throughout the acquisition process, but particularly at the earlier 
stages of program planning.
                       ballistic missile defense
    Question. When it was created in 2002, the Missile Defense Agency 
(MDA) was exempted from normal acquisition rules and processes in order 
to field an initial set of missile defense capabilities on an expedited 
basis. That fielding has now taken place, although numerous upgrades 
and corrections are being implemented. Each of the elements of the 
Ballistic Missile Defense System (BMDS) would normally meet the 
criteria for a Major Defense Acquisition Program (MDAP), but none of 
them has been managed as an MDAP. Furthermore, for most of MDA's 
existence, all its programs were funded with Research, Development, 
Test, and Evaluation (RDT&E) funds, even for non-RDT&E activities. 
Currently, BMDS acquisition programs are overseen by the Missile 
Defense Executive Board (MDEB), chaired by the USD(AT&L).
    What management and acquisition changes or improvements if any do 
you believe are warranted for the ballistic missile defense programs?
    Answer. As Acting Under Secretary I have chaired three MDEB 
meetings and attended a number of others, and through the oversight and 
insight developed during these meetings and the preparation for them, I 
believe that the current management and acquisition approach is 
reasonably effective. I would like to have more experience with this 
management approach, however, before recommending any changes.
    Question. Do you believe that the Under Secretary of Defense for 
Acquisition, Technology, and Logistics should have the same 
responsibilities relative to the ballistic missile defense acquisition 
programs as for all other MDAPs?
    Answer. The Under Secretary of Defense for Acquisition, Technology, 
and Logistics, has the same responsibilities, within the current 
departmental guidance, for the ballistic missile defense programs as 
for all MDAPs, with the exception that early acquisition decisions, 
including entry into technology demonstration and entry into 
engineering and manufacturing development, have been delegated to the 
Director of the MDA. In general, I see no reason why these 
responsibilities should be different than those for other MDAPs.
    Question. If confirmed, what steps if any would you plan to take to 
ensure that the ballistic missile defense programs of DOD follow sound 
acquisition and management practices and processes?
    Answer. The MDEB has been the forum since 2007 for senior 
departmental review of MDA activity. If confirmed, I will continue to 
review the MDEB efforts, to maintain regular oversight of the MDA 
acquisition and management practices, program progress, and issue 
resolution. The MDEB includes essentially the same membership as the 
DAB that oversees MDAP programs. If confirmed, I will continue to rely 
on the independent advice of these staff offices, as I do for MDAPs, to 
ensure sound decisions are made.
    Question. For many years, DOD and Congress have agreed on the 
principle that major weapon systems should be operationally effective, 
suitable, survivable, cost-effective, affordable, and should address a 
credible threat. These elements are all consistent with the Ballistic 
Missile Defense Review (BMDR) of February 2010.
    Do you agree that any ballistic missile defense systems that we 
deploy operationally must be operationally effective, suitable, 
survivable, cost-effective, affordable, and should address a credible 
threat?
    Answer. Yes.
    Question. If confirmed, what steps if any would you take to ensure 
that the BMDS and each of its elements meet these criteria?
    Answer. Rigorous and realistic testing of missile defenses is 
imperative. The MDA presently is executing a plan, which includes the 
use of a Development and Operational Testing approach that allows the 
U.S. Strategic Command warfighter community (which includes all 
combatant commanders) and all the Service Operational Test Agencies to 
be integral parts of the test program. If confirmed, I will maintain 
these test activities as an integral part of ballistic missile defense 
program planning, and execution priorities, and review the plans and 
the proposed test activities to determine whether additional steps or 
other emphases are necessary or appropriate.
    Question. For many years, Congress and DOD have agreed on the 
principle of ``fly before you buy,'' namely demonstrating that a weapon 
system will work in an operationally effective, suitable, and 
survivable manner before deciding to acquire and deploy such systems. 
This demonstration requires rigorous, operationally realistic testing, 
including independent Operational Test and Evaluation (OT&E), to 
provide an accurate assessment of how weapon systems will perform in 
combat conditions. The DOT&E has expressed concerns that the testing of 
the Ground-based Midcourse Defense system has not been sufficient to 
provide confidence in its operational capability.
    Do you agree that ballistic missile defense testing needs to be 
operationally realistic, and should include Operational Test and 
Evaluation, in order to assess operational capabilities and limitations 
of ballistic missile defense systems, prior to making decisions to 
deploy such systems?
    Answer. Yes.
    Question. If confirmed, what steps if any would you take to ensure 
that the BMDS, and each of its elements, undergoes adequate independent 
operational test and evaluation?
    Answer. The BMDS Integrated Master Test Plan serves as the 
departmental contract to perform comprehensive developmental and 
operational independent testing. If confirmed, I will work with the MDA 
and the DOT&E to continue the evolution of BMDS testing to ensure that 
adequate tests are conducted.
    Question. The MDA has developed ballistic missile defense systems 
and capabilities and procured the initial inventories of missile 
defense element weapon systems. However, the Military Departments are 
notionally intended to procure, operate, and sustain operational 
missile defense systems.
    What do you believe is the appropriate role for the Military 
Departments in the procurement, operation, and sustainment of ballistic 
missile defense systems, and at what point do you believe these systems 
should be transitioned and transferred to the Military Departments?
    Answer. I believe that at some point for each program, 
responsibility for operation and sustainment should be transferred from 
MDA to a Military Department. Production may be transferred as well, 
but this will vary from system to system on a case-by-case basis. The 
Deputy Secretary of Defense issued guidance in June 2011, providing 
direction for MDA and Military Department life cycle responsibilities 
and a process to define and schedule management and funding 
responsibility transfer points. If confirmed, I will oversee the 
execution of the guidance as the BMDS elements mature and I will review 
and recommend changes as appropriate. If confirmed, I will work with 
the MDA and the Military Departments to ensure processes and policies 
are in place to accomplish the transition and transfer in a timely and 
effective manner.
    Question. The MDA and the Army have reached tentative agreement on 
transferring Army ballistic missile defense programs to MDA.
    What do you believe are the appropriate roles for the Army and MDA, 
respectively, in the development, management, and funding of Army 
ballistic missile defense programs, and what risks do you see, if any, 
from transferring such programs to MDA?
    Answer. Defining this relationship is still a work in progress, so 
my views at this time may not be final. That said, I generally support 
a model that is similar to the model used by MDA and the Navy in which 
the Military Department retains responsibility for overall system 
performance and is the technical authority for the total system while 
MDA provides defined products for integration into the Army's system. 
The two organizations must work closely together to address integration 
issues and define interfaces and requirements, but I believe this 
arrangement provides the most effective management approach. The 
Patriot system is the only specific system for which this is an issue 
to my knowledge and Aegis is the comparable Navy system that uses this 
model.
                        nuclear weapons council
    Question. If confirmed as USD(AT&L), you will chair the Nuclear 
Weapons Council (NWC).
    In your view, what are, or should be, the highest priorities of the 
NWC?
    Answer. In my view, the highest priorities of the NWC are to ensure 
the continued safety, security, and effectiveness of our nuclear 
weapons stockpile and to ensure the Nation can field an effective 
nuclear deterrent.
    Question. What improvements, if any, do you believe should be made 
to the operations of the NWC?
    Answer. If confirmed, I will work with the Secretary of Defense and 
the Deputy Secretary of Defense, as well as members of the NWC, to 
identify improvements, if any, that would strengthen the partnership 
with the Department of Energy in ensuring a safe, secure, and effective 
nuclear stockpile and a modern supporting infrastructure. As Acting 
Under Secretary, I have chaired several NWC meetings and at this point, 
I believe that it is functioning as intended.
    Question. What role do you expect to play, if confirmed, in the 
development of the Nuclear Posture Review?
    Answer. If confirmed, I will continue to support the 
administration's ongoing implementation of the 2010 Nuclear Posture 
Review.
    Question. The 1251 report that accompanied the New START treaty set 
forth a robust plan for modernizing the nuclear weapons complex and the 
triad of nuclear delivery vehicles.
    Do you support that plan and agree that modernizing the nuclear 
triad and replacing critical infrastructure such as the Chemistry and 
Metallurgy Research Replacement (CMRR) at Los Alamos and the Uranium 
Processing Facility (UPF) at Y-12 should be National Security 
priorities and that they should be built in a timely manner?
    Answer. DOD has fully supported the Department of Energy's efforts 
to sustain the nuclear weapons stockpile and to modernize the 
supporting infrastructure. Today's austere budget environment, however, 
will delay key warhead life extension programs and infrastructure 
modernization relative to the timelines reflected in last year's 
Section 1251 Report. Although UPF construction will proceed mostly as 
planned with some changes in scope, the DOE's current plan is to defer 
construction of the CMRR facility for at least 5 years as a result, 
using existing facilities to meet plutonium needs. Over the coming 
months, the DOD and DOE will work together to firm up cost data on key 
programs, providing a basis to inform alternative approaches to 
mitigate the risk of program delays and further advance the President's 
commitment to safe, secure, and effective nuclear forces.
    Question. Do you share DOD's view regarding the need for 
establishing a capability to produce 50 to 80 pits per year as asserted 
in congressional testimony by DOD and NNSA witnesses?
    Answer. Given current stockpile requirements, I support the DOD 
view regarding the need for the capability to produce 50-80 pits per 
year.
                        logistics and readiness
    Question. If confirmed as USD(AT&L), what steps if any would you 
take to ensure that life cycle maintenance requirements and sustainment 
support are considered in the acquisition process for new DOD systems?
    Answer. Several steps are underway to ensure life cycle 
requirements are addressed in the acquisition process for new DOD 
systems, and if confirmed, I would continue those steps and look for 
other opportunities to integrate life cycle cost considerations into 
the acquisition process. Under the Better Buying Power initiatives, 
each new program is required to establish a sustainment cost cap that 
is intended to drive design trades and investment during development to 
ensure the program is affordable throughout the life cycle. In 
addition, core maintenance determinations are now defined at Milestone 
A and refined at Milestone B to include detailed workload estimates. 
These estimates are used as the basis for determining the level of 
investment required to establish a viable repair capability at our 
organic activities and are included in the acquisition program 
baseline. Additionally, programs are now required to complete a Life 
Cycle Sustainment Plan and Systems Engineering Plan in which specific 
sustainment development, production, and operating resource 
requirements are fully identified and reflected in the respective 
Services' budget submissions. Finally, data from recent studies 
indicate strongly that in many cases Performance-Based Logistics has 
been effective at reducing life cycle costs and if confirmed I will 
look for appropriate opportunities to expand the use of this approach. 
If confirmed, I intend to continue these initiatives and to look for 
additional opportunities to drive life cycle cost down.
    Question. The NDAA for Fiscal Year 2009 requires DOD to conduct 
life-cycle cost analysis for new capabilities including the fully 
burdened cost of fuel during the analysis and evaluation of 
alternatives in the acquisition program design trades.
    Do you believe that the fully burdened cost of fuel is an 
appropriate factor for the Department to consider in the evaluation of 
acquisition alternatives?
    Answer. Yes. Fully Burdened Cost of Energy estimates for 
acquisition programs is a useful component of the total life cycle cost 
estimating process. This process helps the Department understand the 
full long term expenses the Department is signing up to when it commits 
to a new system. While Total Ownership Cost is a long-term estimate 
based on steady-state usage, the Fully Burdened Cost of Energy is 
scenario-based. The Fully Burdened Cost of Energy provides a useful 
operational cost perspective and helps decisionmakers differentiate 
between the fuel and logistics demands of competing system concepts DOD 
is considering.
                           operational energy
    Question. The NDAA for Fiscal Year 2009 created the position of the 
Assistant Secretary of Defense for Operational Energy Plans and 
Programs.
    If confirmed as USD(AT&L), how would you work with office of the 
Assistant Secretary of Defense for Operational Energy Plans and 
Programs to advance the objectives of that office?
    Answer. The Assistant Secretary of Defense for Operational Energy 
reports to the USD(AT&L). Energy is a fundamental enabler for the 
Department's mission. I have been and will continue to take steps, 
through and in support of the Assistant Secretary of Defense for 
Operational Energy Plans and Programs, to improve the efficiency of our 
use, the range of energy alternatives available to our forces, and 
energy planning for our future force. This office is an important part 
of the AT&L enterprise, and, if confirmed, I will continue to expand 
and further its efforts.
    Question. With persistent combat operations in Iraq, Afghanistan, 
and around the globe, combat service support units are constantly at 
risk when transporting supplies.
    What role do you believe the USD(AT&L) should play in developing 
strategies to reduce the logistical footprint of deployed units 
operating in hostile environments?
    Answer. I believe the USD(AT&L), in conjunction with U.S. 
Transportation Command, the Defense Logistics Agency, the Joint Staff, 
and the Military Services, must ensure that the Department obtain the 
best possible sustainability, maintainability, reliability, and fuel 
efficiency for our deployed weapon systems and contingency bases, as a 
way of lowering the logistical footprint needed to maintain them. If 
confirmed, my office will continue to provide guidance and oversee the 
development of technologies and strategies that focus on managing the 
logistics footprint required to sustain the force safely in any theater 
of operation. If confirmed, I will also continue to emphasize the 
logistics implications of new programs as a major factor in decisions 
about which programs to pursue.
    Question. What is your view of the role that the USD(AT&L) should 
play in developing and pursuing alternative energy sources for DOD?
    Answer. I believe AT&L has a lead role to play in pursuing 
alternative energy sources, both for operational forces through the 
Assistant Secretary of Defense for Operational Energy Plans and 
Programs, and for facilities energy through the Deputy Under Secretary 
of Defense for Installations and Environment.
    Question. Do you foresee a significant role for the use of solar 
and wind energy systems with deployed units operating in remote 
environments?
    Answer. As DOD builds a more agile force, the Department is finding 
that improvements in our energy use, including the use of renewable 
energy, can increase our combat effectiveness. In particular, studies 
and deployed experience indicate that solar technology has promise for 
supplying energy for deployed units, though it depends on the mission 
and the environment. Solar technologies are proving most beneficial at 
the tactical edge, where they can reduce re-supply needs, can integrate 
with batteries, and diminish the noise and heat signature of U.S. 
forces. Wind energy systems for expeditionary units have not been 
deployed because of low average wind speeds in current operational 
environments, but they could be useful in some remote deployment 
situations, particularly as technologies for small, low-wind systems 
improve.
                      base realignment and closure
    Question. The Secretary of Defense has indicated that the 
President's budget request will include a request for two future rounds 
of Base Realignment and Closure (BRAC), one in 2013 and the other in 
2015. The most recent round of BRAC has just been completed and we are 
awaiting various reports outlining lessons learned and quantifying 
savings. Early indications, however, are that the 2005 BRAC failed to 
achieve the cost savings originally forecast.
    What is your understanding of the Department's rationale for 
requesting two additional rounds of BRAC?
    Answer. The Department has formulated new military strategy 
guidance and a fiscal year 2013 budget intended to implement that 
guidance. This strategy and budget include force structure changes that 
will produce excess capacity. The Department's rationale is essentially 
that these changes should be accompanied by a corresponding reduction 
in the supporting infrastructure including military bases that are no 
longer needed and which impose wasteful costs on the Department.
    Question. Are you aware of any analysis has been conducted to 
justify the request for two additional rounds of BRAC?
    Answer. No specific analysis has been conducted yet. With the 2013 
timeline in mind, the Department has started the initial preparatory 
work regarding internal governance for a BRAC process--inventorying our 
property and evaluating the extent to which the Department needs to 
update its analytical tools. These efforts will allow the Department to 
proceed expeditiously if Congress authorizes BRAC. After congressional 
authorization, the BRAC process begins with a certification that BRAC 
is needed and will produce savings. Specifically, the Department 
prepares a 20-year force structure plan and a comprehensive 
installation inventory. Using those documents, the Department prepares 
a report for Congress in which it: describes the infrastructure 
necessary to support the force structure, identifies areas of excess, 
conducts an economic analysis of the effect of closures and 
realignments on the excess capacity, and certifies that BRAC is needed 
and will generate savings. Only then is the Secretary authorized to 
proceed with the commission itself.
    Question. What is your view on the argument that we should close 
excess installations overseas before new rounds of BRAC are authorized?
    Answer. I would agree that both should be examined, and the 
Department has already begun the process of reviewing its overseas 
bases, particularly in Europe. This does not require a BRAC 
authorization. However, in my view it makes sense to look at our 
domestic and overseas bases at the same time so that the two reviews 
can inform one another.
    Question. What changes if any would you recommend to the BRAC 
statute, if confirmed, to ensure a more efficient and effective BRAC 
process?
    Answer. I would not recommend any changes to the BRAC statute. BRAC 
is a fair, objective, and proven process for closing and realigning 
installations.
                         environmental security
    Question. If confirmed, you will be responsible for environmental 
security for DOD.
    What do you see as the most significant challenges facing the 
Department in the area of environmental security?
    Answer. The greatest challenge will be maintaining and improving 
the Department's level of environmental security performance in a 
difficult budget environment. If confirmed, I will continue to look for 
ways to find efficiencies without undermining performance.
    Question. Assuming you are confirmed, what plans, if any, do you 
have for addressing these challenges?
    Answer. If confirmed, my approach will continue to be twofold. 
First, I will continue the aggressive oversight of environmental 
programs, with the goal of minimizing management costs and making our 
organizational structure and performance contracts as efficient and 
effective as possible. Second, I will continue to emphasize the power 
of strategic R&D investments to lower the costs associated with 
environmental security.
    Question. While the Military Departments have made considerable 
progress addressing environmental contamination at military 
installations, there remains a substantial amount of work to be done, 
including the remediation of discarded munitions and Unexploded 
Ordnance (UXO), at current and former DOD sites. The Military 
Departments have managed to maintain reasonably level funding for these 
cleanup programs over the past several years; however, many of these 
clean-ups will take years to complete and, in the current budget 
environment, the restoration accounts will come under pressure.
    What steps, if any, do you believe are needed to ensure that the 
DOD remediation programs receive adequate funding and make meaningful 
progress, particularly in the detection and clearance of discarded 
munitions and UXO?
    Answer. I believe that the Department needs to continue its 
existing remediation programs as requested in the fiscal year 2013 
budget and that it also needs to continue the programs that are 
developing technologies that have high promise of making the 
remediation programs more cost effective. A decade of investment by the 
Strategic Environmental Research and Development Program (SERDP) and 
the Environmental Security Technology Certification Program has yielded 
technologies that can discriminate between UXO and harmless metal 
objects with a high degree of reliability. This is a remarkable 
achievement provides the potential to dramatically accelerate the pace 
of remediation for UXO within available funds. If confirmed I will 
continue to support these programs and work to ensure that they are 
adequately funded and effectively executed.
    Question. How might the SERDP help with the overall progress of the 
Defense Environmental Restoration program, particularly in view of the 
current fiscal environment?
    Answer. SERDP is DOD's environmental science and technology 
program; its mission is to address high priority cross-service 
environmental requirements and develop solutions to the Department's 
most critical environmental challenges. SERDP is an R&D program that is 
aimed directly at reducing DOD operating costs. SERDP has allowed the 
Department to avoid spending billions of dollars for environmental 
cleanup, environmental liability and weapons system maintenance. If 
confirmed, I will continue to support this high payoff investment.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the USD(AT&L)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jim Webb
               competition in procurement and acquisition
    1. Senator Webb. Mr. Kendall, it is commonly agreed that 
competition is the strongest tool for driving innovation and lower 
prices in defense procurements and acquisition programs. Do you agree?
    Mr. Kendall. I agree and believe that competition is a cornerstone 
of the acquisition system with benefits that are well established. 
Competition provides a powerful tool to drive innovation and lower 
prices. Dr. Carter and I emphasized competition under the ``Better 
Buying Power Initiative'' to promote real competition and obtain 
greater efficiency and productivity in defense spending and if 
confirmed, I would continue to do so. Even in those cases where head to 
head competition isn't economically viable, the Department can create a 
competitive environment as an incentive to industry.

                        common data link systems
    2. Senator Webb. Mr. Kendall, industry representatives assert that 
the Department of Defense (DOD) and the Military Departments have 
failed to follow policies created to stimulate competition for 
contracts for Common Data Link (CDL) systems by relying on sole-source 
contracts favoring one company's proprietary, non-standard waveforms. 
Is this an accurate characterization? If so, why did DOD allow an 
environment to evolve that stifles competition?
    Mr. Kendall. I am familiar with the situation with regard to the 
CDL and have been working with the Military Departments to address it. 
It was brought to my attention by industry, and I believe there is a 
legitimate concern here. The Department advocates open competition for 
system acquisitions, and is currently assessing CDL system procurement 
practices in several respects in an effort to improve competition. The 
first is to make certain that no vendor-proprietary or undocumented 
interfaces are being cited as requirements or evaluation criteria in 
the Department's CDL system solicitations. The second is to ensure that 
as DOD advances its CDL standards, the Department maintains a broad 
industry base from which it seeks innovation. Finally when CDL systems 
are procured as a subsystem within a platform, DOD should be confident 
that when the prime vendor investigates suitable sources for CDL-
compliant systems these vendors are competitively selected. Industry 
inputs and suggestions for improvement are being sought as part of this 
assessment.

    3. Senator Webb. Mr. Kendall, what will you do, if confirmed, to 
level the playing field within DOD and the Military Departments to 
ensure there are viable competitors for the CDL systems that are 
mandated for transmitting intelligence, surveillance, and 
reconnaissance data?
    Mr. Kendall. If confirmed, I will continue to work to ensure that 
the Department evaluates all future CDL procurement opportunities in 
the Department's plans for competition. DOD is working to ensure there 
are multiple qualified vendors prior to issuing solicitations. For 
example, one of the threshold requirements for many CDL procurements is 
having National Security Agency (NSA) certification of vendors' 
encryption solutions in their products. DOD is working with NSA to 
assist vendors in achieving this Type 1 certification. Also, the 
Department will identify and address any proprietary or undocumented 
interfaces that could limit greater competition. If confirmed, I will 
also ensure that the Department evaluates all future CDL-like 
procurement opportunities for competition. I will continue to work to 
ensure that procurements like CDL, which are intended to be open system 
and open interface based, will in fact be acquired so that proprietary 
restrictions on competition are avoided.

    4. Senator Webb. Mr. Kendall, many CDL terminals, systems, and 
platforms are said to be purchased with proprietary and undocumented 
waveforms and features that create a non-CDL standard and thereby tend 
toward a monopoly. How will you address this impediment to competition 
that DOD has created by purchasing and fielding these proprietary 
features?
    Mr. Kendall. If confirmed, I will use the Department's assessment 
of CDL system acquisitions to identify ways to minimize and potentially 
eliminate the use of proprietary interfaces. If the functions provided 
by these proprietary items are determined to be essential, a DOD 
standard non-proprietary version can be developed. The Common Control 
Interface effort for the terminal control interfaces is an example of 
this approach. If confirmed, I will work to ensure that future CDL 
procurements are based on open standards and interfaces without 
proprietary restrictions. If confirmed, I will work to ensure that the 
Department reviews Service CDL solicitations to ensure proprietary 
features are not used to unfairly limit competition.

    5. Senator Webb. Mr. Kendall, in the past, DOD has used dual-source 
mandates and second-source arrangements to spur competition and to 
maintain a healthy industrial base. Can you adopt these practices for 
CDL products?
    Mr. Kendall. Yes, if the business case supports multiple sources. 
If confirmed, I will continue to look for opportunities to reduce cost 
through competitive sourcing including the use of multiple suppliers 
where the procured quantities are adequate to justify multiple sources. 
I will also continue to look for opportunities for commonality across 
platforms that will increase the opportunities for competitive 
sourcing.

    6. Senator Webb. Mr. Kendall, would multiple sources not reduce 
costs and increase competition?
    Mr. Kendall. The use of multiple sources and competition could 
reduce cost if enough CDLs are acquired so that the costs of 
establishing a second source are less than the savings that can be 
achieved through competitive incentives.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan
                      domestically produced metals
    7. Senator Hagan. Mr. Kendall, as you are aware, DOD in early 2008 
initiated a rulemaking seeking to weaken longstanding requirements that 
armor steel plate procured by DOD be melted domestically. Specifically, 
DOD put forth and subsequently finalized a definition of ``produced'' 
that allows armor plate to be made with metals melted and rolled 
outside of the United States, yet considers that armor plate domestic 
if it simply goes through finishing processes in the United States. 
Because the new definition disregards the most capital- and labor-
intensive portion of production, the melt stage, it puts at risk 
valuable jobs and technology, jeopardizing the future ability of U.S.-
based armor plate producers to meet the demands of the military. It may 
also lead to increased dependency on unreliable foreign suppliers.
    The National Defense Authorization Act (NDAA) for Fiscal Year 2011 
required a review and, if necessary, revision of the existing 
regulation to ensure the definition of ``produced'' is consistent with 
congressional intent. In response to DOD's request for comment in the 
course of its review, seven Senate colleagues and I wrote a bipartisan 
letter to Secretary Panetta reaffirming our support for a return to the 
longstanding requirement that specialty metals be melted in the United 
States. Thirty-three of our colleagues in the House of Representatives 
sent a similar bipartisan letter to DOD. Despite the fact that your 
review was required to be completed by early October 2011, the review 
has not been completed. Can you please tell me when DOD plans to 
finalize its long-overdue review of the definition of ``produced'', as 
it relates to armor plate?
    Mr. Kendall. DOD is reviewing the regulatory definition of 
``produced'' in accordance with section 823 of the Ike Skelton NDAA for 
Fiscal Year 2011. The Department published a Federal Register Notice 
requesting public comment regarding this definition that closed in 
October 2011. The Department is considering all public comments as well 
as communications from Members of Congress before making a 
recommendation on whether a change to the definition of ``produced'' is 
required. The Department's working group will make its recommendation 
by June 2012. If a revision to the definition is recommended, the 
Department will submit a proposed rule for public comment.

    8. Senator Hagan. Mr. Kendall, will DOD revise the definition of 
``produced'' to require that armor steel plate be melted in the United 
States, in light of well-documented congressional intent?
    Mr. Kendall. The Department is considering all public comments and 
the positions expressed by Members of Congress before making a 
recommendation on whether or not a change to the definition of 
``produced'' is required. If a revision to the definition is 
recommended, the Department will submit a proposed rule for public 
comment.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                          rare earth minerals
    9. Senator Begich. Mr. Kendall, according to the rare earth report 
submitted to Congress by DOD, the United States could have the 
capability to meet all of DOD's rare earth demands by 2013. It's well 
known that only one company expects to have significant U.S. production 
capacity in 2012 and may not produce heavy rare earths, instead sending 
product to China for finalizing the finished product. Heavy rare earths 
are critical for defense systems. I'm very concerned that our strategy 
is to rely on heavy rare earths processed in China and these materials 
will be subject to Chinese export quotas. This is especially disturbing 
since the United States/Japan and the European Union are engaged in a 
World Trade Organization (WTO) case against the Chinese. Please 
describe your position on our reliance on production in China as a 
plausible long-term strategy to meet our rare earth demand for national 
security requirements. What steps is DOD taking to encourage production 
of heavy rare earths here in the United States?
    Mr. Kendall. DOD does not intend to rely on Chinese production of 
rare earth materials as a long-term strategy to meet rare earth element 
needs. As you note, the United States Government has undertaken action 
at the WTO to address concerns about the availability of rare earth 
materials in world markets. Market forces have also been working in 
ways that significantly affect the domestic availability of rare earth 
materials. Over the past 2 years, one U.S. company has established a 
domestic supply chain of rare earth materials from mine to metal/
alloys, another company has begun construction of a neodymium-iron-
boron magnet facility in North Carolina, and a third company just 
announced that it is pursuing the acquisition of land in Louisiana for 
the purpose of producing rare earth oxides from the mine it is 
developing in Canada. The Department is carefully monitoring these 
developments as part of its effort to ensure the availability of rare 
earth materials to the defense industrial base. I believe the 
Department's plan to pursue a three-pronged approach to this important 
issue is the best approach. The three prongs are: diversification of 
supply, pursuit of substitutes, and a focus on reclamation.

    10. Senator Begich. Mr. Kendall, I'm also concerned that DOD isn't 
taking the rare earth issue seriously. The required report was over 8 
months late and the front cover notes it cost $4,230 to provide this 
five-page report. Is this a serious analysis?
    Mr. Kendall. I believe that the Department's analysis of the 
availability of rare earth materials was a serious analysis. Over 80 
organizations and subject matter experts were contacted for information 
for this report. In addition to the Military Services input, the 
assessment included input and consultation with the Department of 
Commerce (DOC), U.S. Geological Survey (USGS), U.S. Government 
Accountability Office (GAO), the U.S. Trade Representative (USTR), and 
the Department of Energy (DOE), as well as a myriad of rare earth 
subject matter experts and industry organizations.
    I believe that the final report should be viewed in conjunction 
with the significantly longer interim report provided to Congress in 
August 2011 and information provided at several related briefings to 
Congress. In my view, taken together, these activities seriously 
addressed the issue of assessing the rare earth material supply chain 
and the availability of material versus demand from the defense 
industrial base.

    11. Senator Begich. Mr. Kendall, what were the man-hours involved 
in this report over the 14 months used to produce it?
    Mr. Kendall. My understanding is that the total level of effort and 
time required for the Department's review of rare earths has been 
substantial and included not just the direct man-hours for preparing 
the final report, which were modest, but a host of other activities 
that were not considered direct costs for the preparation of the 
report. The cost of those other contributing activities is not included 
in the figure cited in the report.

    12. Senator Begich. Mr. Kendall, what were the technology 
requirements, data calls, analysis performed, and the outside expertise 
required under contract?
    Mr. Kendall. Analytic support for the Department's review of rare 
earths was provided primarily by the Institute for Defense Analyses, a 
Federally Funded Research and Development Center. Extensive data were 
received from USGS.
    Over 80 organizations and subject matter experts were contacted for 
information for this report, including the Military Services, other 
defense agencies, DOC, USGS, GAO, the USTR, and DOE, as well as rare 
earth subject matter experts and industry organizations.
    In addition, input was sought from DOD organizations, other Federal 
departments and agencies, and a range of industry representatives 
concerning which rare earth materials met the criteria identified in 
section 843 of the NDAA for Fiscal Year 2011. These organizations were 
also asked to offer recommendations as to how to mitigate 
vulnerabilities for materials they identified as meeting the key 
criteria.

    13. Senator Begich. Mr. Kendall, how did you involve the China 
experts, either inside DOD or outside?
    Mr. Kendall. Outside of DOD, the USGS's rare earth materials expert 
and its China expert were consulted regarding Chinese production and 
consumption patterns, policies and trends. Also, China analysts from 
the Joint Staff and from the intelligence community were directly 
involved in the assessment process, including eliciting their judgments 
as to which rare earths met the criteria of section 843 of the NDAA for 
Fiscal Year 2011.

    14. Senator Begich. Mr. Kendall, how many hours, in reality, did it 
take to produce this five-page report and why was it so late?
    Mr. Kendall. Sixty-seven man-hours are attributable solely to the 
five-page report. This represented a small component of the 
Department's overall review. The extent of that review led to the delay 
in completing the full reporting requirement.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
              handheld, manpack, and small form fit radios
    15. Senator Gillibrand. Mr. Kendall, in this constrained fiscal 
environment it is always important to ensure there is a focus on 
competition and innovation where it makes sense. Given that the network 
is one of the Army's top priorities, can you provide insight into how 
you are structuring the Joint Tactical Radio System (JTRS) Handheld, 
Manpack, and Small Form Fit (HMS) program so you are able to include 
commercially developed JTRS solutions in a competition?
    Mr. Kendall. The JTRS HMS development contract was originally 
competitively awarded and had a requirement to qualify two Program of 
Record (POR) vendors for competition in full rate production for each 
variant. As the program has proceeded, various vendors have worked on 
their own to develop competitive alternatives to the PORs. These are 
essentially commercially developed alternatives. Where possible, future 
procurements will be conducted using full and open competition so that 
these vendors can offer their products.

    16. Senator Gillibrand. Mr. Kendall, is the Navy's RDT&E program of 
record HMS radio on target this year, such that all of the requested 
funding for fiscal year 2013 will be needed?
    Mr. Kendall. Yes. This funding is needed to complete Manpack radio 
development, testing, evaluation and to provide a Mobile User Objective 
System (MUOS) capable terminal. If HMS does not receive full RDT&E 
funding in fiscal year 2013, the program will not be able to complete 
MUOS development or the related MUOS testing. Without this funding 
there will not be a MUOS ground terminal available for the DOD to use 
with the current MUOS satellite on orbit and subsequent satellites due 
to launch in the summer of 2013 and beyond.

    17. Senator Gillibrand. Mr. Kendall, a recent article suggests that 
the Manpack Limited User Test (LUT) conducted during the summer 2011 
Network Integration Evaluation did not collect adequate data about the 
Manpack due to inappropriate procedures. Please tell me what the issues 
were, how they will be corrected, and how this delay impacts the RDT&E 
schedule for fiscal year 2012-fiscal year 2013.
    Mr. Kendall. My understanding is that the Army Test and Evaluation 
Command, Operational Test Command, conducted the Manpack Limited User 
Test (Manpack LUT) from June 20-July 9, 2011 at White Sands Missile 
Range, New Mexico in accordance with a Director, Operational Test & 
Evaluation-approved operational test plan. The Manpack LUT proved to be 
adequate for assessing the effectiveness and survivability of the 
Manpack, but inadequate for assessing reliability, availability, and 
maintainability (RAM). I understand that the data collectors did not 
ride in the vehicles with the test radios installed in accordance with 
the approved test plan, so RAM calculations were based on operator 
interviews instead of electronic data collection. I believe that this 
data was called into question because of the data collection process. 
In response, the Army implemented a revised test plan and reliability 
development growth program for the Manpack radio. I understand that the 
Army and program manager have made rapid adjustments to obtain the 
required test data. Based on this recovery plan, no schedule delays are 
currently expected.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                 major weapons procurement contracting
    18. Senator McCain. Mr. Kendall, from your responses to the 
committee's advance policy questions on excessive concurrency, fixed-
price contracting, and multiyear contracting for major weapons systems, 
you seem to be more confident in the ability of DOD's processes, 
organizations, and people (i.e. skill-sets and core competencies) to 
identify, price, and manage risk than I am. Over the last decade or so, 
however, in terms of technology development, integration, and 
manufacturing, DOD has not been effective or consistent in identifying, 
pricing, and managing high risk in connection with its procuring major 
weapons systems. For this reason, I believe that until DOD 
fundamentally improves how reliably it addresses risk, it should eschew 
procuring high-risk major weapons systems. Then, it could pursue 
contracting strategies and methodologies conducive to procuring major 
systems with more demonstrably manageable degrees of risk.
    If additional capability requiring the government to accept more 
risk must be procured, to the extent possible, DOD could then use a 
spiral development strategy to acquire that additional capability 
incrementally over a longer time horizon while delivering capability 
more directly benefitting the warfighter in the interim. While there 
may be some limited exceptions, like satellites and some ships, would 
you not generally agree with this position? If so, how would you 
affirmatively attempt to implement this view, if confirmed?
    Mr. Kendall. In general, I agree that the Department can frequently 
accept less exquisite, less high risk technological solutions, and that 
in the current budget environment it is essential that the Department 
focus on affordability in all acquisition programs. In cases where 
higher risk profiles are necessary to meet a critical operational need, 
incremental acquisition approaches may be appropriate. At the same 
time, there will continue to be cases where it is necessary for the 
Department to tackle technologically challenging problems to address 
significant new threats to national security. The Department needs to 
retain the flexibility to adopt the acquisition strategy most 
appropriate to the specific program or product. If confirmed, I will 
continue to insist that the Department realistically assess risks, 
tailor its acquisition strategies to appropriately address these risks, 
and support rigorous efforts to ensure the affordability and 
executability of acquisition programs.

                   new army major weapons procurement
    19. Senator McCain. Mr. Kendall, the Army has two prominent 
programs currently in the early stages of development: the Joint Light 
Tactical Vehicle (JLTV) and the Ground Combat Vehicle (GCV). Each has 
had its requirements substantially reduced to help ensure 
affordability. I am concerned that as these programs move forward in 
development, their requirements may change again, resulting--
predictably--in major cost overruns. What confidence do you have that 
the requirements for JLTV and GCV are now stable?
    Mr. Kendall. Requirements definition and stability are key focus 
areas in both the JLTV and GCV programs. Both programs are well aware 
of the overriding need for an agreed set of technologically achievable, 
operationally relevant, sustainable, and affordable requirements. Both 
programs have affordability caps for production and sustainment. Other 
requirements may have to be traded away during the remainder of 
technology demonstration (TD) (for GCV) and engineering and 
manufacturing development (EMD) (for GCV and JLTV) to stay within those 
caps.
    Specifically, the JLTV program executed a technology development 
phase that included competitive prototyping; The Army and the Marine 
Corps learned a great deal about the feasibility of requirements and 
made adjustments that are reflected in the current request for 
proposals. The requirements communities from both the Army and the 
Marine Corps, and supported by the Joint Requirements Oversight 
Council, conducted trades on the requirements. In the case of force 
protection, some requirement for JLTV was actually made more stringent. 
If confirmed, I will conduct a final review to ensure that requirements 
are stable prior to approving contract award and entry into EMD.
    Similarly, the GCV program is executing a TD phase and Army will 
establish firm requirements before committing to EMD. As expected for 
this phase, important requirements trades are still in play. By the end 
of calendar year 2012, the outputs from each of the three core TD phase 
activities (AOA Dynamic Update, NDI Evaluation, and Contractor Design 
Teams) should converge and inform senior leadership on the 
operationally relevant requirements that are executable and affordable. 
Throughout the next year, Army teams will synchronize the results of 
all of these activities in a Configuration Steering Board and 
validation of the Capability Development Document (CDD) in support of 
the GCV Acquisition Strategy for EMD. If confirmed, I will ensure that 
requirements are stable before GCV enters EMD.

    20. Senator McCain. Mr. Kendall, will you allow production 
decisions to be made prior to the prototyping and testing of these 
vehicles and/or their subsystems?
    Mr. Kendall. No. Production decisions will be informed by 
developmental testing including preproduction prototype testing. The 
JLTV program has a 33-month comprehensive EMD phase with 22 prototype 
vehicles per vendor to demonstrate performance. Results from the 
comprehensive test program including user evaluation, blast testing, 
and proof of reliability will inform down select for production. The 
GCV program is in the Technology Development phase. The program 
schedule anticipates a 4 year EMD period to refine designs and build 
and test prototypes before the production decision.

    21. Senator McCain. Mr. Kendall, what confidence do you have in the 
Army's ability to effectively assess the technological risks associated 
with the maturity of weapons systems and GCV, in particular?
    Mr. Kendall. The Department as a whole, including the Army, still 
has room for improvement in assessing risk and technological maturity. 
However, the Army and the Department have made progress in recent 
years, and the Army does have the ability to effectively assess 
technological risks. If confirmed, it would be my responsibility to 
ensure that risk assessments are effectively conducted on GCV and other 
programs.

                       late military depot report
    22. Senator McCain. Mr. Kendall, this committee directed your 
office in its report for the NDAA for Fiscal Year 2012 to provide to 
Congress no later than March 1, 2012, your views on a study conducted 
by the Logistics Management Institute on the capability of military 
depots to support future national defense requirements. When will we 
receive this report?
    Mr. Kendall. The Department provided this report on May 8, 2012.

    23. Senator McCain. Mr. Kendall, will the report satisfy all 
requirements requested by the committee?
    Mr. Kendall. Yes. The report provides a response from DOD 
addressing each of the major conclusions detailed in the LMI depot 
study. Specific legislative and policy changes are discussed, as well 
as the Department's efforts and approach to improving the efficiency of 
the organic depot maintenance enterprise. Official comments from the 
Military Services are included as an attachment to the report.

               starting major weapons programs off right
    24. Senator McCain. Mr. Kendall, the main focus of the Weapon 
Systems Acquisition Reform Act of 2009 (WSARA), which applies to new 
programs and seeks to have major defense acquisition programs start off 
right, requires that early investment decisions be informed by 
realistic cost estimates, sound systems engineering knowledge, and 
reliable technological risk assessments. DOD has indeed started some 
new major programs since WSARA was enacted, or will do so in the near 
future. I would like to review a few of them with you. Please tell me 
what has been done to help ensure that they comply with these very 
important aspects of WSARA or how they are being structured now (or 
will be structured in the future) to minimize excessive cost-growth and 
schedule-delays.

        <bullet> Ohio-class Ballistic-Missile Submarine Replacement 
        Program--SSBN(X)
        <bullet> Aerial Refueling Tanker Replacement Program--KC-46A
        <bullet> Presidential Helicopter Replacement Program--VXX
        <bullet> Long-Range Strike--LRS (formerly called Next-
        Generation Bomber--NGB)
        <bullet> Ground Combat Vehicle--GCV
        <bullet> Joint Tactical Radio System--JTRS, as restructured
        <bullet> Amphibious Combat Vehicle--ACV (the successor to the 
        cancelled Marine Corps program, Expeditionary Combat Vehicle--
        ECV)
        <bullet> Joint High-Speed Vessel (JHSV)

    Mr. Kendall. Since WSARA was enacted, the Department has worked to 
ensure all programs reviewed comply with WSARA and that investment 
decisions are informed by realistic assessments of cost and risk. The 
Deputy Assistant Secretary of Defense for Systems Engineering, the 
Deputy Assistant Secretary of Defense for Developmental Test and 
Evaluation, and the Director of Cost Analysis and Program Evaluation 
influence all new start programs and all major milestone decisions. The 
Joint Capabilities Integration and Development System incorporates 
combatant commanders' inputs. Acquisition strategies address 
competition strategies and prototyping considerations. The requested 
information about specific programs follows:

        <bullet> Ohio-class Ballistic-Missile Submarine Replacement 
        Program--SSBN(X)

                <bullet> The program received MS A approval in January 
                2011 and the ongoing development of the program is 
                fully compliant with WSARA principles. The Navy is 
                designing to the minimum capability that will satisfy 
                the projected strategic requirement throughout the 
                projected life of this new ship class. At MS A, 
                affordability targets were established for average ship 
                end cost (Hulls 2-12) of $4.9 billion and Operation and 
                Sustainment cost per hull of $110 million (in CY$10, 
                Navy shipbuilding indices). The program has established 
                a dedicated Design for Affordability (DFA) group, 
                consisting of NAVSEA and Electric Boat representatives 
                to promote, review, and track DFA initiatives for Non-
                Recurring Engineering, Construction, and Operations and 
                Sustainment. In PB13, the Navy delayed procurement of 
                the lead ship 2 years from fiscal year 2019 to fiscal 
                year 2021. The overall program cost will increase with 
                inflation effects, however, the Department remains 
                committed to meeting the affordability targets and to 
                accomplishing the design and construction in the most 
                cost-effective manner possible.

        <bullet> Aerial Refueling Tanker Replacement Program--KC-46A

                <bullet> The Department has mitigated the program's 
                risk by structuring the competitive development 
                contract with both fixed price incentive (firm target) 
                and firm fixed price components. The KC-46 development 
                contract has an overall contract ceiling price of $4.9 
                billion. Boeing is fully responsible for any cost 
                growth beyond the $4.9 billion overall contract ceiling 
                price. For production, firm fixed-price contract 
                options are established for the first two low-rate 
                initial production lots. The remaining 11 full-rate 
                production options have not-to-exceed prices with 
                equitable price adjustments. The commercial-derivative 
                nature of the KC-46 also contributes to controlling 
                cost growth by allowing the Government to leverage 
                commercial processes and parts pools. Boeing is 
                strongly incentivized to deliver on its contract 
                commitments and within schedule.

        <bullet> Presidential Helicopter Replacement Program--VXX

                <bullet> The Navy has conducted an extensive Analysis 
                of Alternatives under guidance from Cost Assessment and 
                Program Evaluation (CAPE). Those activities have 
                provided data on cost estimates, systems engineering 
                assessments, and insights into technical risks, ways to 
                leverage In-Service investments to reduce risk and 
                minimize change for the users and operators, and 
                opportunities for in-house risk reduction efforts that 
                will result in ownership of data rights and key 
                interfaces for the communications suite. This analysis 
                will lead to a program strategy for the Presidential 
                Helicopter Replacement Program that is compliant with 
                WSARA and structured to avoid cost growth and schedule 
                disruption.

        <bullet> Long-Range Strike (LRS)

                <bullet> The program has incorporated cost estimation, 
                systems engineering, and technological risk guidance by 
                CAPE, and the Offices of the Deputy Assistant 
                Secretaries of Defense, Systems Engineering (SE) and 
                Developmental Test and Evaluation (DT&E). The cost cap 
                of $550 million aircraft will be used to control 
                requirements creep and ensure an affordable design.

        <bullet> Ground Combat Vehicle (GCV)

                <bullet> GCV was approved for MS A on August 17, 2012. 
                The Defense Acquisition Board considered the 
                requirements, resources, and schedule and established 
                affordability targets for the GCV Program in both the 
                investment and O&S phases of the Program. Additionally, 
                a three-prong strategy that builds towards an informed 
                Milestone B and Engineering and Manufacturing 
                Development Phase. The Department will continue to 
                review the AOA's cost informed trades, evaluate 
                potential Non-Developmental Items (including 
                international sources), and conclude a 24-month TD 
                phase with two potential GCV candidates.

        <bullet> Joint Tactical Radio System (JTRS)

                <bullet> JTRS is a family of five ACAT I-D acquisition 
                programs established to provide software programmable, 
                networking radios for communication at the last 
                tactical mile--this includes tactical networking 
                communications for airborne, vehicular, maritime and 
                dismounted forces. The JTRS programs have struggled to 
                complete development and enter production, but that 
                process is now well underway. In some cases 
                requirements have been relaxed to permit lower cost 
                competitive products that industry has developed in 
                parallel with the programs of record to be considered 
                for production. Overall, the JTRS program is over 80 
                percent complete in terms of development and with two 
                hardware programs post-Milestone C (HMS Rifleman Radio 
                and MIDS JTRS). MIDS has recently been approved for 
                Full Production and Fielding (FP&F) and HMS is 
                scheduled to have an FP&F decision this year. The JPEO 
                JTRS organization is now following an enterprise 
                business model designed to increase competition. JTRS 
                is moving toward a non-developmental item (NDI) 
                acquisition strategy. The JTRS Ground Mobile Radio 
                (GMR) program underwent a Nunn-McCurdy breach 
                assessment in 2011, resulting in a decision by the 
                Milestone Decision Authority (Mr. Kendall) to terminate 
                the program of record and pursue an NDI acquisition 
                strategy to meet essential requirements at an 
                affordable cost under the auspices of the Army's Mid-
                Tier Networking Vehicular Radio (MNVR) Program.

        <bullet> Amphibious Combat Vehicle (ACV)

                <bullet> In January 2011, the Marine Corps formalized a 
                Systems Engineering-Operational Performance Team SE-OPT 
                (SE-OPT) specifically to address affordability in 
                accordance with WSARA principles. The SE-OPT culminated 
                in December 2011, when the Navy entered into the 
                Materiel Solution Analysis phase. The ACV program will 
                follow a highly tailored acquisition approach 
                structured to provide the most cost-effective program.

        <bullet> Joint High-Speed Vessel (JHSV)

                <bullet> The JHSV received MS B approval in November 
                2008, just prior to enactment of WSARA; however, the 
                program is addressing all applicable (i.e., post-MS B) 
                WSARA principles. The JHSV program was informed by 
                prior high speed vessel experimentation programs (e.g. 
                Swift, Westpac Express) and is a modification to a non-
                developmental commercially derived high speed ferry 
                design, thus reducing developmental risk. Although the 
                lead ship has experienced cost and schedule growth, the 
                shipbuilder's performance on the following JHSVs is 
                improving. Due to investment in a modular manufacturing 
                facility which supports efficient construction, and use 
                of a fixed price incentive contract, follow on JHSVs 
                are expected to deliver as planned at or below target 
                contract costs.

    25. Senator McCain. Mr. Kendall, while the Joint Strike Fighter 
(JSF) is, of course, not a new start, it is critical that it be 
restructured to comply with WSARA's key requirements (on realistic cost 
estimates, sound systems engineering, and reliable risk assessments). 
In what sense has it been restructured along these lines?
    Mr. Kendall. The Department fully supports the organizational and 
policy changes enacted in the Weapon System Acquisition Reform Act 
(WSARA) for all DOD acquisition programs, including the F-35 JSF. The 
Department's goals with respect to WSARA are the same for all 
acquisition programs: implement all of the applicable acquisition 
policy measures called out in WSARA and integrate WSARA organizational 
changes into the oversight of the program. The majority of the actions 
required to achieve these goals in the F-35 program have been 
completed.
    Subsequent to the passage of WSARA in May 2009, the F-35 program 
was the subject of numerous reviews, culminating in a Nunn-McCurdy 
critical cost breach certification review that was guided by the 
acquisition reform principles founded in WSARA. The cost and schedule 
assessment reviews were led by the WSARA-formed Office of the Director, 
CAPE. The Nunn-McCurdy review and certification of the F-35 program was 
guided by process improvements institutionalized in WSARA, to include 
the participation and assessments of the Office of Performance 
Assessment and Root Cause Analysis, and the Offices of the Deputy 
Assistant Secretaries of Defense for Systems Engineering (SE) and 
Developmental Test and Evaluation (DT&E). Additionally, the F-35 
program has instituted a renewed emphasis on sound systems engineering 
principles, realistic cost and schedule estimating, a re-energized 
focus on integrated test and evaluation, and implementation of tighter 
cost control measures; all of which can be traced directly to WSARA 
principles. Following the Nunn-McCurdy certification, and statutorily-
directed rescission of Milestone (MS) B, the F-35 program conducted a 
bottoms-up Technical Baseline Review to determine a realistic cost, 
schedule, and risk basis for completing the developmental phase of the 
program, in which the Offices of the Deputy Assistant Secretaries of 
Defense, SE and DT&E, participated. These organizational and policy 
changes in WSARA were instrumental in the completion of the thorough 
review of the F-35 program that resulted in Nunn-McCurdy certification 
on June 2, 2010.
    WSARA-implemented organizational changes were leveraged in the 
November 2011 F-35 Concurrency Quick Look Review (QLR), commissioned by 
the Acting Under Secretary of Defense (AUSD) for Acquisition, 
Technology and Logistics (AT&L). This review was led by Performance 
Assessments and Root Cause Analyses (PARCA), SE and DT&E, and found the 
overall F-35 design to be sound, but that there is significant risk 
remaining in the F-35 program. It is necessary to increase confidence 
in the design before production rates can be increased. The Department 
used the result of the QLR to inform the fiscal year 2013 Future Years 
Defense Program, which holds U.S. production at 29 aircraft per year 
through 2014 to permit additional progress on the test program before 
increasing production.
    The enactment of WSARA has directly influenced F-35 program 
planning, documentation and execution that led to the AUSD(AT&L) 
approval of a new MS B in March 2012. Two Defense Acquisition Board 
(DAB) reviews of the F-35 program were conducted in January and 
February 2012 with full involvement of CAPE, PARCA, SE and DT&E. Per 
WSARA, CAPE cost estimators worked closely with the program office as 
they developed the Independent Cost Estimate and reviewed the program 
office estimates. This culminated in concurrence from the Director, 
CAPE, with the AUSD(AT&L) choice of cost estimate for the program. 
PARCA has completed three semi-annual performance assessments of the F-
35 program since 2010. In accordance with WSARA, these assessments will 
occur semi-annually until at least March 2013; the next assessment is 
planned for July 2012.
    The remaining actions to fulfill the overall goal involve continual 
interaction between the WSARA-instituted organizations and the F-35 
program office. To that end, I have planned for an F-35 DAB review in 
September 2012, with annual reviews to follow. Additionally, I have 
directed the AT&L (L&MR) and CAPE to continue to work with the Services 
and the F-35 program office to identify and quantify opportunities to 
reduce operating and support costs for the program's life cycle.

               medium extended air defense system program
    26. Senator McCain. Mr. Kendall, a few days ago, I sent Secretary 
of Defense Panetta a letter asking him to explain DOD's position on the 
Medium Extended Air Defense System (MEADS) program. There is ambiguity 
between how I thought DOD was going to approach the program, which 
would comport with the requirements under the NDAA for Fiscal Year 
2012, and Secretary Panetta's recently announced desire to keep our 
contractual obligation with our partner nations. Please provide me with 
an update on MEADS and your plans, if you are confirmed, for 
negotiating with our partners in the program on a lower-cost option 
that limits the program to no more than the funding appropriated in 
fiscal year 2012--as directed under the NDAA for Fiscal Year 2012.
    Mr. Kendall. In accordance with the requirements of section 235 of 
the NDAA for Fiscal Year 2012, the Department has repeatedly consulted 
and attempted to negotiate with the German and Italian participants 
regarding development of a plan to restructure the program to make U.S. 
fiscal year 2012 funding the Department's final obligation for the 
program. The Department informed the German and Italian participants 
that there is significant risk that fiscal year 2013 funding may not be 
made available by Congress. In response, they have informed the 
Department that they remain fully committed to their MOU obligations 
and expect that all three participants will provide their 2013 funding 
to complete the PoC effort. The Department has provided the plan 
required by the NDAA for Fiscal Year 2012. The plan relies on the 
provision in the MEADS MOU that limits partner obligations to 
appropriated funding. The administration requested funding in the 
fiscal year 2013 budget to complete U.S. international obligations 
under the MEADS Design and Development Memorandum of Understanding 
(MOU), as required by the terms of the MOU, and the administration 
continues to believe that fulfilling this commitment is the best course 
of action.

                   military space procurement policy
    27. Senator McCain. Mr. Kendall, in your responses to the advance 
policy questions, you indicated that introducing more competition for 
launch as soon as feasible is the key to controlling spiraling launch 
costs. Also, you cited a dual-prong approach the Air Force is taking 
to: (1) implement a block-buy acquisition strategy to purchase economic 
order quantities; and (2) provide a path to qualification of new 
entrants into the National Security Space (NSS) launch market. As a 
general proposition, how is a long-term block-buy from a sole-source 
supplier consistent with the notion of qualifying new entrants?
    Mr. Kendall. At this time, no new entrants have been certified to 
compete for NSS launch missions, and based on market research, the 
Department believes that it will be a number of years before a new 
entrant will be capable of achieving certification for NSS launch 
missions. During this period of time, the Department must continue to 
rely on the sole certified provider, the United Launch Alliance (ULA), 
to inject NSS payloads into their mission orbits. The block-buy 
acquisition strategy is intended to control ULA's costs, while 
potential new entrants achieve certification under the New Entrant 
Certification Strategy. If any new entrants achieve certification 
earlier than currently estimated, requirements above the contract 
commitment will be met through a full-and-open competition among all 
certified providers.
    Only one potential new entrant has stated an intention to qualify 
for future NSS launch missions, and based on their current DOD- and 
NASA-funded launches, combined with their commercial launches and 
assuming the success of these missions, the Air Force expects that firm 
to achieve certification to compete for future NSS missions by 2017. 
This coincides with phase 2 of the EELV acquisition strategy, during 
which launch missions will be competed under existing source-selection 
processes. However, in order to facilitate the certification of 
potential new entrants, the Air Force has identified two opportunities 
that providers may bid on--the Space Test Program (STP)-2 and the Deep 
Space Climate Observatory (DSCOVR) missions which were funded by 
Congress in fiscal year 2012. These EELV-class missions have a higher 
risk tolerance and will provide an opportunity for potential new 
entrants to prove their capability for certification.

    28. Senator McCain. Mr. Kendall, to what extent would DOD be 
subjected to substantial termination liability should it elect to 
procure launch services from new entrants during the duration of the 
block-buy procurement period?
    Mr. Kendall. My understanding is that the Air Force released a 
request for proposal in March 2012 requesting cost proposals that cover 
a range of launch rates and term durations. The contract is structured 
as a requirements contract with variable pricing that recognizes 
Congress may not authorize/appropriate funds for the planned amount. If 
the planned amount is funded, the Air Force must buy the launches from 
United Launch Alliance. If fewer launches are authorized and 
appropriated, there is no termination liability but the Air Force must 
still buy the launches from United Launch Alliance. A new entrant could 
be given launches in excess of the annual planned launches in the 
contract. As with any contract if the quantities are reduced after 
they've been funded, there is termination liability. If confirmed, I 
will work with the Air Force to minimize those liabilities.

    29. Senator McCain. Mr. Kendall, to what extent could a new entrant 
compete for launches that have been bought during the block-buy?
    Mr. Kendall. My understanding is that only one potential new 
entrant has stated an intention to achieve certification, and an Air 
Force analysis of that firm's manifest suggests that they will likely 
not achieve certification before 2017, which will be after the initial 
block-buy and during the period of new-entrant competition (phase 2) 
under the Evolved Expendable Launch Vehicle acquisition strategy. If 
this potential new entrant or another achieves certification prior to 
the end of the initial block-buy, they would be eligible to compete for 
launch missions over those already committed to in the planned block-
buy contract.

    30. Senator McCain. Mr. Kendall, to what extent should the Air 
Force contemplate off-ramps from the block-buy?
    Mr. Kendall. My understanding is that off-ramps will be negotiated 
under the initial block-buy contract. The Air Force released a request 
for proposal March 23, 2012 requesting cost proposals that cover a 
range of launch rates and durations. Based on that data and independent 
analysis, the Department plans to award the first block-buy contract at 
the rate, duration, and with termination conditions (i.e., off-ramps) 
that, together, offer the most advantageous terms to the Government.

    31. Senator McCain. Mr. Kendall, if the block-buy results in excess 
inventory, as has historically been the case, what specific launch 
opportunities will be open to competition under those circumstances?
    Mr. Kendall. My understanding is that analysis of satellite 
readiness for launch indicates that the rate of 6-10 cores per year 
over 3-5 years that is anticipated under the block-buy is insufficient 
to meet the expected demand. This makes it likely that there will be 
launches available for competition. Although the Department has 
experienced launch delays in the past, some of the circumstances that 
led to lower than expected launch rates no longer exist. The National 
Security Space enterprise is entering a period where several 
constellations of satellites are now in full-scale production, so a 
full launch manifest is anticipated for the foreseeable future.

    32. Senator McCain. Mr. Kendall, in your responses to the advance 
policy questions, you cited your decision to reinstate the Evolved 
Expendable Launch Vehicle (EELV) as a major defense acquisition program 
(MDAP) not in sustainment so that there will be greater visibility into 
the programs status, in compliance with the NDAA for Fiscal Year 2012.
    Why should I not be concerned that the new acquisition program 
baseline for EELV will not contemplate a large block-buy, which would 
suppress the overall acquisition unit cost estimate for booster cores?
    Mr. Kendall. I have taken action to reinstate EELV as required by 
the NDAA. The Air Force will be required to establish a new 
``original'' acquisition program baseline (APB) for EELV for a 
restructured program. The new APB will be based on the restructured 
program and will most likely include the block-buy approach called for 
in the current Air Force EELV acquisition strategy. If confirmed, I 
will ensure that the APB reflects the Department's best estimate of 
program costs and is consistent with the planned acquisition strategy.

                         developmental testing
    33. Senator McCain. Mr. Kendall, the Deputy Assistant Secretary of 
Defense for Developmental Test and Evaluation (DASD(DT&E)) has two 
distinct reporting chains. For DT&E matters the DASD(DT&E) reports to 
the Under Secretary of Defense for Acquisition, Technology, and 
Logistics (USD(AT&L)) through the Assistant Secretary of Defense for 
Research and Engineering (ASD(R&E)) and for Test Resource Management 
Center (TRMC) matters the DASD(DT&E) reports directly to the USD(AT&L). 
This appears to be a rather cumbersome management arrangement in which 
the DASD(DT&E) has two masters. Is it your view that this is efficient, 
appropriate, and effectively furthers the underlying intent of WSARA?
    Mr. Kendall. The Department has adopted an organizational structure 
consistent with the intent of WSARA and with most efficient and 
effective performance of the test and evaluation function.
    The DASD(DT&E) has direct access to advise me as the Acting 
USD(AT&L) on all matters relating to developmental test and evaluation 
within the Department, and has acted in this capacity on numerous 
occasions. This includes direct participation in all major program 
milestone decisions. I particularly rely on the DASD(DT&E) for advice 
on the demonstrated maturity of designs and verification that 
requirements are being met prior to entering initial production and on 
the adequacy of planned test programs at the beginning of Engineering 
and Manufacturing Development. The reporting chain through ASD(R&E) 
allows for alignment between DT&E and Systems Engineering efforts 
within the Department. There are similar arrangements for other 
functional leads within AT&L and after 2 years of working with this 
arrangement I believe it is an effective structure.
    The DASD(DT&E) adds a critical capability to AT&L allowing the 
Department to ensure that developmental test programs are properly and 
realistically designed to evaluate performance against requirements, as 
WSARA intended. Likewise, with the dual-hatting of the DASD(DT&E) as 
the Director of the Test Resource Management Center, the DASD(DT&E) has 
direct access to advise me on test resourcing issues.

    34. Senator McCain. Mr. Kendall, if confirmed, what actions, if 
any, would you take to make management of the DASD(DT&E) office more 
efficient?
    Mr. Kendall. The DASD(DT&E) office is operating as an efficient 
operation, including leveraging expertise from the Test Resource 
Management Center (TRMC). In January 2012, I approved a reorganization 
of DT&E and TRMC that formalized these efficiencies. The DT&E office 
has grown substantially since WSARA was passed and I believe it is now 
at an appropriate size, however, if I am confirmed I will continue to 
monitor the effectiveness of this office to see if adjustments are 
needed within the overall USD(AT&L) resources.

    35. Senator McCain. Mr. Kendall, DOD has over $1,000 acquisition 
programs of which approximately 300 are under DOT&E oversight and less 
than 40 are currently under DASD(DT&E) oversight. The GAO has indicated 
that the DASD(DT&E) requires additional staff to properly fulfill its 
statutory requirements. If confirmed, what actions, if any, would you 
take in this time of declining budgets to ensure the DASD(DT&E) has the 
resources it needs to effectively discharge its statutory 
responsibilities?
    Mr. Kendall. All DOD acquisition programs are in a sense under DT&E 
oversight, as is the developmental test career field across the 
Department. DT&E involvement in programs is highest during the planning 
for an execution of the Engineering and Manufacturing Development 
phase, with which DT&E is most concerned. This applies to a subset of 
all acquisition programs.
    I believe the fiscal year 2013 President's budget request for OSD/
DT&E manpower and funding provides adequate resources to support the 
responsibilities of the office. I also believe that the Department has 
effectively used available resources to add capacity and bring 
technical depth into the office. These resources increased the capacity 
of DT&E and have enabled the office to share best practices across the 
Department, particularly with Military Service test organizations and 
program offices. If confirmed, I will continue to assess the 
effectiveness of this office and make adjustments as necessary.

         joint capabilities and integration development system
    36. Senator McCain. Mr. Kendall, in your written responses to the 
advance policy questions, you refer to an updated policy for the Joint 
Capabilities and Integration Development System (JCIDS) that in part 
establishes a Joint Emergent Operational Needs (JEON) process intended 
to meet the urgent needs for future contingency operations. How do you 
define a ``near-term, high-risk contingency'' that underpins the 
determination for a JEON?
    Mr. Kendall. The Chairman's Joint Capabilities and Integration 
Development System (JCIDS) instruction that I referenced defines a JEON 
as an urgent operational need ``identified by a combatant command as 
inherently joint and impacting an anticipated or pending contingency 
operation.'' Urgent Operational Needs are further defined as capability 
requirements that if left unfulfilled, potentially result in loss of 
life or critical mission failure. My understanding is that JEONs 
provide the combatant commanders (COCOMs) a means of identifying 
capability gaps that they view as urgent but that are not associated 
with a current contingency.

    37. Senator McCain. Mr. Kendall, how do you distinguish an 
anticipated or pending contingency operation?
    Mr. Kendall. My understanding is that the most critical distinction 
in regards to a JEON in comparison to a Joint Urgent Operational Need 
(JUON), is that a JEON is not associated with a current contingency 
operation as defined in title 10, U.S.C., section 101(a)(13), but 
rather is associated with a possible future contingency. The 
distinction between ``pending'' and ``anticipated'' is purely temporal, 
with ``pending'' being viewed as the nearer-term possibility. I do not 
consider ``anticipated'' to necessarily imply a high likelihood of 
occurrence.

    38. Senator McCain. Mr. Kendall, how is a requirement that may take 
6 years to obtain considered near-term or urgent?
    Mr. Kendall. My understanding is that the intent of the 
Department's rapid acquisition processes is to deliver capabilities 
needed to satisfy both JUONs and JEONs in less than 2 years. I believe 
that the 5-year mark, 6 if you include the time it takes to conduct the 
assessment, obtain the resources and place a contract, was intended 
simply to allow for consideration of multiple near and midterm 
alternatives in some possible solutions. There may be cases where the 
consequences of a gap are so severe and the likelihood of the risk so 
high, that the leadership of the department needs to initiate actions 
outside of the normal planning, programming, budgeting and execution 
cycle even if the delivery of a capability may take more than 2 years. 
There are examples from my experience during the Cold War where 
technological surprise was achieved by the Soviet Union that motivated 
urgent development programs that took well over 2 years to fielding. In 
those cases the sense of urgency was very real despite the time it took 
to field capability. These instances may be rare, but in my view the 
Department should have an established mechanism for dealing with them.

                better buying power and lifecycle costs
    39. Senator McCain. Mr. Kendall, section 805 of the NDAA for Fiscal 
Year 2010 regarding lifecycle management, called for product support 
managers to maximize competition and make the best possible use of 
available DOD and industry resources at the system, subsystem, and 
component levels. This provision was implemented through DOD's 
Directive-Type Memorandum on October 6, 2010. Can you provide examples 
where DOD's compliance with section 805 has led to competition at 
subsystem and component levels and a reduction of lifecycle costs?
    Mr. Kendall. Yes.
    The Department of the Navy has pursued competitive strategies for 
major components in restarting the DDG-51 shipbuilding program to 
reduce life cycle cost. The Navy continues to pursue open architecture 
initiatives to achieve design stability, mature technologies and 
affordable solutions. Specifically, the Navy competed the production of 
the main reduction gear for the ships in a breakout strategy. This 
strategy avoided pass-through costs to the shipbuilders and established 
future competitive opportunities for this major component. In addition, 
the Cooperative Engagement Capability (CEC) Program is openly competing 
what has historically been a sole-source program. There are four 
separate contractual efforts: CEC system production; Common Array Block 
(CAB) antenna production; Signal Data Processor-Sierra (SDP-S) 
production; and Design Agent/Engineering Services (DA/ES). The CEC 
program's current ``will cost'' reflects an additional $200 million 
reduction in costs from prior years. CEC reduced the POM 13 CEC budget 
by $32.4 million by transitioning from the current design to a Common 
Array Block (CAB) antenna, which will be a family of common antennas 
across CEC platforms.
    The Army awarded a competitive 5-year/multiple-year Family of 
Medium Tactical Vehicles requirements contract to Oshkosh that resulted 
in an average cost savings of 28 percent over the previous sole-source 
contract. In addition, the Joint Tactical Radio System (JTRS) 
Enterprise Business Model is predicated upon fostering and leveraging 
competition in production. The Multifunctional Distribution Information 
System-Low Volume Terminal (MIDS-LVT) radio program initial radios 
started at $426,000 per unit. Through competition between the two 
approved vendor production sources, the radios have decreased steadily 
to a cost of only $181,000 per unit, which is a savings of nearly 60 
percent on each radio. With over 2,600 units purchased by the 
Department, the total savings is almost $500 million.

    40. Senator McCain. Mr. Kendall, if you are confirmed, how would 
you leverage the private sector's investment in commercial technologies 
and certifications to achieve efficiencies?
    Mr. Kendall. The pace of commercial technology development in some 
areas such as computing and wireless communications continues to 
outpace development of military unique technology. If confirmed, I will 
remain committed to implementing Modular Open Systems Architecture 
approaches in major systems, enabling the insertion of commercial 
technologies throughout a system's lifecycle. One key enabler in this 
effort is thorough market research to determine whether the 
Department's technological requirements can be met by industry, small 
business, or by commercially available, off-the-shelf products. Another 
key enabler is well structured acquisition strategies that provide 
effective open architectures and modular systems with well defined non-
proprietary interfaces that are compatible with commercial or 
commercially derived products.

                         excessive concurrency
    41. Senator McCain. Mr. Kendall, a big problem with how DOD buys 
major systems is this: it has tended to go all in on these procurement 
programs without understanding enough about their technical or systems 
engineering to assess whether developing them may have too much risk. 
So, these programs struggle endlessly in development--where costs grow 
and schedules slip--without needed combat capability delivered. Far too 
often, DOD has tried to execute such programs under cost-plus 
contracts. In my view, this has been an utter disaster. Do you agree? 
If so, how would you address it?
    Mr. Kendall. My view is that there is still substantial room for 
improvement in the Department's management of development risk. The use 
of independent technology readiness reviews has been a positive step, 
however, these reviews alone do not adequately assess engineering and 
integration risks. The Department should not enter into major 
acquisition programs without a clear understanding of the technical 
risk and degree of complexity that the program involves and a well 
structured plan to manage that risk. If the risk is too great entry 
into EMD should be delayed until that risk is reduced. All development 
programs entail some degree of risk because by definition something is 
being created that didn't exist before the program, so there are 
inherent unknowns in every development program. The Department's 
acquisition approach, including contract type, must be tied a realistic 
assessment of the risk factors. The contract type does not by itself 
change the amount of risk; it attempts to allocate the risk between the 
parties. If confirmed, I will continue to strengthen the Department's 
technical capacity for assessing risk and managing risk through 
effective program management and systems engineering and through 
acquisition strategies that provide strong incentives to industry but 
also equitably allocate risk between industry and the Government.

    42. Senator McCain. Mr. Kendall, if confirmed, what overall 
approach would you take to ensure that programs with too much 
concurrency are never started?
    Mr. Kendall. I firmly believe that the principal of ``fly before 
you buy'' is a well established best practice. When programs are 
started, I intend to ensure that the risk/benefit of any given degree 
of concurrent production and development is carefully assessed before 
program plans are approved and before production decisions are made. If 
confirmed, I will ensure that major weapons systems' program plans have 
clearly articulated criteria for entering low rate production based on 
design maturity and stability as demonstrated through developmental 
testing.

                          biofuels refineries
    43. Senator McCain. Mr. Kendall, in March of this past year, the 
President directed the Departments of Agriculture, Energy, and the Navy 
to assist the development of a sustainable commercial biofuels industry 
using authorities in the Defense Production Act. The Navy has pledged 
$170 million as their share of a $510 million effort to construct or 
retrofit biofuel refineries in order to create a commercially viable 
market. You mentioned in your answers to the advance policy questions 
that ``The Defense Production Act Title III authority, the Industrial 
Base Innovation Fund (IBIF), and the Manufacturing Technology Program 
are three such resources to support critical capabilities that are at 
risk. These interventions should only be used in exceptional cases, 
which I believe will be rare.''
    In your opinion, do you consider the intervention of DOD in the 
biofuels refining industry to be an exceptional case? If so, please 
explain why, with specificity.
    Mr. Kendall. In my advanced policy question response I was 
referring to interventions intended to preserve existing manufacturing 
capabilities. Biofuel production is an emerging capability, putting it 
in a different category. Based on initial market research, there does 
appear to be a potential for biofuel projects to meet the Defense 
Production Act's statutory criteria.
    Section 303 of the Defense Production Act of 1950 provides the 
President the authority to reduce current or projected shortfalls of 
industrial resources, critical technology items, or essential materials 
needed for national defense. Before any contract under this authority 
can be awarded, a determination must be made that the industrial 
resource, material, or critical technology item is essential to the 
national defense; and that without title III assistance, United States 
industry cannot reasonably be expected to provide the capability for 
the needed industrial resource, material, or critical technology item 
in a timely manner. The determination is required to be made 30 days 
prior to a contract award.
    As a large user of petroleum products, it is in DOD's long term 
interest to ensure that there will be liquid fuels available for DOD 
platforms, particularly for legacy fleets, which will be with the 
Department for decades to come. If confirmed, I will carefully examine 
biofuels proposals submitted for consideration under Defense Production 
Act title III in accordance with the statutory criteria.

    44. Senator McCain. Mr. Kendall, do you believe a biofuels refining 
capability is a critical capability that is at risk? If so, please 
explain why, with specificity.
    Mr. Kendall. I do not believe biofuels refining capability is an 
existing critical capability that is at risk. However, biofuels 
options, including refining capability, are emerging capabilities that 
are part of the Department's overall energy strategy. I do believe that 
the success of the Department's energy strategy, which focuses on 
improving energy efficiency and diversifying energy supplies, is 
critical to national security. Current processes for producing advanced 
drop-in biofuels are expensive, and the resulting high cost of the end 
product continues to limit market growth. Military and civilian end 
users of fuel have clear strategic incentives to adopt renewable drop-
in fuels, but adoption is only possible when these fuels become cost-
competitive. Proposals to improve the cost competitiveness of biofuels, 
therefore, could have a critical impact on the success of the 
Department's energy strategy.

    45. Senator McCain. Mr. Kendall, if confirmed, would you support 
the continued use of DOD funds to invest in the development of 
commercial refineries for biofuels?
    Mr. Kendall. If confirmed, I will carefully examine any proposed 
biofuels projects in accordance with the statutory criteria contained 
in the Defense Production Act of 1950, as well as other available 
authorities. I would also consider the Department's energy strategy and 
competing priorities before making any investment decisions.

    46. Senator McCain. Mr. Kendall, do you support the Secretary of 
the Navy's investments in the Great Green Fleet by 2016, which includes 
spending over $12 million last year for 450,000 gallons of biofuels, 
which equates to over $26 per gallon?
    Mr. Kendall. I support investments in improved energy efficiency 
and investments that would reduce the Department's dependency on 
petroleum. Of the $336 million that the Navy has budgeted for 
operational energy initiatives in fiscal year 2013, 86 percent is for 
energy efficiency. It includes efforts such as simulator upgrades, 
advanced engines, propeller coatings to reduce drag and hybrid-electric 
drives for ships. The Navy's proposed investments in alternative fuels 
make up 5.1 percent of their total proposed budget for operational 
energy initiatives. These efforts, which I do support, will fund 
research, development, demonstration, and evaluation of these fuels. 
For the long term, the military will need alternatives to petroleum. 
All the Military Departments have purchased or will purchase test 
quantities--like last year's Navy purchase--to certify their platforms 
for use with advanced alternative fuels. By doing so, the Military 
Services are positioning themselves to take advantage of these fuels 
when they are cost-competitive with conventional fuels.

                           congressional adds
    47. Senator McCain. Mr. Kendall, the NDAA for Fiscal Year 2012 
included almost $240 million for three unrequested programs--the 
Defense Rapid Innovation Program, the IBIF, and the Metals 
Affordability Initiative (MAI). Funding for these programs, however, 
has never been requested by DOD in previous budgets. Why has DOD never 
asked for funding to support any of these programs in any of its budget 
requests?
    Mr. Kendall. Congress established the Rapid Innovation Fund (RIF) 
in section 1073 of the Ike Skelton NDAA for Fiscal Year 2011, and the 
2011 Defense Appropriation Act appropriated $500 million ($440 million 
research, development, test and evaluation (RDT&E) funds, and $60 
million procurement funds) for the program. The Department implemented 
the RIF as a fully merit-based competitive program in strict accordance 
with Section 1073. The Department intends to evaluate the results of 
the fiscal year 2011 RIF funding before determining requirements for 
future funding of this program.
    My understanding is that Congress established the IBIF in fiscal 
year 2008 as a partnership between the Industrial Policy (IP) office 
and Joint Defense Manufacturing Technology (ManTech) Panel, but funded 
it through a broader Defense Logistics Agency program element. Without 
its own program element, IP lacked infrastructure to build IBIF budget 
requirements for consideration in the Department's budget review 
process until ManTech and IP were realigned as MIBP in 2011. To date, 
IBIF has not appeared in a budget request but the Department recently 
took steps to allow for the consideration of funding in fiscal year 
2014 and future years' budgets by establishing a new program element 
(0607210D8Z) exclusively devoted to applied research for industrial 
base sustainment.
    I believe that the Air Force has requested funding for the MAI in 
every fiscal year since fiscal year 1999 within a program element 
titled ``Advanced Materials for Weapon Systems'' (0603112F). The funds 
requested in the budget were supplemented by congressional increases 
and industry matching in each of those years.

    48. Senator McCain. Mr. Kendall, why did DOD specifically not 
request funding for any of these programs in fiscal year 2013?
    Mr. Kendall. The RIF is a new effort and the Department did not 
have sufficient data about the program's overall effectiveness to 
warrant inclusion in the President's fiscal year 2013 PBR. Beginning in 
March 2013, the Department plans to conduct a comprehensive assessment 
to examine two areas for the projects funded through the fiscal year 
2011 appropriation--the contractors' progress in meeting the stated 
cost, schedule, and technical goals; and the DOD program manager's 
strategy for transition of the project's technology into an end use 
product or insertion into an existing or planned acquisition program. 
This assessment will yield the necessary data for the Department to 
determine future funding requirements and to assess this program 
relative to other priorities.
    Funding for IBIF was considered in the fiscal year 2013 budget 
review process, but funds were not requested because of the significant 
adjustments required by the Budget Control Act of 2011. Overall, 
funding for previously requested industrial base-related programs were 
maintained, but not increased in this process. The administration did 
include funding for related manufacturing technologies in the 
President's fiscal year 2013 budget request for the interagency 
National Network for Manufacturing Innovation (NNMI), which is outside 
the Department's budget.
    I believe that the Department did request $3.9 million for MAI in 
the fiscal year 2013 budget request.

    49. Senator McCain. Mr. Kendall, if no funding is provided in 
fiscal year 2013, what would be the effect on each program and on the 
purposes for which these programs were originally intended?
    Mr. Kendall. Concerning RIF, there would not be an effect to any 
ongoing programs. RIF projects are intended to be executed within the 
available funding.
    Without funding in fiscal year 2013, IBIF would suspend its 
reorientation to address niche concerns raised through the Department's 
Sector-by-Sector Tier-by-Tier (S2T2) effort. S2T2 helps identify when 
programs will not support the minimum sustaining rate that a niche 
supplier needs to provide a critical product. Such an endeavor aims at 
maintaining the health of selected essential parts of the defense 
industry, but is pursued only when: (1) the Department is highly likely 
to need a product in the future; (2) where the product would be 
prohibitively difficult and expensive to obtain after a hiatus; and (3) 
where affordable and innovative mechanisms are available to work with 
the producers in the interim.
    Concerning MAI, it is my understanding that the MAI industrial 
consortium would have to stop seven metal alloy manufacturing 
technology projects prior to their completion if fiscal year 2013 
funding is not provided.

    50. Senator McCain. Mr. Kendall, if confirmed, would you make it a 
priority to review the benefits of each of these programs?
    Mr. Kendall. Yes.

    51. Senator McCain. Mr. Kendall, if you find any of the programs to 
not be useful as to their intended purposes, would you inform this 
committee of such a determination?
    Mr. Kendall. Yes.

                            depot provisions
    52. Senator McCain. Mr. Kendall, the NDAA for Fiscal Year 2012 
contained two controversial provisions regarding military depots. Are 
you aware of the provisions?
    Mr. Kendall. I believe so. The first provision is the removal of 
the exception for nuclear refueling of aircraft carriers from the 
definition of depot-level maintenance. The former exclusion from the 
definition allowed for the exclusion of the refueling of nuclear 
carriers from both the Core and 50/50 statutes. With the changes to the 
law, such refueling would now fall within the scope of depot 
maintenance and both Core and 50/50 statutes would apply. However, the 
NDAA for Fiscal Year 2012 also provided the Secretary of Defense waiver 
authority, on the basis of economic feasibility and national security, 
for the requirement in Core Law. The revised 50/50 statute sets forth 
waiver authority on the basis of national security reasons.
    The second provision is the removal of the exception for major 
modifications in the definition of depot-level maintenance. The 
statutory definition could now be improperly read to apply to the labor 
associated with all software and hardware modifications and upgrades to 
include those not maintenance related.

    53. Senator McCain. Mr. Kendall, to the best of your knowledge, 
what is the current status of DOD's implementation of these provisions?
    Mr. Kendall. On April 5, 2012, I issued NDAA for Fiscal Year 2012 
Implementation Guidance, with regard to these provisions. The purpose 
of this guidance is to ensure a common interpretation and application 
of the statutes across the Military Departments. This guidance was 
intended to assist in avoiding significant shifts in the location of 
ongoing depot activities or in the overall organic depot/industry 
balance.
    Relative to the nuclear refueling of aircraft carriers, the 
Implementation Guidance delegated waiver authority under title 10 
U.S.C. Sec. 2464 to the Secretary of the Navy and suggested that the 
Navy may wish to consider pursuing a Secretary of Defense waiver of the 
50/50 requirement under title 10 U.S.C. Sec. 2466(b).
    Additionally, the Implementation Guidance provides a Department-
wide interpretation of ``modifications'' that excludes hardware and 
software modifications which are not maintenance in nature.

    54. Senator McCain. Mr. Kendall, are you aware of the concerns 
regarding the two provisions expressed by the Services and by industry?
    Mr. Kendall. I believe I am aware of the concerns; the Department 
has been working closely with the Services and Industry since the 
enactment of the NDAA for Fiscal Year 2012 to address concerns 
associated with the revised legislation. Through this close 
coordination, the resulting Implementation Guidance is intended to 
ensure a common interpretation and application of the statutes across 
the Services and to address their concerns.

    55. Senator McCain. Mr. Kendall, what is your opinion on the 
validity of these concerns?
    Mr. Kendall. I share the concerns of industry and the Military 
Departments with regard to the legislation. The NDAA for Fiscal Year 
2012 Implementation Guidance is intended to address these concerns. 
Through the conduct of depot activities consistent with the 
Implementation Guidance and the execution of waivers available under 
the various depot statutes there should be no significant shifts in the 
location of ongoing depot activities or in the overall organic depot/
industry balance.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                               50/50 core
    56. Senator Chambliss. Mr. Kendall, the well-known 50/50 statute is 
codified in title 10, U.S.C., section 2466, and states that: ``Not more 
than 50 percent of the funds made available in a fiscal year to a 
Military Department or a defense agency for depot-level maintenance and 
repair workload may be used to contract for the performance by non-
Federal Government personnel of such workload for the Military 
Department or the defense agency.''
    The rationale for this statute as well as the companion core 
statute codified in title 10, U.S.C., section 2464, in my opinion, is 
two-fold. First, the United States needs to have the organic capability 
and capacity to carry out critical depot maintenance activity in order 
to respond effectively to a mobilization, national defense contingency, 
or other emergency requirement. Second, if the Government does not have 
the organic capacity--both at the logistics management and depot 
maintenance levels--the Government will not be able to be a smart buyer 
when they partner with industry, and the Government will end up paying 
the private sector more for depot maintenance and logistics support 
because the Government will not be able to offer a competitive price. 
We have seen this several times in relation to depot maintenance--where 
a contractor offers a significantly lower price because the Government 
threatens to bring the work back in-house. If the Government cannot 
bring the work back in-house, we are very likely going to end up paying 
the private sector more for that workload than we should.
    What are your views of the Core and 50/50 statutes, and if 
confirmed, will you be committed to retaining a robust organic 
capability and capacity for depot maintenance and logistics within DOD 
and the Military Services?
    Mr. Kendall. I believe that it is essential that the Department 
maintain an organic depot capability for both national security and 
economic reasons. I am extremely cognizant of the indispensible roles 
the organic maintenance facilities and their dedicated workforce play 
in supporting the demanding operational requirements of the Military 
Services.

                   f-35 operations and support costs
    57. Senator Chambliss. Mr. Kendall, it seems that while the focus 
of conversation has been on the $1 trillion operations and support 
(O&S) cost estimate for all three variants of the F-35 over the next 55 
years, there has been limited discussion on the cost of maintaining the 
legacy fleet if we do not move forward with the F-35. We have heard 
that an apples-to-apples cost comparison to operate the legacy aircraft 
could be $3 to $4 trillion over that same period of time. How would 
this estimate account for the fact that legacy aircraft will never be 
as capable or survivable in a 21st century threat environment?
    Mr. Kendall. I do not believe that the estimate takes that fact 
into account and it would be meaningless to attempt to compare 
extending the life of the current fleet 55 years to the cost of 
sustaining the F-35 over the same period as this is not a realistic 
option. Service life constraints will result in most of the legacy 
aircraft having to retire well before the timeframe in question 
elapses. While service life extensions are planned for some legacy 
aircraft, it is simply not practical that their service life be 
extended all the way out to the 2065 timeframe. Even if it could be, 
the aircraft would not be survivable or capable enough to cope with the 
threats that can be anticipated by the end of this period. The concern 
with regard to F-35 sustainment costs has more to do with the 
affordability of an F-35 fleet. As a much more capable and complex 
aircraft, the F-35 will be more expensive to operate than some of the 
aircraft it will replace. For this reason the Department is working 
aggressively to control F-35 support costs and I have placed a cost cap 
on F-35 sustainment that is intended to provide an incentive for 
sustainment cost reductions.

    58. Senator Chambliss. Mr. Kendall, what investments have been made 
in the development and design of the F-35 to reduce O&S costs over the 
life of the program?
    Mr. Kendall. The F-35 Joint Program Office (JPO) is currently 
implementing an affordability strategy and the Department is developing 
an Affordability Management Plan focused on: reducing the costs of 
support products such as support equipment, spare parts and training 
devices; base-lining requirements with the Services and leveraging 
increased efficiency opportunities provided by F-35; and addressing 
reliability and maintainability. The JPO is creating contract and 
pricing opportunities to reduce the cost of the JSF support products by 
leveraging economic order quantity buys for spare parts in conjunction 
with production buys, and implementing pricing improvement curves that 
leverage learning opportunities. By creating a common sustainment 
baseline harnessing the F-35 support system design, the JPO is 
analyzing the optimum level of infrastructure and products required to 
support operations of the global fleet. By optimizing the amount of 
equipment procured early, the Department can affect the through life 
O&S Costs. In parallel, the program office is actively managing the 
reliability and maintainability of systems/sub-systems and components; 
the implementation of appropriate modifications will enable the 
Department to control cost.
    In 2011, the JPO implemented a number of technical changes and 
affordability initiatives which resulted in an over $30 billion 
reduction, in base year 2002 dollars, in the 2011 O&S estimate which 
helped to offset externally-driven increases in areas such as military 
and contractor labor rates. Additionally, the JPO conducted sustainment 
baseline deep dives into support equipment, spares, and manpower, as 
well as the initial phase of a business case analysis on supply chain 
management, field operations, sustaining engineering, and fleet 
management.
    The 2012 efforts include a manpower review into the appropriate 
labor mix and contractor rates, a review of competitive options for the 
long-term provision of support equipment and spares, enterprise 
software licensing, engine life improvements, reprogramming laboratory 
requirements, and additional Service planning factors such as aircraft 
utilization rates, contingency planning, and squadron manning 
requirements.

    59. Senator Chambliss. Mr. Kendall, how will you account for these 
investments in future O&S cost estimates in the Selected Acquisition 
Reports?
    Mr. Kendall. The F-35 JPO works closely with the Office of the 
Director, CAPE. Following completion of the CAPE's Independent Cost 
Estimate (ICE), I directed that the CAPE's O&S estimate be used for 
planning purposes in the new Acquisition Program Baseline (APB) and the 
December 2011 Selected Acquisition Report (SAR). As JPO cost estimates 
are updated to reflect the investment made to reduce costs, that 
information is provided to the CAPE and their estimate will be updated 
as well. The annual SAR will continue to reflect the CAPE O&S estimate, 
with updates as required.

    60. Senator Chambliss. Mr. Kendall, it seems to me that DOD has 
placed F-35 in a unique disadvantage when it comes to an O&S cost 
estimate for the program. I am not aware of any other DOD program that 
estimates its life cycle costs over a 55-year timeline. Doesn't this 
vastly overstate its cost when compared to other major programs?
    Mr. Kendall. The F-35 is in a unique position in terms of the 
length of time that the Department plans to operate this weapon system. 
The combination of a planned procurement of over 2,400 aircraft over a 
25-year production run and a 30-year service life results in a life 
cycle that extends out to 2065. The Department does estimate life cycle 
costs for all weapons systems based on the planned life cycle of the 
individual program. In terms of the F-35 O&S estimate, the inflationary 
effects on the Then Year (TY) estimate on a 55-year timeline have a 
major impact on the total O&S figure. I believe it is more relevant to 
focus on the elements that constitute the cost per flight hour, and 
result in the annual cost estimates as the appropriate metrics for O&S 
affordability. As a result, I have focused the F-35 Program on a 
sustainment affordability target that uses cost per flight hour.

    61. Senator Chambliss. Mr. Kendall, do you have an estimate of what 
the cost of 10 carriers or a fleet of submarines would cost if 
estimated over 55 years?
    Mr. Kendall. Not precisely. Neither carriers nor submarines are 
designed for a 55 year service life. However, the December 2011 SAR for 
the CVN-78 program and SSN 774 program include Operations and Support 
(O&S) estimates over the life cycle of those programs and therefore 
provide an indication of the requested O&S costs. For the CVN-78 Gerald 
R. Ford class of aircraft carriers, the estimate is derived by taking 
the annual costs to operate a planned 11 ship fleet over the projected 
50 year service life. For CVN-78 the total O&S costs in TY$ are $231.3 
billion. For the SSN 774 Virginia-class submarine, the estimate is 
derived by taking the annual costs to operate a representative fleet of 
30 submarines over a service life of 33 years per hull. For the SSN 
774, the total O&S costs in TY$ are $95.6 billion.

    62. Senator Chambliss. Mr. Kendall, I believe that we in Congress 
need quality data and a solid methodology to serve as the basis for 
making informed decisions on our major defense programs. I question the 
quality of the estimate that we are currently using for the F-35 
program; this overstated 55-year estimate unnecessarily scares our 
allied partners and in actuality misinforms decisionmakers both in DOD 
and in Congress. We need to do a better job at refining these estimates 
as this program moves forward. I have been told that if you used this 
new 55-year methodology and applied it to the legacy fighter fleet, it 
would cost us $3 to $4 trillion just to keep flying what we have today 
another 50 years--so in effect, we save money by modernizing with F-35s 
which will be both more capable and survivable. Don't you agree the 
cost of the alternative needs to be discussed as well?
    Mr. Kendall. In general I believe that the costs of alternatives 
should be discussed; however extending the legacy fighter fleet to an 
additional 55 years is not a viable alternative to the F-35. The 
discussion of alternatives does take place as part of the annual budget 
review process. Additionally, F-35 affordability was discussed during 
the recent review of the program prior to my decision to award a new 
Milestone B and Acquisition Program Baseline.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                  army armed aerial scout requirements
    63. Senator Wicker. Mr. Kendall, Congress funded an analysis of 
alternatives (AOA) to establish an armed scout replacement program as 
far back as 2009. The fiscal year 2012 budget included $15 million to 
conduct an additional Request for Information (RFI) and Voluntary 
Flight Demonstration (VFD) this year. Little guidance is being shared 
about the Army Armed Aerial Scout (AAS) requirements and how the 
request for information and demonstrations will be conducted. What are 
the Initial Capabilities Document (ICD) requirements for the AAS 
program and have you communicated those requirements to industry?
    Mr. Kendall. The July 2009 ICD does not prescribe specific 
threshold and objective requirements for a material solution to achieve 
but rather describes the capability gaps that exist in the mission 
area. Based on open source documentation, industry appears to have 
further developed technology, initially described 2 years ago in their 
RFI responses, that represents a considerable increase in capability 
gap mitigation. However, the Army currently has limited insight into 
these potential improvements. The current approved ICD is under the 
purview of the requirements community (Army Training and Doctrine 
Command) and to my knowledge, has not been released to industry. 
Although the ICD may have not been released to industry, the draft RFI 
does describe the capability shortfalls that currently exist in terms 
of responsiveness, performance margins, and lethality. Additionally, 
the RFI contains a detailed description of the AAS mission sets and 
outlines the specific demonstration maneuvers and tasks requested.

    64. Senator Wicker. Mr. Kendall, were they the same requirements 
used in the original AOA?
    Mr. Kendall. The July 2009 ICD does not prescribe specific 
threshold and objective requirements for a material solution to achieve 
but rather describes the capability gaps that exist in the mission 
area. However, the AOA was focused on the same capability gaps 
addressed in the current ICD.

    65. Senator Wicker. Mr. Kendall, will the ICD requirements be used 
as the baseline for the planned AAS RFI and VFD and your materiel 
solution?
    Mr. Kendall. The AAS RFI and VFD seek to address the same 
capability gaps in the current ICD.

                          flight demonstration
    66. Senator Wicker. Mr. Kendall, upgrades requested to keep to the 
OH-58D Kiowa Warrior helicopter operating safely have become more 
complex and costly. It is important that a final determination is made 
for addressing the Army's validated AAS requirement to assure valuable 
time and resources are invested on a platform that will best meet the 
Army's requirements. Congress anticipates that the upcoming RFI and VFD 
will be conducted with the utmost rigor, objectivity, and fairness in 
order to reach a credible and conclusive AAS acquisition strategy. For 
the VFDs, how will you ensure the process is fair and transparent?
    Mr. Kendall. The Army intends to ensure that its market research is 
conducted fairly by following the prescribed guidance in the Federal 
Acquisition Regulation (FAR). The requested maneuvers will be executed 
in accordance with standard test techniques and normalized to standard 
atmospheric conditions. The Army will de-brief industry members at the 
conclusion of their VFD and industry participants will have the 
opportunity to update their RFI response. The VFD is not a source 
selection activity; it is intended to gather information that the Army 
can use to determine if an affordable and cost effective product may be 
available with existing technology.

    67. Senator Wicker. Mr. Kendall, how do you plan to establish 
standardized flight conditions?
    Mr. Kendall. The Army will use Experimental Test Pilots that are 
graduates of the Naval Test Pilot School. The pilots will execute 
maneuvers that are voluntarily agreeable with the industry participant 
as outlined in the request for information. These maneuvers will be 
conducted in accordance with standard test techniques and normalized to 
standard atmospheric conditions.

    68. Senator Wicker. Mr. Kendall, what method or trade basis will be 
used to drive your materiel solution decision in regard to weapons 
systems cost, schedule, and performance considerations?
    Mr. Kendall. The Army will assess the results of the RFI and VFD 
against the known weighted capability gaps defined in the ICD and 
validated by the Armed Aerial Scout (AAS) AOA. The methodology for 
determining cost, schedule, and performance trades will be similar to 
the methodology used in the AAS AOA.

              kiowa warrior service life extension program
    69. Senator Wicker. Mr. Kendall, the Army states that the Kiowa 
Warrior Service Life Extension Program (SLEP) is the basis for 
comparison in the AAS evaluation. I am not aware that a SLEP has been 
established or approved and there is no SLEP in the fiscal year 2013 
budget request. Have you conducted, or do you intend to conduct, the 
required Service Life Assessment Program (SLAP) to validate your Kiowa 
Warrior SLEP assumptions?
    Mr. Kendall. Kiowa Warrior SLEP is referenced as RECAP in the 
budget exhibits. The Kiowa Warrior (KW) fiscal year 2013 budget request 
contains funding to execute the SLEP/RECAP requirement if the Army 
decides against a new material solution for AAS. This funding will 
support either course of action without impacting the approved Kiowa 
Warrior Cockpit and Sensor Upgrade Program (CASUP)/OH-58F.
    The purpose of the Kiowa Warrior SLAP is to investigate and analyze 
various approaches to enhance airframe Reliability and Maintainability 
(RAM) as well as identify safety improvements that could be applied to 
the fuselage structures. The SLAP program is ongoing and will identify 
the specific structures requiring improvement; these changes would be 
implemented via a SLEP/RECAP effort.

    70. Senator Wicker. Mr. Kendall, what are the cost, technical, and 
schedule risk findings of the SLEP?
    Mr. Kendall. The Army view is that the cost, technical, and 
schedule risks of a SLEP/RECAP program are low. The Army has extensive 
reliability and cost data on the 40+ year old OH-58 airframes, a 
trained and capable workforce performing depot-level maintenance via 
the Crash Battle Damage & Overhaul programs, and new cabin production 
lines in the Wartime Replacement Aircraft (WRA) program. Together these 
programs lower the risk involved in executing a SLEP/RECAP initiative.
    Any SLEP/RECAP program would include replacing the aircraft 
structures, which could occur on an already established production line 
such as WRA. The CASUP/OH-58F begins production in 2015 providing a 
good entry point for new metal production that aligns with the approved 
CASUP production schedule.

    71. Senator Wicker. Mr. Kendall, based on the findings of the SLAP, 
is the Kiowa Warrior program in the fiscal year 2013 President's budget 
considered to be low risk for execution? If so, by what measures?
    Mr. Kendall. The initial findings of the SLAP study will be 
available in late summer 2012. Kiowa Warrior has no dependencies on 
SLAP data to execute fiscal year 2013 program requirements. No 
additional risk impacting either fiscal year 2013 budget or program 
execution is anticipated as a result of the SLAP outcomes. The Army 
view is that the Kiowa Warrior program is at low risk for execution in 
fiscal year 2013. The Critical Design Review was successfully completed 
ahead of schedule in April 2012. The first two EMD prototype aircraft 
are being modified and the critical component programs are currently 
executing well.

                    materiel solution determination
    72. Senator Wicker. Mr. Kendall, if performance is validated during 
the flight demonstration, will the Army use the validated performance 
data for the comparative analysis, or will the Army make unilateral 
adjustments and assumptions?
    Mr. Kendall. The Army is conducting market research to determine 
what technology is available from industry that may be able to 
contribute to a material solution option that delivers greater 
capability than the current OH-58. The Army does not intend to compare 
individual results but rather assess demonstrated capability against 
the weighted capability gaps from the AAS AOA.

    73. Senator Wicker. Mr. Kendall, if performance capability is not 
validated by a flight demonstration, how will the claims be treated 
during the evaluation?
    Mr. Kendall. The Army realizes that industry RFI performance 
projections could exceed what is physically demonstrated. In those 
instances or in instances where industry elects not to participate in 
the voluntary flight demonstration, the Army will assess the risk of an 
industry member and evaluate the RFI performance projection based on 
their documented technical progress including company test results, 
readiness levels and technology roadmaps.

    74. Senator Wicker. Mr. Kendall, if performance is validated during 
the flight demonstration, how will the claims be treated in conducting 
the cost/benefit analysis (CBA) to make your materiel solution 
decision?
    Mr. Kendall. Validated performance data mitigates the risk of an 
industry member's ability to achieve their RFI performance projection. 
The Army will conduct a risk assessment on all responses, validated or 
claimed. The end state is to identify an affordable, achievable, 
moderate risk material solution option based on the current state of 
technology in the market.

    75. Senator Wicker. Mr. Kendall, what is your methodology to 
conduct your comparison?
    Mr. Kendall. The Army will not compare individual industry 
responses against each other. Based on open source documentation, 
industry appears to have further developed technology, initially 
described 2 years ago in their RFI responses, that represents a 
considerable increase in capability gap mitigation. However, the Army 
currently has no confirmation of these potential improvements. 
Individual responses to the RFI and the demonstrated capabilities will 
be analyzed to assess the performance, cost and schedule attributes 
needed to procure an improved capability. The Army methodology used to 
determine the capability tradeoffs is consistent with the methodology 
used during the AAS AOA and validated by the AAS AOA Senior Advisory 
Group. The RFI and flight demonstration are not source selection 
activities; they are intended to gather information so that the Army 
can determine what level of capability is attainable with available 
technology.

    76. Senator Wicker. Mr. Kendall, how will the Army determine if the 
AAS materiel solution is deemed unaffordable and is terminated?
    Mr. Kendall. The Armed Aerial Scout program has not advanced beyond 
the material alternatives analysis phase. Ongoing analysis, subsequent 
to the formal Analysis of Alternatives, is further examining cost and 
performance estimates. The Army will make an affordability decision as 
part of the capabilities determination decision at the end of the 
market research effort.

                              f-16 upgrade
    77. Senator Wicker. Mr. Kendall, is the F-16 upgrade being treated 
as one major program (ACAT 1C) or is the avionic upgrade and SLEP a 
separate ACAT program?
    Mr. Kendall. The fiscal year 2013 President's budget established F-
16 Legacy SLEP and Combat Avionics Programmed Extension Suite (CAPES) 
as two distinct, separate programs. SLEP is focused on structurally 
extending the life of the airframe. CAPES' purpose is to enhance 
capability of the aircraft as a weapon system. The Legacy SLEP program, 
which began its full-scale durability testing effort in fiscal year 
2011, is a pre-Milestone B program that will be classified as an ACAT 
III. CAPES, a pre-Milestone B effort initiated in fiscal year 2012, is 
likely to be classified as an ACAT II.

    78. Senator Wicker. Mr. Kendall, will the avionic associate with 
the F-16 SLEP, will they be treated as government-furnished equipment 
(GFE), or will the prime handle the upgrade?
    Mr. Kendall. The Air Force Acquisition Strategy Panel will meet 
mid-May 2012 to recommend the formal acquisition strategy to the 
Program Executive Officer, which will include a determination on the 
prime integrator strategy. The avionics associated with the F-16 SLEP 
is referred to as CAPES. CAPES is an umbrella name for four independent 
hardware acquisition programs bundled together for Block 42/50/52 
aircraft. The four programs are Active Electronically Scanned Array 
(AESA) fire control radar, Center Display Unit (CDU), ALQ-213 
Electronic Warfare (EW) system, and Integrated Broadcast Service (IBS) 
receiver. Out of these four programs, three programs--CDU, ALQ-213, and 
IBS--are expected to be procured as GFE via existing DOD contracts with 
other Air Force organizations.

    79. Senator Wicker. Mr. Kendall, I understand that the Air Force is 
determining the life cycle costs for the F-16 upgrade; what is the CAPE 
for the overall F-16 upgrade?
    Mr. Kendall. The F-16 upgrade program is comprised of two distinct, 
separate programs: Legacy SLEP and CAPES. Given that SLEP is ACAT III 
and CAPES is ACAT II, CAPE cost estimates are not required for these 
programs.
    The fiscal year 2013 President's budget reflects the latest 
estimate for the programs. However, to support the Milestone B 
decisions in calendar year 2013 for each program, the F-16 Program 
Office will update their estimates for both CAPES and Legacy SLEP. 
Additionally, the Air Force Cost Analysis Agency will develop a Non-
Advocate Cost Assessment (NACA) estimate for both programs.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown
             acquisition and deployment of defense systems
    80. Senator Brown. Mr. Kendall, does the acquisition and deployment 
of area defense systems remain important to U.S. defense strategy, 
especially in regions where our potential adversaries possess 
significant armored or maritime forces?
    Mr. Kendall. Area defense systems do remain important to the U.S. 
defense strategy. The Department is always reviewing current systems 
against emerging technologies and threats to determine what 
improvements can or should be made to existing systems and where the 
Department needs to look at new acquisitions, including in regions 
where potential adversaries possess significant armored or maritime 
forces.

                          sensor-fuzed weapon
    81. Senator Brown. Mr. Kendall, if international advocacy groups 
are successful in breaking the supply chain for the Sensor-Fuzed 
Weapon, what are the materiel, cost, and humanitarian implications for 
U.S. contingency planning and warfighting strategy in the Korean 
Peninsula and Persian Gulf regions?
    Mr. Kendall. I am aware of the movement to impact the supply chain 
of the Sensor-Fuzed Weapon and other weapons that are considered 
cluster munitions under some definitions, however to my knowledge the 
Department has not conducted an analysis of the impact this would have 
in Korean Peninsula or Persian Gulf scenarios. The Department assesses 
a range of future scenarios in order to evaluate the ability of 
programmed forces to accomplish key missions. These assessments include 
evaluations of programmed stocks of munitions. The Department's current 
view is that the inventory of Sensor-Fuzed Weapons is sufficient to 
meet requirements. Although the Department is not currently procuring 
Sensor-Fuzed Weapon, the production line remains open in fulfillment of 
Foreign Military Sales (FMS). If the supply chain were disrupted, the 
Department would not be able to restock its current inventory, and if 
the inventory were exhausted, the Department might be forced to use 
less effective unitary weapons which could result in more collateral 
damage than the use of Sensor-Fuzed Weapons.

    82. Senator Brown. Mr. Kendall, what would the implications be for 
U.S. allies that have current, pending, and prospective FMS agreements 
with our Government?
    Mr. Kendall. The Department has not identified any potential 
alternatives for U.S. allies should the United States be unable to 
produce the Sensor Fuzed Weapon.

    83. Senator Brown. Mr. Kendall, is DOD equipped to counter such 
campaigns, whether it is the current one against the Sensor-Fuzed 
Weapon or a looming one against armed drones? If so, how is DOD doing 
this?
    Mr. Kendall. The Department is aware of campaigns which have the 
potential to curtail the availability of needed warfighting 
capabilities. Protecting the U.S. Government's national security 
interest in retaining access to genuinely needed capabilities requires 
DOD to collaborate effectively with other executive branch agencies and 
Congress and to keep the public and media informed of the arguments 
against well meant constraints that might in fact have negative and 
even unintended consequences that are counter to the goals of the 
people mounting the campaign. The Department must ensure that it 
thoroughly understands potential risks and communicates those risks to 
interagency partners, industry, and to the media and public.

    84. Senator Brown. Mr. Kendall, many of DOD's current inventories 
of weapons do not meet the DOD policy of less than 1 percent unexploded 
ordnance. Since the policy states that non-compliant weapons will not 
be employed after 2018, please explain DOD's plans and programs (to 
include budget lines and funding profiles) to replace or upgrade these 
weapons.
    Mr. Kendall. It is my understanding that the Department has one 
current program of record to upgrade a system to comply with the DOD 
Cluster Munition policy. The Guided Multiple Launch Rocket System 
(GMLRS) Alternative Warhead (AW) is a precision-guided, area 
suppression weapon system that will replace existing inventories of 
dual-purpose, improved conventional munition (DPICM) rockets with a DOD 
Cluster Munition policy-compliant system. The GMLRS AW will achieve an 
initial operational capability in early 2017. The GMLRS AW is fully 
funded with $159.6 million programmed for development and AW will be 
integrated into the GMLRS rocket production line in 2016 with a 
remaining $1.35 billion programmed for procurement through 2022 in 
order to achieve a GMLRS Army Procurement Objective (APO) of 43,560 
rockets.
    The Department is examining other potential efforts including 
policy-compliant replacements for 155mm DPICM projectiles and Army 
Tactical Missile System (ATACMS) Anti-Personnel/Anti-Material (APAM) 
missiles; and an upgrade to the Joint Standoff Weapon (JSOW) program 
JSOW-A variant to replace non-compliant sub-munitions with an alternate 
warhead.

    85. Senator Brown. Mr. Kendall, can you reaffirm the U.S. position 
that the BLU-108 is the submunition of the Sensor-Fuzed Weapon, because 
it is a conventional munition released by a cluster munition and 
functions by detonating an explosive charge before impact?
    Mr. Kendall. The Department has assigned a Bomb Live Unit (BLU) 
designation to the Sensor Fuzed Weapon submunition, which is the BLU-
108. The BLU designation identifies a component of a U.S. cluster 
munition as a submunition. The Department has not assigned a BLU, or 
similar, designation to any other component of the Sensor Fuzed Weapon. 
Therefore the U.S. position is that the BLU-108 is the Sensor Fuzed 
Weapon submunition.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                    contracting with rosoboronexport
    86. Senator Ayotte. Mr. Kendall, are you aware of Rosoboronexport's 
activities in Syria and how that company, which is affiliated with the 
Russian Government, has continued to arm the Assad regime and enable 
that regime's murder of its own citizens?
    Mr. Kendall. It is my understanding that Rosoboronexport is a state 
run corporation of the Russian Government and that Russian Government 
policy has been to support the Assad regime. It is also my 
understanding that Russia remains a top supplier of weapons to Syria. 
For example, recent press articles report that several cargo ships used 
by Rosoboronexport have delivered cargo to Syria. Other press reporting 
indicates that Rosoboronexport signed a deal with the Syrian Government 
in January to sell 36 military aircraft.

    87. Senator Ayotte. Mr. Kendall, what business is DOD conducting 
with Rosoboronexport?
    Mr. Kendall. Rosoboronexport is a Russian Federation state-owned 
enterprise which, under Russian law, has authority over export of Mi-17 
aircraft that are purchased for military use. DOD has procured Mi-17 
aircraft for the Afghan National Security Forces (ANSF) including spare 
parts for maintenance, and engineering support services from 
Rosoboronexport. This procurement includes technical documentation 
which is available only through Rosoboronexport. This procurement 
supports the U.S. strategy to build the Afghan Air Force and thus 
facilitate a transition to ANSF taking full responsibility for the 
security of Afghanistan by the end of 2014.

    88. Senator Ayotte. Mr. Kendall, is it correct that DOD is 
purchasing helicopters from Rosoboronexport for use in Afghanistan?
    Mr. Kendall. Yes, the United States directly purchases Mi-17s 
through Rosoboronexport. Under Russian law, Rosoboronexport is the 
Russian Federation, state-owned, sole entity controlling export of 
military use Mi-17 helicopters. The Army entered into a contract for 21 
Mi-17 helicopters in May 2011. Fifteen of the 21 have been delivered to 
Afghanistan compliant to all contract terms; the remainder will be 
delivered in late June. The contract includes purchase of spare parts 
and engineering support service and an option line for 12 attrition 
replacement aircraft, if needed.

    89. Senator Ayotte. Mr. Kendall, do you believe it is appropriate 
to be paying taxpayers' dollars to a Russian company that is arming 
Assad and enabling his murder of over 8,000 civilians?
    Mr. Kendall. While I have not been involved in the administration's 
deliberations over policy towards Syria, it is my understanding that 
the U.S. Government has repeatedly made it clear to senior Russian 
leaders that it does not support Russian arms shipments to the Assad 
regime while the regime engages in violence against the Syrian people. 
I believe that the contractual arrangement with the Russian company 
Rosoboronexport to procure and support ANSF helicopters reflects the 
Department's commitment to balance between the two national security 
priorities of equipping the ANSF with the necessary equipment to 
transition security responsibilities, and finding ways to isolate the 
Assad regime in Damascus.

                          joint strike fighter
    90. Senator Ayotte. Mr. Kendall, in your answers to the advance 
policy questions, you state that DOD remains committed to the JSF 
program, and you describe the JSF as a ``critical capability''. Why do 
you believe the JSF is a critical capability?
    Mr. Kendall. Dominance in the air is an essential element of U.S. 
military power. Control of the air is a warfighting capability in which 
the United States cannot accept parity. The fifth generation 
capabilities that the F-35 will provide are essential to accomplishing 
many of the primary missions identified in the National Security 
Strategy. The F-35 will provide the United States with a dominant 
capability in this domain for decades to come.

    91. Senator Ayotte. Mr. Kendall, do you agree with the Air Force 
Chief of Staff that the Russians and Chinese are working on their own 
fifth generation fighter capabilities?
    Mr. Kendall. Yes.

    92. Senator Ayotte. Mr. Kendall, for our country, is there a fifth 
generation alternative to the JSF?
    Mr. Kendall. No. There is no fifth generation alternative to the 
JSF that provides all three Services the stealth technology, advanced 
sensing, and networked engagement capabilities from flexible basing 
options that the three variants of the F-35 will provide.

    93. Senator Ayotte. Mr. Kendall, understanding that procurement 
levels will impact unit cost, what steps are you taking to keep 
international partners committed to the program?
    Mr. Kendall. The Department maintains regular contact with the 
international partner countries at various levels of their respective 
Ministries of Defense. I am routinely in contact with my counterparts 
concerning the F-35 program. The F-35 Program is structured with 
governance boards at various levels that facilitate open dialogue and 
information sharing. The Joint Executive Steering Board (JESB) is a 
forum at the Service Acquisition Executive (SAE) level where 
International Partner procurement plans are reviewed and finalized on a 
semi-annual basis. At the JESB, International Partners are provided 
detailed and transparent insight into program health and progress 
metrics. I also chair the F-35 Chief Executive Officer conference which 
includes discussion and dialogue with all partners at the National 
Armament Director level, as well as bi-lateral discussions with 
individual partners on an as needed basis. Earlier this year the 
Department provided the partners a thorough and objective assessment of 
the impacts and outcomes of the revised procurement profile in the 
fiscal year 2013 President's Budget. Additionally, the F-35 Program 
Office is staffed with military officers from each of the partner 
countries and as such is in daily communication concerning all aspects 
of the program ranging from requirements, to development schedule, to 
procurement plans. I believe that maintaining open lines of 
communications with the partners is critical to the success of the 
program and if confirmed I will make open communications with the 
partners a high priority.

    94. Senator Ayotte. Mr. Kendall, if the decision were made to 
cancel the JSF, what would be the cost of operating and maintaining the 
legacy aircraft fleet that the JSF is going to replace?
    Mr. Kendall. The JSF is scheduled to replace the AV-8B, F/A-18A-D, 
F-16, and A-10 for the U.S. Services. A portion of the F/A-18A-D and F-
16 fleet is already planned for service life extensions to meet force 
structure requirements. If the JSF were canceled, the Services would 
have to assess the possibility of additional service life extensions, 
but there are practical limits to the degree to which that can even be 
considered. For many of those aircraft with excessive flight hours, 
extending service life would not be an option, and they would have to 
be retired. If JSF were to be canceled the Department would have to 
start other modernization programs to develop one or more fifth 
generation aircraft and the right comparison would be those programs 
and the completion of JSF. In my view, both the delay in obtaining JSF-
like capabilities and the cost of new developments would be 
prohibitive. The cancelation of JSF is not under consideration.

    95. Senator Ayotte. Mr. Kendall, over the same period of time, how 
does this compare to the JSF operations and sustainment costs?
    Mr. Kendall. Maintaining the current high performance aircraft 
fleet until 2065 is not a viable option so it isn't meaningful to make 
the requested comparison. While service life extensions are planned for 
some legacy aircraft, it is simply not possible that their service life 
could be extended out to the 2065 timeframe the F-35 is planned to 
operate. Service life constraints will result in the bulk of those 
aircraft having to retire before that timeframe elapses.

    96. Senator Ayotte. Mr. Kendall, what investments have been made in 
the development and design of the F-35 to reduce operations and 
sustainment costs over the life of the program?
    Mr. Kendall. From the outset, the F-35 has been designed with 
supportability and affordability as major tenets of the Program; the 
result of which is an overall air system designed to offer greater 
availability and smaller logistics footprint. Within the air vehicle, 
systems including sustainable low-observable coatings as well as a 
prognostic health management system are both examples which will offer 
increased maintainability and availability. Within the sustainment 
system, the commonality of spares between variants and the training 
system were designed to offer significant through-life costs savings. 
Also, as the design continues through the System Design and Development 
phase opportunities for reducing through-life costs continue to be 
investigated. Of 122 current affordability initiatives being pursued 
through production, there are approximately 38 that will have improved 
life cycle cost impacts.
    The F-35 JPO is also currently implementing an affordability 
strategy for which it is developing an Affordability Management Plan 
focused on: reducing the costs of support products such as support 
equipment, spare parts and training devices; base-lining requirements 
with the Services and leveraging increased efficiency opportunities 
provided by F-35; and addressing reliability and maintainability. The 
JPO is creating contract and pricing opportunities to reduce the cost 
of the JSF support products by leveraging economic order quantity buys 
for spare parts in conjunction with production buys, and implementing 
pricing improvement curves that leverage learning opportunities. By 
creating a common sustainment baseline harnessing the F-35 support 
system design, the JPO is attempting to optimize the level of 
infrastructure and products required to support operations of the 
global fleet. By optimizing the amount of equipment procured early the 
Department will be able to affect the through life O&S Costs. In 
parallel, the program office is addressing the reliability and 
maintainability of systems/subsystems and components; where they fall 
short of meeting their design specifications, the implementation of 
appropriate modifications will enable the Department to control cost 
growth.
    Specifically, in 2011 the JPO implemented a number of technical 
changes and affordability initiatives which resulted in an over $30 
billion reduction, in base year 2002 dollars, in the 2011 O&S estimate 
which helped to offset externally-driven increases in areas such as 
military and contractor labor rates. Additionally, the JPO conducted 
sustainment baseline deep dives into support equipment, spares, and 
manpower, as well as the initial phase of a business case analysis on 
supply chain management, field operations, sustaining engineering, and 
fleet management.
    The 2012 efforts include a manpower review into the appropriate 
labor mix and contractor rates, a review of competitive options for the 
long-term provision of support equipment and spares, enterprise 
software licensing, engine life improvements, reprogramming laboratory 
requirements, and additional Service planning factors such as aircraft 
utilization rates, contingency planning, and squadron manning 
requirements.

                 cost-plus versus fixed-price contracts
    97. Senator Ayotte. Mr. Kendall, I believe we should minimize using 
cost-plus contracts to procure major weapons systems. In most cases, by 
the time DOD is ready to produce major systems at a low rate, enough 
development risk should have been burned off that contractors should be 
ready to sign a fixed-price contract. Otherwise, cost-plus contracts 
should be used for only those pieces where significant risk is left 
over. This is the thrust of the amendment on cost-plus contracting I 
offered with Senator McCain last year in connection with the NDAA for 
Fiscal Year 2012. What is your view of this issue?
    Mr. Kendall. I generally agree, but I believe the Department needs 
the latitude to make exceptions when merited. The Department should 
minimize the use of cost-plus arrangements under production contracts 
for major weapon systems. Once a program has completed low rate initial 
production the Department's contracts for major weapon systems should 
be firm fixed priced.
    I believe there are circumstances, however, where the Department 
cannot adequately reduce the risk in the low rate initial production 
phase and therefore a form of cost reimbursable contract may be 
appropriate for early production. This could be the case when accepting 
the risk of concurrency and early transition to production is the best 
course of action due to an urgent operational need. Another 
circumstance that might warrant use of a cost-type contract would be 
where the Department requires the contractor to deliver a production 
unit for operational evaluation as a risk reduction measure. For some 
products such as first in class ships and some satellites, the first 
production unit is also the first prototype unit and there is no 
opportunity for the design to be verified through the testing of 
developmental preproduction prototypes.
    In general, however, I am inclined to use firm fixed-price 
contracts for low-rate initial production when the design is stable, 
performance has been demonstrated with production representative 
prototypes, production processes are mature, and the costs are 
reasonably predictable. I have been emphasizing the use of fixed price 
incentive contracts when there is marginally more risk associated with 
production processes and costs, but not risk that can efficiently be 
mitigated by delaying the start of production.
    Optimally structuring acquisition programs is a complicated matter 
that requires sound professional judgment to balance all the competing 
demands, and unfortunately there is no single approach that is 
universally applicable. If confirmed, I would be happy to work with the 
committee on this subject.

    98. Senator Ayotte. Mr. Kendall, do you support the floor amendment 
Senator McCain and I offered last year, S.A. 1249?
    Mr. Kendall. I believe that decisions about the appropriate 
contract type to use on a given contract should be made on a case-by-
case basis after a careful examination of the circumstances of the 
program, including the nature of the system being acquired and the risk 
inherent in the program. One of the key aspects of the Better Buying 
Power initiative has been increasing the use of fixed-price type 
contracts, where appropriate. The Department can and is doing more 
fixed-price contracting throughout the acquisition system, particularly 
in the early stages of production. However, I believe it is critical 
that the Department retain the discretion to select the contract type 
most appropriate for the work being performed. I am not personally in 
favor of any provision that would completely prohibit the Department's 
use of cost-type contracts for the production of all major defense 
acquisition programs (MDAPs). I believe that the Department should have 
the latitude to use cost-type contracts during low rate initial 
production of an MDAP, or for some contracts for development of 
incremental improvements to an MDAP entered into after the MDAP has 
passed into the production phase of the program. If confirmed, I am 
committed to working with the committee on this issue.

                         money flow to enemies
    99. Senator Ayotte. Mr. Kendall, last year, Senator Brown and I 
introduced legislation that was incorporated into section 841 of the 
NDAA. The intent of this legislation was to make it easier to stop the 
flow of money when it is discovered that U.S. contracting dollars are 
inadvertently being diverted to our enemies. Have these new authorities 
been helpful?
    Mr. Kendall. DOD implemented section 841 on January 26th in Class 
Deviation 2012-O0005--Prohibition on Contracting with the Enemy and 
Access to Contractor and Subcontractor Records in the U.S. Central 
Command (CENTCOM) Theater of Operations. This provides contracting 
officers the tool to take immediate action upon the enemy 
identification by the CENTCOM commander. The CENTCOM is currently 
finalizing the enemy identification process. I am confident that this 
authority will help the Department significantly; however the 
Department has not yet exercised this authority enough to determine how 
positive the impact will be.

    100. Senator Ayotte. Mr. Kendall, how many companies or individuals 
have been suspended or debarred since using these new authorities?
    Mr. Kendall. Suspension and debarment are not remedies directly 
provided in the legislation. Rather, section 841 authorizes the head of 
the contracting activity to restrict the award of contracts, grants, or 
cooperative agreements; to terminate for default; or to void a 
contract, grant or cooperative agreement. The authorities provided are 
still in the process of full implementation and they are expected to be 
valuable tools to stop the flow of money to our enemies.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                   cyber and intelligence acquisition
    101. Senator Graham. Mr. Kendall, recognizing the budget challenges 
faced by DOD, how do you plan to further leverage base realignment and 
closure (BRAC) investments in the Services' joint command, control, 
communications, computers, and intelligence (C4I) organizations such as 
Space and Naval Warfare (SPAWAR) Systems Center Atlantic?
    Mr. Kendall. BRAC enables the Department to reconfigure its 
infrastructure to match the demands of leaner, more flexible forces and 
to accommodate the changing strategic emphasis. It is an important tool 
for the Department to use to make the tough fiscal choices necessitated 
by current budget challenges.
    If Congress does authorize the requested BRAC rounds, the 
Department will undertake the BRAC rounds in accordance with the 
statutory directive to consider all installations equally and make 
decisions based on 20-year force structure plan and statutory selection 
criteria which give primary consideration to military value. At this 
point there are no specific closures or consolidations planned.

    102. Senator Graham. Mr. Kendall, how would you approach the 
acquisition process for rapidly changing technologies, such as cyber 
and command, control, communications, computers, intelligence, 
surveillance and reconnaissance (C4ISR), versus those that remain 
relatively constant and mature over long periods of time such as 
airplanes, ships, and automotive land vehicles?
    Mr. Kendall. There are unique characteristics associated with the 
efficient and effective acquisition of Cyber and C4ISR capabilities. In 
order to maximize the operational benefit of the rapidly changing 
technologies associated with these types of programs, the Department 
must use tailored approaches. To keep pace with technology, C4ISR 
programs generally use an iterative, incremental approach that can 
deploy capability quickly. This approach must be based on well defined 
increments of capability that are developed, tested, and often fielded 
in increments structured around 1 to 2 year software builds. The 
Department intends to incorporate this approach as one of the 
acquisition approaches covered by the new DOD Instruction 5000.02 which 
is currently in development.
    Regarding cyber technologies, on March 22, the Department also 
submitted a Report to Congress pursuant to section 933 of 2011 NDAA 
which articulated a new strategy for acquiring cyberspace warfare 
capabilities. Agility and rapidity must characterize cyber 
acquisitions. The new cyber framework allows for alternative 
acquisition processes, identified as ``rapid'' and ``deliberate''. 
These processes will be tailored to the complexity, cost, urgency of 
need and fielding timelines associated with the cyber warfare 
capability being acquired. As cost increases and operational immediacy 
and the tolerance for risk decreases, more disciplined acquisition 
strategies will be employed.

                      common data link procurement
    103. Senator Graham. Mr. Kendall, for several years, congressional 
defense committees have expressed concern that proprietary terminal 
control interfaces are inhibiting competition in CDL procurement, with 
potential missed cost savings opportunities and foregone capabilities. 
DOD has been urged to preserve options for competitive sourcing of CDL 
systems and to advise program offices responsible for CDL procurement 
of the need for competition. What is the status of DOD's efforts to 
enhance competition in CDL acquisition?
    Mr. Kendall. This problem was first brought to my attention by 
industry which I believe has a valid concern. My understanding is that 
the Department was not effective in implementing open CDL systems free 
from proprietary constraints. At my direction, the Department is 
evaluating CDL system acquisition practices with a focus on several 
areas to improve competition. The first area is to have processes to 
make certain that no vendor proprietary or undocumented interfaces are 
being cited as requirements or included as evaluation criteria in the 
Department's CDL system solicitations. The second area is to ensure 
that as DOD advances its CDL standards, the Department maintains a 
broad industry base from which it seeks innovations. Finally when CDL 
systems are procured as a subsystem within a platform, DOD wants 
confidence that when the prime vendor investigates suitable sources for 
CDL compliant systems these vendors are thoroughly considering all 
suppliers. Industry inputs and suggestions for improvement are being 
sought as part of this evaluation.

    104. Senator Graham. Mr. Kendall, since the beginning of fiscal 
year 2012, have any CDL contracts been awarded which were not proceeded 
by a full and open competition, and if so, why?
    Mr. Kendall. My understanding is that no contracts have been 
awarded since the beginning of fiscal year 2012 to acquire CDL systems, 
either sole-source or competitively.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
               syria and contracting with rosoboronexport
    105. Senator Cornyn. Mr. Kendall, do you agree that the Assad 
regime has committed acts of mass murder against its own people during 
the Syrian uprisings that began in March 2011?
    Mr. Kendall. I am deeply concerned about the situation in Syria and 
about the human rights abuses that are occurring there. The situation 
is tragic for the people of Syria and for the region. I am not in a 
position at this time to pass judgment on whether the acts of the Assad 
regime constitute mass murder. However, I agree that the Assad regime's 
actions should be strongly condemned, and that serious violations of 
international law very likely have occurred.

    106. Senator Cornyn. Mr. Kendall, do you believe these actions also 
constitute crimes against humanity?
    Mr. Kendall. I believe that the actions of the Assad regime are 
outrageous. There is no question that violence towards the people of 
Syria has been brutal and devastating. It is my view that the Assad 
regime has lost its legitimacy and that Assad should go. I have to 
defer, however, to the Department of State on specific judgments as to 
whether these actions constitute crimes against humanity.

    107. Senator Cornyn. Mr. Kendall, are you aware of 
Rosoboronexport's history of arms sales to Syria?
    Mr. Kendall. I am not familiar with all of the transactions between 
Rosoboronexport and Syria, but I am aware that Russia is the top 
supplier of weapons to Syria and that Rosoboronexport is the state run 
export corporation for the Russian Government.

    108. Senator Cornyn. Mr. Kendall, are you aware that the U.S. 
Government has sanctioned Rosoboronexport in the past for providing 
illicit support to Iran's military?
    Mr. Kendall. Yes, I am aware of the State Department sanctions 
against Rosoboronexport that were in place until late spring 2010. The 
Department's efforts to acquire and support Afghan Mi-series aircraft 
were shaped to abide by the sanctions.

    109. Senator Cornyn. Mr. Kendall, are you aware that this firm has 
continued to supply weapons to Syria during the crackdown?
    Mr. Kendall. It is my understanding that the Russian Government has 
continued to supply Syria with weapons and supplies throughout the 
current uprising, and that Rosoboronexport, the state-run Russian 
export corporation, has facilitated these transactions.

    110. Senator Cornyn. Mr. Kendall, what types and quantities of 
weapons has Rosoboronexport delivered to Syria, directly or indirectly, 
since the Syrian uprisings began in March 2011?
    Mr. Kendall. I am not familiar with all of the transactions between 
Rosoboronexport and Syria, but I am aware of press reporting on recent 
Russian arms deliveries to Syria. Russia has a series of ongoing 
contracts to provide Syria with advanced conventional weapons.

    111. Senator Cornyn. Mr. Kendall, do you have concerns about DOD's 
ongoing business dealings with Rosoboronexport? If so, what are those 
concerns?
    Mr. Kendall. In my role as Acting Under Secretary, I have been 
working to ensure that the purchases of Russian-origin equipment are 
carried out consistent with U.S. laws and with sound acquisition 
practices. Rosoboronexport has an obligation to deliver the remaining 
Mi-17 helicopters ordered for the ANSF on schedule, within the budget, 
and in the mission-ready configuration as specified in the contract. I 
am also concerned about Russia's provision of arms to the Assad regime 
at a time when they are perpetrating brutal violence against their own 
people.

    112. Senator Cornyn. Mr. Kendall, which other Russian entities have 
transferred weapons to Syria since the Syrian uprisings began in March 
2011?
    Mr. Kendall. It is my understanding that Rosoboronexport, as 
Russia's state-authorized exporter of military use equipment and 
technology, is responsible for weapon contracts with Syria. I cannot 
rule out the possibility that other Russian-connected entities have 
also been involved.

    113. Senator Cornyn. Mr. Kendall, what types and quantities of 
weapons have these entities delivered during that time?
    Mr. Kendall. I am not familiar with all of the transactions between 
Rosoboronexport and Syria, or of what transactions with other Russian 
entities may have occurred. I am aware of reporting in the press of 
Russian transfers of air defense weapons as well as small arms to the 
Syrian regime.

    114. Senator Cornyn. Mr. Kendall, President Obama stated on 
February 3, 2011, that: ``Assad must halt his campaign of killing and 
crimes against his own people now. . . . The suffering citizens of 
Syria must know: we are with you, and the Assad regime must come to an 
end.'' Do you agree with President Obama's statement?
    Mr. Kendall. Yes.

    115. Senator Cornyn. Mr. Kendall, do you agree that Russian arms 
transfers to the Assad regime have been a key enabler of that regime 
maintaining power in Syria?
    Mr. Kendall. I believe that support for the Assad regime from 
Russia and other nations has been significant in its ability to 
maintain power. Any transfer of weapons to the regime from sources 
outside of Syria could help the regime maintain power.

    116. Senator Cornyn. Mr. Kendall, do you agree that the United 
States has an obligation to use all of its leverage to pressure Russia 
and Russian entities to end their support of the Assad regime?
    Mr. Kendall. I support the U.S. Government's decision to pressure 
the Russians through diplomatic channels to help end the violence in 
Syria with a view to a transition of power.

    117. Senator Cornyn. Mr. Kendall, do you agree that DOD has the 
ability to sever all current contractual relationships with 
Rosoboronexport?
    Mr. Kendall. The Department always retains the right to terminate 
any of its contracts. The contract with Rosoboronexport can be 
terminated, however, the United States currently benefits from this 
relationship in two ways. First, the Department is assured of proper 
Mi-17 delivery and support to the Afghan Air Force that enables Partner 
Nation Capability and a timely U.S. withdrawal. Second, the Department 
will obtain accurate engineering information for this aircraft to 
ensure safe air operations for the Afghans as well as for U.S. aircrews 
and passengers when they are onboard these aircraft.

    118. Senator Cornyn. Mr. Kendall, do you agree that continuing to 
do business with Rosoboronexport undermines U.S. policy regarding 
Syria?
    Mr. Kendall. I believe the U.S. Government must carefully balance 
its national security objectives in its dealings with other nations. 
DOD's business with Rosoboronexport is strictly limited to acquiring 
Mi-17 helicopters and sustainment packages for the ANSF. In addition, 
the United States has other interactions with the Russian Government on 
a range of issues that are critical to U.S. national security and the 
mission in Afghanistan.

    119. Senator Cornyn. Mr. Kendall, who in the administration 
directed that procurement of Mi-17 helicopters must be done using 
Rosoboronexport as broker?
    Mr. Kendall. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)), Dr. Ashton B. Carter, designated 
the Army as the Lead Service for Mi-17 and other non-standard rotary 
wing aircraft in January 2010. The need for these aircraft was 
documented by the Combined Airpower Transition Force/438th 
Expeditionary Wing to support development of an Afghan National Army 
Air Corps (later renamed the Afghan Air Force) capable of sustaining 
long-term security needs of Afghanistan and enabling the U.S. exit 
strategy.
    Prior to May 2010, U.S. efforts to provide and support Mi-17s were 
constrained to purchases of civilian-variant Mi-aircraft in a world 
marketplace, necessitating costly modifications and severe flight 
limitations due to a lack of comprehensive engineering data that slowed 
the stand-up of Afghan capability. From August to December 2010, 
discussions with the Russian Government established that 
Rosoboronexport is the sole entity controlling export of military-use 
Mi-17 helicopters and the Russian manufacturer is the only source of 
complete engineering data. Diplomatic avenues were used to confirm 
these facts. This situation led USD(AT&L) to transfer procurement 
responsibility for 21 Mi-17s from the Naval Air Systems Command to the 
Army in December 2010.
    In compliance with title 10 U.S.C. section 2304(c)(7) and the FAR 
6.302-7, the Secretary of the Army (as Agency Head) authorized award of 
a contract for the required aircraft based on the public interest 
exception to full and open competition. The Secretary's decision was 
based on the need to provide a familiar aircraft to the Afghans to 
support the war effort and the demonstrated capability of the Mi-17 to 
meet the robust requirements of operations in Afghanistan. The 
congressional defense committees were notified, consistent with the 
statute, prior to contract award.

    120. Senator Cornyn. Mr. Kendall, the June 1, 2011, Army contract 
was a no-bid contract. What justification existed for not awarding this 
contract through an open and competitive selection process?
    Mr. Kendall. In compliance with title 10 U.S.C. section 2304(c)(7) 
and the FAR 6.302-7, the Secretary of the Army (as Agency Head) 
authorized award of a contract for the required aircraft based on the 
public interest exception to full and open competition. The Secretary's 
decision was based on the need to provide a familiar aircraft to the 
Afghans to support the war effort and the demonstrated capability of 
the Mi-17 to meet the robust requirements of operations in Afghanistan. 
The congressional defense committees were notified, consistent with the 
statute, prior to contract award.

    121. Senator Cornyn. Mr. Kendall, do you agree that the Obama 
administration's policy of trying to reset bilateral relations with 
Russia was a major factor in the decision to award this June 1, 2011, 
no-bid contract to Rosoboronexport, a state-controlled firm that is 
essentially an arm of the Russian Government?
    Mr. Kendall. No. The Department initiated discussions with the 
Russian Federation following the lifting of sanctions in 2010 for the 
primary purpose of obtaining access to authentic engineering data to 
support Mi-17 airworthiness. At that time, the Navy was processing a 
procurement action for additional aircraft. During discussions, the 
Russian authorities raised the issue that exports of aircraft for 
military use must be conducted within Russian law, an interpretation 
that was potentially inconsistent with any contract action that 
involved export of either civilian or military aircraft from Russia, if 
the Russians judged the end use to be military. From August to December 
2010, discussions with the Russian Government established that 
Rosoboronexport is the sole entity controlling export of military-use 
Mi-17 helicopters and the Russian manufacturer is the only source of 
complete engineering data. Diplomatic avenues were used to confirm 
these facts. This situation led USD(AT&L) to transfer procurement 
responsibility for 21 Mi-17s from the Naval Air Systems Command to the 
Army in December 2010.
    In compliance with title 10 U.S.C. section 2304(c)(7) and the FAR 
6.302-7, the Secretary of the Army (as Agency Head) authorized award of 
a contract for the required aircraft based on the public interest 
exception to full and open competition. The Secretary's decision was 
based on the need to provide a familiar aircraft to the Afghans to 
support the war effort and the demonstrated capability of the Mi-17 to 
meet the robust requirements of operations in Afghanistan. The 
congressional defense committees were notified consistent with the 
stature prior to contract award.

    122. Senator Cornyn. Mr. Kendall, are you aware that 
Rosoboronexport is not the actual manufacturer of Mi-17 helicopters, 
but only a broker?
    Mr. Kendall. Yes. In meetings with the Russian Federal Service for 
Military-Technical Cooperation, U.S. representatives were advised that 
Mi-17 aircraft purchased for military end-use can only be purchased 
from the Russian Federation's state-owned enterprise, Rosoboronexport. 
Rosoboronexport and the prime aircraft manufacturer, Kazan, 
participated in subsequent contract negotiations.

    123. Senator Cornyn. Mr. Kendall, when will delivery of the initial 
21 Mi-17 helicopters procured under the June 1, 2011, Army contract be 
completed?
    Mr. Kendall. Fifteen of the 21 aircraft have been delivered in 
Afghanistan to the Afghan Air Force. The remaining six aircraft are on 
schedule to be delivered at the end of June.

    124. Senator Cornyn. Mr. Kendall, under the June 1, 2011, Army 
contract with Rosoboronexport for the purchase of 21 Mi-17 helicopters 
and spare parts, has the $550 million option for additional Mi-17s been 
exercised? If so, on what date was it exercised?
    Mr. Kendall. The option contract line item provides for up to 12 
aircraft at a range of pre-negotiated prices that depend on the desired 
delivery date. Two aircraft with initial spares, tools, and technical 
publication support were ordered for $33.4 million in February to 
replace two aircraft destroyed in accidents. The NATO Training Mission-
Afghanistan has also identified the need for 10 aircraft to replace Mi-
17s that are nearing their life limited flight hours. The DOD 
Afghanistan Resources Oversight Council, established in compliance with 
congressional direction, has reviewed and approved NTM-A's request and 
funding source. Exercise of the 10 aircraft option, including initial 
spares, tools, and technical publications is planned for fourth quarter 
fiscal year 2012 at a projected price of $184.3 million.
    The $550 million cost cited in the question is the ceiling price 
for the entire contract, including the 21 aircraft baseline and the 12-
aircraft option.

    125. Senator Cornyn. Mr. Kendall, if the option has not been 
exercised yet, does DOD/Army intend to exercise it? If so, what is the 
approximate timeframe for that?
    Mr. Kendall. The option contract line item provides for up to 
twelve aircraft at pre-negotiated prices. Two aircraft were ordered in 
February this year to replace two aircraft destroyed in accidents. The 
NATO Training Mission-Afghanistan identified funding for ten aircraft 
to replace Mi-17s that are nearing their life limited flight hours. The 
DOD Afghanistan Resources Oversight Council, established in compliance 
with congressional direction, has reviewed and approved NTM-A's 
request. Exercise of the option for the 10 is planned for fourth 
quarter of fiscal year 2012.

    126. Senator Cornyn. Mr. Kendall, once delivery of the last of the 
initial 21 aircraft to be procured under this contract is complete, how 
many additional Mi-17s does DOD/Army anticipate needing to buy in order 
to round out the Afghan rotary aircraft requirement?
    Mr. Kendall. Delivery of the 21 aircraft meets the planned 
inventory requirement for the Afghan Air Force, although 2 crash-
damaged aircraft are scheduled to be replaced. Additionally, the Afghan 
Air Interdiction Unit, which is being transformed to a Special 
Operations Unit, also operates 30 Mi-17 aircraft. No further purchases 
are planned at this time to increase total inventory for either unit, 
but procurements will be needed to sustain both inventory levels and 
possibly to facilitate the new Special Operations Unit. Sustaining 
inventory levels require additional aircraft procurement because Mi-17s 
must be overhauled at a depot at specific flight hour limits and the 
number of overhauls is limited. Replacement aircraft are, and will be 
needed for aircraft that have no further flight hour availability. The 
NATO Training Mission-Afghanistan recently identified 10 Afghan Air 
Force aircraft for funded replacement. Those 10 plus the 2 crash damage 
replacements can be accommodated using the priced option on the 
existing contract. NTM-A has also proposed alternatives to replace 
aircraft for the Special Operations Unit that are being considered by 
the DOD Afghanistan Resource Oversight Council.

    127. Senator Cornyn. Mr. Kendall, do you agree that we have viable 
alternative routes available to buy these same Mi-17 aircraft, 
notwithstanding any Russian claims to the contrary?
    Mr. Kendall. No, I do not agree that there are viable alternatives. 
It is my understanding that the Department has established, with 
assistance from the diplomatic community, that the Russian assertions 
regarding Rosoboronexport's control over exports of Mi-17 aircraft 
intended for military purposes is part of Russian law. While others may 
be able to purchase Mi-17s, delivery from within the Russian Federation 
could be blocked by Rosoboronexport. More importantly, the United 
States needs access to the prime aircraft manufacturer, Kazan, for 
accurate engineering support and data to ensure safe operations and 
maintenance and airworthiness on behalf of Afghan and U.S. personnel 
that operate, maintain, or are transported on these aircraft.

    128. Senator Cornyn. Mr. Kendall, are you aware that in 2009 the 
Navy legally purchased four of these same dual-use Mi-17 helicopters 
through a private U.S. broker after an open and competitive selection 
process?
    Mr. Kendall. It is my understanding that the Navy purchased two Mi-
8 and two Mi-171 aircraft, which are civilian variants of the Mi-17 on 
a commercial-style (FAR Part 12) contract in 2009. These aircraft were 
subsequently modified to a suitable configuration at an additional cost 
and are in service. The transaction was with a U.S. contractor acting 
as a broker. This Navy contract was awarded prior to the assertions by 
the Russians that exports of such aircraft would be in violation of 
their laws and would be blocked.

    129. Senator Cornyn. Mr. Kendall, are you aware that these four 
helicopters are still flying today, presently in service with the North 
Atlantic Treaty Organization (NATO) Air Training Command-Afghanistan 
(NATC-A)?
    Mr. Kendall. Yes. The Army Program Manager for Non-Standard Rotary 
Wing Aircraft provides maintenance and engineering support for these 
aircraft. (Please note that the command has been renamed, the NATO 
Training Mission-Afghanistan).

    130. Senator Cornyn. Mr. Kendall, are you aware that, after the 
successful 2009 procurement of Mi-17s, the Navy initiated a similar 
effort to procure 21 additional Mi-17s through an open and competitive 
selection process?
    Mr. Kendall. Yes. The Navy was tasked to procure these aircraft 
prior to the decision to establish the Non-Standard Rotary Wing 
Aircraft Program as a special interest program and the Department asked 
the Navy to continue that activity during the time the Non-Standard 
Rotary Wing Aircraft Program was being staffed and beginning 
operations. Following the May 2010 lifting of sanctions and discussions 
with the Russian Federation that established Rosoboronexport's role 
regarding Mi-17 exports, the USD(AT&L) directed the Navy to cease 
efforts to procure the aircraft and transferred responsibility to the 
Army.

    131. Senator Cornyn. Mr. Kendall, are you aware that, on December 
16, 2010, DOD put an end to that by transferring procurement authority 
for these 21 aircraft from the Navy to the Army?
    Mr. Kendall. Yes. USD(AT&L) transferred procurement responsibility 
for 21 Mi-17s from the Naval Air Systems Command to the Army in 
December 2010. The basis for that decision was a determination, 
confirmed through diplomatic channels, that Rosoboronexport is the sole 
entity controlling export of military-use Mi-17 helicopters and the 
Russian manufacturer is the only source of complete engineering data. 
The planned Naval Air Systems Command contract would not be able to 
resolve the need for complete engineering data.

    132. Senator Cornyn. Mr. Kendall, how is a no-bid contract with 
Rosoboronexport preferable to a competitively awarded contract with a 
private U.S. broker?
    Mr. Kendall. On balance, consideration of several criteria resulted 
in contracting with Rosoboronexport. Most importantly, the Department 
gains access to the manufacturer's engineering expertise and direct 
support for determinations regarding the operation, maintenance, and 
airworthiness of these aircraft. Airworthiness considerations for both 
Afghan and U.S. personnel are an imperative consideration.
    A contract with a broker not authorized by the manufacturer 
delivers an airworthy platform but the broker is unable to sustain that 
status lacking access to the manufacturer for the latest safety 
updates. Second, the contract with Rosoboronexport delivers aircraft in 
the desired configuration, modified with certain western equipment to 
facilitate interoperability with U.S. platforms. Deliveries from a 
broker in the past have required subsequent modifications at increased 
cost. Third, the Department's experience is that the product from 
Rosoboronexport is less costly than the total cost of purchases from 
brokers and post-delivery modification, without considering engineering 
support costs. The United States is assured that export of these 
aircraft for their intended military use will not be blocked, which 
could be the case when third parties are involved. Finally, the United 
States was advised that under Russian law, Rosoboronexport is the 
Russian Federation, state-owned, sole entity export of military use Mi-
17 helicopters.

    133. Senator Cornyn. Mr. Kendall, at your confirmation hearing, 
Senator Blumenthal asked Dr. Miller about DOD's efforts to find other 
helicopters that could be used, specifically asking if there is ``an 
effort underway in development.'' Dr. Miller responded, ``Senator, yes 
there is.'' Please describe what DOD has previously done and is 
currently doing to find alternatives.
    Mr. Kendall. It is my understanding that the Department has briefed 
key members of the congressional defense committees on a 2010 study led 
by the Office of the Secretary of Defense and the Joint Staff that 
examined the worldwide need for rotary wing aircraft for Security Force 
Assistance, especially in the instances where Building Partner Nation 
Capacity was involved. The study examined alternatives for meeting 
these requirements, including U.S.-source alternatives. Since this 
study was done, there have already been successes in transitioning some 
Partner Nations to U.S. helicopters; Iraq stands out as an example with 
the purchase of an armed variant of the Bell 407 helicopter. Several 
other U.S. firms offer military helicopters that are potentially 
suitable for Security Force Assistance missions.
    In the case of Afghanistan, the Department has recently delivered 
six MD 530F Helicopters to serve as training aircraft for Afghan forces 
to begin a transition to more sophisticated rotary wing aircraft 
training. But the unique situation there precludes a near-term 
transition to any U.S. alternative to the Mi-17. The referenced study 
did compare a wide range of alternatives; however, the Mi-17 has proven 
superior not only in military and civilian operations in the high 
altitudes and hot temperatures of Afghanistan, but also in terms of 
lower procurement and operating cost. Furthermore, the Mi-17 is 
familiar to the Afghan pilots, aircrews, and maintenance personnel. 
Only a small percentage of the population is literate so recruiting and 
training additional personnel is difficult and transition to a more 
sophisticated western aircraft would entail a transition time that does 
not meet the current strategy.
                                 ______
                                 
    [The nomination reference of Hon. Frank Kendall III 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 24, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Frank Kendall III, of Virginia, to be Under Secretary of Defense 
for Acquisition, Technology, and Logistics, vice Ashton B. Carter, 
resigned.
                                 ______
                                 
    [The biographical sketch of Hon. Frank Kendall III, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Hon. Frank Kendall III
Education:
    Rensselaer Polytechnic Institute, Sept. 1966 to June 1967
    U.S. Military Academy, West Point, NY, 1967-1971, B.S., June 1971
    California Institute of Technology, Pasadena, CA 1971-1973, MS, 
Aerospace Engineering, 1972, Aeronautical Engineer Degree, 1974
    Long Island University, C.W. Post Center, 1977-1980, MBA, June 1980
    Georgetown University Law Center, 2000-2003, J.D. Feb. 2004
Employment Record:
    Office of the Secretary of Defense

        <bullet> Acting Under Secretary of Defense (Acquisition, 
        Technology, and Logistics)
        <bullet> October 2011-Present

    Office of the Secretary of Defense

        <bullet> Principal Deputy Under Secretary of Defense 
        (Acquisition, Technology, and Logistics)
        <bullet> March 2010-Present

    Renaissance Strategic Advisors

        <bullet> Partner
        <bullet> January 2008-March 2010
        <bullet> Small aerospace and defense consulting firm focused in 
        the areas of strategic planning, merger and acquisition support 
        and support to start-up aerospace and defense companies

    Self-Employed Attorney

        <bullet> Consultant (human rights issues)
        <bullet> Represented individual clients, almost entirely on a 
        pro bono basis and primarily individual asylum cases
        <bullet> January 2004-March 2010

    Self-Employed Private Consultant

        <bullet> Independent Consultant
        <bullet> Served various defense contractors, government 
        organizations, and federally funded laboratories in the areas 
        of technical management, program management, systems 
        engineering, systems analysis, and strategic planning
        <bullet> January 1999-March 2010
Honors and Awards:
    Federal Civilian Awards:

        <bullet> Defense Distinguished Civilian Service Medal
        <bullet> Secretary of Defense Meritorious Civilian Service 
        Medal
        <bullet> Presidential Rank Award of Distinguished Executive 
        (Senior Executive Service)
        <bullet> Presidential Rank Award of Meritorious Executive 
        (Senior Executive Service)
        <bullet> Army Commander's Award for Civilian Service

    Military Awards, U.S. Army:

        <bullet> Meritorious Service Medal with oak leaf cluster
        <bullet> Army Commendation Medal
        <bullet> National Defense Service Medal

    Other Awards:

        <bullet> Defense Industrial Preparedness Association Gold Medal
        <bullet> Rodney Smith Memorial Award for Excellence in 
        Engineering (U.S. Military Academy)
        <bullet> Four-year ROTC scholarship to Rensselaer Polytechnic 
        Institute (used 1 year of scholarship before attending West 
        Point)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Hon. Frank 
Kendall III in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Frank Kendall III.

    2. Position to which nominated:
    Under Secretary of Defense (Acquisition, Technology, and 
Logistics), Department of Defense.

    3. Date of nomination:
    January 24, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    Pittsfield, MA; January 26, 1949.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Eva Elizabeth Halpern.

    7. Names and ages of children:
    Scott McLeod Kendall, 35.
    Eric Sten Kendall, 30.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Pittsfield High School, 1963-1966, H.S. Diploma, June 1966
    Rensselaer Polytechnic Institute, Sept. 1966 to June 1967
    U.S. Military Academy, West Point, NY, 1967-1971, B.S., June 1971
    California Institute of Technology, Pasadena, CA, 1971-1973, MS, 
Aerospace Engineering, 1972, Aeronautical Engineer Degree, 1974
    Long Island University, C.W. Post Center, 1977-1980, MBA, June 1980
    Georgetown University Law Center, 2000-2003, J.D., Feb. 2004

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    October 2011 to Present: Acting Under Secretary of Defense 
(Acquisition, Technology, and Logistics). Department of Defense, 
Pentagon, Washington, DC
    March 2010 to Present: Principal Deputy Under Secretary of Defense 
(Acquisition, Technology, and Logistics). Department of Defense, 
Pentagon, Washington, DC
    1999 to March 2010: Private Consultant, self-employed, Falls 
Church, VA. Independent consultant to various defense contractors, 
government organizations, and federally-funded laboratories in the 
areas of technical management, program management, systems engineering, 
systems analysis, and strategic planning.
    2004 to March 2010: Attorney, self-employed, Falls Church, VA. 
Worked as a consultant on human rights issues and represented 
individual clients, almost entirely on a pro bono basis and primarily 
individual asylum cases.
    January 2008 to March 2010: Managing Partner, Renaissance Strategic 
Advisors, Arlington, VA. Partner in a small aerospace and defense 
consulting firm. The firm's work is in the areas of strategic planning, 
merger and acquisition support and support to start-up aerospace and 
defense companies.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1967-1982: Active Duty U.S. Army; left Active Duty with the rank of 
Captain
    1982-1999: U.S. Army Reserve; retired with the rank of Lieutenant 
Colonel
    1982-1986: U.S. Army Ballistic Missile Defense Systems Command, 
various civil service positions in engineering management and systems 
analysis
    1986-1989: Assistant Deputy Under Secretary of Defense for Defense 
Systems, Office of the Secretary of Defense, Washington, DC.
    1989-1994: Director of Tactical Warfare Programs, Office of the 
Secretary of Defense, Washington, DC.
    1994-2004: Member and Vice Chairman, Defense Intelligence Agency 
Science Advisory Board
    1995-2004: Member, Army Science Board
    1995-2009: Consultant on the Defense Science Board on various 
studies
    1998 (approximate) Consultant on the Naval Studies Board
    2010-Present: Principal Deputy Under Secretary of Defense 
(Acquisition, Technology, and Logistics) (Acting Under Secretary from 
Oct. 2011 to Present)

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Associate member, Sigma Xi, Research Society
    Member, Phi Kappa Phi, Honor Society
    Member, American Bar Association
    Member, Virginia Bar Association
    Member, New York State Bar Association
    Member, Association of the U.S. Army
    Member, Association of Graduates, USMA
    Member, Amnesty International, USA
    Member, Naval Academy Sailing Squadron

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Participated as a volunteer in the Obama campaign 2007 to 2008, no 
formal affiliation or position.
    Participated the Democratic Voter Protection program in 2008 
election as a volunteer.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
2011:

    Congress

         John Douglas, $500

2010:

    Senate
         Russ Feingold, $250
         Joseph Sestak, $250
         Harry Reid, $250
         Joe Manchin, $250
         Alexander Giannoulias, $250
         Michael Bennett, $250
         Jack Conway, $250

    Other

         Progressives United PAC, $250
         DCCC, $2,000

2008:

    President
         Barack Obama, General, $2,917

    Senate

         Kay Hagen, $1,000
         James Martin, $1,000
         Jeff Merkley, $1,000
         Ronnie Musgrove, $1,000
         Jack Reed, $1,000
         Jeanne Shaheen, $1,000
         Mark Warner, $1,000
         Al Franken, $1,000

    House

         Patrick Murphy, $250
         Sharen Neuhardt, $250

    Other

         DNC, $1,003
         Democratic Party of VA, $1,000

2007

    President

         Barack Obama (primary), $2,300

    House

         Judy Feder, $250
         Patrick Murphy, $250

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
Military Awards, U.S. Army:
    Meritorious Service Medal with oak leaf cluster
    Army Commendation Medal
    National Defense Service Medal
Federal Civilian Awards:
    Defense Distinguished Civilian Service Medal
    Secretary of Defense Meritorious Civilian Service Medal
    Presidential Rank Award of Distinguished Executive (Senior 
Executive Service)
    Presidential Rank Award of Meritorious Executive (Senior Executive 
Service)
    Army Commander's Award for Civilian Service
Other Awards:
    Defense Industrial Preparedness Association Gold Medal
    Rodney Smith Memorial Award for Excellence in Engineering (U.S. 
Military Academy)
    Four-year ROTC scholarship to Rensselaer Polytechnic Institute 
(used 1 year of scholarship before attending West Point)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``The Sentry Ballistic Missile Defense System'' with Mr. Tom 
Purdue, Journal of Defense Research (1982) (classified publication, 
best recollection of title)
    ``Exploiting the Military Technical Revolution; A Concept for Joint 
Warfare'', Strategic Review (Spring 1992)
    ``Defense Contractor and Government Relationships'', RDA Magazine 
(1995) (approximate title and date)
    ``Drawing the Line: Three Case Studies in Procurement Ethics'', 
Program Manager Magazine (July-August 1998)
    ``Reclaim American Values; Prisoner Treatment Hands Power to 
Enemies'', with LTG (ret) Charles Otstott, Defense News (April 16, 
2007)
    ``End Impunity for U.S. Contractors in Iraq'' Op Ed, The Topeka 
Capital Journal (August 10, 2007),
    Guantanamo Military Commissions Observer Blog Postings for Human 
Rights First:

          ``Guantanamo: It All Seems So Normal'', Human Rights First 
        (April 9, 2008).
          ``They Clearly Never Met Any Military Attorneys'', Human 
        Rights First (April 11, 2008)
          ``I Will Leave in Your Hands the Camel and All That It 
        Carries'', Human Rights First (April 11, 2008)
          ``If There are Any Policies Dealing With How We Are to Treat 
        and Handle Minors Who Are Captured, I Don't Care What You 
        Think--That's Discoverable'', Human Rights First, (April 14, 
        2008)
          ``Not Quite the Thing to Do Here'', Human Rights First (July 
        14, 2008)
          ``The Sandman and Alfred Hitchcock Come to Guantanamo'', 
        Human Rights First (July 15, 2008)
          ``Doctors or Butchers, How Would I Know'', Human Rights First 
        (July 16, 2008)
          The Constitution (chose one) Does/Does Not Apply at 
        Guantanamo'', Human Rights First (July 17, 2008)
          ``Today's Score From Guantanamo; Constitution-1, No-
        Constitution 3'', Human Rights First (July 18, 2008)

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given approximately 40 speeches in my current position. 
These have been on acquisition policy for the most part. I generally 
speak from notes rather than a prepared text, however in a few cases I 
have used slides. I have also testified before Congress on several 
occasions, including:

         October 2, 2009: PDUSD(AT&L) Confirmation Hearing, Senate 
        Armed Services Committee
         March 2, 2011: ``U.S. Military Leaving Iraq: Is the State 
        Department Ready?'', Subcommittee on National Security, House 
        Oversight and Government Reform Committee
         March 29, 2011: ``Tools to Prevent Defense Department Cost 
        Overruns'', Subcommittee on Federal Financial Management, 
        Government Information, Federal Services and International 
        Security Senate Homeland Security and Governmental Affairs 
        Committee
         May 3, 2011: ``To receive testimony on the health and status 
        of the defense industrial base and its science and technology-
        related elements'', Subcommittee on Emerging Threats and 
        Capabilities, Senate Armed Services Committee
         October 19, 2011: ``To receive testimony on the Final Report 
        of the Commission on Wartime Contracting in Iraq and 
        Afghanistan'', Subcommittee on Readiness and Management 
        Support, Senate Armed Services Committee
         March 20, 2012: ``Navy, Marine Corps, and Air Force Tactical 
        Aviation Programs'', Subcommittee on Tactical Air and Land 
        Forces, House Armed Services Committee

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Frank Kendall III.
    This 23rd day of March, 2012.

    [The nomination of Hon. Frank Kendall III was reported to 
the Senate by Chairman Levin on May 15, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 24, 2012.]
                              ----------                              

    [Prepared questions submitted to Hon. James Miller by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. In answer to advance policy questions at the time of your 
nomination to be Principal Deputy Under Secretary of Defense for Policy 
(USD(P)), you stated that you did not see any need for modifications of 
the Goldwater-Nichols Department of Defense Reorganization Act of 1986 
and the Special Operations reforms at that time. You stated that the 
Goldwater-Nichols Act resulted in ``dramatic improvements in the 
effectiveness of the Armed Forces--from strategic decisionmaking to 
operational command and control. An entire generation of military 
officers now has a much improved perspective on coordinated, multi-
Service, joint training and operations.''
    Taking into account your experience as Principal Deputy USD(P), is 
it still your view that no modifications of any Goldwater-Nichols Act 
provisions are needed at this time?
    Answer. I continue to believe there is no need to modify the 
provisions of the Goldwater-Nichols Act at this time. The Act was a 
very significant piece of legislation that, over the course of more 
than two decades, has led to dramatic improvements in the effectiveness 
of the Armed Forces. Based on my experience since 2009, my assessment 
remains unchanged.
    Question. If not, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Please see my response above.
                             relationships
    Question. What is your understanding of the relationship between 
the USD(P) and each of the following?
    The Secretary of Defense.
    Answer. The USD(P) serves as the principal staff assistant and 
advisor to the Secretary of Defense for all matters concerning the 
formulation of national security and defense policy and the integration 
and oversight of DOD policy and plans to achieve national security 
objectives. The USD(P) provides policy support to the Secretary in 
interagency fora (such as National Security Staff deliberations), 
engagement with international interlocutors, and in the Planning, 
Programming, Budgeting, and Execution (PPBE) processes inside the 
Department, including the Quadrennial Defense Review, the Nuclear 
Posture Review, and annual program and budget reviews.
    Question. The Deputy Secretary of Defense.
    Answer. The Under Secretary for Policy provides similar support to 
the Deputy Secretary as described above.
    Question. The other Under Secretaries of Defense.
    Answer. The Under Secretary for Policy works closely with the other 
Under Secretaries of Defense to achieve the Secretary's objectives. 
This includes providing policy input, as appropriate, to each of them 
in their respective areas of responsibility. In addition, the Under 
Secretary for Policy works closely with the Under Secretary of 
Intelligence and other intelligence officials to ensure that policy 
formulation and execution are well informed and supported by 
intelligence.
    Question. The Assistant Secretaries of Defense.
    Answer. The USD(P) exercises authority, direction and control over 
the Principal Deputy USD(P), and the Assistant Secretaries of Defense 
for International Security Affairs (ISA), Asian and Pacific Affairs 
(APSA), Global Strategic Affairs (GSA), Special Operations and Low-
Intensity Conflict (SOLIC), and Homeland Defense and Americas' Security 
Affairs (HD/ASA). This team works together to provide the Secretary 
with advice and recommendations on the full range of policy issues 
under consideration in the Department and provides policy oversight to 
ensure that the Secretary's guidance and decisions are implemented 
properly.
    Question. The Secretaries of the Military Departments.
    Answer. The USD(P) works closely with the Secretaries of the 
Military Departments on a broad range of issues, including defense 
strategy and policy development, force planning and other areas in 
which the Military Departments are critical stakeholders.
    Question. The Service Chiefs.
    Answer. The USD(P) works closely with the Service Chiefs on a broad 
range of issues, including defense strategy and policy development, 
force planning and other areas in which the Military Departments and 
Services are critical stakeholders.
    Question. The General Counsel of the Department of Defense (DOD).
    Answer. The USD(P) works closely with the General Counsel on all 
policy issues that involve a legal dimension. In practice, this means 
significant and regular coordination on a broad range of issues.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. As the principal military advisor to the Secretary of 
Defense, the President and the National Security Council, the Chairman 
has a unique and critical military role. The USD(P) works closely with 
the Chairman and Vice Chairman to support the efforts of the Secretary 
and Deputy Secretary in providing for the strategic direction of the 
Armed Forces, and to ensure that military advice is taken into account 
in an appropriate manner.
    Question. The Commanders of the Regional and Functional Combatant 
Commands.
    Answer. The USD(P) works closely with the Regional and Functional 
Combatant Commanders to support the efforts of the Secretary and Deputy 
Secretary, particularly in the areas of regional and functional 
strategy and policy, contingency planning and policy oversight of 
operations.
    Question. The Director, Defense Security Cooperation Agency.
    Answer. The USD(P) exercises authority, direction, and control over 
the Director of the Defense Security Cooperation Agency (DSCA). The 
Policy organization works closely with DSCA to provide the Secretary 
with advice and recommendations on the full range of security 
cooperation issues facing the Department.
                         duties of the usd(p):
    Question. Section 134 of title 10, U.S.C., provides that the USD(P) 
shall assist the Secretary of Defense in preparing written policy 
guidance for the preparation and review of contingency plans, and in 
reviewing such plans. Additionally, subject to the authority, direction 
and control of the Secretary of Defense, the Under Secretary shall have 
responsibility for supervising and directing activities of DOD relating 
to export controls. Further, subject to the authority, direction and 
control of the Secretary of Defense, the USD(P) is responsible for 
overall direction and supervision for policy, program planning and 
execution, and allocation and use of resources for the activities of 
DOD for combating terrorism.
    DOD Directive 5111.1 reiterates these duties and specifically notes 
that the USD(P) is the principal staff assistant and advisor to the 
Secretary of Defense and the Deputy Secretary of Defense for all 
matters on the formulation of national security and defense policy and 
the integration and oversight of DOD policy and plans to achieve 
national security objectives.
    What is your understanding of the duties and functions of the 
USD(P) under current regulations and practices?
    Answer. If confirmed, I will perform the duties set forth in title 
10 and the DOD Directive. The USD(P) serves as the principal staff 
assistant and advisor to the Secretary and Deputy Secretary of Defense 
for all matters concerning the formulation of national security and 
defense policy as well as the integration and oversight of DOD policy 
and plans to achieve national security objectives. Specifically, the 
USD(P) directly supports the Secretary of Defense in the interagency 
process, dealings with foreign counterparts, developing strategy and 
planning guidance for the PPBE process, providing policy oversight of 
current operations, and guiding the development and review of 
contingency plans. He, or she, is the Secretary's principal policy 
advisor on the use of the U.S. military and its adaptation for future 
missions.
    Question. What is your understanding of the responsibilities of the 
USD(P) in combating terrorism, in particular as differentiated from 
those of the Assistant Secretary of Defense for Special Operations and 
Low Intensity Conflict?
    Answer. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict (ASD/SOLIC) functions under the authority, 
direction, and control of the USD(P) in combating terrorism. More 
broadly, the ASD SO/LIC is defined in title 10 as the principal 
civilian adviser to the Secretary of Defense on special operations and 
low intensity conflict matters.
    Question. Assuming you are confirmed, what additional duties and 
functions do you expect that the Secretary of Defense would prescribe 
for you?
    Answer. If confirmed, I will discuss with Secretary Panetta how the 
OSD Policy organization and I can best support him, including whether 
there are any duties and functions he would prescribe beyond those set 
forth in section 134(b) of title 10, and the DOD Directive for USD(P). 
At this time, I have not identified any such additional duties and 
functions.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. During the past 3 years, I have been honored to serve as 
the Principal Deputy Under Secretary of Defense for Policy (PDUSDP). In 
that capacity, I served as the principal staff assistant to the USD(P), 
and provided advice and assistance to the Secretary of Defense and 
Deputy Secretary of Defense on all matters concerning the formulation 
of national security and defense policy, and the integration and 
oversight of DOD policy and plans to achieve national security 
objectives. This work included the full scope of defense policy issues, 
including both urgent operational challenges (e.g., developing policy 
for Afghanistan and ways to counter Iran's nuclear program), and 
setting policy to shape the force of tomorrow (e.g., crafting the 
Quadrennial Defense Review and Nuclear Posture Review, concluding the 
New START treaty, developing new DOD strategic guidance, and setting 
policy and prioritizing investments in new technologies including cyber 
capabilities).
    Prior to my position as PDUSDP, I spent 25 years working on a wide 
range of defense and national security issues, both in and out of 
government. I had the honor to work for the late Les Aspin for 4 years 
as a professional staff member of the House Armed Services Committee, 
where I was responsible for both policy and procurement issues. I was 
privileged to serve for over 3 years as Deputy Assistant Secretary of 
Defense for Requirements, Plans and Counterproliferation Policy, where 
my office led defense planning, oversight of war plans, and efforts to 
improve the military's ability to cope with weapons of mass 
destruction. During my time outside of government, I have had the 
opportunity to teach and conduct research on national security issues, 
to establish and lead a private sector group that provided consulting 
services to DOD, and to serve in a leadership position for a then 
newly-established national security think tank. In addition, I have 
served on a number of studies and panels including as an advisor to the 
Defense Science Board, and as an expert to the Commission on the 
Strategic Posture of the United States. I believe that my substantive 
expertise and experience would allow me to serve the country well if 
confirmed as USD(P).
                         contingency planning:
    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning. The USD(P) is specifically directed to assist the 
Secretary of Defense in preparing written policy guidance for the 
preparation and review of contingency plans and in reviewing such 
plans.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. The role of civilian leadership is not only statutorily 
mandated, but critical in the formulation of defense strategy and 
planning. Civilian defense leadership is particularly vital in 
translating broad national security policies and principles into the 
strategic ends that ultimately drive military planning.
    More specifically, the USD(P) supports the development of the 
President's National Security Strategy, leads the development of the 
defense strategy, establishes realistic objectives and guidance to form 
the basis for contingency planning, and reviews DOD plans and programs 
to ensure they support strategic objectives. In addition to the 
provision of written guidance, an important civilian leadership role is 
to review contingency plans submitted for approval by the combatant 
commanders. The USD(P) is also responsible for facilitating interagency 
coordination on contingency planning efforts, as necessary.
    Question. In your opinion, does the civilian leadership currently 
have an appropriate level of oversight of strategy formulation and 
contingency planning?
    Answer. I believe that the current level of civilian oversight of 
strategy formulation and contingency planning is appropriate.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of strategy formulation and 
contingency planning?
    Answer. DOD should continue to fortify its capacity for strategic 
thinking and strategic planning to ensure that it not only deals with 
the challenges of today but is also well prepared for those of 
tomorrow.
    The recently released DOD strategic guidance is evidence that the 
Department thinks critically about strategy formulation and its 
associated resource implications--a trend that, if confirmed, I will 
continue to work to reinforce. If confirmed, I would also continue to 
strive to provide the best advice possible to the Secretary of Defense 
in fulfilling his responsibility to provide written policy guidance and 
to review contingency plans. Finally, I would coordinate closely with 
the Joint Staff to develop further opportunities to collaborate on 
planning guidance and reviews.
                    major challenges and priorities
    Question. In your view, what are the major challenges confronting 
the USD(P)?
    Answer. If confirmed as USD(P), I look forward to playing an 
important role within the Department and the interagency process in 
developing policy in a number of key areas, including: defeating al 
Qaeda and countering the continuing threat of violent extremism; 
transitioning security responsibility in Afghanistan in a way that 
protects U.S. vital interests; preventing the proliferation of weapons 
of mass destruction, particularly in the cases of Iran and North Korea; 
strengthening alliances and partnerships globally to further strengthen 
U.S. and international security; maintaining stability in Asia and 
other key regions; advancing U.S. interests in the context of dramatic 
changes that have unfolded and are unfolding in the Middle East and 
North Africa; continuing to strengthen the U.S. defense posture 
globally, as well as in cyberspace and outer space; and most 
importantly, ensuring that the United States and its vital interests 
are secure from attack (this requires continued effort in all of the 
above-noted areas, as well as sustaining the U.S. nuclear deterrent, 
missile defenses, and homeland defense capabilities). A key challenge 
will be to support the Secretary of Defense and the U.S. Government in 
resolving these and other issues--and pursuing opportunities--in the 
context of significant fiscal pressures.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would address these challenges by 
undertaking the development and implementation of both DOD and 
interagency strategies, policies and plans for key regional and 
functional issues. I would continue to work closely with other 
components of DOD in support of the Secretary of Defense, as well as 
our interagency partners, U.S. allies and partners, and where 
appropriate the private sector and non-governmental organizations. I 
would seek to ensure that strategies, policies, and plans are updated 
as needed to reflect new challenges and new opportunities. I would work 
to support the President and Secretary's guidance to shape a Joint 
Force for the future that will be smaller and leaner, but will be 
flexible, agile, ready, and technologically advanced. I would work with 
counterparts in other agencies and across the Department to rebalance 
towards the Asia-Pacific region and place a premium on the Middle East, 
while remaining the security partner of choice across the globe.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the USD(P)?
    Answer. If confirmed, I would work to ensure that DOD pursues a 
strategic and balanced approach consistent with the recently-released 
Defense strategic guidance. Top priorities would include addressing the 
challenges listed in my answer to previous question, including 
defeating al Qaeda, ensuring the success and effective transition of 
the mission in Afghanistan, preventing Iran from acquiring a nuclear 
weapon, and protecting the U.S. Homeland. Continuing to strengthen our 
Alliances and partnerships, and ensuring that the United States engages 
through forward presence and is the partner of choice globally, will be 
a key priority. I would also ensure a strong connection between 
strategy and resources--making disciplined decisions based on our 
priorities--and ensure effective working relationships with both 
military and civilian counterparts through the Department and with our 
Federal departments and agencies.
                department of defense strategic guidance
    Question. The new DOD strategic guidance, ``Sustaining U.S. Global 
Leadership: Priorities for 21st Century Defense,'' announced by 
President Obama on January 5, 2012, sets out the defense priorities for 
the 21st century and the key military missions for which the DOD will 
prepare.
    As Principal Deputy USD(P), what role did you play in the 
preparation of the new DOD Strategic Guidance?
    Answer. The strategic guidance was deeply informed by the 
Department's most senior civilian and military leadership. As the 
Principal Deputy USD(P), I provided advice and assistance to the 
Secretary of Defense, Deputy Secretary, and USD(P), and worked closely 
with other civilian and military components including the Joint Staff. 
More specifically, I participated actively in the conceptualization and 
writing of the guidance, including the description of the projected 
security environment, the key military missions for which DOD must 
prepare, and prioritization of the key capabilities associated with 
succeeding at those military missions.
    Do you agree with the defense priorities set out in that guidance? 
What changes, if any, would you recommend to those defense priorities?
    Answer. I agree with the defense priorities set out in the 
guidance, and would not recommend any changes at this time. Like all 
strategies and guidance, I believe that it will be important to review 
and update this guidance in the future.
                          afghanistan strategy
    Question. Do you support the counterinsurgency strategy for 
Afghanistan? In your view, is that the right strategy?
    Answer. Yes, I support the strategy that the President has set 
forth and that we are now implementing, and I believe it is the right 
strategy. A focused counterinsurgency campaign, with a transition plan 
that includes an enduring U.S. commitment to Afghanistan, will allow us 
to help the Afghans build security forces and government capacity that 
can provide the security necessary for an Afghanistan that does not 
again become a safe haven for terrorists.
    Question. If confirmed, are there changes you would recommend to 
the U.S. strategy in Afghanistan?
    Answer. As I have testified recently to the Senate and House Armed 
Services Committee, I believe that the U.S. strategy in Afghanistan is 
sound. I also believe that, over time, the administration should 
continue to assess and adjust as necessary its implementation of the 
overall strategy based on conditions on the ground, and am committed to 
consulting with Congress, and with our allies and partners in this 
regard.
    Question. Do you support the President's decision to withdraw the 
33,000 U.S. surge forces from Afghanistan by the summer of this year?
    Answer. Yes. I support a responsible, conditions-based drawdown as 
called for by the President. We have already withdrawn the first 10,000 
surge forces, and the remaining 23,000 will be home by the end of 
September. The key to success in Afghanistan is the ability of Afghan 
National Security Forces to provide security. Our surge has allowed the 
Afghans to build up a more capable force, and set conditions for 
reducing our forces as planned.
    Question. Do you believe that timetable should be accelerated?
    Answer. No. I believe that the planned timetable to withdraw the 
remaining 23,000 surge troops is appropriate.
    Question. If confirmed, what changes, if any, would you recommend 
to our strategy in Afghanistan as a result of the drawdown of U.S. 
forces?
    Answer. I believe that the U.S. strategy for Afghanistan is sound, 
and do not recommend any changes at present. I believe that the 
strategy for Afghanistan (and other strategies and plans) should be 
regularly assessed, and adjustments made as necessary.
    Question. On March 11, 2012, 16 Afghan civilians, including women 
and children, were killed in a village near Kandahar, allegedly by a 
U.S. soldier acting alone. A few days later, it was reported that the 
Taliban suspended preliminary peace talks with the United States and 
decided not to open a political office in Doha. In addition, President 
Hamid Karzai called for all NATO forces to withdraw from Afghan 
villages and remain in major bases.
    What is your assessment of the impact of the civilian killings and 
of the February 22, 2012, incident involving burning of Qurans on the 
ability of ISAF to carry out its mission?
    Answer. These incidents created near-term challenges and likely 
increased risks to U.S., coalition, and Afghan forces in some areas of 
Afghanistan. However, although tragic and unfortunate, these were 
isolated incidents, and are not indicative of the state of the 
campaign. As President Obama stated on March 15, 2012, after speaking 
with President Karzai, the United States remains committed to 
completing the process of transition and Afghan National Security 
Forces taking full responsibility for security across the country by 
the end of 2014.
    Question. What is your assessment of the impact of these incidents 
on the U.S. strategy in Afghanistan and the planned withdrawal of U.S. 
surge forces from Afghanistan?
    Answer. My assessment is that these incidents should not affect 
U.S. strategy or the planned withdrawal of U.S. surge forces from 
Afghanistan.
                         afghanistan transition
    Question. Do you support the goal of transitioning lead 
responsibility for security throughout Afghanistan to the Afghan 
security forces by 2014?
    Answer. Yes. Transition is progressing on a positive track. The 
first two tranches of transition are being implemented, and 
approximately 50 percent of the Afghan population now lives in areas 
where the Afghans have the lead for security. We expect the third 
tranche to be announced in spring 2012, and the fifth and final tranche 
in mid-2013. We are finding that Afghan forces are able to provide 
effective security in transition areas.
    Question. In your view, what are the main challenges to the success 
of the transition to an Afghan security lead throughout Afghanistan by 
2014?
    Answer. Safe havens for insurgents in Pakistan and Afghan capacity 
in the governance and development areas remain the most challenging 
aspects of transition. The limited capacity of the Afghan Government to 
govern effectively and to fill government positions at the national and 
sub-national levels hinders the ability to assume leadership on these 
lines of operation. Efforts in these areas must underpin the success of 
the security transition in the effort to achieve durable stability in 
Afghanistan.
    Question. What measures are being taken, following the murders of 
U.S. and NATO soldiers last month, to protect NATO and U.S. trainers 
working with Afghan security forces?
    Answer. General Allen took some immediate steps after these 
incidents, including removing U.S. personnel from ministries until 
their security could be ensured in light of lessons learned from these 
incidents. The Afghan Government is working to increase their 
counterintelligence and biometric capability. We are also undertaking 
additional steps, such as increasing cultural awareness training for 
trainers and advisors, as part of the security force assistance 
strategy.
                  afghanistan national security forces
    Question. What is your assessment of the progress in developing a 
professional and effective Afghan National Security Force (ANSF)?
    Answer. ANSF operational effectiveness is improving and the ANSF 
are demonstrating increasing capability. Currently, 13 of 156 ANA 
Kandaks or Battalions have the highest possible rating, ``Independent 
with Advisors.'' However, the more critical measure is the number of 
units rated at ``Effective with Advisors'' and ``Effective with 
Partners,'' which are the levels necessary to support transition. Since 
December 8, 2011, the percentage of ANA units rated as ``Effective with 
Partners'' or higher grew from 85 percent to 91 percent. Although the 
ANSF are currently not ready to operate independently of ISAF in most 
areas, they are assuming an ever increasing leadership role in 
operations across Afghanistan, and are on schedule to meet the 2014 
goal for transition of security responsibility to the Afghan 
Government.
    Question. What do you see as the main challenges to building the 
capacity of the Afghan National Army and Afghan National Police to be 
able to assume lead security responsibility by 2014?
    Answer. A first challenge is to continue to build out the full 
complement of 352,000 ANSF, and to continue to improve the quality, 
readiness, and performance of these forces. We need to continue ongoing 
programs to expand ANSF literacy, and continue to provide financial and 
advisory support to the institutional training centers and existing 
Afghan training cadres that are currently building leadership and 
technical capacity of both the Army and the Police. A second challenge 
is for the ANSF to develop a greater capacity for critical enablers, 
including logistics support; mobility (e.g., rotary wing); 
intelligence, surveillance, and reconnaissance; and operational 
planning. Third and most broadly, the ANSF must continue building its 
self-confidence through operational success in taking the lead 
responsibility for securing transitioned areas and protecting the 
Afghan people.
    Question. If confirmed, what recommendations, if any, would you 
make for addressing those challenges?
    Answer. If confirmed, I would continue current efforts to simplify 
and accelerate the distribution of ANSF goods and services, support the 
continued provision of U.S. enabler support as a bridging strategy, and 
continue the mentoring of Afghan leadership training and education 
programs.
    Question. What do you see as the main challenges to sustaining the 
ANSF through 2014 and beyond, and if confirmed, what recommendations, 
if any, would you make for addressing these challenges?
    Answer. A sustained and well-organized international effort to 
train, advise, and assist the ANSF will be critical to their success 
both before and after transition in 2014. Building ANSF ``enabler'' 
capacity, as noted in my answer to a preceding question, will also be 
critical. Continued improvement in the functioning of the Ministries of 
Defense and Interior, including sustained progress in fighting waste 
and corruption will be essential. The United States and other coalition 
partners must continue to provide the requisite fiscal and personnel 
support. Maintaining the international community's support for the ANSF 
through 2014 and beyond is essential. We have worked with other U.S. 
Government departments and agencies to develop a focused international 
engagement strategy leading up to the NATO Summit in Chicago in May. 
The Chicago Summit will serve as a key milestone in solidifying the 
international community's long-term support and commitment to the ANSF, 
first established in Lisbon and reaffirmed in Bonn, through 2014 and 
beyond.
                    u.s. relationship with pakistan
    Question. What is your assessment of the current U.S.-Pakistan 
security relationship?
    Answer. Our relationship with Pakistan is challenging but critical 
to our national security and our regional interests. Over the past 
year, the relationship has suffered a number of setbacks and, until 
recently, our relationship has been nearly frozen. We look forward to 
working with Pakistan to define and develop a more constructive and 
durable relationship once Pakistan's parliamentary review process 
concludes.
    Historically, the U.S. military-to-military relationship with 
Pakistan, like our overall relationship, has seen good and bad phases. 
However, we still have important shared objectives. A core U.S. 
national security goal is to disrupt, dismantle, and defeat al Qaeda 
and its affiliates to ensure that they do not find safe havens in 
Afghanistan and Pakistan, and to mitigate the threat to the United 
States, our allies, and interests abroad. Pakistan has suffered more 
than 11,000 military personnel killed or wounded and more than 30,000 
civilian casualities in recent years from terrorist actions. The 
Pakistani military is operating currently against some, but not all, 
militants that enable the safe havens, and we are committed to working 
with Pakistan to address this persistent threat. As President Obama has 
said, ``We have killed more terrorists on Pakistani soil than anywhere 
else, and that could not have been done without their cooperation.'' 
Pakistan also has a clear stake in Afghan stability and will be an 
important participant in the process that ultimately brings the 
conflict to a successful conclusion.
    Question. In your view, does the United States have a strategic 
interest in pursuing increased cooperation with Pakistan on 
counterterrorism or other security matters?
    Answer. Yes. I believe U.S. interests in the region and in Asia 
more broadly require a stable and constructive relationship with 
Pakistan wherein we can cooperate on matters of shared concern, such as 
counterterrorism. The fact that Pakistan is a state that possesses 
nuclear weapons and faces internal threats from extremist organizations 
adds to the importance of a continued relationship with Pakistan. It is 
in the U.S. interest for Pakistan to have a strong, civilian-led 
government and an open society, to live in peace and security with its 
neighbors, and to ensure its nuclear assets remain secure.
    President Obama recently stated, ``We will continue the work of 
devastating al Qaeda's leadership and denying them a safe haven.'' The 
conditions that allow the group to maintain its safe haven and 
regenerate--including its ability to capitalize on relationships with 
militant affiliates--can only be addressed through a sustained local 
presence opposed to al Qaeda. Therefore, we will defeat al Qaeda only 
through a sustained partnership with Pakistan. Greater Pakistani-U.S. 
strategic cooperation across a broad range of political, military, and 
economic pursuits will also be necessary to achieve the defeat of al 
Qaeda in Pakistan and Afghanistan as we work to change the conditions 
on the ground that give rise to safe havens.
    If confirmed, I will continue to support DOD's efforts in 
coordination with our interagency partners for a constructive and 
mutually beneficial relationship with Pakistan, aimed at advancing 
shared national security objectives.
                          the haqqani network
    Question. The Haqqani network, which has been linked to a number of 
deadly attacks on Afghan, U.S., and other coalition forces in 
Afghanistan, operates from safe havens in Pakistan. It has been 
repeatedly alleged that the Pakistan intelligence agency, the Inter-
Services Intelligence (ISI), provides support to the Haqqani network.
    What is your understanding of the rules of engagement for U.S. 
troops in Afghanistan who are subjected to cross-border attacks from 
Haqqani or other insurgent forces on the Pakistan side of the 
Afghanistan-Pakistan border?
    Answer. My understanding is that U.S. forces in Afghanistan are 
authorized to act in self-defense when they are under attack. I also 
understand that ISAF and CENTCOM are working with the Pakistanis to 
improve cross-border coordination and have conducted several tripartite 
meetings with Afghan and Pakistani security forces in recent months.
    Question. Do you agree that it is essential, if U.S.-Pakistan 
relations are ever to be normalized, that Pakistan eliminate its 
support for the Haqqani network and denounce the cross-border attacks 
conducted by the Haqqanis and other insurgents against Afghan and 
coalition forces in Afghanistan? Why or why not?
    Answer. The ability of violent extremist groups to find support and 
safe haven in Pakistan poses a significant threat to U.S. forces, the 
NATO mission, and the long-term stability of Afghanistan. Attacks 
against U.S. and coalition personnel are unacceptable. It is Pakistan's 
responsibility to prevent attacks from its territory on others, 
including Afghanistan and U.S. forces there. If Pakistan does not 
address these threats, the United States will have to consider a range 
of options, but it is best when we have Pakistan's cooperation. 
Pakistan has legitimate concerns that should be understood and 
addressed, if possible, by the Afghan Government in any process to 
bring about a stable and durable political solution in Afghanistan. But 
Pakistan also has responsibilities of its own, including taking 
decisive steps to ensure that the Afghan Taliban and affiliated 
organizations, including the Haqqani network, cannot continue to 
conduct the insurgency from Pakistani territory.
    Increased Pakistani action is particularly critical with respect to 
groups such as the Haqqani network, which continues to maintain close 
ties to al Qaeda and other violent extremist organizations that pose 
real threats to the United States, and indeed to the people and 
Government of Pakistan. In my view, we should continue to work closely 
with Pakistan to encourage it to act against extremists, including the 
Haqqani network, and extremist safe havens that threaten U.S. and 
Pakistani security, and works toward a stable, peaceful, and prosperous 
region.
                      u.s. assistance to pakistan
    Question. The United States has provided significant military 
assistance to Pakistan, including foreign military financing and 
training and equipment through the Pakistan Counterinsurgency Fund 
(PCF) to build the capacity of the Pakistan Army and Frontier Scouts to 
conduct counterinsurgency operations.
    In your view, should the provision of U.S. military assistance to 
Pakistan be conditioned on the Government of Pakistan, including the 
Pakistan military, providing greater cooperation to the United States 
on counterterrorism efforts?
    Answer. In my view, our current capacity-building programs with the 
Pakistan military and paramilitary forces have been an important 
component in improving the Pakistan military's counterterrorism and 
counterinsurgency capabilities in order for Pakistan's military to 
fight extremists whose safe havens enable terrorists that threaten the 
United States. Our assistance has also helped to improve cross-border 
coordination. Going forward, it is vital that Pakistan live up to its 
responsibilities, including to cooperate fully in counterterrorism 
matters, and to expand its counterinsurgency campaign against all 
extremists and militant groups that have found safe haven inside 
Pakistan. In the wake of the Osama bin Laden raid, the administration 
asked Pakistan to take a number of concrete steps to demonstrate its 
continued commitment to a cooperative and mutually beneficial 
relationship. Future provision of security-related assistance will be 
informed by Pakistan's response to these requests and to the overall 
restart of our relationship in the wake of the November 26, 2011, 
cross-border incident that resulted in the deaths of 24 Pakistan Army 
soldiers. If confirmed, I will work with Congress to ensure that the 
support the United States provides to Pakistan yields the results we 
seek.
                                  iraq
    Question. President Obama has said that the December 31, 2011, 
withdrawal of all U.S. military forces from Iraq marked the beginning 
of a ``new chapter'' in the U.S.-Iraq relationship.
    What in your view are the highest priorities for the U.S.-Iraq 
security relationship going forward?
    Answer. Developing a long-term security relationship with Iraq, as 
part of a broader enduring commitment to regional peace and security, 
is one of our highest priorities. This relationship should include 
consultation on regional security issues, and the continued development 
of appropriate Iraqi military capabilities.
    The Office of Security Cooperation-Iraq (OSC-I) is a foundation for 
our military-to-military ties with Iraq. OSC-I is under Chief of 
Mission authority, and administers security assistance programs and 
conducts security cooperation activities with the Iraq Security Forces.
    Question. What do you see as the greatest challenges facing the 
Department with regard to our security relationship with Iraq and, if 
confirmed, how would you recommend meeting those challenges?
    Answer. Ensuring Iraq's integration into the regional security 
framework will remain an important task. We will continue to work to 
strengthen our military-to-military ties with Iraq through security 
cooperation activities, while helping to expand Iraq's military 
engagement with key regional partners.
    If confirmed as the USD(P), I will co-chair the Defense and 
Security Joint Coordination Committee, established under the Strategic 
Framework Agreement, and will continue efforts to strengthen bilateral 
relations. We will seek to bolster the U.S.-Iraq defense partnership on 
a wide array of security-related matters.
                                  iran
    Question. The President said: ``America is determined to prevent 
Iran from getting a nuclear weapon, and I will take no option off the 
table to achieve that goal.''
    Do you agree that we should leave all options on the table with 
respect to Iran? If so, why? If not, why not?
    Answer. Yes, I agree. As the President said, in ensuring that Iran 
does not obtain a nuclear weapon, we are using all elements of national 
power to encourage Iran to make a choice to meet its international 
obligations and rejoin the community of nations, or face severe and 
growing consequences if it continues to violate its obligations. This 
includes a political effort aimed at isolating Iran, a diplomatic 
effort to sustain our coalition and ensure that the Iranian program is 
monitored, an economic effort that imposes crippling sanctions, and a 
military effort to be prepared for any contingency. I believe that 
sanctions are beginning to have an impact.
    Sanctions and political pressures are having an effect on Iran, and 
Iran is not on the verge of achieving a nuclear weapon. Therefore, 
there is time and space to pursue diplomacy, backed by pressure. At the 
same time, all options including the use of military force should 
remain on the table, to increase pressure on Iran and improve the 
prospects of diplomacy, and to be prepared to take action should 
diplomacy not succeed.
    Question. In your view, what should be the role of DOD, and the 
USD(P) in particular, for advancing the President's policy with respect 
to Iran?
    Answer. The role of the Department and the Under Secretary is to 
provide the Secretary of the Defense and the President sound policy 
advice and prudent planning, in coordination with military 
counterparts, to ensure that the President has the best available 
options to meet U.S. policy objectives regarding Iran.
    The Defense Department plays a supporting role to the Department of 
State and Department of the Treasury in increasing pressure on Iran, 
and a central role in reassuring our regional partners and preparing 
for all possible contingencies.
    The Defense Department supports State and Treasury's efforts to 
isolate Iran diplomatically, regionally and globally, and to impede its 
ability to advance its nuclear and ballistic missile programs in 
violation of United Nations Security Council Resolutions. Building upon 
this, the Office of the USD(P) is working with partners to counter 
Iran's efforts to destabilize the region, especially following the Arab 
Spring.
    DOD has invested substantially in and deepened our defense 
partnerships in the region, building a robust regional security 
architecture that blunts Iran's ability to threaten and coerce its 
neighbors.
    We have enhanced our significant and enduring U.S. force presence 
in the region and we have worked to develop a network of air and 
missile defenses, shared early warning, improved maritime security, 
closer counterterrorism cooperation, expanded programs to build partner 
capacity, and increased efforts to harden and protect our partners' 
critical infrastructure. We have conveyed clearly our commitment to 
protecting maritime freedoms that are the basis for global prosperity; 
this is one of the main reasons our military forces operate in the 
region.
    These efforts have reassured our partners in the region. They 
demonstrate unmistakably to Tehran that any attempt to dominate the 
region will be costly and futile.
    Taken together, the Department contributes to the administration's 
multi-dimensional approach to ensure that the President is in a 
position where he can employ any option--or the full range of options--
as we continue to ratchet up the pressure and price for Iran's 
intransigence.
                                 syria
    Question. The situation in Syria continues to deteriorate on a 
daily basis and--absent international action--President Bashar al Assad 
appears intent on staying in Syria and continuing his brutal crackdown 
on the Syrian people.
    What is your assessment of the situation in Syria?
    Answer. As the Secretary said in his statement to this committee 
earlier this month, the tragedy in Syria has justifiably evoked the 
concern and outrage of the United States government, the American 
people and much of the world. I agree with the President, the 
Secretary, and a broad cross-section of the international community who 
have stated unequivocally that Bashar al-Assad must halt his campaign 
of killing and crimes against his own people now, step aside and allow 
a democratic transition to proceed immediately.
    Question. What role, if any, should the United States play in 
developing international consensus on a path forward in Syria?
    Answer. The situation in Syria demands an international response. 
The United States has been leading efforts within the international 
community to pressure Assad to stop his violence against the Syrian 
people and to step aside.
    The administration's focus is on translating that international 
consensus into action along four tracks:

    1.  We are working to increase the diplomatic and political 
isolation of the Assad regime and encourage other countries to join the 
United States, the European Union, and the Arab League in imposing 
sanctions on the regime.
    2.  We are providing emergency humanitarian assistance to the 
Syrian people, with a total commitment to date of $12 million.
    3.  We are working closely with the Friends of the Syrian People 
group (70 countries and the Syrian National Council) to try to 
encourage the various opposing groups to unify and lay groundwork for a 
peaceful, orderly transition to a democratic government that recognizes 
and respects the rights of all Syrians--including minorities.
    4.  DOD is developing options that can be executed, as directed by 
the President. These options address a range of potential contingencies 
related to instability in Syria, including the provision of 
humanitarian assistance.

    We are reviewing additional steps that can be taken with our 
international partners to help protect the Syrian people, end the 
violence, and ensure regional stability.
              yemen and al qaeda in the arabian peninsula
    Question. Prior to the current political crisis in Yemen, the U.S. 
Government had a robust security assistance program to help the Yemeni 
security forces take action against al Qaeda in the Arabian Peninsula 
(AQAP). Some observers, while supportive of U.S. security assistance to 
Yemen, have suggested that the problems being confronted by the 
Government of Yemen cannot simply be addressed with the provision of 
additional security assistance.
    What is your assessment of the security situation in Yemen?
    Answer. The United States and Yemen face a common enemy in al 
Qaeda. Recent AQAP attacks against the Yemeni Government demonstrates 
AQAP's determination to undermine the security situation and disrupt 
Yemen's ongoing democratic transition. We must continue to work with 
President Hadi and the national unity government to sustain the 
pressure against AQAP and deny it a safe-haven and an operational 
platform.
    Question. What criteria would you use in determining whether 
security assistance and associated training activities in Yemen should 
resume?
    Answer. Last year, the administration temporarily postponed the 
transfer of lethal security assistance to Yemen in response to the 
unstable political and security conditions. Since then, the situation 
in Yemen has improved, and the new Yemeni Government has met key 
benchmarks in their democratic transition process. The new Yemeni 
leaders held successful presidential elections to replace Ali Abdullah 
Saleh, and they have demonstrated a commitment to confronting al Qaeda. 
In addition, they are preparing to reform their constitution and 
reorganize their military. DOD has been working with the Department of 
State to re-assess our Yemeni partner units and, thus far, we have not 
found any evidence that Yemeni units that have received or are slated 
to receive security assistance have committed human rights violations. 
The administration has therefore agreed to resume the transfer of 
lethal security assistance on a case-by-case basis to support units in 
the Yemeni Armed Forces that are actively engaged in the fight against 
al Qaeda. As part of our longstanding commitment to guard against 
potential human rights abuses, the administration will continue to 
monitor assistance to ensure it serves its intended purpose.
    Question. Given the current policy limitations on lethal security 
assistance to the Yemeni counterterrorism forces, what is your 
assessment of the U.S. strategy to counter AQAP in Yemen?
    Answer. Throughout the political instability of the past year, we 
have maintained a strong working relationship with Yemeni 
counterterrorism (CT) forces. Although we scaled back some U.S. 
security assistance, we have still been able to collaborate on a number 
of operational issues that have degraded AQAP and disrupted its 
external plotting. In response to the relatively successful political 
transition in Yemen, the administration has decided to resume and 
expand U.S. security assistance with the goal of helping the Yemeni 
Government better combat AQAP and secure its territory.
    Question. As AQAP continues to gain territory in Yemen, some 
observers have argued that the United States should assist the Yemeni 
Government reverse these territorial gains. Others view the territorial 
gains by AQAP as part of an insurgency and that any effort to confront 
AQAP should be led and conducted by the Yemenis with limited--if any--
assistance from the United States.
    What are your views on the proper role of the United States in 
Yemen?
    Answer. In my view, the United States should continue to work with 
the Yemeni Government on combating AQAP, which poses a threat to both 
U.S. and Yemeni security. This includes building Yemeni capacity to 
counter AQAP and deny safe havens, collecting intelligence on AQAP and 
the threat it poses, undermining AQAP's message, and, when necessary, 
conducting combined operations against the group. AQAP has recently 
made some territorial gains in Yemen, and many in the organization 
desire to attack the United States and our allies and interests. 
Therefore, it is in the interest of the United States to ensure that 
the group is not able to succeed in any way.
    Question. In your view, should U.S. interests be limited to those 
individuals in AQAP that are seeking to conduct external operations 
against the United States and our interests or should the United States 
assist the Yemeni Government to confront this insurgency?
    Answer. AQAP poses a sustained threat to the U.S. Homeland, and our 
allies and partners defeating AQAP is the top CT priority for the 
Arabian Peninsula. We should give top priority to preventing AQAP's 
external attacks, but we cannot let AQAP seize territory and establish 
a safe haven within Yemen. I believe that the United States should 
continue to assist the Yemeni Government in confronting the group, and 
continue to help build Yemeni security capacity so that the Yemeni 
Government can eventually disrupt, dismantle, and defeat AQAP with only 
limited U.S. involvement.
                                  nato
    Question. In your view, how important is the North Atlantic Treaty 
Organization and the U.S. transatlantic relationship with our Alliance 
partners to U.S. national security interests?
    Answer. NATO remains of vital importance, and has become a net 
provider of global security. As President Obama has said, ``Europe 
remains the cornerstone of our engagement with the world,'' and NATO is 
``the most capable Alliance in history.''
    The transatlantic relationship is of critical importance to U.S. 
national security, and the transatlantic community has never been more 
closely aligned in confronting the challenges of a complex, dangerous, 
and fast-changing world. For example, in Libya, NATO allies came 
together with Arab and other partners to prevent a humanitarian 
catastrophe, and to support the Libyan people. In Afghanistan, with 
nearly 40,000 allied and partner forces alongside our own, we have 
built and sustained NATO's largest-ever overseas deployment. As Iran 
has continued to defy its obligations pursuant to U.N. Security Council 
resolutions, the United States, Europe, and other partners have put in 
place the toughest sanctions yet.
    Question. What are the greatest challenges and opportunities that 
you foresee for NATO over the next 5 years?
    Answer. The United States has important stakes in a strong, 
mutually supportive NATO Alliance, and the President has stressed his 
strong desire to rebuild and adapt transatlantic security relationships 
to meet 21st century security challenges. NATO's new Strategic Concept 
is an important step in ensuring that NATO will continue to play its 
unique and essential role in ensuring the common security of its 
members, and it will guide the next phase in NATO's evolution.
    Over the next 5 years, the top NATO-related challenges include 
achieving durable progress and a successful transition in Afghanistan, 
implementing missile defense in Europe, and stemming the deterioration 
in European military capability. Many of our NATO allies have been 
underperforming in terms of their own investments in defense 
capabilities, especially when it comes to deployable expeditionary 
forces. Many have significantly reduced their national defense budgets 
in response to the global economic crisis, and some are planning 
further cuts. A key challenge--and a key opportunity--will be for 
allies to determine which capabilities must be sustained, and how that 
can be done in a more cost effective manner.
    Question. Do you envision further enlargement of NATO within the 
next 5 years?
    Answer. I agree with the President's statement that NATO 
enlargement should continue so long as new candidates are democratic, 
peaceful, and willing to contribute to common security. Which countries 
would be candidates for further engagement and within what timeframe 
NATO would undertake further enlargement are important questions the 
administration would need to address in close consultation with 
Congress and our allies. Each NATO aspirant should be judged on its 
individual merits and progress in implementing political, economic, and 
military reforms.
    Question. In your view, what should the United States do to ensure 
that NATO has the resources and capabilities necessary to carry out its 
missions in Afghanistan and elsewhere?
    Answer. As Secretary Panetta has made clear, our NATO allies need 
to do more for security despite the financial crisis. Europe should not 
expect the United States to shoulder a disproportionate share of the 
burden.
    In my view, the United States should continue to encourage our 
European allies to reinvest the savings in operational costs that will 
result from transition in Afghanistan in 2014 into the defense 
capabilities that NATO will need in 2020 and beyond. We should also 
continue to encourage Europe to pool defense resources and share 
capabilities in order to get the most from scarce defense resources. In 
addition, the United States should continue to place emphasis on 
combined training, exercises, and military cooperation, as well as on 
new capabilities, such as missile defense.
    In my view, the United States should sustain a central role in 
NATO, and help the Alliance prepare for 21st century challenges. This 
includes, for example, the allocation of a U.S.-based brigade to the 
NATO Response Force, and the rotation of U.S.-based units to Europe for 
training and exercises with NATO counterparts to ensure strong links 
and interoperability. It should also include continued European Phased 
Adaptive Approach efforts--the United States has already established a 
radar system in Turkey, we will be stationing SM-3 defensive 
interceptor missiles in Romania and Poland, and we will be forward-
deploying four BMD-capable ships to Rota, Spain in fiscal year 2014. As 
additional examples, I believe that we should continue as the framework 
nation of the NATO Special Operations Forces Headquarters; and in 
Poland, we should move forward with plans to create an aviation 
detachment for enhanced training.
    Question. In your view, should NATO consider an expanded role for 
Israel within the organization?
    Answer. Israel is an active and valued partner of NATO through the 
Alliance's ``Mediterranean Dialogue'' program, which includes practical 
cooperation as well as political dialogue, both bilaterally with NATO 
and multilaterally including the other six Partners in the 
Mediterranean Dialogue. The United States supports and encourages this 
partnership, and encourages other allies and partners to do so as well. 
The Mediterranean Dialogue includes an ``Individual Cooperation 
Program,'' developed between NATO and Israel, which outlines Israeli 
desires for engagement with NATO.
                                 russia
    Question. What is your assessment of the current U.S.-Russian 
security relationship?
    Answer. In September 2010, then-Secretary Gates and Russian 
Minister of Defense Serdyukov advanced the U.S.-Russia defense 
relationship by establishing the Defense Relations Working Group 
(DRWG). Through the DRWG and its eight sub-working groups, we engage 
with the Russian Ministry of Defense across a wide spectrum of 
cooperative defense activities--missile defense, defense technology, 
social welfare, training and education, as well as regional and global 
security, and defense policy. These efforts have helped us gain 
important insights into one another's defense establishments. 
Reciprocity is a key element of our engagement. Our defense 
relationship and our military-to-military activities are focused in 
part on helping Russia's efforts to reform its Armed Forces. We are not 
enhancing the combat capabilities of the Russian Armed Forces, but we 
believe strongly that a reformed Russian military is a positive goal 
worth pursuing.
    Cooperative Threat Reduction (CTR) cooperation continues to be a 
steady component of the U.S.-Russian relationship that has remained 
largely insulated from the broader peaks and troughs. Although the 
international agreement that governs our CTR cooperation with Russia 
(i.e., the CTR ``Umbrella Agreement'') is due to expire in June 2013, 
we look forward to an extension of that key agreement and a 
continuation of our work with Russia.
    Question. What do you believe are appropriate objectives for U.S.-
Russian security relations, and what do you believe are the areas of 
common interest between the United States and Russia in the security 
sphere?
    Answer. The United States and Russia should be able to cooperate 
effectively in the many areas for which we share common interests, and 
communicate effectively in areas where we have competing interests, and 
negotiate reasonably in areas where we have overlapping interests.
    Among the most important areas where the United States and Russia 
have common interests is in countering the proliferation of weapons of 
mass destruction, particularly nuclear weapons. We have had significant 
cooperation on Iran. The Russians cancelled a major weapons sale worth 
several hundred million dollars to Iran in 2010 and supported UNSCR 
1929, which imposed international sanctions on Iran's ballistic missile 
and nuclear programs. I believe that the United States should continue 
to actively seek Russian support for ensuring that Iran does not 
develop nuclear weapons. Similarly, Russia is a key player in reversing 
North Korea's nuclear and missile programs, and shares common interests 
in this regard. As a third key example, the Cooperative Threat 
Reduction Program has been and continues to be one of the most 
successful cooperation programs in the U.S.-Russia relationship. 
Finally, the United States and Russia share strong interests in 
reducing the likelihood of nuclear war, as reflected in the New START 
treaty, and prior treaties.
    Russia also has an interest in stability in Afghanistan. Our 
efforts in Afghanistan have benefited greatly from improved security 
relations with Russia. The Northern Distribution Network has been 
critical to continued operations given the closure of our Pakistan 
ground lines of communication. Russia allows our military personnel, 
supplies, and equipment to transit its territory by both air and rail 
and will soon allow for reverse transit of wheeled armored vehicles 
from Afghanistan. Russia has also been forward-leaning in identifying 
possible areas of cooperation on counternarcotics, and we have been 
engaging Russia to develop these ideas.
    The United States and Russia are two of many countries working 
together off the Horn of Africa to address the threat of piracy. 
Although Russia does not participate in ongoing multilateral counter-
piracy operations, it does share important information and work 
cooperatively with NATO and EU operations.
    Question. In your view what policy steps should DOD take to improve 
relations with Russia? For instance, would you support increased 
military to military relations and exchanges with Russia?
    Answer. DOD has been a proponent and a beneficiary of the reset 
with Russia. The OSD-MOD Defense Relations Working Group and the Joint 
Staff-General Staff Military Cooperation Working Group revived U.S.-
Russia defense and military relations from the low-point after the 
Russo-Georgia War.
    As a result, DOD has a robust military-to-military work plan and 
are constantly looking for ways to improve it by ensuring that our 
cooperation with Russia serves U.S. and Russian interests and 
contributes to greater security in the Euro-Atlantic space. The 2012 
Military Cooperation Work Plan includes more than 100 events and 
comprises a variety of quality activities such as cadet exchanges, 
exercises, senior leader visits, and conferences. Over time, 
cooperation on a wide range of issues may help to build a foundation 
for more concrete and substantive cooperation with Russia.
    A U.S.-Russia agreement to cooperate on missile defense would 
remove a major irritant from the relationship, would send a strong 
signal to Iran that development of long-range ballistic missiles and 
nuclear weapons would be a waste of resources, would add to the 
effectiveness of our missile defense system, and could help re-cast 
perceptions U.S-Russia relations on both sides.
    Question. Would you support any joint development or other programs 
with Russia?
    Answer. If confirmed, I would be interested in supporting joint 
programs that would benefit the United States. Through the Defense 
Technology Cooperation Sub-Working under the Defense Relations Working 
Group, DOD has been looking for such opportunities. Before undertaking 
any joint programs, the United States and Russia would need to conclude 
a Defense Technology Cooperation Agreement, which has been in 
negotiation for some time.
    Question. Would you support joint U.S.-Russian cooperation on 
missile defense as a way to send a powerful signal to Iran against 
Iran's developing long-range missiles or having nuclear weapons?
    Answer. I support U.S.-Russian cooperation on missile defenses 
first and foremost because it could improve the effectiveness of U.S. 
and NATO missile defenses, thereby improving the protection of the 
United States, our forces overseas, and our allies. Missile defense 
cooperation with Russia is in the security interests of the United 
States, NATO, and Russia, first and foremost because it could 
strengthen capabilities across Europe to intercept Iranian ballistic 
missiles.
    In addition, I believe that U.S.-Russia and NATO-Russia cooperation 
on missile defense. Such cooperation would contribute to the growing 
strong signals to Iran--including those sent by U.S. and international 
sanctions and diplomacy--that Iran's development of missiles and 
pursuit of nuclear capabilities is reducing rather than enhancing 
Iranian security.
    Question. Do you support efforts mandated by the New START Treaty 
Resolution of Ratification to seek reductions in the stockpiles of 
Russian and U.S. tactical nuclear weapons?
    Answer. Yes. As I stated in my November 2, 2011, testimony, I 
believe that any future discussions with Russia should include tactical 
nuclear weapons, as reflected in the certification and reporting done 
pursuant to the resolution of advice and consent to ratification for 
the New START treaty. Discussions regarding reductions in the total 
number of nuclear weapons, both deployed and non-deployed, are also 
needed. In any future reductions our aim should be to seek the 
relocation of Russian non-strategic nuclear weapons away from the 
territory of NATO members.
    Question. If so, what steps would you recommend for pursuing such 
reductions, if confirmed?
    Answer. The first step for the United States to determine 
appropriate next steps is to complete the ongoing Nuclear Posture 
Review Implementation Study. As this work approaches completion, 
consultation with Congress will be essential to inform congressional 
deliberations on budget and policy issues and to sustain bipartisan 
support for any arms control proposals in the future. Consultation with 
allies and partners will be essential to ensure that extended 
deterrence and assurance remain strong. Finally, the administration 
must work with Congress to ensure that key capabilities to support the 
U.S. nuclear deterrent are funded adequately.
                                 china
    Question. China's defense spending has had double-digit increases 
annually for about the past 20 years. While a certain amount of 
military growth is to be expected for a country experiencing the kind 
of economic growth that China has had over about that same period, the 
types of platforms and capabilities China is developing have been 
interpreted by some as designed to project power, limit freedom of 
movement by potential adversaries, and conduct military operations at 
increasing distances. Such developments, coupled with strident rhetoric 
and a lack of transparency, stoke growing concerns about China's 
intentions in the region.
    How would you characterize the current U.S. relationship with 
China?
    Answer. The senior-most leaders of our two countries have 
consistently affirmed the need for a positive, cooperative, and 
comprehensive U.S.-China relationship. I would describe the 
relationship as simultaneously possessing elements of cooperation and 
competition. The United States, including DOD, continues to pursue 
opportunities to cooperate where there is a mutual benefit, while 
pursuing frank discussions in areas where we may have differences.
    Question. To what extent do you believe the policies and actions of 
the United States and other major regional and international actors 
will affect the direction in which China develops?
    Answer. As Secretary of State Clinton noted in her March 7, 2012 
speech at the United States Institute of Peace, the United States is 
attempting to work with China to foster its rise as an active 
contributor to global security, stability and prosperity while also 
sustaining and securing American leadership in a changing world. The 
United States is trying to do this without entering into unhealthy 
competition, rivalry, or conflict, and without falling short on our 
responsibilities to the international community. We need to work with 
China to build a model in which we strike a stable and mutually 
acceptable balance between cooperation and competition.
    Question. What do you believe are the objectives of China's steady 
increase in defense spending and its overall military modernization 
program?
    Answer. China appears to be building the capability to fight and 
win short-duration, high-intensity conflicts along its periphery, and 
also to counter intervention by third parties. Its near-term focus 
appears to be on preparing for potential contingencies involving 
Taiwan, and deterring or denying effective intervention in a cross-
Strait conflict. Its modernization efforts emphasize anti-access and 
area denial capabilities. China is also devoting increasing attention 
and resources to conducting operations beyond Taiwan and China's 
immediate periphery. China's growing focus on military missions other 
than war includes humanitarian assistance, non-combat evacuation 
operations, and counter-piracy support. Lastly, China is strengthening 
its nuclear deterrent and enhancing its strategic strike capabilities 
through the modernization of its nuclear forces, and is improving other 
strategic capabilities, such as in space, counter-space, and computer 
network operations.
    Question. How should the United States respond to this Chinese 
military growth and modernization?
    Answer. I believe the United States should continue to monitor 
developments in China's military concepts and capabilities, while 
encouraging Beijing to be more transparent about its military and 
security affairs. The United States has been and should remain the 
pivotal military power in the Asia-Pacific region in order to preserve 
the conditions that have fostered peace and prosperity. The U.S. 
response to China's military modernization should be flexible and 
supported by the continued transformation of our force posture in the 
Asia-Pacific region, the maintenance of our global presence and access, 
the modernization of our own capabilities in such areas as countering 
anti-access and area denial, and the strengthening of our alliances and 
partnerships.
    Question. What effect is China's military growth having on other 
countries in the region?
    Answer. The pace and scale of China's military modernization, 
coupled with the lack of transparency, raise many questions, both 
within the United States and in the region as a whole, about China's 
future. Uncertainty about China's military growth and intentions has 
led to concerns about regional destabilization, leading other regional 
countries to intensify their outreach to diverse major power partners. 
As a result, we have seen the region become more welcoming of the 
United States as a security partner of choice. In addition, some 
nations have begun increasing their own military acquisitions, and on 
the diplomatic front, concerns about the regional military balance have 
been instrumental to the success of multilateral architecture based on 
the Association of Southeast Asian Nations (ASEAN).
    Question. What is your assessment of the current state of U.S.-
China military-to-military relations?
    Answer. As Secretary of Defense Panetta and China's Vice President 
Xi affirmed in February, a healthy, stable, and reliable military-to-
military relationship is an essential part of President Obama's and 
President Hu's shared vision for building a cooperative partnership.
    I believe we should continue to use military engagement with China 
as one of several means to demonstrate U.S. commitment to the security 
of the Asia-Pacific region, to encourage China to play a constructive 
role in the region to discuss the peacetime interaction of our 
respective military forces so as to minimize the risk of accidents, and 
to press China to partner with the United States and our Asian allies 
and partners in addressing common security challenges.
    Question. Do you believe that the United States should make any 
changes in the quality or quantity of our military relations with 
China? If so, what changes and why?
    Answer. I believe that military exchanges with China can be 
valuable, but can only truly work if China is equally committed to open 
and regular exchanges. If confirmed, I would look for ways to deepen 
and enhance our military-to-military relationship with China, and to 
encourage China to act responsibly both regionally and globally.
    Question. By most accounts, China has become more assertive in its 
claims of sovereignty in various domains, including maritime, air and 
space. There are numerous examples of this assertiveness, but one in 
particular is China's increased aggressiveness in asserting its 
excessive maritime claims in the South China Sea.
    What role should the United States play in the ongoing maritime 
disputes in the South China Sea?
    Answer. The United States is a Pacific nation with a national 
interest in freedom of navigation and overflight, open access to Asia's 
maritime domain, the maintenance of peace and stability, free and open 
commerce, and respect for international law, including in the South 
China Sea.
    In my view, the United States should not take a position on the 
competing territorial claims over land features in the South China Sea; 
all parties should resolve their disputes through peaceful means and in 
accordance with international law, without resorting to the threat or 
use of force.
    The United States should continue to call upon all parties to 
clarify their claims in the South China Sea in terms consistent with 
international law. Accordingly, claims to maritime space in the South 
China Sea should be derived solely from legitimate claims to land 
features.
    Question. How does the presence of the U.S. Navy in the South China 
Sea influence this maritime dispute and, in your view, would an 
increase in U.S. activity in that region serve to stabilize or 
destabilize the situation?
    Answer. The U.S. Navy is a key provider of the military presence 
that underlies peace and stability across the globe, including in the 
South China Sea. I believe it is essential for the U.S. Navy to 
maintain its presence and assert our freedom of navigation and 
overflight rights in the South China Sea in accordance with customary 
international law.
    Preservation of the rights, freedoms, and uses of the sea depend 
largely upon their continual exercise. Around the world, U.S. military 
forces conduct operations to challenge excessive maritime claims 
asserted by coastal States. In the South China Sea, we have expressed 
our desire for respect for freedom of navigation and overflight for 
many decades, through operational assertions against excessive maritime 
claims asserted by several nations. Of note, we challenge excessive 
maritime claims asserted by any nation, including excessive claims by 
allies and partners.
    Question. Cyber space has become a critical realm for civilian and 
military applications and, as a result, it represents a potentially 
substantial vulnerability. There are reports that China is aggressively 
pursuing cyber warfare capabilities, and would likely seek to take 
advantage of U.S. dependence on cyber space in the event of a potential 
conflict situation.
    If confirmed, what would you do to help ensure our military is 
protected in cyber space and prepared to defend against a cyber attack?
    Answer. If confirmed, I would work with other parts of DOD and the 
U.S. Government, including the Departments of State, Homeland Security, 
and Commerce, to facilitate a coordinated approach to cyber threats, 
not only from China, but from others as well. We must work together as 
governments not only to defend, but also to develop options to respond 
to and impose costs on cyber threat actors so as to deter future 
exploitation and attack. The President stated in his International 
Strategy for Cyberspace that the United States Reserves the right to 
use all necessary means--diplomatic, informational, military, and 
economic--as appropriate and consistent with applicable international 
law--in order to defend our Nation, our allies, our partners, and our 
interests against hostile acts on cyberspace. In my view, we should 
continue to prepare to do so as necessary, while continuing to 
strengthen international norms of behavior regarding this essential 
area.
    Question. In January 2007, China used a ground-based missile to hit 
and destroy one of its weather satellites in an anti-satellite test 
creating considerable space debris and raising serious concerns in the 
international community. Since then, China has continued its active 
pursuit of missile and satellite technology.
    What is your view of China's purposes for its pursuit of these 
capabilities?
    Answer. In my view, this test was one aspect of a multidimensional 
program that China has underway for counter-space activities. Counter-
space, and anti-satellite weapons, likewise are one element of a 
comprehensive military modernization program underway in China that 
includes an emphasis on developing and fielding disruptive military 
technologies, including those for anti-access/area-denial, as well as 
for nuclear, space, and cyber warfare. The United States' goal should 
remain to promote the responsible use of space.
    Question. What do you see as the long term implications of such 
developments for the U.S. military, for U.S. national security, and for 
U.S. interests in space?
    Answer. Space systems are vital to our national security and our 
economy. In this regard, the United States should continue to seek ways 
to protect our interests in space. U.S. space policies and programs 
should be informed by China's space and counter-space capabilities, 
which along with activities of other states, have contributed to 
today's challenging space environment. Our first line of defense should 
be to deter actions that threaten our space architecture (including 
through defensive measures as well as credible response options), but 
should deterrence fail, we must possess alternatives to retain 
effective operations, albeit in a degraded environment.
    The United States should continue to seek to engage China, a major 
space-faring nation, to promote the responsible use of space. However, 
our concern should not be focused on only one country, but on the range 
of actors that add to the increasingly congested, contested, and 
competitive environment in space.
                              north korea
    Question. Despite the recent death of long-time leader Kim Jong-il, 
North Korea remains one of the greatest near term challenges to 
security and stability in Asia and deterring conflict on the Korean 
Peninsula remains a top priority. In fact, with the uncertainties 
associated with the ongoing leadership transition, upcoming challenges 
on the Peninsula may be even greater.
    With the precipitous change in leadership in North Korea, what is 
your assessment of the current security situation on the Korean 
peninsula?
    Answer. North Korea's provocative behavior, large conventional 
military, proliferation activities, and pursuit of asymmetric 
advantages through its ballistic missile and weapons of mass 
destruction (WMD) programs, including uranium enrichment, present a 
serious threat to the United States, its allies and partners in the 
region, and the international community. The opaque nature of the North 
Korean system, coupled with an uncertain political transition, add to 
our concerns. The two North Korean attacks on South Korean forces in 
2010 provide a sober reminder that Pyongyang is willing to utilize its 
capabilities to undertake provocative actions. I believe the United 
States must work with our allies and other key partners in the region 
and internationally on diplomatic solutions to the range of pressing 
concerns we face with North Korea. Under the appropriate conditions, 
direct diplomatic engagement with North Korea is important as well.
    Question. What is your understanding of the threats posed to the 
United States and our allies by North Korea's ballistic missile and WMD 
capabilities?
    Answer. North Korea's missile and WMD programs pose a direct and 
serious threat to our regional allies and partners, and have the 
potential to become a direct threat to U.S. territory. As we witnessed 
in 2006 and 2009, North Korea continues to flight-test theater 
ballistic missiles, demonstrating the capability to target South Korea 
and Japan. North Korea also continues to develop the Taepo Dong-2 (TD-
2), which Pyongyang claims to have tested in a space launch 
configuration but could also reach the United States if developed as an 
intercontinental ballistic missile (ICBM).
    The United States must continue to monitor carefully North Korea's 
WMD and missile development programs and related proliferation 
activities. If confirmed, I would work to ensure that DOD continues to 
work closely with other parts of the U.S. Government to address these 
and other emerging threats, to reduce our vulnerabilities and those of 
our allies and partners, and to work cooperatively with our allies to 
ensure our contingency planning remains adaptive and responsive.
    Question. What concerns you most about North Korea and, if 
confirmed, what would you do to address those concerns?
    Answer. North Korea maintains a large, offensively postured 
conventional military, continues to develop long-range ballistic 
missiles, seeks to develop nuclear weapons, and engages in the 
proliferation of ballistic missiles contrary to international norms and 
U.N. Security Council resolutions. North Korea has also conducted 
provocative attacks against the Republic of Korea. What concerns me 
most is that this range of threats comes from a single State standing 
on the outside of the international community. If confirmed, I will 
ensure that we sustain and advance our military readiness and 
coordination with allies and partners, and explore all avenues for 
shaping North Korean behavior.
                           republic of korea
    Question. What is your understanding of the current status of the 
U.S.-South Korean security relationship?
    Answer. In my view, the U.S.-ROK Alliance remains one of the 
cornerstones of U.S. strategy in the Asia-Pacific region and is as 
strong and viable today as it has ever been. This was most recently 
reaffirmed by the Secretary of Defense to his counterpart at the 
October 28, 2011 U.S.-ROK Security Consultative Meeting in Seoul. Our 
security relationship is based on a mutual commitment to common 
interests, shared values, continuous dialogue, and combined planning, 
all of which ensure a comprehensive strategic Alliance.
    Question. If confirmed, what measures, if any, would you take to 
improve this security relationship?
    Answer. If confirmed, I would support the ongoing realignment of 
U.S. forces on the Peninsula and the preparation for the transition of 
wartime operational control to the ROK by December 2015. Also, I 
believe it is important to ensure that the U.S. and Korean public 
continue to understand the enduring mutual benefits derived from this 
Alliance. Conversely, the public should also recognize that the ROK is 
playing an increasing role in regional and global security issues, 
commensurate with its economic status and influence, and the scope of 
the Alliance is extending beyond the Peninsula. In light of the 
heightened possibility of North Korean provocations, if confirmed, I 
will ensure that we maintain constant communication and coordination 
with the ROK senior leadership so that we can effectively deter North 
Korea, and respond effectively and appropriately to any situation that 
threatens the security of the Korean Peninsula.
    Question. What is your view regarding the timing of the transfer of 
wartime operational control from the United States to South Korea, now 
planned for December 2015, and what will you do to ensure this 
transition takes place as planned?
    Answer. The United States and the ROK have a comprehensive way 
forward to transition wartime operational control from the ROK-U.S. 
Combined Forces Command to the ROK Joint Chiefs of Staff by December 
2015. If confirmed, I will work with my ROK counterpart, and with 
others in the U.S. and ROK Governments, to complete this process under 
the Strategic Alliance 2015 framework and ensure that the combined 
defense posture remains strong and seamless throughout the transition 
process.
    Question. Do you support increasing the tour lengths of U.S. 
personnel assigned to the Republic of Korea to 2- or 3-year tours of 
duty and increasing the number of military and civilian personnel 
authorized to be accompanied by their dependents for these longer 
assignments?
    Answer. I agree that a change in personnel policies related to tour 
lengths could help improve the readiness of U.S. Forces Korea (USFK) by 
reducing the effects of constant turn-over of personnel. At this time, 
however, DOD has not yet identified an affordable plan for full 
implementation of tour normalization, and I understand that USFK is 
holding at the currently authorized 4,645 Command Sponsored Families. 
If confirmed, I look forward to continuing to consider alternative 
options for the future.
    Question. If so, how would you purport to implement such an 
increase in accompanied tours?
    Answer. If confirmed, I will ensure that DOD continues to examine 
how tour length extensions and unit rotations can enhance readiness.
    Question. Do you believe that the security relationship with South 
Korea should remain focused on defense of the Korean Peninsula, or 
should U.S. forces stationed in Korea be available for regional or 
global deployments?
    Answer. In accordance with the Mutual Defense Treaty between the 
two countries, the U.S. presence on the Korean Peninsula serves to 
deter potential aggressors from taking hostile actions that would 
threaten the peace and security of ROK. In my view, this presence has 
not only deterred further war on the Korean Peninsula, but has also 
contributed to the stability of the Northeast Asian region. It is my 
understanding that the principles of Force Management, decided at the 
2010 U.S.-ROK Security Consultative Meeting, provide greater 
flexibility for regional and global deployments for U.S. forces in 
Korea, while ensuring that we will continue to meet our commitments to 
the safety and security of Korea. As ROK military forces continue to 
serve with the U.S. military in places off the Peninsula (e.g., Iraq, 
Afghanistan, and in the Gulf of Aden), I believe the U.S.-ROK Alliance 
will continue to serve an important role regionally and globally.
    Question. What is your assessment of the security benefits of the 
force repositioning agreed to under the Land Partnership Plan and the 
Yongsan Relocation Plan and how does repositioning U.S. forces change 
the way they will operate on the Korean Peninsula?
    Answer. The two plans work to consolidate and relocate U.S. forces 
from north of Seoul and from the Seoul Metropolitan area to locations 
south of Seoul, primarily U.S. Army Garrison Humphreys and Daegu. I 
assess that the movement of units and facilities to areas south of the 
Han River provides efficiencies, reduces costs, contributes to the 
political sustainability of our forward presence, and improves force 
protection and survivability by placing the majority of personnel and 
equipment outside of the tactical effective range of North Korean 
artillery. The two plans will reduce the number of U.S. camps and 
stations from 107 to 48. Thirty-three sites have been returned to the 
ROK, with 26 remaining to be returned.
    Question. Since the North Korean attacks last year--the sinking of 
the South Korea Navy ship CHEONAN and the artillery attack on the South 
Korean island--South Korea has been adamant that it will responded 
``firmly'' to the next such provocation. A main topic during recent 
U.S.-ROK Security Consultative Meetings was reportedly the Joint 
Operational Plan for responding to future North Korean provocations.
    What is your understanding of the U.S. obligations in the event of 
an attack on South Korea by North Korea, and under what circumstances 
do you believe the U.S. armed forces should be committed to engage 
North Korean forces in response to an attack on South Korea?
    Answer. My understanding is that, under the Mutual Defense Treaty, 
when the political independence or security of the ROK or the United 
States is threatened by external armed attack, the United States and 
the ROK will consult together and develop appropriate means to deter 
the attack. Given the pattern and future likelihood of North Korean 
provocations, the two sides should continue to consult closely so that 
responses are effective.
                                 japan
    Question. How would you characterize the U.S.-Japan security 
relationship?
    Answer. The U.S.-Japan relationship is the cornerstone of security 
in East Asia. Japan is a valued ally and anchor of democracy and 
prosperity in the region. Our Alliance has held fast through the 
turbulence of the post-Cold War, political turnover in Japan, and at 
times contentious trade disputes, and now stands poised as a truly 
global Alliance. The United States and Japan are in the middle of a 
complicated realignment process that is part of a larger Alliance 
Transformation agenda that also includes a review of roles, missions, 
and capabilities to strengthen and ensure the relevance, capability, 
and cohesiveness of the Alliance for the next several decades. In terms 
of our military-to-military relationship, the shared experience of U.S. 
and Japanese forces, working should-to-shoulder in response to the 
earthquake, tsunami and nuclear crisis of last spring, validated our 
continuing close cooperation and mutual respect.
    Question. How does Japan's relationship with its regional 
neighbors, mainly China, North Korea and South Korea influence the 
U.S.-Japan relationship?
    Answer. I believe it is important for Japan to continue to maintain 
and further develop constructive relations with all of its neighbors. 
Japan and other East Asian nations can and should increase their 
security cooperation. Working with other U.S. allies and partners in 
the region, Japan can increase its contribution to peace, security, and 
prosperity throughout Asia and globally. Japan is a valued and 
essential partner in the Six-Party Talks process and in other important 
regional security architectures. Progress made to bolster trilateral 
security dialogues in Northeast Asia effectively links Japanese, U.S., 
and ROK approaches.
    Question. What steps, if any, do you believe Japan ought to take to 
become a more active partner in security activities with the United 
States and in the international security arena?
    Answer. Japan is already a close ally and strong security partner 
with the United States, and is increasingly contributing to 
international security activities; however, the changing security 
environment in Asia will present new challenges. The United States 
needs to continue to work with Japan to deal with these challenges, 
including greater interoperability between our armed forces at the 
strategic, operational, and tactical levels. If confirmed, I would 
encourage Japan's development of joint doctrine and organizations that 
will enhance Japan's ability to undertake complex missions to build 
security in East Asia. I would also encourage trilateral security 
cooperation with the United States, Japan and both the ROK and 
Australia, as these kinds of activities effectively strengthen the 
functional capacity of the emerging regional security architecture. 
Regarding international security activity, Japan has actively 
participated in combined counter-piracy operations in the Gulf of Aden, 
is participating in the United Nations Mission in South Sudan, and has 
been a significant donor to ongoing Afghanistan reconstruction. I 
believe participation in such international security operations are 
very positive developments, and would encourage future Japanese 
participation in such missions.
    Question. What is your view of the United States-Japanese joint 
development of the Standard Missile-3, Block IIA missile defense 
interceptor, and of the overall program of cooperation between the 
United States and Japan on ballistic missile defense?
    Answer. Ballistic missile defense cooperation with Japan is a 
success story for the Alliance and has resulted in Japan's fielding of 
both sea and land-based missile defense systems. Japan is one of our 
most important ballistic missile defense partners, and U.S.-Japan 
bilateral cooperation on ballistic missile defense plays an important 
role in supporting our common strategic objectives on defense. The SM-3 
Block IIA is an important cooperative program that will result in a 
significant increase in ballistic missile defense capability.
    Question. Currently, the 2006 Roadmap Agreement between the United 
States and Japan links the closure of the Futenma Marine Corps Air 
Station on Okinawa and the movement of U.S. Marines from Okinawa to 
Guam to the plan to build a Futenma Replacement Facility (FRF) at Camp 
Schwab on Okinawa. In February, the United States and Japan announced 
their intention to delink the movement of marines from the plan to 
build the FRF. It also appears that, while the number of Marines 
leaving Okinawa will not change, fewer will be relocated to Guam.
    What is your understanding of the current plans for U.S. military 
forces on Okinawa and Guam?
    Answer. Plans for U.S. military forces on Okinawa and Guam should 
result in a force posture that is geographically distributed, 
operationally resilient, and politically sustainable. A significant 
number of U.S. Marine Corps forces will move from Okinawa to Guam, 
which is a strategic hub that supports our ability to operate forces 
from a forward location. At the same time, we will maintain forces in 
Okinawa to provide deterrence and rapidly respond to security 
challenges in areas around Japan.
    Although planned posture shifts will result in a rebalancing of our 
forces, they will not negatively affect our ability to respond to 
contingencies or meet treaty obligations in Asia. They demonstrate our 
commitment to allies and to fulfilling our agreements with Allies and 
partners.
    Question. How does delinking the movement of marines off Okinawa 
from the construction of the FRF impact the realignment of marines in 
Northeast Asia?
    Answer. Delinking the movement of U.S. marines off Okinawa will 
allow the United States to push forward with the realignment of the 
Marine Corps in Northeast Asia, which is in our strategic interests as 
we seek to rebalance toward the Asia-Pacific. Specifically, delinkage 
will allow the United States to establish a force posture that is 
geographically distributed, operationally resilient, and politically 
sustainable.
    The United States and Japan remain committed to constructing the 
FRF as the only viable alternative to Marine Corps Air Station (MCAS) 
Futenma, and are working together in taking the next step prior to the 
start of construction: securing the Governor's approval for the 
landfill permit.
    Question. What is your opinion of the prospects for the successful 
construction of the Futenma Replacement Facility at Camp Schwab on 
Okinawa?
    Answer. I believe that the Government of Japan (GOJ), like the U.S. 
Government, remains committed to the principles of the 2006 Realignment 
Roadmap, and although both governments have acknowledged that the 
Futenma Replacement Facility will not be constructed by 2014, as 
originally planned, there appears to be incremental but positive 
movement towards the construction of a replacement facility at Camp 
Schwab. The GOJ submission of the environmental impact statement to the 
prefectural government of Okinawa in December 2011 was a necessary and 
politically significant step forward. The U.S. Government is committed 
to working with the GOJ in taking the next step prior to the start of 
construction: securing the Governor's approval for the landfill permit.
    Question. If confirmed, how would you work with the Commander, 
Pacific Command (PACOM), and the Military Services to update U.S. 
military force posture in Japan and the Pacific Theater?
    Answer. If confirmed, I would engage frequently and proactively 
with the Commander, PACOM, and the Military Departments, as well as the 
Chairman and Vice Chairman of the Joint Chiefs of Staff, to update U.S. 
force posture in Japan and the Pacific. I firmly believe that 
maintaining a strong and comprehensive relationship with my military 
counterparts is essential to creating a military force posture that 
makes sense both strategically and operationally.
                                 india
    Question. What is your view of the current state of the U.S.-India 
security relations?
    Answer. Today, U.S.-India defense ties are strong and growing, 
including a robust slate of dialogues, military exercises, defense 
trade, personnel exchanges, and armaments cooperation. The strong ties 
between our two militaries reflect this. Over the past decade, there 
has been a rapid transformation in the U.S.-India defense relationship. 
What was once a nascent relationship between unfamiliar nations has 
evolved into a strategic partnership between two of the preeminent 
security powers in Asia.
    In February I travelled to India to co-chair the annual U.S.-India 
Defense Policy Group meeting. My trip reaffirmed my view that a close, 
continuing, and expanding security relationship between the United 
States and India will be important for security and stability in Asia 
and for effectively managing Indian Ocean security in the twenty-first 
century. Having said this, India has a long history of non-alignment 
and is firmly committed to its policy of strategic autonomy. The 
continued growth of our partnership should be focused on working 
closely on common interests in a true partnership.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. If confirmed, I believe our priorities for this 
relationship should focus on increasing maritime security cooperation, 
expanding the military-to-military relationship, and deepening 
cooperation on defense trade, including cooperative research and 
development. There is potential for increased cooperation on 
counterproliferation, collaboration on humanitarian assistance and 
disaster response, countering piracy, cooperation on counterterrorism, 
greater intelligence sharing on common threats, and working towards 
stability in Afghanistan and the broader Indian Ocean region.
    Question. What is your assessment of the current relationship 
between India and Pakistan?
    Answer. India and Pakistan have a long and complex history 
characterized by animosity, mistrust, and conflict. Support by elements 
of Pakistan's military and intelligence services for violent extremist 
organizations targeting India has the potential to result in military 
confrontation that could rapidly escalate to a nuclear exchange.
    Current efforts at dialogue through a renewed comprehensive 
dialogue have yielded few concrete results on the core security issues, 
especially regarding the resolution of territorial disputes; however, 
the efforts have increased people-to-people exchanges and trade 
relations between the two nations, and have provided each side greater 
insight into the other's positions. Although progress is slow, the 
trajectory is positive and offers the promise of increased confidence-
building measures.
    Question. In your view, what impact has the ongoing tension between 
Pakistan and India had on the stability of Central and South Asia 
generally, and on the prospects for lasting security in Afghanistan?
    Answer. India's actions in South and Central Asia generally align 
with U.S. goals: increasing economic growth and political stability 
through strengthened democratic institutions, and developmental 
assistance to help prevent radicalization. Regional stability 
ultimately depends on cooperation among India, Pakistan, and 
Afghanistan. Transparency in the India-Afghanistan and Pakistan-
Afghanistan bilateral relationships is critical to reduce 
misunderstanding and mistrust between India and Pakistan. The ongoing 
transition of lead responsibility for security in Afghanistan to Afghan 
forces, and the strategic partnerships Afghanistan has been negotiating 
with the United States and other international partners are important 
steps toward demonstrating long-term commitment of the international 
community, addressing conditions that create uncertainty, and 
stabilizing the region.
                      republic of the philippines
    Question. What is your view of the current state of U.S.-Philippine 
military-to-military relations, including efforts to increase the 
number of rotational U.S. forces operating from the Philippines?
    Answer. The Philippines is one of the United States' five treaty 
allies in the Pacific and remains a committed security partner facing 
regional challenges characteristic of current geo-strategic realities. 
In my view, the Alliance is strong and is the foundation of our 
security partnership. The U.S. military-to-military engagement with the 
Philippines is mature and focused, allowing the Philippines security 
forces (military, coast guard, and police) to address security needs 
more effectively as evidenced by enhanced counterterrorism performance, 
expanded maritime security activities, increased multilateral 
engagement, and effective participation in U.N. peacekeeping 
operations.
    Question. What do you believe the U.S. goals should be in the 
Republic of the Philippines and how best can we achieve those goals?
    Answer. The primary goal of the United States should be to 
strengthen the Alliance and assist the Philippines in building and 
maintaining the capabilities of their security forces. Our Alliances in 
the Pacific, including with the Philippines, are the bedrock of U.S. 
security strategy within the region as we face common threats. A 
Philippines that is capable of mitigating terrorist threats, providing 
a secure maritime environment that ensures freedom of navigation within 
its subregion, and leading multilateral approaches towards regional 
peace and stability will enable it to fulfill its treaty obligations to 
the United States, directly benefit U.S. interests in the Asia-Pacific 
region, and contribute to regional security and stability.
    Question. What is your assessment of recent U.S. military efforts 
in the Philippines and the effectiveness of the U.S. assistance being 
provided to the Philippine military in its fight against insurgent 
groups?
    Answer. U.S. military efforts and assistance in the Philippines are 
in support of the U.S.-Philippines Mutual Defense Treaty to which both 
sides are committed. The United States, however, does not assist the 
Philippines in its fight against insurgent groups (e.g., the New 
People's Army and the Moro Islamic Liberation Front). The Philippines 
was the first country in Asia to support the United States after 
September 11 in fighting terrorism. In this regard, U.S. military 
assistance is focused on helping the Philippines fight terrorism by 
assisting with the development of skill sets that are no different than 
those needed to help and protect its civilian population. It is the 
Philippine Government's prerogative to assert its capabilities and 
resources where needed in conducting its internal security operations.
    Question. Do you anticipate a reduced or increased U.S. military 
footprint or change in mission for U.S. military forces in the 
Philippines in the near to mid-term?
    Answer. The United States and the Philippines are discussing 
arrangements that would allow greater flexibility for U.S. and 
Philippine security forces to train and work together. This may 
increase U.S. military engagement with the Philippines in the near to 
mid-term.
                               indonesia
    Question. What is your view of the current state of military-to-
military relations with Indonesia and, specifically, Kopassus?
    Answer. In 2010, Presidents Obama and Yudhoyono inaugurated the 
U.S.-Indonesian Comprehensive Partnership. A key element of this broad 
partnership is the security component. Our defense relationship with 
Indonesia--a pivotal country to U.S. national interests--is managed 
through the Defense Framework Arrangement and facilitated through 
several forums and mechanisms. Our military-to-military relations with 
Indonesia are robust and continue to progress and mature, with nearly 
200 theater security cooperation activities scheduled for this fiscal 
year. These security cooperation engagements include a wide range of 
activities focused on four main areas of emphasis: Humanitarian 
Assistance/Disaster Relief, Peace Keeping Operations, Maritime 
Security, and continued Professionalization/Reform of the Indonesian 
Defense Forces (TNI). Beginning with the normalization of the military-
to-military relationship in 2005, engagements have increased in number 
and evolved from initial small-scale bilateral exchanges into more 
complex bilateral and multilateral activities.
    In addressing the current state of military-to-military relations 
with the Indonesian Army Special Forces (Kopassus), it is worth noting 
that this unit has undergone a near-complete transformation over the 
past decade and is at the forefront of TNI professionalization and 
adherence to human rights standards. Following a 12-year hiatus in 
bilateral activities, at the direction of then-Secretary Gates, PACOM 
established a measured and gradual program of security cooperation 
activities with Kopassus. These security cooperation activities have 
consisted of key leader engagements and small-scale subject matter 
expert exchanges in areas such as military decision making, medical 
planning, law of war, and safeguarding human rights. I anticipate that 
these types of activities will continue and gradually expand at a pace 
commensurate with the demonstrated progress in TNI transparency and 
reform efforts. Chief among these reform efforts are the fulfillment of 
commitments made by Indonesian leaders to DOD in 2010 to continue to 
safeguard human rights and accountability throughout the Indonesian 
military through the unequivocal investigation and prosecution of those 
military personnel accused of human rights abuses and, if convicted, 
their removal from military service.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. If confirmed, I would support increased military-to-
military contact within the context of the Comprehensive Partnership, 
guided by close consultation between the Departments of State and 
Defense, and within the boundaries of existing legal mechanisms. I 
believe close military-to-military relations with Indonesia are 
integral to achieving numerous stated U.S. national interests in the 
region. I also believe that one of the most effective methods for 
encouraging reform is through interaction between Indonesian and U.S. 
servicemembers. Interactions with U.S. servicemembers reinforce 
professional military practices, including respect for human rights and 
the rule of law. Increased interactions facilitate greater 
understanding and reinforce professional values.
    Question. What is your understanding of the factors that informed 
the decision to re-engage with Kopassus members?
    Answer. It is my understanding that the decision to begin a 
measured and gradual re-engagement with Kopassus within the limits of 
U.S. law was intended to acknowledge the significant progress made by 
the TNI over the past decade and to encourage continued reform within 
the TNI. Essential to this decision to move ahead with engagement with 
Kopassus were the commitments made by the Government of Indonesia to 
protect human rights and advance TNI accountability.
    Question. What is your view of the commitment of the Indonesian 
military leadership to professionalization of its armed forces, 
adhering to human rights standards, improving military justice, and 
cooperating with law enforcement efforts to investigate and prosecute 
those military personnel accused of human rights abuses?
    Answer. Indonesian defense reform progressed at a rapid pace after 
the resignation of President Suharto in 1998, and with the separation 
of the police from the military, the elimination of formal political 
roles for the TNI, increased accountability, and the establishment of 
widespread human rights training initiatives. Although reform efforts 
appear to have slowed, they have notably not reversed. According to 
several public opinion polls, the TNI enjoys the respect of the 
majority of the Indonesian populace. In fact, the TNI often is noted to 
be the most respected of government institutions. This is a concrete 
indicator of progress. Continued reforms that the United States should 
continue to encourage include accountability for past human rights 
abuses, strengthening civilian control and oversight of the military, 
and continued professionalism of the TNI officer corps. Fully 
normalized relations with Kopassus will not happen without demonstrated 
Indonesian commitment to holding human rights abusers accountable.
    Question. If confirmed, what would you do to encourage respect for 
human rights and accountability in the Indonesian military?
    Answer. If confirmed, I would support the TNI's continued progress 
by encouraging senior Indonesian leaders to fulfill their stated 
commitments, with particular emphasis on accountability, transparency, 
and respect for human rights. We can advance this agenda through 
bilateral security discussions, joint training, and military 
assistance, including military training programs. I view U.S. 
interaction with TNI counterparts as an effective, indeed essential, 
method to encourage professionalism and continued reform within the 
Indonesian military.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. I strongly support U.S. accession to the 1982 Law of the 
Sea Convention.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. The advantages of U.S. accession are numerous. As a treaty 
party, the United States can best protect the navigational freedoms 
enshrined in the Convention and exert the level of influence that 
reflects our status as the world's foremost maritime power.
    I do not believe that there are any serious national security 
disadvantages to the United States becoming a treaty party.
    Question. What is your understanding of the principal arguments 
against ratifying UNCLOS, and what is your response to those arguments?
    Answer. From what I understand, the principal argument against 
accession is that the United States would somehow surrender a portion 
of its sovereignty. I do not believe this argument is valid. As a 
treaty party we can reinforce our navigational freedoms--key to our 
global power projection capabilities.
                        peacekeeping operations
    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, U.S. Ambassador to the 
U.N., stated that the U.S. ``is willing to consider directly 
contributing more military observers, military staff officers, civilian 
police, and other civilian personnel--including more women I should 
note--to U.N. peacekeeping operations.''
    What is your view on whether the U.S. should contribute additional 
military personnel to both staff positions and military observers in 
support of U.N. peacekeeping operations?
    Answer. In general, I would support additional contributions of 
U.S. military personnel to staff officer positions, provided that they 
are positions that would add significant value to the mission, and that 
the mission is a strategic priority for the United States.
    Support for international peacekeeping remains an important 
security objective for the U.S. Government, and the United States has a 
stake in the success of U.N. peacekeeping operations. I believe that, 
where practicable, the United States should continue to provide 
military personnel for U.N. peacekeeping operations, especially for key 
staff positions that can help shape the direction and success of the 
mission. If confirmed, I will carefully evaluate any proposals to 
contribute military or civilian personnel to a U.N. peacekeeping 
operation, weighing the potential positive impact of U.S. participation 
in the mission against other military commitments we have around the 
globe and the proposed cost of U.S. involvement.
    Question. What are the advantages and disadvantages of contributing 
additional military personnel to U.N. operations?
    Answer. There are several potential advantages to contributing 
additional military personnel to U.N. missions: the opportunity to 
shape these missions from the inside and contribute to success of the 
mission; professional development opportunities for military personnel 
to serve in a joint, multi-lateral environment; and the benefit of 
receiving real-time information and insights on emerging threats and 
crises from places where there might not otherwise be a U.S. presence. 
It also enables an increased professional interaction by U.S. military 
personnel with numerous partner nations' military personnel, with whom 
we may not normally have the opportunity to serve.
    The potential disadvantage of providing additional military 
personnel is the additional demands these assignments would impose on a 
U.S. military force that has seen extensive deployments in recent years 
and is still heavily engaged in overseas operations. I do not believe 
the United States will be in a position to provide significant numbers 
of military personnel to peacekeeping missions anytime in the near 
future. However, I believe the selective placement of even modest 
numbers of U.S. military personnel in addition to the personnel we 
currently have assigned to U.N. operations can have a significant, 
positive impact on U.N. peacekeeping operations.
    Question. If confirmed, would you support identifying methods 
through which the DOD request for forces system could be more 
responsive to requests for personnel support from multilateral 
peacekeeping missions, like the U.N.?
    Answer. Yes, if confirmed, I would support exploring ways that DOD 
could more quickly respond to requests for personnel support, bearing 
in mind applicable legal requirements and the current operational tempo 
of U.S. forces.
                                colombia
    Question. Success in suppressing violence in Colombia has been 
credited to U.S. assistance to support Plan Colombia and to the growth 
of the Colombian economy, which spread wealth to a larger portion of 
the population. Over the past 2 years, there has been a debate about 
the most effective balance of U.S. assistance to continue to build on 
this success. Much of the U.S. assistance to Colombia over the past 5 
years would be characterized as hard-side security assistance (such as 
weapons, aircraft, and necessary training), but some argue hard-side 
assistance should now be decreased significantly and a more robust 
development plan should be implemented.
    In your view, what is the most appropriate strategy for U.S. 
engagement (including ``soft'' support) vis-a-vis Colombia?
    Answer. U.S. security assistance to Colombia has always been a mix 
of ``hard'' and ``soft'' components. As the conflict has evolved, the 
ratio of ``hard'' to ``soft'' elements has steadily decreased. Between 
2000 and 2006, our assistance was mostly focused on building Colombia's 
military and police capacity, first to defend the country from the 
offensive actions of irregular armed groups which included guerrillas, 
paramilitaries and drug traffickers; then, once the situation 
stabilized to support the government as it went on the offensive to 
recover terrain dominated by these groups. When most of Colombia was 
back under government control, our assistance began to focus on 
supporting what Colombia called Consolidation. Basically this was an 
effort to bring in the rest of the government to establish permanent 
presence and services within the newly recovered areas. Currently 
approximately two-thirds of our assistance to Colombia supports 
consolidation, with the rest going for hardware and training. As the 
internal conflict moves towards its conclusion, the ratio of ``hard'' 
to ``soft'' assistance will continue to diminish.
    Question. In your view, should DOD reduce its security assistance 
to Colombia as a result of the success of the last decade?
    Answer. U.S. military assistance to Colombia has been gradually 
diminishing since 2006. As Colombia's security capabilities and their 
economy grow, our assistance becomes less critical. While the U.S. has 
invested $8 billion in Colombia over the last 12 years, this never 
exceeded 10 percent of the Colombian defense budget. However, it did 
enable key capabilities which have put Colombia in a good posture to 
bring the internal conflict to a successful conclusion. In addition, 
the U.S.-Colombia relationship has now transformed from a donor-client 
relationship, to one of increasing strategic partnership. Colombia is 
reaching out to regional countries in Central America and Mexico, South 
America, and even West Africa to help these countries combat illicit 
trafficking, organized crime and terrorism. In some cases, like Mexico, 
we are coordinating our engagement efforts with Colombia, and in other 
cases, like West Africa, they are reaching out on their own. The United 
States and Colombia are developing a mechanism through which to more 
closely coordinate our regional security cooperation efforts. However, 
we should maintain the appropriate level of robust and predictable 
assistance to reinforce success, protect our investment, and reaffirm 
our commitment to a strong, democratic and prosperous Colombia.
                          stability operations
    Question. The new DOD Strategic Guidance states that, while U.S. 
forces will capture the lessons learned from operations in Iraq and 
Afghanistan, they ``will no longer be sized to conduct large-scale, 
prolonged stability operations.''
    In your view, what are some of the key lessons learned from the 
stability operations conducted in Iraq and Afghanistan?
    Answer. One of the most important lessons learned from these 
conflicts is the importance of a whole-of-government approach to 
stability operations. U.S. Government military and civilian efforts 
must be closely synchronized and have unity of effort in order to 
successfully address not just the military, but also the social, 
political, and economic factors that can fuel a conflict.
    From the DOD perspective, one of the key lessons from these 
conflicts has been widening the aperture for how we think about 
conflict environments, to not only include the military dimension of a 
problem, but also factoring in these other social, political, and 
economic factors in order to understand how they contribute to 
insurgency and terrorism. The U.S. military must plan and train with 
its civilian counterparts and be prepared to operate across a range of 
environments and types of conflicts. Indeed, the need for greater 
capabilities and capacity in civilian agencies has been a recurring 
lesson for the entire U.S. Government.
    Of paramount importance is our ability to rapidly create effective 
indigenous security forces. Only indigenous forces can ``hold'' and 
``build'' on a lasting basis. Establishing effective military, police, 
paramilitary forces, and local security forces is one of the most 
critical elements of successful counterinsurgency and stability 
operations. When building indigenous security forces we need to be 
careful not to breed dependency. We also need to focus on transitions 
which entail having the local government and military forces take the 
lead in projects and operations whenever possible as soon as reasonably 
possible.
    Question. What do you believe is the proper role for the DOD in the 
planning and conduct of stability operations in future contingencies?
    Answer. As seen in recent operations, there is a great need for 
economic development, governance, diplomatic, and law enforcement 
experts who work for the State Department, USAID, and the Justice 
Department. DOD must coordinate its plans with interagency partners, 
especially State, USAID and Justice.
    In my view, DOD should operate within whole-of-government 
structures and in collaboration with international partners to conduct 
these types of operations. DOD should continue to enable the deployment 
and use of the appropriate civilian capabilities and resources, and I 
encourage greater investment in civilian capacity for contingency 
operations. When no other options are available, and when directed, DOD 
should be prepared to lead stability operations activities to establish 
civil security and control, restore essential services, repair and 
protect critical infrastructure, deliver humanitarian assistance, and 
then transition lead responsibility to other appropriate entities 
(e.g., U.S. Government agencies, foreign governments and security 
forces, and international governmental organizations and non-
governmental organizations). Close collaboration between DOD and other 
civilian agencies on contingency planning before contingencies arise 
can help contribute to success in the event that stability operations 
are required.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations, including the global train and equip authority (``section 
1206''), targeted authorities in Yemen and East Africa, and the global 
security contingency fund.
    In your view, what are our strategic objectives in building the 
capacities of partner nations?
    Answer. In my view, the main strategic objective of the United 
States in building the capacity of foreign partners is to help them 
develop effective and legitimate security institutions that can provide 
for their countries' internal security, and contribute to regional and 
multilateral responses to threats and instability. This, in turn, 
mitigates the burden on U.S. forces responding to security threats 
outside the United States, and serves to build a base of countries that 
can effectively participate in multinational coalition-based 
operations.
    Successfully countering violent extremist networks requires that we 
develop and sustain a global network of allies and partners that is 
capable and interoperable. Additionally, once partners become capable 
and have sufficient capacity, they are able to help bolster regional 
security in a way that supports U.S. interests. In some cases, 
participation by these partner nations' forces provide cultural and 
linguistic advantages that afford them better access and effectiveness 
than U.S. forces executing the same mission. For example, today 
Colombia provides justice sector and security force assistance to other 
U.S. partner nations in the Americas and Africa.
    Finally, efforts to build partner capacity promote interoperability 
between forces and enable the U.S. military to establish personal 
connections and long-term relationships with foreign counterparts. We 
can never be certain where in the world U.S. forces may be required to 
operate. Enduring relationships with partner nations are at the core of 
a multinational coalition's strength, helping secure shared access to 
facilities and territory, information, and diplomatic support.
    Question. What improvements, if any, would you recommend, if 
confirmed, to the strategic direction, oversight, and management of the 
Department's programs for building partner capacity to ensure that 
these programs are executed consistent with our national security goals 
and objectives?
    Answer. If confirmed, I would continue to support DOD capabilities 
and investments that encourage and enable partners to develop capable 
security forces and institutionalize the Department's capacity to 
provide high impact security force assistance. I would provide 
recommendations to the Secretary that enable him to make informed 
choices with regard to the location and frequency of DOD activities 
that build partners' security capacity. It is essential in this era of 
shifting focus and constrained resources that we carefully prioritize 
which partners we engage with, how often, and to what end.
    Also if confirmed, I would continue to implement process 
improvements in the delivery of defense articles and services for 
urgent and emerging needs.
    Question. In your view, what should be the role of DOD, vis-a-vis 
the State Department and other civilian departments and agencies in 
efforts to build the capacity of foreign security forces?
    Answer. The United States will be more successful at deterring and 
responding to security challenges when allies and partner security 
forces act in a way that is complementary to U.S. goals and objectives. 
Our experiences in Iraq and Afghanistan, our continuing efforts to 
counter violent extremist organizations and transnational criminal 
organizations, and our preparations for future contingencies clearly 
illustrate the need for capable partners who can apply capabilities 
complementary to U.S. military objectives. In that vein, I believe that 
DOD should sustain and grow the capability to develop partner security 
forces, especially forces to train, advise, and assist partners during 
conflict.
    Building the capacity of foreign security forces is a shared 
responsibility within the executive branch, particularly the 
Departments of State and Defense. Close collaboration between the 
Departments is a key characteristic of the section 1206 authority, and 
one of its greatest strengths. The Global Security Contingency Fund 
epitomizes this shared responsibility, and represents an opportunity 
for DOS and DOD to plan for contingencies jointly, and to establish a 
new business model for interagency planning of security sector 
assistance.
                          combating terrorism
    Question. The administration recently released its National 
Strategy for Counterterrorism. This strategy highlights the need to 
maintain pressure on al Qaeda's core while building the capacity of 
partners to confront mutual threats. The strategy also underscores the 
need to augment efforts to counter threats from al Qaeda-linked groups 
``that continue to emerge from beyond its core safe haven in South 
Asia.''
    If confirmed, what would be your role within DOD with respect to 
counter terrorism?
    Answer. If confirmed, I would be the principal staff assistant and 
advisor to the Secretary of Defense for all matters concerning the 
formulation of national security and defense policy, including 
counterterrorism policy. In this capacity the USD(P) has historically 
served as the Secretary's senior representative to Deputies Committee 
meetings focused on counterterrorism policy (and other policy issues). 
My role, if confirmed, would be to formulate, coordinate, and present 
the views of the Secretary on CT policy issues. Currently these are 
mainly oriented on the war against al Qaeda, which includes operations 
and activities against its allies and affiliates, but we also recognize 
that there are other terrorist groups that may seek to cause harm to 
the United States and its allies. I would work closely in performance 
of these duties with the Under Secretary of Defense for Intelligence, 
the DOD General Counsel, the Joint Staff, and the Regional and 
Functional Assistant Secretaries in the office of the Under Secretary 
of Defense for Policy, particularly the Assistant Secretary for Special 
Operations and Low Intensity Conflict. I would carefully consider the 
views of our interagency colleagues and international partners to 
consider whole-of-government solutions to counterterrorism problems.
    Question. What do you believe is the terrorism threat from al Qaeda 
and affiliated groups in each of the Geographic Combatant Commands?
    Answer. The most significant groups that threaten the United States 
and our allies are core al Qaeda, comprised of the group's senior 
leaders, and AQAP, which is the most capable of the group's allies and 
affiliates. However, a few key operatives operating from any of al 
Qaeda's other affiliates, or even ``lone wolves'' inspired by al Qaeda, 
may be able to perpetrate attacks abroad or against the U.S. Homeland. 
Terrorist acquisition of weapons of mass destruction and anti-aircraft 
weapons proliferating from unstable states is a chief concern, as is 
the growing capability of some groups to construct concealed improvised 
explosive devices.
    In the CENTCOM area of responsibility, al Qaeda core leadership in 
South Asia has been significantly degraded. Their most experienced 
operational planners have been depleted, and they have lost the freedom 
of movement they once enjoyed. Nonetheless, they remain determined to 
launch attacks on the homeland and U.S. interests abroad, and have 
shown recent capability to raise funds and formulate external plots. In 
Yemen, AQAP poses probably the most direct threat to the United States. 
The group has attempted two major attacks in the past 3 years, first 
the so-called ``underwear bomber'' in December 2009, and the airline 
parcel bombs in October 2010. Both of these plots were devised by the 
same expert bomb maker, who remains at large in Yemen. AQAP has 
exploited a year of political unrest in Yemen to expand its area of 
operations in remote provinces, and continues to threaten domestic 
stability while actively plotting operations against the United States. 
AQAP has strong connections to al Shabaab in Somalia, which recently 
announced its affiliation with al Qaeda, and uses these connections to 
share resources and training among the two groups. In Iraq, al Qaeda in 
Iraq (AQI) has shown resurgence in the wake of the U.S. withdrawal, 
increasing its pace of attacks on the government and fomenting 
sectarian violence. AQI is also seeking to exploit instability in 
Syria, further fueling an already volatile situation there.
    In the AFRICOM Area of Responsibility, al-Shabaab represents both a 
terrorist threat to U.S. and regional interests and an insurgent 
problem to the Somali Transitional Federal Government (TFG) as well as 
Somali regional administrations. On February 9, 2012, al Qaeda and al-
Shabaab jointly announced their formal merger. al-Shabaab has shown 
interest in external attacks against the West and has active 
connections to Somali diaspora communities in Europe and the United 
States. In North and West Africa, al Qaeda in the Lands of the Islamic 
Maghreb (AQIM) uses ungoverned spaces in the Maghreb and Sahel as a 
safe haven. Originally focused on overthrowing the government of 
Algeria, AQIM evolved and now has a stated intent to attack western 
targets. There are clear indications that AQIM is now involved in 
trafficking arms from Libya. In addition, the upheavals in Libya and 
Tunisia have created opportunities for AQIM to establish new safe 
havens. We should also continue to monitor Boko Haram in Nigeria.
    The threat of attack by al Qaeda and its affiliates against U.S. 
interests in the PACOM AOR remains a serious concern. The possible re-
emergence of other terrorist organizations, like Jamaah Islamia and the 
Abu Sayaaf Group, that have been weakened but not defeated by the 
counter-terror efforts of our allies and partners could quickly affect 
the security and stability of the Asia-Pacific region. Other 
decentralized groups and individuals ideologically linked to al Qaeda, 
as well as organizations based primarily outside the PACOM AOR like 
Lashkar-e-Tayyiba, desire to support their agendas by conducting 
destabilizing attacks inside the region. Additionally, al Qaeda-
affiliated groups operate in the PACOM AOR using facilitation networks 
that support threats to U.S. interests throughout the world.
    The EUCOM AOR continues to represent an area of high interest for 
al Qaeda and its affiliates, seeking potential targets there and using 
Europe as a support base. Terrorist organizations exploit the 
relatively permissive European legal environment to radicalize local 
populations and to seek material and financial support for jihadist 
efforts in Afghanistan, Iraq, and elsewhere. Radicalized fighters 
returning home to Europe from conflict zones pose a real threat given 
their experience, contacts, and ability to move across the continent. 
The threat these extremists pose, using Europe as a base or corridor 
for operations elsewhere in the world, including the United States, 
cannot be discounted.
    In the SOUTHCOM AOR, particularly in Central America, transnational 
organized crime has evolved into a volatile and potentially 
destabilizing threat to both citizens and regional security. These 
transnational criminal organizations control smuggling routes that 
traverse the hemisphere, many of which lead into the United States. 
These routes represent potential access points that could be leveraged 
by other groups. Although we have not yet seen any attempts by al Qaeda 
to leverage these smuggling routes, we remain watchful for the 
potential threat of transnational criminal organizations collaborating 
to move terrorists through the AOR and into the United States. Sunni 
extremists, although small in number, are actively involved in the 
radicalization of converts and other Muslims; these efforts can be seen 
through the influence of public personalities like Jamaica's Shaykh 
Abdullah al-Faisal, who was convicted in the United Kingdom for 
inciting terrorism.
    Within the confines of U.S. borders, laws, policies, and democratic 
traditions and practices properly restrict most counterterrorism 
activities to support to civil authorities. As a result, NORTHCOM's 
principal role is to synchronize joint force protection and ensure that 
military infrastructure across the AOR is properly postured to mitigate 
and prevent potential terrorist attacks. DOD is and must remain fully 
aligned within the Federal Government's counterterrorism network and 
plays a supporting role--assisting with information sharing and 
remaining prepared to supply military-unique capabilities and to 
enhance civilian capacity when directed by the President or Secretary 
of Defense. Mexico is confronting serious security and public health 
challenges driven by transnational criminal organizations (TCOs) 
responsible for illicit trafficking of drugs, human beings, money, and 
weapons. These criminal organizations are increasingly adopting 
terrorist tactics in their operations.
    Question. Are you aware of any nexus between non-state actors and 
criminal networks?
    Answer. Terrorist groups and insurgent movements are increasingly 
turning to criminality--including narcotics and other illicit 
trafficking--to perpetuate and expand their activities. This is 
certainly the case in Afghanistan. We also see criminal organizations, 
such as Mexico-based drug cartels, adopting terrorist tactics in their 
operations. Criminals and terrorists are also directly working 
together. We only need to look at the recent Iranian plot to 
assassinate the Saudi Arabian Ambassador in Washington by engaging the 
Los Zetas transnational criminal organization to see this trend. I 
would also note the recent testimony by Director of National 
Intelligence Clapper, in which he stated that ``Terrorists and 
insurgents will increasingly turn to crime and criminal networks for 
funding and logistics. Criminal connections and activities of both 
Hizballah and al Qaeda in the Islamic Maghreb illustrate this trend.''
    Question. On September 22, 2011, Secretary of State Hillary Clinton 
launched the Global Counterterrorism Forum (GCTF) with 30 founding 
members from around the world. The GCTF is a major initiative within 
the Obama administration's broader effort to build the international 
architecture for dealing with terrorism. The primary focus of the GCTF 
is capacity building in relevant areas and aims to increase the number 
of countries capable of dealing with the terrorist threats within their 
borders and regions.
    What is your understanding of this initiative?
    Answer. My understanding is that the GCTF is a multilateral 
platform that will provide a venue for governments to meet and identify 
counterterrorism needs, and to mobilize the necessary expertise and 
resources to address such needs and enhance global cooperation. The 
GCTF is intended to complement ongoing efforts with the United Nations, 
as well as other regional and sub-regional bodies. I understand that 
the September 2011 launch of the GCTF was positively received by all of 
the members involved.
    Question. Given the emphasis on building partner capacity, what is 
your understanding for the role of DOD--and in particular Special 
Operations Forces--in this initiative?
    Answer. Special Operations Forces will continue to have a leading 
role in our operations and activities to defeat al Qaeda. The 
Department is prepared to sustain a significant number of deployed SOF 
around the world, working closely with allies and partners to develop 
the capabilities and capacities they need to rid their territories of 
terrorists and prevent their resurgence. We see this as predominantly 
an advise and assist mission, but the United States should always 
reserve the right to take direct action in order to defend itself from 
a terrorist attack.
    The defeat of al Qaeda cannot be achieved without bringing together 
the expertise and resources of the entire U.S. Government--
intelligence, law enforcement, military, and other instruments of 
national power--in a coordinated and synchronized manner. If confirmed, 
I would seek strong relationships with DOD's interagency partners, in 
particular, the National Counterterrorism Center, the State 
Department's Bureau of Counterterrorism, and the Center for Strategic 
Counterterrorism Communications, to maximize DOD's efforts to counter 
violent extremism. The GCTF, as a State Department-led effort, is one 
example where DOD including SOF counterterrorism and security 
cooperation activities can support and inform interagency partners' 
efforts in counterterrorism.
           department of defense counternarcotics activities
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support CN operations, build the 
capacity of certain foreign governments around the globe, and analyze 
intelligence on CN-related matters.
    What is your understanding and assessment of the DOD CN program?
    Answer. Drug trafficking and associated organized crime are a 
multidimensional threat to the national security of the United States. 
In addition to the impact on our Nation's public health and economy, 
drug trafficking and other forms of transnational organized crime 
provide a funding source for terrorists and insurgents, undermine 
legitimate government institutions, and contribute to international 
instability.
    DOD counternarcotics efforts support global DOD national security 
objectives by building partner nation capacity and working with U.S. 
law enforcement agencies such as DEA, CBP, FBI, and ICE to disrupt 
narcotics trafficking. These cost-effective, small-footprint efforts 
are consistent with the Department's January 2012 strategic guidance.
    I fully recognize the importance of DOD counterdrug activities, 
including as the statutory lead agency for aerial and maritime 
detection and monitoring of drugs bound for the United States and in 
support of law enforcement in Afghanistan and other areas of national 
security importance such as Mexico and Colombia.
    If confirmed, I look forward to ensuring that these activities are 
given their appropriate level of attention and oversight, and to ensure 
that they are as cost-effective as possible.
    Question. What is your understanding of the Department's CN 
authorities?
    Answer. The Department's counternarcotics authorities provide 
critically important tools in confronting the convergence of narcotics 
trafficking, terrorism, and other forms of transnational organized 
crime, that pose a growing threat to our national security interests.
    In addition to title 10 U.S.C. 124, which establishes the 
Department as the single lead agency for the detection and monitoring 
of aerial and maritime drug trafficking bound for the United States, 
longstanding provisions enacted in various National Defense 
Authorization Acts, allow the Department to enhance the capabilities of 
State, local, tribal, Federal, and international law enforcement 
partners. DOD counternarcotics authorities not only support broader 
U.S. Government efforts to stem the flow of illicit drugs into the 
United States, but they also support the National Guard's counterdrug 
activities in 54 States and Territories and the theater campaign plans 
of all 6 Geographic Combatant Commands.
    In my experience, counternarcotics authorities are often invaluable 
in achieving strategic national security objectives. If confirmed, I 
look forward to working with Congress to ensure these authorities are 
sustained.
    Question. Should the Department continue to play a role in 
countering illegal narcotics trafficking?
    Answer. I believe that the answer is yes. Based on my past 
experience with this issue, DOD contributes militarily unique 
capabilities that support law enforcement and a whole-of-government 
approach to address this national security threat. DOD's contributions 
have been critically important to the progress we have made since the 
1980s.
    In my view, DOD should continue to play an important role in U.S. 
counterdrug efforts in support of the National Security Strategy, the 
National Drug Control Strategy, and the Strategy to Combat 
Transnational Organized Crime.
    The enemies we face on the battlefield today are increasingly 
financed through non-traditional means, including through drug 
trafficking and other forms of organized crime. Just as DOD has long 
been focused on how traditional, State-funded adversaries are 
supported, we must use all of the tools at our disposal to counter the 
sources of revenue that support the asymmetrical threat we face today 
and are likely to face for the foreseeable future.
    Drug trafficking and other forms of transnational organized crime 
contribute to global instability by undermining legitimate government 
institutions, fostering corruption, and distorting legitimate economic 
activity. Consistent with the Department's January 2012 strategic 
guidance, DOD's efforts to build the counternarcotics capacity of 
partner nation security forces serve to prevent and deter broader 
conflicts that could require a much more costly military intervention 
in the future.
    Drug trafficking is by far the world's most lucrative illicit 
activity and therefore is used as a source of revenue by terrorists, 
insurgents, and other threats to national security. The vast illicit 
proceeds of drug trafficking can also contribute to instability in 
affected countries, particularly in smaller, more vulnerable countries 
along key transit routes as we are seeing today in Central America and 
West Africa. The national security implications of drug trafficking 
necessitate our close attention--even when the drugs are not bound 
directly for the United States.
                         counter threat finance
    Question. A number of officials in DOD and the Intelligence 
Community have called for investing additional resources in identifying 
and tracking the flow of money associated with terrorist networks and 
illicit trafficking.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. Terrorists, drug traffickers, and other adversaries rely 
heavily on licit and illicit funding sources to support their 
activities, which routinely work against U.S. interests. As Director 
for National Intelligence Clapper testified to the Senate Select 
Committee on Intelligence in January 2012, ``terrorists and insurgents 
will increasingly turn to crime and criminal networks for funding and 
logistics.''
    It is critical to engage all U.S. Government tools to track and 
halt the flow of moneys, as in Afghanistan and Iraq, where DOD has the 
capability to identify and disrupt our adversaries' finances by working 
with interagency counterparts in Afghanistan and by supporting the U.S. 
Embassy country team in Iraq.
    DOD is not the U.S. Government lead agency in counter-threat 
finance, but I believe that DOD can play a critical role working with 
other departments and agencies, and with partner nations, to fight our 
adversaries' ability to use global financial networks. I believe that 
DOD should continue to work with law enforcement agencies to ensure 
military support is targeted and tailored and are in line with DOD 
priorities.
    Question. In your view, should DOD seek to expand its support to 
other U.S. Government departments and agencies conducting counter 
threat finance activities (such as Department of Treasury, Drug 
Enforcement Agency, and Federal Bureau of Investigation)?
    Answer. I believe that DOD could selectively increase its support 
to U.S. law enforcement agencies, the Treasury Department, the 
intelligence community, and the Department of State to target and 
degrade our adversaries' funding sources. DOD brings unique 
capabilities, such as planning, intelligence analysis and tools, and 
the integration of intelligence into operations, to this effort.
    DOD Counter Threat-Finance (CTF) Policy directs that DOD work with 
other U.S. Government departments and agencies and with partner nations 
to deny, disrupt, or defeat and degrade adversaries' ability to use 
global licit and illicit financial networks to affect U.S. interests 
negatively.
    Working through the interagency, we can increase the U.S. 
Government's ability to target our adversaries' vulnerabilities through 
interdiction, sanctions, and other law enforcement actions.
       national strategy to combat transnational organized crime
    Question. Transnational criminal organizations are having a 
debilitating impact on the ability of our foreign partners to govern 
their nations and provide opportunities for their people. Last July, 
President Obama released the first National Strategy to Combat 
Transnational Organized Crime. DOD is by no means the U.S. Government's 
law enforcement agency, but it does bring unique enabling capabilities 
to our Nation's Federal law enforcement agencies.
    What role, if any, should the Department play in combating 
transnational criminal organizations?
    Answer. The President's Strategy to Combat Transnational Organized 
Crime declares that transnational organized crime ``poses a significant 
threat to national and international security.'' The Strategy calls for 
the U.S. Government to ``build, balance, and integrate the tools of 
American power to combat transnational organized crime.'' This 
direction--to take a whole-of-government approach to combating a 
national security threat--includes an important role for DOD. I believe 
that DOD should continue to focus on delivering unique capabilities in 
support of law enforcement agencies that are the lead agencies for 
combating transnational organized crime.
    Specifically, I believe that DOD should continue to provide 
military intelligence support to law enforcement, counter-threat 
finance support, and military-to-military capability development. When 
appropriate (e.g. in warzones), DOD may take the lead in operational 
activities against specific transnational criminal threats to the 
United States. As the President's Strategy notes, ``transnational 
organized crime presents sophisticated and multifaceted threats that 
cannot be addressed through law enforcement action alone.'' DOD's 
capabilities and authorities are thus critical supporting tools to 
broader U.S. Government efforts against transnational organized crime.
    The President's Strategy also directs DOD to ``enhance support to 
law enforcement through the Narcotics and Transnational Crime Support 
Center,'' a dedicated DOD-led center that integrates military, 
intelligence, and law enforcement analytic capabilities to go after key 
nodes in global criminal networks. This guidance further reflects the 
added value that the Defense Department brings to whole-of-government 
efforts against transnational organized crime.
                        nuclear weapons council
    Question. The USD(P) is a member of the Nuclear Weapons Council.
    In your view, what are the significant issues that the Nuclear 
Weapons Council should take up in the coming years?
    Answer. The Nuclear Weapons Council should continue to ensure that 
the U.S. nuclear weapons stockpile is safe, secure, and effective, in 
the absence of underground nuclear testing, and ensure modernization of 
the complex supporting the stockpile. One near-term issue before the 
NWC is to address the immediate path forward with regard to weapon 
activities that are to be conducted under NNSA's Future Years Nuclear 
Security Program.
    Question. If confirmed would you commit to active personal 
participation in Nuclear Weapons Council matters?
    Answer. I have participated in the NWC while serving as Principal 
Deputy Under Secretary for Policy, and plan to continue to do so as 
Under Secretary, if confirmed.
                 nuclear weapons complex modernization
    Question. Section 1251 of the National Defense Authorization Act 
for Fiscal Year 2010 (Public Law 111-84) required a report (the ``1251 
report'') on plans for modernizing the nuclear weapons complex and 
strategic delivery systems. Prior to the Budget Control Act of 2011, 
the 1251 report that accompanied the New START treaty set forth a 
robust plan for modernizing the nuclear weapons complex and the triad 
of nuclear delivery vehicles.
    Do you support the modernization plan set forth in the 1251 report?
    Answer. Yes. The administration's commitment to maintaining a safe, 
secure and effective nuclear deterrent, and recapitalizing the nuclear 
complex, was set forth in the Nuclear Posture Review and amplified in 
detail through the ``1251 report''. That plan remains sound, however, 
the Budget Control Act requires DOD and the Department of Energy to 
make a variety of difficult choices. If confirmed, I will continue to 
work to ensure that both DOD and the Department of Energy have the 
investments needed to support modernization of the nuclear weapons 
complex and strategic delivery systems.
    Question. Do you agree that modernizing the nuclear triad and 
replacing critical infrastructure, such as the Chemistry and Metallurgy 
Research Replacement (CMRR) at Los Alamos and the Uranium Processing 
Facility (UPF) at Y-12, should be national security priorities that 
should be addressed in a timely manner?
    Answer. Yes. Modernizing the U.S. strategic nuclear enterprise as a 
whole is a key national security priority. The decision to defer the 
CMRR was a difficult one, but was made to permit critical warhead life 
extension programs to move forward in the newly constrained fiscal 
environment. This tradeoff was approved by the Nuclear Weapons Council 
after careful review. Moreover, the DOD's independent UPF/CMRR study 
concluded that if funding limits constrained parallel construction of 
the two facilities, then phased construction would be a prudent 
alternative approach, with UPF construction beginning first.
    Question. There appear to be differing views on how best to reduce 
the hedge stockpile of W-78 and W-88 warheads within the Department, 
which is important to reduce the size of our overall stockpile. One 
view advocates a common warhead and another view advocates two warheads 
that have interchangeable components.
    Please tell the committee which view you would advocate for, if 
confirmed, and why.
    Answer. Efforts to develop a common warhead would allow DOD to 
reduce the number of warhead types in the stockpile and to reduce the 
number of warheads needed to protect the nuclear deterrent should a 
technical failure be discovered. Warhead commonality would also allow 
for substantial reductions in life-cycle and production costs. 
Adaptable or interchangeable components can be configured to provide a 
degree of commonality, and would preserve more diversity in the 
stockpile.
    Before making a recommendation on this issue, I would like to see 
the results of analysis currently under way on this issue by the 
Services and the NNSA Labs.
               dod's cooperative threat reduction program
    Question. Do you think the CTR program is well coordinated among 
the U.S. Government agencies that engage in threat reduction efforts in 
Russia, e.g., DOD, the State Department and the Department of Energy?
    Answer. I believe that the Cooperative Threat Reduction program is 
well-coordinated with activities of other U.S. Government agencies in 
the Russian Federation, and in the other countries where it operates. 
Coordination is accomplished at staff and management levels in 
Washington, and through close collaboration in the field. If confirmed, 
I will ensure that continuation of this approach remains a hallmark of 
the program.
    Question. The CTR program has been expanded to geographic areas 
outside the former Soviet Union.
    What in your view are the key proliferation concerns that CTR 
should address outside the former Soviet Union? Please explain.
    Answer. I believe that the Cooperative Threat Reduction program can 
be an important tool to address specific WMD-related threats and 
prevent new WMD threats from developing. For example, CTR can help 
secure or eliminate radiological, chemical or bio-security threats, or 
threats posed by related delivery systems or infrastructure. CTR can 
also be used to build security partnerships related to WMD threats. 
This is especially appropriate in some areas outside the former Soviet 
states where partner countries are cooperating to improve bio-security 
standards and surveillance, as well as border security to improve WMD 
interdiction capacity.
    Question. Which countries outside the former Soviet Union should be 
the focus of this expansion of the CTR Program?
    Answer. The focus of expansion beyond countries of the former 
Soviet Union should be in areas where the CTR Program can directly and 
appreciably reduce WMD threats, contribute to more effective military-
to-military or political strategic partnerships, strengthen the 
nonproliferation framework, and bring to bear unique threat reduction 
capabilities, resources or partnerships that other U.S. Government 
threat reduction and related programs cannot. Current expansion efforts 
are underway in Africa and Asia.
    Question. CTR has completed or will soon complete the bulk of the 
scheduled work with Russia.
    What in your view is the next step, if any, in the U.S.-Russia CTR 
program?
    Answer. The United States and Russia can continue to cooperate on 
nuclear security-related activities through the CTR program. These 
include transition of sustainment responsibilities for U.S.-provided 
security upgrades to the Russian Ministry of Defense, cooperation on 
security for dangerous spent reactor fuel, and support to bilateral 
defense and military cooperation related to WMD threat reduction.
                        illicit arms trafficking
    Question. In July, governments of the world will gather at the 
United Nations to negotiate a global Arms Trade Treaty which would set 
global standards on the international transfer of conventional weapons. 
What is your understanding of the problem of illicit arms trafficking 
and the role of the United States to deal with the problem?
    Answer. The arms market is increasingly complex and global. 
Existing regional and national arms export control systems do not 
provide complete, global coverage. This creates gaps which are being 
exploited by illicit arms dealers. I believe that the United States 
should seek to negotiate a robust and effective Arms Trade Treaty, 
which may close these gaps.
    Question. In your view, to what extent, if at all, does the lack of 
national controls and enforcement on arms flows contribute to the 
illicit trafficking problem, and could efforts to respond to illicit 
trafficking be improved if other countries adopted and enforced 
national regulations on arms import, export, and transit similar to 
those of the United States?
    Answer. An Arms Trade Treaty would be a legally binding agreement 
which will require states to establish high national standards in 
controlling the export of conventional arms. Such norms should better 
regulate the global arms market to prevent weapons reaching the hands 
of terrorists, insurgents, and human rights abusers.
    Question. Enhance U.S. national security interest efforts in the 
region?
    Answer. U.S. national security interests would be served by a 
treaty that increases international standards in different regions; 
includes major arms exporters such as Russia and China; reaffirms the 
right of self-defense and the legitimacy of arms transfers for security 
purposes; does not undermine existing nonproliferation and export 
control regimes; and is agreed through consensus.
    Question. What is your view on whether or not the United States 
should be a party to this effort?
    Answer. U.S. participation in the negotiations will help ensure the 
treaty establishes a high standard of international behavior that will 
ultimately reduce the proliferation of conventional arms. I would need 
to see the results of negotiation to make any further recommendation.
                              arms control
    Question. What role do you see for arms control as a means of 
improving U.S. national security?
    Answer. Arms control can continue to play an important role in 
advancing U.S. national security by providing predictability and 
stability in certain strategic relationships, particularly in U.S.-
Russian relations. Arms control should never be an end unto itself; 
neither is it a tool that can be employed without the context of a 
well-prepared and effective military force.
    Question. What are your views on the next bilateral steps to 
address nuclear weapons issues between the United States and Russia?
    Answer. I believe that as New START is implemented and any issues 
that arise are addressed in the Bilateral Consultative Commission, we 
should continue to work with Russia to lay the groundwork for future 
bilateral negotiations on reducing both strategic and nonstrategic 
weapons, including nondeployed weapons.
    The Report of the Nuclear Posture Review noted that because of our 
improved relations, strict numerical parity between the United States 
and Russia is no longer as compelling as it was during the Cold War. 
However, it also indicated that large disparities in nuclear 
capabilities could raise concerns on both sides and among U.S. allies 
and partners, and may not be conducive to maintaining a stable, long-
term strategic relationship, especially as nuclear forces are 
significantly reduced. By joining with the world's other principal 
nuclear power to move to lower levels of forces in concert, arms 
control thus provides a means for strengthening strategic stability in 
our relationship with Russia.
    Question. What conditions, if any, do you believe need to be met to 
further reduce our strategic nuclear stockpile through arms control?
    Answer. As I stated in testimony of November 2, 2011, the ongoing 
Nuclear Posture Review Implementation Study will help identify the 
force levels needed to support deterrence and targeting requirements. 
The completion of this analysis is necessary to inform the formulation 
of any future arms control objectives involving our nuclear stockpile. 
In general however, I believe that future nuclear reductions should 
maintain strategic deterrence and stability with regard to Russia and 
China, strengthen deterrence of potential regional adversaries, and 
ensure the credibility of our security assurances to our allies and 
partners. We also must guarantee our operational flexibility and 
ability to hedge against geopolitical and technical uncertainty.
    Question. In your response to prehearing policy questions for your 
nomination to be Deputy USD(P), you answered that ``One way to 
strengthen the [Nuclear Nonproliferation Treaty (NPT)] regime would be 
to ensure that any violation automatically triggers sanctions.''
    Do you still agree with that statement, or would you modify it?
    Answer. In my prior response, I said that we should work to 
strengthen the Treaty by encouraging states to adhere to the NPT and to 
agree to International Atomic Energy Agency inspections. I continue to 
believe that one way to strengthen the NPT regime would be to ensure 
that violations automatically trigger sanctions. I also mentioned in my 
response that other ways to strengthen the Treaty should be examined as 
well. For example, this could include a requirement for a State that 
withdraws from the NPT to return all nuclear material and equipment 
that had been supplied while it was Party to the NPT.
    Question. In your response to the pre-hearing policy questions for 
your nomination to be Deputy USD(P), you stated that you believe the 
Comprehensive Test Ban Treaty (CTBT) is ``in America's national 
security interest, and . . . that with careful planning and continued 
investment that the United States can ensure the safety, reliability, 
surety, security, and sustainability of our nuclear deterrent under a 
CTBT.''
    Do you still agree with that statement, or would you modify it?
    Answer. I do still agree with that statement. The Department of 
Energy's Stockpile Stewardship Program has proven itself to be 
successful, and continues to ensure the safety, security, and 
effectiveness of our nuclear deterrent. At the same time, our ability 
to detect nuclear tests has improved since the Treaty was first 
considered. The CTBT remains fully in America's national security 
interest.
                       ballistic missile defense
    Question. In February 2010, the Defense Department issued its 
report on the first-ever comprehensive review of U.S. ballistic missile 
defense policy and strategy, the Ballistic Missile Defense Review 
(BMDR), as required by Congress. The BMDR established a number of 
policy priorities, including establishing defense against near-term 
regional missile threats as a top priority of missile defense plans, 
programs and capabilities. It also stated the policy of sustaining and 
enhancing the ability of the Ground-based Midcourse Defense system to 
defend the homeland against attack by a small number of long-range 
missiles by countries such as North Korea and Iran, and of hedging 
against future uncertainties.
    Do you support the policies, strategies, and priorities set forth 
in the Ballistic Missile Defense Review and, if confirmed, will you 
implement them?
    Answer. Yes, I continue to support the policies, strategies, and 
priorities set forth in the February 2010 Report of the BMDR and, if 
confirmed, I will continue to do my best to implement them.
    Question. Do you agree that our missile defense must be fiscally 
sustainable?
    Answer. Yes. DOD has tailored its budget request to requirements of 
the Budget Control Act. Missile defense is emphasized in the new 
strategic guidance, and the Department has used a clear set of 
priorities to guide spending decisions in this mission area. We have 
protected our top missile defense priorities, including defending the 
homeland, implementing the European Phased Adaptive Approach (EPAA), 
and pursuing Phased Adaptive Approaches (PAAs) with allies and partners 
in the Middle East and Asia-Pacific.
    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to pursue a Phased Adaptive Approach (PAA) to 
missile defense in Europe. This approach is intended to defend all of 
Europe against existing and emerging threats from Iranian missiles, 
increasing in capability with each of its four phases. Phase 4 of the 
European PAA is intended to provide a capability to defend against 
potential future long-range missiles from Iran that could reach the 
United States, thus augmenting the existing homeland missile defense 
capability.
    Do you support the Phased Adaptive Approach to Missile Defense in 
Europe and, if confirmed, will you implement it?
    Answer. Yes, I support the EPAA and, if confirmed, I will continue 
to support the United States' efforts to implement it.
    Question. Do you agree that any ballistic missile defense systems 
(BMDS) that we deploy operationally must be operationally effective, 
suitable, survivable, cost-effective, affordable, and should address a 
credible threat?
    Answer. Yes. I believe that DOD should continue to subject new 
ballistic missile defense capabilities to testing under realistic 
operational conditions, against threat-representative targets. DOD 
should invest in BMD capabilities that are fiscally sustainable over 
the long term, and rely on mobile and relocatable assets in order to 
provide maximum adaptability in a crisis or to reflect changing 
threats.
    Question. Do you agree that ballistic missile defense testing needs 
to be operationally realistic, and should include Operational Test and 
Evaluation, in order to assess operational capabilities and limitations 
of BMDS, prior to deploying such systems?
    Answer. Yes. U.S. ballistic missile defense testing needs to be 
operationally realistic and include robust Operational Test and 
Evaluation. Realistic testing of the system allows us to field new 
capabilities as they become available and integrate them into the BMDS 
architecture. The ``fly-before-you-buy'' policy outlined in the Report 
of the BMDR still makes good sense.
    Question. The United States and NATO are seeking options to 
cooperate with Russia on missile defense, including the possibility of 
sharing radar and early warning data. President Obama has announced 
that such cooperation would not limit U.S. or NATO missile defense 
capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
Iran, and could send a powerful signal to Iran that could help persuade 
Iran not to pursue long-range missiles or nuclear weapons?
    Answer. Yes. I believe that missile defense cooperation with Russia 
could strengthen common defenses against Iranian missiles, and send an 
important signal to Iran that Russia and the United States are working 
together to counter the acquisition, deployment, and use of ballistic 
missiles.
    Question. Do you agree that, notwithstanding Russian concerns, the 
United States is committed to the continued development and deployment 
of United States missile defense systems, including qualitative and 
quantitative improvements to such systems, needed to meet our security 
needs?
    Answer. Yes. The United States has pursued missile defense 
cooperation with Russia with the clear understanding that we would not 
accept constraints on missile defense, and that we would undertake 
necessary qualitative and quantitative improvements to meet U.S. 
security needs
                   space management and organization
    Question. What role, if any, do you believe the USD(P) should play 
in the establishment of a national security space policy?
    Answer. I believe that the USD(P) should lead DOD in supporting the 
development and revision of national security space policy, and should 
remain responsible for establishing and overseeing the implementation 
of overarching DOD space policy developed in accordance with the 
National Space Policy, National Security Space Strategy, and associated 
guidance.
    Question. Do you support the policy of having an operationally 
responsive space (ORS) capability as a means to lower the cost and time 
for the development of national security space payloads?
    Answer. Yes, operationally responsive space capabilities are a key 
way to ensure that resilience, survivability, and flexibility are 
considered in all future space programs.
    Question. The launch of the ORS-1 satellite demonstrated that 
giving combatant commanders such as CENTCOM the ability to control a 
small operationally responsive satellite can be successful.
    Would you support extending this capability to other COCOMS through 
the development of additional small tactically responsive satellites?
    Answer. The valuable role that ORS capabilities can play in 
responding to combatant commander needs is one of the lessons-learned 
from ORS-1 that we are transferring to the Air Force's Space and 
Missile Center. Incorporating these lessons-learned into the larger 
space acquisitions enterprise will ensure that responsive space 
capabilities continue to support COCOM needs.
    Question. Space systems, like other military systems, rely on the 
availability of sufficient frequency spectrum. However, frequency 
spectrum is becoming scarce, and its sale has been used as a source of 
revenue for the government.
    If confirmed, how will you work with the Services, the Joint Staff 
and other elements of DOD to ensure that the Department's frequency 
spectrum requirements are accounted for in interagency discussions 
about potential spectrum auctions?
    Answer. If confirmed, I will work with the DOD Chief Information 
Officer, the Military Services, and the Joint Staff to ensure that the 
Department achieves balanced policy solutions that maintain critical 
spectrum-dependent mission capabilities for our warfighters while 
addressing the economic value of spectrum to be auctioned for 
commercial services.
                       special operations forces
    Question. The previous two Quadrennial Defense Reviews have 
mandated significant growth in our Special Operations Forces and 
enablers that directly support their operations.
    Do you believe that we should further increase the number of 
special operations personnel? If so, why, and by how much?
    Answer. I believe that completing the QDR 2006 and 2010-directed 
growth in Special Operations Forces (SOF) and Combat Support and Combat 
Service Support personnel will posture U.S. Special Operations Command 
(SOCOM) to conduct the range of anticipated operations effectively in 
the future. These forces will continue to require Service provided 
enablers to sustain the level of mobility, ISR, fires, and medical 
evacuation, in differing mixtures, based on the operational 
environment.
    Question. In your view, how can the size of SOFs be increased while 
also maintaining the rigorous recruiting and training standards for 
special operators?
    Answer. Experience has shown that SOF manpower growth of 3-5 
percent annually can be sustained and has not diluted the force or 
outpaced the required training and support structure. In my view, SOCOM 
has done an excellent job of adjusting its processes to maintain the 
quality of SOF operators and support personnel during this current era 
of SOF growth.
    Question. In recent years, SOFs have taken on an expanded role in a 
number of areas important to countering violent extremist 
organizations, including those related to information and military 
intelligence operations. Some have advocated changes to the activities 
of SOCOM's enumerated in section 167 of title 10 to more specifically 
track the activities SOFs are carrying out around the world.
    Do you believe any modifications to SOCOM's title 10 missions are 
appropriate? If so, what modifications would you suggest?
    Answer. The Department uses a range of processes, including the 
development of the Unified Command Plan, to review the mission sets and 
responsibilities it assigns to SOCOM on an ongoing basis. Additionally, 
the language in section 167 of title 10, U.S.C., includes ``such other 
activities as may be specified by the President or the Secretary of 
Defense,'' which provides the President and the Secretary of Defense 
the flexibility needed to meet changing circumstances. Hence, at this 
time I would not advocate significant changes to SOCOM's title 10 
missions.
    Question. What can be done to ensure that indirect special 
operations missions with medium- and long-term impact, such as 
unconventional warfare and foreign internal defense, receive as much 
emphasis as direct action, and that they receive appropriate funding?
    Answer. The activities of SOFs are quite varied, from high-risk 
strikes and counterterrorist raids to working by, with, and through 
local partners, whether in the form of training and advising foreign 
counterparts, or providing support to civilian authorities abroad. I 
believe that each of these missions is highly valued within the Special 
Operations community. However, as the security landscape has changed, 
the demands for these kinds of missions have begun to exceed the 
ability of the Special Operations community alone to meet them. As a 
remedy to this situation, and consistent with QDR 2010, the Department 
is building the capacity and capabilities of the conventional forces to 
be prepared to take on more of the kinds of missions that used to fall 
exclusively to SOF; for example, Security Force Assistance. I believe 
that broadening the spectrum of irregular missions that our 
conventional forces are able to take on will alleviate some burdens on 
the SOF community and ensure that the Total Force is adequately 
prepared to undertake and support both direct and indirect missions. I 
believe that increasing the contribution of conventional forces to 
these missions will help ensure adequate capabilities overall, and 
proper balance in both conventional and SOFs.
                       interagency collaboration
    Question. The collaboration between U.S. SOFs, general purpose 
forces, and other U.S. Government departments and agencies has played a 
significant role in the success of counterinsurgency and 
counterterrorism operations in recent years. However, much of this 
collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. I believe one of the most important lessons learned has 
been the necessity of close civil-military collaboration at all levels, 
at the tactical level with organizations such as Provincial 
Reconstruction Teams (PRT), and Embedded PRTs, as well as unity of 
effort at the operational and strategic level. Such unity of effort is 
critical in missions ranging from direct action to building partner 
capacity. We can facilitate this type of coordination through 
organizational structures, but much of this is also a cultural issue--
making collaboration and coordination part of the ethos of our civil 
and military institutions. Experiences from recent conflicts have done 
this to a large degree, although institutionalization can and should be 
continued.
    Question. How do you believe these efforts can be improved?
    Answer. One of the lessons learned has been the need for close 
collaboration early on in the planning phase, before a contingency 
begins. This lesson can and should carry forward to future 
contingencies. Recent conflicts have also pointed to the need for 
sufficient capacity and capability within civilian agencies for these 
kinds of contingency operations.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
counterinsurgency and counterterrorism operations?
    Answer. The DOD has a host of mechanisms for capturing lessons 
learned and incorporating them into doctrine, such as the Army Center 
for Lessons Learned, as well as regular updates to Service and Joint 
doctrine. I believe that DOD has been responsive and adaptive over the 
past several years of conflict, releasing an updated joint Army and 
Marine Corps Field Manual on Counterinsurgency as well as incorporating 
tactical and operational lessons learned into deployment training and 
forces deployed. I believe that such efforts should continue and I 
believe they will serve the Department well in any future contingency.
                      private security contractors
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform security functions risked undermining our 
defense and foreign policy objectives in Afghanistan?
    Answer. If confirmed, I will support the Under Secretary of Defense 
for Acquisition, Technology and Logistics in ensuring the Department's 
responsibilities in this regard are met. The use of force by 
contractors or military personnel can, if misapplied, undermine our 
policy objectives. Contractors for physical security missions have been 
a necessity in Iraq and Afghanistan and are likely to be so in future 
contingencies. DOD has established procedures over time to manage these 
contractors more effectively, in order to prevent unnecessary violence 
that would be detrimental to our policy objectives. This is an area 
that requires constant attention and continued supervision to ensure 
that our policy is appropriate and effective.
    Question. What steps, if any, would you take, if confirmed, to 
reduce the Department's reliance upon contractors to perform security 
functions in Afghanistan?
    Answer. If confirmed, I would work to facilitate the transition 
from private security contractors to the Afghan Public Protection 
Force. I would also ensure that the combatant commander is furnished 
with clear policy assuring that private security contractors are only 
being used where appropriate and necessary. Our commanders on the 
ground must have authority to restrict security contractors' operations 
as the situation requires.
    Question. What steps, if any, would you take, if confirmed, to 
ensure that any private security contractors who may continue to 
operate in an area of combat operations act in a responsible manner, 
consistent with U.S. defense and foreign policy objectives?
    Answer. If confirmed, I would work with the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, the Joint Staff, 
the General Counsel of DOD, and combatant commanders to ensure that 
commanders at all levels understand their responsibilities regarding 
armed contractors operating in support of them or in their operational 
area. This includes ensuring commanders are aware of extant legal 
responsibilities with respect to qualification, training and vetting 
requirements as well as the limitations on the use of force by these 
contractors.
    I would also work to ensure that combatant commanders are furnished 
with clear policy assuring that private security contractors are only 
being used where appropriate and necessary. Our commanders on the 
ground must have authority to restrict security contractors' operations 
as the situation requires.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. I support steps to ensure that there is legal 
accountability for the actions of all contractors performing work for 
the U.S. Government in an area of combat operations. If confirmed, I 
will support DOD efforts to work with our interagency partners to build 
appropriate mechanisms to ensure such accountability.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes, I do.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes. I believe that DOD and more broadly U.S. leadership 
should be mindful of multiple considerations when developing standards 
for detainee treatment, including that the manner in which we treat our 
own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts.
                          interrogation policy
    Question. In answer to questions for the record at his nomination 
hearing last June, Secretary Panetta stated that he fully supported 
President Obama's decision to establish the Army Field Manual 2-22.3 as 
the single interrogation standard applicable to all interrogations by 
U.S. Government personnel. Secretary Panetta also stated that he did 
not support a set of classified interrogation methods that are not open 
to public scrutiny.
    Do you agree with Secretary Panetta that the Army Field Manual 2-
22.3 should serve as the single interrogation standard for all 
interrogations conducted by U.S. Government personnel?
    Answer. Yes.
    Question. Do you agree with Secretary Panetta in not supporting a 
set of classified interrogation methods?
    Answer. Yes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the USD(P)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Question Submitted by Senator Mark Begich
                              artic policy
    1. Senator Begich. Dr. Miller, I recently wrote you a letter 
regarding the Department of Defense's (DOD) Arctic Policy. I 
appreciated your response which talked about collaboration with the 
Department of Homeland Security strategy for investment in required 
Arctic capabilities and recognition of Alaska's strategic location. I 
also appreciated your strong closing in the letter of support accession 
to the Law of the Sea Convention. If confirmed, will you continue to 
support accession? Please describe how accession would benefit DOD's 
Arctic policy.
    Dr. Miller. If confirmed, I will continue to support strongly U.S. 
accession to the 1982 Law of the Sea Convention (LOSC).
    With respect to the Arctic, we recognize that the United States has 
broad and fundamental national security interests in the region and is 
prepared to operate in conjunction with other nations when possible, 
and independently if necessary, to safeguard these interests. DOD's 
Arctic Report states that our strategic objectives are to prevent and 
deter conflict, and to prepare to respond to a wide range of challenges 
and contingencies. U.S. accession to the 1982 LOSC would benefit DOD's 
Arctic Policy to the extent that all Arctic nations support the use of 
existing mechanisms within the framework of existing international law, 
including as reflected in the 1982 LOSC. As we look toward a peaceful 
opening of the Arctic accompanied by a projected increase of human and 
economic activity there, the LOSC would assist in addressing a range of 
issues likely to arise, including maritime delimitation, shipping lane 
management, and extended continental shelf claims. The LOSC could 
thereby help deter conflict.
    Further, as we prepare to respond to a wide range of challenges and 
contingencies worldwide, protecting our navigational freedoms enshrined 
in the LOSC are key. The current status of the United States as a non-
Party requires us to assert our rights through customary international 
law, subject to change based on state practice--whereas treaty law 
remains the firmest foundation underpinning navigational freedoms.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                           asia-pacific study
    2. Senator McCain. Dr. Miller, on March 23 2012, DOD responded to 
the direction of Congress as provided in section 346 of the NDAA for 
Fiscal Year 2012 by contracting for an independent study of the force 
posture of U.S. military forces in the Asia-Pacific region. If 
confirmed, would you be committed to ensuring this committee receives 
an objective, independent assessment, free of any type of restriction 
imposed by DOD?
    Dr. Miller. Yes, I am committed and, if confirmed, will remain 
committed to ensuring this committee receives an objective, independent 
assessment, free of any type of restriction imposed by DOD.

    3. Senator McCain. Dr. Miller, are you aware of any terms of 
reference or guidance provided to the independent agency that deviates 
in any way from congressional intent? If so, please explain.
    Dr. Miller. No. The Department provided additional guidance to the 
entity conducting the independent study, but I am confident that 
guidance is consistent with congressional intent. The Department 
requested the independent entity to provide Congress with a preliminary 
independent assessment of the Department's current U.S. Marine Corps 
realignment plan. Although this preliminary independent assessment is 
not required by section 346 of the National Defense Authorization Act 
for Fiscal Year 2012, the Department submitted the preliminary 
independent assessment to provide Congress with an assessment of 
proposed posture changes currently under consideration with the 
Government of Japan.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                         defense pow/mia office
    4. Senator Chambliss. Dr. Miller, if confirmed, you will have 
authority over the Defense Prisoner of War (POW)/Missing in Action 
(MIA) Office, or DPMO. I have a particular interest in POW/MIA issues 
due to my position as a member of the U.S.-Russia Joint Commission on 
POW/MIAs, the U.S. side of which is administratively under DPMO. I know 
that POW/MIA issues can be challenging given the difficulty of getting 
to some of the investigation sites, the limited amount of people 
devoted to the problem, and the enormity of the task--given that DOD is 
responsible for accounting for all U.S. POW/MIAs back to World War II. 
I know from experience that the people involved with this issue, 
obviously including the family members of those missing, are extremely 
passionate and also extremely hard-working. If confirmed, will you make 
a point to look into how DOD handles POW/MIA accounting issues and do 
everything you can to make sure that mission is properly resourced and 
absolutely as effective as possible?
    Dr. Miller. If confirmed, I will continue to advocate for 
appropriate resources and support efforts to account for our missing 
Service personnel. All DOD organizations have been receiving increased 
scrutiny to ensure resources are employed efficiently. At the same 
time, in response to the National Defense Authorization Act for Fiscal 
Year 2010, the Department has increased resources, both manpower and 
personnel, for the U.S. Pacific Command's Joint POW/MIA Accounting 
Command (JPAC), and we are seeing growth in this mission. In fiscal 
year 2012, this included a $30 million plus-up for JPAC for increased 
capacity. Also, JPAC is in the process of hiring additional personnel 
and establishing a second laboratory in the continental United States, 
which should increase the pace at which remains are recovered and 
identified. We have increased efforts to research losses from World War 
II, collect DNA reference samples from families of missing Service 
personnel and developed new methodologies to help identify remains of 
unknown Service personnel interred in National Cemeteries.

    5. Senator Chambliss. Dr. Miller, will you look into the 
relationship between DPMO and the U.S.-Russia Joint Commission on POW/
MIAs including how DPMO currently does and should provide support to 
the U.S. side of the U.S.-Russia Joint Commission on POW/MIAs, and 
ensure that the Commission is getting the appropriate support to carry 
out its mission and that any DOD personnel and resources intended to 
support the work of the Commission are used for that purpose?
    Dr. Miller. Yes, I will ensure that the U.S.-Russia Joint 
Commission on POW/MIAs receives the appropriate support to carry out 
its mission. The Commission is comprised of relatively senior U.S. 
Officials, including yourself. However, most of the personnel 
accounting effort is carried out in Russia by the Defense POW/Missing 
Personnel Office (DPMO), which has a statutory responsibility to 
account for missing personnel through its Joint Commission Support 
Directorate (JCSD). DPMO/JCSD conducts research, analysis, and 
investigations in Russia on U.S. personnel missing from past wars. The 
preponderance of this work is from material collected from Russian 
archives, interviews with Soviet/Russian veterans, and field 
investigations. Additionally, DPMO/JCSD searches for information in the 
U.S. archives on missing Russian personnel (or assists the Russians in 
conducting such searches) and intends to work with the planned Russian 
support office to be established at the Russian Embassy in Washington, 
DC.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown
             acquisition and deployment of defense systems
    6. Senator Brown. Dr. Miller, does the acquisition and deployment 
of area defense systems remain important to U.S. defense strategy, 
especially in regions where our potential adversaries possess 
significant armored or maritime forces?
    Dr. Miller. Yes, it remains important to the U.S. defense strategy. 
The Department is always reviewing its capacity to defend against 
emerging threats to determine what improvements can be made to existing 
systems and where we need to invest in new technologies.

                          sensor-fuzed weapon
    7. Senator Brown. Dr. Miller, if international advocacy groups are 
successful in breaking the supply chain for the Sensor-Fuzed Weapon, 
what are the materiel, cost, and humanitarian implications for U.S. 
contingency planning and warfighting strategy in the Korean Peninsula 
and Persian Gulf regions?
    Dr. Miller. Cluster munitions, employed in accordance with the laws 
of war, are legitimate weapons with clear military utility. They 
provide a distinct advantage against a range of targets and can result 
in less collateral damage than unitary weapons. There remains a 
military requirement to engage area targets that include massed 
formations of enemy forces, individual target dispersed over a defined 
area, targets whose precise locations are not known, and time-sensitive 
or moving targets.
    The Department considers a range of future scenarios when assessing 
the ability of programmed forces to accomplish key missions. These 
assessments include evaluations of programmed stocks of munitions. The 
Department's programmed inventory of Sensor-Fuzed Weapons is sufficient 
to meet currently anticipated requirements.

    8. Senator Brown. Dr. Miller, what would the implications be for 
U.S. allies that have current, pending, and prospective Foreign 
Military Sales agreements with our Government?
    Dr. Miller. U.S. Government exports the CBU-105 consistent with the 
requirements of section 7056 of the Department of State, Foreign 
Operations, and Related Programs Appropriations Act, 2009 (Public Law 
111-8, Division H), which provides that, for purposes of military 
assistance, defense export licensing, and technology sales or 
transfers, cluster munitions must ``have a 99 percent or higher 
functioning rate.'' If the supply chain is broken, our allies may 
decide to keep their older munitions beyond their service life until 
suitable replacements are acquired and/or developed. The Department has 
not identified any potential alternatives for U.S. allies should U.S. 
industry be unable to produce the Sensor-Fuzed Weapon.

    9. Senator Brown. Dr. Miller, is DOD equipped to counter such 
campaigns, whether it is the current one against the Sensor-Fuzed 
Weapon or a looming one against armed drones? If so, how is DOD doing 
this?
    Dr. Miller. Any campaign focused on the U.S. defense industrial 
base is a complex issue. Protecting the U.S. defense industrial base 
and national security interests is a major priority and requires the 
DOD to collaborate effectively with other Federal executive departments 
and agencies, as well as with Congress. We must ensure that we 
thoroughly understand the potential risks and communicate those risks 
to our defense industry partners. We seek to work closely with our 
defense industry partners to protect our domestic industrial 
capabilities. We also must explain to the public that the weapons at 
issue are legitimate, and their proper use fully consistent with both 
international law and our values as a Nation.

    10. Senator Brown. Dr. Miller, many of DOD's current inventories of 
weapons do not meet the DOD policy of less than 1 percent unexploded 
ordnance. Since the policy states that non-compliant weapons will not 
be employed after 2018, please explain DOD's plans and programs (to 
include budget lines and funding profiles) to replace or upgrade these 
weapons.
    Dr. Miller. I would defer to the acting Under Secretary of Defense 
for Acquisition, Technology, and Logistics for the specifics, but I 
believe the Guided Multiple Launch Rocket System (GMLRS) Alternative 
Warhead (AW) will replace the existing inventory of M26/M26A1/M26A2 
dual-purpose, improved conventional munition (DPICM) rockets with a DOD 
cluster munitions policy-compliant system. As you may know, the GMLRS 
AW is a precision-guided, area suppression weapon system with a 
required maximum range of 70 km.
    Completion of development of the GMLRS AW will occur in 2015 with 
an initial operational capability (IOC) of 324 GMLRS AW rockets 
scheduled for early 2017. The GMLRS AW is fully funded with $159.6 
million programmed for development. The GMLRS AW will be integrated 
into the GMLRS rocket production line in 2016 with a remaining $1.35 
billion programmed for procurement through 2022. The Army GMLRS 
Procurement Objective (APO) is for 43,560 rockets.
    A policy-compliant cannon DPICM replacement for M483 and M864 155mm 
DPICM projectiles and the M39 Army Tactical Missile System (ATACMS) 
Anti-Personnel/Anti-Material (APAM) missiles is being evaluated. The 
intent is to capitalize on the GMLRS AW for potential technology reuse 
for application to a 155-mm cannon DPICM and ATACMS APAM replacement.
    The Joint Standoff Weapon (JSOW) program is developing a 
modification plan and cost estimate to replace the non-compliant JSOW-A 
submunitions (BLU-97) weapon with an alternate warhead (BLU-111), while 
retaining the JSOW's area effect capabilities after 2018. The JSOW-A 
modification program is not a program of record, and I understand that 
no decision to fund or pursue this option has been made by the 
Department of the Navy.

    11. Senator Brown. Dr. Miller, can you reaffirm the U.S. position 
that the BLU-108 is the submunition of the Sensor-Fuzed Weapon, because 
it is a conventional munition released by a cluster munition and 
functions by detonating an explosive charge before impact?
    Dr. Miller. I defer to the acting Under Secretary of Defense for 
Acquisition, Technology, and Logistics for the specifics, but I believe 
that the Department has assigned a Bomb Live Unit (BLU) designation 
(BLU-108) to the Sensor-Fuzed Weapon submunition. The BLU designation 
identifies a component of a U.S. cluster munition as a submunition. We 
have not assigned a BLU or similar designation to any other component 
of the Sensor Fuzed Weapon. Therefore, as I understand it, the U.S. 
position is that the BLU-108 is the Sensor-Fuzed Weapon submunition.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                    contracting with rosoboronexport
    12. Senator Ayotte. Dr. Miller, are you aware of Rosoboronexport's 
activities in Syria and how that company, which is affiliated with the 
Russian Government, has continued to arm the Assad regime and enable 
that regime's murder of its own citizens?
    Dr. Miller. I cannot go into detail in an unclassified setting, but 
can say that Russia remains a top supplier of weapons to Syria. Recent 
press articles reported that several cargo ships used by 
Rosoboronexport have delivered cargo to Syria. Other press reporting 
indicates that Rosoboronexport signed a deal with the Syrian Government 
in January to sell 36 military aircraft.

    13. Senator Ayotte. Dr. Miller, what business is DOD conducting 
with Rosoboronexport?
    Dr. Miller. Rosonboronexport is a Russian Federation state-owned 
enterprise which, under Russian law, has authority over export of Mi-17 
aircraft that are purchased for military use. To support the U.S. 
strategy to build the Afghan Air Force and thus facilitate a transition 
to Afghan National Security Forces taking full responsibility for the 
security of Afghanistan by the end of 2014, the Department has procured 
Mi-17 aircraft, spare parts for maintenance, and engineering support 
services. This includes documentation which is available only from 
Rosoboronexport.

    14. Senator Ayotte. Dr. Miller, is it correct that DOD is 
purchasing helicopters from Rosoboronexport for use in Afghanistan?
    Dr. Miller. Yes. In May 2011, the Army entered into a contract with 
Rosoboronexport for 21 Mi-17 helicopters for use in Afghanistan. Under 
Russian Law, Rosoboronexport is the sole entity controlling export of 
military use Mi-17 helicopters. The contract includes purchase of spare 
parts and engineering support and contains an option for 12 attrition 
replacement aircraft.

    15. Senator Ayotte. Dr. Miller, do you believe it is appropriate to 
be paying taxpayers' dollars to a Russian company that is arming Assad 
and enabling his murder of over 8,000 civilians?
    Dr. Miller. Administration officials have repeatedly made it clear 
to senior Russian leaders that the administration does not support 
Russian arms shipments to the Assad regime while the regime engages in 
violence against their people. The helicopter contact with the Russian 
company Rosoboronexport reflects our commitment to balance between the 
two national security priorities of equipping the Afghan National 
Security Forces with the necessary equipment to transition security 
responsibilities, and finding ways to isolate the Assad regime in 
Damascus.

                             digital policy
    16. Senator Graham. Dr. Miller, how would you deliver a more 
holistic approach to administer and govern digital policy?
    Dr. Miller. DOD has a critical role in developing and executing the 
Nation's approach to cybersecurity. An integrated and coordinated 
communications effort across the Department is vital to our overall 
cyber efforts. The DOD Strategy for Operating in Cyberspace (DSOC) is 
an important milestone for the Department and is the first unified 
strategy for operating in cyberspace. This cyber strategy combines and 
institutionalizes previous DOD efforts, statements and initiatives into 
formal Department policy. It also provides a framework for future 
Department priorities for operating in cyberspace and establishes clear 
guidelines for the Department and its components to comprehensively 
approach operations in cyberspace.
    DOD efforts under the DSOC can be organized into five strategic 
initiatives: (1) Treating cyberspace as an operational domain so that 
DOD can organize, train, and equip; (2) Employing new defense operating 
concepts; (3) Partnering with the interagency and private sector; (4) 
Working with allies and international partners to increase 
cybersecurity; and (5) Leveraging our talent and technological 
capacity. These five important initiatives are centrally managed under 
the Cyber Integration Group, which consists of members from across DOD. 
This group, which I have co-chaired along with a Joint Staff 
counterpart, provides a unifying framework for coordinating and 
synchronizing cyber activities across the Department in a holistic 
fashion.
    In addition to the Cyber Integration Group, DOD has also recently 
established a senior-level Cyber Investment Management Board (CIMB) to 
integrate processes and align strategies, resources, and governance for 
cyber warfare capability acquisition across DOD. The CIMB will address 
the Department's cyber requirements, R&D, and acquisition processes and 
will support other governance groups, including the Defense Management 
Action Group and the Cyber Integration Group, by providing status 
updates, metrics, and portfolio information. The CIMB will also serve 
as the oversight body for Cyber Science and Technology funding.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
               syria and contracting with rosoboronexport
    17. Senator Cornyn. Dr. Miller, do you agree that the Assad regime 
has committed acts of mass murder against its own people during the 
Syrian uprisings that began in March 2011?
    Dr. Miller. The situation is tragic for the people of Syria and for 
the region. Democratic reform should have been the Assad regime's 
response to the uprisings that began in March 2011. Instead the regime 
has responded with brutality and violence towards its own citizens.

    18. Senator Cornyn. Dr. Miller, do you believe these actions also 
constitute crimes against humanity?
    Dr. Miller. There is no question that violence towards the people 
of Syria has been brutal and devastating. The actions of the Assad 
Government have outraged all good people. The United States has made 
clear that the Assad regime has lost its legitimacy and that this 
crisis has no effective solution without Assad's departure. As the 
President has stated, Assad must go. I will defer to my counterparts at 
the Department of State on specific judgments as to whether these 
actions constitute crimes against humanity.

    19. Senator Cornyn. Dr. Miller, are you aware of Rosoboronexport's 
history of arms sales to Syria?
    Dr. Miller. Yes, I am aware that in recent years Rosoboronexport 
has been a primary provider of military weapons and equipment to Syria, 
with the press reporting estimated sales totaling $4.7 billion from 
2007-2010.

    20. Senator Cornyn. Dr. Miller, are you aware that the U.S. 
Government has sanctioned Rosoboronexport in the past for providing 
illicit support to Iran's military?
    Dr. Miller. Yes. DOD's effort to support Afghan Mi-series aircraft 
was shaped to abide by the State Department sanctions, which were in 
place until late spring 2010.

    21. Senator Cornyn. Dr. Miller, are you aware that this firm has 
continued to supply weapons to Syria during the crackdown?
    Dr. Miller. It is my understanding that there have been deliveries 
of weapons and supplies to Syria from several counties, to include 
Russia. Recent press reporting indicates that several cargo ships used 
by Rosoboronexport have delivered arms and supplies to Syria since the 
beginning of 2012. Separate reporting indicates that Rosoboronexport 
signed a deal with the Syrian government in January to sell 36 military 
aircraft.

    22. Senator Cornyn. Dr. Miller, what types and quantities of 
weapons has Rosoboronexport delivered to Syria, directly or indirectly, 
since the Syrian uprisings began in March 2011?
    Dr. Miller. There is a great deal of reporting in the open press on 
recent Russian arms deliveries to Syria. I would be pleased to provide 
additional assessments through classified channels. Russia has a series 
of ongoing contracts to provide Syria with advanced conventional 
weapons.

    23. Senator Cornyn. Dr. Miller, do you have concerns about DOD's 
ongoing business dealings with Rosoboronexport? If so, what are those 
concerns?
    Dr. Miller. Regarding DOD's ongoing business with Rosoboronexport, 
my concern is that the firm delivers the remaining Mi-17 helicopters 
ordered for the Afghan National Security Forces on schedule, within the 
budget, and in the mission-ready configuration as specified in the 
requirement. At the same time, I am concerned by Russia's provision of 
arms to the Assad regime while they perpetrate brutal violence against 
their own people. The administration has urged senior Russian officials 
to suspend all deliveries of arms to Syria until the violence ends.

    24. Senator Cornyn. Dr. Miller, which other Russian entities have 
transferred weapons to Syria since the Syrian uprisings began in March 
2011?
    Dr. Miller. To the best of my understanding, Rosoboronexport, as 
Russia's state-authorized exporter of military use equipment and 
technology, is responsible for weapon contracts with Syria. It is 
possible that other Russian-connected entities have also been involved.

    25. Senator Cornyn. Dr. Miller, what types and quantities of 
weapons have these entities delivered during that time?
    Dr. Miller. I do not have specifics on the exact types and 
quantities of weapons that these entities may have delivered. There has 
been reporting in the press of Russian transfers of air defense weapons 
as well as small arms to the Syrian regime. I would be pleased to 
provide additional assessments through classified channels.

    26. Senator Cornyn. Dr. Miller, President Obama stated on February 
3, 2011, that: ``Assad must halt his campaign of killing and crimes 
against his own people now. . . . The suffering citizens of Syria must 
know: we are with you, and the Assad regime must come to an end.'' Do 
you agree with President Obama's statement?
    Dr. Miller. Yes. The United States is committed to holding the 
Syrian regime to its obligations. The United States is leading an 
international effort to help stop the violence and support a peaceful 
political transition in Syria. U.S. policy toward Syria is clear: we 
support a political and democratic transition that fulfills the Syrian 
people's aspirations.

    27. Senator Cornyn. Dr. Miller, do you agree that Russian arms 
transfers to the Assad regime have been a key enabler of that regime 
maintaining power in Syria?
    Dr. Miller. Any transfer of weapons to the regime from sources 
outside of Syria could enable the regime to continue to maintain power. 
I am concerned about any weapons transfers and DOD monitors this issue 
closely. The Department has raised our concerns about the Russian 
delivery of weapons to Assad regime.

    28. Senator Cornyn. Dr. Miller, do you agree that the United States 
has an obligation to use all of its leverage to pressure Russia and 
Russian entities to end their support of the Assad regime?
    Dr. Miller. The United States is pressing the Russians through 
diplomatic channels to help end the violence in Syria with a view to a 
transition of power. Russia has a long standing relationship with 
Syria, and should be able to influence the actions of the Assad 
Government.

    29. Senator Cornyn. Dr. Miller, do you agree that DOD has the 
ability to sever all current contractual relationships with 
Rosoboronexport?
    Dr. Miller. Because the Department retains the right to terminate 
all of its contracts, the contractual relationships with 
Rosoboronexport can also be terminated. There are, however, two ways in 
which the United States benefits from this relationship: by being 
assured proper Mi-17 delivery and support to the Afghan Air Force; and 
by obtaining accurate engineering information for the Mi-17s to ensure 
safe air operations for the Afghans and for the U.S. aircrews and 
passengers who utilize these aircraft.

    30. Senator Cornyn. Dr. Miller, do you agree that continuing to do 
business with Rosoboronexport undermines U.S. policy regarding Syria?
    Dr. Miller. DOD's business with Rosoboronexport is strictly limited 
to acquiring Mi-17 helicopters and sustainment packages for the Afghan 
National Security Forces. This helicopter continues to provide 
excellent performance in the harsh operating climates of Afghanistan 
and is relatively easy to operate and maintain by the Afghans. Despite 
the decision to acquire Mi-17s from Rosoboronexport, DOD continues to 
evaluate U.S.-manufactured alternatives that could provide a similar 
capability.

    31. Senator Cornyn. Dr. Miller, who in the administration directed 
that procurement of Mi-17 helicopters must be done using 
Rosoboronexport as broker?
    Dr. Miller. The Army was designated as the Lead Military Department 
for Mi-17 and other non-standard rotary wing aircraft in January 2010 
by the then-Under Secretary of Defense for Acquisition, Technology, and 
Logistics (USD(AT&L)), Dr. Ashton B. Carter. The Combined Airpower 
Transition Force/438th Expeditionary Wing documented the need for these 
aircraft to support development of an Afghan National Army Air Corps 
(now known as the Afghan Air Force) to support the ability of Afghan 
National Security Forces to take full responsibility for the security 
of Afghanistan.
    U.S. efforts to provide and support Mi-17s prior to May 2010 were 
limited to purchases of civilian-variant Mi-aircraft in a world 
marketplace. This approach slowed the development of Afghan capability 
because it necessitated costly modifications and severe flight 
limitations due to a lack of comprehensive engineering data. 
Discussions with the Russian Government between August and December 
2010 established--as was later confirmed through diplomatic channels--
that Rosoboronexport is the sole entity controlling export of military-
use Mi-17 helicopters and the only source of complete engineering data. 
This situation led to USD(AT&L)'s December 2010 decision to transfer 
the procurement responsibility for 21 Mi-17s from the Naval Air Systems 
Command to the Army.
    The Secretary of the Army (as Agency Head) authorized award of a 
contract for the Mi-17s based on the public interest exception to full 
and open competition. This decision was based on the need to provide a 
familiar aircraft to the Afghans to support the war effort and the 
demonstrated capability of the Mi-17 to meet the robust requirements of 
operations in Afghanistan. This action was in compliance with title 10 
U.S.C. 2304(c)(7) and the Federal Acquisition Regulations (FAR 6.302-7) 
and the congressional defense committees were notified consistent with 
the statute prior to contract award.

    32. Senator Cornyn. Dr. Miller, the June 1, 2011, Army contract was 
a no-bid contract. What justification existed for not awarding this 
contract through an open and competitive selection process?
    Dr. Miller. The Secretary of the Army (as Agency Head) authorized 
award of a contract for the Mi-17s based on the public interest 
exception to full and open competition. This decision was based on the 
need to provide a familiar aircraft to the Afghans to support the war 
effort and the demonstrated capability of the Mi-17 to meet the 
significant operational requirements in Afghanistan. This action was in 
compliance with title 10 U.S.C. section 2304(c)(7) and the Federal 
Acquisition Regulations (FAR 6.302-7) and the congressional defense 
committees were notified consistent with the statute prior to contract 
award.

    33. Senator Cornyn. Dr. Miller, do you agree that the Obama 
administration's policy of trying to reset bilateral relations with 
Russia was a major factor in the decision to award this June 1, 2011, 
no-bid contract to Rosoboronexport, a state-controlled firm that is 
essentially an arm of the Russian Government?
    Dr. Miller. No. The primary purpose for initiating discussions with 
the Russian Federation following the lifting of sanctions in 2010 was 
to obtain access to authentic engineering data to support Mi-17 
airworthiness. Discussions with the Russian government between August 
and December 2010 established -as was later confirmed through 
diplomatic channels--that Rosoboronexport is the sole entity 
controlling export of military-use Mi-17 helicopters and the only 
source of complete engineering data. This situation led to USD(AT&L)'s 
December 2010 decision to transfer the procurement responsibility for 
21 Mi-17s from the Naval Air Systems Command to the Army.
    The Secretary of the Army (as Agency Head) authorized award of a 
contract for the Mi-17s based on the public interest exception to full 
and open competition. This decision was based on the need to provide a 
familiar aircraft to the Afghans to support the war effort and the 
demonstrated capability of the Mi-17 to meet significant operational 
requirements in Afghanistan. This action was in compliance with 10 
U.S.C., section 2304(c)(7), and the Federal Acquisition Regulations 
(FAR 6.302-7) and the congressional defense committees were notified 
consistent with the statute prior to contract award.

    34. Senator Cornyn. Dr. Miller, are you aware that Rosoboronexport 
is not the actual manufacturer of Mi-17 helicopters, but only a broker?
    Dr. Miller. Yes. In meetings with the Russian Federal Service for 
Military-Technical Cooperation, U.S. representatives were advised that 
Mi-17 aircraft purchased for military end-use can only be purchased 
from Rosoboronexport. The prime aircraft manufacturer, Kazan, as well 
as Rosoboronexport, participated in subsequent contract negotiations.

    35. Senator Cornyn. Dr. Miller, when will delivery of the initial 
21 Mi-17 helicopters procured under the June 1, 2011, Army contract be 
completed?
    Dr. Miller. The delivery should be completed in June--15 of the 21 
aircraft have been delivered, and the remaining 6 aircraft are on 
schedule to be delivered to the Afghan Air Force at the end of June 
2012.

    36. Senator Cornyn. Dr. Miller, under the June 1, 2011, Army 
contract with Rosoboronexport for the purchase of 21 Mi-17 helicopters 
and spare parts, has the $550 million option for additional Mi-17s been 
exercised? If so, on what date was it exercised?
    Dr. Miller. The option provides for up to 12 aircraft at a range of 
pre-negotiated prices that depend on the desired delivery date. In 
order to replace two aircraft destroyed in accidents, two aircraft with 
initial spares, tools, and technical publication support were ordered 
for $33.4 million in February 2012. The NATO Training Mission-
Afghanistan (NTM-A) has also identified the need for 10 aircraft to 
replace Mi-17s that are nearing their life limited flight hours. The 
DOD Afghanistan Resources Oversight Council, which was established in 
compliance with congressional direction, reviewed and approved NTM-A's 
request and funding source. The 10 aircraft option, including initial 
spares, tools, and technical publications is planned to be exercised in 
the fourth quarter of fiscal year 2012.
    The $550 million cost cited in the question is the ceiling price 
for both the 21 aircraft baseline and the 12-aircraft option.

    37. Senator Cornyn. Dr. Miller, if the option has not been 
exercised yet, does DOD/Army intend to exercise it? If so, what is 
approximate timeframe for that?
    Dr. Miller. The option provides for up to 12 aircraft at a range of 
pre-negotiated prices that depend on the desired delivery date. In 
order to replace two aircraft destroyed in accidents, two aircraft with 
initial spares, tools, and technical publication support were ordered 
for $33.4 million in February 2012. The NTM-A has also identified the 
need for 10 aircraft to replace Mi-17s that are nearing their life 
limited flight hours. The DOD Afghanistan Resources Oversight Council, 
which was established in compliance with congressional direction, 
reviewed and approved NTM-A's request and funding source. Exercise of 
the 10 aircraft option, including initial spares, tools, and technical 
publications is planned in the fourth quarter of fiscal year 2012 at a 
projected price of $184.3 million.

    38. Senator Cornyn. Dr. Miller, once delivery of the last of the 
initial 21 aircraft to be procured under this contract is complete, how 
many additional Mi-17s does DOD/Army anticipate needing to buy in order 
to round out the Afghan rotary aircraft requirement?
    Dr. Miller. The planned inventory requirement for the Afghan Air 
Force is met by the delivery of the 21 aircraft. However, two other 
crash-damaged aircraft are planned to be replaced. Additionally, the 
Afghan Air Interdiction Unit, which is being transformed to a Special 
Operations Unit, also operates 30 Mi-17 aircraft. No further purchases 
are planned at this time, but procurements will be needed to sustain 
inventory levels, because Mi-17s must be overhauled at a depot at 
specific flight hour limits. The number of overhauls is limited and 
aircraft that have no further flight hour availability must be 
replaced. The NTM-A recently identified 10 Afghan Air Force aircraft 
for funded replacement. Those 10 plus the 2 crash damage replacements 
can be accommodated using the priced option on the existing contract. 
The DOD Afghanistan Resource Oversight Council is also currently 
considering NTM-A-proposed alternatives to replace aircraft for the 
Special Operations Unit.

    39. Senator Cornyn. Dr. Miller, do you agree that we have viable 
alternative routes available to buy these same Mi-17 aircraft, 
notwithstanding any Russian claims to the contrary?
    Dr. Miller. As confirmed by working with the Department of State 
and consulting bilaterally with Russian officials, Rosoboronexport's 
control over exports of Mi-17 aircraft intended for military purposes 
is part of Russian law. Delivery from within the Russian Federation 
could be blocked by Rosoboronexport even if others are able to purchase 
the Mi-17s. More importantly, the United States needs access to Kazan, 
the prime aircraft manufacturer, for accurate engineering support and 
data to ensure safe operations and maintenance and airworthiness on 
behalf of Afghan and U.S. personnel who utilize these aircraft.

    40. Senator Cornyn. Dr. Miller, are you aware that in 2009 the Navy 
legally purchased four of these same dual-use Mi-17 helicopters through 
a private U.S. broker after an open and competitive selection process?
    Dr. Miller. I am aware that the Navy purchased civilian variants of 
the Mi-17 through a U.S. broker in 2009 and modified them to a viable 
configuration at additional cost. This contract was awarded after prior 
discussions with the Russian government that established--as was later 
confirmed through diplomatic channels--that Rosoboronexport is the sole 
entity controlling export of military-use Mi-17 helicopters and the 
only source of complete engineering data.

    41. Senator Cornyn. Dr. Miller, are you aware that these four 
helicopters are still flying today, presently in service with the NATO 
Air Training Command-Afghanistan?
    Dr. Miller. Yes. Maintenance and engineering support for these 
aircraft is provided by the Army Program Manager for Non-Standard 
Rotary Wing Aircraft. (Please note that the NATO Air Training Command 
is a component of the NATO Training Mission-Afghanistan.)

    42. Senator Cornyn. Dr. Miller, are you aware that, after the 
successful 2009 procurement of Mi-17s, the Navy initiated a similar 
effort to procure 21 additional Mi-17s through an open and competitive 
selection process?
    Dr. Miller. Yes. At that time, the Army's Non-Standard Rotary Wing 
Aircraft Program was still being staffed and beginning operations and 
the Navy was tasked to procure these aircraft. The USD(AT&L) directed 
the Navy to cease these efforts following the discussions with the 
Russian Federation that established Rosoboronexport's role regarding 
Mi-17 exports. This responsibility was then transferred to the 
Department of the Army.

    43. Senator Cornyn. Dr. Miller, are you aware that, on December 16, 
2010, DOD put an end to that by transferring procurement authority for 
these 21 aircraft from the Navy to the Army?
    Dr. Miller. Yes. The decision to transfer procurement authority to 
the Army was based on a determination, confirmed through diplomatic 
channels, that Rosoboronexport is the sole entity controlling export of 
military-use Mi-17 helicopters and the only source of complete 
engineering data. The need for complete engineering data would not have 
been addressed in the Navy's planned Naval Air Systems Command 
contract.

    44. Senator Cornyn. Dr. Miller, how is a no-bid contract with 
Rosoboronexport preferable to a competitively awarded contract with a 
private U.S. broker?
    Dr. Miller. The decision to contract with Rosoboronexport was based 
on several criteria. Critically, the contract ensured DOD access to the 
manufacturer's engineering expertise and direct support for 
determinations regarding the operation, maintenance, and airworthiness 
of these aircraft.
    A broker not authorized by the manufacturer would lack access to 
the latest safety updates and therefore would be unable to sustain the 
airworthiness of the Mi-17s. Moreover, the contract with 
Rosoboronexport delivers aircraft modified with the necessary equipment 
to facilitate interoperability with U.S. platforms. Previous deliveries 
from a broker have required subsequent modifications at increased cost. 
By contracting with Rosoboronexport, the United States is assured that 
export of these aircraft for their intended military use will not be 
blocked. Finally, the United States was advised that under Russian law, 
Rosoboronexport is the sole entity controlling export of military-use 
Mi-17 helicopters and the only source of complete engineering data.

    45. Senator Cornyn. Dr. Miller, at your confirmation hearing, 
Senator Blumenthal asked you about DOD's efforts to find other 
helicopters that could be used, specifically asking if there is ``an 
effort underway in development.'' You responded, ``Senator, yes there 
is.'' Please describe what DOD has previously done and is currently 
doing to find alternatives.
    Dr. Miller. A 2010 study led by the Office of the Secretary of 
Defense and the Joint Staff examined the worldwide need for rotary-wing 
aircraft for Security Force Assistance, particularly in the instances 
where building partner nation capacity was involved. The study examined 
alternatives for meeting these requirements, including domestic source 
alternatives. Since this study was done, there have been successes in 
transitioning to U.S. helicopters in the case of partner nations. One 
example is Iraq, which has purchased an armed variant of the Bell 407 
helicopter. I understand that DOD briefed key members of the 
congressional defense committees on this study.
    In Afghanistan, six MD 530F helicopters were recently delivered to 
serve as training aircraft for Afghan forces to begin a transition to 
more sophisticated rotary wing aircraft. However, the unique situation 
on the ground precludes a near-term transition to a U.S. alternative to 
the Mi-17. The referenced study compared a wide range of alternatives; 
however, in the high altitudes and hot temperatures of Afghanistan, the 
Mi-17 has proven successful both in military and civilian operations, 
and in terms of low procurement and operating cost. The Mi-17 is 
familiar to the Afghan pilots, aircrews, and maintenance personnel. 
With low rates of Afghan literacy, recruiting and training additional 
personnel are difficult and transition to a more sophisticated western 
aircraft would delay the timeline of the current U.S. strategy.
                                 ______
                                 
    [The nomination reference of Hon. James N. Miller, Jr., 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 24, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    James N. Miller, Jr., of Virginia, to be Under Secretary of Defense 
for Policy, vice Michele A. Flournoy.
                                 ______
                                 
    [The biographical sketch of Hon. James N. Miller, Jr., 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
              Biographical Sketch of Hon. James N. Miller
Education:
    Stanford University

        <bullet> 1977-1981
        <bullet> B.A. with honors in Economics awarded June 1981

    Harvard University

        <bullet> 1983-1985
        <bullet> Masters in Public Policy awarded June 1985

    Harvard University

        <bullet> 1985-1988
        <bullet> Ph.D. in Public Policy awarded March 1989
Employment Record:

    Department of Defense

        <bullet> Acting Under Secretary of Defense for Policy
        <bullet> February 2012-present
        <bullet> Principal Deputy Under Secretary of Defense for Policy
        <bullet> April 2009-present

    Center for a New American Security

        <bullet> Senior Vice President and Director of Studies
        <bullet> February 2007-April 2009

    Adaptive Strategies, LLC

        <bullet> President
        <bullet> August 2006-present

    Center for Strategic & International Studies (CSIS)

        <bullet> Senior Associate
        <bullet> October 2006-February 2007

    Hicks and Associates, Inc.

        <bullet> Senior Vice President
        <bullet> October 2000-February 2007

    Department of Defense

        <bullet> Deputy Assistant Secretary of Defense for 
        Requirements, Plans, and Counterproliferation
        <bullet> September 1997-0ctober 2000

    Duke University

        <bullet> Assistant Professor of Public Policy
        <bullet> September 1992-August 1997

    U.S. House of Representatives Committee on Armed Services

        <bullet> Professional Staff Member
        <bullet> August 1988-August 1992
Honors and Awards:
    Department of Defense Medal for Distinguished Public Service (June 
2011)
    Department of Defense Medal for Distinguished Public Service 
(February 2011)
    Department of Defense Medal for Outstanding Public Service 
(November 2000)
    Atlantic Fellow in Public Policy (1995-1996)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. James N. 
Miller, Jr., in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James Northey Miller, Jr. (Nicknames: Jim, Jimmy).

    2. Position to which nominated:
    Under Secretary of Defense for Policy.

    3. Date of nomination:
    January 24, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 15, 1959; Waterloo, IA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Adele Marie Balk Miller (formerly Adele Marie Balk).

    7. Names and ages of children:
    Allison Northey Miller: 21.
    Zoe Adele Miller: 19.
    Colin James Miller: 17.
    Lucas Eugene Miller: 15.
    Adrienne Sara Miller: 11.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Harvard University, 1985-1988. Ph.D. in Public Policy, March 1989.
    Harvard University, 1983-1985. Masters in Public Policy, June 1985.
    Stanford University, 1977-1981. B.A. with honors in Economics, June 
1981.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Acting Under Secretary of Defense for Policy, Room 3E806, 
Department of Defense, Washington, DC, February 4, 2012-present.
    Principal Deputy Under Secretary of Defense for Policy, Room 3E806, 
Department of Defense, Washington, DC. April 8, 2009-present.
    Senior Vice President and Director of Studies, Center for a New 
American Security, 1301 Pennsylvania Ave NW, Suite #403, Washington, 
DC, February 2007-present.
    President, Adaptive Strategies, LLC, 3701 N. Harrison St., 
Arlington, VA, August 2006-present. (Sole-person company used for 
consulting)
    President, The Miller Agency, Inc., 2615 W. 4th St, Waterloo, IA, 
July 2006-December 2009. (Assumed unpaid position upon death of father. 
The company has since dissolved)
    Consulting Employee, SAIC, 1710 SAIC Drive, Mclean, VA, February 
2007-November 2008.
    Senior Associate, CSIS, 1800 K St., NW, Washington, DC, October 
2006-February 2007.
    Senior Vice President, Hicks and Associates, Inc., 1710 SAIC Drive, 
Mclean, VA, October 2000-February 2007. (Started in 2000 as Vice 
President).
    Deputy Assistant Secretary of Defense for Requirements, Plans, and 
Counterproliferation, Department of Defense, September 1997-October 
2000.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, Defense Science Board Summer Study Task Force on Challenges 
to Military Operations in Support of National Interests 
(uncompensated), 2007.
    Member, Threat Reduction Advisory Council Panel on Combating 
Weapons of Mass Destruction (uncompensated), 2006-present.
    Consultant to Assistant Secretary of Defense for Strategy and 
Requirements, Defense Department, June-September 1997.
    Consultant to Deputy to the Under Secretary of Defense for Policy, 
Defense Department, April 1994-April 1995.
    Desk Officer, Office of Information and Regulatory Affairs, Office 
of Management and Budget, June-September 1984 (summer employment).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    President, Adaptive Strategies, LLC, 3701 N. Harrison St., 
Arlington, VA. (Sole-person company used for consulting--in Dormant 
Status Since April 7, 2009).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, International Institute for Strategic Studies.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Barack Obama Presidential Campaign: $100 (Nov. 7, 2008).
    Barack Obama Presidential Campaign: $1,000 (Oct. 2, 2008)
    Hillary Clinton Presidential Campaign: $1,500 (Sept. 26, 2007).

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Department of Defense Medal for Distinguished Public Service (June 
2011).
    Department of Defense Medal for Distinguished Public Service 
(February 2011).
    Department of Defense Medal for Outstanding Public Service 
(November 2000).
    Member, International Institute for Strategic Studies (2007-
present).
    Atlantic Fellow in Public Policy (1995-1996).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    U.S. Can't Risk Slow START, with Ellen Tauscher (Washington, DC: 
Op-Ed in Politico, September 2010).
    Iran: Assessing U.S. Strategic Options, with Christine Parthemore 
and Kurt M. Campbell (Washington, DC: Center for a New American 
Security, June 2008).
    ``Enhancing Synergies and Gaining Efficiencies: Integrating the 
'INTs' to Transform Operations and Mission Management,'' Building 
Strategic Concepts for the Intelligence Enterprise--Conference Report 
(Washington, DC: Office of the Director of National Intelligence/
Policy, Plans and Requirements, January 2008).
    ``U.S. Strategic Capabilities for Preventing War: The Way 
Forward,'' with Robert Barker (Washington, DC: Los Alamos/Livermore 
Laboratories Conference on Strategic Weapons in the 21st Century, 
January 2008).
    ``Iraq: Response to Max Boot,'' with Shawn W. Brimley, Commentary 
(December 2007).
    Phased Transition: A Responsible Way Forward and Out of Iraq, with 
Shawn W. Brimley (Washington, DC: Center for a New American Security, 
June 2007).
    ``No More Iraqs,'' American Security Project, December 6, 2007.
    ``On the Road to Ruin,'' Defense News op-ed, with TX Hammes, May 7, 
2007.
    ``Reducing Homeland Security Risks with a Balanced R&D Portfolio: 
Analytical Tasks & Supporting Methods,'' Hicks & Associates, Inc. 
report to Department of Homeland Security, January 2006.
    ``DART Review of Joint Operating Concepts and Joint Functional 
Concepts,'' Defense Adaptive Red Team Report, October 2003.
    ``Operational Net Assessment: What are the Real Challenges?'' 
Defense Adaptive Red Team Report, March 2003.
    ``Challenges in Conducting Rapid Decisive Operations,'' Defense 
Adaptive Red Team Report, February 2002.
    ``Red Teaming in Joint Forces Command's Unified Vision 01 
Experiment: A Defense Adaptive Red Team (DART) View,'' Defense Adaptive 
Red Team Report, August 2001.
    ``Talking Trash: Analytic Aids for Understanding and Improving 
Judgments in Landfill Siting Processes,'' Journal of Policy Analysis 
and Management, fall 1998, with Marie Lynn Miranda and Timothy L 
Jacobs.
    ``Seeking Truth for Power: Integrating Policy and Political 
Analysis,'' Working Paper 95-1, Terry Sanford Institute of Public 
Policy, May 1995, with Frederick W. Mayer.
    Approaching Zero: An Evaluation of Radical Reductions in Superpower 
Nuclear Arsenals, Ph.D. dissertation, Harvard University, March 1989.
    ``Zero and Minimal Nuclear Weapons,'' Chapter 1 in Fateful Visions: 
Beyond Nuclear Deterrence, edited by Graham Allison, Albert Carnesale, 
and Joseph Nye, Jr., Ballinger Press, 1988.
    ``How Study Design Affects Outcomes in Comparisons of Therapy. I. 
Medical,'' Statistics in Medicine, Vol. 8, 1989, with Graham Colditz 
and Frederick Mosteller.
    ``How Study Design Affects Outcomes in Comparisons of Therapy. II. 
Surgical,'' Statistics in Medicine, Vol. 8, 1989, with Colditz and 
Mosteller.
    ``Measuring Gain in the Evaluation of Medical Technology: The 
Probability of a Better Outcome,'' International Journal of Technology 
Assessment in Health Care, Vol. 4, No. 4, 1988, with Colditz and 
Mosteller.
    ``The Effect of Study Design on Gain in Evaluations of New 
Treatments in Medicine and Surgery,'' Drug Information Journal, Vol. 
22, 1988, with Colditz and Mosteller.
    ``From Babbling to Speech: A Reassessment of the Continuity 
Issue,'' Language, Vol. 61, No. 2, 1985 (numerous coauthors).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    The following speeches, though not all inclusive, are a good 
representation of the material presented as PDUSDP, relevant to the 
nominated position of USDP. More speeches are available upon request.
    ``Missile Defense Cooperation'', Panel discussion at 12th RUSI 
Missile Conference, June 15, 2011. [Speech].
    ``DOD's Nuclear Posture Review Rollout Briefing'', Media event at 
Washington Press Center, April 7, 2010. [Transcript].

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                          Hon. James N. Miller, Jr.
    This 26th day of March, 2012.

    [The nomination of Hon. James N. Miller, Jr., was reported 
to the Senate by Chairman Levin on May 15, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 24, 2012.]
                              ----------                              

    [Prepared questions submitted to Hon. Erin C. Conaton by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe that the Goldwater-Nichols Act has greatly 
contributed to the strong framework for today's joint warfighting 
capabilities. It has significantly improved interservice and joint 
relationships, promoting greater effectiveness of the Military 
Departments and combatant commands.
    If confirmed, I would plan to evaluate the joint officer management 
program to see if a recommendation of any specific changes would be 
beneficial. But my current sense is that today's system supports the 
objectives of the Goldwater-Nichols Act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Currently I am unaware of any areas where modifications are 
needed. If I am confirmed, I would have an opportunity to assess any 
further need to legislative modifications, in consultation with the 
committee.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. In general, I bring 14 years of experience working on a 
range of defense policy issues. As Minority and then Majority Staff 
Director of the House Armed Services Committee, I was the overall lead 
for the development of legislation and congressional oversight, 
including in the areas of personnel and readiness. As Under Secretary 
of the Air Force and as Chief Management Officer of the Air Force, I 
have been significantly involved in a range of issues concerning 
military personnel, civilian personnel, family programs, and readiness. 
I look forward, if confirmed, to building on these experiences on 
behalf of the Secretary of Defense and to the benefit of all 
servicemembers, their families, and our civilian workforce.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Under Secretary of Defense for Personnel and Readiness?
    Answer. The new defense strategy and more constrained fiscal 
environment put the highest premium on sustaining the quality and 
readiness of the total force, particularly our exceptional All-
Volunteer Uniformed Force. The new strategy calls for an agile force 
ready for a broad variety of missions. As we complete the mission 
transition in Afghanistan, the Military Departments will all face 
challenges in improving readiness rates and posturing their services 
for the future security environment. We must also ensure appropriate 
compensation, health care, and personnel policies that recognize both 
the service and sacrifice undertaken by our troops and their families 
and the new budgetary realities.
    At the same time, there are programmed reductions in total force 
military end-strength and continued workforce-shaping initiatives in 
our civilian force. Retention of the highest quality military and 
civilian force must be a top priority. For those that will leave 
service, we have an obligation to ensure each servicemember is as 
prepared as possible to succeed in civilian life, through a robust 
Transition Assistance Program and generous benefits. We must maintain 
the priority placed on the physical and mental health care, as well as 
the transition assistance, for our wounded, ill, and injured warriors.
    Secretary Panetta has rightly placed great focus on the issue of 
sexual assault. Even one sexual assault is one too many and out of step 
with the core values of the American military. Additionally and 
critically, P&R must have a strong role with the Military Departments 
in continuing to address issues of mental health and suicide that 
plague too many.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I plan to ensure I clearly understand the 
priorities of Secretary Panetta and Deputy Secretary Carter. I would 
further familiarize myself with the range of policies and issues 
confronting the Department in these areas. I fully recognize this is a 
team sport and that substantial progress on these issues cannot be made 
without leadership and without close partnerships. I intend to work 
closely with Congress; colleagues in the Office of Secretary of 
Defense, Joint Staff, and the Military Departments and Services; as 
well as with critical partners across the inter-agency to make progress 
on these challenges.
                                 duties
    Question. Section 136 of title 10, U.S.C., provides that the Under 
Secretary of Defense for Personnel and Readiness shall perform such 
duties and exercise such powers as the Secretary of Defense may 
prescribe in the areas of military readiness, total force management, 
military and civilian personnel requirements, military and civilian 
personnel training, military-civilian family matters, exchange, 
commissary, and non-appropriated fund activities, personnel 
requirements for weapons support, National Guard and Reserve 
components, and health affairs.
    Assuming you are confirmed, what duties do you expect to be 
assigned to you?
    Answer. If confirmed, I intend to carry out my responsibilities, 
functions, relationships, and authorities, in accordance with the law 
and consistent with DOD Directive 5124.2, ``Under Secretary of Defense 
for Personnel and Readiness (USD(P&R)).'' I would be the Secretary of 
Defense's principal staff assistant and advisor in all matters relating 
to the management and well-being of military and civilian personnel in 
the DOD total force and for oversight of the readiness of this force. I 
would develop policies and provide oversight for the direction of plans 
and programs governing total force management as it relates to 
manpower; force management; planning; program integration; readiness; 
National Guard and Reserve component affairs; health affairs; training; 
personnel requirements and management; and compensation. This also 
includes equal opportunity, morale, welfare, recreation, and quality of 
life matters for both civilian and military personnel and their 
families.
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of Defense.
    Answer. If confirmed, I expect to serve the Secretary as his 
principal advisor and advocate for the management of human resources 
and readiness in the Department.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would expect my relationship with the 
Deputy Secretary to be fundamentally the same as that with the 
Secretary of Defense.
    Question. The Assistant Secretary of Defense for Health Affairs 
(ASD(HA)).
    Answer. If confirmed, ASD(HA) will be my principal advisor for all 
DOD health policies, programs, and force health protection activities.
    Question. The Assistant Secretary of Defense for Reserve Affairs 
(ASD(RA)).
    Answer. If confirmed, ASD(RA) will be my principal advisor for all 
Reserve component matters in the Department of Defense (DOD).
    Question. The DOD General Counsel.
    Answer. If confirmed, I would anticipate regular communication, 
coordination of actions, and exchange of views with the General Counsel 
and the attorneys assigned to focus on personnel policy matters. I 
would expect to seek and follow the advice of the General Counsel on 
legal, policy and procedural matters pertaining to the policies 
promulgated from the P&R office.
    Question. The DOD Inspector General.
    Answer. The DOD Inspector General is in charge of promoting 
integrity, accountability, and improvement of DOD personnel, programs, 
and operations to support the Department's mission and serve the public 
interest. If confirmed, I will fully assist in any investigations or 
issues that relate to personnel and readiness.
    Question. The Service Secretaries.
    Answer. If confirmed, I would hope to work closely with the 
Secretaries of the Military Departments on all matters relating to the 
management well-being, and readiness of military and civilian personnel 
in the DOD total force structure.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief, National Guard Bureau is a principal advisor to 
the Secretary of Defense, through the Chairman of the Joint Chiefs of 
Staff, on matters involving non-Federalized National Guard forces and 
on other matters as determined by the Secretary of Defense. If 
confirmed, I look forward to a continued strong relationship, through 
ASD(RA), to ensure effective integration of National Guard capabilities 
into a cohesive total force.
    Question. The Assistant Secretaries for Manpower and Reserve 
Affairs of the Army, Navy, and Air Force.
    Answer. If confirmed, I would intend to further strengthen the 
partnership with these officials in carrying out the human resource 
obligations of the Services for the total force.
    Question. The Deputy Chiefs of Staff of the Army and Air Force for 
Personnel, the Chief of Naval Personnel, and the Deputy Commandant of 
the Marine Corps for Manpower and Reserve Affairs.
    Answer. If confirmed, I intend to partner in effective working 
relationships with these officers to ensure that DOD attracts, 
motivates and retains the quality people it needs.
    Question. The combatant commanders.
    Answer. If confirmed, I intend to work to understand the combat 
needs and total force concerns of these critical commanders.
    Question. The Joint Staff, particularly the Director for Manpower 
and Personnel (J-1).
    Answer. If confirmed, I intend to partner a close coordinating 
relationship with the Joint Staff regarding manpower and personnel 
policy issues.
                systems and support for wounded warriors
    Question. Servicemembers and civilians who are wounded and injured 
performing duties in Operations Enduring Freedom, Iraqi Freedom, and 
New Dawn deserve the highest priority from their Service and the 
Federal Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from active duty if required, and continuing support beyond retirement 
or discharge. Yet, as the revelations at Walter Reed Army Medical 
Center (WRAMC) in 2007 illustrated and as ongoing problems with the 
Integrated Disability Evaluation System continue to demonstrate, the 
Services were not prepared to meet the needs of returning wounded 
servicemembers and civilians. Despite the enactment of legislation and 
renewed emphasis, many challenges remain.
    What is your assessment of the progress made to date by DOD and the 
Services to improve the care, management, and transition of seriously 
ill and injured servicemembers and their families?
    Answer. The Office of Wounded Warrior Care and Transition Policy 
was established by Congress to ensure wounded, ill, injured, and 
transitioning servicemembers receive quality care and seamless 
transition support through proactive leadership, responsive policy, 
effective oversight and interagency collaboration.
    The Department and Department of Veterans Affairs (VA) have made 
some progress by reducing overall disability evaluation time from 500 
days to under 400 days and reducing the post-separation wait for VA 
disability. However, much work remains to be done. If confirmed, this 
will be a top priority. I will continue the effort to ensure a seamless 
transition from recovery to reintegration for our wounded, ill or 
injured. Additionally, I would continue the Department's collaborative 
efforts with the VA on compensation and benefits, transition assistance 
and care coordination. I would look forward to working with Congress on 
this critical issue.
    Question. What are the strengths upon which continued progress 
should be based?
    Answer. The greatest strength is the Department's commitment to 
take care of its wounded warriors and their families. That commitment 
should guide continued efforts by the Department and the Department of 
Veterans Affairs.
    Question. What are the weaknesses that need to be corrected?
    Answer. The challenges lie in being continually vigilant to ensure 
every recovering servicemember and family receive the full care they 
need and deserve. Improving the Integrated Disability Evaluation System 
is critical in that regard. Much work remains to be done.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. Providing needed care and support for servicemembers, 
Veterans and their families should be and is an utmost priority for the 
Department. If confirmed, I will have the opportunity to consult with 
the committee and to evaluate what additional support, in resources 
and/or authority, is necessary to address the needs of the wounded 
servicemembers and their families.
    Question. What is your assessment of the adequacy of access to care 
and care management for Federal civilian employees who are ill or 
injured in theater, including evaluation and response to traumatic 
brain injury and post traumatic stress?
    Answer. I understand Federal civilian employees have access to 
emergency treatment in theater for illness, disease, injuries, or 
wounds sustained while forward deployed in support of U.S. military 
forces, and continued treatment in Military Treatment Facilities. If 
confirmed, I will review efforts to include the evaluation of traumatic 
brain injury and post-traumatic stress for deployed civilian employees.
    Question. Studies conducted as a result of the revelations at WRAMC 
pointed to the need to reform the disability evaluation system (DES), 
and the Services have now moved to the Integrated DES program to 
improve processing of servicemembers. Nevertheless, the processing 
times under the Integrated DES, initially encouraging, are now 
worsening, and the system appears to be overloaded.
    What is your assessment of the Integrated DES?
    Answer. The events of the past ten years showed the Department was 
not fully prepared to meet the needs of the Nation's returning wounded 
servicemembers. Multiple bipartisan commissions confirmed the need to 
streamline and improve the Department's disability evaluation system. I 
agree with their general conclusions that the system needs to be 
improved and processing time needs to be reduced significantly and with 
a sense of urgency. Some progress has been made but much more needs to 
be done. This will require continued leadership by both this Department 
and the Department of Veterans Affairs.
    Question. What is your assessment of the need to further streamline 
and improve the Integrated DES?
    Answer. It is my understanding that much work remains. I believe 
the Department has an obligation to our servicemembers participating in 
the Integrated Disability Evaluation System (IDES) to proactively 
evaluate the program and apply lessons learned. Whenever two systems 
are merged that are governed by separate statutes and with separate 
purposes, there is always friction; but those friction points are 
opportunities for improvement. IDES highlights the need for better 
record sharing and case management tracking tools across the Department 
and VA. If confirmed, I plan to look at all aspects of the system to 
see where opportunities exist for improvement. Additionally, I believe 
that leadership by both the Departments of Defense and Veterans Affairs 
is critical to ensuring programs like the IDES are successful.
    Question. If confirmed, how will you address any need for change?
    Answer. If confirmed, I will continue the Department's work (with 
the VA) toward improving the timeliness of the disability evaluation 
system. I will carry on the Department's commitment to providing a 
comprehensive, fair, and timely medical and administrative processing 
system to evaluate our injured or ill servicemembers' fitness for 
continued service. If confirmed, I would look forward to the 
opportunity to work with this committee to understand your views on 
further improvements to care for our wounded ill and injured 
servicemembers.
 department of defense and department of veterans affairs collaboration
    Question. The Departments of Defense and Veterans Affairs have in 
recent years increased collaboration between the respective departments 
to support military servicemembers as they transition to veteran status 
in areas of health and mental health care, disability evaluation, and 
compensation.
    If confirmed, what role would you expect to play in ensuring that 
the Departments of Defense and Veterans Affairs achieve the 
Administration's objectives in DOD and VA collaboration?
    Answer. If confirmed, I will be intimately involved in the 
collaboration between the Departments of Defense and Veterans Affairs 
and would look forward to a strong partnership. I fully support the 
vision of a single experience of lifetime service through a partnership 
that establishes a national model for excellence, quality, access, 
satisfaction, and value. I will do my utmost to provide leadership that 
enables the interagency effort. I would look forward to co-chairing--
with the Deputy Secretary of Veterans Affairs--the revitalized Joint 
Executive Committee to work on the range of issues that ensure that 
transitioning servicemembers receive the benefits, care, and transition 
assistance they deserve.
                        disability severance pay
    Question. Section 1646 of the Wounded Warrior Act, included in the 
National Defense Authorization Act (NDAA) for Fiscal Year 2008, 
enhanced severance pay and removed a requirement that severance pay be 
deducted from VA disability compensation for servicemembers discharged 
for disabilities rated less than 30 percent incurred in the line-of-
duty in a combat zone or incurred during the performance of duty in 
combat-related operation as designated by the Secretary of Defense. In 
adopting this provision, Congress relied on the existing definition of 
a combat-related disability contained in title 10 U.S.C. 1413a(e). 
Rather than using the definition intended by Congress, DOD adopted a 
more limited definition of combat-related operations, requiring that 
the disability be incurred during participation in armed conflict.
    What is your understanding of the number of servicemembers impacted 
by the DOD interpretation of ``combat-related disability,'' and how the 
DOD interpretation affects their compensation?
    Answer. Although I do not yet know the details, it is my 
understanding that a review of the policy implementing section 1646 of 
the Wounded Warrior Act is currently underway. If confirmed, I would 
look forward to working with this committee once that review has been 
completed.
    Question. If confirmed, will you reconsider the Department's 
definition of combat-related operations for purposes of awarding 
enhanced severance pay and deduction of severance pay from VA 
disability compensation?
    Answer. If confirmed, I would look into the status of this review 
to ensure that any policy change relating to the definition, if 
warranted, meets the intent of Congress and is consistent with the 
governing statute.
                  repeal of ``don't ask, don't tell''
    Question. What is your assessment of the effect on the force of the 
repeal of the Don't Ask, Don't Tell policy?
    Answer. The Services and combatant commands continue to provide 
monthly progress reports on the implementation of repeal to the 
Secretary of Defense. To date, and based on these reports, repeal is 
going smoothly with no significant repeal-related issues identified. I 
believe this success can be attributed to comprehensive pre-repeal 
training programs, the discipline of our servicemembers, and continued 
close monitoring and enforcement of standards by our military leaders 
at all levels.
    Question. What is your view on the issue of providing military 
benefits to same-sex partners?
    Answer. It is my understanding that the Department is conducting a 
deliberative and comprehensive review of the possibility of extending 
eligibility for some benefits, when legally permitted, to same-sex 
partners of military personnel. Before recommending the extension of 
any particular benefit, I believe it is necessary to complete the 
ongoing, holistic review of all benefits to fully identify second and 
third order effects, and to ensure consistency in the benefit 
decisionmaking process.
    Question. If confirmed, what actions if any would you pursue in 
this regard?
    Answer. If confirmed, I will continue to ensure the Department and 
our servicemembers remain fully committed to the implementation effort, 
consistent with our standards of military readiness, effectiveness, 
unit cohesion, and recruiting and retention of the Armed Forces. I will 
also provide leadership, if still ongoing, in the benefits review and 
any recommendations made to the Secretary of Defense and Congress.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of DOD regarding religious practices in the military?
    Answer. It is my understanding the Department does not endorse the 
establishment of religion, but it does guarantee its free exercise. The 
Department and the Military Services ensure servicemembers' rights to 
observe the tenets of their respective religions or to hold no specific 
religious conviction or affiliation.
    Question. In your view, do these policies appropriately accommodate 
religious practices that require adherents to wear particular articles 
of faith or adhere to certain grooming practices related to faith?
    Answer. It is my understanding that current policies allow for 
consideration of accommodations of religious apparel that are neat and 
conservative and do not interfere with the performance of military 
duties. Current policy does not address accommodations for grooming 
practices, and therefore this policy is under review for possible 
revisions. If confirmed, I would continue to monitor and evaluate this 
ongoing review.
    Question. In your view, do these policies appropriately accommodate 
the free exercise of religion and other beliefs without impinging on 
those who have different beliefs, including no religious belief?
    Answer. Yes, in my view, current policies accommodate the free 
exercise of religion for all servicemembers including those with no 
religious belief.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. It is my understanding that existing policies provide the 
military chaplaincy with sufficient guidance that allows them to 
balance their own faith practices with respect to the beliefs of others 
in both formal and informal setting. They continue to focus on 
providing for the free exercise of religion within the pluralistic 
environment of the military.
    Question. The Independent Review Related to Fort Hood observed that 
``DOD policy regarding religious accommodation lacks the clarity 
necessary to help commanders distinguish appropriate religious 
practices from those that might indicate a potential for violence or 
self-radicalization.'' Recommendation 2.7 of the Final Recommendations 
urged the Department to update policy to clarify guidelines for 
religious accommodation and Recommendation 2.8 urged the Department to 
task the Defense Science Board to ``undertake a multi-disciplinary 
study to identify behavioral indicators of violence and self-
radicalization . . . ''.
    What is your view of this recommendation?
    Answer. It is my understanding that these two recommendations are 
still under Departmental review. If confirmed, evaluating the adequacy 
of policies concerning the safeguarding of our servicemembers would be 
a top priority.
    Question. Will you work to ensure that a scientific fact-based 
approach to understanding radicalization will drive the Department's 
relevant policies on this topic?
    Answer. Yes. If confirmed, I would review plans currently in place 
to address these challenges, and determine what, if any, changes should 
be made. I would collaborate with my colleagues in the Office of the 
Secretary of Defense (OSD), the Military Services, the Joint Staff as 
well as Congress in charting the right course for the Department.
           protection of u.s. forces against internal threats
    Question. A DOD review of the Fort Hood attack released in January 
2010 concluded that the Department was poorly prepared to defend 
against internal threats, including radicalization of military 
personnel.
    What is your assessment of the lessons learned from the tragedy at 
Fort Hood?
    Answer. It is my understanding the Department has undertaken 
extensive reviews to ensure that guidance resulting from this tragedy 
is actionable and to implement systems that will allow us to mitigate 
such incidents in the future. I also understand the Department has 
promulgated new guidance to the field to assist commanders in 
evaluating and responding to uncertain situations based on lessons 
learned. If confirmed, I look forward to becoming more familiar with 
the application of these lessons in the field.
    Question. If confirmed, what strategies would you advocate to 
prevent and mitigate such threats in the future?
    Answer. If confirmed, I would work closely with Department 
leadership to strengthen the areas identified by the Fort Hood 
Independent Review to include mitigating violence in the workplace, 
ensuring commanders/supervisors have access to appropriate personnel 
records, and integrating and strengthening force protection policies. 
Furthermore, I would work closely with our medical community to give 
commanders a better understanding of how to identify violence 
indicators.
                      muslims in the u.s. military
    Question. Are you concerned that the attack at Ft. Hood could lead 
to harassment or even violence against Muslims in the military?
    Answer. I believe, by law, every servicemember has the right to 
practice their religious faith without fear of persecution or 
retribution. If confirmed, I will review policies to ensure adequate 
physical and emotional safety from religious harassment is guaranteed 
and will take appropriate action if needed.
    Question. If confirmed, what strategies would you advocate to 
address the potential for harassment or violence against Muslims in the 
U.S. military?
    Answer. I believe safeguarding the rights of servicemembers 
requires both formal and informal feedback procedures that quickly 
identify and assess any harassment, should it occur. Responses to 
grievances or any identified shortcomings must be quick, thoughtful, 
and effective. If confirmed, I would review the viability of these 
feedback systems, and take measures to correct them as appropriate.
                 sexual assault prevention and response
    Question. The Department has developed comprehensive policies and 
procedures to improve the prevention of and response to incidents of 
sexual assaults, including providing appropriate resources and care for 
victims of sexual assault. However, numerous incidents of sexual 
misconduct involving military personnel are still being reported. 
Victims and their advocates claim that they are victimized twice: first 
by attackers in their own ranks and then by unresponsive or inadequate 
treatment for the victim. They assert that their command fails to 
respond appropriately with basic medical services and with an adequate 
investigation of their charges followed by a failure to hold assailants 
accountable.
    Do you consider the current sexual assault policies and procedures 
to be effective?
    Answer. Sexual assault simply has no place in the military and is 
antithetical to its core values. It is my understanding the Department 
continues to put considerable effort into the development of policies 
and procedures designed to address sexual assault. If confirmed, I will 
review those policies and partner with the Services to continue to 
better educate and train the force to reduce the number of cases. I 
will also work with them, if there is an assault, to ensure the 
Department provides appropriate care to victims and commanders hold 
offenders accountable.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedure has been put into operation?
    Answer. I am not currently aware of any specific problems in 
implementation of the confidential reporting option, called restricted 
reporting. I am aware the Department has extended the restricted 
reporting option to servicemembers' dependents 18 years and older. I am 
also aware the restriction of no investigation when a victim chooses 
restricted reporting has concerned commanders responsible for the 
action of their unit members. I believe the Department must find a 
balance between victim care and offender accountability but of the 
utmost importance is that victims feel they can come forward to obtain 
the support they need following an assault.
    Sexual assault victims who elected restricted reporting and leave 
the military may need to access their records for medical treatment and 
to help them receive benefits from the VA. Under Restricted Reports, 
the victim's confidentiality is a key focus. As a result, separate 
document retention guidelines were designed to respect the 
servicemember's desire for confidentiality. In cases of Restricted 
Reports (where law enforcement and command are not contacted) the 
Military Services must maintain a hard copy of certain records and the 
Sexual Assault Medical Forensic Exam for 5 years.
    Question. What is your view of the steps the Services have taken to 
prevent and respond to sexual assaults in combat zones, including 
assaults against contractor personnel?
    Answer. It is my understanding the Department has a program in 
place to ensure servicemembers deploying to combat zones are 
appropriately informed about how to prevent sexual assault and what to 
do should it occur. I am aware the Department has made great efforts to 
ensure all victims of sexual assaults--including those deployed--are 
able to receive the same level of support as those stationed stateside. 
The Department recently enacted a new policy to ensure that Department 
civilian employees stationed abroad and Department U.S. citizen 
contractors in combat areas receive emergency care and access to Sexual 
Assault Response Coordinators and victim advocates. If confirmed, I 
will continue these efforts.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. I know that all Services have been directed to establish 
guidelines for a 24-hour, 7-day per week sexual assault response 
capability for all locations, including deployed areas. I also 
understand the Services are working towards increasing the training and 
expertise of those investigating and prosecuting sexual assaults. If 
confirmed, I will partner with the Services to ensure adequate 
resources are dedicated to the training of those investigators and 
prosecutors.
    Question. What is your view of the willingness and ability of the 
Services to hold assailants accountable for their acts?
    Answer. I strongly believe that anyone who commits a sexual assault 
in the military needs to be held accountable. This shows victims that 
taking the difficult step of assisting with an investigation will help 
ensure the safety of their fellow servicemembers and demonstrates to 
would-be perpetrators that they will face justice. Secretary Panetta 
directed an assessment, due at the end of May, on how we train officers 
selected for command and key senior enlisted leaders on sexual assault 
prevention and response, and what we can do to strengthen that 
training. If confirmed, I am committed to ensuring that accountability 
remains a key priority. I echo Secretary Panetta's regret that such 
crimes occur in the U.S. military and I will do all I can to prevent 
these sexual assaults from occurring in DOD.
    Question. If confirmed, what actions will you take to ensure senior 
level direction and oversight of efforts to prevent and respond to 
sexual assaults?
    Answer. Sexual assault is a crime which reaches across the 
Department, and as such, response and accountability efforts need to 
have the same reach. I am aware that in January 2012, Secretary of 
Defense Panetta directed an assessment be completed on Sexual Assault 
Prevention and Response training for officers selected for command and 
key senior noncommissioned officers. If confirmed, I will follow up on 
any recommendations to ensure our most senior leaders receive the 
necessary training and resources to combat sexual assault. I will also 
ensure the Department has the correct structure in place to engage the 
Departmental leadership, and the leadership of other agencies such as 
the Departments of Veterans Affairs, Health and Human Services, and 
Justice, in planning, guiding, and evaluating our efforts. I will also 
work with the Services and other OSD and Joint Staff partners on issues 
of perpetrator accountability.
                                 hazing
    Question. The press has recently reported numerous serious hazing 
incidents in the Army, Navy, and Marine Corps. In the Army and Marine 
Corps incidents, the victims allegedly committed suicide following the 
hazing.
    Does DOD have a policy addressing hazing in the Services? If so, 
what is the policy?
    Answer. I believe the Department has a clear ``no hazing'' policy, 
implemented by each Service, to include mandatory training to prevent 
hazing. Secretary of Defense Panetta reinforced the existing policy 
against hazing with a personal message to the force in December 2011. 
Under the Uniform Code of Military Justice (UCMJ), there are 
disciplinary and legal consequences of hazing. Furthermore, hazing is 
explicitly prohibited at each of the Service Academies.
    Question. If confirmed, what actions will you take to address the 
issue of hazing?
    Answer. If confirmed, I would reemphasize the Department's policies 
prohibiting hazing. I would work closely with the Services to review 
their education and training in this area and to make updates as 
appropriate. Finally I would review reporting procedures, strengthen 
climate survey mechanisms, and increase awareness of hazing at all 
levels of the chain of command.
                           service academies
    Question. What do you consider to be the policy and procedural 
elements that must be in place at each of the Service Academies in 
order to prevent and respond appropriately to sexual assaults and 
sexual harassment and to ensure essential oversight?
    Answer. I believe that, as in the general force, even one sexual 
assault at a Service Academy is too many. The Academies are a critical 
commissioning source for those who will lead our servicemembers. From 
their earliest military education, it must be clear that there is no 
place for sexual harassment or assault in our military; it is 
antithetical to the core values by which servicemembers live and serve.
    I believe the Department's general sexual assault and sexual 
harassment policies provide a foundation for combating sexual 
misconduct at the Service Academies. It is my understanding the 
academies have institutionalized prevention and response programs that 
encourage victims to come forward and hold offenders accountable. I 
further understand the Department reviews the efforts of the Academies 
annually and requires biannual updates on the outcome of the review. If 
confirmed, I would continue rigorous oversight and determine whether 
additional measures need to be taken.
    Question. What is your assessment of measures taken at the Service 
Academies to ensure religious tolerance and respect, and to prevent 
sexual assaults and sexual harassment?
    Answer. If confirmed, I look forward to familiarizing myself with 
what each of the Service Academies have been doing to ensure religious 
respect and tolerance. At the USAF Academy, since 2009, chaplains have 
been intentional and deliberate in working with commanders, students, 
and civilian religious leaders to ensure free exercise of religion or 
the choice to have no religion remains a time-honored tradition. I 
believe it is imperative that leaders, at all levels, must continue to 
ensure every member of the Department respects the spirit and intent of 
laws and policies surrounding this free exercise.
    On the topic of sexual assault, it is my understanding the 
academies have institutionalized prevention and response programs that 
encourage victims to come forward and that hold offenders accountable. 
I further understand the Department reviews the efforts of the 
Academies annually and requires biannual updates on the outcome of the 
review. If confirmed, I would continue that rigorous oversight and 
determine whether additional measures need to be taken.
                         women in the military
    Question. In recent years, the Navy has opened service on 
submarines to women and the Marine Corps has expanded service 
opportunities for women in intelligence specialties. The issue of the 
appropriate combat role of women in the Armed Forces is a matter of 
continuing interest to Congress and the American public. In a recent 
interview with the Washington Post, General Peter Chiarelli, USA 
(Retired), stated his belief that all military occupations, including 
combat occupations, should be open to women who can meet appropriate 
functional standards.
    Do you agree with General Chiarelli's position on assignment 
policies that restrict women in combat?
    Answer. I believe the Department is committed to pursuing the 
elimination of gender-restricted policies, where feasible, while 
maintaining force readiness. If confirmed, I would continue the 
Department's commitment to remove barriers that prevent servicemembers 
from serving in any capacity based on their ability and qualifications, 
not constrained by gender-restrictive policies.
    Question. Do you believe additional specialties should be opened up 
for service by women?
    Answer. The Department's recent report on women in the services 
commits the Department to review the opening of additional positions 
and occupations to women through the establishment of gender-neutral 
physical standards. I understand the Services will be assessing the 
positions they have requested to be opened under an exception to 
policy. The Department will use their experiences regarding the 
suitability and relevance of the prohibition on direct ground combat 
unit assignment, as well as ongoing research, to inform future policy 
decisions.
    Question. Do you believe any changes in the current policy 
regarding women in combat are needed?
    Answer. Until the additional assessment is completed, I do not at 
this time. It is my understanding the Services will be assessing the 
positions they have requested to be opened under an exception to 
policy. The Department will use their experiences regarding the 
suitability and relevance of the prohibition on direct ground combat 
unit assignment, as well as ongoing research, to inform future policy 
decisions.
    Question. If confirmed, I will continue ongoing efforts in this 
area.
    Answer. DOD has recently submitted to Congress the report on its 
review of all gender-restricting policies, which will result in further 
changes in DOD policy to remove barriers to women serving in certain 
military roles.
    Question. What is your assessment of the findings of this report?
    Answer. It is my understanding that, while the findings of this 
report did not indicate women have less than equitable opportunities to 
compete and excel under the current assignment policy, the Services 
requested changes to current assignment policy, based upon their combat 
experiences over the last decade in Iraq and Afghanistan. I support the 
exceptions to policy made, after thoughtful consideration, by the 
Services and would look forward to continuing the ongoing work 
contemplated by this report.
    Question. If confirmed, how will you ensure that the findings of 
this report are implemented throughout DOD?
    Answer. It is my understanding the Secretary of Defense charged the 
Under Secretary of Defense for Personnel and Readiness as the focal 
point for reporting the progress of the Services in their efforts to 
pursue gender-neutral physical standards, assessing newly opened 
positions, and identifying any further positions that can be opened. If 
confirmed, I will work with the Services to continue the Secretary's 
commitment to removing barriers that prevent servicemembers from 
serving in any capacity based on their ability and qualifications, not 
constrained by gender-restrictive policies.
                      rising costs of medical care
    Question. In testimony presented to Congress in February, 2009, the 
Assistant Director of the Congressional Budget Office asserted that 
``medical funding accounts for more than one-third of the growth 
projected for operations and support funding between 2009 and 2026.'' 
In April 2009, Secretary Gates told an audience at Maxwell Air Force 
Base that ``health care is eating the Department alive''. In recent 
years, the Department has attempted to address this growth through 
various fee increases on military retirees. The Department's 
preliminary budget briefings for fiscal year 2013 confirm that the 
growth in military health care costs continues to outpace the growth in 
the rest of the defense budget.
    What is your assessment of the long-term impact of rising medical 
costs on future DOD plans?
    Answer. I am informed that Department estimates indicate these 
costs could rise to over 10 percent of the Department budget in just a 
few years. These costs cannot be ignored, and in these fiscally 
constrained times, we must achieve an appropriate balance among 
compensation, force structure, and modernization. To address these 
rapidly rising costs, the Department has put forward comparatively 
modest increases in the beneficiary costs shares to be phased in over 
several years. If confirmed, I would work to ensure the Department 
continues to provide high quality care for our servicemembers and their 
families, while also ensuring we remain good stewards of the Nation's 
resources. All compensation changes should be viewed through the lens 
of maintaining the strength of the All-Volunteer Force.
    Question. If confirmed, what actions would you initiate or 
recommend to the Secretary of Defense to mitigate the effect of such 
costs on the DOD top-line?
    Answer. If confirmed, I would work closely with our healthcare 
leadership in the Department to examine every opportunity to assure 
military beneficiaries are provided the highest quality care possible 
while managing cost growth and to provide that advice to the Secretary 
of Defense.
    Question. What reforms in infrastructure, benefits, or benefit 
management, if any, do you think should be examined in order to control 
the costs of military health care?
    Answer. I believe to control the costs of military health care, the 
Department needs to continue to evaluate all possibilities including 
infrastructure costs, provider payments, administrative costs, and the 
benefit structure. If confirmed, I would examine the costs of the 
direct care facilities, determining where efficiencies can be gained 
and investing wisely in infrastructure requirements. I would look at 
the efficiencies in procuring healthcare services in the civilian 
market, I would look for ways to streamline administrative functions to 
minimize duplication efforts, and, finally I would evaluate the benefit 
structure to see where reasonable changes could occur.
                    personnel and entitlement costs
    Question. In addition to health care costs, personnel and related 
entitlement spending continue to grow and is becoming an ever 
increasing portion of the DOD budget. In order to combat this trend, 
the Department is recommending that Congress establish a commission 
with ``BRAC-like authority'' to conduct a comprehensive review of the 
military retirement benefit ``in the context of total military 
compensation''.
    What do you think the charter of this Commission should focus on, 
and do you agree that in this context the military retirement benefit 
should include retiree health care and survivor benefits?
    Answer. Military retirement is an enormous, complex, and sensitive 
area, which includes disability retirements and the Survivor Benefit 
Plan. I believe an independent, BRAC-like Commission is the best 
vehicle to explore possible alternatives to the current system. 
Healthcare is a very different, separate area, and I understand the 
Department already has proposed other changes to the healthcare system. 
If confirmed, I look forward to working with Congress on the 
Department's healthcare proposals, and at this time would not recommend 
inserting healthcare into the charter of the Commission.
    Question. Do you agree that in the event reforms are enacted that 
the retirement benefits of current servicemembers should be 
grandfathered and, if so, what is the soonest that substantial savings 
would be realized by the Department?
    Answer. I believe Secretary Panetta phrased it best when he said, 
``With any proposed changes to the retirement system, current members 
should be grandfathered.'' Assuming we grandfather current members, we 
would expect to see modest savings in the near term after 
implementation. The greatest savings would take effect in the later 
years as the proportion of the force covered by any proposed, new 
system increases.
    Question. What steps has the Department taken to evaluate the 
military system of compensation and benefits, and should this 
commission also consider compensation and benefits reform?
    Answer. It is my understanding the Department is evaluating changes 
to the military compensation system, and is focusing first on military 
retirement. I believe the Department has been conducting an internal 
review to identify and evaluate retirement alternatives. If Congress 
establishes an independent commission to review military retirement as 
requested by the Administration, if confirmed I will ensure the 
Department will provide the Commission with a formal proposal. 
Following the review of military retirement, the Department plans to 
continue its comprehensive review of military compensation to ensure it 
maintains the Nation's All-Volunteer Force in the most cost conscious 
manner. If confirmed, I look forward to working with Congress in 
considering potential military retirement system alternatives as well 
as other possible compensation and benefits reforms.
    Question. Is the Department currently evaluating the military 
system of compensation and benefits, or should this commission also 
consider compensation and benefits reform?
    Answer. I understand the Department is evaluating changes to the 
military compensation system as a whole, and is focusing first on 
military retirement. Following the review of military retirement, I 
believe the Department plans to continue its comprehensive review of 
military compensation to ensure we maintain the Nation's all volunteer 
force in the most cost conscious manner. If confirmed, I look forward 
to working with Congress in considering other compensation and benefits 
reforms. At this time, however, I do not believe it is appropriate to 
insert additional compensation and benefits reform into the charter for 
the Commission.
    Question. What actions do you believe can be taken to control the 
rise in personnel costs and entitlement spending?
    Answer. I am aware that an increasing proportion of the 
Department's resources are devoted to personnel-related costs. I 
believe it is imperative to remember when we discuss ``personnel 
costs'' that our actions affect the lives of our servicemembers and 
their families. Moreover, our compensation system should aim to ensure 
we can continue to recruit and retain a high-quality All-Volunteer 
Force.
    I believe the Department must balance its responsibilities to our 
servicemembers, to the Nation, and to the taxpayers. We must be ready 
to fulfill our mission, while using our resources wisely. As such, I 
believe it is appropriate to periodically review the military 
compensation system. I understand the Department's leadership has 
already started down this path, and if confirmed, I look forward to 
working with the Department and Congress on this issue.
    I understand the Department's review of the military retirement 
system is in progress, and after the Department provides input to the 
Commission, I expect the Department's comprehensive review will 
continue to other parts of the compensation and benefits system.
                             mental health
    Question. Senior military leaders increasingly recognize the need 
to reduce the stigma for military personnel and their families and 
veterans in seeking mental health care.
    If confirmed, what role would you expect to play in expanding the 
breadth of this message to military personnel and their families?
    Answer. If confirmed, I would support ongoing Department efforts to 
combat stigma and increase help-seeking behavior among servicemembers, 
their families, and affected civilians. The Services are currently 
heavily engaged in this effort. However, I am prepared to provide the 
Service Chiefs with whatever resources are necessary to expand the 
breadth of the outreach efforts. I fully support the Department's 
efforts to improve health and mental healthcare services, and reduce 
the stigma of mental healthcare for our men and women in uniform, their 
families, and affected civilians.
                      suicide prevention-readiness
    Question. The numbers of suicides in each of the services has 
increased in recent years. The Army released a report in June 2010 that 
analyzed the causes of its growing suicide rate and examined disturbing 
trends in drug use, disciplinary offenses, and high risk behaviors.
    If confirmed, what role would you play in shaping DOD policies to 
help prevent suicides both in garrison and in theater and to increase 
the resiliency of all servicemembers and their families?
    Answer. Suicide is a difficult, ongoing issue across the Services 
and is deserving of continued commander and senior leader attention. I 
believe the Department must support a culture to promote health and 
resiliency. This requires both military and civilian leaders throughout 
the ranks to provide the requisite support. If confirmed, I will 
partner with the Services to ensure suicide prevention is emphasized in 
training at all levels and to ensure necessary access to care. I will 
focus on finding best practices and using them to provide guidance from 
which the Services can operate their suicide prevention programs across 
the total force.
    Question. What is your understanding of the action that OSD is 
taking in response to the June 2010 Army report, and the data in 
Chapter 3 in particular?
    Answer. Chapter 3 focuses on ``The Lost Art of Leadership in 
Garrison'' and discusses the challenges of an overall increase in high 
risk behavior, the fragmentation of programs designed to address the 
high risk behavior, and the atrophy of garrison leadership skills over 
the past decade. Although most of the recommendations were derived from 
Army-specific data, some recommendations have applied broadly to the 
other Services. It is my understanding that the Services have since 
strengthened leadership involvement at all levels. Examples include 
emphasis on the commander's role in creating a positive command climate 
and encouraging help-seeking behaviors specifically aimed at reducing 
the stigma associated with receiving behavioral healthcare. I am also 
told that the Office of the Under Secretary of Defense for Personnel 
and Readiness is leading a collaborative effort across the Department 
to implement the recommendations contained in the DOD Task Force 
Report. If confirmed, I look forward to working with Service and other 
partners on this issue.
                       readiness responsibilities
    Question. Section 136 of title 10, U.S.C., gives the Under 
Secretary of Defense for Personnel and Readiness certain 
responsibilities for military readiness. Some important issues that 
affect military readiness, however, such as logistics and materiel 
readiness, have been placed under the jurisdiction of the Under 
Secretary for Acquisition, Technology, and Logistics.
    What is your understanding of the responsibilities of the Under 
Secretary of Defense for Personnel and Readiness in ensuring military 
readiness, including materiel readiness?
    Answer. It is my understanding that the Under Secretary of Defense 
for Personnel & Readiness oversees both the policy for and the 
monitoring of military readiness for the Secretary. This includes the 
oversight of civilian and military training and education, personnel 
and medical readiness, and the analysis of broad mission assessments 
from the combatant commanders regarding the readiness of key units in 
support of the Secretary's deployment decisions in execution of the 
National Military Strategy.
    As the Under Secretary of Defense for Acquisition, Technology, and 
Logistics oversees material readiness, and material readiness is an 
important part of overall military readiness, if confirmed, I will work 
closely with my Department counterpart on items specific to the 
management of material readiness.
    Question. What are the most critical objectives to improve 
readiness reporting and monitoring of the military forces, and if 
confirmed, how would you work with the Military Departments as well as 
other OSD offices to achieve them?
    Answer. After more than a decade of conflict and given a new 
defense strategy, improving the readiness of our force for the range of 
missions envisioned in that strategy is critically important. This will 
require increased training efforts as the current operations tempo 
improves, as well as efforts to ensure units have the people and 
equipment they need to be mission-ready. Secretary Panetta committed 
that even as the force becomes smaller, it will be a ready and agile 
force. If confirmed, I would see my role as providing assessments to 
the Secretary of how the force is doing in this regard, along with 
recommendations of how to improve or mitigate any negative trends we 
might observe.
    To do so, I would intend to work with the Services to ensure such 
accurate and timely readiness assessments of our military forces and to 
implement any mitigations that may be needed. Only with accurate 
assessments can the Department effectively plan and manage forces. If 
confirmed, I would intend to partner strongly with the Services, the 
Joint Staff, and other OSD partners.
    Question. Do you believe the current readiness reporting system 
accurately shows if our forces are not only ``ready'' but ``ready for 
what''?
    Answer. I believe the intent of the current readiness reporting 
system is to provide a holistic view of the Services' ability to 
accomplish those missions assigned by the President and the Secretary 
of Defense. This is a complex undertaking though and currents reporting 
can be improved. The Defense Readiness Reporting System directly 
addresses the ``ready for what'' question by focusing on mission 
capability. It assesses the readiness of all organizations throughout 
the Department to perform their assigned missions as well as the 
individual tasks that support those missions. If confirmed, I will work 
with the Services, Joint Staff, and OSD partners to continue 
improvements in readiness reporting.
    Question. What is your understanding of the responsibilities of the 
Under Secretary of Defense for Personnel and Readiness (USD(P&R)) with 
respect to the Global Response Force?
    Answer. I understand the responsibility of the USD(P&R) is to 
provide policy guidance regarding the readiness monitoring for the 
units that comprise the Global Readiness Force, and in collaboration 
with the Joint Staff, identify readiness deficiencies and recommend 
mitigation options for the Secretary.
                        end strength reductions
    Question. Last year, the Department announced plans to reduce the 
active-duty end strengths of the Army and Marine Corps. This year, the 
Department has laid out a new defense strategy that will call for even 
deeper cuts to the ground forces, proposing eventual end strengths of 
490,000 for the Army and 182,000 for the Marine Corps over the next 5 
years.
    What is your understanding of the Army's and Marine Corps' ability 
to meet these goals without forcing out many soldiers and marines who 
have served in combat over the past 10 years with the implicit promise 
that they could compete for career service and retirement?
    Answer. These reductions in force, while appropriate to the new 
strategy, inherently come with challenges for separating servicemembers 
and their families. I support Secretary Panetta's commitment to 
accomplish needed reductions in as humane and supportive a way as 
possible. I believe the Department's policy of using voluntary measures 
before considering involuntary separations is the right one. My 
understanding is that the Office of the Under Secretary of Defense 
(Personnel and Readiness) is working with the Services to ensure they 
provide servicemembers with as much advanced notice as possible of 
their Service's drawdown plans and the likelihood of their being 
retained. In addition, the Department is working with partners in the 
Departments of Veterans Affairs and Labor to further strengthen the 
Transition Assistance Program for any separating servicemembers.
    I believe programmed reductions must be carefully and deliberately 
managed to preserve force readiness. I am aware the Services have a 
range of authorities to affect these reductions. If confirmed, I would 
work with the Services and Congress to identify any additional 
authorities that might prove beneficial in handling these reductions 
effectively.
    Question. What programs are in place to ensure that separating and 
retiring servicemembers are as prepared as they can be as they enter a 
struggling economy?
    Answer. I understand the Department's current Transition Assistance 
Program (TAP) is in place to help separating and retiring 
servicemembers in their transition to civilian life, to include 
preparation for a successful post-military career. The program consists 
of pre-separation counseling; an employment workshop conducted by the 
Department of Labor; a benefits briefing provided by the VA; and one-
on-one counseling based on individual servicemember requirements. I am 
aware the Department is expanding and enhancing TAP to maximize the 
career-readiness of servicemembers, and is working with other agencies 
in developing a clear path to civilian employment; admission into and 
success in an academic or technical training program; or successful 
start-up of an independent business entity or non-profit organization. 
The Department's efforts here are furthered by congressional action in 
the VOW to Hire Heroes Act of 2011.
    Question. How fast can the Army and Marine Corps responsibly and 
fairly reduce end strength while maintaining the integrity and 
readiness of combat units?
    Answer. I understand the Department expects to draw down the Army 
from 562,000 to 490,000 by the end of fiscal year 2017, and the Marine 
Corps from over 202,100 to 182,100 by the end of fiscal year 2016. My 
understanding is that the respective Services believe these drawdowns 
can be achieved on these timelines. In making the forces leaner, the 
Department should take care to learn the lessons of previous drawdowns. 
Our military must also still be able to respond to any large-scale 
mobilization against us. This will require careful consideration by 
Services about their organizational structures and their ability to 
reconstitute and mobilize forces. These reductions must be done with an 
eye toward those who have already served in combat and for those with 
families who have experienced extended separations, by maximizing 
voluntary programs and using the full range of authorities provided by 
Congress.
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress provided 
in the NDAA for Fiscal Year 2012?
    Answer. It is my understanding that the Department may require 
legislative authorities that allow targeted reductions and maximum 
flexibility in achieving reductions both in the Active and Reserve 
components. If confirmed, I will quickly become familiar with the 
proposals under consideration and work with Congress to address any 
concerns.
               medical personnel recruiting and retention
    Question. DOD continues to face significant shortages in critically 
needed military medical personnel in both the Active and Reserve 
components. The committee is concerned that growing medical support 
requirements will compound the already serious challenges faced in 
recruitment and retention of military medical, dental, nurse, and 
behavioral health personnel.
    What is your understanding of the shortages of health care 
professionals in DOD and the sufficiency of the plans to meet 
recruiting and retention goals?
    Answer. Regarding military healthcare, it is my understanding that 
Health Professions Officer strength is at 100 percent overall, but the 
Department does have shortage specialties. Specialties of concern below 
90 percent are Cardiothoracic Surgery, Critical Care Trauma Medicine, 
Neurosurgery, Nuclear Medicine, and Oral and Maxillofacial Surgery. If 
confirmed, one of my goals will be to improve the recruitment and 
retention of health professional specialties which currently fall below 
manning requirements. Congress has already given the Department broad 
authority to provide special and incentive pays for all health 
professional officers within title 37 U.S.C. section 335, 
``Consolidation of Special Pay and Bonus Authority.'' I also believe 
there is an increased need for civilian providers within the military 
direct healthcare system and the Department must remain competitive to 
recruit from the civilian labor market.
    Question. What legislative and policy initiatives, including 
bonuses and special pays, do you think may be necessary to ensure that 
the Military Services can continue to meet medical support 
requirements?
    Answer. I believe with ``Consolidation of Special Pays and Bonus 
Authority'' title 37 U.S.C. section 335 that the Department has 
adequate tools to address Health Professions Officer retention and 
recruitment issues in both Active Duty and the Reserves. If confirmed, 
I will continue to support these programs and adjust based on 
recruitment and retention needs. I remain in strong support of the 
Health Professions Scholarship Program that provides the majority of 
our physicians and dentists.
         military accessions vital to national interest program
    Question. Under the Military Accessions Vital to National Interest 
(MAVNI) program, the Services may recruit non-permanent resident aliens 
who have certain high-demand medical or linguistic skills for service 
in the Armed Forces, and offer them an expedited path to citizenship. 
Although the Services have enjoyed extraordinary recruiting and 
retention in recent years, some specialties remain under strength. 
While limited in scope, the program appeared successful and worthy of 
expansion, but was halted after the initial quota was reached so the 
Department could assess its utility and perform a security review.
    What is the status of the MAVNI program and the security review?
    Answer. It is my understanding that recruiting under MAVNI began in 
February 2009, for a one-year pilot that recruited 1,000 personnel. The 
program was extended in August 2010; however, implementation was 
delayed pending development of directed enhanced security screening 
protocols. The screening protocols were signed on February 16, and a 
package is being finalized to extend the pilot for a 2-year period.
    Question. When will the program be restarted?
    Answer. I believe the Department is in the process of completing a 
2-year extension of the MAVNI pilot program and anticipate that it will 
restart by summer 2012 for a full 2-year pilot program.
                           medical marijuana
    Question. What is your assessment on the need for legitimate 
scientific study of the efficacy of medical marijuana in alleviating 
the symptoms of post-traumatic stress disorder experienced by 
servicemembers and veterans?
    Answer. I would support any scientifically rigorous, lawful 
research efforts that have the potential to help improve the lives of 
patients who have been adversely affected by post-traumatic stress 
disorder.
  mobilization and demobilization of national guard and reserves - ra
    Question. Over the past 10 years, the National Guard and Reserves 
have experienced their largest and most sustained employment since 
World War II. Numerous problems arose in the planning and procedures 
for mobilization and demobilization, e.g., inadequate health screening 
and medical readiness, monitoring, antiquated pay systems, limited 
transition assistance programs upon demobilization, and lack of access 
to members of the Individual Ready Reserve. Reserve Force management 
policies and systems have been characterized in the past as 
``inefficient and rigid'' and readiness levels have been adversely 
affected by equipment stay-behind, cross-leveling, and reset policies.
    What is your assessment of advances made in improving Reserve 
component mobilization and demobilization procedures, and in what areas 
do problems still exist?
    Answer. It is my understanding the Department has focused on 
increasing the alert and notification times prior to mobilization; the 
Department needs to ensure it provides predictability to 
servicemembers, their families, and employers. If confirmed, I would 
continue the efforts of the Department to monitor this issue closely, 
as we know that predictability is a major factor for all those 
affected. I believe strongly that National Guard and Reserve personnel 
deserve first-class mobilization and demobilization procedures, health 
screening, and transition assistance programs.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. It is my understanding the most significant enduring 
changes are in the implementation of service force generation plans, 
which have been created to provide a defined cycle to prepare Reserve 
component units for employment as an operational force. This enables 
units to train for a mission prior to mobilization and deploy and 
redeploy on a predictable timeline. I believe there is still work to be 
done in projecting force requirements by combatant commands to avoid 
mission and personnel requirement changes just prior to mobilization.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves?
    Answer. If confirmed, I would review existing authorities, to 
include those just enacted but not yet implemented, to ensure the 
Department has appropriate authorities in light of the role of the 
Guard and Reserves in our force deployment plans. I know the Department 
appreciates the authorities and support this committee has provided.
               enhanced reserve mobilization authorities
    Question. In the NDAA for Fiscal Year 2012, Congress authorized the 
Service Secretaries to mobilize units and individuals in support of 
preplanned combatant command missions for up to 365 consecutive days. 
In the new defense strategy announced in January, the President and 
Secretary of Defense have stated that while conventional ground forces 
will be reduced, special forces will be increased over the next 5 
years, and a key component of the new strategy seems to be the 
establishment of a rotational presence in Europe, the Middle East, and 
anywhere U.S. interests are threatened. Some in the press have called 
this a ``lily pad'' approach, and it potentially dovetails with an 
operational view of the Reserve components.
    What is your assessment of the operational reserve and how it will 
fit into this new paradigm of smaller, more lethal forces rotating into 
and out of many locations of strategic interest?
    Answer. I believe we currently have the best trained and equipped 
Reserve component in history. The soldiers, sailors, airmen, and 
marines of today's Reserve Force are highly educated, enthusiastic, and 
a great many have either volunteered to serve or continued serving 
since the outbreak of war in Afghanistan and Iraq. If confirmed, I look 
forward to working with the Services to ensure the Department preserves 
this hard earned experience, and enables the Reserve component to 
perform missions in strategic locations in support of national 
objectives.
    Question. What is your understanding of the appropriate size and 
makeup of the Reserve components in light of the new defense strategy?
    Answer. If confirmed, I will work closely with the Services to 
ensure we have sized all elements of the total force--Active, Reserve, 
National Guard, and civilian--appropriately to accomplish the new 
defense strategy in the most efficient manner. In order for the 
Department to meet the demands of the National Security and Defense 
Strategy, as well as meet the constraints of reduced budgets, we will 
need to ensure the optimal use of our total force.
    I believe the Reserve component will continue to play an 
instrumental role in maintaining the superiority of our Nation's forces 
as part of their Service's force generation models and with appropriate 
funding.
              medical and dental readiness of the reserves
    Question. Medical and dental readiness of Reserve component 
personnel remains an issue of significant concern to the committee, and 
shortfalls that have been identified have indicated a need for improved 
policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. If confirmed, I will continue to support the Assistant 
Secretary of Defense for Health Affairs' efforts to streamline and 
standardize medical readiness screening and reporting. Every effort 
should be made to improve efficiencies for cost containment. I concur 
that an electronic solution that integrates the Reserve communities 
with the active allowing for standardized reporting would improve 
immediate information access and provide much needed efficiency.
    Question. How would you improve upon the Department's ability to 
produce a healthy and fit Reserve component?
    Answer. It is my understanding that there is an impressive team of 
Preventive Health clinical experts who are crafting a multi-discipline, 
multi-community approach for the Department in collaboration with the 
National Prevention Strategy of the Office of the Surgeon General. The 
Department's effort addresses many of the core national preventive 
health issues identified by the Department of Health and Human 
Services. The Department's participation on these working groups aligns 
with the National strategy to address our military community including 
the military families and civilian workforce that supports DOD. If 
confirmed, I would support these efforts.
                        military quality of life
    Question. The committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
child care, education, employment support, health care, morale, welfare 
and recreation services, especially as DOD's budget declines.
    How do you perceive the relationship between military recruitment 
and retention and quality of life improvements and your own top 
priorities for the Armed Forces?
    Answer. I believe quality of life efforts impact the recruitment 
and retention of military personnel and are key to maintaining the All-
Volunteer Force. A servicemember's satisfaction with various aspects of 
military life as well as the servicemember's family experience 
influences members' decision to remain in service. In his testimony 
before this committee, Secretary Panetta said, ``One of the guiding 
principles in our decisionmaking process was to keep faith with them 
and their families. So we're protecting family assistance programs, 
we're protecting basic benefits, we're sustaining important investments 
in the budget to try to assist our troops with their needs and the 
needs of their families.'' If confirmed, I would review how effectively 
our programs meet the needs of servicemembers and their families, and 
ensure that they are contributing positively to recruitment and 
retention.
    Question. If confirmed, what further enhancements to military 
qualify of life would you consider a priority, and how do you envision 
working with the Services, combatant commanders, family advocacy 
groups, and Congress to achieve them?
    Answer. If confirmed, I would aggressively pursue the Department's 
priorities to promote the well-being and resilience of servicemembers 
and their families. I would focus on understanding the needs of our 
force and their families and try to expand assistance such as access to 
counseling, fitness opportunities, and childcare support to help 
minimize stress on the force. The Department leadership should work 
together with advocacy groups and Congress to efficiently close gaps 
and reduce overlaps in programs and to communicate effectively to 
ensure that families know how to access available support when they 
need it.
                             family support
    Question. Military members and their families in both the Active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families, and, if confirmed, how 
would you ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. In his testimony before this committee, Secretary Panetta 
said, ``One of the guiding principles in our decisionmaking process was 
that we must try to keep faith with our troops and their families. For 
that reason, we've determined to protect family assistance programs, to 
sustain these important investments in this budget that serve our 
troops and their families and continue to make efforts to ensure that 
these programs are responsive to their needs.''
    If confirmed, I would make family readiness issues a priority. I 
would work with the Secretary and the Military Services to support, 
prioritize, and appropriately resource quality physical and mental 
healthcare, spouse career assistance, childcare, other elements of 
dependent support, and education needs.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, deployments, and anticipated reductions 
in end strength?
    Answer. If confirmed, I would continue the Department's current 
approach to identify and address family readiness needs, to gather 
information from the Services, commands, servicemembers and families, 
professional organizations, and researchers about how to best prepare 
families for rebasing, BRAC, deployments and other stressful aspects of 
military life.
    Question. If confirmed, how would you ensure support is provided to 
Reserve component families related to mobilization, deployment and 
family readiness, as well as to active duty families who do not reside 
near a military installation?
    Answer. If confirmed, I would ensure the Department's Yellow Ribbon 
Reintegration Program is properly focused and funded to address the 
issues faced by reservists, geographically dispersed Active Duty, their 
families and immediate support network. The program's proactive and 
preventive scope provides information, access, referrals, and outreach 
to military members and those who support them thanks to Congress for 
continued support. Further efforts must be underwritten by a 
coordinated, community-based network of care encompassing the 
Department, VA, State, local, and private providers.
    Question. If confirmed, what additional steps will you take to 
enhance family support?
    Answer. If confirmed, I would encourage the implementation of 
flexible family support programs that meet the needs of our 
servicemembers and their families, whether they live on, near, or far 
from military installations.
                         access to health care
    Question. One of the major concerns for military family members is 
access to health care. Military spouses tell us that the health care 
system is inundated, and those stationed in more remote areas may not 
have access to adequate care.
    If confirmed, what steps would you take to ensure complete access 
to health care for the families of servicemembers?
    Answer. I agree that access to care for family members is an 
important concern and, if confirmed, I will work to ensure appropriate 
access to care is a key feature of our TRICARE program and will 
continually explore ways to ensure all beneficiaries are provided the 
appropriate level of care within the established TRICARE Access to Care 
Standards.
                 department of defense schools in conus
    Question. Some have questioned the continuing need for DOD-operated 
schools for military dependent children within the Continental United 
States (CONUS).
    In light of the administration's request for additional Base 
Realignment and Closure (BRAC) authorities and fiscal constraints, 
should DOD should establish or update its criteria for the continued 
operation of DOD schools within CONUS?
    Answer. No, at this time I don't believe the criteria require 
change. The law provides the Secretary of Defense the authority to 
determine whether to establish DOD Domestic Dependent Elementary and 
Secondary Schools (section 2164 of title 10, U.S.C.). In exercising 
that discretion, the Secretary must consider the criteria established 
by law and any other criteria the Secretary deems relevant in making 
such a determination. The final decision about the establishment of a 
DOD Domestic school rests with the Secretary.
    In these times of fiscal pressures and significant high stress 
periods for our military families, I believe the Department should 
continue to weigh the cost and benefits associated with operating some 
or all or the DOD Domestic Schools. If confirmed, I look forward to 
working with the committee on this important issue.
    Question. If so, and if confirmed, how would you approach this 
task?
    Answer. While I do not believe the criteria should be updated, if 
confirmed, I will review all DOD schools programs and ensure we provide 
as much stability as possible to military dependent children.
  office of community support for military families with special needs
    Question. In the NDAA for Fiscal Year 2010, Congress required the 
establishment of an Office of Community Support for Military Families 
with Special Needs within the Office of the Under Secretary of Defense 
for Personnel and Readiness. The purpose of this office is to enhance 
and improve DOD support for military families with special needs, 
whether educational or medical in nature.
    In your view, what should be the priorities of this Office of 
Community Support for Military Families with Special Needs?
    Answer. If confirmed, services for military families with special 
needs will be a priority for me. I believe the priorities of this 
office include medical and educational programs to strengthen military 
families with special needs. I would support the critical efforts of 
this office to establish consistent policy and monitor its 
implementation across the Services. I would identify programs already 
in existence that can provide special services to military families. An 
example I am familiar with from the Air Force is the Exceptional Family 
Member Program Coordinating Committees. These organizations operate 
within the Air Force's Community Action Information Boards and address 
community based solutions to any gaps in services for special needs 
families.
    Question. If confirmed, how would you ensure outreach to those 
military families with special needs dependents so they are able to get 
the support they need?
    Answer. If confirmed, I would ensure increased communication 
efforts to reach families with special needs through the use of 
Webinars, social media outlets, base newspapers, commissaries and 
exchanges, childcare centers and youth facilities, Department schools 
and a variety of Department and services websites. In addition, I would 
emphasize collaboration with civilian community resources outside the 
gate to enhance the resources that the Services provide. Public school 
systems, early intervention programs and non-profit organizations such 
as Easter Seals and the March of Dimes provide invaluable, distinctive 
resources that are not offered by the Services.
                      voluntary education programs
    Question. The Department established the Military Spouse Career 
Advancement Accounts (MyCAA) program, a demonstration project that 
provides military spouses with funds through ``career advancement 
accounts'' to help enable them to pursue portable careers. In February 
2010, the Department became overwhelmed by the number of program 
applicants, subsequently ran out of funds, and then temporarily halted 
the program. The program has now restarted, but the funds, as well as 
the number of spouses who would be eligible for the program, will be 
more limited.
    What is your understanding of the current focus and objectives of 
the program?
    Answer. It is my understanding that the Department continues to 
support MyCAA, but has shaped the program to target the spouses of 
those members most in need of additional assistance. From my 
understanding, as part of the larger, holistic Spouse Education and 
Career Opportunities (SECO) program, the MyCAA program now offers 
spouses of E1-E5, O1-O2, and W1-W2 servicemembers the opportunity of up 
to $4,000 for education, a license, or a credential necessary for 
employment in a portable career. The objective of the MyCAA program is 
to ensure that these mostly younger military spouses have opportunities 
to pursue and sustain a career while supporting their servicemembers. 
Through the SECO program, spouses can obtain professional education and 
career counseling that includes interest, aptitude, and skill testing, 
information on education and licenses and projected career field growth 
and salary levels required in specific occupations.
    Question. If confirmed, what would be your objectives for the MyCAA 
program and other spouse employment initiatives or programs?
    Answer. If confirmed, my objective would be to assist, support, and 
empower military spouses in making informed decisions by offering an 
opportunity to obtain comprehensive information on high-growth, high-
demand, portable occupations. This should include occupational 
information on education, license and credential requirements, how to 
access other Federal, State, and private opportunities for financial 
assistance in achieving these requirements, as well as understanding 
earnings potential. It should also include the recent initiative by the 
First Lady and Dr. Biden to encourage States to accept licenses from 
other States for the spouses of servicemembers. If confirmed, I would 
also promote the outstanding pipeline of talent that military spouses 
represent to America's employers. Military spouses are talented, 
diverse, and motivated.
    Question. The Department continues to seek ways to improve 
oversight of its tuition assistance programs, including standardizing 
eligibility criteria among the Services and requiring all schools who 
accept tuition assistance funding, whether for online courses or on-
post, to sign a Memorandum of Understanding (MOU) with the Department 
which will, among other things, subject online schools to Departmental 
audits. We have heard concerns from some in the academic community that 
certain provisions of the MOU infringe on institutions' academic 
freedom.
    What is the status of the MOU, and what will happen to 
servicemembers enrolled in schools that refuse to sign?
    Answer. It is my understanding the MOU, originally to be effective 
January 1, 2012, was extended until March 30, 2012, at the request of 
Congress. I also understand that DOD is collaborating with institutions 
of higher learning to reach a resolution and will shortly have an 
updated MOU for signature. Approximately 95 percent of current students 
who use Tuition Assistance are enrolled in institutions which have 
signed the MOU. It is my understanding that if servicemembers are 
enrolled at an institution which will still not sign the revised MOU, 
the Services will assist them to find schools that have the same 
program and will transfer credits already earned. The Services will 
also provide counseling to assist in identifying additional or 
alternative sources of funding if the servicemember wishes to remain 
enrolled in that school.
    Question. What is your assessment of the tuition assistance program 
in light of the needs of the Services and the current budget 
environment?
    Answer. It is my understanding, despite budget reductions, the 
Department remains committed to providing servicemembers with support 
programs and resources that empower them to address the challenges of 
military life and prepare them for success when they return to civilian 
life.
    Question. What is your view the Post-9/11 GI Bill as a viable and 
fair alternative for servicemembers and spouses if the military tuition 
assistance and MyCAA benefits are eliminated or reduced?
    Answer. Congress provided a significant benefit with the passage 
for the Post 9-11 GI Bill. I do not believe the Post-9/11 GI Bill is a 
viable alternative to Tuition Assistance or MyCAA because it is 
designed for different purposes. Although currently serving members can 
use the Post-9/11 GI Bill, it is better designed to provide financial 
support for education and housing so prior servicemembers can attend 
school in a full (or near full) time capacity. The Tuition Assistance 
program is designed to assist current servicemembers in obtaining off 
duty education to gain the knowledge and skill they need for their 
military careers and prepare for success when they return to civilian 
life.
    The Post-9/11 GI Bill benefits are not available for transfer to a 
spouse until after 6 years of service. Therefore, the majority of the 
MyCAA spouses would not be eligible for the Post-9/11 GI Bill transfer. 
The MyCAA program is designated to serve spouses of junior 
servicemembers.
    Question. What is your view of proposed changes to the so-called 
90/10 rule that would require academic institutions to derive no more 
than 85 percent of their revenue from Federal sources, including DOD 
tuition assistance and VA GI Bill funding?
    Answer. If confirmed, I look forward to learning more about this 
issue. It is my understanding that the Department does not currently 
have an objection, as long as the legislation allows for a 2-year 
period for a school to return to compliance.
                       medical research programs
    Question. What do you see as the highest priority medical research 
investment areas for DOD?
    Answer. I agree with the Department's current research priorities 
to improve the diagnosis, treatment, and rehabilitation of wounded 
warriors with emphasis on Traumatic Brain Injury, the psychological 
health and well-being of military personnel and their families 
including Post-Traumatic Stress Disorder and suicide prevention, pain 
management, eye and other sensory system trauma, far forward hemorrhage 
control and resuscitation, and improved prosthetics.
    Question. How will you assess the amount of investment made in 
these research areas to determine if they are sufficient to meet DOD 
goals and requirements?
    Answer. If confirmed, I would review the current research portfolio 
to ensure it prioritizes and resources research appropriate to the 
requirements of the Department.
    Question. How will you ensure that DOD medical research efforts are 
well coordinated with similar research programs within the private 
sector, academia, the Services, the Defense Advanced Research Projects 
Agency, the VA, and the National Institutes of Health?
    Answer. If confirmed, I would support coordination efforts to 
ensure research is conducted jointly, building on, and partnering with 
industry, academia, and other government agencies to ensure the 
greatest benefit to our servicemembers. I am aware that joint program 
reviews of medical research are conducted with DOD, VA, and National 
Institutes of Health scientists to ensure our research reflects the 
best interests of our servicemembers and leverages the Federal medical 
research investment.
    Question. How will you ensure that new medical technologies 
(including drugs and vaccines) are independently and adequately tested 
before their use by DOD organizations and personnel?
    Answer. If confirmed, I will work through the Assistant Secretary 
of Defense for Health Affairs to ensure the Department continues to 
apply the highest standards of the Food and Drug Administration to 
ensure new medical technologies, drugs, and vaccines are safe and 
effective before they are adopted for use in the Department.
    Question. There have been growing privacy and security concerns 
raised about the use of online social networks for medical research 
purposes.
    How will you ensure that the increasing use of social networking 
media for medical research purposes will protect the privacy and 
security of patients?
    Answer. If confirmed, I would enforce the Department's policy, 
which states that the rights and welfare of human subjects in research 
supported or conducted by Department components will be protected. This 
protection is based on the ethical principle of respect for persons and 
encompasses requirements to obtain informed consent and to do no harm. 
In application of this policy, I would support the Department's 
adherence to the applicable statutory provisions for human protections 
in research.
    Question. What are your biggest concerns related to the DOD medical 
research enterprise?
    Answer. Although I do not have detailed knowledge of the entire 
research portfolio, I am especially interested in the responsiveness of 
the research program to medical readiness and our servicemembers' 
medical needs. We must assure the Department has a balanced investment 
in medical science and technology and in medical advanced development 
leading to timely translation into clinical practice in the Military 
Health System. If confirmed, I look forward to learning more about the 
medical research enterprise.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active Duty and Reserve personnel and retirees.
    What challenges do you foresee in sustaining MWR programs 
(particularly in view of the Secretary's efficiency initiative) and, if 
confirmed, what improvements would you seek to achieve?
    Answer. It is my understanding the benefits of strong MWR programs 
are critical to esprit de corps, stress reduction, and personal health 
and well-being. Although there are very extensive installation MWR 
facilities and programs, I believe there is an immediate challenge in 
ensuring that MWR programs for our deployed forces meet their needs, 
especially free access to the Internet to communicate with family and 
friends back home and fitness and recreation activities to keep forces 
fit to fight. Recreation support for our wounded warriors is also 
critical. In the longer term, I believe the Department needs to 
understand what programs are valued by servicemembers and their 
families in order to make wise investments. In addition, the MWR 
customers need to be involved in expressing their needs and 
satisfaction with our programs and policies.
                commissary and military exchange systems
    Question. Commissary and military exchange systems are significant 
quality-of-life components for members of the Active and Reserve Forces 
and their families.
    What is your view of the need for modernization of business 
policies and practices in the commissary and exchange systems, and what 
do you view as the most promising avenues for change to achieve 
modernization goals?
    Answer. I understand that commissary and exchange programs and 
policies must continue to evolve to meet the needs and expectations of 
our changing force and a changing marketplace. If confirmed, I will 
work to become more familiar with the challenges in this area and look 
forward to working with the committee on these issues.
    Question. What is your view of the proposals by some to consolidate 
or eliminate Commissaries and Exchanges in certain areas where they are 
underused or duplicative of services readily available at reasonable 
cost in the community?
    Answer. If confirmed, I would review any proposals aimed at 
reducing overhead, which may include closing underutilized locations or 
eliminating duplicative services. I recognize that commissary and 
exchange programs are an important element of the servicemembers' 
compensation package and contribute to the quality of life of military 
personnel and their families, including our retired members. Moving 
forward, I believe we need to ensure the commissaries and exchanges 
provide the necessary support for today's total military force, while 
economizing operations. If confirmed, I would look forward to working 
with the committee on these issues.
    Question. In the Ronald W. Reagan NDAA for Fiscal Year 2005, 
Congress required the Secretary of Defense to establish an executive 
governing body for the commissary and exchange systems to ensure the 
complementary operation of the two systems.
    What is your understanding of the purpose and composition of the 
executive governing body?
    Answer. I am aware the Department established the DOD Executive 
Resale Board as the governing body to provide advice to the Under 
Secretary of Defense for Personnel & Readiness regarding the 
complementary operation of the commissary and exchange systems. I have 
been informed that the Board works to resolve issues and has been 
instrumental in pursuing matters of mutual benefit to the elements of 
the military resale system. The Board is chaired by the Principal 
Deputy Under Secretary of Defense for Personnel & Readiness, and 
members include both the senior military officers and civilians who 
oversee and manage the commissary and exchanges systems.
    Question. If confirmed, what would your role be with respect to the 
governing body, and what would your expectations be for its role?
    Answer. If confirmed, I would ensure the Board would continue to 
meet regularly to review operational areas of mutual interest to the 
commissary and exchange systems.
                       civilian personnel systems
    Question. Section 1113 of the NDAA for Fiscal Year 2010 provides 
DOD with extensive personnel flexibilities for its civilian employees 
that are not available to other agencies. In particular, section 
9902(a) of title 5, U.S.C., as added by section 1113, directs the 
Department to establish a new performance management system for all of 
its employees. Section 9902(b) directs the Department to develop a 
streamlined new hiring system that is designed to better fulfill DOD's 
mission needs, produce high-quality applicants, and support timely 
personnel decisions.
    What is your understanding of the current status of the 
Department's efforts to implement the authority provided by section 
1113?
    Answer. I understand the Department and labor organizations that 
represent the Department's employees have worked collaboratively over 
18 months to design a performance management system and improved hiring 
processes. The Department launched its ``New Beginnings'' pre-
decisional process effort in September 2010, which has culminated in a 
comprehensive report from three design teams--performance management, 
hiring flexibilities, and civilian workforce incentive fund--containing 
over 100 pre-decisional proposals for Department leadership 
consideration. If confirmed, I will support the work I understand is 
underway to comply with the NDAA.
    Question. Do you agree that DOD's civilian employee workforce plays 
a vital role in the functioning of the Department?
    Answer. Yes, the Department's civilian employee workforce plays an 
instrumental role in the functioning of the Department as part of the 
Total Force across a range of missions.
    Question. What is your view of the personnel flexibilities provided 
by section 1113?
    Answer. I understand Congress provided these flexibilities to allow 
the Department to better meet mission requirements by establishing a 
new performance management system, redesigned hiring procedures, and a 
civilian workforce incentive fund. I believe the Department's goal is 
to establish a fair, credible, and transparent performance management 
system with a continued focus on aligning Departmental and 
organizational goals with individual job objectives. The Department is 
also committed to ongoing hiring reform initiatives and efforts to 
streamline the hiring process. If confirmed, I will support the work 
that I understand is under way to develop these flexibilities.
    Question. If confirmed, will you make it a priority to implement 
these flexibilities in a manner that best meets the needs of the 
Department and promotes the quality of the Department's civilian 
workforce?
    Answer. Yes, if confirmed, I would make it my priority to implement 
those flexibilities that would facilitate accomplishing the 
Department's missions. The Department has found great value in the 
predecisional process involving union and non-union employees. My 
understanding is that design team recommendations will be deliberated 
to fully assess functionality, costs, potential benefits, and legal 
viability, and will continue to involve employees through their labor 
representatives as the Department moves forward on particular 
recommendations and decisions about the performance management and 
hiring processes.
    Question. Section 1112 of the NDAA for Fiscal Year 2010 directs the 
Department to develop a Defense Civilian Leadership Program to recruit, 
train, and advance a new generation of civilian leaders for the 
Department. Section 1112 provides the Department with the full range of 
authorities available for demonstration programs under section 4703 of 
title 5, U.S.C., including the authority to compensate participants on 
the basis of qualifications, performance, and market conditions. These 
flexibilities are not otherwise available to DOD.
    What is your understanding of the current status of the 
Department's efforts to implement the authority provided by section 
1112?
    Answer. I understand that the Department has designed a new 
leadership program and has implemented the first pilot. If confirmed, I 
will fully engage to ensure the new program meets the intent of the 
NDAA authority.
    Question. Do you agree that the Department needs to recruit highly 
qualified civilian personnel to meet the growing needs of its 
acquisition, technical, business, and financial communities?
    Answer. Yes. I completely agree that recruiting highly qualified 
civilian personnel both in mission critical occupations, such as 
acquisition and finance, and in leadership positions across the 
Department is essential to mission success.
    Question. In your view, has the existing civilian hiring process 
been successful in recruiting such personnel and meeting these needs?
    Answer. Although I believe the Department currently has a highly 
talented workforce, I wholeheartedly support the initiatives to 
streamline and reform the civilian hiring process. While I understand 
the Department is making progress, there is still work to be done in 
this area. If confirmed, I would ensure the Department actively engages 
in civilian hiring reform initiatives and aggressively pursues 
continued improvements, in consultation with Congress.
    Question. If confirmed, will you make it a priority to implement 
the authority provided by section 1112 in a manner that best meets the 
needs of the Department and promotes the quality of the Department's 
civilian workforce?
    Answer. Yes, if confirmed I will make it a priority to implement 
the authority provided by section 1112. The Department recognizes the 
need for an improved leader development model to attract, retain, and 
develop civilian leaders to support pipeline readiness and enhance 
bench strength. If confirmed, I will assess the outcomes of pilot 
programs designed in support of section 1112 to ensure final 
implementation of a model necessary to provide the next generation of 
innovative leaders with the technical competence to meet the future 
leadership needs of the Department.
                         human capital planning
    Question. Section 115b of title 10, U.S.C., as added by section 
1108 of the NDAA for 2010, requires the Secretary of Defense to develop 
and update in every even-numbered year a strategic human capital plan 
that specifically identifies gaps in the Department's civilian 
workforce and strategies for addressing those gaps. Section 115b 
requires that the plan include chapters specifically addressing the 
Department's senior management, functional, and technical workforce and 
the Department's acquisition workforce.
    Would you agree that a strategic human capital plan that identifies 
gaps in the workforce and strategies for addressing those gaps is a key 
step toward ensuring that the Department has the skills and 
capabilities needed to meet future challenges?
    Answer. Yes. I believe such planning well positions the Department 
to acquire, develop, and maintain the workforce it needs to meet 
current and future mission challenges.
    Question. Do you see the need for any changes in the requirements 
for a strategic human capital plan under section 115b?
    Answer. At this time, I have no recommendations. If confirmed, I 
would review the strategic workforce planning that the Department has 
conducted over the past years against the section 115b requirements, as 
well as the current workforce planning approach, to determine if any 
changes may be needed to improve the Department's overall workforce 
planning effort. I look forward to working with the committee to this 
end.
    Question. If confirmed, will you ensure that DOD fully complies 
with these requirements?
    Answer. Yes, if confirmed, I would ensure the Department has a 
robust strategic workforce plan in place as required by section 115b.
    Question. Since the time that the Department's most recent 
strategic human capital plan was issued, its civilian workforce plans 
have been significantly altered by the changed budget environment and 
extensive efficiencies initiatives.
    What role do you believe human capital planning should play in 
determining where reductions in the civilian workforce can be taken 
with the lowest level of risk?
    Answer. I believe that workforce plans should serve as a guide, 
including specific strategies, for closing high-risk skill gaps. The 
strategic workforce planning process can be a practical and crucial 
tool for guiding workforce decisions necessitated by changing 
strategies, budget constraints, and to prevent excessive or 
irreversible reductions in any particular capability or competency. If 
confirmed, I will monitor the strategic workforce planning process to 
ensure comprehensive and sufficient plans are available to inform 
civilian workforce reduction decisions.
    Question. Would you agree that the strategic human capital plan 
required by section 115b should be updated to more accurately reflect 
the Department's current workforce plans and requirements?
    Answer. Yes. If confirmed, I would ensure the Department's biennial 
strategic workforce plans under section 115b would be based on the 
latest assessment of the Department's current workforce skills, based 
on existing and future workload and requirements. Forecasts for the 
Department's workforce must be based on validated mission requirements 
and workload, both current and projected.
    Question. What steps if any will you take, if confirmed, to ensure 
that civilian workforce levels are determined on the basis of careful 
planning and long-term requirements, rather than by arbitrary goals or 
targets?
    Answer. If confirmed, I would expect Department decisions on 
workforce shaping to align to the Department's long term strategic 
workforce plan, with the understanding that short-term exceptions may 
be needed due to emerging dynamics in the budget environment. Forecasts 
for the Department's workforce must be based on validated mission 
requirements and workload, both current and projected, and these 
forecasts should inform any reductions in the civilian workforce.
      balance between civilian employees and contractor employees
    Question. In recent years, DOD has become increasingly reliant on 
services provided by contractors. As a result of the explosive growth 
in service contracts, contractors now play an integral role in the 
performance of functions that were once performed exclusively by 
government employees, including the management and oversight of weapons 
programs, the development of policies, the development of public 
relations strategies, and even the collection and analysis of 
intelligence. In many cases, contractor employees work in the same 
offices, serve on the same projects and task forces, and perform many 
of the same functions as Federal employees.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of DOD?
    Answer. The Department's ``sourcing'' of functions and work among 
military, civilian, and contracted services must be consistent with 
workload requirements, funding availability, readiness and management 
needs, as well as applicable laws and statute. I believe the current 
workforce mix reflects the Department's current best judgment today on 
how to balance operational needs and fiscal reality. I am committed to 
ensuring the Department meets its statutory obligations to annually 
review missions, functions, and workforce composition, including 
reliance on contracted services, and to ensure the workforce is 
appropriately balanced and aligned to our most critical priorities.
    I value the support provided by private sector firms and recognize 
contracted services are, and will continue to be, a vital source of 
expertise, innovation, and support to the Department. However, I 
believe we must be vigilant against excessive or inappropriate reliance 
on contract support. This includes ensuring we maintain adequate 
control and oversight of our missions and operations, as well as 
growing critical capabilities internally.
    Question. What steps if any will you take, if confirmed, to ensure 
that DOD is not excessively reliant on contractors to perform its basic 
functions?
    Answer. If confirmed, I would execute my title 10 responsibilities 
regarding reviews of contracted services and in-sourcing. Where 
appropriate, I support in-sourcing as one tool by which to reduce 
reliance on contracted services; ensure inherently government, closely 
associated, or critical work is performed by government civilians or 
military; maintain management control and oversight of key functions 
and workload in support of our warfighter; and deliver services in the 
most cost efficient manner possible.
    Question. Section 2330a of title 10, U.S.C., requires DOD to 
maintain an inventory of contract services. Section 321 of the NDAA for 
Fiscal Year 2011 amended this provision to give the Under Secretary of 
Defense for Personnel and Readiness a key role in implementing this 
provision.
    What is your understanding of the current status of the 
Department's efforts to implement the requirements of section 2330a?
    Answer. I understand the Department submitted a plan to the 
congressional defense committees in November 2011 that delineated both 
short- and long-term steps to become fully compliant with the statutory 
requirements. If confirmed, I will ensure the necessary steps are taken 
to enable the Department to fully move forward with the implementation 
of the requirements of section 2330a.
    Question. What additional steps if any will you take, if confirmed, 
to ensure that the Department fully implements the requirements of 
section 2330a?
    Answer. If confirmed, I look forward to working with Congress and 
will fully support efforts delineated in the November 2011, plan 
currently underway across the Department to increase visibility and 
accountability of contracted services.
              department of defense efficiency initiatives
    Question. In May 2010, then-Secretary Gates launched an initiative 
to strengthen and modernize our fighting forces by eliminating 
inefficient or duplicative programs. In an August 16, 2010 memo to DOD 
components, the Secretary directed twenty specific initiatives, many 
involving military and civilian personnel and DOD contractors. 
Secretary Panetta has included similar efficiency initiatives in the 
Department's budget for fiscal year 2013.
    What is your assessment of the impact that the implementation of 
these initiatives has had, to date, on the military and civilian 
workforces of DOD?
    Answer. Secretary Panetta has continued Secretary Gates' initiative 
to ensure the Department executes its defense strategy with the most 
effective use of each defense dollar. This continues the efforts to 
seek efficiencies throughout the Department's business operations. The 
fiscal year 2012 initiatives are only now being implemented. In the 
oversight process, all components are called upon to identify any 
potential unintended consequences to overall mission capabilities and 
unit readiness. My understanding is that this oversight will include 
looking for any impacts to the military and civilian workforce and 
ensuring adjustments to this workforce are linked to mission needs.
    Question. Do you believe that any adjustments or modifications are 
needed in the implementation of these initiatives to avoid adverse 
impacts on the military or civilian workforces of the Department?
    Answer. If confirmed, I will be committed to minimizing the 
potential adverse impact on our dedicated uniformed and civil service 
workforces. I would support efforts to more appropriately size our 
workforce to meet our most pressing and critical priorities while 
ensuring well-reasoned reductions based on workload requirements, risk 
factors, and fiscal realities. If confirmed, I will look carefully for 
any adverse impacts and make recommendations for adjustments that may 
be necessary.
    Question. What additional efficiencies if any, do you believe the 
Department should undertake with regard to its military and civilian 
workforces?
    Answer. I believe the revised strategy of the Department, as well 
as the need for increased fiscal constraint, demands constant 
assessments of the Department's total force. If confirmed, I will fully 
support ongoing Department efforts to identify additional efficiencies 
through program and mission prioritization while preserving the 
viability, capabilities, and competencies of our military and civilian 
workforces. However, identifying specific workforce efficiencies beyond 
those in the Department's fiscal year 2013 budget request would be 
premature.
                         acquisition workforce
    Question. Section 852 of the NDAA for Fiscal Year 2008 established 
an Acquisition Workforce Development Fund to help DOD address 
shortcomings in its acquisition workforce. The fund provides a 
continuing source of funds for this purpose.
    Do you believe that the DOD acquisition workforce development fund 
is still needed to ensure that DOD has the right number of employees 
with the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. Yes. I believe the fund is essential to continuing efforts 
to strengthen the acquisition workforce.
    Question. If confirmed, what steps if any will you take to ensure 
that the money made available through the workforce development fund is 
spent in a manner that best meets the needs of DOD and its acquisition 
workforce?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense for Acquisition, Technology and Logistics and the Department 
components to ensure initiatives supported by the fund are sound, 
aligned with human capital strategies, and address highest priority 
workforce capability and capacity needs.
    Question. Section 872 of the Ike Skelton NDAA for Fiscal Year 2011 
codifies the authority for DOD to conduct an acquisition workforce 
demonstration project and extends the authority to 2017.
    Do you believe it would be in the best interest of the Department 
to extend and expand the acquisition workforce demonstration project?
    Answer. I believe as we continue efforts to strengthen the 
acquisition workforce capability, it is critical we review and use all 
authorities and tools available. I believe it is in the best interests 
of the Department to expand on a thoughtful, deliberate basis while we 
assess effectiveness. The Department is authorized by law up to 120,000 
employee participants covered under acquisition demonstration projects. 
It is my understanding that today the Department has 15,300 employees, 
the majority of which returned to the demonstration project following 
the repeal of the National Security Personnel System (NSPS) as directed 
by the NDAA for fiscal year 2010. With that now complete, several 
acquisition organizations across all components have expressed interest 
in participating in the project. Project participation is voluntary and 
based on meeting acquisition related workforce demographic eligibility 
criteria. If confirmed, I will work with the Under Secretary of Defense 
for Acquisition, Technology and Logistics to ensure leaders are 
oriented to the design and see the value of participation before they 
socialize, train, and prepare their organizations.
    Question. What steps would you take, if confirmed, to implement 
section 872?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense for Acquisition, Technology and Logistics and the Department 
components to ensure the Department is effectively positioned to expand 
the Acquisition Demonstration project as necessary.
               laboratory personnel demonstration program
    Question. The laboratory demonstration program founded in section 
342 of the NDAA for Fiscal Year 1995 as amended by section 1114 of the 
NDAA for Fiscal Year 2001, section 1107 of the NDAA for Fiscal Year 
2008, section 1108 of the NDAA for Fiscal Year 2009, and section 1105 
of the NDAA for Fiscal Year 2010, paved the way for personnel 
management initiatives and new flexibilities at the defense 
laboratories. These innovations have been adopted in various forms 
throughout other DOD personnel systems.
    If confirmed, will you fully implement the laboratory demonstration 
program and the authorities under these provisions?
    Answer. Yes, if confirmed I will work to fully implement the 
laboratory demonstration program.
    Question. If confirmed, will you ensure that the directors of the 
defense laboratories are provided the full range of personnel 
flexibilities and authorities provided by Congress?
    Answer. Yes, if confirmed, I will work with the directors of the 
defense laboratories to provide the full range of personnel 
flexibilities.
                 dod scientific and technical personnel
    Question. Recently, the Department issued guidance, as part of its 
efficiencies initiatives, to centralize certain hiring authorities, 
including for Highly Qualified Experts and Inter-Governmental Personnel 
Assignment positions. Both are heavily used by the Department's 
scientific and technical (S&T) enterprise, including the DOD's 
laboratories and the Defense Advanced Research Projects Agency. The 
benefit of these authorities is to use them to make rapid hiring 
decisions for individuals in a highly competitive national S&T jobs 
market. However, there is concern that the centralization of the 
process will actually slow down the Services' and defense agencies' 
ability to hire rapidly.
    What will you do to ensure that these special hiring authorities 
are not negatively impacted in terms of allowing DOD to rapidly hire 
these types of highly specialized individuals?
    Answer. If confirmed, I would ensure the Department actively 
engages in initiatives to streamline and reform the civilian hiring 
system, to include efforts to ensure that the Department's processes 
for using special hiring authorities are efficient in fulfilling 
mission needs.
    Question. Under the Military Accessions Vital to National Interest 
(MAVNI) program, the Department is able to expedite U.S. citizenship 
for foreign nationals that enlist in the military and have either 
specialized medical or linguistic skills.
    How could this program be extended to include, subject to 
appropriate security reviews, highly skilled scientific and technical 
foreign nationals--e.g., graduates of U.S. universities with doctorates 
in fields DOD has a demand for and where less than half of these 
graduates are U.S. citizens?
    Answer. It is my understanding that 1,000 personnel were recruited 
under MAVNI in 2009, as a one-year pilot. I understand the Department 
is completing a 2-year extension of the MAVNI pilot program with a 
restart by summer 2012 for a 2-year pilot program. If confirmed, I look 
forward to learning more about this program and assessing what changes 
may be appropriate. My understanding at this time is that the 
Department believes the program is appropriately scoped.
                      foreign language proficiency
    Question. A Foreign Language Transformation Roadmap announced by 
the Department on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    In your view, what should be the priorities of the Federal 
Government to expanding the foreign language skills of civilian and 
military personnel and improving coordination of foreign language 
programs and activities among the Federal agencies?
    Answer. I believe priorities for the Federal Government for 
expanding foreign language skills should include: building a globally 
competent workforce by integrating Federal programs to educate a larger 
pool of U.S. citizens beginning in pre-school and continuing through 
their educational journey in high school and college; expanding select 
learning opportunities such as The Language Flagship Program that 
builds a pool of highly skilled language professionals from which all 
Federal Government agencies can recruit; and partnering with academia, 
interagency and international partners to expand and strengthen the 
pipeline for the Federal Government's workforce in critical foreign 
languages.
    I believe we can improve coordination among Federal agencies by 
utilizing existing organizations such as the National Security 
Education Board.
    Question. What changes, if any, would you recommend for the current 
set of DOD language proficiency programs?
    Answer. I believe our goal is to increase the proficiency level of 
personnel with languages that are most critical to our mission, as well 
as to establish viable career paths for individuals with needed 
language, regional, and cultural skills. If confirmed, I would continue 
to support the Department's vision and ongoing efforts to 
systematically identify and build language proficiency in a 
comprehensive, collaborative, and holistic manner. Recognizing that the 
Department cannot do this alone, if confirmed, I will focus on both 
internal and external partnerships to build and institutionalize these 
vital skills in our Nation.
                            gi bill benefits
    Question. Congress passed the Post-9/11 Veterans Educational 
Assistance Act in 2008 (Post-9/11 GI Bill) that created enhanced 
educational benefits for servicemembers who have served at least 90 
days on active duty since September 11. The maximum benefit would 
roughly cover the cost of a college education at any public university 
in the country.
    What unresolved issues related to implementation of the Post-9/11 
GI Bill (e.g., coverage of additional military personnel) do you 
consider most important to be addressed?
    Answer. It is my understanding the Department has not identified 
any additional unresolved issues. I believe the provisions of the Post-
9/11 Educational Assistance Improvement Act corrected any major issues 
in the original statute that had the greatest impact on the Department.
    Question. What is your assessment of the impact of the Post-9/11 GI 
Bill on recruiting and retention, including the provision of 
transferability for continued service?
    Answer. I believe it is too early to empirically determine the 
impact of the Post-9/11 GI Bill on either recruiting or retention, 
though anecdotally it appears to have positive effects.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. If confirmed, I look forward to appearing before this 
committee and other appropriate committees in support of our Nation's 
servicemembers.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Personnel and Readiness?
    Answer. If confirmed, I will appear before this committee, or 
designated members of this committee, and provide information in 
support of our Nation's servicemembers.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. If confirmed, I will ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. If confirmed, I agree to provide documents, including 
copies of electronic forms of communication, in a timely manner when 
requested by a duly constituted committee, or to consult with the 
committee regarding the basis for any good faith delay or denial in 
providing such documents.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kay R. Hagan
                      personnel hiring authorities
    1. Senator Hagan. Ms. Conaton, over the years, this committee has 
realized that it is of critical national security importance that DOD 
recruit and retain the Nation's best and brightest scientists and 
engineers for its Research, Development, Test and Evaluation enterprise 
to ensure we have the most technologically-advanced weapons systems. In 
order to achieve this goal, this committee has developed a wide range 
of personnel authorities aimed at providing greater flexibilities in 
hiring and promoting this segment of DOD's workforce, given the stiff 
competition that DOD faces with industry and other technology sectors. 
Will you work with this committee to ensure these authorities are 
exercised to the greatest possible extent?
    Ms. Conaton. Yes, if confirmed, I will work with the committee to 
ensure the full range of personnel authorities are exercised to the 
greatest possible extent.

    2. Senator Hagan. Ms. Conaton, as a result of actions to increase 
efficiencies in DOD, it appears that there is increased centralization 
of personnel actions for positions such as for Interagency Personal 
Agreements, Highly Qualified Experts, and section 1101 positions at 
agencies such as the Defense Advanced Research Projects Agency (DARPA). 
The concern is that this centralization will lead to delays in hiring 
decisions that will have a direct negative impact on the responsiveness 
and flexibilities that are needed. Will you ensure that your office 
will work with the DOD labs, and other science and technology 
organizations like DARPA, to ensure that these centralized personnel 
actions will not have a negative impact on their hiring?
    Ms. Conaton. Yes, if confirmed, I will ensure the Department 
actively engages in initiatives to streamline and reform the civilian 
hiring system, to include efforts to ensure that the Department's 
centralized hiring processes are efficient in fulfilling hiring needs.
                                 ______
                                 
    [The nomination reference of Hon. Erin C. Conaton follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 24, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Erin C. Conaton, of the District of Columbia, to be Under Secretary 
of Defense for Personnel and Readiness, vice Clifford L. Stanley.
                                 ______
                                 
    [The biographical sketch of Hon. Erin C. Conaton, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
Education:
        <bullet> Georgetown University

                <bullet> September 1989-June 1992
                <bullet> Bachelor of Arts Degree in foreign service, 
                awarded June 1992

        <bullet> Tufts University, The Fletcher School

                <bullet> September 1993-June 1995
                <bullet> Master of Arts Degree in law and diplomacy 
                awarded June 1995
Employment Record:
        <bullet> Air Force

                <bullet> Under Secretary
                <bullet> March 2010-present

        <bullet> U.S. House of Representatives

                <bullet> Staff Director, Committee on Armed Services
                <bullet> 2007-2010

        <bullet> U.S. House of Representatives

                <bullet> Minority Staff Director, Committee on Armed 
                Services
                <bullet> 2005-2007

        <bullet> U.S. House of Representatives

                <bullet> Professional Staff Member, House Armed 
                Services Committee 2001-2005

        <bullet> U.S. Commission on National Security/21st Century--
        Hart-Rudman Commission

                <bullet> Research Staff Director and Research Associate
                <bullet> 1998-2001

        <bullet> Central Intelligence Agency

                <bullet> Graduate Fellow
                <bullet> 1998

        <bullet> The Fletcher School, Tufts University

                <bullet> International Security Studies Fellowship
                <bullet> 1996-1997

        <bullet> Overseas Private Investment Corporation

                <bullet> Associate
                <bullet> 1995

        <bullet> National Security Council

                <bullet> Graduate Fellow
                <bullet> 1994

        <bullet> Yield Enhancement Strategists, Inc.

                <bullet> Director of Client Services
                <bullet> 1993

        <bullet> Salomon Brothers, Inc.

                <bullet> Financial Analyst
                <bullet> 1992-1993
Honors and Awards:
        <bullet> Graduate Fellow, Central Intelligence Agency (1998)
        <bullet> National Finalist, White House Fellows Program (1998)
        <bullet> Graduate Fellow, Central Intelligence Agency (1998)
        <bullet> International Security Studies Fellowship, The 
        Fletcher School of Law and Diplomacy (1996-1997)
        <bullet> Jacob K. Javits Fellowship (1993-1997)
        <bullet> Graduate Fellow, National Security Council (1994)
        <bullet> Graduated magna cum laude, Phi Beta Kappa from 
        Georgetown University as a School of Foreign Service Scholar 
        and recipient of Dean's Citation for Service (1992)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Hon. Erin C. 
Conaton in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Erin Cathleen Conaton.

    2. Position to which nominated:
    Under Secretary of Defense for Personnel and Readiness.

    3. Date of nomination:
    January 24, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 26, 1970; Hackensack, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    The Fletcher School of Law and Diplomacy, Tufts University, 1993-
1998, received Master of Arts in Law and Diplomacy in May 1995; 
continued on to the Ph.D. and left completing all requirements except 
the doctoral dissertaton.
    School of Foreign Service, Georgetown University, 1988-1992, 
graduated with a Bachelor of Science in Foreign Service in May 1992.
    Immaculate Heart Academy, Washington Township, NJ, 1984-1988; 
received high school diploma 1988.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Under Secretary of the Air Force, U.S. Department of Defense, March 
2010-present (March 2012).
    Staff Director, Committee on Armed Services, U.S. House of 
Representatives, Washington DC, January 2007-March 2010.
    Minority Staff Director, Committee on Armed Services, U.S. House of 
Representatives, Washington DC, September 2005-January 2007.
    Professional Staff Member, Committee on Armed Services, U.S. House 
of Representatives, Washington DC, June 2001-September 2005.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    N/A.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    N/A.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Fletcher Alumni Association of Washington, DC, member, 1998-present
    Capitol Hill Historical Society, member 2008-present

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    N/A.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Volunteer member of defense policy team for Obama/Biden Campaign, 
2008.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $2,300 Obama for America, 2008
    $50 DCCC 2011

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    1998, National Finalist, White House Fellows Program
    1998, Graduate Fellow, Central Intelligence Agency
    1996-1997, International Security Studies Fellowship, The Fletcher 
School of Law and Diplomacy
    1993-1997, Jacob K. Javits Fellowship
    1994, Graduate Fellow, National Security Council
    1992, Graduated magna cum laude, Phi Beta Kappa from Georgetown 
University as a School of Foreign Service Scholar and recipient of 
Dean's Citation for Service

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Conaton, Erin C. and Rudy Barnes. ``Air Force Implementation of the 
National Space Policy: Space Situational Awareness and Launch.'' High 
Frontier, Volume 7, Number 2, February 2011, pp. 9-12.
    Conaton, Erin C. and Laurent L. Jacque. Management and Control of 
Foreign Exchange Risk (A Guide for Instructors). Kluwer Academic Press, 
1997.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Erin C. Conaton.
    This 21st day of March, 2012.

    [The nomination of Hon. Erin C. Conaton was reported to the 
Senate by Chairman Levin on May 15, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 24, 2012.]
                              ----------                              

    [Prepared questions submitted to Mrs. Jessica Lynn Wright 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe that the Goldwater-Nichols Act has greatly 
contributed to the strong framework for today's joint warfighting 
capabilities. It has significantly improved inter-service and joint 
relationships, promoting greater effectiveness of the Military 
Departments and combatant commands (COCOM).
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Currently I am unaware of any areas where modifications are 
needed. If I am confirmed, I would have an opportunity to assess any 
further need to legislative modifications.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have served this country in uniform for over 35 years, a 
large part of that time in key leadership positions as an Active Guard 
Reserve officer as well as a traditional Reserve component member. My 
last assignment for over 7 years was as The Adjutant General of the 
Commonwealth of Pennsylvania and Commander of the Pennsylvania National 
Guard where I worked with a wide variety of officials at the Federal, 
State, and local levels.
    During that time, I was responsible for a vast array of programs 
and activities including the personnel, equipping, training, 
mobilizations, deployment and demobilizations of over 20,000 guards men 
and women, the management and implementation of the Pennsylvania 
National Guard responsibility for the National Special Security Event 
G-20, the role the Pennsylvania National Guard played in providing 
support to Hurricane Katrina, and several aspects of the Presidential 
Inauguration in January 2009, to name just a few. I was also 
responsible for all of the veterans programs within the Commonwealth as 
well as our family support networks, Yellow Ribbon and Employer Support 
of the Guard and Reserve (ESGR) Programs.
    Since retirement in November 2010, I have worked in the Office of 
the Secretary of Defense as the Deputy Assistant Secretary of Defense 
for Reserve Affairs (Manpower and Personnel) and Acting Principal 
Deputy Assistant Secretary of Defense for Reserve Affairs.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Assistant Secretary of Defense for Reserve Affairs?
    Answer. A key challenge, from my perspective, is to sustain the 
Reserve component as an integral part of the All-Volunteer Total Force, 
and at the same time protect and enhance the skills gained in a decade 
of conflict. Unemployment and underemployment of our returning troops 
is a growing concern along with allowing new ideas to flourish to build 
strength and resiliency in the families.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I expect to focus on maintaining a balance 
for servicemembers, families, and employers. I believe we need to 
utilize the continuum of service to sustain the All-Volunteer Force 
with flexible service options. I intend to apply the Department's 
utilization rules that govern the frequency and duration of 
activations. This would provide predictability for servicemembers, 
thereby managing the expectations of our servicemembers, their 
families, and employers.
                                 duties
    Question. Section 138 of title 10, U.S.C., provides that the 
Assistant Secretary of Defense for Reserve Affairs shall have as her 
``principal duty the overall supervision of Reserve component affairs 
of the Department of the Department of Defense (DOD).''
    Assuming you are confirmed, what duties do you expect that the 
Secretary of Defense will prescribe for you?
    Answer. If confirmed, I would make it a priority to meet with 
Citizen Warriors, their families, and employers to make sure I 
understand their concerns and carry that message back for possible 
resolution. I would strive to be a voice for the Reserve components. I 
feel that it would be necessary to meet with the Reserve chiefs, 
combatant commanders, and other gaining force commanders, to understand 
their views and expectations. I would then carry that message as an 
advisor to the Secretary of Defense.
    Question. In carrying out these duties, what would be your 
relationship with the following officials?
    The Secretary of Defense.
    Answer. If confirmed, I would report through the Under Secretary of 
Defense for Personnel and Readiness (USD(P&R)) to the Secretary of 
Defense; this position reports directly to the USD(P&R).
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, the same will hold true for Deputy Secretary 
Carter.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. If confirmed, I intend to work with the Under Secretary in 
whatever framework that is established. I will strive to have 
transparent information flow both in and out.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    Answer. If confirmed, I intend to have a transparent relationship 
with the Principal Deputy Under Secretary of Defense for Personnel and 
Readiness and support her efforts to support the USD.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs.
    Answer. If confirmed, I will develop a collaborative relationship 
with Assistant Secretary Stockton.
    Question. The General Counsel of DOD.
    Answer. If confirmed, I will seek his advice and counsel on matters 
that fall under the purview of his office.
    Question. The combatant commanders, particularly the Commander, 
U.S. Northern Command.
    Answer. If confirmed, I intend to have open communication with U.S. 
Northern Command and all of the combatant commanders.
    Question. The assistant secretaries in the Military Departments 
responsible for Reserve matters.
    Answer. If confirmed, I would ensure that the Office of the ASD/RA 
has open communications with the assistant secretaries at all levels.
    Question. The Chief of the National Guard Bureau.
    Answer. I believe he is a key partner and the channel of 
communication between the Services and the 54 States and Territories. 
If confirmed, I will foster an open dialogue.
    Question. The Chiefs of Reserves of each of the Services.
    Answer. I believe all the Reserve Chiefs are key stakeholders and 
if confirmed would work to foster open and frank dialogue.
    Question. The assistants to the Chairman of the Joint Chiefs of 
Staff for Guard and Reserve Matters.
    Answer. I believe an open and transparent relationship must exist 
between the ASD/RA and the office of the Joint Chiefs of Staff for 
Guard and Reserve Matters. If confirmed, I would develop this 
communication.
    Question. The Reserve Forces Policy Board.
    Answer. In the 2011 National Defense Authorization Act (NDAA), 
sponsorship within DOD has passed to the Under Secretary of Defense for 
Personnel and Readiness. If confirmed, I will continue an open 
relationship with the independent Board and facilitate RA staff in 
providing information and research on key topics impacting our Reserve 
components when asked.
    Question. The State Governors and the Adjutants General of the 
States.
    Answer. If confirmed, I would ensure the OSD/RA has an open and 
collaborative relationship, using the Chief, National Guard Bureau as a 
channel of communications. If confirmed, I would work with Dr. Stockton 
and the Council of Governors.
                        recruiting and retention
    Question. Some have expressed concern that use of the Reserve 
component as an operational force and the regular mobilizations of 
Reserve component members will have an adverse effect on recruiting and 
retention in the Reserve components.
    If confirmed, what actions will you take to enhance recruiting and 
retention of experienced members of the Reserve components?
    Answer. To date, Reserve component recruiting and retention goals 
have been met for the department, in both quantity and quality and I 
fully anticipate them to be met through the remainder of the fiscal 
year. As such, I believe the current incentives/benefits programs 
appear to be working.
    If confirmed, maintaining open and effective communication with the 
Reserve Chiefs and their subordinate leaders will ensure I understand 
their needs in these areas. I also believe that Office of the Assistant 
Secretary of Defense for Reserve Affairs should encourage and 
facilitate new ideas and approaches that adapt to changes that may 
occur in recruiting the highest quality members and retaining the 
experience necessary to meet the Nation's future challenges.
               medical personnel recruiting and retention
    Question. Much of the medical infrastructure for DOD is in the 
Reserve components. DOD has experienced significant shortages in 
critically needed medical personnel in both the Active and Reserve 
components. The committee is concerned that growing medical support 
requirements will compound the already serious challenges faced in 
recruitment and retention of medical, dental, nurse, and behavioral 
health personnel.
    What is your understanding of the medical support requirements in 
the Reserve components and the sufficiency of plans to meet recruiting 
and retention goals in these specialties?
    Answer. It is my understanding that medical recruiting has remained 
strong across the Services with the exception of some critical wartime 
specialties. These deficits are reflective of the availability of those 
professionals in the civilian population as well as their economic 
vulnerability with a mobilization. I believe the Services have 
consistently and exceptionally met operational medical missions often 
enabled by our stateside Medical Treatment Facility purchased care 
system.
    Question. What legislative and policy initiatives, including 
greater involvement of personnel in recruiting and enhanced bonuses and 
special pays, do you think may be necessary to ensure that the Reserve 
components can continue to meet medical support requirements?
    Answer. I believe it will be critical to continue to fund accession 
and retention bonuses and special pays to meet recruiting and retention 
missions. If confirmed, I will work with the Services to ensure a Total 
Force approach for pay management offering the greatest flexibility for 
each of the Services to meet long term health care recruiting and 
retention goals is available.
                 sexual assault prevention and response
    Question. The Department has developed comprehensive policies and 
procedures to improve the prevention of and response to incidents of 
sexual assaults, including providing appropriate resources and care for 
victims of sexual assault. However, numerous incidents of sexual 
misconduct involving military personnel continue to occur.
    In the context of the Reserve components, do you consider the 
current sexual assault policies and procedures to be effective?
    Answer. The Guard and Reserve have extensive policies, procedures 
and trained staff in place to deal with incidents of sexual assault. If 
confirmed, I will work with colleagues in OSD and the Services to 
review these procedures and ensure they are effective.
    Question. What is your assessment of the adequacy of support 
systems and processes for victims of sexual assault in the Reserve 
components?
    Answer. The Guard and Reserve have outstanding personnel trained to 
support victims of sexual assault. If confirmed, I will review these 
systems and processes in the Reserve components to assess their 
effectiveness.
    Question. What is your assessment of the authorities available to 
Reserve component commanders to hold assailants accountable for sexual 
assault?
    Answer. It is my understanding that the Services in coordination 
with the DOD Sexual Assault Prevention and Response Office have the 
required authorities to hold assailants accountable. If confirmed, I 
will continue to review these authorities to ensure that we are 
facilitating the opportunity for our servicemembers to serve with 
dignity and have confidence in their peers and leaders.
               enhanced reserve mobilization authorities
    Question. In the NDAA for Fiscal Year 2012, Congress authorized the 
Service Secretaries to mobilize units and individuals in support of 
preplanned combatant command (COCOM) missions for up to 365 consecutive 
days. In the new defense strategy announced in January, the President 
and Secretary of Defense stated that while conventional ground forces 
will be reduced, special forces will be increased over the next 5 
years, and a key component of the new strategy seems to be the 
establishment of a rotational presence in Europe, the Middle East, and 
anywhere U.S. interests are threatened.
    What is your assessment of the operational reserve and how it will 
fit into this new paradigm of forces rotating into and out of multiple 
locations of strategic interest?
    Answer. I would consider this an opportunity to sustain the 
readiness that we have achieved in the past 10 years. This new 
authority will give Service Secretaries more autonomy and flexibility 
in sourcing COCOM requirements through the use of their Reserve 
components.
    Question. What is your view of the appropriate size and makeup of 
the Reserve components in light of the new defense strategy?
    Answer. I think that the Services should take advantage of this new 
authority when making decisions on restructuring their forces. 
Utilization of the Reserve components as a partner in the rotational 
support to COCOMs should reduce the infrastructure required of a 
permanent party Active component in theater and relieve stress on the 
Total Force, thereby making the Reserve component an economical and 
viable partner in the force mix.
                 homeland defense and homeland security
    Question. What do you see as the appropriate role of the National 
Guard and Reserves in homeland defense and homeland security?
    Answer. I know that the National Guard has a dual purpose and their 
participation in domestic threats is well founded in law and history. 
Recent changes to law have enabled the Reserves to also participate. I 
believe that homeland defense and homeland security is a total force 
responsibility, and that the Nation should take advantage of the 
extensive competencies and capabilities of the National Guard and 
Reserves in support of priority missions.
    If confirmed, I will work to ensure the Guard and Reserves have the 
equipment, training, and personnel to accomplish their missions, both 
at home and abroad.
     mobilization and demobilization of national guard and reserves
    Question. Over the past decade, the National Guard and Reserves 
have experienced their largest and most sustained employment since 
World War II. Numerous problems arose in the planning and procedures 
for mobilization and demobilization, e.g., inadequate health screening 
and medical readiness monitoring, errors caused by antiquated pay 
systems, limited transition assistance programs upon demobilization, 
and lack of access to members of the Individual Ready Reserve. Reserve 
Force management policies and systems have been characterized as 
``inefficient and rigid'' and readiness levels have been adversely 
affected by equipment stay-behind, cross-leveling, and reset policies.
    What is your assessment of advances made in improving Reserve 
component mobilization and demobilization procedures over the past 
decade, and where do problems still exist?
    Answer. It is my understanding that the paradigm of ``Train-
Mobilize-Deploy'' provides predictability to servicemembers, their 
families, and employers. Additionally, this allows the units identified 
for mobilization to ramp up for deployment.
    Servicemembers and their families receive TRICARE medical benefits 
and Yellow Ribbon training in advance of mobilization, increasing their 
fitness for duty and reducing the time necessary to mobilize. The 
standardization of procedures at home station allows the mobilization 
station to certify deployment readiness.
    If confirmed, I will examine the current processes and work to 
address any challenges that exist.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the Reserve components aimed at 
ensuring their readiness for future mobilization requirements?
    Answer. I believe one of the most significant enduring changes is 
the implementation of Service force generation plans that enable units 
to train and deploy on a more predictable time line.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard and Reserves 
beyond the new mobilization authority in the NDAA for Fiscal Year 2012?
    Answer. Two important changes were made and at this time, I don't 
believe that any additional changes are needed. However, if confirmed I 
will monitor the effect of the changes closely and propose changes 
where necessary.
                            lessons learned
    Question. What do you believe are the major personnel lessons 
learned from Operation Enduring Freedom (OEF), Operation Iraqi Freedom 
(OIF), and Operation New Dawn which you would seek to address if 
confirmed?
    Answer. If confirmed, I would seek to mitigate the stress on the 
Total Force by ensuring the Services continue to utilize the National 
Guard and Reserves. I believe the Reserve components can continue to 
provide trained, ready, and cost-effective forces that can be employed 
on a regular operational basis, while also ensuring strategic depth for 
large-scale contingencies or other unanticipated national crises.
                    operational and personnel tempo
    Question. Current DOD policy is that Reserve component members 
should have 5 years of dwell time for each year they are mobilized.
    What is your view of the achievability of this goal? What measures 
must be taken to be able to achieve it within 5 years?
    Answer. I believe the Department is making progress toward that 
goal. I think the 1-to-5 dwell-time ratio is achievable. We must ensure 
that continuing efforts to rebalance Active and Reserve component units 
are outlined and set the conditions to comply with the Department's 1-
year involuntary mobilization policy.
    Question. In your view, how does the shift of resources from Iraq 
to Afghanistan affect dwell-time ratios?
    Answer. I believe this shift has made the 1-to-5 dwell goal more 
attainable based on the lower demand for resources. If I am confirmed, 
my goal would be to continue policies that support the attainment of 
the 1-to-5 dwell goal for all Reserve components.
    Question. What measures are being taken to respond to operational 
requirements for low-density, high-demand units, and personnel whose 
skills are found primarily in the Reserve components, e.g., civil 
affairs, medical personnel, and truck drivers?
    Answer. I am told the Services are expanding capacity in selected 
areas, continuing to rebalance the AC/RC mix where appropriate, and 
using joint solutions. Force structure decisions and rebalancing are a 
continual process. If confirmed I intend to be involved in this process 
to ensure the Reserve components are used to the best advantage of the 
Total Force.
    Question. In your judgment, what would be the impact on the current 
rates of operations and personnel tempo of assigning principal 
responsibility for support to civil authorities for consequence 
management of natural, domestic disasters to Reserve component forces?
    Answer. It is my understanding that to avoid this situation the 
Services are accounting for support to civil authority missions in 
their force generation models which is a good practice. I would not 
want to break faith with the servicemembers who have volunteered with 
the expectation that they would have the honor to defend this Nation on 
the homefront and overseas.
                           stress on families
    Question. National Guard and Reserve families have been under great 
stress since 2001 as a result of multiple and lengthy deployments in 
OIF and OEF.
    In your view, what are the key indicators of the stress on Reserve 
component families at this time?
    Answer. From what I understand, some key indicators of stress on 
the Reserve component families include everything from communication 
issues to substance abuse, significant relationship issues and even 
domestic violence. I believe it is critical to track these trends and 
seek input from Military Family Life Consultants in order to best deal 
with these issues.
    Question. If confirmed, what will you do to address these key 
indicators?
    Answer. The Services are aware of and have multiple programs to 
address each of these issues and are available for leaders to 
implement. If confirmed, I would work to support these programs as well 
as the Yellow Ribbon Reintegration Program (YRRP) which connects 
Reserve component family members with assistance.
    Question. What do you consider to be the most important family 
readiness issues in the National Guard and Reserves?
    Answer. Predictability and communication are key issues faced by 
Reserve component family members. If confirmed I would work with the 
Services to provide awareness of and access to support services to 
ensure family readiness.
    Question. If confirmed, how would you ensure support for Reserve 
component families, particularly those who do not reside near an 
Active-Duty military installation, related to mobilization, deployment, 
and family readiness?
    Answer. If confirmed, I would ensure the Department's YRRP is 
properly focused and funded to address the issues faced by reservists, 
geographically dispersed Active Duty, their families and immediate 
support network. The program's proactive and preventive scope provides 
information, access, referrals, and outreach to military members, their 
families and immediate support network. This needs to be underwritten 
by a coordinated, community based network of care encompassing the 
Department, VA, State, local, and private providers. My goal would be 
to provide a full range of services available to Active, Guard, and 
Reserve members and their families.
    Question. If confirmed, what additional steps would you take to 
ensure that family readiness needs, including child care, are addressed 
and adequately resourced?
    Answer. I believe this is a critical area where DOD must not become 
``installation minded'' but work to utilize community partners. If 
confirmed I would work to identify where there are service gaps in 
communities and build community capacity.
        guard and reserve unemployment and transition assistance
    Question. Many Guard and Reserve members return from deployment and 
cannot find employment or are underemployed.
    If confirmed, how will you address unemployment issues regarding 
members of the Reserve components?
    Answer. I believe that civilian employment is a critical readiness 
factor for the Reserve components. If confirmed, I will support ongoing 
efforts in Reserve Affairs and ESGR to connect servicemembers with 
military friendly employers who understand their continuing 
obligations.
                        individual ready reserve
    Question. The Commission on the National Guard and Reserves found 
that accessing the IRR as a viable source of manpower for the war has 
been problematic and that using the IRR as a solution for unit manning 
is a failed concept.
    What is your view of the proper role of the IRR in force management 
planning?
    Answer. The last 10 years of persistent conflict have allowed DOD 
to validate the resiliency and capabilities of an All-Volunteer Force. 
I believe the Total Force is best leveraged when an appropriate force 
mix of Active component and Reserve component members is achieved. In 
my view, the IRR must remain part of the total force planning strategy 
now and well into the future--particularly as a means to provide 
rapidly expanding capacity as the Services consider their structure and 
capability.
    Question. If confirmed, what changes, if any, do you foresee making 
to the IRR recall policy?
    Answer. The Services own and manage their respective IRRs, and 
utilize them as manpower requirements necessitate. At this time, I do 
not see the need for DOD to significantly affect the Services' IRR 
policy or procedures for mobilization. If confirmed I will remain 
committed to providing the necessary policy and guidance to support and 
shape this valuable resource for continued utilization.
    Question. What is your view of policies affecting continued service 
by officer and enlisted personnel in the Reserve components who have 
fulfilled their MSO?
    Answer. I am confident that the Service Secretaries have the 
appropriate management procedures to effectively engage and monitor 
participation for those members that have completed their military 
service obligation and desire a continued affiliation with military 
service. If confirmed, I will examine appropriate technologies to 
enhance training opportunities for those members that remain active 
participants, as well as to engage those members that wish to continue 
in service.
    Question. What is your assessment of the adequacy of the system in 
place for members in the IRR receiving orders to Active Duty to request 
a delay or exemption for that activation, including the procedures in 
place for appealing the decision on that request?
    Answer. I am confident that the Services have well-established 
processes for delay and exemption for IRR members. I am further 
confident that these requests, processed through their chain of command 
are handled in a timely manner and are fair and appropriate.
    Question. What is your assessment of the value of the IRR to the 
All-Volunteer Force?
    Answer. The IRR remains a critical enabler to the All-Volunteer 
Force. The IRR provides strategic depth to the operational as well as 
the strategic reserve with pre-trained individual manpower, and can 
flex as manpower requirements dictate.
  medical and dental readiness of national guard and reserve personnel
    Question. Medical and dental readiness of Reserve component 
personnel remains an issue of significant concern to the committee, and 
shortfalls that have been identified have indicated a need for improved 
policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. I believe medical readiness must remain a top priority, as 
it is critical for the success of the Reserve components. Currently, 
the Services report overall status on a quarterly basis to DOD's Force 
Health Protection agency, and the reports have shown steady progress in 
overall readiness. Dental readiness improved most dramatically due to 
new programs that offered dental restorative care along with the 
standard screening. If confirmed, I would continue to support efforts 
to standardize reporting efforts across the Services.
    Question. How would you improve on the ability to produce a healthy 
and fit Reserve component?
    Answer. It is my understanding that there is an impressive team of 
Preventive Health clinical experts who are crafting a multi-discipline, 
multi-community approach for DOD in collaboration with the National 
Prevention Strategy of the Office of the Surgeon General. DOD's effort 
addresses many of the core national preventive health issues identified 
by the Department of Health and Human Services. DOD participation on 
these working groups aligns with the national strategy to address our 
military community including the military families and civilian 
workforce that supports DOD. If confirmed, I would support these 
efforts.
                       health care for reservists
    Question. Members of the Reserve and National Guard who are ordered 
to active duty for more than 30 days are eligible for the same health 
care and dental benefits under TRICARE as other Active Duty 
servicemembers.
    What is your view of the adequacy of health care for Reserve 
component members?
    Answer. I believe that proactive healthcare is tied to readiness 
and that improvements have been made when Reserve members are ordered 
to active duty or mobilized for greater than 30 days. Currently, 
Reserve members and their families receive TRICARE coverage both pre- 
and post-mobilization. Members of the Individual Ready Reserve (IRR) 
are not eligible to purchase TRICARE Reserve Select (TRS), but may 
purchase dental coverage. I believe the department continues to make 
progress in mental health care access and coverage for our Reserve 
members and their families, particularly for those injured while 
serving.
    Question. What are your suggestions for improving continuity of 
care for Reserve members and their families?
    Answer. I believe continuous medical coverage is essential for 
Reserve members and their families during their transitions from 
civilian to military status. TRS has provided a bridge to improve 
continuity of care and has improved satisfaction for members and their 
families who have purchased this option. If confirmed, I would look at 
the feasibility of extending eligibility for TRICARE to members of the 
IRR who are currently not eligible for this option.
    Question. TRICARE Reserve Select authorizes members of the Selected 
Reserve and their families to use TRICARE Standard military health care 
program at a subsidized rate when they are not on active duty.
    What is your assessment of TRICARE Reserve Select and its level of 
utilization in the Reserve components?
    Answer. I believe there has been steady growth of TRS enrollment to 
nearly 20 percent of the eligible reservists. Members pay premiums that 
reflect 28 percent of the total cost of the coverage. TRS is important 
for our members, and is a competitive option for their health care 
needs. Additionally, I believe that this availability can improve 
readiness.
    Question. What impact has TRICARE Reserve Select had on recruiting 
for the Reserve components?
    Answer. I believe that TRICARE Reserve Select is an incentive for 
recruiting and even more for retention, particularly for retaining 
those members of the Reserve components that are self-employed. TRS 
provides a means for Reserve component members to maintain their health 
and individual medical readiness. TRS also provides an affordable 
continuum of health care for members and their families who might 
otherwise be required to change health plans and providers during each 
transition between military and civilian status.
    Question. One of the major concerns for military family members is 
access to health care. Military spouses tell us that the health care 
system is inundated, and those stationed in more remote areas may not 
have access to adequate care, a particular concern for members of the 
Reserve components.
    If confirmed, what steps would you take to ensure complete access 
to health care for the families of members of the Reserve components?
    Answer. I believe we must ensure that TRS premiums remain 
affordable for members and their families. If confirmed, I would 
partner with Health Affairs to improve complete access to health care 
for Reserve component family members.
                 national guard equipment and readiness
    Question. Numerous changes to the roles and responsibilities of the 
National Guard and Reserves have occurred in recent years, including 
elevating the Chief of the National Guard Bureau to membership on the 
Joint Chiefs of Staff. Additionally, over the past 10 years, the Army 
has relied on its Reserve components to deploy in support of operations 
in Afghanistan and Iraq, as well as other operations worldwide. To 
supply ready forces, the Army implemented a rotational readiness model 
for its Active and Reserve components based on a cycle of increased 
training until a period of eligibility for deployment. Under this force 
generation system, Reserve units would be equipped to readiness levels 
that mirror the active force. The 2012 Defense Strategic Guidance 
stressed that the Department will need to examine the mix of Active and 
Reserve component elements best suited to the new strategy and stated 
that expected pace of operations over the next decade will be a 
significant driver in determining an appropriate mix of Active and 
Reserve component forces and level of readiness. The Guidance also 
stressed the need for a robust homeland defense.
    How would reducing the pace of operations affect the Active and 
Reserve component mix and Reserve readiness?
    Answer. I believe that even as the pace of operations declines, 
placing the Reserve components in the Service rotational models 
preserves readiness, permits the active force to reset and train, and 
provides an efficient use of the total force. I believe this may be a 
reduced overall cost. Continued training within the Reserve components 
will remain an important part of this model.
    Question. In your view, how will the missions of the Reserve 
components change to meet these new priorities?
    Answer. I believe the Reserve components are well positioned today 
to meet the demands of the new strategy. The Reserve components are 
well suited for security force assistance missions, providing forces 
for long-term stability operations, and fighting side-by-side with 
their Active component counterparts in major combat operations. Being 
located in communities throughout the United States makes them the 
ideal force for Homeland Defense missions.
    Question. How would you provide the ``strong, steady-state force 
readiness'' for the Nation as it rebalances its Reserve component 
forces?
    Answer. I believe the service force generation models provide the 
best opportunity to maintain a ready Reserve component force that can 
contribute routinely to the overall operational force. If confirmed I 
intend to work closely with the Services and Joint staff to ensure a 
ready Reserve component that contributes to the efficient use of the 
Total Force.
                  national guard and reserve budgeting
    Question. If confirmed, what role would you play, if any, in the 
Department's budget formation process for the Reserve components?
    Answer. I believe that the role of the ASD(RA) is to serve as an 
advisor to the Secretary of Defense on all matters pertaining to 
Planning, Programming, Budgeting and Execution System for the Reserve 
components within DOD. As such, the budget estimates are prepared by 
the Services and OSD reviews for sufficiency and balance. If confirmed, 
I would hope to provide input to, and coordination on, the overall DOD 
Budget Justification Book, especially with respect to the Reserve 
components.
    Question. How does DOD's annual budget request document priorities 
and proposed funding levels for equipment procurement for each of the 
Reserve components?
    Answer. The Service budgets reflect equipment requests and needs 
for all of their components. It is my understanding that those 
estimates may not always reflect the full requirement. If confirmed, I 
plan to consider all available options to capture this important 
information and improve transparency.
    Question. What changes, if any, would you make to the process or 
documentation of the equipment-related funding request for the Guard 
and Reserve?
    Answer. If confirmed, I would support all efforts to improve 
transparency, visibility and coordination of the development of 
combined Active and Reserve equipment estimates.
    Question. How would you improve oversight of Reserve component 
budget execution, particularly to increase the transparency of the 
Reserve components' execution of their annual appropriations for 
personnel, operations, and procurement?
    Answer. National Guard and Reserve components have separate 
appropriations for operations and personnel. This allows us the needed 
transparency to perform our oversight role and assess the Service's 
budget requests and appropriations each year. If confirmed, I would 
work closely with the Reserve component chiefs on ways ASD(RA) could 
help them utilize needed funds reprogramming and other management tools 
to improve budget execution. If confirmed, I would look for 
opportunities to increase transparency.
      evolving roles of national guard and reserve in the defense 
                             establishment
    Question. The roles and responsibilities of the National Guard and 
Reserve have evolved over the last 10 years particularly given their 
successful preparation and participation in support of the wars in Iraq 
and Afghanistan. The practical result is that the Reserve component is 
now trained, equipped, and more ready than ever as an operational 
rather than a strategic reserve.
    What is your assessment of the changes, if any, over the past 10 
years in the expected levels of readiness of the Guard and Reserve 
prior to mobilization?
    Answer. The past 10 years of conflict have made the Reserve 
components the most ready force in history. My assessment is that there 
will need to be appropriated baseline funding levels to support these 
readiness levels.
    Question. How do these changes affect the manning, equipping, 
training, and budgeting for the Reserve component as an operational 
reserve as opposed to its historical role as a strategic reserve?
    Answer. I believe to function as an operational reserve, the 
Services must provide baseline funding for required training, 
equipping, and operational use.
    Question. In your view, what changes, if any, are required to DOD 
or Military Department policies or programs to sustain the Reserve 
component as an operational reserve?
    Answer. Currently, the Services' Yellow Ribbon activities are 
funded entirely through Overseas Contingency Operations (OCO) funds. As 
these funds draw down I believe it is vitally important that we 
identify a more sustainable funding stream to ensure that resources 
will continue to be available to support the enduring requirement for 
reintegration activities for an operational reserve force.
                      reserve forces policy board
    Question. What is your view of the appropriate role, function, and 
membership of the Reserve Forces Policy Board (RFPB)?
    Answer. I see the Reserve Forces Policy Board as a highly valued 
source of independent advice to the Department. The structure and 
reporting line for the RFPB was modified to bring in outside experts 
and to give the Board direct advisory access to the Secretary of 
Defense.
              employment of full-time support personnel &
    Question. Active Guard and Reserve personnel providing full-time 
support are not authorized to perform State Active-Duty missions even 
in emergencies or disaster situations. On occasion, this can deny an 
important resource such as an aviation capability to a Governor in need 
of assistance.
    Do you think, as a matter of policy, AGR members should be 
authorized in limited circumstances to perform limited State Active-
Duty missions?
    Answer. The law prohibits title 10 AGR servicemembers from 
providing full-time support for State Active-Duty missions. I see no 
reason that DOD policy should be inconsistent with this law. As I 
understand, title 32 AGR members have limited authority to perform 
these duties.
    Question. Under what circumstances, if any, do you believe such use 
should be authorized?
    Answer. I believe that AGRs should be used under extreme 
circumstances with strict coordination with their higher headquarters 
when time and life saving measures are of the essence. If confirmed, 
and if those circumstances exist and a change in law is warranted, I 
would work with stakeholders to draft the change and submit the 
proposal for consideration.
                  repeal of ``don't ask, don't tell''
    Question. What is your assessment of the effect in the Reserve 
components of the repeal of the Don't Ask, Don't Tell policy?
    Answer. It is my understanding that the Service and COCOM continue 
to provide monthly progress reports on the implementation of repeal to 
the Secretary of Defense. The Services are responsible for 
implementation and training of their Reserve components. To my 
knowledge, repeal is going smoothly and there have been no significant 
repeal-related issues.
                            gi bill benefits
    Question. Congress passed the Post-9/11 Veterans Educational 
Assistance Act in 2008 (``Post-9/11 GI Bill'') that created enhanced 
education benefits for servicemembers who have served at least 90 days 
on active duty since September 11. Many Reserve component members have 
earned these benefits by virtue of their mobilizations.
    What is your assessment of the effect of the Post-9/11 GI Bill on 
recruiting and retention in the Reserve components?
    Answer. While the Department continues to assess the effects on 
recruiting and retention, I believe that this benefit has had a 
positive effect on both recruiting and retention and will continue to 
do so. Also, I understand the transferability provision of the Post-9/
11 GI Bill has been extremely popular with the career Reserve component 
force.
    Question. What is your understanding of the sufficiency of the 
implementation plan for the transferability provisions contained in the 
act?
    Answer. The Services are implementing the transferability plan and 
I am not aware of any unresolved issues relating to transferability.
    Montgomery GI Bill (MGIB) education benefits for members of the 
Selected Reserve under chapter 1606 of Title 10, U.S.C., are an 
important recruiting and retention incentive. However, the level of the 
monthly benefit has not risen proportionately over time with that of 
MGIB benefits payable to eligible veterans under chapter 30 of title 
38, U.S.C.
    Question. What is your view of the adequacy of the current monthly 
benefit levels under the MGIB for Selected Reserve?
    Answer. I think there are indications that the current monthly 
benefit level has not kept pace with the rising cost of education.
    Question. Would you recommend any changes to this program?
    Answer. If confirmed I will work with the Services to review the 
level of benefit and seek congressional support if any changes are 
needed.
                        civil-military programs
    Question. The DOD STARBASE program is an effective community 
outreach program currently operating at about 60 locations throughout 
the United States that operates under the oversight of the Assistant 
Secretary of Defense for Reserve Affairs.
    What is your view of the STARBASE program?
    Answer. The President has taken a position to make math and science 
education a national priority. The DOD STARBASE program is an 
outstanding program that supports this effort through a three-way 
partnership between the military, the local communities and the school 
districts which advanced the culture of educating and developing our 
Nation's youth in both the military and civilian communities.
    Question. Do you believe that Guard and Reserve personnel should be 
involved in the STARBASE program?
    Answer. Yes, because the students benefit by becoming exposed to 
the military culture which values knowledge, opportunity, and 
diversity.
    Question. Do you believe it is appropriate to fund this program 
through the DOD budget? How well is it coordinated with other DOD 
science, technology, engineering, and mathematics outreach programs?
    Answer. Yes, I believe DOD should continue to provide funding for 
this program. The STARBASE Program as part of the overall Science, 
Technology, Engineering, and Mathematics initiative is coordinated 
through the interagency process.
    Question. The National Guard Youth Challenge Program was 
established in 1993 to help at-risk youth improve their life skills, 
education levels, and employment potential. Over time, the share of 
Federal funding decreased to 60 percent.
    What is your view of the National Guard Youth Challenge Program?
    Answer. The President has taken a position to address the high 
school dropout crisis and the National Guard Youth Challenge Program 
helps address this dropout crisis. It is a productive and outstanding 
performing program. I believe studies have shown that graduates of the 
Youth Challenge Program were much more likely to have obtained a high 
school diploma or a General Education Development certificate and earn 
college credits and more likely working.
    Question. Do you believe this program should be funded through the 
DOD budget, or through some other means?
    Answer. The National Guard Youth Challenge Program should be funded 
and managed by DOD and operated by the National Guard because of the 
strong military linkage which is a key element to the program's 
success, and because of the close National Guard/community connections.
                  yellow ribbon reintegration program
    Question. The committee has learned that in fiscal year 2012, 
nearly 30 percent of the funds appropriated for support of the YRRP 
will be allocated to employment and hiring initiatives for members of 
the Guard and Reserve, including funding of 60 employment specialists 
to coordinate State and local employment initiatives. Congress 
established the YRRP in the NDAA for 2008 to improve access to a broad 
range of family support programs before, during and following 
deployments.
    If confirmed, how will you ensure that the redirection by DOD of a 
significant portion of the YRRP resources will not erode the 
availability of other needed services, including counseling, substance 
abuse and behavioral health support, that must be provided to members 
of the Guard and Reserve returning from deployments?
    Answer. I believe that the YRRP is dedicated to providing a variety 
of resources to assist servicemembers with transitioning back into 
their communities. If confirmed, I will support the YRRP in continuing 
to provide all of the essential services required in statute while 
maintaining flexibility to direct funding towards meeting emerging 
needs.
    comprehensive review of the future role of the reserve component
    Question. Please provide your assessment of the results of the 
Comprehensive Review of the Future Role of the Reserve component 
published in April 2011.
    In your view, did the review achieve its objectives?
    Answer. In my view, yes the review did achieve its objectives. The 
report objective was to outline the future roles and missions of the 
Reserve components. Among the findings the report clearly recommends 
best future uses of the Reserve components and offers a variety of law, 
policy, and regulatory change recommendations.
    Question. What is your understanding of how and to what extent the 
report informed the new Defense Strategic Guidance?
    Answer. The new Defense Strategic Guidance, ``Sustaining U.S. 
Global Leadership: Priorities for 21st Century Defense'' (5 January 
2012), contains numerous concepts which are complimentary to those 
found in the Comprehensive Review of the Future Role of the Reserve 
component study. Specifically, I believe that six of the missions 
highlighted in the new strategic guidance are especially well-suited 
for the Reserve component, and the new strategic guidance offers 
significant opportunities for the Reserve component to contribute to 
the Total Force effort.
    If confirmed, I would work to continue to seek efficiencies and 
provide better information to senior decisionmakers. Developing more 
robust and consistent costing methods will help DOD senior leaders 
better meet the recent Defense Strategic Guidance.
    Question. If confirmed, what are the greatest challenges that you 
will face in applying the findings and recommendations of the Review to 
future decisions about the role of the Reserve components as part of 
our national defense strategy?
    Answer. It is my understanding that DOD is considering 
implementation of these recommendations. The challenges will be 
implementation as Services develop their programs to support emerging 
Defense strategies in ever changing environments.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. If confirmed, I look forward to appearing before this 
committee and other appropriate committees in support of our Nation's 
servicemembers.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Reserve Affairs?
    Answer. If confirmed, I will appear before this committee, or 
designated members of this committee, and provide information in 
support of our Nation's servicemembers.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided in a timely manner to 
this committee and its staff and other appropriate committees?
    Answer. If confirmed, I will ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. If confirmed, I agree to provide documents, including 
copies of electronic forms of communication, in a timely manner when 
requested by a duly constituted committee, or to consult with the 
committee regarding the basis for any good faith delay or denial in 
providing such documents.
                                 ______
                                 
    [The nomination reference of Mrs. Jessica L. Wright 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 24, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jessica Lynn Wright, of Pennsylvania, to be an Assistant Secretary 
of Defense, vice Dennis M. McCarthy, resigned.
                                 ______
                                 
    [The biographical sketch of Mrs. Jessica L. Wright, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Jessica L. Wright
Education:
    Alderson Broaddus College, 1970-1974, BA, May 1974
    Webster University, 1991-1993, MA, June 1993
Employment Record:
    November 8, 2010-Present: Department of Defense Deputy Assistant 
Secretary of Defense, RA (Manpower and Personnel) 1 June 2011 also 
assumed the duties ``Acting'' Principal Deputy Assistant Secretary of 
Defense, Arlington, VA
    February 2004-November 2010, The Adjutant General, Commonwealth of 
Pennsylvania, Fort Indiantown Gap, PA
    June 2000-February 2004, Deputy Adjutant General--Army, 
Commonwealth of Pennsylvania, Fort Indiantown Gap, PA
Honors and Awards:
    Distinguished Service Medal
    Legion of Merit (with Oak Leaf Cluster)
    Meritorious Service Medal (with one Bronze Oak Leaf Cluster)
    Army Commendation Medal
    Army Achievement Medal
    Army Reserve Component Achievement Medal (with one Silver Oak Leaf 
Cluster and one Bronze Oak Leaf Cluster)
    National Defense Service Medal (with one Bronze Star)
    Global War on Terror Service Medal
    Armed Forces Reserve Medal (with Gold Hourglass)
    Army Service Ribbon
    Army Staff Identification Badge
    Senior Army Aviator Badge
    Pennsylvania Commendation Medal
    Pennsylvania Service Ribbon (with two Silver Stars)
    Pennsylvania 20-Year Medal (with two Silver Stars)
    Major General Thomas R. White Jr. Medal
    General Thomas J. Stewart Medal
    Governor's Unit Citation Lithuanian Medal of Merit
    2000 ATHENA Recipient
    2004 Honorary Doctorate--Alderson Broaddus College
    2005 Gold Medallion--Chapel of the Four Chaplains
    2005 Law and Justice Award--Sons of Italy
    2006 Gold Medal Award--Pennsylvania Association of Broadcasters
    2008 Honorary Doctorate--Peirce College
    2009 Military Person of the Year--Veteran Community Initiatives, 
Inc.
    2009 Distinguished Soldier Award--Union League of Philadelphia
    2010 Founders Day Award--Lebanon Valley College
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mrs. Jessica 
L. Wright in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jessica Lynn Wright, Maiden Name: Garfola.

    2. Position to which nominated:
    Assistant Secretary of Defense for Reserve Affairs.

    3. Date of nomination:
    January 24, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 2, 1952; Charleroi, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Charles Edwin Wright.

    7. Names and ages of children:
    Philip Michael Wright, age: 22.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Alderson-Broaddus College, 1970-1974, BA, May 1974
    Webster University, 1991-1993, MA, June 1993

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    08 November 2010-Present: Department of Defense Deputy Assistant 
Secretary of Defense, RA (Manpower and Personnel) 1 June 2011 also 
assumed the duties ``Acting'' Principal Deputy Assistant Secretary of 
Defense, Arlington, VA
    February 2004-November 2010: The Adjutant General, Commonwealth of 
Pennsylvania, Fort Indiantown Gap, PA
    June 2000-February 2004; Deputy Adjutant General-Army, Commonwealth 
of Pennsylvania, Fort Indiantown Gap, PA

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    National Guard Association of the United States, Member, 1975-
Present
    Pennsylvania National Guard Association of the United States, 
Member, 1975-Present
    Association of the U.S. Army, Member, 1975-Present
    Army Aviation Association of America, Member

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Distinguished Service Medal
    Legion of Merit (with Oak Leaf Cluster)
    Meritorious Service Medal (with one Bronze Oak Leaf Cluster)
    Army Commendation Medal
    Army Achievement Medal
    Army Reserve Component Achievement Medal (with one Silver Oak Leaf 
Cluster and one Bronze Oak Leaf Cluster)
    National Defense Service Medal (with one Bronze Star)
    Global War on Terror Service Medal
    Armed Forces Reserve Medal (with Gold Hourglass)
    Army Service Ribbon
    Army Staff Identification Badge
    Senior Army Aviator Badge
    Pennsylvania Commendation Medal
    Pennsylvania Service Ribbon (with two Silver Stars)
    Pennsylvania 20 Year Medal (with two Silver Stars)
    Major General Thomas R. White Jr. Medal
    General Thomas J. Stewart Medal
    Governor's Unit Citation
    Lithuanian Medal of Merit
    2000 ATHENA Recipient
    2004 Honorary Doctorate--Alderson Broaddus College
    2005 Gold Medallion--Chapel of the Four Chaplains
    2005 Law and Justice Award--Sons of Italy
    2006 Gold Medal Award--Pennsylvania Association of Broadcasters
    2008 Honorary Doctorate--Peirce College
    2009 Military Person of the Year--Veteran Community Initiatives, 
Inc.
    2009 Distinguished Soldier Award--Union League of Philadelphia
    2010 Founders Day Award--Lebanon Valley College

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    One article on ARNG Aviation published in the National Guard 
Association of the United States magazine. (2010)

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I gave multiple speeches during my time as Adjutant General of the 
PA National Guard. These would have been speeches at deployments, 
homecoming events, holiday events such as Veterans or Memorial Day, to 
Rotary clubs and Chambers of Commerce. I do not have copies.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Jessica L. Wright.
    This 26th day of March, 2012.

    [The nomination of Mrs. Jessica L. Wright was reported to 
the Senate by Chairman Levin on May 15, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 24, 2012.]
                              ----------                              

    [Prepared questions submitted to Mrs. Katharina G. 
McFarland by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. I believe the current allocation of responsibility for 
acquisition-related matters in title 10, U.S.C., appropriately assigns 
responsibility to the Under Secretary of Defense for Acquisition, 
Technology, and Logistics, and that the law also appropriately 
identifies the acquisition-related functions of the Military Department 
secretaries. If confirmed, I will continue to assess this issue.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    N/A.
                                 duties
    Question. Section 138(b)(6) of title 10, U.S.C., describes the 
duties and responsibilities of the Assistant Secretary of Defense for 
Acquisition (ASD(AT&L)). Under this provision, the ASD(A) is the 
principal advisor to the Secretary of Defense and the Under Secretary 
of Defense for Acquisition, Technology, and Logistics (USD(AT&L) on 
matters relating to acquisition.
    Assuming you are confirmed, what additional duties do you expect 
that the Secretary of Defense and the USD(AT&L) will prescribe for you?
    Answer. If confirmed, I expect the Secretary and USD(AT&L) to 
assign duties and functions commensurate with the ASD(A)'s function and 
expertise as he deems appropriate.
    Question. Do you recommend any changes to the provisions of section 
138 of title 10, U.S.C., with respect to the duties of the ASD(A)?
    Answer. No.
    Question. Do you believe that the Department of Defense (DOD) has 
effectively implemented a streamlined chain of command for acquisition 
programs, as envisioned by the Packard Commission?
    Answer. I believe that the Department has implemented a strong 
acquisition chain of command, built upon an effective management 
structure that meets the current acquisition requirements and outcomes. 
If confirmed, I will assess the structure and the workforce skills, 
proficiency and oversight to advise USD(AT&L) required to ensure 
continued success in leadership.
    Question. Do you see the need for modifications in that chain of 
command, or in the duties and authorities of any of the officials in 
that chain of command?
    Answer. If confirmed, I will support evaluations by USD(AT&L) of 
the current chain of command and will recommend adjustments should any 
be needed to ensure continued success.
                             qualifications
    If confirmed, you will play a major role in managing an acquisition 
system pursuant to which DOD spends roughly $400 billion each year.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I have 26 years of acquisition experience. I have a 
professional engineering license. I am a graduate of the international 
Program Managers Institute and have senior certifications (DAWIA Level 
III) in Testing, Engineering, Program Management, and Logistics. I 
completed my Engineering in Training requirements for my Professional 
Engineering qualifications by working as a Quality Assurance Engineer 
and a workflow process engineer at ALCAN industries. I began Federal 
service in 1986 during the transition of Goldwater-Nichols Act 
implementation in support of the Marine Corps at Headquarters as one of 
eight engineers assigned to support all Marine Corps procurements. I 
was the lead engineer for all vehicles and electronic systems.
    In 1990, I was recruited by the Canadian Government to work their 
procurement group head for Electronic systems. In late 1991, the Marine 
Corps recruited me back to the Marine Corps where I became the Air 
Defense lead engineer. Then in 1994, I became the Assistant Program 
Manager for the Marine Corps theater missile defense. During this time, 
I was credited for leading the Marine Corps to 13 international firsts 
in ballistic missile testing, and successfully achieved an operational 
suitable and operationally effective designation for the missile system 
and its components. At that time in 1996, this was considered the 
largest operational test conducted by MCOTEA and was delivered on time 
and within budget.
    In 1998, I received the Navy civilian tester of the year for 
managing the development and testing of an integrated cooperative 
engagement capability and successful missile engagement. In 1999, I was 
assigned to co-lead an acquisition redesign team for the Marine Corps 
System Command, its organic Acquisition activity of which I received a 
Civilian Meritorious Service Medal in 2001. At this same time, I was 
the program manager for the engineering and design of new acquisition 
facilities to consolidate 15 sites housing approximately 1,200 people 
into new facilities. I structured the program to reuse the Navy's 
Hospital Point facility at Quantico and saved the Marine Corps several 
million dollars.
    In 2000, I was appointed Product Group Director for Battle 
management and Air Defense Systems. In this portfolio, all aviation 
support assets (UAVs, RADARs, Sensors, command and control and Missiles 
and ground Command and control were managed.
    In 2006, I was selected to be the Acquisition Director for the 
Missile Defense Agency. As lead for Acquisition, I had the contracting 
and acquisition workforce to include PMs under my management and all 
program management policy and implementation.
    In addition, I was selected by USD(AT&L) to co-chair the Better 
Buying Power initiatives and was awarded the Secretary of Defense 
Meritorious Civilian Service and Secretary of Defense Exceptional 
Civilian Service Award in 2011 for these efforts.
    In 2011, I was appointed the President of the Defense Acquisition 
University (DAU) to oversee the training and education of the 
workforce. During my tenure, the University has won several national 
awards for continuous learning and teaching methodologies.
    Finally, about 5 months ago, Acting Under Secretary of Defense for 
Acquisition, Technology, and Logistics, Mr. Kendall, asked me to 
support AT&L's role in Acquisition and I have been Performing the 
Duties of OASD(A) in addition to my role as President of DAU.
    Question. What background or experience, if any, do you have in the 
acquisition of major weapon systems?
    Answer. In 1990, my responsibilities for the Canadian Government 
included procurements equivalent in American dollars to MAIS and MDAP 
levels. I successfully developed the acquisition strategy and 
procurement package for the replacement of the Air Traffic Control 
System that serves both civilian and military air coordination, as an 
example.
    In my job as Product Group Director for Battle Management and Air 
Defense Systems, I managed the Acquisition strategy, RFP development, 
and selection for the ACAT ID GATOR program. The Unit Operations 
Center, an ACAT II program that I managed was given critical acclaim by 
the operating and joint deployed forces in OIF and was competitively 
awarded.
    In my role as Acquisition Director of Missile Defense Agency, I 
oversaw the management of cost, schedule, and performance of all the 
Ballistic Missile Defense System (BMDS) Elements, often in their own 
right investment decisions on the scale of MAIS and MDAP programs. As 
all of the major system elements were concluding their Periods of 
Performance at MDA within a 2 year window, I was lead for creating the 
Acquisition Strategies that opened up $37 billion of BMDSs' budget to 
competition. The Acquisition Strategies created a competitive 
environment at all product component levels and also included 
consolidation of all knowledge management services. Consolidation of 
services opened up over 30 percent of budgeted contract funding to 
small business and saved the Government over 12 percent. I also 
constructed and led the agencies baseline of programs and within 1 year 
had all BMDs elements base lined with their service leads. I was 
awarded a Presidential Rank Meritorious Civilian Service Award in 2010 
for these efforts.
    In performing the duties of OASD(A), I engage in all the 
predecision process for MDAP and MAIS programs in support of USD(AT&L).
                             relationships
    Question. In carrying out your duties, what would be your 
relationship with:
    The Secretary of Defense.
    Answer. If confirmed, I will support the Secretary of Defense's 
priorities in acquisition and technology.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I will support the Deputy Secretary's 
priorities in matters of acquisition and technology.
    Question. The USD(AT&L).
    Answer. The USD(AT&L) would be my immediate supervisor. If 
confirmed, I will be the principal advisor to the USD(AT&L) for matters 
relating to acquisition. In addition, I will assist the USD(AT&L) in 
the performance of his duties relating to acquisition and in any other 
capacity that he may direct.
    Question. The Principal Deputy Under Secretary of Defense for 
Acquisition, Technology, and Logistics.
    Answer. If confirmed, I would be the principal advisor to the 
Principal Deputy Under Secretary in the same manner as to the Under 
Secretary.
    Question. The Director of Operational Test and Evaluation.
    Answer. If confirmed, I will work with the Director of Operational 
Test and Evaluation to ensure the Department has appropriately tested 
and evaluated defense acquisition programs.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. If confirmed, I will work with the Director of Cost 
Assessment and Program Evaluation to ensure that the Department has 
independent cost analysis for defense acquisition programs and 
appropriate resource assessments for other programs within my 
responsibilities.
    Question. The Assistant Secretary of Defense for Research and 
Engineering.
    Answer. If confirmed, I will work closely with the Assistant 
Secretary of Defense for Research and Engineering to ensure the science 
and technology acquisition workforce is adequately staffed and 
qualified to maintain the technological edge and innovative 
capabilities to serve the Armed Forces and to reduce the cost and risk 
of our major defense acquisition programs.
    Question. The Deputy Assistant Secretary of Defense for 
Developmental Testing.
    Answer. If confirmed, I will work with the Deputy Assistant 
Secretary of Defense for Developmental Testing, including to ensure 
there is strong involvement early in program formulation, that 
comprehensive, independent developmental testing assessments of program 
maturity and performance are available to inform acquisition decisions, 
and that the developmental test community within the acquisition 
workforce is appropriately staffed and qualified.
    Question. The Deputy Assistant Secretary of Defense for System 
Engineering.
    Answer. If confirmed, I will work with the Deputy Assistant 
Secretary of Defense for System Engineering to ensure that the systems 
engineering community within the acquisition workforce is appropriately 
staffed and qualified and that the application of sound systems 
engineering principles are adhered to for major defense acquisition 
programs.
    Question. The Director of Performance Assessments and Root Cause 
Analyses (PARCA).
    If confirmed, I will direct and support the work of the Director of 
PARCA to ensure that the defense acquisition system performs with 
sufficient rigor to maintain situational awareness on the execution 
status of our acquisition portfolio. I will also ensure that all 
relevant root cause lessons learned are captured from ``problem'' 
programs, and those lessons promulgated throughout the acquisition 
workforce. I will assure that PARCA's performance measurement policies 
for DOD programs and institutions are effectively implemented. Finally, 
I will see that underlying tools and supporting systems, such as Earned 
Value Management for external projects, and an internal DOD acquisition 
institutional performance measurement system, are resourced and 
implemented adequately to DOD's needs.
    Question. The Acquisition Executives in the Military Departments.
    Answer. If confirmed, I will emphasize communication and 
coordination through the Secretaries of the Military Departments, with 
the Service Acquisition Executives. I will support USD(AT&L) in working 
with the Acquisition Executives to ensure effective oversight of 
acquisition programs though insight into their areas, support 
transparency in sharing information about program status, recommend 
appropriate remedial actions to rectify problems, actively engage in 
the development of departmental processes to improve acquisition 
outcomes, and support the policies and practices of the Department.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed, I will advise USD(AT&L) on acquisition issues 
related to the Joint Requirements Oversight Council matters and work 
closely with the Vice Chairman and his staff as appropriate. I will 
also seek to ensure the requirements and acquisition processes work 
effectively together in terms of stabilizing requirements, and ensuring 
requirements established for acquisition programs are achievable within 
appropriate cost, schedule, and technical risk by engaging early in the 
requirements development process.
                     major challenges and problems
    Question. If confirmed, you will be the first person to fill the 
position of ASD(A).
    In your view, what are the major challenges that will confront the 
ASD(A)?
    Answer. I support the acting Under Secretary's position in his 
Initial Guidance where he outlined the following six major challenges 
that confront the AT&L enterprise:

    (1)  Supporting the war efforts
    (2)  Ensuring affordable programs
    (3)  Achieving more efficient execution of product and service 
acquisitions
    (4)  Strengthening the industrial base
    (5)  Strengthening the acquisition workforce
    (6)  Protecting the future despite budget decline

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. In Performing the Duties as Assistant Secretary of Defense 
(Acquisition), I either chair or support the working groups formed by 
the acting Under Secretary (Acquisition) to focus on addressing these 
major challenges. If confirmed, I will continue to champion these 
activities.
    Supporting war efforts places top priority on ensuring the needs of 
the warfighters are met as effectively, efficiently, and timely as 
possible.
    Ensuring affordable programs will be pursued by enforcing the 
discipline of data-based decisions in our acquisition programs. If 
confirmed, I will ensure the effects of policy and process decisions 
are measured through data for programs. Lessons learned will provide 
support to future decisions. I will leverage the Defense Acquisition 
Board (DAB) oversight to require portfolio affordability analyses to 
inform programmatic decisions. Finally, I will focus on acquisition 
processes being more responsive to the Warfighter and more cost 
effective for the taxpayer by exposing Defense acquisition experience 
into the early formulation of program requirements. These measures 
should also underpin more efficient execution of product and service 
acquisitions.
    Strengthening of the industrial base will be undertaken by 
systematic evaluation of proposed acquisition programs to understand 
potential impacts on critical national manufacturing resources. The 
system must be built into the program review process, combining data 
from program executives with data collected through AT&L's Sector-by-
Sector, Tier-by-Tier (S2T2) assessment.
    To strengthen the acquisition workforce, I am focused on the 
training, education and evaluation of the workforce. There must be a 
conscious effort to elevate the status, prestige and professional 
standards of acquisition personnel. The United States has the best-
equipped military in the world. The capability and professionalism of 
the Defense acquisition workforce are major underlying factors in this 
success. I will work with the Military Department leadership to elevate 
the promotion potential and the prestige of the Acquisition Workforce 
to instill a culture of cost-consciousness across the Department, the 
leadership must demonstrate consistently cost-conscious decisions and 
the training and rewards system must focus on cost consciousness.
    To protect the future, I will focus on achieving small business 
goals, advocate competition, use Open Architecture and Intellectual 
Property, assess manpower and training needs, and advocate the 
investment accounts.
                        acquisition organization
    Question. Do you believe that the office of the ASD(A) is 
appropriately organized and staffed to execute its management and 
oversight responsibilities?
    Answer. The organizations supporting the Office of the Assistant 
Secretary of Defense (Acquisition) (ASD(A)) have served me well in the 
past 6 months that I have been performing the duties. If confirmed, I 
will do an assessment to ensure the organization and staffing fully 
support the execution of the office's management and oversight 
responsibilities.
    Question. Do you see the need for any changes in the structure or 
operations of the Joint Requirements Oversight Council (JROC)?
    Answer. I strongly support the Vice Chairman of the Joint Chiefs' 
initiatives to emphasize cost-informed decisions in the military needs 
validation process. The current construct encourages direct and open 
discussion between senior military needs officials and USD(AT&L). If 
confirmed, I will work continuously to advise USD(AT&L) in the 
evolution of these processes to deliver better capability.
    Question. What improvements, if any, do you believe are needed in 
the lines of authority and accountability for the acquisition of major 
weapon systems?
    Answer. I see no need for changes at this time. I believe in clear 
lines of authority and accountability for the procurement of major 
weapon systems. If confirmed, I will continuously assess and advise 
USD(AT&L) on any changes that I believe might be needed.
    Question. What steps if any will you take, if confirmed, to empower 
program managers to execute major defense acquisition programs and hold 
them accountable for how well their programs perform?
    Answer. If confirmed, I will assess the implementation of the 
Department's strategy in response to section 853 of the John Warner 
National Defense Authorization Act (NDAA) of 2007. The foundation of 
accountability is based on competency, continuity, and experience. As 
DAU President, my focus has been on assessing the training methods and 
needs with the Military Departments. As a result of this assessment, we 
are changing how we train our acquisition workforce, and we will 
require demonstration of competency to be qualified for positions. If 
confirmed, I will reinforce this effort and also work to ensure that 
program senior leadership continuity exists. Finally, I support the 
acting Under Secretary's initiative to include specific goals and 
objectives in the military and civilian evaluations relating to program 
execution to reinforce accountability.
                    major weapon system acquisition
    Question. Do you believe that the current investment budget for 
major systems is affordable given decreasing defense budgets, the 
historic cost growth trends for major systems, and the continuing costs 
of ongoing contingency operations?
    Answer. I support the acting Under Secretary's position that the 
current investment budget is affordable if properly managed but that it 
will be challenging to do so. Secretary Gates and Dr. Carter foresaw 
the Department's imminent economic situation and began the Better 
Buying Power initiative in 2010 to ensure that the performance of the 
defense acquisition system was in the best interest of the warfighter 
and taxpayers. As Co-Chair of the team that supported the Better Buying 
Power initiative, it is my observation that there is clear evidence 
that we can do better business deals for the Department. We must reduce 
the cost growth and the number of failed programs to meet our minimum 
needs for recapitalization and modernization.
    Question. If confirmed, how do you plan to address this issue?
    Answer. If confirmed, I will make cost control an ingrained 
culture. As the ASD(A), I will advise the Under Secretary on 
affordability methods that produce results. I will integrate 
affordability and cost-consciousness into the acquisition workforce 
training. I will work to control potential cost growth for existing 
programs and work to improve the Department's requirements, 
acquisition, and budgeting processes to ensure investment decisions are 
informed by sound affordability constraints.
    Question. What would be the impact of a decision by the Department 
to reduce purchases of major systems because of affordability issues?
    Answer. I believe additional reductions in our recapitalization and 
modernization rates could jeopardize our ability to keep up with 
anticipated military threats, reduce production efficiency, increase 
sustainment costs for the existing force structure, and impact the 
health of the industrial base. The Department must balance force 
structure with operating costs, capital investments, and modernization.
    Question. Nearly half of DOD's major defense acquisition programs 
have exceeded the so-called ``Nunn-McCurdy'' cost growth standards 
established in section 2433 of title 10, U.S.C., to identify seriously 
troubled programs. Section 206 of the Weapon Systems Acquisition Reform 
Act of 2009 (WSARA) tightened the standards for addressing such 
programs.
    What steps if any would you take, if confirmed, to address the out-
of-control cost growth on DOD's major defense acquisition programs?
    Answer. If confirmed, I will focus on continued implementation of 
WSARA and its tools. Emphasis on cost control business skills will help 
the work force aggressively manage programs at risk of cost growth. 
With the help of the Defense Acquisition Workforce Development Fund, 
the Department is working to rebuild its organic acquisition expertise 
that has had its fundamental acquisition and business skills atrophy 
and are encouraging industry to do the same.
    Question. What steps if any do you believe that the Department 
should consider taking in the case of major defense acquisition 
programs that exceed the critical cost growth thresholds established in 
the ``Nunn-McCurdy'' provision?
    Answer. I believe DOD has full authority to take appropriate 
measures, including major restructuring or termination of poor 
performing programs. Due to our overall affordability constraints, the 
Department will need to be more aggressive in taking action before 
Nunn-McCurdy threshold breaches occur. If confirmed, I will support 
USD(AT&L) in the practice of conducting Nunn-McCurdy-like reviews as 
soon as cost growth became likely so that this mechanism is applied 
proactively instead of reactively.
    Question. Do you see the need for any changes to the Nunn-McCurdy 
provision, as revised by section 206?
    Answer. No.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced critical cost 
growth under Nunn-McCurdy?
    Answer. If confirmed, the five criteria listed in the law will 
continue to guide me.
                      operating and support costs
    Question. The Department estimates that operating and support (O&S) 
costs account for up to 70 percent of the acquisition costs of major 
weapon systems. Section 832 of the NDAA for Fiscal Year 2012 requires 
the Department to take a series of steps to improve its processes for 
estimating, managing, and reducing such costs.
    What is the current status of the Department's efforts to implement 
the requirements of section 832?
    Answer. USD(AT&L) has instituted a number of programs and tools, 
such as the Logistics Assessment Guidebook, the O&S Cost Management 
Guidebook, and the Business Case Analysis Guidebook to assist in 
managing O&S Costs and improving life cycle affordability. Training 
curriculum at DAU is being updated to reflect these new requirements 
and associated skills. The implementation of section 805, NDAA of 2010 
assigns a Product Support Manager to each major weapon system. 
USD(AT&L) has enhanced the collection, reporting, retaining, and 
updating of O&S cost information (organic and commercial) throughout a 
program's life cycle, as well as improving the ability to standardize 
reporting and collection of this data.
    On September 14, 2011, the Acting Under Secretary signed a 
memorandum entitled, ``Document Streamlining--Life-Cycle Sustainment 
Plan (LCSP),'' which directed that each Major Defense Acquisition 
Program (MDAP) complete an improved and streamlined LSCP earlier in the 
life-cycle (Milestone A). This tool was designed to assist the Program 
Manager in the effective and affordable management of life-cycle 
sustainment requirements. It drives integration among functional areas 
(particularly between the Product Support and Engineering communities) 
to ensure that O&S cost drivers influence system design early on, 
especially as related to reliability, the single largest driver of O&S 
costs. Section 832 requirements are being incorporated into a major 
revision of the Department of Defense Instruction (DODI) 5000.02 which 
will include a specific enclosure that addresses Life Cycle Sustainment 
Management. The LCSP, along with increased focus and guidance at the 
Program, Service, and Department level will ensure that we continue to 
reduce O&S costs throughout a Program's life-cycle.
    The Better Buying Power initiative also required programs to take 
full life cycle costs into the formulation of affordability targets and 
requirements as well, which provides for emphasis on the total 
ownership costs of O&S.
    Question. What steps remain to be taken to implement section 832, 
and what is the Department's schedule for taking these steps?
    Answer. The Department is currently addressing implementation of 
the requirements of section 832 in a major revision of the (DODI) 
5000.02. To ensure compliance, this policy will be supplemented with 
guidance, training, mentorship, and oversight. Insight will be gained 
into the effectiveness of our efforts through Defense Acquisition 
Reviews lessons learned incorporated into future policy refinements.
    Question. What steps, if any, are needed to ensure that the 
requirements and acquisition communities fully and effectively 
collaborate to understand and control the O&S costs prior to and early 
in product development, when it is possible to have the most 
significant impact on those costs?
    Answer. The Department recognizes the alignment and partnership 
among the operational requirements, acquisition, and sustainment 
communities are essential to optimizing warfighter operating and 
support strategies at a minimal cost. O&S costs are directly 
attributable to the operational concept and sustainment requirements 
for systems determined very early in the Joint Capabilities Integration 
and Development System (JCIDS) process before developmental costs are 
incurred. The Initial Capabilities Document (ICD) provides sufficient 
fidelity for the warfighter's capability requirements to inform the 
Analysis of Alternatives (AOA). The Weapon System Acquisition Reform 
Act of 2009 (WSARA) coupled with recent changes within the JCIDS have 
placed a premium within the Department on conducting a thorough, 
rigorous AOA prior to initiating large acquisition programs. The AOA 
must provide full consideration of possible trade-offs among cost, 
schedule, and performance objectives for each alternative considered in 
the context of its life cycle to include energy considerations; and an 
assessment of whether the joint military requirement can be met in a 
manner that is consistent with the cost and schedule objectives 
recommended by the Joint Requirements Oversight Council (JROC). This 
has resulted in a better examination of the tradeoffs among cost, 
capability, and risks of programs prior to Milestone A. The results of 
the AOA provide the acquisition Milestone Decision Authority (MDA) 
information on which to base an informed materiel solution decision at 
Milestone A, prior to proceeding into the developmental phase of 
acquisition. An important input into this decision is ``targeting 
affordability and controlling costs,'' which was an essential element 
of Dr. Carter's Better Buying Power initiative. O&S costs associated 
with the system solution are highlighted as one of the affordability 
targets at Milestone A. Further, the user's Capability Development 
Document (CDD) and the Acquisition Program Baseline (APB) include O&S 
costs as a Key Performance Parameter (KPP) prior to program initiation. 
O&S cost estimates are then closely monitored by both the acquisition 
executive and the JROC throughout development. Including planning for 
sustainment and associated costs ``upfront'' enables the acquisition 
and requirements communities to provide a system with optimal 
availability and reliability to the warfighter at best value.
    Question. What additional steps, if any, do you believe the 
Department needs to take to bring O&S costs under control?
    Answer. Implementation of the ``Better Buying Power'' initiatives 
will bring Operating and Sustainment (O&S) costs under control overall, 
but specific focus on affordability targets at Milestone A and the 
requirements at Milestone B will place the appropriate focus on the 
affordability of a capability as a Total Ownership Cost (TOC) to the 
Department. Doing this early, when technical and programmatic trades 
can be made most effectively, will allow for full attention to 
lifecycle costs as part of the design trades. Reduction of costs in the 
Operations & Support Phase of an acquisition program is closely married 
to the ``Should Cost'' initiative. In this execution of this phase, the 
program office team should take discrete, measurable actions to reduce 
total ownership costs. The ``Will Cost'' or Independent Cost Estimate 
(ICE) projection, including projected Operations & Support Phase costs, 
should be continually reviewed during design trade-offs and 
programmatic decision points to ensure management of these costs.
    Additionally, if confirmed, I will also support the use of 
performance-based sustainment strategies to drive O&S costs down. 
Properly structured and executed, performance-based sustainment 
strategies produce better performance results at less cost than 
traditional, transactional sustainment approaches.
                          systems engineering
    Question. One of the premises for WSARA was that the best way to 
improve acquisition outcomes is to place acquisition programs on a 
sounder footing from the outset by addressing program shortcomings in 
the early phases of the acquisition process. The Defense Science Board 
Task Force on Developmental Test and Evaluation reported in May 2008 
that ``the single most important step necessary'' to address high rates 
of failure on defense acquisition programs is ``to ensure programs are 
formulated to execute a viable systems engineering strategy from the 
beginning.''
    Do you believe that DOD has the systems engineering and 
developmental testing organizations, resources, and capabilities needed 
to ensure that there is a sound basis for key requirements, 
acquisition, and budget decisions on major defense acquisition 
programs?
    Answer. Since the passage of WSARA, the Department has worked to 
rebuild the systems engineering and developmental test expertise 
required for effective acquisition. While much progress has been made, 
I believe the Department can continue to improve its engineering and 
test practice.
    Question. What is your assessment of the Department's 
implementation to date of section 102 of WSARA, regarding systems 
engineering?
    Answer. I believe the Department has properly and effectively 
implemented section 102. The organization of the Deputy Assistant 
Secretary of Defense for Systems Engineering has been established, the 
office has been staffed with highly qualified teams, and it is 
providing guidance and oversight to the systems engineering 
capabilities in the Military Services.
    Question. What additional steps will you take, if confirmed, to 
implement this provision?
    Answer. If confirmed, I will support the Under Secretary in working 
with the Secretaries of the Military Departments and their Service 
Acquisition Executives to ensure the effective implementation of 
recently approved systems engineering policy and guidance and the 
adequacy of the competency, capacity, and authority of the systems 
engineering workforce as critical components in support of successful 
acquisition system performance.
    Question. Do you believe that the Nation as a whole is producing 
enough systems engineers and designers and giving them sufficient 
experience working on engineering and design projects to ensure that 
DOD can access an experienced and technically trained systems 
engineering and design workforce? If not, what do you recommend should 
be done to address the shortfall?
    I do not believe the Nation is currently producing enough systems 
engineers and engineers in other disciplines to meet the Department's 
complex engineering challenges. The Department has ongoing efforts to 
promote engineering education in college curricula, and, if confirmed, 
I will support those efforts to promote engineering as an important 
field of study with our national educational system. I will also 
promote engineering excellence within the acquisition work force, to 
include the training curriculum.
    Question. Last year, the chairman and ranking member of the Armed 
Services Committee expressed concern that the annual report to Congress 
by the Assistant Secretary of Defense for Systems Engineering and the 
Assistant Secretary of Defense for Developmental Testing failed to meet 
applicable statutory requirements.
    What steps will you take, if confirmed, to ensure that future 
reports on developmental testing and systems engineering fully comply 
with applicable statutory requirements?
    Answer. If confirmed, I will support the Under Secretary to ensure 
timely, complete data is provided as needed to ensure sufficiently 
detailed reports are provided in assessing the developmental test and 
evaluation and systems engineering capabilities of DOD.
                         technological maturity
    Question. Section 2366b of title 10, U.S.C., requires the Milestone 
Decision Authority for a major defense acquisition program to certify 
that critical technologies have reached an appropriate level of 
maturity before Milestone B approval.
    What steps if any will you take, if confirmed, to make sure that 
DOD complies with the requirements of section 2366b?
    Answer. If confirmed, in support to the Under Secretary as chair of 
the Defense Acquisition Board (DAB) and Milestone Decision Authority 
(MDA) for major defense acquisition programs, I will ensure technology 
readiness assessments (TRAs) are properly used to ensure compliance 
with section 2366b. I will focus on evaluating whether the stated 
formal TRA levels are critically assessed for risk status prior to 
entering Engineering and Manufacturing Development (EMD). Technology, 
engineering, and integration risk associated with products entering EMD 
must all be assessed thoroughly before committing to EMD. Technology 
Readiness Level (TRLs) inform engineering risk analysis, they do not 
replace them.
    Question. What steps if any will you take to ensure that the 
Assistant Secretary of Defense for Research and Engineering is 
adequately staffed and resourced to support decisionmakers in complying 
with the requirements of section 2366b?
    Answer. If confirmed, I will work with ASD(R&E) and other members 
of OSD and the Military Department staffs to ensure the adequacy of 
resources available to meet the challenges of complying with the 
requirements of section 2366b. Also, I will work to ensure the 
acquisition workforce is provided the right training.
    Question. Are you satisfied that technology readiness assessments 
adequately address systems integration and engineering issues which are 
the cause of many cost overruns and schedule delays in acquisition 
programs?
    Answer. TRAs inform program managers with respect to risk 
management strategies, planning, and execution, but their results are 
extremely sensitive to their programmatic and operational context. 
TRA's by themselves are not adequate for addressing systems integration 
and engineering risks. TRAs are, however, absolutely necessary for 
identifying and maturing the Critical Technology Elements enabling the 
key performance characteristics of advanced systems.
    Question. Beyond addressing technological maturity issues in 
acquisition programs, what other steps should the Department take to 
increase accountability and discipline in the acquisition process?
    Answer. If confirmed, I will work to improve the acquisition 
workforce, to improve its professional skills, and to instill a culture 
of cost consciousness and stewardship of the taxpayer's dollars 
throughout. Critical in this and all of our Better Buying Power 
initiatives is the education and training of our workforce, which the 
DAU is addressing through many avenues, to include Rapid Deployment 
Training, and Mission Assistance and curriculum updates. The Department 
is striving to ensure that everyone who touches acquisition in a 
meaningful way is qualified in the skill sets required to achieve 
successful acquisition results. Finally, I will work to ensure clear 
goals and objectives are included in workforce evaluations to ensure 
accountability.
    Question. What features of an acquisition program, in your view, 
contribute most to the effective maturation and integration of advanced 
technologies?
    Answer. The most important ``feature'' needed to mature and 
integrate advanced technologies in an acquisition program is strong 
leadership with business skills to engage multiple resources to field 
rapidly the best technology at the best price. The Better Buying Power 
initiative has committed the DOD to a path of improving competitive 
contracting practices and using Open Systems Architectures to reduce 
redundancy and maximize value. Solution sources across DOD must be 
searched and analyzed to provide mature, innovative solutions that can 
be integrated into current and developing systems.
    The Government is moving to manage more effectively the business 
and technical architectures of weapon systems and direct the use of 
competitive acquisition practices. Competition is the environment in 
which innovation and lower costs are born and, when coupled with an 
Open Systems Architecture, provide the ability to deliver cost-
effectively cutting edge solutions across a wider array of platforms. 
Critical to this strategy is for architectures and integration 
environments to be open, published, and accessible.
    The Government has become more practiced and aware in asserting its 
data rights. Taking delivery of designs and supporting information, and 
ensuring our data rights are fully asserted as a part of accepting the 
contract delivery are critical steps to enabling a level playing field 
for healthy competition and cyclical recompetes. This is another 
important element of providing lower cost and spawning innovation, 
while also reducing the chance of vendor-lock.
    There will always be a need for a ``platform'' (ship, aircraft, 
ground system, etc.) integrator. The market environment is created 
through our business practices and contract incentives, such that 
platform integrators can cost-effectively integrate components and 
capabilities from Government-provided sources. Open System 
Architecture, asserting Government Data Rights, publishing interfaces, 
regular cyclical open competitions, tech insertions, and open business 
models will yield the desired lower price and increased performance.
                              concurrency
    Question. Some of the Department's largest and most troubled 
acquisition programs appear to have suffered significantly from 
excessive concurrency--the effort to produce a weapon system, even as 
it is still being designed.
    What impact do you believe that such excessive concurrency has on 
our efforts to produce major weapon systems on schedule and on budget?
    Answer. I believe excessive concurrency can drive cost growth and 
result in major schedule disruptions that produce further inefficiency.
    Question. What steps will you take, if confirmed, to address this 
issue?
    Answer. If confirmed, I will work to ensure that balance is 
properly struck between the risk associated with the development phase, 
the urgency of the need, and the likely impact on cost and schedule of 
any related risk. I will ensure that appropriate tools such as the 
Configuration Steering Board are used to assess the risk/benefit of any 
given degree concurrent development and production to insure that major 
weapons systems programs clearly articulate the framing assumptions 
underlying concurrency risks, to track progress against these 
assumptions and the resulting concurrency effects, and I will require 
programs to reassess levels of concurrent development and production 
planned as necessary if these underlying assumptions change.
    Question. Under what circumstances, if any, do you believe that it 
is useful and appropriate to require prime contractors on major defense 
acquisition programs to share in concurrency costs?
    Answer. In most circumstances, the government will bear the bulk of 
concurrency risk. When the government initiates production before 
development is complete, concurrency may drive up production costs as 
design changes are implemented late in the production process or after 
Government accepts delivery. Industry should not be asked to bear 
excessive risk but should be incentivized to reduce those risks through 
design methodologies. In a well-structured program, concurrency risk 
should be reduced to the extent that industry can reasonably bear a 
portion or all of that risk. Until industry is willing to share this 
risk as reasonable part of doing business, it may be premature to 
contract for production.
    Question. In your view, would a requirement for such cost sharing 
reduce the likelihood of excessive concurrency in the development and 
production of major weapon systems?
    Answer. In my view, this cost sharing would incentivize prime 
contractors to reduce the impacts of excess concurrency on cost, 
schedule, and performance. Cost sharing arrangements don't change the 
existence of the risk, but if industry is unwilling to accept some 
concurrency risk as a condition of a production contract, then it is an 
indication that the risk may be too high to begin production.
    Recent congressional and DOD initiatives attempt to reduce 
technical and performance risks associated with developing and 
producing major defense acquisition programs so as to minimize 
premature entry into production.
                       fixed price-type contracts
    Question. Recent congressional and DOD initiatives attempt to 
reduce technical and performance risks associated with developing and 
producing major defense acquisition programs so as to minimize the use 
of cost-reimbursable contracts.
    Do you think that the Department should move towards more fixed 
price-type contracting in developing or procuring major defense 
acquisition programs? Why or why not?
    Answer. The Federal Acquisition Regulation (FAR) Part 16 prescribes 
policies, procedures, and guidance for selecting a contract type 
appropriate to the circumstances of the acquisition. A wide selection 
of contract types is available to provide needed flexibility in 
acquiring the large variety and volume of supplies and services 
required by agencies. I believe the Department needs to move towards 
having the appropriate skills to know what risk and opportunities there 
are to ensure that cost certainty is available to form the basis of 
negotiating a fixed price type contract where appropriate. This skill 
is needed on both the Government and industry teams.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the Department to use a cost-type contract for the 
production of a major weapon system?
    Answer. I do not know a case where a cost type production task is 
appropriate, but would not want to limit the department in utilizing 
the full toolkit if a compelling case exists.
        unrealistic cost, schedule, and performance expectations
    Question. Many acquisition experts attribute the failure of DOD 
acquisition programs to a cultural bias that routinely produces overly 
optimistic cost and schedule estimates and unrealistic performance 
expectations. Section 201 of WSARA seeks to address this problem by 
promoting early consideration of trade-offs among cost, schedule, and 
performance objectives in major defense acquisition programs.
    Do you believe that early communication between the acquisition, 
budget and requirements communities in DOD can help ensure more 
realistic cost, schedule, and performance expectations?
    Answer. Yes.
    Question. If so, what steps if any would you take, if confirmed, to 
ensure such communication?
    Answer. If confirmed, I will continue to take steps to forge closer 
ties between military needs and acquisition solution development. 
ASD(A) now has a small team of individuals who directly works with the 
OIPTs and the JROC staff as requirements are being vetted through the 
process to work the assessment of affordability, realism, and 
executability of the requirements. Input from this assessment is 
provided to the acting Under Secretary to assist him in his interaction 
on the JROC. These informed decisions can yield savings in time and 
resources for acquisition responses.
    Question. DOD has increasingly turned to incremental acquisition 
and spiral development approaches in an effort to make cost, schedule, 
and performance expectations more realistic and achievable.
    Do you believe that incremental acquisition and spiral development 
can help improve the performance of the Department's major acquisition 
programs?
    Answer. Yes. The Department applies the term ``incremental'' to 
both the incremental and spiral acquisition approaches. An incremental 
approach could be the right strategy when the program manager is faced 
with an evolving requirement, rapidly evolving technology (IT), an 
evolving threat, or where an investment in an immature technology is 
needed to achieve a longer-term advantage. Fielding a partial (80 
percent, for example) now, with an eye to incorporating the new 
technology when it is ready later, is a good strategy. Getting a 
capability into the warfighters' hands sooner, then upgrading to a more 
capable system can be a smart business approach, and better serve our 
troops.
    Question. What risks do you see in the Department's use of 
incremental acquisition and spiral development?
    Answer. The purpose of incremental acquisition is to reduce risk 
and speed delivery. An open design that can accommodate incremental 
upgrades is necessary to reduce risks and may not be engineered 
appropriately. Part of the trade off for lowering the initial technical 
risk is the necessity in such a strategy to incorporate an intentional 
plan that allows for upgrading early deliveries to the final 
configuration or cutting changes into the production line. Cost and 
complexity for these upgrades is an important consideration that must 
be factored into the overall plan. Smart use of open architecture and 
commercial standards, assertion of data rights and a well defined form, 
fit, and function interface construct are important to upgrading 
systems at a reasonable cost.
    Question. In your view, has the Department's approach to 
incremental acquisition and spiral development been successful? Why or 
why not?
    Answer. The Department applies the term ``incremental'' to both the 
incremental and spiral acquisition approaches. In my view, the 
Department's success has been mixed and we are working to improve our 
workforce's skill set to improve it. We produce open designs that can 
accommodate unforeseen new technology when it is available and mature. 
These opportunities for improvement can come from either new 
technology, possibly from private investment, or from emergent 
capability needs derived from real-world warfighting experience. 
Preplanned future spirals are generally not as agile to emerging 
threats as need be. Our success depends upon technical risk management, 
requirements management, avoiding and breaking vendor-lock, and 
responsive program management and oversight structures. Incremental 
acquisition strategies that enable multiple block upgrades and risk/
cost-prudent infusion of new capabilities can provide the Department 
with a useful flexibility and efficient improvements in capability.
    Question. What steps if any do you believe are needed to ensure 
that the requirements process, budget process, and testing regime can 
accommodate incremental acquisition and spiral development approaches?
    Answer. Each increment of capability requires approved/achievable 
requirements, full funding for the increment, and a test plan designed 
to assess the capability the increment is expected to provide. Our 
policies are designed to support an incremental acquisition approach.
    Question. How should the Department ensure that the incremental 
acquisition and spiral development programs have appropriate baselines 
against which to measure performance?
    Answer. Each increment of capability requires approved/achievable 
requirements, full funding for the increment and a test plan designed 
to assess the capability the increment is expected to provide. These 
are the Acquisition Program Baselines under which programs are managed 
and measured. DOD policies are designed to support an incremental 
acquisition approach.
                   funding and requirements stability
    Question. The poor performance of major defense acquisition 
programs has also been attributed to instability in funding and 
requirements. In the past, DOD has attempted to provide greater funding 
stability through the use of multiyear contracts. More recently, the 
Department has sought greater requirements stability by instituting 
Configuration Steering Boards to exercise control over any changes to 
requirements that would increase program costs.
    Do you support the use of Configuration Steering Boards to increase 
requirements stability on major defense acquisition programs?
    Answer. Yes, I strongly support activities such as Configuration 
Steering Boards that provide Service leadership a forum to review and 
assess proposed changes to program requirements or system configuration 
and preclude adverse impact on program cost and/or schedule.
    Question. What other steps if any would you recommend taking to 
increase the funding and requirements stability of major defense 
acquisition programs?
    Answer. Implementation of Affordability Targets at Milestone A, 
Affordability Requirements at Milestone B, and working to build 
realistic schedules and hold programs to them are recommended steps. 
Combined with the Configuration Steering Board process, these steps as 
described in the Better Buying Power (BBP) will increase the program 
funding and requirements stability.
                        time-certain development
    Question. The Defense Acquisition Performance Assessment (DAPA) 
panel recommended in 2006 that the Department set fixed durations for 
program phases, including a requirement for the delivery of the first 
unit of a major weapon system to operational forces within 6 years of 
the Milestone A decision. The DAPA panel believed that durations for 
program phases could be limited by ensuring appropriate levels of 
technological maturity, defined risk-reduction horizons, and program 
execution criteria, while allowing for the use of spiral development or 
block upgrades for enhancements in capability or increased requirements 
over time. Proponents of this approach, called time-certain 
development, have highlighted its potential for helping ensure that 
``evolutionary'' (or ``knowledge-based'') acquisition strategies are 
used to develop major systems by forcing more manageable commitments to 
discrete increments of capability and stabilize funding by making costs 
and schedules more predictable.
    What is your view of the DAPA panel's recommendation?
    Answer. Many of the DAPA panel findings--shortening development 
timelines, reducing non-value added oversight, improving coordination 
with the requirements process--are included in the Better Business 
Power initiatives put in place last year. The Department is seeing 
positive results from these efforts.
    Question. What is your view of time-certain development as an 
acquisition strategy for major weapons systems development programs?
    Answer. I believe with the appropriate qualified workforce being 
available, this strategy has merit in application for many of our 
programs. The Government workforce need to understand technologies and 
their inherent risks, have a thorough knowledge of the industrial 
capability and have the requisite exposure to draft a reasonable 
acquisition strategy to conduct evolutionary acquisition. I believe 
these skills still need further development to successfully execute the 
panel's recommendations. I believe we are working to achieve this goal 
through Defense Acquisition Workforce Defense Fund (DAWDF).
    Question. What steps if any would you take, if confirmed, to 
implement time-certain development strategies in the future acquisition 
programs?
    Answer. Focusing on where skills are available and where the 
commitment of funding is greatest, I will, if confirmed, focus on a 
step-by-step implementation of the recommendations by aggressively 
reviewing requirements for incremental build opportunities, focusing on 
open architecture development with appropriate assertion of 
intellectual property rights, and carefully assessing schedule 
development and market research. These tools would allow for time 
certain constraints to be realistically and effectively applied, and 
quickly meet the needs of warfighters in response to urgent needs.
                          multiyear contracts
    Question. The statement of managers accompanying section 811 of the 
NDAA for Fiscal Year 2008 addresses the requirements for buying major 
defense systems under multiyear contracts as follows: ``The conferees 
agree that ``substantial savings' under section 2306b(a)(I) of title 
10, U.S.C., means savings that exceed 10 percent of the total costs of 
carrying out the program through annual contracts, except that 
multiyear contracts for major systems providing savings estimated at 
less than 10 percent should only be considered if the Department 
presents an exceptionally strong case that the proposal meets the other 
requirements of section 2306b(a), as amended. The conferees agree with 
a Government Accountability Office finding that any major system that 
is at the end of its production line is unlikely to meet these 
standards and therefore would be a poor candidate for a multiyear 
procurement contract.''
    If confirmed, under what circumstances, if any, do you anticipate 
that you would support a multiyear contract with expected savings of 
less than 10 percent?
    Answer. If confirmed, I will expect that any case brought forward 
with less than 10 percent savings expected would need to be assessed 
against the compelling need and how it can best serve the warfighter 
and taxpayer before I would recommend it be considered.
    Question. If confirmed, under what circumstances, if any, would you 
support a multiyear contract for a major system at the end of its 
production line?
    Answer. If confirmed, it would depend on an exceptionally strong 
case for me to support a recommendation for multiyear procurement for a 
program when it is nearing the end of production. It depends upon the 
circumstances of the particular procurement.
    Question. What are your views on multiyear procurements? Under what 
circumstances do you believe they should be used?
    Answer. I support the statement of managers' requirement 
accompanying section 811 of the NDAA for Fiscal Year 2008.
    Question. What is your opinion on the level of cost savings that 
constitute ``substantial savings'' for purposes of the defense 
multiyear procurement statute, title 10 U.S.C. Sec. 2306b?
    Answer. The 10 percent figure cited in the conference manager's 
statement is a reasonable benchmark but it need not be absolutely 
required in special cases.
    Question. Under what circumstances, if any, do you believe that a 
multiyear contract should be used for procuring weapons systems that 
have-unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes but which might otherwise comply 
with the requirements of the defense multiyear procurement statute, 
title 10 U.S.C. Sec.  2306b?
    Answer. I do not know of circumstances that would support multiyear 
procurement for programs that are executing unsatisfactorily. If the 
history has been replaced with demonstrated satisfactory performance, 
then compliance with the requirements of the defense multiyear 
procurement statute, title 10 U.S.C. section 2306b, could be assessed 
and if appropriate, multiyear recommended.
    Question. How would you analyze and evaluate proposals for 
multiyear procurement for such programs?
    Answer. If confirmed, I will ensure analysis and evaluation of 
proposals for multiyear procurements are in accordance with all 
statutory and regulatory requirements, and as noted previously, I will 
ensure for all programs that we fully understand the benefit to the 
warfighter and taxpayer before I recommend proceeding with a multiyear 
procurement.
    Question. If confirmed, what criteria would you apply in 
determining whether procuring such a system under a multiyear contract, 
is appropriate and should be proposed to Congress?
    Answer. If confirmed, I will ensure that all of the regulatory and 
statutory requirements are met before recommending to proceed with any 
multiyear procurement.
    Question. What is the impact of the Department's current budget 
situation, in your view, on the feasibility and advisability of 
additional multiyear procurement contracts for major weapon systems?
    Answer. If compliant with the defense multiyear procurement statue, 
title 10 U.S.C. section 2306b, programs submitted for multiyear could 
provide savings to the department, particularly when there is a firm 
requirement and the quantities to be procured are stable.
    Question. Under what circumstances, if any, should DOD ever break a 
multiyear procurement?
    Answer. If the Department has done its job properly, the 
cancellation of a multiyear contract should be a very rare event. 
However, there are circumstances when it could occur. One such event 
would be the failure to fund a program year. Another would be the 
failure of the contractor to perform, which ultimately could lead to a 
decision to terminate for default. In these circumstances, cancellation 
of a multiyear procurement could be appropriate or even required.
    Question. What impact if any does the use of a multiyear contract 
have, in your view, on the operation and sustainment cost for a weapon 
system?
    Answer. Appropriate contract length should be determined based on a 
number of factors to include design and support concept maturity, 
maintenance strategy, contractual arrangements, and risk assessments. 
When properly applied, a multiyear contract often lowers a program's 
operating and support (O&S) costs. The stability provided by a 
multiyear contract enables the prime contractor and subcontractors in 
the supply chain to make investments that improve their product and 
processes and to recover a return on investment (ROI). Without 
multiyear contracts, industry is forced to make investment decisions 
based on a 1 year ROI period. For complex weapon systems, that is 
rarely sufficient to design, implement, and support any improvements 
that make real gains in the areas of efficiency and cost reduction.
    Question. To what extent should the Department consider operation 
and sustainment costs, and the stability of such costs, before making a 
decision whether to acquire a major system under a multiyear contract?
    Answer. The Department strongly considers operation and sustainment 
support (O&S) costs and the stability of these costs when making 
multiyear contracting decisions to focus on reducing the total cost of 
ownership. Multiyear contracts incentivize contractors within the 
industrial base and encourage them to implement cost saving 
investments. This in turn drives down costs and allows them the 
opportunity to recover a return on investment (ROI), investing early on 
and realizing benefits in the later years of the contract. As part of 
the consideration process, the Department conducts Business Case 
Analyses (BCA) throughout a Program's lifecycle to optimize sustainment 
strategies and to make informed acquisition decisions. The BCA provides 
a standardized and objective process that can be used to determine the 
best sustainment strategy for a Major Defense Acquisition Program 
(MDAP). The Department uses this information to make informed decisions 
that mitigate risk, improve performance, and select the most affordable 
solution available.
    Question. The Defense Department's fiscal year 2013 budget proposal 
seeks approval for $52.7 billion in multiyear procurement contracts. 
This proposal would affect the Virginia-class submarine, the DDG-51 
destroyer, the V-22 tilt-rotor aircraft, and CH-47 helicopter programs.
    What impact would procuring these systems under multiyear contracts 
have on the Department's budgetary flexibility in a period when tight 
budgets and possible sequestration could require deep budget cuts?
    Answer. Multiyear procurement strategies must provide for 
substantial savings and must comply with congressional requirements 
established in section 2306b of title 10, U.S.C. In general, I favor 
multiyear procurement strategies if they provide such savings. 
Frequently, multiyear procurements can offer substantial savings 
through improved economies in production processes, better use of 
industrial facilities, and a reduction in the administrative burden in 
the placement and administration of contracts. While multiyear 
procurements reduce the government's flexibility during the years the 
strategy is being executed, the potential for multiyear procurement can 
be a powerful incentive to suppliers to reduce cost and negotiated 
price.
    Question. Do you believe that it is in the best interests of the 
Department to restrict its budgetary flexibility in this manner? Why or 
why not?
    Answer. In general, the total percentage of the Department's budget 
committed to multiyear contracts is low. The Department examines risk 
factors in conjunction with the potential for cost savings in 
determining whether multiyear procurement would be appropriate for a 
program, and multiyear procurement is one of the Department's 
initiatives focused on improving funding and requirements stability. 
While multiyear procurement restricts the Department's budgetary 
flexibility somewhat, the benefits of significant savings to the 
taxpayer and improved stability of requirements and funding both to 
industry and the Military Departments may far outweigh any disadvantage 
from restriction in budgetary flexibility but that flexibility must 
naturally be considered in the final determination.
    continuing competition and organizational conflicts of interest
    Question. Section 202 of WSARA requires DOD to take steps to 
promote continuing competition (or the option of such competition) 
throughout the life of major defense acquisition programs.
    What is your view on the utility of continuing competition as a 
tool to achieve long-term innovation and cost savings on major defense 
acquisition programs?
    Answer. I am a strong proponent of competition to achieve 
innovation, to reinvigorate the industrial base, to focus on 
engineering and business management excellence, and to drive out 
inefficiencies and costs.
    Question. Do you believe that such continuing competition is a 
viable option on major defense acquisition programs?
    Answer. I believe that competition can be conducted at all levels, 
prime and sub contractors, large and small business, and at the 
component and system level. The budget itself can be the competition, 
i.e., an affordable program or no program.
    Question. In your view, has the consolidation of the defense 
industrial base gone too far and undermined competition for defense 
contracts?
    I do not believe that consolidation has gone too far; however, with 
the shrinking diversity of capabilities being procured today compared 
to history (airframes, as an example), we do need to consider all 
methods of creating competition, as discussed in the previous question. 
We will examine merger transactions carefully to ensure we focus on 
preserving competition and facilitating the most efficient and 
effective industrial base possible.
    Question. If so, what steps if any can and should DOD take to 
address this issue?
    Answer. It is the Department's policy to oppose transactions that 
reduce or eliminate competition and are not ultimately in the best 
interest of the warfighter and taxpayer. The Department continues to 
discourage mergers and acquisitions among defense suppliers that are 
anti-competitive or injurious to national security. The Department has 
long-established procedures to provide information and the support 
needed by the antitrust regulators for their merger reviews. Ultimately 
however, the Department is not an antitrust regulator, and the ability 
for the Department of Justice and the Federal Trade Commission to 
intervene must meet statutory criteria. In areas where consolidation 
has resulted in a loss of competition, the Department has in the past 
encouraged new entrants or explored the use of alternative 
capabilities.
    Question. Section 203 of WSARA requires the use of competitive 
prototypes for major defense acquisition programs unless the cost of 
producing such prototypes would exceed the lifecycle benefits of 
improved performance and increased technological and design maturity 
that prototypes would achieve.
    Do you support the use of competitive prototypes for major defense 
acquisition programs?
    Answer. I support the use of competitive prototyping for Major 
Defense Acquisition Programs where the use of this approach 
appropriately incentivizes industry and reduces Government risk. 
Competitive prototyping can be an effective mechanism for maturing 
technology, refining performance requirements, and improving our 
understanding of how those requirements can drive systems acquisition 
costs.
    Question. Under what circumstances do you believe the use of 
competitive prototypes is likely to be beneficial?
    Answer. When technology is immature or where the benefits of 
alternative technical approaches are best assessed after further 
maturation, competitive prototyping during the technology development 
phase is an important element of a comprehensive technical risk 
management process. Competitive prototyping may require a higher 
initial investment, longer technology development phase schedules, and 
carefully incentivized competitive sources to properly identify and 
drive down risk.
    Question. Under what circumstances do you believe the cost of such 
prototypes is likely to outweigh the potential benefits?
    Answer. In cases where the material solution is based on mature, 
well-integrated technologies and well-integrated and well-demonstrated 
designs, the upfront investment costs of competitive prototyping may 
not be offset by the potential reduction of system lifecycle costs and 
must be evaluated as part of a careful cost-benefit analysis.
    Question. Section 207 of WSARA required the Department to 
promulgate new regulations to address organizational conflicts of 
interest on major defense acquisition programs.
    What is your understanding of the steps the Department has taken to 
implement section 207?
    Answer. Section 207 of the Weapons System Acquisition Reform Act 
(WSARA) of 2009 (Pub. L. 111-23) required the Secretary of Defense to 
revise the Defense Supplement to the Federal Acquisition Regulation 
(DFARS) to provide uniform guidance and tighten existing requirements 
for organizational conflicts of interest by contractors in major 
defense acquisition programs. The DFARS rule was published on December 
29, 2010. Additionally, the Civilian Acquisition Advisory Council 
(CAAC) determined that the Federal Acquisition Regulations (FAR) 
coverage on organizational conflicts of interest needed updating and a 
proposed rule was published on April 20, 2011. The public comment 
period was extended to July 27, 2011, and the CAAC is evaluating public 
comments. The report is due to be completed shortly. The Department's 
Panel on Contracting Integrity has also conducted a review of post-
employment restrictions applicable to DOD personnel pursuant to Section 
833 of the National Authorization Act for Fiscal Year 2010. Section 833 
also required the National Academy of Public Administration (NAPA) to 
perform an independent assessment of the Panel's report. The Panel 
completed its report in December 2010 and it was provided to NAPA for 
its assessment. NAPA completed its review in February 2012 and provided 
additional recommendations for post award restrictions. The Panel will 
review the NAPA recommendations in 2012 and recommend the way forward.
    Question. What additional steps if any do you believe DOD should 
take to address organizational conflicts of interest in major defense 
acquisition programs?
    Answer. The Department published a final DFARS rule in December 
2010 that provides uniform guidance and tightens existing requirements 
for organizational conflicts of interest (OCI) by contractors in major 
defense acquisition programs. Currently, the Civilian Acquisition 
Council and the Defense Acquisition Council are evaluating comments on 
proposed OCI changes to the Federal Acquisition Regulation (FAR) that 
update and broaden coverage of OCI issues. If confirmed, I will support 
the Department's activities in ensuring that OCI issues are adequately 
reviewed in developing acquisition strategies.
    Question. What are your views on the use of system engineering and 
technical assistance contractors that are affiliated with major defense 
contractors to provide ``independent'' advice to the Department on the 
acquisition of major weapon systems?
    Answer. Contractors must not be used to perform inherently 
governmental functions and they must not be used in a situation where a 
conflict of interest or the appearance of a conflict of interest would 
exist.
    Question. What lines do you believe the Department should draw 
between those acquisition responsibilities that are inherently 
governmental and those that may be performed by contractors?
    Answer. I believe that inherently governmental functions involve 
the exercise of discretion in applying Federal Government authority, or 
the making of value judgments in decisions which obligate government 
funds and commit the government contractually.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not misuse their access to sensitive and 
proprietary information of DOD and other defense contractors?
    Answer. The Department issued an interim rule amending the DFARS to 
implement section 821 of the NDAA for Fiscal Year 2010. Section 821 
provides authority for certain types of Government support contractors 
to have access to proprietary technical data belonging to prime 
contractors and other third parties, provided that the technical data 
owner may require the support contractor to execute a non-disclosure 
agreement having certain restrictions and remedies. This rule was 
effective March 2, 2011. Work on the final rule is ongoing.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not unnecessarily limit competition for 
subcontracts in a manner that would disadvantage the government or 
potential competitors in the private sector?
    Answer. Competition is one of the four cornerstones of the Better 
Buying Power initiatives. I believe that competition at both the prime 
and subcontract levels is essential. One step we can and are taking is 
to challenge prime contractors' practices, such as the use of exclusive 
teaming arrangements, and instead insist that competitive procurements 
are employed throughout all levels of the supply chain. The Director of 
Defense Pricing is accomplishing that in the course of the peer reviews 
he conducts and I fully support that effort. If confirmed, I will 
continue to emphasize the importance of effective competition at both 
the prime and subcontract levels.
  implementation of the weapon systems acquisition reform act of 2009
    Question. Several new major weapons programs have been started 
since the WSARA was enacted. Examples include the Ohio-Class Submarine 
Replacement Program, the KC-46 Aerial Refueling Tanker Replacement 
Program, the VXX Presidential Helicopter Replacement Program, and the 
Ground Combat Vehicle Program.
    In your view, how effectively have such ``new start'' major defense 
acquisition programs abided by the tenets, and implemented the 
requirements, of the WSARA, particularly those that address ``starting 
programs off right'' by requiring that early investment decisions be 
informed by realistic cost estimates, sound systems engineering 
knowledge and reliable technological risk assessments?
    Answer. The Department has abided by the tenets and implemented the 
requirements of WSARA in each of its ``new start'' programs begun since 
the enactment of WSARA. This includes the examples you cite. The 
certifications required by WSARA provide a means to enforce each 
program's implementation.
    Question. Where do you think there might be room for improvement?
    Answer. If confirmed, I will support assessment of WSARA 
implementation by these programs.
                   possible revisions to dodi 5000.02
    Question. Acting Under Secretary of Defense for Acquisition, 
Technology, and Logistics Frank Kendall is currently considering 
revisions to DOD Instructions (DODI) 5000.02, which governs the defense 
acquisition system.
    What are the top five changes to this instruction you would 
recommend to streamline or otherwise improve the defense acquisition 
system?
    Answer. There are five changes that I believe will improve the 
acquisition system: First, fully implement and institutionalize the 
Better Buying Power initiative; second, enforce the requirements of the 
Weapons Systems Acquisition Reform Act and associated statute; third, 
develop acquisition processes tailored to the unique characteristics of 
information technology and rapid acquisition; fourth, improve the 
quality of program business arrangements, and fifth, enhance the skills 
of the acquisition workforce.
    Question. What role do you expect to play if confirmed in the 
review and revision of the DODI 5000.02?
    Answer. If confirmed, I expect to be a principal advisor to the 
USD(AT&L) in the development of all policies that will impact the DOD 
acquisition process.
    Question. What is your understanding of the schedule and objectives 
of the review effort?
    Answer. I understand that revised policies are in development and 
will be coordinated throughout the department following USD(AT&L) 
approval. In addition, I understand that we will be developing a 
separate 5000 series document for the acquisition of services to ensure 
we have policies tailored to the specific characteristics of those 
important acquisitions. The intent is to coordinate and publish both 
policies during this calendar year.
                       performance-based payments
    Question. In 1995, the Federal Acquisition Regulation was revised 
to create a new category of payments, known as Performance-Based 
Payments (PBPs) on fixed-price contracts. PBPs are made on the basis of 
the physical completion of authorized work, rather than the incurrence 
of seller costs.
    In your view, what advantages, if any, can the Department gain by 
using PBPs more extensively in connection with fixed-price contracts 
for the development of its major systems?
    Answer. PBPs are not practical for use on all fixed-price 
contracts, but when a fixed-price contract for development is 
appropriate, the use of PBPs should be considered. When practical for 
use, PBPs provide the opportunity for the Government and the contractor 
to achieve a win-win financial arrangement. This win-win arrangement 
occurs when the government provides better cash flow than customary 
progress payments and the contractor accepts a lower profit rate in 
consideration for the improved cash flow. PBPs are most practical for 
use on stable production programs where there are objective 
manufacturing milestones to use as PBP events and cost history to 
establish the contractor's financing needs at each event. Development 
contracts are generally less suitable for PBPs because objective events 
are less plentiful and there is no cost history.
    Question. Do you believe that PBPs should be the preferred means of 
providing contract financing under fixed-price contracts for the 
development of the Department's major systems? Why or why not?
    Answer. As FAR states, PBPs are the preferred method when the 
contracting officer determines them to be practical and the contractor 
agrees to their use. However, PBPs are not practical for use on every 
fixed-price contract and the contracting officer must determine whether 
they are practical for a particular contract. PBPs are most practical 
for use on stable production programs where there are objective 
manufacturing milestones to use as PBP events and cost history to 
establish the contractor's financing needs at each event. Development 
contracts are generally less suitable for PBPs because objective events 
are less plentiful and there is no cost history.
                   the better buying power initiative
    Question. DOD's Better Buying Power initiative provides acquisition 
professionals with important guidance on how to achieve greater 
efficiency, enhanced productivity and affordability in how the 
Department procures goods and services.
    If confirmed, what steps if any will you take to follow-through on 
this guidance and ensure that it is implemented as intended?
    Answer. I am co-leader for the development, implementation, and 
continued assessment of these initiatives. If confirmed, I will 
continue to follow-through on implementation of the initiative and 
carefully consider additional steps consistent with the principles and 
objectives of the initiative.
    Question. In particular, what steps will you take to ensure the 
implementation of the following elements of the better buying power 
initiative?
    a.  Sharing the benefits of cash flow
    b.  Targeting non-value-added costs
    c.  Mandating affordability as a requirement
    e.  Eliminating redundancy within warfighting portfolios

    Answer. If confirmed, I will emphasize the steps already taken 
toward better buying power in these areas, as well as implementing ways 
to improve performance in these areas as identified:
    Sharing the benefits of cash flow: The Better Buying Power 
initiative includes the use of adjusted progress payments to 
incentivize contractor performance, as well as providing the government 
appropriate consideration for this benefit. Integral to this is the use 
of Performance-Based Payments (PBP) in lieu of other than customary 
progress payments where it makes sense to do so.
    Targeting non-value-added costs: I will mandate the use of 
``Should-Cost'' principles to eliminate non-value added costs at the 
program level and continually reduce costs wherever it makes sense. 
Review of the affordability requirement and Should Costs opportunities 
is and will continue to be a major driver in all current and future 
Defense Acquisition Board investment decisions. In parallel, continuing 
to seize opportunities to eliminate duplicative and overly restrictive 
requirements that add to costs without improving value is necessary. A 
strong emphasis has been placed on this area during critical reviews of 
Requests for Proposal (RFPs) under development, as well as critical 
review of all contract deliverables (CDRLs) against this standard 
throughout the life of a contract.
    Affordability: The Milestone Decision Authority (MDA) must now 
establish affordability targets at Milestone A decisions, to include 
sustainment costs, that are applicable to design and decisions early in 
the program. At Milestone B and beyond, these targets become 
requirements, based on the information garnered from the technology 
development phase and a more mature cost estimate. The affordability 
requirements are now being treated as Key Performance Parameters in the 
Acquisition Program Baseline and will be closely monitored during the 
remainder of the acquisition process.
    Eliminating redundancy in warfighting portfolios: A program's 
affordability assessment is in the context of the portfolio within 
which it resides, and needs to include analysis both at the parent 
Military Departments, and DOD wide, levels. Portfolio reviews have 
commenced to identify existing redundancies. If confirmed, I will 
continue to emphasize that each Military Department regularly review 
its portfolios to determine whether a new capability is affordable 
based on anticipated budgets, while eliminating or reducing 
redundancies.
    Question. Are there any elements of the Better Buying Power 
initiative with which you disagree and which you intend to modify 
materially or discontinue?
    Answer. I do not disagree, consistent with the fact I am co-lead 
for their development; however, we are modifying and adding to the 
initiatives as we are learning through implementation.
    Question. Recently, you reportedly observed that the Defense 
Department's Better Buying Power initiative ``aren't understood'' at 
the ``working level'' and that it may take 2 to 4 years for this 
initiative to be fully implemented at the working level.
    Does this statement accurately reflect your views?
    Answer. Yes, while we have made tremendous progress implementing 
the Better Buying Power initiatives over the past 18 months, we do 
still have a ways to go. The culture of our workforce is deeply 
embedded, and it will indeed take time to fully educate the workforce 
to gain the benefits of all our efficiency initiatives. This is why Mr. 
Kendall and I, along with Military Department counterparts, are 
committed to a long term communications plan, using many different 
strategies and tactics, to reach every level of the acquisition 
workforce as well as others involved in the acquisition process. It is 
also why one of the new tasks for the Better Buying Power initiative is 
elevating the status, prestige and professional standards of 
acquisition personnel.
    Question. What steps would you take if confirmed to ensure that the 
relevant acquisition workforce is fully trained on the Better Buying 
Power initiative and to maximize the likelihood that this initiative 
will achieve its intended results?
    Answer. It is apparent that while the workforce is implementing 
many of the Better Buying Power concepts, there's still some degree of 
uncertainty in many areas. As such, education and training of the 
workforce are absolutely critical. I am supporting this on many fronts, 
to include ongoing updates to the guidance contained in our primary 
acquisition policy instruction (DODI 5000.02) and the Defense 
Acquisition Guidebook, as well as revisions to the teaching curriculum 
and methods at the DAU.
    I have also focused on shifting from ``certification'' to 
``qualification,'' a competency-based initiative centered on basic 
fundamentals, application of knowledge and experience to ensure that 
everyone who touches acquisition in a meaningful way is qualified in 
the skill sets required to achieve successful acquisition results.
    DAU is also providing on-the-road mission assistance on the 
application of Better Buying Power at acquisition organizations and 
programs wherever it can, and has provided tools that are already 
helping in the area of services acquisition. In all cases, though, 
communication at every level will remain the key, and hence, the 
Communications Plan I mentioned above is an essential piece of all 
this. I have every reason to believe that if we stay the course, the 
efficiencies we seek will be realized.
                        contracting for services
    Question. By most estimates, the Department now spends more for the 
purchase of services than it does for products (including major weapon 
systems). After a decade of rapid growth, section 808 of the NDAA for 
Fiscal Year 2012 placed a cap on DOD spending for contract services.
    What role if any do you expect to play, if confirmed, in oversight 
and management of the Department's acquisition of contract services?
    Answer. If confirmed, I expect to work with the Director of Defense 
Procurement and Acquisition Policy in his role as the Senior Service 
Acquisition manager at OSD, along with the Service Acquisition 
Executives and their appointed senior Services Managers, to participate 
in oversight of the major service acquisition programs and in refining 
the governance structure for services. For example, I expect to 
contribute to the development of a new, 5000 series DOD Instruction 
dedicated solely to the acquisition of services so that we may 
institutionalize policy to address the unique challenges that service 
acquisitions present. Doing so will continue the progress we have made 
in improving the Department's management of contract services and 
ensure the appropriate contract type is utilized for the acquisition of 
services to appropriately balance risk and return on investment for the 
Defense Department and private industry.
    In support of this goal, the Department has increased training for 
the acquisition of services as well as for Contracting Officer 
Representatives (CORs), and has developed on-line performance work 
statement tools to aid in the development of requirements that 
maximizes the potential for competition while incentivizing efficient 
delivery of services. Notable examples of training for the acquisition 
of services are the DAU Services Acquisition Workshops, the Acquisition 
Requirements Roadmap Tool, and DOD's model curriculum for both 
classroom and online training of CORs with a variant and a Handbook 
specifically tailored for CORs deployed in contingency operations.
    Question. Do you believe that DOD can do more to reduce spending on 
contract services?
    Answer. Yes, the Department can and is doing more to reduce 
spending on contract services. The administration has identified 
management support services as an area in which spending has outpaced 
other contracted activities. The Department is aligned with OMB's 
target to reduce spending in this area by 10 percent by the end of 
fiscal year 2012. To achieve this end, the Department is addressing 
what it is buying in terms of the level of contracted support, and the 
manner in which it is acquiring these services. If confirmed, I will 
continue the effort to improve our tradecraft in the way we acquire 
contacted services. I will make this a high priority and ensure we 
adhere to the provisions contained in section 808 of the NDAA for 
Fiscal Year 2012 which limits the amount the Department can expand on 
contract services in fiscal years 2012 and 2013.
    Question. What steps if any would you take, if confirmed, to 
control the Department's spending on contract services and ensure that 
the Department complies with the requirements of section 808?
    Answer. If confirmed, I will support the Departments effort to 
control spending as described above. In addition, I will focus on the 
increased use of the Automated Requirements Road Map Tool (ARRT). 
Further, I will work to ensure that the workforce is trained with tools 
such as the Services Acquisition Mall. Finally, I will emphasize the 
inclusion of small business innovation and cost savings in the service 
industry through training and the use of tools to support market 
research such as Small Business Maximum Practicable Opportunity 
Prediction Model.
    Question. Do you believe the Department is providing appropriate 
stewardship over service contracts?
    Answer. I believe the Department is improving the quality of the 
stewardship it maintains over our service contracts through better 
training, standardization of contract management, and additional senior 
leader attention. Effective stewardship requires proactive engagement 
from senior leaders at operational and strategic levels to manage these 
contracts. The Department is making a concerted effort to instill 
processes to drive leadership involvement.
    Question. Do you believe that the Department has appropriate 
management structures in place to oversee the expenditure of more than 
$150 billion a year for contract services?
    Answer. Not entirely, but I believe the Department improved the 
management structure to oversee service contracts by establishing 
Senior Service Managers in each of the Military Departments. If 
confirmed, I will work toward an enterprise-wide, structured program to 
enable thoughtful decisions about how to fulfill service contract 
requirements. Fundamental to the success of these structures will be 
the effectiveness of the front-end process to review and validate 
requirements for services (as required by section 863 of the Ike 
Skelton NDAA for Fiscal Year 2011).
    Question. Do you support the use of management reviews, or peer 
reviews, of major service contracts to identify ``best practices'' and 
develop lessons learned?
    Answer. Yes. I fully support the use of peer reviews on major 
service contracts to identify best practices and lessons learned. The 
practice of conducting peer reviews on the Department's major service 
contracts has become well engrained in our process and we have derived 
significant benefit from this initiative. The requirement to conduct 
peer reviews has been institutionalized in DODI 5000.02.
                     socom acquisition authorities
    Question. U.S. Special Operations Command (SOCOM) is unique within 
DOD as the only unified command with acquisition authorities and 
funding. Further, the Commander of SOCOM is the only uniformed 
commander with a subordinate senior acquisition executive.
    Would you recommend any changes to SOCOM's current acquisition 
authorities?
    Answer. I believe that SOCOM currently has sufficient acquisition 
authorities. If confirmed, I will support assessment of SOCOM for 
opportunities to improve acquisition efficiency and effectiveness.
    Question. What role do you believe SOCOM's development and 
acquisition activities should play in broader Service and DOD efforts?
    Answer. I believe that the Department should always seek the 
broadest benefit and application of its development and acquisition 
activities, including those activities sponsored or led by SOCOM.
    Question. If confirmed, how would you ensure that special 
operations capabilities and requirements are integrated into overall 
DOD research, development, and acquisition programs?
    Answer. If confirmed, I will support the reviews conducted by 
USD(AT&L) with SOCOM, the Military Departments, and Defense Agencies to 
improve collaboration efforts to ensure that special operations 
capabilities and requirements are integrated into overall Department of 
Defense research, development, and acquisition programs.
                 acquisition of information technology
    Question. Most of the Department's Major Automated Information 
System (MAIS) acquisitions are substantially over budget and behind 
schedule. In particular, the Department has run into unanticipated 
difficulties with virtually every new business system it has tried to 
field in the last 10 years. Section 804 of the NDAA for Fiscal Year 
2010 required DOD to establish a new acquisition process for 
information technology.
    What role if any do you expect to play, if confirmed, in oversight 
and management of the Department's acquisition of information 
technology?
    Answer. If confirmed, I expect to be assigned duties and functions 
commensurate with the ASD(A) position to include active participation 
in the management and oversight of information technology.
    Question. Do you believe that unique problems in the acquisition of 
business systems require different acquisition strategies or 
approaches?
    Answer. Yes, I believe there are unique characteristics associated 
with the acquisition of information systems that call for the use of 
acquisition approaches that are different from those traditionally used 
by the Department for acquiring weapon systems. The acquisition of 
business systems requires a process that is tailored to the specific 
technology, business process, performance and support requirements 
associated with the development and deployment of business systems. The 
Department has already begun to adapt to the unique challenges of 
business information system acquisition through the implementation of 
the Business Capability Lifecycle (BCL), an alternative acquisition 
approach for defense business systems. The Department continues to make 
significant progress in defining the policies and procedures needed to 
support the successful implementation of the BCL acquisition model.
    Question. What steps if any do you believe DOD should take to 
address these problems?
    Answer. The issuance of the 23 June 2011 directive requiring the 
use of the Business Capability Lifecycle (BCL) for the acquisition 
process for business systems and the updates made to the DODI 5000.02 
for BCL policies and procedures are important steps forward in 
reforming the acquisition processes. Additionally, the Department has 
been implementing the BCL model on a case-by-case basis. It is the 
Department's intent that each new defense business system will begin 
its lifecycle under the BCL model. If confirmed, I will actively 
support the use of incremental acquisition approaches to delivering 
capabilities, as well as engage the Department to look for 
opportunities whenever possible to tailor the acquisition process to 
include the streamlining acquisition documentation.
    Question. What steps has the Department taken to implement the 
requirements of section 804? What steps remain to be taken?
    Answer. The Department has made steady progress in implementing 
several of the key approaches outlined in section 804, specifically in 
the areas of Acquisition, Requirements, Testing and Certification and 
Human Capital. On 23 June 2011, a Directive-Type Memorandum (DTM) on 
Business Capability Lifecycle (BCL) was signed and issued by USD(AT&L). 
The BCL provides a framework for implementing a more flexible and 
streamlined processes for the acquisition of these business information 
systems. The acting Under Secretary recently launched efforts to update 
DODI 5000.02 supporting some key IT acquisition reform efforts 
identified in the 804 report. The Joint Staff has initiated efforts to 
include more streamlined requirements management and approval process 
for acquisition of information systems. They are updating policy to 
establish improved cycle times for the review/approval of requirements 
documents and producing a high-level capability Initial Capabilities 
Document that adopts a portfolio perspective and document requirements 
in the context of the portfolio. The Department's testing community has 
been working in collaboration with USD(AT&L) to incorporate an 
integrated testing, evaluation, and certification approach into the 
DODI 5000.02, to reduce redundancies in system testing activities and 
improve the efficiency and effectiveness of testing the Department's 
information systems.
    A comprehensive review of IT acquisition competencies is currently 
being conducted. This review will update the IT acquisition 
competencies to better define DOD critical skill sets and assist in the 
update of curricula at the Defense Acquisition University and the 
Information Resources Management College.
    The Department is working directly with ongoing and new start 
acquisition programs to drive many of the IT reform principles 
identified in section 804. Implementation of Business Capabilities 
Lifecycle (BCL) is a current focus area. The Department will use the 
experience and lessons learned from the ``pilots/early adopters'' to 
inform and shape the ongoing reforms and updates to policy and 
guidance.
    Question. If confirmed, how would you work with the Chief 
Information Officer of DOD to take these steps?
    Answer. If confirmed, I will work closely with the DOD CIO, and I 
will ensure the OUSD(AT&L) staff and the DOD CIO staff work 
collaboratively to identify and take any steps needed to improve the 
acquisition of information technology based capabilities. This is an 
important area for the Department as we need to achieve more consistent 
and better outcomes given the continuing evolution of technology. In an 
effort to facilitate an even greater alignment of acquisition resources 
and processes between the two organizations, as of February 26, 2012, a 
majority of the acquisition responsibilities and resources that fell 
under the Assistant Secretary of Defense (Networks and Information 
Integration (ASD(NII)) within the DOD CIO have transferred to the 
USD(AT&L).
    Question. Some have argued that the current test and evaluation 
process does not appropriately address the unique circumstances 
applicable to the acquisition of information technology systems.
    What steps if any do you believe the Department should take to 
improve the test and evaluation process for information technology 
systems, including their vulnerabilities in the face of a growing 
cybersecurity threat environment?
    Answer. The Department has taken steps to develop a new Rapid IT 
Acquisition process, as the traditional acquisition process timelines 
are not as agile as the commercial sector. Long acquisition timelines 
result in IT systems that, at deployment, can be several steps behind 
current technology and, thus, more vulnerable to sophisticated cyber 
attacks. The Department is moving towards incorporating `agile' 
development techniques for information systems, more in line with 
industry practices. To support iterative, incremental development, we 
will employ a continuous integration and test approach that integrates 
developmental test, operational test, and certification and 
accreditation activities. This approach will rely more heavily on early 
user involvement, use of automated testing, and continuous monitoring 
of deployed capabilities. An essential element of this more agile 
approach is a robust preproduction cyber test environment that permits 
us to better understand and characterize the cyber threat, and take 
preventative actions prior to fielding systems. The Department is still 
working through how to effectively develop and use this type of test 
bed.
    Question. Recently, you reportedly observed that ``real 
challenges'' exist in the acquisition of information technology (IT) 
because the Defense Department does not have the skills necessary to 
procure information technology capability efficiently.
    Does this statement accurately reflect your views?
    Answer. Yes, training our acquisition professionals remains a top 
priority. This training must include a combination of formal classroom 
training, mentoring, coaching, and on the job learning to provide the 
skills to ensure a workforce that is agile, flexible, and ready to 
respond to the unique needs of acquiring IT for the Department.
    Question. What challenges do you see in this area?
    Answer. As DOD draws down the overall force the Department must 
retain critical skills and recruit new personnel to address known gaps 
and deficiencies specific to IT. The Department needs to assist our 
acquisition professionals to be conversant in new technology and 
development methods specific to IT. It needs to train our acquisition 
professionals to be more confident in their ability to deal with 
industry during the acquisition process. It needs to work on achieving 
better business arrangements in terms of products and support over the 
entire lifecycle. To achieve this, the acquisition workforce must be 
agile, flexible, and prepared to adapt our buying practices to match 
our needs in the area of acquiring IT. The Department needs to equip 
the workforce with the necessary skills to be on par with industry as 
they negotiate contracts set expectations for goods and services.
    Question. What steps would you take if confirmed to address these 
challenges?
    Answer. As stated in the previous question, recruiting, training, 
and retention initiatives are vital, including particularly these 
supported with DAWDF resources. Dealing effectively with industry, 
getting better business deals, and generally institutionalizing our 
Better Buying Power Initiatives are priorities to me.
    Question. The Department's Information Technology Enterprise 
Strategy and Roadmap, dated 6 September 2011, proposes overhauling IT 
policies to provide improved access to information, common identity 
management, standardized Department-wide services/applications/tools, 
streamlined IT acquisition, consolidated data centers, and cloud 
computing services.
    What reorganization if any do you believe will be needed in the IT 
acquisition structures of DOD and the Military Departments to achieve 
these objectives?
    Answer. At this time I have no specific recommendations for changes 
as this initiative is new; however, if confirmed, I will work to assess 
the organizational changes necessary, if any, to achieve these 
objectives.
    Question. In your view, how fundamentally different, in ways 
relevant to procuring needed defense capability-effectively, is 
acquiring information technology products and services from how the 
Defense Department more typically procures products and services?
    Answer. Existing DOD hardware development processes do not always 
translate effectively in IT given the speed at which technological 
change occurs is often faster than we as a Department can effectively 
implement or upgrade the technology for our users. The Department needs 
to continue to move away from large IT development projects to smaller, 
more incremental IT projects, utilizing commercial applications 
whenever possible.
    Question. How, in your view, are the Department's existing 
processes inadequate to procuring defense-related IT products and 
services effectively?
    Answer. Existing acquisition processes primarily accommodate 
hardware development, in which highly customized weapons systems are 
methodically developed over time. The process rightfully focuses on 
maturing and developing technology, mitigating manufacturing risk and 
engineering for sustainment. Information technology is continually 
evolving and inherently different. The process needs to focus on 
network and process optimization, data management continually (and 
rapidly) changing technology, and mitigating cyber vulnerabilities.
    Question. What specific changes, if any, would you recommend to 
improve how the Department procures Major Automated Information 
Systems?
    Answer. The Business Capability Lifecycle (BCL), an alternative 
acquisition approach for defense business systems and instantiated in a 
June 23, 2011, policy directive, has been an important step in adapting 
the Department's approach. The BCL model requires the rigorous upfront 
analysis of functional requirements, establishment of performance 
measures and incremental delivery of capability. Continued 
implementation of this approach as well as other agile acquisition 
approaches for other types of MAIS IT are critical to improving how the 
Department delivers these types of capabilities.
    Question. In your view, what are the implications of the challenges 
and differences you discussed above on efforts by the Department to 
procure effectively cyber-security products and services?
    Answer. One of the challenges with procuring and deploying cyber-
security solutions is the sheer scope of the DOD enterprise. Once the 
capability has been developed or procured, it can take several 
additional months to install, configure, and deploy to forces overseas 
and afloat. An additional challenge is the lack of a time-focused 
acquisition approach to acquire and deploy cyber-security products and 
services. The Weapon system and the streamlined IT acquisition 
processes do not always support the rapid acquisition timelines 
necessary to deliver cyber warfare capabilities. The Department is 
addressing these challenges as part of our response to section 933 of 
the NDAA for Fiscal Year 2011.
    Question. Are there any special acquisition authorities not 
currently available that if authorized could help address some of the 
observed IT and cyber security-related acquisition shortfalls?
    Answer. Acquiring cyber-related capability requires a new approach 
to support the rapid acquisition of cyber tools and applications. As 
part of the Department's response to section 933 of the NDAA for Fiscal 
Year 2011, it is assessing the degree to which current acquisition 
authorities and policies impact the speed at which the Department can 
acquire capabilities for cyber warfare.
    Question. In your view, does the Defense Information Systems Agency 
(DISA) deliver enterprise computing services and provide IT 
infrastructure in an operationally responsive and cost effective 
manner?
    Answer. The DISA is continuing to enhance and improve its ability 
to deliver an integrated enterprise infrastructure ``platform'' 
capability across the Department. This infrastructure ``platform'', to 
include computing, networks, enterprise services and information 
assurance, is intended to range from the ``tactical edge'' (any user, 
any device, anywhere) to Senior Department leadership, thereby 
enhancing operational responsiveness and decision making. In the face 
of rapidly changing technologies and cyber threat environments, DISA is 
employing numerous strategies to improve cost effectiveness to meet 
these challenges, to include agile acquisition and testing techniques, 
leveraging and maturing of cloud computing and service models and 
enhancing seamless information sharing via mobile computing 
technologies.
    Question. What specific recommendations would you make to improve 
DISA's delivery of telecom and IT contracting, enterprise services, and 
computing/application hosting?
    As documented in their 2011-2012 Campaign Plan, DISA has 
established a clear vision and set of operating principles, defined 
through their three ``Lines of Operation'' (Enterprise Infrastructure, 
C2 and Information Sharing, and Operate and Assure), and nine 
underlying ``Joint Enablers''. The simplest way to improve on DISA's 
delivery of services is to focus on creatively and efficiently 
executing the plan as defined in the Campaign Plan. The Department is 
committed to monitoring and assisting DISA in that process.
    A very tangible and specific means of improving enterprise services 
and computing/application hosting is through the continued growth of 
the DISA Cloud. Utilization of cloud computing has the potential to 
significantly reduce costs and enhance security across a wide range of 
services and applications in areas such as web services, acquisition, 
logistics, financial management, and personnel management. The 
Department will articulate its plans for cloud computing in its 
response to section 2867 of the 2012 NDAA.
                         acquisition workforce
    Question. Section 852 of the NDAA for Fiscal Year 2008 established 
an Acquisition Workforce Development Fund to help DOD address 
shortcomings in its acquisition workforce. The fund provides a 
continuing source of funds for this purpose.
    What role if any do you expect to play, if confirmed, in management 
and oversight of the Department's acquisition workforce?
    Answer. I would expect, if confirmed, to be responsible and 
accountable to USD(AT&L) for management and oversight of workforce 
matters.
    Question. Do you believe that the Acquisition Workforce Development 
Fund is still needed to ensure that DOD has the right number of 
employees with the right skills to run its acquisition programs in the 
most cost effective manner for the taxpayers?
    Answer. Yes. The fund supports continued strengthening of the 
acquisition workforce. The quality and capability of the workforce is 
critical to improved acquisition outcomes and achieving efficiencies.
    Question. If confirmed, what steps will you take to ensure that the 
money made available through the Acquisition Workforce Fund is spent in 
a manner that best meets the needs of DOD and its acquisition 
workforce?
    Answer. If confirmed, I will work closely with senior acquisition 
leaders to ensure that this funding is allocated in a manner that best 
meets the needs of DOD, in the continued development of a professional 
DOD acquisition workforce. This will include providing the necessary 
workforce education, training, and experience required to meet the 
current acquisition environment.
    Question. What do you see as the most significant shortcomings if 
any in the quality of the Department's acquisition and contracting 
workforce?
    Answer. The Department has great people. They equipped the best 
military in the world and they deserve credit for this. Many attained 
basic and advanced acquisition certification requirements. Now, I want 
to build upon that process with tools to ensure the established 
certifications are combined with demonstrating competency in 
acquisition proficiencies to better provide an even better qualified 
workforce for current and future responsibilities. I call this ``C2Q'' 
or Certification to Qualification. Our goal is to have a workforce that 
is both fully certified to today's standards and also fully qualified 
to perform its duties as acquisition professionals. Our 
``certification-to-qualification'' initiative will provide a critical 
fourth dimension to certification--on-the-job demonstration of mastery 
of functional competencies. C2Q builds on the saying, ``Tell me, and I 
will forget; Teach me and I will remember; Involve me and I will 
learn.'' If confirmed, I will implement this process to equip the 
workforce with improved training and development opportunities for 
performance and acquisition success.
    Question. What role do you expect to play, if confirmed, in 
addressing these shortcomings?
    Answer. If confirmed, I will lead Department-wide efforts to 
improve acquisition outcomes. This includes strengthening and 
supporting the acquisition workforce and championing the strategies, 
initiatives, and resources necessary for an enduring high level of 
workforce quality and capacity. This includes updating the Human 
Capital Plan.
    Question. What specific skill sets or core competencies if any do 
you believe to be vital in the Department's ability to procure goods 
and services effectively and are lacking within the Department's 
acquisition and contracting workforce?
    Answer. I believe we have time-tested core acquisition 
competencies--we will always need competencies in effective program 
management, systems engineering, test and evaluation, logistics and 
sustainment, contracting, quality, pricing, audit and others. However, 
I also believe a basic understanding of business skills from the 
industry perspective is vital to the Department's ability to support 
effectively our servicemembers with goods and services. As such, we've 
worked with university business schools and industry training centers 
to develop business acumen competencies for our acquisition workforce, 
including contracting experts. In addition, the Defense Acquisition 
University is currently developing courseware to enhance our 
workforce's business knowledge to ensure better business deals for the 
government. If confirmed, I will actively work with the components to 
target these and other high priority improvements across the 
acquisition workforce.
    Question. Do you believe that the Department's human capital plan 
for the acquisition workforce includes adequate measures to acquire or 
reconstitute these vital skill sets or core competencies?
    Answer. Our human capital plan begins the process for strengthening 
our workforce systems engineering, program management, contracting and 
other critical functions to include rebuilding the capacity of the 
Defense Contract Management Agency and Defense Contract Audit Agency. 
The Department has made significant progress in all these areas to 
include initiatives to increase our training capacity for certification 
and targeted training available to the workforce. If confirmed, I will 
work to update and refine the plan with Military Departments and 
Defense agencies to ensure its wise use to create and maintain a high 
quality acquisition workforce.
    Question. What steps if any would you take if confirmed to improve 
the Department's human capital plan for the acquisition workforce?
    Answer. If confirmed, I will exercise strong leadership and partner 
with the Military Departments, functional leaders, Personnel and 
Readiness, and other partners to champion the highest priority 
strategies and workforce initiatives. Our updated plan will leverage 
the proven best practices from our recent efforts and include 
objectives that challenge us to take the workforce to a higher level of 
readiness, qualification, and results.
    Question. You have reportedly observed that you believe that some 
of the problems in defense acquisition may stem from a lack of passion 
new employees have for their craft.
    Does this statement accurately reflect your views?
    Answer. I stated that it is difficult for the workforce to have 
passion for its craft when publically criticized as often as the 
members are. They need mentorship or coaching, opportunities to get 
experience, clear and supported opportunities for advancement, and 
opportunities for growth through progressively more challenging 
assignments. Lacking all that, passion for one's profession can 
dissipate.
    Question. If so, what steps do you believe the Department should 
take to address this problem?
    Answer. The workforce needs mentorship and coaching, opportunities 
to get experience, and to have clear and supported opportunities for 
advancement like their peers in the military. They need opportunities 
for growth. Sustaining their passion is something we do by example, by 
organizational culture, by treating people as valued professionals, and 
by giving them training and career opportunities to grow and develop. 
Here is an example: A couple of years ago DAU instituted for all new 
contracting specialists CON 090, an intensive and challenging 4-week, 
in-class course on the FAR and the DFARS. It has been very successful. 
One could say it was ``re-instituted,'' because many of our now-senior 
procurement executives recall that their passion for acquisition 
started with a similar course they took early in their careers. The 
certification-to-qualification initiative (C2Q), holds promise for 
developing and validating professionalism in job performance. I am 
leading the effort to conduct pilots in program management, contract 
pricing, and earned value management to determine the feasibility and 
potential value of C2Q. Depending on the results, I will address policy 
and process to implement and institutionalize the C2Q initiative in 
much the same way as the Better Buying Power process.
                      the defense industrial base
    Question. What role if any do you expect to play if confirmed, in 
management and oversight of the Department's defense industrial base 
policy and practices?
    Answer. If confirmed, I would work with the office of Manufacturing 
and Industrial Base Policy to ensure the policies and practices to the 
defense industrial base are integrated into the Milestone decision 
process and acquisition strategy development.
    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. The defense industry is a vital component of our force 
structure and as such is a vital element of our national security. It 
lags behind the commercial sector in terms of stock market trends, and 
recovers slower. However, as compared to the commercial sector, it is a 
consistent and reasonably steady performer. In terms of status, my 
assessment of the defense industrial base is that is has recently taken 
a strategic pause in risk taking due to the uncertainties of the 
budget, as well as taking a closer look internally at its core 
competencies with an eye on spinning put risky or low profit business 
units. The largest companies in the Defense industry are well prepared 
for the fiscal austerity with high levels of retained earnings and low 
debt to equity ratios.
    They have been through the down cycle before. The same does not 
necessarily hold true for the mid-tier and small businesses. This is 
why the impacts of acquisition decisions on the industrial base will be 
examined and the department will intervene only on the rare occasions 
where it may be warranted.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. If confirmed, I will implement USD(AT&L)'s decisions and 
direction on foreign investment in the U.S. defense sector. I am not 
opposed generally to foreign investment in the defense sector with 
appropriate security protections. Foreign firms can enhance 
competition, which allows for the inclusion in the United States of 
leading edge technologies that have been developed abroad, as well as 
lower costs of specific defense systems. In addition, such foreign 
investment in the long-run may increase interoperability between the 
United States and its allies. Nevertheless, the Department must ensure 
that foreign investment in the defense sector does not create risks to 
national security.
    Question. What steps if any do you believe DOD should take to 
ensure the continued health of the U.S. defense industry?
    Answer. DOD must take responsible steps to ensure that the defense 
industry can support our Warfighters' needs, now and in the future. 
Activities such as the Sector-by-Sector, Tier-by-Tier (S2T2) analysis 
are specifically needed by the Department to make informed decisions. 
The Department's effort to increase real competition will incentivize 
companies to become lean and more efficient. Judicious investments in 
Independent Research and Development (IRAD), Science, Technology 
Engineering and Mathematics (STEM), and critical engineering skills 
will help maintain technological dominance in the industrial base. 
Through competition, industry will be incentivized to trim excess 
overhead, which will lead to a healthier industrial base.
    Question. What is your understanding of the status of the 
Department's ongoing Sector-by-Sector, Tier-by-Tier (S2T2) analysis of 
the defense industrial base?
    Answer. The S2T2 project has been able to collect valuable 
information across the sectors and down the tiers of the industrial 
base that has contributed to Department's decisionmaking in the recent 
fiscal year 2013 activities.
    Question. Has the Department taken any concrete steps to enhance 
the health and status of a particular sector or tier based upon this 
analysis?
    Answer. The Department did adjust some of the program activities to 
include schedules and procurements in the fiscal year 2013 budget 
proposal to smooth work f1ow, maintaining the health of some critical 
and fragile niches in the industrial base.
    Question. Under what circumstances if any do you believe the 
Department should use Defense Production Act title III authorities to 
address defense industrial base needs?
    Answer. The Department should use title III authorities, consistent 
with section 303 of that law when: (1) Such action ``is essential to 
the national defense; and (2) without [such action], U.S. industry 
cannot reasonably be expected to provide the capability for the needed 
industrial resource, material, or critical technology item in a timely 
manner.'' Title III decisions should be informed by thorough industrial 
base analysis.
    Question. What is your view of current or anticipated consolidation 
efforts by major defense contractors?
    Answer. The Department has no merger bias (pro or anti-merger), but 
evaluates mergers on a case-by-case basis to protect its long-term 
interests. However, the Department is generally going to look 
unfavorably on merger and acquisition activity among the major primes 
due to the uncompetitive realities such consolidation would create. The 
Department would review a transaction among the top-tier if proposed, 
but we would like to Reserve as much competition as possible at the 
major prime level. Below the major prime level, we believe that there 
could be some reasonable consolidation activity that could take place 
as firms to reposition themselves; in such cases, the Department will 
be particularly interested in ensuring any potential vertical 
integration which may result does not result in a significant loss of 
current or future competition.
    Question. How does the Department evaluate the effect that such 
consolidations may have on the ability of DOD to leverage competition 
to obtain fair value and the best quality in the goods and services it 
procures and cultivate technological and engineering innovation?
    Answer. When examining a merger, the Department weighs potential 
harm to competition and innovation caused by horizontal consolidation 
and vertical integration against potential benefits such as reduced 
overhead costs and other synergies. In retrospect, however, there have 
been cases where the consolidation/synergy benefits projected were not 
realized and consolidation occurred without real rationalization. Given 
this experience, the Department may be more skeptical of arguments 
proposing that financial benefits outweigh the potential loss of 
competition.
    Question. What role, if any, should DOD have in vetting and 
approving or disapproving such consolidation efforts?
    Answer. I believe mergers and acquisitions are a normal response to 
budget changes, and should not reflexively oppose this market reaction. 
If confirmed, I will scrutinize proposals that come forward to ensure 
that the government's interests are protected. Adjustments that lead to 
greater efficiency or innovation are encouraged. I promote industry's 
efforts to develop strong well-financed business that avoid over-
leveraging and poor balance sheets with the intention of ensuring 
industry emerges stronger following structural changes. I believe the 
Defense Department will use its position as a buyer, its subsidy of 
research and its ability to forecast needs to boost investment, 
competition and innovation to the maximum extent while still allowing 
market forces to propel the sector forward.
                          manufacturing issues
    Question. Section 812 of the NDAA for Fiscal Year 2011 requires DOD 
to issue comprehensive guidance to improve its management of 
manufacturing risk in major defense acquisition programs.
    What steps has the Department taken to implement the requirements 
of section 812? What steps remain to be taken?
    Answer. In July 2011, the Deputy Assistant Secretary of Defense for 
Systems Engineering (DASD(SE)) updated the Defense Acquisition 
Guidebook (DAG) with new guidance on how manufacturing readiness should 
be assessed throughout all phases of the acquisition process and at 
specific systems engineering technical reviews. This new guidance, 
added to DAG Chapter 4 (Systems Engineering), was developed based on 
industry best practices and DOD knowledge maintained by DAD. We will 
continue to refine these best practices to stay abreast of rapidly 
changing technologies and industrial-base capabilities.
    Question. What additional steps would you take, if confirmed, to 
address continuing shortcomings in manufacturing research and 
capabilities in the development and acquisition of defense systems?
    Answer. As the budget environment changes, it is expected that 
companies will adapt through both organic efficiencies and inorganic 
growth and realignment. Successful companies are constantly trying to 
anticipate market shifts and position themselves to be more competitive 
and to achieve greater growth and profitability. In general, this is a 
healthy process. If confirmed, I will support use of the new S2T2 
repository of industrial base data and which will serve as a jumping 
off point for future assessments by all Defense components. I will 
focus research initiatives to address shortcomings early in the 
process. I will support the efforts for the Assistant Secretary of 
Defense for Research and Engineering (ASD(R&E)) and the Deputy 
Assistant Secretary of Defense for Manufacturing and Industrial Base 
Policy to accelerate their achievement of the steps in recently issued 
strategic guidance; specifically, Sustaining U.S. Global Leadership: 
Priorities for 21st Century Defense and Defense Budget Priorities and 
Choices.
    Question. Do you believe that additional incentives are needed to 
enhance industry's incorporation and utilization of advanced 
manufacturing processes developed under the manufacturing technology 
program?
    Answer. The Department's competitive acquisition and procurement 
processes incentivize offerors to employ advanced manufacturing 
processes in response to the DOD's solicitations. Additionally, the 
Department remains ready to ``intervene when absolutely necessary to 
sustain industrial and technological capabilities,'' which includes 
investment in advanced manufacturing.
    The Manufacturing Technology (ManTech) program is a partner in the 
National Strategic Plan for Advanced Manufacturing, delivered February 
2012 by the administration, which states, ``Advanced manufacturing is a 
matter of fundamental importance to the economic strength and security 
of the United States.'' This strategy incorporates intensive engagement 
among stakeholders at the national, State, and regional levels, 
including the DOD ManTech program, to promote U.S. competitiveness 
through innovation in manufacturing.
    Question. What is your view of the utility of the Industrial Base 
Innovation Fund for advancing manufacturing technology and processes?
    Answer. The Industrial Base Innovation Fund has been a valuable 
resource for addressing short term, operational needs and issues such 
as surge and diminishing manufacturing sources.
    Question. Do you believe that DOD is making an appropriate level of 
investment in improvement of manufacturing technologies?
    Answer. The administration and Department have consistently made 
advanced manufacturing a priority, as exemplified by the President's 
recently announced National Network for Manufacturing Innovation 
(NNMI), a $1 billion investment in new manufacturing institutes 
throughout the U.S. The Department, in collaboration with other 
agencies, is initiating the first of these institutes in 2012. NNMI, 
along with funding in the fiscal year 2013 budget submission for 
manufacturing technology programs, demonstrates the Department's deep 
commitment to advanced manufacturing processes and practices. I believe 
the ManTech Program, Title III of the Defense Production Act, and the 
DARPA Manufacturing Initiative remain focused on driving down costs, 
improving delivery times, and enhancing the health and resiliency of 
the defense industrial base, with direct benefits to our acquisition 
programs. For instance, ManTech investments in the F-35 of just $14.5 
million are now projected to reduce costs by $1.1 billion over the life 
of the aircraft. However, these investments certainly need to be 
reinforced throughout the acquisition community. Through the 
Department's Better Buying Power (BBP) initiatives and consistent with 
section 812, program executives are now considering manufacturing and 
production issues early in source selection, leading to increased 
productivity throughout acquisition process. If confirmed, I will 
continue to adhere to BBP initiatives and hone their focus on superior 
manufacturing and acquisition outcomes.
                          test and evaluation
    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
Director of Operational Test and Evaluation in ensuring the success of 
the Department's acquisition programs?
    Answer. I fully support the independence of the Director of 
Operational Test and Evaluation as an important aspect of ensuring the 
Department's acquisition programs are realistically and adequately 
tested in their intended operational environment. If confirmed, I will 
seek the advice of the DOT&E.
    Question. What are your views about the role of the Director of 
Developmental Test and Evaluation in ensuring the success of the 
Department's acquisition programs?
    Answer. The role of the DASD(DT&E) is to be the principal advisor 
to the Secretary of Defense and the Under Secretary of Defense for 
Acquisition, Technology and Logistics on all matters relating to 
developmental test and evaluation within the Department. In this role, 
the DASD(DT&E) is to help improve acquisition outcomes through early 
and continuous engagement with Program Offices to reduce the discovery 
of problems in operational testing. The DASD(DT&E) develops policy and 
guidance, and provides support to Program Offices and the DOD T&E 
community, assists with test planning and data analysis, reviews and 
approves DT&E plans within the TEMP for MDAPS, and identifies and 
shares best practices. Additionally, I believe it is important for the 
DASD(DT&E) to provide an independent Assessment of Operational Test 
Readiness on all major defense acquisition programs to advise milestone 
decision authorities and the Component Acquisition Executives early of 
any risks prior to entering initial operational test and evaluation.
    Question. Are you concerned with the level of test and evaluation 
conducted by the contractors who are developing the systems to be 
tested?
    Answer. I believe that there needs to be Government led DT&E 
supported by appropriate contractor testing. The establishment of the 
DASD(DT&E), the Chief Developmental Tester, and the Lead DT&E 
Organization will help the Department provide government leadership and 
oversight to improve acquisition outcomes.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process? If confirmed, how will you work to ensure 
that all equipment and technology that is deployed to warfighters is 
subject to appropriate operational testing?
    Answer. If confirmed, I will do all I can to ensure that equipment 
and technology is subject to appropriate operational testing. The 
Department is currently developing new policy for the Defense Rapid 
Acquisition System (DRAS) which will require the milestone decision 
authority (MDA) to collaborate with the supporting operational testing 
agency (OTA) to approve the performance assessment approach for urgent 
needs. For DRAS programs that are MDAPs or otherwise under oversight of 
the Director of Operational Test and Evaluation (OT&E), the Director 
must approve operational and live-fire test plans. Performance, safety, 
suitability, and survivability are to be assessed. A second assessment 
will be done 6 months post fielding. With these two assessments in 
place, the user will have a strong voice in determining whether to 
accept and deploy the capability.
    Question. Do you believe that the operational and developmental 
testing organizations in DOD and the Military Services are adequate to 
ensure an appropriate level of testing, and testing oversight, on major 
defense acquisition programs?
    Answer. I believe there are adequate resources to ensure an 
appropriate level of testing and testing oversight on major defense 
acquisition programs. I also believe we need to shift more emphasis to 
early developmental testing to reduce the likelihood of late discovery 
of design or production issues. If confirmed, I will work with the 
DOT&E and DASD(DT&E) to ensure the conduct of rigorous developmental 
and operational testing to improve acquisition outcomes.
    Question. Section 102 of the WSARA established a new Director of 
Developmental Testing to help address this problem. Section 835 of the 
NDAA for Fiscal Year 2012 built on this provision by establishing new 
organizational and management requirements for developmental testing on 
major defense acquisition programs.
    What steps has the Department taken to date to implement these two 
provisions?
    Answer. The Acting Under Secretary approved DOD Instruction (DODI 
5134.17) which assigns responsibilities and functions and prescribes 
relationships and authorities for the DASD(DT&E). The guidelines for 
implementing the requirements of section 835 of the NDAA for Fiscal 
Year 2012 are being developed and the acting Under Secretary is in the 
process of including those requirements in a future update to the 
Defense Acquisition System Instruction (DODI 5000.02).
    Question. What steps remain to be taken?
    Answer. If confirmed, I will work with the Military Department and 
Defense Acquisition University to implement these provisions and 
associated training requirements.
    Question. What additional steps will you take, if confirmed, to 
ensure adequate developmental testing on major weapon systems?
    Answer. If confirmed, I will emphasize the importance of having 
early and continuous engagement those responsible for DT&E. I will work 
collaboratively with the Component Acquisition Executives through the 
secretaries for the Military Departments, and through the Program 
Offices to develop adequate test programs, assist with test planning 
and data analysis, and identify and share best practices to help 
improve acquisition outcomes.
    Some have argued that testing takes too long and costs too much. 
Others contest this view pointing out that testing and evaluation is an 
essential tool to assist in the development of weapon systems and 
ensure that they perform as intended. The Armed Services Committee has 
expressed concern that problems with weapons systems have been 
discovered during operational testing and evaluation that should have 
been discovered during developmental testing and corrected during 
subsequent development.
    Question. Do you believe that major defense acquisition programs 
are helped or hurt by cutting tests budgets and reducing the time 
available for developmental testing?
    Answer. Cutting test budgets and reducing DT can hurt programs; and 
more importantly, can place burden on our operational forces. Testing 
is an essential function that supports acquisition of enhanced military 
capabilities. Reductions in test budgets have the potential adverse 
impact that we do not discover critical design or production issues 
early in the lifecycle when it is least costly to take corrective 
actions. Robust developmental test and evaluation brings a mission 
focus early in the acquisition life cycle to understanding how the 
capability will be used, identifying and correcting problems, and 
thereby decreasing costs, enhancing performance, and retaining schedule 
for programs. Cutting test budgets and reducing test activities as a 
means to accelerate programs will likely have the opposite effect.
    Question. What steps if any will you take, if confirmed, to ensure 
that the program management community and the testing and evaluation 
community work collaboratively and effectively in a way that maximizes 
the likelihood that developmental testing and evaluation will detect 
and identify problems timely in software and hardware to provide 
opportunities to correct them before production and before operational 
testing and evaluation begins?
    Answer. If confirmed, my goal is the early discovery of 
deficiencies in programs through DT&E and to increase the probability 
of programs being found to be effective and suitable in Initial 
Operational Test and Evaluation (IOT&E). I will focus my efforts on 
ensuring that the program management community and the testing and 
evaluation community work collaboratively and effectively, and that 
DT&E has a clear voice within the acquisition process by providing 
independent risk based assessments of DT&E planning, resourcing, and 
execution.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD(A)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
               starting major weapons programs off right
    1. Senator McCain. Mrs. McFarland, the main focus of the Weapon 
Systems Acquisition Reform Act of 2009 (WSARA), which applies to new 
programs and seeks to have major defense acquisition programs start off 
right, requires that early investment decisions be informed by 
realistic cost estimates, sound systems engineering knowledge, and 
reliable technological risk assessments. The Department of Defense 
(DOD) has indeed started some new major programs since WSARA was 
enacted, or will do so in the near future. I would like to review a few 
of them with you. Please tell me what has been done to help ensure that 
they comply with these very important aspects of WSARA or how they are 
being structured now (or will be structured in the future) to minimize 
excessive cost-growth and schedule delays.

        <bullet> Ohio-class Ballistic-Missile Submarine Replacement 
        Program--SSBN(X)
        <bullet> Aerial Refueling Tanker Replacement Program--KC-46A
        <bullet> Presidential Helicopter Replacement Program--VXX
        <bullet> Long-Range Strike--LRS (formerly called Next-
        Generation Bomber--NGB)
        <bullet> Ground Combat Vehicle--GCV
        <bullet> Joint Tactical Radio System--JTRS, as restructured
        <bullet> Amphibious Combat Vehicle--ACV (the successor to the 
        cancelled Marine Corps program, Expeditionary Combat Vehicle--
        ECV)
        <bullet> Joint High-Speed Vessel (JHSV)

    Mrs. McFarland. Since WSARA was enacted, we have ensured all 
programs reviewed do comply with WSARA and that investment decisions 
are informed by realistic assessments of cost, engineering, and risk. 
The Director of Systems Engineering, the Director of Development Test 
and Evaluation, and the Director of Cost Analysis and Program 
Evaluation influence all new start programs. The Joint Capabilities 
Integration and Development System encompasses combatant commanders' 
inputs. Acquisition strategies address competition strategies and 
prototyping considerations.
    Much of the cost growth we have seen in major defense acquisition 
programs can be traced to poor program planning, a problem recognized 
in WSARA. To address affordability in performing the duties of ASD(A), 
I have ensured every program reviewed has a realistic cost goal 
consistent with what the Department can afford. I am working to instill 
a culture of cost consciousness through the acquisition workforce. If 
confirmed, I will continue to work aggressively on programs at risk of 
cost growth. I believe that we have also experienced program execution 
issues as a result of a loss of organic acquisition expertise within 
the Department, and similar deficiencies in industry. With the help of 
WSARA and the Defense Acquisition Workforce Development Fund, the 
Department is working to rebuild its organic acquisition expertise and 
is working with industry to encourage them to do the same. Quality 
matters as much or more than quantity, however, and I will also 
continue my efforts to strengthen the existing workforce.
    In response to your request that we address specific programs, I 
offer the following:
Ohio-class Ballistic-Missile Submarine Replacement Program-SSBN(X)
        <bullet> The program received MS A approval in January 2011 and 
        the ongoing development of the program is fully compliant with 
        WSARA and its underlying principles. The Navy is designing to 
        the minimum capability that will satisfy the projected 
        strategic requirement throughout the projected life of this new 
        ship class. At MS A, affordability targets were established for 
        average ship end cost (Hulls 2-12) of $4.9 billion and 
        Operation and Sustainment cost per hull of $110 million (in 
        CY$10, Navy shipbuilding indicies). The program has established 
        a dedicated Design for Affordability (DFA) group, consisting of 
        NAVSEA and Electric Boat representatives to promote, review, 
        and track DFA initiatives for Non-Recurring Engineering, 
        construction Operations and Sustainment.
Aerial Refueling Tanker Replacement Program-KC-46A
        <bullet> The Air Force has mitigated the greatest risk to the 
        taxpayer by structuring the competitive development contract 
        with both fixed price incentive (firm target) and firm fixed 
        price components. The KC-46 development contract has an overall 
        contract ceiling price of $4.9 billion. Boeing is fully 
        responsible for any cost growth beyond the $4.9 billion overall 
        contract ceiling price. For production, firm fixed-price 
        contract options are established for the first two low-rate 
        initial production lots. The remaining 11 full-rate production 
        options have not-to-exceed prices with equitable price 
        adjustments. The commercial-derivative nature of the KC-46 also 
        contributes to controlling cost growth by allowing the 
        Government to leverage commercial processes and parts pools. By 
        maintaining tight oversight of contract execution during 
        development and production, Boeing is incentivized to deliver 
        on its contract commitments and within schedule.
Presidential Helicopter Replacement Program-VXX
        <bullet> The Navy has conducted an extensive Analysis of 
        Alternatives under formal guidance from the Cost Assessment and 
        Program Evaluation (CAPE). Those activities have provided 
        extensive data regarding realistic cost estimates, 
        comprehensive systems engineering assessments, and 
        unprecedented insights into technical risks, ways to leverage 
        In-Service investments to reduce risk and minimize change for 
        the users and operators, and opportunities for in-house risk 
        reduction efforts that will result in aquisition of data rights 
        and key interfaces for the communications suite in order to 
        better control technology risk in the future. This extensive 
        analysis will lead to presentation of a program strategy for 
        the Presidential Helicopter Replacement Program that is 
        compliant with WSARA and structured to minimize cost growth and 
        schedule disruption.
Long-Range Strike-LRS
        <bullet> The program has incorporated cost estimation, systems 
        engineering, and technological risk guidance by CAPE, Offices 
        of the Director, Systems Engineering (SE) and Developmental 
        Test and Evaluation (DT&E). Any specific descriptions of how 
        the acquisition strategy has been influenced by WSARA are 
        classified.
Ground Combat Vehicle-GCV
        <bullet> GCV was certified at MS A on August 17, 2012. The 
        Defense Acquisition Board (DAB) fully considered the 
        requirements, resources, and schedule and established 
        affordability targets for the GCV Program in both the 
        investment and O&S phases of the Program. Additionally, I 
        directed a comprehensive three-prong strategy that builds 
        towards a fully informed Milestone B and Engineering and 
        Manufacturing Development Phase. This strategy will continue to 
        review the AOA's cost informed trades, evaluate potential Non-
        Developmental Items (including international sources), and 
        conclude a 24-month TD phase with two potential GCV candidates. 
        I am personally reviewing the technical risk and mitigation 
        plans. I do not intend to approve MS B for GCV until I am 
        satisfied the plan is executable and affordable.
Joint Tactical Radio System-JTRS
        <bullet> The Joint Tactical Radio System (JTRS) Joint Program 
        Executive Office (JPEO) continues to support WSRA objectives in 
        each of its programs. JTRS is a family of acquisition programs 
        established to provide software programmable, networking radios 
        for effective communication at the last tactical mile. On 
        October 14, 2011, I signed the JTRS Ground Mobile Radio (GMR) 
        Nunn-McCurdy Review Acquisition Decision Memorandum (ADM) based 
        on independent cost estimates from the Director of Cost 
        Assessment and Program Evaluation and the program was never 
        certified. Instead, I directed closeout of the current contract 
        and development of a modified Non Developmental Item (NDI) 
        approach to meet remaining requirements at lower costs. This 
        effort is being conducted under the auspices of the Army's Mid-
        Tier Networking Vehicular Radio (MNVR) Program. Handheld, 
        Manpack, & Small Form Fit (HMS) radios for the individual 
        solider received Milestone C approval in June 2011. The 
        Department is preparing for a full rate production decision for 
        the HMS handheld radios and is again using independent cost 
        estimates and testing data from Government developmental 
        testing (GDT), operational testing and evaluation (OT&E), and 
        participation in the Army's Network Integration Evaluation 
        (NIE) processes. For the manpack radios, the department is 
        drafting an acquisition strategy which will incorporate an 
        ``on-ramp'' process to encourage full and open competition at 
        various future points in the acquisition process to drive down 
        costs and improve performance. The Network Enterprise Domain 
        (NED) Program sustains the JTRS' software waveforms and 
        continues to conduct Technical Interchange Meetings (TIMs) with 
        vendors to reduce technical risk in new radio development with 
        the aim of driving down costs and improving performance.
Amphibious Combat Vehicle-ACV
        <bullet> In January 2011, the Marine Corps formalized a Systems 
        Engineering-Operational Performance Team SE-OPT (SE-OPT) 
        specifically to address affordability consistent with WSARA 
        principles. The SE-OPT culminated in December 2011, when I 
        authorized the Navy entry into the Materiel Solution Analysis 
        phase. I expect the ACV program to be a highly tailored 
        acquisition approach structured to provide the most cost-
        effective program, emphasizing engineering and design analysis 
        through the process and in support of the next DAB In-Process 
        Review. In addition, it will highlight the relationship between 
        life-cycle cost, schedule, and performance for each alternative 
        considered. I will document, as appropriate, Marine Corps/Navy 
        affordability targets that I expect to be included in the ACV 
        Request for Proposal to industry.
Joint High-Speed Vessel (JHSV)
        <bullet> The JHSV received MS B approval in November 2008, 
        prior to enactment of WSARA. However, the program is addressing 
        all applicable (i.e., post-MS B) WSARA principles. The JHSV 
        program was informed by prior high speed vessel experimentation 
        programs (e.g. Swift, Westpac Express) and is a modification to 
        a non developmental commercially derived high speed ferry 
        design, thus reducing developmental risk. Although the lead 
        ship has experienced cost and schedule growth, the 
        shipbuilder's performance on following JHSVs is improving. Due 
        to investment in a modular manufacturing facility which 
        supports efficient construction, and use of a fixed price 
        incentive contract, the follow on JHSVs are expected to deliver 
        as planned at or below target contract costs.

    2. Senator McCain. Mrs. McFarland, while the Joint Strike Fighter 
(JSF) is, of course, not a new start, it is critical that it be 
restructured to comply with WSARA's key requirements (on realistic cost 
estimates, sound systems engineering, and reliable risk assessments). 
In what sense has it been restructured along these lines?
    Mrs. McFarland. The Department fully supports the organizational 
and policy changes enacted in the Weapon System Acquisition Reform Act 
(WSARA) for all DOD acquisition programs, including the F-35 JSF. The 
Department's goals with respect to WSARA are the same for all 
acquisition programs: implement all of the applicable acquisition 
policy measures called out in WSARA and integrate WSARA organizational 
changes into the oversight of the program. The majority of the actions 
required to achieve these goals in the F-35 program have been 
completed. While some near-term actions remain, continued and regular 
interactions between the F-35 program office and the WSARA-formed 
organizations will occur for the life of the program to achieve the 
goal.
    Subsequent to the passage of WSARA in May 2009, the F-35 program 
was the subject of numerous reviews, culminating in a Nunn-McCurdy 
critical cost breach certification review that was guided by the 
acquisition reform principles founded in WSARA. The cost and schedule 
assessment reviews were led by the WSARA-formed Office of the Director, 
CAPE. The Nunn-McCurdy review and certification of the F-35 program was 
guided by process improvements institutionalized in WSARA, to include 
the participation and assessments of the Office of PARCA, and the 
Offices of the Director, SE and DT&E. Additionally, the F-35 program 
has instituted a renewed emphasis on sound systems engineering 
principles, realistic cost and schedule estimating, a re-energized 
focus on integrated test and evaluation, and implementation of tighter 
cost control measures; all of which can be traced directly to WSARA 
principles. Following the Nunn-McCurdy certification, and statutorily-
directed rescission of Milestone (MS) B, the F-35 program conducted a 
bottoms-up Technical Baseline Review to determine a realistic cost, 
schedule, and risk basis for completing the developmental phase of the 
program, which the Offices of the Director, SE and DT&E participated 
in. These organizational and policy changes in WSARA were instrumental 
in the completion of the thorough review of the F-35 program that 
resulted in Nunn-McCurdy certification on June 2, 2010.
    WSARA-implemented organizational changes were leveraged in the 
November 2011 F-35 Concurrency Quick Look Review (QLR), commissioned by 
the Acting Under Secretary of Defense (AUSD) for Acquisition, 
Technology, and Logistics (AT&L). This review was led by PARCA, SE and 
DT&E, and found the overall F-35 design to be sound. However, there is 
significant risk remaining in the F-35 program. Resolving key technical 
issues is important to address concerns about the F-35's operational 
capabilities and to have confidence in the design so that production 
rates can be increased. The Department used the result of the QLR to 
inform the fiscal year 2013 Future Years Defense Program, which holds 
U.S. production at 29 aircraft per year through 2014 to permit 
additional progress on the test program before increasing production 
and reduce concurrency risk.
    The WSARA amendments to section 2366b of title 10, U.S.C., directly 
influenced F-35 program planning, documentation and execution that led 
to the AUSD(AT&L) approval of a new MS B in March 2012. Two DAB reviews 
of the F-35 program were conducted in January and February 2012 with 
full involvement of CAPE, PARCA, SE and DT&E. Per WSARA, CAPE cost 
estimators worked closely with the program office as they developed the 
Independent Cost Estimate and reviewed the program office estimates. 
This culminated in concurrence from the Director, CAPE, with the 
AUSD(AT&L) choice of cost estimate for the program. PARCA has completed 
three semi-annual performance assessments of the F-35 program since 
2010. In accordance with WSARA, these assessments will occur semi-
annually until at least March 2013; the next assessment is planned for 
July 2012.
    The F-35 Acquisition Strategy dated March 2012 includes plans for 
competitive subsystem contracting for follow-on development, 
procurement, and sustainment. Competitive acquisition of future F-35 
and F-35 subsystem configurations, as well as sustainment support, will 
be considered beginning with Low Rate Initial Production Lot 7 in 
fiscal year 2013. Activities supporting this strategy are associated 
with each contract action and, as such, will continue through the life 
of the program. All such efforts will be evaluated to ensure they meet 
the best interests of the F-35 program and are consistent with statute, 
policy and international agreements. Additionally, the F-35 program 
will not require the contractors to submit a make-or-buy plan since 
they are responsible for managing contract performance, including 
planning, placing and administering subcontracts as necessary to ensure 
the best value to the Government.
    The remaining actions to fulfill the overall goal involve continual 
interaction between the WSARA-instituted organizations and the F-35 
program office. To that end, the Department is planning an F-35 DAB 
review in September 2012, with annual reviews to follow. Additionally, 
CAPE will continue to work with the Services and the F-35 program 
office to identify and quantify opportunities to reduce operating and 
support costs for the program's life cycle.

                         excessive concurrency
    3. Senator McCain. Mrs. McFarland, a big problem with how DOD buys 
major systems is this: it has tended to go all in on these procurement 
programs without understanding enough about their technical or systems 
engineering to assess whether developing them may have too much risk. 
So, these programs struggle endlessly in development--where costs grow 
and schedules slip--without needed combat capability delivered. Far too 
often, DOD has tried to execute such programs under cost-plus 
contracts. In my view, this has been an utter disaster. Do you agree? 
If so, how would you address it?
    Mrs. McFarland. If confirmed, I will work to ensure that balance is 
properly struck between the risk associated with the development phase, 
the urgency of the need, and the likely impact on cost and schedule of 
any related risk. I consider the department historically ``optimistic'' 
in assessing risk and with focus on assessment of risks in determining 
if the program's content and schedule is too aggressive. I will ensure 
that appropriate tools such as the Configuration Steering Board are 
used to assess the risk/benefit of any given degree concurrent 
development and production to insure that major weapons systems 
programs clearly articulate the framing assumptions underlying 
concurrency risks, to track progress against these assumptions and the 
resulting concurrency effects, and I will require programs to reassess 
levels of concurrent development and production planned as necessary if 
these underlying assumptions change. If confirmed, I will also engage 
the prime contractors in deliberate sharing/allocation of this risk as 
they propose the schedule and costs for the capability.

    4. Senator McCain. Mrs. McFarland, if confirmed, what overall 
approach would you take to ensure that programs with too much 
concurrency are never started?
    Mrs. McFarland. Assessment of the risk/benefit of any given degree 
of concurrent development and production must ensure that major weapons 
systems programs clearly articulate the framing assumptions underlying 
concurrency risks to identify clear and measureable steps to mitigate 
them, and to track progress against these assumptions. If confirmed, I 
will require programs to reassess levels of concurrent development and 
production planned as necessary if the underlying metrics indicate 
issues are not getting resolved, and also require a modular, open 
system design architecture to reduce risk and costs, and allow for 
program flexibility.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown
             acquisition and deployment of defense systems
    5. Senator Brown. Mrs. McFarland, does the acquisition and 
deployment of area defense systems remain important to U.S. defense 
strategy, especially in regions where our potential adversaries possess 
significant armored or maritime forces?
    Mrs. McFarland. Yes, area defense is a key element of U.S. defense 
strategy. The Department assesses current capabilities against 
adversary threats to determine capability gaps and prioritize 
requirements and what new capabilities need to be acquired.

                          sensor-fuzed weapon
    6. Senator Brown. Mrs. McFarland, if international advocacy groups 
are successful in breaking the supply chain for the Sensor-Fuzed 
Weapon, what are the materiel, cost, and humanitarian implications for 
U.S. contingency planning and warfighting strategy in the Korean 
Peninsula and Persian Gulf regions?
    Mrs. McFarland. Currently, the Department considers the programmed 
inventory of Sensor-Fuzed Weapons as sufficient to support the 
Department's requirements. We are concerned about the supply chain for 
these munitions and our ability to fulfill our inventory objectives 
should international advocacy groups prevail in disrupting supply in 
the future, but the Department has not fully assessed the implications.

    7. Senator Brown. Mrs. McFarland, what would the implications be 
for U.S. allies that have current, pending, and prospective Foreign 
Military Sales agreements with our Government?
    Mrs. McFarland. The Department has not identified any potential 
alternatives for U.S. allies should the U.S. industry be unable to 
produce the Sensor-Fuzed Weapon.

    8. Senator Brown. Mrs. McFarland, is DOD equipped to counter such 
campaigns, whether it is the current one against the Sensor-Fuzed 
Weapon or a looming one against armed drones? If so, how is DOD doing 
this?
    Mrs. McFarland. Protecting the U.S. defense industrial base and 
national security interests requires DOD to collaborate effectively 
with other executive branch agencies and Congress. We must ensure that 
we thoroughly understand potential risks and communicate those risks to 
our industry partners. We will work closely with our industry partners 
to preserve domestic industrial capabilities.

    9. Senator Brown. Mrs. McFarland, many of DOD's current inventories 
of weapons do not meet the DOD policy of less than 1 percent unexploded 
ordnance. Since the policy states that non-compliant weapons will not 
be employed after 2018, please explain DOD's plans and programs (to 
include budget lines and funding profiles) to replace or upgrade these 
weapons.
    Mrs. McFarland. The Guided Multiple Launch Rocket System (GMLRS) 
Alternative Warhead (AW) is a precision guided, area suppression weapon 
system with a required maximum range of 70KM. GMLRS AW will replace the 
existing inventory of M26/M26AI/M26A2 dual-purpose, improved 
conventional munition (DPICM) rockets with a DOD Cluster Munition 
policy-compliant system. GMLRS AW will complete development in 2015 
with an initial operational capability (IOC) of 324 GMLRS AW rockets 
scheduled for early 2017. The GMLRS AW is fully funded with $159.6 
million programmed for development. AW will be integrated into the 
GMLRS rocket production line in 2016 with a remaining $1.35 billion 
programmed for procurement through 2022 in order to achieve a GMLRS 
Army Procurement Objective (APO) of 43,560 rockets.
    A policy-compliant cannon DPICM replacement for M483 and M864 155mm 
DPICM projectiles and the M39 Army Tactical Missile System (ATACMS) 
Anti-Personnel Anti-Material (APAM) missiles is being evaluated. The 
intent is to afford potential technology reuse from OMLRS AW for 
application to a 155mm cannon DPICM and ATACMS APAM replacement.
    In addition, the Joint Standoff Weapon (JSOW) program is examining 
a possible JSOW-A modification plan and cost estimate to replace the 
non-compliant JSOW-A submunitions (BLU-97) weapon with an alternate 
warhead (BLU-1 11), while retaining JSOW's area effect capabilities 
after 2018.

    10. Senator Brown. Mrs. McFarland, can you reaffirm the U.S. 
position that the BLU-108 is the submunition of the Sensor-Fuzed 
Weapon, because it is a conventional munition released by a cluster 
munition and functions by detonating an explosive charge before impact?
    Mrs. McFarland. Yes. The Department views the BLU-108 as the 
Sensor-Fuzed Weapon submunition.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                 cost-plus versus fixed-price contracts
    11. Senator Ayotte. Mrs. McFarland, I believe we should minimize 
using cost-plus contracts to procure major weapons systems. In most 
cases, by the time DOD is ready to produce major systems at a low rate, 
enough development risk should have been burned off that contractors 
should be ready to sign a fixed-price contract. Otherwise, cost-plus 
contracts should be used for only those pieces where significant risk 
is left over. This is the thrust of the amendment on cost-plus 
contracting I offered with Senator McCain last year in connection with 
the National Defense Authorization Act (NDAA) for Fiscal Year 2012. 
What is your view of this issue?
    Mrs. McFarland. Generally, I agree we should minimize the use of 
cost-plus arrangements under our production contracts for major weapon 
systems. Once we have completed low rate initial production, most of 
the Department's contracts for major weapon systems should be fixed 
priced. I believe there are circumstances however where we cannot 
adequately reduce the risk in the low rate initial production phase and 
therefore a form of cost reimbursable contract may be appropriate. Such 
would be the case in support of an operational urgency (addressed as an 
exception in one version of the amendment you offered in connection 
with the NDAA for Fiscal Year 2012). Another circumstance that might 
warrant use of a cost-type contract would be where we require the 
contractor to deliver a production unit as a risk reduction measure to 
assess technical feasibility. In general though, I am inclined to use 
firm fixed-price contracts for low rate initial production and 
production phases when the risk is low, production processes are 
mature, and the costs are known. The Department would likely use fixed-
price incentive contracts when there is more risk and less of an 
understanding about production processes and costs.

    12. Senator Ayotte. Mrs. McFarland, do you support the floor 
amendment Senator McCain and I offered last year, S.A. 1249?
    Mrs. McFarland. One of the important elements of the Better Buying 
Power initiative has been our emphasis on increasing the use of fixed 
price type contracts, where appropriate. In particular, the Department 
is more frequently using fixed-price contracting for the early stages 
of production. However, since each program has unique features that 
dictate the degree of risk involved, I believe it is important the 
Department retain the flexibility to use the appropriate contract type 
for a given contract. For example, I believe there are occasions where 
it is appropriate to use cost-type contracts for low rate initial 
production, or for incremental improvements after a program has entered 
into the production phase. Therefore, I am not inclined to support a 
provision that would broadly preclude cost-type contracts for the 
production of major defense acquisition programs (MDAP). If confirmed, 
I am committed to working with the committee on this issue.
                                 ______
                                 
              Question Submitted by Senator Lyndsey Graham
                   cyber and intelligence acquisition
    13. Senator Graham. Mrs. McFarland, how would you approach the 
acquisition process for rapidly changing technologies, such as cyber 
and command, control, communications, computers, intelligence, 
surveillance and reconnaissance (C4ISR), versus those that remain 
relatively constant and mature over long periods of time such as 
airplanes, ships, and automotive land vehicles?
    Mrs. McFarland. Command, control, and communications and cyber are 
among the Department's fastest growing acquisition and technology 
areas. Due to the complex and potentially crippling nature of cyber 
attacks, requirements and technology are evolving at a very rapid rate. 
There are unique characteristics associated with the efficient and 
effective acquisition of cyber and C4ISR capabilities. In order to 
maximize the operational benefit of the rapidly changing technologies 
associated with these types of programs, the Department must use 
different approaches in place of the established model normally used 
for acquiring weapon systems. To keep pace with technology, C4ISR 
programs must use an iterative, incremental, and time-limited approach 
that will put capability into the hands of the user quickly.
    This more rapid approach must be based on well defined increments 
of capability that are developed, tested, and often fielded in 
increments structured around 1 to 2 year software builds. The 
capability should be delivered in partial deployments, with each 
deployment providing an operationally useful capability. The Department 
intends to incorporate this approach as one of the acquisition 
approaches covered by the new DOD Instruction 5000.02 which is 
currently in staffing.
    Regarding Cyber technologies, on March 22, the Department also 
submitted a report to Congress pursuant to section 933 of 2011 NDAA 
which articulated a new strategy for acquiring cyberspace warfare 
capabilities. The new cyber framework allows for alternative 
acquisition processes, identified as ``rapid'' and ``deliberate.'' 
These processes will be tailored to the complexity, cost, urgency of 
need and fielding timelines associated with the cyber warfare 
capability being acquired. As cost increases and operational immediacy 
and the tolerance for risk decreases, enterprise-level discipline 
factors increase. These new processes for rapidly acquiring cyber 
warfare capabilities will be piloted in the coming months and then 
implemented throughout the Department as formal acquisition policy.
                                 ______
                                 
    [The nomination reference of Mrs. Katharina G. McFarland 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 February 13, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Katharina G. McFarland, of Virginia, to be an Assistant Secretary 
of Defense (New Position).
                                 ______
                                 
    [The biographical sketch of Mrs. Katharina G. McFarland, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
             Biographical Sketch of Katharina G. McFarland
Education:
    Rochester University, Life Sciences

        <bullet> September 1977-December 1980
        <bullet> Transferred to Queens University

    Queens University, Engineering Department

        <bullet> January 1981-March 1985
        <bullet> Bachelor of Science Degree awarded May 1985
        <bullet> Professional Engineer License conferred May 1985

    Professional Program Management Institute

        <bullet> Program Management Professional certificate conferred 
        October 2004
Employment Record:
    Performing the Duties of Assistant Secretary of Defense 
(Acquisition)

        <bullet> October 2011-present

    Defense Acquisition University

        <bullet> President
        <bullet> January 2011-present

    Missile Defense Agency

        <bullet> Director of Acquisition
        <bullet> May 2006-January 2011

    Marine Corps Systems Command

        <bullet> Product Group Director, Battle Management and Air 
        Defense Systems
        <bullet> October 2001-May 2006
        <bullet> Program Manager, Acquisition Center of Excellence
        <bullet> September 1998-October 2001
        <bullet> Program Manager, Theater Missile Defense
        <bullet> October 1991-September 1998

    Department of National Defense, Ottawa, Ontario

        <bullet> Procurement Head of Electronics
        <bullet> October 1990-October 1991

    Headquarters, Marine Corps

        <bullet> General Engineer
        <bullet> November 1986-September 1990
Honors and Awards:
    Secretary of Defense Meritorious Civilian Service (2011)
    Secretary of Defense Exceptional Civilian Service Award (2011)
    Presidential Rank Meritorious Civilian Service (2011)
    Outstanding Civilian Performance (1991-2006)
    Civilian Meritorious Service Medal, U.S. Navy/Marine Corps (2001)
    Navy Civilian Tester of the Year (1998)
    Government Computing News Excellence Award (2000)
    Unit Meritorious Service Medal
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Mrs. Katharina 
G. McFarland in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Katharina Ginger McFarland.
    Maiden name: Wahl; Prior Married Surname: Brant; Nickname: Katrina.

    2. Position to which nominated:
    Assistant Secretary of Defense (Acquisition).

    3. Date of nomination:
    February 13, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    Watertown, NY; June 14, 1959.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ronnell Reed McFarland.

    7. Names and ages of children:
    Son: Jacob John Brant, 18.
    Stepson: Andrew McFarland, 31.
    Stepson: Austin McFarland, 23.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Rochester, School of Life Sciences, 1977-1980, no 
degree conferred
    Queens University, Kingston, Ontario, Canada: Bachelor of Science, 
Engineering, Professional Engineer, May 25, 1985, attended 1980-1985
    Professional Program Management Institute Graduate, Oct. 1, 2004

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Oct. 2011 to present: Performing the duties of the Assistant 
Secretary of Defense for Acquisition
    Jan. 2011 to present: President, Defense Acquisition University
    May 2006 to Jan. 2011: Director of Acquisition, Missile Defense 
Agency
    Oct. 2001 to May 2006: Product Group Director, Marine Corps Systems 
Command, Quantico VA

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    I am the ``Domestic Partner'' (limited partner) of a family Limited 
Liability Corporation (holds French Creek Marina Property) in Clayton, 
NY. Wilbert C. Wahl, Jr. is the owner and my father.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Marine Corps Aviation Association, 1991
    Program Management Institute, 2001
    Defense Acquisition University Alumni Association, 2010

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Outstanding Civilian Performance (Every year from 1991 thru 2006)
    Civilian Meritorious Service medal, U.S. Navy/Marine Corps . . . 
2001
    Secretary of Defense Meritorious Civilian Service . . . 2011
    Presidential Rank Meritorious Civilian Service . . . 2010
    Secretary of Defense Exceptional Civilian Service Award . . . 2011
    Navy Civilian Tester of the Year . . . 1998
    Government Computing News Excellence Award . . . 2000
    (I have received awards as DAU President, but they are for the 
entire University, not just me)
    Unit Meritorious Service Medal (Several years)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    U.S. Marine Corps Theatre Missile Defense Models and Simulations 
(American Society of Computer Simulation, Journal of Models and Sims, 
2004 volume) Co-author with Alex Brofos, 1999
    AT&L magazine ``Better Buying Power'', May 2011
    Military Operations Research Society, ``Common Command and 
Control'', 1992
    International Aeronautical Engineering Societies, Proceedings on 
Interoperability, 1993

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Testimony before the U.S. House of Representatives Committee on 
Oversight and Government Reform, Subcommittee on Technology, 
Information Policy, Intergovernmental Relations, and Procurement 
Reform, ``On the Frontlines in the Acquisition Workforce's Battle 
Against Taxpayer Waste,'' November 16, 2011.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                            Katharina G. McFarland.
    This 9th day of March, 2012.

    [The nomination of Mrs. Katharina G. McFarland was reported 
to the Senate by Chairman Levin on May 23, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 24, 2012.]
                              ----------                              

    [Prepared questions submitted to Ms. Heidi Shyu by Chairman 
Levin prior to the hearing with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. This milestone legislation is now more than 20 years old 
and has served our Nation well. I believe that the framework 
established by Goldwater-Nichols has significantly improved 
interservice and joint relationships and promoted the effective 
execution of responsibilities. It is appropriate for the Department, 
working with Congress, to continually assess the law in light of 
improving capabilities, evolving threats, and changing organizational 
dynamics. Although I am currently unaware of any reason to amend 
Goldwater-Nichols, if confirmed, I hope to have an opportunity to 
assess whether the challenges posed by today's security environment 
require amendments to the legislation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. As noted above, I have no specific proposals to modify 
Goldwater-Nichols. As with any legislation of this magnitude, however, 
I believe it may be appropriate to review past experience with the 
legislation with a view toward identifying any areas in which it can be 
improved upon, if any, and then consider with Congress whether the act 
should be revised.
    Question. Do you see the need for any change in the roles of the 
civilian and military leadership of the Department of the Army 
regarding the requirements definition, resource allocation, and 
acquisition processes?
    Answer. I have no specific proposals regarding the roles and 
assigned missions at this time. If confirmed, I welcome the opportunity 
to review roles of the civilian and military participants in these 
processes, as appropriate, with a view toward identifying areas that 
can be improved upon.
    Question. What do you believe should be the appropriate role of the 
Service Chiefs in the requirements, acquisition, and resource-
allocation process?
    Answer. Section 861 of the Ike Skelton National Defense 
Authorization Act for Fiscal Year 2011 formally recognized the 
important role of the Service Chiefs in specified acquisition-related 
functions of the Military Departments, including the development of 
requirements relating to the defense acquisition system and the 
coordination of measures to control requirements creep. In addition, 
the Service Chiefs' collaboration in the resource allocation process is 
very important.
    Question. What do you believe should be the appropriate role of the 
combatant commanders in the requirements, acquisition, and resource-
allocation processes?
    Answer. In my view, the existing warfighting responsibilities of 
combatant commanders and their role as described in the Defense 
Department Reorganization Act of 1986 is appropriate. I support 
language in the Weapon Systems Acquisition Reform Act mandating that 
the input of combatant commanders be considered in the development of 
joint requirements.
    Question. Do you see the need for any changes in the structure or 
operations of the Joint Requirements Oversight Council (JROC)?
    Answer. Based upon my experience as the Principal Deputy, I see no 
current basis for recommending changes to the structure or operations 
of the JROC. I fully support provisions in the Weapon Systems 
Acquisition Reform Act mandating consideration of cost, schedule, and 
performance tradeoffs by the JROC in establishing warfighter 
requirements.
                                 duties
    Question. Section 3016(b)(5)(A) of title 10, U.S.C., states that 
the principal duties of the Assistant Secretary of the Army for 
Acquisition, Logistics, and Technology (ASA(ALT)) shall be the overall 
supervision of acquisition, technology, and logistics matters of the 
Department of the Army.
    What is your understanding of the duties and functions of the 
ASA(ALT)?
    Answer. The ASA(ALT) is one of five Assistant Secretaries of the 
Army. The principal duty of the ASA(ALT) is the overall supervision of 
acquisition, logistics, and technology matters within the Department of 
the Army. The ASA(ALT) serves, when delegated, as the Army Acquisition 
Executive and the Army's Senior Procurement Executive, and also as the 
Science Advisor to the Secretary and the senior research and 
development official for the Department of the Army. The ASA(ALT) 
appoints, manages, and evaluates Program Executive Officers and direct-
reporting program managers, while also managing the Army Acquisition 
Corps and the Army Acquisition Workforce. The ASA(ALT) executes the DA 
procurement and contracting functions, including exercising the 
authorities of the agency head for contracting, procurement, and 
acquisition matters pursuant to laws and regulations, the delegation of 
contracting authority; and the designation of contracting activities. 
He or she is responsible for setting the strategic direction and 
ensuring execution of policies, plans and programs relating to Army 
acquisition, logistics, technology, procurement, the industrial base, 
materiel-related security cooperation (including security assistance 
and armaments cooperation) and the Army's responsibilities within the 
Department of Defense (DOD) Chemical Demilitarization program.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the ASA(ALT), as set forth in section 
3016(b)(5)(A) of title 10, U.S.C., or in DOD regulations pertaining to 
functions of the ASA(ALT)?
    Answer. I have no specific recommendations at this time. If 
confirmed, however, I look forward to the opportunity to serve in the 
position before recommending any potential changes in the duties and 
functions of the ASA(ALT).
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. As the Principal Deputy Assistant Secretary of the Army 
(Acquisition, Logistics and Technology), I have first-hand experience 
in assisting in the oversight and supervision of Army acquisition 
programs, procurement, logistics, sustainment and scientific and 
technology initiatives within the Army.
    Prior to serving in the Department of the Army, I developed a wide-
range of expertise in the development of defense weapon systems. Most 
recently, I worked as the Vice President of Technology Strategy for 
Space and Airborne Systems at Raytheon. In this capacity, I developed 
technology strategy for a variety of sensors and systems. Previously, I 
held several senior leadership positions at Raytheon, including 
Corporate Vice President of Technology and Research, Vice President and 
Technical Director of Space and Airborne Systems, Vice President of 
Unmanned and Reconnaissance Systems, Senior Director of Unmanned Combat 
Vehicles, Senior Director of Raytheon's Joint Strike Fighter (JSF) 
efforts, and Director of JSF Integrated Radar/Electronic Warfare 
Sensors. As Director of JSF Antenna Technologies at Raytheon, I was 
responsible for the development of lightweight, low-cost, Tile Active 
Electronically Scanned Antenna technologies. I also served as the 
Laboratory Manager for Electromagnetic Systems at Raytheon.
    In addition, I have worked as a Project Manager at Litton 
Industries and was the Principal Engineer for the Joint STARS Self 
Defense Study at Grumman. Previously, I began my career as an engineer 
at the Hughes Aircraft Company.
    From 2000 to 2010, I served as a member of the Air Force Scientific 
Advisory Board, including tenure as Vice Chairman from 2003 to 2005 and 
as Chairman from 2005 to 2008.
    I hold a Bachelor of Science Degree in Mathematics from the 
University of New Brunswick in Canada, a Master of Science Degree in 
Mathematics from the University of Toronto, Master of Science Degree in 
System Science (Electrical Engineering) from the University of 
California, Los Angeles (UCLA), and the Engineer Degree from UCLA. I am 
also a graduate of the UCLA Executive Management Course and the 
University of Chicago Business Leadership Program. These combined 
experiences and responsibilities have prepared me to serve in the 
position, if confirmed.
    Question. What background or experience do you have in the 
acquisition of major weapon systems?
    Answer. As the Principal Deputy Assistant Secretary of the Army 
(Acquisition, Logistics, and Technology), I assisted efforts to oversee 
the acquisition of weapon systems, equipment and services for the U.S. 
Army.
    I have worked as the Vice President of Technology Strategy for 
Space and Airborne Systems at Raytheon, developing the technology 
strategy for a variety of sensor and radar development programs. 
Previously, I held several senior leadership positions at Raytheon, 
including Vice President of Technology and Research, Vice President and 
Technical Director of Space and Airborne Systems, Vice President of 
Unmanned and Reconnaissance Systems, Senior Director of Unmanned Combat 
Vehicles, Senior Director of JSF, and Director of JSF Integrated Radar/
Electronic Warfare Sensors. As Director of JSF Antenna Technologies at 
Raytheon, I was responsible for the development of lightweight, low-
cost, Tile Active Electronically Scanned Antenna technologies. I also 
served as the Laboratory Manager for Electromagnetic Systems at 
Raytheon. I have worked on numerous major weapons systems during my 
career such as F/A-18, F-15, JSF, U-2, and Global Hawk.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense and the Secretary of the Army 
would prescribe for you?
    Answer. If confirmed, I would expect that I would be held 
accountable for the Army's acquisition, logistics and technology 
efforts.
                             relationships
    Question. In carrying out your duties, what would be your 
relationship with:
    The Secretary of the Army.
    Answer. If confirmed, I will support the Secretary of Army's 
priorities in acquisition, logistics and technology.
    Question. The Under Secretary of the Army.
    Answer. If confirmed, I will support the Under Secretary of the 
Army, both in his role as the Under Secretary and in his role as Chief 
Management Officer.
    Question. The Chief of Staff of the Army.
    Answer. If confirmed, I will work with the Chief of Staff of the 
Army to ensure that our soldiers receive world class equipment and 
support to perform their missions within available resources.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed, I will work with the USD(AT&L) in connection 
with Army acquisition, logistics and technology programs, and I will 
support the USD(AT&L) in the discharge of his responsibility to 
supervise DOD acquisition. I assume that my duties as Army Acquisition 
Executive will bring me into close working contact with the USD(AT&L), 
and I am confident that our collaboration will be very beneficial for 
the Army and DOD.
    Question. The Director of Cost Assessment and Program Evaluation.
    Answer. If confirmed, I will work with the Director of Cost 
Assessment and Program Evaluation in support of efforts to provide the 
Department with independent analysis and resourcing assessments for 
weapons systems programs.
    Question. The Director of Operational Test and Evaluation.
    Answer. If confirmed, I will work with the Director of Operational 
Test and Evaluation to ensure appropriate operational testing oversight 
for Army acquisition programs.
    Question. The Director of Defense Pricing.
    Answer. If confirmed, I will work with the Director of Defense 
Pricing to ensure implementation of effective, best-value procurement 
strategies in Army acquisition programs.
    Question. The Director of Procurement and Acquisition Policy.
    Answer. If confirmed, I will work with the Director of Procurement 
and Acquisition Policy to ensure appropriate oversight for Army 
acquisition programs, procurement and contracting.
    Question. The Director of Program Assessment and Root Cause 
Analysis.
    Answer. If confirmed, I will work with the Director of Program 
Assessment and Root Cause Analysis to ensure proper oversight of Army 
Major Defense Acquisition Programs (MDAPs) and compliance with 
applicable statutory reporting requirements.
    Question. The Assistant Secretary of Defense for Research and 
Engineering.
    Answer. If confirmed, I will work with the Assistant Secretary of 
Defense for Research and Engineering to rapidly field technologies and 
capabilities in support of ongoing operations and to ensure the Army 
and the Nation maintain a strong technical and engineering foundation 
to reduce the cost, acquisition time, and risk of our major defense 
acquisition programs.
    Question. The Deputy Assistant Secretary for Systems Engineering.
    Answer. If confirmed, I will rely on the expertise and advice of 
the Deputy Assistant Secretary for Systems Engineering and encourage 
his early involvement in support of Army acquisition programs. 
Moreover, if confirmed, I would consider the Deputy Assistant 
Secretary's independent assessments and recommendations in decisions 
relating to Major Defense Acquisition Programs.
    Question. The Deputy Assistant Secretary for Developmental Test and 
Evaluation.
    Answer. If confirmed, I will work with the Deputy Assistant 
Secretary for Developmental Test and Evaluation on oversight of 
developmental testing and evaluation activities within Army acquisition 
programs.
    Question. The Joint Requirements Oversight Council.
    Answer. If confirmed, I will work with the JROC in support of its 
missions related to the development and prioritization of joint 
military requirements.
    Question. The Service Acquisition Executives of the other Military 
Departments.
    Answer. If confirmed, I will collaborate with the other Service 
Acquisition Executives to share information regarding relevant 
acquisition programs, to seek opportunities to improve acquisition 
processes, and to support the policies and practices of the Department.
    Question. The Commander of the Defense Contract Management Command.
    Answer. If confirmed, I will work with the Director of the Defense 
Contract Management Agency to ensure effective administration of Army 
contracts.
    Question. The General Counsel of the Army.
    Answer. If confirmed, I will work with the Army General Counsel to 
ensure all actions within the Office of the ASA(ALT) comport with law, 
regulation and policy.
    Question. The Auditor General of the Army.
    Answer. If confirmed, I will work with the Auditor General of the 
Army in connection with Army acquisition, logistics and technology 
programs.
    Question. The Principal Military Deputy to the Assistant Secretary 
of the Army for Acquisition, Technology, and Logistics.
    Answer. If confirmed, I will work with the Principal Military 
Deputy to the Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology to ensure that appropriate oversight and 
direction is provided to the Army acquisition workforce and Army 
acquisition programs, policies, procedures, and contracting efforts.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the ASA(ALT)?
    Answer. I believe the principal challenges facing the ASA(ALT) 
consist of equipping the Army through reset and modernization efforts 
at a time of declining budgetary resources.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work closely with senior Department of 
the Army officials, as well as the Office of the Secretary of Defense, 
to address these challenges and meet the acquisition priorities of the 
Secretary of the Army. Meeting these challenges will require close and 
continuous collaboration between organizations responsible for 
requirements generation, programming and budgeting, and acquisition 
program management to ensure the delivery of affordable, timely, and 
effective equipment to the Army. I would maintain emphasis on enhancing 
the acquisition workforce and on adopting sound business practices to 
ensure that the Army achieves the maximum benefit from its scarce 
fiscal resources.
    Question. What do you consider to be the most serious problems in 
the management of acquisition functions in the Army?
    Answer. I believe that uncertainty regarding the extent of the 
current decline in Army budgets presents a significant challenge in 
planning and executing current and future planned investments in weapon 
systems and equipment.
    Question.What management actions and timetables would you establish 
to address these problems?
    Answer. If confirmed, I will rapidly work with Army leadership to 
carefully plan and execute modernization and equipping efforts that 
meet warfighter needs on an affordable, timely, and effective basis.
                    major weapon system acquisition
    Question. Do you believe that the Army's current investment budget 
for major systems is affordable given historic cost growth in major 
systems, costs of current operations, projected increases in end 
strength, and asset recapitalization?
    Answer. I believe that current investments in major weapon systems 
are affordable and the Army has recently undertaken significant efforts 
to avert the leading causes of cost growth in past major programs. 
Moreover, the Army has carefully balanced competing demands for 
declining resources, to include support for ongoing operations, asset 
recapitalization, and support for soldiers in the current budget 
submission.
    Question. If confirmed, how do you plan to address this issue?
    Answer. If confirmed, I would work to develop and execute sound and 
affordable acquisition strategies in close collaboration with the 
requirements and resourcing organizations within the Army to ensure 
that cost growth is prevented to the fullest extent possible. Moreover, 
I would work with the Army leadership to ensure that the Army's 
investment in major weapons systems programs remains sustainable.
    Question. What would be the impact of a decision by the Army to 
reduce purchases of major systems because of affordability issues?
    Answer. In addition to the possible impacts on and fielding 
schedules for equipment in support of the warfighter, a reduction in 
the manner described above may result in an increase in the unit price 
of capabilities, thereby impacting planned acquisition strategies. Such 
increases in unit cost may also result in cost breaches under the Nunn-
McCurdy legislation. Lastly, such reductions may have adverse effects 
on the key industrial base suppliers.
    Question. Nearly half of DOD's major defense acquisition programs 
have exceeded the so-called Nunn-McCurdy cost growth standards 
established in section 2433 of title 10, U.S.C., to identify seriously 
troubled programs. Section 206 of the Weapon Systems Acquisition Reform 
Act of 2009 (WSARA) tightened the standards for addressing such 
programs.
    What steps if any would you take, if confirmed, to address out-of-
control cost growth on the Army's major defense acquisition programs?
    Answer. It is my understanding that cost growth in many Army 
programs resulted from the instability of requirements, combined with a 
reliance on immature technologies, which contributed to a high degree 
of risk in associated cost growth. If confirmed, I would place an 
emphasis on acquisition strategies that anticipate and mitigate the 
causes for such risk in major defense acquisition programs. Moreover, I 
would work closely with the organizations responsible for requirements 
generation to ensure that cost informed trade-offs in system 
requirements are fully explored to reduce risk and ensure that programs 
remain affordable.
    Question. What steps if any do you believe that the Army should 
consider taking in the case of major defense acquisition programs that 
exceed the critical cost growth thresholds established in the Nunn-
McCurdy provision?
    Answer. If confirmed, I will monitor program cost to minimize Nunn-
McCurdy breaches. Where a program experiences a ``critical'' Nunn-
McCurdy breach, I would insist on strict compliance with all statutory 
and regulatory requirements associated with the Nunn-McCurdy reporting 
process. In programs involving critical breaches traced to root causes 
other than planned reductions in procurement quantities, I would insist 
on fully understanding, addressing, and preventing the specific causes 
of cost growth in future programs.
    Question. Do you believe that the office of the ASA(ALT), as 
currently structured, has the organization and resources necessary to 
effectively oversee the management of these major defense acquisition 
programs? If not, how would you address this problem?
    Answer. I believe that the Army acquisition community is 
appropriately structured and resourced. If I am confirmed, I intend to 
conduct an assessment to ensure that the Office of the ASA(ALT) is 
structured and adequately resourced to effectively oversee the 
management of Army acquisition, logistics, and technology efforts in 
the future.
    Question. Do you see the need for any changes to the Nunn-McCurdy 
provision, as revised by section 206?
    Answer. I am aware that section 831 of the National Defense 
Authorization Act for Fiscal Year 2012 provided some additional 
flexibility in this area. At the present time I do not see a need for 
broader amendments to the Nunn-McCurdy provision. However, if 
confirmed; I will have an opportunity to assess whether the challenges 
posed by compliance with the statutory requirements triggered by unit 
cost growth associated with planned reductions in procurement 
quantities require amendments to the legislation.
    Question. What principles will guide your thinking on whether to 
recommend terminating a program that has experienced ``critical'' cost 
growth under Nunn-McCurdy?
    Answer. It is my view that a decision on whether to recommend 
terminating a program that has experienced critical cost growth under 
Nunn-McCurdy must be made on a case by case basis, by taking into 
account the specific causes of cost growth in individual programs. This 
assessment should include whether the program is delivering 
capabilities essential to national security, consideration of 
alternatives that can provide comparable capability at less cost, 
whether the cost and schedule estimates are sound, and program 
management.
                          systems engineering
    Question. One of the premises for WSARA was that the best way to 
improve acquisition outcomes is to place acquisition programs on a 
sounder footing from the outset by addressing program shortcomings in 
the early phases of the acquisition process. The Defense Science Board 
Task Force on Developmental Test and Evaluation reported in May 2008 
that ``the single most important step necessary'' to address high rates 
of failure on defense acquisition programs is ``to ensure programs are 
formulated to execute a viable systems engineering strategy from the 
beginning.''
    Do you believe that the Army has the systems engineering and 
developmental testing organizations, resources, and capabilities needed 
to ensure that there is a sound basis for key requirements, 
acquisition, and budget decisions on major defense acquisition 
programs?
    Answer. I believe that the Army currently has the required 
organizations, resources and capabilities to ensure that requirements, 
acquisition and budget decisions on major defense acquisition programs 
are sound. Since WSARA was enacted, the Army has placed significant 
emphasis on systems engineering in the development of major acquisition 
programs, to include the formulation of acquisition strategies tailored 
to identify and address systems engineering challenges early in major 
programs. WSARA also placed a renewed emphasis on developmental 
testing, focusing on the maturation of technologies and effective use 
of developmental testing to prevent issues arising in operational 
tests. The Army has implemented this statutory guidance and given 
systems engineering and developmental testing a high priority in its 
acquisition programs.
    Question. What is your assessment of the Army's implementation to 
date of section 102 of WSARA, regarding systems engineering?
    Answer. In my view, the Army has implemented the requirements under 
section 102, which call for development of systems engineering plans in 
major defense acquisition programs under the oversight of the Deputy 
Assistant Secretary of Defense for Systems Engineering. Since WSARA was 
enacted, the Army has established the Office of the Chief Systems 
Engineer to provide the Army's leadership and materiel developers with 
the necessary engineering/architectural products to manage and shape 
the Army's materiel portfolio, to ensure a System Engineering 
discipline across the materiel developer community throughout the 
acquisition life cycle. This Chief Systems Engineer's responsibilities 
also include the cultivation of System Engineering capabilities within 
the Army through education, engineering policy, guidelines and adoption 
of best industry practices.
    Additionally, the Army has established a Directorate of Systems of 
Systems Integration, designed to improve reliability, availability, 
maintainability, and sustainability of Army equipment through rigorous 
system of systems assessment and analysis.
    Question. What additional steps will you take, if confirmed, to 
implement this provision?
    Answer. If confirmed, I would continue to expand efforts to improve 
systems engineering throughout the lifecycle of Army acquisition 
programs. Particularly as the Army undertakes modernization of 
networked and interoperable weapon systems and equipment, systems 
engineering oversight and expertise would be given significant 
emphasis.
    Question. Do you believe that the Nation as a whole is producing 
enough systems engineers and designers and giving them sufficient 
experience working on engineering and design projects to ensure that 
the Army can access an experienced and technically trained systems 
engineering and design workforce?
    Answer. As a Nation, we are short of systems engineers, and I 
believe we must continue to attract, train, and utilize talented 
systems engineers--both within the private sector and the government 
workforce. I am encouraged by the expansion of systems engineering 
training offered in our colleges and universities, but the Army must 
continue to develop and acquire this type of critical expertise.
    Question. If not, what do you recommend should be done to address 
the shortfall?
    Answer. If confirmed, I would work closely with other stakeholders 
within the Department to expand the Army's efforts to recruit and 
retain a skilled systems engineering workforce and work to leverage the 
expertise at universities and other federally funded institutions where 
appropriate.
                         technological maturity
    Question. Over the last several years, the Government 
Accountability Office (GAO) has reported that private sector programs 
are more successful than DOD programs because they consistently require 
that new technologies achieve a high level of maturity before such 
technologies may be incorporated into product development programs. 
Section 104 of WSARA addresses this issue by tightening technological 
maturity requirements for major defense acquisition programs.
    How important is it, in your view, for the Army to mature its 
technologies with research and development funds before these 
technologies are incorporated into product development programs?
    Answer. In my view, the Army must continue to address the maturity 
of technologies incorporated within development programs in order to 
avert a leading cause of cost growth. Whether the technologies are 
matured using government research and development funds, or through the 
private sector, I believe it is critically important to accurately 
gauge their maturity level prior to initiation of the Engineering and 
Manufacturing Development program.
    Question. What steps if any would you take, if confirmed, to ensure 
that the key components and technologies to be incorporated into major 
acquisition programs meet the Army's technological maturity goals?
    Answer. If confirmed, I will ensure that all technologies are peer 
reviewed for maturity before they transition to a program of record and 
I would ensure compliance with guidance regarding technological 
maturity standards issued by the Assistant Secretary of Defense for 
Research and Engineering pursuant to section 104 of WSARA.
    Question. Do you believe that the Army has the organizations, 
resources and capabilities necessary to assess effectively the maturity 
of technologies that are critical to the development of major weapon 
systems that the Army procures?
    Answer. I believe the Army does.
    Question. If not, how should the Army address these deficiencies?
    Answer. If confirmed, I would work to ensure that the Army 
adequately and consistently applies standards for assessing 
technological maturity used within the Department.
    Question. Do you believe that the Army should make greater use of 
prototypes, including competitive prototypes, to ensure that 
acquisition programs reach an appropriate level of technological 
maturity, design maturity, and manufacturing readiness before receiving 
Milestone approval?
    Answer. In my view, the Army should generally make greater use of 
prototypes in acquisition programs, to include competitive prototypes 
as required under WSARA, if these strategies contribute to the 
effective reduction of cost and schedule risk. These and other risk-
mitigation strategies should be tailored to meet the needs of 
individual acquisition programs.
    Question. If so, what steps do you believe the Army should take to 
increase its use of such prototypes?
    Answer. If confirmed, I will continue to emphasize its importance 
and work to ensure that adequate resources are made available to 
support prototyping, as appropriate.
    Question. The Army budget for fiscal year 2012 included $10 million 
for a Technology Maturation Initiative. The Army has requested $25 
million for this initiative in fiscal year 2013.
    What is your understanding of the purpose of the Technology 
Maturation Initiative?
    Answer. My understanding is that the Technology Maturation 
Initiative provides a mechanism for expediting technology transition 
from the laboratory to operational use. The Army is using this 
initiative to mature promising technologies and subsystems to 
Technology Readiness Levels (TRL) greater than six, while conducting 
some competitive prototyping activities for key emerging systems prior 
to Milestone B. I believe this initiative will help reduce technical 
risk in future acquisition programs, increase transition opportunities 
for innovative technology-based solutions, and ultimately reduce cost 
in acquisition programs.
    I understand that investments under this program are selected 
according to established criteria that consider the potential to 
accelerate technology transition, the prospect of cost and risk 
reduction associated with technology development and the project's 
potential for integration within an Army acquisition program. Each 
funded project is closely monitored to ensure that it is on track to 
deliver products on time and within budget.
    Question. What steps will you take, if confirmed, to ensure that 
funding provided for the Technology Maturation Initiative is used in 
the most effective manner possible to promote the objectives of the 
initiative?
    Answer. If confirmed, I will work to ensure that Technology 
Maturation Initiative funding is allocated only to those efforts that 
have high potential for addressing capability needs and transitioning 
mature technologies to programs of record. I would continue to require 
that candidate programs receive careful vetting and that projects are 
selected according to established criteria that further the 
initiative's goals. Also, if confirmed, I would continue to require 
that efforts funded under the Technology Maturation Initiative receive 
close oversight by my office.
    Question. Section 2366b of title 10, U.S.C., requires the Milestone 
Decision Authority for a major defense acquisition program to certify 
that critical technologies have reached an appropriate level of 
maturity before Milestone B approval.
    What steps if any will you take, if confirmed, to make sure that 
the Army complies with the requirements of section 2366b?
    Answer. If confirmed, I will ensure the Army conducts Technology 
Readiness Assessments (TRA) to document that technologies have reached 
an appropriate level of maturity before receiving Milestone B approval. 
I will also ensure that processes, tools and resources are in place to 
meet all the requirements of section 2366a.
    Question. What is your view of the recommendation of the Defense 
Science Board Task Force on the Manufacturing Technology Program that 
program managers should be required to make use of the Manufacturing 
Readiness Level tool on all programs?
    Answer. In my view, the readiness of manufacturing processes plays 
a significant role in the cost, schedule, and production performance of 
the Army's development efforts. Understanding and ensuring a system's 
readiness for manufacturing is essential to success. While 
Manufacturing Readiness Levels may provide a tangible measure of 
maturity in manufacturing processes, such metrics must weigh the 
maturity of the system's design--particularly in the early stages of 
development, when designs have not yet fully matured--in order to 
provide a useful indication of risk.
    Question. Beyond addressing technological maturity issues in 
acquisition programs, what other steps should the Army take to increase 
accountability and discipline in the acquisition process?
    Answer. If confirmed, I would utilize milestone decision and other 
program reviews to emphasize accountability and discipline within the 
process. In addition, I would work closely with the Office of the 
Secretary of Defense to continue implementation of ``should cost'' 
benchmarks--bottom up assessments of what a program should cost--in 
addition to affordability targets under the Department's Better Buying 
Power initiative to impose rigor and discipline in our performance. 
Overall, I would work to instill a culture of cost-consciousness across 
the acquisition workforce.
                         excessive concurrency
    Question. Some of the Army's largest and most troubled acquisition 
programs appear to have suffered significantly from excessive 
concurrency--the effort to produce a weapon system, even as it is still 
being designed.
    What impact do you believe that such excessive concurrency has on 
our efforts to produce major weapon systems on schedule and on budget?
    Answer. In my view, a high degree of concurrency--commencement of 
production while design is ongoing--contributes significant risk to 
weapon systems programs, particularly if the concurrency is 
attributable to evolving requirements in the late phases of 
development. This type of risk is likely to result in significant cost 
growth in major acquisition programs.
    Question. What steps will you take, if confirmed, to address this 
issue?
    Answer. If confirmed, I would work diligently with affected 
stakeholders, to include the requirements generation community, to 
minimize concurrency and associated risk in Army acquisition programs.
        unrealistic cost, schedule, and performance expectations
    Question. Many acquisition experts attribute the failure of DOD 
acquisition programs to a cultural bias that routinely produces overly 
optimistic cost and schedule estimates and unrealistic performance 
expectations. Section 101 of WSARA is designed to address this problem 
by establishing an independent Director of Cost Assessment and 
Performance Evaluation, who is charged with ensuring the development of 
realistic and unbiased cost estimates to support the Department's 
acquisition programs.
    Do you agree with the assessment that overly optimistic cost and 
schedule estimates and unrealistic performance expectations contribute 
to the failure of major defense acquisition programs?
    Answer. Yes.
    Question. If confirmed, how do you expect to work with the Director 
of the new office to ensure that the Army's cost, schedule, and 
performance estimates are realistic?
    Answer. The Director, CAPE performs a critical role in the 
acquisition process by providing independent cost assessment and 
program evaluation to the Milestone Decision Authority. If confirmed, I 
will work closely with the Director, CAPE to ensure that cost, 
schedule, and performance estimates are performed early, independently 
validated, and managed throughout a program's life cycle.
    Question. Section 201 of WSARA seeks to address this problem by 
promoting early consideration of trade-offs among cost, schedule, and 
performance objectives in major defense acquisition programs.
    Do you believe that early communication between the acquisition, 
budget and requirements communities in the Army can help ensure more 
realistic cost, schedule, and performance expectations?
    Answer. I do. Greater collaboration between the program management, 
requirements and resourcing communities is essential to the development 
of a realistic and realizable program. This collaboration must take 
place early and throughout the development of new capabilities in order 
to maintain affordability and meet warfighter requirements on a timely 
and effective basis.
    Question. If so, what steps if any would you take, if confirmed, to 
ensure such communication?
    Answer. If confirmed, I will work with the Army's requirements and 
resourcing stakeholders to collectively maintain affordable and 
achievable weapon system programs by identifying requirements tradeoffs 
and instituting sound acquisition strategies consistent with available 
resources.
    Question. DOD has increasingly turned to incremental acquisition 
and spiral development approaches in an effort to make cost, schedule, 
and performance expectations more realistic and achievable.
    Do you believe that incremental acquisition and spiral development 
can help improve the performance of the Army's major acquisition 
programs?
    Answer. In my view, incremental acquisition strategies are 
effective; particularly where rapidly evolving technologies are 
involved or rapid fielding is needed to meet operational need.
    Question. What risks do you see in the Army's use of incremental 
acquisition and spiral development?
    Answer. In pursuing incremental acquisition, an open architecture 
needs to be established to enable incorporation of next-generation 
technologies. In addition, growth margins must be accommodated in the 
architecture to enable rapid insertion.
    Question. In your view, has the Army's approach to incremental 
acquisition and spiral development been successful? Why or why not?
    Answer. I believe the Army's approach has been successful in the 
conduct of recent major weapon systems. For example, the Ground Combat 
Vehicle program strategy was designed with prioritized requirements as 
part of an incremental strategy for development of an improved infantry 
fighting vehicle. This approach provides industry with significant 
flexibility in developing designs that meet the Army's cost and 
schedule targets. Similarly, the Army has had success implementing 
incremental strategies in development of tactical network.
    Question. What steps if any do you believe are needed to ensure 
that the requirements process, budget process, and testing regime can 
accommodate incremental acquisition and spiral development approaches?
    Answer. If confirmed, I would work closely with the Army 
requirements, resourcing and testing communities to develop and execute 
incremental acquisition strategies, where appropriate.
    Question. How should the Army ensure that the incremental 
acquisition and spiral development programs have appropriate baselines 
against which to measure performance?
    Answer. I believe that appropriate baselines must be developed in 
close collaboration with the warfighter to ensure that the capability 
provided by each increment, and its cost, is well understood.
                        time-certain development
    Question. The Defense Acquisition Performance Assessment (DAPA) 
panel recommended in 2006 that the Department set fixed durations for 
program phases, including a requirement for the delivery of the first 
unit of a major weapon system to operational forces within 6 years of 
the Milestone A decision. The DAPA panel believed that durations for 
program phases could be limited by ensuring appropriate levels of 
technological maturity, defined risk-reduction horizons, and program 
execution criteria, while allowing for the use of spiral development or 
block upgrades for enhancements in capability or increased requirements 
over time. Proponents of this approach, called time-certain 
development, have highlighted its potential for helping ensure that 
``evolutionary'' (or ``knowledge-based'') acquisition strategies are 
used to develop major systems by forcing more manageable commitments to 
discrete increments of capability and stabilize funding by making costs 
and schedules more predictable.
    What is your view of the DAPA panel's recommendation?
    Answer. If confirmed, I look forward to the opportunity to assess 
the merits of the DAPA panel's recommendation within the conduct of 
acquisition programs in the Army's portfolio.
    Question. What is your view of time-certain development as an 
acquisition strategy for major weapons systems development programs?
    Answer. In my view, the use of set or fixed durations for each 
phase of the acquisition cycle may preclude tailored acquisition 
strategies.
    Question. What steps if any would you take, if confirmed, to 
implement time-certain development strategies in the future acquisition 
programs?
    Answer. If confirmed, I would work closely with affected 
stakeholders to assess the feasibility of implementing time-certain 
development strategies, where appropriate.
                       performance-based payments
    Question. In 1995, the Federal Acquisition Regulation was revised 
to create a new category of payments, known as Performance-Based 
Payments (PBPs) on fixed-price contracts. PBPs are made on the basis of 
the physical completion of authorized work, rather than the incurrence 
of seller costs.
    In your view, what advantages, if any, can the Army gain by using 
PBPs more extensively in connection with fixed-price contracts for the 
development of its major systems?
    Answer. Where specified program achievements are well-defined, PBP 
strategies, in conjunction with fixed-price contracts, may help address 
risks in technical performance and program schedules in appropriate 
cases.
    Question. Do you believe that PBPs should be the preferred means of 
providing contract financing under fixed-price contracts for the 
development of the Army's major systems? Why or why not?
    Answer. A preference for PBPs within Army fixed-price contracts 
would depend on whether the program has well-defined requirements and a 
stable design. If confirmed, I would welcome the opportunity to 
evaluate the utility of PBPs within fixed-price contracts used in the 
Army.
                   funding and requirements stability
    Question. The poor performance of major defense acquisition 
programs has also been attributed to instability in funding and 
requirements. In the past, DOD has attempted to provide greater funding 
stability through the use of multiyear contracts. More recently, the 
Department has sought greater requirements stability by instituting 
Configuration Steering Boards to exercise control over any changes to 
requirements that would increase program costs.
    Do you support the use of Configuration Steering Boards to increase 
requirements stability on major defense acquisition programs?
    Answer. I fully support the use of Configuration Steering Boards 
(CSBs) to address the stability of requirements in major defense 
acquisition programs. I believe that funding and requirements stability 
is an essential component of successful acquisition programs. The Army 
currently employs CSBs on a regular basis to identify opportunities to 
de-scope requirements contributing to undue cost growth and performance 
risk in major defense acquisition programs.
    Question. What other steps if any would you recommend taking to 
increase the funding and requirements stability of major defense 
acquisition programs?
    Answer. If confirmed, I would work closely with senior officials 
within the Army and the Office of the Secretary of Defense to continue 
the use of CSBs in the conduct of Army major weapon systems programs to 
address the need for requirements and funding stability. Moreover, I 
would place a significant emphasis on greater collaboration with the 
requirements generation and resourcing communities to identify and 
address areas where instability presents challenges in acquisition 
programs.
                       fixed price-type contracts
    Question. Recent Congressional and DOD initiatives attempt to 
reduce technical and performance risks associated with developing and 
producing major defense acquisition programs so as to minimize the use 
of cost-reimbursable contracts.
    Do you think that the Army should move towards more fixed price-
type contracting in developing or procuring major defense acquisition 
programs? Why or why not?
    Answer. Use of fixed-price contracts, where appropriate, is a key 
tenet of the Department's Better Buying Power initiative. In my 
opinion, the Army should use the type of contract that is best suited 
for the acquisition program at issue, after considering the complexity 
and risk associated with technical designs, the speed with which 
capabilities must be provided to the warfighter, industry's experience 
in developing and integrating relevant technologies, and the need to 
maintain technological superiority. If confirmed, I will ensure that 
Army acquisition strategies reflect sound business judgment in 
selecting the appropriate contract type.
    Question. Under what circumstances, if any, do you believe it would 
be appropriate for the Army to use a cost-type contract for the 
production of a major weapon system?
    Answer. In my view, cost-type contracts may be appropriate in 
development programs. These include efforts involving significant 
technical challenges, such as high risk associated with development of 
unprecedented technologies, significant software development or 
development of new manufacturing technologies and/or processes. Cost-
type contracts may also be appropriate during production where there is 
operational urgency for the needed capability, or where a lack of 
experience within the defense industry, the need to maintain 
technological superiority over peers and adversaries, or where some 
combination of these and other related factors warrant such a 
contracting strategy.
                         technology transition
    Question. The Department continues to struggle with the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms. Further, the Department also has struggled with 
moving technologies from DOD programs or other sources rapidly into the 
hands of operational users.
    What impediments to technology transition do you see within the 
Army?
    Answer. In my view, the successful transition of new technologies 
to Army programs of record is critical to the long-term success of our 
acquisition efforts. In my opinion, the most significant impediment to 
technology transition lies in the lack of coordination among relevant 
stakeholders necessary to facilitate the transition. While S&T programs 
often demonstrate technology concepts, they frequently are not mature 
enough for direct insertion into Programs of Record. Close and 
continuous coordination between the S&T organizations, industry, 
academia, FFRDCs, government laboratories with the Army materiel 
developers is essential for success.
    Question. What steps if any will you take, if confirmed, to enhance 
the effectiveness of technology transition efforts?
    Answer. If confirmed, I will work to ensure that technology 
investment strategies are closely coordinated with warfighter 
requirements and capabilities developed within the acquisition process 
in order to transition mature technologies as appropriate. I will also 
assess appropriate metrics applicable to the S&T community to gauge 
progress in transition efforts.
    Question. What can be done from a budget, policy, and 
organizational standpoint to facilitate the transition of technologies 
from science and technology programs and other sources, including small 
businesses, venture capital funded companies, and other nontraditional 
defense contractors, into acquisition programs?
    Answer. If confirmed, I would work closely with the Assistant 
Secretary of Defense, Research and Engineering, as well as the small 
business and S&T communities to encourage tighter collaboration with 
the acquisition community.
    Question. Do you believe that the Army's science and technology 
organizations have the ability and the resources to carry technologies 
to higher levels of maturity before handing them off to acquisition 
programs?
    Answer. I do.
    Question. What steps if any do you believe the Army should take to 
ensure that research programs are sufficiently funded to reduce 
technical risk in programs so that technological maturity can be 
demonstrated at the appropriate time?
    Answer. If confirmed, I will work with all stakeholders to ensure 
that the Army science and technology effort is resourced to accomplish 
its mission.
    Question. What role do you believe Technology Readiness Levels and 
Manufacturing Readiness Levels should play in the Army's efforts to 
enhance effective technology transition and reduce cost and risk in 
acquisition programs?
    Answer. In my view, well-defined and consistently applied 
assessments of technological readiness and manufacturing readiness 
serve as valuable tools in reducing the cost and risk in Army 
acquisition programs. Technology Readiness Assessments provide a 
standardized metric to identify the maturity of new technologies, or 
existing technologies used in a new or novel fashion. By ensuring that 
new technologies are at adequate maturity levels with appropriate risk 
mitigation plans to warrant continued progression through the 
acquisition process, the Army mitigates the risk of having schedule and 
cost overruns that can result from having immature technology matured 
within an acquisition program.
    While Manufacturing Readiness Levels may provide a tangible measure 
of maturity in manufacturing processes, such metrics must weigh the 
maturity of the system's design--particularly in the early stages of 
development, when designs have not yet fully matured--in order to 
provide a useful indication of risk. If confirmed, I will evaluate the 
effectiveness of formal Manufacturing Readiness Levels in reducing cost 
and risk in acquisition programs and facilitating technology 
transition.
    Question. What is your view of the Rapid Innovation Program 
established pursuant to section 1073 of the Ike Skelton National 
Defense Authorization Act for Fiscal Year 2011?
    Answer. In my view, the Rapid Innovation Fund (RIF) is a valuable 
mechanism for supporting truly innovative technology solutions that are 
not funded through the Army's customary structured processes. I believe 
RIF support can help small and nontraditional businesses realize an 
increased role in meeting the Army's needs more rapidly and 
innovatively.
    I understand that candidates for funding are solicited through a 
Broad Agency Announcement (BAA) followed by a careful selection of 
proposals with a high potential to demonstrate technology enabled 
capabilities that can be transitioned to either programs of record or 
rapidly fielded to soldiers.
    Question. What do you see as the major challenges to successful 
implementation of this program?
    Answer. I do not anticipate any major challenges, but if confirmed, 
I would ensure that the selection process is consistently and 
transparently employed and that oversight of RIF funded projects is 
diligently maintained to promote the best use of these funds.
    Question. What steps will you take, if confirmed, to ensure that 
funds authorized and appropriated for this program are spent in the 
most effective manner possible to promote the objectives of the 
program?
    Answer. See response above.
                          multiyear contracts
    Question. The statement of managers accompanying Section 811 of the 
National Defense Authorization Act for Fiscal Year 2008 addresses the 
requirements for buying major defense systems under multiyear contracts 
as follows: ``The conferees agree that `substantial savings' under 
section 2306b(a)(1) of title 10, U.S.C., means savings that exceed 10 
percent of the total costs of carrying out the program through annual 
contracts, except that multiyear contracts for major systems providing 
savings estimated at less than 10 percent should only be considered if 
the Department presents an exceptionally strong case that the proposal 
meets the other requirements of section 2306b(a), as amended. The 
conferees agree with a Government Accountability Office finding that 
any major system that is at the end of its production line is unlikely 
to meet these standards and therefore would be a poor candidate for a 
multiyear procurement contract.''
    What are your views on multiyear procurements? Under what 
circumstances do you believe they should be used?
    Answer. I support the use of multiyear procurements as a potential 
source of substantial procurement savings in the Army. In my view, 
multiyear procurements offer improved use of industrial facilities, 
funding stability, economies of scale and reduced administrative 
burdens in contracting. This, in turn, enables industry to focus their 
IR&D to improve manufacturing processes. The decision to pursue 
multiyear procurements should weigh the stability of system 
requirements and availability of funding, the maturity of system 
designs and associated technical and manufacturing risks, and 
industry's expertise in production processes.
    Question. What is your opinion on the level of cost savings that 
constitute ``substantial savings'' for purposes of the defense 
multiyear procurement statute, title 10 U.S.C. Sec.  2306b?
    Answer. It is my understanding that title 10 U.S.C. Sec.  2306b 
does not establish a specific numerical savings threshold below which 
multiyear procurements would be disfavored. In addition, I am aware of 
citations to a 10 percent savings minimum as a reasonable measure of 
``substantial savings.'' I agree that multiyear savings must indeed be 
substantial as compared to annual procurements, and that a 10 percent 
benchmark serves as a reasonable indicator of such savings. However, if 
confirmed, I would not foreclose the option to pursue multiyear 
procurements achieving a level of savings below 10 percent in 
appropriate circumstances on a case-by-case basis.
    Question. If confirmed, under what circumstances, if any, do you 
anticipate that you would support a multiyear contract with expected 
savings of less than 10 percent?
    Answer. See response above.
    Question. If confirmed, under what circumstances, if any, would you 
support a multiyear contract for a major system at the end of its 
production line?
    Answer. If confirmed, I would pursue multiyear procurements, as 
appropriate, where such procurement strategies are warranted by the 
verified identification of substantial savings to the taxpayer. The 
decision to enter a multiyear procurement on systems nearing the end of 
production would depend on careful consideration of a variety of 
factors and the degree of savings to be achieved.
    Question. Under what circumstances, if any, do you believe that a 
multiyear contract should be used for procuring weapons systems that 
have unsatisfactory program histories, e.g., displaying poor cost, 
scheduling, or performance outcomes but which might otherwise comply 
with the requirements of the defense multiyear procurement statute, 
title 10 U.S.C. Sec.  2306b?
    Answer. The decision to enter a multiyear procurement would depend 
on careful consideration of a variety of factors, to include program 
risks and contractor performance, in addition to the degree of savings 
to be achieved. If confirmed, I would carefully evaluate and assess all 
such factors in determining whether to pursue multiyear procurements. 
Unsatisfactory program performance will be a major factor in 
consideration of whether to pursue a multiyear procurement.
    Question. What is the impact of the Department's current budget 
situation, in your view, on the feasibility and advisability of 
additional multiyear procurement contracts for major weapon systems?
    Answer. In my view, declining resources present a significant 
challenge to the sustained use of multiyear procurements in the Army. 
Any decision to pursue additional multiyear procurement contracts must 
carefully weigh the potential risk associated with funding instability 
with the positional cost savings for the Army.
    Question. Under what circumstances, if any, should the Army ever 
break a multiyear procurement?
    Answer. In my view, a break in multiyear procurement should be a 
rare event warranted only under exceptional circumstances, to include 
an unplanned or sharp reduction in funding, or poor delivery 
performance by the contractor.
    Question. What impact if any does the use of a multiyear contract 
have, in your view, on the operation and sustainment cost for a weapon 
system?
    Answer. In my opinion, multiyear procurements can offer significant 
savings in the area of operation and sustainment costs of a major 
weapon system. The funding stability provided by a multiyear contract 
enables both the prime contractor and their subcontractors to invest to 
improve their manufacturing processes.
    Question. To what extent should the Army consider operation and 
sustainment costs, and the stability of such costs, before making a 
decision whether to acquire a major system under a multiyear contract?
    Answer. In my view, the Army should assess all factors and 
potential areas of risk in determining whether to pursue savings 
through multiyear procurements.
    Question. The Army's fiscal year 2013 budget proposal seeks 
approval to enter into a new 5-year contract for the procurement of CH-
47 Chinook helicopters.
    What impact would procuring these helicopters under a multiyear 
contract have on the Army's budgetary flexibility in a period when 
tight budgets and possible sequestration could require deep budget 
cuts?
    Answer. In my view, the proposal to enter into a new 5-year 
contract for CH-47 Chinook helicopters comports fully with the 
statutory requirements for multiyear procurements and reflects a 
deliberate assessment of associated risks and projected substantial 
savings.
    Question. Do you believe that it is in the best interests of the 
Army to restrict its budgetary flexibility in this manner? Why or why 
not?
    Answer. Particularly in a resource constrained environment, I 
support the decision to achieve substantial taxpayer savings. The CH-47 
program has a long history of stability and success in meeting 
warfighter needs.
    continuing competition and organizational conflicts of interest
    Question. Section 202 of WSARA requires DOD to take steps to 
promote continuing competition (or the option of such competition) 
throughout the life of major defense acquisition programs.
    What is your view on the utility of continuing competition as a 
tool to achieve long-term innovation and cost savings on major defense 
acquisition programs?
    Answer. I fully agree that competition serves as a valuable tool in 
driving technological innovation, achieving cost savings and reducing 
schedule in acquisition programs. I support efforts to expand use of 
competition at key program milestones, consistent with the Department's 
Better Buying Power initiative.
    Question. Do you believe that such continuing competition is a 
viable option on major defense acquisition programs?
    Answer. I believe that increased competition is a vital tool for 
promoting long-term innovation and cost savings in weapon system 
programs.
    Question. If so, what steps if any can and should the Army take to 
address this issue?
    Answer. If confirmed, I would ensure that acquisition strategies 
for Army programs incorporate increased use of competition where ever 
appropriate.
    Question. Section 203 of WSARA requires the use of competitive 
prototypes for major defense acquisition programs unless the cost of 
producing such prototypes would exceed the lifecycle benefits of 
improved performance and increased technological and design maturity 
that prototypes would achieve.
    Do you support the use of competitive prototypes for major defense 
acquisition programs?
    Answer. I do. Competitive prototypes provide a valuable mechanism 
for identifying and addressing systems integration challenges in 
complex systems, maturing technologies, identifying potential 
requirements trades and reducing the overall cost and schedule risk of 
developmental efforts. I support the use of competitive prototypes at 
the system and subsystem level where the use of this approach 
effectively reduces government risk.
    Question. Under what circumstances do you believe the use of 
competitive prototypes is likely to be beneficial?
    Answer. In my view, competitive prototypes are useful in the 
technology development phase involving immature technologies, 
technologies integrated in new ways, or where system requirements need 
refinement.
    Question. Under what circumstances do you believe the cost of such 
prototypes is likely to outweigh the potential benefits?
    Answer. There may be instances in which competitive prototypes do 
not provide a cost-effective means to reduce risk in an acquisition 
program. Such instances may include programs calling for competition of 
relatively mature technologies, or cases in which the government 
acquires the most current versions of rapidly evolving technologies, 
such as radios or mobile handheld devices. A cost benefit analysis 
could be used to determine if a prototype is beneficial.
    Question. Section 207 of WSARA required the Department to 
promulgate new regulations to address organizational conflicts of 
interest on major defense acquisition programs.
    Do you agree that organizational conflicts of interest can reduce 
the quality and value of technical support services provided to the 
Army and undermine the integrity of the Army's acquisition programs?
    Answer. Yes.
    Question. What is your understanding of the steps the Army has 
taken to implement section 207 and the new regulations?
    Answer. My understanding is that section 207 of WSARA has been 
implemented within the Defense Federal Acquisition Regulation 
Supplement, which is fully applicable to the Army.
    Question. What additional steps if any do you believe the Army 
should take to address organizational conflicts of interest in major 
defense acquisition programs?
    Answer. The occurrence and perception of organizational conflicts 
of interest presents a serious threat to the integrity of the 
acquisition process. If confirmed, I would ensure that senior Army 
program and contracting officials remain sensitive to potential OCIs 
and ensure that they are appropriately addressed. I also would work 
closely with the Office of the Secretary of Defense and to determine 
and implement appropriate policies, procedures, and other measures 
needed to address this concern.
    Question. What are your views on the use of system engineering and 
technical assistance contractors that are affiliated with major defense 
contractors to provide ``independent'' advice to the Army on the 
acquisition of major weapon systems?
    Answer. I support the applicable statutory and regulatory guidance 
that governs the use of such contractor personnel. If confirmed, I will 
work to ensure that Army acquisition programs closely adhere to 
guidance regarding inherently governmental functions in this area and 
that programs adhere to applicable rules, regulations and statutes 
governing organizational conflicts of interest.
    Question. What lines do you believe the Army should draw between 
those acquisition responsibilities that are inherently governmental and 
those that may be performed by contractors?
    Answer. If confirmed, I would work closely with other Army senior 
leaders to execute Departmental guidance regarding the performance of 
inherently governmental functions in acquisition by the government 
workforce.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not misuse their access to sensitive and 
proprietary information of the Army and other defense contractors?
    Answer. If confirmed, I would emphasize compliance with and 
enforcement of applicable rules, policies and laws governing the misuse 
of sensitive and proprietary information within the Army. Moreover, to 
the extent that revised or additional measures are required to 
safeguard sensitive or proprietary information, I would support efforts 
to strengthen existing policies.
    Question. If confirmed, what steps if any would you take to ensure 
that defense contractors do not unnecessarily limit competition for 
subcontracts in a manner that would disadvantage the government or 
potential competitors in the private sector?
    Answer. If confirmed, I would work to develop or reinforce policies 
that support competition at the subcontractor level, as appropriate.
                      operating and support costs
    Question. Operating and support (O&S) costs far exceed acquisition 
costs for most major weapon systems. Yet, DOD has placed far less 
emphasis on the management of O&S costs than it has on the management 
of acquisition costs. Section 832 of the National Defense Authorization 
Act for Fiscal Year 2012 requires the Department to take a series of 
steps to improve its processes for estimating, managing, and reducing 
such costs.
    What steps will you take, if confirmed, to implement the 
requirements of section 832 in the Army?
    Answer. If confirmed, I would fully support implementation of 
section 832 and associated efforts under the legislation designed to 
assess, manage and control operation and support (O&S) costs in major 
weapon system programs. In the conduct of Army acquisition programs, I 
would ensure that the life cycle cost data required under the 
legislation is collected and assessed in major weapon systems programs.
    Question. Do you believe that the Army has appropriate 
organizations, capabilities, and procedures in place to monitor and 
manage O&S costs?
    Answer. It is my understanding that a large percentage of system 
lifecycle costs are generally attributable to O&S costs. I believe that 
the Army has the appropriate organizations, capabilities and procedures 
in place to monitor and manage O&S costs. To the extent that the Army 
needs strengthened support in this area, if confirmed, I would work 
closely with Army leaders to ensure that O&S costs are appropriately 
addressed.
    Question. If not, what steps would you take, if confirmed, to 
develop such organizations, capabilities, and procedures?
    Answer. See response above.
                        contracting for services
    Question. By most estimates, the Department now spends more for the 
purchase of services than it does for products (including major weapon 
systems). After a decade of rapid growth, section 808 of the National 
Defense Authorization Act for Fiscal Year 2012 placed a cap on DOD 
spending for contract services.
    Do you believe that the Army can do more to reduce spending on 
contract services?
    Answer. I believe that the Army has made significant progress in 
identifying and categorizing service contracts under the Better Buying 
Power initiative and efforts under the Army's Institutional Army 
Transformation Commission, while identifying areas of cost growth and 
potential reduction. If confirmed, I would work closely with Army 
leadership to implement and expand these efforts as appropriate.
    Question. Do you believe that the current balance between 
government employees (military and civilian) and contractor employees 
is in the best interests of the Army?
    Answer. It is my opinion that a combination of military, government 
civilians, and contractor employees is necessary. If confirmed, I will 
work with Army leadership to identify the right mix of resources in the 
best interest of the Army.
    Question. What steps if any would you take, if confirmed, to 
control the Army's spending on contract services and ensure that the 
Army complies with the requirements of section 808?
    Answer. If confirmed, I will work with Army commands and 
organizations to implement the requirements of section 808 and continue 
ongoing efforts within the Department to control the growth of spending 
in this area.
    Question. Section 812 of the National Defense Authorization Act for 
2007 required DOD to develop a management structure for the procurement 
of contract services. Sections 807 and 808 of the National Defense 
Authorization Act for Fiscal Year 2008 (subsequently codified in 
section 2330a of title 10, U.S.C.) require DOD to develop inventories 
and conduct management reviews of contracts for services.
    Do you believe that the Army has appropriate organizations, 
capabilities, and procedures in place to manage its service contracts?
    Answer. I do. Oversight and management of the Army's service 
contract initiatives falls within the Office of the Assistant Secretary 
of the Army (Acquisition, Logistics, and Technology), which is 
responsible for execution of detailed plans to identify and harness 
savings in service contracts and address areas of cost growth through 
formal oversight.
    Question. If not, what steps would you take, if confirmed, to 
develop such organizations, capabilities, and procedures?
    Answer. See answer above.
    Question. Do you support the use of management reviews, or peer 
reviews, of major service contracts to identify ``best practices'' and 
develop lessons learned?
    Answer. I do. If confirmed, I will continue to study and support 
mechanisms that effectively facilitate the identification of best 
practices and sharing of lessons learned in this area. In addition, I 
will collaborate with the Air Force and Navy acquisition executives to 
share lessons learned.
    Question. If confirmed, will you fully comply with the requirement 
of section 2330a?
    Answer. If confirmed, I will fully comply with the requirements 
under section 2330a relating to the procurement of services.
    Question. Section 863 of the National Defense Authorization Act for 
Fiscal Year 2011 requires DOD to establish a process for identifying, 
assessing, reviewing, and validating requirements for the acquisition 
of contract services.
    What is the status of the Army's efforts to implement the 
requirements of section 863?
    Answer. The Army has established a Senior Services Manager (Senior 
Executive Service position) within the Office of the Assistant 
Secretary of the Army (Acquisition, Logistics, and Technology) to 
provide policy and oversight of Army services acquisition. In September 
2011, the Secretary of the Army approved a Services Optimization Plan 
that established an organizational structure and processes for 
oversight and management of services acquisitions that focuses on 
efficiency, effectiveness, and cost reductions.
    Question. What steps remain to be taken, and what schedule has the 
Army established for taking these steps?
    Answer. The Army is implementing a number of initiatives during 
fiscal years 2012 and 2013. These efforts include annual requirements 
and execution reviews of services acquisitions in an effort to obtain 
effective and efficient services at the lowest cost, developing a 
services business intelligence capability to provide Army leaders end-
to-end understanding of services acquisitions requirements, performance 
and cost, efforts to codify procedures and standards in applicable Army 
regulations, and working with the Defense Acquisition University to add 
new services acquisition management practices into training courses.
    Question. What additional steps if any would you take, if 
confirmed, to improve the Army's management of its contracts for 
services?
    Answer. If confirmed, I would work closely with Army commands and 
organizations to identify areas to refine and improve the management of 
contracts for services, establish metrics, and monitor progress.
       contractor performance of critical governmental functions
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has the Army become too reliant on contractors to 
support the basic functions of the Department?
    Answer. In my view, the Army must maintain the appropriate mix of 
military, civilian, and contractor support within the acquisition 
function. If confirmed, I would focus on making any necessary 
adjustments to ensure that the Army's acquisition workforce possesses 
and retains critical skills needed to equip soldiers and reduces 
dependence on contractors.
    Question. Do you believe that the current extensive use of personal 
services contracts is in the best interest of the Army?
    Answer. If confirmed, I will work closely with Army leadership to 
address the extent to which personal services contracts should be used.
    Question. What is your view of the appropriate applicability of 
personal conflict of interest standards and other ethics requirements 
to contractor employees who perform functions similar to those 
performed by government employees?
    Answer. In my opinion, appropriate personal conflict of interest 
standards and other ethics requirements should be applied to contractor 
employees when they are performing functions similar to those performed 
by government employees. It is my understanding that, based on the 
Duncan Hunter National Defense Authorization Act for Fiscal Year 2009, 
standards and requirements relating to contractor employees who perform 
acquisition functions closely associated with inherently governmental 
functions are prescribed in the Federal Acquisition Regulation. If 
confirmed, I will use the resources of my office to ensure that such 
standards and requirements are applied as intended. The Army must 
always be an honest and transparent steward of the taxpayer dollars.
    Question. U.S. military operations in Iraq and Afghanistan have 
relied on contractor support to a greater degree than any previous U.S. 
military operation. According to widely published reports, the number 
of U.S. contractor employees in Iraq and Afghanistan has exceeded the 
number of U.S. military deployed in those countries.
    Do you believe that the Army has become too dependent on contractor 
support for military operations?
    Answer. In my opinion, contractors provide vital life, safety, and 
health support to both wartime and peacetime military operations. Their 
contributions allow military personnel to focus on warfighting 
operations under established strength levels. I believe that the Army 
must continue to assess and define the appropriate levels of contractor 
support in current and future military operations.
    Question. What risks do you see in the Army's reliance on such 
contractor support? What steps do you believe the Army should take to 
mitigate such risk?
    Answer. In my view, the use of contractors provides critical 
support to warfighting operations. This situation presents potential 
operational risks in future situations where comparable contract 
support may be unavailable. It also may result in the Government 
incurring excessive costs for this support. To mitigate these risks, I 
believe that the Army must emphasize oversight of contractor 
performance and assess requirements in future operations.
    Question. Do you believe the Army is appropriately organized and 
staffed to effectively manage contractors on the battlefield?
    Answer. I believe we have made significant progress in growing the 
acquisition workforce to expand the ranks of trained contract oversight 
personnel, but much more work remains to be done. In my opinion, it 
will take time and continued efforts to adequately fill the increased 
authorizations with properly trained acquisition professionals.
    Question. What steps if any do you believe the Army should take to 
improve its management of contractors on the battlefield?
    Answer. In my opinion, the Army has made significant strides in 
developing new Policy, Doctrine, Organizations, Materiel solutions and 
Training focused on improving Operational Contract Support. It is my 
opinion that continued Army senior leader emphasis on the full 
implementation of these initiatives is required.
                          contracting methods
    Question. In recent years, DOD has relied heavily on time-and-
materials contracts for the acquisition of services. Under such a 
contract, the Department pays a set rate per hour for contractor 
services, rather than paying for specific tasks to be performed. In 
some cases, contractors have substituted less expensive labor under 
time-and-materials contracts, while continuing to charge Federal 
agencies the same hourly rates, resulting in effective contractor 
profits of 25 percent or more.
    What is your view of the appropriate use of time-and-materials 
contracts by the Army?
    Answer. Time-and-material contracts are the least preferred 
contract type. They may be appropriate in limited circumstances such as 
when the requirement cannot be defined and work must start. Once the 
requirement becomes better defined, however, time-and-materials 
contracts should be replaced with fixed-price or cost type contracts.
    Question. What steps if any do you believe the Army should take to 
minimize the abuse of time-and-materials contracts?
    Answer. If confirmed, I will work to ensure that the Army reviews 
its contract portfolio on a regular basis to identify those time-and-
materials contracts that can be converted to more appropriate contract 
vehicles. Moreover, I would review existing policies and procedures to 
ascertain whether supplemental guidance is needed in this area.
    Question. Section 852 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 requires DOD to promulgate 
regulations prohibiting excessive ``pass-through'' charges on DOD 
contracts. Pass-through charges are charges added by a contractor for 
overhead and profit on work performed by one of its subcontractors, to 
which the contractor provided no added value. In some cases, pass-
through charges have more than doubled the cost of services provided to 
DOD.
    What is your view of the regulations promulgated by DOD to 
implement the requirements of section 852?
    Answer. If confirmed, I would fully support enforcement of the 
Federal Acquisition Regulation Supplement provisions that governs pass-
through charges. In my view, these provisions adequately addresses the 
need for oversight and control of excessive pass-through charges. As 
part of ongoing efforts to prioritize affordability within the 
Department, must ensure that our acquisition and contracting 
professionals evaluate contractor proposals with an eye towards 
reduction of excessive pass-through charges.
    Question. What additional steps if any do you believe the Army 
should take to address the problem of excessive pass-through charges?
    Answer. If confirmed, I would work with Army contracting 
professionals, the Defense Contract Audit Agency and the Defense 
Contract Management Agency to ensure that proper measures are in place 
to address excessive pass-through charges in the acquisition process. I 
would also work with Army Principal Assistants Responsible for 
Contracting (PARCs) to ensure that prime contractors are held 
accountable for the pass-through cost of subcontract performance.
    Question. What additional steps if any do you believe the Army 
should take to address the problem of excessive pass-through charges?
    Answer. If confirmed, I will review the effect of existing 
regulations to determine what additional steps, if any, may be 
necessary.
                          better buying power
    Question. DOD's Better Buying Power initiative provides acquisition 
professionals with important guidance on how to achieve greater 
efficiency, enhanced productivity and affordability in how the 
Department procures goods and services.
    What steps if any will you take, if confirmed, to ensure that the 
Army's acquisition and contracting professionals implement this 
guidance, and achieve intended results?
    Answer. I strongly support full implementation of the Department's 
Better Buying Power initiative and, if confirmed, will vigorously 
monitor, emphasize, and prioritize ongoing progress in its 
implementation.
    Question. Which elements if any of this guidance do you disagree 
with and would not expect to fully implement, if confirmed?
    Answer. There are no tenets of this guidance with which I disagree.
    Question. How would you measure how effectively the Army's 
acquisition and contracting workforce is implementing the tradecraft 
and best-practices called for under this initiative?
    Answer. The Army's success in implementing this initiative is 
reflected in the efficiencies identified and continuously monitored in 
an ongoing basis within acquisition programs.
    Question. What steps would you take, if confirmed, to implement the 
following elements of the Better Buying Power initiative?

    (1)  Sharing the benefits of cash flow
    (2)  Targeting non-value-added costs
    (3)  Mandating affordability as a requirement
    (4)  Eliminating redundancy within warfighting portfolios

    Answer. (1) If confirmed, I would continue efforts to implement 
guidance by the Office of Secretary of Defense regarding cash flow 
incentives tied to contractor performance in Army acquisition programs.
    (2) If confirmed, I would work closely with the Office of the 
Secretary of Defense to implement policies, directives and guidance in 
this area.
    (3) If confirmed, I would continue efforts to prioritize 
affordability in the development of acquisition strategies for weapon 
systems and to use cost-informed trade-offs in system development. In 
addition, affordability targets must now be established at Milestone A 
decisions.
    (4) If confirmed, I would continue support for the Army's existing 
use of capability portfolio reviews to assess requirements for existing 
systems across portfolios and identify areas of redundancy for 
elimination.
                        interagency contracting
    Question. What is your assessment of the risks and benefits 
associated with the Army's continued extensive use of interagency 
contracts?
    Answer. In my view, interagency contracts can provide efficient and 
effective methods for meeting Army mission requirements, but their use 
must carefully balance considerations regarding contract oversight and 
the incentives created under fee-for-service arrangements.
    Question. Do you believe additional authority or measures are 
needed to hold Army or other agency personnel accountable for their use 
of interagency contracts?
    Answer. If confirmed, I will review existing Army policies and 
guidance regarding interagency contracts and determine whether 
additional measures are warranted.
    Question. Do you believe contractors have any responsibility for 
assuring that the work requested by Army personnel is within the scope 
of their contract?
    Answer. While compliance with contract terms is a duty shared 
equally among the parties to any agreement, I believe that the primary 
responsibility for ensuring that work requested by the Army is within 
the agreement's scope rests with the Army contracting officer. The 
contractor has the responsibility to ensure that they can accomplish 
the tasks defined in the contract within cost and schedule.
    Question. Do you believe that the Army's continued heavy reliance 
on outside agencies to award and manage contracts on its behalf is a 
sign that the Army has failed to adequately staff its own acquisition 
system?
    Answer. I believe that a variety of factors have contributed to the 
increased use of outside agencies to award and manage contracts, to 
include operational urgency in meeting warfighter needs and challenges 
attributable to staffing. The Army has undertaken robust efforts to 
grow the contracting workforce in response to these underlying issues. 
Furthermore, in my view, interagency contracting should only be used as 
appropriate and not as an expedient alternative to existing Army 
contracting processes. If confirmed, I would examine existing 
processes, manpower and policies to confirm the best response to this 
development.
                 acquisition of information technology
    Question. Most of the Department's Major Automated Information 
System (MAIS) acquisitions are substantially over budget and behind 
schedule. In particular, the Department has run into unanticipated 
difficulties with virtually every new business system it has tried to 
field in the last 10 years. Section 804 of the National Defense 
Authorization Act for Fiscal Year 2010 required DOD to establish a new 
acquisition process for information technology.
    Do you believe that unique problems in the acquisition of business 
systems require different acquisition strategies or approaches?
    Answer. I agree that the acquisition of complex business systems 
calls for consideration of unique strategies and approaches that are 
different from traditional weapons systems acquisitions.
    Question. What steps if any do you believe the Army should take to 
address these problems?
    Answer. If confirmed, I would work closely with the Chief 
Management Officer of the Army, the Army Chief Information Officer and 
other affected stakeholders to review existing business systems under 
development and refine existing strategies as appropriate.
    Question. If confirmed, how would you work with the Chief 
Information Officer of the Army to take these steps?
    Answer. See response above.
    Question. Section 818 of the National Defense Authorization Act for 
Fiscal Year 2012 establishes new requirements for DOD and its 
contractors to detect and avoid the use of counterfeit electronic 
parts.
    What steps will you take, if confirmed, to implement the 
requirements of section 818? What schedule will you establish for 
taking these steps?
    Answer. A comprehensive response to counterfeit parts requires a 
joint government and industry-wide effort to address and establish 
effective anti-counterfeit standards. If confirmed, I will work with 
organizations and leaders across the Department to comply with the 
requirements under section 818. In carrying out this mandate, the 
Department is focusing on weapon systems safety, mission assurance, and 
sensitive/critical parts across the supply chain. The Army has 
established a centralized reporting capability with industry to share 
information and to report potential counterfeit incidents and is 
strengthening its detection, supplier involvement, internal inspections 
and legal and contractual actions to address this issue. If confirmed, 
I would continue and reinforce these efforts.
    Question. What additional steps do you believe the Army needs to 
take to address the problem of counterfeit electronic parts?
    Answer. If confirmed, I would work closely with Army leadership and 
the Office of Secretary of Defense to evaluate the effectiveness of 
existing measures and recommend improvements if needed. In addition, I 
would seek industry's help in strengthening their detection and 
monitoring of potential counterfeit parts and establishment of improved 
quality control processes.
                         acquisition workforce
    Question. Do you believe that Army's workforce is large enough and 
has the skills needed to perform the tasks assigned to it?
    Answer. I strongly support ongoing initiatives to grow the capacity 
and capability of the defense acquisition workforce as a means to 
maximize the effective use of resources in the acquisition of weapon 
systems. If confirmed, I will maintain a high priority on the success 
of efforts to improve the size and quality of the acquisition 
workforce.
    Question. In your view, what are the critical skills, capabilities, 
and tools that the Army's workforce needs for the future? What steps 
will you take, if confirmed, to ensure that the workforce will, in 
fact, possess them?
    Answer. In my view, the list of required critical skills is 
diverse--ranging from contracting, program management, systems 
engineering, cost estimating, risk management, and test planning and 
management, to name a few. If confirmed, I will vigorously support and 
advance efforts to grow the acquisition workforce and cultivate 
expertise in all critical areas.
    Question. Do you agree that the Army needs a comprehensive human 
capital plan, including a gap analysis and specific recruiting, 
retention and training goals, to guide the development of its 
acquisition workforce?
    Answer. I agree that a comprehensive human capital plan is useful 
in evaluating current workforce capabilities and determining future 
needs and gaps and that extensive planning has been underway since the 
Department initiated efforts to increase the size of the acquisition 
workforce.
    Question. What steps if any do you think are necessary to ensure 
that the Army has the ability it needs to attract and retain qualified 
employees to the acquisition workforce?
    Answer. I believe it is essential that the Army has effective 
recruiting and retention tools necessary to attract and retain a highly 
professional and skilled acquisition workforce. If confirmed, I would 
further assess this area to determine whether additional measures may 
be needed.
    Question. What are your views regarding assertions that the 
acquisition workforce is losing its technical and management expertise 
and is beginning to rely too much on support contractors, FFRDCs, and, 
in some cases, prime contractors for this expertise?
    Answer. The Army's current effort to rebuild and reconstitute 
technical and management expertise in the workforce is in response to 
past reductions following the end of the Cold War. My view is that high 
quality technical and management expertise must reside within the 
Army's workforce in order to accomplish ongoing objectives in executing 
efficient, affordable, and ultimately successful acquisition programs. 
If confirmed, I would weigh these considerations in determining the 
appropriate degree of reliance on FFRDCs and contractors in current and 
future Army acquisition programs.
    Question. What is the appropriate tenure for program managers and 
program executive officers to ensure continuity in major programs?
    Answer. The tenure requirements for program managers are based on 
the Acquisition Category level of the Program and range from 3 to 4 
years. I also understand that the Army and/or Defense Acquisition 
Executive have the authority to adjust the tenure requirement based on 
unique aspects of the program. I believe this policy represents the 
appropriate balance between program continuity and the professional 
development of the workforce.
    Question. Section 852 of the National Defense Authorization Act for 
Fiscal Year 2008 established an Acquisition Workforce Development Fund 
to help DOD address shortcomings in its acquisition workforce. The fund 
provides a continuing source of funds for this purpose.
    Do you believe that the Acquisition Workforce Development Fund is 
still needed to ensure that the Army has the right number of employees 
with the right skills to run its acquisition programs in the most cost 
effective manner for the taxpayers?
    Answer. Yes, I believe the Defense Acquisition Workforce 
Development Fund is essential to carry out current initiatives to grow 
the capacity and capability of the defense acquisition workforce.
    Question. If confirmed, what steps if any will you ensure that the 
money made available through the Acquisition Workforce Fund is spent in 
a manner that best meets the needs of the Army and its acquisition 
workforce?
    Answer. If confirmed, I will ensure that the Fund is supported by 
the Army to continue the development of a professional acquisition 
workforce.
                           army modernization
    Question. In general, major Army modernization efforts have not 
been successful over the past decade. Since the mid-1990s, Army 
modernization strategies, plans, and investment priorities have evolved 
under a variety of names from Digitization, to Force XXI, to Army After 
Next, to Interim Force, to Objective Force, to Future Combat System and 
Modularity. Instability in funding, either as provided by DOD or 
Congress, has been cited by the Army and others as a principal cause of 
program instability. For the most part, however, the Army has benefited 
from broad DOD and Congressional support for its modernization and 
readiness programs even when problems with the technical progress and 
quality of management of those programs have been apparent.
    What is your assessment of the Army's modernization record?
    Answer. The Army's past challenges in modernization efforts are 
attributable to a variety of factors, which generally include costly, 
unconstrained and shifting requirements, excessive reliance on immature 
technologies and technical challenges leading to cost growth and 
schedule delay. In my view, the Army has drawn valuable lessons from 
these prior efforts and has instituted significantly improved processes 
and approaches to modernization in response to this record.
    Question. If confirmed, what actions, if any, would you propose to 
take to achieve a genuinely stable modernization strategy and program 
for the Army?
    Answer. If confirmed, I would work in close collaboration with the 
requirements generation community and the programming and resourcing 
communities to develop affordable, sustainable and achievable 
modernization strategies and incorporate lessons learned in prior 
efforts.
    Question. What is your understanding and assessment of the Army's 
modernization investment strategy?
    Answer. My understanding is that Army's modernization investment 
strategy is based on assessments of evolving threats, military 
requirements, the state of current and planned capabilities and the 
Army's resources. Despite declining budgets, the Army must conduct 
modernization efforts to provide affordable, adaptive, flexible and 
decisive capabilities to soldiers in response to global 
responsibilities. Consistent with the Army's strategic review and 
assessment of modernization needs, I understand that the Army's top 
modernization priorities include the Network, the Ground Combat 
Vehicle, the Joint Light Tactical Vehicle, and Soldier Systems. If 
confirmed, I would work to advance affordable, sound and successful 
modernization strategies consistent with these efforts. In addition, I 
will collaborate with the requirements community and intelligence 
community to ensure that the Army's modernization portfolio can address 
a broad spectrum of emerging threats.
    Question. In your view, what trade-offs would most likely have to 
be taken should budgets fall below or costs grow above what is planned 
to fund the Army's modernization efforts?
    Answer. Any decisions regarding proposed trade-offs in the event of 
unanticipated decline in the budget or cost growth would need to be 
fully coordinated across the Army and Department. A careful assessment 
of the Army's priorities, emerging threats, current and projected 
capabilities, affordability, and industrial base issues will have to be 
performed. In the case of unanticipated cost growth in programs, I 
would work with industry to understand the root causes and implement 
appropriate mitigation efforts. In addition, I would collaborate with 
Army and Department stakeholders to determine the best approach for 
meeting warfighter needs.
                      army weapon system programs
    Question. What is your understanding and assessment of the 
following research, development, and acquisition programs?
    Ground Combat Vehicle.
    Answer. My understanding is that the Army's current Infantry 
Fighting Vehicle is reaching the limit of its capacity to receive 
upgrades proven critical for soldiers in combat operations. The Ground 
Combat Vehicle (GCV) is the Army's replacement program for the Infantry 
Fighting Vehicle and is the centerpiece of the Army's overall combat 
vehicle modernization strategy. It will be designed to deliver and 
protect a full nine-man squad with improved survivability, mobility and 
network integration, which is crucial in combat operations. The current 
acquisition strategy draws from best practices in acquisition and 
institutes a variety of measures designed to maintain affordability and 
reduce program risk in meeting program objectives.
    Question. Stryker combat vehicle, including the double-v hull and 
Stryker mobile gun variants.
    Answer. In my view, the Stryker combat vehicle is an acquisition 
program that has proven to be highly successful in Iraq and 
Afghanistan. Blast deflecting double-v hull improvements have saved 
lives in Afghanistan and the Army continues to procure vehicles under 
existing equipping plans. My understanding is that the Army is 
currently assessing plans to procure additional variants of Stryker 
vehicles, to include the mobile gun variant.
    Question. Joint Light Tactical Vehicle (JTLV).
    Answer. The Joint Light Tactical Vehicle is a joint Service program 
between the Army and Marine Corps to replace approximately one-third of 
the Army's existing tactical wheeled vehicle fleet. The JLTV 
incorporates the strengths of Mine-Resistant, Ambush Protected (MRAP) 
vehicles and will be capable across a range of military operations and 
physical environments providing improved mobility and protection to 
soldiers.
    The Army and Marine Corps strategy in JLTV development reflects 
sustained efforts in collaboration with the requirements community to 
maintain an affordable and effective effort.
    Question. Armed Aerial Scout (AAS) Helicopter.
    Answer. The AAS program is needed to meet existing capability gaps 
in the area of manned armed aerial reconnaissance and find a materiel 
solution to replace the current fleet of OH-58D Kiowa Warrior (KW) 
helicopters. The Army is currently studying alternatives to meet the 
gaps and, consistent with an analysis of alternatives, determine 
whether to execute a Service Life Extension Program (SLEP) of the 
entire Kiowa Warrior fleet or pursue a new AAS program
    Question. M1 Abrams tank modernization.
    Answer. The Abrams tank remains the best tank in the world, and the 
age of the current tank fleet is low--only 2-3 years on average. The 
Army currently plans to conduct improvements to the Abrams tank in 
order to increase protection, ensure required mobility, and allow 
integration of the emerging network on future platforms. These 
modernization efforts are planned to commence in fiscal year 2017.
    Question. M2 Bradley infantry fighting vehicle modernization.
    Answer. The Bradley also has been an integral part of the Army's 
force structure for decades and requires modernization. The infantry 
fighting vehicle variant will be replaced by the Army's Ground Combat 
Vehicle while non-infantry fighting vehicle models will undergo 
incremental improvements to improve protection, mobility and support 
integration of the network. These improvements are planned to commence 
in fiscal year 2014.
    Question. Warfighter Information Network-Tactical (WIN-T).
    Answer. The Warfighter Information Network-Tactical (WIN-T) program 
provides the Army a secure, high-speed, high-capacity networking 
backbone for mobile, ad-hoc networks in tactical environments. WIN-T is 
vital to Army modernization efforts to develop and field a network in 
tactical environments. Fielding of the first increment of WIN-T is 
currently underway, while WIN-T Increment 2 will undergo planned 
Initial Operation Test and Evaluation this year at the Army's next 
Network Integration Event.
    Question. Logistics Modernization Program.
    Answer. This program is part of the ongoing effort to modernize the 
primary business systems of the Army Materiel Command (AMC) Commodity 
Commands. This system is currently undergoing fielding within the Army 
and, if confirmed, I will work closely with AMC to ensure it meets Army 
needs.
    Question. Joint Tactical Radio System (JTRS).
    Answer. The Joint Tactical Radio System (JTRS) is the Army's 
program for deployable mobile communications family of radios. It uses 
Internet Protocol (IP)-based technology to provide a networked exchange 
of voice, data, and video connectivity from the commander down to the 
soldier and is vital to the Army's efforts to develop the tactical 
network. Years of Department investment in JTRS development has 
resulted in a viable, sustainable and competitive market for software 
defined radios. JTRS have undergone thorough review to refine 
requirements and in the case of the Ground Mobile Radio, revise 
acquisition strategies to support competition among existing, secure 
nondevelopmental solutions.
    Question. UH-58D Kiowa Warrior safety and life extension program.
    Answer. The Army is conducting an analysis of alternatives to 
confirm whether capability gaps within the existing fleet of UH-58D 
Kiowa Warrior fleet are best addressed through a Service Life Extension 
Program (SLEP) or a new aircraft.
                         ground combat vehicle
    Question. What steps would you take, if confirmed, to ensure that 
the Ground Combat Vehicle (GCV) program is executed affordably, and is 
delivered on time, and with the required capability?
    Answer. If confirmed, I would continue the significant efforts 
undertaken to date in an effort to develop and execute an affordable 
and achievable GCV acquisition strategy, as appropriate.
    Question. What steps would you take, if confirmed, to ensure that 
this new program comports with the WSARA, particularly the requirements 
that major defense acquisition programs be supported by realistic cost 
estimates; reliable risk assessments; and viable acquisition, 
technology development, and systems engineering strategies at the 
outset?
    Answer. If confirmed, I would ensure that the GCV program, and any 
major defense acquisition program, fully complies with the statutory 
requirements of WSARA. As appropriate, I would take necessary steps to 
ensure that compliance is met in connection with program milestone 
decisions and other reviews.
    Question. What steps if any would you take, if confirmed, to ensure 
that technologies critical to developing the GCV as a system are 
sufficiently mature prior to the program, receives Milestone B 
approval, and enters the Engineering and Manufacturing Development 
phase of the acquisition process?
    Answer. If confirmed, I would, as appropriate, fully utilize data 
derived from the current ``three-prong'' strategy during the technology 
development phase of the GCV program--to include designs matured by 
industry, the update to the GCV Analysis of Alternatives and the 
assessment of Non-Developmental Vehicles (NDI) to ascertain the state 
of technological maturity incorporated into designs leading to a 
Milestone B decision.
    Question. What steps would you take if confirmed to ensure that 
overall risk associated with the development of the GCV is sufficiently 
reduced to allow for the use of fixed price-type contracts?
    Answer. If confirmed, I would, as appropriate, continue to work 
collaboratively with the requirements and resourcing communities to 
refine requirements to mitigate technological risk and secure stable 
funding for the program.
                                stryker
    Question. On January 30, 2012, you notified Congress of your 
determination that only one source was qualified and capable of 
performing manufacturing, sustainment, and recapitalization of the 
Stryker family of vehicles, resulting in the award of a sole-source 
procurement contract worth an estimated $5.1 billion. The supporting 
justification documents indicated that no other source had ``access to 
the requisite comprehensive technical data or the complex vehicle 
engineering tasks associated with the Stryker [family of vehicles].''
    Does the Army have full and complete access to technical data 
pertaining to the Stryker family of vehicles? If not, why not?
    Answer. The Army does not have full and complete access to 
technical data pertaining to the Stryker Family of Vehicles. The 
original competitive solicitation did not include a requirement for a 
Technical Data Package (TDP) and subsequent negotiations with the 
contractor to obtain a TDP have thus far been unsuccessful.
    Question. If confirmed, to what extent would you consider 
contracting alternatives that might leverage existing Government-owned 
depots to provide competition within scenarios such as this?
    Answer. If confirmed, I would pursue acquisition strategies that 
deliver needed capabilities to soldiers at best value to the 
Government. To the extent that technical data rights owned by the 
Government facilitate greater competition in the acquisition process, I 
would pursue such strategies in an effort to meet warfighter 
requirements.
            mine resistant ambush protected (mrap) vehicles
    Question. If confirmed, what would you propose should be the Army's 
long term strategy for the utilization and sustainment of its large 
MRAP vehicle fleet?
    Answer. If confirmed, I would collaborate with Army stakeholders to 
determine the appropriate long-term strategy for utilization and 
sustainment of the MRAP fleet. This assessment would balance 
sustainment costs for multiple MRAP variants, the utility of vehicles 
in training operations and their potential use in future operations.
 residual future combat systems lead systems integrator (lsi) contract
    Question. What is your understanding and assessment of the former 
and restructured elements of the now terminated FCS program?
    Answer. My understanding is that the Future Combat Systems (FCS) 
Engineering and Manufacturing Development effort has been cancelled. 
The Army's remaining efforts are related to formal contract and 
subcontract termination. In my view, prior to termination, the FCS 
program faced significant challenges stemming from its heavy reliance 
on immature technologies, unconstrained requirements and attendant cost 
growth and schedule delay.
    As a result of FCS cancellation and restructure, the Army has 
harvested some relevant technologies and processes, in addition to 
valuable lessons learned regarding risk management in major acquisition 
efforts. I understand that this experience has informed revised 
approaches to the Army's tactical network development, unmanned 
technology development, manned ground vehicles, radio development and 
its modernization strategy in general. In addition, FCS cancellation 
has led to an increased emphasis on systems engineering, affordable and 
achievable acquisition strategies, and increased use of soldier 
feedback in weapon system development.
    Question. What is your understanding and assessment of the FCS 
program's residual LSI management concept and contract?
    Answer. Termination and closeout activities are underway in 
connection with the FCS contract and that further efforts under this 
construct have been terminated.
    Question. In your view, what should be the current and future role 
of the LSI and, if confirmed, what modifications, if any, would you 
propose to the LSI contract and fee structure; on what timeline?
    Answer. My understanding is that the Army has discontinued use of 
the LSI construct in connection with the cancellation of the FCS 
program.
                               m1 abrams
    Question. Congress authorized and appropriated funding not included 
in the President's fiscal year 2012 budget request to continue 
upgrading M1 tanks to the M1A2 SEP configuration. A recent RAND 
analysis indicates that a 2014 shutdown and 2017 restart of the sole M1 
tank production line would be less costly than continuing production.
    What course of action would you recommend for the program, if 
confirmed?
    Answer. The Abrams tank remains the best tank in the world, with a 
low average fleet age of approximately 2 to 3 years. I understand that 
there is no current requirement for additional tanks at this time and 
that the Army plans to commence Abrams modernization efforts in fiscal 
year 2017. Moreover, the Army's business case analysis determined that 
the costs to shut down and restart the Abrams production line during 
this period is approximately $600 million to $800 million, while the 
costs to continue production of Abrams at minimum sustaining rates was 
determined to be approximately $2.8 billion. RAND Arroyo has undertaken 
an independent verification of the Army's business case analysis; 
preliminary results from RAND Arroyo confirm that the Army's assessment 
of the costs and benefits of the planned production break are valid. If 
confirmed, I would continue to assess the final results of this 
independent analysis, anticipated in late April 2012, along with other 
considerations--to include the health of the combat vehicle industrial 
base--in determining a recommended approach to this issue.
                         army enterprise email
    Question. What is your understanding of the basis for the Army's 
migration to Defense Information Systems Agency (DISA) Enterprise 
Email?
    Answer. My understanding is that the Army's decision to adopt a 
DISA-based e-mail solution was based on a business case analysis 
weighing both quantifiable and nonquantifiable factors to provide 
improved capability to users across the Army.
    Question. Do you believe that the projected cost savings for this 
migration are realistic?
    Answer. In my view, Enterprise Email migration offers the potential 
for significant cost savings across the Army.
    Question. Under what Army Program Executive Office will Enterprise 
Email be managed?
    Answer. Enterprise Email will be managed under the Program 
Executive Office Enterprise Information Systems.
    Question. If confirmed, what steps if any would you take to 
separately develop and contract for information technology services 
which may already be available and in-use elsewhere within DOD?
    Answer. If confirmed, I would work with all affected stakeholders 
to determine the most effective, secure and best-value materiel 
solutions to information technology requirements within the Army.
                      network integration exercise
    Question. The Army's attempt to encourage commercial development 
via the Network Integration Exercise (NIE) represents a new construct 
for determining what technologies to develop and procure.
    Has the Army tied NIE evaluation and/or test results to currently 
available rapid innovation or equipping programs?
    Answer. The Army is developing processes to incorporate the lessons 
learned from the rapid equipping efforts we have undertaken during 10 
years of war. The NIE is a key part of this effort and enables our 
Capability Set Management approach. Through Capability Set Management 
(CSM), we evaluate in an operational environment, and design a suite of 
systems and equipment to answer the projected requirements of a 2-year 
cycle. Every year, we integrate the next capability set, reflecting any 
changes or advances in technology. This construct applies lessons 
learned from existing rapid equipping efforts.
    Question. What is the Army's defined acquisition process that 
follows the NIE?
    Answer. Following each NIE, the Army examines capabilities 
evaluated at the NIE, which helps identify capability gaps, inform 
decisions regarding requirements and help to shape future acquisition 
efforts. The Army is taking steps to refine the NIE Sources Sought and 
Request for Proposal process to provide us with a formal process for 
procuring systems that show promise coming out of the NIE.
                               modularity
    Question. Modularity refers to the Army's fundamental 
reconfiguration of the force from a division-based to a brigade-based 
structure. The new modular brigade combat team is supposed to have an 
increased capability to operate independently based upon increased and 
embedded combat support capabilities such as military intelligence, 
reconnaissance, and logistics. Although somewhat smaller in size, the 
new modular brigades are supposed to be just as or more capable than 
the divisional brigades they replace because they will have a more 
capable mix of equipment--such as advanced communications and 
surveillance equipment. To date, the Army has established over 80 
percent of its planned modular units, however, estimates on how long it 
will take to fully equip this force as required by its design has 
slipped from 2011 to 2019.
    What is your understanding and assessment of the Army's modularity 
transformation strategy?
    Answer. It is my understanding that the Army's modular 
transformation was designed to create a more expeditionary force 
capable of addressing the full-spectrum of missions in 21st century 
operations. In support of this transformation, the Army has implemented 
strategies for the distribution of equipment to modular units in order 
to provide increased readiness over time. My understanding is that 
transition to this approach is still underway and will continue to 
assess evolving force structure levels. If confirmed, I look forward to 
working with Army leadership to make a full assessment of this 
strategy.
    Question. In your view, what are the greatest equipment and 
sustainment challenges in realizing the transformation of the Army to 
the modular design?
    Answer. Our greatest challenge, I believe, is maintaining a balance 
between sustaining equipment for the current fight in this fiscal 
environment, while selectively and incrementally modernizing systems to 
provide future capabilities.
    Question. If confirmed, what actions or changes, if any, would you 
propose relative to the Army's modular transformation strategy and 
plans for equipping and sustaining the force?
    Answer. The Army is currently assessing its modular transformation 
strategy and plans for equipping and sustaining the force, in light of 
new defense strategic guidance and budget changes. If confirmed, I 
would closely examine the transformation strategy to ensure a focus on 
resources that sustain the current fight, while making critical 
investments to Army modernization.
                          manufacturing issues
    Question. The recent Defense Science Board (DSB) study on the 
Manufacturing Technology Program made a number of findings and 
recommendations related to the role of manufacturing research and 
capabilities in the development and acquisition of defense systems.
    Have you reviewed the findings of the DSB Task Force on the 
Manufacturing Technology Program?
    Answer. I have not reviewed the specific findings, but I am 
generally familiar with the recommendations regarding the need to 
invest in manufacturing technology (ManTech) as a means to reduce risk 
in acquisition programs.
    Question. What recommendations, if any, from the Task Force would 
you plan to implement if confirmed?
    Answer. If confirmed, I would carefully assess the findings and 
recommendations of the DSB Task Force and work closely with the Office 
of Secretary of Defense to implement measures as appropriate.
    Question. What incentives do you plan to use to enhance industry's 
incorporation and utilization of advanced manufacturing processes 
developed under the manufacturing technology program?
    Answer. If confirmed, I would work to identify and implement such 
incentives as deemed necessary in cases where advanced manufacturing 
processes are not developed through competition.
                         science and technology
    Question. What, in your view, is the role and value of science and 
technology programs in meeting the Army's transformation goals and in 
confronting irregular, catastrophic, traditional and disruptive 
threats?
    Answer. In my view, the Army's Science and Technology (S&T) 
investment programs should function as the ``seed corn'' of future 
capabilities; facilitating the maturation of new technologies while 
investing in true leap-ahead capabilities. It is my view that the 
Army's S&T investment should be informed by evolving threats, the state 
of foreign technologies, industry research and development, and Army-
specific capability needs.
    Question. If confirmed, what direction will you provide regarding 
funding targets and priorities for the Army's long term research 
efforts?
    Answer. I believe that it is important to maintain a balanced and 
responsive science and technology portfolio that complements 
Department-wide and joint efforts and investment within the defense 
industry. If confirmed, I would advance a strategy consistent with the 
parameters outlined above.
    Question. What specific metrics would you use, if confirmed, to 
assess whether the Army is making adequate investments in its basic 
research programs?
    Answer. If confirmed, I would assess Army investments in basic 
research across portfolios to develop leap-ahead capabilities. I would 
promote the development of metrics to assess future transformational 
opportunities and measure progress.
    Question. Do you feel that there is sufficient coordination between 
and among the science and technology programs of the military services 
and defense agencies such as DARPA?
    Answer. I believe that there is good coordination between DARPA, 
other defense agencies and the Army. If confirmed, I would expand that 
level of collaboration as appropriate.
    Question. What is the Department's role and responsibility in 
addressing national issues related to science, technology, engineering, 
and mathematics education and workforce development?
    Answer. I believe the Army, which is significantly dependent on 
science and technology to fulfill its national defense mission, has 
effective policies and programs in place to help maintain the technical 
edge our Nation needs to ensure its security and to be globally 
competitive. It's important to recognize that the Army not only needs 
to attain and retain the talent today, but also needs to develop a 
talented future workforce to maintain the technical edge. If confirmed, 
I plan to continue and strengthen, where necessary, Army educational 
outreach programs and initiatives.
    Question. What steps if any would you take to support efforts to 
ensure that the Nation has the scientific and technical workforce 
needed for its national security technological and industrial base?
    Answer. If confirmed, I would utilize current legislative 
authorities and Army investment vehicles to cultivate a talented and 
high-quality pool of scientists, mathematicians, engineers, and 
technicians.
    Question. How would you use science and technology programs to 
better reduce technical risk and therefore potentially reduce costs and 
schedule problems that accrue in large acquisition programs?
    Answer. Science and technology programs offer the potential to 
reduce risk in acquisition programs by maturation of incorporated 
technologies. If confirmed, I would examine ways to better utilize S&T 
programs to mature technologies and reduce risk in Army acquisition 
programs.
    Question. Do you feel that the science and technology programs of 
the Army are too near-term in focus and have over-emphasized technology 
transition efforts over investing in revolutionary and innovative 
research programs?
    Answer. I believe that Army investment decisions in science and 
technology must balance the Army's needed capabilities from mid-term to 
long-term across a broad portfolio. This implies a need that spans 
across revolutionary and innovative research to mature technologies.
    Question. Are you satisfied that the Army has a well articulated 
and actionable science and technology strategic plan?
    Answer. I believe that the Army has made significant strides in 
articulating and implementing an S&T strategic plan based on critical 
challenges faced in the Army. If confirmed, I would extend these 
efforts to continue to improve the Army's S&T strategic plan.
    Question. Do you see a need for changes in areas such as hiring 
authority, personnel systems, financial disclosure and ethics 
requirements, to ensure that the Army can recruit and retain the 
highest quality scientific and technical workforce possible?
    Answer. I believe that the need to attract, recruit and retain the 
highest quality workforce remains an enduring challenge in any 
organization; include the Army. At this point, I do not recommend 
specific changes in any of these areas. If confirmed, however, I would 
welcome the opportunity to fully assess the impact of these processes 
and recommend changes as appropriate.
    Question. What is your view of the effectiveness of the Military 
Accessions Vital to National Interest Program to recruit non-U.S. 
citizens who graduate from U.S. universities with advanced degrees in 
scientific and technical fields of critical national importance?
    Answer. I understand that the Military Accessions Vital to National 
Interest Program is designed to facilitate the availability of 
scientific and technical expertise in each of the Military Services. If 
confirmed, I look forward to the opportunity to evaluate the 
effectiveness of this program in collaboration with other Services and 
the Office of Secretary of Defense to enhance technical and scientific 
skills in the Army.
    Question. What steps if any would you take if confirmed to ensure 
the continued effectiveness of this program?
    Answer. If confirmed, I would work with other Services and the 
Office of the Secretary of Defense to ascertain the effectiveness of 
this program before taking any appropriate measures in this area.
                          defense laboratories
    Question. What is your view on the quality of the Army laboratories 
as compared to the DOE national laboratories, Federal laboratories, 
academic laboratories, and other peer institutions?
    Answer. If confirmed, I will undertake a review of Army laboratory 
capability with a view toward enhancing their capability.
    Question. What metrics will you use, if confirmed, to evaluate the 
effectiveness, competitiveness, and scientific vitality of the Army 
laboratories?
    Answer. If confirmed, I will work to identify and develop 
appropriate metrics to evaluate laboratory effectiveness. It is my 
understanding that the Army currently conducts peer reviews annually to 
assess the vitality of the laboratories.
    Question. What steps if any will you take, if confirmed, to 
increase the mission effectiveness and productivity of the Army 
laboratories?
    Answer. If confirmed, I will work with relevant Army organizations 
to assess and improve mission effectiveness in those areas in need of 
improvement.
    Question. Do you see value in enhancing the level of technical 
collaboration between the Army laboratories and academic, other Federal 
and industrial scientific organizations?
    Answer. I definitely do. If confirmed, I would encourage increased 
collaboration by Army laboratories with other research institutions. In 
my view, this form of collaboration is essential to refining the Army's 
focus in S&T investment and complementing efforts by other leading 
institutions.
    Question. What steps if any will you take, if confirmed, to enhance 
such technical collaboration?
    Answer. See response above.
    Question. Do you feel that past investments in research equipment; 
sustainment, repair and modernization; and facility construction at the 
Army laboratories have been sufficient to maintain their mission 
effectiveness and their standing as world class science and engineering 
institutions?
    Answer. I believe that maintaining appropriate investments in this 
area is critical to the development of future capabilities for soldiers 
and would work with the Army laboratories to identify and address areas 
of need, if confirmed.
    Question. What is your view of the funding mechanism for the 
research and development priorities of defense laboratory directors 
provided by section 219 of the National Defense Authorization Act for 
Fiscal Year 2009?
    Answer. I support the funding mechanisms authorized under section 
219 of the legislation.
    Question. What continuing impediments, if any, do you see to the 
full implementation of this provision?
    Answer. I support the funding mechanisms authorized under section 
219 of the legislation. In my view, Congress has provided Laboratory 
Directors the needed authority to use funding for important 
discretionary efforts.
                          test and evaluation
    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
Director of Operational Test and Evaluation in ensuring the success of 
the Army's acquisition programs?
    Answer. I believe it is appropriate to have an independent 
operational test and evaluation authority separate from the materiel 
developer to plan and conduct operational tests, report results, and 
provide evaluations on operational effectiveness, operational 
suitability, and survivability.
    Question. Are you concerned with the level of test and evaluation 
conducted by the contractors who are developing the systems to be 
tested?
    Answer. Contractors are responsible to ensure that their system 
meets developmental test and evaluation criteria. The Army should 
provide oversight. The Army must work with the contractor to ensure it 
understands the Government's OT&E plans and ensure that its system is 
able to meet all the criteria.
    Question. What is the impact of rapid fielding requirements on the 
standard testing process?
    Answer. If confirmed, how will you work to ensure that all 
equipment and technology that is deployed to warfighters is subject to 
appropriate operational testing?
    I understand that rapid fielding requirements call for revised 
testing procedures that meet warfighter needs while ensuring that 
proper testing and evaluation concerns are addressed. If confirmed, I 
would work with the testing community to ensure that rapid acquisition 
efforts are responsive to warfighter requirements and that appropriate 
testing requirements are met.
    Question. Do you believe that the developmental testing 
organizations in the Army are adequate to ensure an appropriate level 
of developmental testing, and testing oversight, on major defense 
acquisition programs?
    Answer. I believe that there are adequate resources in the Army to 
ensure appropriate level of testing and testing oversight on major 
acquisition defense programs. If confirmed, I will work closely with 
the developmental testing community to emphasize early developmental 
testing within acquisition programs to minimize program risks.
    Question. If not, what steps would you take, if confirmed, to 
address any inadequacies in such organizations?
    Answer. If confirmed, I will continue to monitor the status of 
these organizations to ensure that they remain capable of accomplishing 
their mission.
    Question. As systems grow more sophisticated, networked, and 
software-intensive, DOD's ability to test and evaluate them becomes 
more difficult. Some systems-of-systems cannot be tested as a whole 
until they are already bought and fielded.
    Are you concerned with Army's ability to test these new types of 
systems?
    Answer. I agree that system interoperability presents increased 
challenges as Army equipment becomes more sophisticated, networked and 
software intensive. In my view, the Army has taken a pioneering 
approach to identifying and addressing these challenges through the 
development of the NIE at Fort Bliss, TX. These events provide soldiers 
an opportunity to evaluate and use multiple systems in an operational 
setting, which affords the Army a valuable opportunity to address 
complex systems-of-systems challenges prior to procurement and 
fielding. If confirmed, I would support the ongoing use of NIE events 
to provide critical feedback in this area throughout the acquisition 
cycle.
    Question. What steps, if any, do you believe the Army should take 
to improve its test and evaluation facilities to ensure adequate 
testing of such systems?
    Answer. If confirmed, I will provide support to the Army test and 
evaluation community and support efforts to ensure that they are 
properly resourced.
    Question. In your view, does the Army have sufficient capabilities 
to test and evaluate the cybersecurity of its new information 
technology systems and networks?
    Answer. The capability and methodology is in place to address 
current and anticipated cybersecurity threats. Existing processes 
include robust enforcement of the information assurance requirements 
under DOD Directive 8500.1 and Army Regulation 25-2. These requirements 
serve as screening criteria for new systems, with input from the Army 
Cyber Command, Army Test and Evaluation Command, Army Research Lab, 
Army Threat Systems Management Office and the office of the ASA(ALT).
    Question. What steps if any would you propose to take, if 
confirmed, to enhance this capability?
    Answer. If confirmed, I will work with the Army and Department's 
cybersecurity community to evaluate our existing processes and assess 
emerging threats to enhance our capabilities, as appropriate. In my 
view, these approaches could include enhanced use of automation and 
simulation to augment our testing processes.
    Question. Some have argued that testing takes too long and costs 
too much. Others contest this view pointing out that testing and 
evaluation is an essential tool to assist in the development of weapon 
systems and ensure that they perform as intended. The Armed Services 
Committee has expressed concern that problems with weapons systems have 
been discovered during operational testing and evaluation that should 
have been discovered during developmental testing and corrected during 
subsequent development.
    Do you believe that major defense acquisition programs are helped 
or hurt by cutting tests budgets and reducing the time available for 
developmental testing?
    Answer. I believe that an independent testing function is a vital 
part of the defense acquisition process and agree that it serves as an 
essential tool in discovering and addressing issues in system 
development. In particular, developmental testing early in the 
acquisition life cycle will discover design and production issues early 
on when it is the least costly to take corrective action. Test budget 
reductions may result in discovery of design or production issues much 
later in the program, during operational test and evaluation, when it's 
more expensive to modify a system design.
    Question. What steps if any will you take, if confirmed, to ensure 
that the program management community and the testing and evaluation 
community work collaboratively and effectively in a way that maximizes 
the likelihood that developmental testing and evaluation will detect 
and identify problems timely in software and hardware to provide 
opportunities to correct them before production and before operational 
testing and evaluation begins?
    Answer. If confirmed, I will emphasize the importance of close 
collaboration between the program management community and the test and 
evaluation community to enable early discovery of design and production 
issues.
    Question. To what extent do you think that dedicated operational 
testing can be more efficiently integrated into developmental and live-
fire testing in a way that is also sufficiently rigorous?
    Answer. I believe that the NIE suggests a valuable model for 
integrating early operational testing in Army acquisition programs in 
novel ways. If confirmed, I would assess the potential of efforts to 
integrate early operational testing within developmental testing to 
achieve efficiencies.
    Question. The Decker-Wagner report cited unconstrained 
requirements, weak trade studies and an erosion of the relevant 
workforce as causes of many of the Army's failed acquisition programs.
    To what extent do you believe that the Army can improve how it 
states requirements supporting its acquisition programs by using 
establishing more measurable and testable parameters, or by justifying 
such requirements on the basis of accomplishing missions in combat--
rather than merely meeting technical specifications?
    Answer. If confirmed, I would work with the requirements community 
to address unconstrained requirements with cost-informed review of 
potential trade space. It is critical to understand the trades between 
mission effectiveness and technical risk while meeting program 
objectives and maintain affordability.
                          army industrial base
    Question. What is your assessment of the health and status of the 
key elements of the Army's industrial base?
    Answer. I am concerned about the impacts of planned reductions in 
Army budgets on the health of the industrial base. While major defense 
contractors have faced downturns before and will likely explore 
diversification in commercial activity or foreign military sales, risks 
to the viability of second and third tier suppliers impacted by the 
drawdown may present more challenges to the Army as it conducts future 
modernization efforts.
    Question. In your view, is DOD's sector-by-sector, tier-by-tier 
(S2T2) activity providing useful information to assist the Army in 
maintaining and improving key elements of its industrial base?
    Answer. The assessment currently underway across the Department is 
a critical step toward the identification and prioritization of 
potential industrial base issues.
           small business innovation research (sbir) program
    Question. What do you see as the major successes and challenges 
facing the Army SBIR program?
    Answer. The SBIR program is designed to provide small, high-tech 
businesses the opportunity to propose innovative research and 
development solutions in response to critical Army needs. In fiscal 
year 2011, small businesses submitted over 3,000 proposals, which were 
evaluated by the Army SBIR office and resulted in over 600 awards 
valued at approximately $200 million.
    In my view, the Army SBIR program performs a valuable role in 
developing innovative capabilities through small business investment. I 
understand that the Army continues to explore ways to streamline the 
SBIR process, further increase program success rates and ultimately 
facilitate the transition of products that are developed under Army 
SBIR contracts.
    Question. What steps would you take if confirmed to ensure that the 
Army has access to and invests in the most innovative small businesses?
    Answer. If confirmed, I would ensure that small businesses funded 
with SBIR dollars have stronger ties to the Army's S&T program and to 
emerging acquisition program needs.
    Question. What steps would you take if confirmed to ensure that 
successful SBIR research and development projects transition into 
production?
    Answer. If confirmed, I would conduct regular SBIR program reviews 
to monitor ongoing projects. I would also work to refine the criteria 
for transition of SBIR funded programs to programs of record, as 
appropriate. Also, I would work to ensure that existing Army programs 
of record have resources and acquisition strategies in place to 
incorporate technologies developed under SBIR.
                             technical data
    Question. Do you believe that the Army has been as aggressive as it 
should have been in (1) securing ownership of technical data in 
connection with items and processes associated with major weapon 
systems that it procures when doing would best serve the Government's 
interests and (2) asserting ownership rights over this data in a manner 
sufficient to ensure competition for the production and maintenance of 
these systems over their lifecycle?
    Answer. The Army has recently reviewed policies governing efforts 
to acquire ownership of technical data and has implemented guidance 
encouraging such ownership when it represents a best-value approach in 
the development of systems.
    Question. What steps if any will you take if confirmed to ensure 
that the Army obtains the technical data rights that it needs to avoid 
being locked into unnecessary sole-source follow-on production and 
sustainment to incumbents to the detriment of the taxpayer and the 
warfighter?
    Answer. If confirmed, I would affirm current efforts to encourage 
the purchase of technical data rights where appropriate.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASA(ALT)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                   new army major weapons procurement
    1. Senator McCain. Ms. Shyu, the Army has two prominent programs 
currently in the early stages of development: the Joint Light Tactical 
Vehicle (JLTV) and the Ground Combat Vehicle (GCV). Each has had its 
requirements substantially reduced to help ensure affordability. I am 
concerned that as these programs move forward in development, their 
requirements may change again, resulting--predictably--in major cost 
overruns. What confidence do you have that the requirements for JLTV 
and GCV are now stable?
    Ms. Shyu. Requirements stability is essential to our ability to 
plan and execute designs and produce vehicle capabilities within 
schedule and budget constraints. The addition of capabilities to 
planned weapon systems, even as development is ongoing, generally 
exacerbates risks associated with the program's cost and schedule. Many 
of the policies and practices that have been put into place over the 
past 2 years are specifically designed to address cost and schedule 
growth in major acquisition programs resulting from requirements 
instability. The institution of Configuration Steering Boards, for 
instance, currently required on an annual basis, guard against 
requirements creep through the review and evaluation of the program 
requirements to control cost. In addition, the Army has taken proactive 
steps to address requirements in both the JLTV and GCV programs, both 
to reduce technical risk and meet affordability goals. These efforts 
are ongoing, as we endeavor to continuously refine requirements to keep 
these risks as low as possible.
    Within the JLTV program, the Army executed a comprehensive 
Technology Development (TD) phase that facilitated greater 
understanding of the feasibility of planned JLTV requirements, which 
led to key adjustments. The requirements communities from both the U.S. 
Army and U.S. Marine Corps conducted extensive cost informed 
requirement trades that brought the program's cost down and reduced 
technical risk.
    Similarly, the Army worked to substantially revise requirements for 
the GCV program in 2010 in order to support an affordable program with 
minimized technical risk, consistent with the planned schedule for 
development. As the Army conducts the current technology development 
phase of GCV development, further opportunities to refine requirements 
to avert excessive cost and technical risk will be assessed.

    2. Senator McCain. Ms. Shyu, will you allow production decisions to 
be made prior to the prototyping and testing of these vehicles and/or 
their subsystems?
    Ms. Shyu. Production decisions will not be made prior to the 
prototyping and testing of these vehicles. The JLTV program has a 33-
month comprehensive Engineering, Manufacturing, and Development (EMD) 
program in which three contractors will fabricate 22 vehicles each and 
the Government will conduct mobility, reliability, transportability and 
blast testing to demonstrate performance. Results from the 
comprehensive test program will be used during the down select for 
production process. The GCV is currently in the TD phase and anticipate 
a 4-year EMD period to refine designs and build and test prototypes, 
well before any production decision is reached.

    3. Senator McCain. Ms. Shyu, what confidence do you have in the 
Army's ability to effectively assess the technological risks associated 
with the maturity of weapons systems and GCV, in particular?
    Ms. Shyu. The Army's has the ability to effectively assess the 
technological risks associated with the maturity of weapons systems. To 
reduce the risk associated with entering the EMD phase, Department of 
Defense Instruction 5000.02 requires Requests for Proposals (RFPs) to 
incorporate language that prevents the award of an EMD contract if it 
includes technologies that have not been demonstrated adequately in a 
relevant environment, called Technology Readiness Level 6. Also, the 
Government, independent from the Product Manager, conducts a Technology 
Readiness Assessment on all the competitors' proposals in the EMD 
source selection.
    In the GCV program, the Army has specifically developed an 
acquisition strategy designed to make effective use of these 
assessments. Specifically, the GCV program incorporates a comprehensive 
evaluation plan throughout the TD phase to assess risk, specifically in 
connection with key technologies, to support any adjustments to the 
program's planned EMD effort, if necessary. To further reduce 
technological risk, planned prototypes call for existing, Government-
proven technologies in subsystems, such as transmissions. Additionally, 
the two GCV vendors under contract have already made initial design 
trades in support of Army direction requiring technologically mature 
systems prior to the start of EMD.
    The Army will test and evaluate the subsystem in connection with 
completion of the Preliminary Design Review. This information will be 
coupled with data obtained from the other two TD phase activities 
(Analysis of Alternatives (AOA) update and Nondevelopmental Item 
evaluation), in order to assess the program's technological risks and 
inform the EMD Request for Proposal performance specifications.
                         excessive concurrency
    4. Senator McCain. Ms. Shyu, a big problem with how DOD buys major 
systems is this: it has tended to go all in on these procurement 
programs without understanding enough about their technical or systems 
engineering to assess whether developing them may have too much risk. 
So, these programs struggle endlessly in development--where costs grow 
and schedules slip--without needed combat capability delivered. Far too 
often, DOD has tried to execute such programs under cost-plus 
contracts. In my view, this has been an utter disaster. Do you agree? 
If so, how would you address it?
    Ms. Shyu. Cost growth and related challenges to program execution 
can be traced to a myriad of factors in major defense acquisition 
programs. I generally believe that past major Army modernization 
programs failed as a result of system requirements instability, 
combined with a reliance on immature technologies, which significantly 
contributed to a high degree of risk and associated cost growth. I 
believe the key to addressing our challenge is based on early and 
continuous collaboration between the communities responsible for 
requirements generation, budget and programming, and acquisition 
program management to ensure the delivery of affordable, timely and 
effective equipment to the Army. If confirmed, I would place an 
emphasis on acquisition strategies that anticipate and mitigate the 
causes for such risk in major defense acquisition programs. The 
strategies I would promote include an emphasis on competition, 
implementation of fixed-price contracts where appropriate, 
affordability caps in large-scale acquisition programs, and cost 
reduction through ``should cost'' program management.
    In addition, I would ensure that materiel development is 
continuously informed by considerations of cost and technical risk 
throughout the acquisition lifecycle. Specifically, I would emphasize 
the development and use of cost-informed trade-offs in requirements, 
through Configuration Steering Boards, to reduce technical risk and 
address causes of cost growth. I further believe that the emphasis on 
cost-informed trade-offs ought to commence at the earliest stages of 
the materiel development cycle--in requirements generation--before 
expensive design and development begins in earnest. If confirmed, I 
would prioritize collaboration with the warfighter to address these 
leading causes of program failure during this critical phase, where the 
foundations of large scale modernization programs are set.

    5. Senator McCain. Ms. Shyu, if confirmed, what overall approach 
would you take to ensure that programs with too much concurrency are 
never started?
    Ms. Shyu. In my view, a high degree of concurrency contributes 
significant risk to weapon systems programs, particularly if the 
concurrency is attributable to evolving requirements in the late phases 
of development. The acceptable degree of concurrency depends on several 
factors, to include the urgency of the operational need for the 
capability, the technical risks inherent in the program's development 
and consideration of the potential impact on the planned program cost 
and schedule. If confirmed, I would weigh these and other related 
factors in determining whether to commence a program with a high degree 
of concurrency.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                  army armed aerial scout requirements
    6. Senator Wicker. Ms. Shyu, Congress funded an AOA to establish an 
armed scout replacement program as far back as 2009. The fiscal year 
2012 budget included $15 million to conduct an additional Request for 
Information (RFI) and Voluntary Flight Demonstration (VFD) this year. 
Little guidance is being shared about the Army Armed Aerial Scout (AAS) 
requirements and how the RFI and demonstrations will be conducted. What 
are the Initial Capabilities Document (ICD) requirements for the AAS 
program and have you communicated those requirements to industry?
    Ms. Shyu. The July 2009 ICD does not prescribe specific threshold 
and objective requirements for a material solution, rather, it 
describes the capability gaps that exist in the mission area. Although 
the ICD has not been released to industry, the planned RFI describes 
the capability shortfalls that currently exist in terms of 
responsiveness, performance margins, and lethality. Additionally, the 
planned RFI contains a detailed description of the AAS mission sets.

    7. Senator Wicker. Ms. Shyu, were they the same requirements used 
in the original AOA?
    Ms. Shyu. The AOA was focused on the same capability gaps addressed 
in the current ICD. The July 2009 ICD does not prescribe specific 
threshold and objective requirements for a material solution, rather it 
describes the capability gaps that exist in the mission area.

    8. Senator Wicker. Ms. Shyu, will the ICD requirements be used as 
the baseline for the planned AAS RFI and VFD and your materiel 
solution?
    Ms. Shyu. Yes. The AAS RFI and VFD seek to address the same 
capability gaps in the current ICD. The capability gaps addressed in 
the current ICD are the same capability gaps that were used in the 
conduct of the Armed Aerial Scout AOA. In addition, these same 
capability gaps will be used in the market research analysis associated 
with the release of the RFI and VFD.

                          flight demonstration
    9. Senator Wicker. Ms. Shyu, upgrades requested to keep to the OH-
58D Kiowa Warrior helicopter operating safely have become more complex 
and costly. It is important that a final determination is made for 
addressing the Army's validated AAS requirement to assure valuable time 
and resources are invested on a platform that will best meet the Army's 
requirements. Congress anticipates that the upcoming RFI and VFD will 
be conducted with the utmost rigor, objectivity, and fairness in order 
to reach a credible and conclusive AAS acquisition strategy. For the 
VFDs, how will you ensure the process is fair and transparent?
    Ms. Shyu. The Army will ensure that market research is conducted 
thoroughly and fairly consistent with prescribed guidance in the 
Federal Acquisition Regulations (FAR). The VFD maneuvers will be 
executed in accordance with standard test techniques and normalized to 
standard atmospheric conditions. Once the VFD is complete, industry 
participants will have the opportunity to update their RFI response.

    10. Senator Wicker. Ms. Shyu, how do you plan to establish 
standardized flight conditions?
    Ms. Shyu. The Army will use Experimental Test Pilots that are 
graduates of the Naval Test Pilot School. The pilots will execute 
maneuvers that are voluntarily agreeable to the industry participant, 
as outlined in the RFI. Moreover, these maneuvers will be conducted in 
accordance with standard test techniques and normalized to standard 
atmospheric conditions.

    11. Senator Wicker. Ms. Shyu, what method or trade basis will be 
used to drive your materiel solution decision in regard to weapons 
systems cost, schedule, and performance considerations?
    Ms. Shyu. Results of the RFI and VFD will be assessed against the 
known weighted capability gaps defined in the initial capabilities 
document and validated by the AAS AOA. The methodology for determining 
cost, schedule, and performance trades will be similar to the 
methodology used in the AAS AOA.

              kiowa warrior service life extension program
    12. Senator Wicker. Ms. Shyu, the Army states that the Kiowa 
Warrior Service Life Extension Program (SLEP) is the basis for 
comparison in the AAS evaluation. I am not aware that a SLEP has been 
established or approved and there is no SLEP in the fiscal year 2013 
budget request. Have you conducted, or do you intend to conduct, the 
required Service Life Assessment Program (SLAP) to validate your Kiowa 
Warrior SLEP assumptions?
    Ms. Shyu. Kiowa Warrior SLEP is referenced as `RECAP' in the budget 
exhibits. The Kiowa Warrior fiscal year 2013 budget request contains 
funding to execute the SLEP, or `RECAP', requirement if the Army 
decides against a new materiel solution for AAS.
    The Kiowa Warrior SLAP is designed to investigate and analyze 
various approaches to enhance airframe Reliability and Maintainability, 
as well as identify safety improvements to the fuselage structures. The 
SLAP program is currently ongoing and will identify the specific 
structures requiring improvement; these changes would be implemented 
via a SLEP effort.

    13. Senator Wicker. Ms. Shyu, what are the cost, technical, and 
schedule risk findings of the SLEP?
    Ms. Shyu. The cost, technical, and schedule risks of a SLEP program 
are low. The Army has extensive reliability and cost data on the 40+ 
year-old OH-58 airframes, a trained and capable workforce performing 
depot-level maintenance via the Crash Battle Damage & Overhaul 
programs, and new cabin production lines in the Wartime Replacement 
Aircraft (WRA) program. Together these programs lower the risk involved 
in executing a SLEP initiative.
    Any SLEP program would include replacing the aircraft structures, 
which could occur on an already established production line such as 
WRA. The OH-58F Cockpit and Sensor Upgrade Program (CASUP) begins 
production on that line in 2015, providing a good entry point for new 
metal production that could align with the current CASUP production 
schedule.

    14. Senator Wicker. Ms. Shyu, based on the findings of the SLAP, is 
the Kiowa Warrior program in the fiscal year 2013 President's budget 
considered to be low risk for execution? If so, by what measures?
    Ms. Shyu. The initial findings of the SLAP study will be available 
in late summer 2012. Execution of fiscal year 2013 program funds for 
the Kiowa Warrior program is not dependent on SLAP results and the 
outcome of this analysis is not anticipated to present any risk or 
otherwise affect the fiscal year 2013 budget or Kiowa Warrior program 
execution. Based on the fact that the Critical Design Review was 
successfully completed ahead of schedule in April 2012, the first two 
Engineering and Manufacturing Development Demonstrator prototype 
aircraft are being modified and the critical component programs are 
executing well. Accordingly, the Kiowa Warrior program is at low risk 
for execution in fiscal year 2013.

                    materiel solution determination
    15. Senator Wicker. Ms. Shyu, if performance is validated during 
the flight demonstration, will the Army use the validated performance 
data for the comparative analysis, or will the Army make unilateral 
adjustments and assumptions?
    Ms. Shyu. The Army will conduct market research to determine what 
technology is available that may be able to contribute to a material 
solution option that delivers greater capability than the Kiowa 
Warrior. The Army does not intend to compare individual results but 
rather assess their capability against the weighted capability gaps 
from the Armed Aerial Scout AOA.

    16. Senator Wicker. Ms. Shyu, if performance capability is not 
validated by a flight demonstration, how will the claims be treated 
during the evaluation?
    Ms. Shyu. The Army realizes that industry RFI performance 
projections could exceed what is physically demonstrated. In those 
instances, or those instances where industry elects not to participate 
in the voluntary flight demonstration, the Army will assess the risk of 
achieving the RFI performance projection. This assessment will be based 
on associated technical readiness levels and technology roadmap.

    17. Senator Wicker. Ms. Shyu, if performance is validated during 
the flight demonstration, how will the claims be treated in conducting 
the cost/benefit analysis to make your materiel solution decision?
    Ms. Shyu. Validated performance data serves to mitigate risk 
associated with achievement of performance projections identified 
through the RFI. The Army will conduct a risk assessment on all 
responses, whether they are validated by performance data or strictly 
claimed. The goal is to identify an affordable, achievable, moderate 
risk material solution option based on the current state of technology 
in the market.

    18. Senator Wicker. Ms. Shyu, what is your methodology to conduct 
your comparison?
    Ms. Shyu. The Army will not compare individual industry responses 
against each other. Based on open source documentation, industry 
appears to have further developed technology, initially described 2 
years ago in their RFI responses, that represents a considerable 
increase in capability gap mitigation. However, the Army currently has 
no insight into these potential improvements. Individual responses to 
the RFI and the demonstrated capabilities will be analyzed to assess 
the performance, cost and schedule attributes needed to procure an 
improved capability. The methodology used to determine the capability 
tradeoffs will be consistent with the methodology used during the AAS 
AOA and validated by the AAS AOA Senior Advisory Group.

    19. Senator Wicker. Ms. Shyu, how will the Army determine if the 
AAS materiel solution is deemed unaffordable and is terminated?
    Ms. Shyu. The AAS program has not advanced beyond the material 
alternatives analysis phase and is not currently a program of record 
subject to termination. Ongoing analysis, subsequent to the formal AOA, 
is further examining cost and performance estimates associated with a 
new materiel solution. The Army will make an affordability decision in 
conjunction with the capabilities determination decision at the end of 
the current market research effort.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                       army acquisition failures
    20. Senator Ayotte. Ms. Shyu, since 2004 and including the Future 
Combat System program, the Army has lost about $3.3 to $3.8 billion (or 
35 to 42 percent) per year of funding for testing and evaluation for 
programs that were ultimately canceled. If you are confirmed, how would 
you address this history of Army acquisition failures?
    Ms. Shyu. Cost growth and related challenges to program execution 
can be traced to a myriad of factors in major defense acquisition 
programs. I generally believe that past major Army modernization 
programs failed as a result of system requirements instability, 
combined with a reliance on immature technologies, which significantly 
contributed to a high degree of risk and associated cost growth. I 
believe the key to addressing our challenge is based on early and 
continuous collaboration between the communities responsible for 
requirements generation, budget and programming, and acquisition 
program management to ensure the delivery of affordable, timely and 
effective equipment to the Army. If confirmed, I would place an 
emphasis on acquisition strategies that anticipate and mitigate the 
causes for such risk in major defense acquisition programs. The 
strategies I would promote include an emphasis on competition, 
implementation of fixed-price contracts where appropriate, 
affordability caps in large-scale acquisition programs, and cost 
reduction through ``should cost'' program management.
    In addition, I would ensure that materiel development is 
continuously informed by considerations of cost and technical risk 
throughout the acquisition lifecycle. Specifically, I would emphasize 
the development and use of cost-informed trade-offs in requirements, 
through Configuration Steering Boards, to reduce technical risk and 
address causes of cost growth. I further believe that the emphasis on 
cost-informed trade-offs ought to commence at the earliest stages of 
the materiel development cycle--in requirements generation--before 
expensive design and development begins in earnest. If confirmed, I 
would prioritize collaboration across the Army to address these leading 
causes of program failure during this critical phase, where the 
foundations of large scale modernization programs are set.

    21. Senator Ayotte. Ms. Shyu, how will you address the problems of 
requirements-creep?
    Ms. Shyu. I think greater collaboration between the program 
management, requirements and resourcing communities is essential to the 
development of realistic and realizable programs based on stable 
requirements. This collaboration must strive to identify cost-informed 
trade-offs in system design requirements throughout the program cycle, 
in large part to ensure that the program remains affordable and 
prevents requirements creep. If confirmed, I would use Configuration 
Steering Boards to implement the trades necessary to ensure sound 
execution of acquisition programs. Furthermore, I would complement 
these efforts by instituting supporting acquisition strategies to 
address related cost growth, to include strategies emphasizing 
competition, implementation of fixed-price contracts where appropriate, 
affordability caps in large-scale acquisition programs, and cost 
reduction through ``should cost'' program management.
                                 ______
                                 
    [The nomination reference of Ms. Heidi Shyu follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 6, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Heidi Shyu, of California, to be an Assistant Secretary of the 
Army, vice Malcolm Ross O'Neill, resigned.
                                 ______
                                 
    [The biographical sketch of Ms. Heidi Shyu, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                   Biographical Sketch of Heidi Shyu
    Heidi Shyu, a member of the Senior Executive Service, was named the 
Acting Assistant Secretary of the Army for Acquisition, Logistics, and 
Technology (ASA(ALT)) on June 4, 2011. She also continues to serve as 
the Principal Deputy, a position to which she was appointed on November 
8, 2010.
    As the Acting ASA(ALT), Ms. Shyu serves as the Army Acquisition 
Executive, the Senior Procurement Executive, the Science Advisor to the 
Secretary of the Army, and the Army's Senior Research and Development 
official. She also has principal responsibility for all Department of 
the Army matters related to logistics.
    Ms. Shyu leads the execution of the Army's acquisition function and 
the acquisition management system. Her responsibilities include 
providing oversight for the life cycle management and sustainment of 
Army weapons systems and equipment from research and development 
through test and evaluation, acquisition, logistics, fielding, and 
disposition. Ms. Shyu also oversees the Elimination of Chemical Weapons 
Program. In addition, she is responsible for appointing, managing, and 
evaluating program executive officers and managing the Army Acquisition 
Corps and the Army Acquisition Workforce.
    Prior to this position, Ms. Shyu was the Vice President of 
Technology Strategy for Raytheon Company's Space and Airborne Systems. 
She also held several senior leadership positions there, including 
Corporate Vice President of Technology and Research, Vice President and 
Technical Director of Space and Airborne Systems, Vice President of 
Unmanned and Reconnaissance Systems, Senior Director of Unmanned Combat 
Vehicles, Senior Director of Joint Strike Fighter (JSF), and Director 
of JSF Integrated Radar/Electronic Warfare Sensors. As Director of JSF 
Antenna Technologies at Raytheon, Ms. Shyu was responsible for the 
development of lightweight, low-cost, Tile Active Electronically 
Scanned Antenna technologies. She also served as the Laboratory Manager 
for Electromagnetic Systems.
    In addition to her extensive experience at Raytheon, Ms. Shyu 
served as a Project Manager at Litton Industries and was the Principal 
Engineer for the Joint STARS Self Defense Study at Grumman. She began 
her career at the Hughes Aircraft Company.
    Ms. Shyu holds a Bachelor of Science Degree in Mathematics from the 
University of New Brunswick in Canada, a Master of Science Degree in 
Mathematics from the University of Toronto, Master of Science Degree in 
System Science (Electrical Engineering) from the University of 
California, Los Angeles (UCLA), and the Engineer Degree from UCLA. She 
is also a graduate of the UCLA Executive Management Course and the 
University of Chicago Business Leadership Program.
    A member of the Air Force Scientific Advisory Board from 2000 to 
2010, Ms. Shyu served as the Vice Chairman from 2003 to 2005 and as 
Chairman from 2005 to 2008.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Ms. Heidi Shyu 
in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Heidi Shyu (Heidi McIntosh, Hedy McIntosh, Shyu Ruo Bing).

    2. Position to which nominated:
    Assistant Secretary of the Army (Acquisition, Logistics, and 
Technology).

    3. Date of nomination:
    February 6, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 28, 1953; Taipei, Taiwan.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single (Divorced).

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Fredericton High School, Fredericton, New Brunswick, Canada, 1971-
1972, High School diploma
    University of New Brunswick, Fredericton, New Brunswick, Canada, 
1972-1976, B.S., Math, 1976
    University of Toronto, Toronto, Ontario, Canada, 1976-1977, M.S., 
Math, 1977
    University of California Los Angeles, 1978-1981, M.S. in Systems 
Science 1981 (Systems Science subsequently was merged into Electrical 
Engineering Dept)
    University of California Los Angeles, 1981-1982, Engineer Degree, 
1982

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Acting Assistant Secretary of the Army (Acquisition, Logistics, and 
Technology), U.S. Army, 103 Army Pentagon, Rm 2E520, Washington, DC, 6/
3/11-present
    Principal Deputy Assistant Secretary of the Army (Acquisition, 
Logistics, and Technology), U.S. Army, 103 Army Pentagon, Rm 2E520, 
Washington, DC, 11/8/10-Present
    Vice President of Technology Strategy, Raytheon Space and Airborne 
Systems, El Segundo, CA, 10/15/10-06/2009
    Corporate Vice President of Technology and Research, Raytheon 
Company, Waltham, MA, 06/2009-01/2007
    Vice President and Technical Director, Raytheon Space and Airborne 
Systems, El Segundo, CA, 01/2007-01/2004
    Vice President of Unmanned and Reconnaissance Systems, Raytheon 
Space and Airbome Systems, El Segundo, CA, 12/2003-10/2002

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    2008-2010 Member, Air Force Scientific Advisory Board
    2005-2008 Chair, Air Force Scientific Advisory Board
    2005-2008 Ex Officio, Defense Science Board
    2003-2005 Vice Chair, Air Force Scientific Advisory Board
    2000-2003 Member, Air Force Scientific Advisory Board

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Heidi Shyu 2008 Revocable Trust, Heidi Shyu Trustee

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Rhodes Hill Square Condominium HOA, Member
    WestEnd Living HOA, member
    AUSA, Member

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Air Force Exceptional Civilian Service Award
    Chinese-American Engineers and Scientists Association of Southern 
CA. (CESASC) achievement award
    Asian-American Engineer of the Year Award from the Chinese 
Institute of Engineers
    Raytheon Hero Award
    Raytheon Corporate Excellence in Technology Award
    Hughes Aircraft Company Superior Performance Award
    Hughes Fellowship
    University of Toronto Fellowship
    New Brunswick Post-Graduate Scholarship
    University Special Undergraduate Scholarship
    Atlantic Provinces Inter-University Committee Scholarship
    N. Myles Brown Science Award

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Winter AUSA Symposium Key Note Address--02/22/2012
    NDIA Women in Defense keynote speech at National Annual Fall 
Conference--10/19/2011
    Latrun 5th Annual International Conference--9/7/2011
    NDIA Ground Vehicle Systems Engineering Technology Conference--8/
10/2011
    AIAA conference--5/11/2011
    DIA conference--3/15/2011

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                        Heidi Shyu.
    This 19th day of March, 2012.

    [The nomination of Ms. Heidi Shyu was reported to the 
Senate by Chairman Levin on May 15, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 22, 2012.]


   NOMINATIONS OF DR. KATHLEEN H. HICKS TO BE PRINCIPAL DEPUTY UNDER 
    SECRETARY OF DEFENSE FOR POLICY; AND MR. DEREK H. CHOLLET TO BE 
   ASSISTANT SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS

                              ----------                              


                        THURSDAY, APRIL 26, 2012

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, McCain, Inhofe, 
Portman, and Ayotte.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Jessica L. Kingston, research 
assistant; Michael J. Kuiken, professional staff member; Peter 
K. Levine, general counsel; William G.P. Monahan, counsel; 
Russell L. Shaffer, counsel; and William K. Sutey, professional 
staff member.
    Minority staff members present: Ann E. Sauer, minority 
staff director; Adam J. Barker, professional staff member; and 
Christian D. Brose, professional staff member.
    Staff assistants present: Jennifer R. Knowles and Kathleen 
A. Kulenkampff.
    Committee members' assistants present: Lindsay Kavanaugh, 
assistant to Senator Begich; Anthony Lazarski, assistant to 
Senator Inhofe; Brent Bombach, assistant to Senator Portman; 
and Brad Bowman, assistant to Senator Ayotte.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    This morning the committee considers the nominations of Dr. 
Kathleen H. Hicks to be Principal Deputy Under Secretary of 
Defense for Policy; and Mr. Derek H. Chollet to be Assistant 
Secretary of Defense for International Security Affairs (ISA).
    Dr. Hicks and Mr. Chollet, welcome to both of you. Our 
nominees have demonstrated their commitment to public service 
throughout their careers. We appreciate your willingness to 
continue to serve.
    We also appreciate the support that your families have 
provided and that is so essential, as we have seen throughout 
the decades. As is our custom, you are free to take the 
opportunity to introduce any family and friends who are here 
today with you to support you. You can do that at the time of 
your opening statements.
    Our witnesses today are nominated for policy positions that 
deal with some of the most complex security challenges 
confronting the Department of Defense (DOD).
    The Principal Deputy Under Secretary of Defense for Policy 
advises and assists the Under Secretary of Defense for Policy 
on the full range of policy matters, including strategy 
formulation, contingency planning, and the integration of DOD 
plans and policy with overall national security objectives. Dr. 
Hicks has been nominated to replace Dr. Jim Miller whose 
nomination for Under Secretary of Defense for Policy is 
presently pending before the committee.
    Since 2009, Dr. Hicks has served as the Deputy Under 
Secretary of Defense for Strategy, Plans, and Forces. In this 
position, she has helped lead efforts within the Department to 
develop and implement strategic guidance, including the 2010 
Quadrennial Defense Review (QDR), and the Department's recent 
Defense Strategic Guidance (DSG) issued in January.
    Derek Chollet is nominated to be the Assistant Secretary of 
Defense for International Security Affairs, the principal 
advisor to the Under Secretary of Defense for Policy and the 
Secretary of Defense on international security strategy and 
policy on issues of DOD interest relating to Europe, the Middle 
East, and Africa, and for the oversight of security cooperation 
programs and Foreign Military Sales (FMS) in those regions.
    Since 2009, Mr. Chollet has held positions at the State 
Department and on the National Security Council where he has 
worked on many of the issues that he will confront at DOD if he 
is confirmed by the Senate.
    One of the primary challenges that both our witnesses will 
have to wrestle with, if confirmed, is maintaining progress in 
Afghanistan as the lead for security transitions to the Afghan 
security forces and U.S. coalition forces are reduced in number 
between now and 2014. Key to the success of this transition 
will be the Defense Department's policies and efforts to build 
the capacity of the Afghan army and police and the sustained 
commitment of our North Atlantic Treaty Organization (NATO) 
allies and other coalition partners to the goal agreed on at 
the NATO Lisbon summit of having Afghan forces in the security 
lead throughout Afghanistan by 2014.
    In that regard, I am deeply concerned about news reports 
regarding an administration proposal to reduce the future size 
of the Afghan security forces after these forces assume the 
lead for security throughout Afghanistan. It has been reported 
that the United States is advocating a proposal in NATO to cut 
the future size of the Afghan security forces by one-third from 
352,000 this year to less than 230,000 after 2014.
    Yesterday, Senator McCain, Senator Lieberman, Senator 
Graham, and I sent a letter to President Obama stating our 
concerns about these proposed reductions in the Afghan security 
forces. These cuts appear to be based primarily on current 
presumptions regarding what the security situation will be in 
Afghanistan several years from now. We believe that is the 
wrong approach. It is just too early to decide that conditions 
2 or 3 years from now will allow a one-third reduction in the 
size of the Afghan security forces. I will place our letter to 
the President in the record of today's hearing.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Our NATO and international partners share 
an interest in a secure and stable Afghanistan and should 
invest some of their defense savings from drawing down their 
forces in sustaining Afghan forces over the long-term. We 
should not, however, jeopardize the hard-won gains of the past 
years by failing to help fund and sustain the Afghan security 
forces with what they need to provide enduring security in 
Afghanistan.
    Other major security challenges that our witnesses will 
share responsibilities for include: countering a potential 
Iranian nuclear threat and Iran's broader efforts to 
destabilize the Middle East; ensuring adequate policy and 
resource support for ongoing counterterrorism and counter 
proliferation operations; pressuring the Assad regime to end 
its murderous campaign against its own people; managing our 
changing security relations in the Middle East and North Africa 
in the wake of the Arab Spring; establishing clear policies and 
priorities for building the capacity of partner nations to 
address security challenges on their own; and to support the 
Department's operations to advise and assist the Ugandan effort 
to eliminate the Lord's Resistance Army and to remove Joseph 
Kony and his top lieutenants from the battlefield.
    Dr. Hicks would also play an important role in implementing 
the Department's recent DSG which she helped craft. That DSG 
sets the goal of reshaping the U.S. joint force to be smaller 
and leaner and at the same time more agile, flexible, and fully 
capable of meeting the Department's global challenges. That 
includes rebalancing our global posture and presence, pivoting 
more toward the Asia-Pacific region and the Middle East.
    This week, Secretary Panetta and Secretary Clinton will be 
meeting with their counterparts from Japan in the so-called Two 
Plus Two meetings to continue work on arrangements for the 
future presence of U.S. marines in Okinawa and Guam in light of 
U.S. plans for the U.S. Marine Corps presence in the Asia-
Pacific region under the new DSG.
    Senators McCain, Webb, and I wrote to Secretary Panetta 
earlier this week to express our concerns regarding the 
affordability, executability, and timing of the realignment of 
marines. Also, it is important that we understand how this 
planned distribution of the marines throughout the Pacific 
supports and complements the broader U.S. strategy and force 
posture in this important region.
    Other challenges include countering transnational threats, 
ensuring the effectiveness of our nuclear deterrent, addressing 
the spread of ballistic missiles and weapons of mass 
destruction, and strengthening the capabilities of our allies 
and friendly nations to provide their own security.
    On the issue of protecting cyber operations, this new but 
increasingly important and complex mission affects not only DOD 
but the Government and the economy as a whole. The committee 
needs to understand the dimensions of the threat of industrial 
espionage being waged relentlessly against U.S. industry and 
Government, predominantly by the Chinese security 
establishment, and its impact on our national security and 
prosperity. This committee has focused for some time on the 
need to develop comprehensive policies and frameworks to govern 
planning and operations in cyberspace. The administration has 
made some progress in these areas as reflected in recent 
strategy statements in the development of comprehensive 
legislation to improve cybersecurity, but much, much more needs 
to be done. These cyber issues will be among Dr. Hicks' many 
duties and should be a top priority.
    Our witnesses this morning bring strong qualifications to 
the positions for which they have been nominated. We look 
forward to their testimony. I now call upon Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I join you in 
welcoming our nominees before the committee today and thank 
them for their continued willingness to serve our country.
    Dr. Hicks, you have been nominated for the position of 
Principal Deputy Under Secretary of Defense for Policy. In this 
capacity, if confirmed, you would serve as the principal 
advisor to the Under Secretary of Defense for Policy and the 
Secretary of Defense on matters concerning the formulation, 
integration, and oversight of defense policy and plans.
    Mr. Chollet, you have been nominated for the position of 
Assistant Secretary of Defense for ISA. In this capacity, if 
confirmed, you would support the Under Secretary of Defense for 
Policy and the Secretary of Defense on Defense Policy and 
Strategy for Europe, the Middle East, and Africa.
    Both of these positions entail important responsibilities 
for addressing an increasingly complex global security 
environment. As recent and repeated testimony before this 
committee has made abundantly clear, the threats confronting 
our security, our interests, and our ideals are growing not 
diminishing.
    Al Qaeda is becoming more decentralized, and its affiliates 
in Iraq, the Horn of Africa, and the Maghreb are growing 
stronger, more independent, and increasingly determined to 
attack American interests.
    Iran continues to threaten the stability across the Middle 
East through its hostile actions, including killing Americans 
in Iraq and Afghanistan, supporting terrorist groups across the 
region, destabilizing Arab countries, propping up the Assad 
regime in Syria, and its continued pursuit of a nuclear weapons 
capability.
    In Afghanistan, the Taliban insurgency is damaged but not 
broken. Hard-won security gains are put at risk by the safe 
havens for the insurgency in Pakistan, by poor governance and 
corruption in Afghanistan, and by the continued perception that 
America will abandon Afghanistan. Chairman Levin and I, and 
other members of this committee, are also concerned by the 
administration's intent to reduce the ultimate end strength of 
the Afghan National Security Forces from 352,000 to 230,000.
    On the other hand, recent reports that the United States 
and Afghanistan are close to concluding a strategic partnership 
agreement are very encouraging. I would be eager to hear from 
you, Dr. Hicks, about what the administration's plans are 
concerning a residual U.S. military force for Afghanistan 
beyond 2014 as part of this and other agreements with the 
Government of Afghanistan.
    In Iraq, violence is up since the departure of U.S. troops. 
Democratic gains are increasingly fragile as Prime Minister 
Maliki appears to be consolidating his power at the expense of 
other political blocs. Meanwhile, al Qaeda in Iraq appears to 
be making a comeback.
    From Tunisia and Libya to Egypt, Yemen, and Bahrain, many 
countries in the Middle East are undergoing monumental changes 
resulting from the Arab Spring. The situation remains fluid. 
The outcome of these revolutions remain unclear, and DOD has an 
important role to play.
    Then there is Syria, where the Bashar al-Assad regime has 
slaughtered nearly 10,000 Syrians and there is no end in sight. 
What is obvious and indisputable is that the Kofi Annan Plan 
has failed. Assad has not abided and will not abide by a cease-
fire. Assad's tanks and artillery continue to shell civilian 
populations. His forces continue to assault and murder Syrians 
who attempt to protest peacefully. His helicopters are now 
increasingly attacking Syrian towns and cities. Indeed, since 
the Annan Plan was announced last month, Assad has escalated 
the violence, killing at least 1,000 additional Syrians and 
displacing thousands more from their homes. The only practical 
effect that the Annan Plan is having at this point is to 
provide diplomatic cover for Assad to kill more people.
    Assad's campaign of violence will continue, as it has for 
more than a year now, until the military balance of power 
inside the country shifts against him. This shift will only 
occur when the United States demonstrates the necessary 
leadership and takes tangible steps with our friends and allies 
to help the Syrian opposition to defend themselves. Right now, 
the United States and the world are failing the people of 
Syria. Every day that we refuse to lead, more Syrians will die.
    Mr. Chairman, I would like to reiterate my concerns about 
several recent instances where DOD has been nonresponsive to 
this committee's requests and noncompliant with the law. I sent 
a letter to Secretary Panetta on March 29th listing several 
such instances, and while I have received a response to that 
letter, several issues remain outstanding. I would like to 
include that exchange of letters in the record of this hearing.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCain. Most recently, however, we requested a 
briefing from the Department on military involvement and 
possible misconduct in Colombia during the Summit of the 
Americas. Our intention and our effort was to find out if there 
were any breaches or possible evidence of breaches of national 
security. That briefing which we received yesterday was wholly 
nonresponsive to our request. The briefers had no information 
except to provide a timeline and mechanics of the ongoing 
investigation. By the way, this stands in stark contrast to the 
briefings that the chairman and ranking member of the Senate 
Homeland Security and Governmental Affairs Committee are 
receiving from the Secret Service. Incredibly, our briefers did 
not even know the basic facts about the present schedule or the 
misconduct instance themselves.
    Another matter of concern is the establishment of the 
Defense Clandestine Service. The first we heard about it was in 
a Washington Post article last week. This committee has a 
certain responsibility and we should not have to learn about 
major policy decisions through the public media.
    I want the witnesses to know that this unresponsiveness 
cannot continue.
    I look forward to the testimony of our witnesses, and I 
hope it will provide this committee with a clear understanding 
of how they will approach what is an increasingly complex and 
dangerous global security environment in the midst of looming 
cuts to our national defense budget.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator McCain's letter to the Secretary raises very 
important issues about the relationship of this committee to 
DOD in terms of their lack of responsiveness too often to our 
requests and to our laws and to their commitments. I am going 
to be taking that issue up, as I have assured Senator McCain, 
personally with Secretary Panetta.
    Senator McCain has also made reference to the Defense 
Clandestine Service, that announcement that we read about in 
the paper and should have been briefed about before we read 
about it. We are going to have a committee hearing when we get 
back, promptly after we get back from next week's recess. 
Senator McCain and I are trying to find a good date for the 
committee to have that hearing on that proposed change, and 
there are representatives here today from DOD. If you have not 
already received a call, you will very soon to set up that 
date, and we would expect the appropriate witnesses to be here 
for that hearing.
    Let us now call upon our witnesses, and we will first call 
upon Dr. Hicks.

STATEMENT OF DR. KATHLEEN H. HICKS TO BE PRINCIPAL DEPUTY UNDER 
                SECRETARY OF DEFENSE FOR POLICY

    Dr. Hicks. Thank you, Mr. Chairman, Senator McCain, members 
of the committee.
    I am honored to appear before you today as the President's 
nominee for the position of Principal Deputy Under Secretary of 
Defense for Policy. I have had the great privilege to serve 
President Obama, Secretary Gates, and now Secretary Panetta for 
the past 3 years, and if the Senate chooses to confirm me for 
this position, I look forward to continuing to support 
America's men and women in uniform.
    I have been fortunate to serve under the Secretary of 
Defense since 1994. For much of that time, I did so as a member 
of the career Civil Service. In my experience, Senators, we as 
a Nation possess an unmatched career national security 
workforce. They are often unsung patriots serving with superior 
dedication across administrations and political parties and 
alongside their military colleagues. I am deeply humbled to 
represent that community in some small way through my presence 
here.
    I want to acknowledge and thank my family foremost. I want 
to thank my husband, Tom Hicks, and our three children, 
Benjamin, Margaret, and Alexander. They have made considerable 
sacrifices for the demands of my job. If confirmed, I will rely 
on their continued support and understanding.
    I am also grateful to be joined by my parents: my father, 
retired Rear Admiral William J. Holland, Jr.; and my mother, 
Ann Holland. It is especially fitting that they are here today 
as it is my parents who taught me the value of a life spent in 
service to country and community, a value I hope I am passing 
to my own children.
    Finally, I want to acknowledge my oldest brother, Bill 
Holland, also a former naval officer, and my five brothers and 
sisters who could not be here today.
    Senator, the lives of Americans today are influenced more 
than ever by events beyond this country's borders, and the need 
for American leadership in the world has never been greater. If 
confirmed, I will work closely with Congress and this committee 
to advance U.S. national security interests. I will look to 
assist the Under Secretary of Defense for Policy and the 
Secretary of Defense in building and maintaining strong defense 
relationships around the globe, preventing crises where 
possible, and preparing for crises when necessary, and ensuring 
alignment of DOD activities and programs with strategic 
guidance. I will also place a high priority on assisting the 
Under Secretary of Defense for Policy in the day-to-day 
leadership of the Office of the Secretary of Defense (OSD) 
policy organization, upholding its hallmark standards of 
excellence, integrity, and responsiveness.
    The U.S. military is only one instrument in our holistic 
national security approach, but it is the key instrument. If 
confirmed, I pledge to provide policy advice and guidance that 
advances Secretary Panetta's first key strategic principle for 
DOD: to maintain the world's best military.
    Mr. Chairman, Senator McCain, members of the committee, 
thank you for considering my nomination. I look forward to your 
questions.
    Chairman Levin. Thank you very much, Dr. Hicks.
    Mr. Chollet.

STATEMENT OF MR. DEREK H. CHOLLET TO BE ASSISTANT SECRETARY OF 
           DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS

    Mr. Chollet. Thank you, Mr. Chairman.
    Chairman Levin, Senator McCain, members of the committee, 
thank you for the opportunity to appear before you this 
morning.
    I am grateful for the confidence that President Obama has 
shown by nominating me to this position, and I thank Secretary 
Panetta, Deputy Secretary Carter, and Acting Under Secretary 
Miller for their support of my nomination.
    I would also like to acknowledge the support from two of my 
bosses during the past 3\1/2\ years, Secretary of State Clinton 
and National Security Advisor Tom Donilon, and express 
appreciation for the confidence they have shown in me.
    I also want to thank my family for their support, for I 
could not do this without them. My wife, Heather Hostetter, is 
here today and serves as an inspiration for everything I do. 
Our son Lucas is also here. I would thank both he and his mom 
for putting up with so many missed dinners and lost weekends 
while I have been at work.
    I would also like to thank my brother-in-law, Adam 
Hostetter, and many other friends and colleagues who are here 
with me today.
    Mr. Chairman, members of the committee, America's national 
security interests covered by the position of ISA in Europe, 
the Middle East, and Africa are as profound as they are vast. 
From ensuring that the transatlantic alliance remains strong, 
to strengthening Israel's security, to preventing Iran from 
developing a nuclear weapon, to seizing the opportunities and 
meeting the threats stemming from the Arab Spring, to working 
with NATO to ensure a steady transition in Afghanistan, to 
developing deeper partnerships with African states to meet 
shared interests, the United States must play a central role. 
If confirmed, I look forward to working with this committee and 
Congress as a whole to address these challenges and seize the 
genuine opportunities these issues present.
    Mr. Chairman, 20 years ago this spring I had one of my 
first experiences in Washington as an intern on your personal 
staff, and if I recall, I assisted your staff with research on 
the Conventional Armed Forces in Europe Treaty. Since then, I 
have had the opportunity and privilege to work closely with 
several of our country's foremost national security leaders 
such as former Secretary of State James Baker, former Secretary 
of State Warren Christopher, and Ambassador Richard Holbrooke. 
From them and many others, I learned not just by experience but 
by their example of the importance of public service, of a deep 
belief in bipartisanship, and the conviction that American 
leadership remains indispensible to helping solve global 
problems.
    Mr. Chairman, if confirmed, I will make every effort to 
live up to the confidence placed in me and the excellence 
demonstrated by our men and women in uniform around the world 
every day.
    Thank you and I look forward to your questions.
    Chairman Levin. Thank you very much, Mr. Chollet.
    Here are the standard questions we ask of our nominees and 
you can answer them together. In order to exercise our 
oversight and legislative responsibilities, we must be able to 
receive testimony, briefings, and other communications of 
information, and that is why we ask our nominees the following 
questions.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Dr. Hicks. Yes.
    Mr. Chollet. Yes.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Dr. Hicks. No.
    Mr. Chollet. No.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in the hearings?
    Dr. Hicks. Yes.
    Mr. Chollet. Yes.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Hicks. Yes.
    Mr. Chollet. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Chollet. Yes.
    Dr. Hicks. No. I am sorry. Yes. I apologize. I misheard the 
question.
    Chairman Levin. That is okay. I probably did not state it 
clearly. Let me repeat it.
    Dr. Hicks. Thank you.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Dr. Hicks. Yes.
    Mr. Chollet. Yes.
    Chairman Levin. By the way, thank you for listening. Even 
though you misheard, you obviously were trying to listen. 
Sometimes I wonder if our witnesses have been just prepared to 
go ``yes, yes, yes, no, no.'' [Laughter]
    Do you agree, if confirmed, to appear and testify upon 
request by this committee?
    Dr. Hicks. Yes.
    Mr. Chollet. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Dr. Hicks. Yes.
    Mr. Chollet. Yes.
    Chairman Levin. Thank you.
    Let us try a 7-minute round for questions. A number of our 
colleagues are actually at subcommittee hearings of this 
committee this morning, and I am afraid that kind of conflict 
happens a lot, usually not with our own subcommittees, but 
today it did and we cannot help that at times. So they will not 
be able to be with us, I am afraid.
    First of all, Dr. Hicks, about the Afghan security forces, 
this is an important issue for us, and as I mentioned, four of 
us have sent a letter to the President about this matter 
because we are concerned about the announcement or the 
statement by our general over in Afghanistan that we are going 
to--or more accurately, the Afghan security forces are going to 
be decreased in number after 2014 from 352,000 to 230,000 which 
is a reduction of one-third. That was based on saying that 
basically it was an affordability issue.
    Now, we think that the right approach is to wait until a 
later point when we know a number of things, number one, what 
the circumstances are on the ground, because transfer of the 
responsibility for security to the Afghan forces is really a 
key part of the mission in Afghanistan because they are in the 
position to defeat the insurgency with our support. That is the 
ongoing success that it is going to be achieved in Afghanistan. 
So this announcement or statement relative to reductions we 
thought, those of us who sent this letter, myself, Senator 
McCain, Senator Lieberman, Senator Graham--that announcement, 
we thought, was very premature.
    Let me ask you, Dr. Hicks, about your views on that 
subject.
    Dr. Hicks. Senator, I am not familiar with the statement 
that you are drawing from. What I can tell you is I agree 
completely with your statement that we should have a 
conditions-based approach to our way ahead, and to my 
knowledge, no decisions have yet been made, certainly on U.S. 
Force levels following 2014.
    I do think that as we look ahead--and, if confirmed, I 
would certainly look to make this a priority--we should be 
thinking very hard about how the sustainability of the force 
for Afghanistan can be assured into the future. Part of that is 
cost for the Afghans, but it is not the only factor. I would 
look forward to working with this committee, if confirmed.
    Chairman Levin. Cost not just for the Afghans but also the 
cost for the coalition, NATO, and ourselves in terms of 
sustaining is going to be one factor, but it surely should not 
determine, number one, what the size of that Afghan force is. 
Second, compared to the current cost of our presence in 
Afghanistan, being able to have an Afghan army and police that 
is able to do the job would really be a bargain. Would you not 
agree?
    Dr. Hicks. I do agree.
    Chairman Levin. Mr. Chollet, do you have any comment on 
that?
    Mr. Chollet. Sir, I would just add that I believe General 
Allen in testimony before this committee made clear that no 
decision had been made, and that in terms of the slope downward 
from the surge of 352,000 troops, that is something that he 
would do a rigorous assessment of the metrics on how we could 
have that down slope.
    Chairman Levin. Thank you.
    Let me ask you about the Afghanistan-U.S. strategic 
partnership agreement, which Senator McCain made reference to 
as being an important step forward, and I totally concur with 
him in that statement.
    What impact do you believe that agreement, strategic 
agreement for an ongoing relationship, is going to have on 
Pakistan's strategic calculus and on its continuing support to 
insurgents who are using safe havens in Pakistan to launch 
cross-border attacks against coalition, U.S., and Afghan 
forces? Do you see any effect of that strategic agreement on 
Pakistani behavior?
    Dr. Hicks, why do we not start with you?
    Dr. Hicks. Mr. Chairman, I think the strategic partnership 
agreement--I have not been briefed on it in detail, but I think 
it signifies a significant commitment by the United States to 
sustain itself and its relationship with Afghanistan into the 
future. My understanding and view is that would have a 
significant effect on the Pakistanis' understanding of the 
United States' commitment to remain engaged in the economic 
future and the political future, as well as the security of 
Afghanistan.
    Chairman Levin. Mr. Chollet, do you have any comment on 
that?
    Mr. Chollet. Sir, I as well have not been briefed fully on 
the strategic partnership agreement. My understanding is you 
will be receiving a briefing from administration officials 
later today on the scope of that.
    If confirmed, Pakistan will not be in my portfolio, but I 
would just say on the Afghanistan piece that it will send an 
extremely important signal of our long-term commitment to 
Afghanistan and it will send a clear signal that we will not be 
withdrawing from the region as we did in the 1990s.
    Chairman Levin. Now let me ask you a question about Syria. 
Apparently Turkey is willing to create and defend a safe zone 
along the border inside of Syria. Are you aware of that 
willingness? Is that, in fact, the case? If so, what has been 
the reluctance of NATO to step up and support Turkey in that 
effort? Dr. Hicks?
    Dr. Hicks. Mr. Chairman, I am not aware of that commitment. 
What I can tell you is that in my current capacity, I am 
familiar with the combatant commanders' planning efforts with 
regard to Syria and we are doing a significant amount of 
planning for a wide range of scenarios, including our ability 
to assist allies and partners along the borders.
    Chairman Levin. You are not familiar with that report that 
there was an expression of willingness on the part of Turkey to 
create a safe zone?
    Dr. Hicks. Mr. Chairman, I am not familiar with that 
report.
    Chairman Levin. Okay, thank you.
    Mr. Chollet?
    Mr. Chollet. Mr. Chairman, I am familiar with the reports 
that Turkey might be willing, but I am unaware of any official 
request, or even serious discussion for that matter, about how 
NATO and other powers may be able to help Turkey in that 
regard. I may note that in the cross-border incident several 
weeks ago, there was again some reports about a possible 
article 4 discussion within NATO. Again, to my knowledge, that 
has not been requested by the Turkish Government.
    Chairman Levin. Do you have any opinion as to whether or 
not that would be a wise move, and if Turkey is willing to take 
the lead in doing that, do you have an opinion as to whether or 
not NATO should be supportive of that willingness?
    Mr. Chollet. Mr. Chairman, I think if the Turkish 
Government requests an article 4 discussion with NATO, NATO 
would be obliged to have that discussion with them. I would 
support that, of course.
    In terms of the details of a so-called buffer zone, I know 
that as Chairman Dempsey and Secretary Panetta have testified 
before this committee and others, there are risks clearly with 
any military option by the United States or anyone in Syria. 
But it would be a discussion I would think we would at least be 
willing to pursue with the Turkish Government if they were to 
so initiate it.
    Chairman Levin. Do you have thoughts on that, Dr. Hicks?
    Dr. Hicks. Mr. Chairman, I agree. I think we should take 
seriously any efforts by others to think through ways of 
dealing with the problem set. This is a very complex problem, 
many risks involved, but worth looking at.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. So we should take seriously any suggestions 
rather than lead? Right? Is that pretty much what you are 
saying?
    Dr. Hicks. Senator McCain, my view is that the United 
States is leading diplomatically.
    Senator McCain. How are they doing that?
    Dr. Hicks. Senator McCain, my understanding is that the 
President has been very clear in pulling together both the 
Friends of Syria group, working through the United Nations 
(U.N.) aggressively, working the sanctions issue.
    As far as the DOD role, again, we are focused--in my 
current capacity, I am focused on supporting the combatant 
commanders in developing plans for all kinds of approaches, 
should the President decide to take further steps in the 
military vein.
    Senator McCain. Mr. Chollet, do you have a comment on that 
since you work at the National Security Council? Are we taking 
the lead vis-a-vis the issue of Syria?
    Mr. Chollet. Senator, the President has been very clear--
what an outrage that is happening in Syria today. He gave a 
speech on Monday at the Holocaust Memorial in which he was very 
clear on that score and spoke of the unspeakable violence and 
brutality that is being wrought upon the Syrian people. There 
are no questions there are mass atrocities.
    Senator McCain. I am glad he has spoken up.
    What concrete actions have been taken, Mr. Chollet?
    Mr. Chollet. I think the administration has been moving on 
multiple tracks, as Dr. Hicks has mentioned: an economic track 
to put incredible pressure on the Assad regime, working with 
our friends and allies; a diplomatic track through the Friends 
of Syria to strengthen the international consensus, some 70 
countries against Assad----
    Senator McCain. Actually they have not worked with the 
Friends of Syria. At least the Friends of Syria say they have 
not because I met with them, Mr. Chollet. So that is not a 
fact.
    Do you believe that Assad has complied with any of the six 
conditions set forth in the Kofi Annan Peace Plan?
    Mr. Chollet. I believe he has not complied with most of 
them.
    Senator McCain. Is it true that the number of people that 
Assad has killed in Syria has grown considerably since the 
Syrian Government agreed to the Annan Plan?
    Mr. Chollet. There has certainly been an uptick of 
violence. I do not have----
    Senator McCain. In your view, will the administration admit 
that the Annan Plan has failed and then move beyond it to take 
other actions to end the killing?
    Mr. Chollet. Senator, the Security Council resolution 
passed last Saturday allows for certain reports back to the 
council.
    Senator McCain. Do you believe the Annan Plan has failed or 
succeeded?
    Mr. Chollet. It is too early to tell.
    Senator McCain. It is too early to tell whether the Annan 
Plan has succeeded or failed?
    Mr. Chollet. I would say it is failing.
    Senator McCain. What would you say, Dr. Hicks?
    Dr. Hicks. Senator McCain, I would say it is failing and 
that Annan himself has indicated he is extremely worried about 
progress on the plan.
    Senator McCain. Who is worried about it?
    Dr. Hicks. Kofi Annan has, himself, said he is very 
concerned about the ability of his plan to succeed at this 
point given the actions of the Syrian regime.
    Senator McCain. Yes. So his suggestion has been to have 
more observers. The Washington Post had an interesting 
editorial, I would refer for your reading, this morning, 
``Where U.N. monitors go in Syria, killings follow.''
    Mr. Chollet and Dr. Hicks, I am glad to hear that we are 
planning such a leadership role. I can guarantee you nobody in 
the Middle East believes that. I can guarantee you that this is 
a shameful situation where these people are being slaughtered, 
and we are talking about economic sanctions and diplomatic 
sanctions when we should be helping these people as we helped 
the people of Bosnia, as we helped in Libya, and we have helped 
in other times in our history. So I am very disappointed in 
your answers.
    Mr. Chollet, do you believe the Syrian opposition is al 
Qaeda?
    Mr. Chollet. The opposition, as Secretary Panetta has 
mentioned before this committee, is deeply splintered. There 
are probably as many as 100 different groups. There are 
definitely some extremists within the opposition, but the vast 
bulk is not.
    Senator McCain. Do you believe that the situation has 
improved or worsened in Iraq since the withdrawal of U.S. 
military forces from the country?
    Mr. Chollet. I think it is stabilized.
    Senator McCain. You think it is stabilized when the vice 
president of the country has to go to Erbil because of the 
threat of being arrested, that Maliki is greeted in Tehran with 
full honors, that there is exacerbated relations. Barzani made 
a statement yesterday that he thought that they would have to 
consider being an independent country. Do you think all those 
things are good?
    Mr. Chollet. No, sir, I do not. I think Iraq----
    Senator McCain. You think it is stabilized.
    Mr. Chollet. I do. I do. Iraq was able to host a successful 
Arab League summit in Baghdad without incident.
    Senator McCain. Which most countries did not show up for. 
Go ahead.
    Mr. Chollet. But Iraq has enormous challenges. I will not 
deny that. If confirmed, it will be one of my priorities to 
work hard on Iraq, although the DOD role is much reduced there, 
and to ensure that we meet the opportunities that a new Iraq 
offers.
    Senator McCain. The United States has provided roughly $1.5 
billion a year for about 3 decades to the Egyptian Government 
under Mubarak. Do you think we should review that whole issue 
of aid to the Egyptian military, Mr. Chollet?
    Mr. Chollet. Senator, it was an issue the administration 
looked at very closely over the course of the last few months. 
Secretary Clinton decided to move forward with that aid. I 
think it is something that at the current time, given how 
fragile Egypt is, given the important transition that is 
upcoming in the next few months of the election and then the 
writing of the new constitution, given that Egypt is the heart 
and soul of the Arab world, at this point we do not want to 
look into that or pursue that option.
    However, we need to be able to ensure that a new Egyptian 
Government is held accountable and lives up to its obligations, 
including its peace treaty with Israel.
    Moving forward, it may be something we do consider, but at 
this time, I do not think the time is right.
    Senator McCain. General Mattis recently told this committee 
that Assad has the momentum on the ground in Syria. Do you 
think Assad is currently winning militarily? Both of you.
    Mr. Chollet. He clearly has the balance of force on his 
side and again, as the President had made clear, there is 
unspeakable violence on the Syrian people.
    Senator McCain. So our answer then is not to provide them 
with arms or means to defend themselves? It is better to use 
diplomatic and economic measures. Is that your answer?
    Mr. Chollet. Secretary Clinton has made clear we are 
providing non-lethal support to the nonviolent opposition. The 
State Department is administering that, sir. It includes 
communications equipment, and that is the course we are 
pursuing at the moment.
    Senator McCain. I see. So you feel that non-lethal 
equipment really does the job against artillery, helicopters, 
and tanks? Is that correct?
    Mr. Chollet. Sir, we believe that the non-lethal support 
does help the opposition, but clearly they are still threatened 
every day by Assad.
    Senator McCain. I hope that you and Dr. Hicks might have an 
opportunity to go to the refugee camps on the Turkish border 
and hear from the now 25,000 people who have fled their homes 
who have been subject to systematic murder, rape, and torture, 
and you might have a little bit different view as to the 
efficacy of non-lethal assistance and diplomatic and economic 
measures.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Last week I was in Afghanistan, and saw a lot of things you 
do not get through the media. We had an extensive time with not 
just Ambassador Crocker and General Allen, but also a lot of 
the troops in the mess halls and that type of thing, which we 
always try to do.
    General Allen made a statement, and he had some pretty 
strong feelings because of the rumors that are out there, that 
perhaps prior to the mandatory withdrawal of 2014 they might be 
accelerating this. He had some strong feelings about this. He 
said that this could be disastrous if we did that, for 2012 and 
2013 will be, in his words, the critical moments in this fight 
as International Security Assistance Force continues to grow, 
train, and transition control to the Afghan army and the Afghan 
police.
    Do you agree with him in that statement?
    Dr. Hicks. Senator, I do. I think we have to be very 
careful about the way in which we move forward. Our approach 
should be conditions-based. There are many considerations that 
go into that, and no decisions have been made. General Allen's 
voice is a key voice in the decisionmaking going forward.
    Senator Inhofe. I appreciate the word, because you used 
``conditions-based'' also in your opening statement, which I 
always appreciate hearing.
    As I said to both of you before, one of the frailties in 
this kind of a hearing is that whether the President is a 
Republican or a Democrat, it does not really matter. Those 
people who are nominated by him are generally going to say that 
they support his policies. This always puts it awkward.
    For example, one of the worst things that he has done, in 
my opinion, when he first started was to make a commitment to 
close Guantanamo Bay (GTMO). Now, that has not happened, but he 
has made every effort to do that. If I were to ask you if you 
agree that we should close GTMO, you would probably say that is 
what the President said and we agree to that.
    I want you to keep in mind--and I would like to ask both of 
you to do this. Look at the expeditionary legal complex that we 
have there and the history of the trials that have taken place, 
the military tribunals that take place there.
    The reason I say this is because there is some discussion--
even though I consider that to be a great asset that we have. 
In fact, it is one of the few good deals that this country has. 
We have had GTMO since what, 1904, and it is about $4,000 a 
year and they forget to collect about every other year. It is a 
pretty good deal.
    But they have a great complex there and it is one that it 
really disturbs me when they talk about releasing more of the 
combatants who are there. As of December 29, 2011, of the 599 
that have been released, 167 we can document have returned to 
the fight. That is 28 percent. That is really disturbing to me, 
and it was a mistake.
    Now, while this President has not been able to close it, he 
has tried to do it. We have stopped him from doing it in this 
committee. But now there is talk of the five Taliban that they 
are talking about releasing at this time.
    We set up something in the law in our Senate Armed Services 
Committee, our authorization committee, that the Secretary of 
Defense has to certify before further release of combatants, 
and the certification process is pretty complicated. It says he 
has to certify that the state to receive the released combatant 
is not a designated state sponsor of terrorism, maintains 
control over each detention facility, is not as of this date of 
certification facing a threat. This has put him in a very 
awkward situation for having to do that.
    What I would like to have you share with me is your 
feelings about GTMO, not the policy that is in place right now, 
but its future and specifically these five combatants that they 
are talking about releasing, the Taliban.
    Dr. Hicks. Senator, under my current position, I have no 
purview over detainee operations anywhere in the world, to 
include at GTMO. But if confirmed, that will be part of my 
responsibilities, and I take very seriously the concerns that 
you express. I would commit to certainly looking with the 
general counsel at the issues you raise of the five detainees 
in particular and coming forward with hearing your view on how 
we should move forward and coming to some conclusions.
    Senator Inhofe. Okay. I think that is fair enough. Would 
you add to that that you would be looking at the advisability 
of maybe bringing more people into GTMO? There has not been one 
new detainee admitted since 2008. In light of the recidivism 
rate that I just went over, I just want to know what your 
thinking is.
    Dr. Hicks. Senator, I would certainly commit to, if 
confirmed, coming in and having an understanding from you of 
your concerns and working within the administration to look at 
that issue.
    Senator Inhofe. Okay. That is really all I could ask at 
this time because it is a resource we have to start using 
again. People are dying because we are not using it properly.
    Mr. Chollet, you mentioned in your opening statement U.S. 
Africa Command (AFRICOM). That was my thing that I was 
originally interested in because heretofore it was under three 
different commands, U.S. Pacific Command, U.S. European 
Command, and U.S. Central Command. It is working very well. I 
just got back from Africa and from Stuttgart where their 
headquarters is.
    A couple of things there. There is always an effort by 
Members of Congress to say, ``let us take that AFRICOM and take 
it away from Stuttgart in this case and put it in my State.'' I 
would like to have you be aware and talk to General Ham about 
what a mistake that would be. My feeling was it should have 
actually been located in Ethiopia or someplace on the 
continent. However, with all of their concerns, I have 
personally talked to the presidents of many of the countries 
who agree that would have been good except they can never sell 
the idea to the Africans because they will think about going 
back to colonialism and that type of thing.
    I would like to have your commitment to this committee that 
you will look at the resources that General Ham has and make 
sure that we are paying proper attention. It has been my 
feeling for a long time that as the squeeze takes place and 
there is the terrorism going down through the Horn of Africa, 
through Djibouti, that this committee has made a commitment to 
work with the Africans in establishing brigades so that they 
can take care of their own needs if such time comes. Do you 
agree with my concern about AFRICOM?
    Mr. Chollet. Sir, I absolutely agree that AFRICOM has been 
a very successful command. In my current job, I have had the 
opportunity to work a bit with General Ham, and he is very 
impressive. You have my commitment that, if confirmed, I would 
love to come and talk with you further about how we might work 
with AFRICOM.
    Senator Inhofe. All right. I appreciate it.
    I want to get you also on record because I think I know 
what your answer is. Some of these programs, the security 
assistance and engagement programs, have been my favorite. I 
single out sometimes Africa in terms of the International 
Military Education and Training (IMET) program, the train-and-
equip program. They have been very successful there. There was 
a time, as I have talked to both of you about this before, that 
we considered an IMET program participation as we are doing 
them a favor when, in fact, if we do not do it--and I am 
talking about now training the junior grade officers here in 
the United States. Once we do that, they have an allegiance 
that is always there. I would want to maintain those programs 
in a very strong way, not just IMET but train-and-equip, FMS, 
foreign military financing, and some of the other programs.
    Dr. Hicks. Senator, those are highlighted in our DSG. I 
completely agree with you on their importance and they are part 
of what we highlight as building partnership capacity efforts 
that help us throughout the world.
    Mr. Chollet. Senator, I completely agree. If confirmed, I 
would look forward to working with you.
    Senator Inhofe. Okay, that is good.
    My time has expired, but for the record, I would ask some 
questions having to do with our nuclear modernization program, 
Dr. Hicks. We are very much concerned about it. I know that 
back during the New Strategic Arms Reduction Treaty (START) 
program, which I opposed, commitments were made by this 
administration to sustain a modernization program and a U.S. 
nuclear deterrent. It is becoming more and more significant 
right now than it has been in the past. I will be asking some 
specific questions for the record on that issue.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you, Dr. Hicks. Thank you, Mr. Chollet, for being 
here today and for your service and future service to our 
country.
    Dr. Hicks, I wanted to ask you about an issue. I had the 
chance to visit the Philippines in January, and it was also an 
issue raised by my constituents. It was about Clark Air Force 
Base, a cemetery at that Air Force base where more than 8,300 
U.S. servicemembers and their loved ones have been buried. In 
fact, that cemetery was maintained by the Air Force for 90 
years until 1991. In 1991, after the Air Force vacated Clark 
Air Force Base and there was a volcanic eruption there, they 
left the cemetery and then it was not maintained at all until, 
fortunately, in 1994 there was a group of private citizens that 
came forward--and I certainly want to commend those private 
citizens that did that--to maintain this area where 8,000 of 
our service men and women and their dependents were buried and 
those who sacrificed for us. Certainly they deserve our 
gratitude. But I believe that it is a responsibility for us 
when we have our veterans, that they deserve to be treated with 
dignity and respect.
    I wanted to ask you, I understand that you are coming into 
this position and not to rehash what the Air Force should or 
should not have done. I actually believe that there are other 
areas of the Federal Government that have responsibility to 
maintain this cemetery. What I wanted to hear from you is, 
notwithstanding your other responsibilities, that you will 
ensure that there is coordination in the future. For example, 
if we close bases overseas that we coordinate with other 
agencies within the Federal Government to make sure that where 
our veterans are buried, that those cemeteries are properly 
maintained consistent with the dignity that our veterans and 
their families deserve. If that is something that you could 
assure me that in our responsibilities you would make sure that 
we did have coordination going forward, that we would fulfill 
our responsibility to those veterans?
    Dr. Hicks. Senator, I will assure you of that. I believe, 
as you have stated, that the dignity of our veterans and 
certainly our buried Americans are vital, and that as we close 
bases or move our global posture, that is an issue we should be 
addressing in our considerations.
    Senator Ayotte. Thank you.
    I have also introduced a bill with Senator Begich that is a 
bill that will ensure that those 8,000-plus men and women and 
their family members that are buried at the Clark Air Force 
Base veterans cemetery are properly--that those facilities are 
maintained with the dignity that they should be. I would love 
to send you a copy of that just to get your feedback on it, Dr. 
Hicks.
    Dr. Hicks. I welcome that, Senator.
    Senator Ayotte. Thank you very much.
    I wanted to follow up on Senator Inhofe's questions on 
nuclear modernization. Let me just start with this, Dr. Hicks. 
I know this is going to be a very important responsibility that 
you have in your new position and wanted to ask you, do you 
believe a reliable and modern nuclear deterrent is central to 
America's national security?
    Dr. Hicks. Senator, I do.
    Senator Ayotte. Do you believe a strong and dependable U.S. 
nuclear deterrent also helps prevent nuclear proliferation 
around the world?
    Dr. Hicks. I do.
    Senator Ayotte. I recently introduced a letter, which I 
would like to submit for the record. I have sent a letter to 
the President expressing my concerns in following up on the New 
START treaty that he has not followed through in the proposed 
fiscal year 2013 budget with a commitment to making sure that 
we have sufficient resources to modernize our nuclear 
capabilities. In fact, one of the deep concerns I have is that 
in order for us to be able to ensure that our nuclear deterrent 
is modernized and capable, we also have to have sufficient 
resources to build and maintain the Chemistry and Metallurgy 
Research Replacement facility. Are you familiar with the plans 
for that facility at Los Alamos?
    Dr. Hicks. Senator, I am not.
    Senator Ayotte. This is very important in terms of 
modernizing, making sure that we have a sufficient nuclear 
deterrent. I am going to submit this letter that I wrote to the 
President expressing my concerns about the fact that there has 
not been follow-through on the commitment to modernize our 
nuclear weapons and our deterrent to make sure that they are 
effective.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Ayotte. For the record, I would ask that you take a 
look at this letter that I, along with several other Senators, 
have sent to the President, and would ask you to also comment 
on that letter, when you are confirmed. I would ask for an 
answer to receive your comments on the concerns I have raised 
to the President and what you believe needs to be done to 
ensure that our nuclear deterrent is modernized, effective, and 
capable.
    Dr. Hicks. Senator, if confirmed, I welcome an opportunity 
to review the letter and respond.
    Senator Ayotte. Thank you very much. I think this is very 
important, and I am deeply concerned about where we are right 
now on this issue. I am also concerned that if we do not 
modernize in the way that I believe the President made a 
commitment in the confirmation of the New START treaty that it 
will be to the detriment of our nuclear deterrent and also in 
my view could encourage proliferation around the world 
particularly when we look at some of the actors that we are 
trying to prevent from having nuclear weapons capability, 
including Iran.
    One final additional issue I would like to follow up on 
from Senator Inhofe's question, because you will have 
responsibility, Dr. Hicks, over our detainee policy. Before the 
Senate Armed Services Committee, I have questioned many of our 
military leaders about this issue if we were tomorrow, for 
example, to capture Ayman al Zawahiri, who is now the head of 
al Qaeda. For example, if we were to capture him in Pakistan, 
where would we detain an individual like that to question that 
individual to gather intelligence to be able to protect our 
country and obviously, hopefully, find out more about that 
organization so we could stop their dangerous activities.
    You are, of course, familiar with Mr. al Zawahiri?
    Dr. Hicks. I am.
    Senator Ayotte. Do you know, if we did capture him 
tomorrow, where we would detain him?
    Dr. Hicks. I do not know that answer.
    Senator Ayotte. I got the same answer from Admiral McRaven 
who is the distinguished Commander of our U.S. Special 
Operations Command when he first came before the committee, 
when I was first elected to the Senate, and then I asked him 
again recently that question. He did not have an answer for me 
either of where we would put him or an individual like that.
    Would you agree with me that if we capture someone like 
that, one of the important responsibilities we have is to 
gather intelligence about what an individual, particularly the 
head of al Qaeda, would know about future attacks and also the 
activities of that terrorist organization?
    Dr. Hicks. I agree that would be very important.
    Senator Ayotte. To me, this is the ultimate issue as you 
review the closure of GTMO. In the absence of bringing anyone 
to detain them at the Guantanamo facility, if we do not have an 
equivalent facility, then there is no place for us to put them. 
So to me, without an answer to that, it is very troubling in 
terms of how we would gather intelligence, how we would assure 
their security. That is a question that I would like you to 
answer when you take on this responsibility because if you are 
going to be responsible for detainee policy in this country, 
this is the foremost question that must be answered. I look 
forward to receiving your answer on that in your new capacity 
because if we cannot answer that question, I think it is a 
grave problem for our country. Would you agree?
    Dr. Hicks. I agree.
    Senator Ayotte. I thank you so much for coming before the 
committee today and look forward to working with you on this 
detainee issue and answering that important question, as well 
as the nuclear modernization question for the safety of our 
country. Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    Dr. Hicks and Mr. Chollet, thank you for being here today. 
You have gotten some input from members of the committee that I 
hope you have found useful and I hope we will see you back here 
again after you are confirmed because I assume you will be.
    I will start by saying that Senator Ayotte's comments on 
nuclear modernization are probably some of the more significant 
ones that we have heard today because this will be, at the end 
of the day, critical to our ability to maintain the peace. I 
was a signatory of the letter for the reasons that she stated, 
which is we are concerned about the administration's 
commitment. You will both have an opportunity to have further 
input on that. We do look forward to you not just reviewing 
that letter, Dr. Hicks, but getting back to us as to our 
concerns and hopefully providing us some degree of confidence 
that the administration is moving forward with their 
commitments.
    I am the ranking member on this committee's Emerging 
Threats and Capabilities Subcommittee. It deals a lot with the 
threat of terrorism and particularly some of our capabilities 
in that regard, and I will tell you with our challenges 
globally now and with our budget pressures, I am concerned that 
we do not have the authorities, we are not moving aggressively 
enough showing American leadership, but working with our 
allies. We cannot do it all ourselves. We need effective 
partners. Senator McCain talked a little about this in the 
context of Syria. Senator Inhofe talked a little about it in 
terms of Africa. I would say we need to look at our national 
strategies for counterterrorism and combating transnational 
criminal organizations which again is a part of our 
subcommittee's work, as well as looking at the recently 
released DSG, building the capacity of other nations to more 
effectively combat terrorists within their borders should be a 
top priority.
    There are some authorities focused on this, section 1206, 
the global train-and-equip authority, the recently created 
Global Security Contingency Fund, and then there are some 
targeted authorities. I think Yemen and Somalia would be 
examples of that where there is a targeted authority.
    But I am concerned that they are not sufficient to 
accomplish this mission in an effective and efficient way. I 
would love to hear from both of you on that. Do you agree with 
me? What is your assessment of the current authorities 
available to you, and do you think that the Department needs 
additional authority to be able to be more flexible to be able 
to respond?
    Dr. Hicks. Senator, let me first say that the authorities 
we do have, have made a tremendous difference, and the 
Department is very grateful to Congress for helping us to pass 
these authorities.
    We are, within the Department, currently actually reviewing 
the authorities we do have for building partnership capacity 
and attempting to assess if we need further authority, and if 
so, what that authority ought to look like. That is an ongoing 
internal process that I think would most likely result, if it 
has any legislative results, in information for next year's 
cycle of legislative proposals. But it is, again, a key 
component of our strategy, building partnership capacity. It is 
the kind of area we want to protect and invest in because we 
think it has significant pay-off for us, and so we are very 
serious at looking at the authorities.
    Senator Portman. I am glad you are looking at it. Mr. 
Chollet, I want to hear from you on it. I hope you will talk to 
some of the combatant commanders about it. What they tell me is 
that it is a bureaucratic maze to go through it; that it needs 
to be streamlined; that there is not effective coordination or 
synchronized U.S. interagency coordination and that it creates 
an issue for them; they need to move quickly; and it can be far 
more user-friendly.
    Mr. Chollet?
    Mr. Chollet. Senator, I would just concur that these 
authorities are extremely important, these programs are 
extremely important, particularly as we look in the Middle East 
and Africa and the importance of building partnerships in those 
regions. If confirmed, it is something I will look at very 
closely because it will be a very important tool in the toolkit 
that, if confirmed, I would have in terms of developing 
relationships in those parts of the world.
    Senator Portman. Let me give you a specific concern that I 
would have, and that would be the Horn of Africa and Yemen and 
what is happening. Some of this is information that we have 
received in closed briefings. I would encourage both of you not 
just to look at it, but to go into it with this notion that we 
do need reform and streamlining, and this is going to be part 
of our ability to be successful, not necessarily to put boots-
on-the-ground but to arm others, not just to provide diplomatic 
assistance, and even going beyond training.
    With regard to the plan for the future, the QDR is our 
overall plan that we look to, and a lot of work went into that, 
the most recent QDR, and a lot of the programs and force 
structure requirements, of course, were built on the various 
assumptions that were in there. After the Budget Control Act 
(BCA), the new DSG was issued about 4 months after the BCA.
    My question here is, is the new DSG as effective at 
thinking through what our challenges are, and do we have a 
force structure and do we have programs in place that actually 
can work under this new DSG?
    This, of course, does not even take into account the fact 
that we are now facing a sequester which would make it even 
more challenging, which Chairman Levin and I and others would 
like to alter. I am concerned even about the operational plans 
based on the new DSG.
    Can you tell me what you think about that, Dr. Hicks?
    Dr. Hicks. Senator, I do think that the new DSG was fully 
informed, if you will, in terms of its analysis and assessment, 
much as a normal QDR would be. It involved all the combatant 
commanders, the Service Chiefs, and the Chairman of the Joint 
Chiefs in providing their important military advice in the 
process.
    I do believe that the DSG positions us well for the future 
both in terms of the security environment and the economic 
effects of contributing to deficit reduction. At the same time, 
I think it will take, as Chairman Dempsey said, several cycles 
of program development to get us fully to that joint force of 
2020 that we are aiming for. As in all strategies, we have made 
a significant down payment in this first budget, and we will 
continue to adapt the force over time to meet that strategy in 
its full form.
    Senator Portman. Let me talk about a specific concern that 
I have with regard to capabilities and, again, programs that 
you say are covered under the current plans. I would tell you 
that the QDR was based on a force structure that was very 
different than the new DSG, and yet we still seem to have the 
same policy in place. Iran is an example. The Secretary has 
said, your current boss for you, Dr. Hicks, and both of your 
future bosses--that if Iran proceeds developing nuclear 
weapons, we will ``take whatever steps are necessary to stop 
it.''
    Can we do that? I look at some of the capability 
development over the past decades and then what has happened 
with some of those capabilities, replacing the Marine Corps 
amphibious vehicles, the Navy amphibious ship. I am talking 
about the fighter bomber with regard to the Marine Corps. The 
intelligence, surveillance, and reconnaissance platforms, other 
capabilities to counter anti-access/aerial denial strategies. 
How were currently planned force structures informed by these 
changes in our plans? Do you assess any increased risk there 
based on the current proposal?
    Dr. Hicks. Senator, as Secretary Panetta discussed, when he 
rolled out the new DSG, we, in fact, explicitly looked at Iran 
scenarios in developing the force structure that accords to the 
strategy. In my current capacity, I am very familiar with 
combatant commander plans for various scenarios that could 
occur in and about Iran, and as the President said, all options 
are on the table. We are looking very rigorously at how to 
combat any such activity. I am confident, based on my exposure 
to that, that at acceptable risk we can succeed in campaign 
plans related to Iran.
    Senator Portman. From a budget perspective, tell me how far 
you think we are away from degrading those capabilities since 
you say that currently we continue to have them; are we at the 
edge? Are we precariously close to not having the capabilities 
we need?
    Dr. Hicks. Senator, I do believe that if we have further 
cuts to the defense budget, we will need to relook at our 
strategy and the force structure is a part of that. How we 
reshape the strategy is to be determined and thus whether it 
would affect those particular capabilities.
    Senator Portman. My time has expired, but again, we look 
forward to continuing to talk to you about these and a lot of 
other issues that were raised today. Thank you for your 
service.
    Chairman Levin. Thank you, Senator Portman.
    The further cuts that you just referred to would be the 
sequestration--is that correct--that Senator Portman made 
reference to?
    Dr. Hicks. Yes, Mr. Chairman.
    Chairman Levin. I just have a couple of questions on 
missile defense.
    First, on the new European Phased Adaptive Approach (EPAA). 
In your view--and I think I will ask this of you, Mr. Chollet, 
first. Does the EPAA send a strong and unified message from 
NATO to Iran about the unity of the international effort to 
counter its destabilizing activities and its nuclear and 
missile programs?
    Mr. Chollet. I believe it does, Senator.
    Chairman Levin. Now, in an advance policy question, Dr. 
Hicks, on whether you would support U.S. and NATO cooperation 
with Russia on missile defense, you said you supported such 
cooperation because it could, ``strengthen common defenses 
against Iranian missiles and send an important signal to Iran 
that Russia and the United States are working together to 
counter the proliferation and use of ballistic missiles''. It 
is a position I very strongly support, I think you probably 
know.
    Would you include in that considering the possibility of 
sharing radar and early warning data with Russia as one option 
for cooperation with Russia on missile defense?
    Dr. Hicks. I would.
    Chairman Levin. Okay. We thank you. We thank your families. 
We particularly want to thank Benjamin, Margaret, and 
Alexander--your children--for staying with us. Your mother--I 
know how important it is to her that you are here.
    Is Lucas still here? He is somewhere in the building. If 
you can hear me, Lucas, the same thing goes for you. I know how 
important it is to your dad, as well as your mom, that you are 
here to support your dad.
    We look forward to your confirmation, hopefully very early 
but you never know around here. We will do our best. We will 
now stand adjourned.
    [Whereupon, at 10:50 a.m., the committee adjourned.]

    [Prepared questions submitted to Dr. Kathleen H. Hicks by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe there is no need to modify the provisions of the 
Goldwater-Nichols Act at this time. The Act was a very significant 
piece of legislation that, over the course of more than 2 decades, has 
led to dramatic improvements in the effectiveness of the Armed Forces.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Please see my response above.
                             relationships
    Question. What do you see as the relationship between the Principal 
Deputy Under Secretary of Defense for Policy (PDUSD(P)) and each of the 
following?
    The Secretary of Defense.
    Answer. Pursuant to the authority, direction, and control of the 
Under Secretary of Defense for Policy (USD(P)), as the USD(P)'s 
principal assistant, the PDUSD(P) serves as a staff assistant and 
advisor to the Secretary of Defense on all matters concerning the 
formulation of national security and defense policy and the integration 
and oversight of DOD policy and plans to achieve national security 
objectives.
    Question. The Deputy Secretary of Defense.
    Answer. The PDUSD(P) provides support to the Deputy Secretary 
similar to that provided to the Secretary, as described above.
    Question. The Under Secretary of Defense for Policy.
    Answer. The PDUSD(P) is the principal assistant to the USD(P) and 
is responsible for assisting the USD(P) in carrying out all 
responsibilities, fulfilling functions, managing relationships, and 
exercising authorities provided for in law to the USD(P). The PDUSD(P) 
advises on and supports the USD(P) with all responsibilities in 
providing advice to the Secretary of Defense in interagency fora (such 
as National Security Council deliberations), engagement with 
international interlocutors, and in the Planning, Programming, 
Budgeting, and Execution (PPBE) processes inside the Department, 
including the Quadrennial Defense Review (QDR), the Nuclear Posture 
Review, and annual program and budget reviews.
    Question. The other Under Secretaries of Defense, including the 
Under Secretary of Defense for Intelligence.
    Answer. Pursuant to the authority, direction, and control of the 
Under Secretary of Defense for Policy, the Principal Deputy Under 
Secretary for Policy works closely with the other Under Secretaries of 
Defense and their deputies, including the Under Secretary of Defense 
for Intelligence, to achieve the Secretary's objectives. This includes 
providing policy input, as appropriate, to each of them in their 
respective areas of responsibility.
    Question. The Assistant Secretaries of Defense.
    Answer. Pursuant to the authority, direction, and control of the 
Under Secretary of Defense for Policy (USD(P)), the PDUSD(P) works 
closely with Assistant Secretaries of Defense across the Department to 
achieve the Secretary's objectives. This includes providing policy 
input, as appropriate, to each of them in their respective areas of 
responsibility. As the USD(P)'s principal assistant, within the Office 
of the Under Secretary for Policy, the PDUSD(P) provides oversight of 
Assistant Secretaries on issues and at times as directed by the USD(P). 
The Policy team works together to provide the USD(P) and the Secretary 
with advice and recommendations on the full range of policy issues 
under consideration in the Department and provides policy oversight to 
ensure that the Secretary's guidance and decisions are implemented 
properly.
    Question. The Secretaries of the Military Departments.
    Answer. The Principal Deputy Under Secretary of Defense for Policy 
works closely with the Secretaries of the Military Departments on a 
broad range of issues, including strategy development, force planning, 
and other areas in which the Military Departments are critical 
stakeholders.
    Question. The General Counsel of the Department of Defense (DOD).
    Answer. The Principal Deputy Under Secretary of Defense for Policy 
works closely with the General Counsel on all policy issues that 
involve a legal dimension. This generally requires significant and 
regular coordination on a broad range of issues.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. As the principal military advisor to the Secretary of 
Defense, the President, and the National Security Council, the Chairman 
has a unique and critical military role. The Principal Deputy Under 
Secretary of Defense for Policy works closely with the Chairman and 
Vice Chairman to support the efforts of the Under Secretary of Defense 
for Policy, the Secretary and the Deputy Secretary, and to help ensure 
that military advice is taken into account in an appropriate manner 
across a broad range of issues relating to strategy, force development, 
force employment, and other matters.
    Question. The Commanders of the Regional and Functional Combatant 
Commands.
    Answer. The Principal Deputy Under Secretary for Policy also works 
closely with the Regional and Functional Combatant Commanders to 
support the efforts of the Under Secretary of Defense for Policy, the 
Secretary and Deputy Secretary, particularly in the areas of strategy 
and policy, contingency planning, and policy oversight of operations.
    Question. The Administrator and Deputy Administrators of the 
National Nuclear Security Administration.
    Answer. The Principal Deputy Under Secretary for Policy works with 
the Administrator and Deputy Administrator of the National Nuclear 
Security Administration, in support of the Under Secretary of Defense 
for Policy's oversight of strategy for nuclear weapons and forces, as 
well as USD(P)'s role on the Nuclear Weapons Council.
  duties of the principal deputy under secretary of defense for policy
    Question. Section 134a of title 10, U.S.C., provides that the 
Deputy Under Secretary of Defense for Policy shall assist the Under 
Secretary of Defense for Policy in the performance of his duties. DOD 
Directive 5111.3 emphasizes that the Deputy Under Secretary of Defense 
for Policy advises and assists the Under Secretary of Defense for 
Policy, particularly on strategy formulation, contingency planning, and 
the integration of DOD plans and policy with overall national security 
objectives.
    What is your understanding of the duties and functions of the 
Principal Deputy Under Secretary of Defense for Policy under current 
regulations and practices?
    Answer. My understanding is that, as the principal assistant to the 
Under Secretary of Defense for Policy (USD(P)), the Principal Deputy 
Under Secretary of Defense for Policy is responsible for assisting the 
USD(P) in advising the Secretary of Defense on all matters concerning 
the formulation of national security and defense policy, and for 
assisting the USD(P) in carrying out all USD(P) responsibilities 
outlined in section 134(b) of title 10. This includes, but is not 
limited to, strategy formulation, contingency planning, and the 
integration of DOD plans and policy with overall national security 
objectives.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense and the Under Secretary of 
Defense for Policy would prescribe for you?
    Answer. If confirmed, I expect that my duties and functions would 
include advising and assisting the Under Secretary for Policy and the 
Secretary of Defense on strategy formulation, contingency planning, and 
the integration of DOD plans and policy. I expect that this would 
include involvement in the planning, programming, budgeting, and 
execution (PPBE) system, and in major departmental reviews such as the 
QDR and the Nuclear Posture Review. If confirmed, I look forward to 
speaking with the Secretary of Defense and the Under Secretary of 
Defense for Policy further about how I could best support their 
efforts.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. During the past 3 years, I have been honored to serve as 
the Deputy Under Secretary of Defense (DUSD) for Strategy, Plans, and 
Forces (SPF). In that capacity, I advise the Under Secretary of Defense 
for Policy and the Secretary of Defense on matters pertaining to the 
development of U.S. national security and defense strategy. I lead 
Policy's efforts to provide strategic guidance and implementation 
oversight to the Department's planning, programming, and budgeting 
process, including the 2010 QDR. I also oversee the efforts to guide, 
review, and assess military contingency plans and the plans for the 
day-to-day military activities of combatant commanders; various force 
development, force management, and corporate support processes; and the 
integrated assessment of U.S. military posture, force structure, and 
associated defense activities and capabilities.
    Prior to serving as DUSD for SPF, I spent 15 years working on a 
wide range of defense and national security issues, both in and out of 
government. For 13 years, I was a career civil servant in OSD Policy, 
beginning as a Presidential Management Intern and eventually joining 
the ranks of the Senior Executive Service. During that time, I held a 
broad range of responsibilities across the Policy organization, from 
Deputy Director for Resources, to Director for Strategy, Director for 
Strategic Planning and Program Integration, and Chief of Staff for the 
Quadrennial Roles, Missions and Organizations Team. I participated in 
the 1997 and 2006 QDRs and authored follow-on planning guidance to 
implement the 1993 Bottom-Up Review and 2001 QDR. From 2006 to 2009 I 
was a Senior Fellow at a national security and international studies 
think tank, where I directed research and task forces on defense 
governance, capabilities-based planning for stability operations, the 
future of U.S. civil affairs forces, and nontraditional security 
assistance. I hold a PhD in Political Science from the Massachusetts 
Institute of Technology, and a master's degree from the University of 
Maryland's School of Public Affairs. I believe that my substantive 
expertise and experience would allow me to serve the country well if 
confirmed as Principal Deputy Under Secretary of Defense for Policy.
             strategy formulation and contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning. DOD Directive 5111.3 specifically assigns a major 
role to the Deputy Under Secretary of Defense for Policy for those 
important matters.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. The role of civilian leadership is not only statutorily 
mandated, but critical in the formulation of defense strategy and 
planning. Civilian defense leadership is particularly vital in 
translating broad national security policies and principles into the 
strategic ends that ultimately drive military planning.
    More specifically, the Principal Deputy Under Secretary of Defense 
for Policy (PDUSD(P)) assists the Under Secretary for Policy (USD(P)) 
in supporting the development of the President's National Security 
Strategy, leading the development of the defense strategy, establishing 
realistic objectives and guidance to form the basis for contingency 
planning, and reviewing DOD plans and programs to ensure they support 
strategic objectives. In addition to the provision of written guidance, 
an important civilian leadership role is to review contingency plans 
submitted by the combatant commanders for approval. The PDUSD(P) also 
assists the USD(P) in facilitating interagency coordination on 
contingency planning efforts, as necessary.
    Question. In your opinion, does the civilian leadership currently 
have an appropriate level of oversight of strategy formulation and 
contingency planning?
    Answer. I believe that the current level of civilian oversight of 
strategy formulation and contingency planning is appropriate.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of strategy formulation and 
contingency planning?
    Answer. DOD should continue to fortify its capacity for strategic 
thinking and strategic planning to ensure that it not only deals with 
the challenges of today but is also well-prepared for those of 
tomorrow.
    The recently released DOD Strategic Guidance (DSG) is evidence that 
the Department thinks critically about strategy formulation and its 
associated resource implications. If confirmed, I will continue to work 
to reinforce these competencies within OSD(Policy). If confirmed, I 
would also strive to provide the best advice possible to the Under 
Secretary of Defense for Policy and the Secretary of Defense in 
fulfilling their responsibilities to provide written policy guidance 
and to review contingency plans. Finally, I would coordinate closely 
with the Joint Staff to develop further opportunities to collaborate on 
planning guidance and strategic reviews, such as the QDR.
                     major challenges and problems
    Question. In your view, what are the major challenges confronting 
the Principal Deputy Under Secretary of Defense for Policy?
    Answer. If confirmed as Principal Deputy Under Secretary of Defense 
for Policy, I look forward to playing an important role within the 
Department and the interagency process in developing policy in a number 
of key areas, including: defeating al Qaeda and countering the 
continuing threat of violent extremism; transitioning security 
responsibility in Afghanistan in a way that protects U.S. vital 
interests; preventing the proliferation of weapons of mass destruction 
(WMD), particularly in the cases of Iran and North Korea; strengthening 
alliances and partnerships globally to strengthen U.S. and 
international security; maintaining stability in Asia and other key 
regions; advancing U.S. interests in the context of dramatic changes 
that have unfolded and are unfolding in the Middle East and North 
Africa; continuing to strengthen the U.S. defense posture globally, as 
well as in cyberspace and outer space; and most importantly, ensuring 
that the United States and its vital interests are secure from attack 
(this requires continued effort in all of the above-noted areas, as 
well as sustaining the U.S. nuclear deterrent, missile defenses, and 
Homeland defense capabilities). A key challenge will be to support the 
Under Secretary of Defense for Policy, the Secretary of Defense, and 
the U.S. Government in resolving these and other issues--and pursuing 
opportunities--in the context of significant fiscal pressures.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would address these challenges by 
undertaking the development and implementation of both DOD and 
interagency strategies, policies, and plans for key regional and 
functional issues. I would continue to work closely with other 
components of DOD in support of the Under Secretary of Defense for 
Policy, the Secretary of Defense, our interagency partners, U.S. allies 
and partners, and where appropriate, the private sector and 
nongovernmental organizations. I would seek to ensure that strategies, 
policies, and plans are updated as needed to reflect new challenges and 
new opportunities. I would work to support the President and the 
Secretary's guidance to shape a Joint Force for the future that will be 
smaller and leaner, but will be flexible, agile, ready, and 
technologically advanced. I would work with counterparts in other 
departments and agencies and across the Department to rebalance towards 
the Asia-Pacific region and place a premium on the Middle East, while 
remaining the security partner of choice across the globe.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Principal Deputy 
Under Secretary of Defense for Policy?
    Answer. If confirmed, I would work to ensure that DOD pursues a 
strategic and balanced approach consistent with the recently released 
new DSG. I would also ensure a strong connection between strategy and 
resources--supporting the Secretary in making disciplined decisions 
based on our priorities--and ensure effective working relationships 
with both military and civilian counterparts throughout the Department 
and with other Federal departments and agencies. Top priorities would 
include addressing the challenges listed in my answer to the previous 
question, including defeating al Qaeda, ensuring the success and 
effective transition of the mission in Afghanistan, preventing Iran 
from acquiring a nuclear weapon, rebalancing toward the Asia-Pacific 
region, and protecting the U.S. Homeland. Continuing to strengthen our 
alliances and partnerships, and ensuring that the United States engages 
through forward presence and is the partner of choice globally, would 
also be key priorities.
                department of defense strategic guidance
    Question. The new DSG, ``Sustaining U.S. Global Leadership: 
Priorities for 21st Century Defense,'' announced by President Obama on 
January 5, 2012, sets out the defense priorities for the 21st century 
and the key military missions for which the DOD will prepare.
    What role, if any, did you play in the preparation of the new DSG?
    Answer. As the Deputy Under Secretary of Defense for Strategy, 
Plans, and Forces, I provided advice and assistance to the Secretary of 
Defense, Deputy Secretary, and Under Secretary of Defense for Policy, 
and worked closely with other civilian and military components 
including the Joint Staff. More specifically, I participated actively 
in the conceptualization and writing of the guidance, including the 
description of the projected security environment, the key military 
missions for which DOD must prepare, and prioritization of the key 
capabilities associated with succeeding at those military missions.
    Question. In your view, was the strategic review and decision 
process comprehensive, inclusive, and transparent?
    Answer. Begun under Secretary Gates and continued under the 
leadership of Secretary Panetta, the Department's strategic review and 
decision process were comprehensive, inclusive, and transparent. The 
review developed a revised defense strategy and accompanying investment 
priorities over the coming decade, including the identification of 
priority missions and associated capabilities essential to safeguarding 
U.S. and allied security interests in light of the range of challenges 
posed by the future global environment. The conduct of the review 
included routine discussion among and input from all OSD principal 
staff assistants, the Chairman and Vice Chairman, the Secretaries of 
the Military Departments and Service Chiefs, and the combatant 
commanders.
    Question. Do you agree with the defense priorities set out in that 
guidance? What changes, if any, would you recommend to those defense 
priorities?
    Answer. I agree with the defense priorities set out in the 
guidance, and would not recommend any changes at this time. As with all 
strategies and guidance, I believe that it will be important to review 
our approach and, if necessary, adapt it as shifts in the strategic 
environment require.
    Question. The new DSG includes a new emphasis on U.S. security 
interests and challenges in the Asia-Pacific region. Accordingly, the 
Department is taking steps to shape U.S. Forces relative to the air and 
maritime demands of the Far East and deemphasizing readiness for 
prolonged or large-scale stability operations.
    What is your understanding and assessment of the new DSG's shift of 
emphasis to the Asia-Pacific and away from large-scale stability 
operations, and the implications of this shift for shaping U.S. Force 
structure?
    Answer. The new DSG noted that, ``given that we cannot predict how 
the strategic environment will evolve with absolute certainty, we will 
maintain a broad portfolio of military capabilities that, in the 
aggregate, offer versatility'' across a wide range of missions. The 
Department's decision not to divest from the capability to conduct any 
mission reflects a recognition that the future security environment is 
uncertain.
    The new DSG also recognizes that the future strategic environment 
will require even greater flexibility and agility in projecting power 
to accomplish the Nation's security objectives. The United States has 
important and enduring interests in the Asia-Pacific region. We will 
maintain, and in some areas enhance, our military presence in the Asia-
Pacific region by making our posture more geographically distributed, 
operationally resilient, and politically sustainable. To that end, the 
fiscal year 2013 budget request protects and, in some cases, increases 
investments that are critical to our ability to rebalance toward the 
Asia-Pacific region, including our ability to project power. For 
instance, this budget funds the development of the next-generation 
bomber and new aerial refueling aircraft.
    The ability of our ground forces to ensure access, reassure allies, 
deter adversaries, build security capacity and interoperability with 
partners, and, ultimately, respond to and succeed in crises and 
contingencies remains an indispensable component of U.S. military 
capabilities. U.S. Forces will retain sufficient capacity to undertake 
limited counterinsurgency and stability operations, if required. 
Equally important, U.S. Forces will retain and continue to refine the 
lessons learned, expertise, and specialized capabilities that have been 
developed over the past 10 years of counterinsurgency and stability 
operations in Iraq and Afghanistan. Recognizing the uncertainties of 
the international environment, we will also ensure that we have the 
ability to mobilize and regenerate forces if a larger-scale stability 
operation becomes necessary in the future.
    Question. If confirmed, what changes, if any, in DOD manning, 
training, force structure, and equipment would you recommend are 
necessary to meet the requirements of the new DSG?
    Answer. Under the new DSG, although the U.S. Armed Forces will be 
smaller in number, we must ensure that they are ready, agile, flexible, 
and capable forces, with a forward presence that positions them to 
respond quickly in the event of threats or contingencies. Toward that 
end, the President's fiscal year 2013 budget request preserves or 
enhances investments in key areas of continuing urgency, such as 
counterterrorism efforts and counter-WMD efforts, and areas that will 
grow in prominence in coming years, such as cyber, missile defense, 
Special Operations Forces (SOF), and long-range ISR and strike.
                           strategic reviews
    Question. What is your understanding and assessment of the DOD 
processes for analysis, decisionmaking, and reporting results for each 
of the following strategic reviews:

          The National Defense Strategy;
          The National Military Strategy (section 153 of title 10, 
        U.S.C.);
          The QDR (section 118 of title 10, U.S.C.);
          Global Defense Posture Review (section 2687a of title 10, 
        U.S.C.); and
          The Quadrennial Roles and Missions Review (section 118b of 
        title 10, U.S.C.)?

    Answer. Each of these efforts serves as a lever to help senior 
defense officials steer the Department, ensuring that components are 
moving forward with common goals and objectives and understanding of 
the security context. They also provide ways to convey information 
about the defense strategy and program to Congress and the American 
people.
    I have been involved, directly and indirectly, in many of these 
reviews. With the exception of the National Military Strategy, for 
which the Chairman of the Joint Chiefs of Staff is responsible, the 
Secretary of Defense determines the processes and decisionmaking bodies 
for developing and approving the results of these strategic reviews. 
Although a wide range of approaches and mechanisms have been employed 
for these purposes over the years, each review is based on candid 
advice from senior military and civilian leaders and informed by 
relevant data and analyses. It is my assessment based on my past 3 
years in the Department that the processes for analysis, 
decisionmaking, and reporting on each of the above-mentioned reports 
are outstanding.
    The QDR examines what DOD will do to support the President's 
national security strategy, which articulates the administration's 
views on national security interests and sets priorities. Specifically, 
title 10 provides that the QDR should be a comprehensive examination of 
the national defense strategy, force structure, force modernization 
plans, infrastructure, budget plan, and other elements of the defense 
program and policies of the United States, with a view toward 
determining and expressing the defense strategy of the United States 
and establishing a defense program for the next 20 years. The QDR 
therefore articulates the national defense strategy and the appropriate 
mix of forces and capabilities to execute it. The QDR 2010 process 
included broad stakeholder involvement and significant, quality 
analysis that helped to inform the national defense strategy and its 
link to U.S. force structure, plans, and programs. Transparency and 
analytic rigor were also hallmarks of the 2012 DSG development and 
decision processes.
    The National Military Strategy must be reviewed biennially by the 
Chairman in concert with a risk assessment and submitted to Congress 
with the budget. If risk is significant, the Secretary's Risk 
Mitigation Plan accompanies it; the most recent review was completed 
and submitted in February 2012. The Office of the Under Secretary of 
Defense for Policy played an important role in the review of the 
National Military Strategy and in the development of the Secretary's 
Risk Mitigation Plan.
    The Quadrennial Roles and Missions Review (QRM) focuses on key 
organizational and capability aspects of how the Department can best 
meet its responsibilities. Title 10 requires a comprehensive assessment 
of the roles and missions of the Armed Forces and the core competencies 
and capabilities of DOD to perform and support such roles and missions. 
The development of the 2010 QDR and the 2012 DSG has significantly 
influenced its assessment of military roles and missions.
    The Department issues an annual Global Defense Posture Report to 
Congress. DOD continually assesses U.S. defense posture in an iterative 
and cooperative manner, informed by the defense strategy and supporting 
operational requirements. To that end, the Department has organized a 
senior executive council, composed of representatives from across the 
community of interest, including OSD, the Joint Staff, the Military 
Department and Service staffs, the State Department, and the combatant 
commands, to formulate recommendations on global posture to the 
Secretary of Defense.
    Question. If confirmed, what recommendations would you make, if 
any, to improve DOD's processes for analysis, policy formulation, and 
decisionmaking relative to each review above?
    Answer. In general, I have found that the following factors have 
been associated with successful strategic reviews:

        <bullet> All relevant stakeholders are represented in formal 
        review and decisionmaking fora. These stakeholders generally 
        include Principal Staff Assistants (PSAs) within the Office of 
        the Secretary of Defense, the Joint Staff, leadership of 
        components, and the combatant commanders.
        <bullet> Leadership of working groups and review groups is 
        assigned to organizations with the predominant expertise and 
        involvement in the issue areas under examination. Generally, 
        this entails co-chairing arrangements that involve, at a 
        minimum, key offices within the Office of the Secretary of 
        Defense and the Joint Staff.
        <bullet> The deliberations and findings of working groups are 
        transparent and are vetted with stakeholders before being 
        presented to top leadership.
        <bullet> The Secretary establishes and maintains ``hands-on'' 
        oversight of the overall effort from start to finish.

    Also critical for the success of any strategic review is the 
maintenance of a vibrant, ongoing set of analytical efforts that 
continually assess the ability of current, programmed, and projected 
forces to accomplish key missions. If confirmed, I would recommend that 
insights gained from previous reviews, along the lines of those 
outlined above, be applied to upcoming reviews, including the 
development of the next QDR.
                              afghanistan
    Question. Do you support the counterinsurgency strategy for 
Afghanistan? In your view, is that the right strategy?
    Answer. I believe that the U.S. strategy in Afghanistan is sound. I 
also believe that, over time, the administration should continue to 
assess and adjust as necessary its implementation of the overall 
strategy based on conditions on the ground. If confirmed, I am 
committed to consulting with Congress, and with our allies and partners 
in this regard.
    Question. Do you support the President's decision to withdraw the 
33,000 U.S. surge forces from Afghanistan by the end of this summer?
    Answer. Yes. I support a responsible, conditions-based drawdown as 
called for by the President. The United States has already withdrawn 
the first 10,000 surge forces, and the remaining 23,000 will be 
withdrawn by the end of September. The key to success in Afghanistan is 
the ability of Afghan National Security Forces (ANSF) to provide 
security. The surge has allowed the Afghans to develop a more 
operationally capable and professional force and, in doing so, has 
established conditions that will support the reduction of forces as 
planned.
    Question. If confirmed, what changes, if any, would you recommend 
to our strategy in Afghanistan as a result of the drawdown of U.S. 
Forces?
    Answer. I believe that the U.S. strategy for Afghanistan is sound, 
and I do not recommend any changes at present. I believe that the 
strategy for Afghanistan (and other strategies and plans) should be 
regularly assessed, with coordinated adjustments made as necessary.
    Question. If confirmed, what recommendations would you make on the 
pace of further drawdowns in U.S. Forces in Afghanistan after the end 
of this summer, when the full U.S. surge force will have been withdrawn 
from Afghanistan?
    Answer. It is my understanding that decisions on further drawdown 
of forces beyond the recovery of the surge force have not been made. 
Future decisions on the pace and scale of force drawdown should be 
based on assessments of operational conditions, and the resources 
needed to continue progress toward our objectives. If confirmed, any 
recommendations I make will be based on future assessments of these 
factors.
                         afghanistan transition
    Question. Do you support the goal adopted at the 2010 North 
Atlantic Treaty Organization (NATO) Summit in Lisbon of transitioning 
lead responsibility for security throughout Afghanistan to the Afghan 
security forces by 2014?
    Answer. Yes, I do support that very important goal.
    Question. In your view, what are the main challenges to the success 
of the transition to an Afghan security lead throughout Afghanistan by 
2014?
    Answer. Safe havens for insurgents in Pakistan and Afghan capacity 
in the governance and development areas remain the most challenging 
aspects of transition. The limited capacity of the Afghan Government to 
govern effectively and to fill government positions at the national and 
sub-national levels hinders its ability to assume leadership on these 
lines of operation. Efforts in these areas must underpin the success of 
the security transition in the effort to achieve durable stability in 
Afghanistan.
                  afghanistan national security forces
    Question. What is your assessment of the progress in developing 
professional and effective ANSF?
    Answer. ANSF operational effectiveness is improving and the ANSF 
are demonstrating increasing capability. Currently, 13 of 156 ANA 
Kandaks or battalions have the highest possible rating, ``Independent 
with Advisors''. However, the more critical measure is the number of 
units rated at ``Effective with Advisors'' and ``Effective with 
Partners,'' which are the levels necessary to support transition. Since 
December 8, 2011, the percentage of ANA units rated as ``Effective with 
Partners'' or higher grew from 85 percent to 91 percent. Although the 
ANSF are currently not ready to operate independently of ISAF in most 
areas, they are assuming an ever-increasing leadership role in 
operations across Afghanistan, and are on schedule to meet the 2014 
goal for transition of security responsibility to the Afghan 
Government.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF to assume lead security responsibility by 2014?
    Answer. A first challenge is to continue to build out the full 
complement of 352,000 ANSF, and to continue to improve the quality, 
readiness, and performance of these forces. We need to continue ongoing 
programs to expand ANSF literacy, and continue to provide financial and 
advisory support to the institutional training centers and existing 
Afghan training cadres that are currently building leadership and 
technical capacity of both the Army and the Police. A second challenge 
is for the ANSF to develop a greater capacity for critical enablers, 
including logistics support; mobility (e.g., rotary wing); 
intelligence, surveillance, and reconnaissance (ISR); and operational 
planning. Third and most broadly, the ANSF must continue building its 
self-confidence through operational success in taking the lead 
responsibility for securing transitioned areas and protecting the 
Afghan people.
    Question. If confirmed, what recommendations, if any, would you 
make for addressing those challenges?
    If confirmed, I would continue current efforts to simplify and 
accelerate the distribution of ANSF goods and services, support the 
continued provision of U.S. enabler support as a bridging strategy, and 
continue the mentoring of Afghan leadership and other training and 
education programs.
    Question. General Allen has testified that options are under 
consideration for reducing the size of the ANSF after 2014, including a 
proposal to cut the ANSF by one third from 352,000 in 2012 to around 
230,000 after 2014.
    What do you see as the main challenges for sustaining the ANSF 
through 2014 and beyond, and if confirmed, what recommendations, if 
any, would you make for addressing these challenges?
    Answer. A sustained and well-organized international effort to 
train, advise, and assist the ANSF will be critical to their success 
both before and after transition in 2014. Building ANSF enabler 
capacity, as noted in my answer to a preceding question, will also be 
critical. Continued improvement in the functioning of the Ministries of 
Defense and Interior, including sustained progress in fighting waste 
and corruption, will be essential. The United States and other 
coalition partners must continue to provide the requisite fiscal and 
personnel support. Maintaining the international community's support 
for the ANSF through 2014 and beyond is critical to ANSF sustainability 
and ensuring that the ANSF remain able to provide security for 
Afghanistan. If confirmed, I will assist the Under Secretary of Defense 
for Policy and the Secretary of Defense in their efforts to develop a 
focused international engagement strategy, in conjunction with other 
elements of the United States Government, leading up to the NATO Summit 
in Chicago in May. The Chicago Summit will serve as a key milestone in 
solidifying the international community's long-term support and 
commitment to the ANSF, first established in Lisbon and reaffirmed in 
Bonn, through 2014 and beyond.
    Question. Do you agree that the security conditions on the ground 
in Afghanistan should be a determining factor in considering any future 
reductions in the size of the ANSF after 2014?
    Answer. I do.
                 u.s.-afghanistan strategic partnership
    Question. In your view, how important to the success of our 
strategy in Afghanistan is the conclusion of a Strategic Partnership 
Declaration between the United States and Afghanistan setting out our 
bilateral relationship over the longer-term?
    Answer. I assess the Strategic Partnership to be of great 
importance to our long-term success in Afghanistan. A Strategic 
Partnership has important benefits for our campaign in Afghanistan and 
our broader relationship with Afghanistan, and it is important to note 
that the Strategic Partnership encompasses U.S. actions and intentions 
as well as those of the Government of Afghanistan. As a long-term, 
broad strategic framework for future U.S. and Afghanistan relations, 
the Strategic Partnership will send a critically important message to 
the Government of Afghanistan, the Afghan people, and enemies of the 
Afghan state that the United States remains committed to the security 
and stability of Afghanistan and the welfare of its people. Of critical 
importance, it emphasizes that we will not abandon the Afghan people 
while clearly signaling to al Qaeda and its affiliates that Afghanistan 
will not once again become a safe haven for their use.
                    u.s. relationship with pakistan
    Question. What is your assessment of the current U.S.-Pakistan 
security relationship?
    Answer. Our relationship with Pakistan is challenging but critical 
to our national security and our regional interests. Over the past 
year, the relationship has suffered a number of setbacks and, until 
recently, our relationship has been nearly frozen. If confirmed, I look 
forward to assisting the Secretary and Under Secretary of Defense in 
their work with Pakistan to define and develop a more constructive and 
durable relationship once the Government of Pakistan informs us of its 
plans to implement the recommendations for the bilateral relationship 
that Pakistan's Parliament put forth.
    Historically, the U.S. military-to-military relationship with 
Pakistan, like our overall relationship, has seen good and bad phases. 
However, we still have important shared objectives. A core U.S. 
national security goal is to disrupt, dismantle, and defeat al Qaeda 
and its affiliates to ensure that they do not find safe havens in 
Afghanistan and Pakistan, and to mitigate the threat to the United 
States, our allies and partners, and our interests abroad. Pakistan has 
suffered more than 12,000 military personnel killed or wounded and more 
than 36,000 civilian causalities in recent years from terrorist 
actions. The Pakistani military is operating currently against some, 
but not all, militants that enable the safe havens, and we are 
committed to working with Pakistan to address this persistent threat. 
As President Obama has said, ``We have killed more terrorists on 
Pakistani soil than anywhere else, and that could not have been done 
without their cooperation.'' Pakistan also has a clear stake in Afghan 
stability and will be an important participant in the process that 
ultimately brings the conflict to a successful conclusion.
    Question. If confirmed, what recommendations would you have 
regarding the nature and extent of U.S. engagement with Pakistan going 
forward on issues of counterterrorism and other security matters?
    Answer. As President Obama has stated, ``We will continue the work 
of devastating al Qaeda's leadership and denying them a safe haven.'' 
The conditions that allow the group to maintain its safe haven and 
regenerate--including its ability to capitalize on relationships with 
militant affiliates--can only be addressed through a sustained local 
presence opposed to al Qaeda. Therefore, we will defeat al Qaeda only 
through sustained cooperation with Pakistan. Greater Pakistani-U.S. 
cooperation across a broad range of political, military, and economic 
pursuits will be necessary to achieve the defeat of al Qaeda in 
Pakistan and Afghanistan as we work to change the conditions on the 
ground that give rise to safe havens.
    If confirmed, I would continue to support DOD's efforts in 
coordination with our interagency partners for a constructive and 
mutually beneficial relationship with Pakistan, aimed at advancing 
shared national security objectives.
                      u.s. assistance to pakistan
    Question. The United States has provided significant military 
assistance to Pakistan, including foreign military financing (FMF) and 
training and equipment through the Pakistan Counterinsurgency Fund 
(PCF) to build the capacity of the Pakistan Army and Frontier Scouts to 
conduct counterinsurgency operations. The United States has also 
provided significant reimbursements to Pakistan through the Coalition 
Support Fund (CSF) for support that Pakistan has provided to U.S. 
operations in Operation Enduring Freedom. Currently, both U.S. military 
assistance and reimbursements to Pakistan have been largely suspended.
    In your view, under what conditions, if any, should the provision 
of U.S. military assistance to Pakistan under FMF and PCF be resumed?
    Answer. Please see combined answer below.
    Question. In your view, under what conditions, if any, should the 
provision of reimbursements to Pakistan under CSF be resumed?
    Answer. In my view, our current capacity-building programs with the 
Pakistan military and paramilitary forces have been an important 
component in improving the Pakistan military's counterterrorism and 
counterinsurgency capabilities in order for Pakistan's military to 
fight extremists whose safe havens enable terrorists that threaten the 
United States. Our assistance has also helped to improve cross-border 
coordination. Going forward, it is vital that Pakistan live up to its 
responsibilities, including to cooperate fully in counterterrorism 
matters, and to expand its counterinsurgency campaign against all 
extremists and militant groups that have found safe haven inside 
Pakistan. In the wake of the Osama bin Laden raid, the administration 
asked Pakistan to take a number of concrete steps to demonstrate its 
continued commitment to a cooperative and mutually beneficial 
relationship. Future provision of all security-related assistance will 
be informed by Pakistan's response to these requests and to the overall 
restart of our relationship in the wake of the November 26, 2011, 
cross-border incident that resulted in the deaths of 24 Pakistan Army 
soldiers. If confirmed, I will work with Congress to ensure that the 
support the United States provides to Pakistan yields the results we 
seek.
                                  iraq
    Question. President Obama has said that the December 31, 2011, 
withdrawal of all U.S. military forces from Iraq marked the beginning 
of a new chapter in the U.S.-Iraq relationship.
    What in your view are the highest priorities for the U.S.-Iraq 
security relationship going forward?
    Answer. Developing a long-term security relationship with Iraq, as 
part of a broader enduring commitment to regional peace and security, 
is one of our highest priorities. This relationship should include 
consultation on regional security issues, and the continued development 
of appropriate Iraqi military capabilities.
    Question. What, in your view, are the greatest opportunities for 
U.S.-Iraq security cooperation going forward, and, if confirmed, how 
would you recommend that DOD pursue those opportunities?
    Answer. The Office of Security Cooperation-Iraq (OSC-I), under 
Chief of Mission authority, is the cornerstone of the long-term U.S.-
Iraqi strategic security partnership. It will serve as the main vehicle 
to expand our security cooperation relationship with the Iraqis. On a 
daily basis, the OSC-I coordinates security assistance and security 
cooperation activities, and conducts training to support the 
development and modernization of the Iraq Security Forces.
    The Defense and Security Joint Coordination Committee (DSJCC), 
established under the Strategic Framework Agreement, is another vehicle 
to strengthen bilateral relations, including security cooperation. The 
DSJCC, the next meeting of which will take place in late May, will be 
co-chaired by the acting Under Secretary of Defense for Policy and the 
acting Under Secretary of State for Arms Control.
    If confirmed, I will assist the Under Secretary of Defense for 
Policy in advancing both of these important vehicles for expanding our 
security cooperation.
    Question. What do you see as the greatest challenges facing the 
Department with regard to our security relationship with Iraq and, if 
confirmed, how would you recommend meeting those challenges?
    Answer. Ensuring Iraq's integration into the regional security 
framework will remain an important task. The Department will need to 
continue strengthening its security relationship with Iraq through 
security cooperation activities, while helping to expand Iraq's 
military engagement with key regional partners.
    If confirmed, I will support the DSJCC and will seek to bolster the 
U.S.-Iraq defense partnership on a wide array of security matters.
                  transatlantic relationship and nato
    Question. In your view, how important to U.S. national security 
interests is the U.S. transatlantic relationship with our European 
partners?
    Answer. NATO remains of vital importance, and is a net provider of 
global security. As President Obama has said, Europe remains the 
cornerstone of our engagement with the world, and NATO is the most 
capable alliance in history.
    The transatlantic relationship is of critical importance to U.S. 
national security, and the transatlantic community has never been more 
closely aligned in confronting the challenges of a complex, dangerous, 
and fast-changing world. In Libya, NATO allies came together with Arab 
and other partners to prevent a humanitarian catastrophe, and to 
support the Libyan people. In Afghanistan, with nearly 40,000 allied 
and partner forces alongside our own, we have built and sustained 
NATO's largest-ever overseas deployment. As Iran has continued to defy 
its obligations under U.N. Security Council resolutions, the United 
States, Europe, and other partners have put in place the toughest 
sanctions yet.
    Question. In your view, what is the role of the NATO alliance in 
meeting U.S. security interests?
    Answer. The United States has important stakes in a strong, 
mutually supportive NATO alliance, and the President has stressed his 
strong desire to rebuild and adapt transatlantic security relationships 
to meet 21st century security challenges. NATO's new Strategic Concept 
is an important step in ensuring that NATO will continue to play its 
unique and essential role in ensuring the common security of its 
members, including in meeting U.S. security interests, and it will 
guide the next phase in NATO's evolution.
    Question. What are the greatest challenges and opportunities that 
you foresee for NATO over the next 5 years?
    Answer. Over the next 5 years, the top NATO-related challenges 
include achieving durable progress and a successful transition in 
Afghanistan, implementing missile defense in Europe, and stemming the 
deterioration in European military capability. Many of our NATO allies 
have been under-investing in defense capabilities, especially when it 
comes to deployable expeditionary forces. Many have significantly 
reduced their national defense budgets in response to the global 
economic crisis, and some are planning further cuts. A key challenge--
and a key opportunity--will be for allies to determine which 
capabilities must be sustained, and how that can be done in a more 
cost-effective manner.
    Question. Should NATO consider an expanded role for Israel within 
the organization?
    Answer. Israel is an active and valued partner of NATO through the 
alliance's Mediterranean Dialogue program, which includes practical 
cooperation as well as political dialogue, both bilaterally with NATO 
and multilaterally including the other six Partners in the 
Mediterranean Dialogue. The United States supports and encourages this 
partnership, and encourages other allies and partners to do so as well. 
The Mediterranean Dialogue includes an ``Individual Cooperation 
Program,'' developed between NATO and Israel, which outlines Israeli 
desires for engagement with NATO.
                       building partner capacity
    Question. In the past few years, the Defense Department has 
requested and Congress has approved a number of temporary authorities 
to build the capacity of partner nations or provide security 
assistance. These include the section 1206 global train-and-equip 
authority, targeted authorities to build capacity in Yemen and East 
Africa, and the Global Security Contingency Fund.
    In your view, what are the strategic objectives and priorities for 
the Department's programs for building the capacity of partner nations?
    Answer. In my view, the primary strategic objective of the United 
States in building the capacity of foreign partners is to help them 
develop effective and legitimate security institutions that can provide 
for their countries' internal security and contribute to regional and 
multilateral responses to threats and instability. This, in turn, 
mitigates the burden on U.S. Forces responding to security threats 
outside the United States, and serves to build a base of countries that 
can effectively participate in multinational coalition-based 
operations.
    Successfully countering violent extremist networks requires that we 
develop and sustain a global network of allies and partners that is 
capable and interoperable. Additionally, once partners become capable 
and have sufficient capacity, they are able to help bolster regional 
security in a way that supports U.S. interests. In some cases, 
participation by these partner nations' forces provide cultural and 
linguistic advantages that afford them better access and effectiveness 
than U.S. Forces executing the same mission. For example, today 
Colombia provides justice sector and security force assistance to other 
U.S. partner nations in the Americas and Africa.
    Finally, efforts to build partner capacity promote interoperability 
between U.S, and other nations' forces, and enable the U.S. Military to 
establish personal connections and long-term relationships with foreign 
counterparts. We can never be certain where in the world U.S. Forces 
may be required to operate. Enduring relationships with partner nations 
are at the core of a multinational coalition's strength, helping to 
secure shared access to facilities and territory, information, and 
diplomatic support.
    Question. What improvements, if any, would you recommend, if 
confirmed, to the strategic direction, oversight, and management of the 
Department's programs for building partner capacity to ensure that 
these programs are executed consistent with U.S. national security 
goals and objectives?
    Answer. If confirmed, I would continue to support DOD capabilities 
and investments that encourage and enable partners to develop capable 
security forces and institutionalize the Department's capacity to 
provide high impact security force assistance. I would provide 
recommendations to the Secretary and Under Secretary of Defense that 
enable them to make informed choices with regard to the location and 
frequency of DOD activities that build partners' security capacity. It 
is essential in this era of shifting focus and constrained resources 
that we carefully prioritize which partners we engage with, how often, 
and to what end.
    Also if confirmed, I would continue to assist the Under Secretary 
of Defense for Policy in implementing process improvements in the 
delivery of defense articles and services for urgent and emerging 
needs.
    Question. What is your assessment of the implementation and 
effectiveness of the Department's programs for building partner 
capacity in achieving U.S. national security goals and objectives?
    Answer. In general, the Department's capacity-building programs are 
useful tools that contribute significantly to the achievement of our 
national security goals and objectives. These programs are most 
effective when they are closely aligned with the Department of State's 
foreign policy objectives while addressing critical needs as identified 
by our foreign partners. This is best demonstrated by several examples.
    First, our security force assistance programs with the Philippines 
military over the last several years have enabled those forces to 
conduct effective domestic counterterrorism operations and to 
contribute to regional maritime security. Specifically, we have 
improved their surveillance, tracking, and interception capabilities, 
and provided tactical equipment that has been used in numerous 
operations against extremist organizations in the Southern Philippines. 
Importantly, the provision of radars has been a catalyst for Philippine 
interest in acquiring secure communications methods, which will enable 
information sharing with U.S. Pacific Command on radar and intelligence 
operations. The Government of the Philippines recognizes the importance 
of these investments and is now sustaining its newly acquired 
capabilities through national funds and Foreign Military Financing 
(FMF)/Foreign Military Sales (FMS) programs.
    Colombia is another good example of where more than a decade of 
security force assistance has enabled a partner to combat internal 
destabilizing elements effectively--in that case, the FARC. In 
particular, we have provided support to aviation training, intelligence 
and operational fusion, operational planning, riverine operations, 
logistics, command and control, security, and medical training. Now, we 
are encouraged to see that Colombia is in turn providing justice sector 
and security force assistance of their own to other U.S. partner 
nations across the Americas and in Africa.
    Finally, Georgia is an example of how our coalition support 
authorities have enabled a relatively small partner nation to serve in 
Afghanistan, not only deploying there with battalion-sized combat units 
that operate without caveats, but punching well above their weight 
class while doing so. The provision of high-mobility multipurpose 
wheeled vehicles, night vision goggles, communications equipment, and 
training has enabled Georgian forces to make a significant contribution 
to coalition operations, in turn lessening the burden on U.S. Forces 
deployed to Afghanistan.
    Question. In your view, what should be the role of DOD, vis-a-vis 
the State Department and other civilian departments and agencies, in 
efforts to build the capacity of foreign security forces?
    Answer. The United States will be more successful at deterring and 
responding to security challenges when allies and partner security 
forces act in a way that is complementary to U.S. goals and objectives. 
Our experiences in Iraq and Afghanistan, our continuing efforts to 
counter violent extremist organizations and transnational criminal 
organizations, and our preparations for future contingencies clearly 
illustrate the need for capable partners who can apply capabilities 
complementary to U.S. military objectives. In that vein, I believe that 
DOD should sustain and grow the capability to develop partner security 
forces, especially forces to train, advise, and assist partners during 
conflict.
    Building the capacity of foreign security forces is a shared 
responsibility within the executive branch, particularly by the 
Departments of State and Defense. Close collaboration between the 
Departments is a key characteristic of the Section 1206 authority, and 
one of its greatest strengths. The Global Security Contingency Fund 
epitomizes this shared responsibility, and represents an opportunity 
for the State Department and DOD to plan for contingencies jointly, and 
to establish a new business model for interagency planning of security 
sector assistance.
                                 russia
    Question. What is your assessment of the current U.S.-Russian 
security relationship?
    Answer. In September 2010, then-Secretary Gates and Russian 
Minister of Defense Serdyukov advanced the U.S.-Russia defense 
relationship by establishing the Defense Relations Working Group 
(DRWG). Through its eight subworking groups, the Department engages 
with the Russian Ministry of Defense across a spectrum of cooperative 
defense activities--missile defense, defense technology, social 
welfare, training and education, as well as regional and global 
security, and defense policy. These efforts have helped each country 
gain important insights into one another's defense establishments. 
Reciprocity is a key element of this engagement. The defense 
relationship and military-to-military activities are focused in part on 
helping Russia's efforts to reform its Armed Forces, and a reformed 
Russian military is a positive goal worth pursuing. These efforts are 
not enhancing the combat capabilities of the Russian Armed Forces.
    Cooperative Threat Reduction (CTR) cooperation continues to be a 
steady component of the U.S.-Russian relationship. Although the 
international agreement that governs CTR cooperation with Russia (i.e., 
the CTR Umbrella Agreement) is due to expire in June 2013, the 
administration looks forward to an extension of this agreement and a 
continuation of its work with Russia.
    Question. What do you believe are appropriate objectives for U.S.-
Russian security relations, and what do you believe are the areas of 
common interest between the United States and Russia in the security 
sphere?
    Answer. The United States and Russia should be able to cooperate 
effectively in the many areas where we share common interests; 
communicate effectively in areas where we have competing interests; and 
negotiate reasonably in areas where we have overlapping interests.
    Among the most important areas where the United States and Russia 
have common interests is in countering the proliferation of WMD, 
particularly nuclear weapons. We have had significant cooperation on--
for example--Iran. The Russians cancelled a major weapons sale worth 
several hundred million dollars to Iran in 2010 and supported UNSCR 
1929, which imposed international sanctions on Iran's ballistic missile 
and nuclear programs. I believe that the United States should continue 
to seek Russian support to ensure that Iran does not develop nuclear 
weapons. Similarly, Russia is a key player in reversing North Korea's 
nuclear and missile programs, and shares common interests in this 
regard. As a third example, the Cooperative Threat Reduction Program 
continues to be one of the most successful cooperative programs in the 
U.S.-Russia relationship. Finally, the United States and Russia share 
strong interests in reducing the likelihood of nuclear war, as 
reflected in the New START treaty.
    Russia also has an interest in stability in Afghanistan. U.S. 
efforts in Afghanistan have benefited greatly from improved security 
relations with Russia. The Northern Distribution Network has been 
critical to continued operations given the closure of our Pakistan 
ground lines of communication. Russia allows our military personnel, 
supplies, and equipment to transit its territory by air and rail and 
will soon allow for reverse transit from Afghanistan. Russia has also 
been forward-leaning in identifying possible areas of cooperation on 
counternarcotics, and we have been engaging Russia to develop these 
ideas.
    Question. What are the greatest challenges in the U.S.-Russian 
security relationship?
    Answer. The United States has developed a constructive relationship 
with Russia over the past several years. Despite mutual cooperation, 
challenges remain and progress has been uneven in some areas. Georgia, 
conventional arms control in Europe, and missile defense are some of 
the more challenging issues in our bilateral security relationship.
    In the case of Georgia, the United States is holding Russia to the 
letter of the Medvedev-Sarkozy Agreement, urging it to restore 
international monitors to the occupied territories of Abkhazia and 
South Ossetia. The Department would like to see more transparency on 
Russian military activity in the region. Together with our European 
partners, we will maintain our support for Georgia's territorial 
integrity and sovereignty within its internationally recognized borders 
and will continue to support international efforts to find a peaceful 
resolution to the dispute over Abkhazia and South Ossetia.
    We would like to see more progress on conventional arms control in 
Europe and Russia's full implementation of its existing commitments. 
The United States is committed to revitalizing the conventional arms 
control regime in Europe and continues to consult on a way forward with 
Russia and our other treaty partners.
    Finally, differences remain on missile defense. As President Obama 
has stated, the United States is committed to finding the right 
approach to enable missile defense cooperation with Russia. A U.S.-
Russia agreement to cooperate on missile defense would remove a major 
irritant from the relationship. We continue to believe that cooperation 
with Russia on missile defense can enhance the security of the United 
States, our allies in Europe, and Russia. If confirmed, I will assist 
the Secretary and Under Secretary of Defense for Policy in working with 
Russia to define the parameters of possible cooperation.
    Question. In your view, what policy steps should DOD take to 
improve security relations with Russia? For instance, would you support 
increased military-to-military relations and exchanges with Russia?
    Answer. DOD has been a proponent and a beneficiary of the reset 
with Russia. The OSD-MOD Defense Relations Working Group and the Joint 
Staff-General Staff Military Cooperation Working Group revived U.S.-
Russia defense and military relations from the low-point after the 
Russo-Georgia War.
    As a result, DOD has a robust military-to-military work plan and is 
constantly looking for ways to improve the relationship and contribute 
to greater security in the Euro-Atlantic space. The 2012 Military 
Cooperation Work Plan includes more than 100 events and comprises a 
variety of activities such as cadet exchanges, exercises, senior leader 
visits, and conferences. Over time, cooperation on a wide range of 
issues may help to build a foundation for more concrete and substantive 
cooperation with Russia.
    One way to improve cooperation would be a U.S.-Russia agreement to 
cooperate on missile defense. Such an agreement would remove a major 
irritant from the relationship, send a strong signal to Iran that 
development of long-range ballistic missiles and nuclear weapons would 
be a waste of resources, add to the effectiveness of our missile 
defense system, and could help recast perceptions U.S.-Russia relations 
on both sides.
    Question. Would you support any joint development or other programs 
with Russia?
    Answer. If confirmed, I would be interested in supporting joint 
programs that would benefit the United States. Through the Defense 
Technology Cooperation Subworking Group under the Defense Relations 
Working Group, DOD has been looking for such opportunities. Before 
undertaking any joint programs, the United States and Russia would need 
to conclude a Defense Technology Cooperation Agreement, which has been 
in negotiation for some time.
                                  iran
    Question. The President said: ``America is determined to prevent 
Iran from getting a nuclear weapon, and I will take no option off the 
table to achieve that goal.''
    Do you agree that we should leave all options on the table with 
respect to Iran? If so, why? If not, why not?
    Answer. Yes, I agree with the President that all options should 
remain on the table to address Iran's illicit activities. It is DOD's 
responsibility to plan for all contingencies, and through prudent 
military planning we continue to refine options to protect U.S. and 
partner interests from Iranian aggression. However, we continue to 
believe that diplomacy and economic pressure are the most effective 
tools for changing Iranian behavior at this time.
    Question. In your view, what should be the role of DOD for 
advancing the President's policy with respect to Iran?
    Answer. DOD plays a supporting role in the whole-of-government 
strategy of engagement and pressure toward Iran, which is led by the 
Departments of State and Treasury. In addition to DOD's support of 
interagency efforts, it is the responsibility of DOD to plan for all 
contingencies, and to provide the President with a wide range of 
military options should they become necessary.
                                 china
    Question. China's defense spending has had double-digit increases 
annually for about the past 20 years. While a certain amount of 
military growth is to be expected for a country experiencing the kind 
of economic growth that China has had over about that same period, the 
types of platforms and capabilities China is developing have been 
interpreted by some as designed to project power, limit freedom of 
movement by potential adversaries, and conduct military operations at 
increasing distances. Such developments, coupled with strident rhetoric 
and a lack of transparency, stoke growing concerns about China's 
intentions in the region.
    How would you characterize the current U.S. relationship with 
China?
    Answer. The senior-most leaders of our two countries have 
consistently affirmed the need for a positive, cooperative, and 
comprehensive U.S.-China relationship. I would describe the 
relationship as simultaneously possessing elements of cooperation and 
competition. The United States, including DOD, continues to pursue 
opportunities to cooperate where there is a mutual benefit, while 
pursuing frank discussions in areas where we may have differences.
    Question. What do you believe are the objectives of China's steady 
increase in defense spending and its overall military modernization 
program?
    Answer. China appears to be building the capability to fight and 
win short-duration, high-intensity conflicts along its periphery, and 
also to counter intervention by third parties. Its near-term focus 
appears to be on preparing for potential contingencies involving 
Taiwan, and deterring or denying effective intervention in a cross-
Strait conflict. Its modernization efforts emphasize anti-access/area 
denial capabilities. China is also devoting increasing attention and 
resources to conducting operations beyond Taiwan and China's immediate 
periphery. China's growing focus on military missions other than war 
includes humanitarian assistance, non-combat evacuation operations, and 
counter-piracy support. Lastly, China is strengthening its nuclear 
deterrent and enhancing its strategic strike capabilities through the 
modernization of its nuclear forces, and is improving other strategic 
capabilities, such as in space, counter-space, and computer network 
operations.
    Question. How should the United States respond to this Chinese 
military growth and modernization?
    Answer. I believe the United States should continue to monitor 
developments in China's military concepts and capabilities, while 
encouraging Beijing to be more transparent about its military and 
security affairs. The United States has been and should remain the 
pivotal military power in the Asia-Pacific region in order to preserve 
the conditions that have fostered peace and prosperity. The U.S. 
response to China's military modernization should be flexible and 
supported by the continued transformation of our force posture in the 
Asia-Pacific region, the maintenance of our global presence and access, 
the modernization of our own capabilities in such areas as countering 
anti-access/area denial, and the strengthening of our alliances and 
partnerships.
    Question. What is your assessment of the current state of U.S.-
China military-to-military relations?
    Answer. As Secretary of Defense Panetta and China's Vice President 
Xi affirmed in February, a healthy, stable, and reliable military-to-
military relationship is an essential part of President Obama's and 
President Hu's shared vision for building a cooperative partnership.
    I believe we should continue to use military engagement with China 
as one of several means to demonstrate U.S. commitment to the security 
of the Asia-Pacific region, to encourage China to play a constructive 
role in the region to discuss the peacetime interaction of our 
respective military forces so as to minimize the risk of accidents, and 
to press China to partner with the United States and our Asian allies 
and partners in addressing common security challenges.
    Question. Do you believe that the United States should make any 
changes in the quality or quantity of our military relations with 
China? If so, what changes and why?
    Answer. I believe that military exchanges with China can be 
valuable, but can only truly work if China is equally committed to open 
and regular exchanges. If confirmed, I would look for ways to deepen 
and enhance our military-to-military relationship with China, and to 
encourage China to act responsibly both regionally and globally.
    Question. By most accounts, China has become more assertive in its 
claims of sovereignty in various domains, including maritime, air, and 
space. There are numerous examples of this assertiveness, but one in 
particular is China's increased aggressiveness in asserting its 
excessive maritime claims in the South China Sea.
    What role should the United States play in the ongoing maritime 
disputes in the South China Sea?
    Answer. The United States is a Pacific nation with a national 
interest in freedom of navigation and overflight, open access to Asia's 
maritime domain, the maintenance of peace and stability, free and open 
commerce, and respect for international law, including in the South 
China Sea.
    In my view, the United States should not take a position on the 
competing territorial claims over land features in the South China Sea; 
all parties should resolve their disputes through peaceful means and in 
accordance with international law, without resorting to the threat or 
use of force.
    The United States should continue to call upon all parties to 
clarify their claims in the South China Sea in terms consistent with 
international law. Accordingly, claims to maritime space in the South 
China Sea should be derived solely from legitimate claims to land 
features.
    Question. How does the presence of the U.S. Navy in the South China 
Sea influence this maritime dispute and, in your view, would an 
increase in U.S. activity in that region serve to stabilize or 
destabilize the situation?
    Answer. The U.S. Navy is a key provider of the military presence 
that underlies peace and stability across the globe, including in the 
South China Sea. I believe it is essential for the U.S. Navy to 
maintain its presence and assert our freedom of navigation and 
overflight rights in the South China Sea in accordance with customary 
international law.
    Preservation of the rights, freedoms, and uses of the sea depend 
largely upon their continual exercise. Around the world, U.S. military 
forces conduct operations to challenge excessive maritime claims 
asserted by coastal states. In the South China Sea, we have expressed 
our desire for respect for freedom of navigation and overflight for 
many decades, through operational assertions against excessive maritime 
claims asserted by several nations. Of note, we challenge excessive 
maritime claims asserted by any nation, including excessive claims by 
allies and partners.
    Question. Cyber space has become a critical realm for civilian and 
military applications and, as a result, it represents a potentially 
substantial vulnerability. There are reports that China is aggressively 
pursuing cyber warfare capabilities, and would likely seek to take 
advantage of U.S. dependence on cyber space in the event of a potential 
conflict situation.
    If confirmed, what would you do to help ensure our military is 
protected in cyber space and prepared to defend against a cyber attack?
    Answer. If confirmed, I would work with other parts of DOD and the 
U.S. Government, including the Departments of State, Homeland Security, 
and Commerce, to facilitate a coordinated approach to cyber threats, 
not only from China, but from others as well. We must work together as 
governments not only to defend, but also to develop options to respond 
to and impose costs on cyber threat actors so as to deter future 
exploitation and attack. The President stated in his International 
Strategy for Cyberspace that the United States reserves the right to 
use all necessary means--diplomatic, informational, military, and 
economic--as appropriate and consistent with applicable international 
law--in order to defend our Nation, our allies, our partners, and our 
interests against hostile acts on cyberspace. In my view, we should 
continue to prepare to do so as necessary, while continuing to 
strengthen international norms of behavior regarding this essential 
area.
                              north korea
    Question. Even with the recent death of long-time leader Kim Jong-
il, North Korea remains one of the greatest near-term challenges to 
security and stability in Asia, and deterring conflict on the Korean 
Peninsula remains a top priority. On April 12, 2012, North Korea 
launched what it said was satellite launch vehicle, despite broad 
international condemnation and in contravention of U.N. Security 
Council resolutions 1718 and 1874.
    Despite the failure of the April 12th launch, what do you see as 
the implications for regional security and stability of North Korea's 
continued refusal to curb its provocative behavior?
    Answer. North Korea's April 12 missile test will not be its last. 
Not only the United States, but every country in the region recognizes 
that such actions, in contravention of U.N. Security Council 
resolutions 1718 and 1874, pose a threat to regional stability. If 
confirmed, I will assist the Secretary and Under Secretary of Defense 
for Policy in working closely with our allies and partners to 
strengthen security cooperation and ensure optimal readiness against 
North Korea's unpredictable and reckless behavior.
    Question. What is your understanding of the threats posed to the 
United States and our allies by North Korea's ballistic missile and WMD 
capabilities?
    Answer. North Korea's missile and WMD programs pose a direct and 
serious threat to our regional allies and partners, and have the 
potential to become a direct threat to U.S. territory. As we witnessed 
in 2006 and 2009, North Korea continues to flight-test theater 
ballistic missiles, demonstrating the capability to target South Korea 
and Japan. North Korea also continues to develop the Taepo Dong-2 (TD-
2), which Pyongyang claims to have tested in a space launch 
configuration, but which could also reach the United States if 
developed as an intercontinental ballistic missile (ICBM).
    The United States must continue to monitor carefully North Korea's 
WMD and missile development programs and related proliferation 
activities. If confirmed, I would work to ensure that DOD continues to 
work closely with other parts of the U.S. Government to address these 
and other emerging threats, to reduce our vulnerabilities and those of 
our allies and partners, and to work cooperatively with our allies to 
ensure our contingency planning remains adaptive and responsive.
    Question. What concerns you most about North Korea and, if 
confirmed, what would you do to address those concerns?
    Answer. North Korea maintains a large, forward deployed 
conventional military, continues to develop long-range ballistic 
missiles, seeks to develop nuclear weapons, and engages in the 
proliferation of ballistic missiles contrary to international norms and 
U.N. Security Council resolutions. North Korea has also conducted 
provocative attacks against the Republic of Korea. What concerns me 
most is that this range of threats comes from a single state standing 
on the outside of the international community. If confirmed, I will 
ensure that we sustain and advance our military readiness and 
coordination with allies and partners, and explore all avenues for 
shaping North Korean behavior.
                           republic of korea
    Question. What is your understanding of the current status of the 
U.S.-South Korean security relationship?
    Answer. In my view, the U.S.-Republic of Korea (ROK) alliance 
remains one of the cornerstones of U.S. strategy in the Asia-Pacific 
region and is as strong and viable today as it has ever been. Our 
security relationship is based on a mutual commitment to common 
interests, shared values, continuous dialogue, and combined planning, 
all of which ensure a comprehensive strategic alliance.
    Question. What is your view regarding the timing of the transfer of 
wartime operational control from the United States to South Korea, now 
planned for December 2015, and what will you do to ensure this 
transition takes place as planned?
    Answer. The United States and the ROK have a comprehensive way 
forward to transition wartime operational control from the ROK-U.S. 
Combined Forces Command to the ROK Joint Chiefs of Staff by December 
2015. If confirmed, I would assist the Secretary of Defense and Under 
Secretary of Defense for Policy in working with ROK counterparts, and 
with others in the U.S. and ROK Governments, to complete this process 
under the Strategic Alliance 2015 framework and ensure that the 
combined defense posture remains strong and seamless throughout the 
transition process.
    Question. What is your assessment of the security benefits of the 
force repositioning agreed to under the Land Partnership Plan and the 
Yongsan Relocation Plan and how does repositioning U.S. Forces change 
the way they will operate on the Korean Peninsula?
    Answer. The two plans work to consolidate and relocate U.S. Forces 
from north of Seoul and from the Seoul Metropolitan area to locations 
south of Seoul, primarily U.S. Army Garrison Humphreys and Daegu. The 
movement of units and facilities to areas south of the Han River 
provides efficiencies, reduces costs, contributes to the political 
sustainability of our forward presence, and improves force protection 
and survivability by placing the majority of personnel and equipment 
outside of the tactical effective range of North Korean artillery.
    Question. Since the North Korean attacks last year--the sinking of 
the South Korea Navy ship Cheonan and the artillery attack on the South 
Korean island--South Korea has been adamant that it will responded 
firmly to the next such provocation. A main topic during recent U.S.-
ROK Security Consultative Meetings was the Joint Operational Plan for 
responding to future North Korean provocations.
    What is your understanding of the U.S. obligations in the event of 
an attack on South Korea by North Korea, and under what circumstances 
do you believe the U.S. Armed Forces should be committed to engage 
North Korean forces in response to an attack on South Korea?
    Answer. My understanding is that, under the Mutual Defense Treaty, 
when the political independence or security of the ROK or the United 
States is threatened by external armed attack, the United States and 
the ROK will consult together and develop appropriate means to deter 
the attack. Given the pattern and future likelihood of North Korean 
provocations, the two sides should continue to consult closely so that 
responses are effective.
                                 japan
    Question. How would you characterize the U.S.-Japan security 
relationship?
    Answer. The U.S.-Japan relationship is the cornerstone of security 
in East Asia. Japan is a valued ally and anchor of democracy and 
prosperity in the region. Our alliance has held fast through the 
turbulence of the post-Cold War, political turnover in Japan, and at 
times contentious trade disputes, and now stands poised as a truly 
global alliance. The United States and Japan are in the middle of a 
complicated realignment process that is part of a larger alliance 
transformation agenda that also includes a review of roles, missions, 
and capabilities to strengthen and ensure the relevance, capability, 
and cohesiveness of the alliance for the next several decades. In terms 
of our military-to-military relationship, the shared experience of U.S. 
and Japanese forces, working shoulder-to-shoulder in response to the 
earthquake, tsunami, and nuclear crisis of last spring, validated our 
continuing close cooperation and mutual respect.
    Question. What steps, if any, do you believe Japan ought to take to 
become a more active partner in security activities with the United 
States and in the international security arena?
    Answer. Japan is already a close ally and strong security partner 
with the United States, and is increasingly contributing to 
international security activities; however, the changing security 
environment in Asia will present new challenges. The United States 
needs to continue to work with Japan to deal with these challenges, 
including greater interoperability between our Armed Forces at the 
strategic, operational, and tactical levels. If confirmed, I would 
encourage Japan's development of joint doctrine and organizations that 
will enhance Japan's ability to undertake complex missions to build 
security in East Asia. I would also encourage trilateral security 
cooperation with the United States, Japan, and both the ROK and 
Australia, as these kinds of activities effectively strengthen the 
functional capacity of the emerging regional security architecture. 
Regarding international security activity, Japan has actively 
participated in combined counter-piracy operations in the Gulf of Aden, 
is participating in the U.N. Mission in South Sudan, and has been a 
significant donor to ongoing Afghanistan reconstruction. I believe 
participation in such international security operations are very 
positive developments, and would encourage future Japanese 
participation in such missions.
    Question. The United States and Japan have decided to revisit some 
of the terms of the 2006 Roadmap Agreement as they relate to the 
realignment of U.S. marines on Okinawa and to delink the movement of 
marines off Okinawa from the plan to build a Futenma Replacement 
Facility (FRF) at Camp Schwab. It appears that, while the number of 
marines leaving Okinawa will not change, fewer will be relocated to 
Guam.
    What is your understanding of the current plans for U.S. military 
forces on Okinawa and Guam?
    Answer. Plans for U.S. military forces on Okinawa and Guam should 
result in a force posture that is geographically distributed, 
operationally resilient, and politically sustainable. A significant 
number of U.S. Marine Corps forces will move from Okinawa to Guam, 
which is a strategic hub that supports our ability to operate forces 
from a forward location. At the same time, we will maintain forces in 
Okinawa to provide deterrence and rapidly respond to security 
challenges in areas around Japan.
    Although planned posture shifts will result in a rebalancing of our 
forces, they will not negatively affect our ability to respond to 
contingencies or meet treaty obligations in Asia. They demonstrate our 
commitment to allies and to fulfilling our agreements with allies and 
partners.
    Question. How does delinking the movement of marines off Okinawa 
from the construction of the FRF impact the realignment of marines in 
Northeast Asia?
    Answer. Delinking the movement of U.S. marines off Okinawa will 
allow the United States to move forward with the realignment of the 
Marine Corps in Northeast Asia, which is in our strategic interests as 
we seek to rebalance toward the Asia-Pacific region. Specifically, de-
linkage will allow the United States to establish a force posture that 
is geographically distributed, operationally resilient, and politically 
sustainable.
    The United States and Japan remain committed to constructing the 
FRF as the only viable alternative to Marine Corps Air Station Futenma, 
and are working together in taking the next step prior to the start of 
construction: securing the Governor's approval for the landfill permit.
    Question. What is your opinion of the prospects for the successful 
construction of the FRF at Camp Schwab on Okinawa?
    Answer. I believe that the Government of Japan (GOJ), like the U.S. 
Government, remains committed to the principles of the 2006 Realignment 
Roadmap, and although both governments have acknowledged that the FRF 
will not be constructed by 2014, as originally planned, there appears 
to be incremental but positive movement towards the construction of a 
replacement facility at Camp Schwab. The GOJ submission of the 
environmental impact statement to the prefectural Government of Okinawa 
in December 2011 was a necessary and politically significant step 
forward. The U.S. Government is committed to working with the GOJ in 
taking the next step prior to the start of construction--securing the 
Governor's approval for the landfill permit.
    Question. If confirmed, how would you work with the Commander, 
Pacific Command, and the Military Services to update U.S. military 
force posture in Japan and the Pacific theater?
    Answer. If confirmed, I would engage frequently and proactively 
with the Commander, U.S. Pacific Command, and the Military Departments, 
as well as the Chairman and Vice Chairman of the Joint Chiefs of Staff, 
to update U.S. force posture in Japan and the Pacific. I firmly believe 
that maintaining a strong and comprehensive relationship with my 
military counterparts is essential to creating a force posture that 
makes sense both strategically and operationally.
                                 india
    Question. What is your view of the current state of U.S.-India 
security relations?
    Answer. Today, U.S.-India defense ties are strong and growing, 
including a robust slate of dialogues, military exercises, defense 
trade, personnel exchanges, and armaments cooperation. The strong ties 
between our two militaries reflect this. Over the past decade, there 
has been a rapid transformation in the U.S.-India defense relationship. 
What was once a nascent relationship between unfamiliar nations has 
evolved into a strategic partnership between two of the preeminent 
security powers in Asia.
    A close, continuing, and expanding security relationship between 
the United States and India will be important for security and 
stability in Asia and for effectively managing Indian Ocean security in 
the 21st century. Having said this, India has a long history of non-
alignment and is firmly committed to its policy of strategic autonomy. 
The continued growth of our partnership should be focused on working 
closely on common interests in a true partnership.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. If confirmed, I believe our priorities for this 
relationship should focus on increasing maritime security cooperation, 
expanding the military-to-military relationship, and deepening 
cooperation on defense trade, including cooperative research and 
development. There is potential for increased cooperation on 
counterproliferation, collaboration on humanitarian assistance and 
disaster response, countering piracy, cooperation on counterterrorism, 
greater intelligence sharing on common threats, and working towards 
stability in Afghanistan and the broader Indian Ocean region.
    Question. What is your assessment of the current relationship 
between India and Pakistan?
    Answer. India and Pakistan have a long and complex history 
characterized by animosity, mistrust, and conflict. Support by elements 
of Pakistan's military and intelligence services for violent extremist 
organizations targeting India has the potential to result in military 
confrontation that could rapidly escalate to a nuclear exchange.
    Current efforts toward a renewed comprehensive dialogue have 
yielded few concrete results on the core security issues, especially 
regarding the resolution of territorial disputes; however, the efforts 
have increased people-to-people exchanges and trade relations between 
the two nations, and have provided each side greater insight into the 
other's positions. Although progress is slow, the trajectory is 
positive and offers the promise of increased confidence-building 
measures.
    Question. In your view, what impact has the ongoing tension between 
Pakistan and India had on the stability of Central and South Asia 
generally, and on the prospects for lasting security in Afghanistan?
    Answer. India's actions in South and Central Asia generally align 
with U.S. goals: increasing economic growth and political stability 
through strengthened democratic institutions, and developmental 
assistance to help prevent radicalization. Regional stability 
ultimately depends on cooperation among India, Pakistan, and 
Afghanistan. Transparency in the India-Afghanistan and Pakistan-
Afghanistan bilateral relationships is critical to reduce 
misunderstanding and mistrust between India and Pakistan. The ongoing 
transition of lead responsibility for security in Afghanistan to Afghan 
forces, and the strategic partnerships Afghanistan has been negotiating 
with the United States and other international partners are important 
steps toward demonstrating long-term commitment of the international 
community, addressing conditions that create uncertainty, and 
stabilizing the region.
    Question. What effect, if any, do you anticipate that India's 
successful test launch of the Agni V rocket on April 19, 2012, will 
have on India-U.S. relations?
    Answer. India's successful test launch of the Agni V rocket 
demonstrates that India is increasingly capable of developing its 
indigenous weapons systems and has a role to play in international 
nonproliferation forums. India has a strong track record on 
nonproliferation issues, both of missile and WMD technology. We 
continue to urge all nuclear-capable states to exercise restraint 
regarding nuclear and missile capabilities, and continue to discourage 
actions that might destabilize the South Asia region.
                      republic of the philippines
    Question. What is the current state of U.S.-Philippine military-to-
military relations, including efforts to increase the number of 
rotational U.S. Forces operating from the Philippines?
    Answer. The Philippines is one of the United States' five treaty 
allies in the Pacific and remains a committed security partner facing 
regional challenges characteristic of current geo-strategic realities. 
In my view, the alliance is strong and is the foundation of our 
security partnership. The U.S. military-to-military engagement with the 
Philippines is mature and focused, allowing the Philippines security 
forces (military, coast guard, and police) to address security needs 
more effectively as evidenced by enhanced counterterrorism performance, 
expanded maritime security activities, increased multilateral 
engagement, and effective participation in U.N. peacekeeping 
operations.
    Question. What is your assessment of recent U.S. military efforts 
in the Philippines and the effectiveness of the U.S. assistance being 
provided to the Philippine military in its fight against insurgent 
groups?
    Answer. U.S. military efforts and assistance in the Philippines are 
in support of the U.S.-Philippines Mutual Defense Treaty to which both 
sides are committed. The United States, however, does not assist the 
Philippines in its fight against insurgent groups (e.g., the New 
People's Army and the Moro Islamic Liberation Front). The Philippines 
was the first country in Asia to support the United States after 
September 11 in fighting terrorism. In this regard, U.S. military 
assistance is focused on helping the Philippines fight terrorism by 
assisting with the development of skill sets that are no different than 
those needed to help and protect its civilian population. It is the 
Philippine Government's prerogative to assert its capabilities and 
resources where needed in conducting its internal security operations.
    Question. Do you anticipate a reduced or increased U.S. military 
footprint or change in mission for U.S. military forces in the 
Philippines in the near- to mid-term?
    Answer. The United States and the Philippines are discussing 
arrangements that would allow greater flexibility for U.S. and 
Philippine security forces to train and work together. This may 
increase U.S. military engagement with the Philippines in the near- to 
mid-term.
                               indonesia
    Question. What is the current state of military-to-military 
relations with Indonesia and, specifically, Kopassus?
    Answer. In 2010, Presidents Obama and Yudhoyono inaugurated the 
U.S.-Indonesian Comprehensive Partnership. A key element of this broad 
partnership is the security component. Our defense relationship with 
Indonesia--a pivotal country to U.S. national interests--is managed 
through the Defense Framework Arrangement and facilitated through 
several forums and mechanisms. Our military-to-military relations with 
Indonesia are robust and continue to progress and mature, with nearly 
200 theater security cooperation activities scheduled for this fiscal 
year. These security cooperation engagements include a wide range of 
activities focused on four main areas of emphasis: Humanitarian 
Assistance/Disaster Relief; Peacekeeping Operations; Maritime Security; 
and continued Professionalization/Reform of the Indonesian Defense 
Forces (TNI). Beginning with the normalization of the military-to-
military relationship in 2005, engagements have increased in number and 
evolved from initial small-scale bilateral exchanges into more complex 
bilateral and multilateral activities.
    In addressing the current state of military-to-military relations 
with the Indonesian Army Special Forces (Kopassus), it is worth noting 
that this unit has undergone a near-complete transformation over the 
past decade and is at the forefront of TNI professionalization and 
adherence to human rights standards. Following a 12-year hiatus in 
bilateral activities, at the direction of then-Secretary Gates, U.S. 
Pacific Command established a measured and gradual program of security 
cooperation activities with Kopassus. These security cooperation 
activities have consisted of key leader engagements and small-scale 
subject matter expert exchanges in areas such as military 
decisionmaking, medical planning, law of war, and safeguarding human 
rights. I anticipate that these types of activities will continue and 
gradually expand at a pace commensurate with the demonstrated progress 
in TNI transparency and reform efforts. Chief among these reform 
efforts are the fulfillment of commitments made by Indonesian leaders 
to DOD in 2010 to continue to safeguard human rights and accountability 
throughout the Indonesian military through the unequivocal 
investigation and prosecution of those military personnel accused of 
human rights abuses and, if convicted, their removal from military 
service.
    Question. Do you favor increased U.S.-Indonesian military-to-
military contacts? If so, under what conditions? Why?
    Answer. If confirmed, I would support increased military-to-
military contact within the context of the Comprehensive Partnership, 
guided by close consultation between the Departments of State and 
Defense, and within the boundaries of existing legal mechanisms. I 
believe close military-to-military relations with Indonesia are 
integral to achieving numerous stated U.S. national interests in the 
region. I also believe that one of the most effective methods for 
encouraging reform is through interaction between Indonesian and U.S. 
servicemembers. Interactions with U.S. servicemembers reinforce 
professional military practices, including respect for human rights and 
the rule of law. Increased interactions facilitate greater 
understanding and reinforce professional values.
                          global force posture
    Question. As the Defense Department continues its assessment of 
projected budget cuts on its end strength, force structure, and other 
programs, it must also consider the costs, benefits, and risks 
associated with the permanent stationing of military forces in 
countries around the world. Based on a series of reports by the 
Government Accountability Office, evidence indicates that the 
Department is challenged in its ability to comprehensively and reliably 
estimate the cost of our global defense posture.
    What is your understanding and assessment of the cost and benefits 
of the U.S. global defense posture and the stationing of U.S. military 
forces overseas?
    Answer. There is high value in U.S. military presence overseas. The 
United States maintains a posture overseas in order to defend the U.S. 
Homeland and U.S. interests--which are global in nature--as well as to 
deter aggression, ensure regional stability, demonstrate commitment to 
the security of allies and partners, and facilitate working alongside 
allies and partners to address security challenges. There is a clear 
value in deterrence, assurance, and rapid crisis response, though these 
benefits are often difficult to quantify precisely.
    Sustaining U.S. military presence using forces stationed in the 
United States incurs rotational costs on top of the basic basing and 
facilities costs associated with every unit, regardless of where it is 
stationed. Conversely, sustaining this presence using forces stationed 
overseas often incurs higher basing, personnel (through allowances such 
as Cost of Living Allowance and Overseas Housing Allowance), and 
facilities costs. The Department employs a continuous review process to 
determine the appropriate balance between U.S.-based and overseas-
stationed forces, taking account of the conditions in each region and 
the operational demands on U.S. Forces.
    Question. In light of the force structure reductions associated 
with the Department's planned end strength cuts, and potentially even 
deeper future end strength cuts, if confirmed, how would you propose to 
allocate those reductions between forces based within the United States 
and forces stationed outside of the United States?
    Answer. Our plans for global force presence are directly linked to 
our Defense Strategic Guidance. The Department employs a continuous 
review process to determine the appropriate balance between U.S.-based 
and overseas-stationed forces, taking account of the conditions in each 
region and the operational demands on U.S. Forces. If deeper end 
strength reductions are required by Congress, our current defense 
strategy, and our associated global posture, will need to be reviewed.
    Question. What is your understanding and assessment of the DOD 
methodology and assumptions used to evaluate the relative cost of 
overseas posture compared to stationing forces in the United States?
    Answer. The Department employs a continuous review process to 
determine whether our strategic and national interests are best served 
by U.S.-based or overseas-stationed forces. Considerations include: 
operational requirements articulated by the geographic and functional 
combatant commanders, consistent with current strategy and assigned 
missions; the political-military dynamics and the risks and 
implications of change; force management and force structure 
efficiencies and effects; issues relating to the executability of 
stationing; and costs, including the offsets provided by some host-
nation governments. The Department believes there is a high value 
provided by maintaining forces forward; further, stationing forces 
forward can yield significant efficiencies in force structure and force 
management.
    Question. If confirmed, what actions would you take or changes 
would you recommend, if any, to DOD's methodology and assumptions in 
determining the cost of overseas force posture compared to forces 
stationed in the United States?
    Answer. Working with Congress and the Government Accountability 
Office over the past several years, the Department has improved its 
global defense posture management process, which is now on a strong, 
positive trajectory. In particular, the Department has made significant 
improvements to the theater posture planning and decision-making 
process, including enhanced cost reporting and improved consideration 
of costs. If confirmed, I would endeavor to keep DOD on this positive 
trajectory and ensure continuation of improved cost accountability in 
our overseas posture decisionmaking.
                          combatting terrorism
    Question. The administration recently released its National 
Strategy for Counterterrorism. This strategy highlights the need to 
maintain pressure on al Qaeda's core while building the capacity of 
partners to confront mutual threats. The strategy also underscores the 
need to augment efforts to counter threats from al Qaeda-linked groups 
``that continue to emerge from beyond its core safe haven in South 
Asia.''
    If confirmed, what would be your role within DOD with respect to 
combating terrorism?
    Answer. If confirmed, I would be the Deputy Principal Staff 
Assistant and Advisor to the Secretary of Defense for all matters 
concerning the formulation of national security and defense policy, 
including counterterrorism policy. My role, if confirmed, would be to 
formulate, coordinate, and present the views of the Secretary on 
counterterrorism policy issues. Currently these are mainly oriented on 
the effort to disrupt, dismantle, and defeat al Qaeda, which includes 
operations and activities against its allies, adherents, and 
affiliates, but we also recognize that there are other terrorist groups 
that may seek to cause harm to the United States, its interests, and 
allies.
    I would work closely in performance of these duties with the Under 
Secretary of Defense for Policy, the Under Secretary of Defense for 
Intelligence, the DOD General Counsel, the Joint Staff, and the 
regional and functional Assistant Secretaries in the Office of the 
Under Secretary of Defense for Policy, particularly the Assistant 
Secretary for Special Operations and Low-Intensity Conflict, who has 
the Department lead for all special operations and low-intensity 
conflict matters. I would carefully consider the views of our 
interagency colleagues and international partners to consider whole-of-
government solutions to counterterrorism problems.
    On September 22, 2011, Secretary of State Hillary Clinton launched 
the Global Counterterrorism Forum (GCTF) with 30 founding members from 
around the world. The GCTF is a major initiative within the Obama 
administration's broader effort to build the international architecture 
for dealing with terrorism. The primary focus of the GCTF is capacity 
building in relevant areas and aims to increase the number of countries 
capable of dealing with the terrorist threats within their borders and 
regions.
    Question. What is your understanding of this initiative?
    Answer. The GCTF is a multilateral platform that will provide a 
venue for countries to meet and identify counterterrorism needs and 
mobilize the necessary expertise and resources to address such needs 
and enhance global cooperation. The GCTF is intended to complement 
ongoing efforts with the U.N., as well as other regional and sub-
regional bodies. I understand that the September launch of the GCTF was 
positively received by all of the countries involved.
    Question. Given the emphasis on building partner capacity, what is 
your understanding for the role of DOD--and in particular Special 
Operations Forces--in this initiative?
    Answer. Special Operations Forces will continue to have a leading 
role in our operations and activities to defeat al Qaeda. The 
Department is prepared to sustain a significant number of deployed SOF 
around the world, working closely with allies and partners to develop 
the capabilities and capacities they need to rid their territories of 
terrorists and prevent their resurgence. The Department sees this as 
predominantly an advise-and-assist mission, but the United States 
should always reserve the right to take direct action in order to 
defend itself from a terrorist attack.
    The defeat of al Qaeda cannot be achieved without bringing together 
the expertise and resources of the entire U.S. Government--
intelligence, law enforcement, military, and other instruments of 
national power--in a coordinated and synchronized manner. If confirmed, 
I would seek strong relationships with DOD's interagency partners--in 
particular, the National Counterterrorism Center, the State 
Department's Office of the Coordinator for Counterterrorism, and the 
Center for Strategic Counterterrorism Communications--to maximize DOD's 
efforts to counter violent extremism. The GCTF, as a State Department-
led effort, is one example where SOF's counterterrorism and security 
cooperation activities can support and inform interagency partners' 
efforts in counterterrorism.
           department of defense counternarcotics activities
    Question. On an annual basis, DOD's counternarcotics (CN) program 
expends approximately $1.5 billion to support U.S. CN operations, build 
the capacity of certain foreign governments around the globe, and 
analyze intelligence on CN-related matters.
    What is your understanding and assessment of the DOD CN program?
    Answer. Drug trafficking and associated transnational organized 
crime (TOC) pose multidimensional challenges to U.S. and international 
security interests. In addition to the impact on our Nation's public 
health and economy, drug trafficking and other forms of TOC provide a 
funding source for terrorists and insurgents, undermine legitimate 
governments, and contribute to international instability.
    DOD counternarcotics efforts support global DOD national security 
objectives by building partner nation capacity and working with U.S. 
law enforcement agencies such as the Drug Enforcement Agency, Customs 
and Border Protection, Federal Bureau of Investigation, and Immigration 
and Customs Enforcement to disrupt narcotics trafficking. These cost-
effective, small-footprint efforts are consistent with the Department's 
January 2012 strategic guidance.
    Terrorist groups and insurgent movements are increasingly turning 
to criminality--including narcotics and other illicit trafficking--to 
perpetuate and expand their activities. This is certainly the case in 
Colombia and Afghanistan. In Afghanistan, the insurgency uses the 
narcotics trade as a critical source of revenue, and therefore, DOD 
focuses its efforts on degrading narco-insurgent networks through 
sustained counternarcotics operations and building the capacity of 
Afghan counternarcotics forces and judicial system. If confirmed, I 
would continue to work with interagency partners to provide support to 
counternarcotics efforts in Afghanistan to mitigate or eliminate the 
narcotics threat, which endangers our objectives and undermines the 
viability of the Government of Afghanistan.
    There is some evidence of criminal organizations, such as Mexico-
based drug cartels, adopting terrorist tactics in their operations. 
Criminals and terrorists are also directly working together. We only 
need to look at the recent Iranian plot to assassinate the Saudi 
Arabian Ambassador in Washington by engaging the Los Zetas 
transnational criminal organization to see this trend. In different 
circumstances, the links between crime, terrorism, and insurgency may 
range from full integration, to occasional cooperation, to drawing on 
overlapping networks of money launderers, weapons providers, corrupt 
governmental officials, and other facilitators. Even when there is no 
direct nexus between drug trafficking, terrorism, and insurgency, these 
and related threats tend to feed on and worsen conditions of weak 
governance.
    DOD provides critical training, equipment, infrastructure, 
information sharing, technology research and development, 
transportation, communications, analytical, reconnaissance, and related 
support to U.S. and foreign counterdrug law enforcement agencies and 
other security services. In doing so, DOD seeks to provide one element 
in wider whole-of-government strategies to reduce drug trafficking, 
build rule of law, extend effective governance, and stabilize 
endangered regions. Within the United States, DOD provides 
counternarcotics support primarily through the National Guard, but also 
provides other domestic law enforcement support in specialized areas. 
As a matter of law, DOD also has the lead responsibility in the U.S. 
Government for the detection and monitoring of aerial and maritime 
transit of illegal drugs into the United States. Even in this mission 
area, however, DOD cooperates with U.S. and foreign partners.
    Question. What is your understanding of the Department's CN 
authorities?
    Answer. Since the enactment of title 10, U.S.C. 124, in 1989 and 
section 1004 of the National Defense Authorization Act for Fiscal Year 
1991, the Department's counternarcotics authorities have allowed the 
Department to provide critical support for U.S. and partner nation law 
enforcement efforts to confront drug trafficking into the United 
States. Today, these and subsequent counternarcotics authorities 
provide the Department with critical tools to confront the association 
and convergence of narcotics trafficking, terrorism, and related TOC, 
that pose a growing threat to our national security interests.
    These authorities allow the Department to enhance the capabilities 
of State, local, tribal, Federal, and international law enforcement 
partners. The Department's counternarcotics authorities support the 
National Guard's counterdrug activities in 54 States and territories 
and the theater campaign plans of all six geographic combatant 
commands. These authorities are often invaluable in achieving strategic 
national security objectives. If confirmed, I look forward to working 
with Congress to ensure that these authorities are sustained.
    Question. Should the United States reassess ongoing efforts to 
combat the trafficking of illegal narcotics in the Western Hemisphere 
given the increasing concerns of many of the nations in the hemisphere 
about the lack of results from the decades old war on drugs?
    Answer. The U.S. Government, including DOD, consults closely with 
governments, policy experts, civil society leaders, international 
organizations, and others throughout the Western Hemisphere, to refine 
our combined efforts against illegal drug production, trafficking, and 
consumption. In this regard, we are working with the interagency to 
synchronize U.S. and partner country military, intelligence, law 
enforcement, prosecutorial, judicial, and penal efforts with public 
health, anti-corruption, economic development, financial regulation, 
and related activities to address weaknesses that transnational 
criminal organizations exploit and exacerbate. The United States and 
partner countries are also cooperating to ensure that counter-drug 
efforts are integrated with operations against related threats, such as 
weapons smuggling, money laundering, kidnapping, extortion, and in some 
places, terrorism and insurgency. The term ``citizen security'' is now 
widely used in the Western Hemisphere to signify that governments need 
to go beyond suppressing crime to provide justice and security to their 
populations. Defense Department counternarcotics efforts play a 
supporting role, but by no means the leading one.
    All DOD international counternarcotics support is provided at the 
request of, and in close coordination with, the partner nation and the 
U.S. Embassy. DOD also plays a coordinating role, providing support to 
multinational efforts to exchange counternarcotics information and 
coordinating interagency and multinational interdiction efforts through 
Joint Interagency Task Force-South.
    Colombia is one of the best examples of what can be achieved by 
sustained U.S. support for a partner country's efforts resulting in a 
real return on investment. Once facing a seemingly insurmountable 
narco-terrorist problem that threatened to overwhelm its legitimate 
government, the Colombian Government today clearly has the upper hand 
and is extending effective governance by working to resolve many of the 
social issues underlying that country's protracted conflict. Colombia 
still has a long way to go, but it has turned the corner. Narco-
terrorist organizations and other transnational criminal organizations 
are, however, extremely flexible. As Colombia, the United States, 
Mexico, and other countries have put pressure on criminal organizations 
over time, the surviving groups have adapted by dispersing to places 
such as Central America, forming global illicit networks, and 
diversifying into other crimes. Therefore, our efforts must continue to 
be flexible to keep pace with this ever-evolving threat.
       national strategy to combat transnational organized crime
    Question. Transnational criminal organizations are having a 
debilitating impact on the ability of our foreign partners to govern 
their nations and provide opportunities for their people. Last July, 
President Obama released the first National Strategy to Combat 
Transnational Organized Crime. DOD is not a law enforcement agency, but 
it does bring unique enabling capabilities to our Nation's Federal law 
enforcement agencies.
    What role, if any, should DOD play in combating transnational 
criminal organizations?
    Answer. The President's Strategy to Combat Transnational Organized 
Crime declares that TOC ``poses a significant threat to national and 
international security.'' The Strategy calls for the U.S. Government to 
``build, balance, and integrate the tools of American power to combat 
TOC''. This direction--to take a whole-of-government approach to 
combating a national security threat--includes an important role for 
DOD. I believe that DOD should continue to focus on delivering unique 
capabilities to support law enforcement agencies that are combating 
TOC.
    Specifically, I believe that DOD should continue to provide 
military intelligence support to law enforcement, counter-threat 
finance support, and military-to-military capability development. When 
appropriate (e.g. in theaters of conflict), DOD may take the lead in 
operational activities against specific transnational criminal threats 
to the United States. As the President's Strategy notes, TOC ``presents 
sophisticated and multifaceted threats that cannot be addressed through 
law enforcement action alone.'' DOD's capabilities and authorities are 
thus critical supporting tools to broader U.S. Government efforts 
against TOC.
    The President's strategy also directs DOD to enhance ``support to 
U.S. law enforcement through the Narcotics and Transnational Crime 
Support Center,'' a dedicated DOD-led center that integrates military, 
intelligence, and law enforcement analytic capabilities to go after key 
nodes in global criminal networks. This guidance further reflects the 
added value that the Defense Department brings to whole-of-government 
efforts against TOC.
    DOD should also consider how it can play a role in breaking the 
links among criminal organizations, terrorists, and insurgencies. As 
the President's strategy states, ``terrorists and insurgents are 
increasingly turning to TOC to generate funding and acquiring 
logistical support to carry out their violent acts''. As the Department 
continues with its counterterrorism efforts around the world, it will 
be important to account for the links between criminal and terrorist 
entities.
            united nations convention on the law of the sea
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is currently pending in the Senate.
    What are your views on U.S. accession to UNCLOS?
    Answer. I strongly support U.S. accession to the 1982 Law of the 
Sea Convention.
    Question. From a national security standpoint, what do you see as 
the advantages and disadvantages to being a party to UNCLOS?
    Answer. I do not believe there are any national security 
disadvantages to the United States becoming a treaty party, and there 
are numerous advantages. As a treaty party, the United States could 
best preserve the navigational freedoms enshrined in the convention and 
not have to rely on customary international law, which is subject to 
change based on state practice. In turn, this could allow us to 
influence the development and interpretation of the convention, 
reflective of our status as the world's premier maritime power.
    Question. What is your understanding of the principal arguments 
against ratifying UNCLOS, and what is your response to those arguments?
    Answer. From what I understand, there are a range of arguments 
against accession, including that the United States would surrender a 
portion of its sovereignty. Simply stated, this is a flawed argument. 
As a treaty party, we can reinforce our navigational freedoms--key to 
our global power projection capabilities and access.
                               cyberspace
    Question. What is your understanding of the role of the Office of 
the Under Secretary of Defense for Policy in the development of policy 
and strategy for military operations in cyberspace and in exercising 
oversight of U.S. Cyber Command and the National Security Agency?
    Answer. The Office of the Under Secretary of Defense for Policy 
(OUSD(P)) advises the Secretary of Defense on the formulation of DOD 
cyberspace policy and strategy, including development and oversight of 
DOD policy and plans to achieve national security objectives in and 
through cyberspace. OUSD(P), through the Joint Staff, works closely 
with U.S. Strategic Command and U.S. Cyber Command on cyberspace 
strategy and policy, contingency planning, and policy oversight of 
cyberspace operations. A close partnership with the Office of the Under 
Secretary of Defense for Intelligence and the National Security Agency 
ensures that policy formulation and execution are well informed and 
supported by their cyber capabilities and expertise.
    Question. In the cyberspace domain, for each of the mission areas 
of cyber network defense, cyber network exploitation, and cyber network 
attack, what is your understanding of the relationship between the 
Office of the Under Secretary of Defense for Policy and each of the 
following: the Chief Information Officer; the Under Secretary of 
Defense for Acquisition, Technology, and Logistics; and the Under 
Secretary of Defense for Intelligence?
    Answer. The OUSD(P) serves as the lead within DOD in the 
development, coordination, and operational oversight of overarching DOD 
strategy, policy, and planning related to cyberspace. The Chief 
Information Officer is the primary official responsible for policy 
matters and oversight of Information Resources Management, Information 
Technology, Information Assurance, and network operations. The Under 
Secretary of Defense for Acquisition, Technology, and Logistics advises 
the Secretary on cyberspace matters relating to the DOD Acquisition 
System; research and development; modeling and simulation; systems 
engineering; advanced technology; developmental test and evaluation; 
production; and systems integration. The Under Secretary of Defense for 
Intelligence advises the Secretary on cyberspace intelligence, 
counterintelligence, security, and other intelligence-related matters.
    Question. What is your assessment of the maturity and adequacy of 
policy and doctrine governing defensive, offensive, and intelligence-
gathering operations in cyberspace, both within DOD and the 
interagency? What gaps or deficiencies remain, in your view?
    Answer. DOD continues to assess organizational relationships, 
doctrine, and policies necessary for its cyberspace mission. As it 
continues to develop cyber capabilities, DOD is addressing cyber 
governance in general by refining doctrine, training, standing rules of 
engagement, and command and control structures for cyberspace 
operations. DOD continues to work closely with interagency partners to 
meet the cross-cutting challenges of cyberspace. DOD also supports the 
Cybersecurity Act of 2012 to provide for the development of risk-based 
standards for the critical infrastructure that the Department depends 
upon for its national security mission.
    What is your assessment of the appropriate roles and 
responsibilities of DOD, vis-a-vis other Government agencies (such as 
the Department of Homeland Security, the Intelligence Community, and 
the Justice Department) and the private sector in preparing for, and 
the conduct of, the defense of government and critical infrastructure 
networks in cyberspace?
    Answer. As stated in the DOD Strategy for Operating in Cyberspace, 
DOD is partnering closely with other U.S. Government departments and 
agencies, as well as the private sector, to enable a whole-of-
government approach to cybersecurity. DOD works closely with Department 
of Homeland Security to protect U.S. critical infrastructure, the 
Intelligence Community to understand and counter cyber threats, and the 
Department of Justice to protect against cyber crime. DOD is working 
closely with Defense Industrial Base companies and Department of 
Homeland Security to protect DOD information, spur innovation, and 
increase the cybersecurity of the Nation as a whole. The protection of 
critical infrastructure from cyber threats is of particular importance 
to DOD. Development of risk-based standards and increased information 
sharing such as those included in the Cybersecurity Act of 2012 
represent important advances in the ability of the Department and the 
Nation to secure government and critical infrastructure networks in 
cyberspace.
                        illicit arms trafficking
    Question. In July, governments of the world will gather at the U.N. 
to negotiate a global arms trade treaty intended to set global 
standards on the international transfer of conventional weapons.
    What is your understanding of the problem of illicit arms 
trafficking and the role of the United States to deal with the problem?
    Answer. The arms market is increasingly complex and global. 
Existing regional and national arms export control systems do not 
provide complete, global coverage. This creates gaps that are being 
exploited by illicit arms dealers. I believe that the United States 
should seek to negotiate a robust and effective arms trade treaty, 
which may close these gaps.
    Question. In your view, to what extent, if at all, does the lack of 
national controls and enforcement on arms flows contribute to the 
illicit trafficking problem, and could efforts to respond to illicit 
trafficking be improved if other countries adopted and enforced 
national regulations on arms import, export, and transit similar to 
those of the United States?
    Answer. An arms trade treaty would be a legally binding agreement 
that will require states to establish high national standards in 
controlling the export of conventional arms. Such norms should better 
regulate the global arms market to prevent weapons reaching the hands 
of terrorists, insurgents, and human rights abusers.
    Question. Do you think an arms trade treaty, such as is being 
contemplated in the U.N., would enhance U.S. national security 
interests?
    Answer. U.S. national security interests would be served by a 
treaty that increases international standards in different regions; 
includes major arms exporters such as Russia and China; reaffirms the 
right of self-defense and the legitimacy of arms transfers for security 
purposes; does not undermine existing nonproliferation and export 
control regimes; and is agreed through consensus.
    Question. What is your view on whether or not the United States 
should be a party to this effort?
    Answer. U.S. participation in the negotiations will help ensure the 
treaty establishes a high standard of international behavior that will 
ultimately reduce the proliferation of conventional arms. I would need 
to see the results of negotiation to make any further recommendation.
                              arms control
    Question. What role do you see for arms control as a means of 
improving U.S. national security?
    Answer. Arms control continues to play an important role in 
advancing U.S. national security by providing predictability and 
stability in certain strategic relationships, particularly in U.S.-
Russian relations. Arms control should never be an end unto itself; 
neither is it a tool that can be employed without the context of a 
well-prepared and effective military force.
    Question. What are your views on the next bilateral steps to 
address nuclear-weapons issues between the United States and Russia?
    Answer. I believe that as the New START is implemented and any 
issues that arise are addressed in the Bilateral Consultative 
Commission, we should continue to work with Russia to lay the 
groundwork for future bilateral negotiations on reducing both strategic 
and nonstrategic weapons, including non-deployed weapons.
    The Report of the Nuclear Posture Review noted that because of our 
improved relations, strict numerical parity between the United States 
and Russia is no longer as compelling as it was during the Cold War. 
However, it also indicated that large disparities in nuclear 
capabilities could raise concerns on both sides and among U.S. allies 
and partners, and may not be conducive to maintaining a stable, long-
term strategic relationship, especially as nuclear forces are 
significantly reduced. By joining with the world's other principal 
nuclear power to move to lower levels of forces in concert, arms 
control thus provides a means for strengthening strategic stability in 
our relationship with Russia.
    Question. What conditions, if any, do you believe need to be met to 
reduce further the U.S. strategic nuclear stockpile through arms 
control?
    Answer. The ongoing Nuclear Posture Review implementation study 
will help identify the force levels needed to support deterrence and 
targeting requirements. Completion of this analysis is necessary to 
formulate any future arms control objectives involving our nuclear 
stockpile. In general, I believe that future nuclear reductions should 
maintain strategic deterrence and stability with regard to Russia and 
China, strengthen deterrence of potential regional adversaries, and 
ensure the credibility of our security assurances to our allies and 
partners. We also must guarantee our operational flexibility and 
ability to hedge against geopolitical and technical uncertainty.
    Question. What is your view of the role of the Nuclear 
Nonproliferation Treaty in U.S. national security, and how should it be 
strengthened or improved?
    Answer. The Nuclear Nonproliferation Treaty is a valuable 
foundational element of the broader international nonproliferation 
regime, and contributes significantly to strategic stability. We should 
work to strengthen the treaty by encouraging greater state-party 
adherence and agreement to International Atomic Energy Agency 
inspections, among other steps.
                       ballistic missile defense
    Question. In February 2010, the Defense Department issued its 
report on the first-ever comprehensive review of U.S. ballistic missile 
defense policy and strategy, the Ballistic Missile Defense Review 
(BMDR), as required by Congress. The BMDR established a number of 
policy priorities, including establishing defense against near-term 
regional missile threats as a top priority of missile defense plans, 
programs, and capabilities. It also stated the policy of sustaining and 
enhancing the ability of the Ground-based Midcourse Defense system to 
defend the Homeland against attack by a small number of long-range 
missiles by countries such as North Korea and Iran, and of hedging 
against future uncertainties.
    Do you support the policies, strategies, and priorities set forth 
in the Ballistic Missile Defense Review?
    Answer. Yes, I support the policies, strategies, and priorities set 
forth in the 2010 Report of the Ballistic Missile Defense Review.
    Question. Do you agree that our missile defense must be fiscally 
sustainable?
    Answer. Yes. DOD has tailored its budget request to fiscal 
requirements. We have protected our top missile defense priorities, 
including defending the Homeland, implementing the European Phased 
Adaptive Approach (EPAA), and pursuing Phased Adaptive Approaches (PAA) 
in the Middle East and the Asia-Pacific region.
    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to pursue a PAA to missile defense in Europe. 
This approach is intended to defend all of Europe against existing and 
emerging threats from Iranian missiles, increasing in capability with 
each of its four phases. Phase 4 of the EPAA is intended to provide a 
capability to defend against potential future long-range missiles from 
Iran that could reach the United States, thus augmenting the existing 
Homeland missile defense capability.
    Do you support the PAA to Missile Defense in Europe and, if 
confirmed, will you implement it?
    Answer. Yes, I support the EPAA and, if confirmed, I will support 
its implementation.
    Question. Do you agree that any ballistic missile defense systems 
that we deploy operationally must be operationally effective, suitable, 
survivable, cost-effective, affordable, and should address a credible 
threat?
    Answer. Yes. I believe that DOD should continue to subject new 
ballistic missile defense capabilities to testing under realistic 
operational conditions against realistic targets. DOD should invest in 
ballistic missile defense capabilities that are fiscally sustainable 
over the long-term and are mobile and relocatable.
    Question. Do you agree that ballistic missile defense testing needs 
to be operationally realistic, and should include Operational Test and 
Evaluation, in order to assess operational capabilities and limitations 
of ballistic missile defense systems, prior to deploying such systems?
    Answer. Yes. U.S. ballistic missile defense testing needs to be 
operationally realistic and include robust Operational Test and 
Evaluation. I support the ``fly-before-you-buy'' policy outlined in the 
Report of the Ballistic Missile Defense Review.
    Question. The United States and NATO are seeking options to 
cooperate with Russia on missile defense, including the possibility of 
sharing radar and early warning data. President Obama has announced 
that such cooperation would not limit U.S. or NATO missile defense 
capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
Iran, and could send a powerful signal to Iran that could help persuade 
Iran not to pursue long-range missiles or nuclear weapons?
    Answer. Yes. Missile defense cooperation with Russia could 
strengthen common defenses against Iranian missiles and send an 
important signal to Iran that Russia and the United States are working 
together to counter the proliferation and use of ballistic missiles.
    Question. Do you agree that, notwithstanding Russian concerns, the 
United States is committed to the continued development and deployment 
of U.S. missile defense systems, including qualitative and quantitative 
improvements to such systems, needed to meet our security needs?
    Answer. Yes. The United States will not accept constraints on 
missile defense. We will undertake the necessary qualitative and 
quantitative improvements to the ballistic missile defense system to 
meet U.S. security needs.
                     national security space policy
    Question. What role, if any, do you believe the Principal Deputy 
Under Secretary of Defense for Policy should play in the establishment 
of a national security space policy?
    Answer. I believe that the Principal Deputy Under Secretary of 
Defense should support the Secretary of Defense and the Under Secretary 
of Defense for Policy in developing and ensuring implementation of 
national security space policy. If confirmed, I will work with the 
Under Secretary of Defense and the Assistant Secretary of Defense for 
Global Strategic Affairs to establish and oversee the implementation of 
overarching DOD space policy developed in accordance with the National 
Space Policy, National Security Space Strategy, and associated 
guidance.
                       special operations forces
    Question. The previous two QDRs have mandated significant growth in 
our special operations forces and enablers that directly support their 
operations.
    Do you believe that we should further increase the number of 
special operations personnel? If so, why, and by how much?
    Answer. I believe the completion of the directed growth in Special 
Operations Forces and Combat Support and Combat Service Support 
personnel directed in the 2006 and 2010 QDRs would posture U.S. Special 
Operations Command (SOCOM) to conduct the range of anticipated 
operations effectively to meet future requirements. These forces will 
continue to require service-provided enablers to sustain the level of 
mobility, ISR, fires, and medical evacuation, in differing mixtures, 
based on the operational environment.
    Question. In your view, how can the size of Special Operations 
Forces be increased while also maintaining the rigorous recruiting and 
training standards for special operators?
    Answer. Experience has shown that SOF manpower growth of 3 to 5 
percent annually can be sustained and will not dilute the force or 
outpace the required training and support structure. In my view, SOCOM 
has done a magnificent job of adjusting its processes to maintain the 
quality of SOF operators and support personnel during this current era 
of SOF growth.
    Question. In recent years, Special Operations Forces have taken on 
an expanded role in a number of areas important to countering violent 
extremist organizations, including those related to information and 
military intelligence operations. Some have advocated changes to the 
activities of SOCOM's enumerated in section 167 of title 10 to more 
specifically track the activities special operations forces are 
carrying out around the world.
    Do you believe any modifications to SOCOM's title 10 missions are 
appropriate? If so, what modifications would you suggest?
    Answer. The Department uses a range of processes, including the 
development of the Unified Command Plan, to review the mission sets and 
responsibilities it assigns to SOCOM on an ongoing basis. The language 
in section 167 of title 10, U.S.C., also includes ``such other 
activities as may be specified by the President or the Secretary of 
Defense,'' which provides the President and the Secretary of Defense 
the flexibility needed to meet changing circumstances. Hence, at this 
time I would not advocate significant changes to SOCOM's title 10 
missions.
    Question. What can be done to ensure that indirect special 
operations missions with medium- and long-term impact, such as 
unconventional warfare and foreign internal defense, receive as much 
emphasis as direct action, and that they receive appropriate funding?
    Answer. The activities of Special Operations Forces are quite 
varied, from high-risk strikes and counterterrorist raids to working 
by, with, and through local partners, whether in the form of training 
and advising foreign counterparts, or providing support to civilian 
authorities abroad. I believe that each of these missions is highly 
valued within the Special Operations community. However, as the 
security landscape has changed, the demands for these kinds of missions 
have begun to exceed the ability of the Special Operations community 
alone to meet them.
    As a remedy to this situation, and consistent with QDR 2010 and the 
January 2012 Defense Strategic Guidance, the Department is building the 
capacity and capabilities of the general purpose forces to be prepared 
to take on more of the kinds of missions that used to fall exclusively 
to SOF. Security force assistance is an example of that. I believe that 
broadening the spectrum of irregular missions that our general purpose 
forces are able to take on will alleviate some burdens on the SOF 
community and ensure that the Total Force is adequately prepared to 
undertake and support both direct and indirect missions. I believe that 
increasing the contribution of general purpose forces to these missions 
will help ensure adequate capabilities overall and proper balance 
between general purpose forces and Special Operations Forces.
    Question. Some have advocated providing the SOCOM Commander with 
new authorities that would, among other things, better resource the 
Theater Special Operations Commands (TSOC) and provide Special 
Operations Forces with additional flexibility and funding to build the 
capacity of partner nation security forces.
    Do you believe additional special operations-specific authorities 
are appropriate? If so, what types of authorities would you suggest?
    Answer. TSOCs are essential to all facets of the Geographic 
Combatant Commander's (GCC) engagement and campaign plans. The 
Department is currently conducting a full scale review of authorities 
to guarantee that we are providing the TSOCs the flexibility and 
agility to best meet GCC objectives.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. I believe one of the most important lessons learned has 
been the necessity of close civil-military collaboration at all levels, 
at the tactical level with organizations such as Provincial 
Reconstruction Teams (PRT) and Embedded PRTs, as well as unity of 
effort at the operational and strategic levels. Such unity of effort is 
critical in missions ranging from direct action to building partner 
capacity. We can facilitate this type of coordination through 
organizational structures, but much of this is also a cultural issue--
making collaboration and coordination part of the ethos of our civil 
and military institutions. Experiences from recent conflicts have 
facilitated this to a large degree, although institutionalization can 
and should be continued.
    Question. How do you believe these efforts can be improved?
    Answer. One of the lessons learned has been the need for close 
collaboration early in the planning phase, before a contingency begins. 
This lesson can and should carry forward to future contingencies. 
Recent conflicts have also pointed to the need for sufficient capacity 
and capability within civilian agencies for these kinds of contingency 
operations.
    Question. If confirmed, what would be your role in encouraging 
greater interagency collaboration between U.S. Special Operations 
Forces, general purpose forces, and other U.S. Government departments 
and agencies?
    Answer. Several parts of the Department, including the Office of 
the Secretary of Defense, the Joint Staff, and the combatant commands, 
work with interagency partners, both in Washington and in the field. If 
confirmed, I would continue to support these activities by 
participating in interagency fora and providing policy input and 
oversight, as directed by the Secretary and Under Secretary of Defense 
for Policy.
    In terms of counterterrorism, Special Operations Forces will 
continue to have a leading role in our efforts to defeat al Qaeda. The 
Department is prepared to sustain a significant number of deployed SOF 
around the world, working closely with allies and partners to develop 
the capabilities and capacities they need to rid their territories of 
terrorists and prevent their resurgence. The defeat of al Qaeda cannot 
be achieved without bringing together the expertise and resources of 
the entire U.S. Government--intelligence, law enforcement, military, 
and other instruments of national power--in a coordinated and 
synchronized manner. If confirmed, I would seek strong relationships 
with DOD's interagency partners; in particular, the National Counter-
Terrorism Center, the State Department's Bureau of Counterterrorism, 
and the Center for Strategic Counterterrorism Communications, to 
maximize DOD's efforts to counter violent extremism.
    Building the capacity of foreign security forces is a key part of 
any counterinsurgency effort. It is a shared responsibility within the 
executive branch, particularly the Departments of State and Defense. 
Close collaboration between the Departments is a key characteristic of 
the section 1206 authority, and one of its greatest strengths. The 
Global Security Contingency Fund epitomizes this shared responsibility, 
and represents an opportunity for the State Department and DOD to plan 
for contingencies jointly, and to establish a new model for interagency 
planning of security sector assistance.
    To foster operational-level integration, our interaction with other 
departments and agencies continues to deepen both in Washington and at 
the combatant commands. In the field, combatant commands use Joint 
Interagency Coordination Groups to support interagency planning and 
coordination. The interagency is also playing an increasing role in DOD 
exercises, making them a more realistic reflection of the environment 
in which our forces would operate. If confirmed, I would continue to 
promote such cooperation.
                          readiness oversight
    Question. Part of the scope and responsibility of the Office of 
Under Secretary of Defense for Policy, is to help shape and decide how 
and where DOD deploys forces, but without direct oversight into the 
readiness of those forces. Currently, that readiness oversight function 
resides with the Office of the Under Secretary of Defense for Personnel 
and Readiness. Arguably, a shift of the readiness oversight 
responsibility from personnel into policy could provide a comprehensive 
and broader insight into the readiness of our forces.
    If confirmed, would you be in favor of shifting the readiness 
oversight from the Office of the Under Secretary of Defense for 
Personnel and Readiness to the Office of the Under Secretary of Defense 
for Policy?
    Answer. Both the Offices of Under Secretary of Defense for 
Personnel and Readiness (P&R) and Under Secretary of Defense for Policy 
(Policy) play important but distinct roles in monitoring the readiness 
of the Armed Forces. P&R focuses on the delivery of readiness through 
the key elements of training, personnel, health affairs, Reserve 
component affairs, and quality of life programs. P&R is also staffed by 
people with expertise appropriate to assessing programs and activities 
in these areas. Policy, on the other hand, articulates the requirements 
for readiness through the development and issuance of guidance on 
strategy, plans, force structure, and regional and global posture 
initiatives. These two different but complementary perspectives on 
readiness provide the Department's leaders with appropriate and 
separate oversight of readiness that ensures the Military Departments 
and Services are prepared to support the combatant commanders' 
operational requirements with ready forces.
                  multilateral peacekeeping operations
    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, U.S. Ambassador to the 
U.N., stated that the United States ``is willing to consider directly 
contributing more military observers, military staff officers, civilian 
police, and other civilian personnel--including more women I should 
note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
additional military personnel to both staff positions and military 
observers in support of U.N. peacekeeping operations?
    Answer. In general, if confirmed, I would support additional 
contributions of U.S. military personnel to staff officer positions, 
provided that they are positions that would add significant value to 
the mission, and that the mission is a strategic priority for the 
United States.
    Support for international peacekeeping remains an important 
security objective for the U.S. Government, and the United States has a 
stake in the success of U.N. peacekeeping operations. I believe that, 
where practicable, the United States should continue to provide 
military personnel for U.N. peacekeeping operations, especially for key 
staff positions that can help shape the direction and success of the 
mission. If confirmed, I will carefully evaluate any proposals to 
contribute military or civilian personnel to a U.N. peacekeeping 
operation, weighing the potential positive impact of U.S. participation 
in the mission against other military commitments we have around the 
globe, and the estimated cost of U.S. involvement.
    Question. What are the advantages and disadvantages of contributing 
additional military personnel to U.N. operations?
    Answer. There are several potential advantages to contributing 
additional military personnel to U.N. missions: the opportunity to 
shape these missions from the inside and contribute to the success of 
the mission; professional development opportunities for military 
personnel to serve in a joint, combined environment; and the benefit of 
receiving real-time information and insights on emerging threats and 
crises from places where there might not otherwise be a U.S. presence. 
It also enables an increased professional interaction by U.S. military 
personnel with numerous partner nations' military personnel, with whom 
we may not normally have the opportunity to serve.
    The potential disadvantage of providing additional military 
personnel is the additional demands these assignments would impose on a 
U.S. military force that has seen extensive deployments in recent 
years, and that is still heavily engaged in overseas operations. I do 
not believe the United States will be in a position to provide 
significant numbers of military personnel to peacekeeping missions 
anytime in the near future. However, I believe the selective placement 
of even modest numbers of U.S. military personnel in addition to the 
personnel we currently have assigned to U.N. operations can have a 
significant, positive effect on U.N. peacekeeping operations.
                           minerva initiative
    Question. The Minerva Initiative is a DOD-sponsored, university-
based social science research initiative launched by the Secretary of 
Defense in 2008 focusing on areas of strategic importance to U.S. 
national security policy. The goal of the Minerva Initiative is to 
improve DOD's basic understanding of the social, cultural, behavioral, 
and political forces that shape regions of the world of strategic 
importance to the United States. OSD Policy and the ASD (Research and 
Engineering) co-lead this initiative.
    What is your understanding and assessment of the Minerva 
Initiative?
    Answer. The Minerva Initiative is a basic research program in the 
defense social sciences initiated by former Secretary of Defense Gates 
and now supported by Secretary Panetta. The program is jointly managed 
by OSD Policy and ASD (Research and Engineering). The Minerva 
Initiative has sponsored innovative university research on topics 
ranging from terrorism to the relationship between climate change and 
political stability to technological innovation in China. The Minerva 
Initiative also sponsors research faculty chair positions at select 
Joint Professional Military Education schools and the three Service 
Academies. After only 3 years, the program has contributed to 
developing new intellectual capital in the social sciences, building 
ties between the Department and the academic social science community, 
and improving the Department's understanding of key areas of strategic 
importance to U.S. national security policy.
    Question. If confirmed as Principal Deputy Under Secretary of 
Defense for Policy, what guidance, if any, would you provide to the 
Minerva Initiative, including incorporating the results from the 
research produced thus far and utilizing the expertise affiliated with 
this initiative?
    Answer. If confirmed, I would provide guidance to ensure the 
Minerva Initiative continues to strengthen the ties between the social 
science research community and the defense community. Many Minerva 
findings have already been applied to inform policy for today's defense 
priorities, and Minerva Initiative scholars have briefed valuable, 
warfighter-relevant insights to senior officials such as the Chairman 
of the Joint Chiefs of Staff, decisionmakers in the defense policy 
community, and our combatant commands. As a basic research program, 
however, the Minerva Initiative's most important contributions may be 
greatest over the longer term.
    The DOD community already plays an active role in both shaping 
Minerva Initiative research priorities and benefiting from scholarly 
insights. In particular, staff officers in OSD Policy serve not only as 
reviewers but as advisors and potential customers for Minerva 
Initiative efforts while connecting those insights to the broader 
defense community. If confirmed, I would seek to continue this strong 
oversight to ensure the results of Minerva Initiative research are 
connected to the key social science-related issues the Department 
faces.
                      private security contractors
    Question. In your view, has the U.S. reliance upon private security 
contractors to perform security functions risked undermining our 
defense and foreign policy objectives in Afghanistan?
    Answer. If confirmed, I will support the Under Secretary of Defense 
for Acquisition, Technology, and Logistics in ensuring the Department's 
responsibilities in this regard are met. The use of force by 
contractors or military personnel can, if misapplied, undermine our 
policy objectives. Contractors for physical security missions have been 
a necessity in Iraq and Afghanistan and are likely to be so in future 
contingencies. DOD has established procedures over time to manage these 
contractors more effectively, in order to prevent unnecessary violence 
that would be detrimental to our policy objectives. This is an area 
that requires constant attention and continued supervision to ensure 
that our policy is appropriate and effective.
    Question. What steps, if any, would you take, if confirmed, to 
reduce the Department's reliance upon contractors to perform security 
functions in Afghanistan?
    Answer. If confirmed, I would work to facilitate the transition 
from private security contractors to the Afghan Public Protection 
Force. I would also ensure that the combatant commander is furnished 
with clear policy assuring that private security contractors are only 
being used where appropriate and necessary. Our commanders on the 
ground must have authority to restrict security contractors' operations 
as the situation requires.
    Question. What steps, if any, would you take, if confirmed, to 
ensure that any private security contractors who may continue to 
operate in an area of combat operations act in a responsible manner, 
consistent with U.S. defense and foreign policy objectives?
    Answer. If confirmed, I would work with the Under Secretary of 
Defense for Acquisition, Technology and Logistics, the Joint Staff, the 
General Counsel of DOD, and combatant commanders to ensure that 
commanders at all levels understand their responsibilities regarding 
armed contractors operating in support of them or in their operational 
area. This includes ensuring commanders are aware of extant legal 
responsibilities with respect to qualification, training, and vetting 
requirements as well as the limitations on the use of force by these 
contractors.
    I would also work to ensure that combatant commanders are furnished 
with clear policy assuring that private security contractors are only 
being used where appropriate and necessary. Our commanders on the 
ground must have authority to restrict security contractors' operations 
as the situation requires.
    Question. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act to private security contractors of 
all Federal agencies?
    Answer. I support steps to ensure that there is legal 
accountability for the actions of all contractors performing work for 
the U.S. Government in an area of combat operations. If confirmed, I 
will support DOD efforts to work with our interagency partners to build 
appropriate mechanisms to ensure such accountability.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes, I do.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes. I believe that DOD and more broadly U.S. leadership 
should be mindful of multiple considerations when developing standards 
for detainee treatment, including that the manner in which we treat our 
own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy Under 
Secretary of Defense for Policy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator Joseph I. Lieberman
                      defense strategy formulation
    1. Senator Lieberman. Dr. Hicks, in your responses to the advance 
policy questions you state, ``It is my assessment based on my past 3 
years in the Department that the processes for analysis, 
decisionmaking, and reporting on each of the above-mentioned reports 
[including the Quadrennial Defense Review (QDR)] are outstanding.'' 
However, I have become increasingly concerned by the brittle nature of 
the Department of Defense's (DOD) recent strategy formulation efforts. 
The 2010 QDR did not even last 2 years before DOD felt compelled to 
replace it with the Defense Strategic Guidance (DSG). Key elements of 
U.S. force structure identified in the 2010 QDR, most notably in the 
ground force, are now regarded as unnecessary. It would seem that there 
is significant room for improvement in formulating strategies that 
stand up to significant changes in resources and the strategic 
environment. How would you compare the findings of the 2010 QDR and the 
2012 DSG? Specifically, which findings of the 2010 QDR remain valid and 
which need to be eliminated?
    Dr. Hicks. In order to meet the Nation's security needs most 
effectively, the Department must adapt its strategic approach to shifts 
in the strategic environment, including international dynamics, 
operational transitions, and resource realities. I am comfortable that 
DOD's strategy efforts represent an adaptable, rather than brittle, 
process.
    In 2011, the President directed DOD to conduct a comprehensive 
review in light of geopolitical changes and the Nation's fiscal 
challenges since the Department had published the QDR in 2010.
    The resulting DSG maintained several key themes emphasized in the 
2010 QDR, such as maintaining pressure on al Qaeda and affiliated 
groups, accelerating modernization and concept development to counter 
anti-access challenges, continuing a broad array of activities to build 
partner capacity, and ensuring the ability of our forces to operate 
effectively in cyberspace and space. A notable shift from the 2010 QDR 
is the Department's current assessment that long-duration, large-scale 
U.S. ground operations are less likely to be a prevalent feature of the 
security environment. Precise prediction of the future operating 
environment is not possible, however, which is why the DSG sets forth 
an approach to mitigate the risk that U.S. Forces may be called upon to 
conduct such operations. This includes the requirement to protect our 
ability to mobilize and generate capabilities as needed, and to 
maintain the skills and experience learned over the past decade of war.

    2. Senator Lieberman. Dr. Hicks, given the significantly compressed 
timeline to produce the DSG as compared to the 2010 QDR, would you say 
that the analysis behind the DSG, and by extension the fiscal year 2013 
budget request, was more rigorous or less rigorous than the analysis 
that went into the 2010 QDR?
    Dr. Hicks. I have confidence in the analytics that underpin the DSG 
of 2012. Compared to the development of a QDR, the timing of the DSG 
required a shorter duration but equally high-intensity effort on behalf 
of DOD, which drew upon a wealth of information and depth of expertise 
resident across DOD. Such a significant effort was necessary to ensure 
that the Department was making strategy-driven decisions to meet its 
fiscal obligations as we adjust to changes in the security environment. 
Moreover, as Secretary Panetta has noted, the creation of the DSG 
involved significant personal attention from senior leaders--uniformed 
and civilian--throughout the Department. The DSG also underwent 
substantial review by our interagency colleagues and senior officials 
at the White House, including the President.
    Because many of the analytic resources used to inform the DSG, 
including scenario sets, databases, and modeling and simulation, were 
generated during the QDR; and because there was continuity in many of 
the individuals involved across the two efforts, DOD was able to 
provide for the DSG a level of supporting analytics on par with those 
developed for the QDR of 2010.

    3. Senator Lieberman. Dr. Hicks, did the expectation of reduced DOD 
budgets play a role in the analysis that produced the DSG? If so, how 
was this concern weighed against other strategic concerns?
    Dr. Hicks. Two key factors drove the analysis that produced the 
DSG--changes in the security environment and the need to take steps to 
protect our Nation's economic vitality. DOD faced a strategic 
inflection point with the responsible drawdown from a decade of combat 
operations in Iraq and Afghanistan and shifting economic and security 
interests in a world of accelerating change. The DSG describes the 
projected security environment and the primary military missions of the 
Department as we rebalance from prevailing in current conflicts to 
preparing for an uncertain future. The enactment of the Budget Control 
Act in August 2011 and other appropriate budget guidance, also informed 
our analysis.
    The decisions made during the development of the DSG, which provide 
the precepts for the size and shape of the Joint Force of the future, 
were reflected in the subsequent fiscal year 2013 budget and will 
continue to be reflected over subsequent program and budget cycles. 
These were tough choices. The DSG describes a broad portfolio of 
military capabilities that offer versatility across a range of priority 
missions. We will also take steps to build resiliency to be able to 
address unforeseen developments in the security environment by 
protecting our ability to regenerate capabilities that might be needed 
in the future.

    4. Senator Lieberman. Dr. Hicks, did budgetary concerns play a role 
in the analysis that produced the 2010 QDR? If so, how was this concern 
weighed against other strategic concerns?
    Dr. Hicks. The QDR of 2010 was strategy-driven and resource-
informed. The QDR concluded that the U.S. Armed Forces must balance 
resources and risk among four priority objectives:

        <bullet> Prevail in today's wars--the first time this objective 
        appeared in a QDR;
        <bullet> Prevent and deter conflict;
        <bullet> Prepare to defeat adversaries and succeed in a wide 
        range of contingencies; and
        <bullet> Preserve and enhance the All-Volunteer Force, the 
        single greatest strategic asset of the United States.

    Throughout 2009, DOD conducted extensive analyses of the 
capabilities and capacity of a range of future forces, and concluded 
that the Nation could field a force sufficient to execute the QDR's 
defense strategy within then-projected resource levels.

    5. Senator Lieberman. Dr. Hicks, in general, do you believe DOD 
strategic reviews should be shaped by resource considerations? If so, 
how should they be weighed against other strategic concerns?
    Dr. Hicks. I believe that the DOD strategic reviews, such as the 
QDR or the recently released DSG, should continue to be informed by a 
general understanding of the level of resources that the Nation is 
prepared to commit to national security. To do otherwise would be to 
risk developing strategies that cannot successfully match ends to ways 
and means.

    6. Senator Lieberman. Dr. Hicks, in the future, should DOD 
strategic reviews like the QDR include separate resource-unconstrained 
and resource-constrained components? If not, how do you believe these 
reviews should best account for the strategic consequences of resource 
constraints?
    Dr. Hicks. I do not believe that DOD strategic reviews, such as the 
QDR and the DSG, should assume unlimited resources. To do so would mean 
that the strategy would not meet the essential objective of strategy-
making: creating approaches that match ends, ways, and means. Although 
resources are an important factor in informing strategy development, 
they must not be allowed to drive our strategy. Instead, DOD must 
balance resources and risks as they relate to desired end-states. Our 
existing analytical processes provide decisionmakers with insights 
regarding the consequences of likely resource constraints by assessing 
the ability of our forces to accomplish priority missions across a 
range of plausible scenarios.

    7. Senator Lieberman. Dr. Hicks, the 2010 QDR included assessments 
of operational risk, force management risk, institutional risk, future 
challenges risk, and strategic, military, and political risks incurred 
by its recommended approach. The DSG was not accompanied by a similar 
assessment. Can you identify the most important risk factors in each 
category in the DSG?
    Dr. Hicks. The 2012 DSG and the decisions in the fiscal years 2013 
to 2017 Future Years Defense Program were informed by our desire to 
reduce risk is several key areas, notably in adapting to the growing 
importance of new operational domains, continuing challenges posed by 
adversaries employing anti-access/area denial approaches, and the 
Nation's financial crisis. Early insights from the Chairman's Risk 
Assessment were instrumental in the development of the Department's 
strategic guidance. More broadly, during the strategic review, we 
assessed risk through wargaming scenarios, trend analysis, and other 
means.
    Although the Department faced difficult choices in managing trade-
offs within defense approaches and resources, I believe that the risks 
associated with the new DSG are manageable and acceptable. Spending 
reductions of the magnitude directed by the Budget Control Act of 2011 
required difficult choices. For example, by reducing overall end 
strength and aggregate force structure, we are accepting greater risk 
should long duration, large-scale U.S. ground operations be a prevalent 
feature of the future security environment. The DSG sets forth an 
approach to mitigate this risk by protecting our ability to mobilize 
and regenerate capabilities as needed. This includes maintaining 
intellectual capital and rank structure that could be called upon to 
expand key elements of the force. This ensures that the U.S. Reserve 
component is well-equipped and well-trained, and that we preserve the 
health and viability of the Nation's defense industrial base.
    The Department's risk mitigation plan identifies active mitigation 
efforts for the specific risks identified in the Chairman's Risk 
Assessment.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                          readiness oversight
    8. Senator McCaskill. Dr. Hicks, in your response to advance policy 
questions, you indicated that the Under Secretary of Defense for Policy 
has oversight of, among other things, force structure. What actions 
have you taken, or, if confirmed, would you take, with respect to 
significant force structure changes in the Army and the Air Force?
    Dr. Hicks. The Under Secretary of Defense for Policy (USD(P)) is 
one of several advisors to the Secretary of Defense on matters relating 
to the structure and capabilities of U.S. Forces. If confirmed, I would 
support the USD(P) in ensuring the Department considers the following 
in its force planning efforts:

        <bullet> Defense strategy, which prescribes how military power 
        and capabilities will be harnessed in the pursuit of stated 
        objectives, as outlined in the President's National Security 
        Strategy;
        <bullet> Defense planning scenarios and other expressions of 
        demand for U.S. military capabilities and activities. These 
        include, in the near-term, ongoing operations and the 
        operational plans of the combatant commanders, and in the 
        longer-term (5 to 7 years and beyond), scenarios that reflect 
        decisionmakers' judgments regarding the most important types of 
        operations that U.S. Forces must be prepared to undertake; and
        <bullet> Force assessments--qualitative and quantitative 
        analyses of the ability of current, programmed, and alternative 
        forces to meet the demands reflected in the scenarios, 
        operational plans, and other sources of operational 
        requirements listed above.

    Within DOD, USD(P) plays the leading role in developing the defense 
strategy, a shared role in defining and developing scenarios, and a 
supporting role in assessing the capabilities of U.S. Forces. As the 
Deputy Under Secretary for Strategy, Plans, and Forces, I have assisted 
the Principal Deputy Under Secretary for Policy (PDUSD(P)) and the 
USD(P) in these efforts.

    9. Senator McCaskill. Dr. Hicks, please describe the approval 
process in place, or, if confirmed, the approval process you would 
recommend putting in place, for oversight of major force structure 
changes.
    Dr. Hicks. Since I began my tenure as Deputy Under Secretary of 
Defense for Strategy, Plans, and Forces, the Secretary and the Deputy 
Secretary of Defense, working in close cooperation with the Chairman 
and Vice Chairman of the Joint Chiefs of Staff, have been responsible 
for reviewing and approving all major elements used in the force 
planning process. The Secretary and Deputy Secretary have also included 
OSD components, the military departments, and geographic combatant 
commands in the review process to ensure as comprehensive an approach 
as possible. Collectively, they review and refine, and ultimately, make 
recommendations to the Secretary regarding the defense strategy upon 
which force structure changes are based. Likewise, the Secretary and 
Deputy Secretary have forged a DOD-wide consensus on which missions 
should be the primary focus of the Department's force planning efforts 
and what expressions of operational requirements--ongoing operations, 
operational plans, scenarios--should be used for evaluating current and 
future forces. They take into account force assessments when they make 
choices regarding future force structure and the allocation of 
resources.
    In my experience, this process has worked well, and I believe that 
it should be continued in the future. In the conduct of the QDRs, as 
well as the annual program and budget review, there is no substitute 
for hands-on involvement by the Department's top leaders.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                         nuclear modernization
    10. Senator Inhofe. Dr. Hicks, in the 2010 Nuclear Posture Review 
(NPR) and during the discussion on the New Strategic Arms Reduction 
Treaty (START), the administration made substantial commitments to the 
sustainment and modernization of the U.S. nuclear deterrent. Enhanced 
safety, security, and reliability of the nuclear weapons stockpile, 
modernization of the nuclear weapons complex, and maintenance of the 
nuclear delivery systems are integral to maintaining our nuclear 
deterrence. Do you support the triad of bombers with gravity bombs and 
nuclear cruise missiles, ballistic missile submarines, and 
intercontinental ballistic missiles (ICBM)?
    Dr. Hicks. I support the United States retaining a triad of 
submarine-launched ballistic missiles (SLBM), ICBMs, and heavy bombers. 
At current force levels, retaining all three triad legs will best 
maintain strategic stability at reasonable cost, while hedging against 
potential technical problems or vulnerabilities. Strategic nuclear 
submarines (SSBN) and the SLBMs they carry represent the most 
survivable leg of the U.S. nuclear triad. Single-warhead ICBMs 
contribute to stability, and like SLBMs are not vulnerable to air 
defenses. Unlike ICBMs and SLBMs, bombers can be visibly deployed 
forward, as a signal in crisis to strengthen deterrence of potential 
adversaries and assurance of allies and partners.

    11. Senator Inhofe. Dr. Hicks, it has been reported that President 
Obama is weighing options for sharp new cuts to our nuclear arsenal 
unilaterally, potentially up to 80 percent, proposing 3 plans that 
could limit the number to as low as 300. Is the United States 
considering unilaterally reducing its arsenal of nuclear weapons?
    Dr. Hicks. Secretary Panetta recently testified before Congress 
that: ``We've gone through a nuclear review and presented options to 
the President. But let me be very clear that these options are in no 
way unilateral.''
    The April 2010 Report of the NPR stated that the United States 
intends to pursue further reductions in nuclear weapons negotiations 
with Russia. The Department's NPR follow-on analysis of deterrence 
requirements and force postures will help identify the force levels 
needed to support these objectives and any potential risks. The 
completion of this analysis is necessary to inform future arms control 
objectives involving our strategic nuclear stockpile.

    12. Senator Inhofe. Dr. Hicks, how would a unilateral reduction 
impact our ability to deter, provide extended deterrence, and defend 
ourselves, if attacked?
    Dr. Hicks. The President directed follow-on analysis to the April 
2010 NPR that considers a number of factors to shape goals for future 
U.S.-Russia reductions in nuclear weapons below New START treaty 
levels. Among those factors is maintenance of the reliability and 
effectiveness of our security assurances to allies and partners, while 
also maintaining strategic stability with Russia. A primary goal of 
this study is ensuring that U.S. deterrence requirements and U.S. plans 
are aligned to address today's threats.

    13. Senator Inhofe. Dr. Hicks, how would unilateral reductions 
affect nuclear proliferation?
    Dr. Hicks. The April 2010 Report of the NPR highlighted the need to 
better align our nuclear policies and posture to our most urgent 
priorities: preventing nuclear terrorism and nuclear proliferation. The 
NPR identified several factors that would influence future reductions 
in U.S. nuclear forces below the New START treaty levels. Those factors 
include: continued strengthening of deterrence, strategic stability, 
and assurance; continued investment in and implementation of the 
Stockpile Stewardship Program; and considerations with regard to 
Russia's nuclear forces.

    14. Senator Inhofe. Dr. Hicks, is it important to maintain our 
nuclear triad?
    Dr. Hicks. Yes, the United States should retain a triad of SLBMs, 
ICBMs, and nuclear-capable heavy bombers. The April 2010 NPR clearly 
states that the U.S. nuclear triad of ICBMs, SLBMs, and nuclear-capable 
heavy bombers will be maintained under the New START treaty. At current 
force levels, retaining all three triad legs will maintain strategic 
stability at reasonable cost, while hedging against potential technical 
problems or vulnerabilities. Ballistic missile submarines (SSBNs) and 
the SLBMs they carry represent the most survivable leg of the U.S. 
nuclear triad. Single-warhead ICBMs contribute to stability, and like 
SLBMs are not vulnerable to air defenses. Unlike ICBMs and SLBMs, 
bombers can be visibly deployed forward, as a signal in crisis to 
strengthen deterrence of potential adversaries and assurance of allies 
and partners.

    15. Senator Inhofe. Dr. Hicks, are you committed to the nuclear 
modernization plan, referred to as the 1251 plan, that was the basis 
for Senate support for the New START treaty?
    Dr. Hicks. Yes, maintaining a safe, secure, and effective nuclear 
deterrent, and recapitalizing the nuclear complex, were clearly 
articulated in the NPR well before the New START treaty was submitted 
to the Senate. The administration's approach to sustainment and 
modernization is clearly set forth in the Report to Congress pursuant 
to section 1251 of the National Defense Authorization Act for Fiscal 
Year 2010 (the 1251 Report). However, the road ahead will be 
challenging as DOD adjusts to current and projected budget cuts. We 
will have to make hard choices, and this may cause changes to NPR 
implementation and the 1251 Report. DOD is committed to fulfilling its 
requirements associated with the NPR. To date, DOD has been able to do 
this by adjusting programs to shift funds as necessary. Unfortunately, 
we understand the future will likely include more budget cuts, and we 
expect potential challenges that could affect the current plan.

    16. Senator Inhofe. Dr. Hicks, do you support modernization of our 
nuclear weapons labs, and if so, would you characterize this funding as 
national security activities?
    Dr. Hicks. Yes, DOD is committed to modernization of our nuclear 
security complex, which includes the weapons labs. Both the April 2010 
NPR Report and the Report to Congress pursuant to section 1251 of the 
National Defense Authorization Act for Fiscal Year 2010 (the 1251 
Report) plan highlighted the need to recapitalize our nuclear security 
infrastructure to ensure a safe, secure, and effective nuclear 
deterrent. These investments will support the full range of nuclear 
security work, including nonproliferation, nuclear forensics, nuclear 
counterterrorism, emergency management, intelligence analysis, and 
treaty verification.

                                tricare
    17. Senator Inhofe. Dr. Hicks, healthcare costs have doubled since 
fiscal year 2001, growing from around $17 billion to over $42 billion 
in fiscal year 2009. Healthcare is projected to consume 12 percent of 
DOD's budget in 2015, compared to 4.5 percent in 1990. The new Obama 
budget calls for military families and retirees to pay increasingly 
more for their healthcare, while leaving other Federal unionized 
workers alone. Enrollment fees for TRICARE Prime in the fiscal year 
2013 budget request would increase fees anywhere from 30 percent to 78 
percent. Over 5 years, compared to current fees, the fiscal year 2013 
proposal would increase the enrollment fee by 94 percent and up to 345 
percent for some retirees. If costs are increased as planned in the 
fiscal year 2013 proposal, will some military beneficiaries not be able 
to afford TRICARE?
    Dr. Hicks. The Department's proposed fee increases will mostly 
affect retirees and, especially, retirees who are under the age of 65 
and are still in their working years. These fees are comparatively 
moderate and tiered-based on retirement income. While some retirees are 
expected to opt out of TRICARE as a direct result of the fee increases, 
they will be doing so in favor of other health care coverage options. 
In fiscal year 2000, approximately 60 percent of retirees relied on 
TRICARE for their health care. Today, it is roughly 84 percent with 
projections that it will reach 90 percent by fiscal year 2017. Our 
estimate is that these proposals will reduce this reliance to 79 
percent, roughly what it was in fiscal year 2008.
    For 15 years, the Department had not increased most fees. Over the 
years, the TRICARE benefit was expanded, providing more coverage, at no 
additional cost. In 1996, retired beneficiaries used to bear 27 percent 
of overall health care costs; by 2012 they were responsible for only 10 
percent of their health care costs. At the end of the proposed multi-
year phase-in period, beneficiary out-of-pocket costs will rise from 10 
percent to less than 15 percent of total health care costs, 
considerably less than in 1996.
    While the President's budget does not change the formula for 
enrollment fees for non-military Federal Government civilian employees 
or civilian retirees, those fees have increased and are still 
increasing. These increases are because civilian employees and retirees 
health related fees are tied to private-sector plans' increases in 
health care costs. If the fee changes are approved, the TRICARE benefit 
will remain one of the finest and most generous health benefits 
available in the country, better than the TRICARE benefit in 1996, and 
far lower than costs by other Federal Government employees.

    18. Senator Inhofe. Dr. Hicks, do you know how many beneficiaries 
will no longer be able to afford TRICARE in the out-years with the 
increases planned in the fiscal year 2013 proposal?
    Dr. Hicks. Because the proposed fees are comparatively modest, and 
based on retirement income, TRICARE will continue to be an attractive 
health option for the vast majority of retirees. However, as noted 
above, the Department estimates that the proposals will reverse the 
increase in the number of retirees who use TRICARE as their primary 
health insurance vice using their employer-sponsored insurance. In 
fiscal year 2000, approximately 60 percent of retirees relied on 
TRICARE. Since then, we have seen a steady rise in the number of 
retirees using their TRICARE benefit. Today, it is roughly 84 percent, 
with projections that it will reach 90 percent by fiscal year 2017. Our 
estimate is that these proposals will reduce this reliance to 79 
percent, roughly what it was in fiscal year 2008.

    19. Senator Inhofe. Dr. Hicks, if beneficiaries no longer opt-in to 
TRICARE, will cost-driven attrition put TRICARE's sustainability at 
greater risk than healthcare costs?
    Dr. Hicks. Because the TRICARE benefit will remain one of the 
finest and most generous health benefits available in the country, with 
relatively low beneficiary associated costs, we believe that a majority 
of retirees will continue to use TRICARE as their primary health 
insurance. Implementing the proposed changes will make TRICARE more 
sustainable, as the Department will be able to continue to increase 
investments in patient care--such as building exceptional new medical 
facilities, improving access to care, and providing preventive services 
at no cost to our beneficiaries.

    20. Senator Inhofe. Dr. Hicks, are other options available for 
military beneficiaries that are driven out of TRICARE due to cost?
    Dr. Hicks. Because the proposed fees are comparatively modest, and 
based on retirement income, we believe that TRICARE will continue to be 
an attractive health option for the vast majority of retirees. However, 
we expect some retirees will opt-out of TRICARE in favor of their 
employer-sponsored health coverage.

    21. Senator Inhofe. Dr. Hicks, do you consider the proposed 
increases to be fair and appropriate, given the time and the sacrifices 
of our servicemembers and their families?
    Dr. Hicks. Yes; at the end of this effort, the TRICARE benefit will 
remain one of the finest and most generous health benefits available in 
the country, better than the TRICARE benefit in 1996, and far lower 
than costs of other Federal Government employees. The projected savings 
of $1.8 billion in fiscal year 2013 and $12.9 billion through fiscal 
year 2017 generated by the proposed TRICARE changes are an essential 
component for ensuring DOD can successfully meet both the new national 
defense strategy and the funding caps imposed under the Budget Control 
Act.

                         strategy pivot to asia
    22. Senator Inhofe. Dr. Hicks, in a taped interview about the shift 
in strategy in January 2012, you maintain that DOD can still execute a 
two-war strategy. With the cutting of Army and Marine Corps end 
strength, can you explain how that can be accomplished? We had to grow 
the force to meet requirements in Operations Iraqi Freedom and Enduring 
Freedom, and the force was still stressed with minimal dwell time.
    Dr. Hicks. When considering how to allocate resources across a 
range of investment priorities, the Department's leaders assess current 
and future forces against a number of criteria. For more than 20 years, 
one of these has been the requirement for joint forces to be able to 
deter and defeat aggression by an adversary in one region even when our 
forces are committed to a large-scale operation elsewhere. During last 
year's strategic review, the Department evaluated the demands of the 
most plausible potential conflicts and concluded that, although there 
will be challenges, forces fielded in the fiscal years 2013 to 2017 
Future Years Defense Plan will meet this requirement with acceptable 
risk.
    As our strategy makes clear, and as we have seen in Iraq and 
Afghanistan, it may be necessary for outside forces to assist in 
establishing conditions suitable for stable self-governance in the 
aftermath of large-scale ground-intensive conflicts. Our planning calls 
for retaining forces with sufficient capacity to conduct such post-
conflict stability operations on a small scale for a limited period 
using standing forces or, if necessary, for an extended period with 
mobilized forces. Recognizing that future circumstances might call for 
a larger, extended commitment, as occurred over the last decade of war, 
the defense strategy calls on components to take steps to protect the 
Department's ability to regenerate and sustain capabilities that might 
be needed to meet future, unforeseen demands.

                             guantanamo bay
    23. Senator Inhofe. Dr. Hicks, last week two Uighurs (separatists 
from western China who were captured in Pakistan at the beginning of 
the war and held for 10 years at Guantanamo Bay (GTMO)) were 
transferred out of U.S. custody to El Salvador. The last detainee 
arrived at GTMO in June 2008; and the total number in U.S. custody is 
now 169. What is the status of the transfer of the five Taliban 
fighters to Qatar, and is this an effort by the administration to jump-
start talks with the Taliban?
    Dr. Hicks. The U.S. Government has made no decision to transfer any 
Guantanamo detainees to Qatar. Any decision to transfer detainees from 
Guantanamo to another country would be made according to applicable 
legal requirements and in keeping with U.S. national security 
interests.

    24. Senator Inhofe. Dr. Hicks, can you describe the criteria for 
the release of detainees and do you support releasing them to a host 
country?
    Dr. Hicks. In the past, when a detainee was designated for transfer 
via the Executive Order Task Force (per Executive Order 13492), it was 
based on a finding that the detainee could be transferred consistent 
with the national security and foreign policy interests of the United 
States. The Task Force followed detainee review guidelines developed 
specifically for the Executive order review and approved by the Review 
Panel. The guidelines addressed four types of evaluations relevant to 
determining whether a detainee should be recommended for transfer, 
which were as follows: a threat evaluation; an evaluation of potential 
destination countries; a legal evaluation to ensure that any detainee 
falling outside the Government's lawful detention authority was 
recommended for transfer or release; and an evaluation to determine 
whether a Federal court or military commission prosecution should be 
recommended for any offenses the detainees may have committed.
    The guidelines governing the interagency periodic review process 
mandated by President Obama's March 7, 2011, Executive Order 13567, now 
have been issued. The Periodic Review Boards (PRB) will review each 
Guantanamo detainee to determine whether continued detention is 
warranted to protect against a continuing significant threat to the 
security of the United States. In making that assessment, the PRB may 
review all relevant materials on which the Government seeks to rely to 
show the detainee should continue to be detained. This includes 
information from the final Task Force assessments produced pursuant to 
the interagency review conducted pursuant to Executive Order 13492, the 
work product of a prior PRB, or any relevant intelligence produced 
subsequent to either such review. The PRB will also be provided all 
mitigating information. These boards are another step forward in 
ensuring that the United States has a principled, credible, and 
sustainable policy for detention in 21st century warfare.

    25. Senator Inhofe. Dr. Hicks, as a senior policy advisor, what is 
your opinion of GTMO and its operations?
    Dr. Hicks. Detention operations at Guantanamo Bay are conducted 
under the command and control of a joint task force, which is overseen 
by U.S. Southern Command. These operations are conducted professionally 
and humanely, and in full compliance with applicable U.S. law and the 
law of war. The quality of U.S. military personnel at the base is 
outstanding.

    26. Senator Inhofe. Dr. Hicks, do you still believe we are fighting 
the war on terrorism?
    Dr. Hicks. We are currently fighting a war against al Qaeda, its 
affiliates, and adherents. The President's National Strategy for 
Counterterrorism is intentionally focused on al Qaeda rather than on 
terrorism or extremism broadly defined. The Strategy makes clear that 
our ultimate objective is the defeat of al Qaeda. The Strategy has also 
made it clear that our focus is on al Qaeda's affiliates and adherents 
as well, as they continue to plot and plan terrorist attacks against 
us.

    27. Senator Inhofe. Dr. Hicks, as we capture terrorists or other 
high value targets, do you agree with long-term detention at GTMO as a 
primary course of action?
    Dr. Hicks. Our first priority must be to capture terrorists--to 
eliminate the threat that an individual poses and to elicit valuable 
intelligence that can help protect the American people. To the greatest 
extent practicable, we will work to ensure that we are able to maintain 
a viable long-term disposition option to keep dangerous individuals off 
the battlefield, and to ensure that they can no longer threaten the 
American people or our interests.
    This administration has made clear its intention to close the 
detention facility at Guantanamo Bay, and adding to the population 
there would undermine those efforts.

    28. Senator Inhofe. Dr. Hicks, do you believe that we should 
prosecute terrorists in military tribunals at GTMO or in the Federal 
court system?
    Dr. Hicks. Both systems--Article III Federal courts and our 
reformed military commissions--can be used to prosecute terrorists. 
When determining which system--our Article III Federal courts or our 
military commissions--to use to prosecute a particular individual, we 
must remain relentlessly practical, focusing exclusively on which 
option will produce a result that best serves our national security 
interests in light of the unique facts and circumstances of each case.
    DOD and the Department of Justice together developed a prosecution 
protocol for guiding these forum decisions, which are made on a case-
by-case basis. The protocol looks to factors including the nature of 
the alleged offense, the nature and gravity of the conduct alleged, the 
identity of the victims, and the manner of investigation.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                         israeli participation
    29. Senator Collins. Dr. Hicks, not that long ago, the United 
States withdrew from at least one joint exercise with Turkey, due to 
Turkey's refusal to allow Israeli participation. Subsequently, I 
believe we participated in an exercise from which Israel was excluded. 
What advice will you provide to the Secretary of Defense about 
participating in exercises from which Israel has been excluded?
    Dr. Hicks. DOD remains concerned by diminished ties between Turkey 
and Israel and continues to urge both countries to find a creative 
solution to move forward and repair relations. Despite the fact that 
Israel and Turkey have suspended their military cooperation with one 
another and that this has affected our ability to exercise with those 
countries jointly, we continue a range of exercises with both Israel 
and Turkey in other bilateral and multilateral contexts. The United 
States does not permit others to determine our security cooperation 
activities. If confirmed, I would advise the Secretary of Defense to 
continue that policy and support efforts to strengthen our defense 
relationship with Israel.
                                 ______
                                 
    [The nomination reference of Dr. Kathleen H. Hicks 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 19, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Kathleen H. Hicks, of Virginia, to be a Principal Deputy Under 
Secretary of Defense, vice James N. Miller, Jr.
                                 ______
                                 
    [The biographical sketch of Dr. Kathleen H. Hicks, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Dr. Kathleen H. Hicks
Education:
        <bullet> Mount Holyoke College

                <bullet> September 1988-May 1991
                <bullet> A.B., magna cum laude with honors in History, 
                awarded May 1991

        <bullet> University of Maryland, School of Public Affairs

                <bullet> September 1991-May 1993
                <bullet> Master of Public Administration, awarded May 
                1993

        <bullet> Massachusetts Institute of Technology

                <bullet> September 1999-June 2010

                <bullet> PhD in Political Science, awarded June 2010
Employment Record:
        <bullet> Office of the Secretary of Defense

                <bullet> Deputy Under Secretary of Defense for 
                Strategy, Plans, and Forces
                <bullet> 2009-present

        <bullet> Center for Strategic and International Studies

                <bullet> Senior Fellow, International Security Policy
                <bullet> 2006-2009

        <bullet> Office of the Secretary of Defense

                <bullet> Office of the DASD for Strategy

                        <bullet> Director for Strategy
                        <bullet> Chief of Staff for QDR Roles, 
                        Missions, and Organizations Team
                        <bullet> 2005-2006

                <bullet> Office of the ASD for Homeland Defense

                        <bullet> Director for Strategic Planning and 
                        Program Integration
                        <bullet> 2004-2005

                <bullet> Office of the DASD for Resources and Plans

                        <bullet> Deputy Director, Resources
                        <bullet> 2001-2004

                <bullet> Office of the Secretary of Defense Graduate 
                Fellow

                        <bullet> Doctoral Candidate, MIT
                        <bullet> 1999-2001

                <bullet> Office of the DASD for Strategy

                        <bullet> Assistant for Strategy Development
                        <bullet> 1995-1999

                <bullet> Presidential Management Intern

                        <bullet> 1993-1995
Honors and Awards:
        <bullet> Secretary of Defense Meritorious Public Service Medal 
        (2012)
        <bullet> Secretary of Defense Outstanding Public Service Medal 
        (2011)
        <bullet> Excellence in Leadership Award, Department of Defense 
        Senior Women's Professional Association (2011)
        <bullet> Secretary of Defense Meritorious Civilian Service 
        Medal (2006)
        <bullet> Secretary of Defense Exceptional Civilian Service 
        Medal (1999 and 2004)
        <bullet> Distinction, Ph.D. Comprehensive Exams, Massachusetts 
        Institute of Technology (2001)
        <bullet> Department of Political Science Fellowship, 
        Massachusetts Institute of Technology (1999-2001)
        <bullet> Office of the Secretary of Defense Graduate 
        Fellowship, Department of Defense (1999-2001)
        <bullet> University Graduate Fellowship. University of Maryland 
        (1991-1993)
        <bullet> Evelyn Church Wilber Prize. Excellence in U.S. 
        History, Mount Holyoke College (1991)
        <bullet> Inducted, Phi Beta Kappa (1991)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Dr. Kathleen 
H. Hicks in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Kathleen Holland Hicks.
    Kathleen Anne Holland (Maiden Name).

    2. Position to which nominated:
    Principal Deputy Under Secretary of Defense for Policy.

    3. Date of nomination:
    March 19, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 25, 1970; Fairfield, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Thomas Warren Hicks.

    7. Names and ages of children:
    Benjamin Daly Hicks, 13.
    Margaret Elizabeth Hicks, 9.
    Alexander Thomas Hicks, 8.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Point Loma High School, San Diego, CA, 1984-1985.
    Lake Braddock Secondary School, Burke, VA, 1985-1988, High School 
Diploma, May 1988.
    Mount Holyoke College, South Hadley, MA, 1988-1991, A.B., May 1991.
    University of Maryland, College Park, MD, 1991-1993, Masters of 
Public Management, May 1993.
    Massachusetts Institute of Technology, Cambridge, MA, 1999-2010, 
PhD, Political Science, June 2010.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Foreign Affairs Specialist (Career GS), Office of the Under 
Secretary of Defense for Policy, December 1993-May 2005. Pentagon, 
Washington, DC. Titles: Presidential Management Intern (1993-1995); 
Assistant for Strategy (1995-1999); OSD Graduate Fellow (1999-2001); 
Deputy Director for Resources (2001-2004); Director for Homeland 
Defense Strategy, Plans and Forces (2004-2005).
    Senior Executive (Career SES), Office of the Under Secretary of 
Defense for Policy, May 2005-August 2006. Pentagon, Washington, DC. 
Titles: Director for Strategy; Chief of Staff, QDR Roles, Missions and 
Organizations Integrated Process Team (concurrent positions).
    Senior Fellow, Center for Strategic and International Studies, 
August 2006-February 2009. Washington, DC.
    Deputy Under Secretary of Defense for Policy. Pentagon, Washington, 
DC. February 2009-present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Unpaid consultant to the Office of the Deputy Assistant Secretary 
of Defense for Policy Planning, August 2006-February 2009.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Council on Foreign Relations.
    Hospitality Committee Co-Chair, Charles Barrett Elementary School 
Parent Teacher Association, Alexandria, VA.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Jack Reed for Senate, 7/13/2006, $250.
    Jack Reed for Senate, 9/29/2007, $250.
    Obama for President, 9/24/2008, $1,000.
    Obama for President, 4/4/2012, $1,000.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Pass with Distinction, PhD Comprehensive Exams, Massachusetts 
Institute of Technology, 2001.
    Department of Political Science Fellowship, Massachusetts Institute 
of Technology, 1999-2001.
    Office of the Secretary of Defense Graduate Fellowship, Department 
of Defense, 1999-2001.
    University Graduate Fellowship, University of Maryland, 1991-1993.
    Evelyn Church Wilber Prize, Excellence in U.S. History, Mount 
Holyoke College, 1991.
    Phi Beta Kappa, inducted 1991.
    Phi Alpha Theta, inducted 1991.
    Member, Council on Foreign Relations.
    Excellence in Leadership Award, Department of Defense, Senior 
Women's Professional Organization, 2011.
    Secretary of Defense Distinguished Public Service Medal, 2012.
    Secretary of Defense Outstanding Public Service Medal, 2011.
    Secretary of Defense Meritorious Civilian Service Medal, 2006.
    Secretary of Defense Exceptional Civilian Service Medal, 1999 and 
2004.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Force Planning in the 2010 QDR,'' with Samuel J. Brannen, Joint 
Forces Quarterly, Vol. 59, October 2010.
    The Future of U.S. Civil Affairs Forces, with Christine E. Wormuth, 
Center for Strategic and International Studies, 2009.
    Invigorating Defense Governance: Beyond Goldwater-Nichols Phase IV, 
Center for Strategic and International Studies, 2008.
    Transitioning Defense Organizational Initiatives, with David 
Berteau, et. al., Center for Strategic and International Studies, 2008.
    Integrating 21st Century Development and Security Assistance, with 
J. Stephen Morrison, Center for Strategic and International Studies, 
2008.
    U.S. National Security and Global Health: An Analysis of Global 
Health Engagement by the U.S. Department of Defense, with Eugene V. 
Bonventre and Stacy M. Okutani, Center for Strategic and International 
Studies, 2009.
    ``Strengthening AFRICOM's Case,'' CSIS Commentary, with J. Stephen 
Morrison and William M. Bellamy, Center for Strategic and International 
Studies, 5 March 2008.
    ``A New U.S. Command for Africa,'' in Global Forecast: the Top 
Security Challenges of 2008, with Jennifer G. Cooke, Center for 
Strategic and International Studies, 14 November 2007.
    ``AFRICOM,'' CSIS Commentary, with J. Stephen Morrison, Center for 
Strategic and International Studies, 5 October 2007.
    Planning for Stability Operations: The Use of Capabilities-Based 
Approaches, with Eric Ridge, Center for Strategic and International 
Studies, 2007.
    Department of Defense Environmental Programs: Background and Issues 
for Congress, with Stephen Daggett, Congressional Research Service 
Report for Congress (96-218F), 6 March 1996.
    Defense Budget: Alternative Measures of Costs of Military 
Commitments Abroad, Congressional Research Service Report for Congress 
(95-726F), with Stephen Daggett, 16 June 1995.
    Defense Spending: Effect of the Declining Dollar on the Department 
of Defense Budget, Congressional Research Service Report for Congress 
(95-663F), 30 May 1995.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    The nominee responded and the information is contained in the 
committee's executive files.

    17. Commitment regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Kathleen H. Hicks.
    This 25th day of April, 2012.

    [The nomination of Dr. Kathleen H. Hicks was reported to 
the Senate by Chairman Levin on May 15, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 24, 2012.]
                              ----------                              

    [Prepared questions submitted to Mr. Derek H. Chollet by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Goldwater-Nichols was landmark legislation that led to 
dramatic improvements in operational effectiveness, unity of effort, 
and civilian oversight. There is now a generation of military leaders 
who are experienced with operating in a coordinated and joint, multi-
Service environment. I do not see the need to change the provisions of 
this legislation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. See my previous answer.
duties of the assistant secretary of defense for international security 
                                affairs
    Question. DOD Directive 5111.07 (11/7/2008) delineates the 
functions and duties of the Assistant Secretary of Defense for 
International Security Affairs (ASD(ISA)). Under this Directive, the 
ASD(ISA) is the principal advisor to the Under Secretary of Defense for 
Policy (USD(P)) and the Secretary of Defense on international security 
strategy and policy on issues of DOD interest that relate to the 
nations and international organizations of Europe (including the North 
Atlantic Treaty Organization (NATO) and Russia), the Middle East, and 
Africa; their governments and defense establishments; and for oversight 
of security cooperation programs.
    What is your understanding of the duties and functions of the 
ASD(ISA)?
    Answer. The responsibility of the Assistant Secretary of Defense 
for International Security Affairs is to advise and support the Under 
Secretary of Defense for Policy and the Secretary of Defense on defense 
policy and strategy for Europe, the Middle East, and Africa.
                             relationships
    Question. What do you see as the relationship between the ASD(ISA) 
and each of the following?
    The Secretary of Defense.
    Answer. Under the direction of the Under Secretary of Defense for 
Policy, the Assistant Secretary of Defense for International Security 
Affairs advises the Secretary of Defense on international security 
strategy and policy on issues of DOD interest that relate to the 
nations and international organizations of Europe (including NATO), the 
Middle East, and Africa.
    Question. The Deputy Secretary of Defense.
    Answer. Under the direction of the Under Secretary of Defense for 
Policy, the Assistant Secretary of Defense for International Security 
Affairs advises the Deputy Secretary of Defense on international 
security strategy and policy on issues of DOD interest that relate to 
the nations and international organizations of Europe (including NATO), 
the Middle East, and Africa.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Assistant Secretary of Defense for International 
Security Affairs provides similar support to the Under Secretary as 
described above.
    Question. The other Under Secretaries of Defense, including the 
Under Secretary of Defense for Intelligence.
    Answer. At the direction of the Under Secretary of Defense for 
Policy, the Assistant Secretary of Defense for International Security 
Affairs works closely with the other Under Secretaries of Defense, 
including the Under Secretary of Defense for Intelligence, to achieve 
the Secretary's objectives. This includes providing policy input to 
each Under Secretary, as appropriate. that relates to the nations and 
international organizations of Europe, the Middle East, and Africa.
    Question. The Joint Chiefs of Staff.
    Answer. At the direction of the Under Secretary or Principal Deputy 
Under Secretary of Defense for Policy, the Assistant Secretary of 
Defense for International Security Affairs works with the Joint Chiefs 
of Staff to provide support on matters that affect strategy and policy 
for Europe, the Middle East, and Africa, working to ensure that 
military advice is taken into account in an appropriate manner.
    Question. The Secretaries of the Military Departments.
    Answer. The Assistant Secretary of Defense for International 
Security Affairs works with the Secretaries of the Military Departments 
on a broad range of issues related to international security strategy 
and policy.
    Question. The combatant commanders, in particular, the commanders 
of U.S. Central Command, U.S. Africa Command, and U.S. European 
Command.
    Answer. The Assistant Secretary of Defense for International 
Security Affairs works closely with the commanders of U.S. Central 
Command, U.S. Africa Command, and U.S. European Command to support the 
efforts of the Under Secretary of Defense for Policy, Secretary and 
Deputy Secretary, particularly in the areas of strategy and policy, 
contingency planning, and policy oversight of operations.
    Question. The Other Functional and Regional Assistant Secretaries 
of Defense.
    Answer. The Assistant Secretary of Defense for International 
Security Affairs works with the other functional and regional Assistant 
Secretaries of Defense to provide sound policy advice to the Under 
Secretary of Defense and the Secretary of Defense on cross-cutting 
international security strategy and policy issues.
    Question. The Director of the Defense Security Cooperation Agency.
    Answer. The Assistant Secretary of Defense for International 
Security Affairs (ASD(ISA) works with the Director of the Defense 
Security Cooperation Agency on implementation of security cooperation 
activities, such as Foreign Military Sales, with countries in Europe, 
the Middle East, and Africa to ensure that these activities support 
national security policy objectives and strategies.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for the position of ASD(ISA)?
    Answer. I believe that my experiences in government--at the 
Department of State, National Security Council Staff, and as staff in 
the U.S. Senate--as well as my experience dealing with national 
security issues in numerous research institutions, provides me with the 
necessary background to handle the responsibilities of the Assistant 
Secretary of Defense for International Security Affairs. Throughout my 
career, I have worked closely with DOD in shaping and implementing U.S. 
policy in Europe and the Middle East and in managing a wide range of 
international conflicts and crises. Over the years, I have deeply 
appreciated the importance of close civil-military coordination to the 
achievement of U.S. objectives--something that is especially important 
in meeting the new threats and challenges of the 21st century.
                       priorities and challenges
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD(ISA)?
    Answer. If confirmed, I would work to ensure that DOD pursues a 
strategic and balanced approach as outlined in the January 2012 Defense 
Strategic Guidance. Top priorities would include strengthening 
America's alliances with key partners and allies; ensuring the success 
and effective transition of the NATO mission in Afghanistan; preventing 
Iran from acquiring a nuclear weapon; combating terrorism; 
strengthening security and stability across the Middle East; 
maintaining a strong relationship with Israel; pursuing a constructive 
relationship with Russia while supporting the sovereignty and 
independence of Russia's neighbors; and working with the states of 
Africa to meet urgent security challenges and achieve opportunities.
    Question. In your view, what are the major challenges confronting 
the ASD(ISA)?
    Answer. If confirmed, my office will aim to play an important role 
within the Department and the interagency process in developing policy 
for a number of key issues, including among others: countering the 
continuing threat of violent extremism; transitioning security 
responsibility in Afghanistan in a way that protects U.S. vital 
interests; preventing the proliferation of weapons of mass destruction 
(WMD), particularly in Iran; strengthening alliances and partnerships 
globally to further strengthen U.S. and international security; 
advancing U.S. interests in the context of dramatic changes that have 
unfolded and are unfolding in the Middle East and North Africa; and 
continuing to strengthen the U.S. defense posture globally. A key 
challenge will be to support the Under Secretary of Defense for Policy, 
the Secretary of Defense and the U.S. Government in resolving these and 
other issues--and pursuing opportunities--in the context of significant 
fiscal pressures.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would address these challenges by 
undertaking the development and implementation of DOD and interagency 
strategies, policies, and plans on key issues relating to Europe, the 
Middle East, and Africa. I would continue to work closely with other 
components of DOD in support of the Secretary of Defense, as well as 
our interagency counterparts, U.S. allies and partners, and where 
appropriate, the private sector and nongovernmental organizations. I 
would seek to ensure that strategies, policies, and plans are updated 
as needed to reflect new challenges and new opportunities. Under the 
direction of the Under Secretary of Defense for Policy, I would work to 
support the President and Secretary's guidance to shape a Joint Force 
for the future that will be smaller and leaner, but will be flexible, 
agile, ready, and technologically advanced.
                   strategy and contingency planning
    Question. One of the purposes of Goldwater-Nichols was to increase 
military and civilian attention on the formulation of strategy and 
contingency planning.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. I believe that civilian leadership is critical in the 
formulation of strategy and planning. Civilian defense leadership is 
particularly vital in translating broad national security policies and 
principles into the strategic goals that ultimately drive military 
planning. The Joint Staff is a critical partner in the development of 
guidance for contingency planning and provides independent military 
advice to the Secretary of Defense and the President. In addition to 
the provision of written guidance, an important civilian role is to 
review contingency plans submitted for approval by the combatant 
commanders.
    Question. In your opinion, does the civilian leadership currently 
have an appropriate level of oversight of strategy and contingency 
planning?
    Answer. The United States is at a critical time in history--with 
multiple wars, enduring threats, and imminent challenges. Strong 
civilian and military partnership on the range of national security 
issues facing our Nation is vital. I believe that the level of civilian 
oversight is appropriate. But if confirmed, I will examine this issue 
closely and seek to ensure that civilian leadership has the appropriate 
level of oversight on the full range of strategy, planning, and use-of-
force issues, while respecting the importance of receiving independent 
military advice from the Joint Staff and the combatant commanders.
    Question. What steps do you believe are necessary to ensure 
effective civilian control and oversight of strategy and contingency 
planning?
    Answer. I agree with the acting Under Secretary of Defense for 
Policy that DOD should continue to fortify its capacity for strategic 
thinking and strategic planning to ensure that it not only deal with 
the challenges of today but is also well-prepared for those of 
tomorrow.
    The DSG released in January is evidence that the Department thinks 
critically about strategy formulation and its associated resource 
implications--a trend that, if confirmed, I will continue to work to 
reinforce. If confirmed, I would strive to provide the best advice 
possible to the Under Secretary of Defense in the provision of written 
policy guidance and in the review of contingency plans for Europe, the 
Middle East, and Africa.
                           strategic reviews
    Question. If confirmed, what role--if any--will you play in the 
formulation of policy, implementation of policy, and reporting of 
results for each of the following strategies:

          The National Defense Strategy;
          The National Military Strategy;
          The National Strategy for Counterterrorism;
          The Quadrennial Defense Review;
          Global Defense Posture Review; and
          The Quadrennial Roles and Missions Review.

    Answer. With the exception of the National Military Strategy, for 
which the Chairman of the Joint Chiefs of Staff is responsible, the 
Secretary of Defense determines the processes and decisionmaking bodies 
for developing and approving the results of each of these strategic 
reviews. Although a wide range of approaches and mechanisms have been 
employed for these purposes over the years, each review is based on 
candid advice from senior military and civilian leaders and informed by 
relevant data and analyses. If confirmed, I will provide input into 
these reviews on matters that affect strategy and policy for Europe, 
the Middle East, and Africa.
    Question. If confirmed, what recommendations would you make, if 
any, to improve DOD's processes for analysis, policy formulation, and 
decisionmaking relative to each review above?
    Answer. Given my experiences at the State Department and on the 
National Security Council Staff, I have found that the following 
factors have been associated with successful strategic reviews:

        <bullet> All relevant stakeholders are represented in formal 
        review and decisionmaking fora. At DOD, these stakeholders 
        generally include Principal Staff Assistants (PSAs) within the 
        Office of the Secretary of Defense, the Joint Staff, leadership 
        of components, and the combatant commanders.
        <bullet> Leadership of working groups and review groups is 
        assigned to organizations with the predominant expertise and 
        involvement in the issue areas under examination.
        <bullet> The deliberations and findings of working groups are 
        transparent and are vetted with stakeholders before being 
        presented to top leadership.
        <bullet> Senior leadership establishes and maintains hands-on 
        oversight of the overall effort from start to finish.

    Also critical for the success of any strategic review is the 
maintenance of a vibrant, ongoing set of analytical efforts that 
continually assess the ability of current, programmed, and projected 
forces to accomplish key missions. If confirmed, I would recommend that 
insights gained from previous reviews, along the lines of those 
outlined above, be applied to upcoming reviews, including the 
development of the next National Defense Strategy and Quadrennial 
Defense Review.
                department of defense strategic guidance
    Question. The new DSG, ``Sustaining U.S. Global Leadership: 
Priorities for 21st Century Defense,'' announced by President Obama on 
January 5, 2012, sets out the defense priorities for the 21s1 century 
and the key military missions for which DOD will prepare.
    Do you agree with the defense priorities set out in that guidance?
    Answer. Yes.
    Question. If confirmed, what changes, if any, would you recommend 
to those defense priorities?
    Answer. I would not recommend any changes at this time. However, 
like all strategies and guidance, I believe that it will be important 
to review and update this guidance in the future.
                  transatlantic relationship and nato
    Question. In your view, how important to U.S. national security 
interests is the U.S. transatlantic relationship with our European 
partners?
    Answer. NATO remains of vital importance, and is a net provider of 
global security. As President Obama has said, Europe remains the 
cornerstone of our engagement with the world, and NATO is the most 
capable alliance in history.
    The transatlantic relationship is of critical importance to U.S. 
national security, and the transatlantic community has never been more 
closely aligned in confronting the challenges of a complex, dangerous, 
and fast-changing world. In Libya, NATO allies came together with Arab 
and other partners to prevent a humanitarian catastrophe, and to 
support the Libyan people. In Afghanistan, with nearly 40,000 allied 
and partner forces alongside our own, we have built and sustained 
NATO's largest-ever overseas deployment. As Iran has continued to defy 
its obligations under U.N. Security Council resolutions, the United 
States, Europe, and other partners have put in place the toughest 
sanctions yet.
    Question. What do you see as the main benefits and costs of that 
relationship?
    Answer. Keeping NATO strong both politically and militarily is 
critical to ensuring the alliance is ready when it is needed. Allies 
look to the United States for leadership--to craft the compromises 
necessary to move forward, and to lead the way in keeping NATO strong, 
relevant, and credible. NATO forces are in Afghanistan, in the Balkans, 
in pirate-infested waters off Somalia, and last year conducted 
operations in Libya. Future challenges to the United States and our 
allies include ballistic missile proliferation, violent extremism, WMD, 
and global instability. In today's interconnected world, these 
challenges will be best addressed with the United States working 
alongside our allies.
    Question. In your view, what is the role of the NATO alliance in 
meeting U.S. security interests?
    Answer. The United States has important stakes in a strong, 
mutually supportive NATO alliance, and the President has stressed his 
strong desire to rebuild and adapt transatlantic security relationships 
to meet 21st century security challenges. NATO is our most reliable 
source of coalition partners. NATO's new Strategic Concept is an 
important step in ensuring that NATO will continue to play its unique 
and essential role in ensuring the common security of its members, 
including in meeting U.S. security interests, and it will guide the 
next phase in NATO's evolution.
    Question. What are the greatest challenges and opportunities that 
you foresee for NATO over the next 5 years?
    Answer. Over the next 5 years, the top NATO-related challenges 
include achieving durable progress and a successful transition in 
Afghanistan, implementing missile defense in Europe, and stemming the 
deterioration in European military capability. Many of our NATO allies 
have been under-investing in defense capabilities, especially when it 
comes to deployable expeditionary forces. Many have significantly 
reduced their national defense budgets in response to the global 
economic crisis, and some are planning further cuts. A key challenge--
and a key opportunity--will be for allies to determine which 
capabilities must be sustained and how that can be done in a more cost-
effective manner.
    Question. Do you envision further enlargement of NATO within the 
next 5 years? What criteria should the United States apply in 
evaluating candidates for future NATO membership?
    Answer. I agree with the President's statement that NATO's door 
should remain open so long as new candidates are democratic, peaceful, 
and willing to contribute to common security. Which countries would be 
candidates for further engagement and within what timeframe NATO would 
undertake further enlargement are important questions the 
administration would need to address in close consultation with 
Congress and our allies. Each NATO aspirant should be judged on its 
individual merits and progress in implementing political, economic, and 
military reforms.
    Question. Should NATO consider an expanded role for Israel beyond 
the Mediterranean Dialogue?
    Answer. Israel is an active and valued partner of NATO through the 
alliance's Mediterranean Dialogue, which includes practical cooperation 
as well as political dialogue, both bilaterally with NATO and 
multilaterally including the other six Partners in the Mediterranean 
Dialogue. The United States supports and encourages this partnership, 
and encourages other allies and partners to do so as well. The 
Mediterranean Dialogue includes an Individual Cooperation Program, 
developed between NATO and Israel, which outlines Israeli desires for 
engagement with NATO.
                          nato-russia council
    Question. What, in your view, is the potential of the NATO-Russia 
Council (NRC) to serve as a forum for promoting cooperation between 
NATO and Russia on security issues?
    Answer. The NRC, and the NATO-Russia Permanent Joint Council before 
it, have been important drivers of institutionalizing and promoting 
cooperation between NATO nations and Russia since 1997. While there 
have been successes in the relationship, the United States can build on 
existing cooperation and intensify efforts to address the common 
challenges that our nations face in the 21st century.
    The NRC is a dynamic forum for discussions on areas where the two 
countries disagree, and for constructive dialogue to move forward 
practical cooperation in areas of shared concern. Both elements of 
NATO's engagement with Russia are important.
    At the 2010 NATO Summit in Lisbon, leaders endorsed the NRC Joint 
Review of 21st Century Common Security Challenges (Joint Review) that 
identified five key areas for practical cooperation: Afghanistan, 
counterterrorism, counter-piracy, countering WMD, and responding to 
natural and manmade disasters. NATO and Russia have already developed 
cooperation in these areas, and in particular on Afghanistan, which 
remains a common cause between Russia and NATO partners. The NRC also 
cooperates on countering terrorist hijackings of airplanes even as 
Russian and NATO ships continue to help each other fight piracy in the 
Indian Ocean.
                      nato mission in afghanistan
    Question. At the NATO Summit at Lisbon in 2010, the countries 
participating in the NATO-led International Security Assistance Force 
(ISAF) affirmed their support for the goal of having Afghan National 
Security Forces (ANSF) in the lead and providing security throughout 
Afghanistan by the end of 2014.
    Do you support the Lisbon goal of transitioning the security lead 
in Afghanistan to the Afghan security forces by 2014?
    Answer. Yes. I support the strategy that the United States is now 
implementing along with NATO allies and ISAF partners as originally set 
forth at Lisbon. I believe a focused counterinsurgency campaign, with a 
transition plan that includes an enduring U.S. commitment to 
Afghanistan, is the right strategy. It will allow us to help the 
Afghans build security forces and government capacity, which can help 
ensure the security necessary for an Afghanistan that never again 
becomes a safe haven for terrorists.
    While the U.S. and allied strategy in Afghanistan is sound, I also 
believe that both the administration and ISAF should continue to assess 
and adjust as necessary the implementation of the overall strategy 
based on conditions on the ground. If confirmed, I am committed to 
consulting with Congress, and with our allies and partners in this 
regard.
    Question. In your assessment, is NATO on track to achieve this 
goal?
    Answer. Yes. Transition is progressing on a positive track. ISAF 
and the Afghan Government are currently implementing the first two 
tranches of transition, and approximately 50 percent of the Afghan 
population now lives in areas where the Afghans have the lead for 
security. I understand the third tranche is to be announced in the 
spring of 2012 and the fifth and final tranche in mid-2013. As 
transition progresses, Afghan forces have been able to provide 
effective security in transition areas.
    I understand that important challenges remain between now and the 
end of 2014. Safe havens for insurgents in Pakistan and Afghan capacity 
in governance and development remain the most challenging aspects of 
transition. The limited capacity of the Afghan Government to govern 
effectively and to fill government positions at the national and sub-
national levels hinders the ability to assume leadership on these lines 
of operation. Efforts in these areas must underpin the success of the 
security transition in the effort to achieve durable stability in 
Afghanistan.
    Question. It appears likely that the Afghan security forces will 
still need significant assistance and support even after the 2014 
transition. In addition to training and equipment, Afghan security 
forces still lag in certain key enablers, including logistics, airlift, 
and intelligence, surveillance, and reconnaissance.
    What role, if any, do you believe NATO forces should play in 
Afghanistan after 2014?
    Answer. More needs to be done to determine NATO's post-2014 role in 
Afghanistan, but a sustained and weIl-organized international effort to 
train, advise, and assist the ANSF will be critical to their success 
after transition is complete. Going forward, building ANSF enabler 
capacity, improving the functioning of the Ministries of Defense and 
Interior, and fighting waste and corruption will also be critical.
    The United States and other coalition partners must continue to 
provide the requisite fiscal and personnel support to help make this 
happen. Securing the international community's support for the ANSF 
through 2014 and beyond continues to be a major U.S. interagency effort 
ahead of the NATO Summit in Chicago this May. The Summit is an 
opportunity to send a unified message that NATO is on track to achieve 
our Lisbon goals, and advance a cohesive approach to the closing stages 
of this war.
                       building partner capacity
    Question. In the past few years, DOD has requested and Congress has 
provided a number of temporary authorities to build the capacity of 
partner nations or provide security assistance. These include the 
section 1206 global train-and-equip authority, targeted authorities to 
build capacity in Yemen and East Africa, and the Global Security 
Contingency Fund.
    In your view, what are the strategic objectives and priorities for 
DOD's programs for building the capacity of partner nations?
    Answer. In my view, the main strategic objective of the United 
States in building the capacity of foreign partners is to help them 
develop effective and legitimate security institutions that can provide 
for their countries' internal security, and contribute to regional and 
multilateral responses to threats and instability. This, in turn, 
mitigates the burden on U.S. Forces responding to security threats 
outside of the United States, and serves to build a base of countries 
that can effectively participate in multinational coalition-based 
operations.
    Successfully countering violent extremist networks requires 
developing and sustaining a global network of allies and partners that 
is capable and interoperable. Additionally, once partners become 
capable and have sufficient capacity, they are able to help bolster 
regional security in a way that supports U.S. interests. In some cases, 
participation by these partner nations' forces provide cultural and 
linguistic advantages that afford them better access and effectiveness 
than U.S. Forces executing the same mission.
    Finally, efforts to build partner capacity promote interoperability 
between forces and enable the U.S. Military to establish personal 
connections and long-term relationships with foreign counterparts. We 
can never be certain where in the world U.S. Forces may be required to 
operate. Enduring relationships with partner nations are at the core of 
a multinational coalition's strength, helping secure shared access to 
facilities and territory, information, and diplomatic support.
    Question. What improvements, if any, would you recommend, if 
confirmed, to the strategic direction, oversight, and management of 
DOD's programs for building partner capacity to ensure that these 
programs are executed consistent with U.S. national security goals and 
objectives?
    Answer. If confirmed, I would continue to support DOD capabilities 
and investments that encourage and enable partners to develop capable 
security forces and institutionalize the Department's capacity to 
provide high impact security force assistance. I would provide 
recommendations to the Secretary that enable him to make informed 
choices with regard to the location and frequency of DOD activities 
that build partners' security capacity. It is essential in this era of 
shifting focus and constrained resources that we carefully prioritize 
which partners we engage with, how often, and to what end.
    Question. What is your assessment of the implementation and 
effectiveness of DOD's programs for building partner capacity in 
achieving U.S. national security goals and objectives?
    Answer. The Department's capacity-building programs are useful 
tools that contribute significantly to the achievement of our national 
security goals and objectives. These programs are most effective when 
they are closely aligned with the Department of State's foreign policy 
objectives while addressing critical needs as identified by our foreign 
partners.
    For example, in Georgia, our coalition support authorities have 
enabled a relatively small partner nation to serve in Afghanistan, not 
only deploying there with battalion-sized combat units that operate 
without caveats, but punching well above their weight class while doing 
so. The provision of high-mobility vehicles, night vision goggles, 
communications equipment, and training has enabled Georgian forces to 
make a significant contribution to coalition operations, in turn 
lessening the burden on U.S. Forces deployed to Afghanistan.
    Question. In your view, what should be the role of DOD, vis-a-vis 
the State Department and other civilian departments and agencies, in 
efforts to build the capacity of foreign security forces?
    Answer. The United States will be more successful at deterring and 
responding to security challenges when allies and partner security 
forces act in a way that is complementary to U.S. goals and objectives. 
Our experiences in Iraq and Afghanistan, our continuing efforts to 
counter violent extremist organizations and transnational criminal 
organizations, and our preparations for future contingencies clearly 
illustrate the need for capable partners who can apply capabilities 
complementary to U.S. military objectives. In that vein, I believe that 
DOD should sustain and grow the capability to develop partner security 
forces, especially forces to train, advise, and assist partners during 
conflict.
    Building the capacity of foreign security forces is a shared 
responsibility within the executive branch, particularly the 
Departments of State and Defense. Close collaboration between the 
Departments is a key characteristic of the Section 1206 authority, and 
one of its greatest strengths. The Global Security Contingency Fund 
epitomizes this shared responsibility, and represents an opportunity 
for the State Department and DOD to plan for contingencies jointly, and 
to establish a new business model for interagency planning of security 
sector assistance.
                                 russia
    Question. What role will you play, if confirmed, in establishing 
policy with respect to the U.S.-Russia security relationship?
    Answer. DOD has been a proponent and a beneficiary of the reset 
with Russia. The OSD-MOD Defense Relations Working Group and the Joint 
Staff-General Staff Military Cooperation Working Group revived U.S.-
Russia defense and military relations from the low-point after the 2008 
Russo-Georgia War. As a result, DOD has a robust military-to-military 
work plan with the Russian MOD and is constantly looking for ways to 
improve the relationship and contribute to greater security in the 
Euro-Atlantic space.
    If confirmed, I would play an active role in managing the efforts 
of the U.S.-Russia Defense Relations Working Group, as well as 
providing oversight and input to the Joint Staff-led Military 
Cooperation Working Group and the annual U.S.-Russia Military 
Cooperation Work Plan, which is developed by U.S. European Command in 
cooperation with the Joint Staff and the Office of the Secretary of 
Defense for Policy.
    The Defense Relations Working Group, which meets at the Secretary 
of Defense level and consists of eight subworking groups, has proved to 
be an effective venue for advancing the U.S.-Russia security 
relationship. If confirmed, I would chair the Sub-Working Group on 
Global and Regional Affairs, which enables frank and open dialogue with 
our Russian counterparts on issues of key importance, such as the 
Middle East and North Africa, Afghanistan, Pakistan, and Central Asia, 
and others. In addition, if confirmed, I would oversee the Deputy 
Assistant Secretary of Russia, Ukraine, and Eurasian Affairs, which 
leads the planning and coordination for all meetings of the Defense 
Relations Working Group at all levels.
    Question. What do you believe are appropriate objectives for U.S.-
Russian security relations, and what do you believe are the areas of 
common interest between the United States and Russia in the security 
sphere?
    Answer. The United States and Russia should be able to cooperate 
effectively in the many areas where we share common interests; 
communicate effectively in areas where we have competing interests; and 
negotiate reasonably in areas where we have overlapping interests.
    Among the most important areas where the United States and Russia 
have common interests is in countering the proliferation of WMD, 
particularly nuclear weapons. We have had significant cooperation on, 
for example, Iran. The Russians cancelled a major weapons sale worth 
several hundred million dollars to Iran in 2010 and supported UNSCR 
1929, which imposed international sanctions on Iran's ballistic missile 
and nuclear programs. I believe that the United States should continue 
to seek Russian support to ensure that Iran does not develop nuclear 
weapons. Similarly, Russia is a key player in reversing North Korea's 
nuclear and missile programs, and shares common interests in this 
regard. As a third example, the Cooperative Threat Reduction Program 
continues to be one of the most successful cooperative programs in the 
U.S.-Russia relationship. Finally, the United States and Russia share 
strong interests in reducing the likelihood of nuclear war, as 
reflected in the New Strategic Arms Reduction Treaty (START).
    Russia also has an interest in stability in Afghanistan. Our 
efforts in Afghanistan have benefited greatly from improved security 
relations with Russia. The Northern Distribution Network has been 
critical to continued operations given the closure of our Pakistan 
ground lines of communication. Russia allows our military personnel, 
supplies, and equipment to transit its territory by air and rail and 
will soon allow for reverse transit from Afghanistan. Russia has also 
been forward-leaning in identifying possible areas of cooperation on 
counter-narcotics.
    Question. In your view, what steps should DOD take to improve 
security relations with Russia? For instance, would you support 
increased military-to-military relations and exchanges with Russia?
    Answer. The 2012 Military Cooperation Work Plan includes more than 
100 events and comprises activities such as cadet exchanges, exercises, 
senior leader visits, and conferences. Over time, cooperation on a wide 
range of issues may help to build a foundation for more concrete and 
substantive cooperation with Russia.
    Question. Would you support other cooperative programs with Russia, 
including cooperation on missile defense in relation to Iran?
    Answer. I support U.S.-Russian cooperation on missile defenses 
first and foremost because it could improve the effectiveness of U.S. 
and NATO missile defenses, thereby improving the protection of the 
United States, our forces overseas, and our allies. Missile defense 
cooperation strengthens capabilities across Europe to intercept Iranian 
ballistic missiles and would send a strong signal to Iran--in addition 
to those sent by U.S. and international sanctions and diplomacy--that 
Iran's development of missiles and pursuit of nuclear capabilities is 
reducing rather than enhancing Iranian security.
                                  iraq
    Question. President Obama has said that the withdrawal of all U.S. 
military forces from Iraq at the end of 2011 marked the beginning of a 
``new chapter'' in the U.S.-Iraq relationship.
    In your view, what should be the nature of the long-term U.S.-Iraq 
security relationship?
    Answer. Developing a long-term security relationship with Iraq, as 
part of a broader enduring commitment to regional peace and security, 
is one of the highest priorities. This relationship should include 
consultation on regional security issues, and the continued development 
of appropriate Iraqi military capabilities. The Strategic Framework 
Agreement (SFA), as the roadmap for long-term relations, provides the 
framework for the long-term strategic security relationship.
    Question. What in your view are the greatest opportunities for 
U.S.-Iraq security cooperation going forward, and, if confirmed, how 
would you recommend that DOD pursue those opportunities?
    Answer. The Office of Security Cooperation-Iraq (OSC-I), under 
Chief of Mission authority, is the cornerstone of the long-term U.S.-
Iraq strategic security partnership. It will serve as the main vehicle 
to expand our security cooperation relationship with the Iraqis. On a 
daily basis, the OSC-I coordinates security assistance and security 
cooperation activities, and conducts training to support the 
development and modernization of the Iraq Security Forces.
    The Defense and Security Joint Coordination Committee (DSJCC), 
established under the Strategic Framework Agreement, is another vehicle 
to strengthen bilateral relations, including security cooperation. If 
confirmed, I will assist the Under Secretary for Policy in advancing 
both of these important vehicles for expanding our security 
cooperation.
    Question. What do you see as the greatest challenges facing DOD 
with regard to the U.S. security relationship with Iraq and, if 
confirmed, how would you recommend meeting those challenges?
    Answer. Ensuring Iraq's integration into the regional security 
framework will remain an important task. The Department will need to 
continue strengthening its security cooperation activities, while 
helping to expand Iraq's military engagement with key regional 
partners.
    If confirmed, I would support the DSJCC and would seek to bolster 
the U.S.-Iraq defense partnership on a wide array of security matters.
    Question. What is your assessment of the role that Iran is playing 
within Iraq with respect to Iraq's internal security and stability?
    Answer. The Iranian regime will continue to attempt to influence 
the future of Iraq. However, we have seen that there are real limits to 
Tehran's ability to affect the trajectory of Iraq. The Iraqi Security 
Forces have demonstrated the ability to maintain security and prevent 
the emergence of wide-scale violence.
    Question. What additional steps, if any, should the United States 
take to counter Iran's influence within Iraq?
    Answer. The strong, sovereign, self-reliant Iraq we see emerging 
today has no desire to be dominated by Iran or by anyone else. Iraqi 
nationalism is real and powerful, and the Iraqis have consistently 
shown their willingness to resist the Iranians and their surrogates 
when Tehran has overreached. The Iraqis have made clear that they 
desire a strong and enduring relationship with the United States under 
the SFA.
    For DOD, building the capacity of our partners in the region is a 
vital avenue for countering destabilizing Iranian activities in Iraq. 
These efforts have helped shore up the ability of our regional partners 
to defend themselves. The Foreign Military Sales program with Iraq is 
the fourth largest in the Middle East and the ninth largest in the 
world. That represents an Iraqi alignment with the U.S., not Iran. In 
countering Iranian influence within Iraq, it is important for us to 
continue to build on this strategic relationship.
                                  iran
    Question. The President said: ``America is determined to prevent 
Iran from getting a nuclear weapon, and I will take no option off the 
table to achieve that goal.''
    Do you agree that we should leave all options on the table with 
respect to Iran? If so, why? If not, why not?
    Answer. Yes, I agree with the President that all options should 
remain on the table to address Iran's illicit activities. It is DOD's 
responsibility to plan for all contingencies, and through prudent 
military planning, refine options to protect U.S. and partner interests 
from Iranian aggression. However, I continue to believe that diplomacy 
and economic pressure are the most effective tools for changing Iranian 
behavior at this time.
    Question. In your view, what should be the role of DOD for 
advancing the President's policy with respect to Iran?
    Answer. DOD plays a supporting role in the whole-of-government 
strategy of engagement and pressure toward Iran, which is led by the 
Departments of State and Treasury. In addition to DOD's support of 
interagency efforts, it is the responsibility of DOD to plan for all 
contingencies, and to provide the President with a wide range of 
military options should they become necessary.
    Question. What more do you believe the United States and the 
international community could be doing to dissuade Iran from pursuing a 
nuclear weapons program? Specifically, what actions do you believe that 
DOD ought to undertake to support diplomatic efforts to dissuade Iran 
from pursuing a nuclear weapon?
    Answer. The United States has a dual-track strategy of engagement 
and pressure. With the broad support of the international community, 
the United States has steadily increased the pressure on the Iranian 
regime to meet its international obligations. The next round of P5+1 
talks is set for May 23. In support of the whole-of-government 
strategy, DOD builds partnership capacity in the region, maintains a 
robust force presence to enhance stability and deter regional 
aggression, and conducts prudent defense planning.
                       gulf security cooperation
    Question. The administration has been working with Gulf Cooperation 
Council (GCC) governments to enhance regional cooperation and security 
against ballistic missile threats, particularly from Iran.
    What is your view of the potential for missile defense cooperation 
within the GCC to enhance regional security, and how do you see this 
potential cooperation fitting into the U.S. missile defense efforts in 
the Middle East?
    Answer. GCC interest in missile defense cooperation is increasing 
in response to the growing ballistic missile challenges to regional 
security. During the inaugural U.S.-GCC Strategic Cooperation Forum in 
March, foreign ministers stressed the need to expand individual and 
bilateral missile defense cooperation to more multi-lateral 
collaboration. Greater GCC interest and involvement in missile defense, 
including through acquisition of advance missile defense technologies 
and participation in multi-lateral training and exercises, will 
complement U.S. missile defense efforts and enhance the overall 
regional security architecture.
    Question. What role do you see for the sale to the United Arab 
Emirates of Terminal High Altitude Area Defense (THAAD) and Patriot 
missile defense systems in regional security against Iranian missile 
threats?
    Answer. The acquisition of THAAD, advanced Patriot missile 
batteries, and other missile defense technologies bolsters Gulf 
nations' capabilities to defend against a growing number of regional 
air and missile threats. Partner nations' procurement of ballistic 
missile defense (BMD) platforms will lead to improved cooperation and 
help promote interoperability with U.S. BMD assets and enhance overall 
regional missile defense.
            post-arab spring military-to-military engagement
    Question. The past 18 months have brought great change to the 
Middle East and North Africa. These changes may require adjustments to 
our military-to-military engagement efforts throughout the region.
    What is your understanding of U.S. military-to-military engagement 
in the Middle East and North Africa (e.g. Yemen, Tunisia, Egypt, and 
other countries in the region), and what changes--if any--would you 
advocate for in light of the Arab Spring?
    Answer. The developments of the so-called Arab Awakening present 
both strategic opportunities and challenges for U.S. interests in the 
region, and more specifically for U.S. defense objectives. Events of 
the Arab Awakening have clearly demonstrated that military-to-military 
partnerships are critical for protecting enduring U.S. security 
interests, and also for providing a channel through which U.S. defense 
officials can discuss the importance of reform. As partner governments 
in transition continue to implement reform agendas, our military-to-
military relationships remain vital. If confirmed, I will work to 
continue to use our security partnerships to deliver messages on 
reform, focus U.S. security assistance and cooperation activities to 
elevate reform in the security sector, and leverage our military-to-
military relationships to mitigate the risks that arise from the 
uncertain trajectory of regional developments.
                                 israel
    Question. With regard to our relationship with Israel, President 
Obama has stated: ``Our military and intelligence cooperation has never 
been closer. Our joint exercises and training have never been more 
robust. Despite a tough budget environment, our security assistance has 
increased every year. We are investing in new capabilities. We're 
providing Israel with more advanced technology--the type of products 
and systems that only go to our closest friends and allies. Make no 
mistake: we will do what it takes to preserve Israel's Qualitative 
Military Edge--because Israel must always have the ability to defend 
itself, by itself, against any threat.''
    Do you agree with President Obama's position and views with regard 
to the U.S. security relationship with Israel?
    Answer. Yes. The statement that the U.S.-Israel defense 
relationship is stronger than ever is backed by unprecedented actions 
that the administration has taken over the past 3 years to improve 
Israel's security and ensure its Qualitative Military Edge to defend 
itself, by itself, against any enemy, to include previously unmatched 
levels of Foreign Military Financing, missile defense funding for 
Israel's multi-tier rocket and missile defense architecture, and a more 
expansive set of military exercises. This fifth-generation fighter 
technology will also ensure Israel's aerial superiority for decades to 
come. These are just a few examples of the hundreds of tangible efforts 
that are underway to improve Israel's security.
                                 libya
    Question. Operations Odyssey Dawn and Unified Protector saved 
countless Libyans from the potential slaughter at the hands of Muammar 
Qadhafi and his regime and--ultimately--they also ended a more than 4-
decade long reign of a brutal dictator.
    What is your understanding of U.S. policy toward Libya in the post-
Qadhafi era?
    Answer. It is in U.S. interests to build strong ties with the new 
Libyan Government and support the Libyans through their transition to 
democracy, in coordination with our partners and the United Nations 
(U.N.).
    Libya is a resource-rich country and can be expected to fund its 
own reconstruction. However, during this sensitive transition period, 
the administration believes it is prudent to support limited activities 
that are critical to U.S. interests to ensure they take place, such as 
the collection and destruction of MANPADS.
    On security policy, I understand that DOD is committed to working 
with the Libyan Ministry of Defense to encourage a unified, capable, 
and apolitical military that can effectively deny access to extremists 
and maintain effective control over its weaponry--including WMD--that 
is respectful of human rights, and that will be able to work 
constructively with its neighbors toward regional stability.
    Question. What is your understanding of the military-to-military 
relationship between the United States and Libya?
    Answer. Following the end of Operation Unified Protector, I 
understand that DOD is focused on normalizing the bilateral military-
to-military relationship and on mitigating the regional fall-out 
resulting from the turbulence of last year. Given Libya's substantial 
national assets, the United States is seeking to undertake low-cost, 
high-impact activities in close coordination with partners and the U.N.
    Within this context, I understand DOD is prioritizing assistance to 
focus on building institutional capacity and on improving the Libyans' 
ability to counter terrorism, counter weapons proliferation, and secure 
and destroy their chemical weapons stockpiles.
    It is my understanding that DOD has offered the Libyan Ministry of 
Defense advisory support through the Defense Institute Reform 
Initiative and Global Ministry of Defense Advisors programs to assist 
in the process of establishing defense institutions and armed forces. 
Other projected activities include non-lethal train-and-equip missions, 
invitations to multilateral military exercises, professional military 
education at U.S. institutions, and English language training.
    Question. What opportunities and challenges does post-Qadhafi Libya 
present to the United States? If confirmed, what actions would you 
undertake to take advantage of and to address these opportunities and 
challenges?
    Answer. Libya is still very much a country in transition. Its 
prospects are good, but the path to democracy is difficult. There have 
been sporadic instances of militia violence, retributive attacks, and 
power jockeying. The U.S. Government is taking these events seriously, 
but recognizes that they are not systematic or occurring on a scale 
that represents a serious threat to the stability of the new 
government.
    While the challenges are great, the opportunities are even greater. 
There is tremendous goodwill towards the United States in Libya right 
now, and there is a unique opportunity to forge a strong and mutually 
beneficial relationship with a newly emerging democracy.
    The Libyan Government understands the need to consolidate control 
over the militias and I understand that senior Libyan officials have 
assured DOD that they consider the establishment of a national army and 
police force top priorities. Indeed, progress is already being made in 
this area.
                       ballistic missile defense
    Question. In February 2010, DOD issued its report on the first-ever 
comprehensive review of U.S. BMD policy and strategy, the Ballistic 
Missile Defense Review (BMDR), as required by Congress. The BMDR 
established a number of policy priorities, including establishing 
defense against near-term regional missile threats as a top priority of 
missile defense plans, programs, and capabilities.
    Do you support the policies, strategies, and priorities set forth 
in the Ballistic Missile Defense Review?
    Answer. Yes, I support the policies, strategies, and priorities set 
forth in the 2010 Report of the BMDR.
    Question. Do you agree that our missile defense must be fiscally 
sustainable?
    Answer. Yes. DOD has tailored its budget request to fiscal 
requirements. The Department has used a clear set of priorities to 
guide spending decisions in this mission area. It has protected our top 
missile defense priorities, including defending the Homeland, 
implementing the European Phased Adaptive Approach (EPAA), and pursuing 
Phased Adaptive Approaches (PAA) in the Middle East and Asia-Pacific.
    Question. In September 2009, President Obama announced that he had 
accepted the unanimous recommendation of the Secretary of Defense and 
the Joint Chiefs of Staff to pursue a PAA to missile defense in Europe. 
This approach is intended to defend all of Europe against existing and 
emerging threats from Iranian missiles, increasing in capability with 
each of its four phases. Phase 4 of the EPAA is intended to provide a 
capability to defend against potential future long-range missiles from 
Iran that could reach the United States, thus augmenting the existing 
Homeland missile defense capability.
    Do you support the PAA to missile defense in Europe and, if 
confirmed, will you implement it?
    Answer. Yes, I support the EPAA and, if confirmed, I will support 
its implementation.
    Question. Do you agree that any BMD systems (BMDS) that we deploy 
operationally must be operationally effective, suitable, survivable, 
cost-effective, affordable, and should address a credible threat?
    Answer. Yes. I believe that DOD should continue to subject new BMD 
capabilities to testing under realistic operational conditions against 
realistic targets. DOD should invest in BMD capabilities that are 
fiscally sustainable over the long-term, mobile, and relocatable.
    Question. Do you agree that BMD testing needs to be operationally 
realistic, and should include operational test and evaluation, in order 
to assess operational capabilities and limitations of BMDS, prior to 
deploying such systems?
    Answer. Yes. U.S. BMD testing needs to be operationally realistic 
and include robust operational test and evaluation. Realistic testing 
of the system allows us to field new capabilities as they become 
available and integrate them into the BMDS architecture. The fly-
before-you-buy policy outlined in the Report of the BMDR still makes 
good sense.
    Question. The United States and NATO are seeking options to 
cooperate with Russia on missile defense, including the possibility of 
sharing radar and early warning data. President Obama has announced 
that such cooperation would not limit U.S. or NATO missile defense 
capabilities.
    Do you agree that such cooperation could enhance the security of 
the United States, NATO, and Russia against common missile threats from 
Iran, and could send a powerful signal to Iran that could help persuade 
Iran not to pursue long-range missiles or nuclear weapons?
    Answer. Yes. I believe that missile defense cooperation with Russia 
could strengthen common defenses against Iranian missiles, and send an 
important signal to Iran that Russia and the United States are working 
together to counter the acquisition, deployment, and use of ballistic 
missiles.
    Question. Do you agree that, notwithstanding Russian concerns, the 
United States is committed to the continued development and deployment 
of U.S. missile defense systems, including qualitative and quantitative 
improvements to such systems, needed to meet our security needs?
    Answer. Yes. The United States has pursued missile defense 
cooperation with Russia with the clear understanding that we would not 
accept constraints on missile defense and that we would undertake 
necessary qualitative and quantitative improvements to meet U.S. 
security needs.
                                al qaeda
    Question. What is your assessment of the threat posed by al Qaeda, 
its affiliates, and adherents in the geographical area of 
responsibility (AOR) for ASD(ISA) to the United States, our allies, and 
our interests?
    Answer. In the ISA AOR, al Qaeda in the Arabian Peninsula (AQAP) 
poses the most direct threat to the United States. AQAP has exploited a 
year of political unrest in Yemen to expand its area of operations in 
remote provinces, and continues to threaten domestic stability while 
actively plotting operations against the United States.
    AQAP has strong connections to al-Shabaab in Somalia, which 
represents a terrorist threat to the United States and its regional 
interests and is an insurgent problem to the Somali Transitional 
Federal Government and Somali regional administrations.
    In Iraq, al Qaeda in Iraq (AQI) has been significantly weakened. 
Shia militants continue to observe a cease-fire and are engaged in 
reconciliation talks with the Government of Iraq. While AQI has 
attempted to make a comeback, they do not pose a significant threat to 
Iraq's overall stability.
    AQI is also seeking to exploit instability in Syria, further 
fueling an already volatile situation there. In North and West Africa, 
al Qaeda in the Lands of the Islamic Maghreb (AQIM) uses ungoverned 
spaces in the Maghreb and Sahel as a safe haven. Originally focused on 
overthrowing the Government of Algeria, AQIM evolved and now has a 
stated intent to attack Western targets. There are clear indications 
that AQIM is now involved in trafficking arms from Libya.
    Question. What is your understanding of DOD's ongoing effort to 
combat al Qaeda in the geographical AOR for ASD(ISA)?
    Answer. The Department is working closely with multiple regional 
and interagency partners to disrupt, degrade, dismantle, and defeat al 
Qaeda and its affiliates and adherents. The Department provides 
training, advice, and assistance to regional security forces in order 
to build enduring counterterrorism partnerships and capabilities and to 
deny al Qaeda safe haven.
                    africa-related security matters
    Question. The new DSG, ``Sustaining U.S. Global Leadership: 
Priorities for 21st Century Defense,'' announced by President Obama on 
January 5, 2012, sets out the defense priorities for the 21st century 
and the key military missions for which DOD will prepare. The primary 
emphasis of the strategy relates to the Middle East and Asia. The 
strategy makes little reference to Africa and its myriad security 
challenges.
    In light of the emphasis on areas outside of the African continent, 
if confirmed, how would you draw attention to the myriad security 
challenges confronting African nations?
    Answer. The new DSG makes clear that from a regional prioritization 
perspective, the Department will rebalance toward the Asia-Pacific 
region. From a mission perspective, however, the guidance also clearly 
directs a strong focus on counterterrorism and irregular warfare, in 
particular holding al Qaeda and affiliates (AQAA) under constant 
pressure wherever they may be. In light of this focus and growing AQAA 
presence on the continent, I do not anticipate a lack of attention to 
African security challenges.
                 countering the lord's resistance army
    Question. On October 14, 2011, the President announced the 
deployment of approximately 100 members of the U.S. Armed Forces to the 
central Africa region to assist the efforts of regional militaries to 
remove Joseph Kony and his top lieutenants from the battlefield.
    What is your understanding of this ongoing operation in central 
Africa?
    Answer. The United States continues to pursue a multi-faceted, 
comprehensive strategy to help the region eliminate the threat posed by 
the Lord's Resistance Army (LRA). The pillars of this strategy include 
increasing protection of civilians; apprehending or removing Joseph 
Kony and senior commanders from the battlefield; promoting the 
defection, disarmament, demobilization, and reintegration of remaining 
LRA fighters; increasing humanitarian access; and providing continued 
relief to affected communities.
    One part of this strategy is the deployment of U.S. military 
advisors to the LRA-affected region. As part of their advise-and-assist 
mission, the military advisors are building relationships with military 
and civilian leaders and working with regional forces to increase 
overall effectiveness. It is too early to quantify the direct impact of 
the deployment of U.S. advisors, but my understanding is that DOD is 
satisfied with the steady progress of the deployment to date, 
considering the complexity of the operating environment, the number of 
partners involved, and the remoteness of the operational areas. As per 
the President's announcement on April 23, the deployment of U.S. Forces 
will continue. DOD will continue to regularly assess and review whether 
we are making sufficient progress.
    Question. If confirmed, what changes--if any--would you advocate to 
make to this ongoing operation?
    Answer. I look forward to becoming more familiar with this 
operation, if I am confirmed. Based on my understanding of this 
operation and its intent, I believe it is on the right track. I 
understand that several areas for bolstering the operation have been 
identified and are being addressed, including intelligence and 
logistics capacity, building the capacity of partner forces, and 
increasing LRA defections. If confirmed, I will work to reinforce these 
efforts in the months ahead.
                          combating terrorism
    Question. During the summer of 2011, the Obama administration 
released its National Strategy for Counterterrorism. This strategy 
highlights the need to maintain pressure on al Qaeda's core while 
building the capacity of partners to confront mutual threats. The 
strategy also underscores the need to augment efforts to counter 
threats from al Qaeda-linked groups ``that continue to emerge from 
beyond its core safe haven in South Asia.''
    If confirmed, what would be your role within DOD with respect to 
combating terrorism?
    Answer. If confirmed, I would support the Under Secretary of 
Defense for Policy in the formulation of national security and defense 
policy on matters relating to Europe, the Middle East, and Africa, 
including counterterrorism policy. My role, if confirmed, would be to 
assist the Under Secretary of Defense for Policy in formulating, 
coordinating, and presenting the views of the Secretary on 
counterterrorism policy issues. Currently, these are mainly focused on 
the effort to disrupt, dismantle, and defeat al Qaeda, which includes 
operations and activities against its allies, adherents, and 
affiliates, but we also recognize that there are other terrorist groups 
that may seek to cause harm to the United States, its interests, and 
allies.
    Under the direction of the Under Secretary of Defense for Policy, 
if confirmed, I would work closely in my performance of these duties 
with the Under Secretary of Defense for Intelligence, the DOD General 
Counsel, the Joint Staff, and the other regional and functional 
Assistant Secretaries in the Office of the Under Secretary of Defense 
for Policy, particularly the Assistant Secretary for Special Operations 
and Low Intensity Conflict, who has the Department lead for all special 
operations and low-intensity conflict matters. I would carefully 
consider the views of our interagency colleagues and international 
partners to craft whole-of-government solutions to counterterrorism 
problems.
                  multilateral peacekeeping operations
    Question. In testimony before the House Committee on Foreign 
Affairs on July 29, 2009, Ambassador Susan Rice, U.S. Ambassador to the 
United Nations, stated that the United States ``is willing to consider 
directly contributing more military observers, military staff officers, 
civilian police, and other civilian personnel--including more women I 
should note--to U.N. peacekeeping operations.''
    What is your view on whether the United States should contribute 
additional military personnel to both staff positions and military 
observers in support of U.N. peacekeeping operations?
    Answer. In general, if confirmed, I would support considering 
additional contributions of U.S. military personnel to staff officer 
positions, provided that they are positions that would add significant 
value to the mission, and that the mission is a strategic priority for 
the United States.
    Support for international peacekeeping remains an important 
security objective for the U.S. Government, and the United States has a 
stake in the success of U.N. peacekeeping operations. I believe that, 
where practicable, the United States should continue to provide 
military personnel for U.N. peacekeeping operations, especially for key 
staff positions that can help shape the direction and success of the 
mission. If confirmed, I will carefully evaluate any proposals to 
contribute military or civilian personnel to a U.N. peacekeeping 
operation, weighing the potential positive impact of U.S. participation 
in the mission against other military commitments we have around the 
globe, and the estimated cost of U.S. involvement.
    Question. What are the advantages and disadvantages of contributing 
additional military personnel to U.N. operations?
    Answer. There are several potential advantages to contributing 
additional military personnel to U.N. missions: the opportunity to 
shape these missions from the inside and contribute to the success of 
the mission; professional development opportunities for military 
personnel to serve in a combined, multi-lateral environment; and the 
benefit of receiving real-time information and insights on emerging 
threats and crises from places where there might not otherwise be a 
U.S. presence. It also enables an increased professional interaction by 
U.S. military personnel with numerous partner nations' military 
personnel, with whom we may not normally have the opportunity to serve.
    The potential disadvantage of providing additional military 
personnel is the additional demands these assignments would impose on a 
U.S. military force that has seen extensive deployments in recent 
years, and that is still heavily engaged in overseas operations. I do 
not believe that the United States will be in a position to provide 
significant numbers of military personnel to peacekeeping missions at 
anytime in the near future. However, I believe the selective placement 
of even modest numbers or U.S. military personnel, in addition to the 
personnel we currently have assigned to U.N. operation, can have a 
significant, positive effect on U.N. peacekeeping operations.
                     special operations authorities
    Question. Some have advocated providing the Commander of U.S. 
Special Operations Command with new authorities that would, among other 
things, better resource the Theater Special Operations Commands (TSOC) 
and provide Special Operations Forces with additional flexibility and 
funding to build the capacity of partner nation security forces.
    Do you believe additional special operations-specific authorities 
are appropriate? If so, what types of authorities would you suggest?
    Answer. It is my understanding that the TSOCs are essential to all 
facets of the Geographic Combatant Commanders' (GCC) engagement and 
campaign plans. The Department is currently conducting a full-scale 
review of authorities to guarantee that it is providing the TSOCs the 
flexibility and agility to best meet GCC objectives.
                     u.s. military basing in europe
    Question. DOD has announced reductions of approximately 10,000 of 
the 80,000 U.S. military personnel currently stationed in Europe, 
including 2 of 4 brigade combat teams (BCT) in Europe drawing down over 
the next 2 years.
    Do you support the decision to reduce the U.S. Force posture in 
Europe, including the drawdown of two of four BCTs?
    Answer. Yes, I support Secretary Panetta's decision to adjust the 
U.S. force posture in Europe, including the inactivation of two BCTs. 
Over the past 10 years, forces assigned to the U.S. European Command 
(EUCOM) were frequently deployed into the U.S. Central Command AOR, so 
a steady state of two BCTs in Europe now would be an improvement in 
availability. The two remaining BCTs will provide the EUCOM Commander 
with adequate ground maneuver capability to meet operational and 
training requirements. To mitigate the impact of inactivating two BCTs, 
the Department is preparing to initiate the periodic rotation of a 
maneuver battalion task force into the EUCOM AOR in order to promote 
enhanced capacity and interoperability with our European allies and 
partners.
    Question. Do you believe that further reductions in the U.S. Force 
posture in Europe are in order? Why or why not?
    Answer. Maintaining interoperability with European militaries is 
critical to our ability to form effective coalitions to address global 
security challenges. As coalition operations in Afghanistan wind down, 
our ability to train with European allies and partners to prepare for 
future missions is essential. Therefore, we must maintain a strong 
presence in Europe, emphasizing combined training, exercises and 
military cooperation, as well as new capabilities, such as missile 
defense. To this end, we must reorient the remaining U.S. ground forces 
and plans for a U.S. Army rotational battalion toward broad-spectrum 
training, continue implementation of the EPAA (the United States has 
already established a radar system in Turkey and will be stationing SM-
3 missiles in Romania and Poland and forward deploying four BMD-capable 
ships to Spain), and create an aviation detachment in Poland.
                              arms control
    Question. What role will you have, if confirmed, in future arms 
control negotiations, such as a follow-on to the New START treaty?
    Answer. Negotiation of arms control agreements, such as a follow-on 
to the New START treaty, is the responsibility of the Assistant 
Secretary of Defense for Global Strategic Affairs. If confirmed, I will 
work with the Assistant Secretary of Defense for Global Strategic 
Affairs in supporting any future negotiation. Arms control plays an 
important role in advancing U.S. national security by providing 
predictability and stability in certain strategic relationships, 
particularly in U.S.-Russian relations. Arms control should never be an 
end unto itself; nor is it a tool that can be employed without the 
context of a well-prepared and effective military force.
                       detainee treatment policy
    Question. Do you support the provisions of section 1403 of the 
National Defense Authorization Act for Fiscal Year 2006 which state 
that no individual in the custody or under the physical control of the 
U.S. Government, regardless of nationality or physical location, shall 
be subject to cruel, inhuman, or degrading treatment or punishment?
    Answer. I believe the prohibition on cruel, inhuman, or degrading 
treatment or punishment is clearly in America's best strategic interest 
and consistent with American values. During the long history of the 
Cold War, when America's way of life was challenged by a powerful 
competing ideology, we were ultimately successful, in part, because we 
held true to the best ideals and principles that sustained America as a 
shining beacon to millions under totalitarian rule. Power in the 21st 
century will stem as much from the strength and appeal of our ideas and 
moral principles as from our military might. If we are to defeat 
violent extremism, we must hold true to those ideas that make this 
country great and continue to inspire the growth of freedom and 
tolerance around the world.
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. If confirmed, will you take steps to ensure that all 
relevant DOD directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. Yes, I will.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASD(ISA)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                         nuclear modernization
    1. Senator Inhofe. Mr. Chollet, in the 2010 Nuclear Posture Review 
(NPR) and during the discussion on the New Strategic Arms Reduction 
Treaty (START), the administration made substantial commitments to the 
sustainment and modernization of the U.S. nuclear deterrent. Enhanced 
safety, security, and reliability of the nuclear weapons stockpile, 
modernization of the nuclear weapons complex, and maintenance of the 
nuclear delivery systems are integral to maintaining our nuclear 
deterrence. Do you support the triad of bombers with gravity bombs and 
nuclear cruise missiles, ballistic missile submarines, and 
intercontinental ballistic missiles (ICBM)?
    Mr. Chollet. The NPR concluded that U.S. nuclear weapons--including 
the U.S. triad of ICBMs, submarine launched ballistic missiles, and 
nuclear-capable heavy bombers--have played an essential role in 
extending deterrence against nuclear attacks or nuclear-backed coercion 
to our allies and partners. The review determined that each leg of the 
triad presents advantages that warrant the United States retaining the 
triad under the New START. I agree with the review's analysis and 
support its conclusion that retaining each of the three triad legs will 
best maintain strategic stability at reasonable cost, while hedging 
against potential technical problems or vulnerabilities.

    2. Senator Inhofe. Mr. Chollet, it has been reported that President 
Obama is weighing options for sharp new cuts to our nuclear arsenal 
unilaterally, potentially up to 80 percent, proposing 3 plans that 
could limit the number to as low as 300. Is the United States 
considering unilaterally reducing its arsenal of nuclear weapons?
    Mr. Chollet. The NPR states that in the near- to mid-term, the 
United States will reduce its strategic-deployed nuclear force through 
arms control agreements with Russia, initially by the New START. The 
NPR envisions further negotiations with Russia after the entry-into-
force of the New START aimed at achieving additional reductions. As 
Secretary Panetta recently testified, the Department has presented 
options for reducing the nuclear arsenal to the President, but these 
options are not unilateral--rather, they are based on potential 
bilateral negotiations with Russia.

    3. Senator Inhofe. Mr. Chollet, how would a unilateral reduction 
impact our ability to deter, provide extended deterrence, and defend 
ourselves, if attacked?
    Mr. Chollet. The NPR states that any future nuclear reductions must 
ensure deterrence of potential adversaries, strategic stability vis-a-
vis Russia and China, and assurance of our allies and partners. It also 
states that implementation of the Stockpile Stewardship Program and 
nuclear infrastructure investments will facilitate reductions while 
sustaining deterrence under the New START and beyond. The NPR makes 
clear that Russia's nuclear force will remain a significant factor in 
determining how much and how fast the United States is prepared to 
reduce its nuclear forces. Since any planned reduction will take these 
factors into consideration, such a reduction would not negatively 
impact the ability of the United States to deter, provide extended 
deterrence, and defend itself.

    4. Senator Inhofe. Mr. Chollet, how would unilateral reductions 
affect nuclear proliferation?
    Mr. Chollet. I agree with the NPR determination that reducing the 
role and numbers of U.S. nuclear weapons would strengthen the United 
States' ability to persuade our Nuclear Nonproliferation Treaty 
partners to adopt similar measures needed to reinvigorate the 
nonproliferation regime and secure nuclear materials worldwide.

    5. Senator Inhofe. Mr. Chollet, is it important to maintain our 
nuclear triad?
    Mr. Chollet. Yes. As the NPR determined, each leg of the U.S. triad 
of ICBMs, submarine launched ballistic missiles, and nuclear-capable 
heavy bombers presents advantages that warrant the United States 
retaining the triad under New START. I agree with the review's analysis 
and support its conclusion that retaining each of the three triad legs 
will best maintain strategic stability at reasonable cost, while 
hedging against potential technical problems or vulnerabilities.

    6. Senator Inhofe. Mr. Chollet, are you committed to the nuclear 
modernization plan, referred to as the 1251 plan, that was the basis 
for Senate support for the New START Treaty?
    Mr. Chollet. If confirmed, I am committed to supporting, within my 
area of responsibility as the Assistant Secretary of Defense for 
International Security Affairs, the NPR's objective of maintaining a 
safe, secure, and effective nuclear deterrent. The NPR makes clear that 
in order to remain safe, secure, and effective, the U.S. nuclear 
stockpile must be supported by a modern physical infrastructure. While 
the Department is committed to the 1251 Report, it is my understanding 
that budget cuts may require changes to the implementation of the NPR 
and the 1251 Report.

    7. Senator Inhofe. Mr. Chollet, do you support modernization of our 
nuclear weapons labs, and if so, would you characterize this funding as 
national security activities?
    Mr. Chollet. I fully support the modernization of our nuclear 
weapons labs. As stated in the NPR, increased investments in nuclear 
infrastructure and a highly skilled workforce are needed to ensure the 
long-term safety, security, and effectiveness of our nuclear arsenal. 
Funding for modernization supports the full range of nuclear security 
work, including nonproliferation, nuclear forensics, nuclear 
counterterrorism, emergency management, intelligence analysis, and 
treaty verification--all of which I would characterize funding for 
modernization of our nuclear weapons labs as funding to support 
national security activities.
                         strategy pivot to asia
    8. Senator Inhofe. Mr. Chollet, what has changed globally that 
allows the United States to decrease the size of its military?
    Mr. Chollet. As Secretary Panetta has said, the United States is at 
a strategic turning point after a decade of war. The U.S. military's 
mission in Iraq has ended and we are enabling a transition of security 
responsibility in Afghanistan. Targeted counterterrorism efforts have 
significantly weakened al Qaeda and decimated its leadership. Although 
Congress has mandated that the Department of Defense achieve 
significant defense savings, a strategic shift was necessary regardless 
of the Nation's fiscal situation. As the President and Secretary have 
made clear, the reductions the Department is proposing are driven by 
rigorous analysis of the changing security environment. The U.S. Joint 
Force will be smaller and leaner, but it will be more agile, more 
flexible, ready to deploy quickly, innovative, and technologically-
advanced--prepared to meet complex future challenges. Moreover, the 
Secretary has said that the reductions in the Nation's ground forces 
will be structured in such a way that the forces can surge, regenerate, 
and mobilize capabilities needed for any contingency.

    9. Senator Inhofe. Mr. Chollet, has the world become more secure--
has there been an increase in stability in the Middle East, Eastern 
Europe, Africa, the Americas, and Asia?
    Mr. Chollet. I believe that the global security environment is 
changing and presents an increasingly complex set of challenges and 
opportunities--which brings opportunities for both greater stability 
and instability.
    For example, it is clear that U.S. economic and security interests 
are inextricably linked to developments in the arc extending from the 
Western Pacific and East Asia into the Indian Ocean region and South 
Asia. Building and sustaining relationships with allies and key 
partners in this region will be critical to the future stability and 
growth of the region. In the Middle East, regime changes as a 
consequence of the Arab Spring, as well as tensions within and among 
states under pressure to reform, present strategic opportunities but 
also uncertainties. Europe remains our principal partner in seeking 
global and economic security and stability, yet security challenges and 
unresolved conflicts persist in parts of Europe and Eurasia--and the 
economic crises in Europe are deeply concerning. In Africa, a number of 
urgent challenges remain--including terrorist threats, humanitarian 
crises, and armed conflicts--and we must continue working with African 
partners to help foster stability and prosperity throughout the 
continent. The United States must also pursue partnerships with the 
growing number of Latin American nations whose interests and viewpoints 
are merging into a common vision of freedom, stability, and prosperity.
    If confirmed, I will work to strengthen America's alliances with 
key partners and allies, as well as pursue relationships with new 
strategic partners in the Middle East, Europe, and Africa.

                             guantanamo bay
    10. Senator Inhofe. Mr. Chollet, do you still believe we are 
fighting the war on terrorism?
    Mr. Chollet. The 2011 National Strategy for Counterterrorism 
articulates that our principal focus is on fighting those organizations 
that pose the most direct and significant threats to the United 
States--and during the past 3-plus years, we have been doing so with 
greater lethality and precision. We continue relentlessly to fight a 
war against al Qaeda, and its affiliates and adherents--and since 2009 
we have eliminated more key al Qaeda leaders, including Osama bin 
Laden, in rapid succession than at any time since September 11, 2001.

    11. Senator Inhofe. Mr. Chollet, as we capture terrorists or other 
high value targets, do you agree with long-term detention at Guantanamo 
Bay as a primary course of action?
    Mr. Chollet. As President Obama has made clear, the United States 
must work to bring terrorists to justice, consistent with our 
commitment to protect the American people and uphold our values. That's 
why the Obama administration has worked to maintain a viable long-term 
option to keep dangerous individuals off the battlefield and to ensure 
they can no longer threaten the American people or our interests. The 
administration remains committed to closing the detention facility at 
Guantanamo Bay, and to maintaining a lawful, sustainable, and 
principled regime for the handling of detainees there, consistent with 
the full range of U.S. national security interests.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                         israeli participation
    12. Senator Collins. Mr. Chollet, earlier this week it was reported 
that Turkey refused to allow Israel to take part in the North Atlantic 
Treaty Organization (NATO) summit occurring next month. What is the 
U.S. view on Turkey's refusal to consider Israel's participation?
    Mr. Chollet. Contrary to press reporting, NATO issues in which 
Israel is an active partner, such as the Mediterranean Dialogue, are 
not on the agenda for the Chicago Summit--so there was no intention to 
invite Israel. Non-NATO nations attending the Chicago Summit were 
invited to discuss specific summit agenda items related to the 
International Security Assistance Force, the Northern Distribution 
Network, and Smart Defense Initiatives.
    However, I remain concerned about the continued tensions between 
Turkey and Israel. Israel is a key security partner of the United 
States and we would find unacceptable an attempt by any country to 
disrupt our cooperation. If confirmed, I will work to ensure that 
Israel's partnership with the NATO alliance remains strong.

    13. Senator Collins. Mr. Chollet, in general, do you believe that 
Israel's participation in NATO activities has benefited the alliance, 
and if so, what can the United States do to enable Israeli 
participation?
    Mr. Chollet. Israel continues to be an active and valued partner of 
NATO through the alliance's Mediterranean Dialogue program. Israel's 
participation benefits the alliance. Mediterranean Dialogue countries 
work with NATO, both individually and as a group (Israel is one of 
seven current Mediterranean Dialogue partners), for practical 
cooperation as well as political dialogue. That cooperation includes 
individual cooperation programs developed between NATO and each 
respective Mediterranean Dialogue partner; Israel, in 2006, became the 
first Mediterranean Dialogue country to develop such a program, 
outlining its desires for cooperation with NATO, and it is now working 
on an update. Israel actively engages in a full range of political 
dialogue, including at top levels, both bilaterally with NATO and in 
various NATO and Mediterranean Dialogue meetings. The United States 
strongly values Israel as a NATO partner, supports and encourages this 
partnership, and encourages other allies and partners to do so as well.
                                 ______
                                 
    [The nomination reference of Mr. Derek H. Chollet follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 19, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Derek H. Chollet, of Nebraska, to be an Assistant Secretary of 
Defense, vice Alexander Vershbow.
                                 ______
                                 
    [The biographical sketch of Mr. Derek H. Chollet, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Derek H. Chollet
Education:
        <bullet> Cornell University

                <bullet> September 1989-May 1993
                <bullet> Bachelor of Arts Degree awarded May 1993

        <bullet> Columbia University, Department of Political Science

                <bullet> September 1995-1998
                <bullet> PhD Candidate, Department of Political Science 
                (passed exams in 1998)
Employment Record:

        <bullet> The White House, National Security Council Staff

                <bullet> Special Assistant to the President
                <bullet> Senior Director for Strategic Planning
                <bullet> February 2011-present

        <bullet> U.S. State Department, Policy Planning Staff

                <bullet> Principal Deputy Director
                <bullet> February 2009-2011

        <bullet> Obama-Biden Presidential Transition Team

                <bullet> NSC Agency Review Team Member
                <bullet> November 2008-January 2009

        <bullet> Center for a New American Security

                <bullet> Senior Fellow
                <bullet> February 2007-2009

        <bullet> Brookings Institution

                <bullet> Nonresident Fellow, Global Economy and 
                Development Program
                <bullet> February 2006-2009

        <bullet> Georgetown University

                <bullet> Adjunct Associate Professor, Security Studies 
                Program
                <bullet> June 2006-January 2009

        <bullet> Center for Strategic and International Studies

                <bullet> Fellow, International Security Program
                <bullet> February 2005-2007

        <bullet> Kerry-Edwards 2004

                <bullet> Policy Director for National Security
                <bullet> July-November 2004

        <bullet> U.S. Senator John Edwards (D-NC)

                <bullet> Foreign Policy Advisor
                <bullet> August 2002-July 2004

        <bullet> The American Academy in Berlin

                <bullet> Bosch Public Policy Fellow
                <bullet> January-June 2002

        <bullet> The George Washington University, Institute for 
        European, Russian, and Eurasian Studies

                <bullet> Research Associate and Visiting Scholar
                <bullet> February 2001-2002

        <bullet> The Honorable Strobe Talbott

                <bullet> Research Assistant
                <bullet> February 2001-2002

        <bullet> U.S. Mission to the United Nations and Office of the 
        Deputy Secretary of State

                <bullet> Joint Appointment, Chief Speechwriter to U.N. 
                Ambassador Holbrooke and Special Advisor to Deputy 
                Secretary of State Talbott
                <bullet> February 1999-2001

        <bullet> The Honorable Warren Christopher

                <bullet> Research Assistant
                <bullet> May 1997-1999

        <bullet> The Honorable Richard Holbrooke

                <bullet> Research Assistant
                <bullet> January 1997-April 1998

        <bullet> U.S. State Department

                <bullet> Consultant to Bureau of Public Affairs
                <bullet> June 1996-February 1997

        <bullet> The Honorable James A. Baker III

                <bullet> Research Assistant
                <bullet> June 1993-July 1995
Honors and Awards:
        <bullet> State Department Superior Honor Award (November 2010)
        <bullet> State Department Meritorious Honor Award (January 
        2001)
        <bullet> Presidential Fellowship, Columbia University (1995-
        1999)
        <bullet> Graduated magna cum laude, with distinction in all 
        subjects, Cornell University (1993)
        <bullet> Frederick G. Marcham Fellowship, Cornell University 
        (1993)
        <bullet> John F. Kennedy Scholarship, Cornell University (1993)
        <bullet> Harry S. Truman Scholarship (1992)
        <bullet> Dean's List, Cornell University
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. Derek H. 
Chollet in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Derek H. Chollet.

    2. Position to which nominated:
    Assistant Secretary of Defense for International Security Affairs.

    3. Date of nomination:
    March 19, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 17, 1970; Champaign, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Heather Quinn Hostetter.

    7. Names and ages of children:
    Lucas Chollet Hostetter, age: 5 (Born January 8, 2007).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Cornell University, 1989-1993 (BA May 1993).
    Columbia University, 1995-1998 (Ph.D Candidate; no degree, passed 
exams in 1998).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    The White House, National Security Council Staff, Special Assistant 
to the President and Senior Director for Strategic Planning, February 
2011-present.
    U.S. State Department, Policy Planning Staff, Principal Deputy 
Director, February 2009-2011.

        Senior Advisor to Secretary of State Hillary Clinton, and 
        managed 40 person planning staff. Awarded State Department's 
        Superior Honor Award in November 2010.

    Obama-Biden Presidential Transition Team, NSC Agency Review Team, 
November 2008-January 2009.

        Conducted review of NSC structure, process, and personnel for 
        incoming Obama administration.

    Center for a New American Security, Senior Fellow, February 2007-
2009.
    Brookings Institution, Nonresident Fellow, Global Economy and 
Development Program, February 2006-2009.
    Georgetown University, Adjunct Associate Professor, Security 
Studies Program, June 2006-January 2009.
    The George Washington University, Adjunct Associate Professor, 
Elliot School for International Affairs, September 2006-June 2007.
    Center for Strategic and International Studies, Fellow, 
International Security Program, February 2005-2007.
    Kerry-Edwards 2004, Policy Director for National Security, July-
November 2004.

        Senior advisor to Vice Presidential Candidate John Edwards on 
        foreign policy and national security. Traveled full-time with 
        Senator to 34 States, responsible for briefing on policy issues 
        and prep for Vice Presidential debate.

    U.S. Senator John Edwards (D-NC), Foreign Policy Advisor, August 
2002-July 2004.

        Senior advisor to Senator and 2004 Democratic Presidential 
        Candidate on foreign policy and national security.

    The American Academy in Berlin, Bosch Public Policy Fellow January-
June 2002.
    The George Washington University, Institute for European, Russian, 
and Eurasian Studies, Research Associate and Visiting Scholar, February 
2001-2002.
    The Honorable Strobe Talbott, Research Assistant, February 2001-
2002.

        Assisted with the writing of The Russia Hand (2002), a memoir 
        of U.S.-Russian relations during the 1990s.

    U.S. Mission to the United Nations and Office of the Deputy 
Secretary of State, Chief Speechwriter and Special Advisor, February 
1999-2001.

        Joint appointment on the staffs of U.N. Ambassador Richard 
        Holbrooke (as Speechwriter) and Deputy Secretary of State 
        Strobe Talbott (as Special Advisor). Awarded State Department's 
        Meritorious Honor Award in January 2001.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    U.S. State Department, Consultant to Bureau of Public Affairs, June 
1996-February 1997.

        Led effort to produce 360-page classified historical study of 
        the Dayton Peace Accords (declassified in March 2003).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Advisory Board Member, Woodrow Wilson House, Washington, DC 
(Nonprofit Presidential Museum).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Council on Foreign Relations.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2009, Michael Signer for Virginia (Lt. Governor): $250.
    2008, Obama for America: $1,000.
    2006, Paul Aronsohn for Congress (NJ): $200.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Superior Honor Award, Department of State, November 2010.
    Meritorious Honor Award, Department of State, January 2001.
    Presidential Fellowship, Columbia University, 1995.
    Frederick Marcham Fellowship, Cornell University, 1993.
    John F. Kennedy Scholarship, Cornell University, 1993.
    Harry S Truman Scholarship, 1992.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    The nominee responded and the information is contained in the 
committee's executive files.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Derek H. Chollet.
    This 24th day of April, 2012.

    [The nomination of Mr. Derek H. Chollet was reported to the 
Senate by Chairman Levin on May 15, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 24, 2012.]


 NOMINATIONS OF GEN. MARK A. WELSH III, USAF, FOR REAPPOINTMENT TO THE 
GRADE OF GENERAL AND TO BE CHIEF OF STAFF, U.S. AIR FORCE; LT.GEN. JOHN 
F. KELLY, USMC, TO BE GENERAL AND COMMANDER, U.S. SOUTHERN COMMAND; AND 
   LTG FRANK J. GRASS, ARNG, TO BE GENERAL AND CHIEF, NATIONAL GUARD 
                                 BUREAU

                              ----------                              


                        THURSDAY, JULY 19, 2012

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Nelson, Webb, Udall, Hagan, Begich, Shaheen, Blumenthal, 
McCain, Inhofe, Chambliss, Wicker, Brown, Portman, Ayotte, and 
Graham.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Richard W. Fieldhouse, professional staff member; Creighton 
Greene, professional staff member; Jessica L. Kingston, 
research assistant; Michael J. Kuiken, professional staff 
member; Gerald J. Leeling, counsel; and Peter K. Levine, 
general counsel.
    Minority staff members present: Adam J. Barker, 
professional staff member; Pablo E. Carrillo, minority general 
counsel; Daniel A. Lerner, professional staff member; Elizabeth 
C. Lopez, research assistant; Lucian L. Niemeyer, professional 
staff member; and Diana G. Tabler, professional staff member.
    Staff assistants present: Jennifer R. Knowles and Mariah K. 
McNamara.
    Committee members' assistants present: Brian Burton, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Ryan Ehly, assistant to Senator Nelson; David 
Bonine and Gordon Peterson, assistants to Senator Webb; Casey 
Howard, assistant to Senator Udall; Lindsay Kavanaugh, 
assistant to Senator Begich; Patrick Day and Chad Kreikemeier, 
assistants to Senator Shaheen; Kevin Fink and Kathryn Parker, 
assistants to Senator Gillibrand; Anthony Lazarski, assistant 
to Senator Inhofe; Lenwood Landrum, assistant to Senator 
Sessions; Joseph Lai, assistant to Senator Wicker; Charles 
Prosch, assistant to Senator Brown; Brent Bombach, assistant to 
Senator Portman; Brad Bowman and Adam Hechavarria, assistants 
to Senator Ayotte; and Sergio Sarkanay, assistant to Senator 
Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    This morning the committee welcomes three distinguished 
military nominees: General Mark Welsh III, U.S. Air Force, who 
is nominated to be Chief of Staff of the Air Force; Lieutenant 
General John Kelly, U.S. Marine Corps, who is nominated to be 
the Commander, U.S. Southern Command (SOUTHCOM); and Lieutenant 
General Frank Grass, Army National Guard, who is nominated to 
be the Chief of the National Guard Bureau. We thank you all for 
your decades of service to our Nation and for your willingness 
to continue to serve in these positions of such great 
responsibility.
    I would also like to welcome and to thank your family 
members, some of whom are here this morning. The long hours and 
the hard work that are put in by our senior military officers 
requires commitment and sacrifice not only from our nominees 
but also from their families. Our Nation is indebted not just 
to you for your service but to your families. In this regard, 
it is the tradition of this committee to invite each of you 
during your opening remarks to introduce the family members or 
others who are here with you this morning.
    General Welsh, who is the prospective Chief of Staff of the 
Air Force, will face the difficult tasks of recruiting and 
retaining a quality force and maintaining current readiness to 
conduct the ongoing war on terrorism while at the same time 
transforming the Air Force's force structure to deal with the 
threats of the future in the face of difficult cost and 
scheduling problems with the Air Force's major acquisition 
programs.
    Many of the ongoing challenges facing the Department of the 
Air Force have centered on acquisition programs, and as Chief 
of Staff, General Welsh, you will be leading the Air Force in 
defining requirements for the acquisition community to fill. 
Some programs have been proceeding reasonably well, such as the 
tanker replacement program, but too many acquisition programs 
are mired down in problems which, unless resolved, will make it 
difficult, if not impossible to afford the Air Force that we 
need.
    Of perhaps greater concern is the fiscal year 2013 plan for 
realigning force structure for the Air Force where the cuts 
proposed fall disproportionately upon the Air National Guard. 
Historically the Air Force has been credited for having a very 
good relationship with its Reserve components, and that is 
essential because it relies more heavily on the Reserve Forces 
than the other Military Departments. With the presentation of 
the Air Force's fiscal year 2013 proposals for making force 
structure reductions, however, the Air Force appears to have 
decided against relying as much on the Air National Guard to 
provide tactical fighters and airlift capability, and the 
firestorm which erupted from that proposal resulted in Congress 
stepping in. This committee has proposed a creation of a 
national commission on the structure of the Air Force to advise 
Congress on appropriate criteria that should be used for force 
structure when planning the Air Force of the future.
    General Kelly, the SOUTHCOM area of responsibility (AOR) 
includes the Caribbean and Central and South America. The 
primary threat to the United States emanating from SOUTHCOM's 
AOR is the destabilizing impact of transnational organized 
crime. These violent criminal organizations are a real threat 
to national and international security and SOUTHCOM is the hub 
for the Department of Defense's (DOD) activities to counter 
this threat and a critical entity through which Federal law 
enforcement agencies are supported.
    Last summer, the President released the national strategy 
to combat transnational organized crime. General Kelly, you 
will be one of the key implementers in DOD of the President's 
strategy, and the committee looks forward to hearing your views 
on this threat and SOUTHCOM's ongoing role in the 
implementation of this strategy.
    Over the last 2 decades, SOUTHCOM's most significant 
operations have been supporting the Colombian Unified Campaign 
against the Revolutionary Armed Forces of Colombia (FARC), and 
other Colombian terrorist organizations and transnational 
criminal organizations. SOUTHCOM's train and equip activities 
in Colombia have seen success as the Colombian Government is 
back in control of the vast majority of its territory. General 
Kelly, you will be responsible for maintaining this important 
military-to-military relationship.
    The success of SOUTHCOM's support operations in Colombia, 
however, has in part meant that illegal narcotics trafficking 
and the associated destabilizing impacts have shifted into 
Central America, and General Kelly, the support of SOUTHCOM to 
those nations in Central America, including Honduras, El 
Salvador, and Guatemala, will be a key focus of your tenure at 
SOUTHCOM.
    SOUTHCOM will undoubtedly be called upon to assist nations 
in the AOR responding to natural disasters. None of us have 
forgotten the devastating impact of the earthquakes in Haiti 
and Chile or the hurricanes that have struck Central America. 
SOUTHCOM's ability to deploy naval and aviation assets to 
assist recovery in the immediate aftermath of these natural 
disasters is a critical capability, and this committee has 
strongly supported these efforts over the years and will 
continue to do so.
    General Grass, this is the first time this committee has 
held a nomination hearing for the Chief of the National Guard 
Bureau. We are doing so now because of last year's legislation 
making the Chief of the National Guard Bureau a member of the 
Joint Chiefs of Staff with the specific responsibility of 
addressing matters involving non-Federalized National Guard 
forces in support of Homeland defense and civil support 
missions. The Chief of the National Guard Bureau is also a 
principal advisor to the Secretary of Defense through the 
Chairman of the Joint Chiefs of Staff on matters involving non-
Federalized National Guard forces and on other matters as 
determined by the Secretary of Defense and also is the 
principal advisor to the Secretary of the Army and Chief of 
Staff of the Army and to the Secretary of the Air Force and the 
Chief of Staff of the Air Force on matters relating to the 
National Guard, the Army National Guard of the United States, 
and the Air National Guard of the United States.
    General Grass is currently serving as the Deputy Commander 
of U.S. Northern Command, the combatant command responsible for 
Homeland defense and civil support missions to other Federal 
agencies and States in responding to natural or manmade 
disasters. In carrying out these missions, Northern Command 
relies on a well-coordinated and collaborative relationship 
with the National Guard Bureau and State National Guard forces. 
General Grass is also the Vice Commander of the United States 
element of the North American Aerospace Defense Command, our 
bi-national command with Canada to protect the air space and 
maritime approaches to North America. During your tenure at 
Northern Command, there have been notable improvements, 
General, in the authorities and the cooperation between DOD, 
the States, the National Guard Bureau, and the Reserves on 
those civil support missions, and as a result, our Nation is in 
a better position to respond to emergencies.
    Again, we welcome you all. You are extremely well qualified 
for the positions that you have been nominated. Before turning 
to you for your opening statements, I will call on Senator 
McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and I will join 
you in welcoming our nominees and showing appreciation to them 
for their years of service, as well as their family members who 
join them today.
    If each of you is confirmed, the environment that you would 
face will be uncertain and potentially volatile. While we are 
winding down combat operations in Afghanistan, we are also 
facing the most insidious range of threats the country has seen 
in a long time. We are, however, also entering a period of 
declining defense budgets and lower mobilization levels for the 
foreseeable future. What this will mean for the Active and 
Reserve component mix, particularly within the Air Force, and 
how in this context the National Guard will maintain desired 
readiness are open questions. General Welsh and General Grass, 
your vision for the Air Force and the National Guard will be 
vital.
    General Welsh, I also look forward to hearing how you plan 
to cultivate with the prevalence of what the Pentagon's 
acquisitions chief called ``acquisition malpractice'' and what 
the Deputy Secretary of Defense agreed before this committee 
was a culture of corruption, personal accountability in the 
acquisition process, starting with setting realistic and 
reliable requirements, and continually addressing affordability 
across system lifecycles.
    General Grass, the Air Force's plan under its fiscal year 
2013 budget request is to cut almost 10,000 personnel and 
retire or realign various flying units is being challenged by 
some in Congress, including on this committee. I believe that 
the Guard and Reserves must accept and manage some level of 
force reductions, as the Active Force is drawn down due to 
planned budget cuts, and deeper cuts that may occur as a result 
of sequestration. I look forward to your contributions to 
decisions regarding the inevitable military force structure 
reductions.
    General Kelly, the scourge of transnational criminal 
organizations continues to wreak havoc throughout the SOUTHCOM 
AOR. Despite billions of dollars in investment, we have yet to 
make any meaningful and sustainable impact on the flow of 
narcotics and other illicit materials throughout the region and 
ultimately into the United States. As you and I discussed 
yesterday, the best measure of how we are doing in restricting 
the flow of drugs into this country is the price of an ounce of 
cocaine on the street in any major city in America. That price 
has not gone up despite the billions of dollars of effort that 
we have devoted to it. In my view--and we will pursue this more 
in the questioning--we are going to have to have a national 
conversation about drugs and the demand for illegal drugs in 
this country. In the meantime, I think you have to start 
thinking outside the box as to how we can come up with 
innovative ways to restrict or at least dramatically reduce the 
flow of drugs across our southern border which is killing 
Americans--young and old.
    To all our nominees, I would like your military opinions 
about the impact of sequestration: DOD has already been 
directed to cut budgets over 10 years by over $550 billion and 
subject to another $500 billion if Congress and the White House 
do not agree before January on a plan to avoid automatic budget 
cuts known as sequestration. Members of this committee, 
including myself, have been urging the Department to provide us 
with an assessment of how harmful these cuts could be to our 
military readiness, particularly if military personnel accounts 
are not exempted from sequestration, but the President has 
inexplicably maintained that he would veto any legislation that 
would repeal these cuts.
    Just a few days ago, Air Force Chief of Staff General 
Norton Schwartz observed that impending defense cuts could 
invalidate contracts, push the cost of weapons systems higher, 
and if not handled wisely, could turn the military into a 
hollow force. Specifically he said, ``if [these reductions are] 
not done the right way, that is a possibility, maybe even a 
probability.''
    General Welsh and General Grass, if you are confirmed as 
statutory members of the Joint Chiefs of Staff, I will expect 
you, one, to bring to bear on the Joint Chiefs' deliberations 
your best military judgment on whether and how the Air Force 
and the National Guard, respectively, must prepare today for 
the draconian cuts required under sequestration; and two, to 
provide this committee with the benefit of that judgment. If 
you disagree with my expectation, I would like to hear it at 
this hearing.
    Negotiating the Department through this uncertain period 
will require sound and seasoned leadership. With this in mind, 
I look forward to your testimony today.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    I will now insert a statement by Senator McCaskill, 
supporting General Grass, into the record.
    [The prepared statement of Senator McCaskill follows:]
             Prepared Statement by Senator Claire McCaskill
    Mr. Chairman, I want to take this opportunity to say how thrilled I 
am to have a Missourian nominated to be the next Chief of the National 
Guard Bureau. Lieutenant General Grass is taking the reins of an 
extraordinary organization. For more than 11 years, the men and women 
of the National Guard have been deploying to war and they have 
performed admirably. The Reserve component has transitioned from being 
a strategic reserve force to an operational reserve force, and it is 
not going back. This new reality is going to create a new set of 
challenges for members of the Guard, and it is going to take strong 
leadership to make this transition successful. I am confident 
Lieutenant General Grass has the right experience and background, 
including his time in the Missouri National Guard, to address these 
challenges head-on. And I will work with him to take the necessary 
steps to strengthen the Guard for the future.

    Chairman Levin. Let me call first on General Welsh.

STATEMENT OF GEN. MARK A. WELSH III, USAF, FOR REAPPOINTMENT TO 
 THE GRADE OF GENERAL AND TO BE CHIEF OF STAFF, U.S. AIR FORCE

    General Welsh. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member McCain, members of the 
committee, my wife Betty is with me this morning. She is 
sitting to my right in the blue suit in the front row. With her 
is her sister, Dr. Carol Horn; her friend, Mrs. Debbie Mueller, 
wife of Air Force Lieutenant General Steve Mueller; and then 
Mr. Steve Massey, another family friend who is a very proud 
Virginia native and a great patriot.
    Betty and I have been married for 34 years, and I have 
always found our relationship fascinating because she needs me 
for absolutely nothing, and I need her for everything. She is 
the most beautiful, talented, intelligent woman I have ever 
known. She has raised our four great children, Mark, John, 
Matt, and Liz, while I wandered the world. She just rocks. If 
you were confirming her this morning, the hearing would likely 
take about 5 minutes, but I am confident you will be a little 
more deliberate with me. Mr. Chairman, thank you so much for 
allowing her to be here.
    It is a tremendous honor and a very humbling experience to 
be nominated by our Commander in Chief to serve as the Chief of 
Staff of the U.S. Air Force, and I would like to thank the 
President and to thank Secretary Panetta and Secretary Donley 
for their trust and confidence.
    I would also like to thank General Norty Schwartz for his 
dedicated leadership of our Air Force for the past 4 years.
    I believe that history shows us that times are always 
challenging government, and these times are certainly no 
different. But everyone who congratulates me on this nomination 
immediately mentions the significant challenges we face, and 
despite the difficult fiscal environment, I am very excited 
about the opportunity to work with you to find ways to reduce 
our deficit and to keep our Air Force trained, equipped, and 
ready to defend our Nation, its citizens, and its interests.
    I will admit I am even more excited about the opportunity 
to lead the men and women who serve in the world's finest air 
force and to marvel at how they will overcome these challenges. 
Today and every day those airmen move people and cargo to every 
corner of the world. They conduct intelligence, surveillance, 
and reconnaissance (ISR) operations for every combatant 
commander. They conduct lifesaving aeromedical evacuations for 
our wounded warriors and they bring our fallen comrades home to 
the Nation and the families who love them. They clear 
improvised explosive devices. They provide critical re-supply 
with tactical air drops and armed ground convoys. They deliver 
space-based communication, navigation, and missile defense 
warning. They fight shoulder to shoulder with Army, Navy, and 
Marine Corps comrades on the battlefield, and they patrol the 
skies above them, ready to respond when lives are on the line.
    If confirmed, I fully accept the responsibility to stand 
beside Secretary Donley and lead all of those airmen, 690,000 
strong, Active, Guard, Reserve, and civilian airmen who 
selflessly serve our Nation as part of an unbeatable joint 
team. Two very special leaders of that joint team are sitting 
next to me today. National Guard soldiers and airmen alike are 
cheering the nomination of General Frank Grass, and General 
John Kelly is simply a great officer and leader who has 
sacrificed more for this Nation than most of us can even 
comprehend. It is truly an honor to be here with them.
    Mr. Chairman, if you will allow a brief personal reflection 
as I close. I was born into a military family. I was blessed 
with the example of two grandfathers who served in the U.S. 
Army in World War I. My father was an Army Air Corps and then 
U.S. Air Force officer for 34 years. He served in three wars. 
He was the greatest patriot and the best Air Force officer I 
have ever known. If he were alive, Mr. Chairman, you would have 
received a letter from him as both a proud father and a proud 
American thanking you for allowing his son the privilege of 
attending this hearing because this is a privilege.
    Thank you, Mr. Chairman and members of the committee. I 
look forward to your questions.
    Chairman Levin. Thank you so much, General. It was a very 
moving statement.
    General Kelly, you are next.

 STATEMENT OF LT. GEN. JOHN F. KELLY, USMC, TO BE GENERAL AND 
                COMMANDER, U.S. SOUTHERN COMMAND

    General Kelly. Chairman Levin, Senator McCain, 
distinguished members of the committee, I am honored to appear 
before you today as the President's nominee to command U.S. 
Southern Command. It is a privilege to join the other two fine 
officers on this panel, General Mark Welsh and Lieutenant 
General Frank Grass, both of whom I respect immensely and have 
had the pleasure of working with in the past.
    I am joined this morning by my wife Karen who for 35 years 
has been my partner in everything I have done in service to 
this Nation. I certainly would not be here today without her. 
She has done so much and given so much over the years not just 
to the Kellys but to every military family she could touch. I 
am truly honored to introduce her to you today, and with all 
due respect to the other ladies, she is the best looking woman 
in the front row. [Laughter.]
    I also want to mention briefly a few other of my family 
members who could not be here today: my precious daughter 
Kathleen, who spends her every waking hour caring for wounded 
warriors and their families at Walter Reed Army Medical Center; 
my two daughters-in-law, Heather and Andrea, both crazy enough 
to marry marines in a time of war, both women of amazing 
substance and fortitude; and finally, our two sons, John and 
Robert, both marines, both combat veterans with multiple combat 
tours in the fight, both men of amazing character and bravery. 
I wish the five of them could be with us here today.
    I would like to thank Secretary Panetta and President Obama 
for the honor of being nominated. I have been honored to work 
alongside Secretary Panetta for the past year and I sincerely 
appreciate the trust and confidence he and the President have 
shown in considering me for this command.
    I would also like to thank this committee for the support 
it has provided our soldiers, sailors, airmen, marines, and 
their families who serve our Nation every day here at home and 
overseas. I have personally seen the difference your support 
makes day-in and day-out for these heroes.
    Mr. Chairman, for the past 3 years, General Doug Frasier 
has led SOUTHCOM with great distinction. His leadership and 
vision will leave a tremendous legacy which, if confirmed, I 
hope to build upon.
    As you pointed out, Latin America and the Caribbean is a 
region characterized by an array of both nontraditional 
security challenges and merging opportunities. No doubt there 
are any number of threats to our security, not the least of 
which are illicit trafficking particularly in drugs and their 
precursors and the spread and growing sophistication of 
transnational organized crime syndicates. Additionally, cyber 
and energy security, natural disasters, humanitarian crises, 
and malign influences from both inside and outside the region 
are challenges. Each of these, however, also presents an 
opportunity, allowing us to engage, to cooperate, and to 
partner with countries in the region.
    If confirmed, I look forward to working with the men and 
women of SOUTHCOM, as well as the dozens of civilian 
interagency partners, to continue the important mission of 
ensuring the forward defense of the United States by building 
strong, capable partners who share in the cost and the 
responsibility of safeguarding the hemisphere.
    Once again, I am honored, humbled to have been nominated 
for this position and am grateful for the opportunity to appear 
before you today.
    Chairman Levin. Thank you so much, General Kelly, for your 
statement.
    General Grass.

STATEMENT OF LTG FRANK J. GRASS, ARNG, TO BE GENERAL AND CHIEF, 
                     NATIONAL GUARD BUREAU

    General Grass. Chairman Levin, Ranking Member McCain, 
distinguished members of the committee, it is an honor and 
privilege to be here today. I am honored that President Obama 
and Secretary Panetta nominated me to be the 27th Chief of the 
National Guard Bureau.
    I am also honored to testify with General Welsh and General 
Kelly, two great Americans whose combined sacrifice and service 
spans nearly 8 decades.
    I would like to take this opportunity to introduce my wife 
Patricia who has stood by my side throughout my career. My 
service in the National Guard would not have been possible 
without her tremendous family support as she raised our five 
children, Amanda, Joe, Laura, Patrick, and Mark. Over the past 
12 years, our family has grown. We have the addition of a 
wonderful daughter-in-law, two wonderful sons-in-law, and eight 
beautiful grandchildren.
    Mr. Chairman, over the past 4 years, General Craig McKinley 
has led the National Guard Bureau through a historic 
transformation. The National Guard's achievements could not 
have occurred without the tremendous leadership of previous 
Chiefs of the National Guard, Directors of the Army and Air 
National Guard, The Adjutants General (TAG), the senior 
enlisted, and most importantly, the sacrifice and commitment of 
the citizen soldiers, airmen, and their families.
    Today I sit before you with full confidence that your 
National Guard is more ready, more capable, and rapidly 
deployable than ever before in our Nation's history and also 
ready to respond to disasters in our States, territories, and 
the District of Columbia. The past decade has also demonstrated 
that the National Guard is an operational force and a critical 
partner with the Army and the Air Force in all missions, all 
contingencies, and on the North American continent.
    Today our Nation faces a challenging threat environment, 
one that is asymmetric and more dangerous than any other in 
history. These threats come in many forms. The citizen soldiers 
and airmen of the National Guard are skilled combat veterans 
and they will continue to provide value-added solutions to our 
national security.
    If confirmed, I will work to ensure the capabilities gained 
since September 11 are not lost and the investment not 
squandered. I will partner with Congress, with the Army, and 
the Air Force and seek counsel from our adjutants general so 
that the National Guard is always ready and always there.
    To the men and women and families of the Army and the Air 
National Guard, I am humbled to be nominated as your Chief. If 
confirmed, you can know that I will be your strongest advocate.
    I want to thank this committee for your support of the 
National Guard's most valuable assets, our soldiers, airmen, 
and their families.
    Chairman Levin, Ranking Member McCain, and members of the 
Senate Armed Services Committee, I thank each of you for the 
opportunity to appear before you today. If confirmed, I am 
committed to working with this committee to ensure the National 
Guard forces remain a vital part of the best military in the 
world. I look forward to your questions.
    Chairman Levin. Thank you all. I only wish every American 
could have heard your opening statements here today. They are 
extremely powerful, moving statements.
    We have some standard questions that we ask our nominees, 
and I would ask you each to respond--in order to exercise our 
responsibilities--to each of the questions that we ask. Have 
you adhered to applicable laws and regulations governing 
conflicts of interest?
    General Welsh. I have.
    General Kelly. I have.
    General Grass. I have.
    Chairman Levin. Do you agree, when asked, to give your 
personal views even if those views differ from the 
administration in power?
    General Welsh. I do.
    General Kelly. I do.
    General Grass. I do.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Welsh. I have not.
    General Kelly. No, sir.
    General Grass. No.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    General Welsh. I will.
    General Kelly. I will.
    General Grass. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Welsh. I will.
    General Kelly. I will.
    General Grass. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Welsh. They will.
    General Kelly. They will.
    General Grass. They will.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    General Welsh. I do.
    General Kelly. I do.
    General Grass. I do.
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Welsh. I do.
    General Kelly. I do.
    General Grass. I do.
    Chairman Levin. Thank you.
    Let us try 7 minutes for our first round today.
    General Welsh, we have talked in my office about the budget 
of the Air Force for fiscal year 2013, and that budget cuts are 
proportionately deeper in the Air National Guard as compared to 
personnel reductions proposed for the Active Air Force or the 
Air Force Reserve. Can you give us your view of that budget 
request?
    General Welsh. Yes, Mr. Chairman. Thank you.
    I think where we stand with the fiscal year 2013 budget 
request is that clearly when that budget was presented to the 
Hill, it became obvious that we have gotten into a position 
where we have a proposal that is simply not executable. Now, I 
was not part of the discussions and the coordination that led 
to that. I did hear the Air Force briefing to our senior 
leadership about where there was a decision made on the actual 
ratios of force structure to be included, but I have no idea of 
the process to turn that into individual organizations' units 
and equipment.
    Having said that, I think what matters the most today is 
how we move forward from here because we are in a place we 
cannot stay. However we move forward, it has to be together.
    Now, I believe that there needs to be a more inclusive 
coordination process on the budget. Clearly we learned that 
this year. It has to include things like title 32 requirements 
at the front end of the discussion. It has to include better 
coordination and information sharing not just with the Air 
National Guard and the Air Force Reserve but with the National 
Guard Bureau and clearly the link between the National Guard 
Bureau, the Council of Governors, and the TAGs has to be 
energized in a more meaningful and productive way.
    Mr. Chairman, I would offer that, if confirmed, I will work 
very closely with General Grass and with our great Air National 
Guard Commander and our Reserve Director to help adjust this 
process so that we never end up here again.
    Chairman Levin. Okay. Thank you for that.
    General Welsh, let me ask you about a policy question which 
we asked in our prehearing questions, and it relates to 
European bases. You indicated in your answer that we should 
consider reductions and consolidation opportunities in Europe 
and that planning must begin with a careful assessment of the 
enduring missions in Europe, but that you were willing to take 
a look at possible reductions and consolidations. I just wonder 
if you know going in of any possibilities, or you just want to 
go in there with an open mind?
    General Welsh. No, Mr. Chairman. We have been looking at 
this for about a year. We have been discussing with the air 
staff the options that might be available. Some members of DOD 
have visited. We discussed options with them as well.
    I think the most important place that I believe we came to 
at least an initial agreement on is the idea that there are 
some enduring missions that the United States needs to have the 
U.S. air forces accomplish in the European or African 
continents. I think that enduring mission set is fairly easy to 
identify and I included that in my answers to the questions.
    If we can agree on that enduring mission set, the debate 
can then center on the other requirements that the Nation may 
or may not have in Europe in the future. I think that is a 
policy question. I think it involves both the executive and the 
legislative branches of Government. Our part actually is fairly 
simple once those questions are answered. It is to tell you 
exactly what is required and where it would be best situated to 
base the forces to do those types of things that America needs 
options to accomplish.
    Chairman Levin. We are very much interested in the enduring 
missions, of course, and we also very much interested in the 
possibility of consolidations and reductions. We have to make 
some savings and that has to continue to be one possible 
location. So keep us informed on that, if you would.
    General Welsh. I will be happy to, Mr. Chairman, if 
confirmed.
    Chairman Levin. General Welsh, we had a number of sexual 
assaults in the Air Force in 2003. All of the Services and DOD, 
at that time, beefed up their sexual assault prevention and 
response programs. Apparently, though, they have not had yet 
the desired effect because 12 military training instructors, 
for example, at the Air Force basic military training and Joint 
Base San Antonio, Lackland, TX, have been accused now of sexual 
misconduct ranging from unprofessional relationships to rape 
with more than 30 female recruit victims. There are several 
pending courts martial which obviously we would not ask you to 
comment on specifically. A lieutenant colonel squadron 
commander has been relieved.
    But can you give us your assessment of the Air Force's 
sexual assault prevention and response program at this time?
    General Welsh. Yes, Mr. Chairman, I can.
    I think you put your finger on it with your statement that 
what we have been doing is not working. It is not for lack of 
effort. In DOD, the Secretary, the Chairman, our Secretary and 
Service Chief in the Air Force, and the other Service Chiefs 
have been very vocal about this terrible crime, about ways to 
approach preventing it, about care for victims, et cetera.
    We have done a lot of things to try and help over the last 
10 years or so. We have institutionalized training at every 
level from accession training for officer enlisted to commander 
training at the wing commander level in the Air Force. We do 
annual refresher training. We completed bystander intervention 
training for the entire uniformed Air Force over the last 6 
months or so. We have new special prosecutors. We have 
additional Office of Special Investigations investigators who 
specialize in investigating these cases. We have talked about 
it. We have had days in every unit in the Air Force to sit down 
and discuss it. Everyone is trying to do the right thing and 
figure out some way of stopping this, but the fact is we have 
not. In fact, we have not even reversed the trend.
    Now, all those things are good things to do, but it is not 
enough. We have worked on victim care. We have worked on 
reporting. The one thing none of us have figured out how to do 
is stop the perpetrator before the crime.
    Mr. Chairman, I think there is a lot more work to be done 
here. The simple fact is the goal for sexual assault in the 
U.S. Air Force--and I am sure my comrades here would agree with 
me and all our Services--is not a declining trend. It is zero. 
We do not accept that there can be more than zero aircraft 
accidents in a year or zero suicides in a year. In this crime, 
the goal is zero. If you are a commander, if you are not a 
supervisor--or if you are a commander or a supervisor and you 
are not directly and aggressively involved in speaking up about 
this issue in your unit, then you are not part of the solution. 
You are part of the problem. We have to get that 
institutionalized in our Air Force.
    The other thing we need to do, Mr. Chairman, I believe is 
look at a series of things to attack that perpetrator side of 
the equation. Maybe it is better screening on entry into the 
Service. I do not know if there is a tool that will allow us to 
help in that regard to at least identify the predators, but we 
should be looking for them.
    We need to do better small group work, I believe, in our 
U.S. Air Force to better know the people we work closely with, 
nearby. In U.S. Air Forces Europe, we have instituted a program 
to do that over the last several months. I do not know what the 
return on that investment is going to be, but the investment is 
very small. It is about an hour a month to just sit and get to 
know and care more about the people you work with day-to-day 
because I believe that the better you know the airmen around 
you, the better you will take care of them.
    I think there are a series of things we need to do, Mr. 
Chairman, to address this problem. What I know is that we 
cannot rest on our laurels. We have done a lot of work and we 
have made no difference.
    Chairman Levin. We thank you for that. It is a very 
thoughtful answer to an extremely important question.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General Welsh and General Grass, the Secretary of Defense 
has made it very clear that the effects of sequestration in his 
words would be catastrophic and damaging to our national 
security. A few days ago, General Schwartz observed that the 
sequestration could invalidate contracts, push the cost of 
weapons systems higher, and if not handled wisely, could turn 
the military into a hollow force.
    Do you agree, General Welsh, General Grass, with those 
assessments of the impact of sequestration?
    General Welsh. Senator McCain, I agree that the effects 
would be catastrophic. As an operational commander sitting in 
my current job, of course, I think just doing due diligence of 
operational activity in the field, that would be affected 
instantly by sequestration cuts. We have tried to look at what 
would be the impact, and even at the operational level, the 
impact is almost immediate just from the perspective training 
and readiness. If you assume a 14 percent budget cut across the 
board, which is what I am assuming as I look down the road, 
everything is affected. Our ability to provide ready, 
deployable units is affected. Our ability to keep airplanes 
flying and training specific munitions to support 
counterterrorism activity in either U.S. Central Command's 
(CENTCOM) or U.S. Africa Command's (AFRICOM) AOR is affected. 
Our ability to train new air crews and remotely piloted 
aircraft pilots is affected. Eventually, of course, every 
modernization program is affected in a major way, especially 
some of the key ones that we are going to rely so much on here 
over the next 10 to 20 years as we try and populate the force 
with new capability we need. I think the trade space will 
become readiness and modernization. That is horrible trade 
space to be operating in.
    Senator McCain. General Grass?
    General Grass. Senator McCain, I agree with Secretary 
Panetta, as well as Chairman Dempsey, that sequestration would 
be devastating to DOD.
    Senator McCain. General Kelly, as we have discussed 
previously, one of the major domestic challenges we face is the 
flow of illegal drugs into this country, the majority of which 
comes from south of our border. We know that it has resulted in 
50,000 Mexican citizens being killed in the past few years, the 
breakdown in law and order, the corruption, and that has 
extended throughout our hemisphere. It has destabilized some of 
the smaller countries in Central America. One of the cities, I 
believe in Honduras, is now the murder capital of the world. Is 
that correct, General?
    General Kelly. It is correct, yes, Senator.
    Senator McCain. All of this can be traced to the flow of 
illegal drugs into our country.
    My first question is, do you think that the fact that given 
the cost of an ounce of cocaine in every major city in America 
is not any higher than it was 5 years ago is an indication that 
we are not succeeding in restricting or reducing the flow of 
drugs into this country?
    General Kelly. I agree with that, Senator. It might be the 
best indicator.
    Senator McCain. We know that in Colombia, Plan Colombia was 
a success, but overall it has not impacted the use of drugs in 
this country, and it is probably out of your and my AOR. But 
does this not have a lot to do with the glamorization of the 
use of drugs, the acceptance in certain levels of our society 
that it is kind of the in thing to do? We see that in our media 
quite often in movies and television. Do you have an idea as to 
what we need to do to try to prevent this?
    By the way, before you mention that, would you not agree 
that the majority of the drugs still flow across the Arizona-
Mexico border?
    General Kelly. Senator, to your second point, absolutely. 
Most of the drugs that come into America from the south come 
out of the production fields mostly in Colombia, more so today 
or increasingly out of places like Bolivia, Peru as well. In 
fact, Peru has just overtaken Colombia as the number one source 
of production of cocaine. The cocaine--about 1,000 metric tons 
of it a year starts its journey north to the United States 
mostly out of Venezuela by various means, fast boats, 
submersibles, and aviation. Most of that makes it way----
    Senator McCain. You might relate the anecdote about the 
submarine that you told me yesterday, the cost of a submarine 
being $2 million and----
    General Kelly. Sir, they build these submarines up in the 
smaller rivers in Venezuela primarily, some in Colombia. It 
costs about $2 million. All of it is off-the-shelf technology. 
It takes about a year to build. It takes about $2 million to 
build it, and when it gets to Honduras and offloads to smaller 
vessels, which is the normal way through, they make about a 
$250 million profit. They just turn around and do it again and 
again and again. The profits are just astronomical.
    But to complete the comment, most of it now makes its way 
to Guatemala and Honduras. It is then transshipped up through 
Mexico and across the Texas-Arizona border, particularly I 
think the Arizona border because of the nature of the terrain.
    As far as the glamorization, where the real problem in my 
estimation is--and if you ask anyone in South America, Central 
America, they will tell you the same thing. The real problem is 
in the United States. It is the demand problem. It is huge. It 
is astronomical. I think this country, if my numbers are 
correct--it costs America almost $200 billion a year, the drug 
scourge. That is primarily in lost productivity but obviously 
law enforcement, rehab programs, and what not. $200 billion. I 
think we put something in the neighborhood of about $26 billion 
in terms of domestic and international law enforcement to try 
to keep it from coming here.
    There are huge amounts. Huge amounts. There are 1,000 tons 
or so that start its journey up here every year. Only--only--
500 or 600 tons gets through, but that 500 or 600 tons is 
spread across America to every community, every city, and it 
costs us dearly. The human capital alone is outrageous. I think 
the demand is where the problem starts and frankly I think that 
is where the solution is.
    Senator McCain. There is a very serious problem with 
corruption particularly in these small Central American 
countries.
    General Kelly. Absolutely. As has been pointed out to me 
many times, Honduras, Guatemala, Belize, El Salvador--they have 
had to start to transition to using their military, which no 
one likes and certainly they do not want to, but to transition 
their military which are less corrupt and more effective in 
order to deal with the drug scourge because of the amount of 
corruption in their police departments, and frankly in their 
State houses and capitals.
    Senator McCain. My time has expired. Mr. Chairman, this is 
an issue that really is of some great importance from a 
national security standpoint, and I hope in the future we will 
be able to pursue this issue. The numbers that General Kelly 
just pointed out not only of drugs but the cost to the American 
people and taxpayers is really beyond calculation.
    We look forward to working with you, General Kelly.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain. 
Actually coincidentally the Permanent Subcommittee on 
Investigations, which I chair, had a hearing a couple of days 
ago looking at the money laundering that goes on between Mexico 
and the United States, how that money gets laundered after the 
dirty money is put in play here in the United States, smuggled 
to Mexico, gets into a bank in Mexico which is an affiliate of 
HSBC and comes right back to the United States through 
correspondent accounts with those affiliates of HSBC, a global 
bank. I will not take more time to do it other than to 
recommend to folks like Senator McCain who have fought so hard 
in this area to try to stop this scourge to take a look at the 
way billions of dollars in cash are laundered each year.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to the three of you for your service, for your 
opening statements which I agree with the chairman were very 
compelling. Frankly, your service and your opening statements 
and your testimony remind us--or me--why the U.S. military 
remains perhaps the only great institution in our society that 
continues to enjoy the respect, the almost total respect, of 
the American people and deserve it. I thank you for that.
    General Welsh, in your answers to the committee's advance 
policy questions, when you were asked about your priorities, I 
was quite impressed and interested that your first priority was 
``continuing to strengthen the nuclear enterprise''. I wanted 
to ask you first a few questions about that.
    I assume from that you believe that the continued strength 
of America's nuclear weapons capability is a central part of 
fulfilling our responsibility to protect our national security.
    General Welsh. Senator, I personally do believe that. More 
importantly from my perspective, it has clearly been the policy 
decision of the Nation that we want to maintain this 
capability, and the U.S. Air Force has been tasked with 
maintaining two-thirds of that capability from a triad 
perspective. There has been a lot of work done in our Air Force 
over the last 4 years, as everyone on this committee well 
knows, to try and reverse a trend of seeming inattention and 
actual inattention in some cases to that mission area.
    Senator Lieberman. Right.
    General Welsh. Many people, starting with our Secretary and 
our Chief, have had this as a clear priority and have stressed 
it repeatedly, and our Air Force has listened. We have made a 
lot of progress, but we cannot relax and pat ourselves on the 
back and think we are there because we are not. This is an 
everyday focus area for us and has to be.
    Senator Lieberman. Give us a little more detail on what 
some of the areas of seeming inattention have been or some 
people worried they have been.
    General Welsh. Senator, let me start with the practical 
perspective because that is where I am sitting now. In Europe, 
we have a tactical mission and we have a security problem that 
we deal with. We found, even though there were not major 
problems in the past in Europe with that particular mission 
set, there were a number of things that had just over time 
become less than ideal, if I could say it that way. Equipment 
that had gotten old and there was no clear replacement plan, 
mission discussions that had gotten routine, focus on the 
particular mission set which was not what we were doing day-to-
day with our operational crews that had become secondary to the 
warfight that was going on in the Middle East, understandable 
from a human perspective, unacceptable from an institutional 
perspective.
    I think the actions that our Chief and Secretary have taken 
to refocus on this problem, to reorganize internally, to stand 
up Air Force Global Strike Command and organizations like the 
Nuclear Warfare Center that focus on the details required to 
keep discipline in all parts of this enterprise have been very 
helpful for us.
    Senator Lieberman. Some groups of citizens, respected 
citizens, including some retired military, have called in 
recent times to set the goal of the elimination of nuclear 
weapons and as part of that have suggested that the United 
States unilaterally could and should reduce the number of 
nuclear warheads that we have. I wanted to ask you to, if you 
would, give your response to those ideas.
    General Welsh. Senator, my personal opinion is that the 
concept of reciprocity is very important in the deterrence 
business. I do not think we should unilaterally lower the 
numbers that have been recommended by groups recently.
    Senator Lieberman. Thank you.
    One other question, General Welsh, about the F-35A Joint 
Strike Fighter (JSF). You have identified it as your top 
modernization priority. However, as we talk about the 
devastating impact of sequestration, I think we also have to 
acknowledge that the Budget Control Act has already put, if not 
devastating, very damaging, in my opinion, restraints on our 
military spending. The fiscal year 2013 budget proposal cuts 
almost 200 more F-35s from the 5-year defense plan.
    I wanted to ask you, are you satisfied with the progress 
made by the F-35 program over the past year, and do you support 
the current program of record for 1,700 F-35As over the long-
term?
    General Welsh. Senator, I will admit freely up front I have 
not been involved day-to-day over the last year with the 
progress of the program. I will tell you what I believe based 
on my assessment of the program as it stands today.
    I am excited about the F-35 program because I believe the 
Nation needs it. As an operational commander, I know the threat 
is there that this will help us deal with. Just looking at a 
potential scenario in Syria, you can see the application of 
this weapons system very clearly as part of a joint team, not 
just as an Air Force effort, and it can enable other joint 
activities on the battlefield.
    Our international partners--six of the seven principal 
partners are in Europe, and they are very excited about this 
capability and are relying on us to deliver, as is our Air 
Force. We are committed to this.
    I am concerned about the program not just because of the 
Budget Control Act but because of the problems we have had in 
the program development to this date.
    Senator Lieberman. I agree.
    General Welsh. Our manufacturing process, our assembly line 
is not up to speed and running to the level we had hoped it 
would be at this point in time, which means that we have not 
been able to build and deliver jets on schedule or on an 
accurately predicted cost. I think that cost is a major 
concern. If we cannot clearly identify how much this airplane 
will cost to buy and to fly after we acquire it, then we really 
have no idea how many airplanes we can afford or how many we 
should expect to receive in a realistic look to the future.
    I think pressure on the company, on the acquisition process 
internal to the Department is mandatory. We have to stay 
focused every day, and if confirmed, that would be a daily 
event for me.
    I will tell you, sir, that I also believe that there are 
some good things happening. The aircraft that have been 
delivered that we have flown almost 1,900 hours on the Air 
Force variant of the JSF are performing very well in the test 
programs. The pilots are making comments like ``dependable, a 
great performance'', so there are some good trends occurring. 
We have just started local area activity and local area 
operations to fly in the Eglin area to prepare for our upcoming 
training program, which we hope to start by the end of the 
year.
    I would just go back to the idea that if we continue this 
progress that we seem to be moving down toward, the production 
schedules are starting to meet the expected windows now. We 
have to continue this because I am excited about the airplane, 
sir.
    Senator Lieberman. Thank you very much. I am afraid my time 
is up. Thank you very much. Good luck.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me repeat what has already been said. We appreciate so 
much the service of all three of you and look forward to 
serving with you.
    General Welsh, if I do not run out of time, I do want to 
talk about the aging fleet.
    Let me tell you how much I appreciate all three of you 
spending time personally with me in my office. I think that is 
more productive than these hearings. But I may want you to 
answer that question for the record.
    On the C-130 Avionics Modernization Program (AMP), it has 
been very popular by all segments right now. We have had three 
of the four defense committees supporting this in their early 
markups. General Schwartz had said the Air Force C-130 AMP 
provides military capability equal to or greater than the 
alternative programs and at less cost than those programs.
    Now, I know that in the President's budget that they have 
terminated this program or not necessarily terminated it but 
they talk about the C-130 AMP light. It is my understanding--
and I have gone into this and looked at it--that there are a 
lot of considerations that were not made in that evaluation. 
For example, the light program does require to have a navigator 
on board. If we were to find that the C-130 AMP can actually be 
acquired cheaper than the C-130 light program, would you 
support that?
    General Welsh. Thank you, Senator. I will tell you that I 
was not involved in the discussions related to the AMP or the 
adjustments to it, so I cannot speak for the Secretary or the 
Chief on the decisions they made.
    My general understanding of it is it was part of meeting 
the Budget Control Act discussions where they made some very 
tough choices of what could go versus higher priority things--
--
    Senator Inhofe. Okay, yes. What I was getting at, though, 
is in the event that it turns out that the program is less 
expensive than the light program. You can do that for the 
record, if you want to, just let me know what your feelings 
are.
    [The information referred to follows:]

    Yes, the Air Force would support the C-130 Avionics Modernization 
Program (AMP) if it were cheaper than the C-130 AMP Light Program. The 
Air Force is committed to and supports fielding a low-cost solution 
that provides the necessary capabilities that ensure the C-130 legacy 
fleet meets mandated communication, navigation, surveillance/air 
traffic management requirements for global operations beyond 2020, 
until the legacy fleet can be recapitalized.

    Senator Inhofe. Also for the record, because there would 
not be time to get to it, would be the Joint Surveillance and 
Target Attack Radar System (JSTARS) program. Again, quoting 
General Schwartz, he says notwithstanding the analysis of 
alternatives (AOA), we will continue with the combination of 
the JSTARS capability on the Block 4 Global Hawk. I would like 
to have you for the record give us your opinion and evaluation 
of that program, if you would do that.
    General Welsh. Yes, sir, I will. Thank you.
    [The information referred to follows:]

    The Air Force's plan is to continue to provide joint and coalition 
forces with a combination of capabilities like Joint Surveillance and 
Target Attack Radar System (JSTARS) and Global Hawk Block 40 that 
combine ground moving target indicator, extended range, endurance, 
stand-off wide-area sensors, and all weather capabilities. The JSTARS 
has repeatedly demonstrated its role as a key battle management, 
command and control, and surveillance platform and will remain an 
important capability supporting those requirements. Our Global Hawk 
Block 40s are being fielded ahead of schedule as an early operational 
capability and developmental testing is encouraging.

    Senator Inhofe. The chairman in his opening remarks, 
General Kelly, talked about the train and equip program, and I 
would add to that what I would call the Commander's Emergency 
Response Program. I think they have renamed that the Combatant 
Commander's Initiative Fund program, the 1206 train and equip 
International Military Education and Training (IMET) program. 
That is a big thing in the area where you are going. As a 
matter of fact, I think in Costa Rica, the defense minister is 
a product of our IMET program and he has been talking about 
this.
    At the same time, I am happy to say that we have taken a 
different look at this than we used to. We used to consider we 
are doing a favor to these countries when in fact they are 
doing a favor to us. We know that China is involved in the area 
where you will be going in, so is Iran.
    I would like to have you give your opinion of that program, 
what your plans are for the IMET program in the areas where you 
are going. Train and equip, yes.
    General Kelly. Yes, sir. I think any program of that nature 
that broadens and deepens the relationships with partner 
nations' military-to-military contacts in that part of the 
world or in any part of the world--you get a lot of bang for 
the buck out of that. To the degree that I understand the 
issues, certainly to expand those programs throughout the 
region----
    Senator Inhofe. Yes, okay. I agree wholeheartedly with 
that. Once these relations are developed, they do not end and 
they are always there.
    Now, you are going to have Guantanamo Bay, Cuba, in your 
area. Have you had a chance to spend some time and look and 
evaluate the opportunity we have with that resource, which I 
might say is the best bargain that we have? We pay $4,000 a 
year and half the time they do not even collect it.
    General Kelly. I have certainly not traveled there 
recently, not being confirmed. Obviously, Senator, one of the 
first things I will get intimately involved in, if confirmed--
--
    Senator Inhofe. Okay, that is good.
    General Grass, we talked in my office about the State 
Partnership Programs, and we know there has been a Government 
Accountability Office (GAO) problem with that. In fact, I have 
read that and I agree that changes need to be made. Have you 
thought through, first of all, your evaluation of that program 
and how you are going to overcome some of the problems that are 
there that were called to our attention by the GAO?
    General Grass. Senator, while I served in U.S. European 
Command (EUCOM), I worked the program very closely with EUCOM, 
both with U.S. Air Forces Europe and U.S. Army Europe, and 
found tremendous value from that program. I think as we talked, 
one of the things that have come out of that is additional 
forces from the North Atlantic Treaty Organization (NATO) 
countries, and where we have partnered National Guardsmen, Army 
and Air, to fill out shortfalls in other countries, especially 
in the Balkans and some of those countries that wanted to 
deploy. By providing that additional skill set, we have 
partnered and provided additional forces to EUCOM. For a very 
small amount of money, it has been a tremendous program around 
the map, 64 countries today.
    We have one partnership in Northern Command that I work 
with and that is with Rhode Island and the Bahamas. The 
enduring partnerships and relationships we build--and many of 
our captains, majors will grow up to be colonels and generals 
in the National Guard. Their partners in partner nations will 
do the same. So that relationship--we have celebrated the 20th 
anniversary--will endure. It is definitely money well spent.
    Senator, one thing I think that we have to look at very 
closely and, if confirmed, I will do is to take a look at how 
that money is being spent and make sure that every penny that 
we put into that of taxpayers' dollars is spent toward a 
result.
    Senator Inhofe. My time has expired, but for the record, I 
would like to have each one of you write and give an evaluation 
or answer the question because I have been deeply disturbed, as 
have other members of this committee, on the use of the 
military for other agendas such as the green agenda. We have 
our jolly green fleet on its way out there now. But do you 
think that spending $424 a gallon, as the Navy did, for 20,000 
gallons is in the best interest of our Nation's defense and in 
the Air Force, $59 a gallon for 11,000 gallons? All of this 
could have been done for $3 a gallon I might add--and also the 
$27 a gallon for 450,000 gallons. Is this something that should 
be done in the military or perhaps would it be better done in 
the Department of Energy? As I understand, that is what they 
are supposed to be doing.
    [The information referred to follows:]

    General Walsh. It is critical for the Air Force to continue to 
evaluate energy technologies. Energy is a necessity for all Air Force 
missions and operations, and the Air Force recognizes energy as an 
integral part of its systems and not simply as a commodity. Every 
action taken by the Air Force to improve its energy security and 
efficiency is executed in support of the Air Force mission. Given that 
the Air Force spends over $9 billion a year on energy, the Air Force 
must consider energy initiatives with applicability to the Air Force 
mission.
    General Kelly. I agree that the Department of Defense can and 
should improve efficiencies in energy use and expand in the use of 
alternative energy sources, but it should not necessarily come at the 
cost of manning, training, or equipping the force.
    General Grass. The Department of Defense should improve 
efficiencies in energy use and expand the use of alternative energy 
sources. These efforts require a whole-of-government approach.

    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    I want to thank and commend all you gentlemen for your 
extraordinary service to the Nation and the service of your 
families because, as you recognized, you could not have done it 
without their unflinching day-in and day-out support.
    I want to particularly recognize General Kelly. I have had 
the privilege of knowing this great officer for many years. No 
marine, no family has made a greater contribution to the 
defense of this country than the Kelly family. I recall when 
you were shepherding folks around here on the Hill and then 
being with you when you commanded forces in Anbar Province, 
then your role recently as an assistant to the Secretary of 
Defense has been absolutely vital. I know Secretary Panetta 
deeply appreciates your contribution.
    So, General, good luck. I think you are going to do a great 
job. The only thing I anticipate is that your mastery of 
Spanish will always have a slight Boston accent. [Laughter.]
    But that is okay.
    General Welsh, again thank you for your service.
    I want to mention a program that is emerging and get your 
viewpoints. That is the association program between regular Air 
Force units and Air National Guard units. I think this has 
great potential in terms of the force structure issues you are 
going to face. We have in Rhode Island the 143rd, which I 
believe is the best C-130J squadron in the U.S. Air Force, 
regular or National Guard, and they are scheduled to be part of 
this. But it might be appropriate, particularly in the context 
of budget pressures, to begin thinking even moving forward with 
this association. It seems to be cost-effective, and also it 
will pool the talents of the Air Force in a way that might be 
unique to the Air Force because someone with 5,000 hours in the 
Air National Guard and 5,000 hours in the regular Air Force 
flying C-130Js is not much of a difference.
    Can you comment on your views on this association project 
going forward?
    General Welsh. Senator, I agree with you and I think the 
Air Force as an institution agrees with you. I have been in 
numerous discussions over the past year to year and a half in 
my current job during visits to the Pentagon where either the 
Secretary or the Chief of Staff of the Air Force has made the 
same comment. We have to look at associations as a solution to 
a number of things moving forward. It is not just cost. It is 
also developing young aviators in the different weapons systems 
at a more rapid pace than we can always do in an Active Duty 
squadron. It is a way of augmenting capability for forward 
deployments. There are a lot of pluses to this, Senator, and I 
think every time we have either a unit stand up, a unit 
restructuring, a force structure change, that part of the 
consideration ought to be the association.
    Senator Reed. Let me open up a broader topic and that is 
you have a situation down at Lackland Air Force Base now which 
has revealed a disappointing situation--and that is being very 
mild. I know you are troubled by it, very much so. We would 
like to think this is an aberration, but are you looking 
closely at the culture of the Air Force--because of all the 
Services, it seems to be the one that is much more specialized 
early on where young enlisted personnel, young officers go into 
very sophisticated specialties, meteorology, flying jet 
aircraft, et cetera, and the organizational supports for the 
basic command issues and troop leading issues sometimes are not 
there because if you are going to be a meteorologist, you are 
really not going to command as a young lieutenant 30 or 40 
people. You are going to be working with other experts usually 
senior noncommissioned officers.
    Do you think about that in a systematic way about whether 
there are some issues that you have to address that are 
fundamental?
    General Welsh. Senator, I believe we have tried to. As I 
said before, however, our projection just for this year is 
roughly 600 reported sexual assaults. What we have been doing 
is not working. We have to look differently at the problem in 
my view. This certainly is not a matter of everyone not trying 
hard.
    Senator Reed. Yes, I know.
    General Welsh. The incident at Lackland clearly from just 
the little I understand, which is what everyone else has read 
in the newspaper, is horrible. It is completely unacceptable 
for any institution, not just for the U.S. Air Force.
    I do not believe the Air Force has a unique problem with 
this crime, but we do have a different environment than the 
other Services. I think each of us needs to look at that 
environment and how it is impacted and whether it presents an 
opportunity for something to get at that predator part of this, 
the perpetrator problem, as opposed to the others, which I 
think we have worked hard at and made some progress, the 
reporting and the victim care. We will never make enough 
progress, but we are at least moving in a positive direction 
there. I think you are right. I think every environment needs 
to be looked at.
    The specific case you mentioned, General Ed Rice at Air 
Education and Training Command, as soon as he knew about the 
problem, has very aggressively done exactly that. He started a 
commander-directed investigation into the specific problem, 
brought in an outside commander-directed investigation to look 
at the larger cultural problem with that particular training 
organization, which spans all the specialties before they 
actually go to specialty training. Senator, I agree with you. 
We have to try anything we can.
    Senator Reed. I think you put your finger on the issue of 
predators because that is absolutely contradictory to what is 
the essential aspect of the American soldiers, airmen, sailors, 
marines, which is selfless service and complete and utter 
dedication to your subordinates, not exploitation of your 
subordinates. That is a lesson that every Service can learn.
    Thank you very much, sir.
    General Grass, congratulations. I am glad that you 
mentioned that Rhode Island has a relationship with the 
Bahamas. General McBride and I were trying to figure out 
yesterday which one of his very astute predecessors figured out 
it was necessary to mentor the Bahaman forces in the middle of 
winter each year. We could not figure it out. But thank you for 
that.
    Your responsibilities on the Joint Chiefs of Staff are 
addressing matters involving non-Federalized National Guard 
Forces in support of Homeland defense and civil support 
missions. These are really the State elements of the National 
Guard that have not been Federalized.
    As you approach this task--and you are sort of a 
groundbreaker. This is months into this new responsibility. Do 
you see this as an essentially two-way street where you will be 
talking to the TAGs about what they have to do with State 
resources to enhance their non-Federal activities rather than 
just simply reporting back to the Joint Chiefs and saying they 
need more help or they need this and they need that?
    General Grass. Senator, first of all, because of the 
Chairman of the Joint Chiefs' position--of course as a 
principal advisor to the Secretary, as well as the Chairman, I 
have to have a very close working relationship, as also with 
the Chief of Staff for the Air Force and Chief of Staff of the 
Army and Secretaries of the Air Force and Army. What I bring to 
the adjutants general is an understanding of what is happening 
inside the Federal Government, inside DOD. From the State 
perspective, I need to be able to understand what needs the 
States have to be able to respond to fires, floods, tornados, 
and be able to come together with our partners within DOD and 
find a balance.
    I just met with the Council of Governors on Sunday and we 
talked a little bit about this. We will be pushing and working 
very closely with the States to understand their requirements 
in the Homeland, especially working with the Federal Emergency 
Management Agency.
    Senator Reed. I think that is entirely appropriate. Given 
what we are all talking about, the budget limitations of the 
Federal Government, as you identify gaps in particularly non-
Federal functions of the National Guard, there seems to be also 
at least the opportunity to talk about how States might, with 
their own resources, begin to fill those. I suspect you are 
going to at least do that.
    General Grass. Senator, in our current assignment out at 
U.S. Northern Command, we set on a path about 2 years ago to 
establish a chemical, biological, nuclear, radiological 
capability across the Nation. Part of that path that we were 
directed by DOD to put together was more regionally based. We 
have learned a lot from that, and it is in forming now regional 
plans and State plans at a level we never dealt with before.
    Senator Reed. No, I think you are going to play a critical 
role, and you are sort of the pioneer. Good luck and thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service. Thank you for your 
excellent testimony already. Thank you for referencing your 
families. We appreciate their service too.
    General Welsh, congratulations on being nominated as our 
next Chief of Staff. You have experience as a commander in both 
Europe and the Pacific, 1 year at Kunsan I believe as wing 
commander.
    General Welsh. Yes, sir.
    Senator Wicker. DOD has announced a new strategic guidance 
encapsulated as ``pivot to the Pacific''. What do you think 
this pivot to the Pacific strategy will mean for the Air Force?
    General Welsh. Senator, I believe what it means to us is 
there is a new strategic focus on the Pacific, meaning that our 
Air Force planning for capabilities to respond to combatant 
commander support needs to be focused on the Pacific first 
without forgetting the activity in the Middle East which 
remains a focus area as well. I think it means that we have to 
start looking at things like development of combat capabilities 
to include weapons, to include tactics where we operate to a 
greater degree in coordination maybe with the U.S. Navy than we 
have in the past because of the battle space that you would 
anticipate for events that would occur in the Pacific. It has 
been clearly a Navy battle space for a long time with a very 
strong Air Force presence in Korea. We have to add the same air 
capability to support activity throughout the region of Pacific 
Command, and I believe we have already started down the road of 
making that integration and training possible and practical 
with the force structure we currently have. We have to continue 
to modernize in that direction.
    Senator Wicker. Changes in basing, changes in movement of 
Air Force personnel?
    General Welsh. Senator, I do not know right now. I have not 
been involved in actual basing discussions on the Pacific. I 
know that Pacific Air Forces is actually doing the same thing 
we have been doing in Europe, but with the focus of ensuring we 
do not lose combat capability in the Pacific. We have been 
looking from the other perspective of trying to maintain a 
partnership while looking at opportunities for reduction and 
consolidation wherever possible. If confirmed, I will be very 
involved in those discussions and will look forward to 
discussing the options with you.
    Senator Wicker. Thank you.
    Let me be specific about one recent development in the 
Pacific Command. I understand that Pacific Command recently 
requested that the Global Hawk currently in theater not be 
removed for retirement. Now, as late as a few months ago, 
Secretary Carter told this Congress and the world how essential 
this program is and the decision was made at some point to 
reverse that.
    Notwithstanding your written answer supplied, that the 
current requirement for high-altitude ISR is being satisfied 
with the Air Force's fleet of 27 U-2 aircraft and its advanced 
multi-intelligence sensors, does the Pacific Command's request 
not imply that our U-2 fleet is not entirely sufficient to meet 
all the combatant commander requests for ISR support from the 
U.S. Air Force?
    General Welsh. Senator, the decision on meeting the 
requirement with the 27 U-2s was based on the Joint 
Requirements Oversight Council-approved requirement for high-
altitude combat air patrols, which was three. The Air Force 
budget position was that the U-2 fleet could meet that 
requirement. The Chief of Staff of the Air Force within the 
last week has decided that we will not remove the Global Hawks 
at this time from either the Pacific, Europe, or the Middle 
East until we have had a chance to take a look at the 
mitigation strategy for replacing that lost combat capability 
as soon as you start to pull the airframes out.
    Senator Wicker. Who made that decision?
    General Welsh. Sir, I believe it was the Chief of Staff. 
That was where I heard the direction come from.
    Senator Wicker. I hope you will continue to work with me 
and with the committee to give us as much detailed information 
as you can about that.
    Let me move to a general question. I am told the Air Force 
has requested a total of only 54 aircraft in this year's budget 
and that to look at this situation historically, the last time 
this small a number was requested before the birth of the Air 
Force was before the birth of the Air Force, before the Army 
Air Force, before the Army Air Corps and before the Army Air 
Service. Is that correct?
    Also, the Air Force has retired or requested to retire 
almost 600 aircraft in the last 4 years.
    Should this committee be concerned about these facts? Do I 
have them correct?
    General Welsh. Senator, you are close. I cannot 
specifically state the exact number, but you are very much in 
the ball park on those numbers.
    I think we should all be concerned about that. I think it 
is a fact of life. As we look to reduce force structure to make 
cost savings, we are going to have to try and modernize the 
force in some way, which means we have to reduce some of our 
force capacity in order to provide the funding to do that.
    I think the big issue for the Air Force is that as we move 
forward, for example, if I am confirmed, I believe one of my 
principal duties is to tell the Air Force story in a way that 
is not couched in Air Force blue. Our story is about supporting 
the combatant commanders and supporting the Nation in its goal 
of national security. I think over time, if you have the U.S. 
Air Force producing fewer aircraft per year than the other 
Services, which is happening over the next few years, then we 
may have the balance wrong. It is incumbent upon us to make 
that clear if that is the way we feel, and if confirmed, I will 
make that a principal responsibility of mine.
    Senator Wicker. Thank you for that answer.
    One final area. We have 10 C-130J aircraft at Keesler Air 
Force Base in my home State of Mississippi. The Air Force 
budget proposes to move these from Keesler. In that case, 
Keesler would be left without a flying mission.
    Now, we have spent considerable taxpayer dollars on 
infrastructure at Keesler. I do not know how involved you have 
been so far in this, but I want you to tell me what you know 
about it and if you cannot, get back to me on the record. What 
business case analysis has been done to support the 
recommendation to transfer C-130s from Keesler to another Air 
Force facility? What do you say to the significant 
infrastructure in place at Keesler to support these C-130s, 
including state-of-the-art simulators, et cetera? What does 
that say about the stewardship of our taxpayers' dollars?
    General Welsh. Senator, I can tell you nothing about the 
discussions that resulted in Keesler being identified for loss 
of the C-130s. I was not part of the discussions. I just do not 
know. I would be glad to take for the record, though, that 
information and get back to you after consulting with the air 
staff.
    Senator Wicker. Okay. I will look forward to that, and 
thank you very much.
    [The information referred to follows:]

    The new DOD Strategic Guidance ``Sustaining U.S. Global Leadership: 
Priorities For 21st Century Defense'' directs the Services to build a 
force that will be smaller and leaner, flexible, ready, and 
technologically advanced. To deliver the capabilities required by this 
strategy and remain within funding constraints, the Air Force made 
difficult choices in all Service core functions. While remaining 
consistent with the new strategy, the Air Force fiscal year 2013 budget 
submission achieves $8.7 billion in savings across the Active and 
Reserve components by retiring over 200 aircraft in fiscal year 2013 
and 286 aircraft over the Future Years Defense Program. Our programmed 
force reductions are wide-ranging and affect over 60 installations, 
including Keesler Air Force Base (AFB).
    Air Force force structure reductions were a total force effort--
Active Duty, Reserve, and National Guard--working together to achieve 
our end state of a ready and sustainable force that can meet our surge 
and rotational requirements. Secretary of the Air Force Michael Donley 
directed the Air Force to realign our forces to better meet this new 
strategic guidance to: ensure the total force can fulfill surge 
requirements; maintain a balance between components that allows us to 
fulfill continuing rotational requirements at sustainable rates; retain 
the recruiting, training, and operational seasoning base that is 
required to sustain the total force's needs into the future; and, 
ensure that the Reserve component remains relevant and engaged in both 
enduring and evolving missions.
    To meet this end, the Air National Guard (ANG) developed five 
Capstone Principles to help guide this transition: allocate at least 
one flying wing with ANG equipment to each state; recapitalize 
concurrently and in balance with the Regular Air Force; manage ANG 
resources with ANG people; adopt missions that fit the militia 
construct; and, build dual-use capabilities (emergency support 
functions) relevant to the States. Similarly, the Air Force Reserve 
principles were: ensure that aircraft reductions do not negatively 
impact operational support to combatant commands; ensure that force 
structure movements do not create any new Air Force bills; ensure that 
risk is minimized by optimizing crew ratios to exploit expected 
increases in mission capability rates; and, consider locations that 
continue to have an Air Force mission due to the presence of another 
Air Force component. This total force approach allowed us to maintain 
the right Active/Air Guard/Reserve mix, which will allow us to meet our 
operational demands with a leaner force while taking care of our 
airmen.
    The Air Force conducted detailed analysis of wartime and disaster 
response scenarios, including Homeland defense, consistent with the new 
DOD strategic guidance. This analysis validated a reduced airlift 
requirement, leaving the Air Force with excess airlift capacity. As a 
result, the Air Force was able to reduce the C-130 fleet by 65 
aircraft. This reduction and the need to remission the total force 
based on the Air Force Reserve guiding principles drove the transfer of 
the C-130Js at Keesler AFB.
    Our planned force structure changes at Keesler do not take effect 
until fiscal year 2014. Until then, all 20 C/WC-130s aircraft remain 
assigned. Even after the departure of 10 C-130Js in fiscal year 2014, 
approximately 1,300 Air Force Reserve personnel will remain employed at 
Kessler AFB to support the remaining 10 WC-130s and their Hurricane 
Hunter mission. The state-of-the-art simulator facility is sustained in 
the fiscal year 2013 President's budget (as well as other facilities) 
and will continue to be utilized by the 403rd Wing.

    Senator Wicker. I look forward to working with all three of 
you.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman, and let me add my 
congratulations and appreciation to all of you serving so well 
in our military and to your families, thank you very much.
    General Welsh, currently there is progress that is being 
made toward constructing a new command and control complex for 
U.S. Strategic Command (STRATCOM) with military construction 
funds requested by the President and authorized and 
appropriated by this Congress for the fiscal year 2012. The 
mission of STRATCOM is at the forefront of our national 
security as the command and control of our nuclear enterprise 
which you have identified as your number one priority. STRATCOM 
plays an important role as America complies with the New 
Strategic Arms Reduction Treaty (START), among other things. It 
is imperative that our nuclear command and control node have 
all of the support and resources it needs to carry out its 
missions.
    The entire project has been authorized, but because of the 
nature of this project, the Defense Department will have to 
request phased or incremental funding and Congress will need to 
annually appropriate those incremental construction funds until 
the command and control center is complete. This will require 
more than 1 or 2 years.
    We have already talked about the constrained budgets, 
facing a sequestration. Hard choices need to be made within 
DOD, and I know this has been and will continue to be a hard 
choice. But I also believe that our projects for this mission 
for cyber, missile defense, nuclear command and control--these 
threats will not likely dissipate.
    Can you speak to why a new STRATCOM headquarters continues 
to be a priority for the Air Force, as well as a part of joint 
command effort that is imperative for our national security?
    General Welsh. Thank you, Senator.
    The Air Force has been supporting the development of this 
project. If confirmed, I will continue to do so. I do think the 
command and control capability that this will provide General 
Bob Kehler and, by extension, the Secretary of Defense, the 
President, and the Nation is absolutely critical to national 
security particularly because of the nuclear mission that they 
oversee but also in other ways: the ability to command and 
control space operations, the ability to develop cyber activity 
and a way forward in that arena, and monitor it when required 
through U.S. Cyber Command. I think all of those things drive 
this requirement and I believe I am fully onboard with this 
one, Senator.
    Senator Nelson. I appreciate that very much. I know my 
colleagues, those who are still here, are probably tired of 
hearing me say it, but you cannot fight cyber warfare with drop 
cords. You have to have this kind of a structure that is more 
than a building. It is a warfighting machine with the high 
technology that will be included within it, high technology 
that others would like to track for their own use in other 
countries. Of course, the cyber terrorists who would love to be 
able to do it. That is why it is more than just simply a 
building. Would you agree with that?
    General Welsh. Senator, I would agree with that.
    Senator Nelson. Thank you.
    Lieutenant General Grass, in the years following the Cold 
War, our National Guard became, as we spoke yesterday, woefully 
under-resourced. It was treated as a secondary force, 
supplemental, not an operational reserve. In the buildup during 
the wars, obviously we found out how woefully under-resourced 
it was and we have made giant strides towards correcting that 
under-resourcing.
    Now that we are in a position where we are winding down 
certain functions because of the winding down of Iraq and 
ultimately Afghanistan, we do face with resourcing a critical 
point of whether or not the Guard--the Reserve as well, but the 
Guard in particular--will have the kind of resources necessary 
to remain the kind of operational reserve that it has become 
rather than mothballed into a supplemental force.
    Can you give us some assurance that you will do everything 
sitting at the table to make certain that the Guard does have 
the necessary resources to remain capable of the role that it 
has now achieved and is operating in?
    General Grass. Senator, because of our dual mission, both 
Homeland, as well as being prepared to support the Army and Air 
Force around the world, we do want to continue to maintain that 
edge. A lot of investment has gone into the Army National Guard 
and the Air National Guard in the last 10 years. We do not want 
to lose that. Part of that will be working with the Services to 
find the right balance, both from the homeland perspective as 
well as the overseas mission. Part of that will be getting back 
into some very innovative training opportunities, and some of 
that may be supporting the combatant commands as we did 20 
years ago and 15 years ago before the wars started.
    I am committed to you, sir. Senator, if confirmed, I can 
assure you I will make this a top priority to retain the great 
Air and Army guardsmen today.
    Senator Nelson. It is critical in both homeland security, 
homeland functions in terms of natural disasters. As a former 
governor, having called out the Guard on more than one occasion 
and having had it respond admirably under the late Adjutant 
General Stanley Heng, I am one who knows how important 
personally that function is.
    I was also distressed with the call-up of the Guard in, 
first, Afghanistan but then in Iraq to find that many of our 
transportation units from Nebraska faced inadequate resources 
at the time. Parents were buying walky-talkies from various 
stores, sending them over to their sons and daughters to use 
because they lacked the capacity to communicate in cargo 
trucking caravans. So it is something that simple but something 
that essential that we need to continue to know that it cannot 
be under-resourced for national security any more than it can 
be under-resourced for homeland security, including natural 
disasters.
    I am very much aware of your commitment to that and I 
appreciate your stating it to us all here today.
    General Kelly, I know as you go forward in this new 
responsibility with SOUTHCOM, you are going to be facing not 
simply drug situations, but violent extremist organizations and 
the growing engagement of Iran in the region. We always have 
concerns about the Iranian Revolutionary Guard Corps and its 
efforts to expand their influence not only in the Middle East. 
Containment has not been possible, but they have also found 
their way into your AOR. I know General Frasier has detailed 
the regional activities of Hezbollah.
    Can you speak to your views on the increased presence of 
Iran and Hezbollah in SOUTHCOM and what you believe you will 
face and what kind of resources are you going to need to be 
able to fight these extremist groups?
    General Kelly. I can, Senator. It would appear to me that 
Iran is on the march in many parts of the world, South America, 
Caribbean, Latin America, no different. Over just the last few 
years, they have expanded the number of embassies they have in 
that region of the world. They have quadrupled, I think, the 
number of cultural centers that represent the Islamist point of 
view, certainly the Iranian point of view. I think you know 
this, that the President of Iran has become very close with the 
President of Venezuela.
    What we see right now is their desire to broaden and deepen 
their relationships with several other countries in the region. 
Unfortunately, it has been our experience I think around the 
world that where Iran goes, so goes the Qods Force, so go 
terrorism. Obviously, we have to be very careful in watching 
that. I know General Frasier has this on the front of his 
screen.
    Senator Nelson. We are faced right now with the President 
of Iran and President Chavez of Venezuela, two peas in a pod. 
What we have to avoid having is it become three peas in a pod 
through their expansion activities in South America and the 
Central American region as well.
    Good luck. I appreciate it very much. Thank you all, 
gentlemen, and best of luck to all of you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    It was a pleasure meeting all of you in my office and 
discussing issues. I am not going to repeat those concerns.
    Certainly, General Kelly, it is good to have a 
Massachusetts native and it is good to see you anyway. Your 
sacrifice and service to our country is very well known and 
appreciated back home in our State.
    General Grass, being on the Joint Chiefs now, it is 
something we all worked collectively on this committee to make 
sure happened so we could find that good balance to make sure 
that the Guard was properly represented especially because of 
the yeoman's work they do not only at home but, obviously, when 
they are mobilized.
    A question to you, General Grass. The State Partnership 
Program is something that I have not only participated in as a 
soldier by going to Paraguay and serving there, but there are 
many other Senators who have relationships through their 
States. The State Partnership Program--is that something you 
plan on continuing to support?
    General Grass. Senator Brown, I am a strong supporter, and 
as I mentioned earlier, working with EUCOM back in the mid-
2000s, I had 21 countries in EUCOM and 7 at the time with 
AFRICOM that we worked closely with and saw the value every 
day, saw the relationships that were built over the last 20 
years especially in what used to be Eastern Europe during the 
Cold War. I am a very strong supporter, and I think if you look 
at what we spend on that program as a Nation, the benefit we 
get is tremendous. I definitely plan to support it.
    Senator Brown. Thank you. You can certainly count on my 
support as well.
    General Kelly, the same question. Obviously, there are 
States that participate in the State Partnership Program in the 
area of command that you will be responsible for. Is that 
something you also plan on supporting?
    General Kelly. Absolutely, Senator. There are 31 countries 
in Latin and South America, and there are 25 partnerships. It 
is not only your State, of course, with Paraguay. New Hampshire 
is associated with El Salvador I believe. South Carolina--the 
Secretary, when we were down with him a couple months ago, 
announced that they would start to develop a relationship I 
believe with Brazil. It is a tremendous force multiplier, 
particularly in a place like SOUTHCOM.
    Senator Brown. Great. Thank you.
    General Grass, I would like to go back to you. Obviously, 
sexual assault is something that is very serious in the 
military. It is something that is a problem. I know in the 
Guard, we have made some real strides recently to address it. 
What are your plans to deal with sexual assault in our Guard in 
particular?
    General Grass. Senator, it is extremely important to me not 
just as a leader but as a father that we treat every 
servicemember with respect. We have a unique issue in the Guard 
because of the dispersion in small town America, 2,700 armories 
across the Nation. Some of our servicemembers who have problems 
may not be able to be reached early and provide the right 
treatment and the right counseling. I know you have done some 
great work already in that area.
    My goal is, if confirmed, to go in and take a serious look 
at this within the Guard and determine what resources we need 
and if we are adequately addressing the problem.
    Senator Brown. Thank you. There has been a real effort with 
General McKinley in this and he really dropped everything over 
the last couple of months to come up with a plan. I think that 
is a good plan, and I would look forward to making sure that 
you have access to that plan and get your blessing and support 
on it.
    Also, I have heard that there is a potential about cutting 
drill pay for members of the Guard and Reserve as a way to help 
reform the Reserve component pay structure. I would just ask 
you to look long and hard at that because a lot of the time 
spent in the armories, as you referenced, around our country 
for the flag is always done without getting that pay is 
something I think will be a deterrent for our Guard and Reserve 
to serve. I just want you to be aware of that. It is something 
I am aware of and I would ask you to take a look at it.
    General Welsh, touching base with cybersecurity, as was 
referenced earlier, I think and I think you and others believe 
that we are not only in that battle now, but there is more 
coming. That being said, Hanscom Air Force Base, I think, does 
it better than anywhere else in the country. We have the brain 
power, the technology, and the advancements with the 
Massachusetts Institute of Technology (MIT) and others, with 
Lincoln Labs wanting to participate and upgrade.
    You are aware of that. We spoke about it. I would only 
state publicly I would ask that you give that base proper 
consideration when looking to expand that effort because I 
think you are going to get a good value for your dollar. You 
are going to get the best brains in the country out of MIT, 
Harvard, Boston College, Worcester Polytech--I could go on and 
on--to address that very real concern.
    But to shift gears for a minute and to build off what 
Senator Lieberman said about the initial operational capability 
(IOC) date for the F-35, when do you think we will actually 
have one?
    General Welsh. Senator, the plan right now from the Air 
Force is for the Commander of Air Combat Command, by the end of 
this calendar year, to come forward with a set of criteria 
approved through the Chief and the Secretary and coordinated 
within DOD that will outline the event-driven criteria for IOC. 
Associated with that should be a general timeline. I doubt if 
he will come forward with a specific date because it will have 
to be event-driven at some point. But you should expect to see 
something by the end of this calendar year.
    Senator Brown. What is the current Air Force fighter 
shortfall? Do you know that?
    General Welsh. Sir, are we talking about pilots or 
aircraft?
    Senator Brown. Aircraft. I am sorry.
    General Welsh. I think when people talk about the current 
shortfall, they are addressing a shortfall versus the actual 
operational plans from the different combatant commands. A lot 
of this is based on modernization timelines, airplanes timing 
out over the next 5 to 10 years, and that is what the 
discussion has focused on. The 2013 budget was an attempt in 
one way to try and ensure that we knew clearly when capability 
would phase out and other capability would be available to 
prevent dropping below the required level.
    Senator Brown. Let me just interrupt and say, in layman's 
terms for those folks in the audience and those listening, are 
we okay in terms of our pilot and fighter aircraft as of right 
now with all the conflicts we have and any anticipated 
conflicts that we may have? Do we have enough fighters and 
fighter aircraft to do the job?
    General Welsh. Senator, I think we have the right numbers 
today. We do have a concern about fighter pilot production and 
absorption into the fighter community. It has to do with 
numbers of cockpits available to train new pilots in. We are 
working that very aggressively. By the way, this is something 
that the total force is a clear part of the solution for and 
has been included in the planning since day one.
    Senator Brown. Great. Well, listen, I look forward to being 
honored to vote for all of you. I know we are in good hands. 
Thank you.
    Chairman Levin. Thank you, Senator Brown.
    Senator Begich.
    Senator Begich. Thank you very much. Congratulations to all 
of you for being nominated and your service to this country, 
and I greatly appreciate the time you are taking here going 
through a hearing of this nature. Thank you all very much.
    First, General Welsh, we had a great conversation 
yesterday, a lot of conversation about Alaska and some of the 
concerns we have up there. I just want you, if you could, to 
describe for the record; as we continue to move to the Asia-
Pacific kind of posturing and what that means and how you see 
Alaska's role in that in the sense of its assets that we have 
there, but also if I can add a little bit additional and that 
is the Arctic and how that plays. Please give me your thoughts.
    As a matter of fact, I met with some air carriers this 
morning about their freight traffic, and they talked about 
Anchorage as an important piece, and Fairbanks, how important 
that is for their business. But from a military perspective, as 
we again move to the Asia-Pacific posturing, give me your 
thoughts on the Alaska assets and the value or what needs to be 
done or not or what your thoughts are there and then the 
Arctic, if you could add that to the discussion.
    General Welsh. Thank you, Senator.
    In so many ways, geography still matters in a major way.
    Senator Begich. You cannot move land.
    General Welsh. No, sir.
    As well as I do, that when our air forces are forward 
deployed, they serve as component commanders for the air part 
of the combatant commanders' array of forces. Admiral Sam 
Locklear in Pacific Command is very clear that Alaska and the 
Air Force forces stationed there, along with the Army forces 
stationed there, are critical to his posture for the Pacific 
theater.
    Now, there is a reason we have our newest fighter based in 
Alaska. There is a reason we have tanker airlift stationed in 
Alaska, a tremendous tanker unit by the way. There is a reason 
we have tactical airlift, rescue forces, command and control 
aircraft. Geography matters. From that perspective, clearly 
Alaska is a very valuable platform for the U.S. Air Force.
    The other thing that matters in a big way to me as a chief 
of Service, if I am confirmed, is training air space. It is 
treasure to us, especially as we go to new generations of 
aircraft that need more space to operate in and tactics involve 
larger spreads between aircraft and different types of 
scenarios. The range complex in Alaska is phenomenal.
    Red Flag-Alaska gives us the opportunity to do another 
thing that is very important to me as a capability provider in 
the future, if I am confirmed, and that is to bring partners 
together. I had a meeting about a week and a half ago with the 
Polish air chief, his Polish F-16 unit. They just returned from 
their first trip to Red Flag-Alaska, and he wanted to come tell 
me how much they enjoyed it and how valuable it was as training 
for them and also asked my support in getting other newer 
member nations from NATO to consider doing the same thing. 
There are several who we have invited as an air force.
    Lots of things are positive about the State of Alaska from 
an Air Force perspective, Senator.
    On the Arctic issue, I am not an Arctic expert. The one 
thing I do know just from the NATO look at the Arctic in Europe 
and my air commander job there is that one of the problems we 
have is where do you train for Arctic warfare? Where do you 
test equipment for operating in that environment? Alaska, 
again, clearly provides us a great opportunity to do that.
    Senator Begich. Very good. Thank you very much. For those 
folks from Poland and others that have those F-16s, you know we 
have some great F-16s in Fairbanks, at Eielson. I will just 
leave that there for now.
    General Welsh. I have heard that, sir.
    Senator Begich. You have heard that.
    Let me ask, if I can, for you and General Grass--and you 
kind of mentioned it regarding the 168th Air Force refueling 
wing. This is the busiest wing in the northwest. It is an 
incredible, as you said, and important asset just because of 
where it is located and the value and the quantity of fuel. I 
know there has been a desire in the past by the Air Force to 
make the wing an association, which is an important piece which 
means manpower and so forth.
    Can either one of you or both of you respond to that? When 
you move to that level, it means a different personnel level, 
but because of its activity and potential of new aircraft, 
depending on what happens and where those are located in the 
future, it just seems like the opportunity to consider that or 
at least review that in the future seems to be worthwhile. 
Maybe you could, either one of you, give me a comment on that.
    General Grass. Senator, as the vice element commander for 
U.S. North American Aerospace Defense Command working closely 
with Canada, I know the value of those tankers. When we are 
setting in, whether it is a small aircraft coming through or an 
aircraft that recently across Canada that went out of 
communications, those tankers are some of the first ones that 
go up both to support the U.S. fighters, as well as the 
Canadian fighters. I know that value very much.
    I know there is a balance there, and I will work very 
closely with the Air Force, if confirmed, to take a look at 
that and really work closely with the Director of the Air 
National Guard to understand it better.
    Senator Begich. Would both of you be willing to commit to 
at least review and revisit the issue of the association for 
the 168th, as you have just mentioned? Are you willing to look 
at that again just to make sure, as you look at your 5- and 10-
year plan, is there a need to revisit that? Any comment from 
both of you on that?
    General Welsh. Senator, I would be happy to look at that. I 
was not involved in the previous discussions. I have no idea 
what the reasoning was for not doing that. I would be happy to 
look into that and get back to you.
    Senator Begich. Very good.
    General Grass. Senator, I would be happy as well.
    Senator Begich. I appreciate it. I just think as we look at 
this new Asia-Pacific piece, it just seems like that needs to 
be reexamined based on this larger picture.
    General Welsh, again we talked yesterday, and I appreciate 
the candid discussion we had. We had a little struggle and I 
think some other Senators did too in the transparency that is 
necessary for community engagement and understanding of when 
realignments or situations change in the military operations. 
With the Air Force, we had a little concern about Alaska. Maybe 
you could give me your thoughts of this relationship between 
the Air Force, Congress, and the communities as we move through 
this new age of redeployment, reassignment, realignment--
everything is ``re''--and also our budgetary constraints and 
how you see your role in creating that kind of transparency 
that is necessary.
    General Welsh. Senator, I believe that the pressures that 
are on us, especially from a budget perspective now, demand 
more sharing of information earlier in the process between all 
of the organizations and the bodies you just mentioned. I think 
there are factors that each one of those groups would bring in 
with a different perspective. I do not think the Air Force has 
the entire perspective considered early enough in the process. 
Part of my emphasis will be to make sure we do, that we are 
very closely connected to not just the Air National Guard but 
to the Guard Bureau, confirm that they are clearly closing the 
distance between them and the Council of Governors and the 
TAGs. I do not think we can move forward in any practical way 
without the Members of the U.S. Congress being witting and 
understanding of the intent of the actions we propose.
    Senator Begich. Very good. Thank you very much.
    My time expired. I do have a question I will leave for the 
record for you, General Grass, in regards to the Guard and some 
other issues. I will just send that in for the record.
    General Kelly, congratulations. I did not have a question 
for you, but if you were Doug Frasier, I would harass him 
because he was an Alaskan for a little while.
    But I hope all three of you, even though you are from 
SOUTHCOM, at some point come to Alaska. It is a great 
opportunity to see some incredible troops. We just brought back 
almost 9,000 from Afghanistan a few months ago from our Stryker 
and others, and they did an exceptional job and we are very 
proud of them.
    Thank you for your willingness to serve and willingness to 
take this next position. Thank you.
    Chairman Levin. Thank you, Senator Begich.
    Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    Thanks to each of you for your distinguished service and 
your comments this morning. I agree with the chairman. Your 
opening statements were moving and partly because of the 
incredible service that you and your family have provided. We 
appreciate that. You also bring a lot of experience to bear 
during a critical time. Our challenges have not diminished, but 
the budget pressures have increased. We talked a lot about that 
this morning.
    General Welsh, I appreciate you coming by yesterday for a 
good discussion on some of the Air Force challenges that we 
face on the budget side. I would like to say publicly what I 
told you yesterday, which is I think, frankly, the fiscal year 
2013 budget presentation by the Air Force did not have the kind 
of analysis and did not have the kind of relationship with 
Congress that would have been helpful particularly with regard 
to the Air Guard issues. I appreciated your comments yesterday, 
and I would like to give you a chance today to just talk a 
little about how you would like to see the Air Force budget 
process moving forward, particularly with regard to the 
guardsmen and the title 32 requirements and working with 
Congress.
    General Welsh. Thank you, Senator.
    I think what has gotten us to this point clearly did not 
work well, and I do not believe it is because the people were 
evil. I think they all have the best interests of the Nation at 
heart. I think it is because we did not understand how to make 
this process successful, and we cannot repeat that again.
    I believe that there are things that the Air Force should 
consider earlier in the planning process. I think we tried to 
do that. Obviously, we did not have the details to the level of 
satisfaction of the other people who have to be part of this 
plan in the long run for it to be able to be executed. I think 
things like title 32 requirements should enter the front end of 
the discussion. I think the ability to practically execute a 
plan is something that can best be discussed with Members of 
Congress, the members of DOD, the members of the Air Force, and 
the National Guard Bureau, and specifically the Air Guard and 
Air Force Reserve. I think we all have a critical investment in 
this process working properly, and I think we all have an 
interest in making it work properly. If confirmed, that is my 
goal. How do we get to there from where we are today?
    Senator Portman. Thanks for those comments. General Grass 
is nodding there next to you with regard to the Guard.
    We talked about acquisition improvement earlier, and the 
chairman and Senator McCain have spent a lot of time on this. 
There is a report recently by the Center for Strategic and 
International Studies. It is their acquisition study, and it 
indicates the Air Force trends are actually heading in the 
wrong direction despite all the good efforts that have been 
made. According to their report, total cost overruns of Air 
Force major defense acquisition programs actually increased. 
The overruns increased from $52 billion to $58 billion from the 
2009 to 2010 years, the latest years for which they have data.
    In light of what has happened with the JSF--the F-35 I know 
was discussed earlier--huge cost overruns and, as you 
indicated, also some major time issues not just for our 
military but for our partners, what is happening with the light 
attack support aircraft with the KC-46? What I would ask today 
is if you could just give the committee a sense of how you 
would tackle this issue. What would your priorities be? How 
would you go about it? I am not suggesting it is entirely an 
Air Force issue. It is certainly not, but it does happen that a 
lot of these projects do land on the Air Force major defense 
acquisition side and so you will be very involved with them.
    General Welsh. Thank you, Senator. I know that you are very 
well aware of the talent level and the work ethic of the men 
and women of Wright-Patterson Air Force Base, for example, who 
manage many of these programs or supporting programs. This is 
certainly not a lack of effort that is causing the problem. We 
have very talented people in our acquisition workforce.
    I believe there are three key things that we have to track 
and things that, if confirmed, would be my focus areas going 
forward in the acquisition business.
    Number one, we have to be very disciplined in the way we 
establish and then control requirements, especially to major 
acquisition programs. We do have a history of requirements 
creep occurring. I believe that one of the roles of the Service 
Chief is to be visibly involved in the requirements process for 
major weapons systems for your Service, and if confirmed, I 
will be.
    I believe the second thing we have to focus on is 
disciplined--and that is disciplined with a capital D--
execution of these programs. If you stress that cost is a key 
performance parameter, then anything that affects cost has to 
get visibility up to and beyond the program manager level as 
opposed to trades being made with good intent that end up 
mushrooming into much larger costs.
    Finally, I do believe cost has to be a key performance 
parameter in major programs. It just has to be that way. We 
have not in the past and we certainly do not going forward have 
the luxury of allowing programs to expand to 30-35 percent over 
cost and schedule. Unacceptable.
    Senator Portman. We talked initially about the budget 
pressures, and this is certainly an area where there could be 
vast improvement. I appreciate your personal commitment to 
that. Leadership at the top. I think you are right. The metrics 
are right. I would also say competition and transparency helps, 
and we have talked a lot about that in terms of the JSF. But I 
do think there is a great opportunity actually with you coming 
in with some fresh perspective to be able to help on that.
    On science and technology, you know how I feel about this. 
It is a tough budget environment and it is too easy to see 
science and technology become the billpayer. We are eating our 
seed corn if we do that. I appreciate your comments yesterday 
on it, I know how you feel about it. But I think ultimately our 
qualitative advantage that is talked about a lot is going to be 
because of these significant improvements we have seen over the 
decades in science and technology which we are enjoying now 
from investments we made 10 years ago.
    You mentioned Wright-Patterson Air Force Base. We are very 
proud of the Air Force research lab and the cutting edge work 
that is done there. We love having the Air Force Institute of 
Technology (AFIT) there. We think that is an incredible 
resource for the military, not just the Air Force but our 
military at large.
    In your opinion, could you characterize the health of the 
labs and what your priorities would be for the research and 
technology efforts of the Air Force?
    General Welsh. Yes, Senator, thank you.
    I was just at Wright-Patterson last month and talked to a 
number of the folks in the labs about programs they are 
working. They are terrifyingly smart. They are very committed 
to this activity, and I was astonished at their capability 
quite frankly.
    I am a believer that one of my responsibilities as the 
Chief of Staff, if I end up in that role, is to shape the 
future of the U.S. Air Force to the greatest extent I possibly 
can in cooperation with all the agencies and organizations that 
support us. One of the ways you do that is by investing in the 
future, and I think that is what science and technology 
investment is. I think we have to continue to invest in that 
region.
    You mentioned AFIT, sir. That is investment in the people 
side of our technology and technology development. It is an 
opportunity for our Air Force to send young officers to a 
program based on their area of work in the Air Force. They are 
competitively selected, and they are trained specifically to 
improve capability for our Nation in that area. I think they 
are both essential parts of the plan going forward, and I will 
be a very big supporter.
    Senator Portman. Thank you again. We are appreciative of 
your willingness to step forward and take on this role, and we 
look forward to your confirmation.
    My time is coming to an end here quickly. General Kelly, I 
just have one quick observation to make. First of all, thank 
you for your service and your family's service and sacrifice. 
You are taking on an incredibly important task.
    I have to comment that based on your interaction with 
Senator McCain earlier on the substance abuse, the drug issue, 
I could not agree more. I have actually worked a lot on the 
demand reduction side, including with the chairman's brother, 
Congressman Sandy Levin, and I do think that is where we are 
going to get the most progress.
    Have you had the opportunity yet to sit down with one of 
your predecessors, assuming you will be confirmed, which I am 
confident of? General Barry McCaffrey was SOUTHCOM Commander 
from 1994 to 1996, and later became Drug Czar. I worked closely 
with him on a number of pieces of legislation. He became, as 
you probably know, a true believer on the demand-side 
reduction. I wonder if you have had a chance to visit with him?
    General Kelly. I have not yet and I had not thought of 
that, but that is a great idea, Senator.
    Senator Portman. He is an Army guy, not a marine.
    General Kelly. He is all right. [Laughter.]
    Senator Portman. Notwithstanding that, I think you guys 
will have a lot to share, and again, he has a wealth of 
experience now on the domestic side of this. I wish you the 
best of luck. This deteriorating situation in Central America 
is heartbreaking. I worked a lot on the Central American free 
trade agreements trying to help their economy down there. We 
are heading in the right direction in many respects, but this 
is devastating to those countries and to those communities and 
those families.
    The best of luck to all three of you gentlemen.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Portman. Thank you for 
your emphasis on the demand-side of this drug problem and 
Senator McCain as well and you too, General Kelly. I think it 
is an important element to get into this discussion and to stay 
in the discussion.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank all of you who are here today for your 
service--you have incredible records of service to our 
country--and of course, to your family for all of their 
sacrifice and service.
    First of all, I wanted to ask General Kelly. Yesterday I 
had the chance to do a panel on the issue of sequestration, and 
this panel discussion at Tech America was not only focused on 
the overall impacts to our national security, which I know all 
of you have described as catastrophic and we know that our 
Secretary of Defense has described in the most direct terms as 
shooting ourselves in the head.
    But what I was really struck with, General Kelly, is 
Sergeant Major Carlton Kent testified. He is now retired from 
the Marine Corps. He was really concerned about us breaking 
faith with our marines. I would ask you this. Can you tell us 
if we do not address sequestration pretty quickly around here, 
what are we doing to the morale of our troops? I would start 
with you, General Kelly, and then also General Welsh and, of 
course, General Grass to comment as well because we talk a lot 
about the weapons systems and everything else, but we are 
talking about our men and women in uniform who have shown such 
great courage and have made so much sacrifice for this country. 
Can you give us some insight on that morale issue?
    General Kelly. Absolutely. First of all, I would never 
disagree with Sergeant Major Kent or any other Marine sergeant 
major. [Laughter.]
    I agree with Sergeant Major Kent. I believe it would be 
breaking faith.
    I think one of the things that the leadership in DOD, in 
fact, the leadership throughout Washington, have to understand 
is that there is a great deal of churn in the minds of 
particularly the families, the spouses, of what is going on in 
the military. If you listen to them and get out and about as I 
do with the Secretary of Defense, the thing that they are 
confused about or concerned about is the uncertainty. We have, 
from their perspective, certainly massive budget cuts. We have 
force reductions. We still have a war going on, and I do not 
think anyone in the room would disagree. It is a very dangerous 
world and who knows what comes next. If you put all of that 
uncertainty into a blender, so to speak, and mix it up, that is 
where hollow forces in my estimation begin. We saw that in my 
own career in the 1970s and again in the 1990s where the 
uncertainty causes people to say time to go, I do not know if I 
am going to have a job next week or next month.
    I believe the Nation has made a commitment, particularly 
now that we have an All-Volunteer Force, to the service men and 
women that serve and their families. We have made a commitment 
to take care of them not just because we are at war, but 
perhaps that reinforces the commitment. They give enough. It is 
a tough row to hoe as a military family, spouse, member, and we 
owe it to them to certainly not include them in on the 
consideration as we look at sequestration.
    Senator Ayotte. Thank you.
    General Welsh.
    General Welsh. Senator, the men and women of the 
operational Air Force have been deploying in support of 
contingency operations, along with their fellow service mates, 
for the last 22 years now, in other words, on to the Middle 
East. What they are looking for right now in many cases is 
stability, and stability does not mean nothing changes. It 
means a plan that we can execute. They are very good at that. 
They just want to know where we are going so they can start to 
get to work on it.
    General Grass. Senator, I had a chance to go down to Fort 
Carson and visit with the units that are either departing or 
are returning home. When you look in the eyes of the young 
families with children and the spouse is there and the husband 
is on his fifth, sixth, seventh deployment and they wonder what 
is it for the future. Should I stay in this career field? 
Should I move to another career field? We hear that.
    I think there is another part of this, which is maintaining 
those combat-proven warriors that want to be leaders and lead 
our military in the future. I think sequestration will push us 
to the limit where we will lose some of our best and brightest.
    Senator Ayotte. Let me follow up with you, General Grass. 
General Odierno has testified before the committee that what 
sequestration, as they have estimated, would mean for our Army 
is an additional 100,000 reduction in forces for our Army on 
top of the already roughly 72,000 reductions that we are 
already making. What he told us was that 50 percent of those 
would have to come from the Guard and Reserve. What does it 
mean to cut 50,000 from our Guard and Reserve in terms of not 
only our national security but our Homeland security?
    General Grass. Senator, I have not had a chance to study 
those figures, but as you know, every day there are 5,000 to 
7,000 guardsmen on State Active Duty and 25,000 deployed 
overseas. If we lose capability, we will have to definitely 
take a serious look at whether we can continue to do the jobs 
to support our communities.
    Senator Ayotte. Those jobs also include an important 
function to our Governors in responding to national disasters 
as well State-side, do they not, General Grass?
    General Grass. Yes, Senator, they do.
    Senator Ayotte. Absolutely.
    This is an issue that has to be addressed right away, and 
it is my hope that on a bipartisan basis, that we will put 
aside the election-year politics and get this resolved on 
behalf of all the men and women who serve underneath all of you 
so admirably and courageously.
    In addition, I would like to follow up on another line of 
questioning particularly addressed to General Welsh. One of the 
issues I have been concerned about, we are talking about 
sequestration, but in order for us to make good decisions about 
responsibly spending the taxpayer dollars that come to DOD, 
this audit issue has been very important. I have certainly 
appreciated what Secretary Panetta has said about trying to 
make sure that we meet a Statement of Budgetary Resources by 
2014. In fact, it is now incorporated in the defense 
authorization. I had asked for it, pushed for it. I know others 
on this committee have been very focused on this issue.
    I understand that the Air Force has had some of the 
greatest difficulties. General Welsh, will the Air Force meet 
the 2014 deadline to complete a full Statement of Budgetary 
Resources, and how important will you make this issue as the 
Chief of Staff of the Air Force?
    General Welsh. Senator, my honest answer is I do not know. 
The biggest limiting factor we have right now are systems that 
share data. The systems we have on the books that will help do 
this kind of audit readiness work do not deliver until after 
2014. So it is causing this to be done manually, which is not 
the ideal way to do it.
    Senator, I can tell you this. There is a lot of effort 
going on in the U.S. Air Force, all the way down to the 
squadron level right now. I have met with my wing commanders, 
for example, in Europe three times over the last 4 months on 
this topic. We are working it as hard as we can. I do not know 
if the corporation can get there by then because of the 
problems with uncovering and sharing data in the right ways. 
Clearly, this will have to be a focus area, if I am confirmed. 
It is now for the Air Force. I can assure you of that. We will 
do everything we can to make that deadline. I just do not know 
the answer yet.
    Senator Ayotte. I appreciate your testimony and your 
candidness, General Welsh. I obviously hope that you will make 
this a top priority because we have to be able to look the 
American people in the eye and tell them that their taxpayer 
dollars are spent wisely. Again, as we look at something like 
sequestration, then every dollar we need to be able to account 
for. I really appreciate your looking at this issue and one 
that I know is of great importance in making sure that we are 
watching the taxpayers' dollars.
    My time is up, but on a final note today Russia and China 
vetoed the United Nations (U.N.) Security Council resolution 
that would have imposed new sanctions on the Assad regime in 
Syria. It is outrageous. I make this point because, General 
Kelly, you said we still live in a very dangerous world, and we 
know China is continuing to invest in its military. Certainly 
our relationship with Russia has changed, but we need to make 
sure that we have a strong military, otherwise other countries 
around the world will feel that they can just run all over us. 
Again, another reason to address sequestration.
    I appreciate the leadership of all of you. Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you all for your service and particularly your 
families for your service which I know, as you have said very 
movingly and powerfully, has been integral and essential to the 
work that you have done for our Nation. I thank you and them 
for your service and sacrifice. In particular, General Kelly, 
thank you to your family.
    I would like to ask you, if I may, sir, about the MC-12 
which is important not only to SOUTHCOM AOR but also to our 
National Guard. As a matter of fact, Connecticut's Air National 
Guard is expected to receive 9 to 11 planes. This is a question 
as well for you, General Grass.
    What is your assessment of the MC-12s future role in the 
drug interdiction mission in SOUTHCOM's AOR? Do you think it 
has a role? How effective will it be? Will it have a role in 
the Air National Guard?
    General Kelly. I can speak certainly to platforms like the 
12. As I think the Senator knows, the SOUTHCOM command is an 
economy of force command in the national strategy that has been 
developed. In fact, it has been this way for a great many 
years.
    The kind of things that go on in South America's SOUTHCOM 
are things that are unique probably to this theater. Anything 
and everything that can be provided to SOUTHCOM that can help 
us get our arms around tracking illicit drugs, as well as 
helping the various countries down there, most of whom are very 
friendly to the United States, most of whom want to partner 
with the United States--anything we can do to help them, 
provide them intelligence and insights into the networks that 
they deal with, the criminal syndicate networks, would help 
them immeasurably. We do not want to fight their war for them 
on the ground. What they do really lack is a way to get into 
the networks as no one else but the United States military can 
do.
    Senator Blumenthal. Thank you.
    General Grass.
    General Grass. Senator, all ISR aircraft today are very 
heavily committed, no doubt. I think the asymmetric warfare 
that we are going to face both not only today but in the future 
will demand more. I am committed, Senator, if confirmed, to 
continue to work with the Air Force and General Welsh to take a 
look at both the sourcing and also the stationing of those 
forces in the Air National Guard.
    Senator Blumenthal. I appreciate that interest and that 
commitment. I believe very strongly that the MC-12 has the kind 
of role that you have described, General Kelly, and appreciate, 
General Grass, your commitment to keeping strong and even 
strengthening the role of the Air National Guard because in 
Connecticut, as you well know, in the two wars that we fought, 
it has been a very profoundly significant force, I think, for 
our military readiness and for our effectiveness in those 
theaters. I thank you for that commitment.
    I would like to raise with you an issue that I think we 
have discussed a little bit, perhaps has not arisen today, but 
I think is very important to all of our veterans, most 
especially to our National Guard and our Reserves, the issue of 
making sure that they have employment when they come home. 
Unemployment rates among the recently returned veterans, 
particularly our younger veterans, are significantly higher 
than the general population, which I think is absolutely 
unacceptable and intolerable. We owe them better. We must do 
better for them. I am particularly troubled by the potential 
and the allegations that I have received--I think they are 
credible--about possible discrimination against them that may 
occur in the job marketplace because they may be deployed 
because they are committed to being available when the Guard 
and the Nation needs them and our reservists as well.
    I do not know whether you have any comments as you sit here 
now about that issue. I know it concerns you, but I would 
welcome any comments that you do have.
    General Grass. Senator, I think as we head forward and you 
look at the use of the Guard and Reserve, the employer support 
to the Guard and Reserve program is an outstanding program. If 
confirmed, one of the commitments I will make is to take a look 
at what are the base root of the problem both from an employer 
perspective, as well as an employee perspective. Then I will 
get with the adjutants general and look at best practices 
across the Nation, look at some of the statistics of what 
programs have worked best, and then build a plan to move 
forward.
    Senator Blumenthal. I cannot speak for my colleagues here 
today or generally but I think that you will find a very high 
degree of support for any programs that provide job 
opportunities, training, counseling, education. Insofar as 
health care is related to those job opportunities, I think 
there will be a lot of support for it because as we have also 
discussed, I think our Guard and Reserves will be playing an 
increasingly important role as our citizen soldiers and have 
throughout our history proudly in Connecticut certainly, and 
thank you for your commitment on that score.
    General Welsh, you mentioned the possibility on the issue 
of sexual assault for perhaps better screening and assessment 
at the front end of people going into our military. I wonder if 
you could perhaps expand on that thought.
    General Welsh. Senator, I will be happy to. I wish I knew 
enough about the available tools to be able to expand on it in 
a meaningful way. I just believe that is the piece of this we 
have not successfully taken on yet. If we can stop the crime, 
everything else becomes easier, and that should be the goal.
    I know there is work in the social sciences to look at 
screening tools for different kinds of behavior. I do not know 
personally if there is a tool that allows you to identify 
someone with predator tendencies. But we certainly should be 
looking into that. I hope somebody is. I just do not know that 
they are.
    I think we need to look at other things in that pre-crime 
phase, if you will, things like the possibility of raising 
punishments for lower-level offenses within this category of 
crime under the Uniformed Code of Military Justice. Anything 
that can be seen as either a screening force, a deterrent 
force, or the ability to respond rapidly and as publicly as 
possible to the commission of a crime may help identify or 
suppress the people who can commit this crime. I do, however, 
believe that there are a certain number of predators 
everywhere, not just in the military, but we have them. If we 
can somehow target that group at the front end, some of the 
most horrible incidents can be eliminated before they occur.
    We all feel, Senator, these are like our children that we 
are being given the privilege to command. Anytime this happens, 
it is horrible and we are not doing enough to stop it.
    Senator Blumenthal. I am very sympathetic to your answer. I 
am very supportive as a longtime prosecutor before I moved to 
this job and particularly on the prevention and the deterrent 
end and also have been very interested in the possibility for 
enhanced advocacy for victims so that they feel more welcome as 
a part of the prosecution process which will enhance their 
willingness to come forward and cooperate.
    Unfortunately, my time has expired, but I would welcome an 
opportunity to pursue this issue with you. Thank you very much.
    Thank you to every one of you and your families again for 
your extraordinary service and sacrifice.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman. Let me echo the 
sentiments of my colleagues about thanking you and your 
families for your great commitment and your service to our 
country, gentlemen.
    General Welsh, DOD and specifically the Air Force has a 
very robust maintenance capability, and it is vital that we 
retain an organic capability and capacity within the Air Force 
depots to ensure that the response to significant military 
operations and national emergencies is there. The ability to 
conduct some of this work in house also provides negotiating 
power for the Government when contracting with industry. It 
allows DOD and the taxpayer to pay competitive prices for the 
maintenance work.
    If confirmed, what is your vision for depot maintenance and 
logistics within the Air Force?
    General Welsh. Thanks, Senator. If confirmed, I would 
intend to pursue exactly that course. I agree with your 
assessment, sir. I believe that it is an organic capability 
that we must maintain for any number of reasons, from 
professional development of career forces that can deploy and 
serve in forward areas, to costs and efficient operations in 
the actual execution of the work, to cost savings. My personal 
opinion is this is a very good thing for our Air Force and we 
should continue to focus on it.
    Senator Chambliss. General Kelly, you and I have come a 
long way over the last couple of decades that we have known 
each other, and I want you to know how proud I am of you and of 
your service to our country. Thanks in particular to you.
    I want to talk to you for a minute about ISR. The 
availability of ISR platforms is going to continue to be a 
major requirement of SOUTHCOM. The current commander, General 
Frasier, has often referenced the need for improved ISR 
operations within SOUTHCOM and specifically the need for 
imagery intelligence, wide-area coverage, sensor integration, 
signals intelligence, moving target indicators, layered ISR 
architecture and management tools, as well as biometrics.
    If confirmed, how do you plan to work with DOD and the 
Intelligence Community to prioritize and acquire these assets 
for your AOR? Do you foresee any additional requirements or 
assistance that you anticipate needing with respect to ISR?
    General Kelly. Senator, if confirmed, I will make as much 
noise as I possibly can within certainly the halls of the 
Pentagon to increase the amount of ISR. My current position 
allows me to see where almost every ISR asset in the world is 
being utilized. What I can tell you from that is that there is 
simply not enough ISR to go around. It is obviously 
concentrated in a couple parts of the world doing very 
important work.
    My hope is that as the war in Afghanistan winds down and, 
frankly, the Air Force and the great airmen that operate 
particularly the drones and the higher-level ISR, as well as 
aircraft and whatnot--as they begin to recover from what is 
just an unbelievably demanding day-to-day existence fighting or 
maintaining ISR over the battlefields of the world, my hopes 
are, as we come down from the war in Afghanistan, as we have 
from Iraq, that some of that ISR will be made available to 
places like SOUTHCOM.
    Senator Chambliss. With respect to the Western Hemisphere 
Institute for Security Cooperation, Chairman Levin and I both 
serve on that board. I have tried to stay pretty active with 
that group, and now that you are coming on board there, we look 
forward to working with you and seeing you at Fort Benning soon 
I hope.
    General Welsh, JSTARS provides the ground movement target 
indicator capabilities to the warfighters. You and I discussed 
yesterday an extremely important ISR platform. I am 
disappointed that despite the findings of the recent AOA and 
the Air Force's long-term responsibility for carrying out the 
ground moving target indicator mission, that the Air Force does 
not have a plan for how to carry out this mission long-term. 
There is essentially no money in the Future Years Defense Plan 
to modernize JSTARS. The Air Force has not looked carefully in 
my view at potential options like procuring a business jet 
platform to carry out the mission.
    Can I just have your assurance that upon confirmation, that 
you are going to look into this issue immediately and come back 
and let us visit and let me have your thoughts on this? I know 
you indicated to me you really have not had the time to study 
it, but I just want to know that you are going to look at it in 
the near term and let us visit further on that.
    General Welsh. Senator, if I am confirmed, I will 
absolutely do that.
    Senator Chambliss. Another issue that is of significant 
importance from the standpoint of the tough budget times that 
we are in right now is the issue of multi-year procurements. 
Multi-year programs like the C-130J--we had one on F-22, and we 
need to be looking at further multi-year procurement 
opportunities like that with the F-35.
    Can you share with us your thoughts on the value of multi-
year procurements and particularly with respect to these major 
weapons systems that we are looking at?
    General Welsh. Thank you, Senator. I think clearly from a 
logic perspective, multi-year procurement would always be the 
way to go if there were no other factors prohibiting it just 
for the cost savings alone. That, of course, requires a stable 
investment plan that has to remain realistic despite the 
turmoil associated with the budget. I do not know about recent 
decisions on whether to or to not enter into multi-year 
procurement plans versus year-to-year plans. I suspect 
decisions that have been made in that regard are basically due 
to the question marks surrounding the budget landscape in 
future years in an attempt to maintain some flexibility to work 
in budget in that environment. But I think clearly from my 
viewpoint, if you can buy multi-year, it is the best way to go 
from a cost perspective.
    Senator Chambliss. In a similar vein, we know we are going 
to buy weapons systems in the near-term years. Putting advance 
procurement money in the budget has always seemed the best way 
to go, and we have had an issue in the last two marks in this 
committee with respect to advance procurement on C-130Js. Is 
there any question in your mind that what providing for advance 
procurement funding on weapons systems that we know we are 
going to buy is not the right direction in which to go?
    General Welsh. Senator, I would agree that again from a 
cost perspective only, it is always a good way to go.
    Senator Chambliss. General Grass, unfortunately my time is 
up. I do not want to slight you in the least, but thanks for 
your service. The 48th brigade in Georgia has been very active 
in both Iraq and Afghanistan. We have had a number of Georgians 
who have paid the ultimate sacrifice, but yet our morale is 
extremely high and our folks remain committed, capable, and 
well-trained. We look forward to working with you to make sure 
that level of competence within not just the 48th, but the 
entire Guard is there.
    Thanks very much to all of you.
    General Grass. Thank you, Senator.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman, and Mr. Chairman, 
my remarks will be short today. My questions will be short 
because I have to preside over the Senate at noon, and that is 
one of those areas where you just cannot be late.
    I really want to thank all of you for your warm comments 
about your spouses, and I think we all know how important 
family is. Especially in your position, I just want to echo 
your comments and thank all the family members and the wives 
for all of the service that you have given our country too. So 
thank you.
    General Kelly, in May, the Drug Enforcement Agency (DEA) 
and Honduran law enforcement conducted a failed operation 
against a contingent of drug traffickers. This operation was 
conducted using State Department-owned helicopters that were 
piloted by the Guatemalan military and Honduran law enforcement 
were aboard. This complex arrangement is partly the result of 
DOD's reluctance to modify the rules of engagement for the 
helicopters located at Soto Cano Air Force Base to match the 
rules of engagement used to support the DEA in Afghanistan, and 
it looks like a cumbersome arrangement.
    What are your initial thoughts on the rules of engagement 
that require such complex coordination, and do you think that 
this type of arrangement is necessary? If confirmed, will you 
review the rules of engagement for the Army helicopters at Soto 
Cano?
    General Kelly. Senator, certainly if confirmed, I will take 
a hard look at this issue. I do know that the arrangements that 
exist between SOUTHCOM and the military and then other 
agencies, of which there are 15 or 16 that SOUTHCOM actively 
works with, DEA and others--there are some pretty specific 
command lines. Certainly DOD forces are chartered to attempt to 
pick up, particularly in the air and the sea lanes, the 
movement, do not have that responsibility ashore. But certainly 
if there are better ways to do business, to break down 
barriers, to streamline particularly if you have to have things 
in place but to streamline an ability to get authorization to 
break the rules, if you will, legally, that is something that 
is just in everyone's interest.
    When we started this journey in Iraq and now Afghanistan, 
there were many procedures that were in place between the 
Services and the various intel agencies that over time made no 
sense and we broke those down, and they are very streamlined 
there. I am guessing but I think we could probably do the same 
thing, and if confirmed, I will take a very hard and immediate 
look at that.
    Senator Hagan. Thank you.
    My last question has to do with cybersecurity. General 
Welsh, as we look at these issues, I think we need to look at 
how we view cybersecurity and regard it as a military 
capability. We need cyber operators not just technicians and a 
culture that sees cybersecurity as a military capability.
    In your opinion, what does the Air Force need to be doing 
to recruit, train, and retain cyber airmen and encourage 
innovation in the cybersecurity operations? What needs to be 
done to support a cultural shift to view cyber more as an 
operational capability than a technical skill set? I really 
worry about the availability of enough of these cyber 
technically skilled people coming into our military.
    General Welsh. Senator, thank you. There has been great 
support from Congress and specifically the Senate I think in 
the past on hiring authorities that have allowed us to bring in 
more and more of the right level of qualified people to do 
these jobs for us. Thank you for that.
    I agree with you that this is an area that we are still 
trying to grow into our own skin on from both the joint and the 
Air Force perspective. I think that General Alexander in U.S. 
Cyber Command, working with General Kehler in STRATCOM, are 
putting together the specific requirements that the Services 
can then try and organize, train, and equip to. Once we clearly 
identify those, I think we will find, at least in the Air 
Force, that the great majority of our people are people who 
actually help establish the architecture, the infrastructure 
within which our cyber operators will then operate. Those 
operators need to be recruited very carefully, trained very 
carefully in a different skill set than the people who 
establish, operate, and defend the architecture. I think that 
is our first task, making sure we have that organizational 
construct clear in our minds, we know exactly who we need and 
what skill set, and then we focus on finding the right people 
and training them the right way.
    Senator Hagan. We are competing directly with industry on 
these issues. I think it makes it even that much more 
difficult.
    Mr. Chairman, thank you very much. Thank you.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    To all of you, you have really accorded yourselves well, 
and I want to share Senator Hagan's comments about the way you 
recognize your family. I think it speaks volumes to who you are 
as individuals. I know that a lot of military families have 
suffered, and General Kelly and Mrs. Kelly, we appreciate what 
you have all gone through very much.
    General Kelly, how would you rate the security on our 
southern border right now?
    General Kelly. The fact that we have such a drug problem 
and availability of drugs north of the border tells me an awful 
lot about----
    Senator Graham. We are finding tunnels.
    General Kelly. Tunnels, the so-called mule trains, things 
coming in across in cargo.
    Senator Graham. On a level of very secure to very insecure, 
what is your general opinion? I know you have not had time to 
study it in depth, but going into your job, what is your 
general view of the security on the border?
    General Kelly. Senator, based on the availability of drugs 
in America, it does not seem like it is very secure at all.
    Senator Graham. I could not agree with you more.
    Please think long and hard about what the command can do to 
make it more secure in light of the Posse Comitatus Act. Do you 
agree this is a national security threat not just a law 
enforcement threat?
    General Kelly. Drugs in America?
    Senator Graham. Yes.
    General Kelly. Absolutely, Senator.
    Senator Graham. Do you think these same tunnels can bring 
terrorists to our country too?
    General Kelly. They can or any other type of----
    Senator Graham. These mule trains can transport a lot other 
than just drugs, right?
    General Kelly. Absolutely.
    Senator Graham. I think it is a growing threat and I want 
to see what our military can do to help the law enforcement 
community to deal with it.
    General Grass, on the National Guard front, what does it 
mean to have the National Guard Bureau Chief as a member of the 
Joint Chiefs to you and how can you effectively use that 
position?
    General Grass. Senator Graham, as a member of the Joint 
Chiefs, I definitely have to bring forward the adjutants 
general and the Governors' thoughts, concerns on the Homeland 
mission, but I also need to be able to balance that with the 
Federal mission and deployable forces and be able to give my 
best military advice to the Secretary of Defense, as well as 
the Chairman of the Joint Chiefs.
    Senator Graham. Do you think you could maybe help referee 
this problem the Air Force has?
    General Grass. Senator, the nominee here to my right and I 
have already had a number of conversations.
    Senator Graham. The reason I pushed so hard to have the 
National Guard represented, we are so integrated now and the 
State homeland security mission is very important, but the 
Federal need for the Guard is probably the greatest since the 
American Revolution itself. I think this whole problem with how 
you construct a new Air Force in tough budget times with the 
Guard and Reserve, that if you had been in place longer, it 
would have helped. The goal is to have a guy like you there 
talking to the Air Force or the Army--maybe next time it is the 
Army--to give them some better intel and insight on how this 
all plays out. I think not only can you be a good partner, you 
can be a good advocate too. I hope you will take that challenge 
up.
    General Grass. Senator, I totally agree. As soon as I get 
on board, I will make partnerships quickly.
    Senator Graham. General Welsh, I have just been very 
impressed with the way you have handled yourself here and the 
way you articulate your view of being the next Chief of Staff 
of the Air Force. General Schwartz is a fine man, and I think 
he has done a good job during tough times.
    What is your view of the Air Force's standing in Congress 
right now?
    General Welsh. Senator, I believe there is some concern, 
and I would tell you that it is fairly widespread from the 
opportunities I have had this week to meet with many members of 
this committee. It is not isolated to a particular issue or a 
particular region. I think it is something that we need to pay 
a lot of attention to. I think there is a trust problem that 
the Air Force must address and improve.
    Senator Graham. Saying that is not a reflection on General 
Schwartz or Secretary Donley, but your intel is good. We want 
to help you to start a new chapter, for lack of a better word.
    Now, back home, the CENTCOM flag is forward in the United 
Arab Emirates. The CENTCOM commander's home station is Shaw Air 
Force Base. Is that correct?
    General Welsh. Yes, sir, that is correct.
    Senator Graham. That is not going to change, is it?
    General Welsh. Senator, our chief is on record as saying 
that is a temporary assignment.
    Senator Graham. Okay. Now, what I would like from you 
before we vote is some coordination between you and General 
Mattis if you can give me a general time period of when the 
flag will come home. I understand it needs to be forward 
because of Afghanistan and particular threats may be coming 
from Iran in the future. But I think what the people at Shaw 
are looking for is some kind of time period. It does not have 
to be an exact day or month when they can be reassured that the 
flag is coming back. Would you get with General Mattis and get 
back with me about that?
    General Welsh. Senator, I would. I do not know General 
Mattis' view, so I will find out and get back to you.
    Senator Graham. I would appreciate if you would find out 
before we vote.
    [The information referred to follows:]

    I connected with General Mattis about the Shaw three-star position, 
or as he knows it, his Combined Forces Air Component Commander (CFACC) 
position. U.S. Central Command continues to examine forward presence 
requirements across all their components, but he and I believe that a 
return of the Air Force three-star (CFACC) to Shaw Air Force Base no 
earlier than the summer of calendar year 2015 is a viable option. We 
will re-examine and reassess the operational environment in the spring 
of calendar year 2014 to determine whether this ``change of construct'' 
will support projected operations in calendar year 2015.

    Senator Graham. Now, trainers. The T-38 has been a good 
airplane. It is about as old as I am. I need a tune-up, I 
think. The efforts to get a new trainer keeps moving to the 
right because you have budget problems. How do you view the 
need for a new trainer in terms of the priorities of the Air 
Force?
    General Welsh. Senator, training is foundational to our Air 
Force. It is absolutely essential. In times especially where 
money will get tight and the force structure will be adjusted, 
the two things that we cannot stop doing is recruiting the 
right people and training them better than any other air force 
in the world trains their people.
    Senator Graham. So you think we need a new trainer?
    General Welsh. I think the entire Air Force believes we 
need a new trainer, Senator. The issue right now has been what 
do you trade for it.
    Senator Graham. Right.
    General Welsh. I believe this is a discussion that must 
take place every year until the time when we can begin.
    Senator Graham. To the committee, to highlight the 
General's dilemma here, night vision goggles training is very 
difficult, if not impossible, with the T-38. Is that correct?
    General Welsh. That is correct, sir.
    Senator Graham. Air refueling is very difficult, if not 
impossible. Is that correct?
    General Welsh. That is correct, sir.
    Senator Graham. High-G performance [high levels of 
acceleration training] is very difficult?
    General Welsh. Yes, sir.
    Senator Graham. If you are talking about the fourth or 
fifth generation fighter, you want a trainer that would allow 
you to be trained for those fighters. Is that correct?
    General Welsh. It makes it difficult, sir.
    Senator Graham. About the Air Guard/Air Reserve, I think 
you have given an excellent answer, and I will be the first to 
say that the Air Guard and Air Reserve is going to have to take 
some reduction. Everybody else is going to take a reduction, 
including the Air Guard and the Air Force Reserve. We just want 
it to be within means and within acceptable ranges.
    A final comment to each of you. Do you agree that if 
Congress does not get a handle on TRICARE and health care costs 
that are growing exponentially in the DOD budget, that you are 
going to have to make some draconian choices in the future 
between health care for our families and the retired force and 
the ability to train and fight?
    General Kelly. I do, Senator.
    General Welsh. I do, Senator.
    General Grass. Yes, sir.
    Senator Graham. All of you are on record that Congress 
needs to address the growing cost of health care entitlements 
in the DOD budget. Are you willing to stand by me and others on 
this committee to go to our military family--and I say that 
fondly--that something has to give here?
    General Kelly. Yes, sir.
    General Welsh. I am, sir.
    Senator Graham. Thanks a bunch. I wish you all well.
    Chairman Levin. You are returning the flag to its other 
location?
    Senator Graham. I am. I am going to depart.
    Chairman Levin. Senator Graham, you and I are the only ones 
left. I am not going to ask any additional questions for a 
second round because I am going to have to leave. Are you okay?
    Senator Graham. I am okay.
    Chairman Levin. We thank you. We thank your families. You 
are extraordinary leaders. Your families are there at your 
side, and we cannot tell you how much we admire you and them.
    We are going to try to get these nominations acted upon as 
soon as humanly possible, and we look forward to your 
confirmations. Again, we thank you. We are very grateful to 
each of you and your families. We will stand adjourned.
    [Whereupon, at 12:04 p.m., the committee adjourned.]

    [Prepared questions submitted to Gen. Mark A. Welsh, III, 
USAF, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No. I completely agree with the goals of those defense 
reforms; they remain essential to the effective employment of our 
Nation's Armed Forces. Most importantly, they have yielded a 
demonstrated improvement in the joint warfighting capabilities of the 
U.S. military.
    Question. If so, what areas do you believe it might be appropriate 
to address in these modifications?
    Answer. I have no suggested modifications to the Goldwater-Nichols 
legislation. However, if confirmed, I look forward to the opportunity 
to assess Goldwater-Nichols from the vantage point of a Service Chief.
    Question. Do you believe that the role of the Service Chiefs under 
the Goldwater-Nichols legislation is appropriate and the policies and 
processes in existence allow that role to be fulfilled?
    Answer. Yes. Over the 2 plus decades since the passage of 
Goldwater-Nichols, ``jointness'' has been institutionalized in the 
Armed Forces of the United States. Service Chiefs have been integral to 
that success. Their roles and responsibilities remain critical to 
further progress. I believe Goldwater-Nichols appropriately establishes 
those roles and that existing policies and processes allow their 
fulfillment. If confirmed, I will be able to assess Goldwater-Nichols 
from the vantage point of a Service Chief for the first time. I'll also 
welcome the opportunity to share my thoughts and ideas with the 
committee as appropriate.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. No, although I'd like to reserve judgment until after I've 
experienced the resource allocation process from a Service Chief's 
perspective. If confirmed, I will welcome the opportunity to share my 
thoughts and ideas with the committee as appropriate.
                             relationships
    Question. Section 8033 of title 10, U.S.C., discusses the 
responsibilities and authority of the Chief of Staff of the Air Force. 
Section 151 of title 10, U.S.C., discusses the composition and 
functions of the Joint Chiefs of Staff, including the authority of the 
Chief of Staff of the Air Force, as a member of the Joint Chiefs of 
Staff, to submit advice and opinions to the President, the National 
Security Council, or the Secretary of Defense. Other sections of law 
and traditional practice, also establish important relationships 
outside the chain of command. Please describe your understanding of the 
relationship of the Chief of Staff of the Air Force to the following 
officials:
    The Secretary of Defense.
    Answer. The Secretary of Defense serves as the principal assistant 
to the President on all Department of Defense (DOD) matters. Senior Air 
Force leadership operates subject to the authority, direction, and 
control of the Secretary of Defense. If confirmed as a Service Chief 
and member of the Joint Chiefs of Staff, I will work closely with the 
other members of the Joint Chiefs to provide the best possible military 
advice to the Secretary of Defense, particularly with regard to matters 
of air, space, and cyberspace operations, policy, and strategy.
    Question. The Secretary of the Air Force.
    Answer. The Chief of Staff of the Air Force is directly responsible 
to the Secretary of the Air Force and performs duties subject to his 
authority, direction, and control. For the Secretary of the Air Force, 
the Chief of Staff is responsible for providing properly organized, 
trained, and equipped forces to support the combatant commanders in 
their mission accomplishment. The Chief of Staff oversees members and 
organizations across the Air Force, advising the Secretary on plans and 
recommendations, and, acting as an agent of the Secretary, implementing 
plans upon approval. If confirmed as the Chief of Staff of the Air 
Force, I will work very closely with the Secretary to ensure our 
ability to rapidly provide forces tailored to meet the needs and 
objectives of our combatant commanders.
    Question. The Under Secretary of the Air Force.
    Answer. The Under Secretary of the Air Force is authorized, subject 
to the Secretary of the Air Force's direction and control, to act for 
and with the authority of the Secretary of the Air Force on all matters 
for which the Secretary is responsible; that is, to conduct the affairs 
of the Department of the Air Force. If confirmed, I will foster a close 
working relationship with the individual serving as the Under 
Secretary.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will work with and through 
the Chairman in formulating military advice as a member of the Joint 
Chiefs of Staff by advising him on Air Force capabilities and our 
preparations to support the combatant commanders in the conduct of 
military operations. I look forward to performing the duties assigned 
by law to the Chief of Staff to provide properly organized, trained, 
and equipped forces as needed by the combatant commanders and to 
provide military advice on matters within my expertise, as required.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman has the same statutory authorities and 
obligations of other members of the Joint Chiefs of Staff. When 
performing duties as the Acting Chairman, the Vice Chairman's 
relationship with the combatant commanders is exactly the same as that 
of the Chairman. If confirmed, I will assist the Vice Chairman to 
execute the duties prescribed by law or otherwise directed by the 
Secretary of Defense or the Chairman of the Joint Chiefs of Staff.
    Question. The Chiefs of the other Services.
    Answer. If confirmed, I will work closely with the Chiefs of the 
other Services to capitalize on our individual strengths, complement 
our capabilities, and enhance mutually beneficial relationships as we 
carry out our responsibilities as members of the Joint Chiefs of Staff. 
My goal will be to work with each of them to enhance joint 
interoperability and other joint warfighting capabilities in order to 
provide the force mix desired by the combatant commanders
    Question. The Commander, U.S. Transportation Command (TRANSCOM).
    Answer. I am keenly aware of the importance of a strong close 
working relationship between TRANSCOM and the Air Force, its primary 
source of airlift. The Air Force remains a key contributor to 
TRANSCOM's success in meeting national military requirements. If 
confirmed, I will work to further enhance the Air Force's support to 
the Commander, TRANSCOM.
    Question. The Commander, U.S. Strategic Command (STRATCOM).
    Answer. A very close working relationship with the STRATCOM 
commander will be essential to identifying and implementing effective 
and enduring solutions to any issues with the Air Force's ability to 
support our Nation's nuclear deterrent capabilities. If confirmed, I 
will ensure the STRATCOM commander is constantly apprised on readiness 
of the Air Force air, space, and cyberspace forces required to support 
STRATCOM's missions. I will strive, in particular, to, keep a clear 
focus on Service efforts to maintain the highest standards of 
performance in the nuclear arena, as well as the intelligence, 
surveillance, and reconnaissance (ISR) mission and cyberspace mission 
areas.
    Question. The other combatant commanders.
    Answer. If confirmed as the Chief of Staff, I will work with the 
Secretary of the Air Force to ensure that the Air Force is properly 
organized, trained, and equipped to provide the capabilities the 
combatant commanders need to execute their missions. That requires a 
clear understanding of their requirements. I will personally engage in 
a forthright and direct dialogue with the combatant commanders to 
ensure that I do understand.
    Question. The Assistant Secretary of the Air Force for Acquisition.
    Answer. The Assistant Secretary of the Air Force for Acquisition 
serves as the Air Force's Senior Acquisition Executive. If confirmed, I 
will work closely with the Secretary of the Air Force and the Assistant 
Secretary on matters affecting the acquisition of the resources needed 
to train and equip the Air Force. I'll also ensure military expertise 
is readily available to assist them in accomplishing their acquisition-
related responsibilities.
    Question. The General Counsel of the Air Force.
    Answer. The General Counsel (GC) is the senior civilian legal 
advisor to Air Force senior leaders and all officers and agencies of 
the Department of the Air Force. The GC serves as the chief ethics 
official. I have great respect for our current GC and the 
responsibilities and difficulties of his office. If confirmed, I look 
forward to developing an even stronger working relationship with the 
General Counsel and his staff.
    Question. The Judge Advocate General of the Air Force.
    Answer. The Judge Advocate General (TJAG) is the senior uniformed 
legal advisor to Air Force senior leaders and all officers and agencies 
of the Department of the Air Force and provides professional 
supervision to The Judge Advocate General's Corps in the performance of 
their duties. If confirmed, I look forward to continuing my strong 
working relationship with The Judge Advocate General and the TJAG 
staff.
    Question. The Superintendent of the U.S. Air Force Academy.
    Answer. I have a strong affinity for the U.S. Air Force Academy. It 
is a bedrock institution in the development of tomorrow's Air Force 
leaders. If confirmed, I will work closely with the Superintendent to 
address issues faced by the Academy and to promote the Academy's 
sustained commitment to excellence and fulfillment of its very 
important character building mission.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Chief of Staff of the Air Force?
    Answer. The Chief of Staff of the Air Force fulfills a number of 
duties and functions. As a member of the Joint Chiefs of Staff, he 
serves as a military advisor to the President, the National Security 
Council, and the Secretary of Defense. The Chief of Staff is also 
subject to the authority, direction, and control of the Secretary of 
the Air Force, providing plans and recommendations to the Secretary, 
implementing policy, and overseeing the Air Staff and other members and 
organizations of the Air Force. He is a principal advisor to the 
Secretary. Working for and through the Secretary of the Air Force, the 
Chief of Staff is responsible for providing properly organized, 
trained, and equipped forces to support the combatant commanders' 
accomplishment of their missions.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Air Force would prescribe for you?
    Answer. If confirmed as the Chief of Staff of the Air Force, I 
would expect the Secretary of the Air Force to assign me duties 
consistent with the responsibilities outlined above to ensure that the 
Air Force is appropriately organized, trained, and equipped to meet its 
institutional obligations and force provider responsibilities.
    Question. What changes, if any, would you recommend to section 8034 
of title 10, U.S.C., relating to the Air Staff and its composition and 
functions?
    Answer. None, although I may have a different view after I have 
observed Air Staff performance and am able to make an assessment from 
the vantage point of a Service Chief.
    Question. What do you believe are your qualifications to assume 
this office?
    Answer. During my 36 years on Active Duty in the Air Force, I have 
served in a range of positions and have enjoyed a variety of 
opportunities and experiences which have helped prepare me to fulfill 
the duties and responsibilities commensurate with appointment as the 
Air Force Chief of Staff. Throughout my tenure in the Air Force, I have 
been privileged to serve with and learn from a host of exceptional 
service men and women, including members of our sister Services, many 
in joint positions of trust and leadership.
    Prior to my current assignment, I served in positions that involved 
direct and routine contact with the Secretary of Defense, Chairman of 
the Joint Chiefs of Staff, combatant commanders, other Service Chiefs, 
Directors of DOD Agencies and Heads of non-DOD Federal agencies on an 
array of major issues confronting our Nation and our military. My past 
assignments at the USAF Academy and Air Education and Training Command 
allowed me to better understand, confront, and resolve the challenges 
facing our service in the areas of education and training.
    Most recently, as the U.S. Air Forces in Europe (USAFE) Commander, 
and Commander NATO Air Component Command, Ramstein, I've been on both 
the ``giving'' and the ``receiving'' ends of the efforts of Air Force 
leaders to organize, train, and equip the great men and women of our 
Air Force. This position gave me a broad leadership perspective on the 
interaction of DOD, the combatant commands, and our Services in 
executing our National Military Strategy. It also helped me better 
understand the critical partnerships with European and African Air 
Forces, U.S. components to both U.S. European Command and U.S. Africa 
Command, and our NATO and European partners. These experiences and 
perspectives will be invaluable if I am confirmed to serve as Chief of 
Staff.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Chief of Staff of the 
Air Force?
    Answer. If confirmed as the Chief of Staff, I will work closely 
with the Secretary of the Air Force to identify, assess, and address 
all challenges. I will ensure the readiness and relevance of our Air 
Force along with the safety and well-being of our people.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Chief of Staff of the Air Force?
    Answer. The next Chief of Staff must lead the world's finest Air 
Force, ensuring it is properly organized, trained, and equipped in 
order to provide for our Nation's defense, winning today's fight, and 
preparing our force for an uncertain security environment. One of the 
major challenges is to do this while playing our part in helping to 
reduce our Nation's financial deficit.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will immediately focus on continuing to 
recruit the very best people we can and giving our airmen the best 
training in the world. We must also continue modernization efforts so 
that our force is equipped to meet the challenges of today and of the 
future.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Staff of the Air 
Force?
    Answer. The most serious problem facing our Service is the ability 
to properly balance our force in a fiscally constrained environment 
while keeping our critical core capabilities in order to provide the 
global vigilance, global reach, and global power required by our joint 
teammates as well as for the American people.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will prioritize and focus on these concerns 
and develop solutions along with our joint and other partners to ensure 
we are a ready and capable force.
                               priorities
    Question. If confirmed, what broad priorities will you establish?
    Answer. My priorities are: (1) continuing to strengthen the nuclear 
enterprise; (2) partnering with the joint and coalition team to win 
today's fight; (3) developing and caring for our airmen and their 
families; (4) modernizing our air, space, and cyberspace inventories, 
organizations, and training; and (5) recapturing acquisition 
excellence. If confirmed, my emphasis will be to provide global 
vigilance, global reach, and global power to the Nation through 
America's innovative airmen.
                    personnel and entitlement costs
    Question. The cost of personnel, including health care, 
compensation, and retirement continues its steep upward growth and is 
becoming an ever increasing portion of the DOD budget.
    If confirmed, what actions would you take to control the rise in 
the Air Force's personnel costs?
    Answer. Military compensation is, and must remain, highly 
competitive to sustain the recruitment and retention of high caliber 
men and women to meet readiness requirements and accomplish our 
national security mission. If confirmed, I will remain committed to 
this goal. However, in light of the current economic crisis and overall 
reductions in defense spending, we must look at balancing personnel 
costs to avoid reductions to force structure and modernization efforts 
critical to support the warfighter and the defense of our Nation. I 
look at management of our force structure as being a key element in 
controlling our personnel costs. If confirmed, I will ensure that the 
Air Force continues to make difficult, but fiscally responsible 
decisions to implement force management programs that allow us to 
remain at authorized end strength levels. Additionally, I will pursue 
legislative and policy changes needed to ensure that the Air Force is 
able to operate as a Total Force with the most effective use of 
resources.
                        unified medical command
    Question. The Government Accountability Office found in its 2011 
report on ``Opportunities to Reduce Duplication, Overlap and 
Fragmentation, Achieve Savings, and Enhance Revenue,'' that the 
Department could save between $281 million and $460 million annually by 
realigning DOD's military medical command structures. The Committee is 
aware that, in spite of the growing cost of health care within the 
Department, the Air Force has historically objected to the 
establishment of a unified medical command.
    What is your understanding of the reasons for the Air Force 
position on the Unified Medical Command?
    Answer. From my understanding of the recommendations by the 
Military Health System Task Force, comprised of leaders from the Office 
of the Secretary of Defense (OSD), JCS and the Services, a Unified 
Medical Command will not streamline operations, achieve cost savings, 
improve synergy, or improve patient outcomes.
    A Unified Medical Command will require very expensive new systems 
and organizational structures to oversee a new combatant command 
headquarters and new subordinate commands. Some worry that a Unified 
Medical Command may not be as responsive to the needs of Service 
warfighters as is the current oversight by the Services, which already 
provide the best care with the highest survival rate in the history of 
warfare.
    I believe the Services should continue to integrate common medical 
platforms with the goal to reduce redundancy and lower costs. The Air 
Force fully supports the establishment of the Defense Health Agency as 
directed by the Deputy Secretary of Defense. This effort will 
consolidate oversight of common support functions (facilities planning, 
contracting, logistics, and research and development) in the new 
collocated medical headquarters. Adoption of a single Service 
accounting system to allocate Defense Health Program dollars and 
improve accountability would do more to reduce costs than a Unified 
Medical Command.
    Question. If confirmed, how would you evaluate proposals and 
options for improving efficiency of the military health care system 
that involve consolidation of common functions, including command 
functions?
    Answer. If confirmed, I will support Deputy Secretary of Defense 
Carter's initiative to improve efficiency. I know our Air Force Surgeon 
General is actively engaged in this planning effort to help identify 
the organizational structures, services, and business processes to 
establish all elements of a Defense Health Agency, and to provide 
specific recommendations on activities managed under shared services 
constructs.
    Question. Should readiness as well as costs be a factor in such 
evaluation, and if so, how would readiness metrics be applied?
    Answer. I believe the top two criteria used by the Military Health 
System Task Force evaluation focused on medically-ready forces, and a 
trained and ready deployable medical force. These two criteria 
aggregated to 65 percent of the total ``weight'', and these criteria 
were at the forefront of all Service deliberations. Based on these 
readiness weighted criteria, the Air Force is confident that the 
recommendations appropriately considered readiness.
             intelligence, surveillance, and reconnaissance
    Question. The airborne ISR assets developed and operated by the Air 
Force form an indispensable part of the Nation's overall intelligence 
architecture. These assets are often referred to as high demand, low 
density systems because of the extensive number of requirements and 
high operational tempo on their systems and crews. This year, we also 
see the Air Force trying to divest itself of the Global Hawk Block 30 
aircraft, a system that the Air Force has been using to meet high 
altitude ISR demands.
    In your view, will the Air Force have sufficient airborne ISR 
assets even after the removal of the Global Hawk Block 30 aircraft to 
meet current and projected requirements?
    Answer. As the Air Force continues to leverage our entire ISR 
enterprise to meet combatant commander requirements, the current 
requirement for high-altitude ISR is being satisfied with the Air 
Force's fleet of 27 U-2 aircraft and its advanced multi-intelligence 
sensors. Today, we operate 57 medium altitude remotely piloted aircraft 
(RPA) combat air patrols (CAPs) and are posturing our ISR enterprise to 
support 65 CAPs. We are currently undergoing sustainment and 
modernization efforts on our Joint Surveillance and Target Attack Radar 
System (JSTARS) aircraft and upgrading the RC-135 to provide a direct 
link into our global distributed common ground station network. This 
full complement of efforts will ensure the Air Force meets its current 
and projected requirements despite the planned divestment of Global 
Hawk Block 30.
    Question. What changes would you recommend, if confirmed, to 
current plans for the development and acquisition of airborne ISR 
platforms?
    Answer. The Air Force's fiscal year 2013 budget expands our RPA 
fleet, improves our U-2 capabilities, continues the MC-12, and upgrades 
the RC-135 and JSTARS. We will continue to improve and mature 
capability-based planning and analysis across the Air Force ISR 
enterprise to ensure a balanced mix of platforms, sensors, and 
analysis. We must continue to improve our ability to utilize data 
across all domains (air, space, and cyberspace) in all operating 
environments. If confirmed, I will ensure that the Air Force continues 
to review long-term intelligence information requirements to guide 
future capability development.
    Question. Will these changes remove ISR platforms from the ``high 
demand, low density'' category?
    Answer. The Air Force is sizing the force to account for combatant 
commander requirements, to include high- and medium-altitude airborne 
capabilities, as well as processing, exploitation, and dissemination 
capabilities (which are a cornerstone of the overall capability). We 
will continue to develop all domain capabilities in order to meet the 
needs of our combatant commanders and our national leadership. We can 
only affect the ``density'', not the ``demand''.
    Question. Former Secretary Gates publicly complained that the Air 
Force had not put sufficiently high priority on fielding unmanned 
aerial vehicles (UAV) to provide ISR support for the forces operating 
in Iraq and Afghanistan. General Schwartz took a number of steps to 
address that issue.
    If confirmed, what steps would you take to ensure that the Air 
Force continues to provide greater priority to providing ISR support of 
field operations?
    Answer. The Air Force places high priority on ISR support to 
combatant command operations. The Air Force increased the number of 
medium altitude RPA CAPs, deployed the MC-12 Project Liberty in record 
time, and deployed Blue Devil I, a first of its kind multi-source 
intelligence (multi-INT) platform. In addition, we developed advanced 
sensors, such as Gorgon Stare and Airborne Cueing and Exploitation 
System Hyperspectral, to meet requirements in Afghanistan. We will 
continue to improve and grow ISR capabilities as required. If 
confirmed, I will also ensure that lessons learned and practical 
experience inform our science and technology investment, as well as 
research, development, and acquisition programs.
    Question. Due to insufficient ISR capacity provided by the Air 
Force, the combatant commands have frequently turned to expensive 
contracted airborne ISR solutions to meet their most pressing and 
immediate needs.
    Do you believe additional growth in Air Force ISR capacity should 
take into account combatant command ISR requirements that are currently 
being met through contracted services?
    Answer. ISR requirements and current shortfalls should and do 
account for combatant command requirements while considering additional 
growth in ISR capacity. The Air Force adheres to a rigorous planning, 
programming, budgeting, and execution process to ensure our ability to 
the meet the highest priority mission requirements in a fiscally 
constrained environment. That said, the Air Force is well postured to 
address many ISR shortfalls identified by the combatant commands, but 
the solutions need to be considered in a joint context. While the Air 
Force has incredible capability, we need to ensure that the Nation is 
fully utilizing the investment all of the Services have made, 
particularly with respect to ISR. As we begin to draw down forces in 
Afghanistan, we will begin to shift assets and personnel currently 
engaged in the Central Command area of responsibility to other 
combatant commands in accordance with the priorities set forth within 
the Global Force Management Allocation Plan (GFMAP).
    Question. Do you believe it is appropriate for combatant commanders 
to contract for some portion of their airborne ISR requirements?
    Answer. Air Force ISR is ``all in'' in its support of the combatant 
commands subject to the allocation and apportionment decisions through 
the GFMAP process. The demand for ISR exceeds our current capacities, 
and with shrinking defense budgets, this shortfall will likely continue 
for the foreseeable future. With that in mind, I believe it is the 
combatant commander's prerogative to address any shortfalls with the 
means at his disposal within applicable legal and operational 
constraints.
    Question. Making effective use of ISR data requires sufficient 
processing, exploitation, and dissemination (PED) capabilities. 
Currently, much of this PED capability is provided by contractors.
    Do you believe the Air Force should develop additional ``in-house'' 
PED capabilities to reduce its reliance on contractors?
    Answer. In response to the rapid increase of intelligence data 
received from ISR platforms since 2001, the Air Force has added an 
additional 2,158 billets to its Distributed Common Ground System (DCGS) 
enterprise in the last 3 years. This increase will ensure our ability 
to maintain and increase our PED obligations to the combatant 
commanders as their operational requirements ebb and flow in current 
and future engagements. The Air Force is also adding analytical tools 
that help in processing vast volumes of information as another way to 
help meet the demand. However, the increased billets within the DCGS 
enterprise will likely have little to no effect on the reliance on 
contractors currently supporting operations in Afghanistan, as the 
global demand will continue to outstrip supply. If confirmed, I will 
ensure we continue to support warfighter requirements in the most cost 
effective way possible.
                special operations enabling capabilities
    Question. The Commander of U.S. Special Operations Command (SOCOM) 
has highlighted the critical nature of Service-provided Combat Support 
and Combat Service Support enabling capabilities to the activities of 
Special Operations Forces.
    If confirmed, how would you ensure appropriate Air Force enabling 
capabilities for special operations are maintained, especially in light 
of increasing budget pressures?
    Answer. If confirmed, I will ensure the Air Force remains committed 
to providing the appropriate support to all combatant commands, 
including SOCOM. The Air Force is prioritizing readiness over force 
structure to avoid a hollow force. We are also leveraging Total Force 
contributions to operations plans (OPLAN) and contingencies by building 
an appropriate and sustainable Active/Reserve component force mix. We 
have also prioritized and increased our capability to execute and 
support irregular warfare, which will provide essential support to 
Special Operations Forces for the foreseeable future.
    Question. If confirmed, how would you ensure the availability of 
such enabling capabilities is synchronized with the training and 
deployment cycles of Special Operations Forces?
    Answer. First and foremost, we will continue to work closely with 
SOCOM and its Special Operations Force Generation model. We are 
exploring a new expeditionary construct for the Air Force which 
streamlines presentation of our Total Force team--Active, Guard, and 
Reserve--with inputs from all major commands. The new teaming construct 
will synchronize appropriate training and deployment of Air Force 
Special Operations Forces in order to meet global requirements now and 
in the future.
                special operations personnel management
    Question. Some have argued that the Commander of U.S. Special 
Operations Command (SOCOM) should have greater influence on special 
operations personnel management issues including assignment, promotion, 
compensation, and retention of Special Operations Forces. One proposal 
would modify section 167 of title 10, U.S.C., to change the role of the 
SOCOM Commander from ``monitoring'' the readiness of special operations 
personnel to ``coordinating'' with the Services on personnel and 
manpower management policies that directly affect Special Operations 
Forces.
    What is your view of this proposal?
    Answer. It is clearly in our best interest to have very robust and 
capable Special Operations Forces. In the Air Force's role to organize, 
train, and equip our forces, we must make sure that our efforts 
synchronize with SOCOM and that we have a coordinated approach to 
providing forces. DODD 5100.01, Functions of Department of Defense and 
Its Major Components, ensures we do this. Further, the Air Force 
established an agreement with SOCOM to comply with the current 
directive by coordinating personnel management policy and plans with 
SOCOM.
               independence of the judge advocate general
    Question. What are your views about the responsibility of the Judge 
Advocate General of the Air Force to provide independent legal advice 
to the Chief of Staff and the Air Staff, particularly in the areas of 
military justice and operational law?
    Answer. I believe it is critical for the Chief of Staff to receive 
independent legal advice from his senior uniformed judge advocate. Our 
senior uniformed lawyers bring a wealth of experience and perspective 
shaped by years of working with commanders in the field. The Judge 
Advocate General's ability to provide independent legal advice is 
statutorily guaranteed and vitally important to Air Force senior leader 
decisionmaking. Generally, I believe senior leaders are better informed 
to make the best decisions when they are aware of both The Judge 
Advocate General's advice and the advice of the Air Force General 
Counsel.
    Question. What are your views about the responsibility of staff 
judge advocates throughout the Air Force to provide independent legal 
advice to military commanders in the field and throughout the Air Force 
establishment?
    Answer. Staff judge advocates (SJAs) are essential to the proper 
functioning of both operational and support missions. SJAs have a major 
responsibility to promote the interests of a command by providing 
relevant, timely, and independent advice to commanders, and this 
independence is reflected in statute (title 10 U.S.C. Sec. 8037(f)(2)). 
Convening authorities are required by statute (title 10 U.S.C. 
Sec. 806) to communicate with their SJAs on issues related to military 
justice matters, which is critical to disciplined mission execution. In 
addition, commanders and other leaders rely on their staff judge 
advocates for advice on all types of legal and policy matters. SJAs 
offer legal advice independent of any particular agenda. I believe it 
is very important for commanders to continue to receive uniformed legal 
advice.
                 air force future total force planning
    Question. Historically, the Air Force has been credited for having 
a very good relationship with its Reserve components and relying more 
heavily on the Air National Guard and Air Force Reserve than the other 
Military Departments. With the presentation of the Air Force's fiscal 
year 2013 proposals for making force structure reductions, however, the 
Air Force appears to have decided against relying as much on the Air 
National Guard to provide tactical fighters and airlift capability.
    What criteria should we use in assessing the proper mix of Active 
Air Force, Air National Guard, and Air Force Reserve in planning for 
our future force structure?
    Answer. The first and most important criterion must be the ability 
of the Total Force to generate the capabilities needed to meet the 
demands of combatant commanders in executing the National Defense 
Strategy during all phases of operations, from shaping the strategic 
environment in phase zero to rebuilding the peace in phase five. The 
second criterion is the ability to sustain the force, including 
readiness, training, overseas presence, and the symbiotic manpower 
relationships between the Active and Reserve components. The next 
criterion is cost. As good stewards of our Nation's resources, we must 
accomplish our missions in the most effective and efficient manner 
possible. Finally, all of the criteria above must be evaluated to 
understand and characterize the risk associated with each Air Force 
core function. The members of the Active Duty Air Force, Air Force 
Reserve, and Air National Guard are teammates and remain critical 
partners as we move forward as a Total Force.
    Question. Do you agree with the fiscal year 2013 budget proposal to 
cut proportionally deeper in the Air National Guard, as compared to 
personnel reductions proposed for the Active Air Force or Air Force 
Reserve?
    Answer. I believe the fiscal year 2013 Presidential budget proposal 
seeks to provide the best alternatives for the Total Force in order to 
generate the capabilities needed to meet the demands of the National 
Defense Strategy and the combatant commanders during all phases of 
operations, from shaping the strategic environment in phase zero to 
rebuilding the peace in phase five. While some may see the choices the 
Air Force made in the fiscal year 2013 budget proposal through a 
different lens, I believe this proposal would effectively support the 
National Defense Strategy. The Air National Guard and the Air Force 
Reserve are valued members of our Total Air Force team. I fully 
recognize the significance of the Air National Guard's contributions to 
our Nation and our States. If confirmed, I will continue to explore 
combat ready options that meet the needs of our combatant commanders 
and preserve domestic response capabilities.
    Question. Part of the rationale apparently comes from the perceived 
need to support peacetime rotations to overseas bases such as those in 
Europe.
    Why shouldn't we consider making more substantial reductions in Air 
Force force structure in Europe, particularly in view of the shift in 
strategy toward the Asia/Pacific arena?
    Answer. The global force posture requirements are established by 
strategy and the needs of the combatant commanders and we strive to 
meet those needs. In the case of Europe, given my current position as 
the USAFE Commander, this is a question that I have wrestled with 
often. Our current Air Force presence in Europe is a very small 
fraction of what existed during the Cold War. Assuming the fiscal year 
2013 budget actions are carried out, our conventional warfighting 
forces in Europe will consist of only six fighter squadrons, one 
tactical airlift squadron, a rescue helicopter squadron, and one tanker 
squadron. Those fighters also are responsible for fulfilling other 
commitments to the NATO alliance. This region is home to some of our 
most reliable allies and borders many of the world's trouble spots in 
the Middle East, Central Asia, and Africa. Maintaining interoperability 
through joint training with our allies, operational basing structure, 
and forward presence for deterrence and quick response is vital to our 
national interest.
    Having said that, I believe we should consider reductions and 
consolidation opportunities in Europe. I think that planning must begin 
with a careful assessment of the enduring missions in Europe . . . 
those things that the Nation will expect us to be able to do regardless 
of the scenario that develops in the Middle East, the Levant, or 
elsewhere in Europe or Africa. The facilities and infrastructure 
required to support those enduring missions should also be considered 
enduring. We should focus our reduction and consolidation efforts on 
the force structure and facilities that remain. Our planning for those 
should be driven by logic, not emotion. It should be shaped by which 
options our national leadership believes need to be available for rapid 
response to emerging crises or events (e.g., opposed Non-Combatant 
Evacuation Operations in the Levant or Africa) and the timeframe in 
which they would need to be able to execute them. Knowing those two 
things would allow the Air Force to present proposed adjustments to 
European force structure and facilities in a reasoned, operationally 
sound way to allow an objective discussion informed by operational, 
fiscal, and partner perspectives.
                         air force end strength
    Question. In the context of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2013, both the House-passed bill and the Senate 
Armed Services Committee reported bill would restore certain Air Force 
Reserve component force structure that the Air Force and the Department 
had proposed to cut. General Schwartz has urged Congress to provide the 
personnel and resources necessary to man and equip force structure 
retained in excess of the budget proposal, and both bills attempt to do 
so.
    What is your assessment of the level of personnel and funding 
needed to fully man and equip force structure restorations in the House 
and Senate Committee bills?
    Answer. The Air Force will require $8.7 billion across the Future 
Years Defense Program (FYDP) to fully fund the restoration of 286 
aircraft. In addition to funding, the Air Force would require the 
restoration of approximately 9,900 manpower authorizations. This would 
fund the operations, sustainment, and manpower to man and operate these 
weapons systems.
    If such funding is not provided, and Congress requires us to keep 
force structure in excess of the fiscal year 2013 PB proposal, we will 
inevitably see a loss of readiness, or fail to sustain key 
modernization needed to deal with future challenges and recapitalize 
our older-than-desired aircraft.
                        individual ready reserve
    Question. The Commission on the National Guard and Reserves has 
found that accessing the IRR as a viable source of manpower for the war 
was problematic, and that using the IRR as a solution for unit manning 
is a failed concept.
    What is your assessment of the value of the IRR to the All-
Volunteer Force?
    Answer. The Individual Ready Reserve (IRR) is a valuable source of 
airmen who are subject to recall to Active Duty in time of war or 
national emergency. Airmen who are members of the IRR are required to 
participate in an annual screening for mobilization readiness and the 
Air Force catalogs their military and civilian skills for possible 
employment during mobilization.
    Although mobilization access on a wide spectrum could be 
problematic, if the Air Force needs to access a very specialized career 
field, the IRR provides a reach back capability to access trained 
airmen to augment our Active component when necessary.
                             transformation
    Question. If confirmed, you would play an important role in the 
process of transforming the Air Force to meet new and emerging threats.
    What do you believe should be the goals for Air Force 
transformation?
    Answer. Confronted by DOD's new fiscal reality, the Air Force made 
hard choices to align with the new strategic guidance. As we move 
forward, we must avoid creating a hollow force that is unable to 
execute the missions entrusted to it. We must also keep faith with the 
airmen who carry out our Nation's business, sometimes at great cost to 
themselves and their families. Though we will be a smaller force, our 
goal is to remain the world's premier air, space, and cyberspace force. 
We must maintain the agility, flexibility, and readiness required to 
engage a full range of contingencies and threats.
    We will continue to provide our nuclear deterrent forces as two-
thirds of the Nation's nuclear triad, competently and credibly 
providing the foundation of global stability and underwriting our 
national security, maintaining our alliance and treaty obligations, and 
assuring our allies and partner nations as part of a joint team. Our 
Air Force must be able to gain control in the air and space, and 
maintain assured access to cyberspace. We provide unique capabilities 
in mobility, strike, and ISR which enable joint and multinational 
forces to conduct operations, and permit surface forces freedom of 
action without the threat of attack from above. Significant and 
sustained modernization of ISR and the long-range strike family of 
systems will extend today's ISR and power projection capabilities into 
contested battle spaces.
    It is imperative the Air Force maintain the air and space power 
advantages that will enable our entire Joint Force to deter and defeat 
aggression, operate effectively in space and cyberspace, defend the 
homeland, and conduct stability operations. If confirmed, I will ensure 
we continue to provide the Nation with global vigilance, global reach, 
and global power employable across the spectrum of operations with 
which we are tasked.
                 sexual assault prevention and response
    Question. Numerous cases of sexual assault involving servicemembers 
in theater have been reported over the last several years. Many victims 
and their advocates contend that they were victimized twice: first by 
attackers in their own ranks and then by unresponsive or inadequate 
military treatment. Meanwhile, Secretary Panetta has announced several 
new initiatives aimed at curbing sexual assaults in the military and 
improving victim support.
    What is your assessment of the Air Force's implementation of the 
Secretary's new policies, including his decision to withhold initial 
disposition authority over certain crimes to the general court-martial 
convening authority?
    Answer. The Air Force appreciates the Secretary of Defense's 
leadership and supports his decision. Withholding the initial 
disposition authority at the Special Court Martial Convening authority 
level reassures airmen that we are taking the issue of sexual assault 
very seriously.
    Question. What is your understanding of the resources and programs 
the Air Force has in place in deployed locations to offer victims of 
sexual assaults the medical, psychological, and legal help that they 
need?
    Answer. In areas of operation, Air Force Military Treatment 
Facilities (MTFs) have the appropriate resources to offer support to 
sexual assault victims. Air Force Central Command ensures that trained 
primary and alternate providers are available, or that Memorandums of 
Understanding are in place to provide appropriate sexual assault 
medical service. Additionally, Air Force forward deployed mental health 
assets are available to provide necessary consultation, assessment, 
intervention, and referral for mental health issues, to include support 
in cases of sexual assault.
    The Air Force has also forward deployed judge advocates to provide 
complete legal support to the Air Force and joint missions. Coupled 
with a dynamic reach back capability, this ensures robust, full-
spectrum legal services are available to commanders and airmen. Legal 
services available to victims at their home station are equally fully 
available to victims in deployed locations, to include legal 
assistance, defense services, victim witness assistance, or other legal 
needs.
    Question. What is your view of the steps the Air Force has taken to 
prevent additional sexual assaults at deployed locations as well as at 
home stations?
    Answer. In the Air Force, the majority of the reported sexual 
assaults occur at home station and not at deployed locations. However, 
prevention efforts apply equally at both locations. For the last 2 
years, the Air Force has focused on bystander intervention as a prime 
prevention effort. We've provided mandatory training in this area and 
our airmen know and it is their responsibility to intervene when they 
recognize a potentially unsafe situation. We simply must provide our 
airmen a climate of dignity and respect and create an environment where 
trust and accountability are ever present. This will help victims feel 
comfortable coming forward and ensure perpetrators of this vicious 
crime know they will be held accountable.
    Question. What is your view of the adequacy of the training and 
resources the Air Force has in place to investigate and respond to 
allegations of sexual assault?
    Answer. Air Force installation level Sexual Assault Response and 
Prevention Coordinators (SARCs) and Victim Advocates (VAs) receive 
extensive initial training before assuming their positions. 
Additionally, both SARCs and VAs receive annual refresher training.
    All Air Force Office of Special Investigations (AFOSI) special 
agents receive extensive training in the handling of violent crime 
investigations, including specific handling of sexual assault 
investigations. In 2009, the Air Force funded 24 additional civilian 
special agents to focus on sexual offenses at locations with the 
highest incidence of sexual assault. AFOSI also recently developed a 2-
week advanced training course, dedicated exclusively to sexual assault 
investigations.
    The Judge Advocate General is fully committed to aggressively 
addressing allegations of sexual assault and ensuring that commanders, 
victims, and accused airmen are appropriately advised on the legal 
issues. The Air Force is committed to training prosecutors and defense 
counsel to the highest standards. Base staff judge advocates work 
closely with the AFOSI special agents to ensure comprehensive 
investigations. Through the Senior Trial Counsel (STC) program, 16 
highly trained and experienced trial counsel assist base legal offices 
in all aspects of evaluating and preparing sexual assault cases and are 
detailed to represent the United States as the prosecutor in these 
cases. Seven of these STCs are dedicated to specializing in prosecution 
of sexual assault cases. Senior defense counsels provide assistance to 
local defense counsel and representation of accused airmen at trial. 
The Judge Advocate General believes that fully training and equipping 
both the prosecution and defense in these cases offers the best hope of 
optimal fact finding and professionalism in adjudicating sexual assault 
cases.
    Question. Do you consider the Air Force's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Answer. Current Air Force policies and procedures, particularly 
those on restricted reporting, are effective, available both at home 
and in deployed locations, and do more than allow victims confidential 
access to medical care. When coupled with the new victim to victim 
advocate privilege, the policies address many of the concerns victims 
have about coming forward and help protect the victims' 
confidentiality. The policies preserve the possibility of future 
prosecution by allowing victims to anonymously receive Sexual Assault 
Forensic Examinations (SAFEs), which are held for 5 years. Victims may 
convert their confidential restricted report at any time and 
participate in the military justice process. Restricted reporting 
allows for the preservation of evidence that would otherwise be 
unavailable and the Air Force is able to offer victims care and 
treatment that victims may have not accessed without this confidential 
option.
    Question. What problems, if any, are you aware of in the manner in 
which the confidential reporting procedures have been put into effect?
    Answer. Sexual assault victims who seek medical care or SAFEs in 
some States (i.e., California) cannot make a restricted report because 
State laws mandate reporting to law enforcement by healthcare 
providers. This limitation creates a ``have and have not'' reporting 
situation amongst military victims.
    Question. What is your view of the appropriate role for senior 
military and civilian leaders in the Secretariat and the Air staff in 
overseeing the effectiveness of implementation of new policies relating 
to sexual assault?
    Answer. Senior military and civilian leaders at all levels, 
beginning at the Secretariat and the Air Staff, must focus on promoting 
an environment that prevents sexual assault. Eliminating this horrible 
crime is absolutely critical. The Secretary of the Air Force directed a 
Sexual Assault Prevention and Response Executive Steering Group (ESG) 
comprised of all the senior functional stakeholders to continually 
assess the program and provide advice for improvements in policy and 
procedures. If confirmed, I will work with the Secretary and these 
leaders to maintain a very clear focus on this issue.
                             family support
    Question. What do you consider to be the most important family 
readiness issues in the Air Force, and, if confirmed, what role would 
you play to ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. The ones I hear most from my airmen and their family 
members are financial management, predatory lending, relocation and 
transition assistance, child care availability, access to quality 
education, the Exceptional Family Member Program (EFMP), and manpower 
and staffing for our family programs.
    If confirmed, I plan to ensure sufficient staffing and training for 
family readiness staff as we partner with community organizations to 
continue building support for our airmen and their families. My wife 
and I have spent a lot of time on family readiness issues in my current 
job; we will continue to do so wherever we serve.
    Question. How would you address these family readiness needs in 
light of global rebasing and lengthy deployments?
    Answer. If confirmed, I will continue to strengthen the programs 
that the Air Force has established to support airmen and their 
families. They include the Airman and Family Readiness Center programs, 
Key Spouse programs, and various child and youth programs.
    Our Airman and Family Readiness Centers serve as a resource hub for 
our military families. From the beginning of every deployment, the 
Airman & Family Readiness Center is in contact with dependents to 
ensure they are aware of all available resources.
    Key Spouses become crucial partners as they keep families aware of 
unit and community support events through the deployment. Child and 
Youth Program Directors work to ensure organized programs, resources 
and a ``sympathetic ear'' are available to our children as they work 
through the multi-faceted issues associated with separation from a 
deployed parent.
    Question. If confirmed, how would you ensure support of Reserve 
component families related to mobilization, deployment and family 
readiness, as well as active-duty families who do not reside near a 
military installation?
    Answer. Our relationship with the Reserve component in this area 
has developed over the years, but I believe it needs to be stronger. 
The Air Force provides resources and support to all components through 
various Airman & Family and Child & Youth programs. These support 
programs are sustained through continued collaboration with the State 
Joint Base Board and other services.
    Geographically separate servicemembers (and their families) have 
immediate access to many resources online that enable them to remain 
connected to their units and support services. If confirmed, my intent 
is to empower our Services professionals to develop new and innovative 
ways for deployed airmen and their families to connect with the support 
infrastructure they need, and with each other. I've been there . . . it 
makes a difference.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent and lengthy deployments. 
These programs must be relevant and attractive to all eligible users, 
including Active Duty and Reserve personnel, and their eligible family 
members.
    What challenges do you foresee in sustaining and enhancing Air 
Force MWR programs and, if confirmed, what improvements would you seek 
to achieve?
    Answer. Our MWR program exists to provide Quality of Life (QOL) 
programs and services to our airmen and their family members. We 
recognize, particularly in light of frequent and lengthy deployments, 
the correlation between QOL, readiness, and resilience.
    Our top priority is to develop and care for our airmen. I don't 
foresee any change to that focus. Our MWR programs are currently 
undergoing an enterprise-wide transformation to right-size and ensure 
currency and relevancy for our airmen and their families.
    Without a doubt, MWR programs and services for all airmen and their 
families are critical to Air Force readiness and mission capability. As 
we advance MWR transformation, I will advocate that we continuously 
seek partnership opportunities with local communities to help ensure we 
provide the best support possible for our team while embracing 
efficiencies and innovative ways of doing business.
    If confirmed, I will fully support the ongoing MWR transformation 
efforts which are a model of innovation, efficiency, and resource 
stewardship, geared toward meeting the needs of our airmen and families 
now and in the future.
               medical personnel recruiting and retention
    Question. The Military Services continue to face significant 
shortages in critically needed medical personnel in both Active and 
Reserve components.
    What is your understanding of the most significant personnel 
challenges in recruiting and retaining health professionals in the Air 
Force?
    Answer. The most significant challenges we have in recruiting and 
retaining health professionals continues to be competition with the 
private sector and other Federal agencies for talented professionals 
from career fields where shortages exist. Adding to this challenge are 
issues such as pay disparity with the civilian sector and deployments. 
Some examples of career fields where we face such competition are 
general surgeons, family medicine, mental health, and nursing.
    The Air Force addresses these challenges in a three-pronged 
approach to enhance: (1) education, (2) compensation, and (3) quality 
of practice/quality of life. Regarding education, the Air Force Medical 
Service depends on programs like the Uniformed Services University of 
the Health Sciences, Health Professions Scholarship Program, Inter-
Service Physician Assistant Program, and the Nurse Enlisted 
Commissioning Program to grow health professionals. Special pay and 
incentives are used to help offset some of the pay disparities between 
military and civilian sector compensation packages. In terms of quality 
of practice, many of our specialists have been at the forefront of 
medical innovation in the last decade of war as they cared for wounded 
warriors. Many health care professionals enjoy taking care of the 
population who volunteer to serve this Nation. These individuals self-
select to stay in beyond their education commitments.
    Question. If confirmed, would you undertake a comprehensive review 
of the medical support requirements for the Air Force?
    Answer. As readiness requirements for our warfighters evolve, so 
will the need for medical support. Our healthcare team provides superb 
care, as proven in our most recent operations, and we have the 
responsibility to provide the highest quality of care for the future. 
If confirmed, I will continue to review our support requirements to 
ensure our Air Force provides a ready and clinically superb deployable 
force.
    Question. If confirmed, what policies or legislative initiatives, 
if any, are necessary in order to ensure that the Air Force can 
continue to fulfill ongoing medical support requirements?
    Answer. The Air Force Medical Service partners with other Air Force 
and DOD stakeholders to optimize the use of monetary incentives and 
educational and developmental opportunities for our health profession 
officers. Continuing to provide sufficient resourcing for education, 
training, and special and incentive pay is critical to fulfilling 
ongoing medical support requirements. If confirmed, I will fully 
support ongoing medical support requirements by encouraging the 
policies that provide for these partnerships and programs.
          air force policies regarding drug and alcohol abuse
    Question. What is your understanding of the Air Force's policy with 
respect to disciplinary action and administrative separation of airmen 
who have been determined to have used illegal drugs?
    Answer. The Air Force does not have any policy per se on 
disciplinary actions with respect to particular criminal offenses. 
However, I know each drug case is investigated by law enforcement 
personnel and the report of investigation is provided to the airman's 
commander to review the evidence for appropriate disposition. Each case 
is evaluated on its merits, including the type of illegal drug used, 
the facts and circumstances of the use or uses, the military record of 
the airman, and the strength of the evidence.
    The Air Force has a policy on administrative separation for illegal 
drug use found in our administrative separation instruction. It states 
that drug abuse is incompatible with military service and airmen who 
abuse drugs one or more times are subject to administrative separation 
for misconduct. In fact, administrative separation processing is 
mandatory for drug abuse unless a waiver is granted.
    Question. Do you agree with this policy?
    Answer. Yes, I do. I believe it works well for our Service. The Air 
Force takes illegal drug use very seriously due to the nature of our 
business--we have no margin for error as we maintain and operate 
aircraft, spacecraft, and key components of our Nation's nuclear 
arsenal.
    Question. What is your understanding of the Air Force's policy with 
respect to rehabilitation and retention on Active Duty of airmen who 
have been determined to have used illegal drugs or abused alcohol or 
prescription drugs?
    Answer. Only in very limited circumstances does the Air Force 
retain airmen who we determine have used illegal drugs, including 
illegal use of prescription drugs. In order to be retained, airmen have 
the burden of proving that retention is warranted by meeting a number 
of criteria, to include such drug use was a departure from the airman's 
usual behavior and is not likely to recur, does not involve recurring 
incidents, and does not involve distribution.
    The Air Force does have a robust Alcohol and Drug Abuse Prevention 
and Treatment (ADAPT) Program. The primary objectives of the ADAPT 
Program are to promote readiness, health, and wellness through the 
prevention and treatment of substance misuse and abuse; to minimize the 
negative consequences of substance misuse and abuse to the individual, 
family, and organization; to provide comprehensive education and 
treatment to individuals who experience problems attributed to 
substance misuse or abuse; to restore function and return identified 
substance abusers to unrestricted duty status or to assist them in 
their transition to civilian life, as appropriate. The Air Force 
provides appropriate treatment for airmen who are undergoing 
disciplinary or administrative separation proceedings for drug or 
alcohol abuse.
    The Air Force does provide some limited protection for airmen who 
self-identify their drug use for the purpose of seeking treatment in 
that they may avoid criminal prosecution, but will still face 
administrative separation.
    Question. Do you agree with this policy?
    Answer. Yes. I think we have struck an appropriate balance between 
rehabilitation and retention and the need to enforce good order and 
discipline. Our goal is to help these airmen deal with their drug or 
alcohol problem and, if appropriate, return them to duty.
    Question. Do you believe that the Air Force has devoted sufficient 
resources to implementation of its rehabilitation policies and 
objectives since 2001?
    Answer. Yes. The Air Force maintains a comprehensive and dynamic 
drug detection and response program that includes rehabilitation as a 
key element. We invest in and care for our airmen, and we have trained 
alcohol and drug counselors and medical providers at each installation 
to provide evaluation and outpatient treatment services. For airmen 
needing more intensive inpatient treatment, our medical teams arrange 
for these services through TRICARE with local community medical 
centers.
    Question. If not, in what ways?
    Answer. N/A.
                          religious guidelines
    Question. The DOD Independent Review Related to Fort Hood observed 
that ``DOD policy regarding religious accommodation lacks the clarity 
necessary to help commanders distinguish appropriate religious 
practices from those that might indicate a potential for violence or 
self-radicalization'' and recommended that the policy be updated.
    What is your view of the need to clarify the policy regarding 
religious accommodation in the Air Force?
    Answer. I believe the Air Force policy on religious accommodation 
is clear. I also think it's consistent with the DOD policy. Current Air 
Force policy ensures that requests for religious accommodation are 
welcomed and dealt with fairly and consistently . . . throughout the 
Air Force. Requests for accommodation should be approved, unless 
approval would have a real (not hypothetical) adverse impact on 
military readiness, unit cohesion, standards or discipline and, 
therefore, disapproval of the accommodation request is in furtherance 
of a compelling government interest. We also specifically instruct our 
commanders to consult with their installation chaplain and staff judge 
advocate on requests for religious accommodation. However, consistent 
with the Air Force Fort Hood Follow On Review recommendations, the Air 
Force is reviewing and considering updating our policies to address 
prevention, identification, and response to religious-based disrespect, 
harassment, and discrimination.
    Question. Are you concerned that the attack at Fort Hood could lead 
to harassment or even violence against Muslims in the Air Force?
    Answer. I think there has been enough time since the Fort Hood 
tragedy that it is no longer likely to be the trigger event that 
engenders violence against Muslims in the Air Force. Nor am I aware of 
any ongoing harassment against Muslims or any other religion in the Air 
Force. I expect all airmen to act in a professional manner. I'm 
committed to ensuring all airmen are treated fairly, with dignity and 
respect. I believe other Air Force leaders share that commitment. I 
will continue to ensure that leaders at all levels create an 
environment that does not tolerate unlawful discrimination or unlawful 
harassment.
    Question. What is your view of the adequacy of current Air Force 
strategies that address the potential for harassment or violence 
against Muslims in the Air Force?
    Answer. The Air Force will not condone harassment or violence in 
the workplace against any of our airmen. Current Air Force policy is, 
and will remain, zero tolerance.
    Question. Do Air Force policies regarding religious practices in 
the military accommodate, where appropriate, religious practices that 
require adherents to wear particular forms of dress or other articles 
with religious significance?
    Answer. Our current policy is to ensure that requests for religious 
accommodation are welcomed and dealt with as fairly and consistently as 
practical throughout the Air Force. Requests for accommodation should 
be approved, unless approval would have a real (not hypothetical) 
adverse impact on military readiness, unit cohesion, standards or 
discipline, and therefore, disapproval of the accommodation request is 
in furtherance of a compelling government interest. Requests for 
accommodation involving the outdoor wear of religious head coverings 
that are not concealed under military headgear and those impacting 
grooming and personal appearance (e.g., hair length and style, tattoos, 
and ``body art'') must be approved by the Deputy Chief of Staff for 
Manpower, Personnel, and Services.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. Yes. Air Force leaders are responsible for protecting the 
free exercise of religion for all airmen and avoiding the appearance of 
an official endorsement of any particular religion. By promoting free 
exercise of religion in a manner that is respectful to other 
individuals' rights to follow their own belief systems, the Air Force 
creates a climate conducive to good order and discipline and maximum 
mission accomplishment.
    Supporting the right of free expression relates directly to the Air 
Force core values and the ability to maintain an effective team. All 
airmen are able to choose to practice their particular religion or 
subscribe to no religious belief at all.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. I do believe the Air Force has the proper balance. Within 
the performance of a chaplain's primary, official duties with regard to 
spiritual or religious matters, there are no restrictions. With regard 
to public prayer, Air Force policy is that public prayer should not 
imply government endorsement of religion and should not usually be a 
part of routine, official business. Mutual respect and common sense 
should always be applied, including consideration of unusual 
circumstances and the needs of command. Further, non-denominational, 
inclusive prayer or a moment of silence may be appropriate for military 
ceremonies or events of special importance when its primary purpose is 
not the advancement of religious beliefs.
                       aircraft recapitalization
    Question. At times, approximately one third of the current Air 
Force aircraft inventory has been under some type of flight 
restriction, mainly due to aging aircraft problems.
    If confirmed, what steps would you take to ensure that the Air 
Force recapitalizes its aircraft inventory and how would you prioritize 
the recapitalization effort?
    Answer. I would continue to stress that our most significant 
aircraft recapitalization priorities are the F-35A, the KC-46, and the 
long-range strike bomber. In order to keep our legacy air, space, and 
cyberspace systems viable in the future, we must responsibly ensure 
funds saved through ongoing efficiency efforts are available to 
subsidize recapitalization efforts. We must invest in preferred 
munitions, modify legacy aircraft, maintain our enablers, and replace 
aging space assets. We need to continue our collaborative partnership 
with industry to make sure our requirements are clearly identified and 
our funding streams are consistent. Industry needs to do their part by 
staying on time and cost. Proceeding with these investment efforts will 
remain a challenge, but they are vital to the continued relevance of 
your Air Force.
                      base realignment and closure
    Question. The President' fiscal year 2013 budget requested two 
additional Base Realignment and Closure (BRAC) rounds, in fiscal year 
2013 and fiscal year 2015. It is widely believed that the Air Force was 
the Service driving this request. Congress has chosen to not include 
authorization for additional rounds of BRAC in either the House or 
Senate committee version of the NDAA. Senate report language states 
that additional rounds of BRAC are premature until we have a better 
understanding of our overseas force posture and the results of the 
recently completed 2005 BRAC.
    Do you believe additional rounds of BRAC are warranted at this 
time?
    Answer. During BRAC 2005, I know the Air Force fell short of its 
goal to reduce excess capacity. Since then, we've lost approximately 
500 aircraft through force structure reductions. Although I haven't 
been involved in the related studies, I would assume that we still have 
excess infrastructure. The only way I know to effectively eliminate 
excess infrastructure is to close installations. Therefore, if 
confirmed, I would fully support DOD's request for additional rounds of 
BRAC.
    Question. If so, how do you quantify the Air Force's excess 
capacity driving your decision?
    Answer. DOD's 2004 report to Congress stated the Air Force had 24 
percent excess capacity. BRAC 2005 only closed seven minor 
installations. That fell short of the Air Force goal for reducing 
capacity. In the 7 years since, we've reduced our force by 
approximately 500 aircraft without any accompanying installation 
closures. Should Congress authorize additional rounds of BRAC, I will 
ensure that the Air Force conducts an updated capacity analysis to 
determine a current figure for its excess infrastructure.
                    air force science and technology
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science in meeting Air Force 
missions?
    Answer. The Air Force Science and Technology (S&T) Program plays a 
vital role in creating compelling air, space and cyberspace 
capabilities for precise and reliable global vigilance, reach and 
power. Drawing from the Defense Strategic Guidance published in January 
of this year, the Air Force Strategic Plan, and the Air Force S&T Plan, 
and in concert with the Air Force S&T Executive, I will provide 
direction which focuses our S&T Program on supporting the Air Force 
capabilities fundamental to deterring and defeating aggression, 
projecting power in anti-access and area denial environments, operating 
in the space and cyberspace domains, and maintaining a safe, secure, 
and effective strategic deterrent.
    Question. Do you believe the current balance between short- and 
long-term research is appropriate to meet current and future Air Force 
needs?
    Answer. I do. The Air Force needs high-payoff technologies to 
sustain our air, space, and cyberspace superiority in an increasingly 
competitive environment, so we invest in a broad portfolio that is 
balanced across the warfighter's need for near-term, rapid-reaction 
solutions; mid-term technology development; and revolutionary, far-term 
capabilities.
    Question. If confirmed, what role would you play in ensuring 
research priorities that will meet the needs of the Air Force in 2020?
    Answer. As outlined in the Defense Strategic Guidance and other 
strategic analyses, the future security environment will undoubtedly 
require a range of agile and flexible military capabilities. To remain 
the world's most capable Air Force, we must correctly anticipate the 
emerging S&T advances that have the greatest military potential. I 
recognize that, if confirmed, I will play a vital role in this process 
through my oversight of the Air Staff and Air Force Major Commands, and 
as a member of the Joint Chiefs of Staff.
    Question. In the face of rising acquisition costs for programs such 
as the Joint Strike Fighter (JSF), and programs to support space 
operations, if confirmed, how would you plan to ensure the protection 
of funding for long-term science and technology investments?
    Answer. The Air Force S&T Program is a key element in making mature 
technologies available for transition into development programs. If 
confirmed, I will provide direction that focuses S&T funding 
investments that mature and advance the state-of-the-art in areas 
critical to continued United States dominance of air, space, and 
cyberspace.
                          technical workforce
    Question. The Air Force Research Laboratory relies on a strong 
technical workforce to conduct research for development of new weapons 
systems, platforms, and capabilities to meet its mission of: ``leading 
the discovery, development, and integration of affordable warfighting 
technologies for our air and space force.''
    Are you concerned about the current or future supply of experts in 
defense critical disciplines, particularly personnel with appropriate 
security clearances, to hold positions in defense laboratories?
    Answer. I am always concerned about maintaining an adequate supply 
of experts and Science, Technology, Engineering, and Math professionals 
in the critical defense disciplines needed in our laboratories and 
elsewhere in our acquisition enterprise. In the last 5 fiscal years, 
the Air Force has been able to meet our needs by accessing more than 
3,100 engineers, physical and analytical scientists. The use of 
congressionally-authorized personnel and hiring authorities has 
improved the Air Force's ability to compete on levels of compensation 
and speed of hiring.
               air force test and evaluation capabilities
    Question. Over the past few years, the Air Force has proposed 
taking measures to significantly reduce its test and evaluation 
capabilities--both infrastructure and workforce. These efforts have, in 
general, been overturned by DOD and Congress.
    Do you believe that the Air Force has test and evaluation 
capabilities that are excess to DOD needs?
    Answer. No. The Air Force strives to ensure we use and organize our 
test and evaluation (T&E) capabilities as efficiently as possible to 
meet Air Force and DOD needs within a fiscally constrained budget. We 
have and will continue to balance Air Force T&E capabilities, Air Force 
and DOD needs, the available budget, and our national interest to 
propose feasible and prudent adjustments.
    Question. What steps will you take to ensure that the Air Force has 
the appropriate testing infrastructure and qualified test workforce?
    Answer. If confirmed, I will work with DOD and industry to help 
shape the future of our Nation's infrastructure and workforce. We will 
continue evaluating our T&E infrastructure and workforce requirements 
to identify potential efficiencies; support workforce recruiting, 
training, and retention programs; and focus our test infrastructure on 
supporting the current and future needs of the DOD acquisition 
community and broader national interests. Air Force T&E codifies these 
budget and workforce assessments annually through budget certification 
reports to the Test Resource Management Center in OSD.
                   general officer management issues
    Question. Incidents of misconduct or substandard performance and 
findings of inspectors general and other command-directed 
investigations are documented in various ways in each of the services. 
Procedures for including and forwarding adverse and alleged adverse 
information in connection with the promotion selection process are set 
forth in title 10, U.S.C., and in DOD Instruction 1320.4.
    How is the Air Force ensuring compliance with requirements of law 
and regulation regarding review of adverse information?
    Answer. We are required by law and DOD policy to present all 
adverse information of a credible nature to general officer promotion 
and Federal recognition boards. The Air Force Inspector General 
initiates a review of Air Force, DOD, and other Government 
investigative files for potential adverse information on everyone 
meeting these boards. If substantiated adverse information is 
discovered, a summary of the information, plus any written comments 
from the officer, are placed in a senior officer unfavorable 
information file and attached to the officer's selection record. If the 
officer is selected for promotion or Federal recognition, this file 
stays with the officer's nomination package through its coordination 
with the OSD, the White House, and the Senate.
    If substantiated adverse information is discovered about an officer 
after selection for promotion or Federal recognition, this information 
will be presented to a promotion review board. The promotion review 
board will consider the adverse information and make a recommendation 
to the Secretary of the Air Force whether to continue to support the 
officer for appointment to the next higher grade. If the Secretary 
continues to support the officer, the information will be added to the 
nomination package.
    Question. What standards and procedures are in place in the Air 
Force to ensure that allegations of adverse information relating to a 
nominee for promotion are brought to the attention of the Department 
and the Committee in a timely manner?
    Answer. As stated earlier, any substantiated adverse information 
accompanies an officer's nomination through OSD, the White House, and 
the Senate. We perform additional checks for adverse information 
following the selection board, and every 60 days throughout the 
nomination process.
    If allegations of adverse information arise after the board is 
complete the Air Force typically will separate the officer's name from 
the promotion list until the investigation is complete. If the 
allegations are substantiated, the Secretary will convene a promotion 
review board to determine if the individual should continue to be 
nominated for (or, if after confirmation, appointed to) the next higher 
grade. The Air Force always includes substantiated adverse information 
with its nomination packages through OSD to the Senate.
    For three- and four-star nominations, substantiated adverse 
information is included in the nomination packages and the Air Force 
performs adverse information checks every 60 days throughout the 
nomination process.
                            readiness levels
    Question. What is your assessment of the current readiness of the 
Air Force to execute its assigned missions?
    Answer. Our airmen are the principal reason we're the world's best 
Air Force. They're ready for today's fight. They've performed superbly 
in sustained combat operations for over 20 years. But all those 
operations come with a cost, and we've seen a gradual decline in full-
spectrum readiness since the early 1990s. The operations tempo has 
impacted some communities more than others, with effects most 
pronounced in our high demand/low supply capabilities.
    Question. What do you view as the major readiness challenges that 
will have to be addressed by the Air Force over the next 4 years, and, 
if confirmed, how will you approach these issues?
    Answer. With a smaller force, the Air Force must maintain the 
highest possible state of readiness across the Total Force. To achieve 
this, we must invest to maximize full-spectrum training, reduce stress 
on personnel, improve fleet health and modernize and acquire critical 
weapons systems. Unrelenting global operational demands could limit 
opportunities to reset, retrain, and recover full-spectrum readiness 
levels for both our airmen and the weapon systems we use to perform our 
missions. A reduction in operations tempo is a prerequisite to 
readiness recovery. The fiscal environment will add to the challenge, 
and tough decisions will be required to prevent any possibility of a 
``hollow force''--a force structure that looks adequate on paper but in 
reality lacks the readiness to perform its assigned mission due to 
deficiencies in resources, training, or equipment. This will require a 
strategy-based balance between readiness, force structure, and 
modernization.
              investment in facilities and infrastructure
    Question. Air Force Leadership recently stated in testimony, 
``MILCON is an essential enabler of Air Force missions; however, due to 
fiscal constraints, we must reduce funding and accept greater risk in 
facilities and infrastructure in order to continue our efforts to 
recapitalize and modernize our aging aircraft and equipment.''
    In your opinion, at what point is the reduction of funding for 
facilities and infrastructure too much of a risk for the Air Force?
    Answer. Installations underpin all Air Force operational 
capabilities, and serve as the platforms from which we fly, fight, and 
win in air, space, and cyberspace. The health of those installations--
the facilities, the infrastructure, and the environment that comprise 
our garrison and expeditionary operating locations--directly impacts 
operational readiness. Therefore, I believe it is important to build 
sustainable installations that enable Air Force core operational 
capabilities.
    The Air Force made difficult decisions in our fiscal year 2013 
budget submission in many areas, to include military construction and 
facilities. As part of our broader strategy, we took a deliberate pause 
in funding for military construction while assessing the impact 
associated with the force structure decisions we proposed. Our budget 
request also included accepting some risk with funding facility 
restoration and modernization at 90 percent of historic levels, and 
sustainment funding at slightly more than 80 percent of the OSD-modeled 
requirement. Anything less than this level of investment represents 
significant risk to our installations.
    As we look forward into fiscal year 2014 and beyond, we will 
closely evaluate the impact of our 80 percent sustainment level to 
determine if we are on target and adjust as necessary. Recognizing the 
many upcoming combatant commander, new mission, and recapitalization 
needs of the Air Force, we will evaluate potential minimum funding 
levels for both military construction and facility restoration and 
modernization levels that ensure we balance investment in our 
installations to support the Defense Strategy by building sustainable 
installations that enable our core operational capabilities.
    Question. If confirmed, would you support goals established by DOD 
for certain levels of funding dedicated to the recapitalization and 
sustainment of facilities?
    Answer. The Air Force must ensure that investments in the 
installation platforms from which we accomplish our diverse missions 
are balanced and sustainable. If confirmed, I will welcome the 
opportunity to work in partnership with OSD and Congress to determine 
sustainable levels of investment for the recapitalization and 
sustainment that ensure our installations are viable in the years 
ahead.
                      unmanned systems management
    Question. Promotion rates for operators of RPA have been on a 
consistently downward trend. Over the course of the last 5 years, 
promotion percentages from Majors Promotion Boards have declined from 
96 percent to 78 percent, compared to a consistent range of between 96 
and 91 percent for their peers. Education rates also consistently lag 
behind those for manned aircraft pilots at all levels.
    Given these trends, what actions, if any, do you believe that the 
Air Force should take with regard to the RPA pilot career field?
    Answer. Because of the rapid growth of RPA capability, RPA pilots 
have accomplished the mission under challenging circumstances. It is 
concerning that promotion rates for RPA pilots are lower than the Air 
Force average.
    The Air Force established the RPA pilot career field in May 2010. 
The pilots flying RPAs today come from three distinct backgrounds: 
``traditional'' pilots from manned airframes such as F-16s, C-17s, 
etc.; combat systems officers; and new accessions trained specifically 
for this mission. The Air Force has worked to identify important 
milestones and career broadening opportunities for progression in the 
RPA career field. Recognizing that professional military education is 
an important part of officer development, we have reallocated some 
additional professional military education slots for RPA pilots. We are 
also increasing the training pipeline as much as possible to expand the 
inventory of RPA pilots. Doing so will allow increased opportunities 
for career broadening.
    Finally, I believe instructions given to promotion boards emphasize 
the fact that RPA pilots possess unique skills critical to national 
security and to our success in today's global environment. Those 
instructions also makes clear that the needs of the Air Force and 
combatant commanders may not have allowed RPA pilots to experience the 
same development opportunities and career progression as their peers.
    If confirmed, I will review these issues and take actions, as 
necessary, to ensure we maintain a high quality RPA pilot force.
                    air force global strike command
    Question. The Air Force Global Strike Command was stood up as a 
result of the Air Force nuclear weapons handling incident in 2007.
    What areas of improvement do you believe are needed for the Air 
Force Global Strike Command?
    Answer. The organizational changes made to reinvigorate the nuclear 
enterprise, especially the stand-up of Air Force Global Strike Command, 
have resulted in steady improvement over the past 4 years. Air Force 
Global Strike Command, as the lead for our core function of nuclear 
deterrence operations, has taken a proactive role in reestablishing a 
focus and culture of precision and reliability in the Air Force's 
nuclear enterprise. Their efforts have also resulted in substantial 
improvements in sustainment and programming. Recently, the Air Force 
further improved the organizational structure by transferring 
responsibility for the nuclear weapon storage areas from Air Force 
Material Command to Air Force Global Strike Command.
    Air Force Global Strike Command, along with the Air Force Nuclear 
Weapons Center and the Strategic Deterrence and Nuclear Integration 
Directorate on the Air Staff, continue to mature. As we move forward, I 
am concerned about the resources needed to sustain and modernize our 
intercontinental ballistic missile and bomber forces. The strategic 
forces of Air Force Global Strike Command, both conventional and 
nuclear, need our collective support to ensure the gains which have 
been made since 2008 aren't temporary and to ensure the continued 
credibility and capability of our forces.
    Question. Lieutenant General Kowalski, the Commander of the Air 
Force Global Strike Command, has put a high priority on the B-52 
Connect System and the SR2 radar replacement.
    Do you support his efforts to have them funded in the FYDP?
    Answer. To meet higher priorities in the fiscal year 2013 PB, the 
Air Force terminated the legacy B-52 Strategic Radar Replacement (SR2) 
program and restructured the combat network communications technology 
(CONECT) program to address critical sustainment issues for visual 
displays.
    The Air Force elected to maintain the current B-52 APQ-166 radar 
for the near-term versus investing in a replacement radar. Analysis 
indicates the current B-52 radar system is sustainable through the B-
52's service life (2040). If confirmed, I will revisit the feasibility 
of funding the SR2 program in future POMs given the anticipated 
increase in sustainment costs of the radar.
    In the fiscal year 2013 PB, the DOD restructured the B-52 CONECT 
program to only include replacement of critical visual displays. The B-
52 Developmental Systems Office continues the baseline CONECT program 
development efforts.
    Question. Do you support replacing the Long-Range Cruise Missile?
    Answer. Yes. The Long-Range Stand-Off (LRSO) weapon is the follow-
on to the Air Launched Cruise Missile (ALCM) and will fill capability 
gaps documented in the Airborne Strategic Deterrence ICD (Joint 
Requirements Oversight Council (JROC) approved May 2011). Initial LRSO 
efforts are fully funded through the Future Years Defense Program. LRSO 
is currently undergoing an analysis of alternatives to determine a 
material solution. The analysis of alternatives remains on track for 
completion in fiscal year 2013.
    Question. Are you satisfied with the progress of the Family of 
Beyond Line of Site Terminals for the B-52 and B-2 and using a VLF 
system for secure hardened communications?
    Answer. Not really . . . but I agree with the decisions made based 
on competing priorities for resource allocation. The Air Force 
restructured the family of beyond line of site terminals program in 
fiscal year 2012, delaying terminal deliveries to the bomber fleet 
beyond the Future Years Defense Program. The B-52's secure, survivable 
communication capability is currently provided by their very low 
frequency radio. In fiscal year 2013, the Air Force will begin a 
program to deliver a similar very low frequency capability to the B-2 
fleet by 2017. Therefore, based on the reality of the resource picture, 
I'm satisfied with the progress of this program.
    Question. Given April 2012 Air Force Inspector General's concerns 
on the helicopter support to the missile fields, do you support 
replacing the UH-1N fleet of support helicopters?
    Answer. Not at this time. A cost benefit analysis of missile field 
security determined that it was possible to make improvements while 
deferring a replacement helicopter. We've been able to decrease 
operational risk with investments in missile security and surveillance 
upgrades. In addition, we're in the process of acquiring an additional 
22 UH-1Ns from the Marine Corps. We are also planning modifications to 
modernize and help sustain the aircraft, realigning resources to meet 
demand, and evaluating adjustments to tactics and procedures to 
maximize effectiveness.
        air force ability to respond to worldwide contingencies
    Question. What impact, if any, do you see on the Air Force's 
ability to respond to worldwide contingencies as a consequence of the 
demands of current operations in Iraq and Afghanistan?
    Answer. Over the past 20 years of combat operations in the U.S. 
Central Command area of responsibility, the Air Force has carefully 
maintained the ability to respond to worldwide contingencies. We've 
demonstrated our ability to respond in multiple operations such as 
tsunami support in Southwest Asia, earthquake support to Japan, combat 
operations over Libya in Operation Odyssey Dawn, and continued airspace 
control alerts over the United States in Operation Noble Eagle. 
Maintaining this capability has required the Air Force to accept some 
risk, as combatant command requirements exceed DOD-wide capacity for 
specific capabilities at times. The activity of the past 20 years has 
had significant impact on the Air Force in terms of costs related to 
increased equipment usage and the impact of high operations tempo on 
Air Force personnel. Current readiness levels reflect the cumulative 
impact of this demand.
    The Air Force remains committed to supporting global contingency 
requirements through the Joint Staff-led Global Force Management 
process and we continue to provide highly skilled, trained and ready 
airmen to support the combatant commanders. We are doing this by 
balancing our required reset period following drawdown from Afghanistan 
and Iraq with the national security risk posed by global events 
requiring U.S. military response.
    Question. How much additional risk, if any, is the United States 
assuming in this regard?
    Answer. The Secretary of Defense directed the implementation of 
Global Force Management within DOD in 2005. One of the goals of this 
program is to manage and make informed decisions relative to risk, both 
to the services ability to sustain the force and the combatant 
commanders' ability to support national military objectives.
    In order to mitigate these risks, we must continue to modernize our 
force and strengthen our alliances and partnerships. We work with 
allies and partners around the world to build their capacity to promote 
security. As the Air Force works to mitigate budget cuts over the next 
10 years, we must continue to closely watch risk trends to ensure we 
remain responsive and effective.
                     believability of requirements
    Question. In June 2006, the Army and Air Force signed a memorandum 
of understanding regarding the merger of two separate small cargo 
aircraft programs into the C-27 Joint Cargo Aircraft (JCA) program. 
Subsequently, the Air Force testified that the Air Force had to 
participate in the C-27 program because only the C-27 would allow the 
Air Force to meet the direct support logistics requirements of the 
Army. This year, the Air Force testimony is that the C-130 fleet can 
handle the Army direct support requirements just fine without any 
contribution from any C-27 aircraft. Just last June, then-Under 
Secretary Carter certified, as part of a Nunn-McCurdy breach in the 
Global Hawk program that the Global Hawk Block 30 program was both 
essential to national security and there was no other alternative that 
would provide acceptable capability to meet the joint military 
requirement at less cost. This year, the Air Force is proposing to 
cancel the Global Hawk Block 30 program.
    Why should Congress put any particular faith in assertions by Air 
Force officials about needs and requirements when there have been such 
remarkable reversals in unambiguous Air Force positions on large 
programs?
    Answer. Air Force Requirements are driven by the critical 
capabilities necessary to fulfill our Service mission in support of the 
National Military Strategy. Specific programs to meet these 
requirements are routinely reviewed based upon balancing risk across 
all 12 of our core functions within the context of the fiscal 
environment. In the case of the C-27J and Global Hawk Block 30, in 
context of the new strategy and the limitations imposed by the Budget 
Control Act, the Air Force made the determination that these two 
requirements--direct support to the Army and high altitude ISR--could 
be sufficiently met at lower overall cost by using the C-130 and 
continuing the U-2 program.
                    force provider for cyber command
    Question. The Commander of U.S. Cyber Command testified that his 
command is far short of the number of trained personnel needed to 
support the Command's offensive missions. He and other officials have 
expressed the belief that some additional personnel for Cyber Command 
can be harvested through the consolidation and rationalization of the 
thousands of sub-networks operated by the Military Services and defense 
agencies.
    What is your understanding of the personnel requirements, both 
military and civilian, of Cyber Command, and how do you intend to 
provide the needed personnel to Cyber Command?
    Answer. I am not familiar with those new requirements yet, but I 
understand the Commander's concerns about the number of cyber 
specialists available to support U.S. Cyber Command missions. I will 
ensure the Air Force works with the Joint Staff and Cyber Command 
during the fiscal year 2014 Program Budget Review to make available to 
the Command as many trained personnel as we can, based on the validated 
manpower requirement and our available inventory.
    The Air Force's cyber component, 24th Air Force, is only about 85 
percent manned. The Air Force has increased the throughput of our 
training pipeline to provide qualified personnel, but it will still 
take time to fill the need.
    Question. Do you expect that network consolidation could free up 
significant numbers of cyber personnel currently engaged in defensive 
and network management tasks to support Cyber Command's offensive 
missions?
    Answer. Network consolidation efforts have already freed up 
significant numbers of cyber personnel. They have already been 
repurposed within the Air Force to support both offensive and defensive 
cyber operations roles. Although additional enterprise-level 
consolidation efforts will free up more personnel, we can best support 
U.S. Cyber Command by first applying these savings to the existing 
shortfall at the Air Force cyber component.
    Question. Do you think that additional recruiting and retention 
authorities may be needed, and in the case of civilian personnel, 
additional hiring authorities, and if so what approaches would optimize 
the Air Force's ability to recruit and retain needed cyber specialists?
    Based on current recruiting and retention rates, the Air Force has 
the authorities it needs to meet military cyber requirements. For 
civilians, we have made significant use of the Schedule-A Authority 
granted by the Office of Personnel Management to DOD to staff certain 
cyber security positions. If confirmed, I look forward to working with 
the appropriate parties to further define roles, responsibilities and 
required manning for this emerging and complex area.
                       cyber command and control
    Question. What is your view of the complexities involved in, and 
the appropriate roles of, the geographic combatant commanders and the 
Commander of U.S. Cyber Command, respectively, commanding and 
controlling cyberspace operations that take place in or through a 
geographic combatant command area of operations when the interests of 
more than one Command are implicated?
    Answer. Cyberspace is a manmade domain through which actions can be 
instantaneous and global in nature. The complexities which evolve from 
this domain require a delicate balance between U.S. Cyber Command's 
global cyber mission and its requirement to provide direct support to 
regional combatant commanders, whose focus requires integration of 
effects across all domains within their area of responsibility. We are 
addressing this complexity and balance through a transitional cyber 
command and control model which places U.S. Cyber Command cyber 
elements within each combatant command, allowing proper U.S. Cyber 
Command synchronization of cyber effects globally, while also allowing 
the regional combatant commanders to integrate cyber with kinetic and 
non-kinetic effects in support of their missions.
    All of this is done in the same domain where other government 
entities routinely operate. Coordination, deconfliction, and 
synchronization are very difficult to achieve and the missions being 
conducted can be conflicting in nature. National cyber policy is not 
yet mature and there is huge potential for disagreement and disruption. 
While I believe all players would agree with the primacy of the 
combatant commander to make decisions relative to cyber activity and 
effects in a war zone, I believe they would also stipulate their 
support only if those effects were limited to that commander's area of 
operations . . . something that is almost impossible to guarantee in 
the cyber domain.
    Question. In terms of the networks provisioned and operated by the 
Military Services, what are your views about the respective roles of 
the Military Service and U.S. Cyber Command in commanding actions on 
those networks to determine threats and to react to them?
    Answer. For example, should Cyber Command headquarters have the 
same level of insight into network status and configuration as the 
Service component, and should operational orders always be executed 
through the Service components?
    Our Service role is to build and maintain Air Force networks to 
OSD, Chief Information Officer standards, specifications and management 
guidelines, and operate and defend networks to U.S. Cyber Command 
standards. The Service components (in our case 24th Air Force/Air Force 
Cyber) maintain situational awareness of their networks, monitor those 
networks for threats, and respond to those threats according to 
standards and orders from U.S. Cyber Command. It is the responsibility 
of the Service component to provide situational awareness to U.S. Cyber 
Command, ensuring Service-specific missions and impacts are properly 
considered. Therefore, operational orders from U.S. Cyber Command 
should be executed via the Service components. Service responsibilities 
are two-fold: (1) to provide cyber forces through the Global Force 
Management Implementation Guidance to U.S. Cyber Command; and (2) to 
organize, train, equip, and protect networks to support Service 
functions.
                     actions of air force officials
    Question. Over the last several years, senior Air Force officers 
are reported to have publicly advocated the funding of a number of 
programs that were not included in the President's budget and for which 
there was no currently validated joint requirement. These programs 
include the procurement of additional C-17s, the continuation of the C-
130J multi-year contract, and the multi-year procurement of additional 
F-22 aircraft. Senior Air Force officers are also alleged to have 
advocated a legislative proposal that would overturn a decision of the 
Base Realignment and Closure Commission relative to joint basing.
    What is your view of the propriety of efforts by senior Air Force 
officers to advocate the funding of programs that are not included in 
the President's budget and for which there is no currently validated 
joint requirement, other than in response to a congressional request 
for their personal views?
    Answer. Other than those occasions when individuals appear before 
appropriate committees of Congress and are asked to give their personal 
views, the military Services cannot function effectively and credibly 
if senior officers advocate for programs or funding of requirements 
that are not a part of the President's budget. While there is room for 
and a need for healthy debate of options and alternatives, once 
official decisions are made the official expression or advocacy of 
alternate positions must end. Otherwise, the confusion and 
consternation that result inhibit our ability to fund and field the 
approved programs.
    Question. If confirmed, what steps, if any, would you take to curb 
such efforts?
    Answer. If confirmed as Chief of Staff, I would work closely with 
the Secretary of the Air Force both to foster a healthy debate within 
the Air Force on the allocation of valuable resources and to ensure an 
understanding that only established processes and procedures for 
advocating program funding and priorities outside the Air Force will be 
used.
                      strategic nuclear stockpile
    Question. A recent report by Global Zero, an organization 
advocating for the elimination of nuclear weapons, suggested that the 
United States could reduce the strategic nuclear stockpile to 900 
warheads and eliminate the land based leg of the triad of nuclear 
delivery vehicles. General Norton Schwartz in response to the study 
stated that he disagreed with both the assessment and the study.
    What is your view on the findings and recommendations of the Global 
Zero study?
    Answer. I agree with the conclusions of the 2010 Nuclear Posture 
Review. I believe our Triad of nuclear delivery systems should be 
retained. As we consider future reductions in our nuclear forces, we 
must continue to strengthen deterrence of potential regional 
adversaries, strategic stability vis-a-vis Russia and China, and 
assurance of our allies and partners. Toward these ends, the Nuclear 
Posture Review called for follow-on analysis to set goals for future 
nuclear reductions below the levels set in the New START. Further 
study, informed by the increasing complexity of the emerging 21st 
century security environment, and a strategy-based analysis of the 
attributes needed to achieve these ends, is crucial.
    Question. Do you support the sustainment of the Minuteman III fleet 
through 2030?
    Answer. Yes, I support sustaining the Minuteman III fleet through 
2030 as mandated by Congress in the NDAA of 2007. The President's 
fiscal year 2013 budget reflects the Air Force's continued commitment 
to invest in the enduring and compelling attributes the Nation needs 
for a safe, secure, and effective nuclear deterrent force. The strength 
and responsiveness of the intercontinental ballistic missile force 
produce stability needed in today's security setting.
    Question. Do you support the effort to design and develop a next-
generation land-based deterrent to replace the Minuteman III at the end 
of its current service life?
    Answer. Yes. As the President stated in 2010, nuclear modernization 
requires investment for the long-term, and even in light of the new 
fiscal realities of the Budget Control Act, the administration 
continues to pursue these programs and capabilities. The President's 
fiscal year 2013 budget reflects the Air Force's continued commitment 
to invest in the enduring and compelling attributes the Nation needs 
for a safe, secure and effective nuclear deterrent force. The Air Force 
fully funded and is conducting the material solution analysis required 
to identify the options for a follow-on intercontinental ballistic 
missile system. The material solution options include enhancement of 
the existing system, replacement of the existing system (keeping the 
current infrastructure), and development of a new system.
    Question. Do you believe the United States should consider 
unilateral nuclear reductions?
    Answer. No. I believe that further U.S. nuclear reductions should 
be pursued within the context of negotiations--whether bilateral or 
multilateral. This approach is consonant with the Resolution of 
Ratification of the New START treaty that calls for addressing the 
disparity between the tactical nuclear weapons stockpiles of the United 
States and Russian Federation by seeking a verifiable agreement. It is 
also in keeping with our requirements under the nuclear non-
proliferation treaty to pursue negotiations as the means to fulfill our 
nuclear obligations. Finally, negotiations provide the means to achieve 
assured desired reciprocal actions, verification and transparency 
mechanisms (which will become increasingly important as reductions 
continue), and provide an important venue for discussion/interaction 
with other nuclear-armed nations.
                   acquisition policy and management
    Question. Despite success in awarding a contract for the 
procurement of replacement aerial refueling aircraft, the Air Force's 
recent attempt to award a $355 million contract for light attack 
aircraft for the Afghan military suggests that major challenges in how 
the Air Force conducts source selections persist. Members of Air Force 
leadership, including the Air Force Chief of Staff, have expressed 
serious concern about how the Air Force awarded this contract.
    Do you believe that anomalies that have been identified in 
connection with this source selection may be indicative of systemic 
problems in how the Air Force procures goods and services?
    Answer. No. Although I am not familiar with the details of the 
Light Air Support (LAS) source selection process nor the concerns with 
the decision itself, I do know that, as part of the Commander Directed 
Investigation associated with the LAS acquisition, the Air Force 
reviewed two source selections from each Air Force Materiel Command 
Product Center and Air Force Space Command's Space and Missile Center 
to assess quality and consistency of source selection procedures 
implemented in other Air Force systems acquisition programs. The 
anomalies found in the Light Air Support source selection were not 
pervasive. Nonetheless, the AF is reinforcing source selection training 
and file management requirements enterprise-wide in support of current 
and future source selection decisions
    Question. If confirmed, what specific changes, if any, do you 
believe need to be made to the Air Force's acquisition culture that 
would help ensure acquisition excellence?
    Answer. Our Air Force must continue improvements, such as those 
that have been taken under our recapturing acquisition excellence 
initiative; to ensure we deliver to the warfighter those systems needed 
to support Joint and coalition operations in the face of significant 
budget reductions. Cultural changes must continue to be made internally 
and will take time, but we shouldn't be patient.
    The Air Force and its acquisition enterprise need to be committed 
to a culture of efficiency and productivity in execution while pursuing 
robust business process improvements. This includes cultivating a 
culture of personal accountability while providing tools and training 
to the workforce that increases its business acumen, provides the Air 
Force with better business deals, and enables us to be better stewards 
of taxpayer money.
    The Air Force must ensure that its programs continually address 
affordability across their lifecycles. Our acquisition community must 
foster a culture of teamwork with the requirements and resource 
communities to ensure the programs we start have firm cost goals in 
place, appropriate priorities set, and the necessary analysis to make 
informed trade-offs to keep our programs within affordable limits. The 
Air Force has begun to put measures in motion to achieve these process 
improvements.
    These are challenging times, and continuing to conduct business as 
usual is not an option. If confirmed, developing and improving weapon 
systems and automated information systems, as well as developing and 
retaining a professional workforce to execute the acquisition mission 
will remain a priority.
    Question. In April 2012, the Defense Business Board (DBB) 
recommended that the chiefs of the Military Services should be more 
engaged and accountable in the acquisition process.
    Do you see a need for any change in the role of Chief of Staff of 
the Air Force in the requirements determination, resource allocation, 
or acquisition management processes of the Department of the Air Force?
    Answer. Within the acquisition system, the Service Chiefs are 
responsible for development and validation of requirements and 
recommending the proper allocation of resources across competing 
portfolios to satisfy these requirements. This is firmly established by 
the Goldwater-Nichols Act. I believe the CSAF should be personally 
involved in the requirements approval/change process for major weapons 
system programs.
    Question. What do you see as the potential advantages and 
disadvantages to giving the Chief of Staff of the Air Force and the 
other Service Chiefs more authority and responsibility for the 
management and execution of acquisition programs?
    Answer. The advantage of the Chiefs' expanded involvement is the 
opportunity to gain insight into how acquisition strategies and 
solutions are meeting the requirements of the operational forces. This 
insight would improve the Chiefs' ability to attest to requirements 
affordability in order to improve program cost or schedule in a manner 
consistent with desired operational capability. A disadvantage is the 
potential blurring of the Service Acquisition Executive and the Chiefs' 
principle acquisition roles which might hinder the overall Service 
responsibility for oversight, reporting, and execution of acquisition 
programs. These new roles may also take away from the Chiefs' focus on 
military operational needs and resourcing.
    Question. What do you believe is the appropriate role of the 
combatant commanders in the requirements, acquisition, and resource-
allocation processes?
    Answer. The current role of the combatant commanders in the 
requirements process is appropriate. Each year, the combatant 
commanders submit integrated priority lists characterizing required 
capabilities to execute their missions. They then participate in the 
adjudication of actions taken on these lists through the Joint Staff's 
Capability Gap Analysis process. Additionally, they are standing 
members of the JROC and the Deputies Management Advisory Group.
    Question. Do you see a need for any change in the structure or 
functions of the JROC or the role played by the Chief of Staff of the 
Air Force and the Vice Chief of Staff of the Air Force in the JROC?
    Answer. No. I believe the current structure and function of the 
JROC and the roles played by both the Chief and Vice Chief of Staff of 
the Air Force are appropriate.
    Question. What is your assessment of recent revisions made by the 
Vice Chairman of the Joint Chiefs of Staff to the Joint Capabilities 
and Integration Development System (JCIDS)?
    Answer. I support the recent JCIDS revisions made by the Vice 
Chairman. The Air Force was energetically involved throughout the 
process that shaped the final outcome. At the start of the revision 
process, the Air Force made specific recommendations to the Chairman 
regarding JCIDS and has been incorporating analogous recommendations to 
our own processes in parallel to the JCIDS revisions. We have made 
significant progress, but more work needs to be done to better 
prioritize Joint requirements.
                          test and evaluation
    Question. What do you see as the appropriate role of the 
developmental and operational test and evaluation communities in the 
rapid acquisition, spiral acquisition, and other evolutionary 
acquisition processes?
    Answer. I believe the role of developmental test/operational test 
is the same in any type of acquisition. We plan, resource, and execute 
the most efficient blend of modeling, simulation, analysis, laboratory, 
and open range testing required to ensure the contractor met its 
contractual obligations, the system meets its required specifications, 
and that the system is operationally effective and suitable. Testers 
are involved early in acquisition planning and requirements analysis to 
ensure the acquisition program baseline and requirements are feasible, 
executable, and effective. For rapid acquisition, this requires close 
coordination. These are fundamental principles that do not change 
regardless of the type of acquisition.
    Question. Are you satisfied with the Air Force's test and 
evaluation capabilities?
    Answer. I am. The Air Force develops the most advanced systems in 
the world. Test and evaluation verifies these capabilities work before 
we ask our airmen to risk their lives with them in combat. Furthermore, 
I expect the Air Force to maintain continuous improvements in test and 
evaluation. One example is in the area of rapidly emerging threats and 
technologies. The threat is rapidly changing. Therefore technology 
cannot wait and must keep ahead of the bow wave. Test and evaluation 
gives us assurance that we remain ahead and effective.
    Question. In which areas, if any, do you feel the Air Force should 
be developing new test and evaluation capabilities?
    Answer. Emerging technologies and threats are opening up in areas 
like hypersonics and cyber warfare, both offensive and defensive, just 
to mention a couple of examples. Existing capabilities cannot fully 
exploit breakthroughs in these areas. Full exploitation requires test 
and evaluation capabilities above and beyond the systems they are 
testing and a concerted coordination effort between the Air Force, DOD, 
other government agencies, industry, and even foreign partners.
    Question. Section 102 of the Weapon Systems Acquisition Reform Act 
established a new Deputy Assistant Secretary of Defense for 
Developmental Test and Evaluation (DASD(DT&E)) to help ensure that the 
operational and developmental testing organizations in DOD and the 
Military Services are adequate to ensure an appropriate level of 
testing, and testing oversight, on major defense acquisition programs. 
Section 835 of the NDAA for Fiscal Year 2012 built on this provision by 
establishing new organizational and management requirements for 
developmental testing on major defense acquisition programs. Section 
803 of the committee-reported NDAA for Fiscal Year 2013 would clarify 
the oversight and supervisory responsibilities of the DASD(DT&E) over 
the chief developmental testers and lead developmental test evaluation 
organizations of the Military Departments, including the responsibility 
for establishing policies and guidance for, and monitoring and 
reviewing the performance of, all developmental test components of DOD.
    If confirmed, would you help ensure that the Air Force adheres to 
relevant guidance established by the DASD(DT&E) and ensure that the Air 
Force promptly transmits any records or data directly to the DASD(DT&E) 
upon request?
    Answer. Yes. I'm told the Air Force has a very good working 
relationship with the DASD(DT&E) and that we've seen great improvements 
in the robustness and quality of developmental testing resulting from 
establishment of this office. I will fully support DASD(DT&E)'s mission 
in all respects and will support the already established Air Force 
policy for this.
    Question. Some have argued that testing takes too long and costs 
too much. Others contest this view pointing out that testing and 
evaluation is an essential tool to assist in the development of weapon 
systems and ensure that they perform as intended. The Armed Services 
Committee has expressed concern that problems with weapons systems have 
been discovered during operational testing and evaluation that should 
have been discovered during developmental testing and corrected during 
subsequent development.
    Do you believe that major defense acquisition programs are helped 
or hurt by cutting tests budgets and reducing the time available for 
developmental testing?
    Answer. Overall, programs are hurt by cutting test budgets and 
reducing the time available for developmental test and risks are 
increased. Test expenditures have repeatedly been shown to consume 
approximately 3 percent of overall acquisition costs. Even with that 
small amount, we've taken steps to improve testing with statistically-
based test designs and integrating the efforts of all testers to 
squeeze out greater efficiency.
    Question. What steps if any would you take, if confirmed, to ensure 
that the Air Force's program management community and the testing and 
evaluation community work collaboratively and effectively in a way that 
maximizes the likelihood that developmental testing and evaluation will 
detect and identify problems timely in software and hardware to provide 
opportunities to correct them before production and before operational 
testing and evaluation begins?
    Answer. Our test and acquisition communities have an overall smooth 
working relationship. There is a natural, healthy tension between the 
testers and program management which brings testers into decisionmaking 
and acquisition strategy design in the earliest phases of new programs. 
Our integrated test teams have created increased communication and 
trust between testers and program managers when all information is out 
in the open. The benefit of this is that test and evaluation review 
processes and foster earlier designation and involvement of development 
test organizations and responsibilities. If confirmed, I will press 
forward with institutionalizing integrated testing as a key test design 
strategy.
                          joint strike fighter
    Question. To date, the JSF program has gone though several major 
restructurings that have helped reduce near-term acquisition risks by 
lowering annual procurement quantities within the Future Years Defense 
Plan and allowing more time and resources for developmental testing. 
While GAO, for the second year in a row, finds that these 
restructurings, which most recently concluded with the completion of a 
technical baseline review, ``should lead to more achievable and 
predictable outcomes'', GAO also believes concurrency change 
management, software development, and long-term affordability remain 
major issues for this program.
    What role do you expect to play, if confirmed, in the management of 
the JSF program?
    Answer. Should I be confirmed as CSAF, my primary role regarding 
the JSF will be to integrate it into the USAF, and to fulfill my Title 
10 responsibilities to organize, train, and equip forces to support the 
combatant commanders.
    While the JSF Program Office has the primary responsibility for 
managing development and production of the JSF, as CSAF I will retain 
program influence by setting USAF priorities and recommending program 
funding levels. I will continue to receive recurring program updates 
and guide USAF integration as did my predecessor. The Vice Chief and I 
will coordinate USAF JSF-related issues such as aircraft beddown, 
support, and associated USAF training. I will very closely monitor any 
changes to existing requirements tht drive program cost or schedule.
    Question. If confirmed, what criteria would you use in helping to 
determine an initial operating capability (IOC) date for the Air 
Force's variant of this aircraft?
    Answer. The Air Force will declare IOC when the Commander of Air 
Combat Command determines we have achieved the appropriate milestones 
in aircraft and training device capability and availability, air and 
ground crew training and proficiency, and the development, 
verification, and documentation of training, tactics and maintenance 
procedures.
    Question. In your view, what are the major management issues 
associated with the development and production of the Air Force's 
version of this aircraft?
    Answer. The major management issues, in my view, are software 
development and performance, concurrency change management, 
affordability, schedule and production quality.
    The JSF software development plan is funded, is realistic, and has 
sufficient Reserve, but there is still some risk associated with the 
plan. Past and present performance suggests that software is at risk of 
delivering late with less than planned capability. The whole air system 
capability (onboard flight systems, mission systems, offboard ALIS and 
its interfaces) is critical to meet operational requirements.
    Effective management of the concurrency changes, lowering life 
cycle cost, and the delivery of affordable full service life jets are 
critical for the USAF. Changes are driven by design maturity 
discoveries concurrent with the production/delivery of aircraft. The 
JSF Program Office is currently pursuing cost-sharing arrangements 
during the ongoing negotiations for LRIP Lot 5 and will continue to 
pursue similar cost sharing language in all future contracts.
    Problems with initial quality are yielding higher production costs 
now. Focused effort is being applied to improve quality and reduce 
cost. Improving quality and reducing production costs is imperative for 
the United States and our partners.
    Question. To what extent do you believe that the Air Force may need 
to buy additional quantities of legacy aircraft to hedge against 
further slips in this program's scheduled delivery of air craft to the 
Air Force?
    Answer. The Air Force chose to modernize and sustain 4th generation 
fighters as a bridge to 5th generation delays. Examples include the F-
16 Service Life Extension Program (SLEP) and Combat Avionics Programmed 
Extension Suite (CAPES), which are more cost effective than a new F-16 
purchase. Pending the results of ongoing fighter durability tests, we 
will continue this approach for a relatively small, but scalable, 
number of F-16s.
                                 jstars
    Question. The Air Force has stated that JSTARS re-engining program 
will result in significantly improved mission capability, increased 
safety of flight margins, and will pay for its development and 
procurement costs by Air Force's own determination when including fully 
burdened costs, by 2018. The Analysis of Alternatives (AoA) for ground 
moving target indicator capability also concluded that JSTARS 
alternatives are unaffordable in the near-term and that the Air Force 
intends to continue operating the E-8C JSTARS aircraft until at least 
2025--further validating the value of re-engining the JSTARS fleet. 
Section 146 of the NDAA for Fiscal Year 2012 (P.L. 112-81), enacted 
into law on December 31, 2011, requires the installation of at least 
one new engine shipset on an E-8C JSTARS operational fleet aircraft. 
The law also cites concerns about the significant reprogramming of 
funds that were specifically authorized and appropriated for the JSTARS 
re-engining program and directed an audit of all JSTARS funds as well 
as direction to spend authorized and appropriated funds for the 
purposes that they were intended. Moreover, the audit found that $160.5 
million was reprogrammed or the Air Force let them expire. 
Additionally, the Air Force Audit Agency also identified $38.8 million 
of unexpended funds for JSTARS re-engining. The audit states that the 
Air Force estimated cost to complete the System Development and 
Demonstration and to install one new engine shipset on a E-8C JSTARS 
aircraft totals $35 million.
    If confirmed, will you comply with the requirements of section 146 
which requires the Air Force to install at least one new engine shipset 
on a E-8C JSTARS operational fleet aircraft?
    Answer. I have not been involved at all with this issue and do not 
sufficiently understand the details. If confirmed, I will become 
familiar with the requirements of section 146 and address congressional 
concerns with Air Force compliance within the requirements of that 
section.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Staff of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic communications, in a timely manner when requested by a duly 
constituted committee, or to consult with the committee regarding the 
basis for any good faith delay or denial in providing such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
             intelligence, surveillance, and reconnaissance
    1. Senator Levin. General Welsh, as founder of Joint Functional 
Component Command-Intelligence, Surveillance, and Reconnaissance (JFCC-
ISR) and the nominee to be Chief of Staff for the Service that controls 
most of our airborne ISR assets, what recommendations would you make to 
improve the Department of Defense's (DOD) process for assigning ISR 
assets to meet the requirements of the geographic combatant commanders 
outside of theaters of major combat operations?
    General Welsh. Assigning our scarce intelligence, surveillance, and 
reconnaissance (ISR) resources to meet the diverse requirements of 
national-level decisionmakers and Geographic combatant commanders is an 
extremely challenging task. The global force management allocation 
process has served DOD well in assigning these scarce ISR assets to 
address the Nation's highest priority requirements. JFCC-ISR continues 
to modify this process to better address Department needs in a changing 
security environment. For example, JFCC-ISR continually evaluates our 
ISR posture to ensure that we will address the warfighters' highest 
priorities in a post-Operation Enduring Freedom environment. Part of 
this evaluation includes incorporating an ISR assessment process that 
not only helps allocate ISR capabilities to combatant commands but 
highlights gaps and vulnerabilities in current technologies to inform 
future Service force modernization efforts. In the future, we may also 
want to explore the possibility of enlarging the pool of ISR resources 
by increasing the collection capabilities and the processing, 
exploitation, and dissemination resources the other Services make 
available for joint allocation.

    2. Senator Levin. General Welsh, are there steps the Air Force can 
take, notwithstanding the broader DOD process, to make more effective 
use of airborne ISR assets to meet these requirements?
    General Welsh. We are improving the effectiveness and capacity of 
our airborne intelligence, surveillance, and reconnaissance (ISR) 
capabilities by upgrading our remotely-piloted vehicle (RPA) fleet's 
full-motion video (FMV) sensors to high-definition and streamlining RPA 
command and control through multi-aircraft control. Additionally, 
machine-to-machine networking to identify emerging targets and shorten 
the kill chain--achieved in initiatives such as net-centric 
collaborative targeting--is improving the effectiveness of existing ISR 
assets. To increase efficiencies, we are also off-boarding RC-135 Rivet 
Joint data to enable greater collection capacity and integrating Global 
Hawk Block 40 and Joint Surveillance Target Attack Radar System to 
create a more comprehensive, flexible ground moving target indicator 
architecture. Air Force Distributed Common Ground System (DCGS) is also 
performing FMV processing, exploitation, and dissemination (PED) via 
reachback for all MC-12W sorties and is endeavoring to do the same for 
wide-area sensors.
    We are attempting to make more effective use of airborne ISR assets 
by integrating ``cross-domain'' tools for collection management and 
PED. This helps us avoid redundant taskings and enables collection 
through multiple sensors, as well as PED through multiple nodes. 
Additionally, we continue to work with the Office of the Secretary of 
Defense, our intelligence community partners, government labs, and 
industry to identify, develop and integrate enhanced data exploitation/
integration and analytic tools into the Air Force DCGS, Air and Space 
Operations Centers, and ISR analysis and production centers. These 
tools are moving us in the direction of machine-to-machine integration, 
allowing our analysts to leverage greater amounts of data using deeper 
level analysis and fusion techniques. An additional goal for the Air 
Force ISR enterprise is to continue integrating non-traditional data 
sources, such as video from combat targeting pods.
                                 ______
                                 
               Question Submitted by Senator Mark Begich
                         air force space policy
    3. Senator Begich. General Welsh, how has the National Space 
Policy, released in June 2010, and the National Security Space 
Strategy, released in January 2011, influenced Air Force space posture 
or investment plans? Specifically, how has it influenced utilization of 
commercial space ports, like Kodiak Launch Complex in Alaska?
    General Welsh. In accordance with the 2010 National Space Policy, 
the Air Force continues to support the purchase and use of commercial 
space capabilities and services when such capabilities and services are 
available and meet U.S. Government requirements. The successful Air 
Force launch of the Operationally Responsive Space TacSat-4 mission 
from the Kodiak Launch Complex (KLC) in September 2011 demonstrates 
this commitment.
    The Air Force evaluates all launch locations based on mission 
requirements, orbital profiles, and cost effectiveness to support 
national objectives. The KLC is a valuable part of our National Space 
Access capability. The support provided to our launch teams during the 
two previous Air Force missions was outstanding. Due to current mission 
requirements there are no launches currently planned. However, we 
remain optimistic that ongoing initiatives aimed at transforming the 
current launch and range enterprise will offer potential areas for 
future collaboration.
    The Air Force continues to value the capability and location KLC 
provides and the opportunity to utilize KLC in support of National 
Security Space.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                 women and minorities in the air force
    4. Senator Gillibrand. General Welsh, I'm concerned about the 
persistent lack of representation of women and minorities within Air 
Force senior and key command leadership ranks. This critical gap is 
counterproductive to the country's strategic goals and underutilizes 
our full talent base and negatively impacts our national security. The 
lieutenants of today are the colonels and generals of tomorrow, and 
every year that passes without actionable and accountable solutions 
guarantees this same demographic status quo as they progress through 
the ranks. In your estimation, is the Air Force officer corps 
representative of the demographics of the United States relative to 
minorities and women? If not, is this a priority for you and what, as 
the Air Force Chief of Staff, do you plan to do in order to lead the 
kind of transformation necessary to correct this problem in a 
responsible and sustainable way?
    General Welsh. Yes, this will remain a priority. In fact, in 2011 
second lieutenant accessions very closely reflected the pool of 
eligible female and minority candidates.
    In 2011 the Air Force accessed 76.2 percent Whites, 6.5 percent 
African Americans, 8.2 percent Hispanics, and 9 percent Asians or other 
minorities (see explanation below), which very closely reflects the 
2011 eligible population of 77.1 percent of whites and 22.9 percent of 
minorities (6.9 percent African Americans, 6.2 percent Hispanics, and 
about 9.8 percent Asians or other minorities) who met all of the 
eligibility requirements to become Air Force officers.
    It is important to understand that not all Americans are eligible 
to join our Air Force as officers for many reasons. The U.S. eligible 
population is a more accurate basis for comparison because this is the 
population from which we are able to recruit. To become an officer, 
individuals must meet several minimum requirements: be between 18 and 
34 years old, be a U.S. citizen, have at least a bachelor's degree, and 
meet certain height, weight, and medical requirements. Currently, there 
are approximately 67 million individuals between the ages of 18 and 34 
in the United States, about 21.5 percent of the U.S. population. Of 
these individuals, about 15 million have a college degree; 14 million 
are U.S. citizens, and 9 million meet height and weight requirements. 
When you consider all of these factors, age, citizenship, education, 
physical fitness, and add to that an individual's medical history, the 
pool of eligible candidates quickly drops from 67 million to 8 million. 
Despite this relatively small pool of eligible candidates from which we 
had to recruit, the Air Force was successful in accessing a reflective 
sample of the eligible minority population.
    Since 2006, females have accounted for about 25 percent of our 
officer accessions; female officers comprise 19.4 percent of the 
officer corps. According to the 2010 census, there are slightly more 
than 35 million females in the United States between the ages of 18 and 
34. This equals approximately 11.47 percent of the total U.S. 
population. In that age group, roughly 8.7 million (or 24.7 percent of 
females ages 18-34) have 4-year college degrees and, therefore, meet 
the minimum age and education requirements to become Air Force 
officers.
    While the eligible populations for male and female officers are 
comparable among the Services, the percentage of female accessions in 
the Air Force is higher. The Air Force's female accession rate is 25 
percent: the Navy's is 22 percent, the Army's is 21 percent, and the 
Marine Corps' is 9 percent.
    Determining the root causes of the accessions gap is a great 
concern to me and the U.S. Air Force. We have commissioned a few 
studies with RAND over the next year to evaluate female officer 
retention and accessions. Although we do not yet have concrete data, we 
suspect that the accession difference is at least partially explained 
by perceptions and misconceptions about the Air Force involving quality 
of life (including deployment and mobility requirements), opportunities 
for promotion, and a lack of mentorship. There is also a shortfall of 
women in the science, technology, engineering, and math fields, from 
which the Air Force draws the majority of its officers. We recognize 
and understand that one of our challenges is to better grasp the 
accessions gap. My desire is to access and maintain more women in the 
United States Air Force.
    The Air Force is committed to increasing our representation of 
qualified female and minority airmen. The greatest strength of our Air 
Force is our airmen. The greatest strength of our airmen is their 
diversity. Each of them comes from a different background, a different 
family experience, and a different social experience. Each brings a 
different set of skills and a unique perspective to the team, which is 
why we embrace diversity in our Air Force.

    5. Senator Gillibrand. General Welsh, the Military Leadership 
Diversity Commission (MLDC) report dated March 2011 hails the Navy 
Strategic Diversity program as a model. Will you thoroughly review the 
Navy's program for possible implementation of some of their best 
practices? If no, why not?
    General Welsh. Yes, we will explore the Navy's program along with 
our sister Services and external government agencies to benchmark best 
practices. Since the final MLDC report was published, the Air Force 
continues to strengthen our diversity initiatives that support 
diversity priorities to institutionalize, attract, recruit, develop and 
retain a highly qualified diverse and inclusive Total Force. We will 
continue to partner across the Joint environment to strengthen our 
diversity program.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                 proposed growth in civilian personnel
    6. Senator McCain. General Welsh, the President's budget request 
for fiscal year 2013, on the one hand, cuts Active Duty end-strength by 
7.2 percent and Reserve component end-strength by 2.5 percent in total. 
But, on the other hand, it requests an increase of 2,400 full-time 
civilian personnel in the Air Force over the next 5 years. What is your 
view on the need for the Air Force to increase the number of its 
civilian employees, even in the face of reductions in force structure 
and uniformed personnel throughout DOD?
    General Welsh. Any changes in civilian end strength are driven by 
associated changes in workload. Our fiscal year 2013 Presidents budget 
submission reflects an addition of 3,650 civilians from fiscal year 
2012 through fiscal year 2017 in a variety of areas including DOD 
directed additions for combatant command requirements, foreign military 
sales, and depot maintenance. We will address this growth in our zero-
based analysis of our civilian workforce during our fiscal year 2014 
Presidents budget development.

    7. Senator McCain. General Welsh, if confirmed, would you reexamine 
this issue?
    General Welsh. I will consistently review the Air Force's use of 
our resources. The Air Force reviews the balance of our Total Force 
makeup to ensure that the essential manpower is available to perform 
our required workload.

              joint strike fighters at luke air force base
    8. Senator McCain. General Welsh, the Air Force is getting ready to 
release a Record of Decision (ROD) on the placement of F-35 squadrons 
at Luke Air Force Base (AFB). There appears to be a possibility that 
this ROD may end up proposing only three F-35 training squadrons, as 
opposed to six originally considered. With the proposed departure of 
two F-16 squadrons to Holloman AFB, the Air Force will end up with a 
significantly underutilized ramp at the premier training base and the 
best training range in the country at a time the Air Force can ill 
afford to operate inefficiently. Why do you believe moving the two F-16 
squadrons to Holloman AFB is the best move for the Air Force pilot 
training mission?
    General Welsh. The Secretary and Chief of Staff of the Air Force 
made the decision to relocate two of Luke AFB's F-16 squadrons to 
Holloman AFB in July of 2010. Holloman has: access to airspace, to 
include the White Sands Missile Range, and multiple air-to-ground 
ranges; adequate ramp and facility space for two squadrons; rare 
inclement weather; low likelihood of environmental issues; and a 
history of fighter training. In addition, F-16 pilot training will be 
required for the foreseeable future.
    The recent record of decision for F-35A training basing States that 
three F-35 squadrons will be assigned to Luke and the Air Force is 
committed to international partners training at this location. Luke 
will also retain 2 U.S. F-16 training squadrons (48 primary aircraft 
authorized (PAA)) and 2 foreign military sales training squadrons (26 
PAA). Further, the Air Force intends to leverage Luke AFB's extensive 
capacity to the maximum extent possible. The next F-35A training basing 
decision will leverage existing capacity and expedite decisionmaking 
through reliance on the final environmental impact statement as 
appropriate. The Air Force anticipates making another basing decision 
for up to an additional three training squadrons (72 PAA) of F-35A 
aircraft around December 2014.

    9. Senator McCain. General Welsh, are you aware of any restrictions 
to the current F-16 pilot training syllabus at Luke AFB that prevents 
the Air Force from conducting full spectrum operations training?
    General Welsh. All F-16 syllabi training events are fully supported 
at Luke AFB.

    10. Senator McCain. General Welsh, if the Air Force decides to 
station three F-35 squadrons at Luke AFB for now, could the base also 
support the F-16 squadrons currently operating there in existing 
facilities?
    General Welsh. The Air Force signed a Record of Decision on August 
1, 2012 stating that Luke AFB would receive the first three training 
squadrons of F-35 aircraft and would retain two U.S. F-16 training 
squadrons and two FMS F-16 training squadrons. In addition, it stated 
the Air Force is committed to international partners training at this 
location. The two remaining U.S. F-16 training squadrons at Luke AFB 
will move to Holloman AFB per the Secretary of the Air Force decision 
announced on July 30, 2010.
    A site survey conducted in support of this decision indicated that 
Luke AFB had capacity to support up to seven squadrons and the Air 
Force intends to leverage that extensive capacity to the maximum extent 
possible. The next F-35A training basing decision will be expedited 
through reliance on the Final Environmental Impact Statement as 
appropriate. The Air Force anticipates making another basing decision 
for up to an additional 3 training squadrons (72 Primary Aircraft 
Authorized (PAA)) of F-35A aircraft on or about December 2014.

    11. Senator McCain. General Welsh, are you aware of the operational 
constraints with the air-to-ground ranges at Holloman that will have a 
detrimental impact on the pilot training syllabus?
    General Welsh. I am aware of an on-going effort to finalize the 
plan for integration of Formal Training Unit (FTU) requirements with 
other organizational requirements for White Sands Missile Range (WSMR) 
airspace. Holloman has access to a large and diverse collection of 
restricted airspace, ranges, military operating areas (MOA) and air 
traffic control assigned airspace. To address scheduling integration 
within the various activities that take place on the range, the WSMR 
leadership sponsored a Lean-Six Sigma Rapid Improvement Event (RIE) 
from 6-8 March 2012 to address FTU access to WSMR airspace. The RIE 
recommendations are being codified by WSMR personnel and will be 
evaluated against hypothetical FTU airspace requirements in the coming 
months.

                       strategic nuclear weapons
    12. Senator McCain. General Welsh, a May 2012 report by Global 
Zero, an organization advocating for the elimination of nuclear 
weapons, suggested that the United States could reduce the strategic 
nuclear stockpile to 900 warheads and eliminate the land based leg of 
the triad of nuclear delivery vehicles. In response to the study, 
General Schwartz stated that he disagreed with both the assessment and 
the study. Do you agree with General Schwartz?
    General Welsh. Yes. Consistent with the 2010 Nuclear Posture 
Review, I believe that our Triad of nuclear delivery systems should be 
retained and any potential future reductions in our nuclear forces must 
maintain ability to deter potential regional adversaries and ensure 
strategic stability, as well as assure our allies and partners in key 
regions.

    13. Senator McCain. General Welsh, do you believe the current 
threat warrants moving from a triad to a dyad? If not, why not?
    General Welsh. No. Each leg of the Triad contributes unique 
attributes that when combined, create a synergistic effect, greater 
than just the sum of the parts, while maintaining a hedge against 
uncertainty. The responsiveness, survivability and flexibility of the 
Triad underwrite stability by deterring nuclear-armed adversaries and 
providing credible assurances to allies. I support the Nuclear Posture 
Review's conclusion that, for the foreseeable future, the Triad will 
continue to provide the best blend of complementary attributes to 
maintain stability.

    14. Senator McCain. General Welsh, during our hearing in March, 
General Robert Kehler, the head of U.S. Strategic Command (STRATCOM), 
testified that he is concerned with the lack of a plan and strategy to 
meet STRATCOM's nuclear weapons requirements. The fiscal year 2013 
budget for the National Nuclear Security Administration (NNSA) makes a 
number of significant changes and cuts funding the plutonium facility 
at Los Alamos, a key element of the nuclear weapons complex 
modernization plan that the President committed to when he asked the 
Senate to ratify the New Strategic Arms Reduction Treaty (START). 
According to General Kehler, he will be ``concerned until someone 
presents a plan that we can look at and be comfortable with and 
understand that it's being supported.'' Do you agree that the 
commitment to modernize the nuclear weapons complex was a key element 
in the ratification of the New START treaty?
    General Welsh. Both the Secretary of Defense and the Chairman of 
the Joint Chiefs of Staff testified during the treaty ratification 
process that the effectiveness and credibility of our deterrence is 
tied to the commitment to prudently invest in our Nation's nuclear 
weapons infrastructure and in the nuclear warhead life extension 
programs. Now and in the future, Air Force nuclear deterrent 
capabilities will depend upon a responsive, modernized nuclear weapons 
complex infrastructure. In light of the Budget Control Act and 
competing priorities for resource allocation, DOD is working closely 
with the Department of Energy's National Nuclear Security 
Administration to pursue the necessary life extension programs required 
for Air Force systems to ensure we meet STRATCOM requirements.

    15. Senator McCain. General Welsh, do you agree that the fiscal 
year 2013 budget does not honor the terms of the plan that the 
President committed to in exchange for the treaty?
    General Welsh. The President's fiscal year 2013 budget reflects the 
Air Force's continued commitment to invest in the enduring and 
compelling attributes the Nation needs for a safe, secure and effective 
nuclear deterrent force. The Air Force fully funded and is conducting 
the material solution analysis required to identify the options for 
follow-on intercontinental ballistic missile and cruise missile 
systems. As the President stated in 2010, nuclear modernization 
requires investment for the long-term, and even in light of the new 
fiscal realities of the Budget Control Act, the administration 
continues to pursue these programs and capabilities.

    16. Senator McCain. General Welsh, do you agree that modernization 
is universally recognized as essential to the future viability of the 
nuclear weapons complex and a prerequisite for future reductions?
    General Welsh. Yes, I agree that a modernized and responsive 
nuclear infrastructure is a factor which must be considered for future 
reductions. The 2010 Nuclear Posture Review affirmed that the U.S. 
nuclear infrastructure is in need of modernization and that remains the 
case today. As we move to lower numbers, the ability of the nuclear 
weapons complex to effectively demonstrate and support the readiness of 
our Nation's deterrent capability becomes even more critical.

    17. Senator McCain. General Welsh, do you share General Kehler's 
concerns?
    General Welsh. With the number of Navy and Air Force warhead 
sustainment requirements on the horizon, I support General Kehler's 
desire to have a strategic plan between DOD and National Nuclear 
Security Administration that synchronizes these requirements. As the 
Air Force is responsible for providing nuclear deterrent forces for 
two-thirds of the Nation's nuclear Triad, which forms the foundation of 
global stability and assuring our allies and partners, we are working 
closely with the National Nuclear Security Administration on the 
programming and funding challenges impacting Air Force systems and the 
development of a long-range plan.

                                biofuels
    18. Senator McCain. General Welsh, in a recent article, senior Air 
Force officials reportedly said regarding investments by DOD in the 
development of biofuels that, ``We're not in the fuel production 
business. We're not into scaling up new fuels . . . the challenge with 
petroleum fuels is that it's a commodity. You're trying to jump into a 
commodity market. That's not a place for the Government to be.'' Do you 
agree with that position?
    General Welsh. While the Air Force is testing and certifying 
alternative fuel blends that have the potential to be developed on a 
commercial scale, the Air Force will be a consumer, not a producer, of 
those fuels. The Air Force is partnering with the other Services and 
private industry to ensure that when new cost effective fuels come to 
market, they will also meet the Air Force's technical specifications.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                             sequestration
    19. Senator Inhofe. General Welsh, sequestration will be 
devastating to our national defense, the military, and our defense 
industrial base. Could you please explain how sequestration will affect 
your organization?
    General Welsh. The percentage reduction for fiscal year 2013 equals 
the total cut for DOD as a whole ($50-$55 billion) divided by fiscal 
year 2013 new budget authority and prior-year unobligated balances. If 
military personnel funding is exempt, it will be excluded from fiscal 
year 2013 new budget authority. That means everything else is cut more 
and DOD estimates an 8 percent cut with milpers included, 10 percent 
with milpers exempt. The best way to avoid this problem is to turn off 
sequestration for defense and non-defense.

    20. Senator Inhofe. General Welsh, we are already assuming risks 
with the reduction of the DOD budget, but if sequestration takes 
effect, how much more risk would be involved and can we adequately meet 
the requirements of our national defense strategy?
    General Welsh. We are currently performing impact assessments of 
sequestration that consider some of these factors. However, we are 
heavily focused on turning off sequester rather than assessing its 
impact.

    21. Senator Inhofe. General Welsh, if sequestration takes effect, 
the resulting across-the-board cuts would be devastating to our 
military's readiness. Can you explain how a reduction in funds will 
hamper training and proficiency; for example, a reduction in your 
flying hour program and reduced time on the ranges?
    General Welsh. Sequestration would seriously disrupt the Air Force 
forces and programs. The Air Force would need to implement actions to 
the Operation and Maintenance appropriation such as reductions to 
flying hours and weapon system sustainment, and reduce training. The 
fiscal year 2013 proposed budget balances risk to meet the DOD 
Strategic Guidance, resulting in increased but manageable risk. Further 
reductions would increase the risk, making it unmanageable.

                                  f-35
    22. Senator Inhofe. General Welsh, is the Air Force committed to 
the F-35 program?
    General Welsh. Yes. The Air Force remains fully committed to the F-
35 program, which is the future of the fighter force. The program of 
record for the aircraft has not changed, which is 1,763 F-35A aircraft.

    23. Senator Inhofe. General Welsh, does prolonging production of 
the F-35 increase overall cost of the program?
    General Welsh. Yes. Prolonging production of the F-35 results in a 
small overall increase to the cost of the program due to a longer 
production run and more years of inflation impacting the production 
program. However, over the Future Year Defense Plan, the Department 
believes this provides a balanced approach between concurrency bills 
and respect for unit recurring flyaway costs. In addition, this allows 
for allocation of scarce money to other department priorities in a 
resource constrained fiscal environment.

    24. Senator Inhofe. General Welsh, have concurrency issues been 
mitigated by producing only 30 aircraft per year for 5 years?
    General Welsh. Yes. The President's budget 2013 quantities of 
roughly 30 per year have reduced the total number of aircraft that will 
require retrofit modifications due to concurrency. As a result, this 
has yielded some concurrency cost mitigation. However, further 
reductions in production quantities could drive cost increases arising 
from production assembly and supplier disruptions that would offset any 
benefits associated with lower concurrency costs.

    25. Senator Inhofe. General Welsh, what does the business case 
analysis show when comparing the cost of slowing down and delaying 
production vice accelerating production and modifying earlier lots of 
F-35s?
    General Welsh. The Air Force has not performed a full business case 
analysis relating to this specific question. However, DOD held a 
comprehensive program review and developed a balanced approach between 
decreasing modification costs and increasing unit costs associated with 
decreasing production rates. At this time, the DOD believes that they 
have achieved the best balance between the need for stabilizing 
production rates with the realities of increasing concurrency 
modification costs. The DOD is continuing to monitor the program and 
will rebalance as necessary.

                        aging fleet of aircraft
    26. Senator Inhofe. General Welsh, the Air Force is currently 
flying the oldest fleet of aircraft in its history. Given the projected 
defense budgets, that fleet will continue to age. What are your 
concerns about this aging fleet and decreasing budgets?
    General Welsh. Our primary concerns regarding our aging fleet are 
aircraft capability, capacity and availability. As we view the new 
strategic landscape, it is imperative that we maintain the appropriate 
fleet combat capability and capacity to defeat current and emerging 
threats. Therefore, funding modernization and recapitalization programs 
for the fleet continue to be a priority. Additionally, to avoid a 
hollow force, we will continue to fund flying hours and weapon systems 
sustainment programs to maintain aircraft availability rates to sustain 
aircrew readiness and meet the strategic demand signal.

          joint surveillance targeting and attack radar system
    27. Senator Inhofe. General Welsh, over the past 2 years, the Air 
force has conducted an Analysis of Alternatives (AOA) to guide its 
investments in future ground-moving target indicator capability 
currently on the Joint Surveillance Targeting and Attack Radar System 
(JSTARS) aircraft. In testimony before this committee on March 22, 
General Schwartz stated, ``notwithstanding the AOA . . . we will 
continue with the combination of the JSTARS Ground Moving Target 
Indicator (GMTI) capability, with the Block 40 Global Hawk.'' 
Furthermore, DOD's Annual Aviation Inventory and Funding Plan for 
fiscal years 2013 to 2042 indicates that no alternatives to JSTARS are 
expected to emerge in the foreseeable future. Giving this information, 
why isn't the Air Force moving forward with JSTARS reengining?
    General Welsh. The Air Force does not consider reengining the 
JSTARS fleet a viable option as stated in the May 2010 United States 
Air Force Report to the Congressional Defense Committees. The current 
E-8C JSTARS platform faces an approximate $1.1 billion sustainment bill 
in the Future Years Defense Plan due to diminishing manufacturing 
source (DMS) issues and a much needed tech refresh for the platform, 
battle management suite and the radar weapons system. An E-8C 
reengining program would add another $1.9 billion bill. The E-8C's 
Mission Capable Rate is currently meeting the Air Force goal. The Air 
Force is assessing its ground moving target indicator (GMTI) strategy 
in the context of the AOAs findings and the constrained budget 
environment.

              alternative energy and war on global warming
    28. Senator Inhofe. General Welsh, I believe DOD can and should 
improve efficiencies in energy use and expand in the use of alternative 
energy sources; however, it should not come at the cost of manning, 
training, or equipping the force. Do you agree?
    General Welsh. I agree and I believe that we can strike a balance 
in both areas. The Air Force is proud to be a leader in America's 
ongoing effort to use energy more efficiently through better procedures 
and new technologies while, at the same time, decreasing energy 
consumption and the Nation's dependence on imported oil.
    To address this challenge, the Air Force Energy Plan provides a 
comprehensive and cohesive framework for all airmen to utilize in 
determining how to make energy a part of operational considerations. 
From developing new secure and reliable energy alternatives, to energy 
efficiency and conservation initiatives, the Air Force is making great 
strides in shifting the culture to where energy is a major component of 
Air Force operations. This helps sustain mission readiness and 
responsiveness on a global scale. We are currently addressing the 
rising cost of petroleum fuels and the high cost of alternative fuels. 
Approximately 80 percent of the Air Force's energy consumption in 
aviation fuel and fiscal shortfalls is due to the rising price of 
petroleum. However, the current high cost of alternative fuels is 
affecting our ability to increase our use of them more effectively. 
Despite this, we are continuing to prepare our inventory for 
alternative fuels suitability, so that if and when alternative fuel 
prices become more affordable in the future, the Air Force will be 
prepared to take advantage of them.
    The Air Force constantly assesses evolving requirements for 
organizing, training, and equipping our forces and we are fully 
cognizant of budget constraints and the need for effective stewardship 
of public resources. As the range of Air Force operations expands, 
prioritization and maximization of available resources remains 
increasingly critical to maintain mission capabilities. Identification 
of efficiencies and process improvements provides one mechanism for the 
Air Force to meet changing demands and priorities within resource 
constraints.

    29. Senator Inhofe. General Welsh, some alternative fuels, such as 
biofuels, cost five to eight times as much as conventional fuels, with 
no guarantee that market forces will bring these costs down. The Navy's 
move to biofuels alone is expected to add $1.8 billion a year in fuel 
costs for the green fleet. This money will have to be taken from other 
accounts due to decreasing defense budgets. With the continued decline 
of the defense budget over the past 3 years--forcing cuts to personnel, 
ships, and aircraft--what will be the impact of tripling or quadrupling 
your fuel costs?
    General Welsh. The Air Force has faced shortfalls in past years due 
to rising prices of traditional fuels. The future availability of drop-
in alternative fuels may help insulate the Air Force against fuel price 
volatility, as well as improve energy security by decreasing dependence 
on foreign oil. The Air Force strategy is to only purchase alternative 
fuels that are cost competitive with traditional sources.
                                 ______
                                 
             Question Submitted by Senator Saxby Chambliss
                            f-22 requirement
    30. Senator Chambliss. General Welsh, in your advance policy 
questions, you were asked to respond to a question related to the 
actions of Air Force officials who, as the question states, ``are 
reported to have publicly advocated the funding of a number of programs 
that were not included in the President's budget and for which there 
was no currently validated joint requirement. These programs include 
the procurement of additional C-17s, the continuation of the C-130J 
multi-year contract, and the multi-year procurement of additional F-22 
aircraft.''
    I appreciate your response to this question and agree that, as you 
said, ``while there is room for and a need for healthy debate of 
options and alternatives, once official decisions are made the official 
expression or advocacy of alternate positions must end.''
    I have two comments and one question in relation to this issue. 
First, while such public advocacy for programs not included in the 
President's budget and for which there is no currently validated joint 
requirement is not appropriate, in my experience, such advocacy has 
occurred, to some extent, across the Services and is not limited to the 
Air Force. Second, specifically in relation to the F-22, the statements 
by the committee in the question they asked you are in error. According 
to the fiscal year 2007 budget documents which can be found at: http://
www.gpo.gov/fdsys/pkg/BUDGET-2007-APP/pdf/BUDGET-2007-APP-1-7.pdf the 
fiscal year 2007 President's budget did request authority for a multi-
year contract for the F-22. This is also confirmed by witness 
statements at the Senate Committee on Armed Services, Airland 
Subcommittee hearing on March 28, 2006.
    Regarding there being a validated joint requirement for the F-22s 
to be purchased under the multi-year contract requested by the 
administration as part of their fiscal year 2007 budget request, can 
you confirm that that request, which increased the total number of F-
22s in the Air Force inventory to 183, was based on a validated joint 
requirement?
    General Welsh. Yes. The F-22 inventory numbers are based on a 
validated joint requirement. In order to understand F-22 procurement 
numbers, a brief historical overview is necessary:

        - 1985 Demonstration/Validation Request for Proposal--
        acquisition planned at 750 aircraft
        - 1991 Major Aircraft Review--downsized the planned acquisition 
        to 648 aircraft
        - 1994 Bottom-Up Review--downsized the planned acquisition to 
        442 aircraft
        - 1996 Joint Estimate Team Revision--downsized the planned 
        acquisition to 438 aircraft
        - 1997 Quadrennial Defense Review (QDR)--downsized the planned 
        acquisition to 339 aircraft based on a budget driven compromise
        - 2002 Sustaining Air Dominance Defense Planning Guidance (DPG) 
        Study--outlined USAF requirement for 381+ aircraft to fill 10 
        equally capable air expeditionary forces with 24 primary 
        mission aircraft inventory squadrons, support the global strike 
        (GS)/homeland defense concept of operation, and the defense 
        strategy 1-4-2-1 planning construct
        - 2003 Office of the Secretary of Defense $43 billion budget 
        cap--downsized the planned acquisition to 277 aircraft
        - 2004 Program budget decision (PBD) 753 reduced F-22 
        acquisition to 183 aircraft
        - 2005 PBD 720 moved funds under realigned program as fallout 
        from PBD 753; programs multi-year production of 183 F-22s 
        through fiscal year 2010
        - 2008 War Supplemental Bill--increased acquisition to 187 
        aircraft

    This history shows that the validated joint requirement stands at 
381 aircraft, as determined by the 2002 Sustaining Air Dominance DPG 
Study. This number has been revalidated by numerous independent and Air 
Force studies to fulfill the Strategic Planning Guidance 06-11 force 
sizing construct (1-4-2-1). The procurement reductions to 183 were 
arrived at by balancing risk within fiscal constraints. The requirement 
remained unchanged with the new DOD Strategic Guidance issued in 
January 2012.
    The last F-22 was delivered to the Air Force in May 2012 and the 
production line is in the process of being closed. The tooling 
machinery will be maintained in storage, but options to re-open the 
line are cost prohibitive.
                                 ______
                                 
    [The nomination reference of Gen. Mark A. Welsh III, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 10, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Chief of Staff, U.S. 
Air Force, and appointment to the grade indicated while assigned to a 
position of importance and responsibility under Title 10, U.S.C., 
sections 8033 and 601:

                             To be General.

    Gen. Mark A. Welsh III, 0000.

    The nominee has agreed to respond to requests to appear and testify 
before any duly constituted committee of the Senate.
                                 ______
                                 
    [The biographical sketch of Gen. Mark A. Welsh III, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
          Biographical Sketch of Gen. Mark A. Welsh III, USAF
    General Mark A. Welsh III is Commander, U.S. Air Forces in Europe; 
Commander, Air Component Command, Ramstein; and Director, Joint Air 
Power Competency Center, Ramstein Air Base, Germany. He is responsible 
for Air Force activities, conducted through 3rd Air Force, in an area 
of operations covering almost one-fifth of the globe. This area 
includes 51 countries in Europe, Asia, and the Middle East, and the 
Arctic and Atlantic oceans with a total population reaching nearly 1 
billion people speaking more than 80 languages. He also has 
administrative control of 17th Air Force, providing support, logistics, 
and resources to U.S. Africa Command.
    General Welsh was born in San Antonio, TX. He entered the Air Force 
in June 1976 as a graduate of the U.S. Air Force Academy. He has been 
assigned to numerous operational, command, and staff positions. Prior 
to his current position, he was the Associate Director of the Central 
Intelligence Agency for Military Affairs, Central Intelligence Agency, 
Washington, DC.

Education:
    1976 - Bachelor of Science degree, U.S. Air Force Academy, Colorado 
Springs, CO.
    1984 - Squadron Officer School, by correspondence.
    1986 - Air Command and Staff College, by correspondence.
    1987 - Master of Science degree in computer resource management, 
Webster University.
    1988 - Army Command and General Staff College, Fort Leavenworth, 
KS.
    1990 - Air War College, by correspondence
    1993 - National War College, Fort Lesley J. McNair, Washington, DC.
    1995 - Fellow, Seminar XXI, Massachusetts Institute of Technology, 
Cambridge, MA.
    1998 - Fellow, National Security Studies Program, Syracuse 
University and John Hopkins University, Syracuse, NY.
    1999 - Fellow, Ukrainian Security Studies, John F. Kennedy School 
of Government, Harvard University, Cambridge, MA.
    2002 - The General Manager Program, Harvard Business School, 
Harvard University, Cambridge, MA.
    2009 - Fellow, Pinnacle Course, National Defense University, Fort 
Lesley J. McNair, Washington, DC.
    2009 - Leadership at the Peak, Center for Creative Leadership, 
Colorado Springs, CO.

Assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
August 1976.....................  July 1977.........  Student,
                                                       undergraduate
                                                       pilot training,
                                                       Williams Air
                                                       Force Base, AZ
July 1977.......................  January 1981......  T-37 instructor
                                                       pilot and class
                                                       commander,
                                                       Williams AFB, AZ.
January 1981....................  May 1981..........  Student, fighter
                                                       lead-in training,
                                                       Holloman AFB, NM.
May 1981........................  August 1981.......  Student, A-10
                                                       training, Davis-
                                                       Monthan AFB, AZ.
August 1981.....................  May 1984..........  Instructor pilot,
                                                       flight commander
                                                       and wing
                                                       standardization
                                                       and evaluation
                                                       flight examiner,
                                                       78th Tactical
                                                       Fighter Squadron
                                                       and 81st Tactical
                                                       Fighter Wing,
                                                       Royal Air Force
                                                       Woodbridge,
                                                       England.
May 1984........................  June 1987.........  Commander, Cadet
                                                       Squadron 5,
                                                       later, executive
                                                       officer to the
                                                       Commandant of
                                                       Cadets, U.S. Air
                                                       Force Academy,
                                                       Colorado Springs,
                                                       CO. .
June 1987.......................  June 1988.........  Student, Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS.
June 1988.......................  October 1988......  Student, F-16
                                                       conversion
                                                       training, Luke
                                                       AFB, AZ.
October 1988....................  July 1992.........  Operations
                                                       officer, 34th
                                                       Tactical Fighter
                                                       Squadron, later,
                                                       Commander, 4th
                                                       Tactical Fighter
                                                       Squadron, Hill
                                                       AFB, UT.
July 1992.......................  June 1993.........  Student, National
                                                       War College, Fort
                                                       Lesley J. McNair,
                                                       Washington, DC.
June 1993.......................  June 1995.........  Chief, Defense and
                                                       Space Operations
                                                       Division,
                                                       Operations
                                                       Directorate (J3),
                                                       Joint Staff, the
                                                       Pentagon,
                                                       Washington, DC.
June 1995.......................  April 1997........  Commander, 347th
                                                       Operations Group,
                                                       Moody AFB, GA.
April 1997......................  June 1998.........  Commander, 8th
                                                       Fighter Wing,
                                                       Kunsan Air Base,
                                                       South Korea.
June 1998.......................  June 1999.........  Commander, College
                                                       of Aerospace
                                                       Doctrine,
                                                       Research and
                                                       Education,
                                                       Maxwell AFB, AL.
June 1999.......................  September 2001....  Commandant of
                                                       Cadets and
                                                       Commander, 34th
                                                       Training Wing,
                                                       U.S. Air Force
                                                       Academy, Colorado
                                                       Springs, CO.
September 2001..................  Apri1 2003........  Director of Plans
                                                       and Programs,
                                                       Headquarters,
                                                       U.S. Air Forces
                                                       in Europe,
                                                       Ramstein AB,
                                                       Germany.
April 2003......................  June 2005.........  Director of Global
                                                       Power Programs,
                                                       Office of the
                                                       Assistant
                                                       Secretary of the
                                                       Air Force for
                                                       Acquisition,
                                                       Headquarters U.S.
                                                       Air Force,
                                                       Washington, DC.
June 2005.......................  June 2007.........  Deputy Commander,
                                                       Joint Functional
                                                       Component Command
                                                       for Intelligence,
                                                       Surveillance, and
                                                       Reconnaissance,
                                                       U.S. Strategic
                                                       Command, Bolling
                                                       AFB, Washington,
                                                       DC.
July 2007.......................  August 2008.......  Vice Commander,
                                                       Air Education and
                                                       Training Command,
                                                       Randolph AFB, TX.
August 2008.....................  December 2010.....  Associate Director
                                                       of the Central
                                                       Intelligence
                                                       Agency for
                                                       Military Support/
                                                       Associate
                                                       Director for
                                                       Military Affairs,
                                                       Central
                                                       Intelligence
                                                       Agency,
                                                       Washington, DC.
December 2010...................  present...........  Commander, U.S.
                                                       Air Forces in
                                                       Europe;
                                                       Commander, Air
                                                       Component
                                                       Command,
                                                       Ramstein; and
                                                       Director, Joint
                                                       Air Power
                                                       Competency
                                                       Center, Ramstein
                                                       AB, Germany.
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
June 1993.......................  June 1995.........  Chief, Defense and
                                                       Space Operations
                                                       Division,
                                                       Operations
                                                       Directorate (J3),
                                                       Joint Staff, the
                                                       Pentagon,
                                                       Washington, DC,
                                                       as a lieutenant
                                                       colonel and a
                                                       colonel.
June 2005.......................  June 2007.........  Deputy Commander,
                                                       Joint Functional
                                                       Component Command
                                                       for Intelligence,
                                                       Surveillance, and
                                                       Reconnaissance,
                                                       U.S. Strategic
                                                       Command, Bolling
                                                       AFB, Washington,
                                                       DC, as a major
                                                       general.
August 2008.....................  December 2010.....  Associate Director
                                                       for Military
                                                       Affairs, Central
                                                       Intelligence
                                                       Agency,
                                                       Washington, DC,
                                                       as a major
                                                       general and a
                                                       lieutenant
                                                       general.
December 2010...................  present...........  Commander, U.S.
                                                       Air Forces in
                                                       Europe;
                                                       Commander, Air
                                                       Component
                                                       Command,
                                                       Ramstein; and
                                                       Director, Joint
                                                       Air Power
                                                       Competency
                                                       Center, Ramstein
                                                       AB, Germany, as a
                                                       general.
------------------------------------------------------------------------


Flight information:
    Rating: Command pilot.
    Flight hours: More than 3,400.
    Aircraft flown: F-16, A-10, T-37, and TG-7A

Major awards and decorations:
    Distinguished Service Medal with oak leaf cluster
    Defense Superior Service Medal with oak leaf cluster
    Legion of Merit with oak leaf cluster
    Distinguished Flying Cross with oak leaf cluster
    Meritorious Service Medal with two oak leaf clusters
    Air Medal with oak leaf cluster
    Aerial Achievement Medal
    Joint Service Commendation Medal
    Air Force Commendation Medal

Effective dates of promotion:
    Second Lieutenant, June 2, 1976
    First Lieutenant, June 2, 1978
    Captain, June 2, 1980
    Major, May 1, 1985
    Lieutenant Colonel, June 1, 1989
    Colonel, February 1, 1994
    Brigadier General, August 1, 2003
    Lieutenant General, December 9, 2008
    General, December 13, 2010
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Mark A. 
Welsh III, USAF, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Mark A. Welsh III.

    2. Position to which nominated:
    Chief of Staff, U.S. Air Force.

    3. Date of nomination:
    May 10, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 26, 1954; San Antonio, TX.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Elizabeth Louise (Vosburg) Welsh.

    7. Names and ages of children:
    Mark A. Welsh IV, 32.
    John V. Welsh, 31.
    Matthew J. Welsh, 26.
    Elizabeth A. Welsh, 24.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Air Force Association.
    Member, Air Force Academy Association of Graduates.
    Member, Order of the Daedalions.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    I do.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I do.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                             Gen. Mark A. Welsh III, General, USAF.
    This 11th day of March, 2012.

    [The nomination of Gen. Mark A. Welsh III, USAF, was 
reported to the Senate by Chairman Levin on July 25, 2012, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 2, 2012.]
                              ----------                              

    [Prepared questions submitted to LtGen John F. Kelly, USMC, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions? If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. No, I do not see any need for modifications to the 
Goldwater-Nichols Act. If confirmed, and if I see a need for 
modifications, I will not hesitate to provide appropriate 
recommendations.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Southern Command (SOUTHCOM)?
    Answer. The Commander, SOUTHCOM, is responsible for: detecting and 
deterring attacks against the United States and its territories, 
possessions, and bases, and for employing appropriate force to defend 
the Nation, should deterrence fail; carrying out missions and tasks 
assigned by the President and Secretary of Defense, to include planning 
for and conducting military operations as directed; planning for and 
conducting security cooperation activities; assigning tasks to and 
directing coordination among subordinate commands to ensure unified 
action; and exercising force protection responsibilities and providing 
joint training to assigned military forces. For the conduct of normal 
operations, SOUTHCOM's geographic area of responsibility (AOR) includes 
31 countries and 15 dependencies and areas of special sovereignty.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am honored the President nominated me to be the Commander 
of SOUTHCOM. Over the past 3\1/2\ decades, I have served in a variety 
of U.S. Marine Corps and joint assignments, in both operational and 
staff positions, as well as four combat tours--one in the Gulf War and 
three in Iraq. If confirmed, these experiences have prepared me well to 
meet the challenges and opportunities of commanding SOUTHCOM.
    I have served in several command positions where I acquired 
valuable planning and operational experience at both the tactical and 
operational levels: as Assistant Division Commander, 1st Marine 
Division; Commanding General, I Marine Expeditionary Forces (Forward), 
which deployed as Multinational Force West in Al Anbar and Ninewa 
provinces; and Commander, Marine Forces Reserve and Marine Forces 
North. In addition to this command experience, I served in various 
staff positions, to include Headquarters, U.S. Marine Corps, including 
two tours as Congressional liaison officer and legislative assistant to 
the Commandant; as Assistant Chief of Staff, G-3, with the Second 
Marine Division; and my first joint duty as Special Assistant to the 
Supreme Allied Commander, Europe. These jobs allowed me to participate 
in joint, multinational, and interagency strategy and policy 
development, as well as affording me unique opportunities to engage 
with international partners across Europe, Russia, and Northern and 
Central Asia.
    My current position as Senior Military Advisor to the Secretary of 
Defense has given me the strategic experience and operational insight 
necessary to direct the operations of a geographic combatant command. I 
recently visited Colombia, Brazil, and Chile in support of a trip by 
the Secretary of Defense, and was impressed by the strong and growing 
security partnerships the United States has with these three countries. 
If confirmed, I will continue to deepen defense partnerships in the 
region, especially with key nations that can help share in the 
responsibility and costs of ensuring hemispheric security.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the SOUTHCOM 
Commander?
    Answer. If confirmed, I will engage with key leaders and personnel 
within the executive and legislative branches of the U.S. Government to 
enhance my knowledge of U.S. foreign policy and interests within 
SOUTHCOM's AOR. I will also engage with military, defense, and 
governmental leaders of nations throughout the region to understand 
their perspectives. I will engage with regional experts in academia and 
think tanks in both the United States and Latin America and the 
Caribbean to understand the complexities of issues affecting the 
region. I will also engage with the other combatant commanders to 
better understand operational synchronization across our respective 
areas of responsibilities. Finally, if confirmed, I will build on my 
basic working knowledge of Spanish and familiarize myself with 
Portuguese in order to enhance my interactions with counterparts in the 
region.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the Combatant Commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, SOUTHCOM, to the 
following:
    The Secretary of Defense.
    Answer. The Commander performs his duties under the authority, 
direction, and control of the Secretary of Defense, and is responsible 
for accomplishing the military missions assigned by the President and 
the Secretary of Defense and for exercising command authority over the 
forces assigned by the Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs duties delegated 
by the Secretary and performs the Secretary's duties in his absence. 
The Commander communicates regularly with the Deputy Secretary and 
provides information and support necessary for the Deputy Secretary to 
perform these duties.
    Question. The Under Secretaries of Defense.
    Answer. The Commander does not have a direct command relationship 
with the Under Secretaries of Defense. The Commander does regularly 
exchange information, interacts with, and coordinates with the Under 
Secretaries on strategic and regional security issues.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. The Chairman is the principal military advisor to the 
President and Secretary of Defense and serves as the key communication 
link between the combatant commanders and the President. The Vice 
Chairman performs the duties prescribed by the Chairman, and performs 
the Chairman's duties in his absence or disability. To enable the 
Chairman and Vice Chairman to perform their respective roles and 
duties, the Commander of SOUTHCOM routinely provides information to the 
Chairman and Vice Chairman on significant events and issues in the 
command's AOR.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs.
    Answer. The Commander does not have a direct command relationship 
with the Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs, but regularly exchanges information and 
coordinates with the Assistant Secretary on issues related to homeland 
defense.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict and Interdependent Capabilities.
    Answer. The Commander does not have a direct command relationship 
with the Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict, but regularly exchanges information and coordinates 
with the Assistant Secretary on issues of mutual concern and interest.
    Question. The Service Secretaries and Service Chiefs.
    Answer. The Service Secretaries are responsible for administration 
and support to the forces assigned to the combatant commands. The 
Service Chiefs are responsible for organizing, training, and equipping 
forces in their respective departments for assignment to the combatant 
commands. The Commander does not have a direct command relationship 
with the Service Secretaries and Service Chiefs, but regularly 
exchanges information and coordinates on issues of mutual concern and 
interest, working closely with them to understand service capabilities, 
discuss combatant command requirements, and effectively employ service 
capabilities to successfully conduct SOUTHCOM's mission.
    Question. The other combatant commanders, particularly U.S. 
Northern Command (NORTHCOM).
    Answer. The Commander, SOUTHCOM, maintains a close relationship 
with other combatant commanders, especially with the Commander of U.S. 
Northern Command. The combatant commanders are in frequent contact, 
coordinating on issues of mutual concern, and exchanging information. 
When directed or specified by the Secretary of Defense, the 
relationship between combatant commanders becomes formalized in order 
to plan and execute specific operational plans.
    Question. U.S. Chiefs of Mission within the SOUTHCOM AOR.
    Answer. The Commander does not have a formal relationship with the 
Chiefs of Mission. The U.S. Ambassador is responsible for directing and 
supervising all U.S. Government activity in the host nation, with the 
exception of U.S. military activities under the direction and 
coordination of the combatant commander. Geographic combatant 
commanders routinely discuss issues of mutual interest and concern with 
the Chiefs of Mission in the command's AOR. The combatant commanders 
negotiate force protection arrangements with the Chiefs of Mission as 
appropriate. If confirmed, I intend to maintain close coordination and 
contact with the Chiefs of Mission throughout the SOUTHCOM AOR, and I 
will continue to host annual subregional conferences with the Chiefs of 
Mission to exchange perspectives and gain regional insights.
                            major challenges
    Question. If confirmed as the Commander of SOUTHCOM, you will be 
responsible for all military operations in that region. These include 
operations supporting homeland defense and security, counternarcotics 
efforts in source and transit countries, responses to natural 
disasters, detainee and interrogation operations at Guantanamo Bay, and 
the development of democratic values within the militaries of the 
region, among others. At the same time, DOD is currently considering 
how to absorb reductions in planned programs through fiscal year 2021 
as a result of the discretionary spending caps enacted through the 
Budget Control Act of 2011 (P.L. 112-25).
    In your view, what are the major challenges and problems you would 
confront if confirmed as the next Commander of SOUTHCOM?
    Answer. I do not see any traditional military threat emanating from 
SOUTHCOM's AOR. Instead, the region is characterized by several 
nontraditional security challenges, including illicit trafficking, 
transnational organized crime, narco-terrorism, and violent extremist 
organizations. Persistent vulnerability to natural disasters such as 
earthquakes, hurricanes, flooding, and volcanoes, as well as socio-
economic stratification, poverty, and inequality, are enduring 
challenges. Additionally, the security of the Panama Canal is of 
critical importance to U.S., regional, and global economic security.
    The illicit trafficking of cocaine, precursor chemicals, weapons, 
and bulk cash is a major security issue affecting almost every country 
in the region. As the principal actors involved in illicit trafficking, 
transnational criminal organizations' reach, spreading power, and 
growing influence are also a concern, particularly in Central America 
and Colombia. Criminal activities and illicit trafficking operations 
weaken legitimate governmental and financial institutions and erode 
rule of law through corruption, bribery, and intimidation. Rampant 
impunity, coupled with the activities of violent drug traffickers and 
youth gangs, is contributing to rising criminal violence in many 
countries.
    Although weakened, groups like the Fuerzas Armadas Revolucionarias 
de Colombia (FARC) and Sendero Luminoso in Peru continue to fund their 
insurgencies through narcotics trafficking, terrorizing populations and 
undermining domestic and regional stability. Violent extremist 
organizations are also present in the region, primarily involved in 
proselytizing and fundraising for parent organizations; of constant 
concern are the potential for evolution in operational capacity and 
increased radicalization of these groups. Some supporters of 
international terrorist groups like Hezbollah and Hamas raise funds 
through illicit activities in the region, such as trafficking in drugs 
and counterfeit goods, document fraud, and money laundering. The 
possible convergence of criminal and asymmetric threats bears watching 
to ensure the forward defense of the United States.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. If confirmed, I will work with U.S. interagency and partner 
nations to enhance our collective ability to confront shared security 
challenges. Although resources across the U.S. Government are 
declining, there has not been a corresponding reduction in security 
concerns, which underscores the need for collaboration and 
coordination. The complex and irregular challenges in the region cannot 
be solved by any one nation or U.S. Federal agency; they require 
enhanced cooperation and enduring partnerships. I will continue to 
evaluate, assess and execute SOUTHCOM's support to efforts by other 
U.S. agencies and nations in the region to counter transnational 
organized crime and illicit trafficking. I will continue to engage with 
militaries and security forces in the region; as appropriate, I will 
encourage bilateral and multilateral training, security cooperation 
activities, and exercises to build the capacities of nations to address 
transnational threats such as illicit trafficking and humanitarian 
crises and disaster response. Additionally, I will continue to reach 
out to those militaries in countries that have distanced themselves 
from the United States, to demonstrate the enduring values and vision 
of the United States. I will also deepen our engagement with key 
strategic partners such as Brazil, Chile, and Colombia to promote 
shared responsibility in regional and global leadership. I will 
continue to ensure the safe, humane, and legal treatment of detainees 
at JTF-Guantanamo, until otherwise directed. Finally, if confirmed, I 
will maintain focus on the detention facility in Guantanamo Bay to 
ensure all laws, regulations, and policies are followed, until 
otherwise directed.
                           engagement policy
    Question. One of the central pillars of our national security 
strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, joint 
combined exchange training exercises, combatant commander exercises, 
humanitarian assistance operations, and similar activities are used to 
achieve this goal.
    If confirmed, would you support continued engagement activities of 
the U.S. military in the SOUTHCOM AOR? If yes, would you advocate for 
expanding U.S. military-to-military engagement? If not, why not?
    Answer. If confirmed, I would support continued engagement 
activities by the U.S. military in the SOUTHCOM's AOR. The new Defense 
Strategic Guidance explicitly calls for agile, small footprint, 
innovative approaches to ensuring U.S. national security through annual 
exercises, rotational presence, and advisory roles. Furthermore, DOD is 
placing greater emphasis on security cooperation and strengthening 
security partnerships with key partners, to include the Americas. As an 
economy of force, SOUTHCOM is representative of this new model called 
for by DOD, utilizing small-footprint engagements and an innovative, 
partnered approach to achieving strategic objectives in the region and 
advancing a common security vision of the future. If confirmed, I will 
continue to seek opportunities to strengthen existing partnerships and 
foster regional cooperation through agile engagement activities. I will 
also deepen U.S. engagement with key partners such as Colombia, Chile, 
and Brazil--countries that have demonstrated growing military 
capabilities and a commitment to work cooperatively in Central America, 
Africa, and across the world--to promote the shared costs and 
responsibilities associated with regional and global leadership.
    Question. In your opinion, how do these activities in the SOUTHCOM 
AOR contribute to U.S. national security?
    Answer. As stated above, many of the challenges in the SOUTHCOM AOR 
are transnational in nature, transcending borders, boundaries, and 
domains. Security threats such as illicit trafficking and the spread of 
transnational organized crime in the region cannot be solved by any one 
nation or agency; these threats require cooperation and willing, 
capable partners who can help the United States meet the security 
challenges of the future. Security cooperation in the SOUTHCOM AOR 
strengthens the capacities of partner nations to respond to domestic 
and regional threats, both individually and collectively, and also 
helps sustain a peaceful and cooperative international order.
    In my opinion, working with and through regional partners helps 
ensure the forward defense of the United States by promoting capable 
regional militaries that share in the responsibility of ensuring 
hemispheric security and stability. This type of smart engagement will 
be even more important as we enter into an era of constrained 
resources; a cooperative, partnered approach not only helps ensure U.S. 
national security interests, it also helps contribute to U.S. economic 
security by promoting capable partners willing and able to help the 
United States confront the security challenges in the hemisphere.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary authorities to provide security assistance to partner 
nations, including the global train and equip authority (``section 
1206'') and Global Security Contingency Fund.
    What is your understanding of the purpose of the section 1206 
global train and equip authority and Global Contingency Security Fund?
    Answer. I understand that section 1206 authority enables combatant 
commanders, in coordination with U.S. Ambassadors in host nations in 
which 1206 activities are proposed, to build the host nation's capacity 
by rapidly training and equipping their armed forces to conduct 
counterterrorism or stability operations against urgent or emerging 
threats. As I understand it, the Global Contingency Security Fund is a 
new initiative established by the Departments of State and Defense and 
authorized by Congress to encourage joint, integrated planning by 
pooling resources. The fund can provide up to $250 million to meet 
emergent challenges or opportunities in security and justice sector 
assistance to partner countries. The fund is designed to be a temporary 
assistance mechanism to address emerging U.S. national security 
priorities, and will not be used to supplement existing programs or for 
projects that lack funding due to earlier prioritization. As I 
understand it, detailed reporting structures and procedures for 
implementation are being developed to address the specifics of the 
congressional legislation.
    Question. In your view, what should be our strategic objectives in 
building the capacities of partner nations in the SOUTHCOM AOR?
    Answer. In my view, the strategic objectives of building partner 
capacity are to increase the capability of militaries in the region to 
address security challenges and threats within their own territories; 
to promote regional cooperation among and between partner nations to 
address shared challenges to hemispheric stability and security; and to 
advance a common security vision of the future and promote a peaceful, 
cooperative international order.
          use of military forces for civilian law enforcement
    Question. Throughout the Western Hemisphere, there is increased use 
of militaries to conduct policing and public security roles.
    Putting aside issues of corruption and capabilities, what is your 
assessment of this trend? In your view, are these permanent shifts or 
temporary measures taken while the capabilities of police forces are 
improved?
    Answer. As I understand it, some countries--particularly in Central 
America, where law enforcement institutions face many challenges--are 
deploying their militaries in nontraditional policing and internal 
security roles to help address growing threats to citizen security and 
stem the rising tide of illicit trafficking and counter the spread of 
transnational organized crime. I believe these are and should be 
temporary measures that are taken while the capabilities of civilian 
police forces are improved and the judicial sector is strengthened, 
roles in which the Department of State is the lead U.S. Federal agency.
    Question. In your view, what are the benefits and risks of 
militaries taking on more public-security tasks?
    Answer. As I understand it, regional militaries provide support to 
law enforcement that are involved in efforts to counter illicit 
trafficking, stem the rising tide of violence related to gangs and 
violent drug traffickers, and counter the spread of transnational 
organized crime. In Central America, these challenges are threatening 
to overwhelm the capacities of some regional law enforcement. Regional 
militaries are helping fill a crucial capability gap, but this approach 
is unsustainable in the long term. As militaries take on more public-
security tasks, there is a potential risk for increased human rights 
violations or increased corruption in the military ranks. I understand 
that SOUTHCOM has a robust human rights initiative program, which plays 
a critical role in ensuring that regional militaries involved in 
internal security missions retain respect for human rights and civilian 
authority. If confirmed, I will ensure continued engagement with 
regional militaries on the importance of human rights.
                       defense strategic guidance
    Question. The Defense Strategic Guidance, ``Sustaining U.S. Global 
Leadership: Priorities for the 21st Century Defense'', announced by 
President Obama on January 5, 2012, includes, among other things, the 
intention of the administration and the Pentagon to ``rebalance toward 
the Asia-Pacific region''. In his associated remarks, Secretary Panetta 
explained that the ``U.S. military will increase its institutional 
weight and focus on enhanced presence, power projection, and deterrence 
in Asia-Pacific.''
    What do you anticipate will be the impact on the operations and 
activities of SOUTHCOM?
    Answer. If confirmed, I do not anticipate a negative impact to the 
command due to the increased emphasis on other regions. As the U.S. 
drawdown in Iraq and Afghanistan continues, I believe there will be 
more U.S. military assets available to the geographic combatant 
commands, including ISR, maritime platforms, and other Service-specific 
capabilities. As I understand it, SOUTHCOM faces limited and steadily 
decreasing availability of surface and air assets to conduct detection 
and monitoring and support interdiction operations. As currently 
allocated to SOUTHCOM, limited assets permit the targeting of only 33 
percent of actionable illicit trafficking events. If confirmed, I will 
work closely with the Services to advocate for available assets to 
enable SOUTHCOM to more effectively meet its title 10 requirements. The 
U.S. Army's new plan to designate regionally aligned forces with each 
regional combatant command is a promising approach that would 
significantly enhance SOUTHCOM's ability to conduct its mission. If 
confirmed, I will work with the Services to identify emerging and 
available opportunities to enhance the operations and activities of 
SOUTHCOM.
                    dod counter-narcotics activities
    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the United States. On an annual basis, DOD's 
counternarcotics (CN) program expends approximately $1.5 billion to 
support the Department's CN operations, including to build the capacity 
of U.S. Federal, State, and local law enforcement agencies, and certain 
foreign governments, and provide intelligence support on CN-related 
matters and a variety of other unique enabling capabilities. Much of 
this funding is directed towards the SOUTHCOM AOR.
    In your view, what is the appropriate role of DOD--and by extension 
SOUTHCOM--in U.S. counterdrug efforts?
    Answer. I believe the Department's current role is appropriate. 
SOUTHCOM can provide unique support only through U.S. and partner 
nation drug law enforcement agencies. This ensures that the U.S. 
military does not find itself in a law enforcement role, yet maximizes 
the support to law enforcement agencies' interdiction operations. As 
outlined in title 10 of the U.S. Code, DOD is the lead Federal agency 
in the detection and monitoring of aerial and maritime transit of 
narcotics destined for the United States. DOD also provides logistical 
and intelligence support to U.S. law enforcement end-game operations. 
SOUTHCOM accomplishes this mission through its component Joint 
Interagency Task Force-South (JIATF-South). SOUTHCOM also works to 
build the capacities of partner nation militaries to conduct successful 
detection, monitoring, and interdiction operations in support of U.S. 
and partner nation law enforcement efforts. These efforts complement 
other U.S. counterdrug programs, such as the Department of State's 
eradication and alternative economic development programs and the Drug 
Enforcement Agency's (DEA) arrest, extradition, and prosecution of 
illicit traffickers.
    Question. How would you rate the effectiveness of U.S. and DOD 
counternarcotics programs?
    Answer. As I understand it, DOD counternarcotics programs are 
effective both operationally and in terms of return on investment. In 
2010, JIATF-South supported the interdiction of 8 times the amount of 
cocaine than was interdicted on the U.S. southwest border, at a third 
of the cost and in an operating area that covers 42 million square 
miles. Challenges remain, however. Illicit traffickers are, by their 
very nature, highly adaptive, flexible, and resourceful. In response to 
U.S. counternarcotics successes, they can quickly shift methods and 
employ new routes to evade detection. These criminal networks also have 
the resources to invest in technologically advanced conveyances such as 
semi and fully submersibles, which can transport up to 8 metric tons of 
cocaine and are extremely difficult to detect in open water. To counter 
this adaptive, networked threat, U.S. counternarcotics programs must be 
more flexible, innovative, and synchronized. Additionally, demand 
reduction efforts also play a critical part in the effectiveness of the 
overall program. If confirmed, I will regularly assess and evaluate 
ways to improve SOUTHCOM's role and contributions to U.S. 
counternarcotics programs.
    Question. In your view, what should be the role of the United 
States in countering the flow of narcotics to nations other than the 
United States?
    Answer. In my view, the United States should work to build the 
capacity of partner nations to counter illicit trafficking, both 
individually and collectively, through a whole-of-government approach 
in all domains and flow vectors.
    Question. How would you recommend that the success of the 
SOUTHCOM's counter-narcotics programs be measured?
    Answer. No single metric can gauge the overall success of a 
counternarcotics program that encompasses diverse elements from both 
U.S. and international governments. As the lead Federal agency for 
detection and monitoring, DOD's corresponding responsibility is the 
successful detection of illicit drug activity and, as appropriate, the 
support of U.S. law enforcement endgame operations. I understand that 
in 2011, SOUTHCOM's JIATF-South conducted successful counterdrug 
operations that resulted in the disruption of 117 metric tons of 
cocaine, denying illicit traffickers approximately $3 billion in 
revenue. In addition, SOUTHCOM provides ongoing training to partner 
nations' militaries and logistical support to partner nation and U.S. 
law enforcement agencies, which enhances overall counternarcotics 
capabilities. While these efforts are only a portion of a comprehensive 
whole-of-government program, they do demonstrate the positive impact 
SOUTHCOM is making on U.S. and regional counternarcotics efforts.
    Question. The use of the Caribbean as a transshipment point for 
illicit drugs from South America to the United States has diminished 
over the past decade as drug traffickers have shifted primarily to 
using the Mexico-Central America corridor.
    What is your understanding of the current status of drug 
transshipment through the Caribbean?
    Answer. As I understand it, there have been substantial decreases 
in illicit maritime and air tracks from South America into the 
Caribbean, most notably into the Dominican Republic, due to sustained 
interdiction successes by the United States and partner nations and a 
corresponding shift in illicit trafficking tactics. However, its 
geographic proximity to the United States and vast stretches of porous 
maritime borders ensures that illicit trafficking in the Caribbean 
remains a persistent challenge. Given the demonstrated adaptability of 
illicit traffickers, I think it is important to continue strengthening 
the counter illicit trafficking capabilities of militaries in the 
Caribbean as a preventative measure to ensure traffickers do not shift 
back to the Caribbean as a primary transshipment zone.
       national strategy to combat transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. The Director of National 
Intelligence recently described transnational organized crime as ``an 
abiding threat to U.S. economic and national security interests,'' and 
stated that ``rising drug violence and corruption are undermining 
stability and the rule of law in some countries'' in the Western 
Hemisphere. In July 2011, the President released his Strategy to Combat 
Transnational Organized Crime: Addressing Converging Threats to 
National Security. One of the priority action areas designated in the 
strategy is ``enhancing DOD support to U.S. law enforcement.''
    What is your assessment of the threat to the United States posed by 
transnational organized crime?
    Answer. As I understand it, transnational organized crime has 
evolved into a volatile and potentially destabilizing threat to 
regional, international, and U.S. national security. The illicit 
activities and operations of this adaptive, networked threat undermine 
legitimate governmental and financial institutions, erode rule of law, 
weaken governance, and threaten citizen security through corruption, 
penetration of government institutions, and associated violence. Of 
primary concern for U.S. national security is the potential convergence 
of criminal and asymmetric threats. Groups in Colombia and Peru fund 
their ongoing insurgencies through illicit trafficking, while 
international terrorist groups like Hezbollah and Hamas receive an 
unknown portion of funding from supporters involved in drug trafficking 
and money laundering. Increasingly, these criminal networks have 
diversified their illicit enterprises--trafficking in drugs, precursor 
chemicals, weapons, humans, and bulk cash--and are increasingly 
involved in cybercrimes. The size, scope, and reach of transnational 
organized crime far surpasses the ability of any one law enforcement 
agency or nation to confront this threat alone.
    Question. What is your understanding of the President's strategy to 
combat transnational criminal organizations?
    Answer. As I understand it, the President's strategy aims to build, 
balance, and integrate the tools of American power to combat 
transnational organized crime and related threats to U.S. national 
security to ensure the threat is degraded to a manageable public safety 
problem. The President's strategy outlines five key objectives: protect 
Americans from harm, violence, and exploitation by transnational 
criminal networks; help partner nations strengthen governance and sever 
state-crime alliances; break the economic power of transnational 
criminal networks and protect the United States and other strategic 
markets; defeat those networks that pose the greatest threat to 
national security by targeting their infrastructure, depriving them of 
enabling means and preventing the criminal facilitation of terrorist 
activity; and build international consensus and cooperation to defeat 
transnational organized crime.
    Question. What role does SOUTHCOM play in combating transnational 
organized crime and in training and equipping partner security forces 
that have been tasked with combating it?
    Answer. As I understand it, the SOUTHCOM role is one of support. 
With the exception of fulfilling the statutory responsibility as the 
lead agency for detection and monitoring of aerial and maritime transit 
of illegal drugs, DOD plays a supporting role in all counternarcotics 
and other related efforts. SOUTHCOM supports efforts by lead U.S. 
agencies such as the Department of State, Department of Homeland 
Security, and Department of Justice to combat transnational organized 
crime in the region through detection and monitoring efforts; support 
to U.S. and partner nation interdiction operations; and by building the 
security capacities of vetted military units through counternarcotics 
training, equipping, and infrastructure support.
    Question. What kind of additional support, if any, would you 
envision DOD--and SOUTHCOM in particular--providing to U.S. law 
enforcement?
    Answer. In my opinion, this particular challenge highlights the 
different but not incompatible roles between military and law 
enforcement, further underscoring the imperative of security 
partnerships. SOUTHCOM provides ongoing support to U.S. law enforcement 
end-game interdiction operations, including intelligence and logistical 
support to the DEA, the Federal Bureau of Investigation (FBI), and U.S. 
Customs and Border Protection, among others. If confirmed, I would work 
with U.S. law enforcement and the interagency to identify how we could 
enhance current levels of support, such as network analysis, 
information sharing, or lift capabilities, while maintaining the 
distinction between direct military support and support to law 
enforcement agencies.
    Question. What gaps, if any, do you see in U.S. efforts to support 
partner government's efforts against these violent and increasingly 
sophisticated criminal organizations?
    Answer. As I understand it, this is a complex problem with no 
single, simple solution; combating an adaptive, networked threat such 
as transnational organized crime will require a strong unity of effort, 
both within the U.S. Government and by partner nations. I understand 
the U.S. interagency, including DOD, is working diligently to better 
synchronize and coordinate efforts to combat transnational organized 
crime, particularly in the Western Hemisphere. In my opinion, 
effectively combating this threat will take concerted collaboration 
between the United States and partner nations. It will take sustained 
engagement with regional militaries--building the capacities of key 
vetted units, defense, and security institutions, and continuing human 
rights training--and a corresponding strengthening of civilian law 
enforcement institutions. It will take innovative approaches, creative 
public-private collaboration, and synchronization of efforts between 
numerous U.S. Federal agencies--the Department of State, U.S. Northern 
Command, U.S. Agency for International Development (USAID), DEA, and 
the Department of Homeland Security, as well as numerous partner nation 
institutions--to create a cooperative network that is stronger and more 
resilient than any criminal network.
                   central american security strategy
    Question. Security and defense officials from El Salvador, 
Guatemala, and Honduras--the so-called Northern Triangle--recently 
reviewed progress made toward implementation of the Central American 
Security Strategy those countries approved in June 2011. The ministers 
of security and defense agreed to improve coordination mechanisms and 
intelligence sharing; continue with proposals for a tri-national police 
force; and that the Armed Forces should be involved in combating 
organized crime.
    In your view, how effective is security coordination among El 
Salvador, Guatemala, and Honduras?
    Answer. As I understand it, security coordination among the 
Northern Tier countries is improving, thanks in part to the new 
multilateral security strategy developed by the Central American 
Integration System (SICA), supported by the Department of State through 
the Central American Regional Security Initiative (CARSI). I also 
understand that these three countries are providing important 
contributions in support of Operation Martillo, a U.S. and European-led 
operation currently underway in the Central America littorals. I 
understand that one of the indirect benefits of the operation has been 
increased interoperability and enhanced levels of coordination among 
participating partner nations. If confirmed, I would continue to build 
on these types of successes.
    Question. Is SOUTHCOM supporting these efforts or State Department 
efforts such as the CARSI?
    Answer. Yes. As I understand it, SOUTHCOM is supporting efforts by 
the Department of State through CARSI, primarily by supporting the 
disruption of movement of criminals and contraband to, within, and from 
Central America and by fostering enhanced levels of regional 
cooperation. I also understand that SOUTHCOM, in conjunction with U.S. 
Northern Command, is supporting a Border Security Initiative between 
Guatemala, Belize, and Mexico to strengthen security cooperation among 
these three countries.
    Question. What are the pros and cons of deploying the U.S. Armed 
Forces to combat organized crime?
    Answer. In my view, the U.S. military is clearly in a supporting 
role in this effort. Through training, exercises, and security 
cooperation activities, the U.S. military can help build the capacities 
of partner nation militaries to counter transnational organized crime 
and illicit trafficking by increasing domain awareness, strengthening 
interdiction capabilities, and promoting regional cooperation. The U.S. 
military can also directly support other U.S. agencies by providing 
operational, planning, and logistic support, as well as support to U.S. 
and partner nation law enforcement end-game operations through 
logistical assistance and information sharing.
    Question. Is SOUTHCOM providing any assistance in policing 
activities to the militaries in the region?
    Answer. My understanding is that SOUTHCOM provides security 
assistance to vetted military units in Central America with the aim of 
building the capacities of regional militaries in areas such as 
counternarcotics, humanitarian assistance and disaster relief, and 
peace support operations. Some partner nation militaries that have been 
recipients of U.S. security assistance--such as counternarcotics 
training or subject matter expert exchanges--may be later deployed by 
the partner nation in a new mission, such as policing activity.
    Question. Is SOUTHCOM engaged in any efforts to strengthen the 
region's civilian security forces?
    Answer. My understanding is that the Department of State, Bureau of 
International Narcotics and Law Enforcement (DOS-INL) is the lead 
Federal agency in this endeavor. In Central America, neither Panama nor 
Costa Rica has a standing military, and SOUTHCOM does conduct training 
and security assistance with their respective defense and security 
forces. Engagements such as Joint Combined Exchange Training (JCET), 
which provides training to U.S. and host nation security forces, can 
provide indirect benefit to civilian law enforcement personnel, such as 
first responders, who may be participating in the exercise.
                         counter threat finance
    Question. A number of officials in DOD and the Intelligence 
Community have called for investing additional resources in identifying 
and tracking the flow of money associated with terrorist networks and 
illicit trafficking.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. In my view, in accordance with the DOD Directive 5205.14 on 
counter threat finance policy, DOD should use its unique capabilities, 
such as network analysis, to support the interagency and work with 
partner nations to deny, disrupt, and degrade the ability of 
adversaries' ability to use global and illicit financial networks to 
negatively affect U.S. interests.
    Question. What do you believe is the appropriate role, if any, of 
SOUTHCOM in supporting counter threat finance activities?
    Answer. As I understand it, the intertwined systems of illicit 
trafficking and money laundering in the region can benefit both illicit 
traffickers and international terrorists alike. In South America, 
funding for Hezbollah is raised through licit avenues, such as 
charitable donations, and illicit means, including trafficking in 
drugs, counterfeit, and pirated goods and money laundering. Illicit 
proceeds from drug trafficking are increasingly entered into the global 
financial system, often under the use of legitimate trade. I understand 
that JIATF-South has a counter threat finance cell that is supporting 
efforts by DEA and Treasury Department to better understand the complex 
financial flows of the global illicit economy and combat money 
laundering and terrorist financing.
                                 mexico
    Question. Much of the illegal narcotics supply comes into Mexico 
from the SOUTHCOM AOR. While Mexico is in the U.S. Northern Command 
AOR, the rest of Latin America is in the SOUTHCOM AOR.
    What is your vision of how SOUTHCOM and NORTHCOM could work 
together in a fully coordinated effort with respect to Mexico and other 
security challenges?
    Answer. The continued violence in Mexico and the spread of Mexican 
criminal organizations into Central America is extremely concerning for 
both commands. I am told that the staffs of SOUTHCOM and U.S. Northern 
Command collaborate regularly to address this and other security 
issues, especially along the Mexico-Guatemala-Belize border and in 
JIATF-South's Joint Operating Area, which crosses both commands' areas 
of responsibility. I understand that there are liaison officers at both 
commands to ensure daily collaboration; that the staffs closely 
coordinate efforts of mutual interest on monthly teleconferences; and 
that senior command leaders hold quarterly staff talks. If confirmed, I 
will continue to support this coordination and seek additional ways to 
foster collaboration between the Mexican and Central American 
militaries to encourage cooperation on shared security challenges, 
including illicit trafficking and transnational organized crime.
          terrorism threat from caribbean and central america
    Question. In your view, what is the extent of the current threat of 
terrorist extremists from the Caribbean and Central America?
    Answer. As I understand it, violent extremist organizations are 
present in the Caribbean and Central America, but their activities are 
generally focused on fundraising and proselytizing. While terrorism 
emanating from the region is rare, the potential presence of 
individuals with operational terrorism experience is a cause for 
concern. If confirmed, I will keep SOUTHCOM vigilant to detect and 
defend against terrorist threats to the United States and our partners.
    Question. How would you broadly characterize the terrorism threat--
low, medium, or high?
    Answer. I understand that violent extremist organizations are 
active in the region, primarily focused on fundraising support and 
proselytizing. Hezbollah supporters, primarily in South America, are 
involved in both legal and illegal businesses that help fund the parent 
organization; illegal activities include the illicit trafficking of 
drugs and counterfeit goods, document forgery, and money laundering. 
Additionally, as described above, homegrown radicalization is a 
constant concern, as is the potential presence of individuals with 
operational knowledge seeking to do harm to the United States or our 
interests. For that reason, I would characterize the threat as low to 
medium.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from 
interagency collaboration on counterinsurgency and counterterrorism 
operations in Afghanistan, Iraq, and elsewhere?
    Answer. In my opinion, military and civilian organizations learned 
to better leverage one another's strengths and capabilities over the 
past decade of military operations, despite institutional barriers to 
cooperation such as policy gaps, differences in resources and 
organizational culture, and inconsistent interagency participation in 
planning, training, and operations. Military and civilian organizations 
both recognized the need to improve integration and took deliberate 
steps to achieve greater unity of effort in operations in Iraq and 
Afghanistan. The military also gained a greater understanding of the 
capabilities of nongovernmental organizations (NGO), especially in 
terms of understanding the population in the host country, and made a 
concerted effort to better coordinate stabilization efforts wherever 
possible with NGOs on the ground in Iraq and Afghanistan.
    Question. How do you believe these efforts can be improved?
    Answer. I think the most important initial effort is to ensure the 
United States does not forget these lessons; these collaborative ``best 
practices'' need to be institutionalized in both the military and 
civilian agencies through ongoing training, education, exercises, as 
well as the development of policies to ensure greater involvement of 
the interagency in planning, training, and execution of military 
activities. The lack of mandated interagency coordination and framework 
was particularly challenging for the U.S. Government as a whole.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
contingency operations?
    Answer. The U.S. military is taking concrete steps to capture 
``lessons learned,'' through formal studies, reviews, and analysis 
within and across each of the Services. Correctly identifying and 
documenting best practices employed in the past decade of war will 
enable the U.S. military to build a more responsive, versatile, and 
adaptive force. Once identified, documented, validated, and reviewed, 
these lessons will be incorporated into the continuous joint force 
development cycle and institutionalized in the professional military 
education of our joint forces.
    Question. As DOD assistance to Colombia gradually declines, DOD aid 
to Mexico and Central America appears to be increasing. This increased 
assistance has supported State Department-led programs such as the 
Merida Initiative and the CARSI.
    What is your assessment of the current level of coordination 
between DOD and civilian agencies in SOUTHCOM's AOR?
    Answer. As I understand it, DOD and civilian agencies coordinate 
very effectively, both in the SOUTHCOM AOR and within the command 
headquarters. There are 33 interagency representatives integrated into 
the SOUTHCOM headquarters staff, allowing the command to capitalize on 
in-house expertise and align engagement activities with interagency 
frameworks, programs, and activities. Military Groups, mostly colocated 
in U.S. Embassies, in the region work side-by-side with civilian 
counterparts from various U.S. agencies to ensure seamless execution of 
U.S. activities in the host nation. I understand there is routine 
discussion and coordination between senior leaders from SOUTHCOM, 
USAID, and the Department of State, Bureau of Western Hemisphere 
Affairs. Finally, I am told that the Department of State convenes a 
monthly executive committee to ensure interagency coordination of 
activities in support of CARSI, which has significantly helped 
synchronize and deconflict DOD and interagency programs.
    Question. If confirmed, how would you work to ensure that DOD 
efforts in your AOR complement the efforts of civilian agencies?
    Answer. If confirmed, I will continue to strengthen this 
coordination. I will also conduct periodic assessments of SOUTHCOM's 
activities to identify areas for improving synchronization of efforts 
between SOUTHCOM and civilian agencies, while also engaging with 
counterparts at the Department of State and other interagency entities 
to identify new areas for collaboration or needed improvements.
                                  cuba
    Question. What is your view of the need to review and, potentially, 
revise U.S. policies regarding Cuba?
    Answer. I think all U.S. policy, including our policy toward Cuba, 
should be periodically reviewed. If confirmed and so directed, I will 
be ready to implement any changes to U.S. policy.
    Question. What is your opinion about the need for, and the pros and 
cons of, military-to-military contact with Cuba?
    Answer. I think military-to-military engagement with any nation's 
armed forces, consistent with U.S. laws and policies, is valuable. As I 
understand it, under current Helms-Burton legislation, any significant 
U.S. military engagement with Cuba must be met with Cuban willingness 
to discuss defense policy; military subordination to democratically-
elected leadership; and military disengagement from domestic economic 
policy. Presently, the only military-to-military contacts between the 
United States and Cuba are administrative ``fence-line'' meetings 
conducted by the Commanding Officer, U.S. Naval Station Guantanamo Bay, 
and his Cuban military counterparts. If confirmed, I will continue to 
assess the value of military engagement with Cuba, in accordance with 
U.S. law and policy.
    Question. The United States and Cuba have cooperated on anti-drug 
efforts for over a decade, with a U.S. Coast Guard Drug Interdiction 
Specialist stationed at the U.S. Interest Section in Havana. Coast 
Guard officials have also engaged with Cuban officials regarding oil 
spill prevention, planning, and response issues under the auspices of 
the International Maritime Organization.
    How would you characterize the current state of U.S. 
counternarcotics cooperation with Cuba?
    Answer. I understand that the United States and Cuba have 
maintained the same level of limited counterdrug cooperation over the 
past few years. The Cuban Border Guard maintains an active presence 
along Cuba`s coastal perimeter, primarily to deter illegal emigration, 
but also to conduct maritime counter-drug operations and coastal 
patrols. The U.S. Coast Guard shares tactical information related to 
narcotics trafficking and responds to information provided by Cuba on 
vessels suspected of smuggling drugs through Cuban territorial waters.
    Question. What is your view regarding increased counternarcotics 
cooperation with Cuba--should it be increased, and if so in what ways?
    I understand that Cuba continues to maintain that it wants to 
cooperate with the United States to combat drug trafficking, and that 
in 2011 Cuba presented the U.S. Government with a draft bilateral 
agreement for counternarcotics cooperation that is still under review. 
If confirmed, I will continue to periodically assess the value of 
counternarcotics cooperation with Cuba, in accordance with current U.S. 
law and policy.
                               venezuela
    Question. U.S.-Venezuelan relations have continued to be strained 
as President Chavez continues to propagate anti-American rhetoric, 
import increasing amounts of military armament, politicize the 
Venezuelan military forces, traffic illegal narcotics throughout the 
region, and export his brand of populism to the region.
    What is your view of President Chavez's intentions in the region?
    Answer. I think President Chavez has sought to establish Venezuela 
as the leader of a broad anti-U.S. populist movement with like-minded 
countries in the region.
    Question. What is your understanding of the current state of 
military-to-military relations between the United States and Venezuela?
    Answer. My understanding is that military-to-military relations 
with Venezuela are minimal, despite SOUTHCOM's efforts to maintain 
interaction and dialogue with the Venezuelan military. SOUTHCOM invites 
Venezuela military personnel to international and regional military 
forums, but no invitation has been accepted. JIATF-South maintains an 
open position for a Venezuelan liaison officer; however, for several 
years, Venezuela has chosen to leave the position unfilled. If 
confirmed, I will continue to seek engagement opportunities with the 
Venezuelan military, in accordance with U.S. policy.
    Question. How would you assess Venezuelan relations with China, 
Cuba, Iran, and Russia vis-a-vis the national interests of the United 
States?
    Answer. I think Venezuela has strengthened its bilateral ties with 
Cuba, China, Iran, and Russia over the past few years. Venezuela's 
relationship with China is based primarily on economics, as Venezuela 
is a leading provider of petroleum exports to China. Cuba relies on 
Venezuela for subsidies, and President Chavez has a longstanding 
relationship with Fidel Castro. Iranian President Ahmadinejad has an 
especially strong personal relationship with President Chavez; the two 
leaders have signed numerous agreements in areas such as energy, 
finance, technology, and military cooperation. Venezuela's relationship 
with Russia is primarily centered on arms sales; last year, Venezuela 
became the largest importer of Russian arms in the world. If confirmed, 
I will monitor developments in Venezuelan relations closely, 
particularly as they relate to U.S. national security interests.
    Question. What is your assessment of the current role of Venezuela 
as a drug transit country?
    Answer. I understand that Venezuela is a major drug transit country 
for cocaine shipments by air, land, and sea. The Department of State 
has noted that Venezuela's porous borders, weak judicial system, 
inconsistent counternarcotics cooperation, and corrupt political 
environment have made Venezuela one of the preferred trafficking routes 
for cocaine departing South America, destined for the Caribbean, 
Central America, the United States, western Africa, and Europe.
    Question. What is your understanding of the extent to which 
Venezuelan Government or military forces are involved in the drug 
trade?
    Answer. My understanding is that there are widespread allegations 
of Venezuelan Government and military involvement in the drug trade, 
and that last year the U.S. Government designated four Venezuelan 
officials under the Foreign Narcotics Kingpin Act--identical to the 
2008 designation of General Henry Rangel Silva, the new Minister of 
Defense--for supporting the FARC's narcotics and arms trafficking.
    Question. What is your understanding of U.S.-Venezuelan cooperation 
on counter-narcotics efforts, including any cooperation between the 
U.S. and Venezuelan militaries?
    Answer. My understanding is that U.S.-Venezuelan cooperation on 
counter-narcotics efforts is limited and occurs only on a case-by-case 
basis, as a result of Venezuela's decision to reduce bilateral contact 
and formal cooperation with the United States. In 2005, the Venezuelan 
Government ceased formal cooperation with the Drug Enforcement 
Administration, and Venezuelan law enforcement authorities have not 
participated in U.S. counternarcotics training programs since 2009. As 
I understand it, limited cooperation consists mainly of coordination of 
fugitive deportations from Venezuela to the United States and the U.S. 
Coast Guards' maritime interdiction activities.
                                 brazil
    Question. In recent years, Brazil has stepped up its 
counternarcotics efforts, increasing its border presence, and signing 
agreements with its neighbors to target trafficking in arms, drugs, and 
people. It has also been a major proponent of the South American 
Defense Council, which is designed to boost regional cooperation on 
security policies.
    What is your understanding of Brazil's security role in South 
America and the broader region?
    Answer. As I understand it, Brazil is seeking to take a greater 
leadership role in South America and the region as a whole, 
particularly on issues related to border, environmental, and cyber 
security. Brazil has deployed security forces to the Amazon to address 
illicit trafficking and deforestation, and is increasing its security 
cooperation with Africa. Last year, Brazil played an important role in 
facilitating improved trilateral counterdrug efforts with Bolivia and 
the United States.
    Question. How would you assess U.S.-Brazil security cooperation?
    Answer. As I understand it, the U.S. and Brazilian militaries 
cooperate on a number of issues, including counternarcotics, 
counterterrorism, disaster preparedness, humanitarian assistance, and 
aviation and port security. This year, the first-ever Defense 
Cooperation Dialogues were held between Brazil and the United States. 
The Secretary of Defense has indicated that the U.S. and Brazilian 
military will deepen cooperation on cyber security, science, 
innovation, and technology transfer, logistics, communications, 
humanitarian assistance and disaster response, and cooperation in 
support of African nations.
    Question. If confirmed, how might bilateral security coordination 
be improved?
    Answer. If confirmed, I will continue to build on the positive 
developments in U.S.-Brazil security cooperation, and will strengthen 
SOUTHCOM's engagement program with Brazil, focusing on areas for 
potential cooperation such as cyber, space, and environmental security. 
I will also continue to encourage Brazil to take on greater role in 
addressing regional security issues to encourage shared responsibility 
and a peaceful, cooperative international order.
                                 panama
    Question. Panama is a major transit country for illicit drugs from 
South America because of its geographic location and because of the 
Panama Canal and associated containerized seaports.
    What is your assessment of U.S.-Panamanian cooperation on counter-
narcotics efforts?
    Answer. My understanding is that Panama actively cooperates with 
the United States on counternarcotics efforts, to include supporting 
U.S. Coast Guard maritime operations; responding to interdiction cues 
from JIATF-South; collaborating with the Drug Enforcement 
Administration; and actively participating in and contributing to 
Operation Martillo, a Western Hemisphere and European partner nation 
effort that aims to shift maritime illicit trafficking away from the 
Central American littorals.
    Question. In your view, how vulnerable is the Panama Canal to 
attack by non-state actors, and what would be the consequences of an 
attack to U.S. national security interests?
    Answer. In my view, the Panama Canal is the most strategically 
important infrastructure in SOUTHCOM's AOR and is critical to regional, 
hemispheric, and global security. Freedom of movement in and strategic 
access through the Panama Canal is of utmost importance for U.S. 
national security interests; the United States is the destination or 
origin for approximately two-thirds of all the goods that pass through 
the canal. Approximately 5 percent of all global trade passes through 
the canal, a number that is expected to increase with the planned 
expansion. Any disruption of canal operations would create a 
significant impact on U.S., regional, and global economies.
    As I understand it, the Government of Panama has primary 
responsibility for the canal's defense, but it is in the interest of 
all nations in the Western Hemisphere to support the Government of 
Panama, if so requested. Annually, SOUTHCOM conducts Panamax, a joint 
and combined training exercise with 17 participating partner nations 
that is focused on the defense of the Panama Canal. In my opinion, this 
type of engagement promotes regional cooperation on a security issue of 
utmost importance to both the United States and countries in the 
hemisphere.
                      forward operating locations
    Question. One of the elements of the regional counternarcotics 
strategy is SOUTHCOM's establishment of forward operating locations 
(FOL) and cooperative security locations (CSL) in the source and 
transit zone.
    In your view, what is the role that these FOLs and CSLs play in the 
Department's counternarcotics efforts?
    Answer. My understanding is that the CSLs in Curacao, Aruba, 
Antigua, and Comalapa, and the FOL--now called a FOS--in Soto Cano, 
Honduras, remain critical to the success of DOD detection and 
monitoring mission and support to law enforcement interdiction 
operations. As forward locations, CSLs and FOS' are geographically 
closer to the source and transit zones of South and Central America and 
the Caribbean, which helps increase the effectiveness of detection and 
monitoring operations by significantly reducing aircraft transit time 
to and from the suspected transshipment areas.
    Question. In your view, does current use continue to justify the 
costs of sustaining these locations?
    Answer. I think the cost of supporting the CSLs and FOS is 
justified. As mentioned earlier, JIATF-South successfully disrupted 117 
metric tons of cocaine, denying illicit traffickers approximately $3 
billion in revenue, at a third of the operating cost than operations 
along the U.S. southwest border. In particular, the CSL in Comalapa and 
the FOS in Soto Cano are significant operational enablers to the 
continued successes of Operation Martillo. Access to and use of these 
locations ensures that operating costs remain comparatively low; 
without such access, operating costs would be significantly higher due 
to increased flight hours and number of aircraft required to accomplish 
the detection and monitoring mission.
    Question. What assurances do we have from host nations that these 
locations will continue to be available to us, and under what 
conditions?
    Answer. Beyond the current agreements, there are no assurances from 
any of the host nations. My understanding is that our relationships 
with the Dutch Government, the El Salvadoran Government, and the 
Honduran Government are strong, as these agreements are mutually 
beneficial to both the United States and host nation. If confirmed, I 
will support the continuation of these operating agreements.
                                ecuador
    Question. The 2009 closing of the CSL at the air force base in 
Manta, Ecuador, and the ejection of the U.S. Ambassador to Ecuador in 
April of last year have stressed U.S.-Ecuadorian bilateral ties.
    How would you characterize the current status of counter-narcotics 
cooperation between the United States and the Government of Ecuador?
    Answer. Ecuador does receive U.S. counternarcotics assistance for 
training, equipping, and infrastructure support, as well as support to 
police operations and military operations on Ecuador's northern border 
with Colombia. As I understand it, Ecuador failed to sign an amendment 
to the bilateral letter of agreement for fiscal year 2010 Department of 
State International Narcotics Control and Law Enforcement (INCLE) 
funding, which has resulted in a significant loss of counternarcotics 
resources, as well as a decline in maritime cooperation in 2011.
             southcom's military service component commands
    Question. Like all of the combatant commands, SOUTHCOM has military 
service component commands that implement the plans and policies of the 
combatant commander. Each of the component commands also has 
responsibility to the Services they represent. It seems SOUTHCOM, 
however, exercises limited command and control in directing specific 
activities and limited oversight of the activities of the component 
commands.
    If confirmed, will you review the command and control relationship?
    Answer. It is my understanding that SOUTHCOM, like all geographic 
combatant commands, exercises effective direction of component command 
activities and conducts rigorous oversight of planned activities, to 
include an annual review and validation to ensure alignment of 
strategic objectives and operational activities with the command's 
theater campaign plan. If confirmed, and as appropriate, I will review 
all command and control relationships to ensure continued mission 
effectiveness.
    Question. SOUTHCOM does not have any assigned forces and--as a 
result--is required to compete for forces within the global request for 
forces process. Given the Department's focus on the greater Middle East 
and Asia-Pacific, do you believe the SOUTHCOM Commander will be able to 
secure the necessary personnel to accomplish its partnering and 
engagement mission within its AOR? If not, how would you assess the 
risk to U.S. strategic interests in the region?
    Answer. As I understand it, SOUTHCOM does have minimal assigned 
forces, and as such relies heavily on the force allocation process. If 
confirmed, I will work diligently to ensure SOUTHCOM has the necessary 
personnel to accomplish its mission. The new regional alignment 
proposed by the U.S. Army is a promising opportunity that will be an 
enormous benefit to all the geographical combatant commands. I 
recognize that adjustments will be required as the United States enters 
into an era of constrained resources. In an economy of force theater, 
SOUTHCOM has long relied on innovative, small footprint approaches to 
accomplish its mission, which is an approach DOD has explicitly 
endorsed in its new Strategic Guidance. In my opinion, a foundation of 
partnership and routine engagement activities can avoid exponentially 
larger expenditures in the future; building, maintaining, and 
sustaining capable security partners is a wise investment to hedge 
against future security challenges, support a peaceful international 
order, and promote collective responsibility for shared threats.
                                colombia
    Question. Plan Colombia has enabled the Colombian Government to 
make significant gains against the Revolutionary Armed Forces of 
Colombia (FARC) and other paramilitary forces in Colombia, as well as 
enabled the government to secure many previously ungoverned areas. 
Since fiscal year 2000, the United States has provided more than $7 
billion to support Colombia's efforts to counter the threat of 
transnational criminal organizations and various terrorist groups.
    What are your views regarding the current situation in Colombia 
focusing upon: (1) the current military and political situation in 
Colombia; (2) the ability of the Colombian military to control its 
territory; and (3) ongoing DOD programs? If confirmed, what component 
of SOUTHCOM's activities in Colombia is of most importance to the 
United States?
    Answer. In my opinion, Colombia has made enormous progress in its 
fight against narco-terrorists. I think it is important to note that 
DOD support to Colombia has been an enabler, not a provider, of 
Colombian security; Colombian political will and resources have been 
the key deciding factors in Colombia's successes; on average, U.S. 
assistance to Colombia has accounted for a mere 7 percent of the 
overall contributions made by Colombia to ensuring its internal 
security.
    As I understand it, once on the brink of becoming a failed state, 
Colombia has effectively prosecuted its war against the FARC and other 
illegally armed groups and successfully applied a whole-of-government 
approach to strengthening rule of law, the judiciary, and social 
programs. FARC numbers have been significantly reduced; paramilitaries 
have disbanded; terrorist attacks have been reduced by 71 percent; 
homicides have been reduced by 45 percent, kidnappings by 90 percent, 
and cocaine production by 61 percent; and the Government of Colombia 
has established a presence in its 1,098 municipalities. Colombia has 
emerged as a strong, capable regional leader, sharing its security 
expertise and building the capacities of countries in Central America 
and Mexico.
    President Santos continues to build on President Uribe's successes, 
but has also recognized that there is still progress to be made in 
consolidating these gains into permanent stabilization in every part of 
the country. Though weakened, the FARC still poses a threat to citizen 
security, primarily through its continued reliance on drug trafficking 
as a major source of income, as well as more recent efforts to branch 
into other illicit activities such as illegal gold mining, oil pipeline 
attacks, kidnapping, and extortion. The ``criminal bands'' (BACRIM), 
which are comprised of remnants of disbanded paramilitary groups now 
involved in drug trafficking, pose an emerging and evolving threat. 
Colombia recently unveiled a new counterinsurgency strategy that 
focuses on countering the FARC in 10 strategic areas of intersection 
between insurgent operations and the state's economic interests.
    If confirmed, I will continue to sustain support to Colombia, which 
has proven to be one of our most important partners in the region in 
terms of organic capability and contributions to regional security 
efforts. SOUTHCOM programs that build the counterterrorism, 
counternarcotics, and counterinsurgency capabilities of the Colombian 
military will continue to be of importance as Colombia focuses its 
campaign to defeat the FARC and permanently sustain stabilization 
successes.
    Question. In your view, is the Colombian Government capable of 
sustaining the last decade's gains during this economic downturn and 
the scheduled decline in U.S. security assistance?
    Answer. Yes. Colombia has demonstrated enormous and sustained 
political will through a whole-of-government approach, and continues to 
do so with its shift to a new counterinsurgency strategy. Although U.S. 
security assistance has contributed to Colombia's successes, Colombia 
has spent more than $100 billion of its own funds to date on security 
efforts. While the current global economic downtown may have an impact, 
I believe Colombia is not only capable of, but also committed to, 
sustaining the gains they have made. If confirmed, I look forward to 
working with the Committee to continue U.S. support to Colombia.
    Question. In light of budget conditions, do you believe continued 
U.S. security assistance to Colombia at the current levels is 
sustainable?
    Answer. As I understand it, U.S. security assistance has declined 
significantly over the past few years as Colombia has taken a greater 
role in its internal security. Current U.S. assistance is approximately 
4 percent of the total amount Colombia itself spends. I believe U.S. 
security assistance to Colombia remains extremely important in order to 
ensure Colombia sustains the enormous progress it has made over the 
past decade. More so than any partner in the region, Colombia 
demonstrates the enormous return on investment that U.S. efforts to 
build partner capacity can yield. If confirmed, I will encourage 
Colombia to continue taking a greater role in regional security efforts 
and help build the capabilities of other nations facing similar 
challenges.
    Question. When the United States began providing increased support 
through Plan Colombia for efforts to significantly reduce or eliminate 
illegal narcotics trafficking organizations operating in their country, 
many expressed concern about the Colombian military's human rights 
record.
    What is your assessment of the record of the Colombian military 
with regard to respect for human rights over the past 3 years?
    Answer. I am told that the Colombian military is now one of the 
most respected institutions in Colombia and continues to make great 
strides to improve its human rights record. The Ministry of Defense 
established a comprehensive human rights and international humanitarian 
law program, and continues to implement measures on human rights 
developed in the aftermath of the 2008 ``false positives'' scandal. The 
Ministry has also begun to implement an agreement with the U.N. High 
Commissioner on Human Rights (UNHCHR) to monitor seven of those 
measures; this type of monitoring arrangement is the first and only one 
ever reached between UNHCHR and a military, an important testament to 
Colombia's commitment to protecting human rights. I understand that 
Colombian military personnel are required to receive mandatory human 
rights training at every stage of their military careers. The Colombian 
military continues to partner with civil society groups, universities, 
and international organizations to strengthen their human rights 
programs. These programs have been instrumental in reducing the number 
of human rights complaints against the Colombian military. Colombia 
continues to aggressively address human rights infractions and actively 
prosecutes and convicts military members accused of extrajudicial 
killings. Colombian officers are also sharing their human rights 
expertise with other nations, including Honduras, Dominican Republic, 
Panama, and El Salvador.
    Question. What remains to be done and how would you approach the 
issue of respect for human rights in the Colombian military?
    Answer. If confirmed, I will maintain the SOUTHCOM's Human Rights 
Initiative and ensure that respect for human rights is a key element of 
the U.S. military's interaction with Colombia.
    Question. Over the past 4 years, U.S. assistance to Plan Colombia 
and its follow on plans has gradually declined as several 
counternarcotics and aviation programs have been turned over to 
Colombian control in a process of nationalization.
    What are the remaining U.S. supported programs that will need to be 
continued to ``lock in'' the progress that has been made?
    Answer. As described above, the Human Rights Initiative remains a 
critical component of support to Colombia. Additionally, 
counternarcotics and counterterrorism training will continue to play 
important roles in the U.S. whole-of-government approach to Colombia, 
as will appropriate levels of support through equipment, FMS, FMF, 
alternative development, community, and rule of law programs. 
Specifically, U.S. counternarcotics support ensures that we have a 
capable and willing partner in Colombia, which remains the single 
largest exporter of cocaine to the United States.
    Question. In your assessment, what is the appropriate role of U.S. 
engagement in Colombia's security situation in the near-term, the 
medium-term, and the long-term?
    Answer. I believe it is important to continue U.S. engagement with 
Colombia. Sustained engagement with Colombia has yielded a strong, 
capable partner that is providing significant contributions to regional 
security. As Colombia continues to make progress in its internal 
security situation, there will be other avenues of engagement on issues 
of mutual concern, including cyber defense and energy security. Earlier 
this year, Colombia and the United States signed an Action Plan on 
Regional Security Cooperation. Under this plan, Colombia and the United 
States will develop complementary security assistance programs and 
operational efforts to support hemispheric and international partner 
nations afflicted by effects of transnational organized crime. If 
confirmed, I will continue to support Colombia's progress and deepen 
our existing partnership, seeking new opportunities to collaborate 
issues of mutual interest.
    Question. Together Colombia, Peru, and Bolivia produce nearly all 
of the world's supply of cocaine. In recent years, progress in 
controlling cocaine production in Colombia seems to be resulting in an 
increase in cocaine production in Peru and Bolivia.
    If confirmed, what would be your plan to prevent further cocaine 
production increases in Peru and Bolivia without losing the progress 
made in Colombia?
    Answer. My understanding is that U.S. agencies such as the 
Department of State (Bureau of International Law Enforcement), USAID, 
and the DEA are the lead U.S. agencies in combating cocaine production, 
including eradication efforts and alternative development programs. If 
confirmed, I would sustain support to the Colombian military, 
strengthen current engagement initiatives with Peru, and continue 
outreach to the Bolivian military on the issue of counternarcotics.
    Question. The Colombia Strategic Development Initiative (CSDI) 
which aligns U.S. assistance with Colombia's National Consolidation 
Plan accounts for an increasing portion of SOUTHCOM-supported programs 
in Colombia.
    What is your understanding of SOUTHCOM's role under the CSDI?
    Answer. My understanding is under CSDI, SOUTHCOM continues to 
coordinate its support for activities with the Department of State, 
USAID, DEA, and other U.S. Federal agencies to focus its programs in 
the geographic areas identified by the Government of Colombia as 
locations in which Colombian agencies will concentrate military, 
counternarcotics, law enforcement, and social and economic development 
efforts to establish a continuing government presence.
    Question. What are the biggest challenges to SOUTHCOM in 
complementing Colombia's whole-of-government approach to increasing 
state presence in remote, but strategically important rural areas?
    Answer. The Colombian Government has achieved great success with 
its whole-of-government approach, but logistical and mobility 
challenges of projecting power in Colombia's largely uninhabited areas 
have made extended deployments and a permanent stabilizing presence 
extremely taxing for the Colombian military and other government 
agencies. As with any whole-of-government approach, coordination, 
synchronization, and deconfliction of efforts are a constant challenge, 
but not an insurmountable one. If confirmed, I will conduct routine 
assessments of SOUTHCOM's support to both Colombia and the U.S. whole-
of-government approaches to identify areas of improvement or capability 
gaps.
    Question. In 2010, the Colombian Constitutional Court issued a 
decision striking down a defense agreement with the United States that 
would have allowed U.S. personnel to use several Colombian military 
facilities for 10 years.
    What is your understanding of the impact of the court decision on 
U.S. military support activities in Colombia?
    Answer. My understanding is that Colombian Constitutional Court 
ruled the Defense Cooperation Agreement (DCA) invalid without 
ratification by the Colombian legislature. To date, the Government of 
Colombia has not sent the DCA to the legislature for consideration.
             bolivarian alliance of the americas countries
    Question. Several militaries of the member countries of the 
Bolivarian Alliance of the Americas (ALBA), including Venezuela, 
Ecuador, Bolivia and Nicaragua, have received U.S. assistance for 
decades.
    In general, how would you characterize the current state of 
military-to-military relations between the United States and the ALBA 
countries that have been receiving U.S. assistance?
    Answer. In general, I would characterize U.S. military-to-military 
relations with the ALBA countries as limited. My understanding is that 
this is due solely to the preferences and decisions of the governments 
of these respective countries, and that the U.S. military continues 
positive outreach efforts. As discussed previously, the United States 
does not have active military-to-military relations with the Venezuelan 
military. As I understand it, military-to-military engagement with 
Bolivia is generally limited by the Bolivian Government, while the 
Ecuadoran and Nicaraguan militaries have demonstrated a greater 
willingness to engage with the U.S. military on issues of mutual 
concern and interest.
                       central america and mexico
    Question. During a Senate Armed Services Committee hearing in 2011, 
General Douglas Fraser--the Commander of SOUTHCOM--and Admiral 
Winnefeld--the former Commander of U.S. Northern Command--discussed the 
increasingly dangerous region between Colombia and Mexico, and the 
devastating impact transnational criminal organizations are having on 
the people and security in this region. The United States has increased 
its assistance in this region, but--to date--DOD has had only a small 
role.
    What is your assessment of the threats posed by transnational 
criminal organizations in this region?
    Answer. My understanding is that in recent years due to sustained 
pressure and successes in Colombia and Mexico, Mexican-based 
transnational organizations--primarily the Sinaloa Cartel and Los 
Zetas--have expanded and consolidated control over key illicit 
trafficking routes in Central America. These groups engage in a range 
of illicit activity, trafficking in precursor chemicals from India, 
China, and Bangladesh; commercial weapons from the United States; 
people, including the forced trafficking of humans and the smuggling of 
migrants and special interest aliens; and drug proceeds in the form of 
bulk cash from the United States. These Mexican-based criminal 
organizations, as well as Central American drug trafficking 
organizations, ensure freedom of movement through corruption of law 
enforcement officials, bribery of border security agents, penetration 
of government institutions, laundering of money into the global 
financial system, and intimidation of judges and prosecutors. Violent 
criminal organizations, coupled with the isthmus' youth gang problem 
and weak rule of law, are contributing to rising homicide rates; 
Central America is now one of the most violent regions in the world.
    Question. What is your understanding and assessment of DOD's 
current activities in Mexico and Central America?
    Answer. My understanding is that U.S. Northern Command, in support 
of the Merida Initiative, has a strong cooperative relationship with 
the Mexican military and provides support to U.S. interagency partners 
operating in its AOR, while SOUTHCOM's activities in Central America 
are executed in support of the CARSI, and focus on building the 
capacity of regional militaries to counter illicit trafficking and 
transnational organized crime. As I understand it, U.S. Northern 
Command and SOUTHCOM work to ensure seamless cooperation between the 
two command's areas of responsibilities, and foster enhanced levels of 
cooperation between Mexico, Belize, and Guatemala along their shared 
borders.
    Question. What changes, if any, would you recommend to DOD's 
current activities in this region?
    Answer. If confirmed, I will conduct continuous assessments of 
current DOD activities to identify areas for increased efficiency and 
efficacy, as well as identify opportunities for enhanced collaboration 
with other U.S. agencies.
    Question. If DOD expands its activities in Central America, where--
in your view--can U.S. assistance have the greatest impact?
    Answer. In my opinion, U.S. efforts to build the capacity of 
regional militaries and strengthen the capacities of defense and 
security institutions are important components of overall whole-of-
government efforts, which help strengthen government institutions' 
accountability and transparency; foster resilient communities; combat 
crime; and support economic and social development, all of which are 
critical issues for many countries in Central America.
    Question. What changes, if any, would you recommend to the 
Department's support to civilian agencies operating in the region?
    Answer. I believe it is important to coordinate activities and 
enhance DOD support to civilian agencies, especially in areas of 
identified capability gaps, such as logistics support to U.S. law 
enforcement. If confirmed, I will conduct continuous assessments of 
current DOD support and identify areas for improvement and 
opportunities for increased collaboration.
         western hemisphere institute for security cooperation
    Question. The Western Hemisphere Institute for Security Cooperation 
(WHINSEC), which replaced the School of the Americas in 2001, has the 
mission of contributing to theater cooperation activities through the 
education and training of students in the Western Hemisphere from 
Canada to Chile.
    What is the relationship between SOUTHCOM and WHINSEC?
    Answer. WHINSEC does not fall under SOUTHCOM's command authority, 
but it is one of many valuable tools available to strengthen military-
to-military relations in the region. I also understand the Commander of 
SOUTHCOM is a member of WHINSEC's Board of Visitors. If confirmed, I 
look forward to joining this distinguished group.
    Question. In your view, does WHINSEC promote the national security 
interests of the United States in the Western Hemisphere?
    Answer. WHINSEC provides important training and education to 
regional military personnel, promotes a shared vision of regional 
cooperation and a peaceful international order, and helps build 
relationships with future military leaders, all of which enhances 
security cooperation and advances U.S. security interests in the 
Western Hemisphere. In my view, Congress was correct when it wrote in 
section 1257 of the National Defense Authorization Act for Fiscal Year 
2008 that WHINSEC ``is an invaluable education and training facility 
which DOD should continue to utilize in order to help foster a spirit 
of partnership and interoperability among the United States military 
and the militaries of participating nations.'' If confirmed, I will 
continue SOUTHCOM's support of WHINSEC.
    Question. In your view, what more--if anything--does WHINSEC need 
to do to emphasize human rights in its curriculum?
    Answer. From what I understand, WHINSEC has a very comprehensive 
human rights curriculum in place and intersperses human rights 
instruction throughout its program. If confirmed, I will continue to 
monitor and assess the human rights curriculum and will stress the 
value of WHINSEC attendance for personnel from regional militaries and 
security forces.
    Question. Will you attend the regularly scheduled WHINSEC Board of 
Visitors meetings?
    Answer. If confirmed, I will attend the regularly scheduled Board 
of Visitors meetings.
                   iranian influence in latin america
    Question. There has been increased concern in recent years about 
Iran's growing interest in Latin America, particularly its relations 
with Venezuela, which in turn has played a key role in Iran's expanding 
relations with Bolivia, Ecuador, and Nicaragua. There has been 
disagreement, however, over the extent and significance of Iran's 
relations with the region. Nevertheless, Iranian President Mahmoud 
Ahmadinejad's January 2012 trip to Venezuela, Nicaragua, Cuba, and 
Ecuador again increased concerns by some about Iran's efforts to forge 
ties with the region. Outgoing SOUTHCOM Commander Douglas Fraser 
maintained in congressional testimony last year that the focus of Iran 
in the region primarily has been diplomatic and commercial, and that he 
has not seen an increase in Iran's military presence in the region.
    What is your assessment of Iran's military presence in the region?
    Answer. My understanding is that Iran's overtures to the region are 
primarily undertaken to circumvent international sanctions and, with 
like-minded nations, attempt to undermine U.S. influence in the region. 
I do not see evidence of an increase in uniformed Iranian military 
presence in the region.
    Question. What is the extent of Iran's military-to-military 
engagement with Latin American countries?
    Answer. As mentioned above, Iran's engagement strategy has 
primarily been centered on diplomatic and economic endeavors with 
sympathetic countries like Venezuela and Bolivia. Iran has increased 
its high-level engagements, but as I understand it, has not 
significantly increased its military-to-military engagements. Iran 
continues to pursue arms deals with Latin America but has made little 
concrete progress.
    Question. One of the concerns about Iran's increased focus on the 
region is its support for Hezbollah, which along with Iran, was alleged 
to be responsible for two bombings in Argentina in the early 1990s.
    What concerns do you have about Hezbollah's current activities in 
the hemisphere?
    Answer. As I understand it, Lebanese Shi'a Diaspora communities in 
the AOR transmit tens of millions of dollars in financial support to 
family members in Lebanon; an unknown portion of this money helps cover 
Lebanese Hezbollah's operating costs. Supporters and sympathizers in 
the region are focused on licit and illicit fundraising, although 
proselytizing, recruitment and some elements of radicalization exist as 
well. I understand that illicit activities and trade-based money 
laundering by supporters and sympathizers are concentrated primarily in 
areas like the Tri-Border Area of Brazil, Paraguay, and Argentina, and 
locations like the Colon Free Trade Zone in Panama. If confirmed, I 
will keep SOUTHCOM vigilant to detect and defend against terrorist 
threats to the United States and to our partners.
    Question. How significant is Hezbollah's involvement in drug 
trafficking in the region?
    Answer. As mentioned previously, my understanding is that some 
supporters of Hezbollah in the region are involved in raising money for 
the parent organization via both legal and illegal means, including 
drug trafficking. As the 2011 case of Ayman Joumaa demonstrates, drug 
trafficking, financial support to Hezbollah, and money laundering in 
the region are overlapping and interconnected threats.
    Question. How would you compare the financial support that 
Hezbollah derives from its activities in Latin America to the support 
that it receives from Iran?
    Answer. My understanding is that Hezbollah derives an unknown 
portion of financial support from the region.
                   global peace operation initiative
    Question. In 2005, the United States, along with our partners in 
the G-8, launched the Global Peace Operations Initiative (GPOI) to 
train peacekeepers. This program is run by the Department of State. DOD 
has provided varying degrees of support since the program's inception. 
A number of national militaries in the SOUTHCOM AOR have benefitted 
from this program and have provided peacekeeping troops to multilateral 
peacekeeping operations around the globe.
    What is your understanding of the GPOI program?
    Answer. My understanding is that the Global Peace Operations 
Initiative is a security assistance program designed to build the 
capacity of participating partners to conduct United Nations and 
regional peace support operations. GPOI is a Department of State 
program that is supported by SOUTHCOM through training and exercises to 
build the peacekeeping capacity of 11 participating partners in the 
AOR.
    Question. Would you support or oppose SOUTHCOM's continued 
involvement in the program?
    Answer. I will support SOUTHCOM's continued involvement in this 
program, which promotes shared responsibility and costs associated with 
global stability and peacekeeping operations. I understand that 
militaries in the region have contributed approximately 8,000 personnel 
to peace support and stability operations throughout the world, 
including critical and ongoing support to the U.N. Missions in Haiti, 
Lebanon, and the Sudan. In my opinion, the GPOI is another valuable 
tool to promote partnerships, collective responses, and a peaceful 
international order.
                       special operations forces
    Question. As forces have been reduced in Iraq and Afghanistan, 
there is an expectation that additional Special Operations Forces may 
be available for missions in other combatant commands, including 
SOUTHCOM, which have had only a small presence of such forces in recent 
years.
    What special operations capabilities are in highest demand by 
SOUTHCOM?
    Answer. It is my understanding that SOUTHCOM relies heavily on 
Special Operations Forces' ability to engage with partner nation 
security forces for the development of tactical skills, the integration 
of intelligence, operations, and command and control, and the 
application of Civil Military and Military Information Support 
Operations. If confirmed, and as more forces become available, I would 
use them to conduct persistent engagement with our critical partners to 
develop these important capabilities.
    Question. Which countries in the SOUTHCOM AOR do you believe have 
the greatest need for increased engagement with U.S. Special Operations 
Forces?
    Answer. I believe that Colombia and Peru would benefit from 
increased engagement with U.S. Special Operations Forces, as both 
countries continue to work to defeat the narco-terrorist threats within 
their borders. If confirmed, I would ensure continued support to these 
important partners, and also identify Special Operations Forces 
engagement opportunities with vetted units in Belize, Honduras, 
Guatemala, and El Salvador to support these countries' efforts to 
counter transnational organized crime.
               special operations personnel in embassies
    Question. U.S. Special Operations Command deploys personnel to work 
with country teams in a number of priority countries where the United 
States is not engaged in direct action operations, but rather trying to 
stop the spread of violent extremism. Their mission is to support the 
priorities of the ambassador and the geographic combatant commander's 
theater campaign plan against terrorist networks. At times, ambassadors 
have complained that they have not been adequately informed of 
activities by special operations forces in their country.
    If confirmed, what do you intend to do to make sure the goals of 
special operations personnel deployed to these countries are aligned 
closely with those of the ambassadors they are working with?
    Answer. If confirmed as geographic combatant commander, SOUTHCOM, I 
would be the final authority on which DOD forces deploy to the AOR, 
with the exception of any deployments directed specifically by the 
Secretary of Defense and the President.
    If confirmed, and prior to deploying any forces, I and my staff 
would provide planning direction through the Theater Campaign Plan. 
This direction is used by military groups embedded within country teams 
to develop Country Cooperation Plans, which directly support and are 
aligned with Ambassadors' Mission Strategic Resource Plans. Prior to 
and during execution of activities, my staff would review all 
deployments, including that of Special Operation Forces, to ensure they 
meet requirements, which have been vetted by the ambassador through the 
military groups within country teams. I and my staff would also receive 
weekly activity updates from both the military groups and the Theater 
Special Operations Component Commander. Finally, both I, the civilian 
deputy to the commander, and SOUTHCOM staff would personally reach out 
to ambassadors in the region to ensure our activities remain aligned 
with their objectives.
                     special operations authorities
    Question. Some have advocated providing the Commander of U.S. 
Special Operations Command with new authorities designed to, among 
other things, better resource the Theater Special Operations Commands 
and provide special operations forces with additional flexibility and 
funding to build the capacity of partner nation security forces.
    Do you believe additional special operations-specific authorities 
are appropriate? If so, what types of authorities would you suggest?
    Answer. In my opinion, absent a contingency, there are inherent 
limitations to building partner capacity that require additional effort 
to ensure the U.S. military provides flexible and value-added 
assistance. During peacetime phase 0 operations, Special Operations 
Forces could make a more meaningful contribution if current authorities 
were expanded to allow Special Operations Forces to advise, assist, 
train and equip partner nations, as well as develop infrastructure, in 
support of partner nation efforts to counter transnational organized 
crime and illicit trafficking. With respect to better resourcing of the 
TSOCs, if confirmed, I would welcome any initiatives that provide GCCs 
with a more robust ability to support their theater campaign plans.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent legislation, authorizes the provision of support 
(including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. I think this authority is sufficient for its intended 
purposes. However, I believe it should be complemented by authorities 
that facilitate support to the development of partner nation 
capabilities' on a long-term basis, as they combat national and 
regional irregular threats to stability, which may ultimately affect 
the United States.
                          defense cooperation
    Governments in the region are increasingly cooperating in forums 
that do not include the United States. In terms of defense cooperation, 
the most advanced forum is the South American Defense Council, part of 
the Union of South American Nations.
    How does SOUTHCOM view this and other defense-cooperation bodies to 
which the United States is not invited?
    Answer. From my understanding, SOUTHCOM views efforts by regional 
militaries to enhance defense cooperation as a positive development, 
and welcomes all efforts by South American militaries to improve 
security and stability throughout the region. If confirmed, I will 
support the Department of State's efforts to engage with these 
multilateral forums on issues of mutual interest.
           sexual assault prevention and response in southcom
    Question. DOD has developed comprehensive policies and procedures 
to improve the prevention of and response to incidents of sexual 
assault. However, new allegations of sexual assault continue to be 
reported, and many question the adequacy of the chain of command's 
response to these allegations.
    Answer. A frequent complaint of victims of sexual assault and their 
advocates is that military commanders frequently fail to hold 
assailants accountable for their criminal acts. Some in Congress have 
proposed that commanders' authority to address sexual assaults be 
removed and given to an independent entity.
    What is your view of the Sexual Assault Prevention and Response 
Program in SOUTHCOM?
    Answer. I am told that SOUTHCOM has a dedicated Sexual Harassment/
Assault Response and Prevention (SHARP) Coordinator who is trained to 
respond to allegations of sexual assault and ensure victim advocacy. 
The SHARP coordinator is extremely knowledgeable of reporting 
requirements and victims' rights regarding medical care, investigation, 
legal assistance and restricted reporting, and maintains direct 
personal contact with all military assistance providers.
    Question. What is your view of the adequacy of the training and 
resources in SOUTHCOM to investigate and respond to allegations of 
sexual assault?
    Answer. I am told that SOUTHCOM provides its personnel all that is 
necessary to investigate and respond to sexual assault allegations. As 
the headquarters executive agency, the Department of the Army has 
instituted a comprehensive SHARP program training support package to 
provide training to all military personnel.
    Question. What is your view of the proposal to give the authority 
to an independent agency, not part of the chain of command, to address 
allegations of sexual assault, including the authority to hold 
assailants accountable for criminal acts?
    Answer. In my opinion, commands should be aware of all allegations 
of Sexual Assault on their respective installations to ensure the 
safety of the victim and others stationed there. It is also important 
to keep the tools of good order and discipline in the hands of the 
Commander, a cornerstone of military discipline. The chain of command 
reinforces the SHARP program's commitment to eliminate incidents of 
sexual assault through a comprehensive policy that centers on awareness 
and prevention, training and education, victim advocacy, response, 
reporting, and accountability. DOD has developed effective policies 
that promote sensitive care and confidential reporting for victims of 
sexual assault and accountability for those who commit these crimes.
    Question. What is your understanding of the adequacy of the 
resources and programs in place in SOUTHCOM to offer victims of sexual 
assault the medical, psychological, and legal help that they need?
    Answer. As described above, I understand that SOUTHCOM has a robust 
SHARP program in place that ensures victims receive all the help and 
legal, medical, and psychological support they need. If confirmed, I 
will continue SOUTHCOM's zero tolerance policy, actively support its 
programs, and regularly monitor and assess its operations and 
resources.
    Question. Do you consider the current sexual assault policies and 
procedures, particularly those on confidential reporting, to be 
effective?
    Answer. Yes. I am told that the policies and procedures, outlined 
above, are effective.
    Question. What is your view of steps taken to prevent sexual 
assaults in SOUTHCOM?
    Answer. The command has a zero tolerance policy and ensures all 
incidents are handled using the exact procedures outlined in DOD 
directives and policy, which promote sensitive care, confidential 
reporting for victims of sexual assault, and 100 percent accountability 
for those who commit these crimes.
    Question. What are the unique challenges relating to accountability 
for pursuing allegations of sexual assaults within deployed forces in a 
joint environment, and how would you, if confirmed, ensure such 
accountability?
    Answer. Deployed joint forces confront command and control issues 
inherent to the differences between Services and variable durations of 
missions. However, sexual assault is a violation of the Uniform Code of 
Military Justice and will be investigated accordingly under all 
applicable regulations and policies regardless of a deployed 
environment and the services of those involved. If confirmed, I will 
ensure that such challenges do not prevent commanders in the SOUTHCOM 
AOR from holding those accountable under the law. I am aware of 
recommended improvements proposed by SOUTHCOM to address command and 
control issues stemming from the allegations of misconduct in 
Cartagena, Colombia. If confirmed, I will take steps to enact these 
recommendations, if so directed.
        mental health of servicemembers and stress on the force
    Question. The committee is concerned about the stress on military 
personnel resulting from lengthy and repeated deployments and their 
access to mental health care to deal with this increased stress. The 
increased suicide rates in each of the services are clear reminders 
that servicemembers, particularly those who have been deployed multiple 
times, are under tremendous stress and need access to mental health 
care.
    In your view, are there sufficient mental health assets embedded 
within SOUTHCOM to address the mental health needs of the military 
personnel, particularly for those who have experienced multiple 
deployments in Iraq and Afghanistan, as well as military families?
    Answer. As I understand it, the majority of forces that deploy 
within the SOUTHCOM region rely on their parent service for medical 
care during post-deployment, including the very important post-
deployment monitoring of mental health. During deployment, I am told 
that the SOUTHCOM Surgeon closely monitors all command mental health 
issues and ensures that the command provides immediate support, if 
necessary. The approximately 1,500 personnel assigned to the SOUTHCOM 
Headquarters have their medical needs met through a small U.S. Army 
Health Clinic located at the Headquarters. I have been told that a 
mental health professional is assigned to this clinic and that patients 
may also be referred to the local VA hospital, clinics, and civilian 
providers to address their mental health needs. I understand that 
family members and retirees are supported by the Garrison Employee 
Assistance Program, as well as TRICARE.
    Question. If confirmed, what actions will you take to address the 
mental health needs of military personnel and their families in 
SOUTHCOM?
    Answer. If confirmed, I will continue to place emphasis on ensuring 
that military personnel and their families have adequate access to 
mental health services, including programs on suicide prevention and 
substance abuse prevention and treatment. I will also work to improve 
the coordination between SOUTHCOM's military doctors and local civilian 
providers to ensure that we understand and address the mental health 
needs of our personnel.
    Question. Do you have any views on how to reduce the stigma, real 
or perceived, for seeking mental health care?
    Answer. In my opinion, advocacy and public support by senior 
leadership is important to help reduce the stigma associated with 
seeking mental health care. If confirmed, I will work tirelessly to 
ensure that all assigned military personnel and their families are 
aware of the full range of support services available at SOUTHCOM and 
that they receive whatever support they may need.
              humanitarian assistance and disaster relief
    Question. What should be the role for the U.S. military in 
humanitarian assistance and disaster relief in the SOUTHCOM AOR?
    Answer. Countries in the SOUTHCOM AOR are vulnerable to natural 
disasters, such as hurricanes, earthquakes, volcanoes, and flooding. As 
outlined in the Unified Command Plan, the U.S. military is responsible 
for conducting foreign humanitarian assistance and disaster relief 
operations in the SOUTHCOM AOR in support of the lead Federal agency 
(USAID/OFDA), at the direction of the President or the Secretary of 
Defense in response to a request from the affected host nation.
    Question. Are the resources necessary to fulfill this role 
currently available to the SOUTHCOM Commander? If not, what additional 
resources are necessary?
    Answer. Yes, I think the SOUTHCOM commander has adequate resources 
to fulfill this role.
                       law of the sea convention
    Question. The United Nations Convention on the Law of the Sea 
(UNCLOS) is pending consideration in the U.S. Senate.
    What is your view on whether or not the United States should join 
the UNCLOS?
    Answer. As an official policy matter, I defer questions associated 
with the UNCLOS to the Chief of Naval Operations. However, as a joint 
officer, I support the U.S. accession to the Convention.
    Question. How would being a party to the UNCLOS help or hinder the 
United States' security posture?
    Answer. The UNCLOS codifies navigation and overflight rights in the 
high seas and ensures rights of transit though international straights, 
both of which are essential for the global mobility of U.S. Armed 
Forces. UNCLOS supports our National Security Strategy and helps 
advance our economic and security objectives. It is my understanding 
that as a matter of customary law, the United States is already in 
compliance. I also understand that Article 298 of the Convention 
permits the United States to completely exempt its military activities 
from dispute resolution.
                        illicit arms trafficking
    Question. Countering illicit arms trafficking is a focus area for 
SOUTHCOM. In July, governments of the world will gather at the United 
Nations to negotiate a global Arms Trade Treaty which would set global 
standards on the international transfer of conventional weapons.
    What is your understanding of the problem of illicit arms 
trafficking in the SOUTHCOM AOR and of SOUTHCOM's role in the U.S. 
efforts to deal with the problem?
    Answer. As I understand it, 45 to 80 million illicit and registered 
small arms and light weapons are in circulation throughout the region. 
The region's generally poor stockpile security and enforcement of arms 
laws, coupled with civil war era weapons surpluses, account for many 
weapons in circulation today. The U.S. firearms market is a major 
source of commercial firearms smuggled into Mexico and Central America. 
Central America is the largest source of illegal weapons transported to 
Colombia, the primary destination for illicit arms in the AOR, but an 
increasing amount of weapons are headed north to transnational criminal 
organizations based in Mexico. Caribbean authorities believe the 
majority of trafficked firearms are concealed in commercial cargo 
shipments. I understand that SOUTHCOM's role is to support law 
enforcement efforts to monitor, detect, and interdict suspected illicit 
arms shipments, primarily through intelligence support and information 
sharing.
    Question. In your view, to what extent, if at all, does the lack of 
national controls and enforcement on arms flows contribute to the 
illicit trafficking problem in the region, and could those response 
efforts be improved if other country's adopted and enforced national 
regulations on arms import, export, and transit similar to those of the 
United States?
    Answer. As I understand it, many factors contribute to the illicit 
trafficking problem in the region, such as porous borders, corruption, 
lack of rule of law, weak institutions, low domain awareness, 
ineffective law enforcement, criminal penetration of government 
institutions, and wide swaths of under governed areas with little to no 
state presence, to list but a few. Partner nation efforts to improve 
and enforce regulations against illicit trafficking and other illegal 
activity such as money laundering could be beneficial, but to be 
effective, these efforts should be complemented with investments by the 
partner nation in other areas, such as strengthening government and 
civilian law enforcement institutions; fostering economic growth to 
promote legitimate alternatives to illicit trafficking; establishing 
effective state presence in under governed areas; and promote anti-
crime initiatives in at-risk communities.
    Question. Do you think an arms trade treaty, such as is being 
contemplated in the United Nations, would enhance SOUTHCOM's efforts in 
the region? What is your view on whether or not the United States 
should be a party to this effort?
    Answer. As I mentioned above, efforts that enhance regional 
security can have a positive impact on partner nation initiatives. As 
this is an international arms trade treaty, I defer matters of foreign 
policy to the Department of State.
                         science and technology
    Question. As with other combatant commands, a science and 
technology (S&T) advisor is assigned to support SOUTHCOM.
    If confirmed, what would be your priorities for the SOUTHCOM S&T 
advisor?
    Answer. If confirmed, my direction to the S&T advisor would be to 
speed fielding of solutions to help address the Command's most pressing 
capability gaps in the detection and monitoring and foreign 
humanitarian and disaster response missions, enhance support to the 
overarching theater campaign plan, and make lasting contributions to 
the broader defense and U.S. S&T enterprise. In my view, technology can 
be leveraged to make our forces, as well as those of our partner 
nations, more effective and efficient.
    Question. DOD has, in recent years, put greater emphasis on 
research and development of persistent intelligence, surveillance, and 
reconnaissance (ISR) capabilities.
    In your view, how can persistent ISR improve operations in the 
SOUTHCOM AOR theater, and how would you utilize new platform and sensor 
technologies?
    Answer. In my view, persistent ISR will help close the current gaps 
in coverage due to limited theater ISR allocations for SOUTHCOM's 
detection and monitoring mission, while also providing DOD, U.S. 
interagency partners, and partner nations with improved domain 
awareness that will enable maximum collective efforts. Illicit 
trafficking is most prevalent in areas that are particularly 
challenging to the D&M mission. These areas include dense jungle 
foliage which conceals illicit activities such as cultivation of 
illicit crops, drug processing laboratories, and the construction of 
semi-submersible (SPSS) and fully submersible vehicles (FSVs); 
expansive river networks and busy littoral routes that serve as a main 
line of communication for transit of illicit traffic; the broad ocean 
passageways used by SPSS and FSV; and lastly the vast network of 
highways and secondary roads that allow traffickers to breach national 
borders undetected. New platform and sensor technologies will need to 
be integrated into a holistic theater ISR architecture that 
incorporates and leverages partner nation and U.S. interagency 
capabilities, and will require inherent automated re-tasking, 
exploitation, fusion and reporting capabilities.
    Question. Do you believe that airship platforms can be effectively 
employed in the SOUTHCOM AOR?
    Answer. Yes, I believe employing these platforms at strategic 
locations inside the theater would bring significant benefits. For 
example, a radar equipped airship would deliver persistent, regional 
coverage of air and maritime activity (accessible by on-line 
information sharing tools), and provide valuable regional domain 
awareness to those countries with very limited to no organic 
capabilities for monitoring these areas. Outfitting these long dwell 
platforms with more advanced sensors will provide a capability to 
detect and monitor the illicit activities of transnational criminal 
organizations in sanctuaries provided by the dense jungle environment, 
riverine, littoral, and broad ocean areas. If confirmed, I look forward 
to identifying opportunities to make SOUTHCOM operations more efficient 
and effective through the use of technology.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of Congress?
    Answer. Yes, I do.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes, I do.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, SOUTHCOM?
    Answer. Yes, I do.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, I do.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, I do.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Carl Levin
                      unified command plan changes
    1. Senator Levin. General Kelly, it has been reported that Admiral 
McRaven, Commander of U.S. Special Operations Command (SOCOM), is 
seeking changes to the Unified Command Plan (UCP) that he believes 
would allow SOCOM to better support the requirements of the Theater 
Special Operations Commands (TSOC). Reportedly, such changes would give 
the Commander of SOCOM combatant command authority over the TSOCs--
including responsibilities for resourcing--and provide for more rapid 
deployment of Special Operations Forces (SOF) to and between geographic 
combatant commands without the requirement for approval by the 
Secretary of Defense in every case. Operational control of deployed 
SOFs would reportedly remain with the respective geographic combatant 
commander.
    Some have expressed concern that such changes could raise problems 
related to civilian control of the military, infringe upon the 
traditional authorities of the geographic combatant commanders, and 
make it more difficult for ambassadors and geographic combatant 
commanders to know what military personnel are coming into their areas 
of responsibility (AOR) and what they are doing while they are there.
    Please provide your assessment of whether such UCP changes are 
appropriate and can be made without conflicting with civilian control 
of the military, infringing upon authorities provided to the geographic 
combatant commanders, or raising concerns with the Department of State.
    General Kelly. The global nature and fluidity of current and future 
security challenges, particularly those presented by non-state actors, 
makes the SOCOM UCP proposal worthy of careful review. Improved 
responsiveness to yet unknown security challenges will be imperative 
for both force providers and the geographic combatant commanders (GCC) 
in the future. It is my understanding that the proponents of assigning 
TSOCs to SOCOM believe it will result in greater responsiveness of SOF 
to developing situations and improve availability of SOF for capacity 
building activities with partner nations. As this proposal is reviewed, 
we must ensure the geographic combatant commands retain the authorities 
commensurate with the responsibilities of a geographic combatant 
commander such as providing the single point of contact on military 
matters within the AOR. Geographic combatant commanders and ambassadors 
will have sufficient awareness of deployed forces and their activities 
so long as geographic combatant commanders--working through their 
military groups embedded within U.S. Embassy country teams--retain 
approval authority for military personnel entering their respective 
AORs. I understand that other issues are still under deliberation and 
discussion within the Department of Defense (DOD).
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
 iranian influence in the u.s. southern command area of responsibility
    2. Senator Lieberman. General Kelly, the influence of Iran and 
Islamist organizations in Latin America has long been a concern, but it 
has taken on increased urgency since the revelation last fall's Iranian 
attempt to assassinate the Saudi Arabian ambassador in Washington with 
the support of Mexican trafficking cartels. According to the current 
Commander of U.S. Southern Command (SOUTHCOM), General Fraser, there is 
evidence of international terrorist groups benefitting from the 
intertwined systems of illicit trafficking and money laundering in the 
SOUTHCOM AOR. In South America, funding for Hezbollah is raised through 
licit avenues, such as charitable donations and illicit means, 
including trafficking in drugs, counterfeit, and pirated goods. Does an 
Iranian and Hezbollah presence in Latin America indicate that their 
ability to materially harm our interests and relationships in the 
region is growing?
    General Kelly. Iran and Hezbollah's bombings in Argentina in 1992 
and 1994 demonstrated their ability to conduct attacks in Latin 
America. Iran and Hezbollah remain capable of conducting operations in 
the region--including assassinations, bombings, and kidnappings--
against United States or partner nation interests.

    3. Senator Lieberman. General Kelly, the Iranian regime attempted 
to utilize contacts in Latin America in its foiled plot to assassinate 
the Saudi Arabian ambassador in Washington last fall. Do you foresee 
other efforts by the Iranian regime or proxy groups like Hezbollah to 
mobilize their general influence in the region to conduct specific 
operations, such as targeted attacks within the United States?
    General Kelly. We remain concerned about the possibility of Iran 
using proxy groups or individuals in the region to conduct targeted 
attacks in the United States.

    4. Senator Lieberman. General Kelly, in light of the assassination 
plot, would you recommend any changes to the scope or priority of U.S. 
partnership and capacity-building activities in the SOUTHCOM AOR?
    General Kelly. I will continuously reassess the influence and 
activities of Iran and Islamic organizations in Latin America and will 
recommend changes to scope and priority of U.S. partnership and 
capacity-building activities in the AOR as appropriate and required.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
                         operations in honduras
    5. Senator McCaskill. General Kelly, recent press stories have 
provided details regarding a Drug Enforcement Agency (DEA) operation in 
Honduras known as Operation Anvil. On several occasions, DEA agents 
have been involved in exchanges of gunfire that have resulted in the 
deaths of suspected drug traffickers. In an incident in May, locals 
claim innocent civilians were killed when their boat was fired on by a 
Department of State helicopter carrying Honduran police. What DOD 
assets are used to support Operation Anvil and other DEA operations in 
Honduras?
    General Kelly. DOD assets used to support Operation Anvil and other 
DEA operations in Honduras are provided primarily by JTF-B located at 
Soto Cano Air Base in Honduras. DOD helicopters assigned to JTF-B can 
provide rotary wing transportation support to U.S. and Honduran Drug 
Law Enforcement personnel. Deployed U.S. SOFs provide training to 
Honduran Police and Military units that have a role in drug law 
enforcement. During Operation Anvil, JTF-B's role was limited to 
logistics and communications support to the interagency at each of 
three forward operating bases. Logistical support included providing 
fuel to DOS helicopters on a reimbursable basis. JTF-B also provided 
rotary lift in support of DEA to administratively transport two human 
remains and contraband, under DEA control, from the interdiction site 
to Tegucigalpa. No DOD assets participate in actual interdiction 
operations within Honduras to include operations during Op Anvil.

    6. Senator McCaskill. General Kelly, are you comfortable with the 
scope of DEA's current operations in the SOUTHCOM AOR?
    General Kelly. Based upon current resourcing, I believe DEA's scope 
of operations in SOUTHCOM's AOR is appropriate.

    7. Senator McCaskill. General Kelly, would these missions more 
appropriately be carried out by U.S. military personnel? If not, why 
not?
    General Kelly. Under current U.S. law and policy, I don't believe 
these missions could be executed better by military personnel. The 
detection and monitoring of aerial and maritime transit of illegal 
drugs into the United States in accordance with title 10 U.S.C. 
Sec. 124 is a DOD mission, however, the actual interdiction of targets 
is a law enforcement function. Military personnel can provide support 
to U.S. and partner nation Drug Law Enforcement Agencies, but law 
enforcement interdiction operations are better, and more appropriately, 
executed by trained enforcement personnel.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                             sequestration
    8. Senator Inhofe. General Kelly, sequestration will be devastating 
to our national defense, the military, and our defense industrial base. 
Could you please explain how sequestration will affect your 
organization?
    General Kelly. The percentage reduction for fiscal year 2013 equals 
the total cut for DOD as a whole ($50-$55) billion) divided by fiscal 
year 2013 new budget authority and prior-year unobligated balances. If 
military personnel funding is exempt, it will be excluded from fiscal 
year 2013 new budget authority. That means everything else is cut more 
and DOD estimates an 8 percent cut with milpers included, 10 percent 
with milpers exempt. The best way to avoid this problem is to turn off 
sequestration for defense and non-defense.

    9. Senator Inhofe. General Kelly, we are already assuming risks 
with the reduction of the DOD budget, but if sequestration takes 
effect, how much more risk would be involved and can we adequately meet 
the requirements of our national defense strategy?
    General Kelly. We are currently performing impact assessments of 
sequestration that consider some of these factors. However, we are 
heavily focused on turning off sequester rather than assessing its 
impact.

              alternative energy and war on global warming
    10. Senator Inhofe. General Kelly, I believe DOD can and should 
improve efficiencies in energy use and expand in the use of alternative 
energy sources; however, it should not come at the cost of manning, 
training, or equipping the force. Do you agree?
    General Kelly. I agree that DOD can and should improve efficiencies 
in energy use and expand in the use of alternative energy sources, but 
it should not necessarily come at the cost of manning, training, or 
equipping the force.

    11. Senator Inhofe. General Kelly, some alternative fuels, such as 
biofuels, cost five to eight times as much as conventional fuels, with 
no guarantee that market forces will bring these costs down. The Navy's 
move to biofuels alone is expected to add $1.8 billion a year in fuel 
costs in for the green fleet. This money will have to be taken from 
other accounts due to decreasing defense budgets. With the continued 
decline of the defense budget over the past 3 years--forcing cuts to 
personnel, ships, and aircraft--what will be the impact of tripling or 
quadrupling your fuel costs?
    General Kelly. Tripling or quadrupling fuel costs or any costs will 
undoubtedly impact operations, training, readiness, and acquisition, as 
money to pay for the increased costs will have to be taken from other 
accounts.
                                 ______
                                 
    [The nomination reference of LtGen John F. Kelly, USMC, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 31, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment to the grade of general 
in the U.S. Marine Corps while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    LtGen John F. Kelly, 0000.

    The nominee has agreed to respond to requests to appear and testify 
before any duly constituted committee of the Senate.
                                 ______
                                 
    [The biographical sketch of LtGen John F. Kelly, USMC, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Resume of Career Service of LtGen John F. Kelly, USMC
Assigned:
    Senior Military Advisor to the Secretary of Defense, March 21, 
2011.

Projected Rotation:
    March 21, 2013.

Date of Rank:
    October 17, 2009.

Date of Birth:
    May 11, 1950.

Date Commissioned:
    December 27, 1975.

MRD:
    June 1, 2014.

Education/Qualifications:
    University of Massachusetts BA, 1976
    Georgetown University MA, 1984
    The Basic School, Quantico, 1976
    Marine Corps Command and Staff College, 1991
    School of Advanced Warfighting, 1992
    National War College, 1995
    CAPSTONE, 2004
    JFLCC, 2006
    Enabling Battle Command Workshop, 2007
    Joint Flag Officer Warfighting Course, 2007
    SENIOR EXECUTIVE EEO SEMINAR, 2010
    Infantry Officer
    Joint Qualified Officer

Commands:
    Commander. Marine Forces Reserve; and Commander. Marine Forces 
North (LtGen: Oct. 09-Mar. 11)
    Deputy Commanding General. I Marine Expeditionary Force (MajGen: 
Apr. 09-0ct. 09)
    Commanding General, I Marine Expeditionary Force (Forward) (MajGen: 
July 07-Apr. 09)
    Assistant Division Commander. 1st Marine Division (BGen: July 02-
July 04)
    Commanding Officer, 1st Light Armored Reconnaissance Battalion 
(LtCol: June 92-May 94)

Joint assignments:
    Special Assistant to the Commander in Chief, SACEUR (Col: Ju1y 99-
July 01)

Service Staff Assignments:
    Legislative Assistant to the Commandant of the Marine Corps (BGen: 
Sep. 04-June 07)
    Assistant Chief of Staff, G-3, 2d Marine Division (Col: July 01-
July 02)
    Director House Liaison Office, Legislative Affairs, HQMC (LtCol/
Col: June 95-June 99)
    Head, Tactics Section, Head, Tactics Group; Director, Infantry 
Officers' Course, The Basic School (Maj: June 87-Aug. 90)
    Operations Officer, 3d Battalion, 4th Marines, 2d Marine Division 
(Maj: Aug. 86-June 87)
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LtGen John F. 
Kelly, USMC, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Francis Kelly.

    2. Position to which nominated:
    Commander, U.S. Southern Command.

    3. Date of nomination:
    January 31, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 11, 1950; Boston, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Karen Hernest Kelly (Maiden name: Hernest).

    7. Names and ages of children:
    Major John Francis Kelly, USMC, age: 32.
    1stLt Robert Michael Kelly, USMC, age: 29 (killed in action in 
Afghanistan, Nov. 9, 2010).
    Kathleen Margaret Kelly, age: 26.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Marine Corps Association.
    1st Marine Division Association.
    Veterans of Foreign Wars.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                         LtGen John F. Kelly, USMC.
    This 28th day of November, 2011.

    [The nomination of LtGen John F. Kelly, USMC, was reported 
to the Senate by Chairman Levin on July 25, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 26, 2012.]
                              ----------                              

    [Prepared questions submitted to LTG Frank J. Grass, ARNG, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the war-fighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Not at this time. Goldwater-Nichols made great strides in 
achieving unity of effort, unity of command, and unity of resources 
among the Services and between the Active and Reserve components of 
each Service. This increased emphasis on jointness among the Services 
empowered the Chairman of the Joint Chiefs of Staff as principal 
military advisor and clarified the roles of the combatant commands. 
These provisions improved the efficiency and effectiveness of the 
Department. The Goldwater-Nichols provisions clarifying the 
responsibility of the Military Departments to recruit, organize, train, 
equip, and maintain forces for assignment to the combatant commands 
confirm the primary role of the Services in these areas, and these 
provisions do not require further clarification or amendment.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If confirmed, I will be alert to any need to modify this 
landmark legislation. I will also continue to work with the Secretary, 
Joint Staff, combatant commands, and Military Departments to continue 
to improve all facets of our Nation's joint operations, to include 
broader interagency coordination in response to emerging domestic and 
world events.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for the position of Chief of the National Guard 
Bureau (CNGB)?
    Answer. I have served in the National Guard for 42 years as both an 
enlisted soldier and an officer. Throughout my career I have traversed 
the spectrum of a National Guardsmen and have served in a variety of 
command and staff positions as a traditional National Guard soldier, in 
the active Guard and Reserve program, and on Active Duty. I have had 
the privilege of previously serving in the National Guard Bureau (NGB) 
as the Deputy Director of the Army National Guard. In my current 
position at U.S. Northern Command (NORTHCOM), I serve as the Deputy 
Commander to a combatant command where I am the principal advisor to 
the commander on all operational matters, providing strategic guidance 
to plan and execute missions within the area of responsibility. This 
includes air, land, maritime, ballistic missile defense and cyber 
Homeland defense operations, as well as Defense support of civil 
authorities and theater security cooperation. I am also the Vice 
Commander for the U.S. Element at North American Aerospace Defense 
Command where I work in close collaboration with Homeland defense, 
security, and law enforcement partners to prevent air attacks against 
North America, safeguarding the sovereign airspaces of the United 
States and Canada. Between my current assignment and previous time at 
U.S. European Command as the Director for Mobilization and Reserve 
Component Affairs, I have over 5 years of joint time. The combination 
of all of these experiences and my deep respect for the role of the 
citizen-soldier in American history will enable me to lead the NGB.
                         vision for the future
    Question. What is your vision for the National Guard of today and 
the future?
    Answer. My vision for the National Guard of today and the future is 
a high quality, efficient, operational force for both the Homeland and 
overseas missions consisting of citizen-soldiers and airmen that are an 
integral member of the Total Force. My vision includes a superb 
partnership between the NGB and the Adjutants General, allowing for 
more effective and efficient domestic response. I foresee a force that 
is an excellent steward of the Department of Defense's (DOD) resources, 
one that is able to effectively meet the full spectrum of the 
Department's requirements. Most importantly, my vision for the National 
Guard includes taking care of our soldiers and airmen to keep faith 
with our All-Volunteer Force.
    Question. What roles do you believe the National Guard should play 
in combat, humanitarian, and stability operations?
    Answer. The National Guard, as an integral member of the Total 
Force, should play a role across the full spectrum of operations 
including combat, humanitarian, and stability operations.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next CNGB?
    Answer. The National Guard must retain an experienced force through 
dynamic training opportunities and stability operations. Persistent and 
changing threats to the homeland, including cyber attacks, coupled with 
unsettled conditions worldwide and a constrained budget will be the 
major challenges confronting the next CNGB. Indeed, the structure and 
organization of all of the Armed Forces will be impacted by budgetary 
matters and hard choices will have to be made.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will work closely with Congress, the 
leadership of DOD, and the Military Departments to ensure the National 
Guard remains an operational force that can swiftly provide ready 
trained forces to respond to the full spectrum of domestic and overseas 
contingencies while retaining the cost-effective, part-time nature of 
the National Guard. I will closely monitor the National Guard's 
stewardship of the Department's resources. If confirmed, I will 
continue to review the NGB's organization to ensure it is equipping the 
Chief to effectively participate on the Joint Chiefs of Staff. I will 
continue to seek ways to improve the channel of communications between 
the States and the Department.
                                 duties
    Question. Section 10502 of title 10, U.S.C., provides that the CNGB 
is: (1) a principal advisor to the Secretary of Defense, through the 
Chairman of the Joint Chiefs of Staff, on matters involving non-
Federalized National Guard forces and on other matters as determined by 
the Secretary of Defense; and (2) the principal adviser to the 
Secretary of the Army and the Chief of Staff of the Army, and to the 
Secretary of the Air Force and the Chief of Staff of the Air Force, on 
matters relating to the National Guard, the Army National Guard of the 
United States, and the Air National Guard of the United States.
    If confirmed, how do you plan to carry out these responsibilities?
    Answer. As a principal advisor to the Secretary of Defense, through 
the Chairman of the Joint Chiefs of Staff, on matters involving non-
Federalized National Guard forces and on other matters as determined by 
the Secretary of Defense; and as the principal adviser to the Secretary 
of the Army and the Chief of Staff of the Army, and to the Secretary of 
the Air Force and the Chief of Staff of the Air Force, on matters 
relating to the National Guard, the Army National Guard of the United 
States, and the Air National Guard of the United States, if confirmed I 
intend to communicate, coordinate, and collaborate with our partners 
across the Federal and State spectrum to ensure our Nation's wartime 
and domestic requirements are ably answered by the men and women of the 
National Guard.
    Question. What will be the role of the Director of the Army 
National Guard and the Director of the Air National Guard in the 
performance of these duties?
    Answer. If confirmed, I will continue the close partnerships 
between the CNGB and the Directors established by my predecessors in 
order to perform the duties of the CNGB with regard to the Services 
prescribed by law and policy. Both Lieutenant General Ingram and 
Lieutenant General Wyatt have tremendous experience in their respective 
Services. I will rely upon them and their staffs to provide me expert 
assistance and leadership in carrying out the functions of the NGB.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the CNGB?
    Answer. If confirmed, I look forward to continuing the process 
undertaken by General McKinley to evolve the management structure and 
processes of the NGB, as the Bureau--like all DOD organizations--adapts 
to significant changes in the operating and resource environments. The 
Bureau's evolution will likely address key opportunities and 
challenges, including: (a) implementing the statutory requirement to 
participate effectively in the advisory and assessment processes of the 
Joint Chiefs of Staff, as reflected in recent amendments to title 10 
U.S.C. 151 and title 10 U.S.C. 10502; (b) continuing to improve the 
resource management capabilities of the National Guard to support the 
Army and Air National Guard and the States in providing effective 
stewardship of DOD resources; and (c) providing an effective and timely 
channel of communication between DOD and the States, even as the 
overall DOD resource environment evolves and Homeland defense and civil 
support requirements continue to increase.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I intend to expeditiously complete a thorough 
review of the status of the many management actions currently underway 
at the NGB, in close consultation with the Directors of the Army and 
Air National Guard, the State Adjutants General, my colleagues on the 
Joint Chiefs of Staff, and other interested parties.
    Question. If confirmed, what broad priorities will you establish?
    Answer. If confirmed, I intend to work closely with the Secretary 
of Defense, the Secretary of the Army, and the Secretary of the Air 
Force to lay out the priorities for the National Guard within the 
framework of the broader vision discussed above. Here are my 
priorities:

    (1)  Develop and articulate a vision and strategy for the National 
Guard that effectively addresses the security needs of the Nation;
    (2)  Increase shared awareness and common purpose through more 
structured interactions between the CNGB and the Adjutants Generals;
    (3)  Take care of our soldiers and airmen by keeping faith with our 
All-Volunteer Force;
    (4)  Review, analyze, outline, and implement tangible methods to 
make our organization more efficient and effective in all processes;
    (5)  Ensure that the NGB operates as a highly effective joint 
organization and that a realigned NGB staff provides the support 
necessary to enable the CNGB to fully participate as a valued member of 
the JCS team;
    (6)  Ensure that the CNGB always has full situational awareness so 
as to provide our Nation's leaders with accurate and timely military 
advice related to National Guard capabilities;.
    (7)  Improve stewardship of the DOD resources entrusted tor the 
National Guard.

    Question. Sections 151(a) and 10502(d) of title 10, U.S.C., 
includes the CNGB as a member of the Joint Chiefs of Staff with the 
specific responsibility of addressing matters involving non-Federalized 
National Guard forces in support of Homeland defense and civil support 
missions.
    If confirmed, how do you plan to carry out these responsibilities?
    Answer. The key to being a successful advisor on matters regarding 
critical homeland defense and civil support missions will be the 
effective operation of the NGB and an open and productive partnership 
with the Adjutants General and the Services. If confirmed I plan to 
carry out these responsibilities by continuing to develop my 
relationships with the Adjutants General and the Services, as I have 
had the honor to do in past years as the Deputy Commander at NORTHCOM. 
I will also build upon the successes of my predecessor, General 
McKinley, with the intent of enabling the NGB to provide greater 
clarity in expressing requirements and risks associated with National 
Guard roles, missions and resources in Joint Chiefs of Staff assessment 
and advisory processes. This includes providing a trained and joint 
qualified NGB staff support to the Joint Staff; equipping the CNGB to 
provide the Joint Staff with more timely and accurate information 
regarding National Guard capabilities; and improving the CNGB's ability 
to manage resources across the National Guard to accomplish assigned 
homeland defense and civil support missions while always maintaining 
capabilities for full spectrum operations. Finally I will draw upon my 
years of experience in the National Guard to provide my best 
independent military advice to the Secretary of Defense, Congress, and 
the President.
    Question. In carrying out these duties, what would be your 
relationship with the following officials?
    The Secretary of Defense.
    Answer. The Secretary of Defense is the principal assistant to the 
President in all matters relating to DOD. He has authority, direction, 
and control over DOD. If confirmed, I will act as a principal advisor 
to the Secretary of Defense through the Chairman of the Joint Chiefs of 
Staff on matters involving non-Federalized National Guard forces and 
through other DOD officials as determined by the Secretary of Defense 
or as directed by law or policy. I will serve as the channel of 
communications on all matters pertaining to the National Guard between: 
(1) the Secretary of Defense, the Chairman of the Joint Chiefs of 
Staff, and the DOD components; and (2) the States. If confirmed, as a 
member of the Joint Chiefs of Staff, I will serve as a military adviser 
to the Secretary of Defense as appropriate. I will cooperate fully with 
the Secretary of Defense to ensure that the NGB properly implements the 
policies established by his office.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. Subject to the authority, direction, and 
control of the President and the Secretary of Defense, the Chairman 
plans the strategic direction and contingency operations of the Armed 
Forces; advises the Secretary of Defense on requirements, programs, and 
budgets that the combatant command commanders identify; develops 
doctrine for the joint employment of the Armed Forces; reports on 
assignment of functions (or roles and missions) to the Armed Forces; 
provides for representation of the United States on the Military Staff 
Committee of the United Nations; and performs such other duties as the 
law or the President or Secretary of Defense may prescribe. In 
conjunction with the other members of the Joint Chiefs, the CNGB 
assists the Chairman in providing military advice to the President, the 
National Security Council, and the Secretary of Defense. If confirmed, 
it would be my duty as a member of the Joint Chiefs of Staff to provide 
frank and timely advice and opinions to the Chairman to assist him in 
his performance of these responsibilities I will establish and maintain 
a close and professional relationship with the Chairman, and I will 
communicate directly and openly with him on any policy matters 
impacting the National Guard and the Armed Forces as a whole.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs such duties and 
exercises such powers as the Secretary of Defense may prescribe. The 
Secretary of Defense also delegates to the Deputy Secretary of Defense 
full power and authority to act for the Secretary of Defense and 
exercise the powers of the Secretary on any and all matters for which 
the Secretary is authorized to act pursuant to law. If confirmed, I 
will be responsible to the Secretary of Defense, and to his deputy, for 
the operation of the NGB in accordance with the Secretary's guidance 
and direction. I will communicate with the Deputy Secretary in order to 
provide advice and guidance required by law or delegated by policy.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Under Secretary of Defense for Personnel and 
Readiness shall perform such duties and exercise such powers as the 
Secretary of Defense may prescribe in the areas of military readiness, 
total force management, military and civilian personnel requirements, 
military and civilian personnel training, military and civilian family 
matters, exchange, commissary, and nonappropriated fund activities, 
personnel requirements for weapons support, National Guard and Reserve 
components, and health affairs. The Under Secretary of Defense for 
Personnel and Readiness is responsible, subject to the authority, 
direction, and control of the Secretary of Defense, for the monitoring 
of the operations tempo and personnel tempo of the Armed Forces. The 
Under Secretary shall establish, to the extent practicable, uniform 
standards within DOD for terminology and policies relating to 
deployment of units and personnel away from their assigned duty 
stations (including the length of time units or personnel may be away 
for such a deployment) and shall establish uniform reporting systems 
for tracking deployments. If confirmed, I will coordinate with the 
Under Secretary of Defense for Personnel and Readiness, the Assistant 
Secretary of Defense for Reserve Affairs, and in consultation with the 
Secretaries of the Army and the Air Force, to ensure the effective 
integration of National Guard capabilities into a cohesive Total Force. 
I will also coordinate with the Under Secretary of Defense for 
Personnel and Readiness, the Assistant Secretary of Defense for Reserve 
Affairs, in consultation with the Secretaries of the Army and the Air 
Force, in developing statutory changes, policies, and procedures 
affecting federally funded National Guard forces under State Governor 
command.
    Question. The Assistant Secretary of Defense for Reserve Affairs.
    Answer. The Assistant Secretary of Defense for Reserve Affairs is 
the principal advisor to the Secretary of Defense and the Under 
Secretary of Defense for Personnel and Readiness for Reserve component 
matters in DOD. The Assistant Secretary of Defense for Reserve Affairs 
is responsible for overall supervision of all Reserve component affairs 
in DOD. If confirmed, I will coordinate closely with the Assistant 
Secretary of Defense for Reserve Affairs, in consultation with the 
Secretaries of the Army and the Air Force, to ensure the effective 
integration of National Guard capabilities into a cohesive Total Force. 
I will also coordinate closely with the Assistant Secretary of Defense 
for Reserve Affairs and the Assistant Secretary of Defense for Homeland 
Defense and Americas' Security Affairs, in consultation with the 
Secretaries of the Army and the Air Force, in developing statutory 
changes, policies, and procedures affecting federally funded National 
Guard forces under State Governor command.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs, under the authority, direction, and control 
of the Under Secretary of Defense for Policy, serves as the principal 
civilian advisor to the Secretary of Defense and the Under Secretary of 
Defense for Policy on Homeland defense activities, Defense Support of 
Civil Authorities and Western Hemisphere security matters. If 
confirmed, I will coordinate closely with the Assistant Secretary of 
Defense for Homeland Defense and Americas' Security Affairs regarding 
the use of National Guard personnel and resources for operations 
conducted under title 32, U.S.C., or in support of State missions. I 
will assist the Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs in carrying out his responsibilities of 
incorporating the roles and responsibilities of the NGB and the 
National Guard pertaining to the use of National Guard forces under 
both Federal and non-Federal control in DOD policy and of representing 
DOD in interagency, national, and international forums concerning 
policy for those same matters.
    Question. The General Counsel of the Department of Defense.
    Answer. The General Counsel of DOD is the chief legal officer of 
DOD. If confirmed, I will ensure that, in the performance of their 
duties, all officials and personnel of the NGB comply fully with 
applicable DOD legal opinions. I will coordinate with the General 
Counsel of DOD, as appropriate, regarding general legal issues, 
specific legal problems, specific legal disagreements, and any other 
matter requiring, by law or policy, action by the General Counsel.
    Question. The combatant commanders, particularly the Commander of 
NORTHCOM.
    Answer. Subject to the direction of the President, the combatant 
commanders perform their duties under the authority, direction, and 
control of the Secretary of Defense, and are directly responsible to 
the Secretary of Defense for their commands' preparedness to execute 
missions assigned to them. As directed by the Secretary of Defense, the 
Service Secretaries assign all forces under their jurisdiction to the 
unified and specified combatant commands or to the U.S. element of the 
North American Aerospace Defense Command, to perform missions assigned 
to those commands. In addition, subject to the authority, direction, 
and control of the Secretary of Defense and the authority of combatant 
commanders under title 10, U.S.C., section 164(c), the Service 
Secretaries are responsible for administering and supporting the forces 
that they assign to a combatant command. If confirmed, I will establish 
close relationships with the combatant commanders and serve as an 
advisor to them on National Guard matters pertaining to their combatant 
command missions and support planning and coordination for such 
activities as requested by the Chairman of the Joint Chiefs of Staff or 
the commanders of the combatant commands. I will ensure open lines of 
communication with the combatant commanders relating to homeland 
defense, defense support of civil authorities, routine planning and 
execution of the State Partnership Program (SPP), and other matters 
delegated to me in law or policy. I will assist the Secretary of 
Defense in facilitating and coordinating with NORTHCOM, U.S. Southern 
Command, and U.S. Pacific Command the use of National Guard personnel 
and resources for operations conducted under title 32 or in support of 
State missions. With regard to the Commander of NORTHCOM, I will 
continue my close partnership with the current Commander and will 
ensure to establish and maintain a similar partnership with any future 
Commanders of NORTHCOM. In coordination with the Commander, NORTHCOM, I 
will advocate for National Guard defense support of civil authorities 
requirements for domestic operations and theater security cooperation 
in DOD's capabilities development, requirements generation and 
validation, programming systems, and for other National Guard 
requirements that pertain to other combatant commands. I will also 
coordinate with the Commander, NORTHCOM, regarding my communications 
with the Department of Homeland Security on matters of Homeland defense 
and defense support of civil authorities policy and resource 
allocation.
    Question. The Assistant Secretaries in the Military Departments 
responsible for Reserve matters.
    Answer. The Assistant Secretaries in the Military Departments 
responsible for Reserve matters shall have as their principal duty the 
overall supervision of manpower and Reserve component affairs of their 
respective Military Departments. If confirmed, I will establish a close 
working partnership with the assistant secretaries. As directed by the 
Secretary of Defense and the Service Secretaries, I will coordinate 
with the assistant secretaries those matters requiring Service action 
or coordination that have been assigned or delegated to the assistant 
secretaries in law or policy.
    Question. The Directors of the Army National Guard and the Air 
National Guard.
    Answer. The Director of the Army National Guard and the Director of 
the Air National Guard shall assist the CNGB in carrying out the 
functions of the NGB as they relate to their respective branches. The 
Office of the Director, Army National Guard is composed of the 
Director, Army National Guard; Deputy Director, Army National Guard; 
Executive Office; the Army National Guard Readiness Center; and 
appropriate operating divisions as may be prescribed. The Office of the 
Director, Air National Guard is composed of the Director, Air National 
Guard; Deputy Director, Air National Guard; Executive Office; the Air 
National Guard Readiness Center; and appropriate operating divisions as 
may be prescribed. If confirmed, I will continue the close 
relationships between the CNGB and the Directors established by my 
predecessors in order to perform the duties of the Chief with regard to 
the Services prescribed by law and policy.
    Question. The assistants to the Chairman of the Joint Chiefs of 
Staff for Guard and Reserve Matters.
    Answer. Established by law in 1998, the assistants to the Chairman 
of the Joint Chiefs of Staff for National Guard and Reserve Matters 
serve the Chairman and coordinate with the Joint Staff. The assistant 
to the Chairman for National Guard Matters is an adviser to the 
Chairman on matters relating to the National Guard and performs the 
duties prescribed for that position by the Chairman. The assistant to 
the Chairman for Reserve Matters is an adviser to the Chairman on 
matters relating to the Reserves and performs the duties prescribed for 
that position by the Chairman. If confirmed, and in coordination with 
the Chairman of the Joint Chiefs of Staff, I will closely coordinate 
with the assistants to ensure they are fully informed and able to 
provide the best advice based on the most current information. In the 
National Guard and Reserve Matters role, the assistants are in unique 
positions to interface both with the Chairman's staff and Guard and 
Reserve staffs. Their access enables them to identify and advise when 
issues are diverging or potential misunderstandings have or are about 
to arise. They are valuable liaisons who contribute insights and 
provide timely subject matter expertise on Reserve component issues. As 
such, I envision no change to the collaborative relationship with them, 
and foresee their staff teaming with the NGB staff with a common 
purpose.
    Question. The Chiefs of Reserves of each of the Services.
    Answer. The Chiefs of the Service Reserves are the principal 
advisors to the Service Secretaries on Reserve matters. If confirmed, I 
will closely coordinate with the Chiefs matters concerning or affecting 
the National Guard that have implications across all Reserve 
components.
    Question. The Reserve Forces Policy Board.
    Answer. The Reserve Forces Policy Board serves as an independent 
adviser to the Secretary of Defense to provide advice and 
recommendations to the Secretary on strategies, policies, and practices 
designed to improve and enhance the capabilities, efficiency, and 
effectiveness of the Reserve components. If confirmed, and at the 
request of the Service Secretaries, I will nominate officers or retired 
officers of the Army and Air National Guard for recommendation by the 
Service Secretaries to the Secretary of Defense for appointment to the 
Board. Upon request of the Secretary of Defense, I will nominate 
officers of the Army and/or Air National Guard to serve as Board 
members or as staff to the Board. Upon the request of the Board, I will 
make available members of the NGB or of the National Guard available as 
witnesses or subject matter experts to assist the Board in performing 
its functions.
    Question. The State and Territorial Governors.
    Answer. Although a matter of State or Territorial law, generally, 
the Governor acts as commander in chief of the National Guard of that 
jurisdiction. If confirmed, I will act as the channel of communication 
between the States and the Departments of the Army and Air Force for 
all matters involving the National Guard. I will act as the focal point 
at the strategic level for National Guard matters that are not under 
the authority and direction of the Secretaries of the Army and Air 
Force, including joint, interagency, and intergovernmental matters 
where NGB acts through other DOD officials as specified in law or 
policy. I will assist the Governors at their request, both individually 
and collectively, regarding specific National Guard matters of concern. 
Upon request of the Secretary of Defense, I will participate in the 
meetings of the Council of Governors and exchange views regarding the 
matters delineated in E.O. 13528.
    Question. The Adjutants General of the States and Territories.
    Answer. There is an Adjutant General in each State, the 
Commonwealth of Puerto Rico, the District of Columbia, Guam, and the 
Virgin Islands. The Adjutant General performs the duties prescribed by 
the laws of that jurisdiction. The Adjutant General of each State, the 
Commonwealth of Puerto Rico, the District of Columbia, Guam, and the 
Virgin Islands, shall make such returns and reports as the Secretary of 
the Army or the Secretary of the Air Force may prescribe, and shall 
make those returns and reports to the Secretary concerned or to any 
officer designated by him. If confirmed, I will establish a close 
relationship with each Adjutant General; that Adjutant General (or, in 
the case of the District of Columbia, the Commanding General) will 
serve as the focal point for communications between the State, 
Territory, or District, and the NGB.
    Question. Do you believe that the statutory designation of the CNGB 
as a member of the Joint Chiefs of Staff has materially changed how the 
Chief participates, or should participate, in major force structure 
decisions by DOD, including decisions relating to the disposition of 
military personnel or property? If so, please explain.
    Answer. Addition of the CNGB as a statutory member of the Joint 
Chiefs of Staff requires the Chief to fully participate and contribute 
effectively to the assessment and advisory processes of the Joint 
Chiefs of Staff. The NGB has undertaken Project Muster, a collaborative 
effort recently briefed to the Joint Chiefs, to identify and implement 
the actions required to enable the Chief of the NGB to better fulfill 
these statutory responsibilities, without requiring additional staff or 
resources at the Bureau. I expect that the Project Muster initiatives, 
which include revisions in the staff processes and organization of the 
NGB, will provide a framework for complying fully with the recent 
changes to sections 151 and 10502 of title 10, U.S.C.
    The statutory designation of the CNGB as a member of the Joint 
Chiefs of Staff clarifies and enhances the ability of the CNGB to 
participate fully in all Joint Chiefs of Staff advisory and assessment 
processes, including those related to resource requirements and 
priorities. If confirmed, I look forward to working with the members of 
the Joint Chiefs of Staff, the Joint Staff, and the State Adjutants 
General as a full participant in these joint processes.
                           roles and missions
    Question. Some have expressed concern about the use of the Reserve 
components as an operational reserve and the regular mobilizations of 
National Guard members.
    Do you believe that the use of Reserve components as an operational 
reserve and regularly mobilizing the National Guard is an appropriate 
use of these forces?
    Answer. Over the last decade, the Reserve components have evolved 
into an operational force. The Army and Air National Guard are now a 
more ready and more rapidly deployable force. The soldiers and airmen 
of the National Guard have proven they are an operational force and a 
critical component of DOD warfighting capability. This investment and 
experience should not be squandered.
    The National Guard has a unique dual role, but first and foremost 
the Army and Air National Guards are Reserve components of the Active 
Army and Air Force. The National Guard trains and equips its soldiers 
and airmen to support the defense strategy as an operational force that 
is regularly mobilized. Regularly mobilizing the National Guard is a 
logical and appropriate use of the force, particularly if the Active 
components downsize and budgets are constrained.
    Question. Do you think the role of the Reserve components should 
change, and, if so, how?
    Answer. The Reserve components should remain an operational force, 
fully integrated into the Active components.
    Question. Are you concerned that such use will have an adverse 
effect on recruiting and retention in the National Guard?
    Answer. In my experience, National Guardsmen feel as if they are 
part of the Total Force. Since September 11 the National Guard's 
contributions have strengthened that belief and have led to historic 
recruiting and retention levels.
    Question. If confirmed, what actions will you take to enhance 
recruiting and retention of experienced members of the National Guard?
    Answer. The National Guard is made-up of seasoned combat veterans 
and has historically high retention levels. In a time of constrained 
budgets it is important that experience is retained and that only the 
most highly qualified individuals are recruited. If confirmed, I will 
review any impediments to those goals and work with the Military 
Departments to determine if the National Guard is the best place for 
separating Active component servicemembers.
         national commission on the structure of the air force
    Question. Included in the fiscal year 2013 budget request was a 
plan by the Air Force to retire or realign various aviation units, and 
to cut 9.9 thousand personnel from the rolls, including 3.9 thousand 
Active Duty personnel, 5.1 thousand from the Air National Guard and 0.9 
thousand from the Air Force Reserve. These changes would represent a 
reduction of 1.2 percent, 4.8 percent, and 1.3 percent, respectively, 
of force structure for each component. Instead of adopting this 
recommendation, the Armed Services Committee instead recommended 
establishment of a national commission on the structure of the Air 
Force to provide alternative recommendations to Congress.
    What are your views on the relative balance of the proposed Air 
Force reductions, with the heaviest proportional cut falling to the Air 
National Guard?
    Answer. The National Guard and Reserve components have demonstrated 
that they are an invaluable resource to DOD. The Air National Guard in 
particular provides all aspects of support to the Air Force, including 
combat and mobility aircraft. While the entire Department looks to 
address constrained budgets, decisions must be based on their impact to 
the new defense guidance. A pure numbers approach to balancing the 
force does not guarantee the best measure to achieve our national 
security goals.
    Question. What level of input should the CNGB have on force 
structure or resource allocations within the Military Departments, and 
how should those recommendations be made?
    Answer. The CNGB, with assistance from the Directors of the Army 
and Air National Guard, provides input on force structure and resource 
allocations to the Military Departments. The Directors of the Army and 
Air National Guard and their directorates represent the National Guard 
within the internal deliberations of the respective Military 
Departments. The Directors, as general officers within their Military 
Departments, are the best advocates to discuss force structure and 
resource allocations and present National Guard recommendations.
               enhanced reserve mobilization authorities
    Question. In the National Defense Authorization Act for Fiscal Year 
2012, Congress authorized the Service Secretaries to order units of the 
Selected Reserve to Active Duty in support of pre-planned missions in 
support of combatant commands for up to 365 consecutive days (title 10 
U.S.C. 12304b). In the new defense strategy announced in January, the 
President and Secretary of Defense stated that while conventional 
ground forces will be reduced, a key component of the new strategy is 
establishment of a rotational presence in Europe, the Middle East, and 
anywhere U.S. interests are threatened or can potentially be promoted.
    What is your assessment of the Reserve component in general, and 
the National Guard in particular, as an operational reserve and how it 
will fit into this new paradigm of forces rotating into and out of 
multiple locations of strategic interest?
    Answer. The Reserve components in general, and the National Guard 
in particular, are well suited to remain an operational force and 
support the new defense guidance on a rotational basis. Over the last 
decade, both the Army and Air National Guard have demonstrated their 
ability to deploy and project power around the globe. While providing 
forces for Overseas Contingency Operations, the National Guard has also 
deployed around the world to support every combatant commander. The 
National Guard's experience providing forces to the Multinational Force 
and Observers in the Sinai and as part of the Kosovo Force mission 
provide a template for rotating National Guard units into and out of 
multiple locations of strategic interest.
    Question. Do you see a role for National Guard units as rotational 
forces using this new authority? If so, what is your understanding and 
assessment of that role?
    Answer. The changes made in the National Defense Authorization Act 
for Fiscal Year 2012, that authorize the Service Secretaries to order 
units of the Selected Reserve to Active Duty in support of pre-planned 
missions in support of combatant commands for up to 365 consecutive 
days has made the National Guard more accessible for predictable, 
operational missions. With the implementation of the Army Force 
Generation (ARFORGEN) cycle as well as this new law, the Nation's 
leaders now have greater flexibility, predictability and choice in how 
they deploy Reserve component forces. It is my hope to see National 
Guard units deployed to locations of strategic interest in the same 
roles that Active component units would fill.
    Question. In light of the new defense strategy, do you believe the 
size and the makeup of the National Guard are appropriate?
    Answer. If confirmed, I will review proposed requirements and 
missions, domestically and abroad, at which time I will be better able 
to fully comment on the size and makeup of the National Guard.
    Question. Congress also authorized the Secretary of Defense to 
order Army Reserve, Navy Reserve, Marine Corps Reserve, and Air Force 
Reserve units and members not assigned to units to Active Duty for up 
to 120 days in response to a Governor's request for Federal assistance 
in responding to a major disaster or emergency. The legislation 
provides that when these forces, Active-Duty Forces, and the National 
Guard are employed simultaneously in support of civil authorities, 
appointment of a dual-status commander should be the usual and 
customary command and control arrangement.
    What is your view of this authority?
    Answer. The authority to use the capabilities inherent in all the 
Reserve components can only enhance the Department's ability to provide 
support to civil authorities. The National Guard will remain the 
primary military force to respond to domestic emergencies and support 
the Nation's Governors. This additional authority retains the usual and 
customary command and control arrangement and supports the principles 
of federalism enshrined in the Constitution while assuring that all DOD 
assets are available during a major disaster or emergency.
    Question. In your view, can a single officer serve in both a State 
and Federal capacity and effectively exercise both State and Federal 
responsibilities?
    Answer. My current assignment as the Deputy Commander of NORTHCOM 
has provided the opportunity to see first-hand that a single officer 
can serve in both a State and Federal capacity and effectively exercise 
both responsibilities. National Guard and Active component officers 
regularly work as one-integrated-unit while deployed overseas. This 
spirit of partnership functions just as well during domestic events.
    A single officer, serving in both a State and Federal capacity 
reinforces the Federal system while mitigating the complications that 
arise during domestic operations. A trained dual-status commander can 
navigate the two distinct chains of command flowing from separate 
sovereign authorities. These commanders are able to provide State 
authorities with information about Federal capabilities and provide a 
local knowledge base to Federal authorities. In exercising both State 
and Federal responsibilities, Dual Status Commanders ensure both 
National Guard and title 10 forces work in concert.
    Question. In your view, what are the advantages and risks of such 
an arrangement?
    Answer. The statutory authority which allows a National Guard 
officer to serve in both a Federal and State status while serving on 
active duty in command of a National Guard unit provides unity of 
effort and facilitates the maintenance of a common operating picture 
for both the Federal and State military chains of command. This command 
option provides operational flexibility for commanders, increasing the 
capabilities that are available to respond to domestic crises. As the 
Deputy Commander at NORTHCOM, I had the opportunity to witness the 
success of this concept when it was exercised. The concept, however, 
requires Secretary of Defense authorization so one of the risks would 
be whether we are able to implement this concept quickly enough to be 
operationally effective. This risk has been mitigated in many cases 
with the selection and extensive training of contingent Dual Status 
Commanders. If confirmed, I will review the current application of this 
concept to determine how it may be optimized.
    Question. If confirmed, what actions will you take to minimize the 
risk?
    Answer. If confirmed, I will work with Congress, NORTHCOM, the 
Military Departments, and the Nation's Governors to promote robust 
training and education experiences for all parties involved in domestic 
responses.
                   homeland defense and civil support
    Question. The Commission on the National Guard and Reserves 
recommended that DOD determine the existing capabilities of the Active 
and Reserve components that could fulfill civil support requirements 
and rebalance them where appropriate, shifting capabilities determined 
to be required for State-controlled response to domestic emergencies to 
the National Guard, and shifting capabilities currently resident in the 
National Guard that are not required for its state missions but are 
required for its Federal missions either to the Federal Reserve 
components or to the Active Duty military.
    What do you see as the appropriate role of the National Guard in 
homeland defense and civil support?
    Answer. The National Guard is the primary military force in 
homeland defense and civil support. The National Guard protects the 
Homeland and provides support to civil authorities in State Active 
Duty, title 32, and title 10 statuses. The National Guard is a resource 
to both State and Federal authorities. When called-upon by Governors, 
the National Guard supports a myriad of domestic events and supports 
first-responders. As the Deputy Commander of NORTHCOM, I have also seen 
the National Guard defend the Homeland as a Federal force on our 
borders and in the skies.
    The National Guard must retain its dual role as our Nation's only 
military force with both State and Federal functions. In this capacity 
the National Guard provides an unrivaled resource for the States and 
provides the connective tissue between the military and the American 
people.
    Question. Do you agree with the recommendation of the Commission on 
the National Guard and Reserves to rebalance the capabilities of the 
National Guard, shifting some capabilities to the Federal Reserve 
components or to the Active Duty military?
    Answer. Having served as the Deputy Commander at NORTHCOM I have an 
appreciation for the requirements of the combatant commands. If 
confirmed, I will study the requirements needed within the States and 
seek guidance from the Adjutants General to develop a complete 
understanding of the capabilities need within the National Guard.
    Question. What capabilities, if any, should receive increased 
emphasis in the National Guard?
    Answer. While serving as the Deputy Commander of NORTHCOM, I was 
involved in the planning and execution of Federal missions in support 
of civil authorities. If confirmed, I will review all National Guard 
capabilities and requirements including those in support for Federal 
and State missions to ensure the optimal balance among State and 
Federal capabilities.
    Question. What capabilities currently resident in the National 
Guard can we afford to trade for increasing emphasis on higher priority 
missions?
    Answer. If confirmed, and in partnership with the Directors of the 
Army/Air National Guard, and the Adjutants General, we will 
comprehensively review if the National Guard can afford to trade 
missions for increasing emphasis on higher priority missions?
        combat and civil support roles of the reserve component
    Question. In an April 21, 2008, letter to the committee, then-
Chairman of the Joint Chiefs of Staff, Admiral Michael Mullen, provided 
an assessment of the final report of the Commission on the National 
Guard and Reserves. Admiral Mullen wrote, ``I have some concern with 
the Commission's ideas on enhancing the Defense Department's Role in 
the Homeland. While Reserve component civil support requirements are 
important, they should not be of equal importance to DOD combat 
responsibilities.''
    Do you agree with Admiral Mullen's view?
    Answer. The new defense guidance recognizes that ``threats to the 
homeland may be highest when U.S. forces are engaged in conflict with 
an adversary abroad.'' This statement encapsulates the evolving and 
asymmetric threats our Nation faces, and it reiterates the importance 
of the Homeland defense mission. Each mission is important, and in many 
instances the capabilities and responsibilities required for one 
mission compliment the other. Further, these missions are intertwined 
and should not be viewed as separate and distinct responsibilities, but 
rather they are supportive of each other.
   relationship between the national guard and u.s. northern command
    Question. You have served as both the Deputy Commander and the 
Director of Operations of NORTHCOM and you are keenly aware of the 
importance of having a close and collaborative relationship between 
NORTHCOM and the NGB and the State National Guard forces, particularly 
in relation to defense support to civil authorities missions.
    If confirmed, how would you seek to maintain and improve the 
relationship between the NGB and NORTHCOM, particularly the planning, 
coordination, and collaboration among NORTHCOM, the NGB and the State 
National Guard forces?
    Answer. If confirmed, I will continue the strong partnership that 
the NGB, NORTHCOM, and the Adjutants General have formed. Planning, 
coordination, and collaboration are imperative to maintain a first-rate 
capability to provide support to civil authorities. I will follow the 
precedent set by General McKinley and continue regular conversations 
with the Commander of NORTHCOM. I will also continue NGB participation 
in domestic preparedness workshops, readiness exercises, and training 
with local and State responders to ensure a whole-of-government, whole-
of-community approach to domestic response.
            weapons of mass destruction civil support teams
    Question. The DOD Inspector General recently issued a report that 
found inadequate oversight of the National Guard's Weapons of Mass 
Destruction Civil Support Teams (WMD-CSTs) and recommended improvements 
for the NGB oversight of the WMD-CSTs.
    Do you agree that it is important to ensure that the NGB provides 
strong oversight of its WMD-CSTs?
    Answer. Yes. I feel that it is imperative that the NGB continue to 
provide strong oversight of these State assets consistent with both 
congressional and DOD intent and directives, as well as, published 
Bureau guidance. During my time as Deputy Commander of NORTHCOM, I have 
seen the importance of WMD-CST Programs. These elements play an 
important role in supporting our Nation's first responders for actual 
or suspected chemical, biological, chemical or radiological incidents 
and serving as the lead military response unit for the Department's 
Chemical, Biological, Radiological, Nuclear, and High Explosives 
Response Enterprise forces.
    If confirmed, I will continue to utilize existing policies, plans 
and procedures to provide oversight of these assets. I will continue to 
monitor the monthly readiness status of each WMD-CST through the State 
Headquarters reporting process. I will also continue to work 
collaboratively with the NGB's State and Federal mission partners to 
ensure these teams are thoroughly prepared to assist civilian 
authorities during domestic emergencies.
    Question. If confirmed, what steps, if any, would you take to 
ensure strong NGB oversight of the WMD-CSTs?
    Answer. If confirmed, I will ensure strong NGB oversight over WMD-
CSTs through review, evaluation, and enhancement of the policies, 
processes, and management controls of the WMD-CSTs.
                       state partnership program
    Question. The SPP is favorably regarded by senior defense officials 
as part of the New Strategic Defense Guidance as a key security 
engagement tool investigation for Anti-Deficiency Act (ADA) violations 
and the Government Accountability Office (GAO) recently found that DOD 
is not able to account and coordinate its activities. The findings 
suggest that the NGB must make adjustments in its administration of 
this program. GAO's report found a lack of clear program metrics and 
inconsistent data on program activities, among other findings.
    Do you agree with these findings? If so, what steps would you take 
to address GAO's recommendations?
    Answer. It is my understanding that DOD has concurred with the GAO 
findings. The NGB and DOD are instituting all of the recommendations 
within the GAO report.
    Question. In your view, what role, if any, should the Office of 
Secretary of Defense, Joint Chiefs of Staff, and State Department play 
in setting priorities and identifying activities for SPP?
    Answer. The SPP is an innovative, low-cost, and small-footprint 
approach to achieve national security objectives. Celebrating nearly 20 
years of enduring relationships with 63 countries, the National Guard's 
SPP provides unique military-to-military activities with partner 
countries using National Guard expertise. The SPP exists to best serve 
the requirements of partner states, combatant commanders, and 
ambassadors. Through these avenues, the priorities and activities for 
the SPP are set by DOD and Department of State leadership. If 
confirmed, I will ensure that the SPP activities fall within the 
guidance of the Office of the Secretary of Defense, the Joint Chiefs of 
Staff, and the State Department.
    Question. In your view, can SPP engagement be more thoroughly 
integrated into the geographic combatant command theater security 
engagement plans? If so, how?
    Answer. SPP engagements support the national interest and security 
cooperation goals. The program provides a whole-of-government approach 
to partnership building throughout the combatant commands. Each 
partnership is coordinated through the combatant commanders, 
ambassadors, and other appropriate agencies. It is vital that the 
program remain an asset to the combatant commanders and integrated with 
their theater security engagement plans. If confirmed, I will review 
the program including its current authorities and work with the 
combatant commanders to determine whether the program is adequately 
supporting their theater security engagement plans.
    Question. In your view, what is the role of the Adjutants General 
in SPP? Should any changes be made to their role? If so, what changes? 
If none, why not?
    Answer. The States, Territories, and the District of Columbia are 
currently partnered with 63 nations. As the senior officials from each 
State, the Adjutants General are the face of the Program and act as 
ambassadors for the National Guard and the State. The Adjutants General 
in coordination with COCOMs and Ambassadors direct the activities of 
those involved in the Program and work directly with partner nations in 
support of COCOM programs. The NGB continues to work with DOD to ensure 
that the program and its participants support the national security 
strategy. The Department is currently reviewing all partnership-
building activities. If confirmed, upon completion of the review, I 
will determine if further changes to the Program are required to 
increase its effectiveness.
                           duty status reform
    Question. The Commission on the National Guard and Reserves found 
that ``Today's 29 duty statuses are confusing and frustrating to both 
Reserve component members and their operational commanders. 
Servicemembers may encounter pay and benefit problems, including health 
care eligibility for their family members, when they transition between 
one or more duty status categories. Commanders may experience similar 
frustration when seeking to access, in a timely manner, Reserve 
component members needed to meet operational requirements.'' The 
Commission recommended that the number of duty statuses be reduced from 
29 to 2. Similarly, the 11th Quadrennial Review of Military 
Compensation concluded that simplification of the duty system is called 
for and recommended that the number of authorities to order a member to 
duty be reduced to six.
    What is your view on the need to reduce the number of duty statuses 
in which National Guard personnel serve?
    Answer. I believe there is a need to reduce the number of duty 
statuses in which National Guard personnel serve. Simplicity and 
predictability are crucial to maintaining a useful personnel system.
    Question. If you agree, do you support the recommendation of the 
Commission on the National Guard and Reserves to reduce the number of 
duty statuses to two, the recommendation of the 11th Quadrennial Review 
of Military Compensation to reduce the number of duty statuses to six, 
or do you recommend some other number of duty statuses?
    Answer. I support the 11th Quadrennial Review of Military 
Compensation recommendation to reduce the number of duty statuses to 
six.
                               drill pay
    Question. The 11th Quadrennial Review of Military Compensation 
recommended replacing the current system of drill pay with a simpler 
approach--one day of regular military compensation would be paid for 
one day of Reserve duty, regardless of the type of duty. This would 
depart from long standing practice of paying a full day of drill pay 
for a 4-hour drill period.
    Do you support this recommendation of the Commission?
    Answer. If confirmed, I will make it a top priority to review the 
statutes and policies governing National Guard drill pay with special 
attention and focus on those statutes and policies identified in the 
11th Quadrennial Review of Military Compensation. At that time I will 
be in a better position to evaluate this particular recommendation.
    Question. In your view, what would be the impact on the National 
Guard of making such a change?
    Answer. At this time I have not had the opportunity to evaluate the 
impact of this recommendation on the National Guard. If confirmed, I 
will work with the Directors of the Army and Air National Guard, the 
leaders of the other Reserve components, DOD leadership, and Congress 
to determine the specific impact of any proposed changes to current 
drill pay.
     mobilization and demobilization of national guard and reserves
    Question. Over the past decade, the National Guard and Reserves 
have experienced their largest and most sustained employment since 
World War II. Numerous problems arose in the planning and procedures 
for mobilization and demobilization, e.g., inadequate health screening 
and medical readiness monitoring, errors caused by antiquated pay 
systems, limited transition assistance programs upon demobilization, 
and lack of access to members of the Individual Ready Reserve. Reserve 
Force management policies and systems have been characterized as 
``inefficient and rigid'' and readiness levels have been adversely 
affected by equipment stay-behind, cross-leveling, and reset policies.
    What is your assessment of advances made in improving Reserve 
component mobilization and demobilization procedures over the past 
decade, and where do problems still exist?
    Answer. I believe that there have been a number of advances made in 
improving Reserve component mobilization procedures. Efficiencies have 
been gained in the training strategy for mobilizing units, allowing 
Adjutants General to certify specific mobilization training tasks prior 
to units and soldiers reporting to the Mobilization Station have 
improved post mobilization training to 90 days or less. Additionally, 
the ARFORGEN model has allowed for better synchronization of manning, 
equipping, and training functions and resources. It has greatly 
improved predictability for our soldiers, families, and employers.
    There have also been improvements made to the demobilization 
process. Since September 11 great improvements have been made in 
working with other enabling organizations. These organizations have 
enabled the demobilization process to be streamlined, ensuring each 
soldier receives the best of care in an expeditious manner. Upon 
demobilization, soldier's personnel and medical readiness is given the 
highest level of priority. The Yellow Ribbon Reintegration Program 
requiring units to conduct meetings at 30, 60, and 90 days post-
deployment greatly assists with the difficult transition from Active 
Duty for traditional guardsman.
    I am aware that problems still exist in the demobilization process 
and I also understand that the Army National Guard is working with the 
Army to improve this process. Reduction in the time it takes for a 
soldier to get to a Warrior Transition Unit after electing to receive 
care at the demobilization station is one example. In some cases it can 
take as long as 7-10 days after the soldier elects to go to the Warrior 
Transition Unit to receive the level of care needed.
    Question. What do you consider to be the most significant enduring 
changes to the administration of the National Guard aimed at ensuring 
their readiness for future mobilization requirements?
    Answer. I consider the increased funding over the last 10 years as 
the most significant enduring change that has increased readiness. This 
funding has improved equipment readiness and training to nearly the 
same levels as the Active components.
    The establishment of predictable deployment cycles has also 
improved readiness. These cycles allows unit commanders to focus on 
building a unit's readiness through a progressive and structured 
approach that synchronizes the manning of units with soldiers available 
for deployment, the equipping of units with modernized equipment, and 
the training of soldiers and units to meet the challenges that will be 
faced in an operational environment.
    Question. Do you see a need to modify current statutory authorities 
for the mobilization of members of the National Guard beyond the new 
mobilization authorities in the National Defense Authorization Act for 
Fiscal Year 2012?
    Answer. I do not see a need to modify current statutory authorities 
for the mobilization of members of the National Guard. The current 
mobilization authorities provide access to the National Guard for 
operational missions ranging from full mobilization to supporting 
combatant command preplanned missions.
    Question. Invisible wounds, such as Post-Traumatic Stress Disorder 
(PTSD) and Traumatic Brain Injury (TBI), may not be manifest until 
months after demobilization.
    If confirmed, what steps if any would you take to improve 
consistency of identification and referral for care for PTSD and TBI 
for members of the National Guard?
    Answer. The invisible wounds of war, unlike physical injuries, are 
more difficult to diagnose and often have a stigma associated with them 
that impacts effective identification and referral. Also, in the 
National Guard, we have unique challenges related to duty statuses and 
eligibility for treatment which impact access to care once the need for 
treatment is identified. If confirmed, I will work to improve the 
safety net to allow soldiers with these wounds to obtain care at point 
of identification, regardless of their duty status.
    Question. One of the key challenges facing DOD and the Department 
of Veterans' Affairs is improving the Disability Evaluation Process. 
According to the GAO, under the newly expanded Integrated Disability 
Evaluation System (IDES), members of the Reserves and National Guard 
experience longer transition times than members of the Active 
components.
    What, in your view, are the unique challenges faced by the National 
Guard in the Disability Evaluation Process, and if confirmed, what 
steps if any would you recommend to mitigate these challenges?
    Answer. Care of our wounded warriors must remain one of our highest 
priorities; as a nation, we owe them a debt that cannot be repaid.
    In the National Guard, once soldiers reach the point in their 
injury or illness where they are determined to need a medical board, 
there are long delays, often years. They also face many obstacles to 
actual entry into the integrated Disability Evaluation System, followed 
by a prolonged processing period. If confirmed, I will be committed to 
ensuring that National Guardsmen receive the same priority and timely 
processing that Active component servicemembers receive. I will work 
toward an automated process that will allow the least disruption to 
their civilian responsibilities by leveraging local Veterans Affairs 
facilities and information technologies where feasible. I will also 
review all policies and statutes that impact the Disability Evaluation 
System and recommend appropriate revisions to senior defense leaders.
                            lessons learned
    Question. What do you believe are the major personnel lessons 
learned from Operation Enduring Freedom (OEF), Operation Iraqi Freedom 
(OIF), and Operation New Dawn that you would seek to address if 
confirmed?
    Answer. I believe that these major contingency operations have 
demonstrated the skill, dedication, and determination of Army and Air 
National Guardsmen. These contingencies have also shown that transition 
assistance for members of the Reserve component and the demobilization 
process is every bit as important as readiness and the mobilization 
process.
                    operational and personnel tempo
    Question. Current DOD policy is that Reserve component members 
should have 5 years of dwell time for each year they are mobilized.
    What is your understanding and assessment of the current dwell time 
status of the National Guard?
    Answer. All Reserve components are moving to a 1:5 dwell ratio. 
Within the National Guard, Army and Air National Guard units may 
currently be utilized at different ratios due to a number of factors. 
This dwell ratio allows for focused buildup of readiness toward a 
decisive point in readiness. It also allows predictable timelines for 
soldiers, their families, and their employers. Both the Army and Air 
National Guard are structured to support a 1:5 dwell ratio, and it is 
my understanding that the Adjutants General have agreed to and expect 
this ratio will be observed for future operations.
    Question. What is your view of the achievability of this goal? If 
confirmed, what measures would you take to achieve this goal within 5 
years?
    Answer. Dwell ratios can be impacted by numerous factors. Within 
the Air National Guard, unit and aircraft types as well as volunteerism 
will impact dwell time. Additional unforeseen contingencies would also 
impede the goal of a 1:5 dwell ratio. If confirmed, I will work with 
the Directors of the Army and Air National Guard to determine the steps 
needed to achieve and maintain the goal of a 1:5 dwell time ratio. I 
will review readiness and training levels to ensure our units can meet 
that ratio and that the National Guard creates no impediments to 
achieving that goal.
    Question. In your view, is a 1:5 dwell time ratio for the National 
Guard adequate to sustain favorable employer relationships?
    Answer. A constant and defined dwell time ratio provides 
predictability for National Guardsmen, their families, and employers. 
This predictability allows employers to plan for the eventuality of 
deployments leaving employers in a strong position to support soldiers 
and airmen. Predictability also provides the opportunity for soldiers 
and airmen to plan for deployments and work with employers on their 
eventual return. A 1:5 dwell time adequately provides that 
predictability. This dwell time ratio allows citizen-soldiers and 
airmen the opportunity to serve their nation while providing employers 
with an extended and predictable period of time to utilize employees 
and plan for their absence.
    Question. Has the shift of resources from Iraq to Afghanistan 
affected dwell-time ratios in the National Guard?
    Answer. DOD has worked hard to set predictable dwell-time ratios 
for the Reserve component. The shift in resources from Iraq to 
Afghanistan and the reduction in demand that has resulted from the 
shift will provide a greater opportunity to meet the 1:5 dwell-time 
ratio.
    Question. What is your understanding and assessment of measures 
taken to respond to operational requirements for low-density, high-
demand units and personnel whose skills are found in the National 
Guard?
    Answer. The National Guard has made great strides in promoting the 
1:5 dwell ratio. Certain personnel and units within the National Guard, 
however, will have higher operational demands. If confirmed, I will 
continue to work with the Military Departments and the combatant 
commanders to determine the best and most equitable way to utilize low-
density, high-demand units and personnel within the National Guard.
                           stress on families
    Question. National Guard and Reserve families have been under great 
stress since 2001 as a result of multiple and lengthy deployments in 
OIF and OEF.
    In your view, what are the key indicators of the stress on National 
Guard families at this time?
    Answer. In our All-Volunteer Force, the foremost indicator of 
stress on National Guard families is the retention rate of 
servicemembers. It has often been said that if a member decides to re-
enlist, then the family also decides to re-enlist. Many National 
Guardsmen volunteered to join and re-enlist after September 11, fully 
aware of the deployment tempo. What matters most for National Guard 
families is predictability of deployment schedule, dependability of 
military pay and benefits, continuity of healthcare, and security of 
employment, both military and civilian.
    Question. If confirmed, what will you do to address these key 
indicators?
    Answer. National Guard retention rates remain strong, but we must 
continue to mitigate the factors that place great stress on National 
Guard families. The Air Guard AEF cycle and the Army's ARFORGEN 
deployment cycles have brought predictability to unit deployment 
schedules. If confirmed, I will: continue to stress the importance of 
identifying which individuals will deploy earlier than called for by 
the respective deployment cycles; work with the Military Departments to 
limit pay errors; push to ensure that servicemembers are given adequate 
notice and fair treatment when force structure changes are decided; and 
ensure that National Guard programs meant to limit stress are reviewed 
to ensure they are evidence-based with defined metrics and specific 
outcomes measured.
    Question. What do you consider to be the most important family 
readiness issues in the National Guard?
    Answer. I believe the most important family readiness issues in the 
National Guard are:

    (1)  Predictability of deployment schedule;
    (2)  Dependability of military pay and benefits;
    (3)  Continuity of healthcare; and
    (4)  Security of employment (both military and civilian).

    Question. If confirmed, how would you manage costs and at the same 
time ensure support for National Guard families, particularly those who 
do not reside near an Active Duty military installation, related to 
mobilization, deployment, and family readiness?
    Answer. Managing the costs while ensuring support for National 
Guard families is a major challenge. Much of the airman, solider, and 
family support is funded through Overseas Contingency Operations 
accounts. As deployment tempos decrease, that funding will also 
decrease. If confirmed, I will work with Congress and the Department to 
seek adequate support funding is included in future year budgets. It is 
imperative that funding is spent on what each family needs. If 
confirmed, I will count on the Adjutants General of each State to 
identify the most urgent needs for support in their state so that 
families receive the most effective support possible.
    Question. If confirmed, what additional steps would you take to 
ensure that family readiness needs, including child care, are addressed 
and adequately resourced, and that costs are managed?
    Answer. If confirmed, I will work to develop objective measures of 
effectiveness for each of our family readiness initiatives and fund 
those with the highest return on investment. The challenge in doing so 
has always been finding a method to measure things that do not happen. 
For example, how do you measure how many marriages do not end as a 
result of a program's successes? How many children do not struggle in 
school because of the support they have received? How much financial 
mismanagement is avoided because of the education provided to families? 
I will also utilize existing national resources, synchronized with 
community based services. These programs are important to the quality 
of life of our National Guardsmen and their families, and I will work 
to ensure that these programs are always adequately resourced and 
effectively managed.
         national guard unemployment and transition assistance
    Question. Many National Guard members return from deployment and 
cannot find employment or are under-employed.
    If confirmed, how will you address unemployment issues of National 
Guard members returning from deployment?
    Answer. I am very concerned with the employment status of our 
citizen-soldiers and airmen. Multiple deployments and a slow economy 
have contributed to high unemployment rates across the Armed Forces. 
Unemployment is especially difficult for members of the Reserve 
components. In my experience, I believe that employment is a readiness 
issue because employed servicemembers experience less personal stress 
and are better trained and prepared for deployments and State 
emergencies.
    Unemployment must be addressed at many levels. If confirmed, I will 
work with this committee, the Directors of the Army and Air National 
Guard, the Military Departments, and DOD to address unemployment issues 
of returning National Guardsmen. I will review existing programs to 
ensure that National Guardsmen and their spouses have the resources to 
find jobs and get the education and training they need to compete for 
new jobs. I will also work with the Departments of Veterans Affairs and 
Labor to ensure that the Veterans Opportunity to Work Act is fully 
implemented and that citizen-soldiers and airmen have access to 
transition assistance services after separating from Active Duty. If 
confirmed, I will also work very closely with the Adjutants General to 
assist them in their aggressive development of local employment 
programs that leverage Federal, State, and local resources to assist 
unemployed guardsmen.
        medical and dental readiness of national guard personnel
    Question. Medical and dental readiness of Reserve component 
personnel remains an issue of significant concern to the committee, and 
shortfalls that have been identified have indicated a need for improved 
policy oversight and accountability.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the National Guard?
    Answer. If confirmed, personnel readiness of the National Guard 
will be one of my highest priorities. Medical and Dental Readiness is 
central to personnel readiness and our reporting metrics must reflect 
that accurately. I will work to determine that the correct metrics are 
used to determine the effectiveness of current programs.
    Question. How would you improve on the ability to produce a healthy 
and fit National Guard?
    Answer. Medical readiness is the first step in ensuring a healthy 
and fit force. One central tenet to medical readiness is that soldiers 
and airmen get annual health assessments and dental screenings; this 
ensures regular counseling for preventive health services and the early 
identification and treatment of disease. If confirmed, I will maintain 
the health of the force as a leadership priority. I will work to 
promote programs and policies which weave a seamless, continuous health 
care benefit for those who are serving and for those injured while 
serving, and model a leadership culture of mental, physical, spiritual, 
and emotional health and fitness.
                health care for national guard personnel
    Question. Members of the National Guard who are ordered to Active 
Duty for more than 30 days are eligible for the same health care and 
dental benefits under TRICARE as other Active Duty servicemembers.
    What is your view of the adequacy of health care for National Guard 
personnel?
    Answer. I have found that the health care provided to Guard 
personnel while on active duty is world-class, and I commend the 
medical departments for their efforts. When National Guardsmen are not 
on active duty, the TRICARE Reserve Select Program is one of the most 
effective health care initiatives for Reserve component servicemembers 
and their families. The Program contributes greatly to both family 
support and servicemember readiness goals.
    Question. What are your suggestions for improving continuity of 
care for members of the National Guard and their families?
    Answer. National Guardsmen face unique issues navigating the 
current military health system, and this impacts their continuity of 
care. One area in need of improvement is the administrative 
interoperability between the Veterans Affairs and military health care 
systems. Unlike the Active component, Reserve component members move 
between the military medical care system and the Veterans Affairs 
system as many as a dozen times in their career. Improving the 
interoperability of medical records and reducing the administrative 
burden associated with the constant change in statuses will improve the 
continuity of care for members of the National Guard and their 
families.
    If confirmed, I will engage with the Military Departments to 
provide the best possible health care for our soldiers and airmen. 
Nothing less is acceptable.
    Question. TRICARE Reserve Select authorizes members of the Selected 
Reserve and their families to use TRICARE Standard military health care 
program at a subsidized rate when they are not on active duty.
    What is your assessment of TRICARE Reserve Select and its level of 
utilization in the National Guard?
    Answer. I want to thank Congress for providing this legislation. If 
confirmed I will study this issue and pledge to come back to you if 
further legislation is required.
    Question. What impact has TRICARE Reserve Select had on recruiting 
for the National Guard?
    Answer. I am not yet prepared to provide you an answer on the 
impact TRICARE Reserve Select has had on recruiting in the National 
Guard. If confirmed, I will review the program to assess its 
effectiveness and to ensure that National Guardsmen are receiving the 
best health care available.
    Question. One of the major concerns for military family members is 
access to health care. Military spouses tell us that the health care 
system is inundated, and those stationed in more remote areas may not 
have access to adequate care, a particular concern for members of the 
Reserve components.
    If confirmed, what steps would you take to ensure complete access 
to health care for the families of members of the National Guard?
    Answer. Access to health care is a major concern for National 
Guardsmen and their families. As a Reserve component with members in 
each of the 54 States, Territories, and the District of Columbia, the 
National Guard must provide health care to members that are 
geographically dispersed, often to rural areas. Health care for 
servicemembers and their families is a readiness issue. If confirmed, I 
will work with the Department to determine a cost-effective method to 
ensure that all servicemembers and their families have access to 
quality health care.
                 national guard equipment and readiness
    Question. Numerous changes to the roles and responsibilities of the 
National Guard and Reserves have occurred in recent years. Over the 
past 10 years, the Army and Air Force have relied on their Reserve 
components, including the National Guard, to deploy in support of 
operations in Afghanistan and Iraq, as well as other operations 
worldwide. For example, to supply ready forces, the Army implemented a 
readiness model for its Active and Reserve components based on a cycle 
of increased equipping and training, culminating in a period of 
eligibility for deployment. Under this force generation system, Reserve 
units would be equipped and trained to readiness levels that mirror the 
Active Force at the time of deployment. The 2012 Defense Strategic 
Guidance stressed that the Department will need to examine the mix of 
Active and Reserve component elements best suited to the new strategy 
and stated that the pace of operations over the next decade will be a 
significant driver in determining an appropriate mix of active and 
Reserve component forces and level of readiness.
    In your view, how will the reduced pace of operations in 
Afghanistan affect the active and Reserve component mix and 
capabilities and National Guard readiness?
    Answer. The reduced pace of operations in Afghanistan will result 
in lower levels of mobilizations in the coming years. In the near 
future, the Active and Reserve component mix may be impacted more by 
budget constraints than reduced operations in Afghanistan. As that mix 
is reviewed, I anticipate that the National Guard will remain a 
proportional part of the Total Force in support of rotational 
deployments. In my view, as an operational force, the Army and Air 
National Guard are effectively postured for a focused buildup of 
readiness between rotations based on current deployment cycle policy.
    Question. In your view, should the missions of the National Guard 
change to meet these new priorities?
    Answer. The National Guard is well suited to support the new 
defense guidance. The National Guard is an operational force for 
domestic and overseas operations. The National Guard's missions 
encompass all aspects of the Total Force including projecting power, 
surging and regenerating forces, providing support to civil 
authorities, and providing unique and cutting-edge capabilities. Rather 
than change the missions of the National Guard, the National Guard 
should be considered as a force multiplier within DOD.
    Question. If confirmed, what steps if any would you take to ensure 
improvement in continuity of care and consistency of health and mental 
health support for members of the National Guard?
    Answer. If confirmed, I will follow the lead of General McKinley 
and make caring for the soldiers and airmen of the National Guard a top 
priority. There are currently a myriad of outreach programs across all 
of the States aimed at informing, educating, and training 
servicemembers, their families, and communities. It is important that 
all of these programs are reviewed to ensure that servicemembers 
receive only the most effective health and mental health care.
    Question. What unique challenges if any are faced by redeploying 
members of the National Guard who need care for conditions including 
PTSD and TBI that are incurred during these members' military service? 
How, if confirmed, would you help ensure that these unique challenges 
are addressed?
    Answer. The National Guard faces the unique challenge of a 
dispersed force. Injuries both visible and hidden may go unnoticed and 
untreated as National Guardsmen transition back to civilian life. While 
in civilian life these members may not seek the treatment they need for 
any number of reasons. Those injuries, especially PTSD, may go 
undiagnosed and lead to more serious complications. If confirmed, I 
will ensure that outreach remains a top priority of the National Guard 
and that the NGB continues to work to remove the stigma and barriers 
the soldiers and airmen face in seeking treatment.
                          readiness reporting
    Question. What is your understanding of the readiness reporting 
systems currently being used by the Services?
    Answer. Defense Readiness Reporting System (DRRS) is the over 
arching system for all defense readiness reporting. This system 
includes several subsystems including but not limited to DRRS-Strategic 
and DRRS-Army.
    Question. If confirmed, what improvements or changes to the 
readiness reporting system, if any, would you recommend?
    Answer. At this time, I do not believe improvements or changes are 
needed to the readiness reporting system. If confirmed, I will review 
the system and its impact on the National Guard and will recommend any 
appropriate revisions.
    Question. In your view, to what extent if any has the overall 
readiness of the Army and Air National Guard improved since Congress 
first started appropriating money for the National Guard and Reserve 
Equipment Account (NGREA)?
    Answer. Today's National Guard is better equipped than any time in 
my National Guard career. As a result, National Guardsmen are able to 
train with the equipment they go to war with and better respond to 
domestic emergencies. The NGREA funding has performed a critical role 
in improving the Army National Guard's interoperability, modernization, 
and overall equipment posture in support of domestic and contingency 
operations. NGREA has also helped the Air National Guard modernize 
legacy aircraft. The readiness levels of the National Guard have been 
significantly improved because of NGREA.
       dod efficiency initiatives and budget top line reductions
    Question. What is your understanding and assessment of the DOD 
efficiency initiatives and the role of the National Guard to reduce 
costs of administration and operations?
    Answer. DOD is currently undertaking a comprehensive review to 
increase efficiencies, reduce overhead costs, and eliminate redundant 
functions. These efforts span the Department and include changes to 
major weapons programs, changes to management and support systems, and 
utilizing information technology. The efficiency initiative will allow 
the Department to reinvest funding in higher priority issues.
    The NGB is already working to reduce costs of administration and 
operations. General McKinley has instituted Project Muster, a review of 
the NGB that will allow for a more efficient and effective 
organization. If confirmed, I will continue in that effort with the 
goal of reducing the cost of administration and operations.
    Question. In your view what are the major risks for the National 
Guard associated with efficiencies related reductions and, if 
confirmed, how would you propose to manage those risks?
    Answer. Potential reductions in National Guard force structure have 
been offered as part of this initiative. Any decisions to reduce or 
realign force structure must be assessed against current and future 
threats, both domestic and overseas, as well as the new defense 
guidance. If confirmed, I will be fully engaged in these discussions, 
and I will work with the Military Departments to ensure efficiencies 
gained will result in the most capable Total Force possible.
    Question. Harvesting savings through process improvements and 
efficiencies has a mixed record of success in DOD. In your view, how 
likely is it that savings will be achieved in the National Guard?
    Answer. I know that the NGB is taking this process very seriously. 
I have been made aware of Project Muster, a complete review of the 
organization that will identify and implement the actions required to 
enable the CNGB to better fulfill the Chief and Bureau's statutory 
responsibilities, without requiring additional staff or resources. If 
confirmed, I will be better able to provide this committee with 
information about the NGB's progress. I am confident that General 
McKinley's efforts are intended to find real savings and will result in 
a better NGB.
                     military construction budgets
    Question. The overall budgets for military construction have been 
declining in recent years. The National Guard and Reserve's share has 
been particularly hard hit since a significant portion of funds 
dedicated to Guard and Reserve military construction were provided by 
congressionally directed spending.
    If confirmed, how will you manage the National Guard's 
infrastructure requirements in light of these funding reductions?
    Answer. The National Guard is located across the country in nearly 
every community. Adequate National Guard infrastructure is not only 
vital to maintaining readiness, it is also an essential part of these 
communities. Because National Guard units and their facilities are 
geographically dispersed, the National Guard is the connective tissue 
between the American people and their military. If confirmed it will be 
incumbent upon me to ensure the National Guard maintains adequate 
infrastructure across the country. Due to the decline in funding across 
the Department, I will continue to target the most critical training 
requirements at specific installations and ensure they are funded to 
meet the needs of the National Guard as an operational force.
                        national guard budgeting
    Question. If confirmed, what role would you play, if any, in the 
Department's budget formation process for the National Guard?
    Answer. If confirmed I will provide strategic guidance to the 
Directors of the Army and Air National Guard as they work with their 
respective Military Departments. As needed, I will engage the members 
of the Joint Chiefs of Staff and act as channel of communication to 
raise the concerns of the Adjutants General.
    Question. What is your understanding and assessment of DOD's annual 
budget process and the documentation of the priorities and proposed 
funding levels for equipment procurement for the National Guard? What 
changes, if any, would you recommend to the process or documentation of 
the equipment-related funding request for the National Guard?
    Answer. Over the last decade, the Department has made great strides 
in providing transparency for the Reserve components budget and more 
specifically equipment-related funding. The annual budget request 
identifies the equipment requested for all the Reserve components, both 
within the Active component justification books and a separate 
procurement book for the Reserve components. The annual National Guard 
and Reserve Equipment Report also provides a review of the status of 
Reserve component equipment and requirement shortfalls. I have not had 
the opportunity to consider the issues of process and documentation, 
but if confirmed I will consult the Directors of the Army and Air 
National Guard to determine if further changes to the process and 
documentation are necessary.
    Question. What is your understanding and assessment of the 
oversight of National Guard budget execution by the NGB, DOD, the 
Department of the Army, and the Department of the Air Force, 
particularly with respect to the transparency of the execution of 
annual appropriations for personnel, operations, and procurement? If 
confirmed, what actions, if any, would you take to improve this 
oversight?
    Answer. It is my understanding that the CNGB provides oversight for 
the Army and Air National Guard Personnel, Operations and Maintenance, 
Military Construction, and National Guard and Reserve Equipment 
accounts totaling approximately $28 billion. The Departments of the 
Army and Air Force are responsible for National Guard procurement 
within their respective accounts. DOD retains responsibility to oversee 
various accounts that impact the National Guard, such as the Central 
Transfer Account. I am not yet prepared to provide you an answer 
regarding additional improvements or oversight that may be required. If 
I am confirmed, I will review the NGB's role in budget execution and 
work to improve the process and resolve any issues.
      evolving roles of national guard and reserve in the defense 
                             establishment
    Question. The roles and responsibilities of the National Guard and 
Reserves have evolved over the last 20 years particularly given their 
successful preparation and participation in support of the wars in Iraq 
and Afghanistan. The practical result is that the Reserve component is 
now trained, equipped, and more ready than ever as an operational 
rather than a strategic reserve.
    What is your understanding and assessment of the changes, if any, 
over the past 20 years in the required levels of readiness of the 
National Guard prior to mobilization?
    Answer. Over the past decade, the National Guard has transitioned 
from a strategic reserve to an operational force. While less prevalent 
in the Air National Guard, the Army National Guard often found that 
equipment, training, and medical care had impacted readiness levels. 
The Departments of the Army and Air Force remedied these issues as it 
became apparent that the National Guard was needed during a time of 
ongoing contingency operations. I have been told that, when deployed, 
National Guardsmen are indistinguishable from their Active component 
brethren. This change reflects how seriously the Army and Air Force 
believe the National Guard is a part of the Total Force. It also 
reflects the commitment of the Department and Congress to ensure the 
National Guard has the equipment and training it needs to maintain a 
high level of readiness.
    Question. In your view, how do, or should, these changes affect the 
manning, equipping, training, and budgeting for the National Guard as 
an operational reserve as opposed to its historical role as a strategic 
reserve?
    Answer. In my view, this change has already occurred. Today, the 
National Guard is better equipped and trained than at any time in my 
career. This year, the Army National Guard budget request supports 
additional duty days and operational tempo to facilitate rapid 
deployment of functional and multi-functional units required to deploy 
on a compressed timeline. DOD has committed to maintaining the National 
Guard as an operational force. If I am confirmed, I will work to ensure 
the National Guard remains manned, equipped, trained, and resourced to 
remain a highly effective operational force.
    Question. In your view, what changes, if any, are required to DOD 
or Military Department policies or programs to meet the Defense 
Strategic Guidance for the Reserve component as an operational reserve 
at acceptable levels of risk as established by DOD?
    If confirmed, I will work closely with the Military Departments and 
the Directors of the Army and Air National Guard to determine if 
changes are needed to policies and programs to meet the Defense 
Strategic Guidance.
                     army national guard modularity
    Question. Modularity refers to the Army's fundamental 
reconfiguration of the force from a division-based to a brigade-based 
structure. Although somewhat smaller in size, modular combat brigades 
are supposed to be just as, or more, capable than the divisional 
brigades they replace because they will have a more capable mix of 
equipment--such as advanced communications and surveillance equipment. 
To date, the Army has established over 90 percent of its planned 
modular units, however, estimates on how long it will take to fully 
equip this force as required by its design have slipped to 2019.
    What is your understanding and assessment of the Army National 
Guard's modularity transformation strategy?
    Answer. I know the Army National Guard is well underway with 
transformation. Army National Guard brigade combat teams work in 
concert with the active Army and are able to deploy as a part of the 
Total Force.
    Question. If confirmed, what actions or changes, if any, would you 
propose relative to the Army National Guard's modular transformation 
strategy?
    Answer. If confirmed, I will work with the Director of the Army 
National Guard to ensure the Army National Guard provides the Total 
Force with fully integrated capabilities.
    Question. What changes, if any, would you propose to the modular 
design, the mix of National Guard combat and supporting brigades, or 
modular unit employment to improve performance or reduce risk?
    Answer. If confirmed, I will work with the Director of the Army 
National Guard to ensure the Army National Guard is providing the 
Active Army and the combatant commanders with the most effective and 
efficient force.
    Question. With respect to the Army's modular combat brigade force 
structure design, General Dempsey's June 2011 pamphlet titled ``CSA's 
Thoughts on the Army's Future,'' directs the Army to assess the 
feasibility of adding a third maneuver battalion to each heavy and 
infantry brigade where there are only two maneuver battalions now.
    Answer. If confirmed, how would you propose to implement a decision 
to add a third maneuver battalion to the National Guard's armored and 
infantry brigades? What National Guard force structure or capabilities 
would you propose to reduce in order to increase maneuver forces within 
the combat brigades and stay within the end strength authorization?
    I have not had the opportunity to review this proposal. If 
confirmed, I will work with the Director of the Army National Guard to 
determine the best force structure for Army National Guard armored and 
infantry brigades.
                      reserve forces policy board
    Question. What is your understanding and assessment of the 
appropriate role, function, and membership of the Reserve Forces Policy 
Board?
    Answer. The Reserve Forces Policy Board serves as an independent 
adviser to the Secretary of Defense to provide advice and 
recommendations to the Secretary of Defense on strategies, policies, 
and practices designed to improve and enhance the capabilities, 
efficiency, and effectiveness of the Reserve components. The Board's 
role, function, and membership is prescribed in section 10301 of title 
10, U.S.C. I believe the Board serves effectively as prescribed in 
statute, and no revision to its current role, function, or membership 
is required.
               employment of full-time support personnel
    Question. Active Guard and Reserve personnel providing full-time 
support are not authorized to perform State Active Duty missions even 
in emergencies or disaster situations. On occasion, this can deny an 
important resource such as an aviation capability to a Governor in need 
of assistance.
    Do you think, as a matter of policy, AGR members should be 
authorized in limited circumstances to perform limited State Active 
Duty missions?
    Answer. During my time as Deputy Director of the Army National 
Guard, these issues came up and on occasion presented challenges. Full-
time manning is critically important to the readiness of our National 
Guard formations. If confirmed, I will make review of this important 
issue a high priority.
    Question. Under what circumstances, if any, do you believe such use 
should be authorized?
    Answer. Immediate response to save life and limb immediately comes 
to mind. However, to fully respond to this question, I will need to 
carefully consider the secondary and tertiary impacts of any such 
policy change and, if confirmed, I will do so.
                 sexual assault prevention and response
    Question. The Department has developed comprehensive policies and 
procedures to improve the prevention of and response to incidents of 
sexual assault, including providing appropriate resources and care for 
victims of sexual assault. However, numerous incidents of sexual 
misconduct involving military personnel continue to occur.
    In the context of the National Guard, do you consider the current 
sexual assault policies and procedures to be effective?
    Answer. National Guard sexual assault policies and procedures 
follow the Department's policies and procedures for victim advocacy and 
response. If confirmed, I will continue to work with the Adjutants 
General to determine the best policies and procedures needed to support 
National Guardsmen in the States.
    Question. What is your assessment of the adequacy of support 
systems and processes for victims of sexual assault in the National 
Guard?
    Answer. If confirmed, I will make it a top priority to ensure the 
proper support systems and processes exist for victims of sexual 
assault. I am committed to keeping the faith of the All-Volunteer Force 
which includes providing the best and most effective support to victims 
of sexual assault.
    Question. What is your assessment of the authorities available to 
National Guard commanders to hold assailants accountable for sexual 
assault?
    Answer. While each State is different, National Guard commanders 
have a full range of options available to them under their States' 
individual military code to hold assailants accountable for sexual 
assaults. In addition, National Guard Commanders may seek to 
administratively address sexual assault matters, e.g., through 
separation if appropriate. National Guard Commanders may also refer 
allegations of sexual assault to the local civilian authorities. If 
confirmed, I will review the adequacy of these programs with my Chief 
Counsel and Chief of the Sexual Assault and Prevention program to 
determine whether we are doing the best we can for our soldiers and 
airmen. Nothing less is acceptable.
                           suicide prevention
    Question. The number of suicides in the military, including in the 
National Guard, continues to be of concern to the committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the National Guard to help prevent 
suicides and to increase the resiliency of Guardsmen and their 
families?
    Answer. If confirmed, I will continue to make suicide prevention 
and resiliency training a top priority for the National Guard. I will 
continue to work with the Adjutants General to identify risk factors 
and provide National Guardsmen and their families with the outreach 
needed to provide the best resiliency training. I will also determine 
if there are additional steps the NGB and the Department can make to 
mitigate these tragedies, including additional funding if required.
                  repeal of ``don't ask, don't tell''
    Question. What is your assessment of the effect in the National 
Guard of the repeal of the Don't Ask, Don't Tell policy?
    Answer. The National Guard, like all members of the Active and 
Reserve component has instituted and embraced the repeal of the Don't 
Ask, Don't Tell policy. At this time, I know of no effects on 
recruiting, retention, or morale within the National Guard.
                            gi bill benefits
    Question. Congress passed the Post-9/11 Veterans Educational 
Assistance Act in 2008 (``Post-9/11 GI Bill'') that created enhanced 
education benefits for servicemembers who have served at least 90 days 
on Active Duty since September 11. Many National Guard personnel have 
earned these benefits by virtue of their mobilizations.
    What is your understanding and assessment of the effect of the 
Post-9/11 GI Bill on recruiting and retention in the National Guard?
    Answer. First I want to thank you for this legislation. Since WWII 
the G.I. Bill has provided significant returns to our soldiers and 
airmen and has deeply benefitted our Nation. Indeed no other program 
has delivered such outstanding opportunities for self improvement 
personal advancement and professional growth. If confirmed I will 
closely review the metrics regarding the GI Bill.
    Question. What is your understanding and assessment of the 
sufficiency of the implementation plan for the transferability 
provisions contained in the act?
    Answer. I have had the opportunity to speak with members of the 
National Guard and have heard firsthand the value this program has 
provided to many of their families. If confirmed I will evaluate what 
if any challenges exist in the implementation of these provisions.
    Question. Montgomery G.I. Bill (MGIB) education benefits for 
members of the Selected Reserve under chapter 1606 of title 10, U.S.C., 
are an important recruiting and retention incentive. However, the level 
of the monthly benefit has not risen proportionately over time with 
that of MGIB benefits payable to eligible veterans under chapter 30 of 
title 38, U.S.C.
    What is your view of the adequacy of the current monthly benefit 
levels under the MGIB for the Selected Reserve?
    Answer. I am currently unfamiliar with any issues with the current 
monthly benefit levels under the MGIB. If confirmed, I will work with 
Congress and this committee to ensure National Guardsmen receive 
adequate monthly benefits under the MGIB.
    Question. Would you recommend any changes to this program?
    Answer. If confirmed, I will work with the Department and the 
Directors of the Army and Air National Guard to identify specific 
changes or improvements needed to MGIB benefits.
                  yellow ribbon reintegration program
    Question. Congress established the Yellow Ribbon Reintegration 
Program in the National Defense Authorization Act for Fiscal Year 2008 
to improve access to a broad range of family support programs before, 
during, and following deployments. The committee has learned that in 
fiscal year 2012, nearly 30 percent of the funds appropriated for 
support of the Yellow Ribbon Reintegration Program will be allocated to 
employment and hiring initiatives for members of the Guard and Reserve, 
including funding of 60 employment specialists to coordinate State and 
local employment initiatives.
    What is your understanding and assessment of the Yellow Ribbon 
Reintegration Program resources and how available resources are 
allocated among needed services, including counseling, substance abuse 
and behavioral health support, all of which are provided to members of 
the National Guard upon return from deployment?
    Answer. The Yellow Ribbon Reintegration Program empowers 
servicemembers and their families with information and resources to 
prepare for the entire deployment cycle (pre-deployment, during 
deployment, and post-deployment). Reserve component servicemembers and 
their families are often geographically separated from the support of a 
military community and therefore require a different level of outreach 
to ensure awareness of programs and resources. This proactive support 
program leverages existing resources, provides education, and employs 
referrals to services in order to support families in safe, healthy, 
and successful experiences during the deployment cycle.
    Question. If confirmed, what changes, if any, would you propose to 
redistribute resources to best provide for the range of services 
intended by the Yellow Ribbon Program.
    Answer. The overseas draw-downs and projected reductions in 
Overseas Contingency Operations funding will result in decreased 
funding for the Yellow Ribbon Program. If confirmed, I will work to 
ensure those reductions are proportional to the decreases in 
mobilization/deployment frequency so that the projected funding 
reductions do not negatively impact the National Guard's ability to 
manage and operate the program.
    On a strategic level, it is vitally important that the National 
Guard is funded to maintain a residual level of Yellow Ribbon expertise 
and programs in the post Overseas Contingency Operations era. This 
residual capability will help ensure enduring continuity of deployment 
cycle support and Yellow Ribbon support, as required by law and 
regulation, for applicable non-combat missions and stateside 
deployments. As deployments change there is a potential for requirement 
changes within the Yellow Ribbon program. If confirmed, I will ensure 
that resources are dedicated to the most pressing areas based on future 
demands.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the CNGB?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided in a timely manner to 
this committee and its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Question Submitted by Senator Mark Begich
                   national guard aircraft in alaska
    1. Senator Begich. General Grass, like my colleagues, I am a big 
supporter of the National Guard. The National Guard is critical to our 
Nation's defense and our States, especially in Alaska, where they 
conduct the most search-and-rescue missions on an annual basis than any 
other State. The Army is retiring the Sherpa aircraft. Alaska will lose 
all eight of the aircraft and not receive a new mission or platform to 
fill the void. If confirmed, will you commit to evaluating the Alaska 
National Guard's inventory to determine if requirements will still be 
met after divestiture of older platforms?
    General Grass. Earlier this year, General McKinley commissioned a 
study specifically designed to evaluate the entire fixed wing and 
rotary wing fleet disposition of the National Guard. Unlike most 
studies that focus solely on overseas warfighting requirements, the 
Chief, National Guard Bureau (NGB) study will include domestic 
requirements. Toward this end I commit to evaluating the Alaska 
National Guard's inventory to determine if requirements will still be 
met after divestiture of older platforms.
                                 ______
                                 
               Questions Submitted by Senator Joe Manchin
          national guard role in emergency and disaster relief
    2. Senator Manchin. General Grass, the recent storms that hit West 
Virginia left over a third of our State without power. In the following 
weeks, many West Virginians were without access to electricity, clean 
water, or medical treatment. Fortunately, the West Virginia National 
Guard did an outstanding job distributing food and water, providing ice 
to keep life sustaining medications cold, and maintaining generators 
and portable oxygen tanks for the disabled, the elderly, and our 
miners. These storms also knocked out public services to most 
surrounding States, which highlights the need for National Guard units 
to effectively work with Federal agencies in times of disaster or 
emergency. Can you describe the National Guard's current relationship 
with the Department of Homeland Security (DHS), the Federal Emergency 
Management Agency (FEMA), U.S. Northern Command (NORTHCOM), and any 
other Government entity with which the National Guard would work during 
these types of situations?
    General Grass. The NGB has a strong relationship with DHS, FEMA, 
and North American Aerospace Defense Command (NORAD)-NORTHCOM. To 
maintain that relationship, the NGB has liaison officers at DHS and 
FEMA, as well as the National Guard Integration Office at NORAD-
NORTHCOM. The Chief of the NGB regularly communicates with all of the 
leaders of these organizations and participates in interagency training 
and preparation scenarios.

    3. Senator Manchin. General Grass, are you comfortable with the 
National Guard's ability to coordinate efforts and manpower with 
Federal agencies?
    General Grass. The National Guard has made great strides while 
constantly working to improve its ability to coordinate with other 
Federal agencies. The NGB is the focal point at the strategic level for 
National Guard matters that are not under the authority and direction 
of the Secretaries of the Army and Air Force, including joint, 
interagency, and intergovernmental matters where NGB acts through other 
Department of Defense (DOD) officials. The Chief also serves as an 
advisor to the commanders of the combatant commands on National Guard 
matters pertaining to their combatant command missions and support 
planning and coordination for such activities as requested by the 
Chairman of the Joint Chiefs of Staff or the commanders of the 
combatant commands. These authorities, coupled with the Chief's channel 
of communication function/authority, enhance his ability to coordinate 
efforts and manpower among Federal entities.

                 national guard multi-role capabilities
    4. Senator Manchin. General Grass, the Army has proposed divesture 
of the C-23 Sherpa, a non-standard airlift platform that is used by 
National Guard units for critical Homeland security missions, and by 
our special forces units in combat. This aircraft has a proven record 
of performing multi-role capabilities and has been particularly useful 
in the challenging terrain of West Virginia. In your opinion, does the 
National Guard need to retain this kind of short-range airlift 
capability?
    General Grass. The unique dual role of the National Guard requires 
the capability to support both overseas and domestic missions. A 
crucial aspect of both of these missions is intra-theater airlift. As a 
full partner in the Total Force and the first military option for 
domestic support, the National Guard must retain this short-range 
airlift capability.

    5. Senator Manchin. General Grass, if confirmed, would you work to 
find a cost-effective solution that would allow National Guard units to 
retain the C-23?
    General Grass. I will work diligently to find creative solutions to 
ensure the National Guard has the most capable aircraft need to support 
all missions.
                                 ______
                                 
               Questions Submitted by Senator John McCain
              national guard and reserve equipment account
    6. Senator McCain. General Grass, as you are aware, under the 
National Guard and Reserve Equipment Account (NGREA), Congress provides 
procurement funding directly to all Reserve components, including the 
National Guard. With the NGREA, Congress intended to ensure that 
shortfalls in equipment provided by the Service are filled in--
especially where in the past the Military Departments did not 
adequately modernize Reserve component equipment and to help keep them 
relevant in both overseas and domestic operations. This tended to be 
the case where two-star flag and general officer heads of their 
respective Reserve component did not feel that they had a seat at the 
budget table. In your view, now that the National Guard has three- and 
four-star general officers and the rest of the Reserves have a three-
star flag or general officer, is it necessary for Congress to fund 
NGREA since Reserve component leadership now has a greater opportunity 
to participate in decisions on the Military Department's annual budget?
    General Grass. The National Guard and Reserve Equipment Account is 
vital to maintaining the readiness of the National Guard as an 
operational force. The Army National Guard (ARNG) utilizes this funding 
to ensure interoperability, modernization, and overall equipment 
posture in support of domestic and contingency operations. Similarly, 
the Air National Guard (ANG) utilizes this funding for Domestic 
operations capability and to modernize legacy aircraft so that these 
aircraft may continue to operate in worldwide airspace. While the 
National Guard is better represented within their services, the 
National Guard and Reserve Equipment Account is necessary to provide 
the resources needed to procure dual-use equipment vital to the unique 
role of the National Guard.

    7. Senator McCain. General Grass, since NGREA funding is provided 
by Congress and meant to fund all Reserve components (including the 
Army Reserve, Navy Reserve, Marine Corps Reserve, and Air Force 
Reserve), if confirmed, would you help ensure that all Reserve 
components gets a fair share of this congressionally-provided funding?
    General Grass. I will work the Reserve components to receive a fair 
share of the National Guard and Reserve Equipment account.

               compensation and retirement modernization
    8. Senator McCain. General Grass, the report of the 11th 
Quadrennial Review of Military Compensation, recently provided to the 
committee, asserts that compensation for the Reserves is ``misaligned 
with an operational force''. Do you agree, or disagree, with that 
assertion with respect to the National Guard? Please explain your 
answer.
    General Grass. The current compensation system for the Reserves is 
based on a strategic Reserve framework. However, since 2003, the 
Reserves have shed much of their strategic nature and become an 
operational force. The Commission on the National Guard and Reserve 
stated that the National Guard and Reserves are now an operational 
reserve, which is significantly different from the strategic reserve of 
the Cold War. The 11th Quadrennial Review of Military Compensation, in 
their final report, said that a modernized Reserve component 
compensation system should provide incentives for Reserve component 
members to serve at the required levels of participation and be clearly 
integrated with the Active component system. Such an approach would 
facilitate transitions between Active and Reserve components--under the 
philosophy of a continuum of service--and ensure equitable pay for 
similar service.

    9. Senator McCain. General Grass, the National Defense 
Authorization Act for Fiscal Year 2013, recently reported by this 
committee, would establish a Military Compensation and Retirement 
Modernization Commission, charged with modernizing compensation and 
retirement systems for both the Active and Reserve components. What 
compensation principles do you think should be applied to differentiate 
between service in the Active component and the Reserve component, and 
are they the same or different from the past?
    General Grass. Unlike regular component service, National Guard 
members are citizen-soldiers and airmen, the majority do not serve in a 
full time military capacity. In most cases, National Guard duty is an 
adjunct to their full-time employment or academic studies.
    The last decade has demonstrated the need to utilize the National 
Guard as an operational force. Compensation principles for an 
operational force should remain similar to those of a strategic 
reserve, it is the application of those principles that change.

    10. Senator McCain. General Grass, in your view, would the result 
of realignment of compensation for the Guard result in increasing or 
decreasing the cost of Guard personnel? What about Total Force costs?
    General Grass. The 11th Quadrennial Review of Military Compensation 
(QRMC) recommends a reduction in duty statuses to simplify compensation 
for the Reserve components. It recommends realignment of pay to more 
closely parallel Active Duty pay and allowances, using the Regular 
Military Compensation. For more than 40 years, regular military 
compensation (RMC) has been recognized as a better measure than basic 
pay alone for comparing military and civilian compensation because it 
includes incentive pay. It is likely the reforms suggested by the QRMC 
would result in increases in incentive pay, negating any decrease in 
basic pay. In addition, the QRMC recommends changes in retirement pay 
for National Guardsmen that could incentivize longer service, but 
increase accrual costs for the Government.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                             sequestration
    11. Senator Inhofe. General Grass, sequestration will be 
devastating to our national defense, the military, and our defense 
industrial base. Could you please explain how sequestration will affect 
your organization?
    General Grass. The percentage reduction for fiscal year 2013 equals 
the total cut for DOD as a whole ($50-$55) billion) divided by fiscal 
year 2013 new budget authority and prior-year unobligated balances. If 
military personnel funding is exempt, it will be excluded from fiscal 
year 2013 new budget authority. That means everything else is cut more 
and DOD estimates an 8 percent cut with milpers included, 10 percent 
with milpers exempt. The best way to avoid this problem is to turn off 
sequestration for defense and non-defense.

    12. Senator Inhofe. General Grass, we are already assuming risks 
with the reduction of the DOD budget, but if sequestration takes 
effect, how much more risk would be involved and can we adequately meet 
the requirements of our national defense strategy?
    General Grass. We are currently performing impact assessments of 
sequestration that consider some of these factors. However, we are 
heavily focused on turning off sequester rather than assessing its 
impact.

                        national guard readiness
    13. Senator Inhofe. General Grass, what will be the impact of 
decreased budgets on the future readiness of the National Guard?
    General Grass. If there is less funding to man, train, and equip 
National Guard units, then readiness will suffer. The National Guard is 
at its highest ever level of readiness and combat experience. We have 
attained this readiness through 10 years of war with significant 
investments in manning, training, and especially equipping our units. 
The National Guard, as an integral part of the operational force, 
provides a highly efficient way to provide trained and ready units to 
the Nation when required for national defense or disaster relief. Any 
decrease in funding to such an efficient and closely managed force is 
certain to have an effect on our readiness.
    Decreased budgets National Guard impact not only National Guard 
readiness but Total Force readiness because the National Guard supports 
both title 32/State missions and title 10 commitments with dual-use 
personnel and equipment. Responses to title 10 operations could be 
impacted, as well as responses to natural and manmade disasters, 
ability to support law enforcement, and other domestic activities.

                       state partnership program
    14. Senator Inhofe. General Grass, please provide a summary of your 
review of the State Partnership Program (SPP), actions taken to address 
Government Accountability Office (GAO) recommendations, and 
recommendations on further changes required to improve this program, to 
include funding and additional authorities.
    General Grass. The SPP is an innovative, low cost, small footprint 
program that furthers the U.S. Government, DOD, and combatant 
commander's security cooperation goals. The enduring relationships 
established over time, yields significant returns for our Nation.
    The GAO SPP report highlighted several issues which DOD 
acknowledged and is working to correct. The report identified 
initiatives already underway to correct known deficiencies, including 
improved program management through publication of Instructions and 
Manuals, improved oversight and data integrity, clarity of civilian 
participation, and additional training for program participants.
    I will continue oversight of the SPP and look into additional 
changes and authorities that would improve the program.

                           suicide prevention
    15. Senator Inhofe. General Grass, please provide a list of 
programs the National Guard is using to mitigate suicides and how you 
assess the long-term success of these programs.
    General Grass. Suicide prevention and resiliency training is a top 
priority for the National Guard. I will work with the Adjutants General 
to identify risk factors and provide National Guardsmen and their 
families with the outreach needed to provide the best resiliency 
training. I will also determine if there are additional steps the NGB 
and the Department can make to mitigate these tragedies, including 
additional funding if required.
    I am aware that the National Guard has instituted a number of 
suicide prevention programs, and I will examine the criteria used to 
assess their long-term success. These programs include, but are not 
limited to:

        <bullet> Resilience, Risk Reduction, and Suicide Prevention 
        Campaign Plan established an Resilience, Risk Reduction, and 
        Suicide Prevention Council in each State and territory and the 
        District of Columbia;
        <bullet> Leaders Guide on Soldier Resilience;
        <bullet> 54 State Suicide Prevention Program Managers and 78 
        Directors of Psychological Health, to provide behavioral health 
        assessments and referrals for ARNG soldiers.
        <bullet> Vets4Warriors peer support line;
        <bullet> Master Resilience Trainers who serve as the 
        commander's principal advisor on resilience, provide training, 
        and are one component of the strategy to increase and enhance 
        performance;
        <bullet> ANG Suicide Integrated Process Teams (IPT) to examine 
        and implement suicide prevention initiatives;
        <bullet> Licensed mental health professional at each ANG Wing 
        to serve as an advisor to the Wing commander on psychological 
        health, prevention, education, crisis management, assessment, 
        referral, and case management;
        <bullet> ANG wingman site, which provides resources as well as 
        highlights the Ask, Care, and Escort program.

                         military construction
    16. Senator Inhofe. General Grass, funding for military 
construction has been in a constant decline. If confirmed, would you 
please provide a prioritized list of National Guard military 
construction projects.
    General Grass. I commit to providing a prioritized list of National 
Guard military construction projects. Located in over 3,000 
communities, National Guard facilities are uniquely positioned to allow 
units to support to local governments and quickly respond to disasters. 
As a result of this arrangement, the National Guard is also the 
connective tissue between the military and the Nation's citizens. It is 
vital that the National Guard maintain adequate facilities to support 
an operational force that is geographically dispersed.

              alternative energy and war on global warming
    17. Senator Inhofe. General Grass, I believe DOD can and should 
improve efficiencies in energy use and expand in the use of alternative 
energy sources; however, it should not come at the cost of manning, 
training, or equipping the force. Do you agree?
    General Grass. DOD should improve efficiencies in energy use and 
expand the use of alternative energy sources. Those efforts should 
support and improve capability and cost-effectiveness of the force, and 
should not come at the cost of manning, training, or equipping the 
force.

    18. Senator Inhofe. General Grass, some alternative fuels, such as 
biofuels, cost five to eight times as much as conventional fuels, with 
no guarantee that market forces will bring these costs down. The Navy's 
move to biofuels alone is expected to add $1.8 billion a year in fuel 
costs in for the green fleet. This money will have to be taken from 
other accounts due to decreasing defense budgets. With the continued 
decline of the defense budget over the past 3 years--forcing cuts to 
personnel, ships, and aircraft--what will be the impact of tripling or 
quadrupling your fuel costs?
    General Grass. The cost of fuel is a major concern for the entire 
DOD. Increases in the cost of fuel impact the ability of the military 
to train on equipment to meet readiness requirements. Tripling or 
quadrupling the cost of fuel will exacerbate that issue.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
                   national guard counterdrug program
    19. Senator Cornyn. General Grass, if confirmed as Chief of the 
NGB, you will oversee all National Guard Counterdrug (NGCD) programs. 
For Border States such as Texas, these programs are of great interest. 
The Southwest Border consists of 1,969 miles, with 65 percent of that 
border in Texas. With over 90 percent of America's illegal drugs 
entering the United States through the Southwest Border, this region of 
the country is critical in the effort to stop the flow of trafficking. 
Yet, of the total fiscal year 2013 funding for the NGCD program, the 
Southwest Border States received just 26 percent. Does that surprise 
you?
    General Grass. It is my understanding that 90 percent of the 
cocaine enters through the Southwest Border. However, I believe it is 
also important to consider that the majority of marijuana consumed in 
the United States is grown domestically, synthetic and prescription 
drugs are an increasing threat, and methamphetamine use continues to 
rise. I support the national interdiction goal as set forth in the 
National Drug Control Strategy; establishing a desired removal rate of 
40 percent of the documented flow of cocaine destined for the United 
States by fiscal year 2015.

    20. Senator Cornyn. General Grass, since we know with certainty 
where the lion's share of the drugs are physically entering the United 
States, it would seem that facilitating successful interdictions would 
naturally be a top priority under the NGCD program. Yet, under the 
NGB's new Threat-Based Resourcing Model (TBRM), interdiction comprises 
less than 25 percent of the weighted variables that are used for 
distributing funding to the States. I was pleased that when we met 
privately prior to your confirmation hearing, you gave me your 
commitment to take a serious look at the NGCD program, in particular 
how funding is distributed to the States under the TBRM process. Please 
share your perspective on these issues and explain how you will go 
about your assessment of TBRM.
    General Grass. The NGCD Program provides military unique support to 
law enforcement in a variety of DOD approved missions, to include 
Criminal Analysis, Aviation and Ground Reconnaissance, and Training. As 
a support program, the NGCD Program aids Federal, State, and local law 
enforcement agencies in the execution of their priorities. The 
President's inaugural National Drug Control Strategy, released in May 
2010 is a marked departure from previous approaches to drug policy. In 
accordance with this new policy, I am committed to working with the 
State Adjutants General and Interagency partners to ensure proper 
resource allocation.

    21. Senator Cornyn. General Grass, during a recent NGB briefing to 
Senate staff regarding the TBRM process, the briefers were queried as 
to why interdiction of drug traffickers on the Southwest Border seems 
to have been downgraded as an objective of the NGCD program. Their 
response was, ``Look, no matter what we do, drugs will still get into 
America.'' Do you share the belief that we cannot win the interdiction 
fight to stop illegal drugs from entering the United States along the 
Southwest Border, and thus we should reallocate NGCD funding elsewhere?
    General Grass. Interdiction is an important aspect of countering 
illegal narcotics. I remain committed to supporting law enforcement 
efforts in reducing the flow of illicit drugs destined for the United 
States and ensuring proper resource allocation through the Counter Drug 
Program.

    22. Senator Cornyn. General Grass, as per ``The National Guard 
Counterdrug Program Fiscal Year 2014 Threat Based Resourcing Model'' 
document, the ``goal of the TBRM is to provide an objective 
distribution of counterdrug funds as closely aligned to the threat as 
possible''. In contrast to this stated goal, the weighing of the 
variables in TBRM is decided via a democratic vote by representatives 
of all 54 States and territories. Do you think this is the optimal way 
to determine the allocation of funding?
    General Grass. I will review the current allocation of counterdrug 
resources and the weighing of the variables to ensure the proper 
distribution of resources.

    23. Senator Cornyn. General Grass, do you agree that this injects 
inherent subjectivity into the process and invites individual State 
concerns to take precedence over national priorities?
    General Grass. I will review the process and determine if 
subjectivity is being injected into the outcome of resource allocation. 
I will also ensure individual state concerns are not taking precedence 
over national priorities.

    24. Senator Cornyn. General Grass, I have also concluded that the 
weighted variables in TBRM bear very little relation to National Guard 
core competencies. Many of these weighted variables represent 
dimensions of the drug problem that the National Guard has no capacity 
to address anyway (e.g., prescription drug abuse), and such an approach 
seems ill-suited for sensibly determining where the National Guard can 
most effectively and efficiently bring Federal resources (NGCD funding) 
to bear to impact the illicit drug problem using the unique skills and 
tools at their disposal. Will you make a commitment to determine 
whether such a disconnect exists and, if it does, to overhaul the 
process?
    General Grass. Yes, I am committed to determining whether a 
disconnect exists, and if it does, overhaul the process.

    25. Senator Cornyn. General Grass, in trying to help address the 
illegal drug threat to the United States, what core competencies does 
the National Guard bring to the table in support of Federal, State, and 
local law enforcement agencies?
    General Grass. The NGCD Program supports law enforcement through 
Secretary of Defense approved mission sets that include: criminal 
analysis; aviation; training; and reconnaissance. These mission sets 
support the DOD objectives to detect, interdict, disrupt, and curtail 
any activity reasonably related to drug trafficking.

    26. Senator Cornyn. General Grass, should the commander of NORTHCOM 
be asked to provide input as to where NGCD funding is allocated, since 
the program's execution occurs almost entirely within his geographic 
AOR?
    General Grass. Yes. The NGCD Program supports the NORTHCOM Theater 
Campaign Plan and Intermediate Military Objectives.

    27. Senator Cornyn. General Grass, during our private discussion 
regarding NGCD, you also acknowledged that the National Guard is there 
to support law enforcement, not to be a substitute for it. Every State 
has law enforcement agencies, but not every State has an international 
border across which massive amounts of illicit drugs are trafficked 
every year. In States that have these unique problems, military support 
of law enforcement is crucial. NGB's current policy is that every State 
is entitled to have a federally-funded NGCD program, with a minimum 
budget of $500,000, even if that budget comes at the expense of States 
with greater need, such as the Border States. Do you agree that not all 
States have the same level of need for NGCD funding?
    General Grass. Yes, I agree that not all States have the same level 
of need for NGCD funding.

    28. Senator Cornyn. General Grass, in your view, should every State 
be entitled to have a federally-funded NGCD program?
    General Grass. While each State does not have the same level of 
need, each State and territory has a unique drug situation that 
includes gangs, drug trafficking, and associated violence in their 
communities. DOD, through the NGCD program, supports every State that 
meets the requirements of title 32 U.S.C. section 112.

    29. Senator Cornyn. General Grass, in an age of increased budget 
constraints, do you agree that we should focus the NGCD funding where 
the threat is most severe, versus making it a priority to give every 
State a slice of the shrinking pie?
    General Grass. I believe each State has a unique drug threat. The 
goal of the Counterdrug Program is to provide resources and 
capabilities in accordance with the identified threat. The Threat Based 
Resource Model enables us to accomplish this task.

                          army national guard
    30. Senator Cornyn. General Grass, Army Guard aviation plays a 
critical role in all 54 States and territories as the backbone of 
emergency response capabilities. But, this aviation force is aging. 
Please comment on the recapitalization that will be required over the 
next 5 years to keep this aviation force ready and capable of 
responding to the Nation's needs.
    General Grass. The ARNG provides crucial aviation capabilities in 
support of the total Army. The ARNG is home to nearly 50 percent of the 
Army's operational utility fleet. The average fleet age is over 30 
years, and UH-60 modernization and recapitalization is one of the 
biggest challenges to Army aviation. The ARNG and the Army are working 
together to modernize and recapitalize this fleet subject to the 
current budget constraints.

    31. Senator Cornyn. General Grass, the Chief of Staff of the Army 
has proposed cutting the National Guard by four brigades and replacing 
those brigade structures with advise and assist brigades. Do you think 
such a move would be wise?
    General Grass. I will work with the Director of the ARNG and Army 
leadership to determine the best force structure for the ARNG. 
Currently, ARNG Brigade Combat have the ability to perform the advise 
and assist mission and also have the capability to tailor the existing 
structure in order to perform a variety of other missions. These 
missions include, but are not limited to: combat; stability operations; 
and support for domestic operations.

    32. Senator Cornyn. General Grass, will organizing the Guard to 
perform non-standard functions that will not reside in the active Army 
set the Guard up for future cuts?
    General Grass. The ARNG's operational forces are organized the same 
as those of the Active component. This ensures operational consistency 
in support of the geographic combatant commander and the joint 
warfight. Organizational consistency between the Active component and 
ARNG operational forces is a vitally important requirement.
    Organizing the ARNG to perform non-standard functions could pose 
considerable risk to the ARNG for future cuts. Modernization, training, 
and the doctrinal development for on-standard organizations will be 
challenging since this will fall outside a standard, commonly 
understood function. These factors serve only to reinforce questions 
about relevancy and the efficacy for future resourcing.

    33. Senator Cornyn. General Grass, the Army recently said they are 
looking good for the next 5 years for military construction dollars. Do 
you believe this accurately represents the state of the Army Guard 
infrastructure?
    General Grass. I will work with the Director of the ARNG to 
determine the future requirements for ARNG military construction. It is 
vital that the ARNG adequately maintain facilities that support the 
readiness of an operational force.
                                 ______
                                 
    [The nomination reference of LTG Frank J. Grass, ARNG, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 28, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chief of the 
National Guard Bureau and for appointment to the grade indicated in the 
Reserve of the Army under title 10, U.S.C., sections 10502 and 601:

                             To be General.

    LTG Frank J. Grass, ARNG, 0000.
                                 ______
                                 
    [The biographical sketch of LTG Frank J. Grass, ARNG, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
            Biographical Sketch of LTG Frank J. Grass, ARNG
    LTG Frank J. Grass, ARNG, is the Deputy Commander, U.S. Northern 
Command, and Vice Commander, U.S. Element, North American Aerospace 
Defense Command at Peterson Air Force Base, CO.
    As Deputy Commander, U.S. Northern Command, General Grass helps 
lead the command to anticipate, prepare, and respond to threats and 
aggression aimed at the United States, its territories and interests 
within the assigned area of responsibility, and as directed by the 
President or Secretary of Defense, provide Defense Support of Civil 
Authorities, including consequence management operations.
    General Grass enlisted in the Missouri Army National Guard in 
October 1969. He attended the Missouri Army National Guard Military 
Academy Officer Candidate School and was commissioned in the Engineer 
Corps in 1981. He has served in a variety of command and staff 
positions as a traditional National Guard soldier, in the Active Guard 
and Reserve program, and on Active Duty. In his first general officer 
assignment, he served as Deputy Director of the Army National Guard in 
Arlington, VA.
    General Grass previously served as Director of Operations. U.S. 
Northern Command. As Director of Operations, he was the principal 
advisor to the Commander on all operational matters, providing 
strategic guidance to plan and execute U.S. Northern Command missions 
within the area of responsibility; including air, land, maritime, 
ballistic missile defense, and cyber homeland defense operations as 
well as Defense support of civil authorities.

Education:
    1975 - St. Louis Community College, Associates Degree, 
Environmental Technology, St Louis, MO.
    1985 - Metropolitan State University, Bachelor of Science, Liberal 
Arts, St Paul, MN.
    1997 - Missouri State University, Master of Science, Resource 
Planning, Springfield, MO.
    2000 - National War College, Master of Science, National Security 
Strategy, National Defense University, Fort Lesley J. McNair, 
Washington, DC.
    2006 - National Defense University, Capstone General and Flag 
Officer Course, Fort Lesley J. McNair, Washington, DC.

Assignments:

------------------------------------------------------------------------
              From                        To              Assignments
------------------------------------------------------------------------
September 1981..................  October 1981......  Platoon Leader,
                                                       Detachment 1,
                                                       220th Engineer
                                                       Company, Festus,
                                                       MO.
October 1981....................  February 1982.....  Student, Engineer
                                                       Officer Basic
                                                       Course, Fort
                                                       Belvoir, VA.
February 1982...................  January 1984......  Project Officer,
                                                       U.S. Army Corps
                                                       of Engineers, St.
                                                       Paul District,
                                                       St. Paul, MN.
January 1984....................  November 1984.....  Platoon Leader,
                                                       Company D, 15th
                                                       Engineer
                                                       Battalion, 9th
                                                       Infantry
                                                       Division, Fort
                                                       Lewis, WA.
November 1984...................  May 1985..........  Executive Officer,
                                                       Company D, 15th
                                                       Engineer
                                                       Battalion, 9th
                                                       Infantry
                                                       Division, Fort
                                                       Lewis, WA.
May 1985........................  January 1986......  Battalion Motor
                                                       Officer, 15th
                                                       Engineer
                                                       Battalion, 9th
                                                       Infantry
                                                       Division, Fort
                                                       Lewis, WA.
January 1986....................  February 1986.....  U.S. Army Reserve
                                                       Control Group,
                                                       Unassigned, St.
                                                       Louis, MO.
February 1986...................  July 1986.........  S4, 880th Engineer
                                                       Battalion,
                                                       Jefferson
                                                       Barracks, MO.
July 1986.......................  July 1988.........  Commander, 220th
                                                       Engineer Company,
                                                       Festus, MO.
July 1988.......................  July 1988.........  Civil Engineer,
                                                       35th Engineer
                                                       Brigade,
                                                       Jefferson
                                                       Barracks, MO.
July 1988.......................  July 1991.........  Assistant
                                                       Professor of
                                                       Military Science,
                                                       Missouri State
                                                       University,
                                                       Springfield, MO.
July 1991.......................  June 1992.........  Student, Command
                                                       and General Staff
                                                       Officer Course,
                                                       Fort Leavenworth,
                                                       KS.
June 1992.......................  July 1994.........  Engineer Exercise
                                                       Project Officer,
                                                       Headquarters,
                                                       U.S. Army South,
                                                       Fort Clayton,
                                                       Panama.
July 1994.......................  July 1997.........  Chief, Exercise
                                                       Section, Exercise
                                                       Branch, Army
                                                       National Guard
                                                       Readiness Center,
                                                       Arlington, VA.
July 1997.......................  July 1999.........  Commander, 203d
                                                       Engineer
                                                       Battalion,
                                                       Joplin, MO.
July 1999.......................  June 2000.........  Student, National
                                                       War College,
                                                       National Defense
                                                       University, Fort
                                                       McNair,
                                                       Washington, DC.
June 2000.......................  September 2003....  Chief, Operations
                                                       Division, Army
                                                       National Guard
                                                       Readiness Center,
                                                       Arlington, VA.
September 2003..................  April 2004........  G-3, Army National
                                                       Guard, Army
                                                       National Guard
                                                       Readiness Center,
                                                       Arlington, VA.
April 2004......................  May 2006..........  Deputy Director,
                                                       Army National
                                                       Guard, Army
                                                       National Guard
                                                       Readiness Center,
                                                       Arlington, VA.
May 2006........................  September 2008....  Director.
                                                       Mobilization and
                                                       Reserve Component
                                                       Affairs,
                                                       Headquarters U.S.
                                                       European Command,
                                                       Stuttgart,
                                                       Germany.
September 2008..................  September 2010....  Director of
                                                       Operations, U.S.
                                                       Northern Command,
                                                       Peterson Air
                                                       Force Base, CO.
September 2010..................  Present...........  Deputy Commander,
                                                       U.S. Northern
                                                       Command, Peterson
                                                       Air Force Base,
                                                       CO.
------------------------------------------------------------------------


Awards and decorations:
    Defense Superior Service Medal (with one Bronze Oak Leaf Cluster)
    Legion of Merit
    Meritorious Service Medal (with three Bronze Oak Leaf Clusters)
    Army Commendation Medal (with three Bronze Oak Leaf Clusters)
    Army Achievement Medal (with two Bronze Oak Leaf Clusters)
    Army Reserve Component Achievement Medal (with Silver Oak Leaf 
Cluster)
    National Defense Service Medal (with one Bronze Service Star)
    Global War on Terrorism Service Medal
    Armed Forces Service Medal
    Humanitarian Service Medal
    Armed Forces Reserve Medal (with Gold Hourglass Device)
    Noncommissioned Officer Professional Development Ribbon
    Army Service Ribbon
    Overseas Service Ribbon (with Numeral 2)
    Army Reserve Component Overseas Training Ribbon (with Numeral 2)
    Joint Meritorious Unit Award (with two Bronze Oak Leaf Clusters)
    Army Superior Unit Award
    Parachutist Badge
    Army Staff Identification Badge

Professional memberships and affiliations:
    National Guard Association of the United States (Life Member)
    National Guard Association of Missouri (Life Member)
    Society of American Military Engineers (Life Member)
    Association of the U.S. Army (Life Member)
    National War College Alumni Association (Life Member)
    Missouri State University Alumni
    Metropolitan State University Alumni

Other achievements:
    The Bronze Order of the de Fleury Medal, The Army Engineer 
Association
    Missouri Conspicuous Service Medal, Missouri National Guard
    Honorable Order of St Barbara, U.S. Field Artillery Association
    Distinguished Service Medal, National Guard Association of the 
United States
    Washington Army National Guard Legion of Merit, State of Washington

Effective dates of promotions:
    Second Lieutenant, ARNG, 12 September 1981
    First Lieutenant, USA, 19 April 1983
    Captain, USA, 01 July 1985
    Major, ARNG, 04 August 1990
    Lieutenant Colonel, ARNG, 07 February 1995
    Colonel, ARNG, 31 May 2000
    Brigadier General (LINE), ARNG, 02 April 2004
    Major General (LINE), ARNG, 22 June 2006
    Lieutenant General (LINE), ARNG, 30 September 2010
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Frank J. 
Grass, ARNG, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Frank J. Grass.

    2. Position to which nominated:
    Chief, National Guard Bureau.

    3. Date of nomination:
    June 28, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 19, 1951; St. Louis, MO.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Patricia Ellen Grass (Maiden name: Cullen).

    7. Names and ages of children:
    Amanda Sue Scott (Grass); age 34.
    Frank Joseph Grass, Jr.; age 32.
    Laura Ellen Fisher (Grass); age 31.
    Patrick Michael Grass; age 27.
    Mark Cullen Grass; age 24.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    I am a beneficiary to the ``Arthur Grass Family Trust DTD 7-7-92''. 
This is the Family Trust established by my deceased father.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    National Guard Association of the United States (Life Member).
    National Guard Association of Missouri (Life Member).
    Society of American Military Engineers (Life Member).
    Association of the U.S. Army (Life Member).
    National War College Alumni Association.
    Missouri State University Alumni.
    Metropolitan State University Alumni Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extact provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Frank J. Grass.
    This 22nd day of April, 2012.

    [The nomination of LTG Frank J. Grass, ARNG, was reported 
to the Senate by Chairman Levin on July 25, 2012, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 26, 2012.]


 NOMINATION OF GEN. JOSEPH F. DUNFORD, JR., USMC, FOR REAPPOINTMENT TO 
   THE GRADE OF GENERAL AND TO BE COMMANDER, INTERNATIONAL SECURITY 
          ASSISTANCE FORCE/COMMANDER, U.S. FORCES-AFGHANISTAN

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2012

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:50 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Webb, McCaskill, Udall, Hagan, Begich, Manchin, Shaheen, 
Blumenthal, McCain, Inhofe, Sessions, Wicker, Portman, Ayotte, 
Collins, and Graham.
    Committee staff member present: Richard D. DeBobes, staff 
director.
    Majority staff members present: Gerald J. Leeling, counsel; 
William G.P. Monahan, counsel; Michael J. Noblet, professional 
staff member; and William K. Sutey, professional staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; Christian D. Brose, professional 
staff member; Pablo E. Carrillo, minority general counsel; 
Lauren M. Davis, minority staff assistant; Paul C. Hutton IV, 
professional staff member; Daniel A. Lerner, professional staff 
member; Elizabeth C. Lopez, research assistant; and Diana G. 
Tabler, professional staff member.
    Staff assistants present: Jennifer R. Knowles, Brian F. 
Sebold, and Lauren M. Gillis.
    Committee members' assistants present: Brian Burton and 
Vance Serchuk, assistants to Senator Lieberman; Carolyn Chuhta, 
assistant to Senator Reed; Gordon Peterson, assistant to 
Senator Webb; Jason Rauch, assistant to Senator McCaskill; 
Casey Howard, assistant to Senator Udall; Christopher Cannon, 
assistant to Senator Hagan; Brittany Keates, assistant to 
Senator Begich; Mara Boggs, assistant to Senator Manchin; 
Patrick Day, assistant to Senator Shaheen; Anthony Lazarski, 
assistant to Senator Inhofe; Lenwood Landrum, assistant to 
Senator Sessions; Todd Harmer, assistant to Senator Chambliss; 
Joseph Lai, assistant to Senator Wicker; Brent Bombach, 
assistant to Senator Portman; Brad Bowman, assistant to Senator 
Ayotte; Nick Rossi, assistant to Senator Collins; Sergio 
Sarkany, assistant to Senator Graham; and Charles Brittingham, 
assistant to Senator Vitter.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets this morning to consider the nomination 
of General Joseph Dunford, Jr., U.S. Marine Corps to be the 
next Commander, U.S. Forces-Afghanistan (USFOR-A) and Commander 
of the International Security Assistance Force (ISAF).
    This morning's hearing was originally scheduled to also 
include consideration of the nomination of General John Allen, 
USMC, to be Commander of the U.S. European Command and Supreme 
Allied Commander. General Allen, of course, currently holds the 
positions for which General Dunford is nominated. However, 
earlier this week, the Department of Defense (DOD) requested 
that General Allen's nomination be put on hold pending a DOD 
Inspector General review. We have agreed and hope that the 
review can be completed promptly.
    General Dunford brings to this nomination a distinguished 
military career with over 35 years of military service. He is 
currently the Assistant Commandant of the Marine Corps and has 
commanded combat forces in Iraq. General, we thank you for your 
many years of service and for your willingness to once again 
answer the call to serve this Nation.
    Let me also extend our thanks to your family whose support 
is so essential. As is the tradition of this committee, I would 
invite you to introduce your wife Ellyn and any family members 
or friends who may be here with you this morning when you make 
your opening remarks.
    Today's hearing comes at an important time and follows a 
string of negative reports in the media over the last few 
months that have raised questions about various aspects of the 
campaign and the performance of the Afghan Security Forces. We 
hope that this morning General Dunford can provide the broader 
picture of our goals in Afghanistan, the progress in building 
the Afghan Security Forces, what the prospects are for the next 
2 years in terms of transition to Afghan control, and what 
steps the U.S. coalition and Afghan leaders are taking to 
address and mitigate the insider threat.
    The recent increase in insider attacks by Afghan National 
Security Forces (ANSF) personnel or impersonators against U.S. 
and coalition forces threatens the essential trust between ISAF 
forces and our Afghan partners. At the same time, according to 
ISAF data, the number of enemy-initiated attacks over the last 
3 months is down 5 percent compared to the same 3-month period 
a year ago.
    If confirmed, General Dunford would assume command as the 
security transition in Afghanistan enters a critical phase. 
Getting Afghan Security Forces in the lead for security 
continues to be the key to the success of the Afghanistan 
mission. Afghan Security Forces are moving into the security 
lead in designated areas around the country as coalition forces 
step back more and more into a supporting role. The areas under 
Afghan security lead now cover approximately 75 percent of the 
Afghan population. Afghan Security Forces will have primary 
responsibility for security throughout Afghanistan once the 
transition process is completed next summer. ISAF forces will 
continue to provide support, including combat support if 
necessary, until the end of 2014. Afghan Security Forces have, 
in general, shown that they are willing to fight, and the 
Afghan people want to have their own forces rather than 
coalition forces keeping their communities secure.
    A key element of this transition which General Dunford will 
be overseeing is the shift in the ISAF mission from having 
coalition combat forces partnering and operating with similar 
units of the Afghan forces to a security force assistance 
mission. In that mission, mid-grade officers and senior 
noncommissioned officers form security force assistance teams 
(SFATs), which are embedded in small units as advisors within 
Afghan forces to help build their capabilities, even as Afghan 
forces continue their move into the lead for combat operations.
    General Dunford will be responsible, if confirmed, for 
implementing the President's decision on the drawdown of U.S. 
forces in Afghanistan during the next 2 years to post-2014 
levels. An important milestone was achieved at the end of 
September with the drawdown of U.S. forces to the 68,000 level 
and the completion of the withdrawal of the 33,000 U.S. surge 
force. Secretary Panetta said earlier this week that General 
Allen and the White House are in the process of discussing 
options for the U.S. enduring presence in Afghanistan after 
2014, a process that Secretary Panetta hopes will be completed 
``within the next few weeks''. Secretary Panetta stressed that 
the U.S. enduring presence in Afghanistan would be based on the 
missions that U.S. forces would be carrying out, missions like 
counterterrorism, advising and assisting the Afghan forces, and 
providing those forces important enabling capabilities.
    General, we would like to hear from you this morning about 
the pace of the drawdown of U.S. forces from the current 68,000 
troop level to the level of our enduring presence after 2014. 
Do you expect the drawdown to occur at a steady pace, as the 
President has said, or do you anticipate the pace of the 
drawdown remaining at 68,000 through next year's fighting 
season and then dropping rapidly sometime thereafter?
    Finally, the United States and Afghanistan have begun 
negotiations on a status of forces agreement (SOFA), as 
required by the bilateral enduring Strategic Partnership 
Agreement that Presidents Obama and Karzai signed in May. The 
SOFA will provide the necessary protections for U.S. troops 
deployed to Afghanistan after 2014, and we would be interested 
in your thoughts, General, on the importance of the SOFA for 
signaling to the Taliban and Afghanistan's neighbors that the 
U.S.-Afghanistan partnership will be an enduring contribution 
to regional stability. We would also hope you would address 
what you see as the U.S. red lines in those SOFA negotiations.
    We look forward to your testimony this morning.
    I now call upon Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and let me thank 
our distinguished witness for joining us this morning and for 
his many years of impressive service in uniform.
    Let me start by saying a word about General John Allen, 
USMC, our Commander in Afghanistan, who we had expected to 
testify today on his nomination to be Commander of U.S. 
European Command and Supreme Allied Commander. While the 
committee awaits the conclusion of the Defense Department's 
Inspector General investigation, I continue to believe that 
General Allen is one of our best military leaders and I 
continue to have confidence in his ability to lead the war in 
Afghanistan as well as to serve in the post for which he has 
now been nominated.
    General Dunford, I am grateful for your willingness to 
accept this nomination to serve as Commander of U.S. Forces and 
the International Security Assistance Force in Afghanistan, but 
I also believe that if you are confirmed, you will have a 
difficult road ahead of you. I think our mission in Afghanistan 
is at a very serious and troubling crossroads, and much of the 
recent reporting is deeply worrisome.
    Unfortunately, over the past few months, our enemies have 
been rather successful in carrying out so-called insider 
attacks that have killed and wounded many American and Afghan 
troops. As I am sure you would agree, General Dunford, it is 
hard to overstate the damage these kinds of attacks do to the 
morale of our troops and to our broader mission of supporting 
the growth and professionalization of Afghan forces. It is hard 
for our troops to work effectively with their Afghan partners 
when they have reason to mistrust some among them. While I 
support the decision to suspend many of these partnering 
efforts, it is harmful nonetheless.
    We are also seeing more and more reports of declining 
security in Afghanistan, including in a province like Bamiyan, 
which was once one of the safest places in the country. Al 
Qaeda is working harder than ever to reestablish safe havens in 
eastern Afghanistan, and there is some evidence that they are 
succeeding. In what was perhaps the most brazen and least 
reported attack this year, a small unit of Taliban operatives 
fought their way into Camp Bastion in Helmand Province in 
September and managed to destroy six Harrier aircraft at a 
total loss of nearly $200 million. Talk about asymmetrical 
warfare. Two marines were killed in that attack, including 
Sergeant Bradley Atwell and Lieutenant Colonel Christopher 
Raible, a Marine aviator, who lost his life after running 
toward the fight and bravely fighting heavily armed insurgents 
with only his pilot's side arm.
    Not surprisingly, this growing insecurity is heightening 
ethnic and other factional tensions in Afghanistan which could 
portend a renewal of civil conflict. Earlier this week, the New 
York Times reported that Ismail Khan, a powerful Tajik warlord 
who was responsible for some of the worst violence of 
Afghanistan's civil war, is calling on his supporters to rearm 
and prepare for a resumption of conflict against the Taliban. 
These comments were echoed by Marshal Mohammed Fahim, another 
powerful former warlord and a Tajik, who stated, ``If the 
Afghan Security Forces are not able to wage this war, then call 
upon the Mujaheddin.''
    All of these problems in Afghanistan are compounded by the 
two major strategic challenges we face: the continued 
corruption and ineffectiveness on the part of the Afghan 
Government and the safe haven for Taliban leadership and other 
insurgent groups that exist in Pakistan and which continues to 
go unaddressed or worse.
    None of these developments should be surprising. They can 
all be traced back to the fundamental doubt about American 
resolve in this conflict, a doubt that is shared among our 
friends and enemies alike in Afghanistan and the region. The 
President's repeated emphasis on withdrawal, without laying out 
what would constitute a successful and sustainable transition, 
has only fed the belief in Afghanistan that the United States 
is committed to getting out regardless of conditions on the 
ground. This doubt has encouraged all actors in Afghanistan and 
in the region to hedge their bets, which increases the worst 
instincts of the Afghan Government and increases the chance of 
a return to civil conflict in our absence.
    Our mission is now at a crossroads and we can go down one 
of two paths. The first is the one that I fear the President 
will embark on, implementing aggressive cuts to our forces in 
Afghanistan before 2014 and then leaving a presence of 
supporting forces that is not equal to the tasks they need to 
perform if a new security agreement is concluded at all. This 
path would constitute a rush to failure, place unnecessary 
risks on our forces, and I could not support it in any respect.
    There is, however, another path. We could delay the further 
withdrawal of U.S. forces until 2014 so as to give our 
commanders maximum flexibility and combat power to achieve our 
goals. Furthermore, we could conclude a robust security 
agreement with the Afghan Government that would maintain 
sufficient numbers of U.S. forces to perform the tasks that 
will continue to be essential beyond 2014: counterterrorism, 
intelligence, and training of Afghan forces. Both of these 
steps could form the military basis of a political strategy to 
foster better Afghan governance, better cooperation from 
countries in the region, and ultimately a negotiated end to the 
war on terms that are favorable to our Afghan allies and us.
    General Dunford, if confirmed, yours will be a key voice in 
shaping these decisions. I hope that you will advocate for 
actions that can limit the risk to our mission and increase our 
chances of success. I also hope that you will speak truth to 
power and resist the kind of precipitous withdrawal of support 
for Afghanistan that would be a sure recipe for failure. All of 
us look forward to hearing how you would intend to execute the 
major responsibilities that will be entrusted to you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    General, let us now turn to you.

      STATEMENT OF GEN. JOSEPH F. DUNFORD, JR., USMC, FOR 
  REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, 
INTERNATIONAL SECURITY ASSISTANCE FORCE/COMMANDER, U.S. FORCES-
                          AFGHANISTAN

    General Dunford. Chairman Levin, Senator McCain, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today.
    I am truly honored that the President has nominated me to 
command the International Security Assistance Force and U.S. 
Forces in Afghanistan.
    Joining me today is my wife, Ellyn. I am very fortunate to 
have her love and support. She is a great mother to our three 
children, now young adults, and also serves as a tireless 
advocate for our military families. She is unquestionably the 
most valuable player in the Dunford family.
    I would like to begin by thanking this committee for their 
support to our soldiers, sailors, airmen, and marines over the 
past 11 years of conflict. Due to your leadership, our young 
men and women in harm's way have been well-trained, well-
equipped, and well-supported. Their performance and the 
strength of our military families reflect that support.
    As we all know, on September 11, 2001, members of al Qaeda 
murdered almost 3,000 innocent people. We also know the attacks 
were planned in their base of operations in Afghanistan with 
the support of the Taliban. For more than a decade, Americans 
in uniform and their civilian counterparts have responded with 
extraordinary courage, commitment, and self-sacrifice to deny 
safe haven to al Qaeda in Afghanistan and to prevent the 
Taliban from overthrowing the Afghan Government. Throughout 
that time, we have been shoulder to shoulder with our coalition 
and Afghan partners.
    As a result of our shared sacrifice and commitment, our 
goals are within reach. In the months ahead, in accordance with 
our national objectives and Lisbon commitments, we will 
complete the transition to Afghan security lead and set the 
conditions for an enduring partnership with the Afghan people.
    I recognize that much work remains to be done and the 
challenges will be many, but with continued focus and 
commitment, I believe our goals are achievable. If confirmed, I 
look forward to working closely with our partners to overcome 
the challenges, to meet our objectives, and to make certain our 
shared sacrifices matter.
    If confirmed, I also look forward to the opportunity to 
lead our young men and women in Afghanistan and I will do all I 
can to ensure they have the wherewithal to accomplish the 
mission and return home to their families.
    With that, I thank the committee again for allowing me to 
appear before you today. I am prepared to answer your 
questions.
    Chairman Levin. Thank you very much, General.
    We have a standard set of questions that we ask of our 
nominees, let me now ask them of you.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Dunford. I have, Mr. Chairman.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    General Dunford. I do, Mr. Chairman.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Dunford. I have not, Mr. Chairman.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record and hearings?
    General Dunford. I will, Mr. Chairman.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Dunford. I will, Mr. Chairman .
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Dunford. They will, Mr. Chairman.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    General Dunford. I do, Mr. Chairman.
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Dunford. I do, Mr. Chairman.
    Chairman Levin. Thank you.
    Let us start with a 7-minute first round of questions.
    One of the keys to success in Afghanistan is building the 
size and capacity of the Afghan Security Forces. The plan calls 
for those forces to reach 352,000--or they call for it to reach 
352,000 by October of this year, although it has been reported 
recently that the schedule for the building of those forces 
slipped by a few months. Do you know where that is?
    General Dunford. Mr. Chairman, I do. All of the individuals 
to meet the 352,000 goal have been recruited. Not all the 
individuals have been trained, and my expectation, based on my 
recent visit, is that training will be completed in early 2013 
with the exception of the Afghan Air Force which is working 
through human capital issues and longer training timelines.
    Chairman Levin. Senator Graham and I, and I think others on 
this committee, have urged a retention of a large Afghan army 
and security forces and that it not be reduced to the 230,000 
model which has been apparently adopted for starting in, I 
believe, 2015, which was adopted at the North Atlantic Treaty 
Organization (NATO) Chicago summit. We really feel that this is 
a very good investment of dollars, and it is a heck of a lot 
better than having a larger number of American troops there. 
Even though there is, obviously, a greater cost to us and our 
allies for helping to maintain a force at the larger level of 
352,000, instead of after a few years reducing that number to 
230,000, nonetheless we are very concerned about that model. We 
believe that it is based on presumptions about what the 
security conditions will be years from now and based on the 
affordability of Afghan forces rather than our commanders' best 
military judgments.
    Would you assure us that in making any recommendations on 
the future size of the Afghan Security Forces that you will 
provide your best military judgment independent of the 
affordability considerations?
    General Dunford. Mr. Chairman, I would. I am aware that the 
current size and the timeline for the drawdown of the Afghan 
Security Forces was based on some analysis done by the Center 
for Army Analysis a couple years ago. If I am confirmed, one of 
the first things I will do is revisit the assumptions 
associated with that plan and ensure that we maintain the 
capabilities and capacities of the Afghans such that they can 
meet their security requirements post-2014.
    Chairman Levin. Thank you.
    What is your assessment of the performance of the Afghan 
Security Forces, particularly in those areas where they have 
moved into the lead for providing security?
    General Dunford. Mr. Chairman, I actually came back from my 
recent visit encouraged by the capability of the Afghan 
Security Forces. I can remember clearly my first visit to 
Afghanistan in 2008 when at the time we had 10 coalition 
members for every member of the Afghan Security Forces and 
there had been very little training and very poor equipment.
    On my recent visit, I was encouraged. We have actually had 
corps level operations in Regional Command South planned and 
executed by the Afghans alone. From my perspective today, the 
Afghans have the capability with the support we are providing 
to provide security. Of the Afghan population, 76 percent is 
currently secured as a result of tranches 1, 2, and 3 of the 
security transition. They are secured by ANSFs. I believe, 
based on a trajectory of development of the Afghans since we 
have started this effort through 2014 and with the assumption I 
make post-2014 with the level of commitment we will continue to 
provide, I believe the ANSF will be able to meet the security 
requirements in Afghanistan.
    Chairman Levin. Our President has indicated that he expects 
that the drawdown is going to occur at a steady pace. Is that 
your understanding of what his statement was, and what is your 
own belief as to that issue?
    General Dunford. Mr. Chairman, I think, if I am confirmed, 
what I need to do is make an assessment of the capabilities and 
capacities that we will maintain over the next 2 years such 
that they meet our objectives. First, we need to have necessary 
security to meet milestone 2013 this coming summer where we 
transition to full security lead by the Afghans. Second, we 
need to ensure that we have set the proper conditions for 
successful elections in 2014, and finally, we need to make sure 
that we have the proper forces to smoothly transition in 
December 2014.
    As I make a recommendation, I will look at the strength of 
the enemy. I will look at the capabilities and capacities of 
the ANSFs, judge the capabilities and capacities of coalition 
forces, and then make a recommendation on what our force 
contribution ought to be between now and 2014 and then beyond 
as we go into the decade of transformation.
    Chairman Levin. The Afghan people apparently continue to 
have a very high level of confidence in the Afghan National 
Army (ANA) with 93 percent, according to the polls, saying that 
they have a fair amount or a great deal of confidence in the 
army, and indeed the confidence has even grown in the Afghan 
National Police (ANP) with 82 percent of the Afghan people, 
according to those polls, expressing some level of confidence 
in them.
    Do you believe that those numbers, percentages, and polls 
are accurate when it finds that a significant majority of the 
Afghan people have high confidence or a reasonable level of 
confidence in the ANA and in the ANP?
    General Dunford. Mr. Chairman, I do not have a sense for 
the methodology that was used to develop those statistics, and 
if I am confirmed, that would be an area that I would look 
deeply into.
    Chairman Levin. All right.
    Earlier this week, it was reported that the Afghans' Energy 
and Water Minister, Mr. Khan, and a well-known warlord from 
Herat, called for militias in Afghanistan to rearm and to take 
up the defense of the country. Now, this would seem to indicate 
a lack of confidence in the ANSFs. Suggesting that he would 
rebuild militia forces, Mr. Khan has raised tensions among 
Afghan leadership and fears that other warlords may rearm, 
threatening to weaken support for the government and increasing 
the risk of civil war.
    I am wondering if you can give us your assessment of Mr. 
Khan's statements and the challenges that rearmed militias 
would pose to political stability and to plans for the 
transition of full security responsibility to the ANSF.
    General Dunford. Mr. Chairman, those militias would 
absolutely have an adverse effect on stability. I think what is 
necessary now--you alluded to a lack of confidence. Senator 
McCain in his opening remarks also alluded to that. I think 
what is necessary right now is that we have a clear and 
compelling narrative of commitment from our country, from our 
partner nations in their capitals, and from the Afghan 
Government. That clear and compelling narrative needs to be 
consistent, and that is something I think we need to work on 
here over the next couple months to address those issues like 
the one you referred to with militias.
    Chairman Levin. Thank you very much, General.
    Senator McCain
    Senator McCain. Mr. Chairman, I would ask the committee's 
indulgence for Senator Inhofe to make a brief comment. He has 
responsibilities at the Environment and Public Works Committee. 
I believe he is going to propose a reduction of greenhouse gas 
emissions. [Laughter.]
    Senator Inhofe. Thank you, Senator McCain. I do have to get 
up to that committee. I do appreciate it.
    Let me just ask two short questions, if I might. I want to 
get on record and agreeing with the comments that Senator 
McCain made about General Allen.
    Second, in response to a written question, General, it 
said, ``Do you agree that following the recovery of 33,000 U.S. 
surge forces in Afghanistan, further reductions in the U.S. 
force level should continue at a steady pace through 2014?'' 
Your response was, ``I agree that there will be further troop 
reductions through 2014, but the pace of the withdrawal over 
the next 25 months will depend on several factors. One of these 
is the readiness.''
    We had a hearing on May 10, and you testified at that 
hearing. I have always considered you to be one of the real top 
individuals understanding and evaluating training. You and I 
have talked about this before, the experiences that we have had 
in watching the training that is taking place with the ANSFs, 
specifically in the Kabul military training center, which I 
have been to several times. I think most of the people on the 
panel have.
    Would you give us an evaluation of the level of training? 
Because that is what is going to depend on a lot of the rate of 
withdrawal in my opinion, or it should anyway.
    General Dunford. Senator, I did have limited opportunity on 
my recent trip once again to see the training that was ongoing 
in Afghanistan. I am, as you are, encouraged by what NATO 
Training Mission-Afghanistan (NTM-A) is doing to enhance the 
training of the Afghan Security Forces. From my perspective, 
the true test of our training is the performance of the 
Afghans. As I mentioned a minute ago, I really believe over the 
last 18 months, their performance has been significantly 
improved as a result of the training being provided by NTM-A.
    Senator Inhofe. I appreciate that.
    The second two things I would like to ask you for the 
record. One would be, it has been a year now since 2011 when 
the international forces in Afghanistan seized a shipment of 48 
122-millimeter rockets from Iran. I think they are still 
denying that those were Iranian rockets that were sent. I would 
like to know for the record the current level of Iranian 
activity in Afghanistan, and perhaps somebody else will be 
asking this during the course of this meeting.
    Finally, the questions I asked in my office on the green-
on-blue attacks, if you could respond for the record on some of 
our conversations concerning that and your concern about that 
for the future. Would you do that for us?
    General Dunford. I will do that, Senator.
    [The information referred to follows:]

    In coordination with Senator Inhofe, a Top Secret classified brief 
will be provided on December 18, 2012, at 9:30 a.m. in SVC-217.

    Senator Inhofe. All right. Thank you.
    Thank you, Mr. Chairman.
    Senator Lieberman [presiding.] Senator Levin, the chairman, 
had to leave for a moment. He asked me to go ahead with my 
questioning.
    General Dunford, thanks for your extraordinary record of 
service and thanks for your willingness to take on this 
critical leadership position at this really important time.
    This hearing happens to take place on the same day that 
U.S. and Afghan officials are meeting for the first time to 
begin negotiations for a bilateral security agreement under 
which we would agree to keep some number of forces and presence 
associated in Afghanistan after 2014. We spoke about this when 
you were good enough to visit my office this week, and I would 
like to give you an opportunity to speak about it here.
    It may seem that the immediate decisions about drawdown and 
support of ANSFs are more important. They are very important, 
but I think there is maybe value to jumping ahead and then 
coming back because I do think what we begin to do with this 
bilateral security agreement, whether we will have a presence 
in Afghanistan after 2014 and what it will be will affect what 
happens before then.
    Let me ask you how important is it in your view for the 
United States to conclude an agreement with the Afghan 
Government to keep some military presence, troops, et cetera in 
Afghanistan after 2014 and why?
    General Dunford. Senator, thank you.
    I think first and foremost a bilateral security agreement 
will be a clear message of commitment for our long-term 
strategic partnership. We signed a strategic partnership this 
past May. A bilateral security agreement will provide the 
technical details associated with implementing that strategic 
partnership agreement.
    What has been raised on a couple of occasions this morning 
is the lack of understanding of that commitment, in some cases 
the lack of confidence that we are committed to the long term. 
I believe that the bilateral security agreement will create 
momentum on the strategic side for that narrative I alluded to 
a minute ago. I think it will be a clear message of U.S. 
presence, but I also would expect that our coalition partners, 
once the bilateral security agreement is signed by the United 
States, will also look to affect the bilateral security 
agreement with the Afghans as well.
    Senator Lieberman. Let me ask this question. Do you think 
that signing a bilateral security agreement with the Afghan 
Government--incidentally, what is your sense of an ideal 
timeframe during which we would reach an agreement on this 
bilateral security?
    General Dunford. Senator, the requirement set forth in the 
Strategic Partnership Agreement is not more than 1 year. That 
agreement was signed back in May. I believe we need to have the 
bilateral security agreement signed not later than May 2013.
    [The information referred to follows:]

    Please accept this insert to clarify the statement I made during 
the hearing.
    The requirement set forth in the Strategic Partnership Agreement is 
a goal of concluding negotiations not more than 1 year from their 
start, which is today. That agreement was signed back in May. I believe 
the goal is to have the bilateral security agreement signed not later 
than November 2013.

    Senator Lieberman. Let us talk about, first, some of the 
effects of signing that agreement in that timeframe. Do you 
think it would have any effect on our forces and ISAF forces 
between now and the end of 2014 if we signed a bilateral 
security agreement for post-2014?
    General Dunford. Senator, I believe there would be an 
effect on our forces indirectly again insofar as it supports 
that narrative of commitment, which I believe will assist 
operations being conducted on a day-to-day basis.
    Senator Lieberman. Is that a question of the morale of our 
forces or is it more than that?
    General Dunford. No, Senator. I think it is a question of 
confidence in the Afghan people that we will remain, the 
confidence in the ANSFs that we will remain, confidence in the 
capitals of the coalition that we will remain, and frankly 
confidence in regional actors as well that we will remain. That 
is what I believe is the most important effect of the bilateral 
security agreement is that clear and compelling narrative that 
not only are we there now, but we intend to see this through 
till transition in 2014 and we also intend to, in accordance 
with our agreements in Chicago and Tokyo, see through the 
decade of transformation that needs to follow in 2014.
    Senator Lieberman. That is a really important answer. Let 
me just draw you out a little bit because I particularly 
appreciate what you said about the effect that our reaching a 
bilateral security agreement with the Afghans by May would have 
on other capitals in the region. I presume that would begin 
with Islamabad?
    General Dunford. Senator, I believe it would have an effect 
on Islamabad. I think Pakistan hedges its bets based on what 
they believe our long-term commitment to the region would be, 
and their calculus will be changed as a result of their knowing 
that we are not only going to be there through December 2014, 
but we will be there beyond 2014 to secure our national 
objectives.
    Senator Lieberman. Right.
    What other capitals did you have in mind?
    General Dunford. The other capitals I had in mind, Senator, 
first and foremost were the 49 capitals of the coalition.
    Senator Lieberman. Right.
    General Dunford. I also think that the other capitals that 
have interest are Iran, the Stans, Russia, China, all the 
countries that have interest in Afghanistan. Their calculus 
would be affected by our signing a bilateral security 
agreement, again more importantly signing that agreement 
reflects the commitment that was initially made in May 2012.
    Senator Lieberman. I think it is a very important answer. I 
have the same feeling. I think Islamabad is the first capital 
that will be affected by the bilateral security agreement, the 
whole argument that you referred to, that part of the reason 
they continue to tie some elements of the Pakistani Government 
to terrorist groups like Haqqani network and Inter-Services 
Intelligence is that they are hedging their bets for what 
happens the day after we leave. If we are not leaving, 
presumably they lose that argument.
    While every situation is different, but I cannot help but 
relate this to Iraq. Nobody wanted our discussions with the 
Iraqi Government for a presence in Iraq after our troops left 
to fail more than Iran did, and in fact, they were working on 
that. The fact that it did fail and we have no continuing 
presence in Iraq I think is part of the reason why Iran's 
influence has spread there and so, incidentally, has al Qaeda 
re-emerged again. I think those are warnings to us about how 
important it is to do exactly what you've called for, which is 
to have a much smaller but a real American presence.
    Let me just ask you to talk a bit about--I would assume you 
do not want to talk numbers of American troops in Afghanistan 
after 2014. Besides the psychological effect or the message 
effect that we have talked about, what are some of the kinds of 
actual missions that a follow-on U.S. presence would have in 
Afghanistan after 2014?
    General Dunford. Senator, I would foresee our two main 
missions being counterterrorism operations and then advise and 
assist to the ANSFs. I believe that advise and assist role is 
an enduring role and would extend past December 2014.
    Senator Lieberman. Thanks, General.
    A final question, do you think the Afghan Government is 
favorably inclined toward a bilateral security agreement with 
us at this time?
    General Dunford. Senator, my understanding from initial 
conversations with Ambassador James Warlick and with General 
Allen and the leadership in Kabul is that the Afghan Government 
is favorably disposed to a bilateral security agreement. 
Clearly the details are what are being worked out right now. 
But both governments have come to the table with terms of 
reference. Both governments appear to be serious about signing 
a bilateral security agreement, and I am cautiously optimistic 
that we will be able to do that in accordance with the 
timeline.
    Senator Lieberman. I thank you very much, and I wish you 
well. Thank you.
    General Dunford. Thank you, Senator.
    Chairman Levin [presiding.] Thank you very much, Senator 
Lieberman.
    Senator McCain.
    Senator McCain. General, again, we appreciate your 
willingness to serve.
    I must say, is it not true that you receive daily briefings 
and visits to Afghanistan keeping up with the situation there?
    General Dunford. Senator, I have made a recent visit to 
Afghanistan----
    Senator McCain. But you get daily briefings, I hope.
    General Dunford. I do, Senator.
    Senator McCain. You have reached some tentative 
conclusions?
    General Dunford. I have, Senator.
    Senator McCain. Almost every answer you have given is, we 
are going to do studies and assessments. I hope that you at 
least have some initial thoughts and impressions as to how we 
should proceed.
    My first question is, do you know what recommendations the 
command in Afghanistan has made to Washington about the tasks 
that U.S. forces may be needed to perform beyond 2014? I am 
specifically talking about force levels, whether they are 
maintaining at 68,000, whether they should be gradually drawn 
down, whether they should stay there until 2014. Do you know 
what those recommendations are?
    General Dunford. Senator, I have not been included in those 
conversations.
    Senator McCain. That is interesting to me, a guy that is 
going to take over the command has not even been included in 
those conversations. Do you feel prepared to assume these 
responsibilities?
    General Dunford. Senator, I am prepared to assume these 
responsibilities.
    Senator McCain. You have no impressions or ideas on the 
troop drawdown issue between now and 2014?
    General Dunford. Senator, I think I have an understanding 
of the framework within which that decision ought to be made. I 
have certainly identified what I think are the most important 
variables that need to be considered but, again, I have not 
been involved in the detailed planning. I would assume----
    Senator McCain. So you are a blank slate.
    Do you believe that any strategy in Afghanistan can be 
successful while militants continue to enjoy safe haven in 
Pakistan?
    General Dunford. Senator, I think over time a safe haven in 
Pakistan needs to be addressed.
    Senator McCain. Do you believe that we can succeed with the 
level of corruption that exists throughout Afghanistan?
    General Dunford. Senator, I believe corruption is the most 
significant strategic challenge to meeting our objectives in 
Afghanistan.
    Senator McCain. Do you have any thoughts about how we would 
go at this issue of corruption?
    General Dunford. Senator, I do. I have reviewed the 
framework within which corruption is being addressed both at 
the U.S. Central Command, by the U.S. Embassy in Kabul, and 
ISAF.
    Senator McCain. Do you think that it is succeeding?
    General Dunford. Senator, I think there has been progress 
made over the last 18 months and in particular since the Tokyo 
meeting.
    Senator McCain. Do you believe that there has been any 
progress in the safe haven issue in Pakistan?
    General Dunford. Senator, it is not apparent to me that 
there has been any progress with the safe haven issue in 
Pakistan.
    Senator McCain. If confirmed, will you provide this 
committee with the recommendations that you would ultimately 
make through your chain of command with regard to the size and 
pace of the drawdown of U.S. forces from Afghanistan?
    General Dunford. I would, Senator.
    Senator McCain. The reason why I keep raising this issue 
with you and why I feel so strongly about it is that every time 
I have been there and had candid conversations with our 
commanders at literally all levels, they believe that we need 
to keep the 68,000 there until the 2014 date, and if we start a 
``steady pace withdrawal'' that we will not be able to 
accomplish a lot of those missions there. If we cannot 
accomplish the mission, I am not sure why we should stay, and 
that is something that I think a lot of us have to wrestle with 
because if we are going to start drawing down right away from 
the 68,000, which I know that our military leaders believe is 
absolutely necessary, then I think we need to look at other 
options.
    This attack that destroyed six Harrier aircraft--does that 
concern you? I am sure it must. But is that not an example of 
the brazenness and capabilities that the Taliban have?
    General Dunford. Senator, I think it does reflect the 
capabilities the Taliban has.
    Senator McCain. You are confident that the Afghan forces 
will be able to stand on their own after 2014 without 
significant assistance from the United States?
    General Dunford. Senator, I believe that the ANSF are going 
to require some level of assistance from the United States, as 
well as coalition partners, in order to be successful post-
2014.
    Senator McCain. Do you think we are winning the war in 
Afghanistan?
    General Dunford. Senator, I think we are making progress, 
and as I mentioned in my opening remarks, I believe our 
objectives are achievable.
    Senator McCain. Do you have any conclusions that you drew 
from your recent trip on the security situation in Afghanistan, 
particularly in southern and eastern Afghanistan?
    General Dunford. I do, Senator. Broadly speaking, one of 
the statistics I found compelling is that 80 percent of the 
violence happens where 20 percent of the population is. Another 
statistic I found compelling is that 76 percent of the 
population is currently secured by ANSF. The vast preponderance 
of violence is now taking place outside of populated areas. The 
Taliban have been displaced from the population, and I view 
that as a sign of success.
    Senator McCain. Do you believe that al Qaeda is growing 
stronger in Afghanistan?
    General Dunford. Senator, I do not believe that al Qaeda is 
growing stronger, but there is evidence of an al Qaeda 
presence.
    Senator McCain. Does this recent warlord rearming, Ismail 
Khan--is that of concern?
    General Dunford. Senator, it is.
    Senator McCain. There are, I guess, three of us here, 
General, that have been going over there for the last 11 years, 
and we have not seen the progress that we had hoped would take 
place, and we do see quite often sentiment on the part of 
Afghans and their neighbors that the United States spends most 
of its time announcing withdrawals and dates for withdrawals 
rather than recipes for success. Some of us, as I say, who have 
been observing this for a long, long time and made many, many 
visits and many, many briefings are deeply concerned.
    I hope that you will in your assessment and your ability 
take into serious consideration our ability to complete the 
mission and that is a stable Afghanistan that is able to defend 
itself over time. Frankly, I am not sure that is the case today 
and I am not sure that if we start drawing down immediately 
that we may be able to achieve that goal. We have sacrificed a 
lot, as you know far better than I do, and we are going to want 
to have an assessment as to whether this mission can actually 
succeed or not.
    I thank you for your willingness to serve.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    I would like to begin by expressing my strong confidence in 
General Dunford in every sense of the word. I have a tremendous 
respect for his leadership, for his integrity, and when you 
look at his bio--I do not think people have really looked at it 
very closely this morning. They probably have in the past. But 
the greatest reward in the Marine Corps for leadership is to 
give someone command. General Dunford has commanded at the 
platoon level. He has commanded three different times at the 
company level. He has commanded a battalion. He has commanded a 
regiment. He was commanding general of the 1st Marine 
Expeditionary Force. In addition to that, he has a Master's in 
Government from Georgetown University and a Master's in 
International Relations from the Fletcher School.
    I have been privileged to know General Dunford for more 
than 20 years. I think he is not only well prepared, but he is 
a person we need over there in this very difficult and complex 
assignment. He has a sense of duty that I admire. He has a 
great understanding of the role of the military and our 
governmental process and, as we have seen this morning, has a 
willingness to provide unambiguous, direct policy advice. That 
is what we are going to need as we begin to sort out what 
direction the country should be going in Afghanistan.
    General, I would like to take up, first of all, where 
Senator Lieberman left off in discussing this bilateral 
security agreement. As you know, the President was over in 
Afghanistan to sign what they called an enduring strategic 
partnership agreement. I think a comment that was made at the 
time was this was a binding agreement.
    I have had a problem with the way that we have addressed 
these long-term agreements beginning with the way that they 
were reached in Iraq. I think in some ways we are paying the 
price of the way that the Strategic Framework Agreement was 
reached in Iraq. I warned at the time that by allowing an 
executive agreement to determine the long-term national policy, 
while excluding congressional participation, is really kind of 
strange in terms of how our governmental systems should be 
working. The Iraqi Parliament voted on that Strategic Framework 
Agreement. We did not even have the opportunity to debate it, 
much less vote on it.
    I am informed by my staff that there was a conference call 
with Senate staff from Admiral James Warlick, the Deputy 
Special Representative for Afghanistan and Pakistan, talking 
about this agreement. His comment was--I am reading from staff 
notes--that the agreement will contain no binding commitments, 
and as a result, there is no need to formally bring the 
document to the Hill. At the same time, again he says that the 
Afghan Parliament is going to review and approve the agreement. 
I think whenever you have an agreement that is going to propel 
action here in Congress later on, that we really should have 
direct congressional involvement. This is a clear, long-term 
message for a relationship between two countries.
    This is not something that is completely in your bailiwick, 
but I would like to raise it for the concern of my colleagues 
here. This is something that Congress should be directly 
involved in, and if it is not, you are going to see the same 
kind of problems we have had in Iraq.
    You and I discussed a number of times what I mentioned to 
General Petraeus and Admiral Mullen almost 4 years ago when we 
were moving in this escalation in Afghanistan. My great concern 
was that the metric for success was going to be largely 
determined by two factors that we really cannot control. One is 
the validity of the national government, and the second was the 
growth of a national military and police force to a size that 
by quantum numbers had never been achieved in Afghanistan's 
history.
    I would like your thoughts on those two metrics as they 
affect your responsibilities.
    General Dunford. Senator, I believe that the most 
significant strategic event that is going to occur between now 
and 2014 are the elections in April 2014. Without successful 
elections in April 2014, I am concerned that the conditional 
contributions that were pledged in Tokyo and in Chicago both 
for development and for security forces will not be there, and 
those are absolutely critical to our ability to sustain the 
effort and meet our objectives post-2014.
    The other reason those elections are so important is 
because I think the legitimacy of those elections in the eyes 
of the Afghan people is going to have a lot to do with their 
willingness to support the Afghan Government and therefore not 
support the Taliban.
    I could not agree with you more that the national 
government, the legitimacy of the national government, and more 
importantly adequate elections in 2014 are a precondition for 
our success.
    With regard to the ANSF, I do not know what Afghanistan 
will be able to sustain over time well past 2014. I do believe 
we can sustain a force of 352,000 through 2014, and I think it 
is important that we look at sustaining the right level of 
force post-2014 as well. But at some point when the coalition 
resources are no longer available in the amount that they will 
be available in the initial years of the decade of 
transformation, and at some point when the U.S. resources are 
not available, then I think the ANSF will have to right-size to 
meet their security requirements within their resources.
    Senator Webb. We tend to characterize the challenge simply 
as Taliban versus the present government, and yet when I go 
back to the Bonn agreements where the structure of this present 
government was agreed to, there was a lot of concern that the 
structure itself may not fit the history of this country in the 
longer term. You may end up seeing the need for an actual 
different structure, a devolution away from a central 
government before you can have stability.
    Do you have any thoughts on that?
    General Dunford. Senator, I think one of the most important 
aspects of our endeavor, both on the governance side and 
security side, is that whatever we come up with has to be 
sustainable over time. That clearly will require a uniquely 
Afghan solution to governance. As I look at the election of 
2014, our primary role is to provide support to the ANSF as 
they secure the elections, and our primary role as a government 
is to support the Afghans as they conduct elections that will 
be seen as legitimate to Afghans. I do believe that the 
organizational construct of the Afghan Government over time 
needs to take into account the culture, the requirements, and 
the desires of the Afghan people to be sustainable over time.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you, General Dunford, for your distinguished service 
to our country, and I appreciate your tremendous qualifications 
for this position. I certainly give the best to your family as 
well.
    I just want to ask a very straightforward question which 
is, understandably many of my constituents, Americans, have 
grown more weary, and what I would like you to tell us is why 
does the outcome in Afghanistan matter to Americans and what 
are the consequences for us--if we were to make the decision 
right now to say we are going to pull out right now? Could you 
help us with that? I just want to understand that because we 
have made tremendous sacrifices there of our men and women in 
uniform.
    General Dunford. Senator, thank you for that question. That 
is the most important question, I think, of American people and 
one we should be able to answer very clearly.
    In the wake of September 11, we went to Afghanistan because 
there was sanctuary for al Qaeda and the attacks of September 
11 were planned in Afghanistan. That area still is ripe for 
sanctuary for al Qaeda. That region is ripe for sanctuary for 
al Qaeda. We also wanted to establish a government in 
Afghanistan and ensure that the Taliban were no longer in a 
position to harbor al Qaeda in that part of the region. Those 
objectives remain, that is, to deny al Qaeda sanctuary in 
Afghanistan and deny the ability of the Taliban to overthrow 
the government in Afghanistan.
    Now the mission is to ensure that those gains that we have 
made over the last several years, particularly in the area of 
development of the ANSF, and the gains we will make as a result 
of the elections in 2014 providing enduring government, will 
ensure the Afghans can do what we have been doing over the past 
decade.
    I would be concerned at this point that if we did not 
complete the mission--and again, as I mentioned in my opening 
comments, I believe the objectives are attainable. If we did 
not complete the mission, we would have an area in Afghanistan 
where al Qaeda can continue to operate. We would also have a 
destabilized country on the west side of Pakistan wherein we 
have significant national interests as well. I think it would 
be bad from the perspective of providing sanctuary for al Qaeda 
and would have a destabilizing effect on the region with, I 
think, second and third order effects that would be significant 
and inconsistent with our national interests.
    Senator Ayotte. In looking at the conflict in Iraq and 
thinking about our failure to be able to negotiate a SOFA 
there, what lessons do you take from that experience in terms 
of us being able to negotiate a similar agreement in 
Afghanistan? In addition to that, what lessons do you also take 
from Iraq?
    One of the concerns I have on a secondary but equally 
important issue is when we look at Iraq, for example, we have 
someone, a detainee, Ali Musa Dakduk, who is a Hezbollah leader 
who was involved in the murder of five Americans, who the 
Iraqis are going to let go. We have individuals, do we not, 
that are in custody in Afghanistan that may be third party 
nationals, others who are too dangerous to release? I see that 
as also an issue that needs to be negotiated going forward to 
make sure that we are not releasing terrorists back out into 
the open to then harm us and our allies.
    General Dunford. Senator, with regard to the first question 
in terms of lessons learned, I think one of the critical 
lessons learned is that we need to allow sufficient time for 
negotiations to be complete. I am encouraged that we have 
internalized that lesson learned as a result of the Strategic 
Partnership Agreement that was signed in May that set a 
timeline for having the bilateral security agreement signed 
within 1 year. Again, that is May 2013, which is still 6 months 
ahead of our plan, full transition to Afghan control.
    [The information referred to follows:]

    Please accept this insert to clarify the statement I made during 
the hearing.
    I misspoke during the hearing, and should have said November 2013.

    General Dunford. I think in that regard, we have 
internalized the lesson learned, and I am optimistic we have 
sufficient time to get that agreement signed which is so 
important. I think our negotiations in Iraq perhaps started 
later than they have started in Afghanistan.
    The other important lesson that we have learned is that the 
functions that are currently performed by the ISAF in 
Afghanistan--and there are some 400 different functions--must 
eventually be sent out to other organizations where those 
functions can be performed on an enduring basis, that is, those 
functions that are enduring. I know right now that there is a 
detailed effort ongoing in the ISAF as well as back here in 
Washington and in the capitals to identify those various 
functions and ensure that over the next 25 months we have a 
logical, responsible, deliberate way of passing those functions 
off so that we have continuity as we go into the period of 
transition post-2014.
    I think at the strategic level, those are two of the more 
important lessons learned, and there is evidence that we have 
learned those lessons from Iraq's experience.
    With regard to the individuals of the ilk that you 
mentioned that need to be detained, I look at that as first and 
foremost a force protection issue. There are clearly 
individuals, al Qaeda and other members of the Haqqani network 
and some of the more extremists, who are absolutely 
irreconcilable. From my perspective those individuals need to 
remain locked up for the safety and security of our forces as 
long as we are in Afghanistan and the safety of the American 
people and their interests after we come out of Afghanistan.
    Senator Ayotte. Are we not still, though, facing a 
challenge with respect to--the administration has taken the 
position that we are not going to add anyone else to Guantanamo 
Bay as to making sure that if those individuals remain in 
custody in a place like Afghanistan, that we could assure that 
they would not be released. I think that is one of the 
challenges we faced in Iraq. Would you agree?
    General Dunford. Senator, it was absolutely one of the 
challenges we faced in Iraq, and I know, at least from the 
periphery, that the administration is now working on the 
framework within which that issue can be addressed.
    Senator Ayotte. I think it has to be. We cannot keep 
releasing people like Daqduq who have the blood of Americans on 
their hands and clearly are the type of individual that is 
going to go out and continue to engage in terrorist actions. I 
think this is an incredibly important issue in terms of 
protection of the American people and our allies.
    One other final question. The Wartime Contracting 
Commission found that $60 billion of U.S. contracting funds had 
been wasted, misspent, or went in the wrong hands in Iraq and 
Afghanistan. As a result of that, Senator Brown and I had 
introduced into the defense authorization bill in 2012 
provisions to cut through the red tape so that you could cut 
off contracts sooner if our taxpayer dollars were getting in 
the wrong hands or, God forbid, to insurgents, which did happen 
as well.
    How are those provisions working? What more can we do 
there? Could you give us an update on whether that has been 
helpful to you?
    General Dunford. Senator, first, thank you for your 
assistance in passing that as part of the National Defense 
Authorization Act (NDAA) last year. In fact, General Mattis at 
U.S. Central Command who has that authority has used that 
authority a great deal over the past year. In fact, I 
understand at least $12 million that might have otherwise gone 
in the hands of the Taliban did not go into the hands of the 
Taliban because he had the authority to cancel those contracts 
because of the association of the contractors with the Taliban.
    I also believe that over the past year--and I did spend 
quite a bit of time on this on my visit--that they have changed 
the organizational construct at Central Command, at ISAF, and 
within the Afghan Government, and of course, our embassy lead 
in Afghanistan to provide better oversight to contracts and 
ensure that the money that we provide, that the coalition 
provides, achieves the effect desired in terms of growing the 
capacity of the Afghans.
    I believe that is a good news story. I think that part of 
the NDAA in 2012 has allowed us to be more effective on the 
battlefield, and I know that both General Allen and General 
Mattis are very appreciative of having that authority and they 
have used it.
    Senator Ayotte. Thank you very much, General. Obviously, if 
there is anything more that we can do to give you the authority 
that you need there to make sure that the money does not get 
into the wrong hands we would look forward to working with you 
on that. Thank you.
    General Dunford. Thank you, Senator.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Begich.
    Senator Begich. Thank you very much. Thank you for being 
here this morning. I want to echo my colleagues' comments that 
I am looking forward to your appointment and to your new tasks 
or additional tasks to your already long distinguished career 
in the military. Thank you for being here this morning.
    Let me ask you, we last week--I think it was last week--
over about 100 of our Alaska national guardsmen returned from 
Kandahar where they had been providing security for the 
provincial reconstruction team, the 4th Brigade Combat Team, 
stationed at Joint Base Elmendorf, and also is now in the 
process of redeploying to Kandahar. They did a great job, and I 
think all our folks, our 425, 125, did a fantastic job there.
    In your opinion, tell me--and I have heard a little bit 
about it today, but I want you to expand a little bit more--how 
do we continue to have the success that I think they did in the 
work as we start drawing down? Give me your sense as we start 
drawing down. They have had some great impact over the last 
year here while they have been deployed. But how do we ensure 
that as we start drawing down and making sure the Afghan force 
is ready to lead and take charge? I know it is like repeating 
what you have been saying, but I just want to expand and hear a 
little bit more.
    General Dunford. Senator, to date, the growth of the ANSF 
is, as I think it is fair to say, focused on quantity. We have 
grown the force to the size that it is now, again 352,000 that 
are least recruited and in the process of being trained. I 
think the focus over the next 25 months has to be addressing 
the quality of the ANSF. That certainly indicates improvement 
in literacy. It indicates improvement in leadership. There are 
a number of enablers that need to be grown in order for the 
ANSF to sustain themselves post-2014. Those include areas like 
aviation, counter-improvised explosive device (IED), medical 
support, fire support, and artillery.
    I sat through a meeting last week. Deputy Secretary of 
Defense Carter is personally involved in this. He has a weekly 
meeting with all the stakeholders to include those that are in 
Afghanistan to ensure that there are no bureaucratic obstacles 
to our meeting those requirements over the next 2 years to give 
the Afghans what they need. But from my perspective, we will 
continue to address literacy. We will continue to address the 
institutional requirements for the Afghans to continue to train 
themselves after we leave, to continue to provide professional 
military education and, as I mentioned, to have those enablers 
available for them to be able to operate post-2014. That is our 
primary task post-2014, and I think our presence post-2014 will 
be informed by the gaps that remain as a result of our efforts 
in these next 25 months.
    Senator Begich. Can I expand a little bit on the literacy 
issue? To me this has been one that I have brought up multiple 
times here in this committee. In order for them to have and 
understand a better enforcement of the rule of law, as well as 
just managing the forces, can you give me some thought of what 
you see as how you can improve the literacy rate? We had an 
advantage in Iraq because the literacy rate was much higher, 
and then the transition moved in a different way. But in this 
case, the literacy rate is much lower. Give me a little sense 
there because I am concerned--and I have said this before, and 
I appreciate what you said there. Get the quantity first and 
then create the higher quality that needs to be sustainable 
over the long haul. I am assuming the literacy has to be a 
critical piece of that. How would you step through that?
    General Dunford. Senator, it is a critical piece, and I am 
aware that the National Training Mission-Afghanistan now has a 
literacy program that is integral to our training of the ANSF. 
That literacy program is down at the lowest tactical level to 
ensure that all the soldiers are exposed to that and we enhance 
their literacy. It is obviously focused in areas like those 
units where we will have aviation and fire support where there 
is a more technical aspect of their performance. We prioritize 
and enhance literacy in those areas even greater. I think this 
is a long-term effort, and if I am confirmed, certainly as I 
would provide oversight for the ANSF, this would be an area of 
particular interest.
    Senator Begich. In regards to the drawdown and the 
transition, I am a supporter of it. I want it done by 2014.
    I also want to say something because I heard a comment 
earlier. I do not think you are coming in with a blank slate. 
You have a lot of depth here and a lot of knowledge. You may 
not have all the details yet of some of the elements, but I 
think, you do not earn those stars by just showing up one day. 
You have spent a lot of years understanding the military 
operation and what needs to be done in situations like this. 
That is why we have one of the brightest and the best and most 
mobile units that can move anywhere.
    Let me ask you, do you think, from the knowledge you have 
today, you have all the authorities and abilities to ensure 
that those transfers of power continue as well as movement of 
equipment out of the country that needs to be done or disposal 
of equipment, all those pieces that mechanically you will need 
to make sure that transition occurs properly? Do you think you 
have all those authorities you need at this point?
    General Dunford. Senator, my initial assessment is that we 
do have all the authorities that we need for the retrograde and 
redeployment piece. I did, among the meetings I sat through 
during my recent visit, sit through General Allen's staff brief 
on retrograde and redeployment, and they did not identify any 
areas where they needed additional authorities. But if I am 
confirmed, I will certainly come back if I identify gaps in our 
authorities in order to facilitate a redeployment and 
retrograde.
    I would note that one significant thing has happened this 
month on the 2nd of November to assist us in getting our 
equipment home, integral as part of the campaign, and that was 
the terms of reference were signed with Pakistan to reopen the 
ground lines of communication. That has been a significant 
problem over the last several months. I was very encouraged by 
the signing of that terms of reference and by the pending 
opening after a proof of concept with the ground lines of 
communication which will greatly assist in the area that you 
identified.
    Senator Begich. Let me ask you, you made a comment and I 
want to make sure of what I understood this statement to be. 
You said ``the decade of transformation''. It was a phrase you 
used. Do you mean as combat forces are out, then the next 
period of time of transformation, or are you talking about what 
has occurred and where we are today?
    General Dunford. Senator, thank you. Thanks for the 
opportunity to clarify that.
    The decade of transformation I referred to was a framework 
established in Tokyo by our coalition partners and interested 
nations. That provides the framework for the decade of 
transformation. It really will begin with the transition that 
takes place in December 2014. What I alluded to was a 2014 to a 
2024 decade of transformation that would solidify the gains 
that we have made over the past 10 years and again address the 
sustainability of governance, security, and development post-
2014.
    Senator Begich. Very good.
    My time has expired, but I want to leave you with one 
thought. I know this probably does not fall to you because I 
know how DOD and the military operate. You have certain 
categories you work within. But in that decade of 
transformation, has there been some hard numbers attached to 
that, financial numbers or what the U.S. commitment would be? 
If you are unable to answer that--and I recognize that you may 
not be able to at this point--can you get something for the 
record at some point of where people are starting to estimate 
what that transformation would look like from a U.S. 
commitment?
    General Dunford. Senator, I can do that and take that for 
the record.
    Part of it will be the development piece and that really 
was the Tokyo piece. So as not to be confusing, in Tokyo, 
nations pledged to seek funds from their governments during the 
decade of transformation. The commitment was absolutely 
conditional based on the need of nations to go back to their 
congress and be resourced. In Chicago, the resources necessary 
to sustain specifically the security forces were identified.
    What I can come back to you with for the record is the 
amount of money that we initially projected would be necessary 
to sustain the ANSF post-2014 and some sense of who is willing 
to contribute those resources post-2014.
    [The information referred to follows:]

    At the North Atlantic Treaty Organization (NATO) Summit held in 
Chicago on May 20-21, 2012, NATO and International Security Assistance 
Force partner nations made a strong pledge of long-term support for the 
security in Afghanistan. To this end, partner nations (including the 
United States) committed $3.6 billion per year for the Afghan National 
Security Forces (ANSF) starting in 2015 and running through 2017. The 
Afghan Government agreed to provide roughly $500 million annually and 
to progressively increase its share of financial responsibility for 
maintaining its security forces over time. In total, the post-2014 
pledge is approximately $4.1 billion per year. The major share ($3.0 
billion) of the annual pledge through 2017 of the $3.6 billion for the 
ANSF was made by the United States.
    There will also be continued development funds provided by the U.S. 
Agency for International Development through the Department of State 
for further development projects including capacity development and 
other non-security programs that will cover a wide spectrum of socio-
economic advancements.

    Senator Begich. Very good. That is one part of the 
equation. We have also the governance, State Department, and so 
forth, which I can ask that question to them.
    General Dunford. Thank you, Senator. That is the Tokyo 
piece. I will come back to you and address the Chicago piece.
    Senator Begich. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Begich.
    Senator Collins?
    Senator Collins. Thank you, Mr. Chairman.
    General, one of our members this morning encouraged you to 
always speak truth to power, and I have no doubt that you will 
do just that because my friend and colleague, Senator Joe 
Lieberman, told me that when you visited him in his office, he 
asked you what baseball team you supported. Of course, Joe is a 
confirmed, misguided Yankees fan, and you admitted freely that 
you were a Red Sox fan. I think that was a great example of 
speaking truth to power. I, of course, commend you on your 
choice of baseball teams even though it was a rough season for 
the Red Sox. [Laughter.]
    I do want to turn to, obviously, more serious issues today. 
General, twice you have stated this morning that you believe 
that our objectives in Afghanistan are achievable. Of course, 
the primary objective in Afghanistan since 2009 has been to 
disrupt, dismantle, and eventually defeat al Qaeda in the 
region and to prevent its return to either Afghanistan or 
Pakistan. Yet, national intelligence estimates, reports from 
the International Crisis Group, and the Special Inspector 
General for Afghanistan Reconstruction (SIGAR) have cast doubts 
on the ability of the ANSF to consolidate and hold the gains in 
security that have been made in Afghanistan over the past 
decade at great cost and treasure to our country and others. 
These reports also cast doubt on the likelihood of the Afghan 
Government providing good governance and dealing with endemic 
corruption such that it would enable the ANSF to do its job in 
fighting the insurgency.
    Given the escalation of insider attacks, the sanctuaries 
that still exist in Pakistan and the level of corruption in the 
Afghan Government, why do you believe that the objectives are 
indeed attainable? It seems to me that the intelligence 
reports, the lack of progress, and the surge in insider attacks 
paint a very bleak picture.
    General Dunford. Senator, actually thank you for asking 
that question and giving me an opportunity to put what I 
believe to be those reports in perspective. Here is what my 
confidence is based on in terms of reaching our objectives 
specifically with regard to the ANSF.
    Five tranches of transition were identified. Five 
geographical areas were identified to be transitioned to Afghan 
security control. We have initiated the transition in three of 
those five. In the three first tranches that we transitioned 
over to the ANSF, violence has actually decreased. I think it 
is very important to recognize that the violence that is taking 
place today is largely outside of the populated areas because 
the ANSF have secured the populated areas.
    The other reason why I am optimistic is, again, when I look 
at the ANSF and where they were in 2008 when I first observed 
them and where they are today in 2012, it is a dramatic 
improvement. As I look forward over the next 24 or 25 months, 
if we maintain the trajectory that we have had over the past 
several years into the next 25 months, I believe the ANSF will 
be capable of providing security.
    I think it is important to look at that in relation to key 
milestones. This summer we will go to milestone 2013, and at 
that point all five geographical areas I mentioned will be in 
transition. The Afghans will be completely in the lead at that 
point. Given what I project to be our coalition and U.S. 
support in the summer of 2013, I am confident in the ability of 
the ANSF to secure those five geographical areas. They will 
still need, in some cases, our combat operations to take place. 
They will absolutely need us to provide enabling support, and 
we will also still be doing the advise/assist mission as we 
transition to a largely advise/assist mission in 2013.
    The next major event is the elections in 2014. Again, when 
I look at the Afghan capability, combined with what I believe 
to be the resources that we will provide, and I look at where 
the Taliban is at this particular time and where they will be 
in 2014, I project the Afghans will be able to provide security 
at that time as well.
    I think in addition to looking at the level of violence and 
where it is occurring largely outside those populated areas, it 
is also important to note that the Taliban has had significant 
leadership losses over the last 2 years. The average age of a 
Taliban leader now is probably 10 years younger than it was 
when the war started 10 years ago. They have had significant 
attrition. Our Special Operations Forces and our conventional 
operations have significantly attritted Taliban leadership. We 
also see indications of the Taliban suffering financial 
difficulties and being unable to sustain their effort, and they 
clearly did not achieve their objectives in their campaign 
during 2012.
    Senator, I do not, for a minute, understate the challenges 
associated with this endeavor. I recognize what has to happen 
between now and 2014 to continue to solidify the gains we have 
made with the ANSF and make those sustainable. I also recognize 
that we need to provide some support to them post-2014. But the 
important thing is to look at the relative capabilities of the 
insurgents versus the relative capabilities of the ANSF with 
that support we are going to provide, and to that extent, I 
believe we will meet our objectives and the Afghans will be 
able to sustain that level of security that we achieve in 
December 2014.
    Senator Collins. General, you mentioned that the overall 
level of violence in Afghanistan has declined. I wonder, Mr. 
Chairman, if we could ask for some statistics on that. I have 
read an alternative analysis that suggests that the surge has 
not been successful in eastern Afghanistan and that the level 
of violence in that part of the country has actually increased. 
Now, I understand when you have a surge, you are going to have 
an increase in violence just because there is more combat, more 
fighting. But at this stage, I think it would be helpful for us 
to have a measure of the effectiveness of the surge in reducing 
violence particularly to the civilian population. I would hope 
that the chairman would ask for that information.
    Chairman Levin. Let me just respond to that request because 
I have asked for it, and I actually looked at it this morning. 
It is really interesting, and I think it very much supports 
General Dunford. But, nonetheless, I asked for it to be 
updated. It is a month behind. We can now get the October and 
we will be able to get the November results so we can compare 
apples and apples this year to last year. It is a very 
important request you are making and I hope that by the end of 
next week we would have those statistics updated and I will 
make them available to everybody.
    Senator Collins. Thank you. That will be very helpful.
    [The information referred to follows:]

    The end of the surge provides an opportunity to look back upon its 
accomplishments. Almost every security metric has improved during the 
last 2 years. The comparison between 2012 to date and 2010 (the first 
year with surge-level forces) is stark: Enemy Initiated Attacks have 
declined by 12 percent, improvised explosive device explosions have 
declined by 9 percent, International Security Assistance Force-caused 
civilian casualties have declined by 28 percent while insurgent-caused 
civilian casualties increased by 11 percent, Direct Fire attacks have 
declined by 9 percent, and indirect fire attacks are down by 24 
percent. Also during this time, the Afghan National Security Force has 
grown by 88,464 personnel, and has dramatically increased its 
capabilities. The areas of the country influenced by the insurgents and 
the ability of the insurgency to attack the population have been 
significantly diminished. Although challenges remain and progress in 
Afghanistan has been uneven in many areas the security gains resulting 
from the surge are clear.

    Senator Collins. Just quickly, I know my time has expired. 
I just have to express my deep concern about the escalation in 
green-on-blue attacks. I know that you have said that each 
death has strategic implications and I know that you recognize 
that these attacks also are absolutely devastating to the 
families of American servicemembers since they are trying to 
train and help these Afghan forces, and then to be killed by 
them is just devastating. I think that these attacks also are 
jeopardizing the willingness of our partners to continue their 
own missions in Afghanistan. For the record I would ask, since 
my time has expired, whether you think this escalation 
threatens the ability for us to continue training and equipping 
the Afghan forces and eventually turning over the authority to 
them?
    Chairman Levin. I think if you could give a brief answer to 
that instead of leaving it for the record.
    Senator Collins. Thank you.
    Chairman Levin. It is such an important answer. I think our 
colleagues would understand that.
    General Dunford. Mr. Chairman, I would be glad to. Thank 
you, Senator.
    First and foremost, the insider threat is a force 
protection issue, and as such, if I am confirmed as the 
Commander, I can assure you, Senator, I will be personally and 
decisively engaged on the issue of insider threat. I have had 
an opportunity to take a look at what ISAF has done under 
General Allen's leadership to address the insider threat. I 
have been impressed by the comprehensive approach to the 
insider threat that has been taken both at home station in 
terms of enhanced training and training that takes place once 
we are inside of Afghanistan.
    There has also been a significant increase in the number of 
counterintelligence resources being provided in Afghanistan, 
both inside the coalition, as well as inside the ANSF.
    Perhaps what is most encouraging to me--and it perhaps is 
too early to see if it is the result of our success, but we 
have had a reduction in insider threats over the last couple 
months as we have implemented these new measures. But what is 
most revealing to me is that the Afghans--clearly the Afghan 
leadership takes this issue seriously. I had an opportunity to 
sit through what General Allen calls the campaign 
synchronization conference during my recent visit. The minister 
of interior, the minister of defense, and all of the corps 
commanders and their subordinate leadership were there. The 
Afghans recognize this for the threat that it is.
    You asked what my perception of the threat is. In addition 
to being a force protection issue, it clearly is an issue that 
could undermine the trust which is the foundation of our 
relationship with the Afghans, and it could also affect the 
will of the coalition at the strategic level to stay there.
    I could not agree with you more, Senator. It is a critical 
issue. It is an issue that needs to be addressed. I do not 
think it is ever solved. I do not think we should ever be 
complacent and think we have solved it. We need to stay out in 
front of the enemy. We know we have an adaptive thinking enemy, 
and as we make adjustments, as General Allen has, the enemy 
will also adjust and we need to stay out in front of that. But, 
again, I can assure you that if I am confirmed, that issue will 
be at the top of my in-box and I will be personally and 
decisively engaged in assuring that we address it properly.
    Senator Collins. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, General. Let me just start by acknowledging 
your service. You have served with great distinction and 
selflessness for many years. I know everybody on the committee 
wants to acknowledge your service.
    I also know your family has been an important part of your 
service, and they have sacrificed as much as you have. I want 
to extend my gratitude to your family as well.
    Here you sit, having carried a load, much more than your 
fair share these last years, and you are preparing to do even 
more. We look forward to seeing you in theater as we discussed 
yesterday when you came by to visit me, and I just want to let 
you know you have my deepest thanks for your service.
    Let me, if I might, move to an insight you might be able to 
provide us based on your service in Iraq. Afghan and Iraqi 
cultures are different, and the nature of those two wars were 
different in some respects. But I know there are some lessons 
that you learned in Iraq, and I would like to hear what you 
learned and how that might guide you as the Commander of ISAF 
over the next 2 years.
    General Dunford. Senator, thank you for that question. I 
think the first thing we all recognize is that the defeat 
mechanism for the insurgency is going to be capable indigenous 
security forces. I think of all the lessons that we learned in 
Iraq, the successes that we had in Iraq were a result of our 
effort to stand up capable Iraqi security forces, and we 
certainly saw that that is what happened in Anbar Province. 
That is what happened in Baghdad, and that is what happened in 
the other areas of violence in Iraq. As we were able to grow 
capabilities with Iraqi security forces and provide them with 
the requisite level of support, they were able to take the 
fight to the enemy, and from my perspective that capability 
that the Iraqis had is what was the defeat mechanism for the 
insurgency in Iraq.
    I think similarly what we take to Afghanistan is a 
recognition that the critical part of our effort in Afghanistan 
over the next 2 years is to continue our efforts to develop the 
capabilities of the ANSF. Those indigenous forces will be the 
forces that allow us to be successful in Afghanistan. Those 
forces are the ones that will allow our success to be enduring. 
I think at the strategic level that is absolutely the thing 
that is similar from Iraq to Afghanistan and one we ought not 
to lose focus on.
    Senator Udall. Let me pick up on that line of testimony and 
turn to the Afghan Local Police (ALP). When I was last in 
Afghanistan with Senator Jack Reed last October, that was a 
real focus of General Allen and a number of his subordinate 
commanders. And there were some positive signs. ALP forces are 
locals. They are, therefore, more trusted by villagers and 
community elders.
    Do you support the continuation of the ALP program, and are 
there lessons learned there that we could incorporate into 
other ANSF organizations?
    General Dunford. Senator, thank you for that question.
    I absolutely support the continuation of the ALP, and I 
think what our Special Operations Forces have done in 
establishing village support operations in the ALP has been one 
of the success stories over the last 18 months. But perhaps it 
is better for me to share with you the perspective of the 
Afghans and the perspective of Taliban on the ALP to make that 
point.
    I did sit through, as I mentioned a minute ago, the 
synchronization conference of Afghan leadership. As you might 
recall, when the ALP was first introduced, there was some 
resistance amongst the Afghans to implementing that program. 
The only issue that the Afghan leadership had about the ALP 
during the recent security synchronization conference was how 
much faster can we meet the full tashkil or authorized level of 
ALP. There are about 16,000 fielded right now and there is a 
full authorization level of 30,000. From the perspective of the 
Afghans, they very much recognize that this local solution to 
security, completely linked to local leadership and under the 
supervision of district police, is an absolutely successful 
program.
    But what is most interesting is the Taliban's perspective 
of the ALP. In the Taliban view, the ALP is one of the most 
significant issues that they have to address in order to be 
successful. They believe that as more ALP are fielded and more 
areas come under ALP protection, with the windbreak that the 
ANA and the ANP provide--they view that as a very concerning 
development.
    I think both General Allen and ISAF view ALP as a 
successful program. I certainly, if confirmed, would intend on 
continuing that program. But, again, as importantly, when you 
look at it through the lens of the Afghans and the lens of the 
Taliban, I think you get some sense for how important that 
program has been and how successful it has been and how much it 
can help us meet our objectives in 2014.
    Senator Udall. Mr. Chairman, I have been in and out of the 
hearing this morning. It is a busy day on the Hill. I do not 
know if anybody, General, had asked you about sequestration and 
the effect it would have on our plans in Afghanistan. I might 
ask if you would submit for the record any thoughts you have on 
sequestration. As important as that is, if you would do that, 
that would be helpful to the committee.
    General Dunford. Senator, do you want me to answer now?
    Senator Udall. If you would submit something to the record 
because I want to move to another question.
    General Dunford. I will do that, Senator.
    Senator Udall. Because I know we are all very concerned 
about sequestration.
    [The information referred to follows:]

    Sequestration would have devastating effects on both the Department 
of Defense (DOD) and on other agencies, including the Department of 
State. While it is premature to outline specific impacts, sequestration 
would force DOD to revise a strategy that was carefully crafted and 
designed to meet current national security needs.
    The wartime activities budget, Overseas Contingency Operations 
(OCO) funding, is subject to sequestration and protecting OCO funding 
from sequestration will require disproportionately larger cuts in base 
budget accounts.
    More generally, sequestration would mean fewer day-to-day global 
military activities, notably exercises and training. We will have fewer 
options for responding quickly to emerging crises, and our ability to 
deter potential adversaries will be diminished. Over time, the total 
Joint Force will become less capable to respond across a range of 
missions, less adaptable to emergent challenges, and less modern 
relative to the forces of potential adversaries.

    Senator Udall. You mentioned some of the capitals you are 
watching closely, and I would like to ask you about one more 
and that is New Delhi. I know you are going to make some 
periodic trips, I am sure, to Islamabad. We talked about that 
yesterday.
    Do you think there is any hope of engaging New Delhi in 
working towards a resolution of that relationship between 
Pakistan, Afghanistan, and India in ways that might reassure 
Pakistan?
    General Dunford. Senator, at this point I do not have 
insight into what our Government is doing to try to work the 
very delicate relationship between Pakistan and India. I am 
certainly aware that that is going to be critical to regional 
stability in the long term and our success in Afghanistan. If 
confirmed, I suspect that I will be involved in that issue and 
have an opportunity to provide some military advice as our 
civilian leadership works through the diplomatic piece.
    Senator Udall. Speak to the announcement that Pakistan is 
going to release several low-level Taliban prisoners at the 
request of the Afghan Government. Do you think that this 
suggests we could work towards a negotiated settlement, or do 
you think that there is just really no path to deal between the 
Afghan Government and the Taliban without Pakistan?
    General Dunford. Senator, I would absolutely support any 
initiative that would bring a political resolution to the 
conflict in Afghanistan, and I know Ambassador Marc Grossman, 
our special envoy, is working very hard to effect some 
reconciliation working with the Afghan Government and other 
interested partner nations. If confirmed, I would be absolutely 
supportive of that and do what I can from a military 
perspective to support Ambassador Grossman's efforts for 
reconciliation.
    I do not, at this time, have a sense for the probability of 
reconciliation in the near term but, again, would look forward 
to supporting Ambassador Grossman as he tries to lead our 
Government in effecting some type of reconciliation.
    Senator Udall. General, again thank you for your service. I 
look forward to seeing you in theater over the next 2 years as 
we bring this war to a successful conclusion under your 
leadership. Thank you.
    General Dunford. Thank you, Senator.
    Chairman Levin. Thank you, Senator Udall.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I would like to associate myself with Senator McCain's 
comments about General Allen.
    General Dunford, thank you for being willing to serve.
    Chairman Levin and I will get back with the administration 
and certainly consult with you about our desire to make sure 
that we understand the value of a 352,000 Afghan army for some 
time to come and the cost/benefit analysis. The more they can 
do and the more they have, the less they will need us. Senator 
Levin, I associate myself with that inquiry.
    General Dunford, I believe Afghanistan is salvageable, but 
if we do not do some things differently, it will not be 
successful.
    Trip wires. Do you agree with me if the 2014 elections in 
Afghanistan go poorly, then that would be a major setback for 
the future of Afghanistan?
    General Dunford. Senator, I could not agree more. I do 
believe that the elections are critical. They are critical for 
two reasons. One is that the pledges that were made in Tokyo 
and Chicago are conditional, and part of those conditions 
involve addressing the issue of corruption and having 
successful elections in 2014.
    I also think in order for us to give confidence to the ANSF 
and the Afghan people, legitimate governance must be 
established. Over the last several years, I think it is fair to 
say that security has enabled the development of governance. I 
think it is also fair to say that over the next couple years 
effective governance is going to be necessary to make the gains 
that we have made in security enduring.
    Senator Graham. President Karzai has indicated to me and I 
think others that he intends not to run. I think that would be 
a good decision for the future of Afghanistan. I would just 
like to say if for some reason he changed his mind and tried to 
seek another term, that would be absolutely devastating in my 
view for the future of Afghanistan.
    Now, the last card to play by the United States, would you 
agree with me, is the Security Partnership Agreement being 
implemented effectively, robustly, and that the bilateral 
security agreement is really the last card to play in terms of 
maintaining a bright future for Afghanistan?
    General Dunford. Senator, I would agree with that. I think 
the bilateral security agreement, which is a logical extension 
of the Security Partnership Agreement, is what will make the 
gains that we have in Afghanistan----
    Senator Graham. It is the difference between winning and 
losing?
    General Dunford. I believe so, Senator.
    Senator Graham. We would need, in your view--militarily 
they do not have much of an air force. It would be smart to 
have some F-16s over there for a while past 2014?
    General Dunford. Senator, I think we are going to have to 
address a number of areas that are going to be capability----
    Senator Graham. Let us talk about air power. Would you 
think air power by American--
    General Dunford. Yes, Senator. Air power is important.
    Senator Graham. Because they do not have an air force that 
could do that.
    Attack helicopters. That makes some sense. Right?
    General Dunford. It makes sense, Senator.
    Senator Graham. Counterterrorism is an insurance policy for 
America to make sure the Taliban never comes back and al Qaeda 
does not regroup. Right?
    General Dunford. It is, Senator.
    Senator Graham. Intelligence capability. How many drones 
does the Afghan army have?
    General Dunford. They do not have any at this time that I 
am aware of, Senator.
    Senator Graham. The intelligence capability of the Afghan 
Security Forces is basically more human than it is technical 
and all the technical, gee-whiz stuff in Afghanistan we own. Is 
that correct?
    General Dunford. To my knowledge, it is, Senator.
    Senator Graham. Did you serve in Iraq?
    General Dunford. I did, Senator.
    Senator Graham. Would you do me a personal favor if you can 
find time in your busy schedule? Before you make any decisions 
about what to recommend to the President or this body, take a 
visit to Iraq and see how the place is playing out.
    General Dunford. I will, Senator.
    Senator Graham. I want you to go because you and others 
fought so hard and it is coming apart and I do not want that to 
happen to Afghanistan.
    Do you agree with me that you could maintain a robust 
American military presence in Afghanistan post-2014 with a 
fraction of the troops we have today?
    General Dunford. Absolutely, Senator.
    Senator Graham. Less than we have had in Korea for decades?
    General Dunford. I believe that is the case, Senator.
    Senator Graham. A thousand would not be enough, would it?
    General Dunford. I do not believe 1,000 would be enough, 
Senator.
    Senator Graham. We are going to let you figure that out. I 
know you will advise us wisely.
    Now, about those troops, would you agree with me that it 
would be ill-advised to leave one American military member in 
Afghanistan post-2014 without a SOFA giving them legal 
protections against Afghan prosecutions?
    General Dunford. Senator, I think we would need full 
protection for those in uniform. I think we would also need to 
have appropriate protections for those civilians from our 
Government that are working over there.
    Senator Graham. To our Afghan partners, that has been the 
norm in our Nation's history and all other wars and conflicts. 
Is that correct?
    General Dunford. It has, Senator.
    Senator Graham. Particularly when you have unstable 
governments and people are still shooting at our troops.
    General Dunford. That is correct, Senator.
    Senator Graham. I have learned a lot about the Afghan legal 
system. It is fair to say it has a ways to go, but our hope 
springs eternal.
    I want to let the committee know as much as I want to get 
it right in Afghanistan and believe losing would be a national 
security disaster for the ages, if the Afghans insist on 
keeping American soldiers in Afghanistan without legal 
protections as we have afforded our troops throughout the 
world, I will not vote for one penny and this war will come to 
an end. Do you think that would be a reasonable approach?
    General Dunford. I understand that, Senator.
    Senator Graham. Could you communicate that?
    Are you familiar with the detainee problem we have in 
Afghanistan?
    General Dunford. I am, Senator.
    Senator Graham. I want to compliment General Huber and the 
435 Task Force because that is where I do my Reserve duty. They 
have done a heck of a job in spite of me. We are in the 
position now in the transition phase of taking 3,000-plus law 
of war captures that the American military and coalition forces 
have captured that have been in our detention system and 
transitioning to Afghan detention. Are you aware of that?
    General Dunford. I am, Senator.
    Senator Graham. From my point of view, it is going rather 
well, but there are some major problems that I see in the 
future. One of these problems is the unwillingness of the 
Afghan Government to embrace administrative detention. Are you 
aware of what I am talking about?
    General Dunford. I am aware of what you are talking about, 
Senator.
    Senator Graham. Are you aware of the fact that if you had 
to use the Afghan criminal code to prosecute most people in our 
custody, it would be almost impossible in many of the cases?
    General Dunford. I am, Senator.
    Senator Graham. Do you understand that the Afghan criminal 
code really does not recognize the difference between a common 
criminal and an insurgent?
    General Dunford. I do, Senator.
    Senator Graham. Would you do everything in your power to 
influence the Afghans to tell them that administrative 
detention, similar to what we do under the Geneva Convention, 
should be continued? Would you please let them know that if I 
see an effort to undercut administrative detention and this 
becomes a catch-and-release program, none of us are going to 
stand for one person who has been caught three or four times by 
American forces going back to the battlefield killing Americans 
again, that we want them to be in the lead, we respect their 
sovereignty, but they have to embrace the fact that they are 
fighting an insurgency? Would you pass that on?
    General Dunford. Senator, I would. I will just comment that 
that is to me, first and foremost, not a legal issue but a 
force protection issue. We absolutely have to find a way to 
keep those individuals off the battlefield while we are there.
    Senator Graham. My last question, as my time is up. Is it 
possible at all to lose in Afghanistan and it not be 
catastrophic to the future of Pakistan?
    General Dunford. Senator, I believe that an unstable 
Afghanistan would be a significant risk to the stability of 
Pakistan.
    Chairman Levin. Thank you, Senator Graham.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, General, for your service and the service of 
your family to the United States and to the Marine Corps. I 
think the President has made a very wise nomination. You have 
one of the most difficult jobs ahead of you. It is being 
admirably performed now by General Allen. I have every 
confidence you will continue in that tradition of leadership 
from the front.
    A couple of issues. The plan is in terms of transition--one 
of the major aspects of it is the Security Forces Assistance 
Teams (SFAT) that would be NATO teams that would be at the 
brigade level and operating with Afghan forces to be the 
enablers, the coordinators, and in effect the trainers. Can you 
comment upon the progress to date of forming these teams and 
also the issue that we had a chance to talk about which has 
potential huge consequences of the green-on-blue incidents with 
respect to being able to keep these teams at the brigade level 
or lower?
    General Dunford. Senator, we have started to field the 
SFATs. In fact, my understanding is the first brigade level 
security force assistance organization is currently deploying 
at this time. It is well along the way. The teams that we have 
established really all over all of the regional commands are in 
place and effective. I think that absolutely the next logical 
step after partnering is to migrate to the SFATs as we move 
toward that long-term enduring relationship.
    With regard to the insider threat, the initial data that I 
have had an opportunity to look at would certainly indicate 
that the closer we are to our Afghan partners, the safer we 
are, and there have been very few incidents of the insider 
threat associated with units that are very closely tied in the 
manner that the SFATs would. The units that have had difficulty 
are ones that perhaps have more episodic involvement than we 
would have with SFATs. I am optimistic that in addition to the 
other steps that are being taken with the insider threat, that 
the security force assistance team construct will actually be 
effective and be a mitigator, in fact, for the insider threat. 
Again, the data that we have is minimal, but that is my initial 
assessment. If confirmed, I will certainly pay close attention 
to that, but my perspective right now is that the SFATs are not 
only the right mechanism for us to take the Afghans to the next 
level, but they also are a mitigator for the insider threat 
that you talked about.
    Senator Reed. One of the points that you have already made 
in your testimony is that the ANA has made some significant 
progress particularly in the last several years with the 
training effort that has been led. The police lag behind in 
terms of capability, coherence, and lacking a judicial system, 
as Senator Graham pointed out, even a sort of governmental 
infrastructure, so that going forward the strongest link is the 
ANA.
    Are you conscious of or sensitive to ethnic divisions 
within that force since ethnic divisions seem to characterize 
the country? There are always rumors of political leaders in 
certain towns with their own sort of paramilitary aspirations. 
Can you comment again about the stability of the force and the 
coherence of the force as a national army, not the ethnic 
divisions?
    General Dunford. Senator, I can comment in general terms on 
that. One, I am aware of those concerns and I know that General 
Allen and his team are very sensitive to that and have worked 
with the Afghans to ensure that both the ANA and the ANP 
reflect the demographic mix of Afghanistan. We think that is 
important. The army has to be a reflection of the nation and 
not a reflection of one particular ethnic group that will set 
the conditions for challenges down the road. I know they are 
paying particular attention to that right now, and that is 
certainly, if confirmed, an area that I would pay particular 
attention to as well.
    Senator Reed. One of the major missions you will have as 
the NATO Commander is to not only make the transition but also 
to supervise the retrograde of huge amounts of materiel, 
equipment that is there. The principal route of entry was 
through Pakistan and I presume the principal route of exit 
would be through Pakistan. You have mentioned but can you 
comment further on where you see us in terms of being able to 
conduct successfully those operations and get our materiel out?
    General Dunford. Senator, I can. Absolutely the ground 
lines of communication through Pakistan are the most efficient, 
the most inexpensive way for us to get our equipment home. 
There are other ways to get it home, and we have been doing 
that over time, but it is far more expensive to do air and 
multimodal transportation of that equipment back home.
    I am encouraged that the terms of reference were signed by 
Pakistan on the 2nd of this month, November. We are now moving 
into a proof-of-concept phase so we can reopen those lines of 
communication. But much of what we call frustrated cargo, those 
items that have been sitting for a while, have started to move 
and so forth. I believe right now the situation is actually 
pretty good.
    Senator Reed. You are well on your way or the command is 
well on its way through the planning of the movement of this 
equipment? You have identified the equipment that is leaving, 
the equipment that is staying? All that is going on as we 
speak?
    General Dunford. Senator, it is. I left with a lot of 
confidence about that. During my last visit, I did have a 
chance to spend time with U.S. Forces-Afghanistan (USFOR-A) and 
the leadership that is overseeing that. Then on the visit 
before this last visit, I had a chance to visit what they call 
the sort lots where all the equipment is being staged and 
brought out. I think that it is being done now, most 
importantly, as an integral part of the campaign. It is not 
just about getting our equipment out. It is not just about 
moving it across the ground lines of communication. It is about 
doing our retrograde and redeployment consistent with our 
campaign objectives. My perspective is that concept is very 
well understood within ISAF and within USFOR-A and they are 
well ahead of where they need to be in terms of meeting their 
objectives.
    Senator Reed. You are the NATO Commander. I know you have 
been on the ground in Afghanistan. Have you had any contact 
with other NATO commanders and leadership in NATO in 
preparation?
    General Dunford. Senator, I have. I was able to accompany 
Secretary Panetta to the recent defense ministerial for a 
couple days. I sat through the bilateral discussions that we 
had with our NATO partners, as well as the general session with 
the defense ministers, and then on the sideline I had a chance 
to meet many of the NATO leaders. If confirmed, one of the 
things I will certainly do before assuming command is to visit 
the key capitals of our NATO partners and establish the 
personal relationships that I know will be so important in our 
success over the next couple years.
    Senator Reed. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, General Dunford, for your 
leadership and service. We appreciate that and your courage and 
willingness to go in harm's way to serve intensely for your 
leadership tour in Afghanistan.
    You and I talked yesterday--yesterday or the day before? I 
enjoyed that conversation. I believe that you will be honest 
with us.
    I asked you then and let me ask you today, do you believe 
there is a reasonable prospect for the United States to being 
able to be successful in Afghanistan? By that, I mean the 
definition you have given earlier today. What kind of prospects 
do we have of being able to depart from Afghanistan having 
successfully completed a mission there?
    General Dunford. Senator, when I look clearly at our 
objectives and I look at the campaign plan that is in place 
right now and the progress that has been made to date, I am 
optimistic that with continued commitment we can meet our 
objectives.
    Senator Sessions. If that were to change, will you report 
that to Congress as well as to the Commander in Chief?
    General Dunford. Senator, I not only will, but I will feel 
compelled to report that.
    Senator Sessions. We need to have that.
    Are you familiar with the article in the February 2012 
Armed Forces Journal written by Colonel Daniel Davis expressing 
his concern about the performance of the ANA?
    General Dunford. I believe I am if that is a lieutenant 
colonel National Guard officer, Senator Sessions.
    Senator Sessions. Yes.
    It is troubling. I have heard similar stories from other 
enlisted personnel who deal on a regular basis with their 
counterparts in the Afghan army.
    Will you commit to going below just the top commanders when 
you discuss the condition on the forces there? Will you talk to 
enlisted personnel, as well as junior officers, who are 
personally engaged and working with our allies in this effort? 
Will you be prepared to adjust your thinking about how well 
this effort is going if reality tells you it is not going as 
well as we have been hearing?
    General Dunford. Senator, if I am confirmed, I recognize 
that any success I am going to have as a leader is going to be 
based on my willingness to listen to the people that are 
actually out there doing the work every day. I absolutely will 
pledge to you that I will get out and about. I will make sure 
that I understand the challenges and the opportunities from the 
perspective of the young marines, soldiers, sailors, and airmen 
that are actually out there doing the work. As I mentioned, I 
think my ability and willingness to do that is going to be all 
to do with any success that we have.
    Senator Sessions. I really believe you have to do that. Of 
course, I am well aware that you can be in one area of the 
country and get one perspective and a different perspective in 
another area. But this individual traveled 9,000 miles in more 
than 8 provinces meeting and dealing with these issues on a 
regular basis, and it was a very troubling report, I have to 
tell you. I think it sounded like explicit stories or vignettes 
of events that occurred that give insight into an Afghan army 
that is not yet where we need it to be.
    Let me join in support of Senator Graham in his view about 
prisoners and detaining people who are threats to our force. It 
is true in third world countries that they have a very 
difficult time maintaining people in prison for any long period 
of time. People who are direct threats to the United States I 
believe should be held in U.S. custody, and it is surprising to 
me that we cannot work out an arrangement where Afghanistan 
would be happy that we pay for the cost to maintain the 
security on dangerous threats to their country.
    Will you be active in ensuring that we do not have, as 
Senator Graham said, a revolving door, that prisoners that have 
been detained are not released so they can attack us or Afghan 
civilians and military?
    General Dunford. Senator, if I am confirmed, I absolutely 
will be personally engaged in that issue, and I do view it as a 
critical force protection issue. That issue has to be addressed 
in order for us to be successful in the mission.
    Senator Sessions. It is more difficult than a lot of people 
think because I have watched it closely. Senator Graham as a 
reservist has been over there personally engaged in it. I have 
been asking about it for over a decade, and I am just telling 
you it is not easy. It will be hard to deal with that question.
    General Dunford, let me ask a little bit about Defense 
Department policy. There is an interesting article by Deb 
Riechmann in the Associated Press just 2 days ago noting that 
you would represent the 15th top commander in Afghanistan since 
2002 and referred to it as a revolving door of generals that 
some experts say is detrimental to the war effort.
    How much personal time have you had in Afghanistan?
    General Dunford. Senator, I have not served in an 
assignment in Afghanistan. I have served as the component 
commander of the Marine Forces, Central. I was the component 
commander in Central Command for marines, had responsibility 
for all the marines that were assigned to Iraq and Afghanistan 
at that time. That was 2010. I had responsibility for the 
buildup of forces in Afghanistan and the retrograde of forces 
from Iraq. Since 2008, in all the assignments I have had since 
2008, I have had occasion to regularly visit Afghanistan and 
then back here in Washington, as well as my assignment at the 
U.S. Central Command, be involved in issues associated with our 
operations in Afghanistan.
    Senator Sessions. It is a very difficult thing to take any 
American military person away from their families and be 
stationed at a place where you work every hour you can possibly 
work with soldiers' lives. It is stressful and I know that it 
can wear people down over time. I do think we ought to think 
about this, Mr. Chairman.
    According to the article, ``rotating top commanders on an 
annual basis makes no management sense''.
    Thomas Ricks, a senior fellow at the Center for New 
American Security wrote an opinion piece Sunday in the New York 
Times. ``Imagine trying to run a corporation by swapping the 
senior executives every year or imagine if, at the beginning of 
1944, 6 months before D-Day, General Marshall, the Army Chief 
of Staff, told General Eisenhower, the Supreme Commander, that 
it was time to give someone else a chance to lead.''
    I am a bit concerned when we have life and death situations 
going on that we have had 15 commanders in this 10- or 11-year 
effort.
    Do you have any concern about that? What would you do to 
undertake to maintain a secure transition?
    General Dunford. Senator, what I can tell you is what I 
have told the Chairman of the Joint Chiefs, Chairman Dempsey, 
the Commandant of the Marine Corps, and the Secretary of 
Defense as the process went on for my nomination that I had a 
willingness to serve until they thought it was appropriate for 
me to come home. I recognize the need for continuity and 
stability of leadership, particularly at this critical time, 
and if I am confirmed, I am willing to provide that.
    Senator Sessions. Thank you because I know that it can be 
stressful, but we also need to provide our commanders who have 
longer tours the opportunity to be with their families and to 
get some time away from the stress of combat. Thank you for 
that commitment and your willingness to serve.
    I am uneasy about the situation. We have invested a great 
deal. We do not need to muff it up here at the end when it 
could be successful and where a little different tactic, a 
little different policy could allow us to be successful.
    Would you be frank with the Secretary of Defense, the 
President, and Congress if you see needs that would make a big 
difference in the success or failure of our effort? Would you 
bring that and fight for that and advocate for changes that may 
make a difference in the course of this long war?
    General Dunford. I will, Senator.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Sessions.
    The issue you raise about the frequent change in leadership 
is kind of a fundamental question which I think probably needs 
to be raised with the Chairman of the Joint Chiefs and the 
Secretary of Defense when they are in front of us because it is 
a very significant issue. Thank you.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Thank you, General Dunford, for your special service to our 
Nation.
    I would ask you, have you had a chance, pending this 
confirmation, to personally review the reports of the SIGAR 
that have been issued over the last 12 months?
    General Dunford. Senator, I have had an opportunity to 
review the reports.
    Senator McCaskill. I am a broken record on this, but I have 
become beyond a skeptic about the part of the counterinsurgency 
(COIN) strategy, that out of thin air decided that part of an 
effective COIN strategy was building infrastructure in a non-
secure environment. We did $62 billion in Iraq. If you have not 
had a chance to read the final assessment of the Special 
Inspector General for Iraq Reconstruction (SIGIR) on the 
infrastructure building that occurred in Iraq, it is 
heartbreaking. The facilities that are standing empty, to say 
nothing of all the things we built with those taxpayer dollars 
that were blown up, to say nothing of the projects that are 
crumbled and in ruins because of, frankly, an inability to 
maintain or sustain what we built. We are about ready to have a 
report like that I believe in Afghanistan.
    I cannot get anyone to give me any data points that support 
the notion that DOD and even the State Department undergoing 
massive infrastructure projects while we are trying to train an 
army, establish a police force and a rule of law, have 
contributed to our success in theater. I would like your 
comments on that.
    General Dunford. Senator, if I am confirmed, I recognize 
that an important part of my responsibilities will be to be a 
good steward of our resources. During a recent visit, I 
discussed this issue with General Allen. I know that he has 
personally, over the last 18 months, begun to review every 
single project to ensure it achieved the desired effect in 
support of the campaign. I am also aware that he has canceled 
millions of dollars of projects that did not meet the criteria 
that he felt needed to be met in order to support the campaign. 
What I can pledge to you, Senator, is that I will look at that 
issue as a matter of great importance. I do recognize it is 
important.
    Addressing corruption is important. It is associated with 
some of the money that we are spending there as well, and I 
have identified corruption in my initial assessment as 
certainly one of the most strategic challenges and risks that 
we have in effecting a positive outcome in the campaign.
    Senator McCaskill. Maintaining and sustaining was part of 
the problem. The other problem is it is clear that we funded 
our enemies in some instances, which is unacceptable.
    Let me tell you one of my problems. I would love to see the 
list of what has been canceled, particularly major power/water 
projects which are a significant part. We know that some of the 
projects that are being built right now are not going to be 
completed until next year. One of the things I am frustrated 
about, even though I have tried numerous times to get specifics 
on this--the fiscal year 2013 money that--admittedly we have 
cut the money for both the Commander's Emergency Response 
Program (CERP) and for Afghanistan infrastructure fund. But the 
fiscal year 2013 projects still are not delineated. Now, we are 
told this is because this is an agreement that happens between 
the State Department and the Defense Department. But if they 
have not been delineated yet--the projects we funded 2 years 
ago are not completed--I really need to be reassured that come 
2014 we do not once again have a situation where we are 
withdrawing our troops but we are leaving billions of dollars 
of contract work on the ground for infrastructure, particularly 
in light of what the needs are in this country.
    I would look forward to hearing from you as soon as 
possible what the fiscal year 2013 projects are and on what 
basis they were decided, and is there any discussion about 
whether or not they are necessary. Sometimes there is a 
tendency to just keep doing it because we have been doing it, 
and I really think it is time for you all to do a gut check on 
COIN as it relates to nation building. I mean, we can call it 
other things, but let us be honest. We are trying to nation 
build in the middle of fighting. That is really hard. I do not 
want us to keep going forward without really doing an 
introspective look at how successful this part of the COIN 
strategy has been. I do not think anybody has, at least to 
point, shown me a proof point that that part of the COIN 
strategy can be chalked up as a success. I would look forward 
to any information that you or your team could give me on that.
    Specifically I also want to talk about the security force 
facilities, and I want to know what our price tag is going 
forward, if you can get it to me for the record. We know $11.7 
billion has been spent to construct the ANSF facilities. That 
is almost $12 billion we have spent. We know that the SIGAR in 
October issued the report that said that the Afghan-led 
sustainment--they cannot afford these facilities. I know that 
we are going to have to give them money. I believe the figure 
for the first year is $800 million just to sustain and maintain 
these facilities.
    What is the price tag going forward indefinitely to 
maintain and sustain these security facilities we have built 
for them? As I said before in these hearings, we built an army 
for them they cannot afford, and what is the price tag for the 
United States to sustain this for the next decade?
    General Dunford. Senator, I would have to take that for the 
record.
    Senator McCaskill. It is an important one for us to 
understand as we all are trying to figure out how we manage the 
money. I want to make sure that the American people know and 
that we know what we are going to be called upon to fund for 
them going forward from 2014 to maintain not just the 
personnel, which is a huge price tag, but the actual facilities 
themselves. If you would work on that for the record, and we 
would certainly like anybody on your team to visit with us 
about the October SIGAR report about the security facilities 
and what you intend to do in a leadership capacity to address 
the issues that they have raised.
    General Dunford. I will do that, Senator.
    [The information referred to follows:]

    With regard to the Afghanistan Infrastructure Fund (AIF), each 
year, U.S. Forces-Afghanistan (USFOR-A) employs the structured 
interagency approval process in which the Regional Commands nominate a 
number of infrastructure projects to be funded by AIF. Only those 
projects that best meet our strategic objectives are approved. Approved 
projects are then ranked by importance and notified to Congress. Of the 
fiscal year 2011 or fiscal year 2012 projects that were notified to 
Congress, they all continue as planned in order to meet the strategic 
objectives. We hope to have the congressional notification package with 
the proposed fiscal year 2013 AIF projects delivered to Congress by the 
end of the year.
    It is my understanding that during fiscal year 2012, ISAF and 
USFOR-A established specific guidance for commanders regarding how to 
best select projects that will mitigate the effects of reduced spending 
by focusing on key areas for growth, recommending project types with 
the greatest sustainable impact. Commanders focused on small businesses 
with growth potential that stimulated increased employment and 
additional procurement back into the economy.
    Although Congress initially allocated USFOR-A $400 million in 
fiscal year 2012 for the Commander's Emergency Response Program (CERP), 
USFOR-A did not require all these funds and worked with the Army Budget 
Office to reallocate the balance of these funds. At end of fiscal year 
2012 USFOR-A obligated $117.1 million for CERP. Only one significant 
project was cancelled, the Naghlu-Surobi Transmission Line Repair, a 
$4.6 million project. This project was cancelled before any money was 
obligated when the USFOR-A realized it could not be properly executed.
    Less money was obligated in fiscal year 2012 that was originally 
budgeted for due to a conscious effort by commanders to force the 
Government of the Islamic Republic of Afghanistan to use their own 
budget process to provide urgent and essential services to the people 
of Afghanistan. Additionally, commanders were careful to ensure the 
sustainability of the projects they initiated. This cautious approach 
resulted in fewer projects than in previous years.
    A review of all projects has helped to reduce the spending on key 
sectors that do not meet the commander's goals. If confirmed, I will 
continually monitor these accounts to ensure they are responsive to our 
mission requirements and proper oversight mechanisms are in place.

    Senator McCaskill. Okay. Thank you for your service and I 
will look forward to visiting you in theater.
    General Dunford. Thank you, Senator.
    Chairman Levin. Thank you very much, Senator McCaskill.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you very much, General Dunford, for being here today 
and for taking on this assignment at what is a very challenging 
time both for the military and also as we look at the 
challenges still remaining before us in Afghanistan.
    I want to just follow up a little bit on the issue that 
Senator McCaskill raised relative to the SIGAR. We had a brief 
conversation about this yesterday in my office. I wonder if you 
could just, first of all, outline how you think the SIGAR's 
work is going in Afghanistan and how you expect to continue to 
follow up as Commander working with the SIGAR in this capacity 
and then also commit, if you would, as you did yesterday to 
continuing to work closely to not only address the 
recommendations that are being made but to talk about how that 
work can go forward in a way that is cooperative.
    General Dunford. Senator, thank you for that question.
    Based on my discussions with General Allen and his staff, 
it is clear to me that they take the results of the SIGAR 
reports very seriously, and there is a continuous dialogue back 
and forth between the staff at ISAF and the Special Inspector 
General for Afghanistan Reconstruction.
    As a result of some of the previous reports and as a result 
of some of the issues that have been raised with regard to 
corruption and with regard to contracts, they have changed the 
organizational construct at U.S. Central Command to provide 
oversight of these contracts. They have changed the 
organization within ISAF. General Allen has combined oversight 
of corruption with threat finance, with targeting, and so forth 
to bring together what were some cylinders of excellence into a 
holistic approach to deal with some of the issues highlighted 
by the SIGAR. I also know, most importantly, that Ambassador 
James Cunningham at our embassy in Kabul has taken this on and 
has an organization inside the embassy that provides oversight.
    I would see this as a very important role for me, if I am 
confirmed, as a leader to be decisively engaged in the results 
of the SIGAR report, to take them seriously, and where 
necessary, to take remedial action.
    Senator Shaheen. Thank you very much.
    Major General Kenneth Dahl mentioned in an interview in the 
Wall Street Journal that the military has really learned a lot 
of lessons from the transition to a State Department-led 
mission in Iraq and that we are already working on preparing 
the change-over in Afghanistan.
    As somebody who has spent significant time in Iraq, can you 
talk about what you think are the lessons that were learned 
from that experience and what we should be thinking about as we 
are moving forward with the transition in Afghanistan?
    General Dunford. Senator, I can. I think one of the most 
important lessons that General Dahl referred to is there is a 
number of functions that have been performed by ISAF and USFOR-
A over the past few years. In fact, there is in excess of 400 
tasks that have been performed by those 2 headquarters. One 
thing we learned in Iraq was we did not start early enough to 
transition those tasks or identify tasks that may no longer 
need to be done. It is very important that we work with the 
State Department, that we work with the Afghan Government, that 
we work with our international partners, nongovernmental 
organizations (NGO), as the case may be, to migrate those tasks 
to an appropriate place so we can sustain them through the 
transition in 2014. I am quite sure that is what General Dahl 
was talking about. I was encouraged by the discussions in that 
regard during my recent visit.
    On the 29th of November this year here in Washington, DC, 
there will be a meeting between all the stakeholders 
specifically associated with that task migration to, again, 
identify where those tasks ought to be performed, what tasks 
may no longer be enduring. Having that construct in place well 
in advance of the transition in 2014 I think is quite 
important.
    Senator Shaheen. When you say the ``stakeholders'' who is 
included in that group?
    General Dunford. Senator, that will be Central Command, 
ISAF, USFOR-A. All of our coalition partners will be 
represented, as well as representatives from NGOs and the State 
Department, the U.S. Agency for International Development, and 
so forth. I imagine there will be some initial planning 
sessions to get it right, but I would expect a lot of energy 
and attention to be spent on this over the next 2 years.
    Senator Shaheen. You raise an important point in talking 
about the various stakeholders because, obviously, this remains 
a coalition effort and making sure that we continue to keep our 
other partners, our European partners, engaged in this effort 
is very important. As somebody who chairs the European Affairs 
Subcommittee in Foreign Relations Committee looking at NATO's 
role and the continued support of the European countries for 
our effort in Afghanistan has been very important.
    Can you talk about the other kinds of work that you see as 
part of your portfolio, if you take over this job in 
Afghanistan, in terms of working with our NATO partners to 
ensure their continued support for this mission?
    General Dunford. Senator, I can. I would include in the 
important partners the most important partners, and those are 
our Afghan partners who will have the preponderance of 
responsibility for all this work that needs to be done over the 
next 2 years.
    I think one of the first things that I need to do, if I am 
confirmed, is to go visit the capitals and listen to them and 
make sure I fully understand their plans both between now and 
2014 and then what plans they may be willing to support post-
2014. I think having good lines of communication back and forth 
between the capitals so they understand the progress that we 
are making in the campaign and that they are not surprised by 
decisions that may be made in the context of the campaign, that 
we engage their national leadership before those decisions are 
made because they are key stakeholders--obviously, they have 
young men and women in harm's way and they have a right to 
understand what decisions are being made that affect the folks 
that are there.
    I think also as we conduct the campaign, which is first and 
foremost important, a piece of the campaign is obviously this 
transition plan. Working very closely with our NATO partners 
and how they will retrograde and redeploy in the context of the 
campaign is important. How will they get their equipment, how 
will they get their people home, and how will we do that in a 
way that maintains continuity in the campaign, momentum in the 
campaign, and at the same time meets our timeline. I think 
those are probably among the important aspects of the dialogue 
that needs to take place.
    Senator Shaheen. Thank you very much.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to join my colleagues in thanking you, General 
Dunford, and your family for your service to our Nation, your 
extraordinary service over many decades and the service that 
you will be performing. I have every expectation that you will 
be confirmed. I guess that may be the bad news for you in some 
ways, but again your tremendous service to this country.
    Many of the questions on my mind have been asked and 
answered, so I am not going to repeat them. But there is one 
area where I have been concerned--other members of the 
committee and I know that the Marine Corps and all of our 
Services--and that is the effort to counter the IEDs that I 
think now are the predominant or at least a major cause of 
casualties to our men and women in uniform in that theater. I 
wonder if you could suggest to the committee what additional 
steps, either in terms of equipment or efforts to work with 
Pakistan which is still the source of the ingredients that go 
into those IEDs can be taken and that you would contemplate 
taking in this new position.
    General Dunford. Senator, thanks for that question, and the 
IED still remains the largest casualty producer in Afghanistan 
and an issue that clearly I need to be decisively engaged in, 
if I am confirmed in this position.
    You alluded to Pakistan in your question and that 
absolutely is the number one area where we need to make some 
progress. The vast amount of materials for the IEDs do come 
from Pakistan.
    I am encouraged by recent progress and development in our 
coordination at the border. I believe that, in part, that is a 
recognition of Pakistan that they also have a challenge due to 
the open borders and the threat moving back and forth from 
Afghanistan into Pakistan, as well as what has historically 
moved from Pakistan back to Afghanistan.
    About 2 years ago, we established a tripartite framework to 
discuss border issues between Afghanistan, the coalition, and 
Pakistan. Within the next 2 weeks, we will sign the operating 
procedures associated with that tri-part agreement. But what I 
saw in my recent trip was that we have, in fact, at the three-
star level had some successful discussions. There is a working 
group down at the one- and two-star level, but most 
importantly, down at the border coordination centers, we are 
now starting to see some development.
    Pakistan has not built their border coordination centers 
that they are due to build as a result of that agreement that I 
referred to with the tri-part agreement, and so we look forward 
to doing that.
    But I can assure you that if I am confirmed, a healthy 
dialogue, a consistent dialogue with Pakistan is going to be 
very important to address the border area. I think the border 
area is one of the key things we can do in addition to the 
other things that we have done as a result of Congress' 
generosity to address the IED threat, but that border area with 
Pakistan and coming up with a mutual framework to ensure that 
we limit the amount of materials coming in to build IEDs is 
very important.
    Senator Blumenthal. Are you satisfied that there is a 
commitment at your equivalent level in the Pakistani armed 
services to stopping the transfer of those bombmaking 
materials?
    General Dunford. Senator, I cannot comment on the level of 
commitment from personal observation right now, so I will not 
do that. But I will tell you that I am not satisfied with the 
results, and that is really what is most important.
    Senator Blumenthal. I join you in that view, and I think 
other members of the committee and Congress would as well and 
hope that your persuasive efforts and your efforts to lead by 
example on this score are persuasive to the Pakistanis.
    In terms of the drawdown of troops from Afghanistan, I hope 
that the remaining equipment that is necessary to detect and 
counter IEDs is kept in place as long as is necessary, in other 
words, that the equipment is not withdrawn. I assume that is 
part of the planning process?
    General Dunford. Senator, it absolutely is.
    Senator Blumenthal. The kinds of new equipment that may be 
necessary to protect our troops from roadside bombs and IEDs--
is that being provided? I am talking about new protective gear 
that can be worn. I understand that probably all now have that 
kind of protective gear, but the new iterations, the new models 
of equipment, protective gear, and other kinds of equipment is 
still being provided.
    General Dunford. Senator, as long as we have young men and 
women in harm's way, we need to stay in front of the threat and 
continue to adapt. If I am confirmed, I can assure you that is 
exactly what we will do.
    Senator Blumenthal. Thank you.
    I have one more area that I would like to cover and that is 
in terms of human trafficking. Senator Portman and I yesterday 
announced a caucus, the Senate Caucus to End Human Trafficking. 
There is an amendment that we have proposed to the national 
defense authorization bill that would provide new tools and 
penalties against use of trafficked labor by contractors who 
work for the Federal Government, in other words, use of 
taxpayer dollars on projects that involve slave labor. I think 
there is no other way to put it. I wonder if you have any 
thoughts regarding the oversight and prevention of human 
trafficking among U.S. contractors that you would carry out if 
you are confirmed for this position.
    General Dunford. Senator, I have seen some of the initial 
reports on human trafficking. Obviously, they are of great 
concern, and so I understand why you would be introducing 
legislation in that regard. If I am confirmed, I will certainly 
do what I can to help mitigate that threat working very 
closely, obviously, with Ambassador Cunningham at the embassy 
in Kabul.
    Senator Blumenthal. Thank you.
    Thank you very much, Mr. Chairman. That concludes my 
questions.
    Chairman Levin. Thank you very much, Senator Blumenthal. I 
commend you on your human trafficking initiative.
    Senator Blumenthal. Thank you.
    Chairman Levin. General, you have described progress. You 
have given us some cautious optimism, indeed, some real 
optimism about the ability to achieve our mission in 
Afghanistan. I have seen progress with my own eyes. I happen to 
share your assessment of the progress which has been made and 
the reasons that you give--or the evidence that you give for 
your conclusion. I think that evidence is very much present. 
Obviously, the challenges that you have described are also 
there.
    But I do not think that our media has given an accurate 
overview of the situation in Afghanistan because I think 
basically there has been appropriate focus on problems, on 
shortfalls. There has been appropriate reporting on failures 
where they have taken place, but there has been inadequate 
reporting in my opinion on the progress which has been made in 
Afghanistan. I think our people probably have a more negative 
view of prospects in Afghanistan than the people of Afghanistan 
have, according to the opinion polls that we have seen about 
Afghan public opinion. If that is true, it is the product of a 
free press, and I am not ever going to complain about a free 
press in the United States.
    But I think it is important that if your own views continue 
after you get there that you find ways to present the positives 
so that it is not such a concentration in our media on the 
negatives that will continue because it is going to be a 
government which will continue to have corruption. It is going 
to be a military, an Afghan military, which is going to 
continue to have shortfalls, particularly in the enablers but 
also in terms of people who will turn on their own and turn on 
us. That is going to continue hopefully at a significantly 
reduced level, but there will be those examples.
    I hope that you would be aware of what is presented to our 
public. I do not want anything shaped. I am not suggesting, 
believe me, to anybody that you try to engage in propaganda 
because that is not what we are looking for. We are looking for 
just a balanced presentation of the pluses and minuses that 
exist, and I just do not think it has been accurate from what I 
have seen with my own eyes in terms of a balanced media 
presentation of the situation in Afghanistan. It is just better 
I think than the average American thinks it is, and I think 
that is in large measure because it is better than the cross 
section of media presentation in this country. I think you 
ought to just be aware of the importance that whatever the 
objective situation is in Afghanistan that it be fairly 
presented to our own people.
    We very much appreciate your direct answers here today. We 
always appreciate the kind of testimony which you have given 
which is clear, which is direct. You have spoken some truth to 
power right here this morning, and frankly, that is always 
welcome and it better be welcome in a democratic government 
that we hear directly from people who testify in front of us, 
what their opinions are, and you have given us those this 
morning.
    The objective now is to try to get your nomination, first 
of all, voted on by this committee, and I would hope that we 
could do that as soon as possible. I believe that the situation 
on the floor is going to be that we will have votes the day 
that we come back from whatever the Thanksgiving break is. I 
would hope that we could bring that up on that day and get this 
to the floor of the Senate so that we could have you in place, 
whatever the future might hold in terms of when the exact 
transition or the change of the guard is. I think it is 
currently planned for late January or early February--is that 
correct--if you are confirmed, that you would take over from 
General Allen?
    General Dunford. Senator, my understanding is early 
February.
    Chairman Levin. Okay. That is the current plan.
    By the way, I share the positive comments about General 
Allen which have been made here this morning. There have been 
some statements made about his being a very terrific, fine 
marine. I am hoping that he can stay in that position until the 
planned date for his departure. But I also have seen firsthand 
his extreme competence and capability, and I also have 
confidence in him similar to what has been expressed by 
colleagues here this morning.
    But the world being what it is, we never know what tomorrow 
brings, what the fates have in store for us. But as far as your 
confirmation is concerned, I am very confident you will be 
promptly, overwhelmingly, and hopefully unanimously confirmed. 
I see no reason that you would not be.
    We give thanks to you and your wife, who is with you here 
this morning. We know how important families are. That has been 
expressed by, I think, all of us this morning, and we are 
sincere in that. I think spouses are aware of our sincerity 
because we try to reflect that view in our bill, in our 
legislation about the importance of families in various ways, 
including the health care that is provided for families. We 
hope we always reflect our rhetoric in our legislation.
    With that, again with our thanks to you and your family, we 
will stand adjourned.
    [Whereupon, at 12:15 p.m., the committee adjourned.]

    [Prepared questions submitted to Gen. Joseph F. Dunford, 
Jr., USMC, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also improved cooperation between the Services and the 
combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The past 11 years of war have demonstrated the importance 
of Goldwater-Nichols. It has driven the Services toward greater 
effectiveness and interoperability, which enables our Joint Force to 
rapidly deploy and operate in remote and austere environments like 
Afghanistan. Further, this has helped us improve interoperability 
within the coalition. I don't see the need for modifications at this 
time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not see the need for modifications at this time.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, North Atlantic Treaty Organization (NATO) International 
Security Assistance Force (ISAF)?
    Answer. The Commander of ISAF (COMISAF) is the senior NATO 
uniformed officer in Afghanistan. He is the in-theatre operational 
commander exercising operational control of all ISAF forces in 
Afghanistan employing assigned forces in the conduct of population-
centric counterinsurgency operations; enabling and evaluating an 
expanded and effective Afghan National Security Forces (ANSF) capable 
of fighting their own counterinsurgency; and providing support to 
governance and development efforts to protect the Afghan people and to 
provide a secure environment.
    ISAF is a NATO-directed operation conducted under U.N. Security 
Council Resolution (UNSCR) 1386 (2001), which authorizes the 
establishment of ISAF to assist the Afghan Government in maintaining 
security in Kabul and surrounding areas and to take all necessary 
measures to fulfill this mandate. Following a U.N. and NATO/North 
Atlantic Council agreement, NATO assumed strategic command of ISAF on 
11 August 2003 under the authority of UNSCR 1386 and successor UNSCRs. 
Subsequently, UNSCR 1510 (2003) geographically expanded the ISAF 
mandate established in UNSCR 1386 to cover all of Afghanistan.
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Forces Afghanistan (USFOR-A) and how do those 
duties and functions relate to those of the Commander, NATO ISAF?
    Answer. The Commander of USFOR-A is the senior U.S. officer in 
Afghanistan with duties distinct from his duties as Commander, ISAF. 
The USFOR-A Commander exercises National Command Element and National 
Support Element authorities and responsibilities for ensuring that U.S. 
forces have the guidance, equipment, and funding they need to conduct 
their missions. He ensures unity of effort among all U.S. forces 
including those under the ISAF command and those forces not under ISAF 
command, such as those U.S. forces conducting U.S. detention operations 
and U.S. counterterrorism operations.
    COMISAF employs the forces that troop-contributing nations provide 
to ISAF of which the United States remains the largest troop-
contributing nation. The Commander, USFOR-A, directs and oversees the 
United States' military contributions within ISAF while COMISAF duties 
include ensuring the operations of all troop-contributing nations, 
including those of U.S. forces, are coordinated.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have had the opportunity to work very closely on 
Afghanistan in several of my assignments as a general officer to 
include duty as the Vice Director of Operation on the Joint Staff and 
as the Commander, Marine Forces Central Command. In the latter 
assignment, I had operational command of all Marine forces serving in 
Iraq and Afghanistan. As the Commander, Marine Forces Central Command I 
also had responsibility for the draw down in Iraq and the buildup of 
Marine forces in Afghanistan. Since 2008, I have traveled to 
Afghanistan and Pakistan on multiple occasions. In my current 
assignment and in a previous assignment as the Marine Corps Deputy 
Commandant for Operations, I frequently represented the Commandant in 
Tank sessions where our Afghanistan-Pakistan strategy and related 
issues have been addressed and I contributed to the development of best 
military advice to the Secretary of Defense and the President. I also 
studied the region in graduate school and dedicated a great deal of 
time to self-study. As a result, I have experience and an understanding 
of the region that will be useful if I'm confirmed as COMISAF/COMUSFOR-
A.
    Finally, I believe my experience as a commander and general officer 
in Iraq has prepared me to lead our young men and women in Afghanistan 
and provided me with an understanding of the nature of 
counterinsurgency operations and the associated challenges.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
NATO ISAF, and/or Commander, USFOR-A?
    Answer. A professional military officer should never stop listening 
or learning. If confirmed, I will continue to deepen my knowledge of 
the strategic environment and seek input from a wide range of military 
and civilian experts. If confirmed and before taking command, I will 
also spend a great deal of time visiting our forces on the ground and 
leaders from across NATO to enhance my understanding of the fight and 
to assist me in refining my personal framing of the problem.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Commander, NATO ISAF/Commander, USFOR-A, to the following:
    The Secretary of Defense.
    Answer. The USFOR-A Commander reports to the U.S. Central Command 
(CENTCOM) Commander, who, in turn, reports directly to the Secretary of 
Defense. This reporting relationship is prescribed in title 10 U.S.C. 
section 164(d)(1). COMISAF does not have a formal relationship with the 
Secretary of Defense because COMISAF reports to the NATO chain of 
command through the Commander of Joint Forces Command-Brunssum, who 
reports to Supreme Allied Commander Europe (SACEUR).
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The USFOR-A Commander does not have a formal command 
relationship with the Chairman of the Joint Chiefs of Staff but 
coordinates with him through the CENTCOM Commander on a regular basis. 
The Chairman is the principal military advisor to the President, the 
Secretary of Defense, and the National Security Council and while he is 
the Nation's senior military officer, he is not in the chain of 
command. The USFOR-A Commander sends his advice and opinions on 
military operations to the Chairman through the CENTCOM Commander.
    Question. Commander, U.S. Central Command.
    Answer. The Commander, USFOR-A works very closely with the 
Commander, CENTCOM on all aspects of U.S. military operations in 
Afghanistan. By law, the Commander, USFOR-A reports directly to the 
Commander, CENTCOM. The Commander, CENTCOM exercises authoritative 
direction and control over all U.S. Forces in the CENTCOM area of 
responsibility, which includes all U.S. Forces in Afghanistan. The 
Commander, CENTCOM provides authoritative direction over all aspects of 
military operations, joint training, and logistics. He has delegated 
National Command Element and National Support Element authority and 
responsibilities to the Commander, USFOR-A.
    Question. NATO Supreme Allied Commander, Europe (SACEUR).
    Answer. NATO SACEUR, is the NATO strategic-level commander of all 
NATO forces, including those assigned to the NATO mission in 
Afghanistan. He provides the Commander of Joint Forces Command-Brunssum 
(JFC-B) with strategic guidance and direction. JFC-B is NATO's 
operational level command responsible for the mission in Afghanistan. 
In short, SACEUR provides strategic direction and campaign objectives 
and the Commander of JFC-B directs COMISAF to attain these objectives 
and perform key military and supporting tasks, as mandated by the North 
Atlantic Council (NAC).
    Question. Commander, ISAF Joint Command (IJC).
    Answer. IJC is ISAF's operational-level command and is subordinate 
to HQ ISAF. As such, the commander of IJC, reports to COMISAF. The IJC 
Commander is also dual-hatted as the Deputy Commander of USFOR-A, and 
retains certain U.S. command authorities. IJC was established in 
November 2009.
    Question. Commander, NATO Training Mission--Afghanistan (NTM-A)/
Commander, Combined Security Transition Command Afghanistan (CSTC-A).
    Answer. Commander of NTM-A/CSTC-A reports to COMISAF/COMUSFOR-A. 
NTM-A/CSTC-A is a subordinate HQ to both HQ ISAF and HQ USFOR-A. The 
CSTC-A element retains its U.S.-only character primarily for funding 
and administrative authorities, and responds to the U.S. chain of 
command. The NAC established NTM-A in April 2009, and it was merged 
into CSTC-A in March 2010 under a dual-hatted commander.
    Question. U.S. Ambassador to Afghanistan.
    Answer. The USFOR-A Commander provides operational assistance and 
advice, to include U.S. military views and recommendations, to the U.S. 
Ambassador. He maintains a close working relationship with the 
Ambassador to ensure that military and civilian efforts are 
synchronized and mutually supporting. This is particularly important in 
the Rule of Law arena where the Department of State has the lead for 
the U.S. Government. The Commander, Combined Joint-Interagency Task 
Force 435 (who reports directly to the USFOR-A Commander), provides 
support to the Coordinating Director for Rule of Law and Law 
Enforcement, who reports directly to the U.S. Ambassador.
    Question. U.S. Ambassador to Pakistan.
    Answer. The USFOR-A Commander maintains open communications 
channels and a close relationship with the U.S. Ambassador to Pakistan 
to ensure ongoing diplomatic and assistance efforts in Pakistan are 
supportive of military and civilian objectives in Afghanistan. He is 
particularly interested in the security assistance program implemented 
by the Office of the Defense Representative-Pakistan, who reports 
directly to the CENTCOM Commander but works under authority of the U.S. 
Ambassador to build partner capacity in the Pakistan military's ongoing 
counter-insurgency efforts. The Embassy is a key partner for advancing 
our border coordination efforts with the Pakistan military and the 
Afghan National Security Forces. The U.S. Embassy in Islamabad was also 
critical to USFOR-A efforts to reopen the Ground Lines of 
Communications through Pakistan which supply our forces.
    Question. U.S. Special Representative for Afghanistan and Pakistan.
    Answer. The USFOR-A Commander provides operational assistance and 
advice, to include U.S. military views and recommendations, to the U.S. 
Special Representative for Afghanistan and Pakistan. He maintains a 
close working relationship with the Special Representative to ensure 
that military and civilian efforts are synchronized and mutually 
supporting. This relationship is particularly important to the ongoing 
security and political transition, as well as reintegration and 
reconciliation efforts, which will facilitate an inclusive Afghan 
political solution to the conflict in Afghanistan.
    Question. The Secretary General of NATO.
    Answer. The NATO Secretary General chairs the North Atlantic 
Council, the highest political authority in NATO. The North Atlantic 
Council is responsible for the overall decisions and direction of NATO 
policy and operations and is comprised of ambassador-level 
representatives of all NATO members, including the United States. The 
Council is advised on military matters and the conduct of operations by 
the Military Committee, which is also composed of senior military 
representatives from each member state. The North Atlantic Council, 
under the Secretary General's leadership, provides overall direction 
and guidance to the military chain of command. In practical terms, the 
SACEUR leads all NATO military operations and advises NATO's Military 
Committee. Thus, in the case of the ISAF mission, the Secretary 
General, following consultations and decisions by the North Atlantic 
Council, provides guidance and direction to SACEUR through the Military 
Committee, and the SACEUR communicates those directives and guidance 
through NATO's military chain of command. COMISAF and the Secretary 
General confer and consult regularly, including formal updates to the 
Secretary General and the North Atlantic Council on the progress of 
military operations in Afghanistan.
    Question. NATO Senior Civilian Representative for Afghanistan.
    Answer. The NATO Senior Civilian Representative (SCR) for 
Afghanistan is the civilian counterpart to COMISAF. As the NATO 
Secretary General's direct representative in Afghanistan, the SCR is 
charged with carrying forward the political aspects of NATO's 
engagement in Afghanistan. Although there is no formal command 
relationship, the SCR and COMISAF work in close concert and with full 
transparency in accordance with the North Atlantic Council-approved 
Terms of Reference for the SCR and SACEUR as well as JFC-B's guidance 
for COMISAF. In short, this cooperative relationship is critical to 
underwrite NATO's operational military and political engagement in 
Afghanistan and can help to improve cooperation between ISAF and 
international civilian agencies in Afghanistan.
    Question. United Nations Special Representative in Afghanistan.
    Answer. U.N. Special Representative of the Secretary-General (SRSG) 
for Afghanistan is an important leader in the international community's 
efforts in Afghanistan. While no command relationship exists between 
COMISAF and the U.N. SRSG, the ISAF mission was authorized by UNSCR to 
assist the Afghan Government in the establishment of a secure and 
stable environment. Similarly, the U.N. SRSG has a mandate to lead the 
U.N. Assistance Mission in Afghanistan (UNAMA) supporting the Afghan 
Government in its efforts to improve critical areas, including 
security, governance, economic development, and regional cooperation, 
as well as to support the full implementation of mutual commitments 
made on these issues at the London Conference in January 2010 and the 
subsequent Kabul Conference in July 2010. The SACEUR Operations Plan 
states that COMISAF is expected to work in close coordination with both 
the NATO SCR and the U.N. SRSG. These partnerships support efforts to 
work with the Afghan Government to ensure progress towards the goal of 
a self-sufficient Afghanistan.
              afghanistan transition and major challenges
    Question. At the NATO Summit in Chicago in May, NATO members 
committed to steps to promote a stable and secure Afghanistan and to 
the goal of ``preventing Afghanistan from ever again becoming a safe 
haven for terrorists that threaten Afghanistan, the region and the 
world.'' NATO members also reaffirmed their support for the plan, 
initially endorsed at the 2010 Lisbon NATO Summit, to transition full 
security responsibility from ISAF to the Afghan National Security 
Forces (ANSF) by the end of 2014.
    Do you agree with the objectives and transition plan for the ISAF 
mission endorsed at the NATO Chicago Summit?
    Answer. Yes, I do. At the Chicago Summit, NATO allies and coalition 
partners reaffirmed the Lisbon framework for transition and agreed to 
an interim milestone in mid-2013 where, upon the initiation of the 
final tranche, ANSF would assume the lead for combat operations across 
the country and ISAF's primary mission would shift to training, 
advising, and assisting the ANSF. They pledged roughly $3.6 billion 
annually for 3 years beginning in 2015 toward a sustainable ANSF. This 
commitment of long-term support will help solidify and sustain the 
security gains achieved over the previous 13 years.
    Question. What are the major challenges and problems you foresee, 
if confirmed as the next Commander, NATO ISAF/Commander, USFOR-A, in 
the implementation of the transition plan in Afghanistan?
    Answer. If confirmed, I believe there will be three key challenges 
in implementing this plan. First is defining how and when provinces 
will complete the transition process and how ISAF will operate in those 
areas within the parameters of the Military Technical Agreement. In 
addition to security, ensuring the irreversibility of the transition 
process also requires sufficient governance, development, and rule of 
law. A second challenge is the relationship between security and non-
security ministries. Cooperation is needed to ensure continued progress 
in governance, development, and rule of law reinforces the security 
transition. Third is ensuring the appropriate disposition of ANSF 
forces around the country and managing the Afghan Government's desire 
to assume responsibility for all ISAF bases.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. If confirmed, I will work with the U.S. Government, NATO 
and Afghan counterparts to develop a mutually-agreed upon framework for 
completing the transition process. I will continue to work with the 
security ministers and other key leaders in aligning the ANSF's 
disposition with strategic priorities and operational requirements and 
in carrying out the decisions of the joint ISAF-Afghan basing board.
                   security situation in afghanistan
    Question. What is your assessment of the security situation in 
Afghanistan, particularly in southern and eastern Afghanistan, and of 
the nature, size, and scope of the insurgency?
    Answer. Although the insurgency remains resilient and determined, 
coalition and ANSF operations have degraded insurgent capabilities and 
freedom of movement in much of the country. The insurgency failed to 
meet its established goals for the 2012 fighting season and enemy 
initiated attacks have largely been driven out of key population 
centers, a central aim of the campaign. Additionally, security 
conditions remain relatively stable in areas that have transitioned 
and, on average, show a decrease in violence. Insurgent groups are most 
active along the border with Pakistan. The Taliban remains vested in 
southern Afghanistan, the Pashtun's ideological homeland, and enjoys 
the support of the Haqqani Network which is focused on the east of the 
country and Kabul. The insurgency continues to use the same tactics to 
preserve a diminishing force structure: improvised explosive devices; 
high-profile attacks; insider attacks; assassinations of influential 
powerbrokers, tribal elders, ANSF, and Afghan officials; and the 
avoidance of larger engagements.
        process of transitioning security responsibility to ansf
    Question. In May 2012, President Karzai announced the third round 
of areas designated for transition to having Afghan forces in the lead 
for security, which included some areas that remain volatile. ISAF has 
said that two more rounds of transition will occur between now and mid-
2013, at which point Afghan security forces will have lead 
responsibility for security throughout Afghanistan, though coalition 
forces will continue to provide substantial support to Afghan forces 
through 2014.
    Do you support ISAF's plans for transitioning to an Afghan security 
lead throughout Afghanistan by mid-2013 with coalition forces 
continuing to provide support to the ANSF through 2014?
    Answer. Yes. I support plans for ANSF assuming the lead for 
security across all of Afghanistan by mid-2013, as agreed to at the 
Chicago NATO Summit in May 2012. This process of transferring lead 
security authority to ANSF from ISAF is at the heart of transition. 
This transfer is done over the course of five sequential tranches of 
geographic areas in order to optimize the chances of success, and this 
milestone in the latter part of the summer of 2013, coincides with the 
implementation of the final transition tranche. Supported by ISAF 
partners, advisors, and enablers, the ANSF will have 18 months to fully 
develop effective forces before full security responsibility is handed 
over to the Afghan Government at the end of 2014. During this time, 
ISAF will maintain sufficient combat power to respond and conduct 
operations alongside the ANSF.
    Question. What is your assessment of the capacity and performance 
of the Afghan security forces assuming the lead for security in areas 
designated for transition, including in contested areas?
    Answer. My assessment of the ANSF is that they are an increasingly 
capable force which has expanded security gains in many transitioning 
areas. Some of Afghanistan's more challenging districts entered 
transition in Tranche 3 to better manage associated risk with available 
forces, and the ANSF has performed well in these areas. If confirmed I 
will be able to make a more detailed assessment of their capacity and 
performance, which will be one of my first actions.
    Question. What do you view as the most significant challenges to 
the Afghan security forces in assuming lead security responsibilities 
through 2014?
    Answer. Adapting to operations without ISAF enablers will be a 
major challenge as ISAF forces phase out of the battle space over time. 
Another challenge for the ANSF in ensuring the irreversibility of their 
hard-fought gains in security will be that governance and development 
lags far behind ANSF and Government of the Islamic Republic of 
Afghanistan's (GIRoA) security capacity. From an operational 
perspective, effective coordination between the Afghan National Army 
(ANA) and Afghan National Police (ANP) will continue to be a challenge 
in transitioning areas.
      building and sustaining the afghan national security forces
    Question. The ANSF are expected to reach their target end strength 
of 352,000 in the coming months, consisting of an ANA of 195,000 and 
ANP of 157,000.
    In your view, are the target end strength levels for the ANA and 
ANP sufficient to provide security and stability in Afghanistan?
    Answer. Yes. the target end-strength levels for ANA and ANP are 
sufficient to provide security and stability in Afghanistan which is 
defined as ANSF's ability to manage violence at an acceptable level to 
Afghans. The ANSF target goals were set based on U.S. and NATO 
objectives in Afghanistan, and are evaluated regularly against those 
objectives. Based on current assessments I have reviewed, the ANSF will 
require coalition enablers in fixed- and rotary-wing aviation, 
engineering, counter IED, fires, intelligence, surveillance, and 
reconnaissance (ISR), intelligence, and casualty evacuation through 
2014.
    Question. What in your view are the greatest challenges to building 
the capacity of the ANSF to assume the security lead?
    Answer. Based on my initial assessment, there are five key 
challenges to improving the ANSF's ability to assume responsibility for 
Afghanistan's security: leadership, logistics, counter-IED, attrition, 
and literacy. The current ANSF logistics and maintenance systems 
function, but with some challenges such as a lack of trained 
logisticians and the slowness of the Ministry of Defense supply request 
process. Progress in manning, training, and equipping Explosive 
Ordnance Disposal (EOD) and Route Clearance units has been steady but 
uneven due to differing security conditions across the nation. Afghan 
leadership is working to better implement an operational rotation cycle 
for the employment of units, enforcement of leave policies, timely 
payment of salaries, the possibility to learn reading and writing, and 
improve living conditions to help reduce the attrition rate. Finally, 
literacy continues to be a challenge in professionalizing and training 
the Afghan forces. If confirmed, I will focus ISAF's efforts towards 
these challenges, building on the current signs of progress.
    Question. A key component of efforts to build the capacity of 
Afghan security forces is partnering ANSF units together with ISAF 
units in the field.
    What is your understanding and assessment of the manning, 
organization, operations, and effectiveness of U.S. forces partnering 
with the ANA and ANP?
    Answer. Our U.S. forces serving in Afghanistan have done a 
remarkable job partnering with their Afghan counterparts. Within the 
Security Force Assistance construct, partnered operations are a 
necessary and natural step to ensure an Afghan unit is ready to operate 
and progress with an advisor team. Our partnering and advising 
operations up to this point have been quite effective in getting ANSF 
units to an initial operating capability and this new construct will 
enable improved, and in some cases, accelerated development of ANSF 
capabilities. If confirmed, I will conduct a thorough assessment on 
this essential aspect of our strategy.
    Question. What is your understanding and assessment, if any, of the 
role that smaller numbers of U.S. or coalition forces will play in 
providing Afghan forces assistance with operational integration or 
providing key enablers, such as aviation, intelligence, logistics, or 
fire support?
    Answer. The Security Force Assistance model provides select 
enablers to the ANSF, especially the Afghan Air Force. The use of 
coalition enablers will be based predominately on the mission needs of 
our advisory teams. For the next 2 years, ISAF will evaluate ANSF 
readiness, training, and fielding, including the possibility of 
accelerating the training and fielding of ANSF enabler capabilities. We 
will need to revisit the concept of enablers regularly during that 
period of time to understand the need to adjust risk mitigation, or 
more specifically, enablers. If confirmed, this is something I will 
closely monitor and ensure we continue to make steady progress toward 
our transition goals.
    Question. The 352,000 end strength for the ANSF has been called a 
surge force. At the NATO Chicago Summit in May, ISAF participating 
countries called for any reductions in the pace and size of the ANSF 
after 2014 to be ``conditions-based''. The ISAF participating countries 
also discussed a ``preliminary model'' for the future size of the ANSF 
of 228,500, with an estimated annual cost of $4.1 billion, which would 
be subject to regular review in light of developments in the security 
situation.
    Do you agree that any reductions in the ANSF post-2014 from the 
352,000 level need to be based on the security conditions in 
Afghanistan at the time the reductions would occur?
    Answer. Yes. The balance between security, long-term stability and 
development inform force structure projections, and the operational 
environment and the nature of the insurgency add immediate context. 
Coalition advisors will work with the ANSF and the Afghan Government to 
develop a managed force reduction path which will be determined by the 
situation in Afghanistan. The results of Afghan operations between 2014 
and 2016 will determine the environment the ANSF will face as they 
reduce their force structure. Ultimately, governance will determine if 
ANSF security gains are sustained long term.
    Question. What is your understanding of the basis for the 
``preliminary model'' of a future ANSF of 228,500?
    Answer. In developing the ANSF Plan of Record (APoR), the ANSF 
Objective Force of 228,500 was based primarily on ISAF's assessment of 
the potential threat environment in 2017 taking into consideration what 
size force is sustainable and affordable for Afghanistan, as funding 
from the international community reduces. The Center for Army Analysis 
wargamed different ANSF structures in varying threat environments and 
concluded that a 228,500 offered the best probability of success.
    Question. In your view, what assumptions regarding the overall 
security environment in Afghanistan underlie the ``preliminary model'' 
of a future ANSF of 228,500?
    Answer. There were several planning assumptions for the APoR's 
preliminary model for the ANSF Objective Force in 2017. One assumption 
was that NATO and Afghan goals would remain generally congruent 
regarding the denial of terrorist safe havens in Afghanistan. Another 
important factor was that ISAF assumed international funding 
contributions will meet the $4.1 billion pledge established at the 
Chicago Summit, and that this funding would be sufficient for 
Afghanistan to maintain the force. A third important assumption was 
that GIRoA and the ANSF would continue to face threats emanating from 
external regional actors seeking to expand their influence and 
undermine GIRoA as well as internal threats from a resilient 
insurgency. It was further assumed that those threats would not detract 
from the ANSF's ability to preserve Afghanistan's sovereignty and 
territorial integrity. The collective assessment, validated through 
modeling, was that 228,500 was the proper force structure.
    Question. If confirmed, do you agree to conduct a review of the 
modeling for future ANSF force levels to assess what size and 
capabilities are appropriate to address security conditions in 
Afghanistan post-2014?
    Answer. If confirmed, I will continue the process of assessing 
future ANSF force levels to determine what size and capabilities are 
appropriate to address evolving security conditions in Afghanistan. 
Both conditions on the ground and the assumptions used in the initial 
APoR modeling will change over time and should be reviewed, in 
partnership with GIRoA, to ensure the success of the mission and the 
success of the ANSF post-2014.
                draw down of u.s. forces in afghanistan
    Question. In June 2011, President Obama announced his decision to 
draw down the 33,000 U.S. surge force in Afghanistan so that by the 
summer of 2012 U.S. forces will be at a level of 68,000. The President 
also announced that after the reduction of surge forces, U.S. forces in 
Afghanistan would continue to draw down ``at a steady pace'' through 
2014. General Allen has said that once the 68,000 U.S. troop level is 
reached at the end of September, he intends to assess the situation on 
the ground in Afghanistan and provide the President his recommendation 
for future U.S. troop levels in Afghanistan.
    Do you support the President's decision to draw down U.S. forces in 
Afghanistan to a level of 68,000 by the end of September?
    Answer. Yes, I support the President's decision and the reasoning 
behind that decision to recover 33,000 U.S. surge forces by October 
2012. The purpose of the surge was to reverse the Taliban's momentum 
and increase the size and capability of the ANSF. The surge 
accomplished these objectives and created the conditions to initiate 
the process of transition.
    Question. Do you agree that following the recovery of the 33,000 
U.S. surge force in Afghanistan, further reductions in U.S. forces 
levels should continue ``at a steady pace'' through 2014?
    Answer. I agree that there will be further troop reductions through 
2014 but the pace of withdrawal over the next 25 months will depend on 
several variables, including progress of the campaign, the state of the 
insurgency, and the readiness of the ANSF to assume full security 
leadership and responsibility to the Afghan Government by the end of 
2014. Decisions on the pace and magnitude of further troop reductions 
will be made by the President and in accordance with the ISAF mandate 
which ends on December 31, 2014. If confirmed, I will continuously 
monitor and assess such elements and advise the chain of command 
accordingly.
    Question. To what extent, in your view, should further reductions 
beyond the 68,000 U.S. troop-level in Afghanistan be based on actual 
security conditions ``on the ground'' there?
    Answer. An assessment of the security conditions on the ground is 
one of several factors that should be considered as part of a strategic 
conversation on troop requirements. Other factors include the progress 
of the campaign, the state of the insurgency, and the readiness of the 
ANSF to assume full security leadership and the transition of 
responsibility to the Afghan Government by the end of 2014.
            post-2014 u.s.-afghanistan strategic partnership
    Question. In May, President Obama and President Karzai signed the 
U.S.-Afghanistan Enduring Strategic Partnership Agreement, which sets 
out the mutual objectives and goals for a post-2014 bilateral 
relationship, including on long-term security issues. The Agreement 
provides for a continuing U.S. military presence in Afghanistan through 
2014 and beyond, as may be agreed in a Bilateral Security Agreement 
(BSA) to be negotiated.
    In your view, what should be the primary mission or missions of 
U.S. forces in Afghanistan after 2014?
    Answer. In my view our overall objective in Afghanistan after 2014 
will be to sustain our hard-won security gains after 2014 so that 
Afghanistan never again becomes a safe haven for terrorists. To 
accomplish this objective, the primary missions of the U.S. military in 
Afghanistan should be to: (1) train, advise, and assist the ANSF; (2) 
provide support to civilian agencies, and (3) conduct counterterrorism 
operations. This mission set will include force protection for our 
brave young men and women and, as available, the provision of in 
extremis support for our Afghan forces. The training, advisory and 
assistance mission is largely in line with those of our NATO partners; 
in October 2012, the NATO Defense Ministerial endorsed the mandate for 
the post-2014, NATO-led International Training, Advisory, and 
Assistance Mission.
    Question. What are the key issues that need to be addressed as part 
of the negotiation and conclusion of a BSA?
    Answer. The Strategic Partnership Agreement negotiated last spring 
included the provisions for: continued U.S. access to, and use of, 
Afghan facilities for the purposes of countering terrorism; continuing 
to train the Afghan National Security Forces; and other mutually agreed 
activities to advance shared security interests. The BSA should provide 
a foundation for enduring defense cooperation between our two 
countries. The key issues that need to be addressed in the conclusion 
of the BSA should include the nature and scope of the future presence 
and operational authorities of U.S. forces in Afghanistan; access to 
and use of Afghan facilities by U.S. forces beyond 2014; and, securing 
adequate status protections for U.S. Department of Defense (DOD) 
military and civilian personnel in Afghanistan.
                             insider threat
    Question. Recently there has been an increase in the number of so-
called ``green-on-blue'' incidents in which individuals in Afghan 
uniform have attacked U.S. or coalition soldiers. The rising number of 
insider attacks has led U.S. and Afghan military leaders to order a 
number of precautions against such insider threats, including expanding 
Afghan counterintelligence efforts to identify possible Taliban 
infiltrators, increasing cultural sensitivity training, and expanding 
the ``Guardian Angel'' program to protect against the insider threat in 
meetings between coalition and Afghan forces.
    In your view what are the causes of the recent spike in green-on-
blue attacks?
    Answer. Insider attacks are an insurgent tactic to create a seam 
between ISAF and the ANSF, sowing mistrust between partners and 
undermining domestic support for the campaign. Because attackers are 
often killed during an incident, it is difficult to fully assess the 
motivations behind insider attacks (sometimes called green-on-blue). We 
know that insurgents use infiltration, impersonation, and co-option as 
a means to commit an insider attack, and they seek to exploit post-
traumatic stress, interpersonal disputes and extremist views through 
propaganda and messaging. Even though the number of insider attacks is 
relatively small, each is tragic. I understand the strategic 
implications of each one of these attacks, and if confirmed, I will 
personally engage in mitigating the risks of insider attacks and 
properly responding to each incident.
    Question. What is your assessment of the measures that have been 
taken by ISAF and Afghan leaders to address the insider threat?
    Answer. Because no single definitive countermeasure can prevent 
insider attacks, ISAF and the ANSF have introduced a program of 
countermeasures which, when applied collectively, can reduce the threat 
posed by insider attacks. These measures include strengthening vetting 
and screening processes for new recruits and those returning from 
leave; increasing the number and training for counterintelligence 
agents; and enhancing force protection for ISAF troops operating in 
small units or in remote areas. Insider attacks have declined 
substantially providing an early indication that countermeasures are 
working, but it will take time to see the full effect of these 
countermeasures. I am encouraged by the joint, integrated ISAF-ANSF 
approach and level of the Afghan Government's commitment to reducing 
this mutual threat. For example, ISAF and the ANSF established the 
three-star Insider Threat Action Group, which they co-chair, and they 
formed joint assessment teams to study incidents and identify lessons 
and required actions for the future.
    Question. If confirmed, what additional steps, if any, would you 
recommend to address this threat?
    Answer. If confirmed, I will continue to make countering this 
threat a top priority. I will continuously monitor and assess the 
nature of insider threats and potential vulnerabilities and ensure ISAF 
is properly resourced to counter this threat, particularly as ISAF's 
organizational profile shifts to a security force assistance model. We 
are not alone in suffering the effects of insider attacks; our Afghan 
partners have also suffered considerably from insider attacks. 
Therefore, I would continue to strengthen and leverage our partnership 
with the Afghan Government in implementing a comprehensive, combined, 
and integrated approach.
    Question. What is your assessment of the impact of these green-on-
blue attacks on the level of trust between coalition and Afghan forces?
    Answer. While the recent rise in insider attacks continues to be an 
area of significant concern for coalition and Afghan forces, I do not 
believe it has weakened the bonds between our forces, which remain 
strong through years of partnership and shared adversity in combat 
against a common enemy. Furthermore, our forces understand that insider 
attacks are an insurgent tactic employed to create a seam between ISAF 
and the ANSF, sowing mistrust between partners and undermining domestic 
support for the campaign. If confirmed, I will conduct a thorough 
assessment of the impact of insider attacks on our forces and our 
partnering strategy.
    Question. As a result of the insider threat, do you see a need to 
reconsider our transition plans for embedding small teams of U.S. 
military personnel with Afghan military units as part of the transition 
to an Afghan security lead?
    Answer. At this time, I believe that the Security Force Assistance 
model of embedding small teams of U.S. military personnel with Afghan 
military units continues to provide the best and most effective means 
of achieving our campaign objectives. Security Force Assistance shifts 
the ISAF main effort from partnering and combat to training, advising, 
and assisting the ANSF at the tactical and operational levels until 
they are able to conduct operations independently. These teams are not 
uniquely vulnerable to insider threats, and in fact, may be more 
secure--because of their close proximity to their Afghan partners they 
develop closer relationships to their partners. However, if confirmed, 
I will continuously evaluate the organizational assumptions, 
operational requirements, and potential vulnerabilities of these teams 
and their basing facilities to determine if the Security Assistance 
Force model is still valid and ensure the correct force and protective 
posture is delivered.
    Question. These insider attacks have to date claimed the lives of 
53 NATO troops and wounded at least 80 others.
    What is your assessment of the impact of these insider attacks on 
morale among U.S. and allied forces in theater?
    Answer. Each U.S. and coalition death at the hands of an insider 
attacker is tragic, and if confirmed, I will conduct a thorough 
assessment of the impact of insider attacks on our forces and our 
partnering strategy. At this time, I do not believe these attacks have 
had the longer-term detrimental effect on morale the insurgents desire. 
Our dedicated, professional service men and women continue to have a 
sense of mission accomplishment, and they understand the importance of 
their endeavors to the future of Afghanistan and to the security of the 
United States.
                special operations forces in afghanistan
    Question. In April, the United States and Afghanistan signed a 
Memorandum of Understanding (MOU) on the ``Afghanization'' of direct 
action counterterrorism missions in Afghanistan, the so-called night 
raids. The MOU reflects the shared intention of having Afghan security 
forces in the lead in the conduct of night raids, with U.S. forces in a 
support role.
    In your view, how important is it for the success of the Afghan 
mission to have Afghan security forces taking the lead on night raids?
    Answer. It is my view that Afghan security forces must be in the 
lead on night raids. Historically, indigenous forces defeat 
insurgencies; this is no different. Night operations--all of which are 
100 percent partnered with the ANSF--provide our partnered teams an 
unmatched operational advantage. The long-term success of the mission 
in Afghanistan depends primarily on institutional capacity; however, 
these partnered night operations provide the ANSF the training and 
experience required to eventually conduct unilateral operations. The 
development of the ANA Special Operations Command remains a critical 
component of the overall force structure and strategy to sustain the 
transition to Afghan security lead.
    Question. What is your assessment of the progress on the 
Afghanization of direct action counterterrorism missions in 
Afghanistan? What additional steps, if any, would you recommend to 
improve this process?
    Answer. In addition to force growth, the ANSF SOF community made 
significant progress in operational effectiveness. The independence and 
competency of Afghan special military and police units continues to 
grow--100 percent of ANA Special Operation Forces missions are Afghan 
led, and approximately 60 percent of Provincial Response Company (PRCs) 
police missions are Afghan led. If confirmed, I will seek to sustain 
and expand their progress by supporting the development of key 
indigenous capabilities such as intelligence collection and analysis 
capacities, air mobility capabilities, and an independent logistical 
architecture, which are important for operational autonomy. In 
addition, mechanisms to initiate, support, and sustain operations need 
further development to strengthen existing ground tactical capacity.
    Question. As U.S. forces draw down in Afghanistan, what changes, if 
any, do you foresee in the role of Special Operations Forces (SOF) in 
Afghanistan?
    Answer. It is my view that SOF will continue to play a vital role 
in Afghanistan by disrupting insurgent networks, building capable 
Afghan SOF, fostering stability through Village Stability Operations 
(VSO), and advising and training the ANSF. Their efforts mitigate 
operational risk associated with a drawdown of forces
    Question. Recently, a new command, the Special Operations Joint 
Task Force-Afghanistan (SOJTF-A), has been established to improve 
coordination among U.S., coalition, and Afghan special forces.
    Do you believe this new command structure will unify the efforts of 
the various SOFs in Afghanistan?
    Answer. Absolutely, and from what I understand, it already has. I 
believe the recent establishment of NATO Special Operations Component 
Command (NSOCC)-Afghanistan and the SOJTF-A into a combined 
organizational structure provides a robust, properly sized and 
structured headquarters that avoids duplication and makes the best use 
of available funding, manpower, and infrastructure. The new command 
structure has already begun to realize organizational efficiencies and 
is helping to link various Afghan SOF elements for the first time. 
Afghan Ministry of Defense (MOD) and Ministry of Interior (MOI) SOF 
elements are beginning to operate together in integrated and mutually 
supporting operations, a necessity for ANSF to assume full 
responsibility for security responsibility.
    Question. How does this new command structure impact the ability of 
U.S. SOF to partner effectively with the Afghan Special Forces?
    Answer. The establishment of the new NSOCC/SOJTF-A command 
structure enhances partner development by fostering the establishment 
of common training objectives, standards and methods. Under this 
structure, best practices from one element can be applied to 
instructional methodologies for another. This command structure also 
leverages the full range of capabilities that the coalition SOF 
community offers. Additionally, conventional ISAF ANSF commanders 
benefit from this concentrated support.
    Question. Why is a new command structure for SOF necessary now 
after close to 11 years of war in Afghanistan?
    Answer. The establishment of the new SOF command structure was a 
necessary and natural step toward improving operational efficiency and 
effectiveness based on current circumstances and anticipated 
operational conditions. There have been other changes to the SOF 
structure in the past 11 years to great benefit. For example, in 2010, 
SOF formally integrated conventional force battalions into their 
organizational construct again improving operational effectiveness by 
extending their operational reach and leveraging capabilities that SOF 
did not possess organically. The combination of SOF and conventional 
forces enabled SOFs to expand VSO/Afghan Local Police (ALP), where 
force structure limitations had previously prevented expansion.
    Question. Do you believe this new command structure signals a 
significant and continuing role for U.S. SOFs in Afghanistan beyond 
2014?
    Answer. The establishment of NSOCC/SOJTF-A shows that adaptation is 
required to meet changing operational demands leading to the post-2014 
mission set. The authority to change the mission and size of U.S. SOF 
in Afghanistan after 2014 resides with the President. If confirmed, I 
will continue to assess the role of our SOF and provide my advice 
through my chain of command.
            afghan local police/village stability operations
    Question. The VSOs and ALP programs have been called critical to 
ISAF's counterinsurgency strategy in Afghanistan.
    What has been the effect of these programs on rural Afghan 
populations and what has been the response from the Taliban?
    Answer. Successful counterinsurgencies require the involvement of 
local, indigenous defense forces. The program utilizes U.S. and 
Coalition SOF to train Afghans in rural areas to defend their 
communities against threats from insurgents and militant groups. The 
ALP program continues to expand and gain popular support with Afghans. 
Both VSO and ALP have made substantial progress in protecting and 
mobilizing rural populations, preventing their exploitation by the 
insurgency, and expanding the influence of the Afghan Government. The 
United Nations Assistance Mission in Afghanistan (UNAMA) released its 
annual report on the protection of civilians, which noted that ALP had 
improved security and kept insurgents out of ALP areas. Underscoring 
the effectiveness of the program, the Taliban increasingly and 
specifically targeted ALP for direct attacks and infiltration to weaken 
the program. To mitigate the risk of insider threats, SOJTF-A has taken 
active measures to revalidate all of the more than 17,000 ALP.
    Question. Do you believe the availability of U.S. special 
operations teams is a limiting factor in expanding these programs?
    Answer. I believe that once we reach the authorized force of 30,000 
ALP, an evaluation of SOJTF-A forces and requirements will be required. 
It is possible, however, that an indigenous force of this size may 
require additional support from USSOF and conventional force enablers. 
Several factors can help mitigate this challenge such as conventional 
forces' helping to build ALP sites. Additionally, once the Afghan 
Government assumes primary responsibility for supporting ALP, this will 
free up SOF to create other ALP sites. Lastly, in early 2013, NSOCC-A/
SOJTF-A expects to transition half the ALP force into ``tactical 
overwatch'' thereby allowing SOF teams to establish new VSO sites and 
generate additional ALP in strategically important regions. Our 
experience in foreign internal defense shows that measured growth 
through a deliberate process is needed to ensure success of this 
important program.
    Question. In your view, given the role that local security forces 
have played historically in Afghanistan, are there limits to the 
potential growth of the ALP and can and should these forces expand to a 
point where they can have a strategic impact in Afghanistan?
    Answer. I believe we should approach the growth of the ALP in a 
deliberate manner employing local elders and shuras for nominating and 
vetting ALP to avoid the possibility of the scenario which occurred 
following the Soviet withdrawal. In fact, ALP enjoy a high degree of 
popularity and support. Local defense forces are a central component of 
successful counterinsurgencies, and the ALP is having a strategic 
impact on the counterinsurgency campaign in Afghanistan through their 
success in protecting their communities against the threat of 
insurgents and militant groups. If confirmed I will continue to assess 
this important program to ensure it supports our broader strategic 
goals in Afghanistan.
    Question. How do indirect approaches like Village Stability 
Operations and ALP programs compliment direct action counterterrorism 
missions within the U.S. strategy in Afghanistan?
    Answer. Direct action counterterrorism operations and Village 
Stability Operations and ALP programs are highly complementary. SOF 
conduct operations to neutralize insurgent networks, laying the 
foundation for increased security and future stability operations. 
CJSOTF-A is then able to implement VSO and ALP programs, which will 
help maintain the security gains achieved during the operation.
    Question. What is your understanding of the commitment of the 
Government of Afghanistan to continue its support of these programs 
through 2014 and beyond?
    Answer. The Afghan Government has authorized an ALP endstrength 
(tashkil) of 30,000, which is not part of the total 352,000 ANSF 
endstrength. The ALP program is currently scheduled to end in September 
2014. The Ministry of Interior is considering a proposal to make the 
ALP a fifth ``pillar'' of the Afghan National Police on par with the 
Afghan Uniformed Police, the Afghan National Civil Order Police, the 
Afghan Border Police, and the Afghan Anti-Crime Police. 
Institutionalizing the ALP in this way would help ensure the program's 
continuation after 2014. If confirmed, I will encourage the program's 
transition into the Ministry of Interior.
                      special operations enablers
    Question. SOFs depend on the general purpose forces for many 
enabling capabilities, including ISR; logistics; and medical 
evacuation.
    If confirmed, how would you ensure adequate enabling capabilities 
for SOFs as general purpose forces continue to draw down in 
Afghanistan?
    Answer. If confirmed, I would evaluate what enabling capabilities 
are needed to adequately support the SOF mission set, working 
collaboratively with NSOCC-A/SOJTF-A and my chain of command.
                           contract oversight
    Question. The United States has implemented a number of efforts to 
reduce the risk that U.S. contracting practices will be subject to 
corruption, which helps fuel the insurgency and undermines the 
legitimacy of the Afghan Government. These efforts include the 
establishment of the Combined Joint Interagency Task Force-Shafafiyat 
(Transparency) to coordinate ISAF anti-corruption activities.
    What is your assessment of ISAF's anti-corruption efforts and 
understanding of criminal patronage networks, and what additional 
steps, if any, do you believe should be taken to improve those efforts 
and to ensure adequate oversight of ISAF and U.S. contracts is in 
place?
    Answer. Corruption poses a strategic threat to the long-term 
stability of Afghanistan as it undermines security, government 
legitimacy, and prospects for economic development. Recognizing that 
Afghan political will is a necessary component of dealing with 
corruption, I believe ISAF has implemented a number of essential steps 
for addressing this issue. For example, countering corruption and 
organized crime is a specific line of operation in the ISAF campaign. 
ISAF has also recently realigned command and control functions for 
counter-corruption, counter-narcotics, counter-threat finance, and 
strategic targeting under a two-star Combined Joint Interagency Task 
Force-Afghanistan. This realignment was an important step in 
streamlining functions and processes to bring greater coherence and 
enhanced capability during a strategic point in the campaign. It also 
helps raise awareness and focus on U.S. contract oversight 
responsibilities, such as those outlined in laws and regulations, DOD 
guidance, and the ISAF Counterinsurgency Contracting Guidance. If 
confirmed, I will reinforce a command climate that takes those 
responsibilities seriously.
    Question. Section 841 of the National Defense Authorization Act for 
Fiscal Year 2012 provided CENTCOM with new tools to avoid contracting 
with the enemy, as requested by DOD.
    What is your understanding of the extent to which the new 
authorities authorized in section 841 have been implemented?
    Answer. The authorities granted in section 841 are an effective 
tool to prevent U.S. funds from directly or indirectly funding the 
insurgency. As of 23 October 2012, the Commander of CENTCOM has signed 
three section 841 packages, designating 21 companies and persons of 
interest as ``actively supporting the insurgency or actively opposing 
U.S. or coalition forces,'' including a sitting Afghan Member of 
Parliament. As a result, nine contracts have been terminated or voided. 
Two additional packages are awaiting the CENTCOM Commander's signature, 
and four more are in various stages of preparation.
    Question. What role do you expect to play, if confirmed, in 
carrying out the authorities provided in section 841?
    Answer. Section 841 of the National Defense Authorization Act for 
Fiscal Year 2012 prohibits contracting with the enemy in the CENTCOM 
theater of operations. If confirmed, I will uphold my responsibilities 
required under section 841, to include fulfilling reporting 
requirements, and will support the efforts of others, up and down my 
chain of command, in the execution of their duties.
                     afghan public protection force
    Question. President Karzai issued a decree calling for the 
disbandment of most private security contractors (PSCs). Instead, 
responsibility for security is transitioning to a Ministry of Interior 
guard force, called the Afghan Public Protection Force (APPF). Under a 
plan developed by the Government of Afghanistan and ISAF, in March the 
APPF assumed security responsibility for development projects and 
convoys, and by March 2013 responsibility for static security at all 
ISAF bases is expected to transition to the APPF.
    What is your assessment of the performance and effectiveness of the 
APPF in providing convoy and static security?
    Answer. The APPF continues to make steady progress. It provides 
approximately 13,000 guards for various clients throughout Afghanistan 
and provides static security at approximately 225 sites. At these 
static security locations, APPF has been very effective and continues 
to display increased ability and capacity to expand operations. APPF 
continues to develop its convoy security capabilities recently 
conducted its first contracted convoy with 40 fuel trucks and 90 
security vehicles. If confirmed, I will work to ensure the APPF's 
performance and effectiveness in both convoy and static security.
    Question. If confirmed, what steps, if any, would you recommend for 
improving the development and oversight of the APPF?
    Answer. If confirmed, I would recommend continued focus on the 
development of command, control and management functions as well as its 
interoperability with other Afghan and coalition security forces. I 
would also offer that, as a state-owned enterprise, the APPF must 
continue to develop as a transparent, accountable, and legitimate 
business model.
              afghanistan peace and reconciliation program
    Question. The Afghanistan Peace and Reconciliation Program (APRP) 
has been established to enable former insurgent fighters to renounce 
violence and reintegrate peacefully into their communities. The APRP is 
funded in part from funds authorized for DOD. According to a DOD 
report, approximately 4,000 insurgents have formally reintegrated under 
the APRP as of early 2012. The APRP has been criticized, however, for 
delays in its implementation and for failing to address underlying 
political grievances and other concerns that may have contributed to 
causing individuals to join the insurgency in the first place. Some 
critics have also raised concerns about reintegrated fighters being 
admitted into the Afghan Local Police (ALP) program without being 
adequately vetted.
    What is your assessment of the APRP and the program's potential for 
reintegrating additional numbers of low- to mid-level insurgent 
fighters?
    Answer. The Afghan Peace and Reintegration Program (APRP) is an 
essential program within the Campaign in that it convinces insurgents 
to join the peace process, accept the Afghan constitution, renounce 
violence, and rejoin Afghan society. It is a viable alternative to 
continued fighting or detention. Since the APRP began 2 years ago, over 
5,000 former insurgents have officially reintegrated--exceeding 
projected numbers from its inception. A number of factors have led to 
the steady rise in insurgents joining APRP: continued, relentless 
pressure by coalition forces and the ANSF resulting in battle fatigue 
and poor morale among the insurgents; increased outreach by provincial 
level committees; and better communication and messaging of the 
benefits of the program. Because of these factors, we anticipate a 
continued steady increase of fighters reintegrating through both 
informal and formal reintegration processes.
    Question. If confirmed, would you agree to conduct a review of the 
effectiveness of the APRP, including whether insurgent fighters 
reintegrated under the program are being admitted into the ALP without 
appropriate vetting?
    Answer. APRP and the ALP are separate programs and have separate 
vetting and enrollment processes. The APRP is an Afghan-led program 
that is supported by ISAF and funded and endorsed by the international 
community. If confirmed, I will work with the Afghan High Peace Council 
and Joint Secretariat, which are charged with overseeing and 
implementing APRP, to assess and resolve the inevitable challenges that 
arise in implementing this nationwide peace program, to include delays 
in enrolling reintegrees and approving and funding community recovery 
projects. Additionally, I will conduct a separate review of the Afghan 
Local Police (ALP) program to evaluate the rigor and adequacy of the 
vetting procedures to ensure that all recruits, including reintegrees, 
are properly vetted.
    ammonium nitrate for improvised explosive devices from pakistan
    Question. Ammonium nitrate (AN), a prime component in improvised 
explosive devices (IEDs) that have killed or wounded thousands of U.S., 
coalition, and Afghan troops and Afghan civilians, continues to flow 
into Afghanistan. The vast majority of this AN flows in from fertilizer 
factories in Pakistan. In 2010, in an effort to stem the flow of this 
material, the Afghan Government banned the use of AN as a fertilizer. 
Despite this, IED incidents and casualties have continued.
    If confirmed as Commander, NATO ISAF/Commander, USFOR-A, what tools 
would you have at your disposal to address the flow of AN into 
Afghanistan and are there any additional tools that you would seek to 
have?
    Answer. Stemming the flow of ammonium nitrate and other lethal aid 
into Afghanistan requires a dual-track approach. One approach is 
diplomatic involving regional actors and would be outside my purview, 
if confirmed. The other is operational and involves border security and 
capacity building. ISAF is in the process of developing a borders 
strategy with the Afghan Government to reduce the influx of ammonium 
nitrate, insurgents, and weapons by concentrating efforts at the 
border. NTM-A is training and equipping Afghan Border Police and Afghan 
Customs Police, but they face significant challenges in fielding units 
in remote outposts and keeping them supplied. ISAF also employs layered 
ISR sensors which aid in the ability to detect homemade explosive 
materials. Additionally, ISAF is working very closely with the U.S. 
Embassy Borders Management Task Force which mentors and trains borders 
and customs police to improve their interdiction of illicit drugs, IED 
materials and other contraband. If confirmed, I will continue these 
efforts and focus campaign efforts on the border areas; improved border 
security and border management is vital to the stability and security 
of Afghanistan.
    Question. In your view, what role, if any, should Pakistan play in 
our efforts to stem the flow of AN into Afghanistan?
    Answer. Pakistan can play a crucial, indeed leading, role in 
stemming the flow of ammonium nitrate and other IED precursors into 
Afghanistan. It has approximately 80,000 paramilitary soldiers 
stationed in the border region who can assist in the interdiction of 
homemade explosives and other IED precursors.
    Question. Do you believe that Pakistan has been effective in its 
efforts to stem the flow of AN from its territory into Afghanistan?
    Answer. Ammonium nitrate is only one of the homemade explosives 
that have caused so many coalition, ANSF, and Afghan civilian 
casualties, and we need to focus on all of the materials, that cross 
the border in both directions. However, many of these IED precursors 
and homemade explosives flow into Afghanistan from Pakistan, where 
their production and use is legal. There are certainly more steps and 
cooperation that we can pursue to stem the flow of IED precursors. Our 
recent bilateral and the pending trilateral C-IED working group should 
help us to enhance our cooperation. Pakistan should have a significant 
interest in this problem because they, too, suffer significant 
casualties within Pakistan as a result of IEDs using homemade 
explosives. In addition to seeking Pakistani action on this issue, ISAF 
and the Afghan Government must focus on strengthening Afghan 
interdiction capabilities at the border with Pakistan.
                           afghan opium trade
    Question. According to the United Nations Office of Drugs and 
Crime, drugs from Afghanistan account for more than 90 percent of the 
world's heroin trade.
    As it relates to the drug trade in Afghanistan, what is your 
understanding of the role of the Commander of ISAF and Commander of 
USFOR-A respectively?
    Answer. Under U.S. and NATO authorities, COMISAF/COMUSFOR-A 
counters the drug trade in Afghanistan by strengthening, developing, 
and enhancing the institutional capabilities of key Afghan ministries, 
like the Ministry of Counter-Narcotics. By working across interagency 
and International Community lines of effort, ISAF/USFOR-A assists GIRoA 
in preventing the Afghan drug trade from funding the insurgency, 
fuelling corruption, and undermining security, governance and 
development.
    Question. What is your understanding of the rules of engagement for 
U.S. forces as it relates to drug labs and the drug network 
respectively and are you satisfied with the flexibility provided under 
these rules of engagement?
    Answer. In accordance with the Laws of Armed Conflict, U.S. forces 
may target narcotics facilities, equipment, networks, and personnel 
with a direct link to insurgent groups. Forces can also destroy drugs, 
equipment, and chemicals inadvertently discovered during routine 
operations.
    Question. What is your understanding of the nexus, if any, between 
the drug trade and the various insurgent groups in Afghanistan?
    Answer. The Taliban has been involved in opium and hashish 
cultivation and trafficking for years in Afghanistan. In many areas of 
Afghanistan, the insurgency intimidates the farmers to cultivate 
additional acres. By working and controlling drug trafficking 
organizations and other criminal elements associated with the Afghan 
drug trade, the Taliban has profited greatly. We have also seen the 
inclusion of criminal patronage networks into this narcotics-insurgency 
nexus.
    Question. How significant a source of funding is the drug trade for 
insurgent groups in Afghanistan?
    Answer. The insurgency depends on domestic poppy cultivation and 
the narcotics trade as its primary source of internally-derived 
revenue. Insurgent groups, especially the Taliban, profit at all stages 
of the narcotics trafficking cycle. The Taliban taxes opium farmers, 
who often pay their taxes to the Taliban in the form of harvested 
opium. The Taliban generates cash by selling this opium to narcotics 
traffickers at opium bazaars and by acting as muscle-for-hire to 
protect heroin labs and key smuggling routes, or ratlines, used by the 
traffickers to get illicit narcotics out of Afghanistan. In addition, 
the Taliban uses like methods to tax and control the hashish market, 
deriving large amounts of revenue.
                counter narcotics police of afghanistan
    Question. For much of the past decade, DOD has expended 
approximately $450 million building the capacity of the Counter 
Narcotics Police of Afghanistan (CNPA).
    What is your current assessment of the CNPA?
    Answer. The CNPA is Afghanistan's principal police organization 
targeting Afghanistan's narcotics industry. Although ISAF continues to 
partner closely with this organization, it has already demonstrated the 
capability to operate independently. The current CNPA tashkil is 
authorized at 2,570 positions and executes the full range of 
counternarcotics (CN) policing operations and has a robust organic 
intelligence capability resident within three highly-trained 
specialized sub-elements: the Intelligence and Investigative Unit 
(IIU), the Sensitive Investigation Unit (SIU), and the Technical 
Investigation Unit (TIU). These intelligence organizations are 
effective with coalition mentoring and oversight, providing a critical 
capability within Afghanistan. The SIU carries out complex CN 
investigations using intelligence developed by the TIU which performs 
court-authorized judicial wire intercepts. ISAF continues to work 
closely with the Afghan Government to enhance Afghan CN capacity and 
institutions to enable transition by 2014.
    Question. As the Commander, NATO ISAF/Commander, USFOR-A, what 
would be your relationship to the CNPA?
    Answer. If confirmed, my relationship to CNPA would be through the 
training, financial, and operational support provided by NTM-A, USFOR-
A, and the Interagency Operations and Coordination Center (IOCC). NTM-A 
is responsible for training and the transition of CNPA personnel, 
assigning mentors to the CNPA, and assessing progress. USFOR-A funds 
CNPA salaries. The IOCC, led by the Drug Enforcement Administration 
(DEA) and the UK's Serious Organized Crime Agency, provides 
intelligence and operational support to law enforcement CN operations 
in Afghanistan.
    Question. Are you satisfied with the arrangement?
    Answer. Yes, each of these components plays a crucial role in 
supporting Coalition and Afghan counternarcotics efforts.
    Question. What role, in your view, should the State Department play 
in managing this aspect of the Afghan security forces?
    Answer. In addition to ISAF's efforts listed above, the U.S. DEA, 
which falls under the U.S. Ambassador in Afghanistan, trains, mentors 
and partners with the CNPA SIU, TIU, and National Interdiction Units 
(NIU) and provides training to provincial CNPA teams. ISAF and CENTCOM 
have enjoyed a close working relationship with DEA, one that I will 
continue to build upon if I am confirmed. Further, I will work with 
U.S. stakeholders in the Departments of State and Defense and the DEA 
to determine how these responsibilities and relationships will evolve 
as ISAF's mission draws to a close in 2014.
            counter threat finance activities in afghanistan
    Question. In 2008, the United States created the Afghanistan Threat 
Finance Cell (ATFC) to disrupt the flow of funding from the Afghan 
opium trade and other illicit sources to the Taliban, al Qaeda, and 
other terrorist and insurgent groups in Afghanistan. The ATFC and 
related organizations have helped Afghan authorities investigate and 
prosecute individuals connected to the opium trade, identify outside 
sympathizers who have been supplying funding to those individuals, and 
take on a variety of corrupt schemes that have filled the coffers of 
the Taliban-led insurgency and other illicit actors.
    What is your assessment of the operations of the ATFC?
    Answer. The ATFC is a critical tool in the fight against corruption 
and threat financing in Afghanistan, and I would assess their 
operations as effective. ATFC has tackled the most significant threat 
finance networks in Afghanistan, to include Kabul Bank, the New Ansari 
Network, and the Haji Khairullah and Haji Sattar Money Exchange. 
Working with their Afghan law enforcement partners, Federal 
investigators and analysts assigned to ATFC uncovered the rampant fraud 
at Kabul Bank and, 2 years later, continue to unearth evidence of 
crimes, including loan book schemes and money laundering activities, 
committed at that financial institution. If confirmed, I will continue 
to utilize this important partner.
       general purpose forces used for security force assistance
    Question. Building the security forces of foreign nations has 
traditionally been a SOF mission. However, in both Iraq and 
Afghanistan, general purpose forces have been performing this mission 
for some time.
    What is your understanding and assessment of the preparation and 
performance of Army and Marine Corps general purpose forces operating 
in Afghanistan in a security force assistance role?
    Answer. The preparation and performance of the Army's and Marine 
Corps' general purpose forces has been superb. Our general purpose 
forces in Afghanistan have been agile and rapidly adapted to evolving 
requirements. They built, trained, partnered, and mentored the ANSF. 
Their outstanding performance has enabled independent ANSF operations, 
established and nurtured institutional and logistical development, and 
strengthened ANSF enabling capabilities. Based on this success, ISAF's 
main effort can shift from partnering and combat to training, advising, 
and assisting the ANSF at the tactical and operational levels until 
they are able to conduct operations independently.
    Question. How do you envision the use of general purpose forces in 
the security force assistance role, if at all, as U.S. forces continue 
to drawdown through 2014?
    Answer. While we will continue to adapt to a changing battlefield 
and operational environment, if confirmed, I envision continuing to 
employ general purpose forces in a Security Force Assistance role. 
Security Force Assistance enables ISAF to provide continued and 
sustainable development of the ANSF as they move into the lead, and 
general purpose forces will continue to play a critical role in 
developing Afghan Army and Police forces through 2014. Over the next 2 
years, security force assistance brigades (SFABs) will deploy to train 
the ANA and Afghan National Police (ANP) from the battalion (kandak) 
and district through Corps and Zone levels. SFABs are specifically 
designed to manage risk, oversee force protection, and provide enabler 
support when necessary for smaller Security Force Assistance Teams 
(SFAT). Each SFAT is tailored to possess specific skills associated 
with the ANSF unit to which they are assigned, and each will vary in 
composition and disposition. As the Afghan Security Force capabilities 
and capacity improve, coalition forces will provide less frequent 
training and advice at the lower levels and focus efforts at the higher 
echelons to better integrate our enabler support.
                            women in combat
    Question. What restrictions, if any, do you believe should be 
imposed with respect to the assignment of combat-related duties to 
women in uniform, or the assignment of women to combat units?
    Answer. Any decision regarding the assignment of women to combat-
related duties or to combat units should be based on our obligation to 
maintain a high state of mission readiness and should be approached 
carefully and deliberately. Our women in uniform are vital to mission 
readiness. Like the Secretary of Defense and Chairman of the Joint 
Chiefs of Staff, I am fully committed to removing barriers that prevent 
servicemembers from rising to their highest potential based on their 
ability and not constrained by gender-restrictive policies.
                          health of the force
    Question. The committee is concerned about the stress on military 
personnel resulting from lengthy and repeated deployments and their 
access to mental health care in theater to deal with this increased 
stress, as well as the prevention and care for traumatic brain injury. 
Increased suicide rates are clear reminders that servicemembers, 
particularly those who have been deployed multiple times, are under 
tremendous stress and need access to mental health care.
    What is your assessment of the adequacy of health care and mental 
health capabilities supporting servicemembers in Afghanistan?
    Answer. It is USFOR-A's goal to provide a level of health care that 
is on par with the care our servicemembers would have received at home, 
and they are achieving that standard for primary care and specialty 
care regardless of servicemembers location. In the area of trauma care, 
USFOR-A has greatly exceeded that standard, having one of the best 
trauma systems in the world. The speed with which they are able to 
evacuate patients out of Afghanistan, whether after combat injury or 
for care beyond what is available in theater, is exceptional. If 
confirmed, I will endeavor to maintain this high standard.
    For deployed servicemembers with behavioral health issues, USFOR-A 
has made enormous progress over the last 10 years in providing improved 
resources and availability. For example, they exceed the recommended 
provider-to-individual ratio and in the last 2 years have implemented 
new video technology that allows access to behavioral health 
specialists for servicemembers even in remote locations. USFOR-A has 
also improved the identification of servicemembers at risk both before 
and after deployment. I am very confident that we are meeting the 
mental health needs of our deployed personnel in Afghanistan.
    Question. What is your assessment of suicide prevention programs 
and resources available to support these programs in Afghanistan?
    Answer. USFOR-A has made a concerted effort to develop and deploy 
suicide prevention programs and resources for servicemembers and 
civilians serving in Afghanistan. These programs are in place, and 
personnel know where to get help. Command involvement is critical for 
the successful employment of these programs and the support from 
commanders has been key to getting the word out. Suicide prevention is 
something that I take very seriously, and, if confirmed, it will be a 
high priority for me.
    Question. What is your assessment of the implementation of DOD 
policy on management of mild traumatic brain injury throughout 
Afghanistan?
    Answer. USFOR-A has been very aggressive in instituting a 
comprehensive in-theater evaluation process for mild traumatic brain 
injury (mTBI) that has shown significant progress in how we screen for 
and treat this injury. The medical treatment system begins at the point 
of injury with MACE testing for all suspected mTBI through unit 
providers who perform extended evaluations. If necessary, they can 
refer cases to one of nine fully staffed 24/7 concussion care centers 
located throughout the CJOA-A. These centers can treat servicemembers 
for up to 21 days and have admitted over 3,418 servicemembers for 
evaluation. The unit medical providers along with the concussion care 
centers are supported by two Role III hospitals with state-of-the-art, 
TBI dedicated MRI machines. The success of the program is supported by 
a consistent monthly 95 percent return to duty rate within 2 weeks.
    Question. What is your assessment of medical evacuation 
capabilities in theater today from a joint force perspective?
    Answer. USFOR-A provides the most robust and responsive medical 
evacuation system in history. Across Afghanistan, joint and coalition 
air evacuation platforms link highly capable medical facilities so 
battlefield casualties can be assured of getting to medical treatment 
facilities within the timelines established by the Secretary of 
Defense. Consequently, the likelihood of dying from one's wounds is the 
lowest in history.
    Question. If confirmed, what standard would you establish for 
capability and availability of medical evacuation assets, including for 
forward operating units?
    Answer. If confirmed, it will be one of my highest priorities to 
ensure our ability to maintain the unprecedented survival rates we have 
achieved.
                 sexual assault prevention and response
    Question. The Department has in recent years developed 
comprehensive policies and procedures to improve the prevention of and 
response to incidents of sexual assaults, including providing 
appropriate resources and care for victims of sexual assault. However, 
incidents of sexual assault and misconduct involving military personnel 
in Afghanistan are still being reported. Victims and their advocates 
claim that they are victimized twice: first by attackers in their own 
ranks and then by unresponsive or inadequate treatment for the victim. 
They assert that their command fails to respond appropriately with 
basic medical services and with an adequate investigation of their 
charges followed by a failure to hold assailants accountable.
    Secretary Panetta has recently announced new initiatives to curb 
sexual assaults in the military and to provide support to victims of 
sexual assaults.
    What is your assessment of the Secretary of Defense's initiatives, 
and, if confirmed, how will you implement them in Afghanistan?
    Answer. These initiatives reinforce the Department's commitment to 
eradicating sexual assault from our ranks. If confirmed, I will promote 
a leadership climate that encourages reporting without fear and holds 
perpetrators accountable for their actions. Whether deployed abroad or 
at home, commanders and leaders at every level must fully understand 
their authority, responsibilities, and obligations to establish 
positive command climates that safeguard all members within their units 
from predatory behavior. Facilitating this climate is an inextricable 
part of that bond of trust we share with our fellow brothers and 
sisters in arms. If confirmed, I will ensure commanders have the 
resources they need to investigate accusations of sexual assault, 
provide care and support for victims and fairly adjudicate each case.
    Question. Do you consider the current sexual assault policies and 
procedures, particularly those on restricted reporting, to be 
effective?
    Answer. The Department has put considerable effort into the 
development of policies and procedures designed to address sexual 
assault and improve reporting. The Department faces the same challenges 
that society faces in dealing with incidents of sexual assault--
balancing care to victims with prosecuting offenders. The Department's 
restricted reporting allows victims who wish to remain anonymous to 
come forward and obtain the support they need following an allegation 
of sexual assault.
    Question. What problems, if any, are you aware of in the manner in 
which restricted reporting procedure has been put into operation?
    Answer. I am not aware of any problems with confidential 
(restricted) reporting.
    Question. What is your view of the steps taken to prevent and 
respond to sexual assaults in Afghanistan, including assaults against 
U.S. civilian and contractor personnel?
    Answer. Victims of sexual assault need to be protected and receive 
timely access to appropriate treatment and services, regardless of 
their location. The current zero-tolerance policy, education, training, 
and commander involvement at all levels maintain the right course in 
eradicating this crime from our workforce, including all U.S. personnel 
in Afghanistan, whether military, government civilian, or contractor. 
If confirmed, I will ensure that if any deployed servicemember, 
civilian or contractor is assaulted, he or she will receive appropriate 
and responsive support and care. As importantly, I will do all I can to 
prevent incidents of sexual assault.
    Question. What is your view of the adequacy of the training and 
resources in place in Afghanistan to investigate and respond to 
allegations of sexual assault?
    Answer. The Services recently enhanced their resources for 
investigating and responding to allegations of sexual assault. Combat 
zones and other overseas environments present special challenges that 
require coordination to ensure we are applying those resources 
effectively and efficiently. If confirmed, I will review our sexual 
assault prevention and response program to ensure it meets the needs of 
our deployed servicemembers and commanders; that resources are 
appropriately provided so that commanders are fully capable of 
investigating and adjudicating allegations of sexual assault; and I 
will ensure deployed victims have full access to treatment and victim 
care services.
    Question. What is your view of the willingness and ability of 
military leaders to hold assailants accountable for their acts?
    Answer. Holding assailants accountable is a leader's inherent duty 
and responsibility, and I believe our military leaders are willing and 
able to hold assailants accountable for their acts. If confirmed, I 
will expect nothing less. The Department's policy emphasizes the 
command's role in an effective response. Special training is provided 
to commanders, investigators and prosecutors to ensure they are 
prepared to address incidents of sexual assault. Our policies seek to 
balance victim care with appropriate command action against offenders 
in order to build victim confidence in assisting investigations.
    Question. If confirmed, what actions will you take to reassess 
current policies, procedures and programs and to ensure senior level 
direction and oversight of efforts to prevent and respond to sexual 
assaults in Afghanistan?
    Answer. If confirmed, as part of my assessment, I will ensure that 
all commanders in theater evaluate the sexual assault prevention and 
response capabilities for their areas of responsibility. Further, this 
assessment will solicit feedback from those below commander-level to 
ensure we create an atmosphere which aims to eliminate assault.
                      cultural awareness resources
    Question. To what extent are you aware of DOD research efforts that 
can be resources to ISAF, such as the Strategic Multi-Layer Assessment 
activity; the Human, Social, Cultural Behavior modeling program; and 
the Minerva Initiative?
    Answer. I am familiar with several DOD and non-DOD social science 
resources, and I endeavor to gain a better understanding of how they 
may be applied to the Afghanistan context, if confirmed. For example, I 
understand ISAF is sponsoring a Minerva Initiative effort to map 
civilian perceptions of international troops to understand the 
variances that cause support or non-support of international troop 
presence. In addition, ISAF is working with Oak Ridge National 
Laboratory to gather population data for a Strategic Multi-Layer 
Analysis activity that could help strategically conceptualize tactical 
and operational data collected in the field to determine if U.S. 
objectives are being met. Finally, the Human, Social, Cultural Behavior 
modeling program is still maturing and is not fully optimized to 
support ISAF at this time, though it has the potential in the future of 
providing ISAF a means of understanding social-cultural behavior.
                  standards for treatment of detainees
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the U.S. Government, regardless of 
nationality or physical location shall be subject to cruel, inhuman, or 
degrading treatment or punishment.
    If confirmed, will you take steps to ensure that all relevant DOD 
directives, regulations, policies, practices, and procedures applicable 
to U.S. forces in Afghanistan fully comply with the requirements of 
section 1403 and with Common Article 3 of the Geneva Conventions?
    Answer. Yes. If confirmed, I will ensure that U.S. Forces in 
Afghanistan fully comply with all relevant provisions of DOD 
directives, regulations, policies, practices, and procedures applicable 
to U.S. forces in Afghanistan, and that they fully comply with the 
requirements of section 1403 of the Detainee Treatment Act of 2005 and 
with Common Article 3 of the Geneva Conventions. Conducting detention 
operations in the most humane manner possible remains a strategic 
component of our campaign that directly reflects upon our Nation's 
values and the ideals we espouse to our Afghan counterparts.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes, I understand and support the standards for the 
treatment of detainees and will adhere to them, if confirmed. All 
detainees shall be treated humanely, and in accordance with U.S. law, 
the Law of War, and applicable U.S. policy. Humane treatment entails 
the following: no violence, no cruelty, no torture, and no humiliating 
or degrading treatment. Under United States law, humane treatment also 
consists of providing detainees with adequate food, drinking water, 
shelter, clothing, medical care, and protection of personal property. I 
believe these humane treatment policies, as practiced at the Detention 
Facility in Parwan, have adequately protected detainees, provided for 
actionable intelligence, contributed to mission success, and enhanced 
U.S. Forces reputation in the global community.
    Question. How would you ensure a climate that not only discourages 
the abuse of detainees, but that encourages the reporting of abuse?
    Answer. I believe that engaged and active leadership grounded in 
the requirements of Common Article 3 of the Geneva Convention and DOD 
Directive 2310.01E is required for the secure and humane care, custody 
and control of detainees. If confirmed, I will ensure these elements 
remain the cornerstone of U.S. Law of Armed Conflict (LOAC) detainee 
operations. I will also reinforce the obligation to prevent abuse and 
the duty to report abuse as non-negotiable elements in our guard force 
training and ensure all detainees are informed of their rights upon 
entry into the detention facility, to include their right to report any 
type of abuse free from retribution. The use of medical providers to 
screen for signs of abuse, and the integration of a robust self-
assessment program bolstered by external assessments from the 
International Committee of the Red Cross further creates an open and 
transparent command climate fused with timely feedback. Finally, if 
confirmed, I will ensure my command team has internalized their 
professional responsibility to track and investigate any allegations of 
abuse and take swift action when appropriate. Furthermore, we will 
continue to assist the ANA in developing their detainee abuse reporting 
systems and sustain the use of U.S. advisors performing overwatch 
procedures in ANA-controlled facilities.
                  detention operations in afghanistan
    Question. In March the United States and Afghanistan signed a 
Memorandum of Understanding (MOU) on detention operations. The MOU 
provides for the transfer of the U.S. detention facility at Parwan to 
Afghan control within 6 months even as efforts to build the capacity of 
Afghanistan to conduct detention operations continue.
    What is your assessment of the process of transferring the Parwan 
detention facility to Afghan control?
    Answer. I believe the elements are in place to sustain this 
transfer process while continuing to expand Afghan rule of law and 
sovereignty. Since the March 9, 2012, Memorandum of Understanding (MOU) 
between General Allen and Defense Minister Wardak, over 3,000 detainees 
have been transferred from U.S. LOAC to ANA custody. Additionally, we 
have transferred physical control of a number of detention housing 
units and are continuing to build Afghan sustainable facilities to meet 
our agreed upon requirements. This physical transfer of detainees and 
facilities occurred in a deliberate, organized process with zero lapses 
in the safe and humane care, custody and control of the detainee 
population.
    Although the transfer of detainees is presently halted, our ongoing 
partnership with the Afghan Detention Operations Command in Parwan 
remains robust and synchronized. As a result, the ANA, with U.S. 
advisory oversight and security force assistance, have proven capable 
of successfully assuming physical ownership of the facilities and 
conducting detention operations for the detainees and prisoners in 
their custody. Looking forward, I foresee the need to retain some 
capacity at the Parwan site to conduct ongoing U.S. LOAC detainee 
operations as a critical component to U.S. and coalition force 
protection.
    Question. What is your assessment of Afghanistan's capacity to 
conduct detention operations at Parwan?
    Answer. Overall, I believe strong leadership with a clear vision 
that balances sovereign Afghan rule of law with U.S. and coalition 
force protection requirements will ensure the continued progress and 
success of this transition. During the transfer of detention operations 
to Afghan control in accordance with the March 9, 2012, MOU, the Afghan 
Army has demonstrated its ability to maintain secure and humane care, 
custody and control of their detainee population. The ANA continue to 
source, train and develop the skills and capacities necessary to 
establish an independent, sustainable detention operations program at 
Parwan. However, this effort is not complete or without significant 
challenges.
    While the Afghans have already taken control of food services and 
guard control for their facilities, they are only in the nascent stages 
of taking ownership and responsibility for other key areas of the 
detention operation mission such as facility engineering, medical 
support, sanitation and overall logistics. U.S. support in providing 
these key enabler mission areas will be critical to a continued 
successful partnership during the transition. With respect to their 
guard force, developing a professional guard force with strict 
adherence to policies and procedures remains a mid-level leadership 
challenge that poses continued risk to the ability of the ANA guard 
force to conduct daily operations inside of their housing units. This 
is mitigated through our continued partnering, advising and assisting 
within these units.
                  marine security guards in embassies
    Question. Due to the attack on the U.S. consulate in Benghazi, 
Libya, which resulted in the death of of a U.S. Ambassador and three 
other Americans, many are conveying concern about the safety of U.S. 
diplomatic personnel around the world.
    Do you share this concern?
    Answer. Yes.
    Question. The Marine Security Guard Program was established in 
1946, and its mission, to provide internal security at designated 
embassies of classified information and equipment, remains unchanged to 
this day.
    In light of increasing threats to U.S. diplomatic personnel by 
terrorists throughout the world, do you believe it is time to re-
examine the Program's mission and protocols?
    Answer. I believe the Marine Security Guard (MSG) Program, as 
defined under existing protocols between the Marine Corps and 
Department of State, functions well and meets the needs of our 
diplomatic missions around the world. However, based on changing 
security dynamics we are in the process of taking a look at what 
changes to the program might be necessary. I fully appreciate the 
importance of this mission and understand it is important to work 
closely with the Department of State to ensure our MSG organization, 
mission and security protocols are responsive to their identified 
needs.
    Question. If so, should it be broadened to provide additional 
protection to U.S. diplomatic personnel?
    Answer. Broadening the Program's mission and protocols is one of 
several options available to increase security to U.S. diplomatic 
personnel. A holistic approach must be taken toward the security of 
diplomatic personnel abroad; the Marine Corps is in the process of 
examining various options regarding the security of diplomatic missions 
abroad and, in conjunction with the lead agency for Diplomatic 
Security, the Department of State, will develop various options 
involving not only personnel solutions but also other physical security 
methods to protect U.S. diplomatic interests. The Marine Corps has a 
long history of working with the State Department, and should 
adjustments be required, will work eagerly to ensure the internal 
security functions aboard diplomatic premises meet the standards 
required.
    Question. In your opinion, what additional steps, if any, should be 
taken to reduce the risk of attacks on U.S. embassies and consulates 
and diplomatic personnel by terrorist organizations within Afghanistan 
and throughout the region?
    Answer. We must continue to monitor threats to our diplomatic posts 
in Afghanistan and around the region, and adjust our security posture 
based on the threats and changing conditions on the ground. External 
security at our embassies and consulates is, first, the responsibility 
of the host nation and must remain so. In Afghanistan, we maintain a 
heightened security posture, and will continue to do so, in order to 
reduce risks commensurate with local threats and to advance the 
important work of our diplomatic personnel.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this position, to appear before this 
committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ISAF Commander/Commander, 
USFOR-A?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Kay Hagan
            village stability operations/afghan local police
    1. Senator Hagan. General Dunford, two general purpose Army 
infantry battalions have been assigned to augment Special Operations 
Forces (SOF) carrying out the Village Stability Operations (VSO) and 
Afghan Local Police (ALP) programs in Afghanistan, thereby serving as a 
force-multiplier and allowing for these programs to reach a greater 
number of rural Afghan communities. What is your assessment of this 
type of command relationship where general purpose forces are placed 
under the direct control of special operations commanders?
    General Dunford. This command structure has improved overall 
effectiveness by extending SOF operational reach and leveraging 
capabilities that SOF did not organically possess. This combination 
enabled the growth of VSO/ALP, where force structure limitations had 
previously limited or prevented expansion. The unique and innovative 
SOF command relationships, which have evolved over the last 2 years in 
combat, demonstrate the necessity for organizational flexibility and 
adaptability.

    2. Senator Hagan. General Dunford, do you believe additional 
general purpose forces should be used to augment SOF to allow for more 
rapid expansion of the VSO and ALP programs?
    General Dunford. I believe that once we reach the authorized force 
of 30,000 ALP, an evaluation of Special Operations Joint Task Force-
Afghanistan forces and requirements will be required. It is possible 
that an indigenous force of this size may require additional general 
purpose force augmentation, but that will be determined as the 
conditions on the ground dictate. It would be premature to advocate 
expansion without first ensuring that we are maximizing the potential 
of our existing force structure. Additionally, it would be wise to 
pursue growth in a deliberate and measured manner to ensure that the 
capacity of Afghan governance in these remote areas is maturing 
sufficiently to support the expansion of ALP. If we rush expansion, the 
framework that has been so successful to date becomes inherently 
unstable.

                            local uprisings
    3. Senator Hagan. General Dunford, over the summer, there were 
local uprisings against the Taliban in several eastern Afghan provinces 
by tribesmen, many of whom were Pashtun, reportedly because of concerns 
about repressive Taliban governance. What is your assessment of these 
uprisings, and do you believe we can expect to see more of them?
    General Dunford. These local uprisings have generally occurred as a 
result of several conditions all coming together at once--individuals 
prepared to step up to a leadership role, local groups seeing an 
opportunity to take effective action, and other factors. One factor 
they all share is a popular dislike for the harsh policies imposed by 
the Taliban.
    In areas where these conditions exist--particularly where there is 
continued harsh treatment at the hands of the Taliban, we may see more 
of these local uprisings. However, it remains to be seen if they will 
grow beyond small, localized conflicts. If these movements are to be 
sustained integral to this process will be the ability of the 
Government of the Islamic Republic of Afghanistan (GIRoA) to organize 
support at the subnational governance level.

    4. Senator Hagan. General Dunford, how can the U.S. and Afghan 
Governments better support these uprisings without unintentionally 
strengthening local power brokers and undermining the motivation of 
local populations to oppose the Taliban?
    General Dunford. This is an area where the Afghan Government must 
take the lead, with the coalition forces acting in support. The 
Government of Afghanistan is in a better position to understand the 
intensely local conditions surrounding these uprisings, who the players 
are and what are their motivations. We must be careful to ensure that 
we are not supporting a local power broker's militia that will have an 
adverse effect on stability in the long run.

    5. Senator Hagan. General Dunford, in your view, how does support 
for local uprisings against the Taliban compliment efforts to expand 
those areas under the protection of the Afghan National Security Forces 
(ANSF)?
    General Dunford. These local uprisings pose a similar problem for 
the Taliban as the ALP do. A successful uprising denies the Taliban 
access to the local population, impedes their movement through the 
area, and may help inspire others to resist Taliban influence. By 
supporting these movements where merited, the Afghan National Army 
(ANA) and ANP can support further weakening of Taliban influence and 
increase the area under protection of the ANSF.

                          afghanistan economy
    6. Senator Hagan. General Dunford, the World Bank estimates that 
over 90 percent of Afghanistan's economy is tied to international 
military and donor spending. With the North Atlantic Treaty 
Organization (NATO) forces leaving Afghanistan, after more than a 
decade, we must be concerned about the potential for an economic 
meltdown with reduced security, political instability, more violence, 
and economic destruction. What are your thoughts on what needs to be 
done between now and the end of 2014 to ensure the Afghan economy has 
the best chance to sustain itself?
    General Dunford. The Coalition's relationship with Afghanistan has 
always been one of partners. The NATO Mission is mindful that Afghans 
may feel uncertain about aspects of their future. What needs to be 
clearly conveyed is the commitment that has been made by the greater 
International Community (IC) to stand with the people of Afghanistan in 
security, economic development, social services, justice, and self-
determination through the ongoing building of institutions, capacity at 
the national and local levels of government, and the 2014 elections. If 
confirmed, I will seek continued coalition support to implement a 
transition strategy with the objective of mitigating the economic 
impacts of the military drawdown and the gradual reduction of 
international development assistance.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                         green-on-blue attacks
    7. Senator Inhofe. General Dunford, were all ANSF personnel fully 
vetted or were short cuts taken to ensure we could rapidly grow the ANA 
and the ALP?
    General Dunford. The Afghans have established sound procedures for 
vetting ANSF personnel. Short cuts to the eight-step vetting process, 
however, were evident during the period to rapidly grow the ANA and the 
ALP forces. During this period the quality of compliance with 
established vetting standards were not properly ensured. The Afghans 
have since worked hard to re-establish conformity with sound procedures 
for vetting ANSF personnel and have significantly increased the number 
of counterintelligence personnel and training to ensure compliance with 
those standards.

    8. Senator Inhofe. General Dunford, with the dramatic increase in 
Green [Afghan]-on-Blue [coalition] attacks this year, what actions have 
been taken to limit these kinds of attacks?
    General Dunford. Because no single definitive countermeasure can 
prevent insider attacks, International Security Assistance Force (ISAF) 
and the ANSF introduced a program of countermeasures, which applied 
collectively, are reducing the threat posed by insider attacks. These 
measures include strict application of the vetting processes for new 
recruits; scheduled revetting of personnel returning from leave and 
living in insurgent-controlled areas; increasing the number and 
training for intelligence personnel; and enhancing force protection for 
ISAF troops operating in small units or in remote areas.
    Partnered counterintelligence trials at select locations are 
underway as well as efforts to implement official information-sharing 
mechanisms across ANSF security directorates. Senior Afghan officials 
in Kabul will also be conducting leadership seminars across Afghanistan 
in efforts ensure ANSF personnel at the tactical and operational levels 
receive proper guidance and are well informed.
    Additionally, I am encouraged by the joint, integrated ISAF-ANSF 
approach and level of the Afghan Government's commitment to reducing 
this mutual threat. For example, ISAF and ANSF established the three-
star led Insider Threat Action Group and one-star led Insider Threat 
Mitigation Team, which they co-chair, to identify lessons and required 
courses of action for the future.

    9. Senator Inhofe. General Dunford, do you believe we have turned 
the tide or do you foresee more of these Green-on-Blue attacks?
    General Dunford. First and foremost, the insider threat is a force 
protection issue. Under General Allen, ISAF has taken a comprehensive 
approach to the insider threat, both at home station in terms of 
enhanced training and training and additional measures that take place 
once forces are deployed to Afghanistan.
    There has also been a significant increase in the number of 
counterintelligence resources in Afghanistan, both on the part of the 
coalition as well as within the Afghan national security forces. This 
is starting to bear fruit as over 400 ANSF members have been arrested 
as a result of this increased scrutiny, and additional investigations 
continue.
    This critical issue is far from being solved, but progress is being 
made.

                    iranian influence in afghanistan
    10. Senator Inhofe. General Dunford, what is the current level of 
Iranian activity in Afghanistan?
    General Dunford. In coordination with Senator Inhofe, a Top Secret 
classified brief will be provided on December 18, 2012 at 9:30 a.m. in 
SVC-217.

    11. Senator Inhofe. General Dunford, what will be the impact of 
Iran's influence in Afghanistan in the near-term and far-term?
    General Dunford. In coordination with Senator Inhofe, a Top Secret 
classified brief will be provided on December 18, 2012 at 9:30 a.m. in 
SVC-217.

                2014 afghanistan presidential elections
    12. Senator Inhofe. General Dunford, what impact will the planned 
election have on the transition from ISAF troops to the ANSF?
    General Dunford. The 2014 Afghan Presidential election is not 
likely to have a significant impact on the transition from ISAF to the 
ANSF. When the final tranche enters transition in mid-2013, the ANSF 
will have the lead for security throughout Afghanistan. Initial 
assessments indicate ANSF will be sufficiently developed to provide the 
principal security for the 2014 elections. ISAF advisors will remain 
past the 2014 election to train, advise, and assist the ANSF.

    13. Senator Inhofe. General Dunford, how do you foresee the ISAF 
and ANSF forces be used during the election?
    General Dunford. The ANSF is in the lead for security during the 
2014 Presidential election. I envision the ANSF will conduct a layered 
security concept that proved successful in previous elections. ISAF/
USFOR-A planning, focused on ANSF advice and planning assistance, is in 
the early stages and will continue throughout the next 16 months until 
the election.

    14. Senator Inhofe. General Dunford, what impact will the elections 
have on current operations?
    General Dunford. The provision of security for the Afghan 
Presidential elections is being planned as part of the `current 
operations' of both ANSF and ISAF in 2014, making use of normal 
`framework' patrolling and operations. By that point in time the ANSF 
will have the lead for security across the country, and ISAF will focus 
on supporting them for this important event.

                  afghanistan national security forces
    15. Senator Inhofe. General Dunford, is it correct to say that the 
capability of the Afghan Security Forces is the decisive point of our 
Afghan strategy?
    General Dunford. The critical part of our effort in Afghanistan 
over the next 2 years will be our continued efforts to develop the 
capabilities of the ANSF. The ANSF will be the defeat mechanism for the 
insurgency. They will be the forces that allow our strategy to be 
successful in Afghanistan. Those forces are the ones that will allow 
our success to be enduring.

    16. Senator Inhofe. General Dunford, what is your overall 
assessment of the ANSF--size, capability, and confidence?
    General Dunford. Overall, the ANSF is on track to achieve end 
strength and continues to show improvements in capabilities and 
confidence.
Size:
    The ANA is scheduled to achieve end strength of 187,000 soldiers 
inducted by December 2012, and to have these personnel trained, 
equipped, and fielded by December 2013. The ANP is expected to reach 
its end strength of 157,000 personnel inducted by February 2013, and to 
have these personnel trained, equipped, and fielded by December 2013. 
The AAF is expected to reach its end strength goal of 8,000 by December 
2014, but is not expected to be fully capable and fielded until 2017.
Capability:
    The ANSF is increasingly taking over responsibility for securing 
their own country. They have demonstrated increased capabilities and 
sophistication in transitioning areas, particularly in RC-E and RC-S 
through recent ANSF planned and conducted large-scale, multi-day 
operations.
Confidence:
    The operational capability of the ANA is showing improvement as 
they coordinate and conduct joint operations between the Army, 
Uniformed Police, Border Police, Civil Order Police, and the National 
Directorate of Security. This progress is improving ANSF confidence.

    17. Senator Inhofe. General Dunford, what is their operation tempo?
    General Dunford. In many places the ANSF operational tempo is high 
based on the need to disrupt the insurgency, support stability 
operations, and transition to security lead. Historically, during the 
months of April through September there is a significant increase in 
operational tempo. In 2012, ANSF-led major operations have steadily 
increased and the ALP increasingly posed a substantial threat to 
Taliban activities at the local level. Additionally, force generation 
and development efforts have enhanced operational effectiveness but 
also add to increased operational tempo.

    18. Senator Inhofe. General Dunford, have we solved their pay 
issues?
    General Dunford. Progress is still being made in this area. 
Currently 99 percent of ANA and 83 percent of ANP receive their pay via 
electronic funds transfer, reducing opportunities for corruption. 
However, low literacy and availability of electronic banking facilities 
in some areas still pose challenges. The Law and Order Trust Fund for 
Afghanistan maintains the Electronic Payroll System which is used to 
calculate payroll for the ANP; the ANA is in the process of bidding for 
a computerized payroll system in order to expedite payroll calculation 
and improve the timeliness of EFT disbursement for soldiers.

    19. Senator Inhofe. General Dunford, what is the current attrition 
rate as well as the impact of that attrition rate?
    General Dunford. Annual attrition for the Afghan National Police is 
currently at 16.0 percent, within the 16.8 percent objective rate. 
Annual attrition for the ANA is currently at 29.7 percent, exceeding 
the 16.8 percent objective rate.
    The higher ANA attrition rate will increase the time required for 
the ANA to eliminate NCO shortfalls and to meet desired training and 
manning levels.

    20. Senator Inhofe. General Dunford, will the ANSF be ready by the 
summer 2013 and December 2014 timelines? What are our options if they 
are not ready?
    General Dunford. ANSF is taking over responsibility for securing 
Afghanistan in accordance with the Afghan-led transition process across 
all 261 districts from Tranches 1, 2 and 3. With implementation of 
Tranche 3 which began in May 2012, approximately 76 percent of the 
Afghan population lives in areas where the ANSF are in the lead for 
security.
    My initial assessment is that transition in all provinces is on 
track to be complete per the Lisbon-based process by the end of 2014, 
and ANSF will be fully responsible for security nationwide. If 
confirmed, I will review all potential options to ensure the ANSF is 
fully prepared for the 2014 security-lead and mitigating risks 
associated with that transition.

    21. Senator Inhofe. General Dunford, how much funding has been 
pledged by NATO allies and coalition partners to sustain the ANSF?
    General Dunford. At the NATO Summit held in Chicago on May 20-21, 
2012, NATO and ISAF partner nations made a strong pledge of long-term 
support for the security in Afghanistan. To this end, partner nations 
(including the United States) committed $3.6 billion per year for the 
ANSF starting in 2015 and running through 2017.

    22. Senator Inhofe. General Dunford, can the Afghan Government 
sustain these forces given this projected funding?
    General Dunford. The Afghans will require continued support from 
the international community (as pledged at the Chicago summit) to 
sustain the ANSF. The projected funding addresses a base force of 
228,500 to be sustained at a certain level of capability.

                          withdrawal schedule
    23. Senator Inhofe. General Dunford, if security conditions do not 
improve sufficiently by December 2014, will all U.S. combat forces be 
withdrawn nevertheless by that date?
    General Dunford. My assessment is that the ANSF is an increasingly 
capable force which has expanded security gains in many areas 
undergoing transition. On average, these areas demonstrate a decrease 
in violence. Decisions on the pace and magnitude of U.S. troop 
reductions will be made by the President of the United States. If 
confirmed, I will continue to assess the situation and will advise the 
chain of command of any significant changes.

    24. Senator Inhofe. General Dunford, what conditions will the 
United States consider when determining the extent of further U.S. 
troop drawdowns?
    General Dunford. The pace of withdrawal over the next 25 months 
will depend on several variables, including progress of the campaign, 
the state of the insurgency, and the readiness of the ANSF to assume 
full security leadership and responsibility to the Afghan Government by 
the end of 2014. Decisions on the pace and magnitude of further troop 
reductions will be made by the President and in accordance with the 
ISAF mandate which ends on December 31, 2014. If confirmed, I will 
continue to monitor such elements of the situation and advise the chain 
of command of significant changes.

    25. Senator Inhofe. General Dunford, who will decide the scope and 
pace of U.S. withdrawals?
    General Dunford. Decisions on the pace and magnitude of further 
troop reductions will be made by the President of the United States in 
accordance with the ISAF mandate which ends on December 31, 2014. If 
confirmed, I will assess the situation and advise the chain of command 
accordingly.

    26. General Dunford, will a continued, steady drawdown of U.S. 
troops increase the risk of successfully transitioning security to the 
ANSF by the 2014 deadline?
    General Dunford. The drawdown should continue to be conducted in 
relationship to the growth of ANSF capability as well as the progress 
of the campaign, the state of the insurgency, and the readiness of the 
ANSF to assume full security responsibility to the Afghan Government by 
the end of 2014.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                  pakistan's influence in afghanistan
    27. Senator Chambliss. General Dunford, in your written statement 
you refer to Pakistan and its role in the flow of ammonium nitrate as a 
key ingredient of improvised explosive devices (IED). There are also 
current and former elements of the Pakistani security establishment 
that have covertly and overtly supported the insurgency in Afghanistan. 
If confirmed, how will you work with Pakistan to convince them to take 
action against the insurgency and specifically the Haqqani Network?
    General Dunford. Pakistan has not taken the action we would like 
them to take against Afghan-focused extremist groups, including the 
Haqqani Network. I will continue to stress with Pakistan that all these 
groups share common goals and that the elimination of their safe havens 
is not only important to U.S. regional goals, but will also address a 
threat to Pakistan's sovereignty and people.

    28. Senator Chambliss. General Dunford, if confirmed, what will 
your focus be with regard to Pakistan as we approach 2014 and beyond?
    General Dunford. The U.S.-Pakistan relationship is fundamental to 
our vital national security interests and will remain so beyond 2014. 
We will need to continue cooperating with Pakistan on defeating al 
Qaeda, supporting Pakistan stability, and reaching a lasting peace in 
Afghanistan. My focus will be to work with Pakistan to enhance security 
along the border and stability in both Afghanistan and Pakistan through 
our continued military relationship. This cooperation will include 
building upon the successes of the ISAF and Pakistan military (PAKMIL) 
countering IED bilateral meeting in September 2012, and the ANSF, 
PAKMIL and ISAF tri-partite countering IED discussions in November 
2012. The objective of such military-to-military meetings is to pursue 
the networks which are supplying IED lethal aid into Afghanistan and 
sharing IED tactics, techniques, and procedures amongst insurgents, 
resulting in the death or injury of Afghan civilians, and members of 
the coalition and Afghan military forces.

    29. Senator Chambliss. General Dunford, do you believe that the 
efforts to include the Taliban in some long-term political solution is 
fueling an eventual civil war between the northern powerbrokers and the 
southern and eastern Pashtuns?
    General Dunford. State Department is the lead for reconciliation 
efforts. ISAF will continue to train, advise, and assist the ANSF in 
their efforts to maintain a stable and secure Afghanistan.

                     negotiating with terror groups
    30. Senator Chambliss. General Dunford, on December 1, 2009, 
President Obama said, ``the Taliban has maintained common cause with al 
Qaeda, as they both seek an overthrow of the Afghan Government. 
Gradually, the Taliban has begun to control additional swaths of 
territory in Afghanistan . . . .'' Similarly, the Haqqani Network is a 
terror group that's linked to the Taliban and al Qaeda, has been 
recently designated as a terrorist group by the Department of State. It 
is widely believed that the Taliban have no interest in a negotiated 
solution within Afghanistan, and will likely use talks as a means to 
secure their own foothold in post-2014 Afghanistan. To what extent do 
you agree with this assessment?
    General Dunford. The Afghan conflict and the Afghan insurgency have 
been ongoing for many years. Most insurgencies end in some form of 
political settlement. Such settlement would require inclusive Afghan-
Afghan discussions. Whether the Taliban as a group, or even specific 
factions or individual Taliban leaders, are interested in a sincere, 
negotiated compromise in Afghanistan remains to be determined, but 
should not be ruled out. Prospective talks with the group should gain 
outcomes consistent with the Secretary of State's guidance last year, 
including the Taliban cutting ties with al Qaeda, stopping violence, 
and supporting the Afghan Constitution, including its human rights 
protections.

    31. Senator Chambliss. General Dunford, if confirmed, do you plan 
to negotiate with the Taliban and what assurances would be required of 
the Taliban regarding the rights of women and minorities as part of any 
negotiations?
    General Dunford. I defer to the State Department as the lead on 
reconciliation efforts.

    32. Senator Chambliss. General Dunford, do you plan to negotiate 
with the Haqqani Network, and if so, what assurances will you seek if 
such negotiations take place?
    General Dunford. I defer to the State Department as the lead on 
reconciliation efforts.

                             nato alliance
    33. Senator Chambliss. General Dunford, NATO has repeatedly shown 
itself as a stalwart alliance that will continue to be the premier 
alliance that faces and addresses the challenges of the 21st Century. 
However, with most of the burden falling on U.S. troops and U.S. 
funding, NATO must adjust to meet new demands and provide more funding 
and operational capabilities for the alliance's goals. What efforts 
would you take as the ISAF Commander to ensure that NATO's future and 
ongoing operations and growth are not placed solely on the shoulders of 
the United States?
    General Dunford. Coalition cohesion has been a source of strength 
in our campaign, and I am dedicated to ensuring it remains so. NATO has 
affirmed that they are fully committed to the stability and security of 
Afghanistan. If confirmed, I will regularly engage NATO and coalition 
members to ensure that ISAF continues to have the capabilities needed 
to perform the essential core tasks to which we committed ourselves in 
support of the Government of the Islamic Republic of Afghanistan.

    34. Senator Chambliss. General Dunford, referencing NATO activities 
in Afghanistan, how do you judge the staying power of our NATO allies?
    General Dunford. Our NATO partners have served with honor and 
distinction throughout this conflict. I judge our NATO allies to be 
committed to a successful transition as they have affirmed, along with 
the United States, in both the 2010 Lisbon Conference Declaration and 
the 2012 Chicago Summit Declaration.

    35. Senator Chambliss. General Dunford, to what extent are the 
allies influenced by the United States' statement that we will withdraw 
troops in 2014 or earlier?
    General Dunford. I believe the pace at which we drawdown our troops 
to our post-2014 force posture is a consideration in our allies' 
decisionmaking process for their own force levels in Afghanistan.

                    afghan special operations forces
    36. Senator Chambliss. General Dunford, in April, the United States 
and Afghanistan signed a memorandum of understanding on putting Afghan 
forces in the lead on direct-action counterterrorism missions in 
Afghanistan, which included night raids. Afghan security forces should 
be in the lead in the conduct of night raids, with U.S. forces in a 
support role. One of the new Afghanistan commands that is in 
development is the ANA Special Operations Command, which will help to 
sustain the move to the Afghan security lead. If confirmed, what steps 
do you plan to take to ensure that Afghan capacity to conduct security 
and special operations continues to grow?
    General Dunford. A well-equipped and professionally led ANSF SOF 
will continue to be a critical component of ANSF as we reduce coalition 
forces. Growth in capacity and capability equates to progress in 
operational effectiveness. If confirmed, I will seek to sustain and 
expand their progress by supporting the development of key indigenous 
capabilities such as intelligence collection and analysis capacities, 
air mobility capabilities, and an independent logistical architecture, 
which are important for operational independence.

    37. Senator Chambliss. General Dunford, you have noted that as U.S. 
and NATO forces draw down in Afghanistan, SOF will continue to play a 
vital role by disrupting insurgent networks and building capable Afghan 
SOF as well as advising and training the ANSF. With the drawdown and a 
possibility of reduced budgets, what are your plans to ensure that 
these types of operations receive priority and mitigate the risks 
associated with a reduction of forces?
    General Dunford. Capable, well equipped, and professionally led 
ANSF SOF mitigates the risk associated with a reduction of coalition 
forces. Growth in capacity and capability equates to progress in 
operational effectiveness. Autonomy and competency of Afghan special 
military and police units continues to improve--100 percent of ANA 
Special Operation Forces missions are Afghan led, and approximately 60 
percent of Provincial Response Company police missions are Afghan led. 
If confirmed, I will seek to sustain and expand their progress by 
supporting the development of key indigenous capabilities such as 
intelligence collection and analysis capacities, air mobility 
capabilities, and an independent logistical architecture, which are 
important for operational independence.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                         green-on-blue attacks
    38. Senator Wicker. General Dunford, since 2007, many U.S., 
international coalition, and Afghan personnel have been killed or 
wounded in attacks by ANSF personnel or ANSF impersonators. Although 
such attacks are not indicative of the quality and dedication of the 
overwhelming majority of ANSF personnel who serve alongside coalition 
forces with honor and distinction, they raise concerns about the 
sufficiency of the procedures used to screen, vet, and monitor ANSF 
personnel, as well as whether there is a need for additional training 
of coalition servicemembers on how to identify insider threats and on 
appropriate operational procedures while working with ANSF units. In 
March, in front of this same committee, I engaged your predecessor 
about the surge in Green-on-Blue attacks. What is your current 
assessment of the insider threat facing our troops in Afghanistan from 
rogue elements and individuals within the Afghan Security Forces?
    General Dunford. If confirmed, I will continue to make countering 
this threat a top priority. We have made progress in this area but we 
can't afford to be complacent. It is critical that our continuing 
actions include constant monitoring and assessment of insider attacks 
and potential threats. I will do everything within my power to ensure 
ISAF is properly resourced to assess and counter this threat.

    39. Senator Wicker. General Dunford, how many ISAF and American 
personnel have died as a result of Green-on-Blue attacks?
    General Dunford. Since May 2007, when insider attack data began 
being tracked, 124 ISAF members have been killed in action. Of those, 
75 were Americans.

    40. Senator Wicker. General Dunford, how many such attacks are 
still currently under investigation?
    General Dunford. Two.

                          personnel screening
    41. Senator Wicker. General Dunford, in fiscal year 2011, Congress 
provided $11.6 billion to the Afghan Security Forces Fund which funds 
the manning, training, equipping, operations, and sustainment of the 
Afghan Security Forces.
    Building the capacity of the Afghan Security Forces is a key 
element of our Afghanistan policy. I believe a successful Afghan 
security infrastructure will rely in part on two critical pillars: (1) 
the trustworthiness and loyalty of personnel; and (2) their capacity to 
adequately execute their job functions.
    I fear that if left unaddressed, the intake of rogue and 
incompetent personnel into the Afghan military and security services 
could have a catastrophic impact on Afghanistan's viability as a secure 
and stable state.
    I believe we must do all we can to avoid a garbage-in/garbage-out 
situation with regard to our training programs in Afghanistan. How are 
we screening applicants for our training programs?
    General Dunford. Recruits for the Afghan National Security Forces 
are subject to an eight-step vetting process, supported by information 
sharing and coalition oversight. My initial assessment is that the 
standard established by the eight-step vetting process is sound; the 
challenge is the quality of compliance with those standards and working 
through the high volume of personnel.
    Recognizing this, the Ministry of Defense (MOD) has doubled the 
number of counterintelligence personnel in the ANA, in order to ensure 
that they have sufficient personnel with the appropriate training to 
ensure compliance with those standards at recruiting centers and 
training centers. The NDS is also focused on mitigating insider 
threats, and is working to improve screening during initial entry and 
monitoring behavior of personnel in units. MOD and Ministry of Interior 
(MOI) are also revetting select ANSF members and reinvestigating their 
backgrounds.
    ISAF is also providing counterintelligence and other personnel to 
assist ANSF in improving capabilities for screening, and has increased 
the number of personnel this year. ANSF personnel selected for training 
in the States are rigorously screened prior to being issued a visa; 
ANSF personnel undergoing ISAF-provided training in Afghanistan also 
receive additional ISAF screening.

    42. Senator Wicker. General Dunford, what tools do you utilize to 
ensure that prospective applicants are not members of the Taliban?
    General Dunford. ISAF and the ANSF have introduced a program of 
countermeasures which include strengthening the vetting and screening 
processes for new recruits. The 8-step vetting process includes 
criminal records checks as well as biometric collection. If confirmed, 
I will continue to make countering this threat a top priority.

    43. Senator Wicker. General Dunford, are applicants literate and 
willing to learn?
    General Dunford. As focus has shifted from growth to force 
development, literacy training efforts have likewise begun shifting to 
increasing the number of ANSF personnel at the international standard 
for functional literacy. Literacy continues to be a challenge in 
professionalizing and training the Afghan forces. Convincing local 
commanders to provide troops with sufficient time to complete literacy 
training is a primary challenge. If confirmed, I will focus ISAF's 
efforts towards these challenges, building on the current signs of 
progress.

    44. Senator Wicker. General Dunford, how capable are the current 
graduates of our training programs in Afghanistan?
    General Dunford. Soldiers and policemen complete training with 
basic skills that prepare them to operate in the fielded force. My 
assessment of the ANSF is that they are an increasingly capable force 
which has expanded security gains in many areas. Although capability is 
not uniform across the ANSF, some units are now highly effective, and 
now over 80 percent of military operations are led by the ANSF.

    45. Senator Wicker. General Dunford, are graduates of our training 
programs able to comprehend American military values of respect for 
civilian authority, rule of law, et cetera?
    General Dunford. Graduates are able to comprehend values and ethics 
from the Afghan training programs. Embedded within the Programs of 
Instruction taught at the ANP Training Centers are curriculums covering 
governance, rule of law, ethics, codes of conduct, human rights, and 
cultural differences. All courses are based on international standards 
and reflect values that are integral for the ANP to do Rule of Law 
policing in Afghanistan. The ANA also promotes civil and military 
values as part of its training programs at all levels. Additionally, 
trainers reinforce adherence to the GIRoA Oath, similar to the Oath of 
Office our military members take upon entry in to service. 
Additionally, there are joint Afghan/Coalition Training Assessment 
Teams that go to the training centers and assess how the Afghan 
trainers are delivering training and its effectiveness. Our ISAF 
advisors and trainers, under the Security Force Assistance model, also 
ensure these values are integrated into their daily operations.

    46. Senator Wicker. General Dunford, are these graduates able to 
effectively lead their own forces and pass along knowledge obtained 
from their American trainers?
    General Dunford. The ANSF continues to improve and increase 
leadership development by focusing on increasing both the quality and 
capacity of officer and non-commissioned officer training programs, to 
include through established and further developing academies and 
courses. Currently, Afghans are delivering more than 85 percent of the 
instruction in all training sites. The number of ANSF units rated 
Independent with Advisors and Effective with Advisors has continuously 
increased. Nonetheless, leadership continues to be a challenge within 
the ANSF and the Security Force Assistance Teams will continue to 
advise Afghan leaders through the transition.

                            haqqani network
    47. Senator Wicker. General Dunford, last September, then-Chairman 
of the Joint Chiefs of Staff, Admiral Mike Mullen, told the Senate 
Armed Services Committee that the Haqqani Network was a veritable arm 
of the Inter-Services Intelligence (ISI) agency. In September 2011, 
former U.S. Ambassador to Afghanistan, Ryan Crocker, officially blamed 
the Haqqani Network for a nearly day-long attack on the U.S. Embassy in 
Kabul. In the ISAF's Joint Command daily morning operational updates, 
there are frequent mentions of the Haqqani Network. This demonstrates 
the level of influence the Haqqani Network has on Afghanistan. How much 
influence does the Haqqani Network have in Afghanistan?
    General Dunford. The Haqqani Taliban Network is most influential in 
Paktia, Paktika, and Khowst Provinces, its primary areas of operation. 
It remains the most virulent strain of the insurgency.

    48. Senator Wicker. General Dunford, is the Pakistan military and 
the ISI making progress in dealing with the Haqqani Network, 
specifically in the area of North Waziristan?
    General Dunford. Pakistan has committed significant amounts of 
blood and treasure to defeat violent extremist groups waging war 
against the Pakistan nation. With that said, Pakistan has not taken the 
action we would like them to take against Afghan-focused extremist 
groups, including the Haqqani Network. If confirmed I will stress to 
Pakistan that these groups share common beliefs and goals and that 
eliminating their safe havens and reducing their activities will 
address a threat to Pakistan's sovereignty and people.

                          afghan local police
    49. Senator Wicker. General Dunford, ISAF Overwatch is an enduring 
operational and administrative affiliation between ISAF troops and VSO/
ALP sites that have transitioned to ANSF primary partnering 
responsibility. ISAF Overwatch is designed to minimize risk, ensure 
consistent support, and enhance the success of Afghan Security Forces. 
This approach enables ISAF to reassign freed-up ISAF troops to generate 
additional ALP in other districts. What is your assessment of the ALP 
program?
    General Dunford. The ALP program was established by a President 
Karzai decree in August 2010. It is a culturally acceptable and 
effective method of social mobilization. As a security line of effort 
controlled by the Afghan MOI, the program forms a resilient, relevant, 
accountable, and cost effective local defense force. The ALP program 
enjoys a high degree of popularity and support, and its growth expands 
the influence of the Afghan Government in key rural areas critical to 
denying insurgents safe haven and influence, and establishes conditions 
for enduring relative stability.

    50. Senator Wicker. General Dunford, will the size of the ALP be 
significant in capability and capacity to support the withdrawal of 
ISAF in 2014?
    General Dunford. Once we reach the congressionally authorized force 
of 30,000 ALP, an evaluation of forces, capacity, capability and 
requirements will be necessary. If confirmed I will continue to work 
closely with the Afghan Ministry of Interior to assess this important 
program and ensure it supports the broader strategic goals in 
Afghanistan. We will remain vigilant throughout the withdrawal and 
recommend those solutions which offer the greatest opportunity for 
stability and security for the Afghan people.

    51. Senator Wicker. General Dunford, when do you expect transition 
to ISAF Overwatch to begin in the south?
    General Dunford. Tactical overwatch is a transitory event defined 
by an ALP site's maturity and self-sufficiency. If confirmed I will 
continue to assess each ALP district's capability to operate 
independently from their partnered unit, in concert with other ANSF and 
under GIRoA leadership. We envision transition in the South to commence 
by January 2013, if current trends of developmental progress continue. 
With the successful connection of formal and informal governance at the 
district level and ALP sustainment and support systems in place, GIRoA 
will assume full responsibility for the entirety of southern 
Afghanistan by December 2014.

                                 drones
    52. Senator Wicker. General Dunford, on November 1, 2012, Iranian 
warplanes shot at an American military surveillance drone flying over 
the Persian Gulf near Iran. The Predator drone was flying in 
international airspace and luckily was not hit. The shooting, which 
involved two Russian-made Su-25 jets, was the first known instance of 
Iranian warplanes firing on an American surveillance drone. Do you 
anticipate the Iranians to continue these acts of aggression on our 
drones?
    General Dunford. I am generally aware of the circumstances 
surrounding this incident, but do not know at this time why Iran took 
the action it did or whether similar actions in the future are likely.

    53. Senator Wicker. General Dunford, do you have any reason to 
believe that Iran would take aim at drones in Afghan airspace?
    General Dunford. I am not aware of any pattern of Iranian violation 
of Afghan airspace. Therefore barring further significant deterioration 
in U.S.-Iranian relations, I would not expect Iran to engage U.S. 
drones in Afghan airspace.

    54. Senator Wicker. General Dunford, what is your vision for the 
use of drones in the war: will they increase or decrease?
    General Dunford. ISAF will continue to use unmanned aerial systems 
(UAS) to provide the flexibility needed to ensure ISAF and the ANSF can 
conduct effective operations. The frequency of UAS utilization will 
depend on mission requirements and operational needs as we move 
forward.

    55. Senator Wicker. General Dunford, how effective are drone 
strikes in your area of responsibility?
    General Dunford. ISAF continues to effectively use UAS to augment 
manned platforms, underpinning the flexibility needed to ensure ISAF 
and the ANSF can conduct effective operations. Drone strikes have 
caused insurgents to adjust their operating procedures and have 
degraded leadership effectiveness and command and control.
                                 ______
                                 
    [The nomination reference of Gen. Joseph F. Dunford, Jr., 
USMC, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 13, 2012.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Marine 
Corps to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be General.

    Gen. Joseph F. Dunford, Jr., 0000
                                 ______
                                 
    [The biographical sketch of Gen. Joseph F. Dunford, Jr., 
USMC, which was transmitted to the committee at the time the 
nomination was referred, follows:]
      Resume of Career Service of Gen Joseph F. Dunford, Jr., USMC
Date of Rank: 23 Oct 10.

Date of Birth: 23 Dec 55.

Date Commissioned: 29 May 77.

MRD: 1 Jul 17.

Education/Qualifications:
    Saint Michael's College, BA, 1977
    Georgetown University, MA, 1985
    Fletcher School of Law and Diplomacy, MA, 1992
    The Basic School, Quantico, 1977
    Amphibious Warfare School (Resident), 1985
    Marine Corps Command and Staff College Non-Resident, 1992
    USA War College, 1999
    CAPSTONE, 2005
    JFLCC, 2007
    Pinnacle, 2009
    Senior Executive EEO Seminar, 2010
    Infantry Officer

Commands:
    Commanding General, I Marine Expeditionary Force; and Commander, 
U.S. Marine Corps Forces Central Command (LtGen: Sep 09-0ct 10)
    Assistant Division Commander, 1st Marine Division (BGen: Jul 04-Jun 
05)
    Commanding Officer, 5th Marines, 1st Marine Division (Col: May 01-
May 03)
    Commanding Officer, 2d Battalion, 6th Marines, 2d Marine Division 
(LtCol: Mar 96-Jul 98)

Joint Assignments:
    Vice Director for Operations, J-3, Joint Staff (BGen: Jun 07-Aug 
08)
    Executive Assistant to the Vice Chairman of the Joint Chiefs of 
Staff; Chief, Global and Multilateral Affairs Division, J-5, Joint 
Staff (Col: Jun 99-May 01)

Service Staff Assignments:
    Deputy Commandant for Plans, Policies, and Operations (LtGen: Aug 
08-Aug 09)
    Director, Operations Division (BGen: Aug 05-Jun 07)
    Chief of Staff, 1st Marine Division (Col: May 03-Jul 04)
    Executive Officer, 6th Marines, 2d Marine Division (LtCol: Jul 95-
Mar 96)
    Senior Aide-de-Camp to the Commandant of the Marine Corps (LtCol: 
Dec 92-Jul 95)
    Marine Officer Instructor, College of the Holy Cross (Maj: Aug 89-
Jun 91)
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Joseph F. 
Dunford, Jr., USMC, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Joseph F. Dunford, Jr.

    2. Position to which nominated:
    Commander, International Security Assistance Force.

    3. Date of nomination:
    November 13, 2012.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 23, 1955; Boston, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Ellyn A. Dunford (Maiden Name: Ellyn A. Sartucci).

    7. Names and ages of children:
    Joseph F. Dunford III, age: 24; Patrick T. Dunford, age: 22; 
Kathleen A. Dunford, age: 21.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Marine Corps Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Awarded Colonel Donald Cook Award for Citizenship, from St. 
Michael's College, VT.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                   Gen. John F. Dunford, Jr., USMC.
    This 27th day of August, 2012.

    [The nomination of Gen. John F. Dunford, Jr., USMC was 
reported to the Senate by Chairman Levin on November 23, 2012, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on December 3, 2012.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.

                                 <all>
      

</pre></body></html>
